<html>
<title> - S. Hrg. 109-847 NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 109TH CONGRESS</title>
<body><pre>[Senate Hearing 109-847]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 109-847

        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     FIRST SESSION, 109TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

  JOHN PAUL WOODLEY, JR.; BUDDIE J. PENN; ADM WILLIAM J. FALLON, USN; 
   HON. ANTHONY J. PRINCIPI; HON. GORDON R. ENGLAND; ADM MICHAEL G. 
 MULLEN, USN; KENNETH J. KRIEG; LT. GEN. MICHAEL V. HAYDEN, USAF; GEN. 
PETER PACE, USMC; ADM EDMUND P. GIAMBASTIANI, JR., USN; GEN. T. MICHAEL 
MOSELEY, USAF; AMBASSADOR ERIC S. EDELMAN; DANIEL R. STANLEY; JAMES A. 
  RISPOLI; LT. GEN. NORTON A. SCHWARTZ, USAF; RONALD M. SEGA; PHILIP 
  JACKSON BELL; JOHN G. GRIMES; KEITH E. EASTIN; WILLIAM C. ANDERSON; 
 HON. MICHAEL W. WYNNE; DR. DONALD C. WINTER; HON. JOHN J. YOUNG, JR.; 
J. DORRANCE SMITH; DELORES M. ETTER; GEN BURWELL B. BELL III, USA; AND 
                     LT. GEN. LANCE L. SMITH, USAF

                               ----------                              

 FEBRUARY 15, 17; MARCH 15; APRIL 19, 21; JUNE 29; JULY 28; OCTOBER 6, 
                              25, 27, 2005

                               ----------                              

         Printed for the use of the Committee on Armed Services


NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             109TH CONGRESS

                                                        S. Hrg. 109-847

        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     FIRST SESSION, 109TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

  JOHN PAUL WOODLEY, JR.; BUDDIE J. PENN; ADM WILLIAM J. FALLON, USN; 
   HON. ANTHONY J. PRINCIPI; HON. GORDON R. ENGLAND; ADM MICHAEL G. 
 MULLEN, USN; KENNETH J. KRIEG; LT. GEN. MICHAEL V. HAYDEN, USAF; GEN. 
PETER PACE, USMC; ADM EDMUND P. GIAMBASTIANI, JR., USN; GEN. T. MICHAEL 
MOSELEY, USAF; AMBASSADOR ERIC S. EDELMAN; DANIEL R. STANLEY; JAMES A. 
  RISPOLI; LT. GEN. NORTON A. SCHWARTZ, USAF; RONALD M. SEGA; PHILIP 
  JACKSON BELL; JOHN G. GRIMES; KEITH E. EASTIN; WILLIAM C. ANDERSON; 
 HON. MICHAEL W. WYNNE; DR. DONALD C. WINTER; HON. JOHN J. YOUNG, JR.; 
J. DORRANCE SMITH; DELORES M. ETTER; GEN BURWELL B. BELL III, USA; AND 
                     LT. GEN. LANCE L. SMITH, USAF

                               __________

 FEBRUARY 15, 17; MARCH 15; APRIL 19, 21; JUNE 29; JULY 28; OCTOBER 6, 
                              25, 27, 2005

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
34-348 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

        Judith A. Ansley, Staff Director, before August 1, 2005

         Charles S. Abell, Staff Director, after August 1, 2005

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                           february 15, 2005

Nominations of John Paul Woodley, Jr., to be Assistant Secretary 
  of the Army for Civil Works; Buddie J. Penn to be Assistant 
  Secretary of the Navy for Installations and Environment; and 
  ADM William J. Fallon, USN, for Reappointment to the Grade of 
  Admiral and to be Commander, U.S. Pacific Command..............     1

Statements of:

Symms, Hon. Steven D., Former U.S. Senator from the State of 
  Idaho..........................................................     4
Fallon, ADM William J., USN, for Reappointment to the Grade of 
  Admiral and to be Commander, U.S. Pacific Command..............     5
Woodley, John Paul, Jr., to be Assistant Secretary of the Army 
  for Civil Works................................................     6
Penn, Buddie J., to be Assistant Secretary of the Navy for 
  Installations and Environment..................................     7

                           february 17, 2005

To Consider Certain Pending Civilian and Military Nominations....    67

                             march 15, 2005

Nomination of Hon. Anthony J. Principi to be a Member of the 
  Defense Base Closure and Realignment Commission................    73

Statement of:

Principi, Anthony Joseph, to be a Member of the Defense Base 
  Closure and Realignment Commission.............................    80

                             april 19, 2005

Nominations of Hon. Gordon R. England to be Deputy Secretary of 
  Defense; and ADM Michael G. Mullen, USN, for Reappointment to 
  the Grade of Admiral and to be Chief of Naval Operations.......   111

Statements of:

Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.   113
England, Hon. Gordon R., to be Deputy Secretary of Defense.......   116
Mullen, ADM Michael G., USN, for Reappointment to the Grade of 
  Admiral and to be Chief of Naval Operations....................   149

                                 (iii)
                             april 21, 2005

Nominations of Kenneth J. Krieg to be Under Secretary of Defense 
  for Acquisition, Technology, and Logistics; and Lt. Gen. 
  Michael V. Hayden, USAF, to the Grade of General and to be 
  Principal Deputy Director of National Intelligence.............   205

Statements of:

Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........   206
Sununu, Hon. John E., U.S. Senator from the State of New 
  Hampshire......................................................   207
Krieg, Kenneth J., to be Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................   211
Hayden, Lt. Gen. Michael V., USAF, to the Grade of General and to 
  be Principal Deputy Director of National Intelligence..........   229

                             june 29, 2005

Nominations of Gen. Peter Pace, USMC, for Reappointment to the 
  Grade of General and to be Chairman, Joint Chiefs of Staff; ADM 
  Edmund P. Giambastiani, Jr., USN, for Reappointment to the 
  Grade of Admiral and to be Vice Chairman, Joint Chiefs of 
  Staff; Gen. T. Michael Moseley, USAF, for Reappointment to the 
  Grade of General and to be Chief of Staff of the Air Force; 
  Ambassador Eric S. Edelman to be Under Secretary of Defense for 
  Policy; Daniel R. Stanley to be Assistant Secretary of Defense 
  for Legislative Affairs; and James A. Rispoli to be Assistant 
  Secretary of Energy for Environmental Management...............   287

Statements of:

Allen, Hon. George, U.S. Senator from the State of Virginia......   290
Pace, Gen. Peter, USMC, for Reappointment to the Grade of General 
  and to be Chairman, Joint Chiefs of Staff......................   297
Giambastiani, ADM Edmund P., Jr., USN, for Reappointment to the 
  Grade of Admiral and to be Vice Chairman, Joint Chiefs of Staff   298
Moseley, Gen. T. Michael, USAF, for Reappointment to the Grade of 
  General and to be Chief of Staff of the Air Force..............   298
Dole, Hon. Robert, Former United States Senator from the State of 
  Kansas.........................................................   333
Edelman, Ambassador Eric S., to be Under Secretary of Defense for 
  Policy.........................................................   339
Rispoli, James A., to be Assistant Secretary of Energy for 
  Environmental Management.......................................   341
Stanley, Daniel R., to be Assistant Secretary of Defense for 
  Legislative Affairs............................................   343

                             july 28, 2005

Nominations of Lt. Gen. Norton A. Schwartz, USAF, for Appointment 
  to the Grade of General and to be Commander, U.S. 
  Transportation Command; Ronald M. Sega to be Under Secretary of 
  the Air Force; Philip Jackson Bell to be Deputy Under Secretary 
  of Defense for Logistics and Material Readiness; John G. Grimes 
  to be Assistant Secretary of Defense for Networks and 
  Information Integration; Keith E. Eastin to be Assistant 
  Secretary of the Army for Installations and Environment; and 
  William C. Anderson to be Assistant Secretary of the Air Force 
  for Installations, Environment, and Logistics..................   463

Statements of:

Stevens, Hon. Ted, U.S. Senator from the State of Alaska.........   464
Allard, Hon. Wayne, U.S. Senator from the State of Colorado......   466
Schwartz, Lt. Gen. Norton A., USAF, for Appointment to the Grade 
  of General and to be Commander, U.S. Transportation Command....   472
Sega, Ronald M., to be Under Secretary of the Air Force..........   472
Bell, Philip Jackson, to be Deputy Under Secretary of Defense for 
  Logistics and Materiel Readiness...............................   476
Grimes, John G., to be Assistant Secretary of Defense for 
  Networks and Information Integration...........................   477
Eastin, Keith E., to be Assistant Secretary of the Army for 
  Installations and Environment..................................   478
Anderson, William C., to be Assistant Secretary of the Air Force 
  for Installations, Environment, and Logistics..................   479

                            october 6, 2005

Nominations of Hon. Michael W. Wynne to be Secretary of the Air 
  Force; and Dr. Donald C. Winter to be Secretary of the Navy....   591

Statements of:

Wynne, Hon. Michael W., to be Secretary of the Air Force.........   595
Winter, Donald C., to be Secretary of the Navy...................   597

                            october 25, 2005

Nominations of Hon. John J. Young, Jr., to be Director of Defense 
  Research and Engineering; J. Dorrance Smith to be Assistant 
  Secretary of Defense for Public Affairs; Delores M. Etter to be 
  Assistant Secretary of the Navy for Research, Development, and 
  Acquisition; GEN Burwell B. Bell III, USA, for Reappointment to 
  the Grade of General and to be Commander, United Nations 
  Command/Combined Forces Command, and Commander, United States 
  Forces Korea; and Lt. Gen. Lance L. Smith, USAF, for 
  Appointment to the Grade of General and to be Commander, United 
  States Joint Forces Command and Supreme Allied Commander 
  Transformation.................................................   677

Statements of:

Stevens, Hon. Ted, U.S. Senator from the State of Alaska.........   678
Inouye, Hon. Daniel K., U.S. Senator from the State of Hawaii....   679
Bell, GEN Burwell B., III, USA, for Reappointment to the Grade of 
  General and to be Commander, United Nations Command/Combined 
  Forces Command, and Commander, United States Forces Korea......   708
Smith, Lt. Gen. Lance L., USAF, for Appointment to the Grade of 
  General and to be Commander, United States Joint Forces Command 
  and Supreme Allied Commander Transformation....................   708

                            october 27, 2005

To Consider Certain Pending Military and Civilian Nominations....   811

APPENDIX.........................................................   817

 
NOMINATIONS OF JOHN PAUL WOODLEY, JR., TO BE ASSISTANT SECRETARY OF THE 
ARMY FOR CIVIL WORKS; BUDDIE J. PENN, TO BE ASSISTANT SECRETARY OF THE 
NAVY FOR INSTALLATIONS AND ENVIRONMENT; AND ADM WILLIAM J. FALLON, USN, 
  FOR REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. 
                            PACIFIC COMMAND

                              ----------                              


                       TUESDAY, FEBRUARY 15, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:16 p.m. in room 
SR-222, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, Thune, 
and Levin.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William C. Greenwalt, 
professional staff member; Gregory T. Kiley, professional staff 
member; Thomas L. MacKenzie, professional staff member; Lucian 
L. Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; Scott W. Stucky, general counsel; 
and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Peter K. Levine, minority counsel; and Michael J. 
McCord, professional staff member.
    Staff assistant present: Pendred K. Wilson.
    Committee members' assistants present: Matt Zabel, 
assistant to Senator Thune; Davelyn Noelani Kalipi, assistant 
to Senator Akaka; and William K. Sutey, assistant to Senator 
Bill Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. I would like to apologize for the delay. 
The Senate, in my many privileged years to be here, does very 
little or everything at once. We have a vote going on and so 
everybody went. Senator Levin--I met him, and he'll be here 
just as soon as he completes his vote. Therefore, I wanted to 
get underway, because we have lots of wonderful people here 
this afternoon, especially those young people who have come 
from far and wide to visit with us.
    So I welcome you all before the committee this afternoon. 
Admiral Fallon, John Paul Woodley, Buddie J. Penn, we thank you 
very much. Our distinguished colleague, Senator Symms, who--I 
guess we started together, didn't we, in this institution 27 
years ago?
    Senator Symms. I think I was 2 years behind you, sir.
    Chairman Warner. Two years.
    Senator Symms. I came in 1980. That was on the House side.
    Chairman Warner. We welcome you, Senator.
    Particularly, we thank the families--the spouses and the 
children--for being here. I have conducted so many of these 
hearings. As a matter of fact, I sat at that desk myself many 
years ago. It was in February 1969, give or take a day. I was 
right about here. The family support is so essential to these 
individuals who step up and take on these challenging positions 
in our overall structure for the Nation's defense.
    So I thank all of you for joining us today, and I thank you 
for your continuing support as the nominees undertake their 
arduous and challenging duties.
    Senator Symms, again, we welcome you, and I will just 
finish this brief statement, and then we'll turn to your 
introduction.
    Admiral Fallon has been nominated to be Commander, United 
States Pacific Command (PACOM), and is presently serving as 
Commander, Fleet Forces Command, and Commander, U.S. Atlantic 
Fleet, in Norfolk, Virginia. He has compiled an extremely 
distinguished career as a naval officer since his commissioning 
in 1967.
    That's interesting. That does go back. You were a young 
ensign, I expect, when I came aboard, then. So was the CNO. He 
reminds me of that frequently. [Laughter.]
    Well, you've done a lot better than I've done. Look at all 
that gold braid. You've really piled it up.
    Your combat service includes tours of duty during the 
Vietnam War as a naval flight officer with Recon Attack 
Squadron 5, as Commander of Carrier Air Wing 8, deployed aboard 
U.S.S. Theodore Roosevelt during Operation Desert Storm, and as 
Commander, Battle Force Sixth Fleet during Operation Deliberate 
Force over Bosnia in 1995. While not flying, the Admiral served 
as Deputy Commander and Chief of Staff of the U.S. Atlantic 
Fleet, Deputy Commander of the U.S. Atlantic Command, and, from 
October 2000 to 2003, the 31st Vice Chief of Naval Operations.
    If confirmed--and I predict he will be--Admiral Fallon will 
become the 22nd navy officer who has been in command of the 
Pacific Command, joining many distinguished predecessors, 
including Admiral John S. McCain, Jr., who held that position 
from 1968 to 1972. In my visits to Vietnam, I would stay at his 
house. They were the most memorable experiences, and he was a 
great teacher.
    So we congratulate you, Admiral, and your lovely wife and 
family, and thank you for your willingness to continue to serve 
in this new capacity.
    Mr. Woodley has been nominated to be the Assistant 
Secretary of the Army for Civil Works. Mr. Woodley appeared 
before this Committee in February 2003 in connection with his 
earlier nomination for this position. The record shows Mr. 
Woodley received a recess appointment from the President on 
August 22, 2003, and served through the end of the 108th 
Congress.
    Prior to his Federal service with the Department of 
Defense, Mr. Woodley served in senior leadership roles in the 
State Government of Virginia--where I first had the privilege 
of knowing you--as Deputy Attorney General for Government 
Operations, beginning in 1994; and as Secretary of Natural 
Resources, from January 1998 until October 2001.
    Mr. Woodley's military service included active-duty 
assignments in Germany and the Pentagon, with the Army's Judge 
Advocate General Corps, from 1979 to 1985. He continued to 
serve as a member of the Army Reserve component, retiring in 
2003 with the rank of lieutenant colonel.
    Mr. Woodley, we are pleased to have you and your family 
join us again today.
    We also welcome Buddie Penn, who has been nominated to be 
the Assistant Secretary of the Navy for Installations and 
Environment. Mr. Penn is presently serving as the Director of 
Industrial Base Capabilities and Readiness with the Office of 
the Secretary of Defense, a position he has held since October 
2, 2001.
    I would note that Mr. Penn is also a naval aviator, albeit 
a retired naval aviator. He flew the renowned A3 Sky Warrior, 
the only strategic bomber ever built for the United States 
Navy, which, because of its size and speed, was--I didn't know 
we referred to it as a ``whale.'' Who dug that up? [Laughter.]
    All I know, that thing came in for a fierce landing and 
popped that chute, and if the chute hadn't opened, he would 
have gone off the end of the runway. I expect you thought of 
that more than once.
    On that basis, alone, Mr. Penn, I believe we can count on 
you to perform with tremendous speed in this new position. 
[Laughter.]
    Mr. Penn flew--what a modest man--all of these wonderful 
men--flew in 16 types of aircraft during his naval career. 
Before retiring at the rank of captain, he held such key 
assignments as Air Officer aboard the U.S.S. America, Special 
Assistant to the Chief of Naval Operations, and Deputy Director 
of the Navy Office of Technology Transfer and Security 
Assistance.
    We thank you and your lovely family, again, for taking on 
this responsibility.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    I, first, join you in welcoming Mr. Woodley, Mr. Penn, 
Admiral Fallon, and their families to the committee today. We 
thank all three of you and your families for your many years of 
service and for your continued willingness to serve.
    I notice our former colleague, Senator Steve Symms, is 
here. It's great to have you back and to see you.
    Mr. Woodley and Mr. Penn share a common background, having 
served first in the military, and, more recently, in civilian 
leadership positions at the Department of Defense.
    Mr. Woodley is in the unusual position of being the nominee 
for a position in which he has already served for almost 2 
years, and that gives him an insight into the challenges he 
will face.
    As our chairman noted, Mr. Penn began his career as a naval 
aviator, then took a series of positions in the defense 
industry after his retirement, and, during the last 2 years, 
has served as the Department of Defense's Director of 
Industrial Base Capabilities and Readiness.
    Admiral Fallon is an outstanding officer with a 
distinguished 38-year career, culminating in his service over 
the last 4 years as the Vice Chief of Naval Operations and the 
Commander of the U.S. Atlantic Fleet.
    Admiral Fallon, we're delighted at your willingness to 
continue to serve, and, if confirmed, you will assume command 
of the United States Pacific Command at a time of crisis and 
change and, hopefully, opportunity.
    We face a nuclear crisis on the Korean Peninsula, 
highlighted last week by the North Korean Government's 
declaration that they have nuclear weapons and that they did 
not wish to continue the Six-Party Talks. It was compounded by 
the fact that their offer to the United States to meet 
bilaterally was rejected. At the same time, we're seeing in the 
Pacific the emergence of China and India as political military 
powers, the maturation of Japan as a strategic partner, and the 
need to work more closely with the countries in Southeast Asia 
to fight regional and global terrorist groups.
    So I join our chairman in welcoming you, and look forward 
to your testimony.
    Thank you.
    Senator Inhofe [presiding]. Thank you, Senator.
    Senator Symms, are you here for the purpose of an 
introduction?
    Senator Symms. Yes, sir.
    Senator Inhofe. Would you please proceed?

STATEMENT OF HON. STEVEN D. SYMMS, FORMER U.S. SENATOR FROM THE 
                         STATE OF IDAHO

    Senator Symms. Thank you, Mr. Chairman, members of the 
committee. It's a real privilege for me to be here to introduce 
to you the President's nominee for Assistant Secretary of the 
Navy for Installations and Environment, my good friend, Buddie 
J. Penn.
    Mr. Penn was raised in a small town in Indiana, and his 
parents taught him to chase his dreams. For Buddie, these 
dreams were in an airplane. He received his Bachelor's of 
Science from Purdue University in 1960, and was in the United 
States Navy, training to be a pilot, in 1961. He later gained 
his Master's degree from George Washington University. He also 
received certificates in aerospace safety from the University 
of Southern California, and in national security from the 
Kennedy School at Harvard University.
    Some of Buddie's most significant accomplishments were 
during his 30 years as a naval officer and leader. He 
distinguished himself in service to this Nation repeatedly. 
Among other duties he had, he flew over 250 combat missions in 
Vietnam and received numerous decorations and commendations. 
His love of flying was evident as he amassed over 6,500 hours 
in over 16 different aircraft. It was in the EA-6B, that he 
flew in Vietnam, that he was recognized for his ability. In 
1972, he was named the EA-6B pilot of the year.
    Buddie held many significant commands in the Navy, but the 
one that jumps out the most, as it relates to his nomination to 
the position of Assistant Secretary of Installations and 
Environment, is the position he had as commanding officer of 
the Naval Air Station at North Island, near San Diego. This is 
one of the largest bases in the Navy. Buddie had to become 
familiar with every aspect of its operation. This experience 
will serve him well as the new Assistant Secretary.
    It's a real honor for me be here before this committee to 
recommend a gentleman that I believe should be commended highly 
to the committee and to the full Senate.
    Thank you, Senators.
    Senator Inhofe. Thank you, Senator Symms, for that 
excellent introduction.
    Rather than follow a rigid 5-minute rule, since there are 
three of you, and we do want to give you ample time, please 
don't abuse it, but take whatever time you need for opening 
statements. We'll start with you, Admiral Fallon, and then 
you'll be followed by Mr. Woodley and Mr. Penn.
    Admiral Fallon.

 STATEMENT OF ADM WILLIAM J. FALLON, USN, FOR REAPPOINTMENT TO 
 THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. PACIFIC COMMAND

    Admiral Fallon. Thank you very much, Senator.
    Mr. Chairman, members of the committee, it is really a 
great honor to appear before you today. I am certainly deeply 
honored to serve.
    First, I would like to thank you for your commitment to our 
men and women in uniform. We are really grateful for everything 
you do for our servicemen.
    Senator Inhofe. By the way, if any of you had any family 
members you wanted to introduce, feel free to do that, too.
    Admiral Fallon. Yes, sir.
    I've been privileged to serve in uniform for many years. A 
lot has changed over that time, but one thing that has really 
remained constant, and the strongest support I have, is the 
love and support of my family.
    I am honored to have with me today my wife Mary, behind me, 
and two of my daughters, Susan, and Christy, who is a first-
class midshipman at the Naval Academy. I might add, she was 
just selected for pilot training.
    We are a Navy family. Susan is a development director for 
the Navy League. Her boss, Sheila McNeil, the president of the 
Navy League, is behind me. I can feel her wanting me to make 
sure I put in a plug for that wonderful institution.
    Mary and I are privileged to have two other children, as 
well. One daughter, Barbara, who couldn't be with us, and a 
son, Bill, who is transitioning F-18s out in Lemoore, 
California, and also serving in uniform. He just came back from 
Iraq last year.
    It's also an honor to be here with these two gentlemen, Mr. 
Penn and Mr. Woodley, and to appear before you.
    Mr. Chairman, it is a great privilege for me to be 
nominated by the President to be the Commander of the U.S. 
Pacific Command. I assure you that I intend to work very 
closely with the Secretary of Defense, the Chairman of the 
Joint Chiefs of Staff, and, of course, following a Commander 
like Admiral Tom Fargo is certainly going to be some hard work, 
but I look forward, eagerly, to this opportunity.
    I know that there are many challenges in the Asia-Pacific 
area. If confirmed, I intend to work hard to establish and 
nurture the personal and nation-to-nation relationships that I 
consider essential to the security of the region. It would also 
be a top priority for me to ensure that our forces are prepared 
to execute their operational tasks in a very credible manner, 
that the deterrent value of our force is real and sustainable. 
I certainly intend to support and to sustain our U.S. policy 
objectives in the region.
    There's much for me to learn, but I eagerly look forward to 
working with our superb soldiers, sailors, airmen, and marines, 
and our friends and allies, should I be confirmed. I recognize 
that the sheer size, vast distances, and immense populations of 
the Asia-Pacific region add a unique challenge to our 
operations in that theater, but I am ready to get underway, 
sir.
    Mr. Chairman, members of the committee, if confirmed, I 
look forward to your counsel and guidance and to a regular 
dialogue as we face these challenges in the Asia-Pacific 
region.
    Chairman Warner [presiding]. We look forward to yours, too.
    Admiral Fallon. Thank you, sir. It's a great honor to be 
here. I thank you for the opportunity to appear, and I eagerly 
look forward to your questions.
    Thank you, sir.
    Chairman Warner. We owe an obligation to the President for 
the nomination that he sent forward for your service. Thank you 
very much, Admiral.
    Admiral Fallon. Yes, sir.
    Chairman Warner. Mr. Woodley.

STATEMENT OF JOHN PAUL WOODLEY, JR., TO BE ASSISTANT SECRETARY 
                  OF THE ARMY FOR CIVIL WORKS

    Mr. Woodley. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, I want, first, to 
express my appreciation for your kindness and to associate 
myself with Admiral Fallon's remarks in the spirit of deep 
humility and appreciation at being able to appear before you in 
the company of these two very distinguished public servants.
    I also wish to acknowledge your kindness in allowing me to 
acknowledge my family members--my wife, Priscilla, and my 
daughter, Elizabeth, who are with me today; my other daughter, 
Cornelia, and my younger son, John Paul, are today a bit under 
the weather, and so, unable to be with us.
    Chairman Warner. They're here in spirit.
    Mr. Woodley. Nothing serious, and they are certainly here 
in spirit.
    I'm also mindful, Mr. Chairman, of the confidence expressed 
in me by President Bush and Secretary Rumsfeld in submitting my 
name in nomination for this important post within the 
Department of the Army.
    The Army Corps of Engineers and its civil-works function--
encompassing navigation, flood control, water-resource 
development, and environmental improvement--has, for 200 years, 
contributed greatly to the prosperity and well-being of our 
Nation.
    I deeply appreciate the courtesy of the committee. If 
confirmed, I look forward to working with you, Mr. Chairman, 
and all the Members, to address the vital navigation, flood-
control, water-resource, and environmental challenges of the 
Nation.
    Thank you very much.
    Chairman Warner. Thank you, Secretary Woodley.
    Secretary Penn.

 STATEMENT OF BUDDIE J. PENN TO BE ASSISTANT SECRETARY OF THE 
             NAVY FOR INSTALLATIONS AND ENVIRONMENT

    Mr. Penn. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Levin, distinguished members of this 
committee, it is a sincere honor and privilege to appear before 
you as the nominee for the Assistant Secretary of the Navy for 
Installations and Environment.
    There are several people I would like to thank for helping 
me arrive here. I thank President Bush for his nomination, and 
Defense Secretary Rumsfeld and Navy Secretary England for the 
opportunity to be a part of their team. I sincerely thank 
Senator Symms, a former member of this august group, for his 
introduction, his friendship, and his support. There are 
several people smiling down on us today that willingly helped 
me without being asked.
    Finally, I would like to thank this committee for all you 
do on behalf of our great Nation and those who serve in its 
defense.
    If confirmed, I pledge to work closely with this committee 
and all of Congress in meeting the main challenges ahead.
    To close, Mr. Chairman, I want to thank my family--my wife, 
Loretta, my daughter, Emily, and her husband, Captain Bruce 
Groomes, and my grandsons, Jeff and Jared.
    Chairman Warner. I wonder if the grandsons might stand so 
we can recognize them. Thank you, gentlemen, for coming. 
[Applause.]
    Mr. Penn. I want to thank them for their abiding support 
and love through the years. Their foundation has been a 
mainstay of my life.
    Thank you, Mr. Chairman. That concludes my remarks.
    Chairman Warner. Thank you very much.
    I will now proceed to committee rules, which we follow very 
carefully with all nominees. We've asked our nominees a series 
of advanced policy questions. They have responded to those 
questions. Without objection, I will make the questions and 
their responses part of the record.
    I also have certain standard questions we ask of every 
nominee who appears before the Armed Services Committee. So, 
gentlemen, if you would please respond to each of the following 
questions:
    Have you adhered to the applicable laws and regulations 
governing conflicts of interest?
    Admiral Fallon. Yes, sir.
    Mr. Penn. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of this 
Senate confirmation process?
    Admiral Fallon. No, sir.
    Mr. Penn. No, sir.
    Mr. Woodley. No, sir, I have not. But I should put on the 
record that I am currently serving and performing duties, as 
assigned by the Secretary of the Army, in the capacity of 
Principal Deputy Assistant Secretary.
    Chairman Warner. Yes. The record so reflects.
    Mr. Woodley. We have taken, I believe, great care, Mr. 
Chairman, to ensure that no action in that capacity is, in any 
way, beyond the scope of, and limits of, that office.
    Chairman Warner. Thank you very much.
    Will you ensure your staff complies with the deadlines 
established for requested communications from the Congress of 
the United States, including questions for the record in our 
hearings?
    Admiral Fallon. I shall, sir.
    Mr. Penn. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. Thank you.
    Will you cooperate in providing witnesses and briefers in 
response to the congressional requests?
    Admiral Fallon. Yes, sir.
    Mr. Penn. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
reprisal whatsoever for their testimony or briefings?
    Admiral Fallon. Yes, sir.
    Mr. Penn. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    Admiral Fallon. I do, sir.
    Mr. Penn. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. Do you agree to give your personal views 
and, when asked before this committee, to do so even if those 
views differ from the administration that you are serving?
    Admiral Fallon. Yes, sir.
    Mr. Penn. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner, when requested by a duly constituted committee 
of Congress, or to consult with the committee regarding the 
basis for any good-faith delay or denial that you feel is 
justified in providing such documents?
    Admiral Fallon. Yes, sir.
    Mr. Penn. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. Thank you.
    All right. Now, that covers all the questions that we have 
of formalities. I apologize for having stepped out for a 
minute, but it was very important that I do so.
    Senator Inhofe, I'm going to be here throughout the 
hearing. Would you like to ask the first questions?
    Senator Inhofe. I would, Mr. Chairman, because I have some 
people in my office.
    Chairman Warner. He's the chairman of the Environment and 
Public Works Committee, and I serve on that committee, and I 
understand the demands on his time.
    Senator Inhofe. I thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Inhofe. First of all, I'll start with you, Admiral 
Fallon. You and I share a concern that the Navy has had for 
quite some time, and that is the scarcity we have of live 
ranges for training purposes. We went through what I refer to 
now, in retrospect, as the ``Battle of Vieques,'' which I 
fought diligently and lost after 3 years, but you did the Pace-
Fallon report, which expressed your concern, also, about the 
availability of ranges for the future.
    Would you like to fill us in--because you're going to be 
dealing with these issues in your new position--with what your 
feelings are now about how we're doing with our ranges and our 
ability to train our pilots and our sailors?
    Admiral Fallon. Senator, this is still a big challenge, for 
a couple of reasons. One, because of continued encroachment. 
The increasing population in the U.S. and in other places 
around the world constrains a lot of these ranges, many have 
been around for many decades, but people have filled in around 
them, and encroachment is a serious problem.
    The other issue is that the ranges of many of our weapons 
systems today are vastly greater than the weapons from years 
ago. So, we're challenged to find areas in which we can safely 
test and train with these weapons. We're working on it. We're 
making some progress.
    In my current job with the Navy, we have partnered 
extensively with our service comrades, particularly the Air 
Force, in being able to use some of their ranges, and we have a 
couple of efforts underway right now to attempt to get access 
to some other facilities that we think will help us in this 
area. But it's really critical, and we need help overseas, as 
well.
    Senator Inhofe. I know that's true. I think of Southern 
Sardinia, Cape Wrath, and other places that we are looking for 
joint training, and we're unable to do it. One of the reasons, 
of course, I know you're the Pacific Fleet, but the European 
Union now has imposed environmental hardships on a lot of the 
countries where we have customarily been able to use those 
ranges. I know there are some in the Pacific Command, also. I 
would just want you to look at that and let us know.
    One thing that bothers me is that we have the best men and 
women up there flying around, and the best ones training on 
ships, but it is unfair if they don't have the right resources 
to get that live-fire training.
    Mr. Penn, it's just a delight to know that we'll be working 
with you in your new capacity. Mr. Chairman, I'm not sure 
whether you're aware of this or not, but two of my best friends 
in the other body over there are Congressman Chris Cox and 
Congressman Dana Rohrabacher. They're currently at odds with 
each other over the potential disposition of El Toro Marine 
Base. The issue seems to be that there are groups who want to 
develop it. An amount of money has been offered. An auction is 
going on right now. It's up to about $630 million, as we're 
speaking now, and it could be a little bit higher. On the other 
hand, those who want to use it for airport purposes actually 
came to visit with me a couple of days ago and convinced me 
that, financially speaking, we might be better off to take that 
option.
    One of the reasons is that, under the sale, it would mean 
the Navy would still have to provide the cleanup, but if it 
goes under a lease type of arrangement, the Navy would not.
    Now, there's not a person, of the three of us up here, who 
hasn't visited some of these base realignment and closure 
(BRAC) closed operations, and always the cost of cleanup is 
much, much more than people expect it to be.
    Have you had time to look at that? I know this is a new 
subject and you may not have.
    Mr. Penn. No, sir, I have not.
    Senator Inhofe. All right. What I would like to ask you to 
do is to look at that situation. I know that there's time now 
to exercise either option, even though the train seems to be 
pulling out pretty fast.
    I only have one concern, and that is, what is it going to 
cost the Navy each way? I am talking about net cost, including 
cleanup. I think that's important. In this time, when we're 
short of money for end strength, we're short of money for all 
of our programs, modernization programs and others, we need 
every nickel we can get. So with that in mind as a goal, which 
I'm sure you share, if you would keep me informed of that as we 
move along, I would appreciate it.
    Mr. Penn. Yes, sir. My pleasure.
    Senator Inhofe. Good, good.
    Mr. Woodley, we went through this once before, about 18 
months ago, and I told you, at that time, it's one of the most 
difficult jobs out there. I'm sure if you didn't realize it 
then, you do realize it now. You've done a great job. The Corps 
has done a great job. Part of the jurisdiction is here in this 
committee, but also the committee that I chair, the Committee 
on Environment and Public Works. We have about half the 
jurisdiction there, too. So I am working very closely on a lot 
of your projects, not just in the United States, but in Africa 
and other places. I would say that, with the number-one 
Superfund site in America, you folks are providing a lot of 
cooperation, and I appreciate that very much.
    From your vast experience now of 18 months on the job, is 
there anything that you'd like to share with us that you did 
not anticipate 18 months ago?
    Mr. Woodley. Senator, the one thing that I could say about 
the position is, as difficult as I knew it would be, I did not 
anticipate how much I would enjoy the opportunity to work with 
the men and women of the Corps of Engineers, who are truly a 
national asset. In the work that they do, mostly civilians, 
every day, in every community from coast to coast and around 
the globe, they make America better and they have now for 200 
years. It's an enormous national treasure that is, I think, 
underappreciated in some quarters. I have come to appreciate it 
much, much more than I did when I sat before the committee 
almost 2 years ago.
    Senator Inhofe. Thank you very much, all three of you, and 
I'll be looking forward to working with you in your new 
capacities.
    Mr. Chairman, thank you very much.
    Chairman Warner. Thank you, Senator. I know you're too 
modest to say it, but there are two aviators down there. You're 
an aviator in your own right. You still do some rather 
extraordinary things, which I'm not totally approving of. 
[Laughter.]
    You're too valuable a member of this committee.
    Senator Inhofe. I have a new one coming up that you'll 
enjoy.
    Chairman Warner. Oh, yeah. I don't want to hear about it. 
[Laughter.]
    Are we going to read about it in the paper? [Laughter.]
    Senator Levin.
    Senator Levin. First, Mr. Woodley, a couple of questions 
about the Corps. What is your understanding of the law on the 
following issue? Is the Corps not bound by State water-quality 
standards? Apparently there are some circumstances under which 
the State water-quality standards are not binding on the Corps, 
under some legal doctrine. What is your understanding of those 
circumstances?
    Mr. Woodley. Senator, let me say that when I left the 
Office of the Attorney General of Virginia, in 1998, I stopped 
practicing law and have managed to prevent myself, despite all 
temptation to the contrary, from continuing that in the 
meantime.
    I will give you my understanding. I have a representative 
of the General Counsel here today, and we could confer and give 
you a more precise answer for the record.
    Senator Levin. What's your non-legal understanding?
    Mr. Woodley. My understanding is that there is a provision 
of the Clean Water Act, there's a subsection, I believe, of 
section 404 that provides if a Federal project is specifically 
authorized by Congress in a specific way, that clearly 
indicates a congressional intent, under the preemption 
doctrine, to preempt and override the State, that then, and 
only then, is there a so-called exemption. I will say that it 
is the policy of the administration--and of every 
administration I know of, and of the Corps itself--that this 
will not be used and that we will seek, in every case, to 
comply with State water-control policies. This is a policy that 
I endorse. If confirmed, I would seek to enforce this policy.
    I served, as the chairman mentioned, for many years in the 
State Government of Virginia in the role that would have found 
itself overridden by this policy, and I know, from personal 
experience, I would not have appreciated it very much, nor 
would the people of Virginia have appreciated it very much. So, 
that is my understanding of the law in this context.
    Senator Levin. Thank you. For a rusty lawyer, you did 
pretty good. [Laughter.]
    Is that true, what you just said, both where the State 
standards are less strict, or just where they are more strict 
than the Federal standards? I'm just curious now, too, as a 
former lawyer. I think what you just said is that it's the 
Corps' policy to try to abide by the State standards. If the 
State standards are lesser, do you go down to those standards, 
or do you still maintain the higher level of standards?
    Mr. Woodley. We would follow the Federal standard in that 
instance.
    Senator Levin. Gotcha. Okay, thank you.
    Mr. Woodley, just on one other question. I asked you this 
in my office. I appreciated your visit. It's about the Defense 
Contract Audit Agency's (DCAA) memorandum to the Corps of 
Engineers saying that Halliburton--and this was a January 13, 
2004, urgent memorandum--did not have appropriate systems in 
place to estimate the cost of its work in Iraq. Three days 
later, the Corps issued a new $1.2 billion contract with the 
company to continue its work on the reconstruction of the Iraqi 
oil industry.
    The source-selection document that we looked at indicates 
that Halliburton was given a perfect score in the competition 
for its estimating system, even though the DCAA had sent this 
urgent memo saying that it did not have appropriate systems in 
place.
    I know that you were not personally involved in this issue, 
but we've asked the Army Corps to explain why that DCAA 
memorandum was not taken into account during its appraisal of 
Halliburton's estimating system. We have not gotten a 
responsive answer, and I'm wondering whether you might have one 
for us.
    Mr. Woodley. Senator, I have conferred with my colleague 
who has oversight over that matter, Secretary Bolton, and he 
has indicated to me that he will be preparing a responsive 
answer for the committee.
    Senator Levin. Thank you.
    We look forward to it, and we look forward to it promptly.
    Now, Mr. Penn and Admiral Fallon, a couple of questions for 
you. On January 28, the Washington Post reported that 37 whales 
had beached themselves and died along the North Carolina shore, 
``soon after Navy vessels in a deep-water training mission off 
the coast used powerful sonar as a part of the exercise.'' It 
said that scientists from the National Oceanic and Atmospheric 
Administration (NOAA) were looking into the incident to try to 
determine the cause of the beachings.
    Admiral Fallon, you were Commander of the U.S. Atlantic 
Fleet. You're an expert on the Marine Mammal Protection Act and 
the impact of Navy activities on marine mammals, and I know you 
care about marine mammals. Being a Navy man, can you give us 
your take as to whether or not the Navy has been able to figure 
out whether it had any role in the beachings?
    Admiral Fallon. Yes, sir, Senator. Thanks very much. I 
really do care. I've spent a lot of time in business having to 
do with the Marine Mammal Protection Act in the last several 
years. We're investigating this incident. I can tell you that 
the initial information that was provided to me indicates that 
we had two groups of ships in the western Atlantic that were 
using sonars in that general period of time. I haven't seen the 
timelines to see exactly where they are. One group was several 
hundred miles away. I find it pretty hard to believe that there 
could have been any interaction there, but we're going to check 
it out.
    We had another ship--the closest ship that we know of that 
had any sonar transmission was about 50 miles away. That also 
seems to be an extraordinarily long distance for any 
interaction. This particular ship was doing some maintenance 
testing on its sonar for a very short period of time.
    We are cooperating actively with the National Marine 
Fisheries Services (NMFS) and with the other regulatory 
agencies to try and sift through all the data and to come up 
with the final determination.
    Senator Levin. Okay.
    Mr. Chairman, I wonder if I could just ask a couple of more 
questions, then I'll be done, if that's okay.
    Chairman Warner. Go ahead.
    Senator Levin. Thank you. I appreciate that.
    Mr. Penn, I guess you're going to be involved in that 
issue, and we just would ask you to be working closely in the 
Navy to give us a complete answer to that question.
    In many, many authorization bills we have been struggling 
with this issue of the role of the Marine Mammal Protection Act 
and whether or not there should be any loosening of that act, 
in terms of training and so forth. It's important to the Navy 
and it's important to our security, but it's also important to 
our role as stewards of this planet, to the extent we are. So, 
we would appreciate your getting involved in that issue and 
working with the uniformed leaders.
    Mr. Penn. Yes, sir.
    Senator Levin. Mr. Penn, let me just ask you a question. 
It's actually somewhat similar to Senator Inhofe's question, 
except that it's not a specific question about any property; 
it's a general question about the conveyances of property which 
have been taken, under the BRAC process, and you will be 
involved in this.
    Here's the background for this. It has come to our 
attention the Navy and other military departments may be 
interpreting the language about conveying property that's 
available as a result of the BRAC process that there may be 
some misunderstanding here about what criteria are to be 
applied to the conveyance of that property.
    Some people apparently believe that the mandate in the law 
is to sell all that property for as much as they can to anybody 
who is willing to pay, regardless of what the local reuse 
authority wants or what the redevelopment plan calls for. Now, 
that is not what was intended by Congress, nor is it what is in 
the law. First of all, we give authority to the Department of 
Defense to make a below-cost or a no-cost conveyance. It 
doesn't have to be a conveyance that reaps a financial benefit 
to the government. We leave flexibility about that to the 
Department of Defense.
    Whether that authority to convey property for less than its 
highest value is going to depend on whether or not it is going 
to be used for profit or for nonprofit purposes. If it's going 
to be for a public benefit, particularly, then there's an 
understanding reflected in the law that its highest and best 
use may not be a sale at the highest price.
    So, we have given that flexibility to the Department of 
Defense. We permit these conveyances, under certain 
circumstances, where the bid is less than the highest bid and 
perhaps maybe a total non-remuneration to the Federal 
Government.
    I'm wondering if you have any views on that question, and, 
if you're not familiar with that issue, whether you will take a 
look at it, satisfy yourself as to what the law is, and get 
back to the committee as to what your understanding is, if 
you're not familiar with it now. If you are familiar with it 
now, then perhaps you could give us your understanding now.
    Mr. Penn. Sir, I am not familiar with this issue, but, if 
confirmed, I will be glad to investigate it and get back to 
you.
    [The information referred to follows:]

    The base closure law requires the Administrator of General Services 
to delegate to the Secretary of Defense the authority to dispose of 
surplus property at closed or realigned military installations, and 
requires the Secretary to do so in accordance with the regulations 
governing disposal of surplus property under the Federal Property and 
Administrative Services Act of 1949. The disposal authorities under 
this act include public benefit conveyances, negotiated sales at fair 
market value, and public sales. Another section of the base closure law 
provides additional authority to convey property to the local 
redevelopment authority for purposes of job generation on the 
installation. In amending that provision in the National Defense 
Authorization Act for Fiscal Year 2002, Congress directed the DOD to 
seek to obtain consideration in an amount equal to the fair market 
value of the property. The conference report accompanying that change 
stated, ``The conference agreement would require the Secretary of 
Defense to obtain fair market value for economic development 
conveyances in most cases, unless the Secretary determines the 
circumstances warrant a below-cost or no-cost conveyance.'' The base 
closure law also requires that the Secretary of Defense give 
substantial deference to the redevelopment plan prepared by the local 
redevelopment authority in preparing the record of decision under the 
National Environmental Policy Act or other decision document regarding 
property disposal.
    I do not believe that seeking maximum financial return will be the 
overriding Navy goal in disposing of property at closed or realigned 
installations, and I fully expect that Navy will continue to give 
substantial deference to redevelopment plans in making property 
disposal decisions. I expect the Navy to use all of the available 
property disposal authorities in the proper circumstances.
    Property disposal by public sale can be a very effective means of 
assisting a local community with economic development and renewal and 
other property reuse objectives. For example, I understand that the 
Navy's recent sale of property at the former Marine Corps Air Station 
El Toro, where the Navy worked in close partnership with the local 
community, will result in up to 70 percent of the property being 
dedicated by the property purchaser to the local government for public 
purposes, and that developer fees will pay for many of the improvements 
needed to implement the desired public uses.

    Senator Levin. Thank you.
    Mr. Chairman, I thank you for yielding the additional time. 
As always, you are courteous.
    I thank these witnesses and their families for their 
service.
    Chairman Warner. Thank you, Senator Levin, for 
participating in this.
    Senator Thune, I'm going to be here throughout the 
completion of this hearing. Would you like to ask your 
questions at this time?
    Senator Thune. That would be great, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Thune. Yes. Thank you very much.
    I thank the witnesses for being here and for your 
willingness to serve your country. Thank you, as well, for the 
opportunity you've given me to visit with you individually on 
some of these issues.
    I have one issue, in particular, Mr. Chairman, that I have 
had conversations with Mr. Woodley about before, but I would 
like to raise it, just for the record.
    One of his responsibilities is the Army Corps of Engineers, 
and we've had a lot of discussion in the past decade over a 
rewrite of the master manual for the Missouri River. That has 
been completed, and is now being implemented. There are some 
unique circumstances right now, as they pertain to the 
Missouri, in that we've had successive years of drought, and 
that has caused a lot of problems, not only for the State of 
South Dakota and its recreation industry, but other States and 
their issues. In fact, so much so that I've had, in the last 
couple of days, the chairs of two of the Indian tribes in South 
Dakota, who have been in my office, and who rely on the 
Missouri for water supply, tell me the intakes now, because of 
the drought, are sucking mud. To me, that's a very immediate 
public-health issue that will need to be addressed.
    I would be interested in getting Secretary Woodley's 
comments with respect to that, and just suggest to him, too, 
that, as I've discussed with you privately, I look forward to 
working with you to address that.
    It is an immediate concern. There are a lot of debates 
about the use of the river that have gone on for long before 
either you or I were on the scene--that continue to go on 
today. But this is one, in particular, now that is a very 
immediate concern that has been caused by the drought.
    We have two tribes, both the Cheyenne River Sioux Tribe and 
the Standing Rock Sioux Tribe, that rely upon the Missouri 
River for water supply and who have pipes and intakes that are 
now not able to reach a pool level where they can pull water 
out of the river, and that creates a lot of problems, as you 
would expect, for the populations in their reservations.
    So if you could respond to that, that would be great.
    Mr. Woodley. I certainly will, Senator. I can tell you that 
during the time I have been privileged to serve with the Corps 
of Engineers in the Secretariat, no single issue has been more 
important to me or more vexing to the Corps, in general, than 
the management of the Missouri River and the many interests 
that rely upon it.
    This is a responsibility that the Corps of Engineers takes 
very seriously, and we are mindful of the fact that the 
reservoirs that the Corps manages on the river are now at their 
lowest point that they have been since they were first 
established, and that is causing hardship of the direst sort 
for the people of South Dakota, North Dakota, and Montana.
    Since we discussed the issue about the water intakes, I 
have had occasion, in my capacity as Principal Deputy Secretary 
of the Army for Civil Works, to discuss this matter once again 
with the district engineer at Omaha, and to convey to him, in 
the strongest terms, the need for constant engagement, and to 
receive from him his assurances that he is in constant contact 
with the tribal leaders and other representatives of other 
Federal agencies, bringing them together and serving as the 
convener and actuator, so that all resources of the Federal 
Government--that we can bring to bear--are focused on these 
issues.
    I appreciate the leadership that you have brought to bear 
on this, as well, and the other members of the delegation from 
these drought-stricken States.
    Water intake is very important. Access issues are occurring 
all over the region. We have concerns for cultural resource 
protection. As the levels go down, they expose areas of 
important cultural resources and tribal resources that must be 
identified and protected. We have issues with noxious weeds, 
invasive plants that begin to colonize in these areas. So this 
is a very complex issue, and there is no more important 
challenge that we have than the management of the Missouri 
River in this time of extreme drought.
    So, I will be, if I am confirmed and on a continuing basis, 
working with you and available to you and to all the members of 
the committee and of the delegations of the affected States to 
bring to bear every resource that the Corps of Engineers has to 
ameliorate this suffering.
    Senator Thune. I appreciate that very much and know that 
you have had conversations with our governor, as well. I don't 
envy your job. There are a lot of competing pressures from a 
lot of States. I've talked to some of my colleagues here in the 
Senate who have an entirely different view and perspective on 
the Missouri River than I do. But those of us in the Upper 
Basin have experienced, as you noted, a tremendous amount of 
stress economically in the last few years because of the 
drought, and welcome your assistance and help in making sure 
that the priorities of those States are addressed.
    Furthermore, the most immediate issue, in my judgment, is 
in August, when it hits the lowest level--and it is the lowest 
level, historically, that we've ever seen since the dams were 
built by the Corps--is the water-supply issue on the 
reservations. That is a crisis-type issue, and one that we're 
going to need a lot of help with. So I appreciate your 
willingness to convey your support for helping us address that 
problem.
    Mr. Penn and Mr. Fallon, welcome, as well. We look forward 
to your speedy confirmation.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, if you wish to take additional 
time, I'm going to remain here. Do you have any other 
questions?
    Senator Thune. It's just you and me, I guess.
    Chairman Warner. It is.
    I've been trying to do a little research on this myself, 
and I understand that part of America, while we here in the 
east are flooded out, is experiencing a record drought of some 
proportions for several years. I mean, it's cumulative, is it 
not?
    Senator Thune. It is, and it's gotten to where the pool 
level in the reservoirs is--since the dams were put in, in 
1944, the Flood Control Act, Pick-Sloan Plan, and the Oahe Dam, 
which was built in 1962 in South Dakota, hasn't seen this low a 
level since the dams were built.
    Chairman Warner. The dams were built to collect the water 
for such uses as the immediate environs required, and then to 
release it to maintain a depth of the river itself to permit 
barge traffic, as I understand it, to go up and reach certain 
ports in your State. Am I correct?
    Senator Thune. Actually, the river doesn't come clear up, 
because the dams now are in our State, but it comes up just to 
the border, to Sioux City, which is in Iowa.
    Chairman Warner. Correct. Sioux City.
    Senator Thune. Correct, and the primary purpose was flood 
control.
    Chairman Warner. Flood control.
    Senator Thune. At the time, we had experienced some floods 
that were very devastating, and that led to the passing of the 
legislation and the creation of the dams. The original plan 
called for hydroelectric power, irrigation, water supply, some 
other uses, and it's been the Corps' job to try and balance all 
of those. But in the environment that we're in right now, 
because of the drought, that has become an extremely difficult 
job, and the best thing that we could do now is pray for snow 
in Montana or rain somewhere in the Basin. But this is a real 
serious issue.
    Chairman Warner. I'm glad you brought it up. We're likely, 
this committee, in the course of the confirmation process--we 
will need to engage other Senators who have an active interest 
in this situation. Secretary Woodley has indicated to me, we'll 
just work around the clock to try and establish, to their 
satisfaction, the resources of the Corps of Engineers to try 
and work to alleviate this situation.
    Also, as an outdoorsman myself, I understand it's severely 
impaired the sport fishing and other things that economically 
are very important to the region. Is that correct?
    Senator Thune. That is correct. We have about an $85 
million recreation industry on the lakes in South Dakota, which 
has taken a tremendous hit. You can't launch a boat, with the 
exception of a couple of places, on the entire lake system.
    Chairman Warner. You can't even put a boat in?
    Senator Thune. You can't get a boat in, with a lot of 
places, and that has extreme consequences for some of these 
smaller communities that rely almost exclusively on the 
seasonal recreation industry.
    So it is a very serious issue, Mr. Chairman, and I 
appreciate your willingness to look at it.
    Chairman Warner. Thank you.
    Just one last question. Technically, 100 percent being full 
capacity of the dam, at what percentage do you feel that they 
are filled at now?
    Senator Thune. The Secretary may be better able to answer 
that. I will tell you, in Lake Oahe, that about 1,610 to 1,620 
feet above sea level is considered a fairly full lake; and we 
expect, in August, to hit 1,559 feet, so it's dropped 
significantly. In terms of the acre-feet of water that it 
holds, I think that it's down to about 35 million acre-feet, or 
below that?
    Mr. Woodley. That's the entire system's storage for the 
entire six-reservoir complex.
    Senator Thune. That's the entire system, that's correct. 
Right.
    Mr. Woodley. Mr. Chairman, the entire system has a capacity 
of 72 million acre-feet, making it by far the largest system of 
reservoirs in the Nation and one of the largest in the world. 
We consider a normal or average capacity to be at about 54 
million acre-feet, and the capacity above that is intended to 
absorb the runoff from an extraordinary flood event, which has 
happened well within modern memory. If we look at 1993, there 
was more than enough water. Indeed, rather more water than most 
people would have liked to see in that entire part of the 
country. The reservoirs then served their purpose very well and 
drastically reducing the severity of what was already a very 
significant flooding event.
    At 54 million acre-feet, we would consider a normal pool--
the current level is right at, or about, or perhaps slightly 
below 34 million acre-feet. This is, I would say, at a time 
when we would expect, seasonally, to receive an inflow, very 
soon, from the melting of the mountain and prairie snowpacks. 
However, I am told, by the experts in the field, that those 
runoff levels are not expected to exceed 72 percent of an 
average outflow. So we are not likely to get relief from that 
source in this spring melt season; understanding, of course, 
that these matters are entirely unpredictable, as the weather 
is.
    Chairman Warner. We thank you, Mr. Secretary. I think that 
covers it.
    Thank you, Senator Thune. Anything further?
    Senator Thune. No, Mr. Chairman. I appreciate your interest 
in this subject.
    Chairman Warner. I appreciate it, it is an important issue.
    Admiral, to your future assignment here, North Korea 
publicly declared that it had nuclear weapons, and demanded 
bilateral talks with the United States as a precondition for 
resumption of the Six-Party Talks. There has also been 
discussion in the press of evidence that North Korea may have 
exported nuclear-related items to other countries. I think the 
President and his team are handling this very delicate 
situation precisely correctly and--in working in conjunction 
with the other nations--notably, China, South Korea, Japan, and 
others--to try and resolve this. But as to your responsibility, 
in light of these most recent developments, how do you assess 
the current situation, the security situation, on the Korean 
Peninsula? What, if anything, should be done to strengthen the 
deterrents on the Korean Peninsula?
    Admiral Fallon. Thank you, Senator. It's clearly 
disturbing, this assertion that they have nuclear weapons. 
Whether they do or not, I don't know. But the fact that they 
would publicly make this statement is one of serious concern. 
So, I think our response should be in two areas. One is to 
maintain strong deterrent posture to signal our support for 
South Korea and our allies in the region. Second, to do 
whatever we can to facilitate the diplomatic efforts, whether 
it's restarting the Six-Party Talks or to encourage another 
initiative from, not only ourselves, but the other nations in 
the area, I think, would be an appropriate course of action. It 
clearly is something that is disturbing. Not only the nuclear 
revelation or assertion, but the fact that the North Koreans 
have been exporting their missile technology, which may provide 
the means to deliver these types of weapons, is certainly 
something of high concern.
    I'm working hard to get up to speed in this area, to learn 
as much as I can about it. I look forward, if confirmed, to 
engage with our allies in the area, and to our other experts, 
in government and out, to learn as much as we can so that I can 
be of some use in the region.
    Chairman Warner. You may wish to, assuming confirmation of 
the Senate, be in office out there for a while. Before you 
respond, but I would hope that you would keep this committee 
informed if you felt that, at any time, the overall resources 
at your disposal were less than adequate to maintain a strong 
deterrent position on behalf of that peninsula from any 
conflict breaking out.
    Admiral Fallon. Yes, sir, I certainly will.
    Chairman Warner. Thank you.
    As to China, the committee continues to follow, with great 
interest, their expanding capabilities, in terms of military, 
both conventional and strategic. There always remains the 
importance of our Taiwan relationships--and, indeed, with 
mainland China--and we try to follow, I think, quite correctly 
a balanced policy. How do you see these trends unfolding over 
the next few years?
    Admiral Fallon. Sir, I certainly support the idea that we 
maintain a balanced look, keep a close eye on this issue, to be 
maintaining the idea of a status quo, that there not be any 
unilateral action that would upset the situation.
    It is really interesting, I think, to study this challenge, 
because the tremendous dynamic growth of China and the many 
economic interfaces that they have with us and with other 
nations around the world and with Taiwan. It's pretty 
fascinating. At the same time, this pretty much unprecedented 
growth in military capability is something that certainly bears 
watching.
    I know that there have been some initiatives on our part to 
reach out to China, to work with them to try and facilitate 
moving forward on our mutually shared interests.
    Chairman Warner. I think it is important to find common 
grounds of interest.
    You are quite active, then, with the Secretary of State, 
whoever that may be. Right now we're pleased to have Dr. Rice, 
but you also interface with all of the ambassadors in that 
region. You have a unique overall responsibility there. While 
military is your first mission, diplomacy certainly is a second 
one, in many respects, to work with those members of the 
Department of State.
    Admiral Fallon. Yes, sir. I look forward to their insight, 
counsel, advice, and experience in each of these countries.
    Chairman Warner. But your relationships with the chief of 
the military services in each of those countries are very 
helpful.
    Admiral Fallon. Yes, sir.
    Chairman Warner. That is, unfortunately, with North Korea, 
at the moment, not possible, but who knows what the future may 
hold?
    Mr. Woodley, from 2001 to 2005 the Civil Works budget 
decreased more than 11 percent. The decline contrasts with 
nearly a 29 percent increase in overall Federal expenditures in 
this same period. What has this resulted in, in terms of your 
projects, for the Corps of Engineers?
    Mr. Woodley. Mr. Chairman, comparisons across time of a 
construction budget are often difficult to make, because the 
budget goes up or down depending on the call for new 
infrastructure, and infrastructure modifications, and major 
rehabilitations.
    The budget we have for the current year, which I recently 
presented, represents an increase from last year's President's 
budget of about $200 million. It does represent a decrease from 
the amount appropriated by Congress by about the same amount. 
But we have been able to get more support within the 
President's budget than we had in the prior period.
    We've done that by seeking to concentrate the funds that we 
have, based on the performance of the projects and a rigorous 
ranking of the projects that are being supported, in order to 
proceed with the projects with the greatest cost benefit, as 
our analysis shows them. These are such projects as the harbor 
in New York and New Jersey, on the east coast, and Oakland, on 
the west coast; the very important navigation infrastructure 
projects of locks and dams on the Ohio River; and, in the arena 
of environmental restoration, the critical Everglades 
Restoration Project in Florida to restore the world-class 
ecosystem of the Everglades.
    Chairman Warner. I hope you mention the Chesapeake Bay, 
because, there again, it's a very critical project.
    Mr. Woodley. The Corps will certainly play a leading role 
in the work in and around the Chesapeake Bay, certainly.
    One of my primary goals has been and, if confirmed, would 
continue to be to employ very strict processes of performance-
based budgeting within the Civil Works part of the Corps of 
Engineers.
    Chairman Warner. Let me get a tight answer for the record 
on the following question. Describe to the committee precisely 
your responsibilities, if any, for the oversight and execution 
of contracts managed by the Corps of Engineers for 
reconstruction activities in Iraq.
    Now, this is currently under Ambassador Negroponte.
    Mr. Woodley. I have no responsibility in that.
    Chairman Warner. Then that makes it clear. All right, I 
thank you very much.
    Now, Mr. Penn, in discussions with the Department of 
Defense over the past 2 years, the Global Posture Review, the 
Department has maintained the position that any decisions made 
about the relocation of the home port for a carrier would be 
made within the context of the 2005 round of BRACs scheduled to 
take place this summer. This answer was, again, used by Admiral 
Clark last week in response to a question by Senator Akaka 
about the potential of possibly relocating carriers in Hawaii.
    I would hope that you would watch that process. I don't 
mean, at this point and in this hearing, to reopen the issue, I 
feel it was a very full coverage of the issues with the 
distinguished Chief of Naval Operations. But I do note that 
this is a BRAC-process year. This committee will soon be, 
hopefully, reviewing, in its advise and consent role, the 
nominees made by the President of the United States for the 
BRAC Commission. I have committed so much of my career in this 
committee to moving forward sequentially in BRAC processes. We 
enacted a law, it is in place, it was challenged last year to 
some extent, but, with the support of the President, we kept it 
intact. The process is going forward. We experienced, in years 
past, some problems which I hope we will not have any 
reoccurrence in this cycle. So I don't ask you for any 
commitment but to keep a watchful eye on that BRAC process to 
make sure that it works in accordance with the laws, as written 
by this committee and accepted by the full Congress and the 
House committee--very active in it--to get this behind us.
    You will keep a watchful eye?
    Mr. Penn. Senator, if confirmed, I assure you.
    Chairman Warner. I thank you.
    We now have come to that point where I feel that the 
audience has stayed with us for a long time. There are several 
additional questions, which I will place into the record and 
ask each of you, at your earliest opportunity, to provide your 
responses for the record.
    So I thank our distinguished panel of nominees, their 
families and friends who have gathered for this very important 
day. I'm optimistic about your confirmation process. I wish you 
well.
    The hearing is now concluded.
    [Whereupon, at 5:22 p.m., the committee adjourned.]

    [Prepared questions submitted to John Paul Woodley, Jr. by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously have answered the committee's advance 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act in connection with your nomination in 2003 to be the Assistant 
Secretary of the Army for Civil Works. Have your views on the 
importance, feasibility, and implementation of the Goldwater-Nichols 
Act reforms changed since you testified before the committee at your 
confirmation hearing on February 27, 2003?
    Answer. No, my views have not changed. I continue to support full 
implementation of the Goldwater-Nichols Act, which strengthens civilian 
control; improves military advice; places clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensures 
the authority of the combatant commanders is commensurate with their 
responsibility; increases attention to the formulation of strategy and 
to contingency planning; provides for more efficient use of defense 
resources; enhances the effectiveness of military operations; and 
improves the management and administration of the Department of 
Defense.
    Question. Do you see the need for modifications of any Goldwater-
Nichols Act provisions based on your previous experience as Assistant 
Secretary of the Army for Civil Works? If so, what areas do you believe 
it might be appropriate to address in these modifications?
    Answer. Based on my previous experience as Assistant Secretary of 
the Army (Civil Works), I see no need for modification of any 
provisions of the Goldwater-Nichols Act. The Goldwater-Nichols 
Department of Defense Reorganization Act is as relevant today as it was 
in 1986 when enacted.

                                 DUTIES

    Question. In your response to previous advance policy questions 
submitted in February 2003, you stated your understanding of the duties 
and functions of the Assistant Secretary of the Army for Civil Works. 
Based on your experience in the Department since that time, what 
changes, if any would you make to your original response?
    Answer. Section 3016 of Title 10 of the United States Code and 
Department of the Army General Orders No. 3 remain in effect and the 
duties of the Assistant Secretary of the Army (Civil Works) remain as 
stated in those documents, which I summarized in my previous answer. 
There is one modification to the Assistant Secretary's responsibilities 
with regard to Arlington National Cemetery and Soldiers' and Airmen's 
Home National Cemetery. That change now is codified in Department of 
the Army General Orders No. 13, dated October 29, 2004, which replaces 
an 18-year-old General Order. General Orders No. 13 assigns overall 
supervision of Arlington National Cemetery to the Under Secretary of 
the Army and clarifies that the Superintendent of Arlington National 
Cemetery reports directly to the Assistant Secretary of the Army (Civil 
Works) on the execution of the program of the Cemetery, including 
administration, operation and maintenance. The Assistant Secretary of 
the Army (Manpower and Reserve Affairs) remains responsible for burial 
policy.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Assistant Secretary of the Army for 
Civil Works, as set forth in section 3016 of Title 10, United States 
Code, and in regulations of the Department of Defense and Department of 
the Army?
    Answer. I believe the duties and functions of the Assistant 
Secretary of the Army (Civil Works) are clearly and properly assigned 
in the above-referenced documents. During my previous service as 
Assistant Secretary of the Army (Civil Works) I recommended changes in 
oversight of Arlington National Cemetery, and those recommendations are 
reflected in the new General Orders No. 13, dated October 29, 2004.
    Question. Assuming you are confirmed, what duties do you expect 
that the Secretary of the Army would prescribe for you?
    Answer. If I am confirmed, I expect to carry out the duties and 
functions of the Assistant Secretary of the Army (Civil Works) as 
articulated in General Orders No. 3, dated July 9, 2002, and General 
Orders No. 13, dated October 29, 2004. In addition, I expect to support 
and assist the Secretary of the Army in carrying out critical 
departmental responsibilities, including Continuity of Operations.

                             RELATIONSHIPS

    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of the Army.
    Answer. I will work closely with the Secretary of the Army in 
furthering the goals and priorities of the President. Consistent with 
the General Orders, I expect the Secretary to rely on me to oversee the 
Civil Works program of the U.S. Army Corps of Engineers, and the 
programs of Arlington National Cemetery and Soldiers' and Airmen's Home 
National Cemetery.
    Question. The Under Secretary of Defense for Logistics and Materiel 
Readiness.
    Answer. I will work through the Secretary of the Army to form a 
close and constructive relationship with the Deputy Under Secretary of 
Defense (Logistics, Materiel Readiness) in areas of mutual interest.
    Question. The Under Secretary of the Army.
    Answer. I will work closely with the Under Secretary of the Army in 
furthering the goals and priorities of the President and the Secretary 
of the Army, including Army national cemetery program. Under General 
Orders 13, October 29, 2004, the Under Secretary is responsible for 
overall supervision of the program, and the Assistant Secretary of the 
Army (Civil Works) is responsible for supervision of the program and 
budget.
    Question. Deputy Under Secretary of Defense for Installations and 
Environment.
    Answer. Having worked for the Deputy Under Secretary of Defense for 
Installations and Environment, I am very aware of the responsibilities 
of the position and look forward to a constructive relationship, 
working through the Secretary of the Army, in areas of mutual interest.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. I will work through the Secretary of the Army to form a 
close and constructive relationship with the Assistant Secretary of 
Defense for Homeland Defense to ensure that the full array of assets of 
the U.S. Army Corps of Engineers is available to support the national 
defense, including the engineering and technical management and 
emergency response and recovery capabilities associated with the Army 
Civil Works Program.
    Question. The Assistant Secretary of the Army for Installations and 
Environment.
    Answer. I will work to form a close and constructive relationship 
with the Assistant Secretary of the Army (Installations and 
Environment) in areas of mutual interest.
    Question. The Chief of Staff of the Army and the Army Staff.
    Answer. I will establish and maintain a close, professional 
relationship with the Chief of Staff as he performs his duties as the 
senior military leader of the Army.
    Question. The Commander, U.S. Army Corps of Engineers and Chief of 
Engineers.
    Answer. I believe the relationship between the Assistant Secretary 
of the Army (Civil Works) and the Chief of Engineers that best serves 
the interests of the Nation is the one based on mutual respect, trust, 
and cooperation. Both positions have enormous responsibilities and 
demand great attention to very complex issues. During my previous 
service, the current Chief of Engineers, LTG Carl A. Strock, and I 
established such a relationship and I fully expect it to grow stronger. 
Our respective abilities to be responsive to the President's priorities 
and to the policy directives of Congress depend greatly on the success 
of this relationship.
    Question. The General Counsel of the Army.
    Answer. My relationship with the General Counsel of the Army must 
involve close and regular consultation, given the legal complexities of 
the Civil Works program of the U.S. Army Corps of Engineers. During my 
previous service, I had such a close and constructive relationship with 
the General Counsel of the Army and, if confirmed, I will work to 
continue and strengthen that relationship.
    Question. The Judge Advocate General of the Army.
    Answer. If confirmed, I would maintain a constructive relationship 
with the Judge Advocate General of the Army in areas of mutual 
interest.
    Question. The State Governors.
    Answer. The Army and its U.S. Corps of Engineers must remain 
committed to working cooperatively with Governors and local authorities 
for the benefit of local citizens and for sustainable development and 
protection of the Nation's natural resources. These cooperative efforts 
must be undertaken in the context of civil works authorities and legal 
responsibilities. These responsibilities often require a balancing of 
diverse interests. The proper reconciliation of these interests demands 
open communication among all parties. I am committed to establishing 
and maintaining a full and open dialogue with the Governors on all 
issues of mutual interest.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your responses to previous advance policy questions 
submitted in February 2003, you identified as major challenges that 
would confront the Assistant Secretary of the Army for Civil Works the 
need to maintain the Corps of Engineers' existing infrastructure, the 
need to repair the damaged environment, and the need to ensure the 
physical security of the Corps' infrastructure around the country. What 
do you consider to be your most significant achievements in meeting 
these challenges during your previous service as Assistant Secretary?
    Answer. During my previous service as Assistant Secretary of the 
Army (Civil Works) advances were made in addressing each of the three 
major challenges I identified in February 2003.
    Concerning the need to maintain existing Corps infrastructure, the 
fiscal year 2006 budget includes more funding for Civil Works 
operation, maintenance, rehabilitation, and protection than any prior 
Civil Works budget--$2.353 billion. We held down operations costs in 
order to apply more funding to project maintenance, and then 
prioritized potential maintenance expenditures based on its criticality 
to the reliable, safe, and efficient performance of the navigation and 
flood damage reduction facilities operated by the Corps. Finally, we 
have reached agreement within the administration to explore, in 
conjunction with the development of the fiscal year 2007 budget, ways 
to improve the manner in which the budget funds major rehabilitation 
projects at Corps hydropower, inland navigation and flood damage 
reduction facilities, in order to ensure that funding is provided to 
those new and continuing major rehabilitation projects that yield a 
high economic return per dollar invested.
    In my previous service as Assistant Secretary of the Army (Civil 
Works), we advanced several major ecosystem restoration programs and 
achieved a greater focus on environmental restoration both in planning 
new projects and in operating existing projects. We have finalizing the 
Programmatic Regulations for the Comprehensive Everglades Restoration 
Plan, produced the Louisiana Coastal Area Restoration Plan, and, after 
more than a decade of difficult work, implemented a new Master Manual 
for the operation of the Missouri River System that includes 
significant ecosystem restoration components. As Assistant Secretary, I 
emphasized that all our restoration efforts must be informed by good 
science and broad public participation.
    Concerning physical security of Corps' infrastructure, I was 
successful in gaining administration support for $84 million in fiscal 
year 2005 and $72 million in fiscal year 2006 to continue implementing 
security measures for Corps of Engineers projects and facilities.
    Question. Have these challenges changed since your appointment in 
August 2003, and, if confirmed, what are your plans for addressing the 
challenges you now anticipate?
    Answer. Those challenges continue, and I would add two more: 
improving the Corps regulatory program and improving the Corps planning 
process.
    In the past 18 months I have gained a much greater appreciation for 
the scope and importance of the U.S. Army Corps of Engineer's 
Regulatory Program. This program protects the Nation's precious aquatic 
resources. In more than 80,000 separate actions each year, hundreds of 
billions of dollars of the Nation's life-sustaining enterprise must 
receive the Corps' scrutiny through its Section 404 permit process. We 
must meet the challenge of serving the economic and environmental 
interests of our Nation with effectiveness and efficiency. As Assistant 
Secretary I have and, if I am confirmed, will continue to emphasize 
predictability and consistency as the hallmarks of a good regulatory 
program. From both my prior experience as Assistant Secretary and my 
experience as Virginia's Secretary of Natural Resources I know that, 
with attention and commitment, business can be conducted in a way that 
makes sense for the environment.
    In my previous service as Assistant Secretary, I began to implement 
a concept of designating one Corps district as lead regulatory district 
in each State, responsible for maintaining a close liaison with the 
State permitting authorities and ensuring State-wide consistency within 
the regulatory program. If confirmed, I intend to pursue interagency 
initiatives to improve the Civil Works business processes, like the one 
recently signed with the Office of Surface Mining that establishes 
parallel, rather than sequential, review of permit applications. 
Finally, where there are common-sense solutions available to help solve 
ecosystem problems like water quality or habitat degradation, we will 
try to create regulatory incentives to getting those solutions 
implemented.
    Our Nation relies on the Corps to protect aquatic resources while 
allowing important economic development activities to proceed. The 
Corps annually performs over 100,000 wetlands jurisdictional 
determinations. As pointed out by the National Academy of Science, 
ensuring jurisdictional practices are consistent across the country has 
been a major challenge, especially since the Supreme Court's decision 
in the ``SWANCC'' case [Solid Waste Agency of Northern Cook County vs. 
U.S. Army Corps of Engineers]. We are working diligently with the Corps 
to collect information on jurisdictional practices to better understand 
the circumstances where consistency issues arise, and address them. If 
confirmed, I will work with the Corps and other agencies in developing 
internal guidance that will improve consistency of jurisdictional 
determinations across the Nation.
    We can improve the Corps' planning process by completing the 
establishment of Centers of Expertise to efficiently handle independent 
technical review of Corps projects, economic model verification, and 
the issues surrounding Corps Reform. If confirmed, I am committed to 
work with the administration and Congress to make business process 
improvements allowing for an orderly and effective water resources 
development program for the Nation.

                               PRIORITIES

    Question. In your responses to previous advance policy questions 
submitted in February 2003, you identified working to ensure effective 
management and administration of the Army Civil Works program and the 
Army's national cemetery program as one priority you would have. 
Additionally, you identified as a priority seeking ways to more 
efficiently use resources in the development and execution of programs 
to ensure that taxpayers' dollars are wisely spent. What do you 
consider to be your most significant achievements in addressing these 
priorities during your previous service as Assistant Secretary?
    Answer. Last year I established three overarching priorities. 
First, identify clear programmatic goals for all major Corps mission 
areas. These goals form the basis for building and defending a 
performance-based budget. Second, seek continuous improvement in the 
analytical tools employed by the Corps to support decisionmaking. While 
the Corps generally does a good job in this area, it can always do 
better. Third, improve the effectiveness and efficiency of the 
regulatory program. This program touches virtually every community in 
America and protects many valuable aquatic resources.
    There have been significant advances in all three areas.
    In March 2004, the Corps issued its Civil Works Strategic Plan, 
setting out the agency's objectives in each of its major mission areas. 
With this Strategic Plan as a guide, the Corps has instituted a 
performance-based budgeting system for the Civil Works program and used 
performance principles in developing of the fiscal year 2006 
President's budget for civil works.
    To streamline project implementation, new model Project Cooperation 
Agreements have been developed, including one for navigation projects 
and one for environmental infrastructure assistance programs. Up-to-
date model Project Cooperation Agreement support the delegation of 
oversight of this process, with resulting efficiency in the process, 
while still preserving national consistency, policy compliance, and 
legal sufficiency.
    The Corps has entered into a memorandum of understanding with the 
American Association of Port Authorities, establishing shared 
partnership principles to guide Army and public ports in developing and 
maintaining the Nation's ports and harbors.
    In May 2004, a cooperative agreement with the Netherlands 
Rijkswaterstaat was reached, leading to great benefits from exchanges 
between two of the world's most respected water resources agencies.
    Corps Divisions have been delegated the authority to approve post-
authorization decision documents that comply with policy and are below 
the threshold requiring reauthorization.
    This past year, I have made the regulatory program a priority by 
encouraging performance based budgeting, participating in memorandums 
of agreement to achieve efficiencies when processing permits for energy 
projects (Deepwater Ports, Linear Transmission Projects, Joint 404-
Surface Mining Control and Reclamation Act (SMCRA) Procedures), 
establishing lead corps districts in each State, and providing guidance 
on compensatory mitigation projects.
    A survey of corps districts has identified key areas of greatest 
variance between their practices on making regulatory jurisdictional 
determinations. The Corps has adopted a new method for reporting 
determinations of non-jurisdiction to enable direct comparisons of 
practices among its districts.
    The Corps has developed and implemented a nine-point plan and 
brochure to help the mining industry in Appalachia comply with the 
Clean Water Act through guidance, educational workshops, and processing 
a large permit application backlog caused by litigation. In the process 
the Corps issued clarifying guidance pertaining to mitigation of the 
effects of mountaintop surface coal mining to promote a watershed 
perspective, allow for consideration of SMCRA features as part of 
overall mitigation plans, and to make it clear that conservation 
easements are not an absolute requirement for every site.
    The past year has also brought to fruition several major actions. 
After 13 years of effort, the Corps has issued a newly revised master 
manual governing operation of the Missouri River system. The revised 
master manual is a marked improvement over the 1979 Master Manual and 
has already sustained judicial scrutiny in one U.S. District Court.
    The Corps also issued programmatic regulations for the 
Comprehensive Everglades Restoration Program (CERP). These rules 
establish the multi-agency program that will develop, integrate, 
implement, and monitor the extremely complex environmental restoration 
efforts in south Florida.
    The Corps also has advanced important studies concerning both the 
restoration and navigation on the upper Mississippi River, and the loss 
of wetlands in the Louisiana coastal area.
    Under my leadership, the Civil Works program has made great strides 
in improving effectiveness of its use of resources. For the six 
initiatives in the President's Management Agenda that apply to Civil 
Works, progress is ``green'' on four and ``yellow'' on two. This 
signifies that the Corps is improving its management of human capital, 
beginning to achieve efficiencies through competitive sourcing and the 
better use of e-government and real property management tools, basing 
budget decisions on economic returns and other performance metrics, and 
addressing audit and other financial management issues. In particular, 
the Corps has made great strides in basing the fiscal year 2006 budget 
on performance. Funding in the fiscal year 2005 and fiscal year 2006 
budgets was allocated by business program with a nation-wide view, so 
that the most important work in each program received funding. In the 
fiscal year 2006 budget, additional steps were taken to concentrate 
funding for studies, design, and construction on the work likely to 
yield the highest returns. In addition, the fiscal year 2006 budget 
includes more funding for Civil Works construction, rehabilitation, 
operation, maintenance, and protection than any other budget in 
history. Finally, the Corps has achieved strong ratings for its 
recreation, emergency management, and regulatory programs, with the 
result that these programs have been budgeted at very healthy levels.
    Question. If confirmed, what priorities would you establish, and 
what would be your plans for addressing them?
    Answer. If confirmed, I will continue to pursue the priorities I 
stated during my prior service: establish clear programmatic goals for 
all major Corps mission areas; improve the analytical tools employed by 
the Corps to support decisionmaking; and improve the effectiveness and 
efficiency of the regulatory program.
    I would pursue the goal of establishing clear performance goals, in 
part, through the initiatives of the President's Management Agenda, as 
follows:

        <bullet> For human capital, make significant progress in 
        reducing hiring time lags and integrate the accountability 
        system into decisions.
        <bullet> For competitive sourcing, plan for and carry out 
        competitions as scheduled.
        <bullet> For financial management, resolve audit issues.
        <bullet> For e-government, establish an effective Enterprise 
        Architecture, adhere to cost and schedule goals, secure 
        currently unsecured IT systems, and implement applicable e-
        government initiatives.
        <bullet> For budget-performance integration, improve the 
        linkages between the strategic plan and performance, and 
        improve performance metrics used in budget decisions.
        <bullet> For real property asset management, develop and obtain 
        approval of an asset management plan, an accurate and current 
        asset inventory, and real property performance measures.

    My plan, if I am confirmed, for addressing the challenge of 
improving the Corps' analytic tools is to place a high priority on 
completing economic modeling efforts now underway and to work closely 
with the Chief of Engineers to address the issues that arose in the 
National Research Council's Reports on the planning process conducted 
under Section 216 of Water Resource Development Act (WRDA) 2000. I also 
would work closely with the Chief of Engineers in further streamlining 
the planning process and establishing a workable framework for 
independent review of complex and controversial Corps' studies.
    We have increased the President's Budget for the Corps regulatory 
program from $144 million for fiscal year 2004 ($140 million of which 
was appropriated), to $150 million for fiscal year 2005 ($145 million 
of which was appropriated), to $160 million for fiscal year 2006. If 
confirmed, I will continue to make the regulatory program a priority by 
supporting the National Wetlands Mitigation Action Plan, developing 
regional general permits for mining and aquaculture activities, and 
supporting efforts to develop regional field indicators that will help 
Corps regulators make consistent, predictable jurisdictional 
determinations in the arid southwest and Alaska. Over $200 billion of 
economic development depends upon the work of about 1,200 Corps 
regulators in 38 districts.

           CIVILIAN OVERSIGHT OF THE ARMY CORPS OF ENGINEERS

    Question. In your responses in February 2003, you described the 
relative authorities of the Chief of Engineers, the Assistant Secretary 
of the Army for Civil Works, the Secretary of the Army, the Army Chief 
of Staff, and the Secretary of Defense with regard to the civil works 
function of the Army Corps of Engineers. You indicated that you would 
seek ways for the Corps to become more innovative and creative, not 
only in domestic civil works and emergency responses, but also in the 
Nation's vital national security interests. Since your appointment in 
August 2003, what changes, if any, have taken place in the manner in 
which the Chief of Engineers and the Corps and the Assistant Secretary 
of the Army for Civil Works interact?
    Answer. I am extremely pleased with the strong working relationship 
I have with both the Chief of Engineers and the Director of Civil 
Works. My experience during my previous service as Assistant Secretary 
has confirmed my initial belief and confidence in the integrity, 
commitment, and engineering excellence of these general officers.
    Question. Are there additional changes you would seek to implement, 
if confirmed?
    Answer. If confirmed, I would seek to strengthen the vertical and 
horizontal team concept emphasized in the Corps 2012 plan. Under this 
concept, concerns and issues are raised early in the development of 
projects, and a virtual or actual team is convened involving all levels 
of the organization that can contribute to early and final resolution 
of the issues. If confirmed, I would seek to promote this concept 
further by including the Office of the Assistant Secretary of the Army 
(Civil Works) in more cases, expediting the planning and design of 
projects, developing the administration position on these projects, 
executing project cooperation agreements, and resolving concerns of 
Members of Congress that are brought to my attention.

                        RELATIONS WITH CONGRESS

    Question. The duties of the Assistant Secretary of the Army for 
Civil Works often involve issues of great significance to local 
communities, State governments, and the Senators and Congressmen who 
represent them in Congress. What is your assessment of the ability of 
the civilian and military leadership of the Army Corps of Engineers to 
respond to requests for support for State and local projects advanced 
by elected officials?
    Answer. The Corps is unparalleled in providing disaster assistance 
and emergency preparedness. The Corps is well poised to support and 
respond to State and local requests not only in dealing with natural 
disasters, but also in responding to the Nation's water resources 
development needs. Throughout my previous service as Assistant 
Secretary, I often heard praise for the Corps disaster assistance and 
emergency response efforts from leaders in State and local governments.

              ANALYSIS OF ARMY CORPS OF ENGINEER PROJECTS

    Question. What is your view of the degree of independence that 
should be provided to the economists charged with assessing the 
economic viability of Corps projects and the role of the senior 
civilian and military leadership of the Corps in reviewing the work of 
those economists?
    Answer. In my previous response, I stated that the technical and 
policy review process followed by the U.S. Army Corps of Engineers in 
managing feasibility studies needs to ensure that the many 
professionals who are involved in those studies are afforded an 
appropriate level of independence. I continue to strongly believe that 
Corps professionals at all levels need to follow established 
regulations, procedures, and policies in determining whether a project 
is, or is not, economically justified. Like any other organized system 
of analysis, the integrity of the process is critically dependent on 
all Corps of Engineers professionals doing their jobs in analyzing, 
assessing, and providing the documentation upon which the merits of a 
proposed Civil Works project may be weighed. The role of the senior 
civilian or military leadership is to ensure the integrity of the 
system to provide an independent policy, legal, and technical 
assessment of each proposed project, and then to rely on that 
documentation as the basis for their recommendations to policy 
decisionmakers to accept, reject, or modify a proposed action 
transparently.
    Question. In October 2003, the General Accounting Office released a 
report about a flood protection project in Sacramento, California which 
concluded that the Corps did not fully analyze, or report to Congress 
in a timely manner, the potential for significant cost increases. In 
this case, costs rose from $44 million to over $270 million and 
resulted in a lack of funding to carry out a substantial portion of the 
original scope of work. If confirmed, what steps would you take to 
ensure Congress is properly notified of cost overruns and potential 
changes to the scope of work for specifically authorized projects?
    Answer. This is a matter of keen interest to me. If I am confirmed, 
I will continue to work with the Chief of Engineers to ensure that 
proper risk-based engineering analysis is performed during the 
feasibility phase, commensurate with the degrees of uncertainty that 
could occur in the future with project conditions. Further, if 
confirmed, I will work with the Corps to place as much emphasis on 
costs as is placed on the benefit side of the equation. The Corps has 
made great strides in implementation of its MCACES cost estimating 
system. However, we must continue to provide updated tools that will 
enable the Corps cost estimators to determine, with reasonable 
assurance and during the feasibility phase of the study, the expected 
construction and real estate costs of potential projects. Whenever, 
despite these efforts, cost increases or potentially significant 
changes to the scope of work of projects occur, I will work with the 
Chief of Engineers to ensure that Congress is promptly notified.
    Question. If confirmed, would you adhere to existing Corps policy 
that the Corps seek new spending authority from Congress if it 
determines, before issuing the first contract, that the Corps cannot 
complete the project without exceeding its spending limit?
    Answer. Yes, if confirmed, I would adhere to that policy, which is 
well founded. For projects already underway, the intent behind the 
Corps policy is to ensure that contractual commitments can only be made 
up to the point of the cost limit established pursuant to Section 902 
of the Water Resources Development Act of 1986. Any potential contract 
causing the ``902'' cap to be exceeded would not be advertised for bid 
solicitation until new authority was received. Similarly, a contract 
would not be awarded if, at the point of issuing the first contract on 
a new construction project, it is known that the project would exceed 
the ``902'' limit.

               CONTRACTING FOR THE RECONSTRUCTION OF IRAQ

    Question. Over the last 2 years, the Army Corps of Engineers has 
played a major role in executing and managing contracts for the 
reconstruction of Iraq. The reconstruction effort has run into 
considerable difficulties due in large part to the ongoing insurgency 
and related security problems in Iraq. What lessons have you learned 
about the ability of the Army Corps of Engineers and its contractors to 
execute large-scale construction projects in a dangerous environment?
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.
    Question. Do you believe that the Army Corps has had the full range 
of personnel in the field that it has needed to ensure proper oversight 
of these projects, or has oversight been hampered by the security 
situation on the ground?
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.
    Question. What impact do you believe that security costs have had 
on the ability of the Army Corps of Engineers and its contractors to 
complete their reconstruction mission in Iraq? What additional steps, 
if any, do you believe that Army Corps could take to reduce these 
costs?
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.
    Question. Do you believe that the Department of Defense is in a 
position to ensure the safety of contractor employees working under 
Army Corps contracts in Iraq? What additional steps, if any, do you 
believe that DOD or the Army Corps should take to ensure the safety of 
contractor employees?
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.
    Question. What is your understanding of the current legal status of 
private security employees hired by Army Corps contractors in Iraq? Do 
you believe that additional legislation is needed to clarify the legal 
status and responsibility of security contractors in areas like Iraq?
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.
    Question. What will be the continuing role of the Army Corps of 
Engineers in the execution and management of contracts for the 
reconstruction of Iraq, in view of last month's elections and the 
transition to Iraqi sovereignty?
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.
    Question. In your view, can current practices and processes in 
construction management conducted by the Corps benefit from a study of 
private sector methods and trends to seek innovative ways to improve 
the efficiency and customer response in military design and 
construction?
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.

       CONTRACTS FOR THE RECONSTRUCTION OF THE IRAQI OIL INDUSTRY

    Question. Two years ago, the Army Corps of Engineers was designated 
the executive agent for Iraqi oil infrastructure reconstruction. 
Because of urgent and compelling circumstances and in compliance with 
the Competition in Contracting Act, an April 2003 sole-source award was 
made for a ``bridge'' contract to reconstruct the Iraqi oil industry 
prior to the award of a competitive follow-on contract in January 2004. 
The Corps of Engineers stated that it would limit orders under the 
``bridge'' contract ``to only those services necessary to support the 
mission in the near term.'' Can you describe the urgent and compelling 
circumstances that led to the award of the ``bridge'' contract, the 
reason why this contract had a 2-year term and an estimated value of $7 
billion, and the steps the Army Corps of Engineers took to limit work 
under this contract prior to the award of the competitive follow-on 
contract?
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.
    Question. On January 13, 2004, the Defense Contract Audit Agency 
(DCAA) sent a memorandum to the Army Corps of Engineers alerting that 
its contractor on the Iraqi oil reconstruction contract did not have 
appropriate systems in place to estimate the costs of its work in Iraq. 
Three days later, the Army Corps awarded a new, competitive $1.2 
billion contract with the company to continue its work on the 
reconstruction of the Iraqi oil industry. The source selection document 
indicates that the contractor was given a perfect score in the 
competition for its estimating system. Please explain how the Army 
Corps took into account the DCAA memorandum in its appraisal of the 
contractor's estimating system.
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.
    Question. What steps are being taken to ensure that the Army Corps 
takes into consideration the concerns expressed by other appropriate 
DOD components, such as DCAA, when it evaluates the past performance 
and present capability of offerors? Do you believe that any additional 
steps are needed?
    Answer. Under General Orders No. 3, dated July 9, 2002, Department 
of the Army Secretariat oversight of U.S. Army Corps of Engineers 
activities in foreign lands that are not directly in support of U.S. 
military forces overseas is assigned to the Assistant Secretary of the 
Army (Civil Works). However, Department of the Army oversight of the 
reconstruction of Iraq, including U.S. Army Corps of Engineers 
reconstruction activities, has been assigned to the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology). During my 
previous service as Assistant Secretary of the Army (Civil Works), I 
received periodic briefings on the Corps' work in Iraq, in order to 
remain aware of the situation.

                               DAM SAFETY

    Question. The Corps of Engineers is a leader in developing 
engineering criteria for safe dams, and conducts an active inspection 
program of its own dams. The Corps has also carried out inspections at 
most of the dams built by others--Federal, State, and local agencies 
and private interests. Most Corps constructed flood protection projects 
are owned by sponsoring cities, towns, and agricultural districts, but 
the Corps continues to maintain and operate 383 dams and reservoirs for 
flood control. Recent press accounts have highlighted concerns for the 
condition, safety, and security of our national dam infrastructure. 
What is your assessment of the safety and security of the current dam 
infrastructure managed by the Corps?
    Answer. The safety and security of U.S. Army Corps of Engineers 
dams is a major concern. The average age of Corps dams is approaching 
50 years. Many of these dams have a relatively high risk for failure or 
not being able to function as designed, due to the likelihood of major 
or extremely large floods, seepage and piping through embankments and 
foundations, fatigue and fracture of gates, and other problems due to 
damage or deterioration. At a few of the dams (such as the Fern Ridge 
Dam in Oregon), normal operations currently are restricting because of 
dam safety problems that must be corrected. Other dams are being 
modified or restored using operation and maintenance funding.
    The Corps has developed a dam safety strategic plan with specific 
goals, objectives and target dates to address these issues during the 
next 5 years. Dam safety projects and activities receive the highest 
priority in the President's fiscal year 2006 budget for Civil Works.
    Question. What do you view as the greatest challenges facing the 
Corps with respect to the sustainment and protection of our dams?
    Answer. The greatest challenge is to develop a cost-effective risk 
assessment and risk management policy for the Dam Safety Assurance, 
Major Rehabilitation and Major Maintenance programs. It is essential 
that the Corps accelerate the deployment of a Portfolio Risk Assessment 
in fiscal year 2005, in order to shape decisions in fiscal year 2006 
and beyond.
    Performing a Portfolio Risk Assessment will improve the Corps' 
ability to prioritize and justify dam safety investment decisions 
throughout the Corps. The Corps must balance vital dam safety 
requirements against competing needs, and a risk-based process provides 
valuable information for comparing the relative impacts of different 
types of dam safety problems, such as damage due to earthquakes; damage 
due to extremely large floods; erosion damage to spillways; gates that 
do not operate properly; and seepage and piping damage to embankment 
dams and foundations.

                    MILITARY TO CIVILIAN CONVERSION

    Question. The Army has committed to converting billets currently 
being performed by military personnel to civilian positions wherever 
possible in order to enhance combat capability and operational 
readiness. What steps were taken during your previous tenure as 
Assistant Secretary of the Army for Civil Works to convert military 
billets in the Army Corps of Engineers, installations management, and 
other areas affecting the Civil Works mission of the Army to civilian 
position?
    Answer. There were no conversions of uniformed military billets 
associated with the Civil Works program to civilian positions during my 
previous service as Assistant Secretary. I understand that 
approximately 40 uniformed military billets associated with the Corps 
Military Program were converted to civilian positions during the last 
two Total Army Analysis (TAA) reviews.
    Question. What additional steps, if any, are being taken to further 
substitute civilian workers for military personnel and what limitations 
should be observed in doing so?
    Answer. As far as I am aware, no steps are being taken at this time 
to substitute civilians for uniformed military associated with the 
Civil Works program. I understand that review of position requirements 
for the Military Program carried out by the Corps and decisionmaking on 
how best to fill them is a regular, ongoing process that takes into 
account the overall needs of the Army.

             PUBLIC WORKS CRITICAL INFRASTRUCTURE ASSURANCE

    Question. The U.S Army Corps of Engineers is the DOD lead component 
for Public Works Critical Infrastructure Assurance. In that role, it 
has a unique responsibility for working with the military services, 
other Federal agencies, and commercial sector entities to ensure 
adequate public works (i.e. electricity, water, and public works 
facilities) are available to support the warfighter. How have the Civil 
Works capabilities of the Army Corps of Engineers been used to support 
the Army and DOD in ensuring that these capabilities are available?
    Answer. In the Corps' role as the DOD lead component for Public 
Works Critical Infrastructure Assurance, a close partnership has been 
forged between the combatant commanders, the armed services, and the 
commercial sector in identifying public works assets that support the 
Department of Defense. Working within the existing DOD Directive 3020, 
authorities for Critical Infrastructure Assurance Program, the Corps 
has identified critical assets not only within its national harbor and 
inland waterway networks, but also its dams and reservoir complexes 
supporting critical DOD missions as well. The Corps has worked with DOD 
to identify whether vulnerabilities are evident and to identify means 
to assure these facilities remain available. The Corps shares its 
incident and monitoring activities with the DOD community and works 
closely with the other DOD critical infrastructure protection (CIP) 
infrastructure sector leads. Further, the Corps has built strategic 
relationships with other Federal agencies, to share critical 
infrastructure expertise. For example, protective design experts have 
worked closely with the Bureau of Land Management in conducting 
vulnerability assessments and designing protective design solutions for 
their dams. The Office of the Secretary of Defense and the Headquarters 
of U.S. Northern Command (NORTHCOM) are fully aware of the 
comprehensive Critical Infrastructure Assurance Program and rely upon 
the Corps for public works advice.

      DEPARTMENT OF HOMELAND SECURITY AND PROTECTION OF HOMELAND 
                             INFRASTRUCTURE

    Question. In a typical year, the Corps of Engineers responds to 
more than 30 Presidential disaster declarations, plus numerous State 
and local emergencies. Emergency responses usually involve cooperation 
with other military elements and the Department of Homeland Security in 
support of State and local efforts. What is your view of the current 
level of coordination and support provided between the office of the 
Assistant Secretary of the Army for Civil Works and the Department of 
Homeland Security?
    Answer. During my previous service as Assistant Secretary, I had 
only occasional direct, personal interaction with the Department of 
Homeland Security.
    However, the U.S. Army Corps of Engineers and the Department of 
Homeland Security have a very strong relationship and work closely on 
several major initiatives and projects. The Corps has three full-time 
liaisons at the Department of Homeland Security, one with the Coast 
Guard, one with the Science and Technology Directorate, and one with 
the Emergency Preparedness and Response Directorate, which includes the 
former Federal Emergency Management Agency. Close collaboration occurs 
in such areas as protection of critical infrastructure, research and 
development, and disaster response. The Corps constantly strives to 
strengthen and tailor the relationship to leverage resources and 
expertise, and create partnerships that benefit each other and State 
and local agencies. In addition, the Office of the Assistant Secretary 
of the Army (Civil Works) and the U.S. Army Corps of Engineers have 
been involved in the development of Operation Safe Commerce, which is 
now led by the Department of Homeland Security.
    Question. What processes and new programs have been implemented, or 
would you propose if confirmed, to address heightened security and 
resource protection issues in civil works projects?
    Answer. The Corps already is carrying out measures to protect its 
critical infrastructure through the Civil Works Critical Infrastructure 
Security Program. If confirmed, I will seek opportunities to support, 
through the appropriate programs, an increase in research and 
development for critical infrastructure protection. I will promote a 
better understanding of the interdependencies and vulnerabilities of 
key infrastructure sectors, in part through modeling and simulations. 
If confirmed, I also would seek practical and cost effective means to 
rapidly reconstitute critical infrastructure if it fails or is 
attacked. This is an essential cornerstone to any critical 
infrastructure protection strategy.
    Question. How would you characterize the effectiveness of the 
working relationships between the Department of the Army and Federal, 
State, and local agencies responsible for crisis and consequence 
management?
    Answer. I am not in a position to authoritatively characterize the 
effectiveness of the Department of the Army's working relationships 
with other governmental entities responsible for crisis and consequence 
management. However, I can say that the U.S. Army Corps of Engineers 
has an excellent relationship with other local, State, and Federal 
agencies. With over 40 offices across the country, the Corps is 
involved in planning and training exercises on a routine basis. The 
Corps district offices and labs serve as centers of expertise for local 
officials in the areas of disaster planning, response and recovery.
    In addition, the Corps strives to promote Public Private 
Partnerships. For example, The Infrastructure Security Partnership 
(TISP) (the Corps was a founding board member of TISP), has a wide 
variety of members from local, State, and Federal Governments, 
engineering associations and industry. TISP is involved in marshalling 
support of the engineering community in support of global disasters 
such as the Indian Ocean tsunami, to collaborating and facilitating 
knowledge, and technology transfer in protecting the Nation's critical 
infrastructure.
    Question. What are the most significant problems, if any, that must 
be overcome in ensuring appropriate cooperation?
    Answer. Again, I would limit my answer to problems being faced by 
the U.S. Army Corps of Engineers. The Corps utilizes funding within the 
Flood Control and Coastal Emergency account, in order to maintain a 
``readiness status'' that allows it to respond to any contingency at 
any time. I am pleased to say that the President's fiscal year 2006 
budget recently transmitted to Congress includes a funding level for 
flood control and coastal emergencies that is adequate to keep the 
Corps' capability available and ready.

                NAVIGATION AND ENVIRONMENTAL RESTORATION

    Question. In your responses to previous advance policy questions 
submitted in February 2003, you discussed the challenges facing the 
Army with respect to the execution of its navigation and environmental 
protection and restoration missions. What do you now view as the 
greatest challenges facing the Army with respect to the execution of 
these missions?
    Answer. As I stated in 2002, the Army Corps of Engineers has a 
unique responsibility to balance environment and development in the 
public interest. If confirmed, I will preserve the integrity of Civil 
Works missions to protect and restore the environment and to promote 
national economic development by making environmental sustainability an 
integral part of all Civil Works activities.
    The most significant challenge will be the ability to respond to 
the Nation's water resources needs in the face of scarce resources. 
Tough choices will need to be made. We are a Nation at war, and our 
focus must be on ensuring our security at home and abroad.
    The Nation faces complex navigation and environmental challenges. 
One of the greatest challenges is to ensure that our analyses and 
decisions are backed up by firm science and technology. One example of 
how we are addressing this challenge is a new activity proposed in the 
President's fiscal year 2006 budget for a Science and Technology 
Program supporting restoration of the Coastal Louisiana area. This 
program would provide a platform for data acquisition, management, 
model development, and analysis enhancing Louisiana Coastal Area Plan 
implementation and additional large-scale, long-term planning, and 
project selection efforts.
    Another major challenge is the need to continually seek balance and 
comity with and among States and other Federal agencies, which have 
equally important responsibilities in these areas. There is rarely a 
single, unanimously-supported answer to questions that arise in the 
planning and execution of navigation or environmental restoration 
projects. We must improve our ability to bring all interests to the 
table to address these questions collaboratively.
    Question. Are there aspects of these missions which you believe 
should be transferred from the Department of the Army?
    Answer. No, I do not believe there are elements of these programs 
that should be transferred from the Department of the Army. In my view, 
the Corps has performed and continues to perform effectively in the 
navigation and environmental restoration arena, as well as in its other 
mission areas. The Corps is well equipped with its professional staff 
of economists, environmental scientists, and engineers to continue to 
work with our project sponsors, Federal and State resource agencies, 
the public, and other stakeholders to provide for the Nation's water 
resources needs.

                 MISSION OF THE ARMY CORPS OF ENGINEERS

    Question. If confirmed, how would you preserve the integrity of the 
Corps's environmental and civil works mission?
    Answer. From both Civil Works study and project construction 
perspectives, it is absolutely essential that the studies the Corps 
performs, and the projects the Corps recommends for construction, are 
formulated on a watershed basis, recognizing the full range of Federal 
and non-Federal, public and private activities in the watershed and 
bringing into the decisionmaking process all interested parties, many 
of which have their own authorities, independent goals, and resources 
which can contribute to a successful watershed management plan. 
Environmental and infrastructure development goals need to complement 
the goals under the Civil Works regulatory program.
    Question. What are your views about the potential performance of 
regulatory functions presently performed by the Army Corps of Engineers 
by other governmental or non-military entities?
    Answer. Since the Rivers and Harbors Act of 1899, the Corps has 
been involved in protecting navigable waters, and as a result of the 
Clean Water Act enacted in 1972, the Corps role was expanded 
considerably to include wetlands and other waters of the United States. 
The Corps has a well-trained, experienced cadre of about 1,200 
regulators and decades of experience. From a purely technical point of 
view, it could be argued that another agency or a non-governmental 
organization could delineate wetlands and process permits. But in 
addition to extensive expertise, the Corps has a long history of 
working with multiple parties and stakeholders with the objective of 
achieving balance. The regulatory authorities granted to the Corps also 
complement its other water resources development missions, such as 
navigation and flood and storm damage reduction.
    My view is that the Corps always should be neither a project 
proponent nor a project opponent. Their goal is to make fair and 
objective permit decisions, taking into account good science, available 
information, and the views of all interested parties. My experience is 
that the Corps culture is well-suited for taking on this tremendous 
responsibility--achieving the objectives set forth by Congress in 
statute while, at the same time, serving the regulated public.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this high position, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those differ from the administration in power?
    Answer. As a political appointee, I consider it my duty to be an 
advocate for the policies of the administration. However, I will always 
be prepared to provide my best professional judgment when asked.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Civil Works?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

                   NATIONAL INFRASTRUCTURE PRIORITIES

    1. Senator Warner. Mr. Woodley, the mission of the Army Corps of 
Engineers is to provide quality, responsive engineering services to our 
Nation for the planning, design, construction, and operation of water 
resources and other civil works projects, such as navigation, flood 
control, environmental protection, and disaster response. In these 
roles, engineers in the Corps assess the conditions of our national 
infrastructure to determine the need for repairs and maintenance. In 
your view, what are the most urgent infrastructure requirements on 
which we should focus attention and resources?
    Mr. Woodley. Mr. Chairman, the most urgent infrastructure 
requirements are to ensure the structural stability and soundness of 
our aging inland waterways system and the portfolio of dams numbering 
over 600 that the Corps operates and/or maintains. The inland waterway 
system is showing a trend upward for unscheduled closures requiring 
emergency repairs. This is an indicator of the challenge the Corps 
increasingly faces in maintaining the reliability of the system. The 
Corps is pursuing modernization projects and focusing its operation and 
maintenance dollars on actions to reduce the risk of failures in the 
system such as was experienced at Greenup Lock and Dam on the Ohio 
River in the summer of 2003. In that case, the emergency closure cost 
an estimated $25 million to the economy in direct repair costs and 
economic impact of delay in waterway traffic. For the Corps portfolio 
of dams, we must continue to invest in dam safety studies and repairs 
of those dams requiring early attention. The Corps has recently adopted 
an approach on risk assessment of all dams to ensure those requiring 
repairs are prioritized across the Nation.
    The Corps inspection program of federally constructed flood control 
projects that are operated and maintained by local governments is 
another important component of the Corps O&M program. The local 
governments retain responsibility for repairs of these structures, some 
of which have reached or exceeded the useful life to which they were 
engineered.
    The Corps will continue to address those water resources 
infrastructure issues with the highest risk of failure or impacts to 
operational reliability.

                    IMPROVE CONSTRUCTION MANAGEMENT

    2. Senator Warner. Mr. Woodley, the Army Corps of Engineers is 
responsible for a significant amount of military construction in the 
Department of Defense. As a way to achieve cost savings, proposals have 
been made to improve construction project management by adopting 
private sector processes for expedient construction completion in order 
to reduce payments for contractor overhead and expenses related to time 
on a construction site. In your view, how can current practices and 
processes in construction management conducted by the Corps benefit 
from a study of private sector methods and trends to seek innovative 
ways to improve the efficiency of military design and construction?
    Mr. Woodley. Your question is timely and very germane to a current 
initiative that is in response to the Army's Transformation imperative. 
The Corps of Engineers in concert with the Army's Office of the 
Assistant Chief of Staff for Installation Management (OACSIM) and the 
Installation Management Agency (IMA) is working under a mandate from 
the Assistant Secretary of the Army (Installations and Environment), to 
also transform the delivery of military construction. The prime drivers 
will be timely delivery at lower cost utilizing commercial practices 
and standards to the maximum extent practicable. To that end the Army 
delivery team will be conducting several industry forums in the near 
future to discuss and gain more private sector input into innovative 
project delivery strategies. One of the major delivery methods will be 
design-build, whereby the total responsibility for both the design and 
construction rests with the contractor. This method allows the private 
contractor to manage schedule and cost to achieve performance 
requirements established by the Government. We plan to incorporate new 
innovative delivery strategies and apply the lessons learned over the 
next several years to execute Army Transformation military construction 
as well as that necessitated by base closures, restationing, and 
regular programs. While I am fully committed and always interested in 
seeking ways to improve the construction practices of the Corps of 
Engineers, the proponent for military construction is the Assistant 
Secretary of the Army (Installations and Environment), with whom I have 
coordinated this response.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                 NINIGRET AND CROSS MILLS POND PROJECT

    3. Senator Reed. Mr. Woodley, the New England District of the Corps 
recently informed my office that no further Federal funds are available 
for the habitat restoration components of the Ninigret and Cross Mills 
Pond project in Charlestown, Rhode Island. The Rhode Island Coastal 
Resources Management Council and the Corps have been working 
cooperatively on this project for several years, and the State has 
provided its required 35 percent match. While the Corps is moving 
forward with the dredging components of the project, the New England 
District now says it has no Section 206 funding to plant eelgrass in 
Ninigret Pond or restore a critical fish passage at Cross Mills Pond. 
These two components were the primary justification for the project and 
the reason the Rhode Island General Assembly provided the State match. 
I am concerned that a failure by the Corps to fulfill its commitments 
under this project will discourage the State from participating in 
future ecosystem restoration projects with the Army Corps of Engineers. 
Please describe the circumstances that resulted in a lack of funding 
for the corps to fulfill its commitment on the Ninigret and Cross Mills 
Pond project.
    Mr. Woodley. The Ninigret and Cross Mills Pond project is an 
excellent project providing important ecosystem enhancements to coastal 
Rhode Island.
    The first contract to be awarded was for the dredging at Ninigret 
Pond. Priority for allocation of fiscal year 2005 funding was given to 
projects listed in the committee reports accompanying the 
appropriations act. Ninigret and Cross Mills Pond received $200,000 in 
the fiscal year 2005 report language and $150,000 in fiscal year 2004 
report language. The $684,000 allocated in fiscal year 2005 to support 
the dredging contract enabled the contractor to proceed at a more 
efficient rate during the environmental ``window'' for dredging, that 
closes on March 31, 2005.
    The dredging contractor will be ready to resume work when the 
``window'' reopens in October 2005, assuming that the project continues 
to enjoy the support of congressional appropriators and that sufficient 
fiscal year 2006 funds are made available.
    The eelgrass planting at Ninigret Pond logically should take place 
at the completion of the dredging. This work could also take place in 
fiscal year 2006 should sufficient funds be made available by Congress. 
The fish passage construction at Cross Mills Pond also could take place 
in fiscal year 2006 subject to continued congressional support in the 
fiscal year 2006 appropriations.

    4. Senator Reed. Mr. Woodley, would it be possible for the Corps to 
secure additional section 206 or other funds to bring the Ninigret and 
Cross Mills Pond Project to completion?
    Mr. Woodley. The availability of funds to continue work on the 
project in fiscal year 2006 will depend on committee actions on fiscal 
year 2006 appropriations for energy and water development. Priority for 
allocation of fiscal year 2006 funds will be given to projects named in 
committee reports accompanying the appropriations act. Any funds 
available for the Ninigret and Cross Mills Pond project would be used 
first to complete the previously awarded dredging contract.
                                 ______
                                 
    [The nomination reference of John Paul Woodley, Jr., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 24, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John Paul Woodley, Jr., of Virginia, to be an Assistant Secretary 
of the Army, vice Michael Parker.
                                 ______
                                 
    [The biographical sketch of John Paul Woodley, Jr., which 
was transmitted to the committee at the time the nomination was 
referred, follows:]

             Biographical Sketch of John Paul Woodley, Jr.

    On August 22, 2003, President George W. Bush appointed John Paul 
Woodley, Jr., as Assistant Secretary of the Army (Civil Works).
    Mr. Woodley is responsible for the supervision of the Army's Civil 
Works program, including programs for conservation and development of 
the Nation's water and wetland resources, flood control, navigation, 
and shore protection.
    Prior to his appointment as the Assistant Secretary of the Army 
(Civil Works), Mr. Woodley served as the Assistant Deputy Under 
Secretary of Defense (Environment). In this capacity Mr. Woodley 
oversaw the Defense environmental program, encompassing both 
environmental restoration and compliance and pollution prevention 
efforts. Mr. Woodley was also the principal advisor to the Secretary of 
Defense on environmental, safety and occupational health policy and 
programs.
    Prior to his appointment as the Assistant Deputy Under Secretary of 
Defense (Environment), Mr. Woodley served as Secretary of Natural 
Resources in the Cabinet of Virginia Governor Jim Gilmore from January 
1998 until October 2001. As Secretary of Natural Resources, Mr. Woodley 
supervised eight Virginia agencies responsible for environmental 
regulation, permitting and enforcement, natural and historic 
conservation, and outdoor recreation, including parks, fisheries, and 
wildlife management.
    Mr. Woodley also served as Deputy Attorney General of Virginia for 
Government Operations beginning in 1994. The Government Operations 
Division of the Attorney General's Office represented all state 
agencies in the areas of administration, finance, transportation, 
economic development, and natural resources.
    Mr. Woodley attended Washington & Lee University in Lexington, 
Virginia, on an Army R.O.T.C. scholarship. He received a Bachelor of 
Arts degree from Washington & Lee in 1974, and was elected to Phi Beta 
Kappa. Mr. Woodley also attended the Law School at Washington & Lee, 
where he received his juris doctor degree cum laude in 1977.
    Mr. Woodley served on active duty with the U.S. Army Judge Advocate 
General's Corps from 1979 until 1985 and retired from the Army Reserve 
in August 2003 as a Lieutenant Colonel. He has been awarded the Legion 
of Merit, the Meritorious Service Medal (2nd Oak Leaf Cluster), the 
Army Commendation Medal (1st Oak Leaf Cluster), and the Army 
Achievement Medal. His civilian awards include the Secretary of Defense 
Medal for Outstanding Public Service. Mr. Woodley is a native of 
Shreveport, Louisiana.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by John Paul 
Woodley, Jr., in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Paul Woodley, Jr.

    2. Position to which nominated:
    Assistant Secretary of the Army (Civil Works).

    3. Date of nomination:
    January 24, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 28, 1953; Shreveport, Louisiana.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Priscilla Ingersoll.

    7. Names and ages of children:
    Elizabeth, 18.
    Cornelia, 16.
    John Paul, 13.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    B.A., Washington & Lee, 1974.
    J.D., Washington & Lee, 1977.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1977-1979, Law Clerk, USDC, Richmond, VA;
    1979-1985, U.S. Army;
    1985-1990, Private law practice;
    1990-1994, Assistant Commonwealth's Attorney for Henrico County, 
Virginia;
    1994-1998, Deputy Attorney General of Virginia for Government 
Operations;
    1998-2001, Secretary of Natural Resources for the Commonwealth of 
Virginia;
    2001-2003, Assistant Deputy Under Secretary of Defense for 
Environment;
    1985-2003, Army Reserves, Judge Advocate General Corps, Lieutenant 
Colonel;
    2003-2004, Assistant Secretary of the Army for Civil Works;
    2005-present, Principal Deputy Assistant Secretary of the Army for 
Civil Works.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    See 9 above.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Virginia State Bar.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Richmond City Republican Committee, Member.
    Henrico County Republican Committee, Member.
    Third District Republican Committee, Chairman.
    Republican National Lawyer's Association, Board Member.
    Virginia Republican Lawyer's Association, Chairman.
    Candidate for City Council of Lexington, Virginia.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    See (a) above.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

30 October 1997                      Gilmore for Governor           $100
12 November 1997                     Friends of Jerry               $100
                                      Kilgore
12 December 1997                     Republican Black               $100
                                      Caucus
12 September 1998                    Campaign for Honest            $100
                                      Change
19 October 1998                      Bliley for Congress            $100
27 May 1999                          Hord for Delegate              $100
23 March 2000                        Henrico Republican             $100
                                      Committee
07 July 2000                         Republican National            $500
                                      Lawyers Assn.
16 March 2001                        Republican National            $100
                                      Lawyers Assn.
6 May 2003                           Bush-Cheney 2004             $2,000
22 October 2003                      Barbour for Governor           $200
16 January 2004                      Republican Party               $100
2 March 2004                         Fairfax County                 $160
                                      Republican Committee
29 March 2004                        Bush-Cheney 2004             $2,000
24 October 2004                      Council of Republicans         $100
                                      for Environmental
                                      Advocacy



    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Legion of Merit; Meritorious Service Medal (2 oak leaf clusters); 
Army Commendation Medal (1 oak leaf cluster); Army Achievement Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Published article in ``The Military Engineer,'' May-June 2004 
issue, entitled Civil Works and the Environment.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have made speeches to numerous groups and conferences. I have 
records of only a few of these, which I will provide. [Nominee 
responded and the information is retained in the committee's executive 
files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             John Paul Woodley, Jr.
    This 3rd day of February 2005.

    [The nomination of John Paul Woodley, Jr., was reported to 
the Senate by Chairman Warner on March 17, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 12, 2005.]
                              ----------                              

    [Prepared questions submitted to Buddie J. Penn by Chairman 
Warner prior to the hearing with answers supplied follow:]

                                                   9 February 2005.
Hon. John Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the 
advanced policy questions the Senate Armed Services Committee asked me 
to complete.
            Sincerely,
                                         B.J. Penn.
cc: Hon. Carl Levin,
     Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. Do you support full implementation of 
these defense reforms?
    Answer. Yes. The establishment of the combatant commands, the 
definition of responsibilities, and most importantly, the focus on 
``jointness'' has enhanced the readiness and warfighting capabilities 
of the U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these defense reforms have been fully implemented 
and, judging from the performance of our joint forces in recent 
conflicts, are very effective.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I consider the most significant value of these reforms to 
be the focus on joint operations. A central tenet of these defense 
reforms is to promote forces working jointly in combat operations. 
Current joint efforts in Afghanistan and Iraq validate the success of 
these reforms.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations reforms can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense. Do you agree with these goals?
    Answer. Yes.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I am unaware of any specific proposals to amend Goldwater-
Nichols. If confirmed, I will work with the Secretary of the Navy on 
any proposed changes that pertain to naval installations, environmental 
or safety concerns.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy for Installations and Environment?
    Answer. The role of the Assistant Secretary of the Navy for 
Installations and Environment is to formulate policy and procedures for 
the effective management of Navy and Marine Corps real property, 
housing, and other facilities; environmental protection ashore and 
afloat; occupational health for both military and civilian personnel; 
and timely completion of closures and realignments of installations 
under base closure laws. If confirmed, I will be responsible for these 
duties within the overall priorities of the Secretary of the Navy and 
pursue any other duties he may assign.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. As a career naval officer, I bring a significant depth of 
understanding and appreciation of the naval culture and heritage to the 
position. Serving as both the commanding officer of an aviation 
squadron as well as the commanding officer of a major naval air 
station, I understand how installations and facilities serve fleet 
readiness needs. I understand the value safety plays as a critical 
enabler of that readiness. My time in the civilian sector both inside 
and outside of government gives me a unique perspective from which to 
view current Navy and Marine Corps programs. My acquisition experience 
and joint program experience will undoubtedly assist me in working with 
other Service contemporaries in developing effective joint initiatives.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Navy for Installations and Environment?
    Answer. If confirmed, I plan to seek and listen to the concerns and 
needs of the Navy and Marine Corps, as well as those who would appear 
to have alternative views. I have found that successful leaders devise 
practicable solutions that maximize successful outcomes for all 
parties.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Navy would prescribe for you?
    Answer. I am not aware of any additional duties at this time beyond 
those outlined above that have traditionally been the province of this 
position.

                             RELATIONSHIPS

    Question. In carrying out your duties, how will you work with the 
following?
    The Secretary of the Navy.
    Answer. If confirmed, I will seek to carry out the goals and 
priorities of the Secretary of the Navy.
    Question. The Under Secretary of the Navy.
    Answer. If confirmed, I will seek the counsel and guidance of the 
Under Secretary of the Navy and support his efforts to carry out the 
goals and priorities of the Secretary of the Navy.
    Question. The Chief of Naval Operations.
    Answer. If confirmed, I will provide the support that the CNO 
requires to execute his duties and responsibilities and achieve the 
mission of the Navy.
    Question. The Commandant of the Marine Corps.
    Answer. If confirmed, I will provide the support that the 
Commandant requires to execute his duties and responsibilities and 
achieve the mission of the Marine Corps.
    Question. The Deputy Under Secretary of Defense for Installations 
and Environment.
    Answer. If confirmed, I will work with the Deputy Under Secretary 
of Defense for Installations and Environment to develop and execute 
policies and initiatives of the President, the Secretary of Defense, 
and the Secretary of the Navy.
    Question. The other Assistant Secretaries of the Navy.
    Answer. If confirmed, I will work as part of a team to ensure that 
we present the best efforts to support the Secretary of the Navy's 
goals and priorities.
    Question. The Assistant Secretaries of the Army and Air Force for 
Installations and Environment.
    Answer. If confirmed, I will work closely with the Assistant 
Secretaries of the Army and Air Force for Installations and Environment 
to strengthen the cooperation between the Services. I will work to 
foster a cordial and productive working relationship with these 
colleagues.
    Question. The General Counsel of the Navy.
    Answer. If confirmed, I will work closely with the General Counsel 
of the Navy on areas of mutual interest.
    Question. The Judge Advocate General of the Navy.
    Answer. If confirmed, I will work closely with the Judge Advocate 
General of the Navy on areas of mutual interest.
    Question. The Commander, Naval Facilities Engineering Command.
    Answer. If confirmed, I will work with the Commander, Naval 
Facilities Engineering Command to identify and implement policies and 
practices that best support the needs of the Department of the Navy.
    Question. The Commander, Navy Installations.
    Answer. If confirmed, I will work with the Commander, Navy 
Installations to identify and implement policies and practices that 
best support the needs of the Department of the Navy.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would confront if confirmed as Assistant Secretary of the Navy for 
Installations and Environment?
    Answer. One major challenge will certainly be implementing the Base 
Realignment and Closure 2005 recommendations in a timely and fiscally 
responsible manner that benefits the Navy while working with 
environmental regulators and local communities to expedite 
environmental cleanup and disposal of the property. Another challenge 
will be to continue the Department's environmental stewardship that 
will ensure future access to the seas and land areas requirements 
necessary to maintain military readiness needs. A third will be to 
foster greater awareness for safety while seeking to avoid personal 
injuries and property damage while and maintaining fleet readiness.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan to work closely with Congress, the 
Secretary of the Navy, the Chief of Naval Operations, the Commandant of 
the Marine Corps, the Deputy Under Secretary of Defense (Installations 
and Environment), as well as other governmental and non-governmental 
organizations where appropriate.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Navy 
for Installations and Environment?
    Answer. I am unaware of any serious problems in the performance of 
the functions of the Assistant Secretary of the Navy for Installations 
and Environment.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will work closely with the Secretary of the 
Navy to evaluate the present situation and develop a strategic plan to 
address areas requiring attention.

                               PRIORITIES

    Question. What broad priorities would you establish, if confirmed, 
in terms of issues which must be addressed by the Assistant Secretary 
of the Navy for Installations and Environment?
    Answer. If confirmed, I will establish priorities consistent with 
those of the Secretary of Defense and the Secretary of the Navy.

                   HOUSING AND BARRACKS PRIVATIZATION

    Question. Congress has repeatedly expressed its support for 
improving military family and unaccompanied housing through a variety 
of methods. One option that has frequently been used to accelerate the 
improvement of family housing is for a military service to enter into 
an agreement with a private entity for the improvement, maintenance, 
and management of family housing inventories at military installations. 
To date this alternate method for the acquisition and improvement of 
family housing has produced very encouraging results, but no projects 
to privatize unaccompanied housing have been accomplished. If confirmed 
for the position of Assistant Secretary of the Navy for Installations 
and Environment you would have a key role in any decisions regarding 
military family and unaccompanied housing. What are your views 
regarding the privatization of military housing?
    Answer. As a career naval officer, I am well aware of the 
importance of military housing to the morale and welfare of sailors, 
marines, and their families. The ability to leverage government 
resources through partnership with the private sector helps the Navy 
and Marine Corps to obtain better housing faster.
    Question. What is your view of the structure, pace, and general 
goals of the Navy's current housing privatization program? Do you think 
the program should be continued, and if so do you believe the program 
should be modified in any way?
    Answer. I am generally aware of the Navy and Marine Corps housing 
privatization programs and schedules. If confirmed, I will seek to 
ensure the continued success of this effort.
    Question. The Department of Defense has established 2008 as a goal 
to improve the standards of military family housing. Do you believe 
this goal is realistic and achievable for the Department of the Navy?
    Answer. I understand that both the Navy and Marine Corps have 
budgeted programs to eliminate inadequate homes. If confirmed, I will 
work with the Secretary of the Navy, the Chief of Naval Operations, and 
the Commandant of the Marine Corps to attain this goal.
    Question. What are your views regarding the feasibility of 
privatizing unaccompanied housing?
    Answer. I believe the core benefits of privatization, i.e., use of 
private sector capital to acquire new units or rehabilitate existing 
ones and use of seasoned property management corporations to operate 
and maintain homes, has the potential to greatly benefit housing for 
unaccompanied military members just as it has done for military family 
housing.
    Question. What do you believe must be done to make the 
privatization of unaccompanied housing a viable program?
    Answer. If confirmed, I will pursue implementation of the 
demonstration projects authorized by Congress to validate this 
innovative concept.

                       BACHELOR ENLISTED QUARTERS

    Question. In recent years the Department of Defense has pursued the 
so-called ``1+1'' standard for unaccompanied housing. While building to 
this standard increases costs, many believe the greater privacy the 
``1+1'' standard offers our enlisted personnel is important to 
recruiting and retaining quality personnel. Others argue that the 
``1+1'' standard could reduce unit cohesion and slow the integration of 
new personnel into the military culture. The Marine Corps, and more 
recently the Navy, have sought and received waivers to build to a 
``2+0'' standard that affords less privacy but allows them to build new 
unaccompanied housing faster. What is your view of the ``1+1'' 
standard?
    Answer. I recognize that the ``1+1'' standard represents an effort 
to improve living conditions and privacy for enlisted personnel. If 
confirmed, I will work with the Deputy Under Secretary of Defense for 
Installations and Environment, the Chief of Naval Operations, the 
Commandant of the Marine Corps, and my counterparts in the Army and Air 
Force to ensure that we have the flexibility to apply the best 
solution, including the option to build to private sector standards, to 
further improve living conditions.
    Question. Do you believe the Navy and Marine Corps should build to 
the same standards as the Army and the Air Force or continue their 
recent waivers of the ``1+1'' standard?
    Answer. I have not yet been fully briefed on the waivers to the 1+1 
standard. If confirmed, I will work to ensure sailors and marines have 
a quality place to live and that we establish adequate housing in a 
timely manner.
    Question. The Navy recently embarked on an investment program to 
construct unaccompanied housing for sailors currently living aboard 
ships while docked in homeports. What goals and priorities has the Navy 
established for this program? Do you believe the goals are realistic?
    Answer. I understand that the Navy has established the goal to 
budget by fiscal year 2008 housing ashore for unaccompanied sailors 
currently living aboard ships while the ship is in homeport. As a 
career naval officer, I applaud this initiative. If confirmed, I will 
work with the Secretary of the Navy and the Chief of Naval Operations 
to bring this goal to reality.
    Question. Do opportunities exist for the Navy to use the 
unaccompanied housing privatization program to provide sailors adequate 
barracks while in homeport?
    Answer. I understand that the Navy has a solicitation underway for 
proposals from developers to provide privatized unaccompanied housing 
for sailors in San Diego, California, including those currently living 
aboard ship. It is also seeking approval from the administration to 
proceed with a second project in Hampton Roads, Virginia. If confirmed, 
I will work to bring these demonstration projects to fruition.

                      BASE REALIGNMENT AND CLOSURE

    Question. The Department of Defense is currently authorized to 
conduct one round of base realignment and closure (BRAC) in 2005. What 
changes to the Navy's locations around the world do you foresee as a 
result of the Department of Defense's global basing strategy review and 
what impact will these changes have on BRAC decisions?
    Answer. I have not participated in the Navy's BRAC analytical 
process and thus I am not in a position to offer an opinion as to what 
impact DOD's global basing strategy review will have on the Navy's BRAC 
decisions. If confirmed, I will look into this question and advise the 
Secretary of the Navy accordingly.
    Question. The Secretary of Defense has stated that ``through base 
realignment and closure we will reconfigure our current infrastructure 
into one in which operational capacity maximizes both warfighting 
capability and efficiency.'' If confirmed for the position of Assistant 
Secretary of the Navy for Installations and Environment, what role will 
you have in making recommendations to the Secretary of the Navy 
regarding the realignment and/or closure of Navy installations?
    Answer. I have not discussed with the Secretary of the Navy what 
role I will play in the BRAC 2005 process. If confirmed, I will provide 
whatever support the Secretary requires to prepare the Department's 
recommendations for closure and/or realignment of Navy and Marine Corps 
installations.
    Question. The DOD installation closure process resulting from BRAC 
decisions has historically included close cooperation with the affected 
local community in order to allow these communities an active and 
decisive role in the reuse of property. Do you support the current BRAC 
property disposal process and specifically the role of local 
communities in that process?
    Answer. Yes. I have reviewed the base closure law and find that it 
sets forth a clearly defined role for local communities to prepare a 
redevelopment plan for the property. It would seem to provide 
sufficient flexibility for the military department to use a variety of 
property disposal methods based upon individual circumstances.

                      INVESTMENT IN INFRASTRUCTURE

    Question. Witnesses appearing before the committee in recent years 
have testified that the military services underinvest in both the 
maintenance and recapitalization of facilities and infrastructure 
compared to private industry standards. Decades of underinvestment in 
our installations have led to substantial backlogs of facility 
maintenance activities, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity. If confirmed, what recommendations 
would you propose to restore and preserve the quality of our 
infrastructure?
    Answer. Earlier in my career I was fortunate to serve in the Navy 
as a pilot in an A-3 squadron, the commanding officer of a VAQ EA-6B 
squadron, and the commanding officer of Naval Air Station North Island, 
CA. If confirmed, I believe I would bring to the position a unique 
blend of experience in how high quality infrastructure can best serve 
our warfighters and their families.

                         ENCROACHMENT PROBLEMS

    Question. How should the Navy and Marine Corps address encroachment 
problems associated with increased population growth and development 
near Navy and Marine Corps installations and ranges?
    Answer. I believe we need to work closely with local communities as 
they develop land use management plans and zoning restrictions. We need 
to explain how local land use planning can affect our ability to meet 
military training and readiness needs.
    Question. What are the biggest challenges to military readiness 
caused by population encroachment?
    Answer. The number of bases and ranges we use for training and 
readiness is unlikely to increase substantially, so it is critical that 
we maximize effective use of existing facilities. Being qualified to 
fly numerous different military and civilian aircraft, I recognize the 
competing needs for air space and the pressures brought by residential 
and commercial development next to our bases, ranges, and below 
military flight paths. Population encroachment can also destroy 
habitat, driving wildlife, including endangered species, onto military 
bases, thereby increasing stewardship responsibilities and potentially 
affecting military missions performed on the base.
    Question. To what extent should the Navy and Marine Corps turn to 
military buffers and easements to reduce population encroachment?
    Answer. Buffers and restrictive use easements around military bases 
and ranges can be effective tools and we should look for opportunities 
to use those tools where prudent. Buffers and easements alone, however, 
will not solve the problem. We need to work with state legislatures and 
local governments to ensure that land use plans consider military 
training requirements needs and seek to avoid future encroachment 
issues.

                   SUSTAINABLE RANGE MANAGEMENT PLAN

    Question. The Department of Defense is developing a sustainable 
range management plan (SRMP) which helps develop a current and future 
inventory of range requirements and a plan to ensure such requirements 
can be maintained in the future. Please describe how the Navy and 
Marine Corps are involved in developing the Department's SRMP and 
specifically how the SRMP will help maintain testing and training 
capabilities at Navy and Marine Corps ranges.
    Answer. As a former naval aviator, I understand the vital role that 
our ranges serve to train our forces and test our platforms and 
weapons. I also understand that both the Navy and Marine Corps have 
range sustainability programs to develop site-specific range 
sustainment plans, analyses of mission capabilities, and assessments to 
determine if contaminants from training activities will adversely 
affect human health and the environment. The range management plans 
will include actions to apply best range management. If confirmed, I 
will work to ensure that management plans are implemented to ensure the 
long-term viability of our ranges.

                      UNEXPLODED ORDNANCE CLEANUP

    Question. What is the status of the Department of the Navy's 
cleanup of unexploded ordnance at former Navy and Marine Corps ranges?
    Answer. While I do not know the status of programs to clean our 
closed ranges, I do know that we have a legal responsibility to do so 
and that both the Navy and Marine Corps have efforts underway for range 
cleanup. I plan to learn more about these programs if confirmed and 
ensure that the Department's cleanup obligations are fulfilled.

                          COMPETITIVE SOURCING

    Question. Over the past several years, DOD has increased its 
reliance on the private sector to perform activities that are 
commercial in nature, including many functions relating to running and 
maintaining our military installations. What approach would you take, 
if confirmed, to balance the need to maintain necessary decisionmaking 
functions and technical capabilities in the government's civilian 
workforce, including the knowledge necessary to be a ``smart buyer,'' 
and skills such as civil engineering within the military, with the 
savings that may be available from outsourcing?
    Answer. I am aware that the Department has a process to evaluate 
functions to determine whether they are potential candidates for 
outsourcing, however I am unfamiliar with the details of that process. 
If confirmed, I will work to ensure that the Department obtains the 
optimum balance of private sector and in-house capability to best 
support the operations and maintenance of our military installations. I 
believe that the Department must maintain an objective and transparent 
process for establishing potential candidates for outsourcing.
    Question. Do you support the principle of public-private 
competitions as the preferred means to make the ``sourcing'' decision 
for such function?
    Answer. If confirmed, I will work with the Secretary of the Navy 
and the Department of the Navy staff to evaluate the issue of public-
private competition and whether it should be the preferred means to 
make the ``sourcing'' decision for such function. I support the 
underlying principle of competition to make sourcing decisions for 
functions that are commercial in nature. Competition requires all 
parties to be innovative and cost effective in the delivery of a 
product or service.
    Question. Do you believe that public-private competition results in 
significant savings to the Department of Defense regardless of which 
side wins the competition?
    Answer. I am aware of data gathered from the Department's official 
tracking system that demonstrates an average 36 percent savings from 
the original cost to perform the competed effort, regardless of which 
side wins the competition. I also understand that the government 
workforce has won the preponderance of public/private competitions the 
Department has conducted.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this high position, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. As a political appointee, I consider it my duty to be an 
advocate for the policies of the administration. However, I will always 
be prepared to provide my best professional judgment when asked.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy for Installations and Environment?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

                  ENCROACHMENT OF NAVAL INSTALLATIONS

    1. Senator Warner. Mr. Penn, a growing problem facing our military 
is the growing constraints on the use of military bases and ranges due 
to the requirements of environmental laws and regulations and increased 
urban development. In your view, how should this Nation address the 
growing encroachment of our naval facilities in order to meet the long-
term test, training, and readiness needs of the United States Navy in 
the coming decades?
    Mr. Penn. I believe we need to work closely with local communities 
as they develop land use management plans and associated zoning 
restrictions. We need to explain how local land use planning can affect 
our ability to meet military training and readiness needs. I am aware 
of recent initiatives by some states to ensure that land use planning 
consider the impact that new development might have on military bases 
and activities. I am also aware that land conservation authority 
Congress provided in the National Defense Authorization Act for Fiscal 
Year 2003 can help establish buffer zones and restrictive use easements 
to enhance training and readiness and provide insurance against future 
encroachment.

                CENTRALIZED MANAGEMENT OF INSTALLATIONS

    2. Senator Warner. Mr. Penn, the Navy decided in recent years to 
centralize the management of naval installations in one agency, 
Commander, Navy Installations (CNI) for the Navy. This reorganization 
removed the control of Operations and Maintenance resources from the 
local installation commander and placed these responsibilities with 
regional offices and a national headquarters. Concerns have been raised 
that the commanders charged with accomplishing the mission no longer 
have insight into where funds are actually needed. What is your opinion 
of centralizing naval installation management?
    Mr. Penn. I was an installation commander of Naval Air Station 
North Island, CA, earlier in my Navy career when the Navy's shore 
infrastructure was managed by as many as 18 different commands. There 
was a lot of duplication among the various bases along the San Diego 
waterfront. For example, each base might have its own offices for 
billeting, security, budget, etc., and develop its own policies and 
priorities that may or may not be consistent with those on another base 
just down the road.
    I believe centralized installation management, as has been 
accomplished with the establishment of Commander, Navy Installations, 
can improve efficiency and consistency, while reducing installation 
support costs, especially as the Navy continues to consolidate and 
transform the way it operates in an electronically connected world.

    3. Senator Warner. Mr. Penn, has this change impacted the ability 
of installations and their commanders to support mission requirements?
    Mr. Penn. I believe the intent of centralized management of 
installations was to improve the Navy's ability to support the 
warfighter while reducing infrastructure costs. I plan to visit Navy 
regional commands and installations to assess for myself how well this 
new organizational structure is performing, and seek to resolve any 
impediments to success that I may encounter.

            ENVIRONMENTAL REMEDIATION FOR BRAC REAL PROPERTY

    4. Senator Warner. Mr. Penn, a major activity within the disposal 
and re-use of property affected by a base realignment and closure 
(BRAC) decision will be the determination of the acceptable amount of 
environmental cleanup and remediation. Historically in prior BRAC 
action, those parties receiving the property have always wanted the 
cleanest site possible, while the government has always strived to 
clean up the site to minimum acceptable standards in order to save 
money. While a difficult problem to rectify, the military departments 
worked diligently in the past rounds to come up with a compromise on 
intended use of the property that was acceptable to all parties. If you 
are confirmed, will you continue the process of working with local 
communities to determine and agree on an acceptable use before 
establishing an environmental remediation plan?
    Mr. Penn. Yes, I expect the Department of the Navy to continue to 
closely coordinate property cleanup and disposal activities with 
Federal and State environmental regulators as well as community based 
Restoration Advisory Boards. It is important to note that, in contrast 
to the installations closed in earlier BRAC rounds 10 to 15 years ago, 
the Department's cleanup program at Navy and Marine Corps bases is much 
further along, with environmental cleanup completed or well underway at 
most sites, and the nature and extent of the contamination much better 
understood on the remaining sites.

                           BRAC RE-USE POLICY

    5. Senator Warner. Mr. Penn, as the president's nominee to be the 
Assistant Secretary of the Navy for Installations and the Environment, 
one of your primary responsibilities will be the timely completion of 
closures and realignments of installations in accordance with base 
closure laws. We will have the difficult task of working with 
communities in the coming years to close military bases as a result of 
decisions made in the 2005 BRAC round. You have stated in written 
responses that you agree that current law sets forth a clearly defined 
role for local communities to prepare a redevelopment plan for the 
properties made available by BRAC. That is consistent with 
congressional intent. What is your interpretation of congressional 
intent in relation to the Navy seeking fair market value for the 
property?
    Mr. Penn. I understand that the base closure law requires the 
Administrator of General Services to delegate to the Secretary of 
Defense the authority to dispose of surplus property at closed or 
realigned military installations, and requires the Secretary to do so 
in accordance with the regulations governing disposal of surplus 
property under the Federal Property and Administrative Services Act of 
1949. Another section of the base closure law provides authority to 
convey property to the local redevelopment authority for purposes of 
job generation on the installation. In amending that provision in the 
National Defense Authorization Act for Fiscal Year 2002, Congress 
directed the DOD to seek to obtain consideration in an amount equal to 
the fair market value of the property. The conference report 
accompanying that change stated, ``The conference agreement would 
require the Secretary of Defense to obtain fair market value for 
economic development conveyances in most cases, unless the Secretary 
determines the circumstances warrant a below-cost or no-cost 
conveyance.''

    6. Senator Warner. Mr. Penn, in your view, will the Navy's desire 
to seek a maximum financial return interfere or trump the requirement 
to work with the local community, to assist them with economic 
development and renewal?
    Mr. Penn. I do not believe that seeking maximum financial return 
will be the overriding Navy goal in disposing of property at closed or 
realigned installations, and I do not expect it will interfere with or 
trump the requirement to give deference to the redevelopment plan 
submitted by the redevelopment authority for the installation. I expect 
the Navy to use all of the available property disposal authorities in 
the proper circumstances, including economic development conveyances, 
public benefit conveyances, and public sales. In that context, use of 
the public sale property disposal authority can be a very effective 
means of assisting a local community with economic development and 
renewal and other property reuse objectives. For example, I understand 
that the Navy's recent sale of property at the former Marine Corps Air 
Station El Toro will result in up to 70 percent of the property being 
dedicated by the property purchaser to the local government for public 
purposes, and that developer fees will pay for many of the improvements 
needed to implement the desired public uses.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                         BASE CONTROL FUNCTIONS

    7. Senator McCain. Mr. Penn, several years ago the Navy chose to 
regionalize many of its bases within geographic areas. This process has 
removed many functions that a base commanding officer used to exercise 
control over and sent them to another base in the region. I have heard 
many commanding officers express their frustration with the process. Do 
you expect the Navy to continue down this path and if so, what do you 
think needs to change with the program to reestablish some element of 
oversight and control to the base commanding officer?
    Mr. Penn. The Navy's efforts to consolidate its shore 
infrastructure under a new Commander Navy Installations has been in 
effect for about 1\1/2\ years, with savings from organizational 
efficiencies projected into the Future Years Defense Plan. I plan to 
visit Navy regional commands and installations to assess for myself how 
well this new organizational structure is performing, and take action 
to resolve any concerns.

                     INSTALLATIONS FUNDING REVIEWS

    8. Senator McCain. Mr. Penn, in the National Defense Authorization 
Act for Fiscal Year 2005 (under Title XXVII-General Provisions, Items 
of Special Interest p. 441 ``Central management of installations) there 
is a legislative provision that requires the Secretary of the Navy to 
submit a report to the Senate Armed Services Committee by February 1, 
2005 that assesses several elements of the chronic under funding of 
facility sustainment and base operations accounts under Commander, Navy 
Installations. Are you aware of the report? Do you know that it has not 
been submitted on time? If confirmed, would you review it for 
completeness and forward it to Congress after your review?
    Mr. Penn. Yes. The report was signed out to Congress on February 8, 
2005. I will familiarize myself with this report and the trends that it 
portrays.

    9. Senator McCain. Mr. Penn, although the Naval Academy is an 
installation and falls under the purview of CNI--it is very different 
from most installations. It has many historical and cultural buildings 
that are on the National Register and needs more to upkeep and maintain 
because of their age and historical aspects of their infrastructure. 
Additionally, the Naval Academy is the very soul of the Navy, the 
repository of its core values, history and traditions, the benchmark of 
its leadership. Many young men and women and their parents visit the 
Naval Academy and based on their visit determine whether they will make 
the Navy or Marine Corps a career. Since CNI has become responsible for 
the Naval Academy installation, overall funding for Naval Academy 
services has declined by 24-30 percent. Can we continue to afford the 
shortfalls in services, infrastructure maintenance, and construction at 
the Naval Academy and what do you intend to do about it?
    Mr. Penn. The Naval Academy serves a unique role as a beacon of 
naval culture and in shaping the core leadership values of future naval 
warriors. As such, Naval Academy facilities warrant special 
consideration. I am told that CNI and the U.S. Naval Academy have 
developed a collaborative solution that defines certain areas as 
prestige areas that are to be resourced at a capability level above 
comparable areas at other shore stations. The remaining areas of the 
institution will remain resourced similar to other Navy shore stations. 
This will allow the Naval Academy to maintain an appropriate public 
appearance, remain competitive with other service academies, and 
promote pride and professionalism in the present and future leaders of 
the U.S. Navy.
    I will seek to ensure that facilities at the Naval Academy, along 
with facilities at all other Navy and Marine Corps bases, have the 
necessary resources to meet their mission requirements.
                                 ______
                                 
            Questions Submitted by Senator Lindsey O. Graham

                         JOINT MILITARY COMPLEX

    10. Senator Graham. Mr. Penn, one of the stated goals of the BRAC 
process is jointness, including establishing joint military complexes. 
Our military facilities in Charleston are already informally working in 
that direction. The Charleston Air Force Base Commander and the Weapons 
Station Commanding Officer dialogue on a regular basis and have many 
common goals. They share ranges, explosive ordnance unit support, and 
working dogs to mention a few. Unfortunately, although they have common 
missions and responsibilities that could be combined, no one has 
figured out how to fund this or other joint complexes. What are your 
views on the concept of a joint military complex?
    Mr. Penn. I believe there will be many opportunities in the near 
future to expand joint facilities opportunities across the Department 
of Defense. Many nearby installations, like those you cite in the 
Charleston area, already use interservice support agreements to 
facilitate host-tenant agreements as a first step toward improving 
services and reducing costs. I understand that an effort is underway by 
the Office of the Secretary of Defense and the military departments to 
facilitate more advanced joint facility opportunities by defining 
common output levels of service. This will allow all components to have 
a common understanding of the level of services that they can expect to 
receive and pay for, or will be expected to provide at a joint base. I 
will join with my colleagues in the Department of Defense to help 
promote greater opportunities for joint facilities where practicable, 
particularly with respect to any joint basing decisions that may emerge 
from BRAC 2005.

                         JOINT MILITARY COMPLEX

    11. Senator Graham. Mr. Penn, how would you apportion the funding 
and what would be the allocation mechanism?
    Mr. Penn. I have no preconceived opinions on apportioning funds for 
joint basing. Some believe that each component should retain its 
installation funding, and negotiate annual agreements with the 
component who will provide the service to include the work to be 
performed and the reimbursement mechanisms. This approach would provide 
greater flexibility to each component. Others believe that designation 
of a single component with overall responsibility, along with a one-
time budget based transfer provides for simpler accountability and 
predictable resources. There are of course many variations between 
these positions. I will work with my colleagues to pursue joint funding 
approaches that are practicable, efficient, and responsive to the needs 
of the components.

                          CONSEQUENCES OF BRAC

    12. Senator Graham. Mr. Penn, as we move forward with BRAC, I have 
a real concern for the impact on people, particularly civil service 
engineers. We have a large shortage of engineers throughout DOD. In 
past BRACs we experienced a loss of 40 to 60 percent of civil servants 
in some cases because they did not want to move to new locations and 
there was available work in the civil sector. You have seen in your 
experience in DOD and the commercial sector that subordinate units and 
workers do not need to be collocated with headquarters to operate 
efficiently and effectively. In many respects we live in a virtual 
world. I would like to hear your view on the shortage of DOD engineers 
and the risks we take to realign units with headquarters simply to have 
them collocated.
    Mr. Penn. Military and civilian engineers play a very important 
role in the Navy, perhaps no more vital than military engineers 
assigned to Navy SEABEE construction battalions that provide forward 
deployed construction support to warfighters. I will work with the 
Assistant Secretary of the Navy for Manpower and Reserve Affairs along 
the Commander, Naval Facilities Engineering Command to ensure that the 
Navy and Marine Corps can continue to attract and retain highly 
qualified military and civilian engineers from a broad array of 
disciplines to support our facilities and environmental mission 
requirements.

    13. Senator Graham. Mr. Penn, along these same lines, commercial 
industry seems to be following a model of locating its operations in 
low labor cost areas, yet we see DOD operating or considering 
consolidating some activities in high labor cost areas such as the west 
coast or the north east that are up to 30 percent more expensive that 
locations in my State. In some instance, the civil service grade level 
is also higher for the same position. Do you think this makes good 
business sense for the DOD?
    Mr. Penn. The cost of operations in a new area is taken into 
account for each BRAC 2005 scenario that is considered. While cost 
efficiencies are certainly desirable, military operational 
considerations and readiness needs, as specified in the BRAC statute, 
will be the primary driver for closure and realignment recommendations 
made by the Secretary of Defense. BRAC law sets out a very fair process 
and requires all bases be treated equally. All recommendations are to 
be based on a 20-year force structure plan, infrastructure inventory 
and published selection criteria; all data used is certified as 
accurate and complete and provided to the Commission and Congress; and 
all DOD recommendations will be reviewed by independent Commission and 
President.

                     SPACE AND NAVAL WARFARE MODEL

    14. Senator Graham. Mr. Penn, the Space and Naval Warfare (SPAWAR) 
Systems Center Charleston is the most cost effective engineering center 
in the Navy and is providing a strong return on investment from the 
1993 BRAC consolidation and modernization. It is located on a joint use 
base and operates as a major transformation hub by providing command, 
control, communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) systems and capabilities to all the Services, 
most combatant commands, and the Department of Homeland Security. All 
of this is accomplished within a working capital fund organization 
operating as the most efficient of all the Navy engineering and warfare 
centers. Do you see this as an effective model for other DOD activities 
to follow?
    Mr. Penn. It appears that this model has worked well in this case; 
however this may not be true in all cases. Other organizations may have 
particular needs or circumstances and might not benefit in the same way 
as Charleston.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka

                         WAIVING OF DEPOT LAWS

    15. Senator Akaka. Mr. Penn, on November 15, 2002, Secretary of 
Defense Donald Rumsfeld announced the first steps in implementing the 
new 2005 BRAC law. These included development of a force structure 
plan, comprehensive inventory of military installations, and 
establishment of criteria for selecting bases for closure and 
realignment. However, under BRAC law, it is my understanding that the 
conferees of the National Defense Authorization Act did not give the 
DOD the authority to waive the depot laws through BRAC. Does the Navy 
understand that DOD does not have the authority to waive the depot laws 
through BRAC?
    Mr. Penn. Yes, the Navy understands that DOD does not have the 
authority to waive the depot laws through BRAC.
                                 ______
                                 
    [The nomination reference of Buddie J. Penn follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 25, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Buddie J. Penn, of Virginia, to be an Assistant Secretary of the 
Navy, vice H.T. Johnson.
                                 ______
                                 
    [The biographical sketch of Buddie J. Penn, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of Buddie J. Penn

    Mr. Penn was appointed Director, Industrial Base Assessments on 
October 2, 2001. In this position, he is responsible for the overall 
health of the U.S. Defense industrial base; the Department's policies 
and plans to ensure existing and future industrial capabilities can 
meet the Defense missions; guidelines and procedures for maintaining 
and enhancing and transformation of the Defense industrial base, 
industrial base impact assessments of acquisition strategies of key 
programs, supplier base considerations, and offshore production. He 
provides oversight for several regulatory programs involving the 
defense industrial base such as assessments of domestic mergers, 
acquisitions and takeovers for any anti-competitive impacts under the 
Hart-Scott-Rodino anti-trust statute, national security review of 
foreign acquisitions of defense-related U.S.-located firms under the 
Exon-Florio Amendment to the Defense Production Act, and management of 
a contract priority performance system, the Defense Priorities and 
Allocations System under Title I of the Defense Production Act. He is 
responsible for financial assessments of the defense industrial base 
and interface with Wall Street analysts that manage accounts relating 
to defense firms.
    Mr. Penn began his career as a Naval Aviator. He amassed over 6,500 
flight hours in 16 different types of aircraft. He was EA-6B Pilot of 
the Year in 1972. Significant leadership assignments include: Executive 
Officer/Commanding Officer VAQ 33, Battalion Officer at the U.S. Naval 
Academy (including Officer-in-Charge of the Plebe Detail for the class 
of 1983), Air Officer in U.S.S. America, Special Assistant to the Chief 
of Operations, Commanding Officer of NAS North Island, CA, and Deputy 
Director of the Navy Office of Technology Transfer & Security 
Assistance.
    Mr. Penn joined the Sector staff of Loral Federal Systems in 1995 
as Director, International Business. Primary assignments involved 
airborne Electronic Warfare and Defensive Electronic Counter Measure 
Systems. When Lockheed Martin acquired Loral, he was assigned to the 
Corporate Staff to develop markets in Central and Eastern Europe. In 
1998, he transferred to Naval Electronics and Surveillance Systems 
working Advanced Programs. In this capacity, he supported development 
of the Interoperability Concept of Operations (CONOPs) for JSF, 
technology refreshment for the F-16 and development of Unmanned Aerial 
Vehicle and Autonomous Undersea Vehicle efforts and C\4\ISR 
initiatives.
    Mr. Penn was born and raised in Peru, IN. He received his BS from 
Purdue University, West Lafayette, IN and his MS from The George 
Washington University, Washington, DC. He has also received 
certificates in Aerospace Safety from the University of Southern 
California and in National Security for Senior Officials from the 
Kennedy School, Harvard University.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Buddie J. Penn 
in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Buddie Joe Penn.
    B.J. Penn.
    Buddie J. (BJ) Penn.

    2. Position to which nominated:
    Assistant Secretary of the Navy (Installations and Environment).

    3. Date of nomination:
    January 24, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    04-02-38; Peru, Indiana.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Loretta Medlock.

    7. Names and ages of children:
    Emily Jeneva Penn Grooms, 40.
    Eric Jeffrey Penn, 40.
    Brian Joseph Penn, 41.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Peru High School, 1952-1956, High School Diploma.
    Purdue University, 1956-1960, Bachelor of Science, 1960.
    George Washington University, 1978-1980, Master of Science, 1980.
    Harvard University, 1990, Certificate, National Security.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director, Industrial Base Assessment, DOD, 1745 Jeff Davis Hwy., 
Crystal Square 4, Ste. 501, Arlington, VA, 10/01-present.
    Manager, C\4\I Systems, Lockheed Martin Corp., Manassas, VA, 02/98-
10/01.
    Director, NIS Tactical Systems Sector, Lockheed Martin Corp., 1725 
Jeff Davis Hwy., Crystal Sq. 2, Ste 900, Arlington, VA, 06/96-02/98.
    Director Business Development Liaison, Loral Federal Systems, 6600 
Rockledge Dr., Bethesda, MD, 06/95-06/99.
    BJ Penn and Associates, President, B.J. Penn, Fort Lauderdale, FL, 
03/95-06/95.
    Pilot, KALAIR, London Heathrow Airport, London UK, UB35AP, 05/92-
02/95.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Not applicable.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Bush-Cheney 2000 and Bush-Cheney 2004, Inc.
    Antioch Baptist Church, 1999-present, no office held.
    Antioch Bible Institute, 2003-present, no office held.
    Hopewell Baptist Church, 1993-1996, no office held.
    National Naval Officers Association, 1973-present, President.
    Association of Naval Aviation, 1994-2004, no office held.
    Tailhook Association, 1970-2004, no office held.
    Association of Retired Officers, 1991-2004, no office held.
    The Old Crows, 1972-2004, no office held.
    Alpha Phi Alpha Fraternity, 1974-present, no office held.
    City Club of Washington, 2002-present, no office held.
    Army Navy Club, 1988-present, no office held.
    Fairfax Rod and Gun Club, 1998-present, no office held.
    National Rifle Association, 2001-present, no office held.
    The Canadian Goose Hunting Club, 1974-present, no office held.
    Quantico Flying Club, 2004, no office held.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Bush-Cheney 2000 and Bush-Cheney 2004, Inc.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Not applicable.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Bush-Cheney 2000, $2000.
    Bush-Cheney 2004, Inc., $2004.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Legion of Merit (2).
    Meritorious Service Medal.
    Air Medal (10).
    Meritorious Unit Commendation.
    Navy Commendation Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Not applicable.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Not applicable.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Buddie J. Penn.
    This 26th day of September 2004.

    [The nomination of Buddie J. Penn was reported to the 
Senate by Chairman Warner on February 17, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 17, 2005.]
                              ----------                              

    [Prepared questions submitted to ADM William J. Fallon, 
USN, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of these reforms, particularly in your 
assignments as Commander, Carrier Air Wing EIGHT, in 1991 during 
Operation Desert Storm, as Assistant Chief of Staff for Plans and 
Policy for Supreme Allied Command, Atlantic, from 1993 to 1995, and as 
Deputy Commander and Chief of Staff for United States Atlantic Command 
from 1996 to 1997. Do you support full implementation of these defense 
reforms?
    Answer. Yes. I support full implementation of the Goldwater-Nichols 
Act reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented in the Navy vis-a-vis the other Services?
    Answer. In my experience, the Department of Defense and the Armed 
Services have embraced these reforms. The Navy, like the other 
Services, went through some difficult adjustments in the initial stages 
of implementing the Goldwater-Nichols reforms. Traditional attitudes 
and approaches had to give way to innovation and change. The Services 
work and operate together much better today than pre-Goldwater-Nichols. 
The Navy faces a unique challenge in that our people operate at sea and 
the premium we place on gaining experience in that environment has made 
it difficult for some officers to complete the joint educational 
requirements of Goldwater-Nichols. Recently, there has been substantial 
progress in this area.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. First and foremost, the reforms have improved our 
collective warfighting effectiveness and efficiency. In addition to 
strengthening civilian control of the military and clarifying chain of 
command relationships, they provided a clear delineation of the 
combatant commanders' responsibilities and authorities as they relate 
to the planning and execution of their missions. We have made 
significant progress in joint training, exercises and experiments.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations reforms can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense. Do you agree with these goals?
    Answer. Yes.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you think it 
might be appropriate to address in these proposals?
    Answer. I do not have any recommendations to amend Goldwater-
Nichols at this time; however, if confirmed, I would not hesitate to 
offer proposals in the future should I see something that might be 
helpful.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Pacific Command?
    Answer. The duties and functions of Commander, U.S. Pacific Command 
include exercising command authority over commands and forces assigned 
to the Pacific Command and prescribing, organizing, and employing 
subordinate commands and forces to carry out the Pacific Command's 
assigned mission. Fundamentally, that mission is to deter attacks 
against the United States and its territories, possessions, and bases, 
and to protect Americans and American interests and, in the event that 
deterrence fails, to fight and win.
    As a combatant commander, the Commander of U.S. Pacific Command is 
responsible to the President and the Secretary of Defense for the 
performance of these duties, the preparedness of assigned forces, and 
the execution of its missions.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have benefited from a broad range of assignments during 
my nearly 38 years in uniform, from tactical to operational command, 
and have considerable experience with joint and coalition operations, 
including combat operations. I was privileged to command Carrier Air 
Wing EIGHT in U.S.S. Theodore Roosevelt in 1991 during Operation Desert 
Storm. In 1995, as a flag officer, I served as Commander, Carrier Group 
EIGHT and Commander, Battle Force, U.S. SIXTH Fleet during NATO's 
Operation Deliberate Force in Bosnia. During these operations, I worked 
closely with joint U.S. and combined forces in planning, coordinating, 
and executing sustained combat operations. I also served as Deputy 
Director for Operations, Joint Task Force Southwest Asia in Riyadh, 
Saudi Arabia, directing air operations in the Iraqi No-Fly Zones. I 
have additional experience in joint and combined planning and 
operations at both the operational and strategic levels through 
assignments as Assistant Chief of Staff, Plans and Policy, for Supreme 
Allied Commander, Atlantic and as Deputy Commander and Chief of Staff 
for the U.S. Atlantic Fleet and the former U.S. Atlantic Command, the 
predecessor to U.S. Joint Forces Command. For nearly 3 years, I served 
as Commander, U.S. Second Fleet and NATO Striking Fleet Atlantic, 
working directly with all U.S. armed services as well as those of our 
NATO allies in training and in developing and testing joint and 
combined tactics for the entire spectrum of combat operations. As Vice 
Chief of Naval Operations from 2000 to 2003, I worked in close 
cooperation with OSD, the Joint Staff, and the other armed services 
developing transformational strategies and joint requirements. In my 
current assignment as Commander, U.S. Fleet Forces Command, I serve as 
Naval component commander to U.S. Joint Forces Command, and support 
U.S. Northern Command and U.S. Strategic Command. The widely varied 
opportunities I have had during my career have given me a deep 
appreciation of, and experience with, all branches of our Armed Forces 
and many of our allies.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. Pacific Command?
    Answer. I intend to solicit the experience, advice and counsel of 
members of this committee, the U.S. Government, specifically, 
Department of Defense and Department of State personnel, as well as 
leaders and knowledgeable people throughout the Asia-Pacific region in 
order to broaden my understanding of U.S. positions and relationships 
in the region. I will meet with U.S. Pacific Command staff divisions, 
subordinate organizations and component commanders to understand fully 
the issues and challenges they face. I intend to develop personal 
working relationships with the military and civilian leadership of the 
nations throughout the Pacific region, to better understand their 
concerns while continuing to represent U.S. national interests.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the commanders of the 
combatant commands. Other sections of law and traditional practice, 
however, establish important relationships outside the chain of 
command. Please describe your understanding of the relationship of the 
Commander, U.S. Pacific Command, to the following officials because the 
question is related to PACOM, relations to other than the SECDEF and 
Chairman are reasonably inferred:
    The Secretary of Defense.
    Answer. Commander, U.S. Pacific Command performs his duties under 
the authority, direction, and control of the Secretary of Defense, and 
is directly responsible to him to carry out its assigned missions.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs duties as directed 
by the Secretary, and performs the duties of the Secretary in his 
absence. Commander, U.S. Pacific Command is responsible to ensure that 
the Deputy Secretary has the information necessary to perform these 
duties, and coordinates with him on major issues.
    Question. The Under Secretary of Defense for Policy.
    Answer. Under secretaries are key advocates for combatant commander 
requirements. Commander, U.S. Pacific Command coordinates and exchanges 
information with the Under Secretary of Defense for Policy on strategic 
policy issues involving the Asia-Pacific region.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Commander, U.S. Pacific Command coordinates and exchanges 
information with the Under Secretary of Defense for Intelligence as 
needed to set and meet the U.S. Pacific Command's priorities and 
requirements for intelligence support.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is the principal military advisor to the 
President, National Security Council, and Secretary of Defense. Section 
163 of title 10, U.S. Code, allows communication between the President 
or the Secretary of Defense and the combatant commanders to flow 
through the Chairman. As is custom and traditional practice, and as 
instructed by the Unified Command Plan, I would communicate with the 
Secretary through the Chairman of the Joint Chiefs of Staff.
    Question. The Secretaries of the Military Departments.
    Answer. The secretaries of the military departments are responsible 
for the administration and support of forces assigned to the combatant 
commands. Commander, U.S. Pacific Command coordinates closely with the 
secretaries to ensure that requirements to organize, train, and equip 
Pacific Command forces are met.
    Question. The Chiefs of Staff of the Services.
    Answer. Commander, U.S. Pacific Command communicates and exchanges 
information with the Service Chiefs to support their responsibility for 
organizing, training, and equipping forces. Successful execution of 
U.S. Pacific Command's mission responsibilities requires close 
coordination with the Service Chiefs. If confirmed, I intend to work 
closely with the Service Chiefs of Staff to understand their service 
capabilities and to effectively employ those capabilities as required 
to execute the missions of U.S. Pacific Command.
    Question. The other Combatant Commanders.
    Answer. Commander, U.S. Pacific Command maintains close 
relationships with the other combatant commanders. These relationships 
are critical to the execution of our National Military Strategy, and 
are characterized by mutual support, frequent contact, and productive 
exchanges of information on key issues.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the next Commander, U.S. Pacific Command?

        <bullet> Stability on the Korean Peninsula, complicated by 
        North Korean development of WMD and proliferation of these 
        weapons and delivery systems.
        <bullet> China/Taiwan cross-strait tensions, combined with 
        China's emergence as a regional power and the increase in 
        Chinese military capabilities.
        <bullet> Terrorism and other transnational threats. 
        Narcoterrorism, piracy, proliferation, and human trafficking, 
        linked through illegal banking and finance, threaten the 
        region. This is a particular challenge in the southeast Asian 
        archipelagos where extremist Islamic ideology and terrorist-
        linked movements exist.
        <bullet> Transforming U.S. global force posture to respond to a 
        complex security environment that includes irregular, 
        catastrophic, traditional, and disruptive challenges to our 
        national interests.
        <bullet> The scope and span of the region, which encompasses 
        the three most populous countries in the world--China, India, 
        and Indonesia--and the vast expanse of the Pacific and Indian 
        Oceans, an area of 100 million square miles.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Specifically, I intend to:

        <bullet> Support U.S. national interests and policies.
        <bullet> Work in close consultation with U.S. agencies and 
        military commanders, and with our many friends in the region to 
        develop a clear understanding and appreciation of U.S. national 
        interests and the issues facing the nations in the U.S. Pacific 
        Command region.
        <bullet> Identify steps that can be taken to signal the strong 
        resolve of the United States to support U.S. national interests 
        and to enhance regional stability.
        <bullet> Posture U.S. forces to ensure readiness, agility, 
        flexibility, and readiness, emphasizing the ability to respond 
        and deploy rapidly if required.

                            HOMELAND DEFENSE

    Question. What is your understanding of the role and responsibility 
of U.S. Pacific Command in homeland defense?
    Answer. The Secretary of Defense's Contingency Planning Guidance 
and the Chairman of the Joint Chiefs of Staff Joint Strategic 
Capabilities Plan direct PACOM to deter attacks against the homeland as 
early and as far away as possible, defend the PACOM domestic AOR, and 
to work with and provide support to civil authorities. (Specific 
taskings within these documents are classified.) As part of the larger 
effort, U.S. Pacific Command's plan complements and is integrated with 
the ongoing global war on terrorism, combating weapons of mass 
destruction, homeland security, and relevant contingency planning and 
activities.
    Question. What is your understanding of how U.S. Pacific Command 
and U.S. Northern Command work to ensure that their overlapping 
missions in this area do not create ``seams'' that might be exploited 
by our adversaries and how this process might be improved?
    Answer. In October 2003, Commander, U.S. Pacific Command and 
Commander, U.S. Northern Command signed a Command Arrangement 
Agreement, to ``establish procedures and delineate responsibilities'' 
between the two commands. This agreement also prescribes employment of 
U.S. Pacific Command forces in support of U.S. Northern Command 
missions and the control of forces operating in Northern Command's area 
of responsibility. Both commands, by conducting Joint Exercises, have 
validated the arrangements, demonstrating commitment to homeland 
defense. We will continue to develop a close working relationship 
between the two commands.
    Question. What is your assessment of the Regional Maritime Security 
Initiative, and what steps should be taken to improve upon it?
    Answer. The Regional Maritime Security Initiative offers an 
opportunity to address transnational threats collectively with 
participating states. The initiative is gaining momentum in the Asia-
Pacific region. Its effectiveness can be increased through better 
information sharing and investing the time and effort to improve 
understanding of the challenges and needs of the partner nations. This 
will remain a high priority effort.
    Question. How could U.S. Pacific Command forces and expertise 
contribute to more effective homeland defense capabilities?
    Answer. U.S. Pacific Command's military and intelligence activities 
in the western approaches to the continental United States contribute 
to the Nation's active, layered defense. Improvements in our ability to 
collect actionable intelligence and maintain situational awareness are 
critical to our ability to combat threats. Active regional engagement 
is a key to success. We will facilitate this effort by maintaining and 
building on Pacific Command's Theater Security Cooperation Program.

                     GLOBAL DEFENSE POSTURE REVIEW

    Question. Perhaps more than in any other combatant command, 
military exigencies in the U.S. Pacific Command are subject to the 
``tyranny of distance'' in getting forces to points of conflict. How 
important is the forward homebasing strategy to the ability of U.S. 
Pacific Command to execute its operational contingencies, and is the 
ongoing Global Posture Review taking this into account?
    Answer. The forward basing and presence of rotational forces is key 
to U.S. Pacific Command's ability to assure allies and friends in the 
region, deter potential adversaries, and execute operational 
contingencies when required. U.S. Pacific Command is fully integrated 
into the ongoing Global Posture Review, adjusting our posture from a 
static Cold War orientation to one that is more agile and flexible, 
with improved capabilities to better address current and potential 
threats.
    Question. What are the implications of the proposed global force 
structure changes with respect to U.S. Pacific Command's AOR, 
particularly in Korea and Japan?
    Answer. The objective of the proposed changes is to better position 
U.S. forces to respond to present and future challenges. I intend to 
study the proposed changes immediately so that I fully understand the 
details of the proposals, and their implications for our global and 
regional defense strategies.
    Question. What impact, if any, will the proposed changes in posture 
have on our ability to defend South Korea and Japan, and to react to a 
crisis in the Taiwan Strait?
    Answer. As I understand the proposed posture changes, U.S. forces 
will continue to be in a position to defend South Korea and Japan, and 
to react to a crisis in the Taiwan Strait.

                              NORTH KOREA

    Question. North Korea represents one of the greatest near term 
threats to U.S. national security interests in Asia. What is your 
assessment of the current security situation on the Korean peninsula 
and the diplomatic efforts to persuade North Korea to verifiably 
dismantle its nuclear weapons program?
    Answer. North Korea's nuclear weapons and missile programs remain a 
serious concern. Additionally, the North Korean conventional force 
posture, particularly the forward basing of a large percentage of its 
most-capable forces, creates a volatile threat environment. U.S. 
Pacific Command's job is to facilitate ongoing diplomatic efforts aimed 
at addressing the threat, while maintaining a credible deterrent 
posture.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. North Korea's continuing development and proliferation of 
WMD and ballistic missile capabilities pose a serious threat to the 
U.S. and our allies.
    Question. What, if anything, should be done to strengthen 
deterrence on the Korean peninsula?
    Answer. While diplomatic efforts continue, PACOM will maintain a 
strong deterrence together with our ROK ally through demonstrated 
capabilities and exercises.

                        REPUBLIC OF SOUTH KOREA

    Question. Since the end of World War II, the U.S.-ROK alliance has 
been a key pillar of security in the Asia Pacific region. This 
relationship has gone through periods of inevitable change. What is 
your understanding of the current U.S. security relationship with South 
Korea?
    Answer. The U.S.-ROK security relationship is robust and strong. It 
has been the key to deterrence on the Korean peninsula over the past 50 
years. Adapting to new security challenges, the Republic of Korea has 
become the third largest contributor of forces in Iraq, while also 
sending support forces to Afghanistan, the Western Sahara and East 
Timor. They have continued an aggressive effort to modernize their 
military forces to improve interoperability.
    Question. If confirmed, what measures, if any, would you take, in 
conjunction with the Commander of U.S. Forces Korea, to improve the 
U.S.-South Korean security relationship?
    Answer. The Commander in Chief, U.N. Command/Combined Forces 
Command's primary focus is on deterrence of a North Korean attack 
specifically on the Korean peninsula, and should that deterrence fail, 
the ability to fight and win against that threat. He is also a sub-
unified commander to U.S. Pacific Command as the Commander of U.S. 
Forces Korea. If confirmed, I will work closely with him to ensure 
transformation initiatives enhance readiness and deterrence.
    Question. Do you support expanding the number of personnel assigned 
to Korea for 2 or 3 years of duty?
    Answer. I generally support the idea of longer tours, which would 
provide better staff continuity, stability within our units, and 
improve morale for our troops accompanied by their families. However, 
it should be noted that this brings with it the costs of providing 
additional base infrastructure, housing, medical/dental facilities, and 
schools. If confirmed, I intend to consult with the Commander of U.S. 
Forces Korea as soon as possible to study this matter so that I fully 
understand it and can make informed recommendations. Increasing the 
tour length of married personnel stationed in Korea on unaccompanied 
orders from 1 year to 2 or 3 years would, in my judgment, have a 
negative impact on morale.

                                 CHINA

    Question. Many observers believe that one of the key national 
security challenges of this century is how to manage China's emergence 
as a major regional and global economic and military power. How would 
you characterize the U.S. security relationship with China?
    Answer. The U.S. relationship with China is constructive. We seek 
to promote shared interests with China as a growing regional and 
economic power. Although the economic relationship between the U.S. and 
China is expanding, we must gain greater insight into China's growth in 
military spending, its intentions towards Taiwan, and its regional 
strategy in Asia and the Pacific.
    Question. What is the current state of U.S.-China military-to-
military relations, and do you favor increased military-to-military 
contacts with China?
    Answer. Our military-to-military relations are limited to non-
warfighting venues, such as high-level and academic exchanges and ship 
visits. I support continued contact to promote a constructive 
relationship with China, to gain greater insight into its intentions, 
and to impart a clear understanding of our defense strategies.
    Question. How do you assess the current cross-strait relationship, 
and how can we help to prevent miscalculation by either side?
    Answer. The cross-strait relationship between China and Taiwan is a 
concern. It is in the U.S. interest to prevent miscalculation and to 
maintain a steady signal of deterrence with ready, credible forces. The 
foundation of our discourse is and will continue to be the Taiwan 
Relations Act and the three U.S./China Joint communiques. As stated by 
the President, the United States opposes any attempt by either side to 
unilaterally change the status quo in the Taiwan Strait.
    Question. China's economy is growing by as much as 10 percent per 
year, and China is using that economic growth to fund a substantial 
military modernization. In your view, what is China's intent in 
pursuing such a rapid military modernization?
    Answer. I believe that China is rapidly pursuing military 
modernization in order to determine its own destiny without undue 
influence from other nations. China desires greater influence over the 
course of events within the Asia-Pacific region and to be recognized as 
a global power.
    Question. On April 1, 2001, a Chinese jet collided in mid-air with 
a U.S. Navy EP-3 aircraft endangering the U.S. personnel and resulting 
in the death of the Chinese pilot. Describe the steps that have been 
taken to prevent incidents of this nature in the future.
    Answer. The Military Maritime Consultative Agreement (MMCA) was 
established in 1998 to promote common understanding regarding 
activities undertaken by U.S. and PRC maritime and air forces when 
operating in accordance with international law. The MMCA has addressed 
the issues of surveillance aircraft and interceptors and separation 
distances. Compliance with the MMCA is closely monitored by U.S. 
Pacific Command and they are working with OSD policy to improve 
implementation with China.
    Question. What other areas, both geographic and operational, 
present potential problems for conflict with Chinese military forces, 
and what steps, if any, still need to be taken to prevent incidents?
    Answer. Whenever our forces operate in close proximity, there is a 
need for vigilance and adherence to safe and professional operating 
procedures.

                                 TAIWAN

    Question. What are the priorities, in your view, for U.S. military 
assistance to Taiwan?
    Answer. It is important that the U.S. assist Taiwan in 
strengthening its defensive posture through improvement of their joint 
operating capacity and modernization of their military capabilities.
    Question. What is the relationship between the type of assistance 
we offer and regional stability?
    Answer. U.S. assistance is primarily aimed at systems that improve 
Taiwan's ability to defend itself without being characterized as 
offensive in nature. A strong defensive capability enhances regional 
stability. We need to continue to make it clear that the U.S. opposes 
any attempt by either side to unilaterally change the status quo in the 
Taiwan Strait.

                      REPUBLIC OF THE PHILIPPINES

    Question. What is the current state of U.S.-Philippine military-to-
military relations and activities?
    Answer. The U.S.-Philippine military relationship is based on the 
Mutual Defense Treaty of 1952 and is characterized by small-scale 
exercises and advisors to Philippine military. Our military-to-military 
relationship is substantive. It is focused on enhancing their ability 
to defeat insurgencies and to promote long-term institutional change 
through the Philippine Defense Review.

                               INDONESIA

    Question. Indonesia is a key Asian power, and is the largest Muslim 
country in the world. Consequently, it is important to build on 
opportunities to improve and expand U.S. relations with Indonesia where 
possible. To what extent is the Indonesian Government cooperating with 
the United States in the global war on terrorism?
    Answer. The Government of Indonesia has cooperated with the U.S. 
and our Australian allies in investigating and prosecuting the 
perpetrators of the October 2002 Bali bombing and the subsequent August 
2003 Marriott and the September 2004 Australian Embassy bombings. Since 
the Bali bombing, Indonesia has captured or detained over 100 suspected 
terrorists, passed a new anti-terror law and worked with the U.S. in 
creating a new anti-terror police unit.
    Question. Is the Indonesian Government cooperating in the 
investigation into the American deaths in Papua in August 2002?
    Answer. My understanding is the government of Indonesia is working 
closely with the FBI on the Timika investigation.
    Question. If confirmed, would you recommend more or less military-
to-military contacts with Indonesia? Why? If yes, under what 
conditions?
    Answer. The U.S. would benefit from increased military contacts in 
areas such as civil-military reform and countering transnational 
threats. The Armed Forces of Indonesia (TNI) is important to the 
stability, unity and future of Indonesia as it consolidates its 
democracy. In turn, Indonesia's continued democratic development is 
important to U.S. interests in combating terrorism and the security and 
stability of Southeast Asia. Increasing TNI professionalism and 
commitment to democratic rule of law should lead to increased U.S.-
Indonesian military-to-military contacts.

                                 INDIA

    Question. What is the current state of the U.S.-India military-to-
military relationship, and what specific priorities would you establish 
for this relationship?
    Answer. Our military-to-military relations with India are good and 
improving.
    If confirmed, my priorities for the U.S.-India military-to-military 
relationship will be to expand contacts and discussion with an 
objective of a deeper and more substantive relationship. We will seek 
increased levels of cooperation and interoperability between our 
forces, the value of which has been highlighted in recent tsunami 
relief operations.

                U.S. PACIFIC COMMAND TSUNAMI ASSISTANCE

    Question. U.S. Pacific Command has made enormous contributions to 
tsunami recovery and relief efforts since the tragic events of December 
26, 2004. Do you believe there is a continuing role for U.S. Pacific 
Command in the long-term recovery effort?
    Answer. Yes, but U.S. Pacific Command's extensive and successful 
relief efforts are essentially complete. Pacific Command does have a 
role in the long-term recovery of the region. We shall be prepared to 
offer whatever follow-on assistance may be desired by affected nations 
and agreed to by the U.S. Government.
    Question. Due to the massive number of killed and injured, the 
evacuation of severely injured U.S. citizens from nations affected by 
the tsunami was sometimes a problem. How did military forces under U.S. 
Pacific Command participate in evacuation efforts and otherwise lend 
assistance to injured U.S. citizens?
    Answer. Pacific Command did not receive any request for assistance 
from U.S. country teams in the disaster area for evacuation or medical 
support for U.S. citizens. The welfare of U.S. citizens was certainly a 
principal concern, and in coordination with our Embassies, U.S. forces 
were always prepared to provide transportation and medical assistance.
    Question. What improvements, if any, would you recommend to ensure 
that U.S. citizens who have been injured are promptly assisted?
    Answer. Concurrent with the execution of tsunami relief efforts, 
Pacific Command has initiated a comprehensive lessons learned program 
to capture both the successes and deficiencies of the relief effort. 
This effort is ongoing and the lessons regarding assistance and support 
to U.S. citizens will be incorporated into our disaster relief 
procedures.
    Question. Do you believe new opportunities for strengthening 
military-to-military ties and advancing U.S. interests in the AOR have 
been created as a result of the tsunami tragedy and the relief effort? 
If so, how do you expect to build on such opportunities?
    Answer. Despite the tragic consequences of the tsunami, the spirit 
of cooperation and the successful combined response of many nations and 
governments in affected countries, provides an opportunity to improve 
the relationships between the militaries of the U.S. and affected 
nations. Conditions have been set for greater cooperation and the U.S. 
Pacific Command will continue to enhance the relationships, common 
operating procedures, and trust developed during the course of the 
relief operation.

                            MISSILE DEFENSE

    Question. What is your understanding of the current relationship 
between U.S. Pacific Command, U.S. Northern Command (NORTHCOM), and 
U.S. Strategic Command (STRATCOM) with respect to ballistic missile 
defense deployment and operations?
    Answer. All three commands have responsibilities that collectively 
address the missile defense threat across the Unified Command Plan 
boundaries. STRATCOM has overarching responsibility for planning, 
integrating, and coordinating global ballistic missile defense. 
STRATCOM develops enabling capabilities for BMD. PACOM shares 
responsibility for defense of the homeland with NORTHCOM; specifically 
the defense of Hawaii and the U.S. territories in the Pacific. PACOM 
closely coordinates with NORTHCOM and STRATCOM in the performance of 
the missile defense mission.
    Question. What is your understanding of the arrangement whereby 
Aegis-class destroyers and cruisers of the U.S. Pacific Fleet will be 
made available, or dedicated, to ballistic missile defense missions, 
and what impact will this arrangement have on the capability of U.S. 
Pacific Command and U.S. Pacific Fleet to fulfill their other missions 
involving Aegis-class ships?
    Answer. We will employ our emerging capabilities in missile defense 
where they can best be utilized in support of our national interests. 
Through an established rotational ship schedule and a system of 
readiness conditions for missile defense, our forces, to include Aegis-
capable ships, will be prepared to meet mission requirements.
    Question. How would you propose to strike an appropriate balance 
between missile defense and non-missile defense missions for ships of 
the U.S. Pacific Fleet (USPACFLT)?
    Answer. I will solicit the recommendations of Commander, USPACFLT 
about how best to address the issue and ensure the command's capability 
to employ available forces is balanced between missions.

                       SPECIAL OPERATIONS COMMAND

    Question. What is your understanding of the relationship between 
Special Operations Command teams working to fulfill the global 
terrorism mission, U.S. Pacific Command, and the Ambassadors in the 
relevant countries?
    Answer. The relationship among Special Operations Command teams, 
U.S. Pacific Command and Ambassadors in relevant countries has been 
positive and productive. U.S. Pacific Command maintains operational 
control of special operations deployments throughout the AOR. All 
activities concerning PACOM's efforts in the global war on terrorism 
are fully coordinated with U.S. Ambassadors in relevant countries. If 
confirmed, I intend to maintain that close relationship.

                         TECHNOLOGY PRIORITIES

    Question. U.S. Pacific Command has been active in the Advanced 
Concept Technology Development (ACTD) process and currently has several 
projects on the transition list, including the future tactical truck 
system and theater effects based operations. What processes, contacts, 
and tools will you use to make your requirements known to the 
Department's science and technology community to ensure the 
availability of needed equipment and capabilities in the long term?
    Answer. U.S. Pacific Command analyzes major operations plans, and 
global war on terrorism and homeland defense responsibilities to 
determine the capabilities needed to execute assigned plans and to 
identify any gaps in current and programmed capabilities. These gaps 
form the basis for U.S. Pacific Command's annual Integrated Priority 
List, which identifies priority capability needs to the Department of 
Defense's science, technology, and acquisition communities.
    The U.S. Pacific Command is active in the ACTD process. If 
confirmed, I would continue participation in this program. ACTD 
projects offer our warfighters direct impact on technology development 
and acquisition, potentially speed acquisition of needed capabilities, 
and sometimes provide capabilities to directly support current 
operations. For example, in Operation Iraqi Freedom today, U.S. Pacific 
Command ACTD projects are providing capabilities for explosive ordnance 
disposal operations, medical information management, sniper detection, 
and language and document translation.

                         EXERCISES AND TRAINING

    Question. What is your assessment of current U.S. Pacific Command 
exercises and training for peace and stability operations? Are they 
sufficient in your opinion, and, if not, how would you change them, if 
confirmed?
    Answer. U.S. Pacific Command conducts about 20 joint exercises a 
year, with service components adding an estimated 200 service-specific 
exercises every year. I assess the U.S. Pacific Command exercise 
program as extremely valuable. The success of relief operations under 
Operation Unified Assistance can be directly attributed to U.S. Pacific 
Command's annual Cobra Gold exercise in Thailand (focused on peace and 
stability operations), in which several nations, including Thailand, 
Singapore, and the U.S., train together.
    U.S. Pacific Command strives to focus limited training resources to 
enhance readiness, sustain and improve theater security cooperation, 
deter potential adversaries, and win the global war on terrorism. Due 
to the vast distances in the Pacific theater, significant amounts of 
strategic lift, including military air, sealift, and commercial 
carriers, are required for operations and large-scale exercises. This 
means the strategic lift necessary for the Chairman's Exercise Program 
(CEP) is very important, especially for large-scale joint and combined 
exercises
    Question. How might U.S. Pacific Command work with U.S. Joint 
Forces Command (JFCOM) to improve or augment training and exercises for 
peace and stability operations?
    Answer. JFCOM provides Joint Warfighting Center support to several 
PACOM joint exercises every year, and JFCOM has assigned a full-time 
liaison officer at PACOM. The Pacific Warfighting Center (PWC) will be 
integrated into JFCOM's global grid of warfighting centers that will 
make up the Joint National Training Capability (JNTC). The PWC and JNTC 
will allow PACOM and JFCOM to cooperatively develop transformational 
training concepts and infrastructure.

                       POW/MIA ACCOUNTING EFFORTS

    Question. The Joint POW/MIA Accounting Command, U.S. Pacific 
Command, is critical to the recovery and identification of remains of 
missing military members. Recovery of remains of U.S. service members 
from World War II, the Korean War, and the Vietnam war continue to be a 
very high priority. What is your understanding of the responsibilities 
of the Joint POW/MIA Accounting Command, U.S. Pacific Command, and its 
relationship to the Defense Prisoner of War and Missing Personnel 
Office?
    Answer. I fully understand the priority our Nation places on the 
identification and recovery of missing Americans. The Joint POW/MIA 
Accounting Command (JPAC) conducts operations to support a full 
accounting of personnel unaccounted for as a result of hostile acts. 
U.S. Pacific Command provides higher headquarters support and 
direction, and the interface between JPAC and the Joint Staff and/or 
OSD, as necessary. The Defense POW/Missing Personnel Office (DPMO) 
exercises policy, control, and oversight within the Department of 
Defense for the entire accounting process. DPMO and JPAC coordinate 
directly with one another on routine POW/MIA issues.
    Question. If confirmed, what plans do you have, if any, to enhance 
POW/MIA recovery efforts in the AOR of the U.S. Pacific Command?
    Answer. JPAC's resources and accounting efforts are focused not 
only in the Pacific Command region, but throughout the world. I will 
encourage full cooperation by the host nations where we conduct POW/MIA 
activities and continue to reinforce U.S. Government priorities in our 
accounting and recovery efforts.
    Question. If confirmed, what steps would you take, if any, to 
assess the adequacy of resources available for this work?
    Answer. I will provide JPAC the full support of the U.S. Pacific 
Command in the conduct of their mission, and continuously assess the 
adequacy of resources in the performance of this important mission.

                            QUALITY OF LIFE

    Question. Combatant commanders are responsible for establishing and 
sustaining a high quality of life for military personnel and their 
families assigned within their AOR. If confirmed, how would you define 
and ensure appropriate resources are available for quality of life 
programs for military members and their families within the U.S. 
Pacific Command?
    Quality of service (QOS) for our men and women is one of my top 
priorities. Inseparable from combat readiness, QOS is more than just 
good quality of life. It means providing the high quality operating 
facilities, the tools and information technology necessary for our 
personnel to achieve their goals and execute their missions effectively 
and efficiently.
    QOS requires continuous assessment of housing, schools, commissary 
and exchange services, medical/dental facilities, morale, welfare and 
recreation (MWR) programs/facilities, pay and entitlement programs, 
spousal employment opportunities and childcare facilities.
    Question. What are the potential effects and challenges associated 
with global rebasing on the quality of life of members and their 
families in the U.S. Pacific Command AOR?
    Answer. Implementation of global rebasing must and will reflect our 
commitment to our peoples' QOS.

                   POLICIES REGARDING SEXUAL ASSAULT

    Question. As a result of deficiencies in DOD and Service policies 
regarding sexual assault in the Armed Forces, the Department and the 
individual Services are required under section 577 of the Ronald W. 
Reagan National Defense Authorization Act for Fiscal Year 2005 to 
develop comprehensive policies aimed at preventing and responding to 
sexual assaults involving members of the Armed Forces and ensuring, 
among other things, appropriate law enforcement, medical, and legal 
responses, integration of databases to report and track sexual 
assaults, and development of victim treatment and assistance 
capabilities. If confirmed as Commander, U.S. Pacific Command, what 
steps would you take to ensure the Army, Navy, Air Force, and Marine 
Corps forces under your command are appropriately implementing policies 
aimed at preventing sexual assaults and appropriately responding to 
victims of sexual assault?
    Answer. I am strongly committed to implementing comprehensive 
measures to prevent sexual assault, provide responsive care and 
treatment for victims of sexual assault, and hold accountable those who 
commit the crime of sexual assault. If confirmed, I will take all 
actions to protect our people from assault, and direct consistent and 
appropriate responses to victims of sexual assault.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this high position, to appear before this committee and 
other appropriate committees of Congress?
    Answer. I agree.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. I agree.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, U.S. Pacific 
Command?
    Answer. I agree.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. I agree.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka

                           CARRIER PLACEMENT

    1. Senator Akaka. Admiral Fallon, at the full committee hearing on 
February 10, 2005, Admiral Vernon Clark said that the Department was 
still reviewing the possibilities for basing a carrier in Hawaii or 
Guam. It is my understanding that the report titled ``Strengthening 
U.S. Global Defense Posture,'' submitted to Congress by DOD in 
September 2004, states that DOD intends to carry out ``the forward 
deployment of additional expeditionary maritime capabilities and long-
rate strike assets'' in the Pacific regions. Is it still the strategy 
for the Navy? If so, does the Navy still plan to forward base another 
carrier in Hawaii or Guam?
    Admiral Fallon. Carrier Strike Groups (CSGs) remain critical to 
ensuring effective dissuasion, capable deterrence, and rapid 
contingency response in the Asia-Pacific region. We continue to examine 
options to determine the optimum basing posture for these very capable 
assets. Both Hawaii and Guam have been studied as a potential location 
for a CSG forward in the Pacific.

    2. Senator Akaka. Admiral Fallon, at the full committee hearing on 
February 10, 2005, Admiral Clark stated that the basing of carriers in 
the Pacific would be determined by BRAC. Are all decisions pertaining 
to home porting of carriers dependent on the BRAC? If not, then what is 
the criteria used to determine if the BRAC applies to one situation 
over another?
    Admiral Fallon. Carrier basing decisions depend upon many factors 
including strategic considerations, joint readiness, cost, 
infrastructure, contingency response time, and the recommendations of 
the BRAC Commission. It is my understanding that any basing issues this 
year will be considered as part of the BRAC process.
                                 ______
                                 
    [The nomination reference of ADM William J. Fallon, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 31, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be Admiral

    ADM William J. Fallon, 0000.
                                 ______
                                 
     Transcript of Naval Service for ADM William Joseph Fallon, USN
    30 December 1944 - Born in East Orange, New Jersey.
    16 September 1963 - Midshipman, U.S. Naval Reserve, Naval Reserve 
Officers Training Corps.
    15 May 1967 - Ensign to rank from 7 June 1967.
    01 July 1968 - Lieutenant (junior grade).
    01 July 1970 - Lieutenant.
    01 July 1976 - Lieutenant Commander.
    01 April 1982 - Commander.
    01 September 1988 - Captain.
    23 August 1993 - Designated Rear Admiral (lower half) while serving 
in billets commensurate with that grade.
    01 October 1994 - Rear Admiral (lower half).
    01 January 1997 - Rear Admiral.
    20 September 1996 - Vice Admiral.
    06 October 2000 - Designated Admiral while serving in billets 
commensurate with that grade.
    01 November 2000 - Admiral, service continuous to date.

Assignments and Duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
Naval Air Basic Training Command, U.S. Naval Air    May 1967   Nov. 1967
 Station, Pensacola, FL (DUINS).................
U.S. Naval Air Technical Center, Glynco, GA        Nov. 1967   Dec. 1967
 (DUINS)........................................
U.S. Naval Station, New York, NY................   Dec. 1967   Jan. 1968
Reconnaissance Attack Squadron THREE (DUINS)....   Jan. 1968   Dec. 1968
Naval Justice School (DUINS)....................   Dec. 1968   Feb. 1969
Reconnaissance Attack Squadron FIVE,               Feb. 1969   Oct. 1970
 (Reconnaissance Attack Navigator)..............
Commander, Reconnaissance Attack Wing ONE,         Oct. 1970   July 1972
 (Administrative Officer).......................
Staff, Commander Fleet Air, Jacksonville, FL       July 1972   July 1973
 (Flag Lieutenant/Flag Secretary)...............
DEP COMNA V AIRLANTTACAIR (Aide/Administrative     July 1973   June 1974
 Officer).......................................
Attack Squadron FOUR TWO (DUINS)................   June 1974   Dec. 1974
Attack Squadron SEVEN FIVE (Avionics/Armament      Dec. 1974   July 1977
 Officer/Training Officer)......................
Naval War College (DUlNS).......................   July 1977   July 1978
Attack Squadron FOUR TWO (DUINS)................   July 1978   Oct. 1978
Attack Squadron SIX FIVE (Operations Officer/      Oct. 1978   Feb. 1981
 Executive Assistant)...........................
Commander, Operational Test and Evaluation Force   Feb. 1981   July 1982
 (Operational Test Coordinator of Attack Weapons
 Systems).......................................
Attack Squadron FOUR TWO (DUINS)................   July 1982   Nov. 1982
XO, Attack Squadron SIX FIVE....................   Nov. 1982    May 1984
CO, Attack Squadron SIX FIVE....................    May 1984   Sep. 1985
Commander, Naval Air Force, U.S. Atlantic Fleet    Sep. 1985   Dec. 1985
 (DUlNS)........................................
Carrier Air Wing EIGHT (Deputy Air Wing            Jan. 1986   July 1987
 Commander).....................................
Commander, Naval Air Force, U.S. Atlantic Fleet    July 1987   Jan. 1989
 (Air Wing Training and Readiness Officer)......
Commander, Medium Attack Wing ONE...............   Jan. 1989   Feb. 1990
Commander, Carrier Air Wing EIGHT...............   Mar. 1990   Aug. 1991
National Defense University (DUINS).............   Aug. 1991   June 1992
Office of the CNO (Deputy Director, Aviation       July 1992   Sep. 1993
 Plans and Requirements Branch) (N880B).........
Commander, Joint Task Force Southwest Asia         Aug. 1992   Nov. 1992
 (Deputy Staff Operations Officer, J-3).........
SACLANT (Assistant Chief of Staff for Plans and    Sep. 1993   June 1995
 Policy)........................................
Commander, Carrier Group EIGHT..................   June 1995   Feb. 1996
COMLANTFLT (Deputy and Chief of Staff)..........   Feb. 1996   Sep. 1996
U.S. Atlantic Command (Deputy Commander in Chief   Sep. 1996   Nov. 1997
 and Chief of Staff)............................
Commander, SECOND Fleet/Commander, Striking        Nov. 1997   Oct. 2000
 Fleet Atlantic.................................
Vice Chief of Naval Operations..................   Oct. 2000   Oct. 2003
Commander, U.S. Atlantic Fleet and Commander,      Oct. 2003     To Date
 Fleet Forces Command...........................
------------------------------------------------------------------------


Medals and awards:
    Defense Distinguished Service Medal with Oak Leaf Cluster
    Defense Superior Service Medal
    Legion of Merit with three Gold Stars
    Bronze Star Medal with Combat ``V''
    Meritorious Service Medal with two Gold Stars
    Air Medal with Bronze Numeral ``6'', Gold Star, and Combat ``V''
    Navy and Marine Corps Commendation Medal with one Gold Star, and 
Combat ``V''
    Joint Service Commendation Medal
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award
    Navy Unit Commendation with two Bronze Stars
    Meritorious Unit Commendation with one Bronze Star
    Navy ``E'' Ribbon with two Es
    Navy Expeditionary Medal with one Bronze Star
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal with one Bronze Star
    Vietnam Service Medal with two Bronze Stars
    Southwest Asia Service Medal with two Bronze Stars
    Sea Service Deployment Ribbon with one Silver Star
    Republic of Vietnam Gallantry Cross Unit Citation
    Republic of Vietnam Campaign Medal with Device
    Kuwait Liberation Medal with Device (Saudi Arabia)
    Kuwait Liberation Medal (Kuwait)
    NATO Medal

Special qualifications:
    BA (Social Science) Villanova University, 1967
    MA (International Studies) Old Dominion University, 1982
    Graduate of Naval War College, 1978
    Graduate of National War College, 1992
    Designated Naval Flight Officer, 1967
    Designated Joint Specialty Officer, 1995
    Language Qualifications: French (Knowledge)

Personal data:
    Wife: Mary Elizabeth Trapp of Scarsdale, New York
    Children: Susan K. Fallon (Daughter), Born: 1 March 1971
    Barbara L. Fallon (Daughter), Born: 21 November 1973
    William P. Fallon (Son), Born: 31 July 1976
    Christina A. Fallon (Daughter), Born: 4 March 1983

Summary of joint duty assignments:

------------------------------------------------------------------------
              Assignment                         Dates             Rank
------------------------------------------------------------------------
*Commander, Carrier Air Wing EIGHT....          Jan. 91-Apr. 91    Capt.
SACLANT (Assistant Chief of Staff for         Sep. 93-June 1995     RDML
 Plans and Policy)....................
USCINCLANT (Deputy Commander in Chief           Sep. 96-Nov. 97     VADM
 and Chief of Staff)..................
Commander, SECOND Fleet/Commander,              Nov. 97-Oct. 00     VADM
 Striking Fleet Atlantic..............
------------------------------------------------------------------------
* Desert Storm

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM William J. 
Fallon, USN, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William J. Fallon.

    2. Position to which nominated:
    Commander, United States Pacific Command.

    3. Date of nomination:
    January 31, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 30, 1944; East Orange, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary E. Trapp Fallon.

    7. Names and ages of children:
    Susan K. Fallon, 33.
    Barbara L. Fallon, 31.
    William P. Fallon, 28.
    Christina A. Fallon, 21.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Occidental College Global Affairs Advisory Board.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Automobile Association.
    American Meteorological Society.
    Army and Navy Club.
    Association of Naval Aviation.
    Deer Run Condominium Owners Association Board (Big Sky, MT).
    Bishopsgate (Virginia Beach, VA) Civic League.
    Hampton Roads World Affairs Council.
    Knights of Columbus.
    Mercedes Benz Club of America.
    National Geographic Society.
    National War College Alumni Association.
    Navy Federal Credit Union.
    Old Dominion University Alumni Association.
    Smithsonian Institute.
    Our Lady Star of the Sea (Virginia Beach, VA) Catholic School 
Board.
    Tailhook Association.
    U.S. Naval Institute.
    Veterans of Foreign Affairs.
    Villanova University Alumni Association.
    Villanova University Varsity Club.
    Villanova University Wildcat Club.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements other than those 
listed on the service record extract provided to the committee by the 
executive branch.
    Villanova University Alumni Loyalty Award.
    Old Dominion University Distinguished Alumnus Award.
    Naval War College Distinguished Alumnus Award.
    Camden Catholic High School Distinguished Alumnus Award.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 William J. Fallon.
    This 27th day of January 2005.

    [The nomination of ADM William J. Fallon, USN, was reported 
to the Senate by Chairman Warner on February 17, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 17, 2005.]

 
     TO CONSIDER CERTAIN PENDING CIVILIAN AND MILITARY NOMINATIONS

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:49 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Sessions, Collins, Ensign, Talent, Chambliss, Graham, Dole, 
Thune, Levin, Kennedy, Lieberman, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Bayh, and Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Thomas L. 
MacKenzie, professional staff member; Elaine A. McCusker, 
professional staff member; Lucian L. Niemeyer, professional 
staff member; Stanley R. O'Connor, Jr., professional staff 
member; Paula J. Philbin, professional staff member; Lynn F. 
Rusten, professional staff member; Robert M. Soofer, 
professional staff member; Scott W. Stucky, general counsel; 
Diana G. Tabler, professional staff member; and Richard F. 
Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Evelyn N. Farkas, professional staff member; 
Richard W. Fieldhouse, professional staff member; Creighton 
Greene, professional staff member; Gerald J. Leeling, minority 
counsel; Peter K. Levine, minority counsel; Michael J. McCord, 
professional staff member; and William G.P. Monahan, minority 
counsel.
    Staff assistants present: Alison E. Brill, Bridget E. Ward, 
and Nicholas W. West.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Christopher J. Paul, assistant to 
Senator McCain; John A. Bonsell, assistant to Senator Inhofe; 
Chris Arnold, assistant to Senator Roberts; Arch Galloway II, 
assistant to Senator Sessions; Mackenzie M. Eaglen, assistant 
to Senator Collins; D'Arcy Grisier, assistant to Senator 
Ensign; Lindsey R. Neas, assistant to Senator Talent; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Meredith Moseley, 
assistant to Senator Graham; Christine O. Hill, assistant to 
Senator Dole; Russell J. Thomasson, assistant to Senator 
Cornyn; Bob Taylor, assistant to Senator Thune; Sharon L. 
Waxman, Mieke Y. Eoyang, and Jarret A. Wright, assistants to 
Senator Kennedy; Terrence E. Sauvain, assistant to Senator 
Byrd; Frederick M. Downey, assisant to Senator Lieberman; 
Elizabeth King, assistant to Senator Reed; Richard Kessler, 
assistant to Senator Akaka; William K. Sutey, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Todd Rosenblum, assistant to Senator Bayh; and Andrew 
Shapiro, assistant to Senator Clinton.
    Chairman Warner. A quorum being present, I ask the 
committee to consider one civilian nomination, one flag officer 
nomination, and a list of 2,598 pending military nominations.
    First I ask the committee to consider the nomination of 
Buddie Penn to be the Assistant Secretary of the Navy for 
Installations and Environment. His nomination has been before 
the committee the required length of time. No objections have 
been brought to the attention of the chairman or the ranking 
member. Is there a motion to favorably report Mr. Penn's 
nomination to the Senate?
    Senator Levin. So moved.
    Chairman Warner. Second?
    Senator Dole. Second.
    Chairman Warner. All in favor say aye. [A chorus of ayes.]
    Opposed? [No response.]
    The ayes have it. Mr. Penn's nomination is confirmed by 
this committee and will be reported to the floor.
    Next I ask the committee to consider the nomination of 
Admiral William Fallon, USN, to be Commander, U.S. Pacific 
Command. His nomination has been before the committee the 
required length of time. Is there a motion to favorably report 
Admiral Fallon's nomination to the Senate?
    Senator Levin. So moved.
    Chairman Warner. Second?
    Senator Dole. Second.
    Chairman Warner. Opposed? [No response.]
    All in favor say aye. [A chorus of ayes.]
    Finally, is there a motion to now consider the list of 
2,598 military nominations?
    Senator Levin. So moved.
    Chairman Warner. Second?
    Senator Dole. Second.
    Chairman Warner. Any opposed? [No response.]
    All in favor say aye. [A chorus of ayes.]
    Thank you very much.
    [The nomination reference of Buddie J. Penn follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 24, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Buddie J. Penn, of Virginia to be an Assistant Secretary of the 
Navy, vice H.T. Johnson.
                                 ______
                                 
    [The nomination reference of ADM William J. Fallon, USN, 
follows:]
                    Nomination Reference and Report
                               Senate of the United States,
                                                  January 31, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be Admiral

    ADM William J. Fallon, 0000.
                                 ______
                                 
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 which are Proposed for the Committee's Consideration on February 17, 
                                 2005.
    1. Rear Admiral Terrance T. Etnyre, USN to be vice admiral and 
Commander, Naval Surface Force, U.S. Pacific Fleet (Reference No. 14).
    2. In the Army there is one appointment to the grade of Colonel 
(Robert A. Lovett) (Reference No. 15).
    3. In the Army there is one appointment to the grade of Lieutenant 
Colonel (Martin Poffenberger, Jr.) (Reference No. 16).
    4. In the Army there is one appointment to the grade of Lieutenant 
Colonel (Timothy D. Mitchell, Jr.) (Reference No. 17).
    5. In the Army there are three appointments to the grade of 
Lieutenant Colonel (list begins with William F. Bither) (Reference No. 
18).
    6. In the Army there is one appointment to the grade of Colonel 
(William R. Laurence, Jr.) (Reference No. 19).
    7. In the Army there are five appointments to the grade of Colonel 
(list begins with Megan K. Mills) (Reference No. 20).
    8. In the Army there are four appointments to the grade of Colonel 
(list begins with Timothy K. Adams) (Reference No. 21).
    9. In the Army Reserve there are two appointments to the grade of 
Colonel (list begins with Joseph W. Burckel) (Reference No. 22).
    10. In the Army Reserve there is one appointment to the grade of 
Colonel (Frank J. Miskena) (Reference No. 23).
    11. In the Army Reserve there are eight appointments to the grade 
of Colonel (list begins with Rosa L. Hollisbird) (Reference No. 24).
    12. In the Army Reserve there are two appointments to the grade of 
Colonel (list begins with Bruce A. Mulkey) (Reference No. 25).
    13. In the Army Reserve there is one appointment to the grade of 
Colonel (Matthew R. Segal) (Reference No. 26).
    14. In the Army Reserve there are two appointments to the grade of 
Colonel (list begins with Casanova C. Ochoa) (Reference No. 27).
    15. In the Army Reserve there are two appointments to the grade of 
Colonel (list begins with Kenneth R. Greene) (Reference No. 28).
    16. In the Army Reserve there are six appointments to the grade of 
Colonel (list begins with James E. Ferrando) (Reference No. 29).
    17. In the Army Reserve there are nine appointments to the grade of 
Colonel (list begins with Billy J. Blankenship) (Reference No. 30).
    18. In the Army Reserve there are nine appointments to the grade of 
Colonel (list begins with Mark E. Coers) (Reference No. 31).
    19. In the Army Reserve there are eight appointments to the grade 
of Colonel (list begins with Jeffery T. Altdorfer) (Reference No. 32).
    20. In the Army Reserve there are four appointments to the grade of 
Colonel (list begins with David C. Barnhill) (Reference No. 33).
    21. In the Army Reserve there is one appointment to the grade of 
Colonel (David B. Enyeart) (Reference No. 34).
    22. In the Army Reserve there is one appointment to the grade of 
Colonel (David A. Greenwood) (Reference No. 35).
    23. In the Army Reserve there is one appointment to the grade of 
Colonel (Sandra W. Dittig) (Reference No. 36).
    24. In the Army Reserve there is one appointment to the grade of 
Colonel (John M. Owings, Jr.) (Reference No. 37).
    25. In the Army Reserve there is one appointment to the grade of 
Colonel (Daniel J. Butler) (Reference No. 38).
    26. In the Army there are 21 appointments to the grade of Colonel 
(list begins with Scott W. Arnold) (Reference No. 42).
    27. In the Army there are 33 appointments to the grade of Colonel 
(list begins with Paul T. Bartone) (Reference No. 44).
    28. In the Army Reserve there are 10 appointments to the grade of 
Colonel (list begins with Cynthia A. Chavez) (Reference No. 45).
    29. In the Army Reserve there are 17 appointments to the grade of 
Colonel (list begins with Francis B. Ausband) (Reference No. 46).
    30. In the Army Reserve there are 34 appointments to the grade of 
Colonel (list begins with Loretta A. Adams) (Reference No. 47).
    31. In the Army Reserve there are 60 appointments to the grade of 
Colonel (list begins with Robert D. Akerson) (Reference No. 48).
    32. In the Army Reserve there are 37 appointments to the grade of 
Colonel (list begins with Priscilla A. Berry) (Reference No. 49).
    33. In the Army Reserve there are 856 appointments to the grade of 
Colonel (list begins with George A. Abbott) (Reference No. 50).
    34. In the Air Force there is one appointment to the grade of 
Lieutenant Colonel (Thomas S. Hoffman) (Reference No. 51).
    35. In the Air Force there are two appointments to the grade of 
Lieutenant Colonel (list begins with Herbert L. Allen, Jr.) (Reference 
No. 52).
    36. In the Air Force there is one appointment to the grade of 
Lieutenant Colonel (Leslie G. Macrae) (Reference No. 53).
    37. In the Air Force there is one appointment to the grade of Major 
(Omar Billigue) (Reference No. 54).
    38. In the Air Force there are three appointments to the grade of 
Major (list begins with Corbert K. Ellison) (Reference No. 55).
    39. In the Air Force there is one appointment to the grade of Major 
(Gretchen M. Adams) (Reference No. 56).
    40. In the Air Force there is one appointment to the grade of 
Colonel (Michael D. Shirley) (Reference No. 57).
    41. In the Air Force there are three appointments to the grade of 
Major (Gerald J. Huerta) (Reference No. 58).
    42. In the Air Force there is one appointment to the grade of major 
(Michael F. Lamb) (Reference No. 59).
    43. In the Air Force there are 11 appointments to the grade of 
major (list begins with Dean J. Cutillar) (Reference No. 60).
    44. In the Navy there is one appointment to the grade of Captain 
(Steven P. Davito) (Reference No. 61).
    45. In the Navy there is one appointment to the grade of Commander 
(Edward S. Wagner, Jr.) (Reference No. 62).
    46. In the Navy there are 36 appointments to the grade of 
Lieutenant Commander (list begins with Samuel Adams) (Reference No. 
63).
    47. In the Marine Corps there are 346 appointment to the grade of 
Lieutenant Colonel (list begins with Jason G. Adkinson) (Reference No. 
65).
    48. In the Air Force Reserve there are 21 appointments to the grade 
of major general and below (list begins with Mark W. Anderson) 
(Reference No. 124).
    49. Major General Karl W. Eikenberry, USA, to be lieutenant general 
and Commander, Combined Forces Command-Afghanistan (Reference No. 127).
    50. In the Air Force there is one appointment to the grade of 
Colonel (James S. Shaffer) (Reference No. 129).
    51. In the Air Force Reserve there are 207 appointments to the 
grade of Colonel (list begins with Thomas William Acton) (Reference No. 
130).
    52. In the Navy there are 14 appointments to the grade of 
lieutenant commander (list begins with Jason K. Brandt) (Reference No. 
133).
    53. Vice Admiral Robert F. Willard, USN, to be admiral and Vice 
Chief of Naval Operations (Reference No. 134).
    54. Admiral John B. Nathman, USN, to be admiral and Commander, U.S. 
Fleet Forces Command (Reference No. 135).
    55. In the Marine Corps there are 10 appointments to the grade of 
Major General (list begins with BGEN Thomas A. Benes) (Reference No. 
139).
    56. In the Marine Corps there are 12 appointments to the grade of 
Brigadier General (list begins with Col. George J. Allen) (Reference 
No. 140).
    57. In the Air Force there are two appointments to the grade of 
Colonel (list begins with Barbara S. Black) (Reference No. 141).
    58. In the Air Force there is one appointment to the grade of 
Colonel (Glenn T. Lunsford) (Reference No. 142).
    59. In the Air Force there is one appointment to the grade of 
Colonel (Frederick E. Jackson) (Reference No. 143).
    60. In the Air Force there are two appointments to the grade of 
Lieutenant Colonel (list begins with Robert G. Pate) (Reference No. 
144).
    61. In the Air Force there is one appointment to the grade of 
Captain (Kelly E. Nation) (Reference No. 145).
    62. In the Air Force Reserve there are seven appointments to the 
grade of Colonel (list begins with Lourdes J. Almonte) (Reference No. 
146).
    63. In the Air Force there are 128 appointments to the grade of 
Lieutenant Colonel (list begins with Brian F. Agee) (Reference No. 
147).
    64. In the Air Force there are 63 appointments to the grade of 
Major (list begins with Michelle D. Allenmccoy) (Reference No. 148).
    65. In the Air Force there are 355 appointments to the grade of 
Major (list begins with James R. Abbott) (Reference No. 150).
    66. In the Air Force there are 45 appointments to the grade of 
Colonel (list begins with Joseph B. Anderson) (Reference No. 151).
    67. In the Air Force there are 22 appointments to the grade of 
Colonel (list begins with Jeffery F. Baker) (Reference No. 152).
    68. In the Air Force there are 45 appointments to the grade of 
Major (list begins with Corey R. Anderson) (Reference No. 153).
    69. In the Air Force there are 16 appointments to the grade of 
Lieutenant Colonel (list begins with Janice M. Allison) (Reference No. 
154).
    70. In the Army there are 47 appointments to the grade of 
Lieutenant Colonel (list begins with Jan E. Aldykiewicz) (Reference No. 
155).
    71. In the Marine Corps there are two appointments to the grade of 
Lieutenant Colonel (list begins with Jorge E. Cristobal) (Reference No. 
156).
    72. In the Marine Corps there are two appointments to the grade of 
Lieutenant Colonel (list begins with Ronald C. Constance) (Reference 
No. 157).
    73. In the Marine Corps there is one appointment to the grade of 
Lieutenant Colonel (Frederick D. Hyden) (Reference No. 159).
    74. In the Marine Corps there is one appointment to the grade of 
Lieutenant Colonel (list begins with Kathy L. Velez) (Reference No. 
160).
    75. In the Marine Corps there is one appointment to the grade of 
Major (John R. Barclay) (Reference No. 161).
    76. In the Marine Corps there are four appointments to the grade of 
Major (list begins with Matthew J. Caffrey) (Reference No. 162).
    77. In the Marine Corps there are five appointments to the grade of 
Major (list begins with Jeff R. Bailey) (Reference No. 163).
    78. In the Marine Corps there are two appointments to the grade of 
Major (list begins with Jacob D. Leighty III) (Reference No. 164).
    79. In the Marine Corps there are four appointments to the grade of 
Major (list begins with Steven M. Dotson) (Reference No. 165).
    80. In the Marine Corps there are eight appointments to the grade 
of Major (list begins with William H. Barlow) (Reference No. 166).
    81. In the Marine Corps there are two appointments to the grade of 
Major (list begins with Andrew E. Gepp) (Reference No. 167).
    82. In the Marine Corps there are five appointments to the grade of 
Major (list begins with William A. Burwell) (Reference No. 168).
    83. In the Marine Corps there are five appointments to the grade of 
Major (list begins with Kenrick G. Fowler) (Reference No. 169).
    84. In the Marine Corps there are two appointments to the grade of 
Major (list begins with James P. Miller, Jr.) (Reference No. 170).
    85. In the Marine Corps there is one appointment to the grade of 
Major (David G. Boone) (Reference No. 171).
    86. In the Marine Corps there is one appointment to the grade of 
Major (Michael A. Lujan) (Reference No. 172).
    87. In the Marine Corps there are two appointments to the grade of 
Major (list begins with Michael A. Mink) (Reference No. 173).
    88. In the Air Force Reserve there is one appointments to the grade 
of Colonel (Eloise M. Fuller) (Reference No. 175).
    89. In the Marine Corps there are two appointments to the grade of 
Lieutenant Colonel (list begins with John T. Curran) (Reference No. 
176).
    Total: 2,598.

    [Whereupon, at 9:51 a.m., the nomination hearing adjourned 
and the committee proceeded to other business.

 
 NOMINATION OF HON. ANTHONY J. PRINCIPI TO BE A MEMBER OF THE DEFENSE 
                BASE CLOSURE AND REALIGNMENT COMMISSION

                              ----------                              


                        TUESDAY, MARCH 15, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:48 p.m. in room 
SR-222, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Dole, Cornyn, Thune, Kennedy, Lieberman, Akaka, E. Benjamin 
Nelson, and Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Gregory T. Kiley, 
professional staff member; Lucian L. Niemeyer, professional 
staff member; Scott W. Stucky, general counsel; Diana G. 
Tabler, professional staff member; and Richard F. Walsh, 
counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Michael J. Kuiken, professional 
staff member; Peter K. Levine, minority counsel; and Michael 
McCord, professional staff member.
    Staff assistant present: Nicholas W. West.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; John A. Bonsell, assistant to 
Senator Inhofe; Arch Galloway II, assistant to Senator 
Sessions; Mackenzie M. Eaglen, assistant to Senator Collins; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Christine 
O. Hill, assistant to Senator Dole; Russell J. Thomasson, 
assistant to Senator Cornyn; Bob Taylor and Matt Zabel, 
assistants to Senator Thune; Mieke Y. Eoyang, assistant to 
Senator Kennedy; Frederick M. Downey, assistant to Senator 
Lieberman; Darcie Tokioka, assistant to Senator Akaka; William 
K. Sutey, assistant to Senator Bill Nelson; and Eric Pierce, 
assistant to Senator Ben Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets this afternoon to 
consider the nomination of the Honorable Anthony J. Principi to 
be a member of the 2005 Defense Base Closure and Realignment 
Commission. If confirmed, Mr. Principi will be the President's 
choice to chair this very important commission.
    We congratulate you on your nomination and I note today the 
President announced the remaining eight individuals to complete 
the membership of the commission. The President has moved 
timely on this because we have a very strict time line. It is 
the intention of this Senator and I think all Senators to 
adhere to that time line.
    It is a great pleasure to welcome you back before this 
committee, which was once your home away from home for many 
years as a senior member of our staff, as you prepare to embark 
on yet another opportunity in public service. You have an 
impressive legacy of service to our Nation, ranging from your 
appointment to the United States Naval Academy, followed by 10 
years of military service as a combat decorated naval officer, 
with a tour in Vietnam, followed by years of service on this 
committee, as I said, and on the Committee on Veterans Affairs, 
and culminating in your recent outstanding service to the men 
and women of the Armed Forces and their families as Secretary 
of Veterans Affairs (VA).
    I want to thank you, Mr. Principi, and I thank your family, 
who I understand could not be here today, but their hearts are 
with us. I hope they are, because you have a tough job ahead. 
You better have that support, Mister, or you have a problem.
    I think I will just put the balance of this very well 
prepared statement in the record. It all reads just about like 
the first page.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    The Armed Services Committee meets this afternoon to consider the 
nomination of the Honorable Anthony J. Principi to be a member of the 
2005 Defense Base Realignment and Closure (BRAC) Commission. If 
confirmed, Mr. Principi will be the President's choice to chair the 
Commission. We congratulate you on your nomination. I note that today, 
the President has announced the remaining eight individuals to complete 
the BRAC Commission.
    Mr. Principi, it is a distinct pleasure to welcome you back before 
this committee as you prepare to embark on yet another opportunity of 
public service. You have an impressive legacy of service to our Nation, 
ranging from your appointment to the United States Naval Academy, 
followed by 10 years of military service as a combat decorated Naval 
officer with a tour in Vietnam, followed by years of service on this 
committee and the Senate Committee on Veteran's Affairs, and 
culminating in your recent outstanding service as Secretary of Veterans 
Affairs for the past 4 years. I want to sincerely thank you for taking 
on this most difficult, yet important assignment.
    If confirmed as a BRAC Commissioner and chosen by the President to 
be the chairman, your greatest challenge over the next 6 months will be 
to ensure that the selection of bases for realignment, closure, or in 
some cases privatization, is as open and fair as possible. The effected 
communities deserve to have every consideration reviewed and assessed 
by the Commission prior to any final decisions. The most important task 
of the Commission will be to preserve the integrity of the process, so 
that in the end, while decisions may be unpopular, all can be assured 
that the decision-making process was clear, consistent, and untainted 
by outside influence.
    You and your fellow commissioners will determine whether the 
Secretary of Defense's recommendations are consistent with the force 
structure plan the Secretary has proposed, as well as the selection 
criteria set forth by Congress last year. The criteria establishes the 
priority of ``military value'' as the most important factor in 
determining the contributions of military bases to our Nation's 
defense. I ask that you ensure the consistent and even-handed 
application of the criteria to the Secretary's BRAC recommendations. I 
also ask that, in your analysis of the bases needed to support our 
military forces, you carefully consider--and apply--the force structure 
and major force unit requirements for the next 20 years as proposed in 
the report by the Joint Chiefs of Staff.
    I have long been a supporter of the BRAC process and have led, in 
the face of considerable opposition, the efforts in the Senate to 
establish and preserve the 2005 round. Congress adopted a BRAC process 
that is intended to be fair, transparent, and objective. We have 
enhanced the law guiding the process to remove as much politics as we 
possibly can from the final decisions. However, the recommendations of 
the Department of Defense and your Commission must be supported by 
careful and thoughtful analysis of our national security requirements 
so as to ensure that the integrity of the process cannot be called into 
question. You face a formidable task to complete the work of the 
Commission and to deliver your recommendations to the President by 
September 8, 2005. I have confidence and trust in your ability to carry 
out this critical responsibility with the same degree of dedication and 
commitment you have demonstrated in your many years of public service. 
I know you are ready for the challenge and that your efforts will be in 
the best interests of our Nation.

    Senator Inhofe. Well, I want to hear it all. [Laughter.]
    Chairman Warner. I also place the opening statement of 
Senator Collins in the record.
    [The prepared statement of Senator Collins follows:]

             Prepared Statement by Senator Susan M. Collins

    I am pleased to welcome Mr. Principi to testify before this 
committee and would like to praise his vast accomplishments during his 
4-year tenure as Secretary of Veterans Affairs. Fighting for our 
country's veterans is an honorable cause and I am thankful for his 
dedication.
    Given the importance of today's topic on the upcoming Base 
Realignment and Closure (BRAC), I would like to take this opportunity 
to highlight the extraordinary contributions made by the State of Maine 
to our Nation's defense. Although Maine occupies a far corner of our 
Nation's territory, it is a corner that serves as the principle gateway 
to our Nation's largest and most densely populated metropolitan areas, 
a region of over 22 million people. Military installations in Maine 
defend land, sea, and air approaches into New England and the Mid-
Atlantic regions. Our strategic location, valuable infrastructure, and 
highly-skilled and experienced workforce are models for the rest of the 
Nation.
    The Naval Computer and Telecommunications Station in Cutler, Maine 
transmits a command and control broadcast, which is the backbone of the 
submarine broadcast system for the entire Atlantic fleet. The Air 
National Guard Base at Bangor is home to the 101st Air Refueling Wing 
whose mission is to provide refueling, airlift, and mobility missions 
in support of our Nation's defense needs in the Northeast and across 
the North Atlantic. The base at Bangor also supports the deployment and 
redeployment of many servicemembers overseas fighting in Operations 
Enduring and Iraqi Freedom.
    Brunswick Naval Air Station is the only military facility capable 
of providing aerial surveillance and interdiction on the U.S. northeast 
coast and maritime approaches, a capability that is absolutely 
essential for effective homeland security and homeland defense. 
Brunswick is the home of four active and two Reserve P-3 squadrons. P-
3s from Brunswick supported Operation Iraqi Freedom (OIF) and, more 
recently, tsunami relief efforts in southeast Asia. Brunswick is the 
only fully capable and operational Active-Duty airfield remaining in 
the northeastern United States.
    Portsmouth Naval Shipyard in Kittery, Maine, also provides 
essential and irreplaceable services and manpower for our Nation's 
defense needs. It is the only naval shipyard with a full spectrum of 
nuclear and diesel submarine maintenance experience, including reactor 
servicing, overhaul, modernization, testing and other emergency repair. 
Another shipyard hallmark is its impressive performance record, leading 
the Nation in timely and cost-effective submarine overhaul, 
modernization, and repair. The facility also home-ports three Coast 
Guard cutters, expanding its homeland security role.
    Finally, I would like to commend the fine contributions of Maine's 
men and women in uniform. I have had the great honor to meet with Maine 
servicemen and women before their deployment in Iraq and Afghanistan, 
while stationed overseas, and, most happily, when they return home. 
From the 112th Medical Company to the 136th Transportation Company, 
from the 304th Regiment currently training the Iraqi military with 25 
Mainers participating to the recently returned 619th Transportation 
Company and the 133rd Engineering Battalion, these brave troops have 
shown the highest standards of service to our Nation. The exemplary 
work and dedication to service continues as the 152nd Maintenance 
Company, based in Augusta with an attachment in Bangor, is currently 
awaiting deployment orders to Iraq.
    Maine's military installations enjoy a proud history of supporting 
our Nation's defense. Portsmouth Naval Shipyard is the oldest naval 
shipyard continuously operated by the U.S. Government. Public 
institutions such as the Maine Military Academy in Castine continue to 
train young men and women for professions in the Armed Forces. Our 
proud heritage continues through today and into the future with a 
legacy of the finest service, sharpest innovation and strongest 
dedication our Nation has to offer. With today's shifting priorities 
and demands, Maine's location, experience, and ongoing contributions 
remain essential in ensuring that our defense and homeland security 
requirements are fulfilled and the most significant task of defending 
our homeland is achieved.

    Chairman Warner. Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. I join you in 
greeting Secretary Principi and thanking him for his long-term 
service to our country and his willingness to take on this 
latest assignment.
    I looked over your bio and I was reminded that you were 
born in New York, and it struck me that the famous song will 
guide you and give us confidence here: ``If you can make it 
there, you can make it anywhere,'' including in the Base 
Realignment and Closure (BRAC) process.
    I want to just say a few words of welcome and thanks for 
agreeing to serve our country in this very important and 
challenging assignment. Given the strain on our national 
defense budget with the cost of the global war on terror and 
the need to ensure our forces have the best, most modern 
equipment available, it is important that we spend our defense 
dollars wisely. BRAC offers an opportunity to generate some 
savings so that we have the money available to fight and win 
the global war on terror and so that our service men and women 
remain the best equipped and best trained military in the 
world.
    But when we look at bases to find those savings, it is 
important that we carefully weigh all the relevant issues 
surrounding those military facilities. We must be sure to 
arrive at the right long-term decisions that leave our country 
strong, including the protection of our defense base, the 
special concern that we have heard before this committee 
expressed, specifically in response to a question the chairman 
asked about concern about concentration of facilities 
geographically, where you put many assets in one place and 
therefore they are more vulnerable to the possibility of 
attack.
    I will say that I was very encouraged by the answers you 
provided to the committee in response to the written questions, 
which suggested you are intent in this position in looking at 
some of the broader questions: first, military value of course; 
but second, other questions like impact on the communities 
surrounding the bases.
    The bottom line, we have to be sure that our country 
remains strong. I know I do not have to tell you this after 
your extraordinary service in the military, but also to 
America's service men and women and veterans: They have to have 
the backup, the structure, they need to continue to excel. We 
have to make sure that we do not inadvertently through this 
BRAC process complicate their mission or increase the risk to 
them.
    Bottom line, you are a good man and I am very grateful that 
you are willing to take on this assignment.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Are there other colleagues desiring to make a few opening 
remarks? Senator McCain.
    Senator McCain. Well, Mr. Chairman, I have known Mr. 
Principi for many years and worked with him in many ways and he 
is totally unqualified for the position. [Laughter.]
    Mr. Principi. May I leave now?
    Senator McCain. Should I ask for unanimous consent----
    Chairman Warner. To correct the record? I deny that 
unanimous consent. Let the record stand. [Laughter.]
    Senator McCain. I am very pleased, Mr. Chairman, that Tony 
Principi is going to bear these responsibilities. He has 
experience and knowledge in a broad variety of areas and I am 
very pleased.
    Chairman Warner. I share that sentiment, Senator.
    Yes, Senator Kennedy.
    Senator Kennedy. Just quickly, Mr. Chairman. I appreciate 
it. I saw Mr. Principi yesterday outside of the office building 
looking for a ride. I dare say that probably if every Member of 
the Senate knew he was out there, they would have gone back and 
given you a ride to just about wherever you want to go. 
[Laughter.]
    In any event, I just want to join in the welcome. We have 
had, as I am sure others have, the challenges of the VA health 
issues. You were enormously forthcoming in terms of the 
meetings, in giving consideration to people's views, extremely 
patient, extraordinarily tolerant, and showed a lot of good 
common sense and judgment. There were some extraordinarily 
tough issues there, as there are here.
    So we welcome you to this position. I will say, just very 
briefly, I think all of us understand, to have the best 
military, you need the best-trained, best-led men and women in 
the world with the best technology. The technology for the 
Services and the development of that technology is, as you well 
know, a combination of the best in terms of research in the 
military working with the private sector, I think in 
association with university-based and with well-trained and 
highly-skilled individuals. Those are some centers around the 
country that play a very important role. I know you are going 
to be looking at these and be making some judgments on it, and 
we certainly look forward to your deliberations on many of 
those up our way.
    I thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Kennedy.
    Other colleagues?
    Senator Inhofe. I do not want to be left out, I guess. It 
does not seem like it was 3\1/2\ years ago that you went with 
me to dedicate the memorial cemetery down at Eglin Air Force 
Base. I have always appreciated working with you and working 
very closely with you, and I will be looking forward to doing 
that in the future.
    Mr. Principi. Thank you, Senator.
    Chairman Warner. Others? Yes, the distinguished Senator 
from North Carolina.
    Senator Dole. Secretary Principi, I want to take this 
opportunity to congratulate you on the nomination as chairman 
of the 2005 BRAC commission. The President has not only 
selected as chairman a person of unquestioned integrity, but an 
individual with a wealth of experience, extensive military 
experience, experience on this committee during a previous BRAC 
round, and experience transforming Veterans Affairs' medical 
infrastructure to keep pace with medical innovations and 
changing demands.
    The magnitude of the job ahead of you is extraordinary. I 
have been extremely supportive of the Department of Defense 
(DOD) in its effort to increase efficiency and streamline 
operations. With our current world commitments, we must do 
everything possible to ensure that no taxpayer dollars are 
wasted and that every resource and installation is essentially 
dedicated to keeping our military men and women safe and 
effective. This BRAC round must be, more than anything, 
untarnished by political influence.
    That being said, North Carolina supports a unique military 
infrastructure in that all of our military installations and 
training ranges are located in the eastern part of the State, 
creating an unrivaled region of military value. The strong 
joint mission ties between Seymour Johnson and Pope Air Force 
Bases, Fort Bragg, Camp Lejeune, and Marine Corps Air Station 
Cherry Point, to include the naval depot, are only a hint of 
the possibilities that exist for expansion, not closure.
    Secretary Principi, again congratulations and I look 
forward to hearing your testimony today.
    Mr. Principi. Thank you.
    Chairman Warner. Well spoken.
    I see the Senator from Texas.
    Senator Cornyn. Thank you, Mr. Chairman, for the 
opportunity to make a few opening remarks.
    It is good to see you, Mr. Secretary. Like others on this 
committee, I have had the chance in my short time in the Senate 
to work with Secretary Principi on a number of matters, and I 
cannot imagine a better choice to chair the BRAC commission 
than Secretary Principi. I, like Senator Kennedy, had 
experience with him, and others here no doubt, working through 
the veterans hospitals issues through the Capital Asset 
Realignment for Enhanced Services (CARES) Commission, and I 
found him to have exactly the kind of temperament, including 
the patience and sensitivity to community issues, that are so 
important to dealing with what is necessarily a painful 
process.
    No doubt with BRAC, we will see similar pain experienced in 
some places. I, like others, look at this reluctantly, but with 
a sense of resignation of the necessity of it, because we want 
to make sure that our military continues to be the best 
equipped, best trained, most professional fighting force on the 
planet, and we do not want to have the taxpayers burdened with 
unnecessary infrastructure.
    So thank you very much for your willingness to take it on. 
I appreciate your service very much.
    Chairman Warner. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I also want to say welcome to Secretary Principi. It is 
nice to have you with us. I thank you for your great service to 
our country in the military and then as Secretary of the VA. I 
had the opportunity to work with you and you put up an 
exemplary record as the Secretary there. We did some great 
things, I think, in terms of quality of service to our veteran 
community and we appreciate the great work that you did there 
and we look forward to having your involvement with this 
important process.
    I would also say that one of the qualities I think that you 
bring to this is that you are a fair-minded person. I know that 
any fair-minded person will see the value of Ellsworth Air 
Force Base in South Dakota. I am just following up on Senator 
Dole here.
    But that being said, you mentioned in response to one of 
the questions that was submitted to you, that you wanted to 
ensure that communities and people impacted by the BRAC process 
have an opportunity to be heard. You had also mentioned, I 
think, to the extent possible that you would like to visit some 
of these places. I would certainly like to extend an invitation 
for you to come to South Dakota and to visit Ellsworth Air 
Force Base and to see the great work that the men and women who 
serve our country are doing there, and also the tremendous 
relationship that that base has with the community of Rapid 
City.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman. I would like to add 
my welcome to Mr. Principi on his nomination to be a member of 
the Defense Base Closure and Realignment Commission.
    I have so many good things to tell you, but I welcome you 
here. I also want to tell you that we are expecting the 
commission to be open, to be transparent, and to follow the 
laws. For me, there is no question that you are the man to 
ensure that. I am here to tell you that you have my support on 
your nomination and confirmation to this position.
    Thank you very much.
    Chairman Warner. Thank you very much.
    In accordance with all our procedures on advice and consent 
in this committee, the chair will now propound to you a series 
of questions. First, have you adhered to applicable laws and 
regulations governing conflicts of interest?
    Mr. Principi. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Principi. No, sir.
    Chairman Warner. Will you ensure that your staff comply 
with the deadlines established for requested communications, 
including questions for the record in the hearings?
    Mr. Principi. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Principi. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Principi. Yes, sir.
    Chairman Warner. Do you agree if confirmed to appear and 
testify upon request before this committee?
    Mr. Principi. Yes, sir.
    Chairman Warner. Do you agree to give your personal views 
when asked by this committee?
    Mr. Principi. Yes, sir.
    Chairman Warner. Even if those views might differ from the 
mission on which you are empowered at the request of the 
President and in contradiction possibly of the administration's 
viewpoint?
    Mr. Principi. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee of 
Congress or to consult with the committee regarding the basis 
for any good faith delay or denial in producing such documents?
    Mr. Principi. Yes, sir.
    Chairman Warner. Senator Levin and I were together here 
early this afternoon. He had to go to the Intelligence 
Committee. He asked that I convey his strong support for your 
nomination and regret that he could not be here.
    The chair also notes the presence in the hearing room of 
Charles Battaglia. I was privileged to be on the Intelligence 
Committee when you were one of our most valued staff members 
and to work with you while you were Staff Director of the 
Veterans Committee. So we welcome you today. Thank you.
    Do you have a prepared statement by way of opening remarks?
    Mr. Principi. Just a brief oral statement, Mr. Chairman. 
Shall I begin?
    Chairman Warner. Yes, of course.

  STATEMENT OF ANTHONY JOSEPH PRINCIPI, TO BE A MEMBER OF THE 
        DEFENSE BASE CLOSURE AND REALIGNMENT COMMISSION

    Mr. Principi. Mr. Chairman, members of the committee: I 
thank you. It is a pleasure to appear before you and it is 
certainly a pleasure to be back in the hearing room where I 
feel I grew up professionally on Capitol Hill. I also thank 
you, Mr. Chairman and members, for expediting my confirmation 
hearing so that if I am confirmed I will have the opportunity 
to begin to build staff and put together the organizational 
structure to meet our enormous responsibilities.
    In preparation for today's hearing, I read the hearing 
transcript of Senator Dixon's confirmation hearing to be the 
chairman of the 1995 BRAC Commission, and I noted that many of 
his former colleagues on the committee questioned his mental 
stability on taking on this responsibility. I must confess that 
I had similar thoughts about myself over the past month.
    But in all honesty, it is a great honor to have been 
nominated by the President to serve on the commission and, if 
confirmed, to be the chairman, because it is so critically 
important to our national security, as painful and as difficult 
as our work will be. It is critically important because I 
believe that resources that are spent inefficiently are 
resources that will not be available to maximize our 
operational readiness and capabilities, will not be available 
to modernize our Armed Forces, and certainly would not be 
available to improve the quality of life for the men and women 
in uniform.
    So I take this responsibility very seriously and will 
ensure that our commission carefully reviews the 
recommendations of Secretary Rumsfeld to ensure that they 
conform to the force structure plan and the selection criteria 
that must be used in making determinations as to which bases 
should be closed and/or realigned.
    Second, national security and military value is a priority 
in the law and we will certainly treat it that way. I will be 
mindful of the other selection criteria in the law with regard 
to return on investment, economic impact, community 
infrastructure, as well as environmental considerations. As 
some of you have indicated, as Secretary of Veterans Affairs I 
faced very similar type challenges in attempting to transform 
the VA health care system that had a legacy infrastructure, an 
aging infrastructure, to the modern technologies and delivery 
mechanisms in medical care. In doing so, I visited many of the 
communities that would be impacted by those decisions and 
learned firsthand about the economic impact, and certainly will 
keep those factors in mind as we deliberate. But of course, 
national security will be our highest priority.
    In closing, Mr. Chairman, members of the committee, let me 
just say that I commit to you that there are certain principles 
that I will adhere to: that this commission will be 
independent, it will be fair, it will be open. We will have, of 
course, our hearings in Washington. We will have regional 
hearings. Commissioners will visit military installations 
impacted by the recommendations so that we can hear from State 
and local officials and the people in the community. This 
commission will be bipartisan. I believe that if we politicize 
this process we will only increase the level of cynicism around 
the country and really doom it to failure.
    I intend to fully comply with both the intent and the 
spirit of the BRAC law as amended to include this 2005 round. I 
commit to you there will be no ex parte communications, that we 
will work collaboratively, that I will seek all and any 
information I need from the Department of Defense to make the 
right decisions, and I have been assured that that information 
will be forthcoming if requested, and we will certainly share 
that with the Hill.
    We will work very hard, Mr. Chairman, members of the 
committee, to do the right thing for our national security and 
for our men and women in uniform.
    Thank you very much.
    Chairman Warner. Thank you very much.
    I am going to allocate part of my time to Senator McCain. 
He has to depart. Senator, go ahead.
    Senator McCain. Go ahead, Mr. Chairman.
    Chairman Warner. No, you go right ahead.
    Senator McCain. Thank you, Mr. Chairman. Mr. Principi, I 
would like to talk with you about this issue of environmental 
cleanup. Many opponents of BRAC have said that we have 
experienced unexpected costs associated with environmental 
cleanups when we close the bases. I understand that, but is it 
not also true that they would have to be cleaned up at some 
time?
    I mean, the logic seems to be that if we just ignore the 
problem it is not going to cost us any money. In some cases the 
problem gets worse if the environment is not cleaned up. So can 
you tell me how that factors into the decisionmaking process, 
the fact that you may come across some very significant costs 
at one base or another that would be associated with 
environmental cleanup?
    Mr. Principi. Yes, Senator McCain. Clearly it is one of the 
criteria that the Secretary of Defense and the commission has 
to review in making its determination. Again, national security 
has priority, but it is one of the other factors that we need 
to look at. In doing so, we are required to look at the cost of 
restoration, waste management, and contamination. We will do 
that, but I agree with you that these bases do need to be 
cleaned up in any event.
    There are perhaps ways to work with the community to 
address those issues. Parts that are contaminated obviously 
should not be transferred, but other parts that are clean can 
be leased to the private community. So I think it is a 
partnership between DOD and the community to find some common 
ground as to how that can be accomplished.
    Senator McCain. Well, again it bothers me a little bit that 
if you find some place that really is badly in need of 
addressing an environmental problem, we will not close the base 
and we will just leave it alone. That does not make any sense 
to me, quite frankly. In fact, you might be able to make an 
argument that we should address environmental problems when we 
find them because of the hazard that they pose to the health of 
the community.
    Mr. Principi. I agree.
    Senator McCain. Again, I hope that the commission will take 
into consideration both short-term and long-term aspects of 
that. But I would argue that the overwhelming criteria, as you 
stated, is our national security. There may be some close 
calls, but national security is obviously most important. Does 
it matter, the relations between the local community and the 
base?
    Mr. Principi. I am sorry, sir? The relationship between the 
local community and the base?
    Senator McCain. Yes.
    Mr. Principi. Again, that is a factor that we need to look 
at, the economic impact. We need to look to see that both 
current and potential receiving locations have the 
infrastructure to accommodate the increased force structure 
that may be at that facility. So I do think that the 
relationship needs to be assessed.
    But again, it is one of those other criteria that is 
secondary to our national security. But I think we need to look 
at it.
    Senator McCain. I thank you and I wish you every success. 
As one of those who has believed that this was absolutely 
necessary as defense dollars become scarcer and scarcer, I am 
sure you will do an outstanding job, you and the other members 
of the commission.
    I want to thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator McCain.
    I will defer the chair's questions until the end to 
accommodate my members. Mrs. Dole, you were the first one here.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    Secretary Principi, how will you factor in transformational 
plans into your review process--Army transformation, Marine 
Corps restructuring, Guard and Reserve rebalancing? All of 
these initiatives could dramatically affect future force 
structure and infrastructure requirements. I wonder how you 
factor those in and, given the rigid timetable, how do you 
intend to adequately analyze criteria that is only now 
beginning to take shape?
    Mr. Principi. Well, it is going to be a difficult 
challenge, Senator. But it is one of the things that we are 
required to do. Certainly the Secretary of Defense in his 
report to the commission is required to take those into 
consideration and has indicated that that restructuring, that 
transformation, will be part of the BRAC process. So it is 
going to be part of the work we are going to have to do.
    We just have to have the data and the information upon 
which we can do our analytical review to make sure that it has 
been taken into consideration.
    But the time lines are very tight. We get the report from 
the Secretary in mid-May and we have to submit a report to the 
President in September. That is a very tight time line. But we 
are going to assemble an appropriate professional staff that I 
am sure we will have confidence in.
    Senator Dole. In previous BRAC rounds the individual 
Services had direct input into what installations were 
considered excess or of reduced military value. This year the 
base closure decisions are being made by the Department of 
Defense through cross-service steering groups, I understand, 
and executive councils. Do you think this approach will 
complicate the commission's review?
    Mr. Principi. Very possibly, Senator. I really do not know 
at this point. It may require some changes in how we are 
organized. In past BRAC rounds the staff were organized along 
service lines. This year the staff may have to be organized 
along functional lines, similar type categories. We are going 
to have to take a look at that.
    But clearly, the joint cross-service groups are playing a 
critical role in the deliberations and the resulting list of 
base closures and realignments that will come to us.
    Senator Dole. One further question. How do you intend to 
factor overseas realignments into the commission's 
decisionmaking process? Will you be interfacing with the 
overseas basing commission? I think they are due to report in 
August. If so, how?
    Mr. Principi. Certainly that is one of the special 
considerations that is contained in the statute, that the 
Secretary of Defense must take into consideration the need for 
and the availability of overseas bases. That needs to be part 
of his deliberations and will come to us. So certainly we will 
take a look at that, and certainly to the degree we can in the 
time limits that we have try to get an assessment from that 
overseas base commission.
    Chairman Warner. Thank you. Thank you very much, Mr. 
Chairman.
    Senator Dole. Thank you, Mr. Chairman.
    Chairman Warner. Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Again, thank you, Mr. Principi, for your willingness to 
serve. In my opening statement I referred to an exchange that 
occurred when the Chief of Naval Operations (CNO), Admiral 
Clark, appeared before this committee in which he expressed his 
discomfort about the overcentralization of facilities. He 
particularly made reference to that with regard to naval ports. 
He said he was worried, in the classic phrase, about having our 
eggs all in one basket in a way that would make the fleet 
vulnerable to a number of scenarios, including a terrorist 
incident or even a natural disaster.
    I agree, myself, and I wanted to ask you whether you will 
take steps to guide the commission in a way that will ensure 
the need for efficiency through fewer bases is balanced against 
the need from a national security point of view to maintain 
dispersed bases and ports so that our forces do not become 
single-threated and vulnerable?
    Mr. Principi. Senator, our responsibility and the purview 
of our commission is to ensure that the requirements that are 
set out in the law that the Secretary of Defense has to follow 
with regard to force structure plan and inventory of bases, as 
well as the selection criteria, are followed and that, if he 
should substantially deviate from those requirements, then of 
course we reject, change, or perhaps add bases to the list.
    To the degree that centralization or decentralization 
becomes an issue before the commission, we certainly will 
review it very carefully.
    Senator Lieberman. I appreciate that answer. I know that 
you said earlier that military value, and I agree of course, is 
the number one consideration. But there are other 
considerations beyond that and I wonder if you would state some 
of those that you think ought to be considered in the decision 
you would make?
    Mr. Principi. Well, I think there are four considerations 
that are very important. They are set out in the statute. The 
first being what I call the return on investment, looking at 
the extent and the time line for the net savings and the costs 
of the realignment and closures.
    I think second, very importantly, as part of this secondary 
level of criteria is the economic impact on the community. 
There will be an impact, both social and economic, in the short 
term and we need to review that.
    Third, do the current and potential receiving stations, the 
communities, have the infrastructure to support the forces at 
that installation. That becomes another factor that we need to 
consider.
    Then finally, as Senator McCain talked about, is the 
environmental issues, the cost and consideration of those.
    So yes, they are very important. We will do so, but of 
course national security has to be our highest priority.
    Senator Lieberman. I agree with you. I thank you for 
mentioning those. I would add, though it is not on the list, 
just from a matter of evaluating the return for considering 
closing of a base, the investments that have been made, 
particularly in recent times. The Department of Defense has 
been very aggressive in recent years, fortunately, in trying to 
build up, for instance, housing for service people.
    A lot of it has come to a position where it is really at a 
level we would like it to be. I hope that you will find a way 
to consider what might be called recent investments in 
infrastructure, which it would seem to be a shame to negate by 
closing a facility.
    Mr. Principi. We certainly will. I think that a very 
important component of our work, is to take a look at the model 
that the Department of Defense will use with regard to the 
costing, both short-term and long-term, and to make sure that 
the figures, to the best of our ability, that the figures, the 
savings, and the costs are accurate. It can be a very important 
point.
    Senator Lieberman. Thank you very much. I look forward to 
working with you. I know we are going to have a chance to talk 
tomorrow one-on-one and I welcome that opportunity. Thank you 
very much for being willing to serve.
    Mr. Principi. Thank you, Senator.
    Senator Lieberman. All the best.
    Chairman Warner. Thank you, Senator Lieberman, for joining 
us at this hearing. It is very important.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Again, Secretary Principi, thank you for your willingness 
to do this job. A couple of questions following up on what 
Senator Lieberman asked and Senator McCain's question earlier. 
My question has to do with the process by which you evaluate 
DOD's evaluated potential community impact. The question is 
will you evaluate the process the Department uses to determine 
potential community impact before it submits its closure list 
to your commission? In other words, having the site visits, the 
regional hearings, and meetings with local community leaders 
after the base has been selected for closure is one thing, but 
once a base is on the list it may be too little, too late.
    So I guess my question is, is that something that you would 
give consideration to and look at before the list is submitted?
    Mr. Principi. I do not think that would be possible, 
Senator Thune. I think we need to wait until we receive that 
list on May 16 and then very carefully and comprehensively 
analyze the data that has been provided. The Secretary of 
Defense needs to take a look at all of these criteria. They 
need to be the basis, along with the force structure plan, for 
his decisions. Then once we get that information, then we will 
begin, of course, the second round of hearings and site visits 
to determine whether he has deviated substantially from what 
you set out in the law.
    Senator Thune. You noted earlier that the law does say that 
economic impact on the local community is one of the criteria 
that the Secretary of Defense must consider. You had indicated 
in your written response to the committee that commissioners 
would, to the extent possible, visit those impacted bases. As I 
said earlier, I would love to have you come prior to any 
decisions. I think after a decision has been made about that it 
is too late.
    But the follow-up question to my earlier question has to do 
with following the receipt of the Secretary's recommended 
closure list, if the commission found that DOD and the Services 
had failed to adequately consider community impact for a base 
on that list, given that the law says that that is something 
they have to look at, would that constitute a deviation from 
the final criteria to warrant the commission overturning a 
decision or a recommendation that is made by the Secretary?
    Mr. Principi. It is hard to say, Senator. I can assure you 
if they did not adequately or accurately assess the economic 
impact that certainly would mitigate, if you will, perhaps some 
of the military value. Whether it would be adequate to overturn 
it or not, I do not know. I think the standard that we must use 
by law is, did the Secretary of Defense deviate substantially 
from those criteria that you just mentioned, one being economic 
impact, or the force structure plan, the 20-year assessment 
based upon probable threats to the country.
    If we find one or the other of those, then certainly it is 
open to question whether that base should be on the list. But 
there are other considerations, being national security, and it 
might outweigh the economic impact issue. But we would look at 
it very carefully.
    Senator Thune. I appreciate the answer to that and would 
simply say again that I know you have to weigh these issues. 
National security clearly is the priority in this, but the law 
also says there are these other issues. That is one that in my 
judgment is very important.
    I would also add what Senator Lieberman mentioned about 
looking at the investment, the recent investment in 
infrastructure, because there are a number of bases where we 
have expended in military construction (MILCON) projects in the 
past few years a lot of money improving facilities and 
everything else, and I think that is also a factor. It may not 
be enumerated in the law, but it is something I would hope you 
would take into consideration.
    But the economic impact criteria is obviously something I 
think that would weigh heavily close behind, obviously first 
and foremost being national security.
    Mr. Principi. I fully expect that the Secretary of Defense 
and the Department of Defense have taken those into 
consideration in making their recommendations. It is our job to 
be that independent check to make sure that has been done.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. I thank the Senator from South Dakota.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, congratulations on your nomination to this 
important and challenging assignment. I did not think you could 
top what you just finished for difficulty, but you may have 
found a way. But I think, based on our experience while serving 
on the Veterans Affairs Committee, I know that you have the 
capacity to do this, and I think the President has made an 
excellent choice.
    As you may know, I did not support the most recent BRAC 
round. I know every system has inefficiencies and redundancies 
and so it has not been a question in my mind as to whether or 
not perhaps we ought to do it, but I always felt we had the 
process backwards. That we were not determining what 
transformation would be, where that would take us, what end 
strength would be, and how we were going to reconstitute our 
military operations, that once we did that then I thought we 
could probably decide where we were going to house them. I 
could not quite grasp that the system was reversed. We decide 
primarily what bases we need versus what military we needed.
    But in any event, I guess I would say that I was hopeful we 
would find a peaceful time. I know we are at war, but does it 
make any difference in your mind whether we are at war or at 
peace when we try to make these decisions and take into 
consideration what our needs are versus what they may become?
    Mr. Principi. No, Senator, I do not. Of course it is always 
a little bit more challenging and difficult in times of war. 
But I think it is so terribly critical to our national security 
that the dollars we spend are spent indeed to maximize our 
readiness, our capabilities, and our modernization. Those are 
issues that are very important in times of war. If we are 
spending money on excess capacity, we are diverting scarce 
resources to ensuring that we have that capability.
    So I think it is equally important, sir, in both peace and 
war. But obviously, during war it becomes a little bit more 
difficult.
    Senator Ben Nelson. We are having enough trouble 
determining end strength. Transformation is a major challenge. 
Is this something that we can undertake in the midst of these 
changes as well? What I am trying to find out is whether we 
have the system backwards or not. It would seem to me that we 
would have to know what we want our military to be, then we 
could work toward where they are located, that is a secondary 
issue, albeit totally important when it comes to the dollars 
and spending them wisely for sure.
    But I heard your answer. I still raise the question, not so 
much because I have not heard your answer. I am very concerned 
that we have chosen this format and we are going to stick with 
it, rather than--I wanted to call it base closing and 
realignment, BRAC, but I did not like the word ``closing.'' I 
mean, I do not know why we start off with almost a presumption 
that something is going to close before we have gone through 
the process of analysis. But I think I even tried to get that 
as a friendly amendment. It was not accepted in a friendly way, 
so I did not succeed.
    But I think if you see my point, I am not looking for an 
answer so much as I am just wanting to give you my thoughts. As 
you go through this, hopefully keep them in mind because it is 
too easy to draw a conclusion for cost-saving purposes: We have 
to close this, it is expensive, it is old, whatever. But that 
may not be the primary consideration. It may be the best place 
when we realign and transform the military.
    Mr. Principi. Well, I would briefly answer, Senator. I 
understand your point. One of the important criteria that needs 
to be assessed and I am confident it is being assessed by the 
Secretary of Defense and certainly will be by the commission, 
is the ability to accommodate mobilization contingency planning 
and future force requirements.
    Senator Ben Nelson. Force requirements as well.
    Mr. Principi. Yes indeed. So that should be a very 
important part of the analysis that the Secretary undertakes 
and that we will look upon.
    Senator Ben Nelson. Well, thank you, Mr. Chairman, and I 
know that you will do your very best.
    Mr. Principi. Thank you.
    Senator Ben Nelson. Good luck.
    Chairman Warner. Thank you, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Principi, I did something I do not very often do. I 
read all of your questions and all of your answers that were 
submitted early, and you were very specific and very thorough. 
I appreciate it.
    Question number 3 is talking about the staff. The staff is 
so important. You say that they need to be impartial, 
professional, and free of political influence. I agree with 
that. But I would assume that under the heading of professional 
you have someone who understands military values, somebody who 
has a background that would be conducive to making 
determinations, where they have some kind of innate experience 
in that?
    Mr. Principi. Absolutely, Senator, without question they 
will have that experience and expertise to analyze those 
criteria under military value.
    Senator Inhofe. Then also, on staffing, it is my 
understanding that there will be a change. Before you have 
always had the Services directly go out and make 
recommendations. But now with jointness, cross-service and all 
that, you are going to be taking a little different approach 
and looking at functions as opposed to services, am I correct, 
and would you respond to that?
    Mr. Principi. I believe that that might be a very 
pronounced change in how we are organized, because of these 
joint cross-service groups. We are going to have to adjust to 
that.
    Senator Inhofe. Several people have talked about the 
economic impact on communities. Of course, we are all concerned 
with that. To me, though, something that is more important is 
community support. I know that is one thing that all five 
installations in Oklahoma have done, where we have the 
community providing infrastructure, roads, health care for 
dependents on post or on base, and many other areas where 
normally it would be paid for by the military.
    I would assume that that is going to be a major 
consideration.
    Mr. Principi. Absolutely. That is one of the important 
criteria. Again, it is secondary to national security that we 
are required to follow, but community infrastructure, the 
ability to accommodate increased levels of force units, is 
something that we need to take into consideration--roads, 
schools, housing--all very important.
    Senator Inhofe. Finally, we fought what I refer to right 
now as the Battle of Vieques and lost. I had 3 years of my 
efforts put into that. One of the reasons was, because of a lot 
of the environmental movements, particularly in Western Europe 
and other places, and here in the United States, live ranges 
are disappearing. They are an endangered species.
    I am very much concerned about that. Right now we have 
watched the influence of the European Union change the attitude 
toward our use of live ranges in Western Europe. We know that 
contributes to what will be a movement back stateside of a lot 
of the deployments that are over there in Western Europe.
    I would hope that you would take that into consideration as 
you look and keep in mind that we cannot afford to give up any 
opportunities to use live ranges. I am sure you already are 
aware of that and that your staff will be aware of that.
    Mr. Principi. Absolutely. The availability of land, 
facilities, and associated air space for training purposes, 
ranges, is an important criteria that is spelled out and that 
we will look at carefully to ensure that it has been considered 
by the Secretary in making his recommendations.
    Senator Inhofe. That is great. Thank you very much.
    Mr. Principi. Yes, sir.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Warner. Senator Inhofe, I think it was very 
important that you bring that up. Both you and I know full well 
the thoroughness with which this committee tried to work on the 
question of Vieques. That is over and done with, but there is 
no substitute for live-fire training. Around this table there 
are some who have been through that and know full well the 
value of it. You can have all the simulators and the rest of 
the stuff you want, but there is something about that live-fire 
training that that soldier, sailor, airman, or marine will 
never forget if they have the misfortune to ever be in a combat 
situation.
    Senator Inhofe. Thank you, Mr. Chairman. I remember the 
first time I experienced live-fire training. It sure was 
different than the inert.
    Chairman Warner. Yes, I assure you that, too. Well, there 
sits a highly decorated hero, very silent about his service, 
but he knows of what I speak.
    Secretary Principi.
    Senator Clinton, we welcome you.
    Senator Clinton. Thank you very much, Mr. Chairman. I 
appreciated the last exchange because I cannot resist saying 
Fort Drum, New York, has live-fire training ranges that are 
totally without any objection from anyone anywhere, and we 
could grow considerably, Mr. Secretary.
    I thank you for being here and I thank you for this 
continuation of your public service. It has been a real 
pleasure to work with you in the past and I look forward to 
continuing our relationship. I really appreciated the answers 
that you gave to the questions that we submitted to you in 
advance, and I am particularly grateful for the way you 
answered with respect to what was required of you as chairman.
    Just for the record, I think this really bears repeating. I 
quote: ``As chairman, I believe it is important to set the tone 
for our deliberations, to ensure that our work is devoid of 
politics, to address potential conflicts of interest, to be 
independent, fair, open, and equitable, to build consensus, and 
to ensure the communities and people impacted by the BRAC 
process have an opportunity to be heard.''
    I could not have anticipated a better response. It really 
fits with everything that I know about you and the work that we 
have done together.
    Obviously, each of us is concerned about our overall 
configuration for the future, where bases will be, what those 
bases' missions will be, how we move people from overseas back 
home. There are just a lot of large, unanswered questions that 
you will have a major role in helping us answer.
    Then we each have to be concerned about what happens in our 
individual States. I know that you are aware of the long 
history of New York's contributions to our military. In fact, I 
think, Mr. Chairman, I was told the other day that, certainly 
going back to the very beginning of our Nation, New York has 
sacrificed more people in the service of our country than any 
other State. We are very proud of that.
    But we did not have a good experience in the last BRAC 
process. I was not part of it, but I have talked to enough 
people who have reported to me the demoralizing, discouraging 
impact of having the professional recommendations at the last 
minute for political reasons overturned. We ended up losing two 
Air Force bases, Griffiss and Plattsburgh, that ended having 
any significant Air Force presence along our northern border 
for most of the United States.
    Now of course, with the additional needs of moving quickly 
across the Atlantic to Iraq and Afghanistan, with our homeland 
security demands, in retrospect that may not have been a wise 
decision.
    So we are looking forward to and counting on you to be able 
to fulfil those very significant pledges that you made in your 
answers to our questions.
    One matter I would like to raise is I know that there was 
some problem with the CARES process that you were very 
receptive to dealing with, that a lot of local communities felt 
they did not get a chance to be heard. Have you given any 
thought as to how you will ensure that communities have an 
adequate opportunity to make sure their views are heard?
    Mr. Principi. Yes, Senator. I think it is terribly 
important and we certainly tried to do so with CARES. We may 
have failed in some instances, but that was really a very core 
component.
    Certainly, in addition to the Washington hearings, I intend 
to have regional hearings across the country, geographically 
located so that people will have access and can testify, not 
only State and local officials, but private citizens. It is my 
intent, although I have not seen the list, I do not know what 
is on the list, to send commissions out to every installation 
that is going to be impacted by the recommendations that come 
forward and an opportunity to meet with people, both the base 
commander, the local officials, and to the degree possible the 
private sector. Then I am sure we will have a web site set up 
where we can get information in from the local community.
    So I think if we are going to succeed and we are going to 
alleviate the cynicism and the political mistrust, then we have 
to reach out to the people and give them an opportunity to be 
heard. I think our challenge, Senator, is that the time-lines 
are so tight. On May 16, we receive the Secretary's report, and 
our report has to be in to the President by September 8. That 
is a tough row to hoe, but we will do our best.
    Senator Clinton. Well, I appreciate that. I know that the 
criteria that has been adopted certainly give us the guidelines 
that we need. Looking at the contributions that a number of the 
bases have made to our ongoing missions overseas, I am very 
proud of the fact that our National Guard and Reserve bases 
have made significant contributions.
    How will you look to give geographic balance to our basing 
structure, and particularly to the ability of Guard and Reserve 
Forces to be able to train and deploy in an area where they 
live? I am concerned that, with the stresses on the Guard and 
Reserves that we have seen in the last several years, some of 
the information we are getting about some difficulties in 
retention and recruitment for the Guard and Reserves, if we 
make it even more difficult for people to participate by moving 
the bases further and further away from population centers, 
that could be a real problem for us.
    Mr. Principi. Well, it certainly could be, and we will 
certainly look at that very carefully. It is my hope that those 
factors are being taken into consideration in compiling this 
list.
    The criteria really does speak to the total force. It does 
not speak just to the active force. It speaks to the total 
force, and that includes the Guard and the Reserve. It talks 
about staging areas for homeland security, the northern border, 
and things of that nature. Those are all factors that this 
commission needs to ensure, as an independent check, are being 
done in conformance with the force structure plan and those 
criteria that are established in the law.
    Senator Clinton. Thank you very much, Mr. Secretary.
    Chairman Warner. Thank you very much, Senator.
    The record will contain your responses to advance policy 
questions in an appropriate place and I will put them in.
    I would suggest, Mr. Principi, that you provide for the 
record a very carefully written statement by you outlining the 
law and regulations and such other factors as will control the 
visitation process and the timing of that visitation process. 
You gave an accurate answer, as I understand it, in the 
testimony, but I tell you, the visitation of a BRAC 
commissioner or the absence thereof is going to be a very 
meaningful event to communities all across this Nation. So I 
would like to have our record today reflect with precision 
exactly what guidance you are going to give your fellow 
commissioners and that you yourself will follow.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Principi. Yes, sir.
    Chairman Warner. Obviously you cannot visit every base and 
you have to wait, as you say, to initiate any visits for fear 
to prejudge a decision or reflect some measure of prejudgment, 
until that list comes out; am I not correct?
    Mr. Principi. Correct.
    Chairman Warner. But once the list is out, then presumably 
every base on that list will be visited at least once by at 
least one commissioner, is that right?
    Mr. Principi. That is my intent, yes, Senator, by at least 
one commissioner.
    Chairman Warner. That is important. Then, should the 
commission, as it is authorized under law, exercise its own 
initiative and wish to add some installations, there again 
visitations would be a part of that preparation.
    Mr. Principi. Absolutely. In that case we will send two 
commissioners out to that installation.
    Chairman Warner. A minimum of two.
    Mr. Principi. A minimum of two commissioners.
    Chairman Warner. Good. Well, I thank you for doing that.
    Mr. Principi. We will have it for you tomorrow, Mr. 
Chairman.
    Chairman Warner. Well, whatever. But we would hope to get 
your name to the floor before the weekend, so you can begin to 
exercise your statutory authority, having been confirmed and 
taken the oath of office, presumably thereafter and get 
underway.
    Mr. Principi. Yes, sir.
    Chairman Warner. It is a tight time schedule. There is an 
awful lot of work that has to be done.
    Mr. Principi. Yes, sir.
    Chairman Warner. In your answers to the committee's advance 
policy questions, which are now part of the record, you agree 
to abide by specific procedures for recusal or divestiture. Has 
the White House or the Department of Defense asked you to sign 
any other type of agreement regarding recusals or divestitures 
due to conflicts of interest?
    Mr. Principi. Yes. There was an ethics document that, in 
the event of a conflict of interests, that we would recuse 
ourselves. I do not recall the precise language, but it is an 
ethics counsel----
    Chairman Warner. You have been through it many times.
    Mr. Principi. Yes.
    Chairman Warner. You can check it out.
    I am going to go through quickly some points here and then 
give you some other written questions to respond to, because 
this record should be complete on a number of points. You have 
covered, I think most well, but I think it is important to have 
them all in at one spot in the record in sequence, because I 
went back and studied, as did my staff, previous BRAC 
commissions. I have actually been here under all five of these 
BRAC commissions. You remember Senator Dixon. You mentioned 
him. I remember we drew up one of the laws together. It has 
never been a popular task on this committee, because colleagues 
have differences of opinion about BRAC. But I strongly support 
the President and the Secretary of Defense, and will continue 
to do so.
    I guess this brings me to the last point I wish to make, 
and that is the laws were designed to really have Congress's 
role be very precise. Namely, we have at certain junctures the 
right to come in, particularly at the end, and approve or 
disapprove in its entirety of the recommendation that is to be 
laid before the President. That is clear.
    I answered some questions about BRAC yesterday on a visit 
to our State capital when I was there on some business other 
than BRAC. But they always say, he is the chairman, so he is 
going to have a lot of influence. But the statute is drawn in 
such a way that Members of Congress will participate, 
particularly at such times should BRAC commissioners visit a 
base. But, it is designed, the law, to eliminate their 
influence.
    If you can bear with me, I will give you a little anecdotal 
experience. When I was privileged to be in the Department of 
Defense as Secretary of the Navy many years ago, there was no 
BRAC process. If a service secretary felt that he or she, as 
the case may be, wanted to close a base, with the concurrence 
of the Secretary of Defense, you closed it.
    I am glad Senator Kennedy is gone, because he brings it up. 
I closed the Boston Naval Shipyard. I am glad Mr. Reed is not 
here. I closed the destroyer base in Rhode Island. I wish you 
could have seen what occurred in the Caucus Room upstairs when 
the entire delegations of the several States in the Northeast, 
where I had made these closures, questioned me and the then 
Chief of Naval Operations, who was Admiral Zumwalt, for hour 
upon hour upon hour, because these were tough decisions and 
they impacted then, as they do today, the economic structure of 
a community.
    Also, quite apart from economics and politics, communities 
by and large all across America just adore having a military 
base there. It is a sense of pride. It is a sense of history, 
and extremely hard to come to grips with the question that no 
longer are these facilities on the cutting edge of the 
reformation, the changes, the modernization of today's 
military.
    But in your opening statement, and as colleagues mentioned, 
you have to do it, to take out of your inventory those 
facilities which are no longer on the cutting edge and of great 
military value. It is painful.
    I remember so well we closed some of the old posts of the 
U.S. Cavalry in the west, which had been maintained since the 
late 1800s when they were part of the operations out there 
protecting the settlers and trying to protect the Indians on 
the reservations, affording law and order. They got up every 
morning--I remember President Reagan told me this story. When 
he was a young lieutenant, he reported to one of those bases 
right after Pearl Harbor. He volunteered and went in. He was a 
young cavalryman.
    He said: ``Gosh, every morning we had to get up and look 
over the ramparts and see what we could see through the 
binoculars. They are in the middle of the Far West out there.''
    Anyway, I know it is a tough job. But I want to just touch 
on this thing. We have taken, as best we can, politics out of 
it. I am going to do everything I can as chairman--and I find 
tremendous cooperation from my colleagues--to get this BRAC 
round through successfully for the country, for the men and 
women of the Armed Forces who need the money now being spent on 
these bases to modernize the ones on which they are currently 
serving and training together with their families. They are the 
ultimate beneficiaries.
    But as you undertake this commission and its work, and you 
are going to do it here, hopefully, beginning next week, I 
think it is important that the basing structure we now have in 
place at the present time not be changed by the Department of 
Defense. It must watch its daily decision process to ensure 
that something is not, let us assume unintentionally, done that 
would somehow indicate a prejudgment of how that Department is 
going to work on its BRAC considerations of that installation.
    I think that is important, just as important as keeping the 
political partisan politics out of this thing. For example, I 
would like to quote for the record Secretary Rumsfeld when he 
was here on September 23, 2004. Senator Bill Nelson: 
``Secretary Rumsfeld, on March 2, 2004, in a question for the 
record I asked Secretary England if the Navy had performed any 
analysis of the current strategic conditions, force protection, 
and risk relative to the establishment of a second base on the 
Atlantic coast for nuclear-powered aircraft carriers.''
    In his response Secretary England stated: ``This was 
underway as part of the U.S. military global posture review. 
This review identified a requirement for strategic dispersion 
of the east coast nuclear aircraft carrier fleet.''
    Secretary Rumsfeld: ``There are proposed moves in the 
global posture report to Congress that addresses moving the 
relocation of aircraft carriers and carrier assets. However, 
the dispersion of aircraft carriers within the continental 
United States (CONUS) was not a subject of this report. Any 
relocation determination of CONUS carriers will be dependent on 
recommendations from the upcoming Base Realignment and Closure 
process.''
    I wanted you to have that.
    Thank you very much.
    Mr. Principi. Thank you, Senator.
    Chairman Warner. Would you respond to the additional 
questions I have here at the earliest possible opportunity?
    Mr. Principi. Yes, sir.
    Chairman Warner. Thank you.
    We stand adjourned.
    [Whereupon, at 5:52 p.m., the committee adjourned.]

    [Prepared questions submitted to Anthony J. Principi by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                                 DUTIES

    Question. Section 2914 of the Defense Base Closure and Realignment 
Act of 1990 (part A of title XXIX of Public Law 101-510 as amended; 
section 2687 note, title 10, United States Code) describes the duties 
of the Commission. What background and experience do you possess that 
you believe qualifies you to perform these duties?
    Answer. I served in the United States Navy and Naval Reserve for 21 
years at various military installations across the country and at 
military posts overseas. Following my Active-Duty service I was 
minority staff director on the Senate Armed Services Committee during 
the outset of the 1993 BRAC and was involved in hearings and site 
visits. As Secretary of Veterans Affairs I faced similar challenges in 
conforming VA's legacy infrastructure to the changes in 21st century 
healthcare.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. I will continue to review pertinent material and meet with 
former BRAC commissioners and staff as well as other knowledgeable 
individuals to learn the issues and challenges facing the 2005 BRAC 
Commission.
    Question. Assuming you are confirmed, what duties and functions do 
you expect will be required of you as Chairman of the Commission?
    Answer. My first duty will be to hire a staff director. As Chairman 
I will lead the Commission's efforts to meet our responsibilities under 
the law. I will prepare a roadmap for the conduct of our work in order 
to meet the rigid timelines to submit a report to the President. As 
Chairman, I believe it is important to set the tone for our 
deliberations--to ensure that our work is devoid of politics, to 
address potential conflicts of interest, to be independent, fair, open 
and equitable, to build consensus and to ensure the communities and 
people impacted by the BRAC process have an opportunity to be heard.
    Question. If confirmed as Chairman of the Commission, you will be 
responsible for hiring an executive director and BRAC staff. How will 
you insure that your staff is impartial, professional, and free of 
political influence?
    Answer. Every prospective nominee for a staff position will be 
interviewed to insure they have the requisite knowledge, experience, 
expertise and impartiality to serve on the staff. Politics or political 
influence in the selection of staff will not be tolerated.
    Question. If confirmed as Chairman, will you conduct all 
proceedings of the Commission in a manner that integrates the efforts, 
views, and concerns of other commissioners?
    Answer. Yes.
    Question. The Commission's deliberations are designed to be 
conducted, to the maximum extent possible, in public. If confirmed as 
chairman, how will you promote public participation in the Commissions' 
review process, particularly in terms of providing access to elected 
officials and the local leadership of communities potentially impacted 
by the BRAC recommendations?
    Answer. All hearings will be open to the public and information 
will be made available to the public in writing and electronic format. 
The Commission will hold regional hearings at which elected officials 
and local leadership will be invited and encouraged to testify. To the 
extent possible, Commissioners and staff will visit impacted 
installations and communities to meet with military, state and local 
officials as well as the public. Regional hearings will be held at 
locations conducive to maximum attendance.

                               CHALLENGES

    Question. In your view, what are the major challenges that will 
confront the 2005 Base Realignment and Closure Commission?
    Answer. The Commission begins its work with a very short timeframe 
to standup a staff prior to the Secretary of Defense's submission of 
base closures and realignments. The permanent core BRAC staff in 
existence prior to the 1995 BRAC was disbanded at the expiration of 
that round. Additionally, the Commission only has a few months to 
review and analyze the data provided by the Secretary to support his 
recommendations, conduct hearings, visit installations, markup the 
Commission's findings and recommendations and prepare a report for 
submission to the President not later than September 8, 2005. Another 
challenge will be to ensure that all commissioners and staff remain 
impartial and avoid political pressure and conflicts of interest. 
Changes in the BRAC statute will make it more challenging to change a 
recommendation made by the Secretary and add a military installation to 
the closure and realignment list that had not been recommended by the 
Secretary.
    Question. Assuming you are confirmed, what plans as Chairman do you 
have for addressing these challenges?
    Answer. If confirmed, my first priority will be to hire a staff 
director and professional staff to begin the preparatory work of the 
Commission. A commission agenda and strategy will be prepared for 
consideration by the Commissioners. I intend to stress the importance 
of objectivity, impartiality and openness throughout our deliberations 
and to achieve consensus on changes to Secretarial recommendations on 
base closures and realignments.
    Question. Do you have any views as to which military bases should 
be closed or which missions and/or functions ought to be realigned?
    Answer. No.
    Question. Do you have any views as to which types of military bases 
should be closed and which types of missions should be realigned?
    Answer. No.
    Question. Will you be able to devote adequate time in order for the 
Commission to complete its work as scheduled?
    Answer. Yes.
    Question. The obligation to clean up contamination at military 
sites is governed by a variety of State and Federal laws that apply to 
all bases--closed, realigned, or open. Substantial concerns have been 
raised about the accounting of environmental clean-up in previous 
rounds. What are your views on how the cost of cleaning up 
environmental contamination on military bases should be considered as a 
factor in making closure and realignment decisions?
    Answer. I have taken note that for BRAC 2005, Congress and 
Department of Defense have amplified the selection criteria for 
environmental impact to include the impact of costs related to 
potential environmental restorations, waste management, and 
environmental compliance activities. It is not the only criteria to be 
considered, but a significant one nonetheless.

                THE BASE REALIGNMENT AND CLOSURE PROCESS

    Question. The final selection criteria for the BRAC process, which 
were set out in Section 2832 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005, established four criteria to 
assess military value as the primary consideration, and four additional 
criteria to assess potential savings, economic impact on local 
communities, supporting infrastructure, and environmental 
considerations in BRAC recommendations. Do you interpret any of the 
eight criteria to preclude, favor, or encourage the consideration of 
any specific base, mission, or military function for realignment, 
closure, or privatization?
    Answer. No.
    Question. Military value is the determinative selection criteria 
for a closure or realignment. In your view, what are the key elements 
of military value?
    Answer. The four selection criteria embodying military value, I 
believe, adequately define that value. Two key elements contained in 
the selection criteria are total force structure to include Guard and 
Reserve components and maximizing joint base utilization to facilitate 
joint warfighting, training, and readiness.
    Question. Are there other criteria that you believe should be 
considered when reviewing bases for possible closure or realignment?
    Answer. Yes. Total costs and net savings associated with closures 
and realignments, economic impact on communities, community 
infrastructure at receiving installations and environmental 
considerations are important, but secondary to military value. In 
addition, consideration must be given to the impact on US base closure 
proposals by any decisions to reduce overseas bases.
    Question. One of the most important responsibilities of the 
Commission is to ensure that communities and installation officials 
have an opportunity to provide public input to ensure accurate and 
complete information. Final BRAC recommendations will be respected only 
if the process is conducted with integrity and transparency. What do 
you see as the most important elements of maintaining the public's 
faith and trust in the BRAC process?
    Answer. Openness, impartiality, nonpartisan, and an opportunity to 
be heard.
    Question. In past BRAC rounds there have been allegations that the 
Department of Defense has not fully considered all relevant information 
in making its recommendations. What actions, if any, do you think the 
Commission should take to ensure that all relevant information has 
been, or will be considered and is available for the Commission and for 
public review?
    Answer. I intend to seek all relevant information from the 
Department of Defense and have been assured that such requests will be 
honored. The Commission will fully consider that information in its 
deliberations.
    Question. Section 2904 of the Defense Base Closure and Realignment 
Act of 1990 (part A of title XXIX of Public Law 101-510 as amended; 
Section 2687 note, Title 10, United States Code), requires the 
Secretary of Defense to carry out the privatization in place of a 
military installation only if privatization is specifically recommended 
by the Commission. Do you have any reason or opinion which would lead 
you to preclude, favor, or encourage the consideration of any specific 
base, mission, or military function for privatization in place? What 
criteria would you use in making such a recommendation?
    Answer. No. The criteria I would use would be similar to those 
identified in the 1995 BRAC Report to the President. The opportunity to 
eliminate excess infrastructure, allow uniformed personnel to focus on 
skills and activities directly related to their military mission and 
the opportunity to create truly cooperative ventures with the community 
and the Department of Defense that would insure military requirements 
are met while enjoying the efficiency of private operation.

                         CONFLICTS OF INTEREST

    Question. The Commission was established with the intent of 
providing independent and bipartisan recommendations to the President. 
Do you believe you can set aside views based on your political 
affiliations and evaluate the Secretary of Defense's proposal--or make 
new ones--in an independent manner based strictly on non-partisan 
considerations?
    Answer. Yes.
    Question. Have you ever participated on a compensated or 
uncompensated basis in any activity directed at precluding, modifying, 
or obtaining the closure or realignment of any base during the BRAC 
process? If so, please describe.
    Answer. No.
    Question. Have you been stationed at or resident in the vicinity of 
any base while the base was under consideration for closure or 
realignment during previous BRAC rounds in 1988, 1991, 1993, or 1995? 
If so, please describe.
    Answer. Yes. I have a residence approximately 15 miles from the 
former Miramar Naval Air Station.
    Question. Do you or, to the best of your knowledge, does any member 
of your immediate family have any specific reason for wanting a 
particular base to be closed, realigned, privatized, or remain 
unchanged during the BRAC process?
    Answer. No.
    Question. The procedures set out by Congress for the Commission 
raise unique conflict of interest issues. The question of whether a 
particular base closure or realignment decision would have a direct and 
predictable effect on a particular nominee's financial interests is a 
matter that cannot be determined until the Secretary's base closure 
list is announced, an announcement that is not due until May 16, 2005. 
It is likely that the Commission members will have been confirmed by 
the Senate and appointed by then. Accordingly, the Senate Committee on 
Armed Services intends to follow the same procedure used during the 
1991, 1993, and 1995 base closure rounds.
    Under that procedure, the following actions would be taken:

          (1) At the time the Secretary's list is announced, the 
        Commission's General Counsel, working with the DOD General 
        Counsel and the Office of Government Ethics, will review the 
        financial holdings of each member of the Commission and advise 
        the member whether recusal or other remedial action 
        (divestiture or waiver) is necessary.
          (2) The Commission's General Counsel will advise the 
        committee of the results of the review and the actions taken by 
        the members of the Commission.
          (3) The Commission's General Counsel will establish a 
        procedure that will provide for similar reviews, and 
        information to the committee, when and if the Commission 
        considers taking action with respect to installations not on 
        the Secretary's list.

    Given this procedure, if confirmed, will you agree:

          (1) to take such remedial action (i.e., recusal or 
        divestiture) as may be recommended by the Commission's General 
        Counsel, working with the DOD General Counsel and the Office of 
        Government Ethics, to avoid a conflict of interest with regard 
        to a particular installation on the Secretary's list or 
        otherwise under consideration by the Commission?
    Answer. Yes.
          (2) to advise the committee, through the Commission's General 
        Counsel, of any such recommendations and the remedial actions 
        that you have taken to address them?
    Answer. Yes.
          (3) if the recommended remedial action is recusal, not to 
        participate in any discussion, debate or action regarding the 
        installation in question or any other installation that may be 
        under consideration as a substitute for the installation in 
        question?
    Answer. Yes.

                        CONGRESSIONAL OVERSIGHT

    Question. Although the Base Realignment and Closure Commission was 
established by law to provide independent recommendations to the 
President, it is important that this committee and other appropriate 
committees of Congress are able to receive testimony, briefings, and 
other communications of information from the Commission in order to 
carry out its legislative and oversight responsibilities.
    Do you agree, if confirmed, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views on 
the processes and recommendations of the Commission?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee and to provide information, subject to appropriate and 
necessary security protection, with respect to your responsibilities as 
a Commissioner?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Will you be willing to provide this committee with an 
after-action report on the 2005 Commission's work?
    Answer. Yes.
                                 ______
                                 
               Questions Submitted by Senator John Warner

                     INDEPENDENCE OF THE COMMISSION

    1. Senator Warner. Mr. Principi, the Base Realignment and Closure 
(BRAC) Commission will receive the Secretary of Defense's 
recommendations for closures and realignments on May 16. From that date 
until you submit your recommendations to the President by September 8, 
2005, the Commission will be under intense pressure from all types of 
groups to influence your decisions. If confirmed and appointed as 
Chairman, what measures will you take to ensure the proceedings of the 
Commission will result in independent decisions free from outside 
influence?
    Mr. Principi. Every prospective candidate for a staff position will 
be interviewed to ensure that he/she has the requisite knowledge, 
experience, expertise, commitment and impartiality to serve on the 
Commission's staff. Politics or political influence will not be 
tolerated. I will make a commitment to ensure that the Commission's 
work is free from political influence or motivations, that potential 
conflicts of interests are addressed adequately, and that the BRAC 
process is independent, fair, equitable, and open. I will also ensure 
that all BRAC Commissioners and staff are adequately trained, briefed 
and otherwise conform to all ethics and related requirements.

                     QUALITY OF LIFE CONSIDERATIONS

    2. Senator Warner. Mr. Principi, one of the BRAC criteria refers to 
the ability of the infrastructure in local communities to support 
forces, missions, and personnel. Much of what a local community 
provides to military personnel can be characterized as ``quality of 
life'' issues, such as schools, housing, and local services. In 
anticipation of BRAC, many State and local communities have undertaken 
funding initiatives and programs specifically to improve the quality of 
life for military personnel. How do you plan to address quality of life 
issues and particularly the efforts of local communities in your 
assessment?
    Mr. Principi. The ability of local communities to support forces, 
missions and personnel is one of the criteria identified in the BRAC 
legislation as an important consideration in making recommendations for 
realignments and closures by the Department of Defense. I am encouraged 
to learn that local communities do value military presence and are 
striving to ensure the highest quality of life possible for our service 
men and women. Moreover, I will take these efforts into consideration 
in providing local community representatives the opportunity to voice 
their concerns to the Commission. I trust that our efforts in this 
regard will ensure that local communities affected by recommended BRAC 
closures and realignments wilt be provided with an opportunity to be 
heard. It is my hope that in the end, we will build a consensus by and 
through the BRAC process.

                       FORCE STRUCTURE DECISIONS

    3. Senator Warner. Mr. Principi, pursuant to section 2912 of the 
BRAC law, in February 2004, the Secretary of Defense certified that the 
2005 round of BRAC recommendations will result in annual net savings 
for each of the Military Departments beginning not later than fiscal 
year 2011. It is anticipated that the Secretary of Defense will 
recommend BRAC proposals to relocate or consolidate major force units, 
such as army divisions, aircraft wings, and naval aircraft carriers, 
within the United States. In assessing the Secretary's recommendations 
for these relocations, how will the Commission quantify the savings 
from a major force unit relocation?
    Mr. Principi. The Secretary of Defense is obligated to provide the 
projected savings and underlying justification data that support the 
recommendation he makes to the BRAC Commission. The BRAC Commission 
will analyze this data, and compare it with other data, including that 
provided by the affected communities.

                       CONDUCT OF THE COMMISSION

    4. Senator Warner. Mr. Principi, the BRAC process was established 
by Congress to ensure base closure and realignment recommendations are 
reviewed and assessed as fairly and objectively as possible by an 
independent commission. In your opinion, what policies of conduct and 
procedures should the Commission adopt to preserve the integrity of the 
process beyond any shadow of doubt?
    Mr. Principi. As a preliminary matter I intend to stress the 
importance of the objectivity, impartiality, and openness throughout 
the BRAC process, and I will establish internal guidelines and policies 
that effectuate this commitment to fairness and openness. I will ensure 
that the other Commissioners and staff members remain free from 
political pressures and conflicts of interest. I will work carefully 
and diligently to see that conflicts of interest are avoided so that 
there will be no reason to question the appearance of impartiality of 
BRAC Commissioners and staff.

                          COMMISSIONER VISITS

    5. Senator Warner. Mr. Principi, BRAC law requires that two 
commissioners must visit those installations that were not part of the 
Secretary's recommendations, but were added for consideration of 
closure or realignment by the Commission. BRAC law does not stipulate 
any requirements for visits by commissioners to bases recommended by 
the Secretary of Defense, yet I'm sure the communities affected by 
these recommendations will want to have an opportunity to talk to the 
Commission. If confirmed as a BRAC member and appointed as Chairman, do 
you anticipate establishing a policy or requirement for commissioner 
visits to those installations included in the Secretary's list?
    Mr. Principi. While it will not be possible for every Commissioner 
to visit the installations named in the Secretary of Defense's 
recommendations in light of the time constraints faced by the BRAC 
Commission, I will ensure that at least one Commissioner (and also 
where, appropriate, members of the BRAC staff) visits major 
installations and communities in order to meet with military, state and 
local officials along with interested members of the public. In 
addition, the Commission will hold regional hearings in locations 
designed to encourage maximum participation by affected communities so 
that elected officials, local leadership and the public may be afforded 
an opportunity to testify before the Commission.

                  RECUSALS FROM COMMISSION ACTIVITIES

    6. Senator Warner. Mr. Principi, in your answers to the committee's 
advance policy questions, you agreed to abide by specific procedures 
for recusal or divestiture. Has the White House or Department of 
Defense (DOD) asked you to sign any other type of agreement regarding 
recusals or divestitures due to conflicts of interest? If so, please 
provide a copy of any agreement you have signed.
    [Nominee responded and the information is contained in the 
committee's executive files.]
    Mr. Principi. The White House did request me to sign an ethics 
agreement that addressed conflicts of interest and other issues. It is 
my understanding that other BRAC Commissioners will be asked to sign 
the same or a similar agreement, and I will be pleased to provide you 
with a copy of my agreement as long as the White House Counsel's Office 
does not have any objection. I plan to ensure that all financial and 
other conflicts of interest that may arise during the course of my 
service on the Commission, should I be confirmed, are addressed 
appropriately and in a timely fashion so as not to jeopardize the 
mission of the BRAC Commission.
                                 ______
                                 
             Questions Submitted by Senate James M. Inhofe

                                STAFFING

    7. Senator Inhofe. Mr. Principi, in every committee and commission 
worth its salt, it is supported by a very able and dedicated staff. I 
note in your answers to the committee's advanced questions, your first 
action will be to hire a staff director and that your staff will be 
impartial, professional, and free of political influence. However, you 
have another very important challenge with the staff. You must hire 
staff who are knowledgeable in the areas highlighted in the selection 
criteria. For example, you must have someone who understands the 
military value, environmental impact, economic impact, etc. How do you 
plan to ensure you have the ``right staff'' with the ``right stuff?''
    Mr. Principi. The BRAC Commission will need to address many 
important and complicated challenges very quickly with a 3-month 
timeframe established by statute. Therefore, this work can only be 
completed by talented individuals, and I consider myself personally, 
and the BRAC Commission more generally, to be extremely fortunate in 
drawing from a very talented pool of applicants and candidates, 
including staff members from previous BRAC Commissions and GAO 
detailees.

    8. Senator Inhofe. Mr. Principi, where will you look to get 
impartial individuals?
    Mr. Principi. As I have mentioned earlier in this context, I 
consider the impartiality of the BRAC Commission to be a top priority 
and I will seek to ensure that in both the hiring and in the completion 
of the BRAC Commission's statutory duties that impartiality is 
exercised at times by both the Commissioners and the BRAC staff. As I 
indicated above, the Commission will seek to hire former BRAC 
Commission staff members and GAO detailees.

    9. Senator Inhofe. Mr. Principi, this BRAC is unique in several 
ways. For the first time cross-Service teams will take a functional 
approach in an effort to combine Service functions in a joint way where 
it makes sense. So, they will look at Service recommendations in areas 
like depots and force the removal of the traditional Service stovepipes 
to give this BRAC a more joint feel. How do you intend to make sure you 
have staff with the requisite expertise in these functional areas?
    Mr. Principi. I am aware of the functional areas in the BRAC 2005 
and will seek staff with the expertise and experience in those areas.

                                 DEPOTS

    10. Senator Inhofe. Mr. Principi, as you may know one of my major 
concerns is with the preservation of our military industrial base. In 
the last administration there was a lot of talk about privatizing 
public depots. Congress passed several laws to prevent this from 
happening thus preserving our core capabilities in the depots. The best 
known law was probably 50/50 where we said that no more than 50 percent 
of the total amount spent on depot level maintenance could be on the 
private side of the equation. We felt that it was important to preserve 
our depots. I think the recent war and the surge capability required 
and demonstrated by the depots proved our point. I think the recent 
acquisition of more and more American businesses by foreign companies 
further makes the point that we cannot afford to give up these valuable 
assets. It is a matter of national security. When this administration 
came to power, it began to put money into the depots and the payoff has 
been amazing. Efficiency has increased in many cases over 200 percent. 
Are you familiar with the 50/50 legislation? Do you agree that this 
BRAC cannot violate existing laws such as the 50/50 law?
    Mr. Principi. While I am not familiar with the law that you refer 
to, I am aware that this issue was raised in connection with the 1995 
BRAC round. I am cognizant of the role that the private sector plays in 
depot maintenance, and should the same issue be relevant to the 2005 
BRAC round, I will take the matter under advisement.

    11. Senator Inhofe. Mr. Principi, are you familiar with the amazing 
efficiencies realized by the public depots in recent years?
    Mr. Principi. I am not, but soon will be.

                            LIVE-FIRE RANGES

    12. Senator Inhofe. Mr. Principi, another valuable resource in this 
country is its ranges. You may be familiar with the fight I led, and 
lost, to preserve the Vieques range in Puerto Rico. With environmental 
concerns, urban sprawl, community encroachment, and other factors, our 
live-fire ranges are becoming extinct in this country. Add to that, the 
fact we are redeploying over 90,000 soldiers from overseas bases. This 
combination tells me we cannot afford to lose any more ranges. Are you 
aware of these concerns? How do you intend to evaluate our need for 
preserving ranges for military value and our need to realign and close 
bases for efficiency?
    Mr. Principi. I recognize the availability of ranges is an integral 
plan of military training. Any consideration of retaining or closing 
ranges will, therefore, be measured on the basis of the DOD's 
recommendations and the statutory criteria.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                     REGIONALIZATION OF FACILITIES

    13. Senator Collins. Mr. Principi, one of the great strengths of 
our Armed Forces is its geographic diversity. Having installations 
stretching across the country provides a whole host of benefits, 
including reach, coverage, surge capability, and rapid response. Having 
installations grouped together in only a few regions substantially 
increases our vulnerability and could even raise the likelihood of a 
terrorist attack, for example, in one area. Further, in this day and 
age, threats can come from any direction. Finally, its important that 
every part of our country participate in our national defense. Do you 
believe that there is strong value in ensuring that there are Active-
Duty facilities in each region of the country?
    Mr. Principi. Yes. I believe that military installations should be 
located throughout the Nation to promote geographic diversity 
consistent with criteria two.

                            HOMELAND DEFENSE

    14. Senator Collins. Mr. Principi, the goal of our Armed Forces is 
to defeat enemies before they reach our shores. However, as we 
experienced on September 11, we need to be prepared to deal with 
threats within our borders, as well. The Department of Defense is 
taking on an increasing role in homeland defense missions. How will the 
BRAC Commission ensure that homeland defense requirements and 
capabilities will be considered during its deliberations?
    Mr. Principi. The Secretary of Defense is mandated to consider 
homeland defense requirements in his analysis of which bases should be 
consolidated or realigned. The Commission will carefully review and 
analyze the data provided by the Secretary to ensure this requirement 
is met. If necessary, we will insist on the receipt of additional 
information to support his decision.

                         TOTAL FORCE STRUCTURE

    15. Senator Collins. Mr. Principi, I read in your pre-hearing 
policy questionnaire that, in your opinion, the key elements of 
``military value'' in BRAC criteria include ``total force structure to 
include Guard and Reserve components and maximizing joint base 
utilization to facilitate joint warfighting, training and readiness.'' 
Specifically, what do you mean by a ``total force structure 
contribution?''
    Mr. Principi. The statute implementing the 2005 BRAC round 
specifically calls for the Secretary of Defense to consider the impact 
on operational capabilities for both the active and Reserve/Guard 
Forces in making the decision to close or realign military 
installations. Additionally, the statute stresses the importance of 
joint warfighting, training, and readiness and in determining necessary 
versus excess infrastructure to consider any efficiency that may be 
gained from joint tenancy by more than one branch of the Armed Forces 
at a military installation.

    16. Senator Collins. Mr. Principi, what is your opinion on the 
value and utility of Joint Armed Forces Reserve Centers and providing a 
``one stop shop'' for various Services' guardsmen and reservists to 
train in one location?
    Mr. Principi. There needs to be a balance between the ability of 
Reserve and Guard personnel to maintain their proficiency and the 
consideration of co-locating into Joint Armed Forces Reserve Centers 
which may be remote from their domicile. My understanding is that both 
Congress and the Department of Defense have been pursuing for the 
several years the benefits of co-location of Reserve activities in 
order to enhance joint training opportunities. The Commission will give 
this issue serious consideration.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                       CORE LOGISTICS CAPABILITY

    17. Senator Chambliss. Mr. Principi, in Title X of the U.S. Code, 
there is a statutory requirement for the Department of Defense to 
maintain a core logistics capability. The Department is limited to 
spending no more than 50 percent of its depot-level maintenance and 
repair funds to contract for the performance of this workload. The 
Department of Defense published comments in the Federal Register that 
state that ``it is inappropriate to include statutory constraints in 
the selection criteria because they are too varied and numerous.'' The 
Department goes on to assure us that this absence of statutory 
constraints ``should not be construed as an indication that the 
Department will ignore these or any other statutory requirements in 
making its final recommendations.'' Part of the Commission's role will 
be to ensure that all statutory requirements are met. As you select 
your staff, I would encourage you to select those that have the 
requisite knowledge of these laws to ensure we do maintain a core 
logistics capability and the required bases and facilities needed to 
conduct depot-level maintenance. Now I know that DOD is required to 
evaluate all installations equally, but can you tell us how you will 
reconcile this evaluation requirement with existing statutory 
imperatives and congressional intent that would preclude discarding our 
depot capabilities?
    Mr. Principi. Thank you for encouraging me to choose able legal 
staff--I fully intend to do so. Concerning the depot-level maintenance 
issue, this Commission has no interest in violating the intent of the 
50/50 statue (Title 10 U.S. Code 2466) which ensures that no more than 
50 percent of any Service's depot-level maintenance funds are spent 
with a non-Federal workforce, or the underlying statute which requires 
the DOD to maintain an organic source for core logistics workload. We 
will carefully work within the data available to the Commission to 
ensure that any depot-level maintenance currently performed at an 
organic installation recommended for realignment or closure will be 
relocated to another organic installation within the remaining DOD 
infrastructure.

                              COST SAVINGS

    18. Senator Chambliss. Mr. Principi, the fifth criteria for 
consideration by BRAC relates to the ``extent and timing of potential 
costs and savings'' and an analysis of the amount of time required for 
the perceived savings to exceed the costs of closing a base. This 
criteria is designed to ensure that bases are not closed unless there 
is a clear basis for significant savings in the near term. What are 
your views on the maximum amount of time that should pass after a base 
closes before significant cost savings are realized?
    Mr. Principi. The cost/savings profile of each recommendation must 
be evaluated within the context of all the evaluation criteria rather 
than compared to arbitrary or even statistically-derived metrics. 
Recommendations with higher than average costs or extended payback 
periods may actually be furthering and supporting transformational 
initiatives that profoundly affect future military value. A discrete 
evaluation of only the cost profiles of these transformational 
recommendations would be incomplete and reduce the effectiveness of the 
Commission's decisions. While a shorter payback period is preferred, 
the Commission is best served to address costs and savings as part of a 
holistic evaluation of the recommendation. In doing so, the Commission 
is capable of determining the acceptability of the projected time that 
will pass after a base closes before significant cost savings are 
realized.

    19. Senator Chambliss. Mr. Principi, can you give us your 
assurances that a base will not be closed simply to meet a quota as 
opposed to the result of a thorough analysis of cost savings?
    Mr. Principi. You have my assurance that each recommendation will 
be assessed in accordance with the criteria specified by law.

    20. Senator Chambliss. Mr. Principi, how will you ensure that 
closing a base will actually result in financial savings great enough 
to justify the disruption of current operations while we are at war?
    Mr. Principi. The BRAC law establishes quite dearly the parameters 
under which the Commission must exercise its responsibilities.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                COMPREHENSIVE REVIEW OF FORCE STRUCTURE

    21. Senator Levin. Mr. Principi, last September when DOD submitted 
its ``Strengthening U.S. Global Defense Posture'' report to Congress, 
then-Under Secretary of Defense Feith stated in the introduction to 
that report that ``the Defense Department will incorporate its 
projected overseas posture changes into the BRAC 2005 process.'' In 
addition, last year the Army started using emergency authorities to buy 
temporary buildings to station the first of the new so-called 
``modular'' brigades. The Army provided a series of information papers 
to this committee on July 28, 2004 stating that, with respect to these 
10 new brigades, ``Permanent stationing for all units will be fully 
addressed through the BRAC 2005 process.'' Do you believe the 
Commission must consider all major force structure changes, including 
the basing for forces to be relocated from overseas back to the United 
States and the permanent stationing of the Army's new ``modular'' 
brigades, in order to ensure that the Commission takes account of all 
relevant factors that would affect closure and realignment decisions?
    Mr. Principi. I believe that the Commission must consider all major 
force structure changes.

                      INTERNET ACCESS TO MATERIALS

    22. Senator Levin. Mr. Principi, do you plan, if confirmed, to make 
your materials available through the internet so that interested 
communities and citizens across the Nation can access it?
    Mr. Principi. Making the BRAC process open and accessible to the 
public and to Members of Congress is an important priority for me. To 
this end, I plan on making hearings open to the public with the 
transcripts of the hearings made available on an electronic format 
through a Web site that will be set up for the public and the BRAC 
Commission's use. Further, I plan on posting public comment and letters 
in an electronic format on this Web site so that the public is able to 
communicate effectively and openly with the Commission.

                  INTERPRETATION OF SELECTION CRITERIA

    23. Senator Levin. Mr. Principi, the selection criteria for the 
2005 round are essentially the ones used in the past three rounds, and 
are intentionally broad. The statutory criteria do not attempt to 
capture every nuance that might apply to every possible type of 
installation or facility. In the statement of managers on the 
conference report on the fiscal year 2005 defense authorization bill, 
Congress stated that: ``The conferees expect that the Secretary shall 
adhere, to the maximum extent possible, to responses in the analysis of 
comments to the draft selection criteria, as published in the Federal 
Register on February 12, 2004, including the incorporation of elements 
of military value, such as research, development, test, evaluation, 
maintenance, and repair facilities for weapon systems; and the 
interaction with a highly-skilled local work force and local industrial 
and academic institutions.'' If the yardstick the Commission must use 
in evaluating the Secretary's recommendations is whether the Commission 
feels the Secretary adhered to or deviated from the force structure 
plan and the selection criteria, do you believe that requires the 
Commission to interpret the criteria the way DOD interpreted the 
criteria?
    Mr. Principi. The BRAC Commission is required by statute to review 
and analyze the recommendations forwarded to it by the Secretary of 
Defense based on the final selection criteria you refer to. The 
Secretary is also required to fully justify, by submitting certified 
data to the Commission the rationale for making those recommendations. 
However, Section 2903 of the BRAC statute specifies that the Commission 
may change such recommendations if it determines that Secretary 
deviated substantially from the force structure plan and the final 
criteria in making such recommendations. Therefore, there may be 
differences in the way the Secretary applies or interprets the final 
selection criteria and the way in which the BRAC Commission considers 
the same criteria. I believe this possibility may have been anticipated 
by Congress in giving the BRAC Commission the ability to make changes 
to the Secretary'  recommendations.

    24. Senator Levin. Mr. Principi, do you believe the Commission 
should consider the Department of Defense responses to the public 
comments about the selection criteria to be relevant information that 
provides additional guidance about the meaning and interpretation of 
the selection criteria that should be taken into account when the 
Commission evaluates the Secretary's list of recommended closures and 
realignments?
    Mr. Principi. I have not seen the DOD responses to the public 
concerns about the selection criteria and, therefore, cannot comment on 
it at this time.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy

             BASE PROXIMITY TO ACADEMIC/INDUSTRIAL CENTERS

    25. Senator Kennedy. Mr. Principi, the decisions that you will make 
will influence the Department of Defense and our national security for 
years to come. As part of that process, you will review the 
recommendations for closure and realignment of not only bases, but also 
labs and technical centers. These labs and technical centers provide 
the intellectual foundation that allows our military to maintain its 
extraordinary advantage in technology. Many of us are concerned, 
however, that the BRAC criteria overlooks the unique values of these 
centers of innovative and advanced technology. Many experts have 
highlighted the value of regional technology clusters as the best way 
to stimulate innovation and establish valuable partnerships between the 
Federal Government, industry, and academic research. The proximity of 
these centers strengthens the capabilities of the Defense Department's 
labs and accelerates the process of moving new technology out of the 
labs and into the hands of our troops. This type of innovation has been 
the engine of both our national economic growth, and our military 
superiority. I know, for example, that the great synergy created by the 
close proximity of Massachusetts Institute of Technology (MIT) and the 
defense industry to the Natick Soldier Center has been of great benefit 
in the development of nanotechnologies for our troops. How important do 
you feel it is to keep Department of Defense centers of innovation 
close to academic and industrial centers of innovation?
    Mr. Principi. The proximity of DOD centers of research and 
development to academic and industrial centers is very important.

                           LOSS OF EXPERTISE

    26. Senator Kennedy. Mr. Principi, most technical employees will 
not move to a new location following a BRAC decision to close a base, 
so the Department will lose valuable scientific and technical expertise 
when the base is closed. Do you think the BRAC criteria adequately 
value this potential cost of consolidating bases?
    Mr. Principi. The question the Commission must address is whether 
the Defense Secretary's recommendations adequately account for this 
cost.

    27. Senator Kennedy. Mr. Principi, how does the Department plan to 
reconstitute this expertise that is lost when a major center is moved 
to a very different part of the country?
    Mr. Principi. This is a question that the Commission will pose in 
its analysis.

    28. Senator Kennedy. Mr. Principi, how do you assess the effect of 
such a move on the mission?
    Mr. Principi. The law is quite clear. If the moves enhance military 
value and the Defense Secretary has not substantially deviated from the 
force structure plan and selection criteria, then the Commission would 
most likely approve the recommendations.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman

                       BALANCING RESPONSIBILITIES

    29. Senator Lieberman. Mr. Principi, how do you plan to balance 
your new employment responsibilities as a Vice President of Pfizer, 
Corp. with those associated with being the Chairman of the Base Closure 
and Realignment Commission?
    Mr. Principi. I plan to resign from my position with the Pfizer 
Corporation.

                         ADDITIONS TO BRAC LIST

    30. Senator Lieberman. Mr. Principi, what process will you use as a 
BRAC commissioner to systematically evaluate whether or not bases that 
have not been recommended for closure or realignment should be added to 
the list?
    Mr. Principi. The process for adding installations to the list 
provided by the Secretary will be arduous and complete. The staff will 
review the Secretary's recommendation to determine if the DOD analysis 
was complete and, more importantly, if it was accurate. For example, 
was the proper weighting assigned to all elements; were all 
installations treated equally; and was the data used accurate? The 
staff will also conduct independent analysis of the information 
obtained during base visits and regional hearings, and other public 
input. Additionally, the staff will consider the GAO report to be 
submitted on July 1, 2005, in determining if other installation 
candidates should be considered in addition to those on the Secretary's 
list. The staff will then recommend applicable installations to the 
Commissioners who will make the final determination in accordance with 
the statute. Please be aware that adding an installation to the 
Secretary's list allows the Commission to analyze and visit that 
installation; it does not automatically result in the closure of 
realignment of that installation. I should mention that, in past BRAC 
rounds, the communities were a valuable extension of the BRAC staff in 
that they often provided creditable analysis which complemented and 
supplemented BRAC staff analysis.

                      AVAILABILITY OF INFORMATION

    31. Senator Lieberman. Mr. Principi, will the BRAC Commission make 
available to the general public ``in electronic media'' all information 
provided by the Secretary of Defense and Secretary of the Navy 
including but not limited to:

        a. Base Structure Data Base (BSDB)
        b. Cost of Base Realignment Actions (COBRA) Model and all 
        associated data
        c. Naval Audit Service (NAVAUDSVC) Independent Audit Reports
        d. Meeting Minutes and Associated Materials from all meetings 
        of:

                i. Infrastructure Evaluation Group (IEG)
                ii. Infrastructure Analysis Team (IAT)
                iii. Department of the Navy (DON) Analysis Group (DAG)
                iv. Functional Advisory Board (FAB)
                v. Joint Cross-Service Group (JCSG)

        e. DON BRAC Information Transfer System (DONBITS) data files
        f. Data Calls (including all supplemental/corrections 
        requests):

                i. DON Capacity Data Call
                ii. DON Military Value Data Call
                iii. DON COBRA/Scenario Data Call

        g. Installation Visualization Tool (IVT) Data and associated 
        materials
    Mr. Principi. The Commission will make available to the general 
public in electronic media or hard copy all information provided by the 
Department of Defense, except classified information.

                           EVALUATION METRICS

    32. Senator Lieberman. Mr. Principi, what metrics will you use to 
compare and evaluate the bases recommended for and not recommended for 
closure or realignment against the eight BRAC selection criteria?
    Mr. Principi. The basic metrics used to accept or reject those 
installations recommended by the Secretary will largely focus on the 
DOD and BRAC analyses which will be independently conducted. Those 
analyses will ultimately be compared with the force structure plan and 
final selection criteria as spelled out in statute. Additionally, the 
Commission will consider and review those metrics provided by 
representatives of the affected communities. In the end, the 
Commissioners will be presented the analysis and recommendations of the 
DOD, communities, and Commission staff in making the final 
determinations. A vital factor is the overall, professional judgment of 
the Commissioners in the final determination.

    33. Senator Lieberman. Mr. Principi, since individual data calls 
have been sent to multiple tenant commands that are collocated on bases 
and installations, how will you evaluate the synergy of these multiple 
organizations in evaluating recommendations for closure or realignment?
    Mr. Principi. Comparing disparate data will certainly be a 
challenge to our staff. They will ultimately be required to review many 
of the individual questions asked of each organizational element, along 
with the associated metric available in the answer set. Comparing these 
answer sets and adjusting for differences will allow for apples to 
apples analysis by our staff.

    34. Senator Lieberman. Mr. Principi, in some cases, the military 
value of a base is enhanced by the local presence of a large private 
firm (e.g., shipyard) that did not receive any ``data calls'' and may 
not have been factored into a base closure or realignment 
recommendation. How will you ensure that the BRAC Commission ensures 
that such relevant information is not overlooked in your deliberations?
    Mr. Principi. The availability of nongovernmental service which may 
affect military value will be carefully considered during base visits 
by Commissioners and staff, analysis of all the relevant facts and by 
community meetings and presentations. All appropriate factors will be 
weighed in our deliberations.

    35. Senator Lieberman. Mr. Principi, among the other considerations 
in the BRAC selection criteria are economic impacts and environmental 
remediation costs. How will the BRAC Commission utilize economic impact 
data provided by host States/communities, and how will the BRAC 
Commission determine actual environmental remediation costs, since 
these costs are significantly affected by the future reuse of the 
facility which is at best currently unknown?
    Mr. Principi. I note for the record that Congress has amplified the 
election criteria for environmental impact and that the DOD, in 
response to such amplified criteria, has widened its analysis and the 
scope of its recommendations accordingly. The criteria being employed 
by the 2005 BRAC Commission includes, for example, the impact of costs 
related to potential environmental restoration, waste management, and 
environmental compliance activities. While environmental related 
criteria are not the sole criteria to be used in the BRAC process, it 
is a significant factor nonetheless. Economic impact data provided by 
host states/communities will also be evaluated against the information 
provided by the DOD.

                        REGIONAL PUBLIC MEETINGS

    36. Senator Lieberman. Mr. Principi, do you intend to hold regional 
public meetings, and if so, how many BRAC Commissioners will be present 
at each public meeting and how much time will a community have to make 
its appeal?
    Mr. Principi. I intend to hold as many regional hearings as may be 
deemed adequate to provide public outreach and input. This, along with 
base site visits and public input from other sources, will provide the 
Commissioners and me, if I am confirmed, with a good overview of the 
impact, militarily, economically and in terms of the human factors that 
the closure and realignment process will play. While it may not be 
possible for me to predict with any degree of reliability the number of 
regional hearings and visits that may be required, I will work to 
ensure that at least three Commissioners are present at regional 
hearings. Further, local communities will be allocated adequate time to 
present issues, questions, and evidence for the BRAC Commission to 
consider.

    37. Senator Lieberman. Mr. Principi, do you intend to have BRAC 
commissioners visit each base that is recommended for closure or 
realignment, and during these visits will the BRAC commissioners meet 
with representatives from the local/host community?
    Mr. Principi. While it may not be possible to visit every facility 
in light of the time constraints faced by the BRAC Commission, I fully 
intend to ensure that major base site visits and the regional hearings 
are organized so that the public and local leaders have an adequate 
opportunity to reach out to the BRAC Commission and make their concerns 
known to it. BRAC Commissioners will participate in all regional 
hearings and as many site visits as possible.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                          PREVIOUS EXPERIENCE

    38. Senator Akaka. Mr. Principi, you stated in your answers to the 
advance policy questions that you were the minority staff director for 
this committee at the outset of the 1993 BRAC and that you were 
involved in hearings and site visits for that round of BRAC. You also 
state that you faced similar challenges as Secretary of Veterans 
Affairs (VA) when conforming VA's legacy infrastructure to the changes 
in 21st century healthcare. What lessons have you learned from these 
experiences that will assist you as Chairman of the 2005 BRAC 
Commission?
    Mr. Principi. My experience has shown that every organization must 
right-size itself from time to time to reflect changes in policies, 
requirements, technologies, etc. I have also learned that these changes 
affect peoples' lives in profound ways and that their concerns must be 
factored in.

                          INFORMATION REQUESTS

    39. Senator Akaka. Mr. Principi, you state in your answers to the 
advanced questions that you will seek all relevant information from the 
Department of Defense and you state that you have been assured that all 
requests will be honored. Should information not be provided to you 
from the Defense Department, will you inform Congress of this problem?
    Mr. Principi. Yes, Mr. Senator, I will certainly keep you and 
Congress fully advised of such problems, should they occur.
                                 ______
                                 
    [The nomination reference of Anthony J. Principi follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     March 4, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Anthony Joseph Principi, of California, to be a Member of the 
Defense Base Closure and Realignment Commission. (New Position)
                                 ______
                                 
    [The biographical sketch of Anthony J. Principi, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of Anthony J. Principi

    During his 4-year tenure (2001-2005) as Secretary of the 
U.S. Department of Veterans Affairs, New York-born Anthony J. 
Principi directed the Federal Government's second largest 
department, responsible for a nationwide system of health care 
services, benefits programs, and national cemeteries for 
America's 25 million living veterans and dependents. Commanding 
a budget in excess of $60 billion, Mr. Principi led an 
organization of 230,000 employees in hundreds of VA medical 
centers, clinics, benefits offices, and national cemeteries 
throughout the country.
    Mr. Principi is a 1967 graduate of the U.S. Naval Academy 
at Annapolis, Maryland, and first saw Active Duty aboard the 
destroyer U.S.S. Joseph P. Kennedy. He later commanded a River 
Patrol Unit in Vietnam's Mekong Delta. During his service in 
Southeast Asia, Mr. Principi was awarded the Bronze Star with a 
V for valor.
    Upon returning from Vietnam, Mr. Principi earned his law 
degree from Seton Hall University in 1975 and was assigned to 
the Navy's Judge Advocate General Corps in San Diego, 
California. In 1980, he was transferred to Washington as a 
legislative counsel for the Department of the Navy.
    From 1984 to 1988, he served as Republican chief counsel 
and staff director of the Senate Committee on Veterans' 
Affairs, following 3 years as counsel to the chairman of the 
Senate Armed Services Committee.
    Mr. Principi served as Deputy Secretary of Veterans 
Affairs, VA's second-highest executive position, from March 17, 
1989, to September 26, 1992, when he was named Acting Secretary 
of Veterans Affairs by President George H.W. Bush. He served in 
that position until January 1993. Following that appointment, 
he served as Republican chief counsel and staff director of the 
Senate Committee on Armed Services.
    Mr. Principi was chairman of the Commission on 
Servicemembers and Veterans Transition Assistance established 
by Congress in 1996.
    Mr. Principi was nominated by President George W. Bush on 
December 29, 2000, and was confirmed by the Senate on January 
23, 2001.
    Prior to his nomination as Secretary of Veterans Affairs, 
Mr. Principi was president of QTC Medical Services, Inc. During 
the past decade, he was Senior Vice President at Lockheed 
Martin IMS, and a partner in the San Diego law firm of Luce, 
Forward, Hamilton & Scripps.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Anthony J. 
Principi in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Anthony J. Principi.

    2. Position to which nominated:
    Commissioner-Base Realignment and Closure Commission.

    3. Date of nomination:
    March 4, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 16, 1944; New York City, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ahlering.

    7. Names and ages of children:
    Anthony, 31; Ryan, 28, John, 26.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Mount Saint Michael Academy, 1958-1962, Diploma.
    New Mexico Military Institute, 1962-1963, None.
    U.S. Naval Academy, 1963-1967, BS.
    Seton Hall University School of Law, 1972-1975, JD.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Secretary, U.S. Department of Veterans Affairs, Washington, DC.
    QTC Medical Services, President, Diamond Bar, CA.
    Chairman, Congressional Commission on Servicemembers and Veterans 
Transition Assistance, Washington, DC, 1996-1998.
    Lockheed Martin IMS, Senior Vice President, Santa Clara, CA, 1995-
1996.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Vice President for Government Relations, Pfizer Corp.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Board of Governors American Red Cross.
    Board of Directors Mutual of Omaha.
    State Bar of California.
    State Bar of Pennsylvania.
    Real Estate Broker-California.
    American Legion.
    Disabled American Veterans.
    Veterans of Foreign Wars.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $1,000 Bush-Cheney 2000 election.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Honorary Doctorate Degree-Seton Hall University School of Law.
    Bronze Star with Combat V.
    Navy Commendation Medal (3).
    Numerous awards from military and veteran service organizations for 
service as Secretary of Veteran Affairs.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Anthony J. Principi.
    This 8th day of March 2005.

    [The nomination of Anthony J. Principi was reported to the 
Senate by Chairman Warner on March 17, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was recess appointed by the President on April 1, 2005.]

 
    NOMINATIONS OF HON. GORDON R. ENGLAND TO BE DEPUTY SECRETARY OF 
DEFENSE; AND ADM MICHAEL G. MULLEN, USN, FOR REAPPOINTMENT TO THE GRADE 
             OF ADMIRAL AND TO BE CHIEF OF NAVAL OPERATIONS

                              ----------                              


                        TUESDAY, APRIL 19, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Collins, Talent, Cornyn, Thune, Levin, Kennedy, Lieberman, 
Reed, Akaka, Bill Nelson, Clinton, and Hutchison.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William C. Greenwalt, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; David M. Morriss, counsel; Stanley R. O'Connor, 
Jr., professional staff member; Scott W. Stucky, general 
counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Richard W. Fieldhouse, professional 
staff member; Creighton Greene, professional staff member; 
Bridget W. Higgins, research assistant; Peter K. Levine, 
minority counsel; and William G.P. Monahan, minority counsel.
    Staff assistants present: Catherine E. Sendak and Pendred 
K. Wilson.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Arch Galloway II, assistant to 
Senator Sessions; James P. Dohoney, Jr. and Mackenzie M. 
Eaglen, assistants to Senator Collins; Lindsay R. Neas, 
assistant to Senator Talent; Russell J. Thomasson, assistant to 
Senator Cornyn; Bob Taylor, assistant to Senator Thune; Mieke 
Y. Eoyang, assistant to Senator Kennedy; Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Darcie Tokioka, assistant to Senator Akaka; 
William K. Sutey, assistant to Senator Bill Nelson; and Andrew 
Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning everyone. We have before the 
committee this morning the current Secretary of the United 
States Navy, Gordon R. England, nominated for the position of 
Deputy Secretary of Defense and Admiral Michael G. Mullen, U.S. 
Navy, who's been nominated to be the next Chief of Naval 
Operations (CNO). We will have the two panels. Admiral Mullen 
will follow the Secretary.
    We welcome Secretary England, his wife, Dotty, and other 
members of the England family. We thank Mr. England for his 
willingness to continue to serve this Nation in a new and a 
challenging post.
    I now recognize you, Secretary England, to introduce your 
family.
    Mr. England. Thank you very much, Senator. I have with me 
today my wife and great supporter here for 43 years. I want to 
introduce my wife, Dotty. We have been together for 43 years 
and have three wonderful children and grandchildren, and I 
thank her for her great support of my rather erratic career 
over the years.
    I also want to introduce my daughter, Marisa Walpert, and 
also my son-in-law, Major Bill Walpert. They're both about to 
deploy to Okinawa in a few weeks with the United States Air 
Force, and we're very proud of my daughter and my son-in-law. 
So it's nice to have the three of them with us this morning.
    Chairman Warner. It's a very special occasion. We welcome 
you, Major, and your lovely wife.
    The role of the family in providing support to individuals 
in government who hold these senior positions of importance and 
responsibility is something this committee has always stressed 
through the many years that I've been privileged to be on it. 
We thank the members of the families for your special role in 
supporting these individuals, particularly the long hours in 
the Department of Defense (DOD).
    I've often said based on my experience over there, every 
decision made after 7:30 is turned around the next morning. So 
I urge you to try and get your principals home again.
    Secretary England, of course, is well known to the 
committee and to the Senate as the 72nd Secretary of the Navy. 
He served from May 2001 until joining the Department of 
Homeland Security, as its first Deputy Secretary in January 
2003. During his initial tour of duty as Secretary of the Navy, 
Secretary England is to be commended for, among other things, 
his compassionate response to the families of those military 
and civilian personnel in the Department of Navy who died in 
the Pentagon on September 11, 2001.
    The Navy command center was hit hard on that tragic day, 
and survivors of those brave sailors and Department of the Navy 
employees will always remember the strong leadership that you 
gave, Mr. Secretary, that you exhibited in the immediate 
aftermath of that attack.
    I'd like at this time to recognize our distinguished 
colleague, Senator Hutchison, for purposes of an introduction.

 STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I am so pleased 
to be here to introduce my friend, my constituent in Texas, 
Gordon England, to be number two at the DOD, and I can 
truthfully say I can't think of anyone more qualified.
    Mr. Chairman, all of you know people in Washington who 
clamor to get administration jobs, who clamor to move up the 
ladder. Gordon England is not one of those people. I don't 
think that he has asked for any of the promotions that he has 
ever received. He serves the President; he serves our country; 
and he does it because he wants to do something to make a 
difference.
    I have known him since before he came into this 
administration, because, of course, he was a leading citizen of 
Fort Worth. He was president of General Dynamics Aviation. His 
background is electrical engineering, and his career really was 
aviation-related. He became Secretary of the Navy, as you said. 
He then became number two at the new Department of Homeland 
Security, bringing a business management capability there that 
was so important. He then came back to his love, the Secretary 
of the Navy position, and has done a wonderful job there of 
trying to modernize our Navy for the security risks of the 
future.
    Today, you know his background; he's been to this committee 
several times. I can just say that in addition to his 
qualifications, in addition to his educational background, his 
business experience, and his management experience, Gordon 
England is the person who can take over the day-to-day 
operations of the Pentagon better than anyone I know. He has 
proven himself. Not only is he a great manager, not only is he 
a person who knows the business of the Pentagon, but he is also 
a good person, and I can't think of a better recommendation for 
this job.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, we thank you. Those of us who had 
the privilege of serving with you have the highest respect for 
your judgment. You delivered that introduction with a 
tremendous sense of compassion and understanding and belief, 
and attaching your credibility to this individual is important 
to him and to the Senate. We thank you.
    Senator Hutchison. Thank you.
    Chairman Warner. I recognize now the junior Senator from 
the State of Texas.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman. I want to join 
Senator Hutchison, my colleague, the senior Senator, in 
speaking in support of the nomination of Gordon England to be 
our next Deputy Secretary of Defense.
    As you've already heard, he has an impressive record of 
accomplishments as a businessman and as a public servant. He's 
a person of the highest integrity, and I am delighted that the 
President has seen fit to nominate him as the Deputy Secretary 
of Defense.
    Senator Hutchison has already covered his impressive 
resume, but let me just try to bring one other nuance to those 
trying to piece together what kind of person this is. He was 
the first Deputy Secretary of the Department of Homeland 
Security, and first to take on that important challenge in the 
wake of September 11, trying to bring together disparate 
cultures of different agencies, and bring them together in the 
interests of the homeland security of this country.
    But something that gave me personal insight into what kind 
of man this was, is my daughter happened to be working at the 
Department of Homeland Security at just an entry-level 
position. The kind of kindness he showed to her in going out of 
his way to engage her and find out about her, it reflected to 
me the kind of character and the kind of person that he is in a 
way that I found very reassuring.
    So, we are fortunate to have public servants like Gordon 
England who have not only the necessary skills, but the vision, 
and are willing to take on tough challenges. I know at this 
stage in his career he might have just said I'll let this one 
pass me by and continue on as Secretary of the Navy or in some 
other capacity. But I'm delighted that he is willing to take on 
the tough challenge, and I'm sure Secretary Rumsfeld is looking 
forward to having someone of his caliber serve as his deputy.
    So in conclusion let me just reiterate my strong support 
for Secretary England and urge his speedy confirmation. Thank 
you very much.
    Chairman Warner. Thank you, Senator. It's important that we 
have your perspective. You have a very special responsibility 
in this nomination, and I'd be happy upon the completion of the 
committee work to have you sign the papers to bring it to the 
floor. Thank you very much.
    The committee has asked Secretary England to answer a 
series of advance policy questions. He's responded to those 
questions, and without objection, I will make the questions and 
responses part of the record.
    I also have certain standard questions we ask of every 
nominee who appears before this committee. If you will respond, 
Mr. Secretary, I will now propound the questions.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. England. Yes, sir, I have.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. England. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record and hearings?
    Mr. England. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to questions or requests?
    Mr. England. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. England. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request before any duly constituted committee of 
the United States Senate?
    Mr. England. Yes, sir.
    Chairman Warner. Do you agree, when asked by any duly 
constituted committee of Congress, to give your personal views, 
even if those views differ from the administration in power?
    Mr. England. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to provide 
documents, including copies of electronic forms of 
communications, in a timely manner when requested by a duly 
constituted committee, or to consult with the committee 
regarding the basis for any good-faith delay or denial in 
providing such documents?
    Mr. England. Yes, sir.
    Chairman Warner. I thank you very much. I'll now ask 
Senator Levin to say a few words, and we'll then proceed by 
having the opportunity to listen to any opening comments that 
you may wish to make.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. I just have a few words, Mr. Chairman. I 
join you in welcoming Gordon England and his family to the 
committee. We appreciate the sacrifices which you and your 
family have already made and will continue to make in the 
service of our Nation.
    Secretary England has been the Department's ``Mr. Fix-it'' 
for the last 4 years. In his brief period of time, he has 
served as Secretary of the Navy, Deputy Secretary of the 
Department of Homeland Security, Secretary of the Navy again, 
and recently under consideration to serve as Secretary of the 
Air Force. At the request of the Secretary of Defense, he has 
taken on such critical jobs as designing the new National 
Security Personnel System (NSPS) and overseeing the review of 
the status of DOD detainees at Guantanamo.
    If there's a problem to be solved, Gordon England has 
frequently been the one that the President has looked to to 
provide that solution. Now, Secretary England has agreed to 
take on an even more critical position. The Deputy Secretary of 
Defense serves in a position of awesome responsibility. He is 
the alter ego of the Secretary. In this capacity, the new 
Deputy Secretary will play a key role in determining how our 
country will meet the national security challenges it faces 
today, including: the transformation of our military forces; 
including how do we balance the requirements of the current 
military missions, including operations in Iraq and 
Afghanistan, with the investments that we need to meet future 
national security threats; the problems of recruiting and 
retention; training, compensation, benefits; and how we balance 
force structure costs against other programs
    Mr. Chairman, particularly in recent months, we've had the 
problem of questionable acquisition practices on the part of 
the Air Force, which have resulted in heightened risk of fraud 
and abuse in terms of the lease of tanker aircraft. The 
Department has recently agreed to restructure two other defense 
acquisition programs--the Air Force's C-130J aircraft program 
and the Army's Future Combat System program.
    I want to particularly thank Senator McCain, who has 
highlighted, again, the very urgent need of this Nation to go 
back and review this acquisition system of ours, which has 
either been violated, obviated, voided, abused, or misused. We 
have problems, Mr. Secretary. We need you to use your 
particular talent to address those problems that we have.
    The demands and the problems in this department are huge. 
The Department of Defense now accounts for more than half of 
the 25 high-risk management problems that the Government 
Accountability Office (GAO) has identified across the entire 
Federal Government.
    The GAO has identified more than half of those in the 
Department of Defense itself. This list appears to be growing 
longer rather than shorter.
    Secretary England, you bring the kind of strong management 
background and commitment to addressing these issues that are 
so needed in the Deputy Secretary position. The Department 
needs your leadership on these issues. We admire your 
willingness to take them on. I know very few people in this 
town who have almost no critics and who have as many friends as 
you do. You bring that particular personal talent to this job 
as well--the ability to work with people, to listen to people, 
to be accessible to people of all points of views, before 
making a balanced decision.
    We look forward to your continuing service, and again, we 
thank you and your family.
    Chairman Warner. Thank you very much, Senator. Any other 
colleagues desire to make some opening comments with regard to 
this nominee?
    Senator Kennedy. Mr. Chairman?
    Chairman Warner. Yes.
    Senator Kennedy.
    Senator Kennedy. We're looking forward to hearing from the 
witness. I just want to join with those that have welcomed 
Secretary England. I think we'll be very fortunate to have his 
service in the Department of Defense. We've had an opportunity 
to work with him in the past, in our subcommittee, as Secretary 
of the Navy. I think as Carl Levin mentioned, that the Fort 
Worth Star Telegram says--I don't often read that, and I don't 
often listen to it, but on this occasion they are 100 percent 
right--this man has no enemies in Washington after a long and 
distinguished career, which says something about his ability to 
bring divergent views together.
    Just finally, I would hope that you had a good hearing the 
other day on the personnel issues, trying to find ways of 
working together on them. I know that the Secretary will 
continue to work with us, and I'm grateful for that comment, 
and we look forward to his service.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Kennedy. We'll now 
proceed to hear from the distinguished nominee.

STATEMENT OF HON. GORDON R. ENGLAND, TO BE DEPUTY SECRETARY OF 
                            DEFENSE

    Mr. England. Well, Mr. Chairman, first I'd like to express 
my deep appreciation to a pair of American patriots, my dear 
friends from the great State of Texas, Senator Kay Bailey 
Hutchison, and Senator John Cornyn. I thank them both for their 
kind introductions and their very kind remarks.
    Chairman Warner, Senator Levin, and members of the 
committee, it is a distinct privilege and a great honor to 
appear before you today. I am truly humbled by the confidence 
President Bush has shown in nominating me for the position of 
Deputy Secretary of Defense, and I sincerely value Secretary 
Rumsfeld's strong support.
    The opportunity for dialogue this committee has provided me 
during my time in government over the past 4 years is deeply 
appreciated. Be assured that if confirmed, I will continue to 
have candid dialogue with you and will be open to your comments 
and suggestions.
    As a citizen of this great Nation, I also wish to thank 
you, this entire committee, for your consistent and bipartisan 
commitment to the welfare of our military personnel, their 
families, and the security of our country. This committee has 
an historic role to ensure the defense of our Nation and the 
readiness of our Armed Forces. I thank each of you for that 
service.
    The first time I appeared before this committee was in May 
2001. The world and the security environment have changed 
dramatically. Americans, and most people throughout the world, 
will never forget where they were or what they were doing at 
just about this time on September 11, 2001. I vividly recall 
President Bush's visit to the Pentagon the very next day. The 
Pentagon was still burning. The President told the leadership 
of the Defense Department to get ready. He said that the war on 
terror would be a long struggle, that it would be diplomatic, 
economic, and military, but that the military had to succeed 
for the Nation to succeed.
    Since then, the American people and the world have 
witnessed the magnificent performance of our men and women in 
uniform, on whose behalf I vow to commit my time and my 
talents. Our military's efforts in support of the President's 
vision of freedom and liberty are already starting to make a 
profound difference in the Middle East. The world watched as 
the courageous people of Afghanistan cast ballots for the first 
time.
    Since then, we have seen historic elections in Iraq, among 
the Palestinians, and in the Ukraine twice. Syria is beginning 
to disengage in Lebanon, and other countries are moving closer 
to free elections. Freedom is on the march, but never 
guaranteed, even in America. The world is still a dangerous 
place. President Ronald Reagan, I believe, said it very well. 
The President said freedom is never more than one generation 
away from extinction. We don't pass it on to our children in 
the bloodstream. It must be fought for, protected, and handed 
on for them to do the same.
    America no longer faces just the traditional and the 
predictable threats of the past. Rather, we are now also 
threatened by enemies who operate from the shadows, outside 
governments, outside the rule of law, and without compassion 
for humanity.
    From my time at the Department of Homeland Security, I am 
keenly aware that you cannot protect America from solely inside 
America. It takes both a defense and an offense. We need to 
continue to take the fight to the enemies of freedom, where 
they train and where they organize.
    To protect and defend our great Nation and to help those 
who still do not live on the right side of freedom, the 
Department of Defense recently published the new National 
Defense Strategy, aligning the Defense Department's efforts 
with the President's commitment to the forward defense of 
freedom.
    If confirmed, I will work alongside the Secretary of 
Defense and all committed patriots in the Department of Defense 
and in Congress to achieve the following goals: secure the 
United States from direct attack; secure strategic access and 
retain global freedom of action; strengthen alliances and 
partnerships; establish favorable security conditions; assure 
allies and friends; dissuade potential adversaries; deter 
aggression and counter coercion; and defeat adversaries.
    Our duty to the American people in carrying out these goals 
begins with earning and maintaining the trust and confidence 
our citizens have placed in the Department of Defense. My value 
system is aligned with President Bush's statement on this 
subject in his inaugural address. In America's ideal of 
freedom, the public interest depends on private character, on 
integrity, and tolerance towards others, and the rule of 
conscience in our own lives. Ethical leadership is especially 
critical in DOD, because trust and confidence define the 
strength of the link between a nation, her citizens, and her 
military.
    In closing, I am reminded of what President Kennedy said in 
his inaugural address in January 1961 at the height of the Cold 
War: ``In the long history of the world, only a few generations 
have been granted the role of defending freedom in the hour of 
maximum danger.'' It is a blessing for me, for our men and 
women who wear the cloth of our Nation, and for all Americans 
who live in this time of maximum danger, to have the 
opportunity to defend and advance the cause of liberty.
    Thank you for the confidence you have placed in me these 
past 4 years. If confirmed, I look forward to continuing to 
work with you on the challenges ahead. Again, I thank each of 
you for what you do every day for our men and women in uniform.
    Mr. Chairman, I look forward to answering the questions of 
the committee.
    [The prepared statement of Secretary England follows:]
              Prepared Statement by Hon. Gordon R. England
    I'd first like to express my deep appreciation to a pair of 
American patriots . . . my dear friends from the great State of Texas, 
Senator Kay Bailey Hutchison and Senator John Cornyn. Thank you for 
your kind introductions and remarks.
    Chairman Warner, Senator Levin, members of the committee . . . it 
is a distinct privilege and a great honor to appear before you today. I 
am truly humbled by the confidence President Bush has shown in 
nominating me for the position of Deputy Secretary of Defense and 
sincerely value Secretary Rumsfeld's strong support.
    The opportunity for dialogue this committee has provided me during 
my time in government over the past 4 years is deeply appreciated. Be 
assured that if confirmed, I will continue to have candid dialogue with 
you and will be open to your comments and suggestions.
    As a citizen of this great Nation, I also wish to thank you for 
your consistent and bipartisan commitment to the welfare of our 
military personnel, their families and the security of our country. 
This committee has an historic role to ensure the defense of our Nation 
and the readiness of her Armed Forces, and I thank each of you for that 
service.
    The first time I appeared before this committee was in May 2001. 
The world and the security environment have since changed dramatically.
    Americans and most people throughout the world will never forget 
where they were . . . or what they were doing . . . on September 11, 
2001.
    I vividly recall President Bush's visit to the Pentagon the very 
next day. The Pentagon was still burning. He told the leadership of the 
Defense Department to ``get ready.'' He said that the war on terror 
would be a long struggle; that it would be diplomatic, economic, and 
military . . . but that the military had to succeed for the Nation to 
succeed.
    Since then, the American people and the world have witnessed the 
magnificent performance of our men and women in uniform . . . on whose 
behalf I vow to commit my time and talents.
    Our military's efforts in support of the President's vision of 
freedom and liberty are already starting to make a profound difference 
in the Middle East. The world watched as the courageous people of 
Afghanistan cast ballots for the first time. Since then, we have seen 
historic elections in Iraq, among the Palestinians and in Ukraine. 
Syria is beginning to disengage in Lebanon and other countries are 
moving closer to free elections. Freedom is on the march, but never 
guaranteed, even in America. The world is still a dangerous place.
    President Ronald Reagan said it well:

        ``Freedom is never more than one generation away from 
        extinction. We don't pass it to our children in the 
        bloodstream. It must be fought for, protected, and handed on 
        for them to do the same.''

    America no longer faces just the traditional and predictable 
threats of the past. Rather, we are now also threatened by enemies who 
operate from the shadows, outside governments, outside the rule of law, 
and without compassion for humanity.
    From my time at the Department of Homeland Security, I'm keenly 
aware that you cannot protect America from solely inside America--it 
takes both a defense and an offense. We need to continue to take the 
fight to the enemies of freedom where they train and where they 
organize.
    To protect and defend our great Nation, and to help those who still 
do not live on the right side of freedom, the Department of Defense 
recently published the new National Defense Strategy, aligning the 
Defense Department's efforts with the President's commitment to the 
forward defense of freedom.
    If confirmed, I will work alongside the Secretary of Defense and 
all committed patriots in the Department of Defense and Congress to 
achieve the following goals:

        <bullet> Secure the United States from direct attack
        <bullet> Secure strategic access and retain global freedom of 
        action
        <bullet> Strengthen alliances and partnerships
        <bullet> Establish favorable security conditions
        <bullet> Assure allies and friends
        <bullet> Dissuade potential adversaries
        <bullet> Deter aggression and counter coercion and
        <bullet> Defeat adversaries.

    Our duty to the American people in carrying out these goals begins 
with earning and maintaining the trust and confidence our citizens have 
placed in the Department of Defense.
    My value system is aligned with President Bush's statement on this 
subject in his Inaugural Address:

          ``In America's ideal of freedom, the public interest depends 
        on private character--on integrity, and tolerance toward 
        others, and the rule of conscience in our own lives.''
    Ethical leadership is especially critical in DOD because trust and 
confidence define the strength of the link between a Nation and her 
citizens and her military.
    In closing, I am reminded of what President Kennedy said in his 
inaugural address in January 1961 at the height of the Cold War:

        ``In the long history of the world
        Only a few generations have been granted
        The role of defending freedom
        In the hour of maximum danger.''

    It is a blessing for me . . . for our men and women who wear the 
cloth of the Nation . . . and for all Americans who live in this time 
of maximum danger to have the opportunity to defend and advance the 
cause of liberty.
    Thank you for the confidence you have placed in me these last 4 
years and, if confirmed, I look forward to continuing to work with you 
on the challenges ahead.
    Also, thank you again for what each of you do every day for our men 
and women in uniform.
    I look forward to answering your questions.

    Chairman Warner. Thank you, Mr. Secretary. We'll proceed to 
a 6-minute round, and depending on the number of participants, 
the chair, in consultation with the ranking member, will 
determine if we can have a second round, given that we have a 
series of votes and we're very anxious to get to the second 
panel, namely, Admiral Mullen.
    Mr. Secretary, it's been my privilege to have had the 
opportunity to know and work under and with a number of Deputy 
Secretaries of Defense. I cut my teeth with Dave Packard. My 
first request of you, a personal one, would be to go back and 
review the Packard Commission Report as it relates to the 
acquisition process.
    Senator Levin quite justifiably recognized the strong 
contribution of our colleague here, Senator McCain, who is 
currently, as a subcommittee chairman, pursuing this subject of 
reviewing the acquisition process in the Department, and God 
willing, when I relinquish this seat, I expect that to 
continue.
    But I want to go back to, if I may be personal, Dave 
Packard used to call the Secretary of the Navy or the Under 
Secretary, depending on the subject matter, into his office, 
and I remember many times before he would let the Department of 
the Navy pursue a contract and affix the signatures on it, he 
would look you square in the eye and say, ``I'm holding you 
accountable for this contract.'' I remember that very well, 
because I did the F-14, and the S-3, among other airplane 
contracts, and many others. Believe me, I had personal 
involvement.
    As I look at this Air Force situation, it's a tragic 
situation. I'd like to say for the record at this time, I hope 
we can quickly put it behind us, and let that Department once 
again retain its distinguished position in the hierarchy of the 
Department of Defense, parallel with the other military 
departments, and get on with its business. Regrettably, there 
are still a number of things that have to be resolved before we 
can reset.
    What initiatives do you intend to take that your 
predecessor may not have taken? I do not suggest that by way of 
criticism. It's just that you have spent a life as a business 
manager and had that experience, which others have not had. I 
would want the record to say that I'm speaking for myself, and 
I think a number of this committee. We had a very high regard 
for Secretary Wolfowitz, but I think there have to be some new 
initiatives, a new approach. This is your opportunity to lay 
that foundation.
    Mr. England. Mr. Chairman, first of all, I have to tell 
you, I haven't read the whole Packard report. It's about 1,000-
1,300 pages, but I actually have read a lot of the Packard 
report, and I am familiar with the findings of the Packard 
report. This entire area, I've had a number of discussions with 
members of the committee, and I agree with the members of the 
committee that we do need to look at the whole acquisition 
area. That is part of the effort of the Quadrennial Defense 
Review (QDR) this year.
    I can tell you it has my personal attention. We have 
acquisition issues in the Navy. We do not have ethical issues 
in the Department of the Navy, and I believe that those issues 
have largely now been fixed in the Air Force in terms of the 
processes and the procedures to make sure that we don't have 
the kind of issues they have had in some of their procurements.
    But this is an area that will require a lot of attention 
and work, and I can commit to you that I will work with this 
committee and I'll work with Secretary Rumsfeld and everyone in 
the Department. It is part of my basic responsibility as the 
Deputy, and that is to put systems in place with defined 
accountability and responsibility, specific measures and 
metrics, so we can measure the health of the organization. So 
this will be my primary emphasis, and I will be working this as 
Deputy Secretary if I'm confirmed by this committee, Mr. 
Chairman.
    Chairman Warner. We will work along with you. There will be 
a lot of attention from this committee on that subject.
    Integral to any review such as you're going to perform, and 
integral to your daily responsibilities, is just the 
fundamental doctrine of accountability, holding those with 
responsibility accountable. I mentioned the story of Dave 
Packard. I hope that you have your own system of 
accountability, and recognize those instances where it goes 
beyond the purview of your immediate office and it goes into 
the various judicial systems, to accord all of those full 
protection under the judicial system.
    In the end, there has to be, I think, a greater degree of 
accountability. Again, speaking for myself, but I believe 
others, we're very dismayed at the acting Secretary of the Air 
Force. The last thing he did when he walked out of office was 
to wipe the slate clean with regard to questions regarding the 
infamous scandals of abuse of the women cadets at the Air Force 
Academy. This case was reviewed by the Fowler Commission and 
many others. We, in Congress, and the Fowler Commission, 
expected a greater degree of accountability for that episode in 
the contemporary history of the Academy.
    So I just point out that the subject of accountability is 
high on the agenda of this committee. It's to be meted out 
fairly and in every way in accordance with due process. We 
expect it.
    Mr. England. Senator, if I could just make one comment. I 
believe the hallmark of my tenure and that of the CNO, Admiral 
Vernon Clark, is to set high standards, hold people 
accountable, and stay with those standards. We have a policy 
called the slippery slope policy; that is, you never even start 
down that slope. We hold people accountable even for the 
smallest transgressions, whether they be moral, ethical, or 
technical.
    I have with the CNO, I believe, set high standards for the 
Department of the Navy, and we'll continue to do so in the 
Department of Defense if I'm confirmed, sir.
    Chairman Warner. I think the combined team of yourself and 
the CNO have relieved about as high a number of ship captains 
as any Secretary and CNO have in recent history. I'm fully 
aware of the accountability standards that you've employed, and 
I commend you and the CNO.
    To the subject at hand, and that is Iraq, perhaps the most 
tragic chapters have been the start and stops and the failure 
to anticipate a number of situations. Foremost was the body 
armor, the uparmoring of trucks, and all of those issues. That 
should have been foreseen in some measure and planned for, but 
it wasn't.
    I believe today, everything that can be done is being done, 
but the tragic loss of the life and limb, the heartbreak to the 
families of the victims and others will never be replaced. 
Likewise, the improvised explosive devices (IEDs) and the task 
force assigned to look into the IEDs, I would hope that you 
would put both of these subjects as your very top agenda items.
    Mr. England. Mr. Chairman, you have my assurance I will. 
You know my capacity, again, as Secretary of the Navy, working 
with the United States Marine Corps, this was a very top 
priority. Also you should know, of course, I don't have the 
responsibility in my current job for Iraq, but I did have the 
responsibility to equip the United States Marine Corps, and we 
had every single marine with plates and armor before they 
entered into Iraq. I do understand the urgency of this, and we 
are working those issues today. They will receive my complete 
attention if confirmed, Mr. Chairman. I share your views on 
this subject.
    Chairman Warner. Well, now you don't have just the Marine 
Corps and the Navy. You have them all.
    Mr. England. Absolutely. I understand. It's daunting.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. In addition to the 
pervasive failure to establish accountability in the 
Department, particularly in the acquisition area, there's a 
number of other problems. We had some testimony recently where 
the acting Secretary of the Air Force acknowledged that his 
Department had gone too far in downsizing the acquisition 
organization and removed critical checks and balances from the 
acquisition process. That problem is not unique to the Air 
Force, by the way.
    Your strong background in acquisition puts you in a very 
advantageous position in terms of reversing some of the 
degradation that we've seen in the acquisition process. I 
welcome your assurance to this committee that you will work 
with us to re-examine the acquisition organization, the 
acquisition process in the Department of Defense, and to ensure 
that we have the structures and processes that we need to 
deliver high quality systems to the warfighters on a cost-
effective and timely basis.
    Mr. England. Senator, you have my personal assurance to do 
that. That is an area obviously of significant interest to me, 
so be assured that this will receive my highest attention, and 
we will indeed work with this committee, sir.
    Senator Levin. One of the principles that we've adopted in 
acquisition is that you ``fly before you buy'' for weapons 
systems. We have not followed that the way we should in the 
area of ballistic missile defense (BMD) systems. This letter 
came to us from Under Secretary Wynne last year, and I want to 
see if you would concur with Secretary Wynne's assurance to us. 
He said that he would ensure the Department conducts 
operational testing on that system as required by statute. The 
Department has committed to adequate testing, even at this 
early stage of the BMD system.
    Therefore, a focused operational test and evaluation (OT&E) 
consistent with the capability demonstrated during combined 
developmental and operational testing will be conducted on each 
future block configuration of the ballistic missile defense 
system. The director of OT&E, will approve the operational test 
planning, evaluate test results, and provide a characterization 
of operational effectiveness, suitability, and survivability.
    Is that an approach which you are willing to support that 
Secretary Wynne laid out for us?
    Mr. England. Senator, that does sound appropriate. What I 
understand is we do now have the signed-off test plan by the 
director of OT&E as we go forward. The system, of course, was 
fielded, and I would say fielded earlier than some systems, but 
that was in accordance with the Missile Defense Act of 1999, 
which specifically said to start to field as soon as 
technically capable.
    That said, the design test in fielding as that proceeds 
does require a test plan that is operationally--that is 
operationally suitable, as close to operational as possible. I 
believe--without having the memo in front of me--I believe 
that's basically what Secretary Wynne is outlining.
    Senator Levin. The operational test plan that you make 
reference to is very different from a developmental test plan. 
What we would ask is that you would understand that difference 
and support the operational testing, which is required by law.
    Mr. England. Yes. Senator, I do support the operational 
testing. I believe we're doing operational development testing 
together as an integrated test plan. But I will definitely look 
at this, if confirmed. I will definitely look at this and I'll 
get back with you, Senator.
    [The information referred to follows:]

    In January 2002, the Secretary of Defense directed that the Missile 
Defense Agency be responsible for Developmental Testing and Evaluation 
(DT&E) of the Ballistic Defense System and its elements, and that 
Operational Test and Evaluation (OT&E) be conducted after a block 
configuration is transferred to service for production.
    The Missile Defense Agency has taken an aggressive approach towards 
ensuring that the Director, Operational Test and Evaluation, and the 
Operational Test Agencies are involved in Ballistic Missile Defense 
System developmental test activities. This approach recognizes that 
early involvement by the users and operational testers leads to their 
deeper understanding of the Ballistic Missile Defense System 
development processes and operations, which can only serve to improve 
the operational Ballistic Missile Defense System.
    The Missile Defense Agency, the Director, Operational Test and 
Evaluation, and the Operational Test Agencies approved an Integrated 
Master Test Plan in December 2004. This plan adds operational realism 
to the test program, as directed by section 234 of the National Defense 
Authorization Act for Fiscal Year 2005. The Integrated Master Test Plan 
will be revised annually to expand on the combined developmental and 
operational test approach. More realistic operational testing will be 
planned and executed, consistent with the maturity and capability of 
the system, as we move from subsystem to fully integrated system-level 
testing for each block. Currently, every major Ballistic Missile 
Defense System ground and flight test includes operational test 
objectives to provide data for an operational assessment.
    To specifically address section 234 of the National Defense 
Authorization Act for Fiscal Year 2005 on Increasing Operational 
Realism, the Director, Missile Defense Agency and the Director, 
Operational Test and Evaluation, issued a joint report (Ballistic 
Missile Defense System, response to section 234, Increasing Operational 
Realism, April 4, 2005) which expanded on the criteria for 
operationally realistic testing provided in the Ballistic Missile 
Defense Integrated Master Test plan, and provided a brief description 
of the significant tests that were planned over the next 2 years. 
Because of our recent test setbacks, MDA has established a Mission 
Readiness Task Force to implement the corrections needed to ensure we 
return to a successful flight test program. To address the task force 
recommendations, the Department determined that we needed additional 
time to address mission readiness before meeting the test timeline 
specified in paragraph (b), section 234 of the National Defense 
Authorization Act for Fiscal Year 2005. Upon resumption of the flight 
test program, we will work with the Director, Operational Test and 
Evaluation, and the Service operational testing communities to ensure 
an adequate testing program is executed that provides essential data to 
evaluate and adequately demonstrate the operational capability of the 
Ballistic Missile Defense System.

    Senator Levin. Thank you. After your confirmation, 
Secretary England, do you expect to play a role in the QDR?
    Mr. England. Yes, I do, Senator.
    Senator Levin. One of the issues which has arisen relative 
to that is that former Department of Defense officials are 
going to be given a role inside the QDR development with panels 
that they are going to participate in. I just want to let you 
know that I find that troubling, that former officials would be 
playing a role internally with those panels, and I would only 
ask that you look at that and get back to this committee as to 
whether or not you think it is appropriate.
    Mr. England. Yes, sir, I will.
    Chairman Warner. Would you allow for an intervention?
    Senator Levin. Sure.
    Chairman Warner. Secretary Wolfowitz called me on that 
issue, and I seem to have a view that is different than yours. 
I believe that the breadth and scope of that review is such 
that if he wishes to access talent beyond what had been in 
previous reviews, it might strengthen the report. I just want 
that on the record.
    Senator Levin. Sure. My issue is not that he accessed 
talent with outside recommendations. It's that outside people 
formerly with the Department would participate on the internal 
panels reviewing the QDR, which is a very significant 
difference. I would just simply ask that you look at that 
difference and report back to this committee on it.
    Mr. Secretary, are you going to continue to play a leading 
role in the implementation of the National Security Personnel 
System (NSPS) the way you've done so far? It's been a 
critically important role. We've gone through this at other 
hearings, and we commend you again for your accessibility, your 
openness, your willingness to listen, and consider different 
points of view. I hope you're going to continue to play that 
role, but my question is, are you going to?
    Mr. England. Yes, Senator. I am going to continue that 
role. I would only moderate that and say I will continue that 
role at least through the publication of the final regulations 
and through the implementation of the first round. At some 
point we do hand it off, but I will make absolutely certain we 
get through the finishing of the development of the NSPS and 
the initiation then of the system in the first round.
    Senator Levin. Thank you. The report of Vice Admiral Church 
on interrogation techniques cited the fact that the Navy 
General Counsel, Alberto Mora, raised serious concerns 
regarding aggressive interrogation techniques which had been 
approved by Secretary Rumsfeld in December 2002 for use at 
Guantanamo Bay. According to the Church report, Mr. Mora said 
that the head of the Navy Criminal Investigative Service (NCIS) 
at Guantanamo, Mr. Brant, reported to him, Mr. Mora, that a 
detainee at Guantanamo was being subjected to physical abuse.
    Concerns about this interrogation were so serious that the 
Defense Department's Criminal Investigative Task Force, of 
which NCIS is a part, decided to disassociate itself from that 
interrogation. Now, after a briefing by Mr. Brant and the head 
of the NCIS, chief psychologist Dr. Gellis, Mr. Mora concluded 
that those interrogation techniques would ``be unlawful and 
unworthy of the military services.''
    Based in part on Mr. Mora's objection, Secretary Rumsfeld 
rescinded the approval of those aggressive interrogation 
techniques in January 2003. My question to you, Mr. Secretary, 
is whether you were aware of your General Counsel's objections 
to those aggressive interrogation techniques which had been 
approved for use at Guantanamo?
    Mr. England. Senator, I was aware, but retrospectively, 
because I had left about the end of November for the Department 
of Homeland Security. So I was aware, but frankly, I wasn't 
that deeply involved, so I'm really not in a position to 
comment on that, Senator.
    Senator Levin. You had left in November 2002?
    Mr. England. Yes, that's correct.
    Senator Levin. Thank you. My time is up. Thank you.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman, and I'd like to 
add my words of congratulations and support for your 
nomination, Mr. Secretary.
    Mr. England. Thank you.
    Senator McCain. I've had the pleasure of working with you 
for many years, and I strongly applaud and appreciate the 
outstanding work that you've done in the past. I know you are 
keenly aware of the significant challenges that you face.
    I'd like to talk about acquisition and procurement with 
you, but first of all, I would like to mention I'm very 
interested in bringing closure to the whole Boeing affair, and 
I can't do it until we get the e-mails that were promised. The 
latest promise was the middle of February, and here we are in 
April and we still haven't gotten them, and it's largely due to 
the obfuscation by the General Counsel of the Department of 
Defense. I hope you would address that issue so we can bring 
closure to this issue and move on.
    Mr. England. I will address it, Senator.
    Senator McCain. On the issue of procurement, a specific 
question. We were told in testimony and published information 
that if the C-130J is canceled, which is the present budgetary 
proposal sent over by the President, that would increase the 
cost of the F-22, because they're made by the same 
manufacturer. When Boeing shuts down a line of their commercial 
aircraft manufacturing, they don't add cost to the other 
product.
    We're going to want some answers on that. I understand that 
it could be hundreds of millions of dollars in additional costs 
to the F-22, which has already sustained significant cost 
increases. Will you look into that for me? I've asked the Air 
Force to give us some information on that. I'd appreciate it if 
you'd look at that.
    Mr. England. I'll definitely look at it. We'll get back 
with you, Senator. It sounds like it's an allocation of 
overhead, but I'll definitely look at it and we'll get back 
with you, sir.
    [The information referred to follows:]

    It is a common practice within industry to apportion overhead costs 
across a portfolio of products from a single manufacturer, shifting 
that spread as changes in the portfolio occur. In this particular case, 
the Defense Contract Management Agency (DCMA) estimated that 
termination of the C-130J program would have added $175 million total 
overhead across F/A-22 lots 6-8 because the F/A-22 and C-130J share a 
production facility. Other Lockheed Martin programs would have also 
seen smaller increases in overhead. In each case the exact amount 
however would have been negotiated, had the C-130J multi-year contract 
not been re-instated.

    Senator McCain. Thank you. We'll get into it more later on. 
I'm sure you saw the article in today's New York Times which is 
very disturbing about Navy shipbuilding. We all know that the 
budget request for next year is for four new Navy ships, which 
is the all-time low that I've ever heard of. I guess, according 
to this article, we now have less Navy ships, than we've had 
since World War I.
    But the interesting thing in the facts that we have been 
able to obtain is the dramatic cost overruns that are 
associated with acquisition of ships. Now, it isn't just ships. 
We are running into the same thing with Future Combat System 
(FCS) and other weapons systems. We all know that Navy ships 
have more than one mission. One of them is to fight. Another 
one is for presence. Another is to be prepared to respond. In 
the new kind of warfare we're fighting, it may not require the 
most sophisticated weapons systems, and yet, we're now at a 
point where, at least according to this article, we may be 
building 4 or 5 of the new destroyers, as opposed to the 
original 24.
    Assistant Secretary Young is quoted as saying the 
shipbuilders' complaints about stability are way overstated. If 
I give you $30 a week, you'd find a way to eat lunch for a 
week. You'd find a way to do it, but if I said lunch for a week 
and whatever it costs, things would come out differently.
    We have to get a handle on this, Mr. Secretary, and if 
we're now evenly dividing the ship production between two 
shipyards and there's no real competition, then the only answer 
is some kind of government control, if there is no competition. 
We all want competition, but apparently there is none.
    I know you've been heavily involved in this issue before 
you went to the Department of Homeland Security. I know you're 
aware of it. When we have the increase in costs of $3 billion 
in 2005 dollars to $13 billion in 2005 dollars for aircraft 
carriers, we're just pricing ourselves out of the business.
    I'd be very interested in hearing your views as to how we 
can address this problem, and quickly.
    Mr. England. Senator, it is a significant problem. You're 
absolutely right. I do not disagree with you on this. This is a 
significant problem. I will tell you it does not lend itself to 
a simple solution. I believe this is very complex. A lot of the 
industrial base is basically ``captured by DOD,'' so we have a 
very small industrial base for the Department. A lot of that 
industrial base relies solely on funding from the Department of 
Defense. That makes it very difficult for the Department and 
for the companies, particularly when we're in a period of 
change and transition, as we are today.
    So I don't know the answers. I do know that we need to work 
this issue. We do have an effort underway as part of the 
Quadrennial Defense Review to look at the whole acquisition 
aspect. We're also looking at Goldwater-Nichols. Of course, it 
came out about 1986. It was a different world. It was a lot of 
contractors and large production, and now we have small rates 
and a small number of contractors, and speed is important.
    So we need to look at the whole premise of how we're 
proceeding on acquisition. There have been a lot of studies. I 
don't know the answer, Senator. The most I can tell you is I 
will be very open. I'll work with Congress and the industry and 
approach this problem, because it is an issue.
    Our cost in every single weapons system is going up 
dramatically, and is going up dramatically above the inflation 
rates.
    Senator McCain. Could I just mention, Mr. Chairman, I 
understand that the Center for Strategic and International 
Studies (CSIS) is doing a comprehensive study that may give us 
some ideas for reform. Clearly, we need to go back and look at 
Goldwater-Nichols. I think the fact that the Department of 
Defense encouraged consolidation amongst Defense corporations 
was a mistake in retrospect. We need to at least examine a need 
for possible legislation, and I'm obviously thinking out loud, 
but for us to impose more bureaucracies, more regulations, and 
more strictures, then that increases rather than decreases 
costs.
    Thank you for saying you don't know the answer. I don't 
either, but I do believe that it has to be of the highest 
priority. Obviously, I have some previous bias towards the 
Navy, but the thought of having less ships in the Navy than at 
any time in the last 100 years in an era when we're facing a 
challenge--I don't say a threat, but a challenge--in the 
emerging superpower in Asia, is something that I think should 
concern all of us.
    I thank you for your appreciation of the problem, and I 
believe that this committee should make it a very high priority 
to address this issue, and I thank you.
    Mr. England. We will definitely support you in those 
efforts, Senator.
    Chairman Warner. Thank you, Senator McCain. I'll volunteer, 
if I may, my time. On the floor right now we've got an $84 
billion supplemental, and much of that is to replenish and 
augment what's perceived to be the needs of the United States 
Army. I'm not here to argue that.
    This shipbuilding situation is going to get turned around 
only if a persuasive case is made to the President of the 
United States that he must direct his budget authorities to 
begin to include in the Department of Defense's budget 
earmarked for the United States Navy those funds sufficient to 
turn this curve around, and once again restore America to its 
preeminence in naval shipbuilding. That's this Senator's 
response to an answer.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. Secretary 
England, welcome. Thank you for being willing to accept this 
responsibility. You're making your way up rapidly at the 
Defense Department with a good cause, and I appreciate it.
    In a city that is very ideological and partisan, you are a 
wonderfully sensible man who keeps his head while a lot of 
others around are losing theirs.
    Mr. England. Thank you.
    Senator Lieberman. So I admire you very much. It's been a 
pleasure to get to know you, and I look forward to working with 
you in this new position. I must say also that I found your 
opening statement to be stirring, and I appreciate very much 
your patriotism.
    In the programmatic give and take that we have around here 
most of the time, we don't get to hear what motivates you, and 
I appreciate that very much. I'm not surprised by it, but I 
respect it. I thank you.
    You may get a feeling that we're either jumping on here 
today or we're all reaching a conclusion at a similar time, and 
there is clearly growing and deep concern about the acquisition 
process within the Defense Department on this committee, which 
is obviously a pro-Defense committee. To some extent, Senator 
McCain acting on his instinct that something was wrong with the 
Boeing tanker lease agreement, began the unraveling of a 
problem here that is much more complex and wide than the 
unethical conflict of interest behavior of one former employee, 
Ms. Druyan, who is now incarcerated as a result of her 
behavior. It is my pleasure to serve with Senator McCain as the 
ranking Democrat on the Airland Subcommittee.
    I do want to come back and ask you something and emphasize 
a point. I quoted, at the hearing we had last week, testimony 
by General Martin about the, not quite collapse, but the 
weakening of the acquisition offices within the Air Force, and 
that the offices were reduced in number during the 1990s as we 
scaled down the budget of the Defense Department, but now as 
we've raised it up again in the middle of a war now, we haven't 
raised up the acquisition forces within the office.
    General Martin, at least, thought that that was part of the 
problem beyond the ethics of Ms. Druyan. The failure of a lot 
of others besides Ms. Druyan to blow the whistle on that 
particular proposal with Boeing, and why the incredible cost 
escalation.
    So my question is, from the time you've been in the 
Department, do you think we've let the acquisition offices 
atrophy to our detriment?
    Mr. England. Well, Senator, I have to say I perhaps have a 
different view. Frankly, my view is we need to greatly simplify 
the system. I believe it's very complex. It's very difficult to 
do work with the Department of Defense. We have a lot of rules, 
regulations, and complexities.
    My tendency is, at least, to try to simplify. It's better 
oversight if it's better understood, and it's easier to manage 
if it's better understood. That may be difficult to do. We 
haven't been able to simplify it over these many years. It 
always gets more and more complex. But my tendency is, if it is 
simpler, then it is easier to manage; it's more 
straightforward, as we have better metrics to understand where 
we are. I think industry would understand our process better. 
We may open up the industry base to more competition across 
companies in America. So my tendency is to make it simpler.
    Now, do we have enough people or not? In the Department of 
Navy, my assessment is we do, and I believe we do the job very 
well. I really can't speak for the Air Force, Senator.
    Senator Lieberman. Well, that's not the answer I expected, 
but it may be the right answer. I wish you well, and please 
continue to be in touch with us about that. There's no question 
that some of the complications in the acquisition process, I 
presume, have been put there to instill accountability.
    But if they are part of the cause for the escalation in 
costs in acquisition, which is making it less and less possible 
for us to acquire the systems that we need, then let's give 
simplicity, or some more simplification, a try.
    Mr. England. Well, Senator, in the QDR this year, this is a 
key part of the QDR, the whole acquisition aspect. So with the 
QDR, which I will be managing for Secretary Rumsfeld, it will 
get my personal attention. Plus, in addition to that, it's 
going to get my personal attention because I'm interested and 
I'm concerned, as you are, about the whole acquisition process. 
I previously participated in a number of Defense Science Board 
studies before I came into government on this very issue. I am 
familiar with it, and so I will work this, because this is at 
the bedrock of what we do in the Department of Defense.
    Senator Lieberman. I appreciate that. Look, we're talking 
about cost, which is critical. I've always been amazed at how 
long it takes to get a new plane, a new ship from research and 
development to actual delivery. It's unbelievable, at a time 
when cycles of technology are changing every 6 months to a year 
in the private sector.
    Mr. England. That was a concern.
    Senator Lieberman. Go to it, and be as strong as you can. 
Obviously the other point we're making is set forth in the 
shipbuilding story in the paper today. I understand that the 
sophisticated systems we're building are better than single 
vessels or single planes produced before. But at some point, 
quantity does stop quality and inhibits our ability to defend 
ourselves.
    Thank you very much for your answers and for your 
willingness to serve in yet one more position in the Defense 
Department.
    Mr. England. Thank you very much, Senator.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. When Senator 
Lieberman talked about the time it takes for systems to be 
delivered after ordering, I remember the problem we had in some 
of the fast-moving technologies such as global positioning 
system (GPS). By the time the system was delivered, it was 
already obsolete. That is a serious problem that has been 
looked into and needs to be followed up on, I think.
    Secretary England, during the development of the budget and 
what came out of the administration, the thing that upset me, I 
guess, more in terms of being inadequate was the fact that 
they're cutting the C-130Js, J-models, and actually eliminating 
them and cutting the Marine version, which is the KC-130J, down 
from 51 to 33.
    When Secretary Teets was here about a month ago, just prior 
to his retirement, that was at a time when 30 of the KC-130Es 
were grounded and another 60 C-130 Es and Hs were restricted, 
or being restricted due to cracks and highly stressed areas. 
The study that has taken place, the mobility and capability 
study, was in process when they came out with the elimination 
of this program.
    I think there's one area that we are deficient in and that 
is the area of lift and lift capability. I know that they're 
talking about it. I've heard a variety of figures, on the 
termination costs. Apparently these were not considered at the 
time that the budget was developed. While I do agree with 
Senator McCain, and it may be a stretch sometimes talking about 
the effect on the F-22, certainly it would definitely have an 
effect on the KC-130J models that the Marines have.
    I think both Secretary Teets and General Jumper stated that 
there would be a review of this cancellation. I'd like to have 
you make some comments as to your feelings about that 
particular review and about the problem that we have in that 
capability.
    Mr. England. Well, Senator Inhofe, I do know it's being 
reviewed. We did have a requirement for an additional, as you 
indicated, I believe, 17 KC-130Js in the United States Marine 
Corps. That was part of the input that led the DOD to look 
again at the C-130J contract in terms of how to go forward.
    My understanding is it is being re-looked at, partly in 
response to the Department of the Navy. I don't know exactly 
where that is, sir, because that's really outside my purview 
now as Secretary of the Navy. But I will look into that. I'll 
be happy to get back with you, Senator, and I'll let you know 
the reports of that.
    [The information referred to follows:]

    The Department is reviewing the decision to cancel the C-130J 
multi-year contract, based on new information regarding contract 
termination costs. I anticipate Secretary Rumsfeld will announce his 
decision soon.

    My understanding is we are going to go forward at a minimum 
and build out the KC-130Js for the United States Marine Corps.
    Senator Inhofe. I'd like to have you really look at that 
and consider that, because when you go into the field and talk 
to these people, they talk about their deficiencies and lift 
capability, and this doesn't seem like the right time.
    Senator McCain ended his questioning by talking about the 
emerging superpower in Asia, obviously talking about China. 
I've had occasion to give four China speeches on some of the 
things that are happening recently. We remember back during the 
1990s, China was caught stealing some of our nuclear secrets, 
the W-88 warhead, the crown jewel, I guess you'd say, of our 
arsenal. They were able to get that and have capabilities and 
are trading those capabilities with North Korea.
    I'd like to have you comment as to your concern over that 
emerging superpower in Asia, as Senator McCain put it.
    Mr. England. Senator, obviously a concern, because it is a 
growing power, and so we obviously need to keep track from a 
military point of view to make sure we are prepared to 
dissuade. That said, I certainly hope that in the course of 
China's development, we find mechanisms to make them our great 
friends. Today they account for a lot of our trade, and a lot 
of our trade deficit, but the trade between countries is also a 
way to build ties of prosperity and peace so, hopefully, we 
don't end up in a conflict. China and all other countries need 
to be monitored by the Department of Defense.
    Senator Inhofe. I understand that, but let me specifically 
request that you spend some time on the Cox report. They spent 
about 4 years working on a bipartisan approach to the emerging 
threat that China presents. I will read you one of the 
statements that was very disturbing to me that came from two of 
the top senior Chinese colonels. As they said, military threats 
are already no longer the major factor affecting national 
security. Traditional factors are increasingly becoming more 
intertwined with grabbing resources, contending for markets, 
controlling capital, trade sanctions, and other economic 
factors. The destruction they do in the areas attacked are 
absolutely not secondary to pure military wars.
    It's something that I have been very much concerned about. 
While there's not time to pursue this, and I won't be here when 
Admiral Mullen is here, I would like to have him for the record 
respond to some of these things. Right now in certain areas, 
whether it's in Venezuela, Iran, or any number of countries 
like Benin and Nigeria in Africa, the Chinese are doing things. 
They're building stadiums, doing things free for all these 
countries.
    But what do they all have in common? They have in common 
that they have huge resources in terms of the deficiencies that 
China has. In other words, they have oil. The greatest need 
that China has right now, and that they can foresee in the 
future, is that of oil.
    So, I would like to have Admiral Mullen spend a little bit 
of time for the record in responding with his opinion. Also, as 
to what we should be doing and the threats that are there.
    I know that you have been confined to the Navy, but here's 
just one thing that came out of the report. China is looking 
not only to build a blue water Navy to control the sea lanes, 
but also to develop undersea mines and missile capabilities to 
deter the potential disruption of its energy supplies from 
potential threats, including the U.S. Navy, especially in the 
case of a conflict with Taiwan.
    Now, we know also that they have been in a position to buy 
in one purchase some 240 SU-30s, which are better--in so many 
ways--than our F-15s and F-16s. I consider this to be very 
serious, and would hope that you would share that concern and 
start addressing it.
    Mr. England. Senator, I do share that concern.
    Obviously, the Navy has taken a lot of actions. I'd like to 
not discuss it here, but would be pleased to get with you and 
have those discussions, and also with Admiral Mullen. From a 
naval point of view, we are keenly aware of the actions being 
taken by China. We would be pleased to meet with you at your 
convenience and discuss that, Senator.
    But as a matter of policy, I understand your input and do 
not disagree with this, sir. Obviously it's an area of 
interest.
    Senator Inhofe. Thank you, Secretary England.
    Chairman Warner. Thank you very much, Senator.
    Senator Clinton.
    Senator Clinton. Thank you very much, and welcome indeed. 
I've enjoyed working with you in your capacity as Secretary of 
the Navy, and look forward to continuing that relationship.
    I think from the questions that have been posed thus far, 
Secretary England, you get an idea of the unanswered questions 
and some of the frustration that members of the committee feel. 
Speaking just as one member of the committee, it was a very 
difficult relationship with your predecessor. Very often we 
didn't get answers. We didn't get follow-up, we rarely got the 
kind of response that this committee and this body deserve to 
have. So it's a welcome change to have you before us.
    There are a number of concerns that have already been 
raised, and I'd like to focus on just a few more. I'm concerned 
about the continuing use of supplementals to fund permanent 
force structure changes. We've seen the Department rely on 
supplementals in both fiscal year 2005 and 2006 to fund 
existing or planned end strength increases, as well as 
permanent changes in force structure, known as modularity in 
the Army, and the force structure review group for the Marine 
Corps.
    Earlier this year, when I asked the Army's Chief of Staff, 
General Schoomaker, why the Army's 2006 budget did not fund the 
personnel level of 512,000 the Army actually plans to have 
instead of the 482,000 that are funded in the budget, he stated 
that he was given the option of funding those extra people in 
his core budget or in a 2006 supplemental. He chose the 
supplemental so he wouldn't have to displace other programs.
    Now, if the senior leadership of the Department gives the 
Services the choice of funding programs below the line or above 
the line, of course they're going to pick the same option that 
the Army did and that the Marines did in this budget, and put 
it on the supplemental tab. But programs like modularity are 
not surprises. They're intended to be permanent changes in the 
way services operate. In my view, it's not responsible 
budgeting.
    So let me ask you, do you believe it is sound budgetary 
management practice to submit budgets that do not fund the 
actual level of Active-Duty people DOD intends to have on board 
in 2006, and to include only a small portion of the operating, 
construction, and modernization costs of ongoing restructuring 
plans such as modularity? If confirmed, would you work with us 
to ensure that DOD sends us a budget that realistically 
reflects personnel levels and long-term modernization efforts?
    Mr. England. Senator, we will definitely work with you, and 
I appreciate the opportunity to do so. Regarding the 
supplementals, my understanding as the one responsible for the 
Department of Navy budget is that when we have predictable, and 
what I call everyday things that we know are going to happen, 
we put those in the budget. If it's unpredictable, like a war 
contingency, we put them in the supplemental.
    I don't know about the Army, Senator. I wasn't given an 
option about what goes in or out of the budget. I mean, it's in 
our budget. Now, the devil's in the details. Right now, we are 
working on the 2007 budget, so there is this long lead time in 
terms of what is predictable. When we know what it's going to 
be, and it is the course of business of the Department, it 
definitely should be in the budget. When we know those costs, 
they should be in the budget. However, for unpredictable, 
contingency sort of operations, obviously we'll need a 
supplemental.
    So, I think that's the policy, and I believe that is a 
valid policy. There may be some differences in the details, but 
keep in mind we have a long lead time in terms of putting those 
budgets together.
    Senator Clinton. Well, I'm very happy to hear that. The 
Senate passed a Sense of the Senate resolution yesterday making 
the same point so that we would have budgeting that would be 
reflective of the long-term costs that we know we're going to 
be incurring.
    With respect to that, my colleagues, Senator Reed and 
Senator Hagel, have been the leaders in arguing that we need to 
grow the end strength of the Army, and that is something that 
we've not yet really come to terms with from the Department's 
perspective. What are your views about increasing Army end 
strength, and is it something that will be addressed in the 
QDR?
    Mr. England. Yes, it will. We will specifically look at 
force size in the QDR, Senator, and I would recommend that we 
go through the QDR, because it will be starting with 
capabilities, but we will get down to a force-sizing construct, 
and that report is due next February. Hopefully, we can hold to 
that schedule.
    It is a very complex and a very important QDR. The last 
QDR, of course, was before September 11, so this is now 
reflecting the world that exists today. It will be very 
complex, but it will certainly point to force sizes. In terms 
of total force, my expectation is that we will be able to get 
down in terms of numbers of specific assets, and that's a 
question that's come up here today, how many of what assets do 
we need. There will be a very comprehensive look in the QDR, 
and, hopefully, we'll have some answers for you at the end of 
this QDR, Senator.
    Senator Clinton. We look forward to that. I know that 
there's a continuing effort on the part of many of us to try to 
get an answer on the end strength of the Army.
    My time is up, but yesterday on Long Island, my colleague 
from the House, Congressman Steve Israel, and I held a hearing 
with military families and vets, and the problems that our 
Guard and Reserve families are encountering are heartbreaking. 
Despite the fact that we have tried to address some of these 
issues like the absence of health care, like the continuing 
problems with companies foreclosing on homes, repossessing 
autos while a loved one is deployed in Iraq or Afghanistan, 
they are having a terrible impact on the morale of families, 
which of course has a boomerang effect on the morale of the 
serving Guard or Reserve member.
    I would just urge that some of us, Lindsey Graham and I and 
others, have been pushing for some very positive changes with 
respect to health care and retirement, and we need to do that. 
I'm worried about our recruitment and retention goals in the 
Guard and Reserve, and we would look for some support and 
guidance from you in your new position. I thank you very much.
    Mr. England. Thank you, Senator.
    Chairman Warner. Thank you, Senator. I also have some 
concerns along the lines that you talked about concerning the 
Guard and Reserve, but I don't want to suggest that in any way 
are the Active Forces and the families of the Active Forces 
having similar experiences. So there's a uniqueness to those 
who are brought from civilian life rather abruptly and 
integrated, but there are comparable hardship cases in the 
Active Forces.
    Senator Collins.
    Senator Collins. Mr. Secretary, welcome.
    Mr. England. Thank you, Senator.
    Senator Collins. The total shipbuilding budget has fallen 
from $11.4 billion in fiscal year 2004 to $10.4 billion in 2005 
to $8.7 billion in this year's budget request. Last week, 
Admiral Clark testified before the Seapower Subcommittee that 
he really needs $14 to $15 billion for shipbuilding.
    He also made a second, very important point. He talked 
about the lack of stability in the shipbuilding budget, and 
what he said he needs is level funding for a number of years. 
Similarly, the shipbuilding industry representatives testified 
last week that they are unable to respond economically and 
effectively to the instability in the budget fluctuations. 
Continual revisions to the Navy's shipbuilding budget has a 
ripple effect on their workforce, on their suppliers, and they 
made the point that this contributes to the cost growth problem 
that I know is of tremendous concern to you.
    In other words, absent a predictable plan, the industrial 
base cannot fully leverage its capabilities to provide the Navy 
with the most affordable ships possible. Do you believe that 
more stable funding, and an end to this up-and-down approach, 
as well as increased shipbuilding funding, would be better for 
the Navy, for the industrial base, and for our Nation's 
security?
    Mr. England. Well, certainly stability is good for 
everyone, Senator. There's no question. I would have to agree 
with that. I do have to comment, we are down this year, but our 
research and development is also at an all-time high. The Navy 
is at a point of transitioning to a whole new class of ships.
    So while everyone's concerned, and I am this year, we have 
four ships that we count, but we also have a vast amount of 
money in DD(X) and LHA(R) that do not ``count,'' so we're not 
counting them this year. That said, our procurement investment 
is down this year, but if you look at our projections as we go 
forward, it does continue to increase.
    Frankly, my concern is more on the increasing costs. We 
have 40 ships in the backlog right now, and almost all of those 
ships in the backlog continue to go up. I am concerned about 
the increasing costs of ships. I know it's an integrated 
problem. Certainly we like to have stable funding, but I 
believe it's more than just stable funding.
    Senator Collins. I think it's an important element. Mr. 
Secretary, in your answers to the advance questions submitted 
by the committee, you said, in discussing the DD(X) acquisition 
strategy, that, ``Competition is a key component of any 
strategy to control costs, however, it is not certain that the 
acquisition strategy for the DD(X) class will force a sole-
source environment for all future surface combatant work.'' You 
go on to say that yards that have not built surface combatants 
in the past may choose to enter that line of work.
    But the fact is, currently there are only two shipyards, 
Bath Iron Works and Ingalls, that have the capability to build 
major surface combatants, and indeed, all of the major surface 
combatants in the past 20 years have been built at just those 
two shipyards.
    Your comments, as well as the Navy's commitment to what I 
call the one shipyard acquisition strategy have led some 
observers to question whether the Navy plans to use foreign 
shipbuilders to lower costs and to ensure competition. In other 
words, is the Navy sacrificing an American shipyard, knowing 
that it could do this work and introduce competition eventually 
by using foreign sources?
    Have you had any discussions at all about using foreign 
shipyards to construct ships for the Navy?
    Mr. England. No, we haven't.
    Senator Collins. I'm glad to hear that. That is the rumor 
that is out there.
    Mr. England. That's not correct, Senator.
    Senator Collins. I'm glad that we can get that on the 
record.
    Finally, Secretary England, the Senate has sent numerous 
and strong messages that the Pentagon should take a second look 
at its winner-take-all acquisition strategy for the DD(X). 
Twenty of us have written to the President to express our 
concerns about the impact on the industrial base, our national 
security, and the future of the Navy. We have included language 
without any objection in the Senate in the budget resolution 
that passed. There is binding language that would prohibit the 
Navy from going ahead with the winner-take-all strategy that 
has been included in the supplemental appropriations bill that 
is on the floor.
    In view of these repeated, unambiguous, very clear messages 
that the Senate is sending to the Navy, are you taking a second 
look at the proposed acquisition strategy?
    Mr. England. Senator, obviously we're going to do whatever 
the law of the land is. If Congress takes action, obviously 
we're going to do that. We are at this decision point in terms 
of either competing a program or allocating, and with that 
choice is a very significant difference in cost. Cost has been 
an issue here today, and our analysis says we save $300 million 
a ship if we allocate, as opposed to competing. That's very 
significant for the Department of the Navy.
    So we propose what we believe is in the best interests of 
the Navy, but I understand there are other discussions and 
other views, and at the end of the day, whatever that decision 
is, the Navy will go forward. But, the Navy view is that we do 
need to compete programs, we do need to bring about 
efficiencies, and we do need to save costs on the programs. 
Otherwise, we will be, frankly, in a death spiral as the cost 
goes up. If we allocate and the cost goes up, then we build 
less ships. If we build less ships, they cost more. We need to 
break this cycle, and that's been part of the discussion today 
about the whole procurement aspect, to look at this whole 
acquisition policy, not just in the Navy, but across the entire 
DOD.
    I'm pleased to do that now on a much broader scale than 
just the Navy. I'm not sure this isn't a microcosm of perhaps a 
larger issue to be looked at in the whole Department of 
Defense.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. England. But we'll be pleased to work with you on this 
as always, Senator. I mean, this is an issue important to the 
Navy and to America.
    Chairman Warner. We thank you, Senator Collins. I sit here 
year after year watching you--the Guardian of the industrial 
base for Navy shipbuilding. I'm working in my mind, feeble as 
it is, to try and draw an analogy between World War II and a 
famous woman, Rosie the Riveter, who exemplified the commitment 
to build our naval ships and commercial vessels in World War 
II. I don't wish to append that accolade on you now. I'll 
figure out a better one, but for the 21st century----
    Senator Levin. By the way, Rosie is someone who was 
building tanks and building planes as well, not just ships.
    Chairman Warner. We better bail out now while the getting 
is good.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman, and first, let me 
commend Secretary England for his extraordinary dedication and 
patriotism in many different roles, and I look forward to 
working with the Secretary in his new role.
    Mr. England. Thank you, Senator.
    Senator Reed. It's a very wise choice, and I know you will 
perform magnificently, as you have done in the past.
    Let me also associate myself with Senator Clinton's 
comments about the use of supplemental budgets. Technically, 
emergencies should go into supplementals, but when you have a 
3-year emergency in a global war on terror, which even the 
President talks about in terms of generational aspects, that's 
not really an emergency. I think we have a pretty good idea of 
end strength of the Army and Marine Corps particularly, that 
we'll need over the next several years to accomplish that 
mission.
    I think the supplemental budgets are just setting us up for 
a real shock and disaster, because I think it will be harder 
and harder to generate the kind of support for the huge 
supplementals we've seen the last few years going forward, 
leaving the military services to begin to cannibalize their 
other programs and accounts, because they won't get the extra 
funding they've been getting.
    I think if we recognize that now and start working now, it 
might provide for a smoother landing. I wonder if you have any 
additional thoughts, Mr. Secretary.
    Mr. England. I understand the input, Senator. I'm not sure 
all these matters are predictable at the time we do the 
budgeting, because, again, we're working the 2007 budget now, 
and it's very hard to predict the number of people we'll have 
in Iraq, and the kind of equipment, what will be destroyed, et 
cetera.
    I think in theory I don't disagree, and I don't believe the 
Secretary disagrees, but in practice, we can only put in the 
budget those things we know about well in advance that are 
predictable in terms of the cost. So it's very hard. War is not 
very predictable by definition. Things happen that you don't 
know about, a lot of changes occur.
    Again, the devil's in the details, but from a policy point 
of view, I think we can all agree, but the problem is a 
practical problem of trying to project war costs in advance. I 
mean, that's why we have the supplemental. As far as I know, 
we're following that policy to the extent we can in terms of 
being predictable in the base budget but handling our 
contingency and war costs in the supplemental.
    Senator Reed. Well, Mr. Secretary, I think there are 
certain aspects which will change in that category, such as 
expenditure of ammunition and battle damage, but the end 
strength numbers for the Army, frankly, that's something that 
last year we knew. How many soldiers we needed for this year, 
about 512,000, around there. I think we have a good idea of 
what we need next year for the next budget cycle.
    I agree some issues are difficult to calculate, they are 
episodic. But, this end strength number I think is something 
that we have to recognize.
    Also, I continue to speak about the Army, but it pertains 
also to the Marines, who are doing an extraordinary job. I had 
a chance to see them on Good Friday, Holy Saturday, out in 
Fallujah. They need the same kind of support.
    Let me shift gears if I may. You talked about the QDR, and 
inherent in the QDR is looking forward based upon our recent 
experience about the size of all of our forces: air, naval, and 
land forces. Critical to the QDR are the assumptions that 
you're going to use, and that the Secretary is going to use. It 
strikes me that if we look at our experience in Iraq and 
Afghanistan, we understand that in addition to fast-striking, 
very decisive forces, air, naval, land forces, we need staying 
power, because in a lot of places we might be involved with 
will require the same after-conflict application of force that 
we see in Iraq, which argues for a large-scale land force at 
least.
    That assumption, I think, might be ignored or not used if 
we don't factor in our recent experience in Iraq and 
Afghanistan. Can you comment on that, Mr. Secretary?
    Mr. England. We will definitely factor that in, Senator. 
The last QDR, again, was before September 11. We actually 
finished it just weeks before September 11. At that time, one 
of the conclusions was that terrorism was the greatest threat 
to America, and that was before September 11. But nonetheless, 
none of us were in, I would say, the mental frame back then 
that we are in today, now having had over 3 years of experience 
in this war on terror.
    Certainly this QDR is going to reflect, I would say, a more 
mature, more knowledgeable understanding of where we are with 
this war and what we see in the future. We will be looking at 
different kinds of threats to America, not just the 
traditional, but the catastrophic and the irregular, et cetera. 
We will be covering the full gamut of threats to America in 
this QDR, and we are much better informed now than we were 4 
years ago.
    Senator Reed. Just a final point, because my time has run 
out. But, it strikes me that we're preparing through our 
research and technology for high-tech solutions in the Air 
Force, and the Navy is beginning to downsize because they can 
take advantage of technology in their ships and their aircraft. 
When you get into a situation as we are in Iraq, however, and 
if you look around the globe, unfortunately there are other 
places that might be havens for terrorists that would have to 
be peremptorily reduced and taken out.
    That type of conflict is manpower-intensive, as we've seen 
in Iraq. It requires skills of translators, civil affairs 
officers, a new way to deal with the State Department and the 
Agency for International Development (USAID) in the aftermath 
of battle. My concern, frankly, is that if we don't factor that 
type of manpower-intensive operation into a QDR calculation, 
budget pressures, or other pressures could lead to a solution 
that is short on boots on the ground. I just want that concern 
to be registered.
    Mr. England. Senator, we do not disagree on the issue. I 
find a high degree of sensitivity in DOD to that exact topic, 
and I can assure you it will be addressed in the QDR.
    Senator Reed. Thank you, Mr. Secretary, and again, 
congratulations. This is not only a well-deserved appointment, 
but one that your performance, I think, will justify everyone's 
faith in you. Thank you.
    Mr. England. Thank you very much, Senator.
    Chairman Warner. Thank you, Senator Reed. I now wish the 
committee to turn to Senator Levin for a very important 
announcement.
    Senator Levin. Each of us have expressed our joy to Jack 
and to Julia. They were married last weekend at the chapel in 
West Point. A lot of notable events have taken place in that 
chapel. But, now your marriage is certainly added to that list. 
Each of us, expresses our own delight. But, we also should 
express the committee's delight. I thank our chairman and 
Senator Talent and others for suggesting that we do that right 
now, notoriously and openly. We will just take a moment to tell 
our dear colleague that he probably has set the record for the 
shortest period of time after marriage before returning to 
senatorial duty.
    This is probably the shortest honeymoon on record. We talk 
about acquisition policy. In the old days we could have talked 
about acquisition, but that no longer is politically correct. 
So we will just simply talk about Julia's acquisition in terms 
of Jack. We are really so pleased that the two of you are now 
married and that you join the Senate family.
    Chairman Warner. Thank you very much, Senator Levin. 
Senator Talent, do you wish to be recognized on this subject?
    Senator Talent. Well, only to say that maybe what we've 
been telling the Department of Defense about revising their 
acquisition policy ought to go for Julia as well. Perhaps she 
ought to consider a--no, we--I certainly want to join with 
every member of the committee in expressing my felicitations to 
the couple. We're all pleased for Senator Reed.
    Chairman Warner. In consultation with the ranking member, 
the two of us are planning an event for the committee, as a 
formal event to recognize this very important point in your 
combined lives.
    Senator Reed. Mr. Chairman, if I could just simply thank 
you for your graciousness and your kindness, and Senator Levin 
also, and all my colleagues. It's very thoughtful. Thank you.
    Chairman Warner. Dear friend, we're delighted.
    Mr. England. Senator Reed, the Department of the Navy 
wishes the Army very well. [Laughter.]
    Senator Reed. You did pick up on West Point.
    Mr. England. Yes, I did, sir.
    Chairman Warner. In consultation with the ranking member, 
it's the intention of the chair, at the conclusion of the 
questioning by the distinguished Senators from Texas and 
Missouri to then turn to the second panel, the President's 
nomination for the Chief of Naval Operations.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman. Secretary England, 
when I travel back to Texas and I talk about the Federal 
budget, I try to explain to my constituents how we have two-
thirds of the budget for entitlement spending and one-third for 
so-called discretionary spending. But, I wanted to note how 
ironic it is that our defense budget is part of what's called 
discretionary spending, because obviously, providing for our 
common defense is not in the normal sense of that term.
    I expressed to you privately, and I just want to raise the 
issue again here publicly, as others have, my concern that the 
initial estimated costs of many of our weapons systems, 
airplanes, ships, things that are used to provide for that 
common defense, ultimately bear little resemblance or little 
relationship to the final cost. Others have expressed concerns 
about that.
    My concern specifically deals with the threat to our 
ability to provide for our military requirements. In other 
words, as the cost of these systems go up, we are buying fewer 
units, whether it's planes, ships, what-have-you, and thus 
falling short of meeting what our military leadership and 
civilian leadership are telling us are our military 
requirements.
    For example, the GAO just in March noted that it's not 
unusual for estimates of time and money to be off by 20 to 50 
percent. They note that when costs and schedules increase, 
quantities are cut and the value for the warfighter, as well as 
the value of the investment dollar, is reduced. They noted that 
just 4 years ago, the top five weapons systems cost about $281 
billion. Today in the same base year dollars, the top five 
weapons systems cost about $521 billion--$281 to $521.
    Of course, the GAO report notes, as you already know, and 
we've discussed privately, how the unit costs have gone way up. 
I know you expressed earlier your belief that this is a 
complicated subject, and I'm sure it is, and your commitment to 
work with the committee to try to find a way to address it. But 
in the subcommittee that I chair on Emerging Threats and 
Capabilities, we recently had a hearing on the Chemical 
Demilitarization Program. That is another example of out-of-
control costs, but it really appears to be due to very poor 
management and oversight of a program, which ultimately may 
threaten our ability to comply with our international treaty 
obligations.
    I know you understand very well the seriousness of this 
matter, but I would appreciate your commitment to work with us 
to try to find the answer. All of us here on this committee are 
strongly pro-Defense. We believe that our national security is 
the paramount concern of the Federal Government, and so we're 
not talking about shortchanging our defense or our national 
security requirements.
    I know you understand how troublesome this matter is and 
how big a concern it is, and I'd just appreciate your strong 
commitment to work with us to try to find some answers.
    Mr. England. Senator, you have my commitment. We talk about 
acquisition, but you have to use the big ``A'' in terms of 
acquisition, because it's how fast and how hard we push the 
technology to set our requirements, this whole contracting 
process. So, I mean, it's a big ``A'' here. It is complex, but 
you do have my commitment, Senator, we will work this. We'll 
work it with the committee.
    I know Senator McCain had some discussions about 
potentially having some hearings. Obviously we'll support that. 
I would like to at least have the opportunity to work through 
this year with our QDR and our processes and understand this 
before we just try to put a fix in place, because the fixes 
generally add to the complexity. Again, my tendency is to try 
to simplify this process.
    We will work with you, and not prejudging the outcome, but 
it will get my personal attention. It has the attention of the 
Department. Obviously, we do need to do something. You can't 
have our top five programs go up by $200 billion.
    Senator Cornyn. Well, I appreciate that very much and I 
know you're sincere in that commitment, but I just wanted to 
make the point, and hopefully I did leading up to my first 
question, that this actually could have the potential of 
threatening our ability to meet our military requirements. As 
important as spending the tax dollar wisely is, that's not the 
only impact this could potentially have.
    Finally, let me just ask you, we're all anticipating, some 
with more anxiety than others, the upcoming release of the base 
realignment and closure (BRAC) list on May 16. In the past, the 
Department of Defense has put out a resource guide for 
communities that are impacted by BRAC that I believe helped 
explain to them the process, and helped them work through the 
issues that communities where military bases are located have.
    Do you know whether the Department of Defense plans to put 
out such a resource guide this year? I'd appreciate any 
observations.
    Mr. England. Senator, I don't, but I'll get back with you 
on that subject.
    [The information referred to follows:]

    The Department is in the process of conducting an extensive review 
of the Base Realignment Implementation Manual (BRIM) that was developed 
to implement the previous round of base closure recommendations. The 
purpose of this review is to provide a common set of guidelines for the 
2005 round of base closures and realignments that allows for 
flexibility in base use implementation, identifies common-sense 
approaches and general practices to follow from successful past 
practice, and provides supplemental guidance to carry out the laws and 
regulations for closing and realigning bases and revitalizing base 
closure communities. We hope to have this review completed by this fall 
and will provide you with a copy of the BRAC 2005 implementation 
guidelines at that time.

    Chairman Warner. Senator, if I might interject, I put an 
amendment on the current appropriations bill before us 
requiring that the Department do that in the forthcoming year, 
because, Mr. Secretary, that's been a very helpful document to 
those committees. The first news of a closing brings total 
distress, sadness, and concern. I think this document has some 
well-tested principles that have been utilized in previous BRAC 
rounds that can be of help to these communities and other 
interests affected by a closing. Thank you for the 
intervention.
    Senator Cornyn. Thank you, Mr. Chairman.
    Mr. England. Senator, I will look at the status of that 
today, and I'll get back with you before the day is over.
    Senator Cornyn. Thank you, sir. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much. Senator Nelson has 
rejoined us. Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. Good morning, 
Mr. Secretary.
    Mr. England. Senator, good morning.
    Senator Bill Nelson. Do you, as a matter of Defense 
strategy, feel that the United States should have an aircraft 
carrier homeported in Japan?
    Mr. England. Yes, I do.
    Senator Bill Nelson. What is your feeling if the Japanese 
government, and this may be a municipal government, decides 
that they will not accept a nuclear carrier? Trace that out for 
us in your thoughts as to how we would project our force in 
that part of the world?
    Mr. England. Well, I think that's speculative at this 
point, Senator. Our plan is to decommission the U.S.S. John F. 
Kennedy, but keep it in mothballs so we could always bring the 
Kennedy back. We could also, if necessary, I would guess we 
could extend the U.S.S. Kitty Hawk, so we would have a couple 
of options to do that. But those discussions are ongoing with 
the government of Japan right now.
    Senator Bill Nelson. Let me just continue the line of 
thinking here--the Kitty Hawk is the oldest of all the 
carriers, is it not?
    Mr. England. It is the oldest, but it is also 
extraordinarily well-maintained.
    Senator Bill Nelson. By 2008, the time of the retirement of 
the Kitty Hawk, if Japan said no on a nuclear carrier, are you 
suggesting that by 2008 that the Kitty Hawk could be extended? 
Or would she have to go into dry dock at that point?
    Mr. England. Senator, again, it's all speculative. I mean, 
there's no plan to do anything but retire the Kitty Hawk. That 
is the plan of the Department of the Navy.
    Senator Bill Nelson. That's right.
    Mr. England. So that's our plan.
    Senator Bill Nelson. I'm speculating because if that 
happens, I want to know about the defense interests of this 
country.
    Mr. England. Again, I think that's speculation as to what 
we would do. We're in negotiations right now with the 
government of Japan in terms of replacement carriers. So I 
think what we would do is wait for the outcome of those 
discussions before we would make those decisions.
    Senator Bill Nelson. Well, I'm posing a question to you, to 
not wait till the outcome. If Japan said no on a nuclear 
carrier, in 2008 how are we going to have a carrier in Japan?
    Mr. England. There would be two options, which, again, I'm 
sorry, Senator, I thought I answered those. There would be two 
options. There are two non-nuclear carriers, and either of 
those nuclear carriers would be options in terms of providing 
them for the country of Japan if we reached that point in the 
discussions.
    Senator Bill Nelson. So, you're saying that--I'd like a 
little more specificity--that in 2008 that the Kitty Hawk would 
be able to continue in service? You said there are two options. 
Is that one option?
    Mr. England. My understanding is we could extend the Kitty 
Hawk if that were necessary. It's not the plan of the 
Department of the Navy, but it could be done.
    Senator Bill Nelson. It would not have to go into dry dock 
at that point?
    Mr. England. That's my understanding.
    Senator Bill Nelson. The second option you said is to bring 
the John F. Kennedy out of mothballs. How long and how much 
money would that incur?
    Mr. England. I do not know. I have to get back with you on 
that subject, sir.
    [The information referred to follows:]

    At a minimum, the JFK would have to undergo the deferred complex 
overhaul (COH) and upgrades to modernize it for the point in time that 
it would come out of overhaul. That cost would increase over time due 
to the increased requirements for modernization upgrades. If 
reactivated in the 1-5 year period after mothballing, the cost to 
reactivate, including the deferred COH, is estimated to be in the $390 
million to $700 million range. An estimated 15-20 months would be 
required to accomplish the total task.

    Senator Bill Nelson. Okay. I think there has been ample 
testimony here in front of this committee that it is clearly in 
the defense interests of this country, with the looming 
challenges posed by China, that we have a carrier that is 
stationed in Japan. You have stated that today, and that has 
been stated on numerous occasions here by other witnesses, 
including the CNO.
    I would like also for you to get back with the committee on 
the question of the first option that you've mentioned, in 
2008, what is the additional life expansion of the Kitty Hawk 
without having to go into dry dock, because clearly if she had 
to, you can't bring another ship out of mothballs immediately. 
There is a cost associated with that, as we saw when the 
Kennedy in the 1990s was taken not into mothballs, but merely 
from operational status down to training status, and it cost 
$100 million plus to bring her back up to operational status 
from training status. Ergo, the cost to bring the ship out of 
mothballs would seem to be much more than the cost to bring out 
of training status to operational status.
    Looking at what's in the defense interests of the country, 
I would like you for the record please to answer both of those 
questions.
    Mr. England. We'll get back with you, Senator, absolutely.
    [The information referred to follows:]

    The time period from the end of one dry-dock period to the 
beginning of the next dry-dock period is 57 months. Kitty Hawk last 
came out of dry-dock in October 2003. Therefore the next dry-dock 
period would need to begin by July 2008. A life extension beyond 2008 
of up to 2 years would be possible based on a condition-based analysis 
of the underwater hull and running gear.

    Chairman Warner. Thank you very much, Senator. I'd like to 
interject here. As you're probably aware, a group of us 
introduced an amendment on the floor late last night to the 
effect that prudent planning would be to retain the Kennedy in 
an active status for some determinate period of time. I 
recognize this is in contravention to the views of the 
Department, but nevertheless, we have our own view, and we 
think that would be recognized by the Senate hopefully today.
    But I point out, and I'm not an expert, but I'm becoming 
one on the politics of Japan, you frequently said we're working 
with the government, but there is, I think, a very interesting 
dichotomy between the central government of Japan, and--is the 
word prefecture--that is, the mayors and so forth. Sometimes 
the last word doesn't rest with the government. It's with the 
mayor, and mayors change.
    Mr. England. Senator, I've used the term loosely. It is the 
local government, but I've also met with the mayors. So, you're 
right, it is local, and it's national, and I believe we do 
understand that situation.
    Chairman Warner. I wasn't giving you a tutorial, but there 
are those that may not be as familiar as you are. I'm pointing 
out that a future mayor may wake up one morning and have a 
different view with regard to this issue.
    I think a great deal of careful planning has to be put in 
place, and I think we're performing our duty here in the 
Senate, and we'll just see what happens today, tomorrow, and 
the next day.
    Senator Talent.
    Senator Talent. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator, for your patience. You 
are the chairman of the Seapower Subcommittee, so we'll give 
you an extra minute.
    Senator Talent. Oh, thank you, Mr. Chairman. I had to be 
patient. I was late coming.
    I want to thank you for your service to the Navy, and look 
forward to your service to the whole Department of Defense. I 
want to say right up front I agree with you on the whole 
regulation issue. I do not think we will reduce development 
times or costs by having more acquisition regulations. My gut 
tells me that. I don't think the system will be more honest. 
People, bad actors, find a way to get around complex 
regulations too, so I think simplicity is a good direction to 
go in.
    I'm also hopeful that we can leave you enough time to run 
the Department of Defense or help run it, rather than have you 
down here all the time. Consultation is important, but so is 
you doing your job.
    Mr. England. Thank you.
    Senator Talent. Now, let me just express a concern that has 
been expressed a lot, but I really want to make certain that 
you hear it and that you hear it from somebody who has no 
parochial interest in the shipbuilding industrial base. I have 
plenty of parochial interests on this committee, but not in 
that.
    It's the conjunction of a number of things coming together 
that I think raises cause for concern. The last official 
statement we've had from the Navy is that we need 375 ships. 
I'm not so sure anybody's adhered to that. I know we have to 
have a QDR, but that's what the record says.
    We're all confronting the growing power of China. I agree 
with you there's no reason why China need be an enemy. But one 
way to make certain China does not become an enemy is to be 
strong, not provocative, but strong in the region. There are 
growing tensions between China and Japan, which I think will 
only be exacerbated by any sense or inkling that we are 
withdrawing from the region or that there may be a vacuum or a 
diminution of American presence or power.
    We have gone quietly in the Navy from a policy of forward 
presence to presence with a purpose. I understood why, and the 
response plan supported the CNO in doing that. But there's an 
inference available that maybe we're not as worried about being 
in the key parts of the world, and I think, hence, the 
questions to you about basing a carrier in Japan. The 
industrial base for shipbuilding is clearly a problem, 
whoever's fault that is.
    We all understand that you can't recover overnight if the 
Navy has gotten too small. We can't run out and do what we've 
done with the uparmored high mobility multipurpose wheeled 
vehicles (HMMWVs) and spend a lot of money and get a lot of 
uparmored HMMWVs. You just can't build ships in 6 months or a 
year.
    So these are the concerns that we feel. I really hope that 
both in your new post, assuming you're confirmed, and I hope 
you are, and also in choosing a new Navy Secretary, that 
commitments are made regarding stable funding at a level the 
Navy has indicated we need, at the $12 billion level. I'm not 
trying to tell you your job. I'm just saying that we should 
pursue, Mr. Chairman, these flexible funding avenues, and 
you've tried to do that, and the Navy supports us. We second 
just sit down with the appropriators and get it done.
    In some kind of organized way we should have--and this 
could be with us and you at the same time--a really empowered 
task force to look at shipbuilding expenditures. You can 
comment on this if you want. I just want you to take these 
comments that have been made here in a constructive fashion. 
All these factors coming together that lead us to have some 
concerns about whether the Navy is big enough and whether you 
all are focusing enough on that. If you want to comment, you 
can. You already have, I know.
    Mr. England. Senator, just one comment, and that is that 
rather than count ships, I'd rather talk about combat power 
forward. Our Navy and, hopefully, all of our Services must take 
advantage of technology to put more combat power forward. So 
it's not the numbers we have, it's the capability we have and 
the ability to put that forward. We have more combat power 
forward today than perhaps in the history of Navy, so it's not 
numbers of ships. The CNO has said the number of ships in our 
30-year plan is somewhere between 260 and 325, depending on how 
various concepts turn out. Our planning is at this point, while 
we're low this year, the numbers do go up, and we look at over 
300 ships in our Navy now in terms of our current 5-year 
planning.
    It is about capability. I believe we're on the right path, 
and we're trying to do that in a way to free up funds to move 
to the future. We are trying to do the things we need to do to 
combat an emerging threat against America and against our naval 
forces, and we need to transition to do that. It is stressful 
to change from the past to the future, and that's part of what 
the Navy is about, and we're trying to do that and have the 
funding and resources available to make that change.
    I believe we are acting responsibly for the American 
people. I understand it's stressful, but it's the right 
direction for the Navy.
    Senator Talent. I want you to hear the concern here. I 
mean, I agree. Capability is much less number-based than it 
used to be, but it still has some relationship to numbers, 
particularly when you're talking about sustainability over 
time. I just think the QDR must take that into account, must 
give us a number and explain how you get the metric, and then 
the Navy budget submissions should reflect that over time.
    I don't think you disagree with that. I think we have a 
commonality there, and I certainly want to work with you, and 
I'm sure the chairman and the ranking member do also.
    One other point I want to raise, and thank you for the 
extra minute, Mr. Chairman. On this committee, the audience 
should be aware, an extra minute is a great boon. I will talk 
for a little bit about the dangers of IEDs. I'm totally 
switching now. You and I have discussed this privately. I 
believe, it is the asymmetrical threat that is paramount that 
we have to be concerned about in the war on terror.
    Talk a little bit, if you will, about some of the things 
you've done already in your current role and what you want to 
do. I hope you will make this a personal priority as Deputy 
Secretary.
    Mr. England. First of all, it has been a personal priority, 
Senator. I've been personally involved since the first day we 
knew our marines were going to Iraq. We started taking 
measures, and the Department has $1 billion, and we have an IED 
Task Force working all aspects of this problem. By the way, the 
number of casualties is coming down, even though the number of 
attacks is about the same, our casualties are way down. The 
number of people killed is down from IEDs, but this is a long-
term threat, not just to our Armed Forces, but I think to our 
citizens. If there's ever an attack, it will be this kind of 
attack or potentially this kind of attack in America.
    We've also started a program in fundamental research to 
understand this in terms of new techniques that may be 
developed, not just in the near future, but what's the 
underlying physics so we may come out with some new 
technologies to attack this.
    We have discussed this with Dr. Marburg at the White House 
and also at the National Academy of Engineering and Science. 
They are taking the initiatives with us to start some 
fundamental research across America in this regard. I will 
continue to work this from the fundamental research to the 
application and make sure that we do everything America can do 
to defeat this threat.
    Senator Talent. Thank you.
    Senator Bill Nelson. Mr. Chairman, may I ask a question 
about Scott Speicher?
    Chairman Warner. Of course you may. It's a very important 
question, and we traditionally always want that as a part of 
the record through our proceedings.
    Senator Bill Nelson. Thank you, sir. Share with us the 
latest.
    Mr. England. Senator, about 2 weeks ago, we received the 
final highly classified report from the Defense Intelligence 
Agency that's been involved in all of the ongoing efforts in 
Iraq to find Captain Speicher. It summarizes all the efforts 
and all the intelligence and everything, and, hopefully, that's 
been made available to you at this point.
    When the report came to me, I stood up a board to look at 
this, assimilate it all, and decide what the next step should 
be. We are working with the families and with the investigators 
to try to understand and pull all this together for 
recommendations to me. That's where we are. If it comes to my 
office, if I'm still Secretary of the Navy at that time, then 
of course, I'll make a decision, whatever that may be. I don't 
know what the recommendations will be, either status quo or 
change designation. I don't know what that will be. I've had no 
recommendations.
    But, there has been a concerted effort by the country to 
find or find more information about Captain Speicher.
    Senator Bill Nelson. When do you anticipate the board will 
report to you?
    Mr. England. At first I said I wanted the report in, I 
believe it was like 2 months. But it's actually open-ended, 
because, frankly, in discussions with the family and with other 
people, they wanted to make sure we did not short circuit 
anything, and I said, just make sure this is thorough and 
complete and get back to me. About 2 weeks ago, that was the 
decision to leave this open-ended and work with the family. So 
that said, I asked for them to come in next week and give me 
their estimate of when they would come back with the 
recommendations.
    That's where we are today, sir. It is an extraordinarily 
serious effort on behalf of the government to find out 
information about Captain Speicher. That still continues, but 
now that the report's in, the question is, does that have any 
immediate impact in terms of any decisions by the Department of 
the Navy. That's still open.
    Senator Bill Nelson. Mr. Secretary, I think that you should 
double check with your people about the consultation with the 
family. I'm not sure those consultations are going on in the 
way that you have expressed here.
    Also, I think that you also ought to have your people 
inform you about whether, basically, they have pulled out of 
Iraq on any search for additional evidence.
    Mr. England. Senator, first of all, I don't want to discuss 
the report here, because the report is very classified. I know 
we've had people in Iraq all this time, but I can tell you my 
last discussion with all my people was after they had a 
discussion with the family regarding their involvement in 
providing input to the board. I'll verify that. I mean, if 
there's a misunderstanding, I'll make sure that's corrected, 
Senator. But our intent is to be thorough, to be all-inclusive, 
and I'll make sure that's the case.
    Chairman Warner. Thank you very much. That's an important 
issue. Before we conclude, I'd just like to make an 
observation. Are you not the only Secretary of the Navy who 
served twice?
    Mr. England. I am the second Secretary of the Navy to serve 
twice.
    Chairman Warner. Second?
    Mr. England. Yes. There was another Secretary of the Navy 
who served, I believe, at one point when the Whigs were in 
power in 1844, and then served again several years later.
    Chairman Warner. I went back and checked the record. I was 
the only Secretary, I thought, that served both in the Navy and 
the Marines, but there was one fellow who preceded me back in a 
period that, I think, did that also.
    What a wonderful position. You and I have often talked 
about it, and I look back on it with such great respect and 
humility. What a privilege it is to have that position. I 
talked to the Secretary of Defense the other day about it a 
little bit, and he said he's overwhelmed with individuals who 
want to succeed you, who want the Senate to confirm you and 
move on.
    I have a great deal of respect for Secretary Rumsfeld, and 
he very much needs and looks forward to your service. Secretary 
Wolfowitz was a strong deputy, and I'm sure that you will in 
every way be the one that will help Secretary Rumsfeld in these 
very important times.
    I'm hopeful that the Senate will move expeditiously to your 
confirmation. We have two technical things remaining, which you 
fully understand, and that is some completion of your papers on 
the ethics side that are routine. Senator Levin and I still 
have to do the usual check on certain areas that we check on.
    With that having been said, we'll conclude this panel, but 
I wish to advise my colleagues that we'll now take up the very 
important nomination of Chief of Naval Operations. We're not 
going to rush it. We have adequate time. I'll inform all 
members who may not be here that it's my intention to continue 
this hearing. At the appropriate time we'll break for the two 
votes. I will return and preside for a period in which, if the 
votes run as scheduled, that it would be about 12:25 when I can 
get back here and reopen the hearing. If any member not present 
at this moment desires, please inform the chief of staff of the 
committee, and we will make certain that this hearing is 
available to all who wish to participate in the very important 
hearing for the next Chief of Naval Operations.
    So, we adjourn panel number one. I thank you, and in about 
2 minutes, we'll start panel number two.
    Mr. England. Mr. Chairman, thanks for your support. Thank 
you.
    Chairman Warner. Thank you. [Recess.]
    Admiral Mullen, we are delighted to have you appear before 
us, together with your lovely wife, Deborah, as the President's 
nominee to be the 28th Chief of Naval Operations. I now ask if 
you have any additional guests beyond your full partner in 
life?
    Admiral Mullen. No, sir. The rest of my family is serving 
as we speak.
    Chairman Warner. You might, if you wish, put into the 
record some details about them.
    Admiral Mullen. I am delighted to be able to introduce my 
wife, Deborah, who's been with me throughout this career, and 
it is very much a team effort. She's, in particular, very 
dedicated to our Navy families, has spent an awful lot of time 
working those very important requirements over the years, and 
has taught me a lot about that. Sometimes you don't get real 
information, and I can get it from her on what's going on.
    I have two sons, both of whom are in the Navy, one of whom 
is currently deployed to Japan and the other one is on a ship 
out of Norfolk. We're both very proud of them both serving in 
the Navy.
    Chairman Warner. Their ranks at this time?
    Admiral Mullen. One is an ensign and one is a lieutenant 
junior grade.
    Chairman Warner. As we say in the Navy, well done to both 
of you.
    Admiral Mullen. Thank you, sir.
    Chairman Warner. You currently serve as Commander, U.S. 
Naval Forces, Europe, and Commander, Joint Forces Command, 
Naples. Just prior to this assignment in Naples you served from 
2003 to 2004 as the 32nd Vice Chief of Naval Operations. 
There's no question that you're a proven leader, having 
commanded the U.S. Second Fleet from 2000 to 2001, the George 
Washington Battle Group from 1995 to 1998, the Destroyer Group 
II, and on an earlier occasion, U.S.S. Noxubee, AOG 56, U.S.S. 
Yorktown, U.S.S. Goldsborough, and following your tour as 
commanding officer of the Goldsborough, you received the 
Admiral James Stockdale Award for inspirational leadership. I'm 
certain, Admiral, that is one of your most highly valued awards 
over your distinguished career. I was privileged to know Jim 
Stockdale very well when I was at the Department of the Navy 
and that was during the Vietnam period.
    Senator Levin, your opening remarks.
    Senator Levin. Let me join you in welcoming Admiral Mullen 
and his family. We thank them both for their service to the 
Nation. Admiral, you've had an extraordinary 37-year career in 
the Navy. We look forward to your being CNO.
    Admiral Mullen. Thank you, sir.
    Chairman Warner. Thank you very much.
    Admiral, you responded to the usual series of advance 
policy questions. Without objection, they'll be put into the 
record. If you will now proceed to reply to the standard 
questions given to each nominee and then we'll proceed to your 
statement.
    First, have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Admiral Mullen. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Mullen. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record and hearings?
    Admiral Mullen. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Mullen. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Admiral Mullen. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Admiral Mullen. Yes, sir.
    Chairman Warner. Do you agree to give your personal views 
when asked before this committee to do so, even if those views 
differ from the administration in power?
    Admiral Mullen. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    Admiral Mullen. Yes, sir.
    Chairman Warner. Thank you very much. If you have an 
opening statement, could you kindly proceed?

 STATEMENT OF ADM MICHAEL G. MULLEN, USN, FOR REAPPOINTMENT TO 
    THE GRADE OF ADMIRAL AND TO BE CHIEF OF NAVAL OPERATIONS

    Admiral Mullen. Mr. Chairman, Senator Levin, distinguished 
members of this committee, it is a great honor to appear before 
you today as the nominee for the office of Chief of Naval 
Operations. I appreciate greatly the time you are affording me 
this morning.
    I want to thank you as well, Mr. Chairman, for your kind 
and generous introduction and the confidence you have expressed 
in me. I'm also grateful for the confidence expressed in me by 
President Bush and by the leadership of my Department, 
Secretary Rumsfeld, Secretary England, and of course, Admiral 
Vern Clark, a dear friend who has led our Navy brilliantly for 
the better part of 5 years now.
    Perhaps more than anything, I am grateful for the 
opportunity to continue serving this Nation as a sailor in the 
United States Navy. To me, there is no higher honor. Our Navy 
men and women are the best they've ever been: talented, 
patriotic, courageous, as are their families. There are more 
than 38,000 forward deployed right now across the globe, in 
Afghanistan and Iraq, the Persian Gulf, and in support of East 
Asian nations hit hard by natural disaster. They are performing 
magnificently.
    I had the opportunity to visit with some of them in Iraq 
and in the Northern Arabian Gulf in Bahrain and in Kuwait not 
very long ago. I can tell you they know they're making a 
difference. They are proud of what they are doing, and I am 
proud to be on their team.
    Mr. Chairman, I have heard you speak often of your own 
humble beginnings as a sailor in World War II and as a marine 
in Korea, and how much that experience influenced your life, 
how it created opportunities only possible in this great 
country of ours. I must tell you, sir, that I feel much the 
same today myself. This country and this Navy I love so dearly 
have offered me opportunity beyond my wildest dreams and given 
me countless, priceless gifts, not the least of which are our 
two sons who serve our Navy on Active-Duty, and what will soon 
be 35 wonderful years with my partner for life, Deborah, 
present with me here today.
    That this same country would now offer me the opportunity 
to serve as the uniformed leader of the greatest Navy the world 
has ever known is humbling beyond words. I know that with great 
opportunity comes even greater obligation, an obligation to 
listen, to learn, and to lead. If you confirm me as the next 
Chief of Naval Operations, I pledge to you, to my counterparts 
in the other Services, and to everyone serving in our Navy 
today, my firm commitment to all three.
    I can assure you that I will lean upon and always know that 
I can rely upon the continued support of this committee and 
Congress as a whole. Your devotion to national defense, 
particularly during this time of war, has been unwavering, and 
I am personally very grateful.
    I come to this hearing as a Navy and North Atlantic Treaty 
Organization (NATO) commander in a theater undergoing 
remarkable and historic change. Fledgling new countries in the 
Balkans taking democracy on the wing; West African nations 
learning new ways to cooperate with each other; old and new 
NATO allies helping train Iraqi security forces. The face of 
the future is being drawn in colors, shapes, and sizes we 
wouldn't have dreamed of just a few short years ago.
    But the one constant, and what made the biggest impact on 
me, has been the need to create a safe and secure environment 
that allows democracy to flourish, and in so doing, creates 
opportunities for millions of families to live better, safer, 
freer lives.
    I believe the United States Navy is a big part of that and 
has been since the beginning of our republic. We take the 
power, will, and commitment of this Nation wherever we go, and 
we can go on short notice. We can stand watch over large areas 
of the globe, exert influence from near or far. We can be where 
the Nation needs us when it needs us to be there.
    Mr. Chairman, that's what navies do. Under Admiral Clark's 
exceptional leadership, our Navy has done it better than I've 
seen in my 37-year career. It would be difficult, indeed, to 
overstate the significance of the reforms he has put in place 
over these last 5 years.
    I see three principal challenges confronting our Navy. 
First is the need to preserve our current readiness, to answer 
the bell for the President and this Nation with exactly the 
right combat capability for exactly the right cost today.
    Second is the need to build a Navy for the future, to 
create a fleet that is properly sized and balanced to meet head 
on the uncertain and dynamic security environment that awaits 
us.
    Third, underpinning everything else, is the need to shape 
the Navy's uniformed and civilian manpower system for the 21st 
century, to transform our assignment, distribution, and 
compensation system into one that is more reflective of, and 
quite frankly, more responsive to, the men and women serving 
our Navy.
    These are tough challenges, and every one of them is 
significant, but I know that with the support of the Navy's 
leadership and the Department's leadership and this committee, 
we can and will succeed. I believe the only constant in our 
future is change. Our Navy, your Navy, is leading that change. 
It is a Navy that has met well the Nation's call since the 
world changed on September 11, but one that must continue to 
adapt to the ever-changing demands of this fight against 
terror. It is a Navy at war, but one that must also invest now 
in an uncertain future, balancing a multitude of capabilities 
with sound acquisition policies to meet our needs. It is a Navy 
of incredibly talented people, but one that must maximize the 
potential of all who serve, be they active, Reserve, or 
civilian.
    Mr. Chairman, I sit here today more dedicated than ever to 
that Navy and to its future. Should you choose to confirm me as 
the next CNO, I pledge to you and to the sailors I hope to lead 
the full extent of my effort. I know you expect it, and I know 
they deserve it. Thank you, sir, for your support, to this 
committee, and I stand ready to answer your questions.
    Chairman Warner. Thank you, Admiral. I appreciate the brief 
reference to my modest periods of Active-Duty and modest 
contributions while on Active-Duty and in the Reserves. But 
like you, I would not have achieved my goals in life had it not 
been for the training that I received, the discipline that I 
received, and the incentive I received as a very young man in 
World War II, a year in the training command and then in the 
Marines. I've always acknowledged that. I hope perhaps my 
statement and yours could provide some similar encouragement 
for the young people who are looking at military service today. 
I say to them, if I can do it, you can do it. You can come and 
be in this seat someday and any sailor hopefully will consider 
that he or she can be in your seat someday.
    Thank you, sir. I find that, Senator Levin, as you and I 
have sat here the many years together to be one of the most 
moving statements I've ever heard by any presidential nominee 
that has appeared before this committee. I congratulate you, 
sir, for your thoughtful and very wonderful statement.
    You perhaps listened to the very interesting and, I think, 
thorough colloquy between members of this committee and 
Secretary England with regard to the deep concern, not only on 
this committee, Admiral, but really throughout Congress and 
throughout the Nation regarding the size and composition of our 
current ship platforms.
    We always go back, and I don't say this for any reason of 
competition with the other branches of the Service, but the 
founding fathers wrote in the Constitution of the United States 
that it is the duty of Congress to raise an army, presumably 
when the Nation felt it was needed, but maintain a navy. I mean 
very explicit different instructions to Congress and the 
Commander in Chief of the United States, our President, under 
the Constitution.
    There's a deep concern about the size and number of our 
ships today. I can recall again in World War II, I think, we 
had close to 22,000 commissioned ships. Now, some of them were 
very small, and I acknowledge that. There were close to 100 
carriers in my recollection, 25 to 30 battleships, and on and 
on. There are marvelous scenes of the ships of the fleet as far 
as the horizon could see proceeding in a direction.
    Now, the world has changed a great deal. The threat to our 
Nation has dramatically changed. I stop to think--and I spoke 
about this the other day--as we sit here today, 60 years ago 
the last great naval battle of the last century took place, and 
that was at Okinawa. The United States Navy suffered, I believe 
history records, the largest number of casualties in terms of 
the ship damages and ships sinking it ever incurred. I think--
I'll correct the record if I'm wrong, but there was about 30-
some ships sunk, 260-odd ships damaged. The combined casualties 
of the Navy, the Army, and the Marine Corps, and perhaps 
elements of the Coast Guard and the Air Force, in that battle 
were 12,000 killed, some 36,000 wounded.
    [The information referred to follows:]

    The attack on Okinawa took a heavy toll on both sides. The U.S. 
lost 7,373 men killed and 32,056 wounded on land. At sea, the U.S. lost 
5,000 killed and 4,600 wounded. The Japanese lost 107,000 killed and 
7,400 men taken prisoner. It is possible that the Japanese lost another 
20,000 dead.
    The U.S. also lost 36 ships, 368 ships were also damaged, and 763 
aircraft were destroyed. The Japanese lost 16 ships sunk and over 4,000 
aircraft were lost.

    I mention that because the magnitude of those casualties is 
not likely to reoccur in military confrontation in the world 
today. The importance of our forward-deployed structure of the 
joint services to interdict terrorism beyond our shores, 
combined with the efforts here at home, is what will prevent a 
degree of casualties and damage comparable to that one battle, 
Okinawa, being suffered here at home, or possibly some 
scenarios abroad, given the proliferation of weapons of mass 
destruction.
    The Navy is the, so to speak, the point of the spear of our 
forward-deployed concept. Also, as Senator McCain pointed out, 
who is indeed an extraordinary naval historian of his own, a 
warship represents more than its combat functions. It's really 
an ambassador. The presence of a warship in a foreign port 
attracts a great deal of attention, not given, understandably, 
to other military types of platforms. That has been recognized 
since the very beginning of mankind.
    I think all of those who are entrusted with our respective 
responsibilities regarding the structure of our present force 
and future forces have to go back constantly and refer to the 
Constitution and that word ``maintain''.
    Now, you have the highest regard, as do I, for your 
predecessor, and he has courageously dealt with this issue of 
the levels of ship construction, and expressed his concern. I 
think you should have this opportunity today to give your 
thoughts on the direction and how we should proceed to augment 
the current size of our fleet today, and to redirect the 
shipbuilding so that we fulfill the constitutional mandate of 
maintaining that size and capability of a Navy that's needed to 
defend this Nation against any type of aggression.
    Admiral Mullen. Thank you, Mr. Chairman. It's a very 
thoughtful summary of a very important requirement and 
challenge. Clearly, the kind of capability that we need for the 
future is what we are trying to embed in the systems and the 
ships that we're buying now. We are in a time of transition and 
looking to the future. The current number of Navy ships we have 
today, which is 288, as I know you know and was pointed out 
earlier in the hearing by Secretary England. There is an up-
vector in the years to come.
    The concern I have is consistent I think with everybody 
else's. The enormous growth and cost, the spiral you get in 
when costs grow and you have to reduce quantity, and somehow 
moving ourselves forward from that position, I think, is a 
requirement. Obviously, if you confirm me, my job as a chief is 
to set the military requirement, and the impact of our Navy, is 
as you've described it. It needs to be out there. It needs to 
be in places with meaningful purpose, as it has been throughout 
the years. I personally experienced the kind of presence that 
you've described in terms of its impact.
    A navy gives you an opportunity to take advantage of 
freedom and maneuver space that you can't get as you look 
around the globe in places that are shutting down access 
rights. So that issue is also critical, and it's critical to 
have a navy properly sized for that.
    I am concerned about it clearly. In my tours in Washington, 
I have spent a significant amount of time looking at how to 
build ships and the impact of decisions that we make. I think 
the requirement to have a significantly larger and steady 
stream of income, if you will, is important. That kind of 
stability is critical.
    I also think that the discussions about alternative 
financing policies that get to other options and get at the 
entire spectrum of building a fleet for the future are really 
critical. If you confirm me as chief, I will spend an 
extraordinary amount of my time focused on that problem to make 
sure we get it right, and would hope that as a team, both 
industry, certainly Congress, as well as the Department and the 
Navy, are able to work together to try to solve this very tough 
problem.
    Chairman Warner. I thank you. I would also come back to an 
earlier comment I made. I feel strongly that the redirection of 
the type of naval shipbuilding program has to originate with 
the President. It's a privilege to work with the current 
President. He's a man of great courage and conviction, and his 
father was a naval person. I may ask his father to help me 
lobby a little bit to see what we can do to get some 
presidential direction with regard to the size and the 
magnitude of our budget in the remaining years of his 
administration.
    At this point in time, Admiral, I take note that the floor 
is awaiting--I see I've been abandoned ship here. So I will 
recess this hearing until the return of the first member of the 
committee following the two votes, at which time he or she--but 
I hope to be that first member--can resume the hearing. Thank 
you. [Recess.]
    Senator Levin [presiding]. The committee will come back to 
order. The chairman, with his usual graciousness, has 
authorized me to resume, even though we are in the minority 
here. I just have a few questions, Admiral, that I want to ask 
you. I know that the chairman is on his way back. There may be 
others who will come back too. That vote was unusual. That 
first vote took a lot longer than is usually the case, for all 
kinds of procedural reasons.
    Admiral, my first question has to do with the Aegis 
cruisers and destroyers and the ballistic missile defense 
capability, which the Navy is developing and fielding for those 
Aegis-equipped cruisers and destroyers. Some of the ships have 
a radar capability to track ballistic missiles and others have 
a capability to intercept missiles which are coming in. So we 
have both the radar and the actual intercept missiles 
themselves.
    The first question has to do with the operational testing 
of these systems as to whether or not there will be operational 
testing of those radars and those missiles.
    Admiral Mullen. Senator, I'll have to take that for the 
record. I just don't know the answer to that question. I'm 
familiar with the system. I just don't know where we are in the 
development cycle in terms of testing.
    [The information referred to follows:]

    Yes, there has been and there will be further operational testing 
of these radars and missiles. Navy has a significant advantage in the 
testing regime in comparison to the challenges faced by our sister 
Services. The firing tests of our Aegis Ballistic Missile Defense (BMD) 
capability which includes the SM-3 missile--and we've been successful 5 
of 6 times on the test range with this capability over the past 3 
years--have been conducted by an operational cruiser with fleet sailors 
manning the control positions just as they'll do in combat. This 
provides a tremendous advantage in terms of operational realism to Navy 
Aegis BMD testing and represents a ``leap ahead'' as contrasted to 
controlled experiments with scientists, engineers, and contractors that 
are more often the rule in BMD testing. In fact, a Director, 
Operational, Test and Evaluation (DOT&E) official in attendance at our 
most recent successful firing in February 2005 stated: ``This is the 
most operationally realistic BMD test yet seen.''
    For a shipboard system to successfully and lethally engage the 
target, the entire combat system has to function perfectly; the 
tolerance for error is very small at the speeds and altitudes that are 
involved in ballistic missile defense. When we get a ``bulls eye'' on 
the test range, that really tells us everything we need to know: the 
ship's radar acquired the target properly and tracked the target 
correctly, the fire control system computed the fire control solution 
perfectly, and controlled the missile precisely to a direct hit. While 
the engineers examine the data minutely after each firing event, to a 
Navy operator the proof is contained in that last frame of video before 
impact. When a target hit occurs, the entire system has done its job to 
perfection.
    Navy and MDA are working very closely with Commander, Navy 
Operational Test and Evaluation Force (COMOPTEVFOR--the Navy's 
operational test authority) to ensure that the testing program for 
Aegis BMD comprises all of the elements that would normally be required 
of a conventional major defense acquisition program. The Director, 
Operational Test and Evaluation, has commented favorably on Aegis BMD 
testing in their fiscal year 2003 and 2004 assessments of MDA's 
Ballistic Missile Defense System. Additionally, the assignment by Navy 
of U.S.S. Lake Erie (CG 70) as the designated MDA test platform has 
enabled an increasing degree of operational realism in each succeeding 
test.
    In summary, the Navy takes operational testing very seriously; it 
is crucial to ensure that our systems will be reliable, maintainable 
and effective aboard our ships at sea. We're satisfied that the testing 
that MDA is sponsoring aboard our ships is getting the job done 
properly.

    Senator Levin. We're interested as to whether there's going 
to be realistic operational testing of both the radar 
capability and the interceptor capability.
    Admiral Mullen. Right.
    Senator Levin. Second, relative to the submarine force 
structure, some years ago, perhaps 6, there was a force 
structure requirement assessment and analysis, which stated 
that the Navy in the near term needed 55 attack submarines, and 
that by the middle of the next decade, in other words, this 
decade, that there would be a need for 68 to 72. So let's take 
the midpoint of that and say there would be a need for 70 
attack submarines in the fleet.
    Now 6 years later, the latest 30-year shipbuilding plan, 
which was submitted to us in March, indicates that the long-
term force structure goal for attack submarines would be 41 to 
45. The midpoint of that would be 43. Now that's quite a change 
from about 70 to about 43 in just 6 years.
    The Navy leadership has suggested that other systems or 
capabilities could provide adequate capability to substitute 
for some or all of the peacetime intelligence, surveillance, 
and reconnaissance needs that are being met now by the 
submarine force, thereby permitting us to drop to a smaller 
submarine force with acceptable risk in the future.
    I am wondering if you could share with us more specifically 
what systems or capabilities that the Navy has identified that 
would fulfill those peacetime intelligence, surveillance, and 
reconnaissance requirements of the combatant commanders.
    Admiral Mullen. The study to which you refer, Senator, I 
think is a 1999 study done by the Joint Chiefs of Staff, and 
subsequent to that, there was the 2001 QDR which laid a 
baseline out of a requirement for 55 submarines. I know that 
internal to the Department and to the Navy there's been a great 
deal of analysis which has occurred over the last year, which I 
believe supports a requirement that heads in the direction. I 
have not seen the analysis which gets us to 41 per se, but 
certainly heading in that direction, and I generally support 
that.
    There are investments in programs, I think both in--and 
your question was some--to replace some or all. I would 
probably find myself in the some part of that, that replacing 
some of that, and the investment in systems that are tied to 
distributed systems that we have looked at over the last year 
or two to try to basically give us the kind of intelligence or 
give us the kind of real time information that allows us to 
respond in a much shorter timeline. All these warfighting 
requirements are driven typically by the ability to do 
precursor operations, which is very important, as well as the 
requirements to respond once the balloon goes up.
    It is particularly important that the value of that 
information be evaluated early and then being able to respond 
with platforms like submarines to the requirement at the time.
    I can flesh this out more, but there are investments in 
space which also potentially would provide us the kind of 
information that would allow us to displace some of those 
requirements from the past.
    Senator Levin. Thank you. Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Admiral Mullen. Senator Nelson, how are you, sir?
    Senator Bill Nelson. Good afternoon, Admiral. Since we 
talked a day or so ago, Senator Warner has in fact offered his 
amendment, which would extend the life of the U.S.S. John F. 
Kennedy aircraft carrier by going to dry dock using existing 
funds that have already been appropriated in the 2005 budget. 
Senator Warner is walking in right now, and I was just 
explaining to the CNO, Mr. Chairman, that since I talked to him 
that in fact you had offered your amendment, and what the 
amendment would do. It would have the Kennedy go into dry dock 
with the funds that are already appropriated in the 2005 
Defense budget. It would keep the fleet at 12 carriers, and the 
reasons being are reasons that we talked about, and we had a 
discussion with Secretary of the Navy England earlier today 
with regard to the delicacy of the issue of having a carrier in 
Japan in order to project our force, and what if Japan, or the 
local government, decides that it doesn't want a nuclear 
carrier? Then we have to have the backup of a conventionally-
powered carrier.
    Okay, all of that is preparatory for me now asking a 
question. It has been expressed to me by a number of 
constituents in Florida, specifically in Jacksonville, that the 
word is out on the street that if Senator Warner is successful 
with his amendment and that this goes all the way through, and 
that we extend the life of the Kennedy, that the Navy will 
punish the Jacksonville area by refusing to make plans for the 
preparation of a follow-on nuclear carrier at some point in the 
future. I'd like your comment.
    Chairman Warner. Might I interject here, my good friend and 
colleague? I had not heard of that, and you know full well that 
Senator Levin and I and others who are very active here 
wouldn't allow something of that nature to happen.
    I do feel the distinguished presidential nominee for CNO at 
this point in the Senate process of advice and consent should 
perhaps limit his views to his professional judgment and only 
those matters on which there's a factual basis. I wouldn't 
suggest you indulge in any conjectures or what-if type of 
response. I want you to respond to my colleague, but this is a 
matter on which the Members of the Senate have views that are 
in opposition to the decision by the Secretary and the current 
CNO, our very distinguished dear friend, Admiral Clark. I think 
until such time as confirmed by the Senate that we can't ask 
too much accountability from this individual.
    Senator Bill Nelson. I understand, Mr. Chairman. I'm just 
simply asking the question had the CNO nominee heard of any 
talk of the Navy wanting to punish Jacksonville under these 
circumstances?
    Admiral Mullen. No, sir. I have not.
    Senator Bill Nelson. As CNO, and you will be confirmed and 
you will have my vote, would you allow such a punishment to 
occur if Senator Warner is successful in keeping alive the 
Kennedy?
    Admiral Mullen. It is not my style to punish. I mean, 
that's just not how I handle my business. Clearly in the kinds 
of terms that you're describing, that's not a path that I would 
normally follow, or follow as you've described it. Along with 
what the chairman said, at this point it clearly is to some 
degree speculation on what might happen. I'm aware of the 
debate, I'm aware of the amendment, and I take that all in, and 
I recognize these are challenges I'll have to deal with, 
assuming I get confirmed.
    Senator Bill Nelson. Well, indeed it will be a challenge. 
But you need to know what's being said in Jacksonville.
    Admiral Mullen. Yes, sir.
    Senator Bill Nelson. The so-called attempted punishment 
would be that Jacksonville would never be fitted out for a 
nuclear carrier, and it would be beyond my realm of belief that 
the United States Navy would do that, and that they would 
rather make judgments as what's in the best defense interests 
of the country.
    Chairman Warner. Senator, if I might interject again, I 
assure you, and I said at a previous hearing publicly, that the 
QDR process, the BRAC process are important steps which could--
I'm not suggesting absolutely--but could develop facts and 
conclusions and decisions which would direct a course of 
action. I assure you that the Secretary of Defense, I'm 
confident, together with the Department of the Navy, will at 
the appropriate time decide whether or not the option to put a 
nuclear carrier in the Mayport facility is one that's in the 
interests of the national security structure of this country, 
not just Florida or Virginia, but the whole of the country, and 
outline to Congress the steps that they would take to arrive at 
a final decision.
    The threshold decision would be is this something that 
should be examined? If they reach that as a consequence of 
BRAC, QDR, and other decisionmaking, then if they reach the 
decision, we should look at it as a Nation. Then here are the 
steps by which we're going to look at it, and each of those 
steps will be carefully reviewed by Congress and members of the 
committee. Presumably the two of us will have a voice in those 
steps. We will be guardians to see that the type of 
hypothetical, as you said, punishment, will not take place.
    Senator Bill Nelson. Mr. Chairman, you know that I trust 
you, and I do, and you've been a great leader of this 
committee. You also know some of the emotion that has been 
brought to this table this morning by other Senators on both 
sides of the aisle with regard to matters that are in front of 
this committee and in front of the Pentagon. I think my 
philosophy is the best thing to do is get it all out on the 
table, and that's what I've attempted to do. I thank you, Mr. 
Chairman.
    Chairman Warner. I thank you for your active participation. 
One of the reasons I'm a few minutes late coming back, I 
consulted with your colleague, Mr. Martinez, on the floor about 
the bill of which you and I are the two sponsors. I feel 
obligated that the Senate should have a voice in this very 
important decision of the retirement of this ship, the Senate 
as a body, because it is a major decision with regard to force 
structure to go from 12 carriers back to 11. I don't think 
Congress should be silent.
    I don't know what the outcome will be. We have an unusual 
parliamentary procedure. Cloture will in all likelihood be 
invoked on the main bill, and that could pose some 
parliamentary problems, but we're going to diligently pursue 
allowing the Senate to have an expression, a voice in this 
matter. So as we say in the Navy, stand by to cast off.
    Thank you. Any further questions you might have of the 
distinguished witness?
    Senator Bill Nelson. Only just to mention in passing that 
as a Navy man the issue of Scott Speicher will continue to 
arise, and it will arise in this committee until evidence is 
found so that his family can reach closure.
    It is no secret that I am not happy with the Department of 
Defense when they abandoned the search over a year ago. I will 
continue to speak out. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. Admiral, just one 
wrap-up question, and I once again announce for all those 
following this hearing that the chairman and ranking member 
announced that we would resume following the vote for purposes 
of entertaining questions by any Senator. It's an unusual 
situation on the floor now with party caucuses, and that 
explains the absence of so many members, but I'll now ask and 
concede to myself unanimous consent that the record for this 
hearing will remain open for a week's time within which 
Senators may submit questions to Admiral Mullen, and we'll 
await the responses.
    Admiral Mullen. Yes, sir.
    Chairman Warner. Thank you very much. It's giving all an 
opportunity to participate, because this is a very important 
hearing.
    I do wish to get one thing further on the record here. In 
its budget proposal for 2005, the Navy cut almost 8,000 Active-
Duty sailors from its end strength. By the way, that was one 
that I discussed at length with Admiral Clark. It came at a 
time when the Army was pressing for increased end strength. The 
Marine Corps likewise, needed additional end strength. But, I 
felt it showed a typical measure of courage that Admiral Clark 
has always manifested and a pragmatic assessment of the 
situation with respect to that proposal.
    In 2006, the Navy plans to cut over 13,000 more from the 
Active-Duty rolls. Again, a situation which the previous CNO 
worked. In order to achieve these reductions, the Navy has 
sought the authority to implement tools used during the 
drawdown of the 1990s, such as buy-outs and early retirement 
boards and reduced the number of new recruits. You characterize 
these reductions in your written responses as a ``goal,'' and 
state that the Navy's overall personnel policy is still 
evolving. But, it sounds as if the Navy is implementing the 
personnel cuts even as it deliberates where future manpower 
will go.
    What is the Navy's optimal Active-Duty strength, in your 
judgment? Or maybe you prefer to take this question for the 
record and do some careful research on that. How do you plan to 
achieve these cuts in such a way that some sailors who really 
made a decision to make the Navy a career could be affected by 
this? I know how well you understand the commitments we make to 
our people, and how they go on and work towards their careers, 
and the excitement within the family with every red stripe 
that's added to the sleeve or gold stripe to the cuff. The need 
to have it clearly understood in the greater family of the Navy 
that we are making these personnel decisions in the best 
interest of and in the security interests of this country. We 
want to minimize the hardship on those who have made 
commitments, and for whatever reason, the Navy has decided that 
maybe certain individuals just won't have the opportunity to 
fulfill their dreams.
    Admiral Mullen. Mr. Chairman, I'd like to get back to you 
on what I think the optimal size would be, because I don't 
think we know that yet.
    [The information referred to follows:]

    Mr. Chairman, during my congressional confirmation hearing in 
April, you asked me two questions regarding future reductions in Navy 
manpower. Those questions were as follows:

        ``What is the Navy's optimal Active-Duty end strength in your 
        judgment?'' and, ``How do you plan to achieve these cuts . . 
        .?''

    In April, I asked for some time to consider what I thought the 
optimal size would be.
    On 4 November 2005, the Navy's active end strength was 361,478. The 
President's 2006 budget submission reflects Navy's fiscal year active 
end strength request of 352,700.
    Navy's optimal end strength numbers are determined by force 
structure. This process takes into account the current and future 
manning requirements of our ships, aircraft, and associated 
infrastructure, requirements that are even now under review as part of 
the QDR process. It is imperative that we more critically evaluate and 
manage our infrastructure and associated end strength, and we are 
actively pursuing further efficiencies.
    Navy is increasingly leveraging technology to improve our 
warfighting advantage. Advances in ships and system design are allowing 
us to shed some obsolete, labor-intensive functions while improving 
productivity and warfighting readiness. Economies are gained by 
eliminating redundant and nonessential skill sets. Until we have 
completed our review of force structure requirements, I cannot forecast 
Navy's exact long-term optimal end strength. However, I assure you that 
I am committed to determining that number, that it will reflect the 
economies derived from transforming the force to meet the challenges we 
face in this new century, and that I will share it with you in a timely 
manner.
    It is my intent that as potential reductions in manpower are 
identified, the Navy will execute these reductions in a planned, 
control, and responsible manner that is consistent with the security 
interests of the country.

    Chairman Warner. If you feel that you want to get onboard 
and get on the bridge for a while and take a look at it with 
the full authority and advice and consent of the Navy, I would 
urge you do that.
    Admiral Mullen. Yes, sir.
    Chairman Warner. I don't think it's one you can answer in 
that quick of a period.
    Admiral Mullen. I would like to do that. Just a couple 
thoughts, however. One is that I know that these initial steps 
have been taken in a measured way. I was in the personnel 
business in the early to mid-1990s when we reduced our size 
dramatically. The intent of where we're headed now is to do it 
in a measured way so that we can reach the potential for every 
sailor that is a member of the United States Navy, and do it in 
a way in which we provide opportunity and we still hold out the 
kind of dream that you just described for each and every member 
of the Service.
    It's with that kind of thought we will proceed, and with 
recognition that we need to invest from a technological 
standpoint, because some of our ships, our future platforms, 
will require fewer people. We believe there is an opportunity 
in the future to actually reduce the size of the force. We just 
haven't, to the best of my knowledge, we haven't gotten to what 
we think the optimum number is. We don't know what that number 
is yet. There's an awful lot of work going on, and it's a 
priority for me, assuming I get confirmed, to continue that 
work to be able to answer the kind of question you asked, and 
do it in a way that makes sense not just to you and me, but to 
everybody in the Navy.
    Chairman Warner. I'm going to suggest the following. It's a 
bit unusual, but I think it's so important when a new Chief of 
Service steps up. We're going to proceed to mark up the 2006 
authorization bill in the coming weeks, and if we can have the 
good fortune, which I anticipate would be the case, of the 
Senate acting on your nomination promptly, to invite you to 
come back and brief the members of the committee before we go 
to print, so to speak. I can hear the reverberation of the 
staff behind me, but anyway, I'll take their wrath later.
    I want to make sure that this bill basically is consistent 
with your initial concepts of where you want to go with this 
great Navy. There may be some options by which we can 
incorporate a provision here or a provision there to begin to 
set your course of speed.
    Admiral Mullen. Yes, sir. I'd very much appreciate that.
    Chairman Warner. All right. We'll determine the time table 
for that.
    Admiral Mullen. Yes, sir.
    Chairman Warner. But, in no way is this to suggest that 
you're going to change a great deal from the distinguished 
helmsman, Admiral Vern Clark, and his lovely wife, the First 
Lady of the Navy. We're going to--at least I am--going to be 
very sad to see him leave. I've enjoyed working with him. But, 
I really look forward to working with you.
    Admiral Mullen. Thank you, sir. Well, I've worked on and 
off for him since 1996, and I am a big believer in where he's 
taken us, and I expect to continue that momentum.
    Chairman Warner. I guess that change of command will take 
place at Annapolis, will it not?
    Admiral Mullen. Yes, sir. That's the plan.
    Chairman Warner. Well, I've been there many times for those 
change of commands. There isn't a one of us when that old flag 
comes down and the other one goes up that doesn't get a bit 
choked up. Thank you, sir.
    Admiral Mullen. Thank you.
    Chairman Warner. The hearing is concluded.
    [Whereupon, at 1:00 p.m., the committee adjourned.]

    [Prepared questions submitted to Secretary England by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously have answered the committee's advance 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act in connection with your nomination to be Secretary of the Navy.
    Have your views on the importance, feasibility, and implementation 
of these reforms changed since you testified before the committee at 
your last confirmation hearing on September 23, 2003?
    Answer. My views are unchanged regarding the emphasis in the 
Goldwater-Nichols Act on jointness and the establishment of unified and 
specified combatant commanders. The effectiveness of joint operations 
has been clearly demonstrated in OIF and OEF, and I strongly support 
continued and increased efforts to improve the jointness of our 
military forces. However, the acquisition reforms of Goldwater-Nichols 
were designed for a different world and need to be re-examined in light 
of a new environment with far fewer prime contractors, far fewer new 
starts, fewer production items and a need for speed and agility in 
acquisition.
    Question. Do you see the need for modifications of Goldwater-
Nichols Act provisions based on your experience as Secretary of the 
Navy and Deputy Secretary of the Department of Homeland Security? If 
so, what areas do you believe it might be appropriate to address in 
these modifications?
    Answer. The acquisition reforms of Goldwater-Nichols were designed 
for a different world and need to be re-examined in light of a new 
environment with far fewer new starts, fewer production items and a 
need for speed and agility in acquisition. In my judgment, we need to 
examine the entire spectrum of defense acquisition to include the 
authority and responsibility for establishing requirements, procurement 
processes themselves, and the aligning of authority and responsibility.

                             RELATIONSHIPS

    Question. What do you see as the relationship between the Deputy 
Secretary of Defense and each of the following?
    The Secretary of Defense
    Answer. Almost without exception, the Deputy and the Secretary 
share the same authorities and responsibilities. However, we will each 
emphasize different areas. My role, should I be confirmed as DEPSECDEF, 
will be more of a classic Chief Operating Officer responsible for the 
operation of DOD and implementation of national defense policy and 
strategy. This will include financial management, personnel policies, 
acquisition management and integrity, oversight of military 
departments' roles, BRAC, Quadrennial Defense Review management, 
legislative affairs, public affairs and the like. At the same time, 
SECDEF's and DEPSECDEF's area of emphasis will necessarily overlap to 
ensure consistency of leadership and direction.
    Question. The Under Secretaries of Defense
    Answer. I will ensure that the priorities of the Secretary are 
implemented and that issues of significant importance are brought to 
his attention with sufficient analysis and recommendations for his 
action. My relationships with the Under Secretaries of Defense will 
derive from my role as Chief Operating Officer. My management style is 
to form integrated project teams to work in a collaborative process to 
ensure that issues are fully considered, decisions weighed, accepted 
and implemented by each member of the management team.
    Question. The Assistant Secretaries of Defense
    Answer. As Chief Operating Officer, my relationship with the 
Assistant Secretaries of Defense (ASDs) that report to me will be 
similar to that of the Under Secretaries. For ASDs that report through 
Under Secretaries, I will rely on the Under Secretaries to manage their 
areas of responsibility.
    Question. The Chairman of the Joint Chiefs of Staff and the Vice 
Chairman of the Joint Chiefs of Staff
    Answer. As the principal military advisor to the President and to 
the National Security Council and to the Secretary of Defense, the 
Chairman has a unique military role. If confirmed, I will work closely 
with the Chairman and the Vice Chairman to ensure that their issues are 
addressed and to ensure that all essential matters are fully 
coordinated with them.
    Question. The Secretaries of the Military Departments
    Answer. As the current Secretary of the Navy, I appreciate the role 
of the Secretaries in implementing the policies of the President and 
the Secretary of Defense. To ensure that the Secretaries are fully 
coordinated and operating in unison with each other and with the 
SECDEF's office, I plan to reinvigorate the Senior Executive Council 
consisting of the Secretaries and the USD (AT&L).
    Question. The Chiefs of Staff of the Services
    Answer. Regarding the Service Chiefs, I will work to see that they 
are fully cognizant of appropriate policies and initiatives of the 
Secretary's office and also ensure that appropriate actions from the 
Secretary's office and with the Service Chiefs are fully coordinated 
with the Chairman and Vice Chairman of the Joint Chiefs of Staff.
    Question. The National Intelligence Director (NID) and the Deputy 
NID
    Answer. It is premature to define precisely the relationship with 
Director of National Intelligence (DNI) and the Deputy Director of 
National Intelligence. Most likely, the interface with the DNI will 
usually be handled directly by the Secretary of Defense and the 
interface with the Deputy DNI will usually be handled by the USD(I). My 
expectation is that I will be fully cognizant of these discussions and 
issues but not as an area of primary emphasis.
    Question. The Service Acquisition Executives
    Answer. I expect to be actively participating in setting the 
acquisition policies and the major acquisitions of the Service 
Acquisition Executives. However, most of their activities will be 
handled with me through the relevant military department secretary or 
the USD (AT&L). My objective will be to ensure that we have the 
appropriate policies and procedures in place such that all acquisitions 
meet all rules and regulations of the Federal Government, are conducted 
to the highest ethical standards and meet the needs of the military 
departments and are timely and affordable.
    Question. The Inspector General
    Answer. I expect to encourage the Inspector General to carry out 
his or her duties as prescribed in the Inspector General Act and will 
make sure that there are no impediments to that accomplishment. The 
most valuable contribution of an Inspector General, while preserving 
his independence, is to suggest constructive solutions of any problems 
or issues identified.
    Question. The General Counsel
    Answer. I expect to seek advice and counsel from the Department's 
Chief Legal Officer on all relevant matters.
    Question. The Service Judge Advocates General
    Answer. Judge Advocates General of the military departments and the 
military department general counsels are critical components of their 
respective departments' legal infrastructure. The military department 
Judge Advocates General and the Staff Judge Advocate to the Commandant 
perform functions in their respective organizations that are essential 
to the proper operation of their Service and Departments as a whole. 
Their unique expertise and experience contribute significantly to the 
proper functioning of the Services, the military departments, and the 
Department of Defense.

                       QUALIFICATIONS AND DUTIES

    Question. Section 132 of title 10, United States Code, provides 
that the duties of the Deputy Secretary of Defense are to be prescribed 
by the Secretary of Defense.
    Assuming you are confirmed, what duties do you expect that 
Secretary Rumsfeld will prescribe to you?
    Answer. Assuming I am confirmed, I expect to serve as a traditional 
deputy and alter ego of the Secretary. However, my expectation is that 
the Secretary of Defense will function as the Chief Executive Officer 
and the Deputy will function as the Chief Operating Officer. As such, 
the Deputy will be responsible to implement the Secretary of Defense's 
priorities, better integrate functional management of DOD to align 
authority and responsibility and accountability within DOD, manage BRAC 
to conclusion, manage financial and personnel policies and procedures, 
implement DOD-wide metrics as a management tool, meet the President's 
Management agenda, respond to the Government Accountability Office 
critiques and suggestions, and the like. While the Secretary and the 
Deputy emphasize different aspects of DOD, they will inherently overlap 
due to their joint overall responsibility and to ensure uniformity of 
leadership and direction.
    Question. What background and expertise do you possess that you 
believe qualifies you to perform these duties?
    Answer. Deputy Secretary of Defense will be my fourth confirmed 
position in the Federal Government if my nomination is acted upon 
favorably by the Senate. My experience to date as the 72nd Secretary of 
the Navy, the 1st Deputy Secretary of Homeland Security and the 73rd 
Secretary of the Navy has provided me broad experience in dealing with 
matters within DOD, across Federal agencies, with Congress, with 
industry, and with a large number of foreign governments. My corporate 
experience includes president of a number of large companies with 
hands-on management and technical leadership for a broad range of 
domestic and international programs. I have also served on a City 
Council and have participated in a wide range of local and national 
boards and committees. That said, the Department of Defense is 
astonishingly broad in scope and complexity and will be a profound 
challenge for even the most experienced executive.
    Question. Do you believe that there are any steps you need to take 
to enhance your expertise to perform the duties of Deputy Secretary of 
Defense?
    Answer. In my judgment, no one is fully qualified to perform the 
duties of the Deputy Secretary of Defense without first serving some 
time in that position. As such, it is important for the Deputy 
Secretary to be very open to constructive inputs and opinions and to be 
sure that important issues are fully vetted prior to decision. 
Additionally, without presuming confirmation, I have been receiving 
many briefings to understand better the full breadth of DOD 
responsibilities and have also received views and opinions from many 
Members of Congress. My objective will be to utilize my experience and 
expertise while also expanding my knowledge and understanding and 
valuing the advice and counsel of other DOD, government, and corporate 
executives.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Deputy Secretary of Defense?
    Answer. As noted in the recently released National Defense 
Strategy, we live in a time of confrontational challenges and strategic 
uncertainties. Our Nation is confronted by fundamentally different 
challenges than those faced by the American defense establishment in 
the Cold War and in previous eras. The major challenge confronting the 
Secretary and the Deputy, along with our Nation, is to influence events 
before threats become more dangerous and less manageable. Our goal is 
to defeat today's threats and to prepare the DOD to meet the threats 
and uncertainties of the 21st century.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, my immediate emphasis will be to manage the 
Quadrennial Defense Review that will specifically address traditional, 
irregular, catastrophic and disruptive capabilities and methods that 
threaten U.S. interests. For the longer term, I will work with 
Secretary Rumsfeld to implement the National Defense Strategy.

                       QUADRENNIAL DEFENSE REVIEW

    Question. Congress recently received the National Defense Strategy 
and the National Military Strategy. These are the overarching 
strategies that will guide the conduct of the Quadrennial Defense 
Review (QDR) in which, if confirmed, you will play a major role. There 
has been a major shift in recent years in the way the Defense 
Department establishes its military requirements, with a focus on 
capabilities rather than a threat-based approach.
    Do you envision the results of the QDR addressing not only required 
capabilities, but the force structure needed to ensure those 
capabilities are available at the times and places necessary?
    Answer. The QDR will address not just required capabilities, but 
the force structure needed to ensure those capabilities are available 
at the times and places they are necessary.
    This QDR will consider the proper mix of military capabilities the 
Nation needs. Given today's complex and uncertain security environment, 
these challenges involve not only the traditional threats from nation-
states that we've faced throughout the past century, but also a new set 
of post September 11 national security challenges. These include 
irregular threats of unstable environments, catastrophic threats of 
devastating attacks on the homeland, and disruptive threats of new 
asymmetric military technologies getting into the hands of our 
adversaries before we've developed adequate defenses.
    Based on a determination of this capability mix needed to meet 
these traditional, irregular, catastrophic, and disruptive national 
security challenges, the QDR will suggest a force sizing construct that 
appropriately accounts for the contribution of our interagency partners 
and international allies, as well as our own forces.
    Question. As part of the 2005 QDR process, you were designated to 
lead a panel that would examine aspects of the United States Code that 
might have to be changed to allow the Department to implement proposed 
changes to the U.S. military.
    What areas of the U.S. Code, in your view, require examination as a 
part of the QDR process, in order to implement necessary changes?
    Answer. The panel is looking at a very broad range of authorities 
that DOD needs to accomplish its mission. In addition to applicable 
statutes, directives, and policies, the panel is also looking at 
international and interagency agreements. An additional focus is to 
ensure the existing authorities are properly aligned with the 
responsible entities within DOD to speed and streamline mission 
accomplishment.
    Question. Who do you anticipate will head this panel if you are 
confirmed?
    Answer. My expectation is that the Department will name another 
senior DOD official and that I will replace Secretary Wolfowitz as the 
co-lead of the Capabilities Panel along with General Pace as the other 
co-lead.
    Question. If you are confirmed, what role do you expect to play in 
the QDR?
    Answer. My expectation is that that I will replace Secretary 
Wolfowitz as the co-lead of the Capabilities Panel along with General 
Pace as the other co-lead. I also expect to manage the QDR process for 
Secretary Rumsfeld.
    Question. We understand that the Department may plan for senior 
officials currently leading integrated product teams responsible for 
developing options for the ongoing QDR to continue serving in those 
roles even if they leave the Department.
    What role, if any, do you believe is appropriate for former DOD 
officials to play in the QDR?
    Answer. QDR 2005 seeks a greater degree of inclusion than past 
QDRs. Consultation, input, and sometimes participation, is being sought 
from Defense Boards, interagency partners, Congress, key allies, 
industry, and knowledgeable individuals--all of which are composed of 
membership from outside the department.

             SCIENCE AND TECHNOLOGY FUNDING AND PRIORITIES

    Question. The Department's science and technology (S&T) programs 
are designed to support defense transformation goals and objectives. 
These programs should ensure development of the latest, most 
technologically advanced devices, capabilities, equipment, and 
protection solutions for the current and future warfighter. The Defense 
Science Board and the 2001 Quadrennial Defense Review recommended a 
general funding target of 3 percent of the total Defense Department 
budget for the S&T program, a goal which has been endorsed by the 
Secretary of Defense and other Department officials. However, the 
proposed DOD budget for fiscal year 2006 for S&T falls short of this 
goal.
    What, in your view, is the role and value of S&T programs in 
meeting the Department's transformation goals and in confronting 
traditional and asymmetric threats?
    Answer. Science and technology, when integrated with new 
operational concepts and organizational constructs, are critical 
elements of transformation. Leveraging technology is the key to 
ensuring a decisive U.S. advantage across the range of military 
operations, from asymmetric threats to major combat operations. The 
results of past S&T investments are used to win today, and DOD is 
keeping the pipeline full to win tomorrow.
    Question. If confirmed, what direction would you provide regarding 
funding targets and priorities for the Department's long-term S&T 
research efforts?
    Answer. The Department pursues an integrated and comprehensive S&T 
program, from basic research through manufacturing technology. Long-
term S&T is our ``seed corn.'' DOD programs emphasize integrating basic 
research with applied science and technology, and promoting the 
effective and expeditious transition of discovery and invention into 
real-world applications. Moreover, ``transition'' has become of utmost 
importance, as the success of S&T is not measured simply by the basic 
science it supports, but also by the active and successful transition 
of that science to supporting America's soldiers, sailors, airmen, and 
marines. If confirmed, I will support a balanced program of DOD 
investment in basic research, applied research and advanced development 
across the spectrum of military needs.
    Question. Do you believe there is an adequate investment in basic 
research to develop the capabilities the Department of Defense will 
need in 2020?
    Answer. At this time, the Department's basic research program is 
balanced and appears adequate to support the needs of the warfighter in 
2020. However, the results of the 2005 QDR could emphasize new areas of 
S&T and also affect the level of S&T investment.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain to institutionalizing the transition 
of new technology into existing programs of record and major weapons 
systems and platforms. The Department's fiscal year 2006 budget request 
proposes increases across a spectrum of technology transition programs.
    What are your views on the success of the Department's technology 
transition programs in spiraling emerging technologies into systems?
    Answer. The Department of the Navy has been fairly successful in 
spiraling emerging technologies into systems. Budget submittals 
routinely include improvement changes for our ships, airplanes and 
other systems. That said, it is still a time-consuming and difficult 
process to upgrade many existing weapon systems. For that reason, the 
Department of the Navy took a new approach with the Littoral Combat 
Ship (LCS). The LCS is a multi-purpose ship based on a modular design 
concept wherein the ship itself uses modular design/construction 
approaches, and the weapon systems are being designed to be of a roll-
on/roll-off modular construction. This allows easier reconfiguration, 
quicker and less expensive upgrades with new technology. With the rapid 
pace of technological change and the military's reliance on 
technological advantage, it's evident that DOD will need to improve 
continuously its processes for technology insertion into systems.
    Question. What challenges to transition do you see within the 
Department?
    Answer. Rapid transition of technologies to the warfighter has been 
a continuing difficult issue for the Department of Defense. The 
problems encountered in the past have dealt with the inherently long 
budgeting cycles of DOD and the challenges in providing adequate 
support when systems are fielded quickly. Some modest successes in 
quick reaction programs to speed new technologies to warfighters have 
been achieved, specifically to counter improvised explosive devices 
(IEDs), provide personnel protection and meet other urgent needs. 
However, this is an area that will require continued attention and 
improvement and, if confirmed as Deputy Secretary, will receive my 
personal attention.
    Question. If confirmed, what steps will you take to enhance the 
effectiveness of technology transition efforts?
    Answer. One of the challenges I will face, if confirmed, is to 
provide flexibility for just-in-time application of funds in a highly 
constrained and competitive funding process. Recent years have seen 
many situations in which rapidly evolving threats create needs and/or 
rapidly evolving technologies create opportunities that move faster 
than our normal planning and budget processes were designed to 
accommodate. Notably, we have had some significant successes in quick 
reaction programs that speed new technologies to warfighters to counter 
IEDs, provide personnel protection, improve communications and 
intelligence capabilities, and meet other urgent needs. I am also 
pleased to report that we have been successful across the spectrum of 
transition programs, including those that resolve risks and qualify new 
technologies for insertion into programs of record--programs such as 
Small Business Innovative Research, Advanced Concept Technology 
Demonstrations, Defense Acquisition Challenge Program and several other 
DOD and military department technology transition initiatives.
    If confirmed, I will work to continue to build the trust in the 
Department's technology transition programs that will go hand in hand 
with our requests for increased funding flexibility.

                      CHEMICAL WEAPONS CONVENTION

    Question. The Department does not appear to be on track to 
eliminate its chemical weapons in accordance with the timelines 
established by the Chemical Weapons Convention.
    What steps is the Department taking to ensure that the U.S. remains 
in compliance with its treaty obligations for chemical weapons 
destruction?
    Answer. My understanding is that if the Chemical Demilitarization 
Program continues on its current path, the United States will not meet 
the Convention's extended 100 percent destruction deadline of April 29, 
2012. Accordingly, the Department requested that alternative approaches 
be developed to evaluate whether the deadline can be met using a 
different approach.

                 POST-CONFLICT AND STABILITY OPERATIONS

    Question. The Secretary of Defense is currently considering a new 
directive on post-conflict and stability operations.
    What changes, if any, do you believe the conventional and Special 
Operations Forces need to make to better plan for, and be better 
trained and equipped for, post-conflict and stability operations?
    Answer. With regard to my personal observations, the Department 
should:

        <bullet> Continue to build on ongoing stability operations 
        initiatives within the U.S. Government and clarify roles and 
        responsibilities within DOD;
        <bullet> Incorporate stability operations into all phases of 
        military planning, training and exercises and into professional 
        military education;
        <bullet> Set up a management structure and reporting 
        requirements to ensure that stability operations capabilities 
        are developed in an integrated manner;
        <bullet> Create a comprehensive joint doctrine for stability 
        operations;
        <bullet> Increase involvement of other USG Departments and 
        agencies, international organizations, non-governmental 
        organizations and the private sector into DOD military 
        planning, training and exercises; and
        <bullet> Develop a concept for working with civilian-military 
        teams based on the Provisional Reconstruction Team model used 
        in Afghanistan.

    Question. What changes, if any do you believe are needed to ensure 
that U.S. forces can operate effectively in coordination with foreign 
forces in such operations?
    Answer. Based on my experience as Secretary of the Navy, we have 
been reasonably successful in working interoperability with navies 
throughout the world. We meet regularly with the Chiefs of Naval 
Operations (CNOs) from other countries (for example, in 2003, 55 CNOs 
at the Naval War College at Newport and the Southern Hemisphere CNOs in 
San Diego) and regularly have staff-to-staff interfaces. Additionally, 
the Navy has many joint exercises and operates with other naval 
forces--in the U.S. Central Command area of responsibility, for 
example--and in other key areas throughout the world. I believe that 
the other U.S. military departments have similar regular contact with 
their counterparts throughout the world. In my judgment, high levels of 
interface, joint exercises and compatible equipment have been effective 
in making sure that U.S. and foreign forces can operate together. It 
is, therefore, important that DOD have broad flexibility in training 
with and equipping foreign forces.

                       SPECIAL OPERATIONS FORCES

    Question. Given the current and projected operational and personnel 
tempo for Special Operations Forces, what changes, if any, do you think 
are needed in the size of these forces?
    Answer. The Quadrennial Defense review will consider Special 
Operations Forces (SOF) capabilities to meet the four challenge areas--
traditional, irregular, catastrophic, and disruptive.
    The appropriate mix of capabilities needed to meet all these 
missions will be a primary focus of QDR 2005. Once able to determine 
the right mix of capabilities across the total force, then DOD will be 
positioned to determine what is the appropriate force planning 
construct from which to size the force while keeping current 
operational and future risk within a moderate and acceptable range.
    Question. What steps, if any, do you believe are needed to ensure 
that the immediate demands for direct action in counter-terrorism 
missions do not undermine our ability to conduct an appropriate number 
and quality of special operations foreign training missions?
    Answer. I do not have significant direct experience in this area 
except for the relationship of the U.S. Marines with the SOF and the 
interface of the U.S. Marines with other international Marine forces. 
However, I would be pleased to work with Congress on this important 
issue, if confirmed.

                  COOPERATIVE THREAT REDUCTION PROGRAM

    Question. Do you support the Cooperative Threat Reduction (CTR) 
program?
    Answer. Yes. CTR is an important program that addresses highly 
dangerous WMD, related infrastructure and delivery systems at their 
sources--primarily in the former Soviet states.
    Question. Do you envision a need to expand the CTR program either 
geographically or programmatically?
    Answer. Section 1308 of the National Defense Authorization Act for 
Fiscal Year 2004 provided authority for CTR to conduct activities 
outside the Former Soviet Union (FSU) in special circumstances. CTR's 
first use of this authority is to eliminate poorly guarded chemical 
weapons in Albania. This new authority recognizes that the WMD threat 
is not confined to one region, although we do not expect significant 
expansion of CTR activities outside the FSU. The administration may 
request a modification of section 1308 to make the authority more 
flexible.
    Question. If so, what goals do you believe would be achieved by the 
expansion of the CTR program?
    Answer. Wherever CTR activities occur, the goals should always be 
to address the threat of WMD, related infrastructure or delivery 
systems.

                   TASK FORCE ON NUCLEAR CAPABILITIES

    Question. The Defense Science Board recently established a Task 
Force on Nuclear Capabilities to examine options for the nuclear 
weapons stockpile.
    If confirmed, what role do you expect to play on these issues? Do 
you expect to have any input to the DSB study?
    Answer. The Defense Science Board is an advisory body to provide 
independent advice to senior DOD leadership. The study to which you 
refer was requested by the Secretary of Defense as a part of a broader 
review of the status of the process of the transformation of U.S. 
military capabilities. Upon receipt of their findings and 
recommendations, however, the Department will take them under 
consideration and determine a proper course of action after a detailed 
assessment of the issue.

                       EXECUTIVE AGENT FOR SPACE

    Question. Do you believe that the Under Secretary of the Air Force 
should retain responsibility as Executive Agent for Space? Why or why 
not?
    Answer. I have no preconceived notion regarding the role of the 
Under Secretary of the Air Force as Executive Agent for Space. I 
understand that the former Under Secretary of the Air Force has 
expressed important views on this. Those views will be considered.

                       DELIVERY OF LEGAL SERVICES

    Question. As the Secretary of the Navy, you have observed the 
working relationship between the Navy General Counsel, the Judge 
Advocate General of the Navy, and the Staff Judge Advocate to the 
Commandant of the Marine Corps in providing legal counsel and services 
within the Department.
    What are your views about the responsibility of the Judge Advocates 
General of the Services and the Staff Judge Advocate for the Commandant 
to provide independent legal advice to the service chiefs, particularly 
in the area of military justice and operational law?
    What are your views about the responsibility of staff judge 
advocates within the Services, the Joint Staff, and the combatant 
commands, to provide independent legal advice to military commanders?
    Answer. The Judge Advocates General of the military departments and 
the Staff Judge Advocate to the Commandant, like their civilian 
counterparts, and their staffs provide invaluable service to the 
Department of Defense. Senior leaders within the Department of Defense 
are best served by lawyers at all levels who provide objective and 
candid legal advice that faithfully reflects the law. I am aware that 
Congress addressed the roles of uniformed lawyers in the Ronald W. 
Reagan National Defense Authorization Act for Fiscal Year 2005. 
Congress also mandated the relationships between the legal elements of 
the military departments. The panel has been selected and is beginning 
this important task. I assure you that, if confirmed, I will carefully 
consider the panel's recommendations.

                             TRANSFORMATION

    Question. Secretary Rumsfeld has established transformation of the 
Armed Forces to meet 21st century threats as one of the Department's 
highest priorities and has stated that only weapons systems that are 
truly transformational should be acquired.
    How would you assess the level of risk to each of the Services of 
foregoing or curtailing current acquisition programs in favor of future 
transformation?
    Answer. For 229 years, a strength of the U.S. military has been its 
ability to adapt and change. As the rate of change of technology 
continues to accelerate, it will be even more important that the U.S. 
military keep pace. Recognizing this need, the Department established 
an integrated risk framework for decision making which was first 
articulated in QDR 2001.
    Question. Can we afford this risk considering the current level of 
global threats?
    Answer. Some enemies of the United States have also kept pace with 
technological change and are quick to take advantage. The greater 
institutional risk for DOD is over reliance on traditional platforms 
and delaying the advent of new technologies and systems.

                       BALLISTIC MISSILE DEFENSE

    Question. The fielding of initial elements of the Ground-Based 
Midcourse Defense system has begun as part of the ballistic missile 
defense test bed and for use in an emergency. In accordance with 
section 234 of the Ronald W. Reagan National Defense Authorization Act 
for Fiscal Year 2005, the system has not yet been subject to the 
operational test and evaluation process applicable to other major 
weapon systems.
    What role do you believe independent operational test and 
evaluation should play in ensuring that the Ground-Based Midcourse 
Defense system will work in an operationally effective manner?
    Answer. DOD is committed to conducting operationally realistic 
testing of our missile defense program. Our test program has become 
more robust and realistic over time. I expect that this trend will 
continue.
    I also understand that in November 2004 the Director of OT&E 
(DOT&E) approved the Missile Defense Agency's (MDA) Integrated Master 
Test Program and that he will continue to work closely with MDA to 
ensure an increasingly operationally realistic test program.
    Question. What steps do you believe should be taken to ensure that 
ground-based interceptors will work in an operationally effective 
manner?
    Answer. The ground-based interceptors are designed to be 
operationally effective and the testing to date has demonstrated the 
basic hit to kill functionality. The recent test failures indicated a 
need for more component qualification testing and a more robust 
approach to quality control. Steps have been taken by the Director of 
the Missile Defense Agency to address these shortfalls. DOD expects a 
return to a robust flight program will occur this year to demonstrate 
the interceptor's effectiveness with operationally realistic tests 
agreed upon by the DOT&E.
    Question. The Ballistic Missile Defense System is being developed 
and fielded by the Missile Defense Agency using Research, Development, 
Test, and Engineering funds.
    At what point do you believe that elements of the system should 
transition to the military departments and procurement funds?
    Answer. My personal experience as Secretary of the Navy is that 
systems should transition to the military departments and utilize 
procurement funds when the design is stable, tested and ready for 
production. Until that time, systems should remain in RDT&E where 
greater flexibility is available to make necessary and appropriate 
changes to the design.
    Question. Do you believe that the Department should be developing 
scientific plans for this transition now?
    Answer. Each of the individual missile defense program elements is 
in a different stage of its development; consequently, some are much 
more mature than others.
    I support close collaboration between the Missile Defense Agency 
and the military departments so the Department can understand the 
costs, logistics and other implications of transitioning missile 
defense capabilities to better prepare for transition.

                      SHIPBUILDING INDUSTRIAL BASE

    Question. In a recent letter to several Senators regarding the 
Navy's intent to change the acquisition strategy for the DD(X) program, 
you minimized the value to the Navy of avoiding a sole source 
relationship with a single shipyard for building major surface 
combatants.
    Was avoiding a sole source relationship considered in the Navy's 
decision for adopting a new DD(X) strategy?
    Answer. Competition is a key component of any strategy to control 
costs. The effects on the future ability to hold competitions for 
follow-on surface combatants were factored into the Navy's decision-
making process. However, it is not certain that the acquisition 
strategy for the DD(X) class will force a sole-source environment for 
all future surface combatant work. A given shipyard could compete on 
other work, either commercial or military, and yards that have not 
built surface combatants in the past may choose to enter that line of 
work.
    Question. What are your views on this issue?
    Answer. The decision to review the DD(X) acquisition strategy was 
necessitated due to the number of DD(X) destroyers to be procured 
between fiscal years 2007 and 2011. This DD(X) procurement profile 
represents a build rate of one ship per year versus the two to three 
ships per year previously programmed. The Navy's assessment of the 
impact of the decline in the number of DD(X) hulls in the Future Years 
Defense Plan upon the surface combatant industrial base indicates that 
the remaining workload is not sufficient to support two shipyards in a 
cost-effective level of operation. Building DD(X) in two shipyards at 
the lower build rate is significantly more costly because the overhead 
burden is spread across a reduced business base.
    The revised DD(X) acquisition strategy is intended to reduce ship 
unit cost by concentrating the workload associated with the lower build 
rate at a single shipyard. Navy analysis indicates that sufficient 
production capacity exists in either surface combatant shipyard to 
support a build rate of up to two DD(X) destroyers per year. The Navy 
expects to save in excess of $1 billion over the FYDP by avoiding the 
premium required to maintain a second shipyard building DD(X).
    Question. Have the Navy and the Department of Defense already 
arrived at a conclusion as to how many DD(X) vessels to build before 
having conducted the QDR analysis?
    Answer. The CNO has spoken of a range of total combat ships. In the 
case of DD(X), the draft 30-year shipbuilding plan calls for 8 to 12 
DD(X)s. Clearly, while the QDR will guide future shipbuilding rates, 
the Navy's analysis does not predict procuring more than two per year.

                     LOW DENSITY/HIGH DEMAND FORCES

    Question. If confirmed, how would you address the challenges of the 
Army and Air Force in manning low density/high demand units and officer 
and enlisted career specialties?
    Answer. I have not focused previously on the specific challenges of 
the Army and the Air Force in low density/high demand units. My 
experience with the Navy and Marine Corps has shown that an effective 
way to address the issue is to create incentives for people to pursue 
understaffed specialties. With Navy end strength declining, we have 
created opportunities for Sailors to transfer into other less populated 
ratings. A typical indirect benefit of such rate transfers to the 
Sailor is greater promotion potential. While this is proving to be an 
effective short-term solution, changing our recruiting, training and 
assignment processes will be key to ensuring we have the right numbers 
and skill mix that we need for the future. This is an issue that 
requires constant close monitoring and adjustment as necessary.
    Related to this issue, the Navy has recently undertaken initiatives 
to better support joint requirements to relieve stress on Army forces. 
Specific examples include the training of Navy Masters-at-Arms to 
replace soldiers in detainee operations and the upcoming deployment of 
Navy helicopters for air ambulance and medium lift missions in Iraq. 
Should I be confirmed, I will work with the leadership of the military 
departments to develop specific actions to address this concern.

                         READINESS DEFICIENCIES

    Question. In response to the committee's advance policy questions 
in connection with your previous confirmation hearing, you indicated 
that the Navy had made good progress in meeting readiness deficiencies.
    What do you view as the major readiness challenges that need to be 
addressed in each of the Services, and, if confirmed, how would you 
approach these issues?
    Answer. My experience as Secretary of the Navy is that readiness is 
a direct function of Operation and Maintenance (O&M) dollars available. 
Underfunding O&M adversely affects readiness. On the other hand, 
overfunding O&M does not necessarily provide improvement. Therefore, a 
balance needs to be struck in the O&M account. However, it is 
critically important that O&M adequately fund training, spares, depot 
maintenance, fuel, equipment and the like.
    Question. Section 482 of title 10, United States Code, requires the 
Department to submit a quarterly readiness report to Congress. The 
Department is nearly a year behind in providing this information, and 
has failed to provide the required reports for the last three quarters 
of calendar year 2004.
    If confirmed, would you place a priority on ensuring that the 
Department timely submits the reports required by law under section 
482, title 10, United States Code?
    Answer. If confirmed, I will seek timely submissions of the 
quarterly readiness reports to Congress.

             ARMY AND MARINE CORPS RECRUITING AND RETENTION

    Question. The Army, Army Reserves, Army National Guard, and the 
Marine Corps have experienced shortfalls in achieving recruiting goals. 
Many concerns have been raised about the ability of the ground forces 
to recruit effectively during wartime.
    How would you evaluate the status of the Army, Army Reserve, Army 
National Guard, and the Marine Corps in recruiting and retaining high 
caliber personnel?
    Answer. At this time, I am only qualified to discuss the U.S. 
Marine Corps regarding recruiting and retention of high-caliber 
personnel. The Marine Corps continues to meet its recruiting missions, 
having shipped 13,738 new recruits against an accession mission of 
13,477, 102 percent. The Marine Corps did miss the new contract mission 
in January, February, and March. The Marine Corps is on track to meet 
yearly recruiting goals, however, this recent experience is an 
indicator of increased recruiting difficulties. On the other hand, 
retention is higher than planned, and retention among deployed forces 
is higher than among forces that are not deployed. In the aggregate, 
the Marines do not have a recruiting/retention problem of high-caliber 
personnel, but are taking steps to improve recruiting with particular 
emphasis on improving communications with parents of potential 
recruits. I realize the importance of looking at this problem in depth 
for all the Services.
    Question. What initiatives would you propose? If confirmed, to 
further improve the attractiveness of active and Reserve component 
service?
    Answer. My sense is that we should present the U.S. military as a 
way for young men and women to serve their country and to protect 
freedom and liberty for future generations while also utilizing the 
enhanced enlistment and re-enlistment incentives provided by Congress.

                           ARMY END STRENGTH

    Question. The task of establishing the appropriate size of the 
active-duty Army and budgeting for projected increases in end strength 
have presented challenging issues for the Department and Congress. 
These issues have been compounded by uncertainties associated with 
recruiting for an All-Volunteer Force.
    What recommendations do you have, if any, for changes in the size 
of the Army's Active Force or in the manner in which planning and 
budgeting for this force takes place.
    Answer. Although I am not familiar with the specifics of Army end 
strength, the Secretary of Defense has directed that an extensive 
review of the total force size be undertaken as part of the fiscal year 
2005 QDR.
    Question. The Department of Defense has relied on supplemental 
appropriations to fund increases in end strength and permanent changes 
in force structure, known as ``modularity'' in the Army and ``Force 
Structure Review Group'' for the Marine Corps.
    Do you believe it is sound budgetary and management practice to 
fund these costs through supplemental appropriations rather than 
through the Department's annual budget submissions? Please explain.
    Answer. The annual budget funds daily and predictable requirements 
of the DOD while the supplemental funds less predictable requirements 
like the cost of war and other contingencies. War funding is directly 
related to the pace of operations and the situation on the ground. It 
is not practical to fund a war this dynamic far in advance.

                      INVESTMENT IN INFRASTRUCTURE

    Question. Witnesses appearing before the committee in recent years 
have testified that the military services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in military installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions.
    Based on your private sector experience, do you believe the 
Department of Defense is investing enough in its infrastructure?
    Answer. During my tenure as Secretary of the Navy, I have seen 
continuing, significant progress in solving longstanding housing and 
other facilities concerns, both within the Department of the Navy and 
across the Department of Defense, by embracing private sector practices 
and capabilities. Housing is an excellent example. First pioneered by 
the Department of the Navy, and with the strong support of Congress, 
all the military departments have now moved aggressively to solve their 
longstanding family housing needs through the use of private sector 
capital using public/private ventures. The Department of the Navy has 
secured almost $3 billion in private sector investment from $300 
million of Navy investment in 15 housing privatization projects. The 
Department of the Navy is now pursuing applying privatization benefits 
to solve bachelor housing concerns. Moreover, in the area of facilities 
management, DOD has implemented facilities sustainment and 
recapitalization metrics based on private sector benchmarks.

          APPLICABILITY OF BASE REALIGNMENT AND CLOSURE (BRAC)

    Question. Last year the Army started using emergency authorities to 
buy temporary buildings to station the first of the new so-called 
``modular'' brigades. The Army provided a series of information papers 
to this committee on July 28, 2004, stating that, with respect to these 
10 new brigades, ``Permanent stationing for all units will be fully 
addressed through the BRAC 2005 process.'' However, the Army has 
subsequently qualified this language and removed the direct reference 
to BRAC. Last September when DOD submitted its ``Strengthening U.S. 
Global Defense Posture'' report to Congress, Under Secretary of Defense 
Feith stated in the introduction to that report that ``the Defense 
Department will incorporate its projected overseas posture changes into 
the BRAC 2005 process.'' In testimony before the committee this year, 
the Navy has taken the position that some decisions related to the 
basing of aircraft carriers will be made as part of the base 
realignment and closure (BRAC) process while others will not.
    How does the Department of Defense intend to address these basing 
issues? Will these basing decisions be subject to the review of the 
base closure commission, or will they be presented to Congress using 
the normal authorization and appropriation process?
    Answer. The 2005 base realignment and closure process will permit 
the Department to assess comprehensively its infrastructure assets and 
to rationalize those assets with the Department's force structure and 
mission needs. All military installations in the United States, its 
territories, and possessions are being assessed within this process. 
The Global Defense Posture review resulted in a number of decisions 
that will reposition some U.S. military forces currently permanently 
stationed abroad to domestic installations in the United States. In 
those cases, the BRAC process has been informed by those decisions.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    Question. Since March 2004, you have served as the Department's 
senior official directing implementation of the National Security 
Personnel System (NSPS).
    What are your views of the challenges faced by the Department in 
implementing the NSPS?
    Answer. NSPS is a mission-driven, performance-based system to 
motivate, recognize and reward excellence which will result in an 
overall improvement to mission effectiveness and enhanced national 
security. It is also a significant change, and change is always 
stressful even when beneficial to employees and to the Nation. 
Accordingly, the largest challenge to implementing NSPS is managing the 
change processes. It will require training in both soft skills and in 
training employees and all members of the management organization in 
the implementation processes and procedures. It is vitally important 
that personnel be appropriately trained to implement NSPS fairly across 
DOD.
    Question. If confirmed, what role would you play in the 
Department's implementation of these far-reaching reforms?
    Answer. I expect to remain fully engaged in the NSPS design and 
implementation and continue as the Department's Senior Executive for 
NSPS. The Overarching Integrated Product Team (OIPT) and the Program 
Executive Officer (PEO) will continue to report directly to me, at 
least until publication of the Final NSPS Regulations and until the 
first phase of NSPS is implemented. When direct leadership is 
transitioned, I will continue in an active oversight role.
    Question. Do you believe that the long-term research and 
development mission of the defense laboratories and technical centers 
and the unique recruiting and retention needs of those laboratories and 
technical centers warrant a specialized personnel system tailored to 
their unique mission?
    Answer. Based on progress to date in defining NSPS, I believe that 
the new NSPS system will be sufficiently flexible and adaptable to 
apply eventually across DOD, including laboratories and technical 
centers. The labor relations sections will apply across DOD after 
publication of the Final Regulations, but the Human Resources (HR) 
system will not apply for laboratories and technical centers until at 
least 2008. The law requires that the NSPS system be certified as 
superior to the existing laboratories and technical centers personnel 
system, and my expectation is that that certification will be obtained 
and that the conversion date for the HR system will occur in 2008.

                        UNIFIED MEDICAL COMMAND

    Question. Deputy Secretary Wolfowitz directed the Under Secretary 
of Defense (Personnel and Readiness) to develop a plan for a unified 
medical command in the DOD.
    What are your views on the advantages and disadvantages of a 
unified command structure for military medical programs? and
    If confirmed, how would you assess the impact of a new structure in 
support of joint warfighting capabilities and the delivery of quality 
health care to family members and retirees?
    Answer. While there appear to be many operational and economic 
benefits to a unified medical command in DOD, this is not an area that 
I have personally examined. However, since it appears to offer 
considerable benefit, it will receive my attention as the Deputy, if 
confirmed.

                             SEXUAL ASSAULT

    Question. The Department has made significant progress in 
establishing policies relating to the prevention of sexual assault and 
improved services for its victims. If confirmed, what policy would you 
establish to ensure accountability of commanding officers and all 
senior officials in the Department of Defense for performance of their 
responsibilities with respect to the prevention and identification of 
crimes of sexual assault?
    Answer. DOD established a policy this winter that set high 
standards. If confirmed, I will hold people accountable and responsible 
for their actions to uphold these standards.

                             DETAINEE ABUSE

    Question. Do you believe that the Constitution, laws, and treaty 
obligations of the United States prohibit the torture or cruel, 
inhuman, or degrading treatment or punishment of persons held in DOD 
custody?
    Answer. For me, it is unequivocal that persons held in DOD custody 
will be treated humanely and certainly will not be tortured. Violations 
to this policy cannot be tolerated. More importantly, this has been the 
consistent policy of the President and the Secretary.

                    MILITARY TO CIVILIAN CONVERSION

    Question. Under your leadership as Secretary, the Navy developed an 
aggressive plan to eliminate thousands of medical billets from the 
active and Reserve components.
    What guidance did you give regarding the end state of Navy medicine 
that caused these reductions?
    Answer. The guidance was to ensure operational and other missions 
that required military personnel would not be adversely affected by any 
Navy medical personnel conversions. Guidance also stressed that access 
to health care services should also not be affected.
    Question. Did that guidance include a business case analysis to 
assess the cost and feasibility of converting military medical and 
dental positions to civilians?
    Answer. Yes. Because the majority of Navy medical department 
personnel are required for (and assigned to) support missions or 
platforms that support operations (i.e., fleet hospitals, hospital 
ships), the guidance provided included two significant decision points. 
First, were medical personnel required for a valid operational mission? 
If the answer was yes, those billets were not part of the military-
civilian conversion. If the answer was no, then a business case 
analysis was performed to see if those billets could reasonably be 
converted. If the business case analysis supported that the personnel 
could reasonably be obtained by hiring from the civilian sector, then 
the Navy moved to convert the billets from military to civilian. If the 
business case analysis did not show benefit to the government, the 
Department of the Navy did not move to convert.
    Question. Were the needs of the Army and Air Force taken into 
consideration before eliminating Navy medical assets?
    Answer. Yes, the Navy consulted with the Army and Air Force about 
military billets it converted.
    Question. If confirmed, you would inherit plans for military to 
civilian conversions across all the military departments. How would you 
assess these plans, particularly in terms of actual cost savings for 
the Department?
    Answer. Pending other input, I would assess plans across the 
Department the same way as they were assessed across the Department of 
the Navy; namely, based on operational need and business case analysis.

                           MANAGEMENT ISSUES

    Question. The Government Performance and Results Act (GPRA) is 
intended to provide managers with a disciplined approach--developing a 
strategic plan, establishing annual goals, measuring performance, and 
reporting on the results--for improving the performance and internal 
management of an organization.
    What are your views on this law and your experience with it?
    Answer. GPRA and similar legislative initiatives have had a 
positive impact on the Department. As a businessman, I fully appreciate 
the benefits that clear plans, goals, expectations, and results can 
bring to an organization. For me, as Secretary of the Navy, the 
issuance of annual goals has been a critical joint endeavor with the 
Chief of Naval Operations and the Commandant of the Marine Corps. 
Progress to these goals is measured monthly, and yearly results 
published throughout the Department of the Navy. The tenets of GPRA 
have been reinforced through the President's Management Agenda, which I 
energetically support and will continue to do so if confirmed.
    Question. Are you familiar with the strategic plan, annual 
performance plans, annual accountability report, and financial 
statements of the Department of Defense?
    Answer. Yes. As Secretary of the Navy, I have been responsible for 
direct input to the Annual Defense Report, which serves as the 
Department's performance plan. The Department of the Navy works closely 
with the staff of the Secretary of Defense on the performance 
information in that plan and in the annual accountability report, and 
also provides financial statements.
    Question. What do you consider to be the most important priorities 
and challenges facing DOD as it strives to achieve these management 
goals?
    Answer. Clearly, the Department's first priority must be to provide 
the men and women of our Armed Forces the training, equipment, and 
support necessary for them to do their jobs, while ensuring security 
for their families. The foundation of this effort is an effective and 
agile management system.
    Question. What changes, if any, do you feel might be necessary in 
these plans?
    Answer. It is important for the Department to link strategy, goals 
and individual objectives with a feedback system of metrics to measure 
performance to goals. In this regard, the NSPS system will be most 
helpful. NSPS' pay-for-performance will require definitive and 
measurable goals for every person in DOD. Accordingly, when fully 
implemented, the pay-for-performance system will link the Secretary of 
Defense's goals to the individual performance of each employee and at 
all locations. Since each employee's objectives need to be measurable 
for pay-for-performance determination, a performance feedback system 
will be inherent in the process.
    Question. How would you determine whether the Department has in 
place the key information management processes required by law, 
including a detailed architecture, an investment control process, and 
appropriate information security plans?
    Answer. The Defense Business Systems Management Committee (DBSMC) 
was recently established as the management mechanism for the Department 
to provide direction and oversight of architectures, investments, 
security and measures of effectiveness to support business processes. 
The deputy chairs this committee and, therefore, if confirmed, I will 
be directly responsible for these plans and implementations. This 
management structure will also ensure that DOD business systems comply 
with applicable laws such as the Clinger-Cohen Act.
    Question. If confirmed, what role do you envision you will play in 
managing or providing oversight over these processes?
    Answer. In addition to managing the Department's processes and 
procedures, as the COO and as Chairman of the Defense Business Systems 
Management Committee, I will continue full implementation of the 
President's Management Agenda to fully support the administration's 
goals of more effective and efficient government.
    Question. GAO has consistently stated that cultural resistance to 
change and the lack of sustained leadership are two key underlying 
causes of DOD's inability to resolve its long-standing financial and 
business management problems.
    Do you believe the Department needs to have a single leader with 
sufficient authority and span of control to bring together all of the 
functional areas of the Department and be accountable for the success 
of the Department's management reform efforts?
    If so, how do you believe this function ought to be performed?
    Answer. During my tenure as Secretary of the Navy, this topic has 
been the subject of considerable discussion and debate within DOD and 
with the Government Accountability Office. If confirmed, this question 
will be examined in depth under my cognizance as Deputy. It would be 
premature to speculate on the outcome of these efforts, except to state 
that it is vitally important that the Department have a coherent 
management process to set goals and objectives, measure performance and 
respond rapidly to changing world events. If confirmed as Deputy 
Secretary of DOD, I would continue to work directly with Congress, the 
GAO, independent advisory boards, and the leadership team of DOD to 
address this issue.
    Question. The DOD workforce has undergone significant downsizing in 
the past several years, and with the current labor market, it is 
becoming increasingly difficult to attract and retain talent.
    How would you work to attract and retain individuals with the 
experience, education, and skills needed throughout the Department of 
Defense?
    Answer. Agile military forces on the front lines need an agile 
civilian workforce behind the lines. Congress was highly supportive of 
DOD in passing the NSPS provisions in the 2003 NDAA. NSPS will improve 
the effectiveness of the Department through a modern civilian personnel 
system that will improve the way DOD hires and assigns, compensates and 
rewards employees. This modern, flexible, and agile human resource 
system will be responsive to the national security environment, while 
preserving employee protections and benefits, as well as the core 
values of the civil service. Pay for performance is expected to be an 
important factor in hiring and retaining top performers.
    Question. GAO has consistently taken the position that strategic 
human capital management must be the centerpiece of any serious effort 
to transform the workforce of a government agency. Last June, GAO 
reported that ``DOD and [its] components do not have comprehensive 
strategic workforce plans to guide their human capital efforts. `` In 
particular, GAO found that DOD had consistently failed to analyze the 
gaps between critical skills and competencies in the current workforce 
and those that will be needed in the future.
    Do you believe that strategic human capital management must be a 
centerpiece of any successful effort to address the Department's 
management problems?
    Answer. Our human capital is the most valuable resource within the 
Department of Defense. To recruit and retain top-caliber personnel, it 
is essential that the department have a strategic human capital 
management approach. DOD human capital strategic plan does identify 
gaps in competencies and skills. It needs to ensure that these gaps in 
competencies and skills are continuously updated to reflect new 
missions and technologies of the Department. Personally, I view human 
capital as vitally important to the Department and, if confirmed, will 
ensure that DOD planning is comprehensive and timely.
    Question. If confirmed, what role, if any do you expect to play in 
ensuring that the Department addresses deficiencies in its human 
capital planning?
    Answer. If confirmed, my role as COO will include ensuring that the 
Department's strategic planning and metrics are adequate to safeguard 
against deficiencies and promote the effective use of human capital.

                          FINANCIAL MANAGEMENT

    Question. Four years ago, DOD promised to establish a new business 
enterprise architecture and transition plan to transform its business 
operations. GAO has reported that DOD still does not have a 
comprehensive architecture and transition plan and that the way that 
DOD makes business systems investment decisions remain largely 
unchanged.
    Do you believe that a comprehensive business systems architecture 
and transition plan is the key to reform in this area?
    Answer. Yes. The Department needs a systems architecture, and is 
building one that clearly delineates between the DOD level enterprise 
systems and the component level systems. Just like any large 
corporation that consists of multiple operating divisions, the best 
business systems architecture for an organization of DOD's size is one 
in which clear standards and report elements are defined so that the 
subsidiary organizations can comply with those requirements. With this 
architecture in place, the transition plan will guide migration from 
legacy systems to a transformed end state.
    Question. If so, what role do you expect to play, if confirmed, in 
ensuring that the Department develops and implements such an 
architecture and transition plan?
    Answer. If confirmed as Deputy Secretary of Defense, I will be the 
Chairman of the Defense Business Systems Management Committee and will 
oversee business transformation efforts including the Business 
Management Modernization Program (BMMP).
    Question. Four years ago, senior DOD officials took the position 
that the Department's financial problems had to be attacked at the 
root, by developing and fielding new systems. Over the past 2 years, 
however, the Department has turned in the direction of a new goal of 
having auditable financial statements by as soon as fiscal year 2007, 
even though the military services won't have new business management 
systems in place until 2012 at the earliest. To this end, the 
Department has proposed to increase its audit spending by more than a 
billion dollars over the FYDP.
    Do you believe that it is reasonable for the Department to try to 
get auditable financial statements before it has effective business 
systems in place, or is such an effort likely to result in large 
expenditures on audits without producing sustainable results?
    Answer. That is not a reasonable approach, and it is not the 
approach the Department is taking. The Department understands the time 
involved in delivering new systems, and also recognizes the 
responsibility to be a good steward of taxpayer dollars. For this 
reason, DOD is continuing to improve financial management practices to 
achieve a sustainable audit capability.

                           ACQUISITION POLICY

    Question. What role do you expect to play, if confirmed, in the 
development and implementation of acquisition policy for the Department 
of Defense?
    Answer. I plan to work closely with USD (AT&L) to better align DOD 
acquisition policies to the world environment that exists today. When 
Goldwater-Nichols was enacted, the Nation was in the Cold War, 
acquiring large quantities of defense materials with many new starts 
and a large and diverse industrial base. DOD is now at low rates of 
production with few new starts, a downsized industrial base and the 
vital need to respond quickly to operational needs.
    Question. What steps do you believe the Department should take to 
improve the management and efficiency of its spending on contract 
support services?
    Answer. DOD now spends more on services than on equipment. It is, 
therefore, essential that the Department ensure that services are 
acquired strategically and efficiently.
    Question. What steps do you believe the Department should take to 
improve the management and efficiency of its major defense acquisition 
programs?
    Answer. A business practices/processes IPT has been established as 
part of the QDR to examine the structure of the defense acquisition 
programs, to improve acquisition performance and streamline the 
acquisition of goals and services for the warfighter. I will strive to 
ensure that other management initiatives are coordinated with the QDR.
    Question. The Department has chosen to rely increasingly on so-
called ``incremental'' or ``phased'' acquisition approaches in its 
defense acquisition programs.
    What is your assessment of the benefits and drawbacks, if any of 
incremental and phased acquisition strategies?
    Answer. The use of an ``incremental'' or ``phased'' approach to 
deliver advanced capabilities to the warfighter as expeditiously as 
possible is appropriate for some programs. The principal benefit of 
such an approach is speed of delivery of new technologies or 
capabilities. This is an increasingly important factor as technologies 
mature more rapidly than ever before, and we are engaged in a war with 
an adaptable enemy who has shown an ability to exploit new 
technologies. A challenge with such an approach is ensuring the 
adequacy of processes to properly match desired capabilities with the 
maturing of the new technologies and the availability of budget 
resources to finance acquisitions. I do not, however, endorse 
``incremental'' funding as a means to increase production. Great 
caution needs to be applied to ``incremental'' funding to assure that 
the out-year financial obligations that result can be funded within the 
DOD top line.
    Question. What steps do you believe the Department should take to 
ensure accountability for cost, schedule and performance when it 
pursues incremental and phased acquisition strategies?
    Answer. Accountability for costs, schedule and performance should 
be applied the same for phased acquisitions as for any other 
acquisition.
    Question. The Under Secretary of Defense for Acquisition, 
Technology and Logistics has testified that ``any further reductions 
[in the defense acquisition workforce] will adversely impact our 
ability to successfully execute a growing workload'' and ``Now more 
than ever, I believe we need to increase the size of the acquisition 
workforce to handle the growing workload, especially as requirements 
increase in the coming years.''
    What are your views on this issue?
    Answer. The acquisition process has become too complex, cumbersome 
and slow. Larger organizations do not always provide more effective 
oversight and accountability. The issue of how to better structure and 
resource the acquisition functions of the Department of Defense to 
support wartime operations is under review as part of the Quadrennial 
Defense Review. This effort should provide the Secretary with 
recommendations to make the acquisition processes more effective and 
more attuned to the current acquisition environment.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Secretary of 
Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

            TRANSITION OF SMALL BUSINESS INNOVATIVE RESEARCH

    1. Senator Warner. Secretary England, the Small Business Innovative 
Research (SBIR) program was established in 1982 to meet agency mission 
needs through the use of unique expertise found in the Nation's small 
business community. The Department of Defense (DOD) invests over $500 
million each year in these programs, which have yielded many successful 
results to improve current systems and platforms and to accelerate 
development of new capabilities. The Department has a more limited 
track record in timely transition of technology into major acquisition 
programs and systems. The Office of Management and Budget (OMB) noted 
in a program assessment rating accompanying the fiscal year 2006 budget 
request that the Department had taken no action over the last year to 
implement a recommendation to ``seek to get highly successful awardees 
to enter the mainstream of Defense contracting.'' Each year, small 
businesses who have successfully completed Phase II of the SBIR 
process, and who have technologies available to meet Department 
requirements, visit Congress seeking assistance with transition funds. 
Should the Department pursue a more aggressive approach to funding and 
transitioning successful SBIR Phase II technologies to meet Department 
needs?
    Mr. England. My experience in the Department of the Navy with the 
Small Business Innovative Research Program has been quite positive. The 
SBIR program has been very good for the Department. It includes a large 
business sector of the country not previously involved in support of 
DOD. We have had numerous programs that have gone from SBIR initiatives 
to being fully embedded in acquisition programs. These programs have 
gone on to make a difference in the fleet. The Department of the Navy 
has an aggressive program to move promising programs into mainstream 
contracting. It has exploited the legal advantages that small business 
has in transitioning to major companies. Having worked with small 
businesses while in the private sector, I fully recognize the fragile 
nature of this group as a whole. Funding flow and timing of contracts 
make or break such companies. I believe DOD must have an aggressive 
approach to transitioning successful SBIR initiatives. We have to work 
hard both for the good of small business and for the benefit of the 
Department of Defense. If confirmed, I will aggressively support 
transition of successful SBIR Phase II projects that meet Department 
needs.

    2. Senator Warner. Secretary England, are there best practices 
within the Services such as the Primes Initiative and the Technology 
Assistance Program, that could be disseminated across the Department to 
improve the transition process and time frame and to address internal 
and external transition challenges?
    Mr. England. From my Department of the Navy experience, we have 
several initiatives in which we solicit new small business, help those 
new to the process of working with the government, and make early 
connections of SBIR performers to potential transition customers. These 
customers include both government agencies and relevant potential prime 
contractors. These are practices we share with other DOD and non-DOD 
SBIR managers, and we learn to do better each year. Thus there are 
numerous best practices including the Primes Initiatives and the 
Technology Assistance Program that are shared within the Services and 
Government as a whole.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                   C-130J PROCUREMENT RECONSIDERATION

    3. Senator Inhofe. Secretary England, in early March, Secretary 
Teets, just prior to his retirement, testified before this committee. 
At that time, 30 C-130Es were grounded and another 60 C-130s, both Es 
and Hs, were being restricted due to cracks in the highly stressed 
wingbox area. That is still the case today. Because of the heavy 
employment of the C-130 and the need for additional tactical airlift 
we, as Congress, approved the purchase of the C-130J. A Mobility 
Capability Study was commissioned in order to determine exactly just 
how short we were in strategic and tactical airlift resources. We are 
awaiting the results of this study. I have expressed concern 
repeatedly, as I did with Secretary Teets, about why the Department of 
Defense and the U.S. Air Force decided to cancel the C-130J at this 
time. First, there are extensive termination costs, some say as much as 
$1.3 billion, associated with the cancellation. I cannot understand why 
such a decision would be made without even an estimate of termination 
costs. It should be one of the data points in such a decision. We never 
seem to learn from the past. We did the same thing with the Army's 
Crusader program--no analysis and huge termination costs. Second, the 
Air Force's C-130J cancellation will have an additive impact on the 
cost per unit of the Marine Corps KC-130J. Finally, we don't know 
exactly what the final disposition or cost will be to repair the 90 
grounded and restricted C-130 E and H models. As I have stated, I 
believe we have been quite shortsighted in the cancellation of the C-
130J based on my earlier comments. I think the Air Force and the DOD is 
being ``penny-wise and pound-foolish,'' with regard to this program. As 
a result, both Secretary Teets and General Jumper stated that there 
would be a review of this cancellation.
    You may not be able to comment on the specifics of this matter 
given that it is about the Air Force, at a time when you were focused 
on the Navy. However, I would like you to comment on the way we reach 
these decisions, and how you believe we can improve the process around 
which DOD program cancellation decisions are made.
    Mr. England. I believe all complex program decisions should be made 
in consultation with relevant DOD stakeholders and utilize the best 
available data--including relevant contract termination costs--to make 
the decision. The C-130J decision is being reconsidered based on new 
data. If confirmed, and as I become more knowledgeable of the details 
of this issue, I would be happy then to discuss this specific issue 
with you.

                     BUDGET AND BUSINESS OPERATIONS

    4. Senator Inhofe. Secretary England, a few years ago, Secretary 
Dov Zakheim, DOD Comptroller, addressed the Armed Services Committee. 
He showed us a very complex chart, a ``spaghetti'' chart with lots of 
lines and data showing this committee how we could save a percent of 
DOD budget according to Secretary Rumsfeld if we successfully 
modernized our DOD systems and reduce inefficiencies. I can tell you I 
was very excited about this possibility. In his prepared statement 
before the Readiness and Management Support Subcommittee last week, Mr. 
David Walker, the Comptroller General of the United States, said that 
the DOD has not been all that successful in addressing inefficiencies 
and that ``the Secretary of Defense has estimated that improving 
business operations could save 5 percent of DOD's annual budget.'' This 
is a savings of about $22 billion a year based on the fiscal year 2004 
budget. Personally, I am a little outraged that with all the business 
systems and best practices that we have been translating from the 
private sector, and with the expertise of executives and mid-level 
managers that have been hired into the government, we have not been 
able to realize these results. The realized savings could go a long way 
to addressing the proposed reductions for much needed systems that 
appear to be cut mainly due to budgetary whims since no studies and 
data have been presented to this committee to show the justification 
for these cuts based on future capability or military needs. Is anyone 
working on fixing these business operations issues? What would you 
propose we do in order to capture these unrealized savings?
    Mr. England. There are many people at all levels of the Department 
working to improve our business operations and, if confirmed, I expect 
to play a major role in improving the efficiency and effectiveness of 
our business systems--where there is significant potential for savings. 
Systems modernization is only a part of what it takes to realize such 
savings. In private industry, continuous business process improvements 
result from holding leaders accountable for achieving clear, 
quantifiable and measurable objectives. I would emphasize a similar 
approach for the Department's critical business transformation 
priorities including business systems transformation efforts.

                             TRANSFORMATION

    5. Senator Inhofe. Secretary England, Secretary Rumsfeld has now 
been in office for more than 4 years. When appointed to and confirmed 
for the role as Secretary of Defense, he and his team took on the 
transformation of the military as a critical goal for this 
administration. During the assessment and formulation of the plan for 
this transformation, the tragedy of September 11 struck our great 
Nation and the global war on terrorism began. Since that time, our 
military has been involved in a war unlike any we have seen before. 
Operation Enduring Freedom, followed by Operation Iraqi Freedom, has 
taken our military resources, stretched them and utilized our Active 
Duty, Reserve, and National Guard components in ways that we would not 
have anticipated prior to September 11. These two major campaigns have 
gone very well, with the post-war phase in Iraq now yielding tremendous 
results. I am sure you will agree that though attention on the 
transformation initiative was momentarily diverted, given all that the 
DOD has confronted over these last 4 years, it is now keenly refocused. 
You have been a part of Secretary Rumsfeld's leadership team. As you 
review all that our military has faced since September 11, do you 
believe that we are on the right path for transformation?
    Mr. England. As a Department we have set a strategic course for 
transformation and have promulgated that vision in both our strategic 
documents and by our actions. The Services and the CoComs have 
incorporated our vision of transformation into acquisition programs and 
operational plans. For the Department of the Navy, fiscal year 2006 is 
the first year where all ship procurements will consist of vessels 
designed since the end of the Cold War. The Army Future Combat System 
(FCS) will incorporate networked communications and sensors into each 
vehicle and every soldier's equipment. The Air Force is creating a 
network of persistent long-range surveillance/reconnaissance Unmanned 
Aerial Vehicles like Global Hawk. There are numerous joint programs 
such as the Joint Strike Fighter (JSF) and the Joint Unmanned Combat 
Air Vehicles (J-UCAS). The CoComs are continuously exploiting options 
to employ new, transformational capabilities.

    6. Senator Inhofe. Secretary England, with such current programs 
such as Missile Defense, the Army's Future Combat System, the Air 
Force's F/A-22, and the Navy's need for a new carrier, what are the one 
or two ``must-dos'' to keep this transformation initiative moving 
forward?
    Mr. England. The programmatic efforts to move the transformation 
initiative forward such as those you note plus others such as Joint 
Strike Fighter, MV-22, and U-UCAS are well underway. The actions most 
necessary to keep the transformation initiative moving forward are 
those associated with making sure the Department operates as 
efficiently and effectively as possible. The three most important 
initiatives to this means are the 2005 Base Realignment and Closure 
processes, the deployment of the National Security Personnel System, 
and execution and implementation of the Quadrennial Defense Review.
                                 ______
                                 
              Question Submitted by Senator Susan Collins

                            RELEASE OF FUNDS

    7. Senator Collins. Secretary England, during our discussion at 
your nomination hearing this week, when asked if you were taking a 
second look at the Navy's proposed DD(X) ``one shipyard'' acquisition 
strategy, you responded by saying, ``Senator, look, obviously, we're 
going to do whatever the law of the land is, so if this Congress takes 
action, obviously we're going to do that.'' The enacted fiscal year 
2005 defense appropriations bill specifically directs $84.4 million 
funding ``only for design and advance procurement requirements 
associated with construction of the second (DDX) ship at an alternative 
second source shipyard.'' Why hasn't the Navy and the Office of the 
Secretary of Defense (OSD) released these funds, given the unambiguous 
law and clear direction from Congress?
    Mr. England. OSD has released the $84.4 million Advance Procurement 
funds to the Navy but they are on hold pending conduct of Milestone B 
and a decision on the shipbuilder portion of the acquisition strategy. 
The DD(X) acquisition strategy requires a successful Milestone B review 
prior to proceeding with ship detail design and construction. The Navy 
is currently in discussions with OSD as to when to conduct the 
Milestone Review to evaluate the shipbuilder portion of the strategy. 
The Navy is also reviewing its acquisition strategy options in light of 
congressional action and is developing a way to proceed.
    USD (AT&L) has authorized actions to separate the systems 
development and the software development contracts from the shipbuilder 
detail design effort. Actions are being taken to implement this change 
immediately and award those contracts using lead ship advance 
procurement funds.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                        CHIEF MANAGEMENT OFFICER

    8. Senator Levin. Secretary England, for several years, the 
Government Accountability Office (GAO) has reported that DOD continues 
to confront pervasive, decades-old management problems related to 
business operations that waste billions of dollars annually. GAO 
recently testified on key elements needed to successfully transform 
DOD's business operations, including the need to create a full-time, 
executive level II position for a Chief Management Official (CMO), who 
would serve as the Deputy Secretary of Defense for Management. This 
position would be filled by an individual appointed by the President 
and confirmed by the Senate, for a set term of 7 years with the 
potential for reappointment. Senators Ensign, Akaka, and Voinovich 
recently introduced legislation to create this CMO position. What is 
your position on the proposed legislation for creating a CMO at DOD who 
would serve as the Deputy Secretary of Defense for Management?
    Mr. England. My recommendation is that the Senate take no action on 
this legislation until I have had sufficient time after confirmation to 
review the overall structure of DOD and decide on an appropriate course 
of action. If I am confirmed, the management of the Department will be 
a high priority, and this topic has been discussed with Secretary 
Rumsfeld. While I am open to a potential position of a Chief Management 
Officer within DOD, that is not a foregone conclusion. Rather, I would 
appreciate the opportunity to gain hands-on experience and then make a 
recommendation based on a better understanding of the full spectrum of 
DOD processes and operations.

    9. Senator Levin. Secretary England, if Congress creates this 
position, what term limits should be set? What is your position on a 7-
year term?
    Mr. England. My suggestion is that the Congress not create this 
position until Secretary Rumsfeld and I (if confirmed) have an 
opportunity for further examination and determination of the best 
management structure for DOD. If we conclude that a Chief Management 
Officer is appropriate, then we will also make recommendations for a 
specific term limit.

    10. Senator Levin. Secretary England, if you do not support the 
concept of a CMO, how will the Department address the significant 
problems that have resulted in the addition of a number of DOD's key 
business operations to GAO's High-Risk List of government programs and 
activities at risk of waste, fraud, abuse, and mismanagement and how 
will DOD demonstrate results and progress in successfully transforming 
its business operations to the committee?
    Mr. England. If confirmed, my general approach will be to set 
specific objectives with schedules and appropriate metrics that address 
all business aspects of the Department. My initial judgment is that we 
need to greatly simplify business processes within DOD and better align 
authority and responsibility. That said, it may still be appropriate to 
have a Chief Management Officer to assist the Deputy Secretary to 
better accomplish this task. I can assure that I am very open on this 
subject and will recommend whatever is most appropriate to achieve 
maximum efficiency and effectiveness in the Department.
                                 ______
                                 
               Question Submitted by Senator Bill Nelson

                       KENNEDY AIR CRAFT CARRIER

    11. Senator Bill Nelson. Secretary England, on April 20, 2004 in 
your speech before the Jacksonville Chamber of Commerce and Northeast 
Florida Navy League, it was reported by the Florida Times Union, 
``England said JFK would return and remain at Mayport until it is 
decommissioned in 2018.'' Then in December you called me to announce 
that the Kennedy would be mothballed. Please explain this discrepancy.
    Mr. England.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
    [The nomination reference of Gordon R. England follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 7, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Gordon R. England, of Texas, to be Deputy Secretary of Defense, 
vice Paul D. Wolfowitz, resigned.
                                 ______
                                 
    [The biographical sketch of Gordon R. England, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

             Biographical Sketch of Hon. Gordon R. England

    Gordon England was confirmed as the 73rd Secretary of the Navy on 
26 September 2003 and sworn in on 1 October. He becomes only the second 
person in history to serve twice as the leader of the Navy-Marine Corps 
Team and the first to serve in back-to-back terms. Prior to his return 
to the Navy Department he was the first Deputy Secretary of the 
Department of Homeland Security. The Department of Homeland Security 
was established on January 24, 2003, to integrate 22 different agencies 
with a common mission to protect the American people.
    Secretary England served as the 72nd Secretary of the Navy from May 
24, 2001, until he joined the Department of Homeland Security in 
January 2003. As Secretary of the Navy, Mr. England leads America's 
Navy and Marine Corps and is responsible for an annual budget in excess 
of $110 billion and more than 800,000 personnel.
    Prior to joining the administration of President George W. Bush, 
Mr. England served as executive vice president of General Dynamics 
Corporation from 1997 until 2001. In that position he was responsible 
for two major sectors of the corporation: Information Systems and 
International. Previously, he served as executive vice president of the 
Combat Systems Group, president of General Dynamics Fort Worth aircraft 
company (later Lockheed), president of General Dynamics Land Systems 
Company and as the principal of a mergers and acquisition consulting 
company.
    A native of Baltimore, Mr. England graduated from the University of 
Maryland in 1961 with a bachelor's degree in electrical engineering. In 
1975 he earned a master's degree in business administration from the 
M.J. Neeley School of Business at Texas Christian University and is a 
member of various honorary societies: Beta Gamma Sigma (business), 
Omicron Delta Kappa (leadership) and Eta Kappa Nu (engineering).
    Mr. England has been actively involved in a variety of civic, 
charitable and government organizations, including serving as a city 
councilman; Vice Chair, Board of Goodwill, International; the USO's 
Board of Governors; the Defense Science Board; the Board of Visitors at 
Texas Christian University; and many others.
    He has been recognized for numerous professional and service 
contributions from multiple organizations such as Distinguished Alumnus 
Award from the University of Maryland; the Department of Defense 
Distinguished Public Service Award; the Silver Beaver Award from the 
Boy Scouts of America; the Silver Knight of Management Award from the 
National Management Association; the Henry M. Jackson Award and the 
IEEE Centennial Award.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gordon R. 
England in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.


                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Gordon Richard England.

    2. Position to which nominated:
    Deputy Secretary of Defense.

    3. Date of nomination:
    April 7, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 15, 1937; Baltimore, MD.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Dorothy Marie Hennlein.

    7. Names and ages of children:
    Gordon England, Jr., 42; Margaret Kristen Rankin, 39; and Marisa 
Claire Walpert, 32.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Graduate, Mount St. Joseph High School, Baltimore, Maryland, 1951-
1955, June 1955.
    University of Maryland, College Park, Maryland, 1956-1961, BSEE, 
June 1961.
    Graduate, Texas Christian University, 1968-1975 (night school), 
MBA, May 1975.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    10/03-present  Secretary of the Navy, Department of Defense, 
Pentagon.
    1/03-9/03  Deputy Secretary, Department of Homeland Security, 
Nebraska Avenue Complex.
    5/01-1/03  Secretary of the Navy, Department of Defense, Pentagon.
    3/97-4/01  Executive Vice President, General Dynamics Corporation, 
Headquarters, Falls Church, VA.
    3/95-3/97  CEO, GRE Consultants, Inc., Fort Worth, TX.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Benbrook Texas City Council and mayor pro tem, 1982-1986, no party 
affiliation.
    Member of the Defense Science Board from 1991 to 1996.
    Member of the Defense Science Board Acquisition Subpanel, 1997 to 
1998.
    Member of the Defense Science Board Task Force on Globalization and 
Security, 1998 to 1999.
    National Research Council, Vice Chairman of Study on the Future of 
U.S. Aerospace Infrastructure, 2000-2001.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Omicron Delta Kappa (leadership).
    Member, Beta Gamma Sigma (business).
    Member, Eta Kappa Nu (engineering).
    Lifetime member, Navy League of the United States (Mr. and Mrs. 
England).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    GD PAC contributions (withheld from paycheck).
      2000-$1,000.

    Personal Contributions.
      2005--Kay Granger Re-Election--$2,000.
      2004--Armendariz Klein Campaign--$500.
      2004--Kay Granger Campaign Fund--$2,000.
      2004--Bush-Cheney 2004 (Primary) Inc.--$2,000. (G. England)
      2004--Bush-Cheney 2004 (Primary) Inc.--$2,000. (D. England)
      2003--Kay Granger Re-Election--$2,000.
      2002--Good Government Fund (Senator Kay Bailey Hutchinson 
sponsor)--$5,000.
      2002--Congressman Joe Barton Committee--$2,000.
      2001--Kay Granger Re-Election Campaign Event, April 11, 2001--
$1,000.
      2000--Johnson for Congress 2000--$1,000.
      2000--Texas Freedom Fund--$1,000.
      2000--Texas Freedom Fund--$1,000.
      2000--Tiahrt for Congress--$1,000.
      2000--Re-Election Campaign of Cong. Chet Edwards--$1,000.
      2000--Common Sense, Common Solutions PAC--$500.
      2000--Lazio 2000--$2,000.
      2000--RNC Victory 2000--$2,000.
      2000--Texas Freedom Fund PAC, Inc.--$1,000.
      2000--Kay Granger Campaign Fund--$1,000 (by Dorothy H. England)
      2000--Kay Granger Campaign Fund--$1,000.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Henry M. Jackson Distinguished Service Award.
    Distinguished Alumnus Award for 2002, University of Maryland.
    DOD Medal for Distinguished Public Service.
    Department of the Air Force Exceptional Public Service Award.
    Department of the Army Exceptional Public Service Award.
    Honorary Doctor of Science, School of Engineering, Oakland 
University.
    Louis V. Koerber Patriotism Award.
    Citizen of the Year, Goodwill Industries, Fort Worth.
    Distinguished Alumnus of 2005, Texas Christian University.
    Silver Knight of Management Award, National Management Association.
    Silver Award, National Defense Industrial Association.
    Selected to Aviation Heritage Hall of Fame, Fort Worth.
    Institute of Electrical and Electronics Engineering Centennial 
awardee.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Boston Herald--U.S.S. Constitution, a reminder of our heroes, July 
4, 2002.
    Washington Times--Chief Executive Transformed--September 10, 2002.
    Naval Institute Proceedings--One Team--One Flight--November/
December 2002.
    Sea Power Magazine--Our Mission is Clear--December 2001.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Please see attached copies of speeches.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Gordon R. England.
    This 14th day of April 2005.

    [The nomination of Gordon R. England was reported to the 
Senate by Chairman Warner on July 29, 2005, with the 
recommendation that the nomination be confirmed. Mr. England 
received a recess appointment as Deputy Secretary of Defense on 
January 4, 2006. The nomination was confirmed by the Senate on 
April 6, 2006.]
                              ----------                              

    [Prepared questions submitted to ADM Michael G. Mullen, 
USN, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms, particularly in your 
joint assignments as Commander, Striking Fleet Atlantic/U.S. Second 
Fleet, and Commander, Joint Force Command Naples/U.S. Naval Forces 
Europe.
    Do you support full implementation of these defense reforms?
    Answer. Yes. I strongly support full implementation of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986. 
These changes were the right approach and have resulted in a stronger, 
more capable and responsive defense organization.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe that we have made great strides in implementing 
these defense reforms and these reforms have enhanced our Nation's 
warfighting capabilities. Examples include the changes I've seen in my 
current assignment in Europe and the U.S. military's support of 
Operations Enduring Freedom and Iraqi Freedom. In the European Theater, 
it is clear many other nations have adopted similar reforms and are 
moving in the right direction.
    I also believe there is room for improvement. The future lies in 
leading and supporting coalition forces and this will require further 
integration of these reforms. We have made major progress in developing 
joint perspectives. It is now time to examine joint educational 
requirements, joint billet structure and joint service credit to ensure 
we are best postured, from a statutory point of view, for the 21st 
century. If confirmed, one of my goals will be to the make the Navy a 
more joint force.
    Finally, additional reforms are required, I believe, in the 
acquisition process to ensure that new systems are in full compliance 
with joint interoperability requirements, and in improving the 
coordination and interaction between the uniformed requirements 
personnel and the civilian acquisition professionals to deliver systems 
which are ``born joint.'' Among the greatest risks facing us is the 
spiraling cost of the procurement of modern military systems. 
Additionally, implementation of the act's provisions giving ``sole 
responsibility'' for acquisition to the Service Secretaries has 
effectively cut the Service Chiefs out of the acquisition process. The 
voice of the Service Chiefs in the process should be enhanced.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I believe the most important aspect of these defense 
reforms is the emphasis and commitment to joint warfighting with 
commensurate regard for each of the Service's core competencies. I 
believe our Nation has been well-served by operations conducted under 
the command of regional combatant commanders with joint forces from all 
the Services. As noted above, this is critical for the success of 
future operations and missions.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been expressions of interest and 
testimony from senior military officers recommending modifications to 
Goldwater-Nichols.
    Do you believe that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am not familiar with any particular legislative proposals 
to amend Goldwater-Nichols. However, after 20 years, a comprehensive 
review might be an idea worthy of consideration. If confirmed, I will 
work closely with the Secretary of Defense and Secretary of the Navy if 
I see the need to seek improvements.
    Question. What do you understand the role of the Chief of Naval 
Operations to be under the Goldwater-Nichols Act relative to the 
Secretary of Defense, the Secretary of the Navy, the Chairman of the 
Joint Chiefs of Staff, the other members of the Joint Chiefs, and the 
combatant commanders?
    Answer. I am comfortable with the Chief of Naval Operations' (CNO) 
interaction with these principal leaders. If confirmed, I will work for 
the Secretary of Defense and the Secretary of the Navy, who will be my 
direct civilian superior. Along with the other Service Chiefs, I will 
be a member of the Joint Chiefs of Staff (JCS) tasked with the 
responsibility for actively reviewing and evaluating military matters 
and offering professional military advice on any issues relevant to our 
national defense. Finally, Title X makes the CNO responsible for 
organizing, training, and equipping forces in support of the combatant 
commanders with whom I will endeavor to foster close working 
relationships.

                             RELATIONSHIPS

    Question. Section 5033 of title 10, United States Code, discusses 
the responsibilities and authority of the Chief of Naval Operations. 
Section 151 of title 10, United States Code, discusses the composition 
and functions of the Joint Chiefs of Staff, including the authority of 
the Chief of Naval Operations, as a member of the Joint Chiefs of 
Staff, to submit advice and opinions to the President, the National 
Security Council, or the Secretary of Defense. Other sections of law 
and traditional practice, also establish important relationships 
outside the chain of command. Please describe your understanding of the 
relationship of the Chief of Naval Operations to the following offices:
    Secretary of Defense
    Deputy Secretary of Defense
    The Under Secretaries of Defense
    The Chairman of the Joint Chiefs of Staff
    The Vice Chairman of the Joint Chiefs of Staff
    The Secretary of the Navy
    The Under Secretary of the Navy
    The Assistant Secretaries of the Navy
    The General Counsel of the Navy
    The Judge Advocate General of the Navy
    The Commandant of the Marine Corps
    The Chiefs of Staff of the Army and Air Force
    The combatant commanders
    Answer.
Secretary of Defense
    The Secretary of Defense is the principal assistant to the 
President in all matters relating to the Department of Defense. As a 
Service Chief and member of the Joint Chiefs of Staff, the Chief of 
Naval Operations is a military adviser to the Secretary of Defense, 
particularly regarding matters of naval warfare, policy, and strategy.
Deputy Secretary of Defense
    The Deputy Secretary of Defense, on occasion, serves as acting 
Secretary in the absence of the Secretary. During these periods, my 
relationship with the Deputy Secretary will essentially be the same as 
with the Secretary. The Deputy Secretary is also responsible for the 
day-to-day operation of the Department of Defense. If confirmed, I will 
endeavor to regularly interact with him and provide him with the best 
possible professional military advice and the same level of support as 
I would the Secretary.
The Under Secretaries of Defense
    Under current DOD Directives, Under Secretaries of Defense 
coordinate and exchange information with DOD components, to include the 
services, in the functional areas under their cognizance. If confirmed 
as CNO, I intend to respond and reciprocate. If confirmed, I will use 
this exchange of information as I communicate with the CJCS and provide 
military advice to the Secretary of Defense.
The Assistant Secretaries of Defense
    All assistant secretaries are subordinate to one of the Under 
Secretaries of Defense with two exceptions. This means that any 
relationship I would have with subordinate assistant secretaries would 
be with and through the applicable Under Secretary of Defense. Since 
the Assistant Secretaries of Defense for C3I and Legislative Affairs 
are principal deputies to the SECDEF, my relationships with them would 
be conducted along the same lines as those with the various under 
secretaries. Additionally, if confirmed as CNO, I intend to foster 
collaborative working relationships with the civilian leadership in the 
Office of the Secretary of Defense and to consult with them on matters 
within their respective areas of responsibility.
The Chairman of the Joint Chiefs of Staff
    If confirmed, I look forward to working with and through the 
Chairman in the execution of my newly assigned duties as the Chief of 
Naval Operations member of the Joint Chiefs of Staff. My statutory 
responsibility as a Service Chief would be to provide properly 
organized, trained, and equipped forces to the combatant commanders to 
accomplish their military missions and to provide military advice to 
the President and Secretary of Defense.
The Vice Chairman of the Joint Chiefs of Staff
    When functioning as the acting Chairman, the Vice Chairman's 
relationship with combatant commanders is exactly that of the chairman. 
The 103rd Congress amended Title 10 to give the Vice Chairman the same 
rights and obligations of other members of the Joint Chiefs of Staff. 
If confirmed, I would exchange views with the Vice Chairman on any 
defense matter considered by the Joint Chiefs of Staff. The Vice 
Chairman also heads or plays a key role on many boards that affect 
readiness and programs and, therefore, the preparedness of naval 
forces. If confirmed, I will endeavor to establish a close relationship 
with the Vice Chairman on these critical issues.
The Assistant to the Chairman of the Joint Chiefs of Staff
    The Assistant to the Chairman represents the Chairman in the 
interagency process; while there is no command relationship between the 
Assistant to the Chairman and a Service Chief, informal exchanges of 
view are of mutual benefit. If confirmed, I would expect to participate 
in such exchanges, especially regarding initiatives and support for the 
global war on terror. In addition, if confirmed, I would be committed 
to exploring methods of improving interagency cooperation, including 
interagency participation on the staffs of combatant commanders.
The Director of the Joint Staff
    The Director of the Joint Staff is generally the Joint Staff point 
of contact for soliciting information from the combatant commanders as 
the chairman develops a position on an important issue.
The Secretary of the Navy, the Under Secretary of the Navy, the 
        Assistant Secretaries of the Navy, the General Counsel of the 
        Navy, the Judge Advocate General of the Navy, and the Secretary 
        of the Navy
    Statutorily, the CNO performs his duties under the authority, 
direction, and control of the Secretary of the Navy. Specifically, the 
CNO is responsible for providing properly organized, trained, and 
equipped forces to support the Combatant Commanders in the 
accomplishment of their missions. In addition, the CNO assists the 
Secretary of the Navy, through the OPNAV staff, in the development of 
plans and recommendations for the operation of the Department of the 
Navy. In my opinion, the interaction and coordination between these two 
organizations and staffs has improved markedly during the last 4 years, 
to the direct benefit of the readiness of our Navy. There is a much 
more collaborative environment within the Department of the Navy, and 
if confirmed, I intend to work closely with the Secretary of the Navy 
to continue this positive progress.
The Under Secretary, the Assistant Secretaries and the General Counsel
    These principals of the Secretary of the Navy, and their staffs, 
work to implement the Secretary's vision for the Navy and Marine Corps 
of tomorrow. If confirmed, I will work closely with each of them to 
achieve the Secretary's goals.
The Judge Advocate General of the Navy
    Under 10 USC Sec. 5148(d), the Judge Advocate General (JAG) of the 
Navy performs duties relating to any and all Department of Navy legal 
matters assigned to him by SECNAV. The JAG provides and supervises the 
provision of all legal advice and related services throughout the 
Department of the Navy, except for the advice and services provided by 
the General Counsel.
    It is important that the CNO receive independent legal advice from 
his senior uniformed judge advocates. He/she is a significant component 
of the Department's legal service infrastructure and performs functions 
that are essential to the proper operation of the Department as a 
whole. I believe that no officer or employee of the DOD may interfere 
with the ability of the JAG to give the CNO independent legal advice.
    If confirmed, I will endeavor to establish a close working 
relationship with the JAG and will seek his/her independent legal 
guidance.
The Commandant of the Marine Corps
    I believe there is a close historical, operational and joint 
relationship between the Navy and the Marine Corps. If confirmed, my 
relationship with the Commandant of the Marine Corps must necessarily 
be exceptionally close. Many of our capabilities, programs, and 
personnel issues are inextricably linked; our forces deploy together, 
and both must be ``ready on arrival.'' If confirmed as CNO, I will work 
to make the Navy-Marine Corps team stronger wherever possible
The Chiefs of Staff of the other Services
    In my view, the only way for our Armed Forces to be truly effective 
on behalf of this Nation is to work together, to recognize each other's 
strengths and to complement each other's capabilities. We can--and 
must--achieve synergy in warfare, training, and procurement to ensure 
each Service contributes optimally to joint and combined operations. If 
confirmed, I am absolutely committed to making the relationships with 
my counterparts as mutually beneficial as possible and to enhance, 
wherever possible, joint interoperability and other aspects of the 
joint relationship in order to improve the warfighting capabilities of 
the United States.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Chief of Naval Operations?
    I think the major challenges confronting the next Chief of Naval 
Operations are:

    1) the need to maintain and sustain our Navy's current readiness, 
to deliver for the President and this nation exactly the right combat 
capability for exactly the right cost--today. Admiral Clark's 
innovative organizational and financial reforms these last 5 years have 
produced a Navy far more combat-ready than it has been since the end of 
the Cold War. One need look no further than the Navy's extraordinary 
contributions to Operations Enduring and Iraqi Freedom or our rapid 
response in support of East Asian nations hit by the devastating 
tsunami in December to see the truth in that statement. We are, as one 
journalist recently so aptly put it, a ``force for good,'' but we 
cannot rest on those laurels;
    2) the need to build the Navy of the future--to create a Fleet that 
is properly sized and balanced to meet head-on the uncertain and 
dynamic security environment that awaits us over the next 20 to 30 
years. I believe our Navy must be prepared to fight major conflicts 
against aggressor states while simultaneously dealing with the 
asymmetric warfare this global war on terror will continue to present. 
We are ready now for the war we are fighting, but we are not yet 
appropriately shaped for the types of threats we will most assuredly 
face in the future, and
    3) the need to likewise shape the Navy's manpower and personnel 
system for the 21st century--to transform a Cold War-era assignment, 
distribution and compensation system into one that is more reflective 
of and, quite frankly, more responsive to the unique and incredible 
talent of the men and women serving our Navy today. Our readiness--
current and future--is inextricably tied to the growth and development 
of our people and to the quality of service we provide them and their 
families. I believe that, though we are clearly winning the battle for 
talent, the marketplace for that talent will grow increasingly 
competitive in the future. Admiral Clark's emphasis this year on the 
development of a Human Capital Strategy is well-placed and, in my view, 
an imperative for the future.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I plan to focus my efforts early and firmly 
on these three challenges.
    I will ensure we continue to put to sea a combat-ready Navy through 
the tenets of the Fleet Response Plan, and that through this plan we 
remain a rotational force for the Nation--forward deployed, fully 
engaged and surge capable. I believe strongly in the notion of 
``presence with a purpose'' and will work hard to provide the President 
and the people of the United States a Navy that can--and will--be where 
they need it to be, when they need it to be there. Likewise, if 
confirmed, I plan to ensure our units are ready for combat operations 
earlier in the training and maintenance cycles, and that they remain so 
for a longer period of time, generating a higher return on our 
country's investment. Thus, I intend to advance our Integrated 
Readiness Capability Assessment (IRCA) process.
    Having held joint command and served these last 6 months as a NATO 
commander in Europe, I am well-versed in the importance of joint and 
combined operations. I know the Navy brings to the fight unique 
maritime and expeditionary warfighting capabilities, but I also realize 
that such capabilities are only as good as the contribution it makes to 
the overall strategic effort. If confirmed, I plan to work to improve 
``jointness'' in the Navy--from a systems acquisition, operational 
planning and execution, and manpower perspective. I am convinced this 
is one, very significant way we can increase both the effectiveness and 
the efficiency of our current operational readiness. If the war on 
terror has taught us nothing else, it is that the future of national 
and international security lies in mutual cooperation and 
interoperability--not only with our sister services but also with 
allies, coalition partners, and a host of corporate and nongovernmental 
agencies.
    As to the challenge posed by building our future Navy, I intend to 
remain true to the vision articulated in Sea Power 21. Through that 
vision--and its pillars of Sea Strike, Sea Shield, and Sea Basing--I 
believe the Navy has laid the groundwork to truly transform itself for 
the century to come. If confirmed, I will focus my efforts on 
evaluating the composition and capabilities required to make that 
transformation a reality and will work with the Secretary of Defense, 
Congress, and industry to more effectively and efficiently deliver to 
the Nation those precise capabilities, as well as the fleet that will 
take them to sea.
    In particular, I believe we must continue--through Sea Enterprise--
to reap the savings necessary to buy our future Navy and to balance our 
investments with those of our sister services. Continued increased 
productivity is vital as well. We must aggressively pursue the 
acquisition of systems that are ``born joint,'' and we must be 
courageous enough to further accelerate the testing and fielding of 
these new systems. Technology is changing--and our enemies are 
adapting--far too fast for us to remain hamstrung by Cold War era 
procurement practices. In a similar vein, I am convinced the 
shipbuilding challenge before us is significant and portends to stifle 
the development of the very Navy we will need to win this war on terror 
and protect the homeland. If confirmed, I look forward to working 
closely with OSD, Congress, and industry leaders to develop a 
shipbuilding plan that delivers the fleet our Nation needs to prevail 
in war and live in peace.
    Finally, as we build this future Navy, we must stay mindful of the 
impact our decisions have on our people and their families. Recruiting 
and retaining the very best talent and providing these brave men and 
women meaningful, rewarding career opportunities remains critical to 
the readiness and combat capability of our Navy. If confirmed, I will 
aggressively pursue the development of a Human Capital Strategy that 
maximizes the potential of all who serve, be they active, Reserve, or 
civilian. We will continue to pursue the kinds of new technologies and 
competitive personnel policies that will streamline both combat and 
non-combat personnel positions, improve the two-way integration of 
active and Reserve missions, and reduce the Navy's total manpower 
structure.
    We expect to be a better educated and trained, but smaller, 
workforce in the future. Getting there will likely require changes in 
the way we recruit, assess, train and manage the workforce. It will, 
therefore, also require some flexible authorities and incentive tools 
to shape both the career paths and our skills mix in ways that let us 
compete for the right talent in a competitive marketplace.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the execution of the functions of the Chief of Naval Operations?
    Answer. In my view, the most serious problems that the next Chief 
of Naval Operation will face in terms of executing his duties are: 
ensuring cost effective readiness while achieving increased 
productivity; properly balancing current resources allocated to 
maintain, train, and equip the Navy; obtaining the necessary resources 
to build the future Navy; managing personnel through an outdated, 
cumbersome manpower system; improving the speed, agility, and 
flexibility of naval forces; and reconciling acquisition policies and 
methodologies to meet our needs.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. Mindful of both the results of BRAC and the QDR, if 
confirmed, I will move immediately to review in-place execution issues 
in the fleet; craft a clear, concise vision and execution plan; develop 
a plan to track real savings for future use; aggressively pursue the 
development--and delivery--of a 21st century Human Capital Strategy; 
maintain and strengthen organizational, financial, and operational 
alignment across our Navy; work closely with OSD, Congress, and 
industry leaders to develop a shipbuilding plan that delivers the fleet 
our Nation needs; foster amongst our Navy's four-star admirals a broad 
and productive guiding coalition; and deepen the relationship between 
our Navy and the U.S. Marine Corps.

   STATUTORY AUTHORITY OF THE OFFICE OF THE CHIEF OF NAVAL OPERATIONS

    Question. Chapter 505 of title 10, United States Code, provides the 
statutory framework for the Office of the Chief of Naval Operations and 
delineates the authority and duties of the Chief of Naval Operations, 
Vice Chief of Naval Operations, the Deputy Chiefs of Naval Operations, 
and Assistant Chiefs of Naval Operations.
    Based on your extensive experience serving in the Office of the 
Chief of Naval Operations, what recommendations for legislative changes 
do you have, if any, to chapter 505?
    Answer. I do not currently have any recommendations for legislative 
changes for chapter 505. I believe the current authority is appropriate 
and commensurate to the many designated duties required of the Chief of 
Naval Operations. If confirmed and if I do have any recommended 
changes, I will work closely with the Secretary of the Navy on such 
initiatives.

                             QUALIFICATIONS

    Question. Section 5033 of title 10, United States Code, requires 
the Chief of Naval Operations to have had significant experience in 
joint duty assignments, including at least one full tour of duty in a 
joint duty assignment as a flag officer.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I believe I am qualified to serve as Chief of Naval 
Operations and have significant experience in the duties required. I 
had the privilege of six command tours from which I gained a solid 
operational foundation. I have served in two joint flag positions: 
Commander Striking Fleet Atlantic and currently as Commander, Allied 
Joint Force Command Naples, Italy. Further, I served in the Office of 
the Secretary of Defense, completed four tours at Navy Headquarters, a 
tour with the Bureau of Naval Personnel and one in naval training. I 
have an MS in Operations Research and Analysis from our Naval Post 
Graduate School, and I completed an Executive Business Course at 
Harvard University. Finally, I believe my programmatic background and 
experience will be beneficial in leading the Navy through the fiscal 
challenges that lie ahead.

            UNITED NATIONS CONVENTION ON THE LAW OF THE SEA

    Question. At her confirmation hearing in January, Secretary of 
State Rice expressed the administration's strong support for the U.N. 
Convention on the Law of Sea. She stated that she would work with the 
Senate leadership to bring the Convention to a vote during this 
Congress. You have been a strong advocate of the Convention and 
testified in favor of its ratification before congressional committees 
in 2003 and 2004.
    Do you continue to support United States accession to the United 
Nations Convention on the Law of the Sea?
    Answer. Yes, I support United States' accession to the Law of the 
Sea Convention, and I believe that joining the Convention will 
strengthen our military's ability to conduct operations.
    Question. In your opinion, is this Treaty in the national security 
interest of the United States? If so, why?
    Answer. Yes, I believe that accession to the Law of the Sea 
Convention is in national security interest of our Nation. The basic 
tenets of the Law of the Sea Convention are clear and the U.S. Navy 
reaps many benefits from its provisions. From the right of unimpeded 
transit passage through straits used for international navigation, to 
reaffirming the sovereign immunity of our warships, providing a 
framework for countering excessive claims of other states, and 
preserving the right to conduct military activities in exclusive 
economic zones, the Convention provides the stable and predictable 
legal regime we need to conduct our operations today and in the future.
    The ability of U.S. military forces to operate freely on, over and 
above the vast military maneuver space of the oceans is critical to our 
national security interests, the military in general, and the Navy in 
particular. Your Navy's--and your military's--ability to operate freely 
across the vast domain of the world's oceans in peace and in war make 
possible the unfettered projection of American influence and power. The 
military basis for support for the Law of the Sea Convention is broad 
because it codifies fundamental benefits important to our operating 
forces as they train and fight:

        <bullet> It codifies essential navigational freedoms through 
        key international straits and archipelagoes, in the exclusive 
        economic zone, and on the high seas;
        <bullet> It supports the operational maneuver space for combat 
        and other operations of our warships and aircraft; and
        <bullet> It enhances our own maritime interests in our 
        territorial sea, contiguous zone and exclusive economic zone.

    These provisions and others are important, and it is preferable for 
the United States to be a party to the Convention that codifies the 
freedoms of navigation and overflight needed to support U.S. military 
operations. Likewise, it is beneficial to have a seat at the table to 
shape future developments of the Law of the Sea Convention. Amendments 
made to the Convention in the 1990s satisfied many of the concerns that 
opponents have expressed.
    Since 1983, the U.S. Navy has conducted its activities in 
accordance with President Reagan's Statement on United States Oceans 
Policy, operating consistent with the Convention's provisions on 
navigational freedoms. If the U.S. becomes a party to the Law of the 
Sea Convention, we would continue to operate as we have since 1983, and 
would be recognized for our leadership role in law of the sea matters. 
Joining the Law of the Sea Convention will have no adverse effect on 
the President's Proliferation Security Initiative (PSI) or on U.S. 
intelligence gathering activities. Rather, joining the Convention is 
another important step in prosecuting and ultimately prevailing in the 
global war on terrorism.

                             TRANSFORMATION

    Question. If confirmed, you would play an important role in the 
process of transforming the Navy to meet new and emerging threats.
    What are your goals regarding Navy transformation?
    Answer. I fully support the Navy's ongoing transformation efforts. 
If confirmed, Sea Power 21 will remain the Navy's vision for the 
future, and I firmly believe we have made great strides through that 
vision towards developing the capabilities we will need in coming 
years. But, much work remains. I believe our Navy is not yet properly 
shaped for the future, especially for operations in the littoral. We 
must continue to refine and accelerate Sea Power 21, particularly Sea 
Basing and FORCEnet capabilities. Both are vital to providing national 
capabilities that enhance our warfighting potential--as a Navy and as 
part of the joint force.

                          FLEET RESPONSE PLAN

    Question. The Fleet Response Plan has been implemented to provide a 
surge capability for ``presence with a purpose.'' There have been some 
reports indicating sailors' dissatisfaction with the unpredictability 
of the new deployment schedules.
    What strengths and weaknesses have you perceived to date with the 
implementation of the Fleet Response Plan?
    Answer. The Fleet Response Plan is a new operational construct, 
which retains and builds on our current force rotation concept, to 
better leverage the Navy's force and provide the President more 
responsive, flexible, and combat credible options.
    I believe we have demonstrated the viability and value of FRP--the 
ability to surge more Carrier and Expeditionary Strike Groups and 
combat power than before, largely within the resources already planned 
(OIF, Summer Pulse 2004, and tsunami). At the same time, we have a 
better understanding of how we must continue to assess, refine and 
improve the associated training and maintenance cycles needed to 
support FRP in the long term.
    There is a certain amount of unpredictability to the FRP, though 
frankly I view this as a strength and a deterrent to those who have 
long studied and contemplated taking advantage of our historical ``heel 
to toe'' schedule of deployments. While unpredictability may initially 
cause some angst in the fleet, my experience with Sailors and their 
families throughout my career is if we remain honest and upfront with 
them about what we are doing and why--they will readily accept the 
mission and accomplish it with the same exceptional level of 
professionalism and dedication they have demonstrated in the past.
    Question. After a surge, do you feel there is sufficient 
maintenance and repair capability in the public and private sector to 
quickly reconstitute the force?
    Answer. Yes, there is sufficient maintenance and repair capability 
to reconstitute the force after a surge. This ability was amply 
demonstrated during Operation Iraqi Freedom (OIF), during which we 
surged seven Carrier Battle Groups and 75 percent of our amphibious 
force. In all, more than half the fleet deployed and was then 
reconstituted using both public and private ship depot repair 
facilities. A big part of our success was due to the superb support 
from this committee and the rest of Congress--for which the Navy 
remains extremely grateful.
    Question. How does ``presence with a purpose'' differ from other 
concepts such as ``virtual presence''?
    Answer. Simply put, ``Presence with a purpose'' is about being 
there for a reason. We can no longer afford to stay on station, 
``boring holes in the water'' as sailors like to say, merely for 
``presence'' sake. The Navy's response to the Asian tsunami is a 
telling example. U.S. naval units involved in theater engagement 
activities were diverted and quickly arrived on scene, providing vital 
support in the early hours after the tsunami. This highlights both the 
value of ``presence with a purpose'' and the responsiveness of naval 
forces rotationally deploying overseas.
    In addition to actively assisting the tsunami victims as no other 
military or organization in the world could have in such a timely 
manner, there was a significant down payment made on the prevention of 
terrorism in that vital part of the world. You have to actually be 
there to achieve that.
    ``Virtual presence'' on the other hand, is actual absence.

                          NAVY FORCE STRUCTURE

    Question. Until recently, the Navy had a stated requirement for 375 
ships, based on the Sea Power 21 vision. In a recent report by the 
Congressional Research Service (CRS) concerning alternative funding 
approaches for shipbuilding, CRS postulates ``the fundamental cause for 
instability in the shipbuilding industrial base may be the absence of a 
current, officially approved, consensus plan for the future size and 
structure of the Navy.'' A Quadrennial Defense Review (QDR) is now 
underway, based on a new National Defense Strategy that could affect 
the Navy's force structure.
    If confirmed, how do you intend to work within the QDR process to 
gain consensus on the number and types of ships required in the Navy?
    Answer. If confirmed, I will work to ensure that the full 
capabilities of naval forces are judiciously considered and weighed 
against other alternatives as the QDR seeks to provide the most 
effective joint force to our Nation within a resource constrained 
environment. My recommendations will be based on detailed analysis of 
the capabilities required to defeat the future threat.
    I believe that the value of--and the need for--naval forces will 
increase as very significant numbers of troops currently based overseas 
redeploy back to the United States without replacement, and our 
adjustment continues to the reality of the reduction of our ability to 
freely use the sovereign territory of other counties, even that of our 
allies. I believe there is--and must be--a balance between the size of 
the fleet and the combat capability of individual platforms.
    Operations Enduring Freedom and Iraqi Freedom proved the value of 
the combat readiness in which this nation has invested and the 
importance we must place on improving the fleet's ability to respond 
with decisive, persistent combat power for major combat operations.
    This is an enduring requirement for naval forces.
    These operations demonstrated the importance of the latest 
technology in surveillance, command and control, and persistent attack. 
Sensors and precision weaponry are changing everything we know about 
the balance between firepower and maneuver in a battlespace defined 
increasingly by time and information rather than by distance and 
geography. In this environment, time critical targets will increasingly 
be the norm rather than the exception, and the speed of action will 
demand that we deal more effectively with the doctrinal problems 
associated with fratricide. Distributed and networked solutions must 
become the norm.
    Our operations over the last few years have also highlighted once 
again that over-flight and basing overseas are not guaranteed. 
Therefore, our supremacy of the maritime domain and our consequent 
ability to quickly deliver an agile combat force is a priceless 
advantage.
    Question. The Navy is already 25 ships below the level that was 
determined to be required in the last QDR. Most of these shortfalls are 
in surface combatants, but there is also a shortage of submarines. If 
the Navy decommissions an aircraft carrier, as it has announced it 
intends to do, a shortfall will arise in that category as well.
    With an ongoing QDR and Global Posture Review, and Base Realignment 
and Closure process commencing, what are your views about the Navy 
proceeding now with major force structure changes?
    Answer. I believe that our first commitment must be to maintaining 
the requisite combat readiness to fight and win the global war on 
terror and to respond to major crises. The Fleet Response Plan has 
enabled the Navy to deliver significantly more combat power faster, 
thereby increasing the operational availability and utility of the 
fleet even as the size of that fleet has decreased in terms of numbers.
    So, while the Navy is currently below the levels determined in the 
last QDR, we continue to meet our operational requirements through 
innovative operational, maintenance, and manning policies. Resources 
must, however, be found for the recapitalization of the Navy. We are 
not yet properly shaped for the future. While I support the 
decommissioning of the aircraft carrier now, I would not support any 
additional major force reductions until I have an opportunity to assess 
the results from the global posture review, BRAC, and the QDR.

             ALTERNATIVE FINANCING METHODS FOR SHIPBUILDING

    Question. Navy leaders have testified that alternative financing 
methods must be found for shipbuilding.
    What are your views and recommendations on the benefits and 
feasibility of alternative financing methods, such as incremental 
funding and advance appropriations?
    Answer. I believe that alternative financing methods in conjunction 
with a shipbuilding plan could be very helpful in reducing uncertainty 
for our Nation's shipbuilders and could ultimately lead to more 
affordable ships and a larger fleet.
    I believe that funding lead ships of new classes that introduce 
advanced technologies with research and development funds is both 
appropriate and reasonable as well as consistent with the current 
acquisition practices of most major, technologically advanced programs.
    I also believe that it is in our country's best interest to reduce 
the large perturbations in the new ship construction account caused by 
the funding of capital ships under current funding policy and that the 
Navy, industry and Congress should explore the full range of 
mitigations available as well as other resources and resourcing 
methods.
    Question. What is your assessment of the long-term impact of such 
alternative financing methods on the availability of funds for 
shipbuilding?
    Answer. Alternative financing methods have the potential to reduce 
uncertainty and enhance the efficiency of our shipbuilders, lowering to 
some extent the per-unit cost of new ships and thereby freeing 
resources that could be apportioned for the construction of additional 
ships. Alternative financing methods are, however, neither a panacea 
nor a replacement for appropriate funding levels overall. What is 
needed is a shipbuilding plan to which we are committed and for which 
resources consistently support. All too often, the best-laid plans are 
undone by affordability challenges and increased costs.
    The ultimate requirement for shipbuilding, however, will be shaped 
by the potential for emerging technologies, the amount of forward 
basing, and innovative manning concepts such as Sea Swap. Additional 
critical variables are operational availability and force posture, 
survivability and war plan timelines.

                     ATTACK SUBMARINE FORCE LEVELS

    Question. The most recent official statement of requirements for 
attack submarine force levels was included in a study by the Joint 
Chiefs of Staff in fiscal year 1999. That study indicated that the 
minimum requirement for attack submarines is 55 and that in the future 
the Navy would need to have between 68 and 72 submarines. Substantial 
portions of these boats were deemed in the study to be necessary to 
meet various intelligence, surveillance, and reconnaissance 
requirements. Despite this, there have been indications that the Navy 
is considering significantly reducing the force structure of attack 
submarines to fewer than 40 boats.
    What are the considerations that might lead the Navy to conclude 
that a number of attack submarines substantially smaller than 55 would 
be sufficient to meet the requirements of the combatant commanders and 
other intelligence, surveillance, and reconnaissance needs?
    Answer. In considering whether the minimum attack submarine force-
level requirement of 55 should be reduced, it is important for studies 
and analyses to evaluate the range of options and potential performance 
versus the risk associated with those options and the trade off between 
competing platform investments. We have a responsibility to balance all 
of our warfighting investments to deliver the full range of naval 
capabilities. Over the past 4 years, we have made tough decisions to 
reduce the total number of surface combatants and tactical aircraft 
based on this kind of analysis. Submarines are, and will continue to 
be, part of the calculus in determining how best to deliver the 
capabilities the Nation requires of its Navy. The major considerations 
in establishing submarine force levels begins with establishing the 
capabilities required to, first, meet wartime requirements and, second, 
fulfill additional requirements, such as intelligence, surveillance and 
reconnaissance.
    Although no definitive submarine force structure has been 
determined, the 2001 QDR set 55 submarines as the baseline.
    I believe that a thorough analysis of the required number of 
submarines should, at a minimum, consider the potential duration of 
future conflicts and subsequent threat draw down rates; the value of 
precursor actions and distributed sensors; possible changes in threat 
numbers and capabilities; changes in the environment or theater of 
operations; changes in strategy and tactics; inherent differences in 
capabilities of platforms; forward basing and optional crew rotation 
versus supportable infrastructure; political climate; and the 
vulnerability of forward basing to weather, threats and other 
variables. It is also a question of affordability of these units, which 
must be considered in any evaluation. An improved availability of the 
submarines we currently have will be important for our future force 
structure as well.

                       NAVY MARINE CORPS INTRANET

    Question. What is your assessment of the status of the Navy Marine 
Corps Intranet program and the ability of that program to meet the 
Navy's information technology needs?
    Answer. The Navy-Marine Corps Intranet (NMCI) is essential to 
increasing our organizational efficiency, controlling overall 
information technology costs and maintaining the high level of 
information assurance and security we need for the 360,000 users we 
currently have transitioned.
    Implementation of NMCI has revealed just how vulnerable our 
networks were, the fragility of our system architecture, and the extent 
of unnecessary legacy systems Navy owned.
    If confirmed, I will remain committed to NMCI and to bringing the 
entire department onto a single, secure, enterprise-wide intranet. NMCI 
is meeting our information technology needs, particularly in the realm 
of information assurance and security, and in the near term we will 
continue the rapid ``cutover'' of NMCI seats to the NMCI network.

                    MILITARY TO CIVILIAN CONVERSIONS

    Question. The Services have been engaged in a multiyear effort to 
eliminate thousands of military billets and replace them with civilian 
or contractor personnel. The Navy has been unique in targeting health 
profession billets for military-to-civilian conversions.
    If confirmed, how would you use military-to-civilian conversions to 
shape the future force of the Navy?
    Answer. The Navy is conducting a careful and measured review of 
military billets to determine what billets require the unique skills of 
a uniformed sailor and which ones could best be performed as 
effectively, and at lower cost, by a civilian or by private industry.
    In conducting this review, we are using several tools, including 
``zero-based reviews'' of individual officer communities and enlisted 
ratings; functional reviews of service delivery for various 
infrastructure requirements; and a review of the model for providing 
total force health care requirements. We will phase in the results of 
these analyses to ensure that sailors continue to have viable and 
rewarding career paths and that we continue to support the fleet with 
an appropriate mix of civilian and uniformed professionals.
    If confirmed, I will continue to support these efforts.
    Question. If confirmed, what metrics would you establish to measure 
the effectiveness of this transformational tool, and how would you 
determine if and when DOD civilians and private contractors could 
perform work in a more efficient or cost effective manner?
    Answer. Effectiveness of the Navy's military-to-civilian conversion 
efforts will be measured by the degree to which they meet the following 
criteria: maintaining--or improving--fleet readiness; overall cost 
savings; and the continued growth and development of our sailors.
    The identification of those billets most appropriate for conversion 
will stem principally from our ``zero-based reviews'' of individual 
officer communities and enlisted ratings, functional reviews of service 
delivery for various infrastructure requirements, and a review of the 
model for providing total force health care requirements.
    Question. How would you measure the impact of such conversions on 
readiness?
    Answer. Warfighting capability and readiness will be assessed using 
those metrics and methods of assessment already in place, which are 
applied across the fleet by the operational commander.
    Question. If confirmed, how would you assess the quality and 
availability of civilian physicians, dentists and nurses, and their 
willingness to serve in the Federal civilian workforce?
    Answer. The Navy's Surgeon General provides oversight for the 
Navy's medical services, including civilians, and I would, if 
confirmed, charge the Surgeon General with assessing both the quality 
of care provided by civilian physicians, dentists and nurses serving 
Navy Service members as well as their willingness to serve in the 
Federal civilian workforce. It is my understanding that the Quadrennial 
Defense Review is addressing the delivery of military medical care and 
those results will play a significant role in determining the final 
structure and delivery mechanisms for military and Navy medicine.

               PREVENTION AND RESPONSE TO SEXUAL ASSAULTS

    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of the Department of Defense for preventing and responding to incidents 
of sexual assault in the Armed Forces at which you testified and 
endorsed a ``zero tolerance'' standard. In late April 2004, the DOD 
Task Force on Care for Victims of Sexual Assault issued its report and 
recommendations, noting ``If the Department of Defense is to provide a 
responsive system to address sexual assault, it must be a top-down 
program with emphasis placed at the highest levels within the 
Department down to the lowest levels of command leadership. It must 
develop performance metrics and establish an evaluative framework for 
regular review and quality improvement.''
    In response to the report and recommendations of the DOD Task Force 
report, what actions has the Navy taken to prevent and respond to 
sexual assaults?
    Answer. As the then Vice Chief of Naval Operations, I testified 
before the hearing in February 2004. As I stated then, and re-emphasize 
now, sexual assault is not tolerated in our Navy. Prevention is our 
first priority, but, when incidents occur, we have a sound process in 
place to provide specialized assistance to the victim quickly, conduct 
a full and fair investigation, and hold offenders accountable. We must 
rigidly adhere to and improve this process.
    The senior leadership of the Navy has personally communicated to 
each commanding officer our expectations regarding Sexual Assault 
Victim Intervention (SAVI) responsibilities and reporting compliance. 
Annual training on sexual assault awareness and prevention is required. 
Training is also included throughout the Navy's student curricula, 
including RTC Great Lakes, the Naval Academy, NAS Pensacola, 
prospective Commanding Officers and Executive Officers courses, Surface 
Warfare Officer classes, and at the Senior Enlisted Academy. 
Additionally, we are starting to conduct an internal monthly review of 
sexual assault data to identify trends and propose corrective action 
where required.
    If confirmed, I will continue to personally support these efforts 
and look for ways to improve our training and prevention programs, our 
reporting and data collection processes and our response methodologies 
in order to address this issue. I will adequately resource these 
programs.
    Question. What additional resources and organizational changes, if 
any, has the Navy devoted to its Sexual Assault Victim Intervention 
(SAVI) program?
    Answer. We are continually evaluating resource requirements and, 
accordingly, have allocated additional funding for fiscal year 2005 to 
further enhance program services and to offset increasing costs. In 
addition, the Navy is working to improve its reporting and data 
collection processes.
    Question. If confirmed, what actions do you plan to take to ensure 
that senior leaders of the Navy have day-to-day visibility into the 
incidence of sexual assaults and the effectiveness of policies aimed at 
ensuring zero tolerance?
    Answer. In general, I believe we have effective policies in place 
in the areas of awareness, prevention education, and victim advocacy. 
To improve our ability to execute those policies, we have focused--and 
will continue to focus--commanding officer attention on the issue, we 
have committed the additional funding noted above, and we are working 
to develop better performance metrics in our data collection and trend 
analysis.
    If confirmed I will personally and stridently support these efforts 
and will communicate early and often the need for all leaders in the 
Navy--at all levels of the chain of command--to remain vigilant to the 
conditions and behavior that precipitate sexual assault and to the 
special needs of victims.

                            QUALITY OF LIFE

    Question. In October 2002, the Center for Naval Analyses conducted 
a study to measure the retention benefits of several of the Navy's 
Quality of Life programs, and to compare these benefits with the costs 
of providing the programs. The study's results indicated that most 
Quality of Life programs have a positive impact on satisfaction with 
the Navy. Morale, Welfare, and Recreation programs, family housing and 
child development centers all had a positive impact on retention of 
enlisted personnel.
    What is your view of the importance of quality of life programs in 
the Navy, and the impact of such programs on recruitment, retention and 
readiness?
    Answer. Quality of life programs are crucial to maintaining a 
healthy working environment for Navy's Service members, their families, 
and our civilian professionals. They are particularly important in 
offsetting the rigors of a rotationally deploying force that operates 
overseas regularly. Quality of Life programs increase our 
attractiveness to potential recruits and subsequently ease recruiting 
challenges, enhance retention and increase our operational readiness.
    I believe that quality of life programs provide a significant 
return on investment and that these are some of the most valued 
benefits of naval service. We provide--as we should--the gold standard 
of medical care, family support (particularly during deployments), 
Fleet and Family Support Centers, recreational facilities and services, 
childcare and personal development and education programs to help 
Sailors achieve their own goals. The result is a fleet of professional, 
motivated men and women ready in all respects to fight on their 
nation's behalf.
    Question. What are your recommendations on how best to ensure the 
financial sustainability of such programs in the future?
    Answer. I believe mechanisms currently in place adequately ensure 
the financial sustainability of these important programs. I will pay 
attention to these programs, if confirmed.

                       DELIVERY OF LEGAL SERVICES

    Question. As Vice Chief of Naval Operations, you observed the 
working relationship between the General Counsel of the Navy and the 
Judge Advocate General of the Navy, as well as the working relationship 
of these individuals and their staffs with the Chairman's legal 
advisor, the General Counsel of the Department of Defense, and the 
legal advisors of the other Services.
    What are your views about the responsibility of the Judge Advocate 
General of the Navy to provide independent legal advice to the Chief of 
Naval Operations, particularly in the area of military justice and 
operational law?
    Answer. I believe it is critical that the CNO receive independent 
legal advice from his senior uniformed judge advocates. Pursuant to 10 
USC Sec. 5148(d), the Judge Advocate General (JAG) of the Navy performs 
duties relating to any and all DoN legal matters assigned to him by 
SECNAV. Pursuant to U.S. Navy Regulations, 1990, Article 0331, the Navy 
JAG commands the Office of the Judge Advocate General and is the Chief 
of the Judge Advocate General's Corps.
    The JAG provides and supervises the provision of all legal advice 
and related services throughout the Department of the Navy, except for 
the advice and services provided by the General Counsel. In accordance 
with the Manual for Courts-Martial, the Staff Judge Advocate (SJA) is 
the principal legal advisor of a command in the Navy.
    The JAG is, in essence, the SJA to the CNO and is tasked to advise 
and assist the CNO in formatting and implementing policies and 
initiatives pertaining to the provision of legal service within the 
Navy. Additionally, the JAG effects liaison with the Commandant of the 
Marine Corps, other DOD components, other governmental agencies and 
agencies outside the Government on legal service matters affecting the 
Navy.
    It is critical that the CNO receive independent legal advice from 
the JAG as he/she is a significant component of the Department's legal 
service infrastructure and performs functions that are essential to the 
proper operation of the Department as a whole. No officer or employee 
of the DOD may interfere with the ability of the JAG to give the CNO 
independent legal advice. I am comfortable with the existing working 
relationships and interactions.
    Question. What are your views about the responsibility of staff 
judge advocates throughout the Navy to provide independent legal advice 
to military commanders in the fleet and throughout the naval 
establishment?
    Answer. Uniformed staff judge advocates are essential to the proper 
functioning of both operational and shore based units of the Navy and 
Marine Corps. In the critical area of military justice, commanders and 
commanding officers are required by statute (10 U.S.C. Sec. 806) to 
communicate with their staff judge advocates with the purpose of 
receiving instruction and guidance in this field. In addition, officers 
rely on their staff judge advocates for advice on all types of legal 
matters, extending beyond their statutory responsibilities.
    A staff judge advocate has a major responsibility to promote the 
interests of a command by providing relevant, timely, and independent 
advice to its military commander, whether at shore or in the fleet. 10 
U.S.C. Sec. 5148(2)(2) reinforces the critical need for independent 
advice from a staff judge advocate, by prohibiting all interference 
with a judge advocate's ability to give independent legal advice to 
commanders, as applied to any employee of DOD. Navy and Marine Corps 
commanders depend extensively on their staff judge advocates to provide 
independent advice, which combines legal acumen and understanding of 
military requirements and operations.

                       BALLISTIC MISSILE DEFENSE

    Question. The Navy will play an important role in defending the 
Nation against the threat of long-range ballistic missile attack and in 
defending allies, friends and deployed forces against theater ballistic 
missile threats.
    Do you view ballistic missile defense as a core Navy mission?
    Answer. Yes, missile defense is a core Navy mission. If confirmed, 
I will ensure that the Navy continues to work with the Missile Defense 
Agency (MDA) to develop and field this important capability aboard 
naval vessels. I also believe that the Navy's ability to provide 
ballistic missile defense will be increasingly important to joint 
warfighting and, based on successes to date, that the MDA's investment 
in naval missile defense systems is delivering important operational 
joint and national capabilities. In short, I believe there is great 
value in this capability for our Nation, and will be more so in the 
future.
    Question. What plans does the Navy have for testing the Aegis 
Ballistic Missile Defense System?
    Answer. The Missile Defense Agency is currently charged with 
testing of the Aegis Ballistic Missile Defense System (ABMD) for the 
Defense Department. Under this construct, the Navy will continue 
testing of the Aegis-SM-3 missile defense capability under the current 
agreement with MDA, providing full-time commitment of an Aegis equipped 
Cruiser to the Testing and Evaluation (T&E) role.
    Additionally, the Navy plans to modify other Aegis equipped ships 
to conduct MDA missions when required, has entered into an 
international partnership to increase the capability of the SM-3 
missile and has invested in science and technology to develop defenses 
against more advanced ballistic missiles.
    Question. Are you satisfied with the current rate of production for 
the SM-3?
    Answer. I believe that the current rate of production is the 
minimum prudent rate and that overall operational risk could be reduced 
and testing accelerated if additional resources were available. It is 
MDA, however, that funds and procures missile defense systems and they 
must balance their risks and requirements within their constraints.

                     SCIENCE AND TECHNOLOGY PROGRAM

    Question. The defense science and technology program is recovering 
after years of declining budgets. However, the budget request for 
defense S&T still falls short of the Secretary of Defense's goal of 
dedicating 3 percent of the total defense budget to science and 
technology. In particular, the Navy science and technology program, 
especially the investment in long-term, innovative work which has been 
so successful in confronting emerging threats, has declined 
significantly over the last 3 years.
    If confirmed, how do you plan to address the shortfalls in the Navy 
science and technology program to meet the Secretary's goal?
    Answer. Three percent of the budget remains our goal as we balance 
competing investment priorities from year to year. The fiscal year 2006 
Navy S&T budget is $1.8 billion and maintains a broad base of science 
and technology to provide new capabilities to the warfighter and 
technological innovation in support of the National Military Strategy. 
Though short of the goal, I believe this sum provides a sufficient 
level of investment in this very important program for this year.
    Question. What is your view of the role and value of science and 
technology programs in meeting the Navy's transformation roadmap goals?
    Answer. The Navy's ongoing efforts to integrate advanced technology 
with new operational concepts and organizational constructs result in a 
real transformation of military capability through our Future Naval 
Capabilities program. In that vein, the maturing technology we're 
seeing today and beginning to incorporate into platforms, weapons, 
sensors, and process improvements are the result of long-term 
investments in Science and Technology and an important element of the 
Navy's transformation.

                         TECHNOLOGY CHALLENGES

    Question. In recent testimony before the Senate Armed Services 
Committee, the Chief of Naval Operations discussed challenges related 
to the national security environment. He noted that the Department of 
Defense must establish an ``unblinking eye'' above and throughout the 
battlespace. He maintained that speed and agility are the attributes 
that will define operational success.
    What do you see as the most challenging technological needs or 
capability gaps facing the Navy in achieving speed, agility, and the 
referenced ``unblinking eye''?
    Answer. The ongoing global war on terror has highlighted the 
technological challenges of sustaining maritime domain awareness across 
a variety of theaters with an ``unblinking eye''. Technologically, this 
means pursuing the ``needle in the haystack'' to ensure security and 
continued domination in the maritime environment, as well as responding 
rapidly when detection occurs.
    Speed and agility are critical to our operational success and are 
achieved through a combination of investments in modern platforms and 
through the increased operational availability of our existing forces. 
The Fleet Response Plan has achieved significant improvements on the 
Navy's ability to respond to the Nation's most pressing needs, and 
greatly increased our force posture achieved with our current force 
structure.
    Investments in ACS, CG(X), DD(X), FORCEnet, Integrated Propulsion 
Systems, Littoral Combat Ship, JSF, MMA, SSGN, SSN-774, stealth, and 
unmanned systems will also ensure mission agility in response to a 
broad range of threats. These investments will help our Navy adjust its 
warfighting capabilities in order to support small-scale contingencies, 
such as peacekeeping and stability operations in addition to 
traditional warfighting requirements. Diversification of capabilities 
will assist in mitigating risk against irregular, catastrophic, and 
disruptive challenges we face today and for the foreseeable future. We 
must also pay attention to technological investments for additional 
high-leverage forces, e.g., SOF, EOD, SeaBees, medical, and maritime 
security forces.
    Question. If confirmed, how will you work with the Navy's research 
enterprise to ensure adequate investments in areas that will provide 
the technical breakthroughs of the future?
    Answer. The Navy must continue to pursue a comparative advantage 
versus competitive advantage against our opposing forces. Rather than 
engage in a platform vs. platform, force-on-force conflict, we must 
exploit our technological advantages to develop sensors and systems to 
enhance our warfighting capability within the constraints of our 
current force structure. If confirmed, I will continue the current 
commitment to a strong science and technology program and will work 
with the Navy's research enterprise to explore development of a variety 
of weapons systems and propulsion systems as well as a range of sensors 
and surveillance capabilities to leverage our Country's and our Navy's 
technological superiority as an asymmetric advantage. Also, I believe 
we should explore, support, and sustain the developments produced by 
small, innovative companies.

                     NAVAL RESERVE FORCE STRUCTURE

    Question. As a result of the Navy's ``zero based review,'' 
significant changes in the size and structure of the Naval Reserve are 
taking place.
    What role and mission do you expect the Naval Reserve to perform 
now and in the future?
    Answer. The zero-based review of the Naval Reserve structure 
between the Chief of Naval Reserve and the Commander of Fleet Forces 
Command will allow us to re-baseline the Reserve Force with one 
overarching objective in mind: a Reserve Force fully integrated with 
the Active Force.
    The roles and missions of the Reserve Force will continue to 
respond to the changing threat landscape. This includes Reserve Force 
contribution to the global war on terror, including increased emphasis 
on civil affairs.
    Question. How would you access the progress being made in 
transforming the Naval Reserve into a fully integrated and capable 
force?
    Answer. We have made great strides in Active Reserve Integration 
(ARI). We continue to pursue the creation of fleet response units 
(FRUs) which go hand-in-glove with the Fleet Response Plan to provide 
the Nation more operational availability of our combined, naval forces.
    An illustration of our progress is our multiple efforts to have 
Reserve Sailors report to ships, not to buildings. Reserve centers are 
being replaced by operational organizations that help facilitate the 
vital contribution of the naval force across a broad spectrum of 
required capabilities.
    Question. What is your view of the optimal size of the Naval 
Reserve in the future?
    Answer. The optimal size of the Naval Reserve is really a function 
of capacity management to determine what capabilities and skill sets we 
want to own in the Active Force. We must ensure that the right 
capabilities reside in the proper component; and that each component 
can work in ways that are fully complementary. While we are driving 
down the number of Reserve personnel, their capability and skills 
remain vital to the success of the Navy's strategic vision for building 
the Total Navy Force.

                           NAVY END STRENGTH

    Question. The Navy's proposed budget for fiscal year 2006 includes 
reductions of 13,200 personnel in the Active-Duty ranks and 10,300 in 
the Naval Reserve. Admiral Clark has indicated that one of his goals is 
to reduce the Navy's Active-Duty Force to 350,000 sailors from the 
current authorized level of 373,800.
    Do you agree with these reductions?
    Answer. Yes, I agree with the reductions as a goal and will conduct 
my own review, if confirmed. Some of these proposed reductions are 
predicated on technology insertion, which suggests an overall phased 
approach as the technology is fielded. Organizational alignment, 
including initiatives like Optimal Manning, and billet reviews will 
also yield legitimate opportunities for reducing our total workforce 
and should be implemented if appropriate.
    Question. What is the justification for these reductions in Active-
Duty and Naval Reserve Forces?
    Answer. The Navy's overall strategy is still evolving and 
considerable effort is being devoted to ensuring that the changes we 
make are the right ones. The combat power of our forces is not directly 
tied to the number of sailors, but rather their skills and the 
capabilities of the equipment they operate.
    Additionally, there are still remnants of Cold War practices that 
are personnel-intensive and can be replaced by new organizations--such 
as Navy Installations Command--to potentially reduce our personnel 
requirements and continue to seek out and gather efficiencies ashore. 
There remains work to do in this area. Finally, by focusing on the 
military skills of our sailors, we are finding that some functions can 
best be filled by the Reserve component, converted to government 
civilian or outsourced to great benefits: increased efficiency, higher 
quality of life, contractual service targets and lower cost.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Naval Operations?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                              CHINA/TAIWAN

    1. Senator Inhofe. Admiral Mullen, with regard to our military, I 
am very concerned with the actions of China during the past decade or 
so. In the 1990s China was caught stealing U.S. nuclear secrets. The W-
88 warhead was the crown jewel of our nuclear program that allowed up 
to 10 nuclear missiles to be attached to the same warhead. In 1995, we 
discovered that China had stolen this technology. China gained the 
capability of accurately reaching the continental U.S. with nuclear 
missiles and the ability to target between 13 and 18 U.S. cities. China 
transferred prohibited weapons technology to North Korea, Iran, Iraq, 
and other countries. China continues to threaten to absorb Taiwan and 
they continue to intimidate our treaty allies in South Korea and Japan. 
Recently China placed into law the proclamation that force would be 
used to prevent Taiwan from becoming independent. China has continued 
to expand and solidify her influence. She has long had ambitions to 
increase her military presence over the surrounding region. Her 
``string of pearls'' strategy included a listening post in Pakistan, 
billions of dollars of military aid to Burma, military training and 
equipment into Thailand and Bangladesh, etc. On my last trip to Africa 
I saw Chinese influence everywhere I looked. A recent Pentagon report 
quoted in the Washington Times, outlines, ``China . . . is not looking 
only to build a blue-water navy to control sea lanes, but also to 
develop undersea mines and missile capabilities to deter the potential 
disruption of its energy supplies from potential threats, including the 
U.S. Navy, especially in the case of a conflict with Taiwan.'' The 
weapons China is investing in include long-range cruise missiles, 
submarines, long-range target acquisition systems, specifically 
cutting-edge satellites and unmanned aerial vehicles. I could go on and 
on. My question to you is this, how do you view China as you prepare to 
lead the United States Navy?
    Admiral Mullen. [Deleted.]

    2. Senator Inhofe. Admiral Mullen, what do we need to concern 
ourselves with and what do we need to do about the emergence of China 
as a very strong regional and world player?
    Admiral Mullen. [Deleted.]

                            CHINA IN AFRICA

    3. Senator Inhofe. Admiral Mullen, I have traveled several times to 
Africa as part of a congressional delegation. I was shocked to see the 
amount of Chinese influence there. In Benin I saw a conference center 
being constructed, and in Congo I saw a large sports stadium, both 
donated by the Chinese. China has been expanding its influence 
throughout Africa with projects like this. One saying I heard was, 
``The U.S. tells you what you need, but China gives you what you 
want.'' I think the fact that these countries have large oil and 
mineral deposits paints the real picture. The Gulf of Guinea, bordered 
by nations with these natural resources is a particular focus for 
Chinese influence. In your previous role as Commander, U.S. Naval 
Forces Europe, I believe you had responsibility for this geographical 
area. What challenges do you foresee as we address U.S. national 
security concerns, given the influence of China, with its extensive 
need for oil, in this part of the world?
    Admiral Mullen. [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                          P-3C ORION AIRCRAFT

    4. Senator Collins. Admiral Mullen, five P-3C Orions from Squadron 
8 at the Naval Air Station in Brunswick, Maine, recently participated 
in the tsunami relief efforts. I remain very proud of their 
participation. These invaluable aircraft and dedicated squadrons have 
also proven invaluable during Operation Enduring Freedom and Operation 
Iraqi Freedom. Given that the P-3 continues to demonstrate its 
effectiveness across mission areas for the Navy from drug interdiction 
to search and rescue to antisubmarine and maritime surveillance, P-3s 
are clearly valuable and necessary sea and land surveillance platforms. 
Would you agree that the P-3 aircraft and its capabilities are critical 
operational concepts for current and future missions?
    Admiral Mullen. The Navy has relied on the tremendous capabilities 
of the P-3 since the aircraft's Fleet introduction in 1962. Today, P-3s 
are making vital contributions in support of Operations Enduring 
Freedom and Iraqi Freedom. The introduction of the Anti-Surface (ASuW) 
Improvement Program (AIP) version of the P-3 in the 1990s has allowed 
the Navy to leverage the P-3's tremendous maritime surveillance 
capabilities in new roles, including overland and littoral 
Intelligence, Surveillance, and Reconnaissance (ISR) missions.
    As Commander, Naval Forces Europe, I am very aware of the utility 
of these aircraft, not only for ISR missions in the theater, but also 
for the benefit of having them available as yet another tool for 
theater engagement with fledgling democracies in Africa and the Black 
Sea areas. Also, in my role as a NATO Commander, P-3 aircraft proved 
themselves invaluable in support of various NATO operations throughout 
the theater, including Kosovo. Indeed, P-3 aircraft in Kosovo have 
supported U.S. participation in NATO operations by providing 
surveillance related to force protection, route security, and civil 
unrest. Further, just as P-3s have been detached to Africa and the 
Black Sea region as a tool for bilateral engagement, so may there be 
future opportunities to engage with developing partners throughout the 
Balkans.
    While the P-3 will be in the fleet for many years, the aircraft are 
nearing the end of their originally projected service life. The 
criticality of the P-3's continuing contributions is reflected in the 
President's fiscal year 2006 budget request that includes an investment 
of over a billion dollars in P-3 sustainment and modernization 
programs. These programs are needed to sustain the P-3 until it can be 
replaced by the P-8A Multimission Maritime Aircraft over the period 
from 2013 to 2019. Moreover, the P-3s long-term importance is 
highlighted by inclusion of P-3 programs totaling over $38 million in 
the Chief of Naval Operations' fiscal year 2006 Unfunded Priority List.

                           AIR RECONNAISSANCE

    5. Senator Collins. Admiral Mullen, as the threats of the future 
evolve and change, do you believe that it is crucial that there be a 
permanent naval air reconnaissance presence at all ``four corners'' of 
our Nation?
    Admiral Mullen. Awareness of activities in the maritime domain is a 
critical component to ensuring the security of our homeland and naval 
air reconnaissance provides an important contribution to that effort. 
To improve our understanding of maritime activities, Navy and Coast 
Guard have been working in partnership to develop a concept called 
Maritime Domain Awareness (MDA). While we currently have some level of 
MDA through our operational forces and legacy systems, MDA's full 
potential will be realized by improving our ability to collect, fuse; 
analyze, and disseminate actionable information and intelligence to 
operational commanders. Accomplishing this involves collaboration among 
U.S. Joint Forces, U.S. Government Agencies, international coalition 
partners and forces; commercial entities, and especially the 
intelligence community.
    Comprehensive MDA requires input from a wide variety of sensors and 
sources to support a defense in depth. These sensors and sources, some 
existing and others yet to be developed, will form the basis for 
detection, identification and tracking as required. The components will 
include active and passive sensors, along with cooperative and space 
based capabilities. The Navy's contribution to MDA includes 
intelligence and information collection by widely dispersed, networked 
naval forces and the analysis, integration, and dissemination of that 
data via intelligence activities such as the National Maritime 
Intelligence Center (NMIC), which hosts the Office of Naval 
Intelligence (ONI).
    The maintenance of a permanent Naval air reconnaissance presence at 
all ``four corners'' of the Nation, like all military base 
requirements, was reviewed during the Department of Defense (DOD) Base 
Realignment and Closure (BRAC) process. The DOD's complete analysis was 
made available to the BRAC Commission on 13 May 2005. DOD has 
recommended consolidating east coast P-3 assets at a single site (NAS 
Jacksonville, FL) in order to optimize Naval Aviation infrastructure 
resources. As part of the realignment, NAS Brunswick is recommended for 
major realignment into a Naval Air Facility, with it's P-3s and C-130 
squadrons relocating to NAS Jacksonville. The realignment will save the 
Navy significant resources each year, resulting in greater investment 
in the warfighting needs of the future.
                                 ______
                                 
    [The nomination reference of ADM Michael G. Mullen, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     March 2, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Chief of Naval 
Operations, United States Navy and appointment to the grade indicated 
while assigned to a position of importance and responsibility under 
title 10, U.S.C., sections 601 and 5033:

                             To be Admiral

    ADM Michael G. Mullen, 0000.
                                 ______
                                 
    [The biographical sketch of ADM Michael G. Mullen, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
     Transcript of Naval Service for ADM Michael Glenn Mullen, USN

04 Oct. 1946..............................  Born in Los Angeles,
                                             California
05 June 1968..............................  Ensign
05 June 1969..............................  Lieutenant (junior grade)
01 July 1971..............................  Lieutenant
01 Oct. 1977..............................  Lieutenant Commander
01 June 1983..............................  Commander
01 Sep. 1989..............................  Captain
01 Apr. 1996..............................  Rear Admiral (lower half)
05 Mar. 1998..............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 Oct. 1998..............................  Rear Admiral
21 Sep. 2000..............................  Designated Vice Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 Nov. 2000..............................  Vice Admiral
28 Aug. 2003..............................  Admiral, Service continuous
                                             to date


Assignments and duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
Fleet Training Center, San Diego, CA (DUINS)....   June 1968   Aug. 1968
Fleet Anti-Submarine Warfare School, San Diego,    Aug. 1968   Sep. 1968
 CA (DUINS).....................................
U.S.S. Collett (DD 730) (ASW Officer)...........   Sep. 1968   June 1970
Naval Destroyer School, Newport, RI (DUINS).....   June 1970   Feb. 1971
Nuclear Weapons Training Group, Atlantic,          Feb. 1971   Feb. 1971
 Norfolk, VA (DUINS)............................
U.S.S. Blandy (DD 943) (Weapons/Operations         Feb. 1971   Nov. 1972
 Officer).......................................
Fleet Training Center, Norfolk, VA (DUINS)......   Nov. 1972   Jan. 1973
Staff, Commander Service Force, U.S. Atlantic      Jan. 1973   Jan. 1973
 Fleet (DUINS)..................................
CO, U.S.S. Noxubee (AOG 56).....................   Jan. 1973   July 1975
U.S. Naval Academy, Annapolis, MD (Company         July 1975    May 1978
 Officer/Executive Assistant to Commandant).....
Ship Material Readiness Group, Idaho Falls, ID      May 1978   Oct. 1978
 (DUINS)........................................
U.S.S. Fox (CG 33) (Engineering Officer)........   Oct. 1978   Apr. 1981
Surface Warfare Officers School Command,           Apr. 1981   July 1981
 Newport, RI (DUINS)............................
XO, U.S.S. Sterett (CG 31)......................   July 1981   Jan. 1983
Naval Postgraduate School, Monterey, CA (DUINS).   Jan. 1983   Mar. 1985
Surface Warfare Officers School Command,           Apr. 1985    May 1985
 Newport, RI (DUINS)............................
CO, U.S.S. Goldsborough (DDG 20)................   June 1985   Oct. 1987
Naval War College, Newport, RI (DUINS)..........   Oct. 1987   Dec. 1987
Surface Warfare Officers School Command,           Dec. 1987   Sep. 1989
 Newport, RI (Director Surface Warfare Division
 Officer Course)................................
Office of the Secretary of Defense, Washington,    Sep. 1989   Aug. 1991
 DC (Military Staff Assistant to Director,
 Operational Test and Evaluation)...............
Harvard University Advanced Management Program..   Aug. 1991   Nov. 1991
Surface Warfare Officers School Command,           Nov. 1991   Nov. 1991
 Newport, RI (DUINS)............................
Tactical Training Group Atlantic (DUINS)........   Nov. 1991   Dec. 1991
COMNAVSURFLANT (DUINS)..........................   Dec. 1991   Jan. 1992
AEGIS Training Center Dahlgren, VA (DUINS)......   Feb. 1992   Apr. 1992
CO, U.S.S. Yorktown (CG 48).....................   Apr. 1992   Jan. 1994
Bureau of Naval Personnel (Director, Surface       Feb. 1994   Aug. 1995
 Officer Distribution Division) (PERS-41).......
Office of CNO (Director, Surface Warfare Plans/    Aug. 1995    May 1996
 Programs/Requirements Division, N863)..........
Office of CNO (Deputy Director, Surface Warfare     May 1996   July 1996
 Division, N86B)................................
Tactical Training Group Atlantic (DUINS)........   July 1996   Aug. 1996
Commander, Cruiser Destroyer Group TWO..........   Aug. 1996    May 1998
Office of CNO (Director, Surface Warfare            May 1998   Oct. 2000
 Division) (N86)................................
Commander, SECOND Fleet/Commander, Striking        Oct. 2000   Aug. 2001
 Fleet Atlantic.................................
Office of CNO (Deputy Chief of Naval Operations    Aug. 2001   Aug. 2003
 for Resources, Requirements, and Assessments)
 (N8)...........................................
Vice Chief of Naval Operations..................   Aug. 2003   Oct. 2004
Commander, U.S. Naval Forces, Europe/Commander,    Oct. 2004     To Date
 Joint Forces, Naples...........................
------------------------------------------------------------------------


Medals and awards:
    Distinguished Service Medal with one Gold Star
    Defense Superior Service Medal
    Legion of Merit with three Gold Stars
    Meritorious Service Medal
    Navy and Marine Corps Commendation Medal
    Navy and Marine Corps Achievement Medal
    Navy ``E'' Ribbon with Wreath
    Navy Expeditionary Medal
    National Defense Service Medal with two Bronze Stars
    Armed Forces Expeditionary Medal
    Vietnam Service Medal
    Humanitarian Service Medal
    Sea Service Deployment Ribbon
    Navy and Marine Corps Overseas Service Ribbon
    Republic of Vietnam Gallantry Cross Unit Citation
    Republic of Vietnam Civil Actions Unit Citation

Special qualifications:
    BS (Naval Science) U.S. Naval Academy, 1968
    MS (Operations Research) Naval Postgraduate School, 1985
    Language Qualifications: Italian (Knowledge)

Personal data:
    Wife: Deborah Morgan of Sherman Oaks, California
    Children: John Stewart Mullen (Son), Born: 30 April 1979; and 
Michael Edward Mullen (Son), Born: 29 December 1980.

Summary of joint duty assignments:

------------------------------------------------------------------------
              Assignment                          Dates            Rank
------------------------------------------------------------------------
Office of the Secretary of Defense,     Sep. 1989-Aug. 1991.....    CAPT
 Washington, DC (Military Staff
 Assistant for U.S. Navy Programs to
 the Director, Operational Test and
 Evaluation).
Commander, SECOND Fleet/Commander,      Oct. 2000-Aug. 2001.....    VADM
 Striking FleetAtlantic.
Commander, U.S. Naval Forces, Europe/   Oct. 2004-To Date.......     ADM
 Commander, Joint Forces, Naples.
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Michael G. 
Mullen, USN, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael G. Mullen.

    2. Position to which nominated:
    Chief of Naval Operations.

    3. Date of nomination:
    2 March 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 4, 1946; Hollywood, California.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Deborah Morgan Mullen.

    7. Names and ages of children:
    John Stewart Mullen, 25; and Michael Edward Mullen, 24.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognition's for 
outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Michael G. Mullen.
    This 2nd day of March 2005.

    [The nomination of ADM Michael G. Mullen, USN, was reported 
to the Senate by Chairman Warner on April 28, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 28, 2005.]


 NOMINATIONS OF KENNETH J. KRIEG TO BE UNDER SECRETARY OF DEFENSE FOR 
ACQUISITION, TECHNOLOGY, AND LOGISTICS; AND LT. GEN. MICHAEL V. HAYDEN, 
 USAF, TO THE GRADE OF GENERAL AND TO BE PRINCIPAL DEPUTY DIRECTOR OF 
                         NATIONAL INTELLIGENCE

                              ----------                              


                        THURSDAY, APRIL 21, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m. in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Collins, Talent, Chambliss, Levin, and E. Benjamin 
Nelson.
    Other Senators present: Senator Sununu.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; William C. Greenwalt, professional 
staff member; Gregory T. Kiley, professional staff member; 
David M. Morriss, counsel; Scott W. Stucky, general counsel; 
and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Gabriella Eisen, research assistant; 
Richard W. Fieldhouse, professional staff member; Creighton 
Greene, professional staff member; and Peter K. Levine, 
minority counsel.
    Staff assistants present: Alison E. Brill and Catherine E. 
Sendak.
    Committee members assistants present: Cord Sterling, 
assistant to Senator Warner; Christopher J. Paul, assistant to 
Senator McCain; Mackenzie M. Eaglen, assistant to Senator 
Collins; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Russell J. Thomasson, assistant to Senator Cornyn; Bob Taylor, 
assistant to Senator Thune; Frederick M. Downey, assistant to 
Senator Lieberman; William K. Sutey, assistant to Senator Bill 
Nelson; and Eric Pierce, assistant to Senator Ben Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone, the committee 
meets this morning for two very important nominations made by 
the President of the United States, Kenneth Krieg, who has been 
nominated for the position of Under Secretary of Defense for 
Acquisition, Technology, and Logistics (AT&L) and Lt. Gen. 
Michael Hayden, United States Air Force, nominated for 
appointment to the grade of General, and to be the Principal 
Deputy Director of National Intelligence (DNI).
    Now, we're going to depart from the normal routine to 
recognize the distinguished chairman of the Senate Intelligence 
Committee for the purposes of an introduction. Mr. Chairman.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Roberts. Thank you, Mr. Chairman. Thank you for 
your courtesy, and it is my privilege and honor to join Senator 
Collins to introduce to the committee and to all present, and 
to endorse, Lt. Gen. Michael Hayden to receive his fourth star. 
As a matter of fact, I think he does a five star effort in 
regards to the Intelligence Community, and so to you, Sir, I 
thank you and to Senator Levin, and I'm looking forward to the 
comments by Senator Collins as well.
    Last week at the Intelligence Committee when we had the 
hearing on the General's nomination to be the first Principal 
Deputy Director of National Intelligence, I said that General 
Hayden is an excellent choice. I've crossed that out--I put 
outstanding--and he is a distinguished public servant who has 
really dedicated over 35 years of outstanding service to our 
country. I must say that in my years on the Intelligence 
Committee and Armed Services Committee, when I've had the 
privilege of being briefed by General Hayden, I never met a 
better briefer who is more credible and to the point, and to do 
that with the House and Senate, and earn the respect of 
everybody in the room, regardless of their opinion on an issue, 
I think, takes great skill.
    He's held a number of intelligence positions in the 
Department of Defense (DOD) and served on the staff of the 
National Security Council. I believe his most recent experience 
as the Director of the National Security Agency (NSA) best 
prepares him for the challenges he will face as the Principal 
Deputy of DNI. With Ambassador Negroponte obviously having a 
great deal of credibility in the international community, and 
being a consumer and user of intelligence, we have as his 
Deputy somebody who knows the Intelligence Community forwards 
and backwards, and it will be a great team.
    As Director of NSA since before the initiation of the 
global war on terror and operations in regards to Iraq and 
Enduring Freedom, the General understands the challenges of 
providing immediate intelligence support to the warfighter, 
while also ensuring that timely and accurate information, also 
of primary importance, reaches the principal consumers of 
intelligence, i.e., the policymakers, no less than the 
President of the United States.
    Just yesterday, I spoke with the senior commander, a three-
star marine who just came back from Iraq, and we were talking 
about General Hayden, and General, your ears shouldn't have 
burned, because this marine said that your personal efforts to 
ensure that our marines and soldiers on the ground receive the 
intelligence they need for the ongoing experience was a true 
credit. He says, ``He's the man who presses the button and 
makes things happen.'' As such, I don't think you can get a 
finer nominee to be the Deputy.
    It is this kind of experienced leadership that will be so 
critical in ensuring the success of the Director of National 
Intelligence. I look forward to working with General Hayden in 
his new position, I urge my colleagues to approve his fourth 
star quickly. He is most deserving, and I thank you, Mr. 
Chairman, for allowing me to speak.
    Chairman Warner. Thank you, Senator. My understanding is 
you now go to the Senate floor to present the nomination of Mr. 
Negroponte.
    Senator Roberts. That is correct, sir.
    Chairman Warner. Senator Collins, my understanding is you 
wish to join the Senator from Kansas. Do you wish to speak at 
this juncture? Or at the time we bring up the General?
    Senator Collins. I will wait.
    Chairman Warner. Thank you very much. Our colleague, 
Senator Sununu, may we have the benefit of your wisdom here 
this morning? We welcome you, dear friend.

 STATEMENT OF HON. JOHN E. SUNUNU, U.S. SENATOR FROM THE STATE 
                        OF NEW HAMPSHIRE

    Senator Sununu. Thank you very much, Mr. Chairman. It's a 
pleasure to be here, and a pleasure to introduce a good friend, 
Ken Krieg, to be Under Secretary of Defense for Acquisition, 
Technology, and Logistics. I will be happy to share an 
introduction, and I appreciate your setting the bar very high 
in describing anything I have to say as wise.
    Ken has already distinguished himself as an outstanding 
public servant, but equally important in his current role, he's 
already shown himself to be a very capable assistant to the 
Secretary of Defense in a number of critical areas, most 
recently handling program analysis and evaluation. He's also 
brought to his work in the public sector, experience in the 
private sector. I think this is the kind of experience in 
today's Department of Defense that's really invaluable--being 
able to bring a perspective of budgets and strategy, resource 
allocation in the kind of work that he's been doing for the 
Secretary of Defense, looking at where we make investments, how 
do we allocate resources--and as this committee knows far 
better than I, resources have to be deployed as efficiently and 
effectively as possible, given all of the challenges that are 
being faced by our men and women in the armed services.
    Prior to serving, since July 2001, in the Defense 
Department, Ken had worked for 11 years at International Paper. 
He was the vice president and general manager of a very large 
office, Consumer Paper Products Division, and had to deal with 
all the challenges faced within a large corporation that are 
analogous, not identical, but analogous to the challenges we 
see in today's Department of Defense. Whether it's 
communications and employee motivation, information technology, 
the budgeting and analysis I spoke about earlier, or allocating 
resources to meet a clear set of strategies. Those are the 
things that Ken has wrestled with in the private sector, and 
the kind of experience and background that he's able to bring 
to his current post in the Department of Defense.
    But even prior to his recent work, he previously served 
within the White House, the National Security Council, and the 
Department of Defense in previous administrations. So he is 
able to draw on both the good and the bad--successes and 
failures that he's seen in previous administrations working in 
these national security positions--to the work that he is doing 
today. I think he has already served with great distinction in 
his current position, and as Under Secretary of Defense for 
Acquisition, Technology, and Logistics, he'll be able to bring 
a very broad range of experiences--and, I think, a reputation 
for concise, clear, evenhanded analysis--to a critical role. I 
know that he will do a great job, and it's a pleasure to 
introduce him, to be with him here today, and to strongly 
recommend his nomination.
    Thank you, Mr. Chairman.
    Chairman Warner. We thank you very much, Senator. That is a 
strong endorsement, and it becomes a part of our record, and I 
see the presence of the family of Mr. Krieg in the room today. 
I think it an appropriate time now for you to introduce them 
before I begin to opine a little bit here.
    Mr. Krieg. Well, thank you Mr. Chairman.
    I am very pleased to be joined today by my family.
    Chairman Warner. I cannot see Meredith. Meredith, do you 
want a better chair? It seems to me you're blocked by your 
father's broad shoulders, and if everybody moved one seat to 
the right, you could get a better view.
    Mr. Krieg. See, I hope you're more successful than me with 
her, because I tried that line, and she said, ``No, I want to 
sit where I'm sitting,'' so let's see if you're more successful 
than I was.
    Chairman Warner. I'll knock the gavel.
    Mr. Krieg. The chairman has ordered everyone move one seat 
to the right. [Laughter.]
    Senator Levin. The ultimate test of the power of the 
chairman. [Laughter.]
    Mr. Krieg. I have with me my daughter, Meredith, who is 10; 
my son Allen, who is 12; my wife, Anne, who is patient; and my 
in-laws, Anne Hurt and Al Hurt, from Roanoke, Virginia, so we 
have your State covered as well.
    Chairman Warner. Thank you very much. Well, I welcome you 
here this morning, and the position to which Mr. Krieg has been 
nominated is one of the most important in the Department of 
Defense.
    It was established by Congress to implement a 
recommendation of the 1986 Packard Commission to place a senior 
official in charge of managing and overseeing the Department of 
Defense acquisition process.
    If I might interject a personal note, I was privileged to 
serve in the Department under David Packard, and I never in my 
entire lifetime met a more knowledgeable or imposing individual 
in the field to which you aspire to lead in this new position. 
We ought to call it ``The Packard Seat'' or something, maybe 
we'll think about that, like they do at universities, you hold 
a chair. We should think about that.
    This is not an easy job. Every sailor, soldier, airman, and 
marine depends upon the Under Secretary to ensure that their 
equipment is the best it can be, and every American taxpayer 
depends upon the Under Secretary to ensure that this equipment 
is purchased in the most cost-efficient manner. We are 
troubled, many of us, however, that over 20 years after the 
creation of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics in the Goldwater-Nichols reforms, 
many of the same acquisition problems identified by David 
Packard still emerge today. This is an issue of great concern 
to the committee, and we hope that you will do your best to see 
that the situation conforms, and is administered consistent 
with the guidelines laid down by the Packard Commission Report.
    So we welcome you and your wife, your family. It's very 
important that the family come, because there's a record made 
of this proceeding, and in the years to come it will fade a 
little bit. I still have the one when I appeared before the 
Senate, so long ago that it is hard to read the print now, but 
I assure you, your children will value and treasure that 
record, and the fact that you were here, and your names appear 
in that record as family members.
    The role of the family is so important, with regard to 
those individuals who serve in our Government, but most 
particularly in the Department of Defense, because you have to 
give up a great deal of time with your spouse, or as the case 
may be, with your father, while he performs his very important 
functions for our Nation.
    You currently serve at the Department of Defense as special 
assistant to the Secretary of Defense and Director for Program 
Analysis and Evaluation (PA&E), joining the Department in July 
2001 to serve as Executive Secretary of the Senior Executive 
Council, which is responsible for initiatives to improve the 
management and organization of the Department. Prior to joining 
the Department, you gained the private sector experience, which 
was detailed by our distinguished colleague, and I shall not 
repeat that.
    Mr. Krieg, you bring a wealth of experience to the job, and 
you have my support. At this point in time, I'd like first to 
go to Senator Levin before I go into the standard questions.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    Let me join you in welcoming Ken Krieg and his family to 
the committee. Mr. Krieg, we thank you in advance for your 
continuing service to our Nation, and I join the chairman in 
thanking your family whose support is so critical to your 
success. There are going to be many times, kids, when your dad 
is not going to be able to do all of things that he wants to do 
with you, and it is our fault. Don't blame him. The chairman 
and I are the ones to blame. You come and complain to us when 
that happens. You particularly should complain to the chairman. 
[Laughter.]
    But we thank you all, seriously, for being here, for 
supporting your husband, and your dad, and your son-in-law.
    Ken Krieg has served in the Department of Defense for the 
last 4 years, most recently as the Director for Program 
Analysis and Evaluation, the office that is responsible for 
providing and focusing on independent advice to the Secretary 
on Defense acquisitions, programs, and resource allocation 
issues.
    As Secretary of PA&E, Mr. Krieg has shown the independence, 
the judgment, and the willingness to stand up for what is 
right. That should serve him very well in his new position. Mr. 
Krieg, there are some difficulties which have surfaced in the 
organization whose leadership you're going to assume. Far too 
many of our major weapons acquisitions have been plagued by 
cost increases, late deliveries to the warfighter, and 
performance shortfalls. On top of that, the Department has now 
acknowledged that its acquisition strategy for several major 
programs, including the Air Force tanker lease program, the Air 
Force C-130J program, and the Army Future Combat System 
program, were flawed.
    At a recent hearing of one of our subcommittees, the acting 
Secretary of the Air Force acknowledged that his Department 
went too far in downsizing its acquisition organization. It had 
removed critical balances from the acquisition process while 
doing that. These problems are not unique to the Air Force. The 
time is long come for a top-to-bottom review of the 
Department's acquisition organization, its acquisition 
workforce, and its acquisition processes. I think you are well-
trained by your experience, and well-positioned by your 
character, which you have shown to be one of integrity and 
independence to take on that responsibility. So I look forward 
to working with you. I know all the members of the committee 
will be working closely as you attack all these challenges. 
Thank you.
    Chairman Warner. Thank you very much, Senator Levin.
    The committee has asked for Mr. Krieg to answer a series of 
advance policy questions, and he has responded to those 
questions, and without objection, those questions will be made 
a part of this record.
    I also have a series of questions on behalf of the 
committee, and indeed the entire Senate, which we ask each 
nominee who appears before our committee, so if you will 
respond.
    Have you adhered to the applicable laws and regulations 
governing conflicts of interest?
    Mr. Krieg. Yes, Senator.
    Chairman Warner. Have you assumed any duties, or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Krieg. No, I have not.
    Chairman Warner. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in congressional hearings?
    Mr. Krieg. Yes, sir.
    Chairman Warner. Will you fully cooperate in providing 
witnesses and briefers in response to congressional requests?
    Mr. Krieg. Yes, I will.
    Chairman Warner. Will those witnesses be protected from any 
possible reprisal from you or anyone else within your 
supervision for their testimony or briefings?
    Mr. Krieg. Yes, they will.
    Chairman Warner. Do you agree, if confirmed to appear and 
testify upon request before any duly constituted committee of 
the Senate?
    Mr. Krieg. Yes.
    Chairman Warner. Do you agree to give your personal views 
when asked before the committee to do so, even if those views 
differ from the administration in power and your immediate 
supervisor?
    Mr. Krieg. I will always offer you my best professional 
judgment.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communications in a 
timely manner when requested by duly constituted committee of 
Congress, or to consult with the committee regarding the basis 
for any good faith delay or denial in providing such documents?
    Mr. Krieg. Yes, sir, I'll do my best.
    Chairman Warner. Now, if you have some opening remarks, the 
committee would very much like to hear them.

STATEMENT OF KENNETH J. KRIEG, TO BE UNDER SECRETARY OF DEFENSE 
           FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Krieg. Yes, sir. Thank you, Mr. Chairman. I want to 
thank all of the members of the committee for being here today. 
I especially want to thank Senator Sununu for his kind 
introduction, and I want to thank you all very much for your 
kind welcome to my family. Family is very important to me, and 
it means a lot for you to offer that warm welcome to them.
    Chairman Warner. I wonder if you might also acknowledge 
that, based on some modest experience that I had, all those 
decisions made in the Department after 8 o'clock are usually 
reversed the following morning, which would enable you to get 
home at a proper time. Can you take cognizance of that 
admonition?
    Mr. Krieg. I will, sir.
    Chairman Warner. We understand
    Mr. Krieg. I will report to you on a regular basis when I'm 
later than that. How's that? Or at least my wife will.
    I'm both honored and humbled by the confidence expressed by 
the President and the Secretary of Defense in their nomination, 
and recommendations of me, respectively.
    I look forward to your questions today, and if confirmed, 
look forward to working with this committee in the months and 
years ahead on the wide range of challenging issues that we 
have before us.
    The late Don Atwood, former Deputy Secretary of Defense and 
one of my mentors advised me as I worked for him to, ``Go out 
and learn in a real economy while you're still young enough for 
them to take a chance on you. You can always come back later,'' 
he said. His advice led me to International Paper, and a decade 
of experience in a tough, consolidating, low-margin, high 
capital, global industry. I hope he would be proud today.
    As you noted, Mr. Chairman, the Under Secretary serves both 
the people of this Nation, who invest their hard-earned 
resources in the Department of Defense, and the men and women 
of our armed services, both today and in the future, who invest 
their lives in our freedom. That is, indeed, a humbling charge.
    I've had the good fortune to watch the position of the 
Under Secretary of Defense for Acquisition, Technology, and 
Logistics from a number of vantage points over the years. On 
the staff of the Packard Commission, I witnessed the debates, 
and know quite well this committee's key leadership in that 
position's creation. In Don Atwood's office, I saw the 
challenging inception of the role. As the Executive Secretary 
of the Senior Executive Council, I worked closely with Mr. 
Aldridge and the Service Secretaries on business process 
changes, many of which are just now coming to fruition. Most 
recently, as Director of Program Analysis and Evaluation, I 
served as an advisor to the Under Secretary, and a member of 
the Defense Acquisition Board, Defense Logistics Board, and in 
other similar settings.
    No one is ever fully prepared for these roles, but I am 
committed: to a leadership role in guiding change management; 
to objectivity and integrity in our decisions; to fact-based 
management, good governance and a trusting relationship with 
Congress; to aligning authority with responsibility and 
assigning accountability for success, and to building business 
processes that have both strong oversight and agile 
performance.
    Mr. Chairman, thank you again, for the opportunity to 
appear before you today, I hope that you'll find my experience 
and my commitment will prepare me for this role. If confirmed, 
I look forward to working with Congress, and especially with 
this committee, and I'll be happy to answer any questions you 
might have.
    Chairman Warner. We thank you very much. We will proceed to 
our usual 6-minute round of questions.
    Mr. Krieg, regrettably, this committee has witnessed in the 
past several years, some extraordinary problems in the 
acquisition field: the length of time that it requires a 
weapons system to be fully researched, tested and then put into 
production and delivery; the ever-increasing costs; the 
problems associated with the industrial infrastructure; and 
what level must be kept in place in order to get adequate 
competition, and the best possible product.
    Now, those are problems that, through the years, have 
always been there, but each Secretary of Defense seems to 
experience his own unique problems. Many of us on this 
committee go back and think about the past as a guide to avoid 
problems in the future, the situation at the Department of the 
Air Force, a very proud organization, is--I don't know, in my 
some 30 plus years involved in this business, I've never seen 
anything that would equal that--as to how one individual was 
able to circumvent the whole process. You have got to represent 
to this committee, in order to get confirmation, that you will 
endeavor to do everything you can to work with the Secretary of 
Defense, and hopefully, the newly-nominated Deputy Secretary, 
to work to eliminate the problems that were experienced by the 
Department of the Air Force, so that that Department can, once 
again, regain its rightful place alongside its sister 
Departments of the Army and the Navy.
    Likewise, the battlefield acquisition requirements for the 
Afghanistan and Iraq conflicts, including the up-armoring, the 
inadequacy of body armor. Now this all isn't directly in your 
domain, but you have with your responsibilities a lot of 
authority. This committee has gone through endless hours of 
testimony regarding the sequencing of contracts with the 
industrial base to get the needed body armor and the up-
armoring of vehicles.
    Lastly, the improvised explosive devices (IED) that the 
insurgents have successfully used. The systems are very 
rudimentary in design, but extraordinarily difficult, 
technologically, to defeat. We continue to get in this 
committee messages from industry, ``Well, we've got a product 
that nobody will hear us out. We think we can solve the 
problem.'' There's an IED task force, and this committee gets a 
regular briefing from that task force.
    Now, I'm not trying to criticize the task force, but the 
challenges before you are enormous, and I hope that you can 
represent that you will do everything you can to bring the 
wisdom that you've shown in the past to bear on these current 
problems, and help the Department resolve them.
    Mr. Krieg. Sir, you have my absolute commitment to do that, 
and to recognize that handling these kinds of changes, and 
meeting these kinds of challenges, require both leadership and 
the commitment of a team of people. So, if confirmed, I look 
forward to working with this committee, to understand your 
views, and to incorporate you clearly in what we need to do. I 
look forward to trying to build a team of people within the 
Department of Defense, with the Secretary, the Deputy Secretary 
and others, to handle the wide range of challenges we have in 
front of us.
    Chairman Warner. The Secretary has often said, and I think 
he's correct in his observation, having previously served as 
Secretary of Defense, that today's threat environment lacks the 
clarity that it had years ago. In the Cold War, we knew 
precisely what was facing us. We knew what was required to 
deter an outbreak, and fortunately it was deterred.
    Today, terrorism often has no situs, no state sponsorship. 
It's just a few individuals using innovative ideas with the 
crudest forms of weaponry. The proliferation of weapons of mass 
destruction is such a challenge today. I think you have to put 
your bureaucracy in place, but incentivize them to use their 
own initiatives and their own ideas and think out of the box. 
My recollection of the earlier PA&E folks, and you and I 
discussed this in my office yesterday, they were constantly 
giving a fit to the Secretary of Defense, the Deputy, and the 
Service Secretaries because they were always thinking about 
ideas that we never, in our chains of command and daily 
briefings and so forth, just either didn't have the time to 
address, or never thought of.
    But today's problems just can't be solved by the standard 
bureaucracy going up and down and checking off boxes and things 
of that nature. Even though an individual may get in a little 
hot water from time to time, I'd rather that you supervise them 
and encourage them and they'll survive, if they've been 
prepared and honest in their thinking and thought processes. A 
little thinking out of the box there, Mr. Secretary?
    Mr. Krieg. Yes, sir. If you think about the world in which 
we live----
    Chairman Warner. I think about it every day.
    Mr. Krieg.--the rule sets of the competition are changing 
dramatically. We need the agility to deal with changing 
circumstances, the ability to anticipate the next set of 
challenges. We often find ourselves in a period of change, 
chasing the last challenge, and not anticipating the next.
    Then lastly, we must be willing to innovate. In a period of 
innovation, one has to be willing to make mistakes in 
innovation, but make mistakes with a very clear understanding 
of why you're innovating, and innovating in the right places. 
So all of those will be challenges for us, and to look ahead, 
because the fundamental rule sets of the competition in the 
world in which we're participating are changing in front of us.
    Chairman Warner. I thank you, sir.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. At a committee 
hearing last fall, a senior Air Force acquisition official, 
General Martin, testified that in the 1990s, not only did we go 
through a very serious restructuring of our forces and 
drawdown, but we also went through a major acquisition reform 
that took away much of the oversight and took many of the 
checks and balances out. He added that the pendulum may have 
gone too far.
    We've been told as a result of some organizational changes 
in the 1990s that the Air Force has almost completely lost its 
system engineering capability, and the other military services 
may have similar problems.
    Moreover, the Government Accountability Office (GAO) 
reported earlier this year that roughly a quarter of the 
contracts that they reviewed were subject to inadequate 
oversight after award. When you're confirmed, will you work 
with us to re-examine the acquisition organization and the 
acquisition processes of the Department of Defense to ensure 
that we have the structures and the processes that we need to 
deliver high-quality systems to the warfighter in a timely and 
a cost-effective basis?
    Mr. Krieg. Sir, you have my commitment that I'll be glad to 
work with the committee.
    Senator Levin. Thank you. Last week the current Under 
Secretary, Mike Wynne, testified before our Readiness and 
Management Support Subcommittee about the reductions in the 
defense acquisition workforce. This is what he told us, ``The 
numbers are startling. The defense acquisition workforce has 
been downsized by roughly half since 1990, while the contract 
dollars have roughly doubled during the same period.'' He went 
on, ``We need to continue to renew and restore the defense 
acquisition workforce. We need to ensure we have the right 
people in the jobs to perform the functions required to support 
our warfighters, and now more than ever,'' he said, ``I believe 
we need to increase the size of the acquisition workforce to 
handle the growing workload, especially as retirements increase 
in the coming years.'' I'm wondering whether you share Under 
Secretary Wynne's concerns about the acquisition workforce.
    Mr. Krieg. First of all, Senator, I share the concern in 
general about the Department of Defense workforce. As one looks 
at the average age of the population that we have in our 
workforce--and thinking through how one makes the change of 
generations--this is really one of the biggest challenges we 
have as managers.
    With regard to specifics of the acquisition workforce, they 
need to have special knowledges and special capabilities, so it 
makes the challenge all the more difficult. You have my 
commitment that this will be one area that I will spend a lot 
of time on. I personally believe that people drive processes. 
Success is about people, and getting the people right is 
absolutely critical as we go forward.
    Senator Levin. Do you have a concern, also, about the 
downsizing of the acquisition workforce?
    Mr. Krieg. I have not spent a lot of time up to now, 
thinking about that. It is clearly one of the issues we have to 
look at. Pendulums tend to swing, and they often swing in 
directions that may go a little farther than we should, but I 
look forward to, if confirmed, working with the committee to 
understand that issue, and work on it.
    Senator Levin. Thank you. A recent series of hearings by 
the Airland Subcommittee highlighted continuing problems that 
result from so-called ``commercial item strategies,'' which 
have been pursued by the Department of Defense over the last 
decade. Now, under this approach, the Department has attempted 
to acquire major weapons systems under streamlined procedures 
intended for the purchase of commercial items. In the case of 
the proposed Air Force tanker lease, the result was a 
heightened risk of fraud and abuse, which would have 
significantly increased cost to the taxpayer. The committee 
disagreed with that lease proposal. You were very helpful, and 
very independent along the way relative to that lease, and your 
work is noted. The Department has recently agreed to 
restructure two other major defense acquisition programs, the 
Air Force's C-130J aircraft program, and the Army's Future 
Combat Systems program to avoid similar risk. We struggle long 
and hard to increase the use of commercial products. It was a 
reform on which this committee took the lead in pressing, and 
it has been misused. My question is will you work with us to 
ensure that the commercial items strategies are used to 
purchase true commercial items, and not to avoid requirements 
which are designed to protect the taxpayers in the purchase of 
major weapons systems?
    Mr. Krieg. Yes, sir, I would be glad to.
    Senator Levin. According to the GAO, the General Services 
Administration (GSA) has seen alone, just in its own purchases, 
a 10-fold increase in interagency contract sales since 1992, 
which pushed its total sales up to $32 billion in fiscal year 
2004. Now, what happens is that all too often when one agency 
uses a contract which is entered into by another agency to 
obtain services or products, it appears that neither agency 
takes responsibility for making sure that the rules are 
followed and good management sense is applied. As a result, the 
Department of Defense Inspector General, the GSA Inspector 
General, and others have identified a long series of problems 
with these so-called ``interagency'' contracts, including lack 
of acquisition planning, inadequate competition, excessive use 
of time and materials, improper use of expired funds, 
inappropriate expenditures, and a failure to monitor contractor 
performance.
    In just one recent case, Department of Defense officials in 
Iraq obtained the services of contract interrogators by sending 
money to a Department of Interior contracting center in 
Arizona, which then placed an order with the company, through a 
contract which has been awarded through the General Services 
Administration. Both the Army General Counsel and the 
Department of Interior Inspector General have determined that 
the interrogators' services were totally outside of the scope 
of the GSA contract, which was supposed to be limited to 
purchases of information technology. So, you have a GSA 
contract whose purpose is the purchase of information 
technology, which is used by the Department of Defense to hire 
civilian interrogators for detainees. Now the result is what we 
have seen, I'm afraid, the lack of accountability and lack of 
oversight. I'm afraid that we have also, in relying so heavily 
on other agencies to do much of the contracting for the 
Department of Defense, failed to build the capabilities that 
need to be built inside of the Department of Defense 
acquisition system.
    My question: will you work with us to avoid the improper 
use of interagency contracts and to ensure that appropriate 
mechanisms are in place to protect the interest of the 
Department and the taxpayer in those cases where it is 
necessary or appropriate to use such contracts?
    Mr. Krieg. Yes, Senator. Certainly, if confirmed, I would 
be glad to work with this committee on these issues.
    Senator Levin. Thank you, my time is up, thank you very 
much.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I won't be able to be here for the second panel, but I want 
to assure General Hayden that the comments, that were very 
general comments that were made by Senator Roberts reflect my 
feelings, and I look forward to working with you, General.
    First of all, Mr. Krieg, I appreciate your giving me the 
time that you did in my office. We've had a chance to go over a 
lot of the concerns I had. I think the chairman brought up 
something in his line of questioning that I'm very much 
concerned about, and that is the acquisition timeline, the 
length of time it takes for a new weapons system. I told you a 
story about when Dick Cunningham and I used to sit next to each 
other on the House Armed Services Committee. We watched 
technology change so quickly, Mr. Chairman, that by the time 
you had a Global Positioning System (GPS) unit established in 
the cockpit it was already obsolete. Well, we changed that, we 
were able to change that, but it's not quite as easy with whole 
weapons systems.
    You responded to Senator Warner that you were committed to 
doing that, so do you have any specific thoughts now about how 
you're going to do that?
    Mr. Krieg. Yes sir. I think first of all, you hit on one of 
the biggest challenges--if it takes 25 years to develop a 
weapons system in an era in which information processing 
capability is cycling every 18 months, obviously we will be 
challenged to get the right systems at the right time. So, I 
think one of the key areas is to make sure that we get--the 
words have been used multiple ways: the statement of demand; or 
the requirement; or what it is we want to be able to do--a 
clear understanding of both what the demand statement is, what 
the requirement is, how long it will take, and how much it will 
cost. There is always a trade off among those three things. I 
think that one of the key areas is to work on what it is we're 
going to build, not just how we build it. Obviously, working on 
streamlining processes, while maintaining oversight, is going 
to be one of the key areas and challenges we build into the 
acquisition process. But, if confirmed, I look forward to 
working with the committee on those issues.
    Senator Inhofe. I know it's a difficult thing, but I agree 
that it needs to be looked at, and Senator Levin covered the 
Michael Wynne statement. I would like to leave one quote from 
him that Senator Levin did not use, and that is, ``I believe 
we're at the point where any further reductions beyond the 
levels of this workforce consistent with the President's 2006 
budget request will adversely affect our ability to 
successfully execute a growing workload.'' I agree with that. 
Believe me, as a conservative, I'm the last one in the world to 
oppose any reduction of anything in the government, but in this 
case--back during the 1990s during the Clinton administration 
when they talked about reductions--I became convinced, and I 
became somewhat outspoken at that time, that we were going to 
have to pay for this in one way or another whether it's using 
lead systems integrators, or whether it's using other methods 
that are going to end up being more expensive. I just wanted to 
tell you that I agree with the question and with the concern.
    I personally feel, as I told you in my office, when you 
look at the problems we have, the only solution is going to be 
increased spending on our military in general. As I mentioned 
to you, even the Secretary did say that during his first 
confirmation hearing, 4\1/2\ years ago. So, that's a concern, 
that's our problem up here, not your problem.
    But, I would like to have you address one last thing here, 
and that is, in the State of Oklahoma, small businesses are 
complaining that they're being cut out of contracting because 
of bundling of contracts to larger vendors. DOD complains the 
cuts in acquisition personnel are forcing these measures, and 
frankly, I think that's true, but there is a concern about 
small businesses being able to participate. I would like to 
have your commitment to try and help us in resolving this, but 
not at the expense of the overall bottom line, and what we're 
able to acquire.
    Do you have any ideas on how we could do this? I've talked 
to other members at this table up here who say that in their 
States they're receiving the same complaints, and I believe 
there should be a system set up as there was before, to assist 
some of the smaller businesses to participate.
    Mr. Krieg. Senator, I don't come with a pre-conceived set 
of ideas about what to do. I do recognize that across our 
industrial base, whether it is the large contractors or the 
small innovators who have trouble figuring out how to work with 
us, that as the rule sets of our competition change, and what 
we want to do changes, we have to figure out how to work in 
different ways with our industrial base. I think that is, along 
with the workforce, one of the greater challenges I would face 
if confirmed.
    Senator Inhofe. As I've mentioned to you before, and we've 
mentioned to a lot of people, the one thing that nobody at this 
table likes is surprises. I was very much distressed when, 
while we were actually in our authorization meeting a few years 
ago, to have the Crusader system cancelled, and no one even 
knew that it was going to happen. I would like to have a 
commitment from you that if you see something coming up where 
there is a change of need or a change of technology that 
requires an abrupt change in what we have been planning and we 
have been authorizing, that you would be very forthright and 
come to us so that we aren't suffering from some of the same 
surprises as we have in the past.
    Mr. Krieg. Senator, I'll do my best, if confirmed, I know 
that one of the things that people like least is surprise, and 
so I will do my best, if confirmed, to communicate with you all 
as changes are made.
    Senator Inhofe. That's fair enough. I look forward to 
working with you. Thank you, Mr. Chairman.
    Mr. Krieg. Thank you, sir.
    Chairman Warner. Thank you very much, Senator Inhofe.
    We now have Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. Mr. Krieg, 
obviously you're facing a daunting challenge. You've heard how 
difficult it is, and obviously, you've moved forward and said 
you want to take on that challenge. You mentioned agility. I 
suspect that you want to combine agility and accountability to 
avoid obsolescence, as well as to do things in a managed, 
orderly fashion.
    Having dealt with a bureaucracy in the past when I was 
governor, I concluded that the bureaucracy is full of what you 
call ``we be's''--we be here when you come; we be here when you 
go--and I hope that as you work through a reduced workforce, 
you will bring people on board who will not have that attitude, 
because it's that attitude that delays unnecessarily, obstructs 
unnecessarily, and very often doesn't facilitate the process to 
move forward, and that helps create obsolescence.
    It also creates a situation where people are risk averse. 
You're in a position where you don't dare be risk averse. On 
the other hand, you can't take too many risks. As you said, 
what you want to do is know what the risk is that you're going 
to take and quantify it.
    I'm concerned about all the discussion about a reduced 
workforce within your agency, and I suspect it will be one of 
the first things that you do, as you've indicated, to evaluate 
whether you have enough people, and whether they're in the 
right positions. That's going to be a very critical thing. 
Numbers, as opposed to quantity and quality challenges.
    Also, I understand that it may be an opportunity for you, 
because over half of your workforce there is nearing an age of 
retirement, not that we're happy to see people leave, 
necessarily, but it does create an opportunity as you're 
looking to the future to be able to bring on board other people 
without unnecessarily disrupting the agency. I emphasize 
``unnecessarily.'' Obviously you're going to have to 
necessarily do some things that will be a bit disruptive or you 
will not be the manager that we would like to have you be, and 
the one you want to be.
    In addition to the other responsibilities, you're going to 
be chairing the Nuclear Weapons Council, and so my question 
really is, have you thought very much about the development of 
new nuclear weapons, such as the robust nuclear earth 
penetrator? Well, the study is underway, and I know you can't 
say a lot of things until confirmed, but have you taken a look 
at that, or do you have any thoughts?
    Mr. Krieg. Senator, that's one where I have not taken a lot 
of time to think about it in the job of PA&E. We've looked at 
the overall state of health of the strategic forces and are 
trying to think through what the next era looks like, but in 
regard to that specific program, or specific idea, I haven't 
spent any time at all, sir.
    Senator Ben Nelson. I suspect that that will be one of the 
things that you'll have to do as the study progresses and as 
technology increases. Ultimately, it appears that something 
will come across your desk where you'll have to work on it.
    I know General Hayden is going to be dealing with some 
questions about Intelligence Command (INTCOM), but I'm not 
going to be able to do that. I suspect that we'll have a chance 
to talk about that at a later date.
    Another concern that many of us have had, dealing with the 
missile defense system, is the challenge between operational 
testing and realistic, developmental testing. Do you have any 
thoughts you'd like to share on that as you look forward to 
your new position? I know that you've dealt with it in some of 
the advanced questions, I just wondered if you had any other 
thoughts.
    Mr. Krieg. I think the real challenge in a program, in all 
programs, is to get realistic testing in a timely fashion to 
make sure that the system works as anticipated. I've not spent 
a lot of time in the details of that particular testing 
program, but I do believe that the operational testing 
community is working very closely with the developmental 
testing community to try to figure out how to get both needs 
satisfied as that system develops. Clearly, I believe that 
systems need to have solid operational testing so that we can 
have an understanding of their capacity and that we know what 
they can do.
    Senator Ben Nelson. My colleagues have heard me say it 
before, so I'm reluctant to say it again, but I've raised the 
question, if we got a scarecrow, and part of this is to make 
sure that, not as an offensive system, but as a defensive 
system, that it will ward off people who might otherwise try to 
do us in from afar, that has to work. So, please make sure that 
if this is a scarecrow, that it scares crows.
    Thank you, Mr. Chairman. Thank you and good luck, and we 
appreciate very much your service and your family's support. 
It's necessary.
    Mr. Krieg. Thank you, sir.
    Chairman Warner. Governor Nelson, we always learn from you.
    Senator Ben Nelson. You're very kind. Thank you, Mr. 
Chairman.
    Chairman Warner. We got two good little stories to work on 
here.
    We'll now have our distinguished colleague, Ms. Collins.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. It is hard to 
follow someone who has introduced us to scarecrows, ``we 
be's,'' and other esoteric military concepts.
    Mr. Krieg, first of all, let me congratulate you on your 
nomination. This is an extraordinarily important position, and 
we very much appreciate your willingness to step up to the 
plate and serve your country in this manner.
    I want to explore with you today the role of competition in 
the industrial base. A healthy, competitive industrial base is 
critical to supplying our men and women in uniform with the 
very best products, weapons systems, and services, and 
Secretary Rumsfeld said recently in an exchange with me, 
``There's no doubt that competition is healthy and creates an 
environment that produces the best product at the best price, 
and it's a good thing.''
    But, what we've seen in recent years is a shrinking of the 
industrial base on which the Pentagon relies. That's very 
troubling to me. In some cases it's come about as a result of 
mergers and acquisitions. In other cases it's a result of 
unsustainably low rates of production.
    This has become an issue in ship-building, where the Navy 
has proposed a radical change in its acquisition strategy for 
the DD(X) destroyer program. Instead of pursuing a strategy 
that would have ensured two shipyards participating, the Navy 
is proposing a ``winner-take-all,'' one shipyard strategy. 
Yesterday, the current occupant of the position that you are 
going to assume, Under Secretary Wynne, issued a memorandum 
that essentially told the Navy, ``Not so fast. There are a lot 
of questions that need to be answered,'' and he refused to give 
a green light to the Navy going forward with the one shipyard 
strategy for the DD(X) program.
    Have you looked at this issue, and do you agree with Under 
Secretary Wynne that we need additional information, or the 
Pentagon needs additional information before a decision can be 
made on whether this strategy is the right one?
    Mr. Krieg. Senator, I have not looked at this specific 
issue, but recognize the concerns you've laid out, the valid 
concerns you've laid out, and simply state that, if confirmed, 
I obviously, will have to look at this issue. I share your 
concerns about the overall industrial base. We're highly 
dependent upon their success and performance for our success, 
and it's an interesting relationship between supplier and 
consumer. So, if confirmed, I will obviously look into this 
specific issue, because it's right in front of us. On the 
broader set of issues you laid out, I think it's one of the 
greater challenges we have in front of us.
    Senator Collins. I think it is also. If we become dependent 
on just one supplier, inevitably it's going to drive up cost, 
reduce innovation, and jeopardize the ability of the Department 
of Defense to secure the best products, services, and weapons 
systems at the lowest possible price. So, I urge you to take a 
very close look at that, not only where I, obviously, have a 
very great interest, the DD(X) program, but generally speaking, 
because from the analysis that I have done, we're seeing a 
shrinking of the defense industrial base in a way that should 
be very troubling to us. I would note that in 2001, the 
Pentagon and the Justice Department blocked an acquisition by 
General Dynamics of Newport News, because General Dynamics 
already owned the other submarine construction entity, and at 
that time, the Department said that they explicitly looked at 
the impact on competition, the impact on the warfighter, and 
the conclusion was that we really had to maintain competition.
    I think that is a critical principle, even though the 
decision was adverse to my constituents, I believe it was the 
right decision to maintain a competitive base for the 
construction of nuclear submarines. That's why it's been 
particularly strange to see the Navy do a complete flip-flop in 
this area, and embrace a totally different philosophy when it 
comes to this next generation destroyer. But, it is an 
important issue, and I urge you to look at it, and to look at 
the broader issue of how can we ensure a healthy, competitive 
industrial base. Once the skilled workforce is gone, it is gone 
forever. When Bath Iron Works and Ingalls Shipyard came before 
the Seapower Subcommittee last week, they talked about the 
expense and number of years involved in training mechanics, 
engineers, and designers. This isn't something that you take 
someone right off the street and expect them to perform well, 
so I do ask you to take a close look at those issues, and I can 
assure you, you will be hearing from me frequently on them. I 
look forward to working with you.
    Mr. Krieg. Thank you, Senator.
    Chairman Warner. Thank you, Senator. I will just reflect on 
Senator Collins' basic theme, and I hope you will come up with 
some innovative programs of your own, about how you're going to 
reach out to this industrial base, and engage them, and listen 
to them. They are, of course, a necessity under our system of 
economics, driven by the bottom line and profit, but it is so 
important that that be done. Look at the research and 
development (R&D) which today, I'm told, is not much of a 
profit center, and see if you can move that more towards being 
a profit center, such that the industrial base will begin to 
risk some of its own assets with the understanding that Uncle 
Sam will put some of its assets at risk.
    Thank you, Senator Chambliss, for your patience.
    Senator Chambliss. Thank you, Mr. Chairman.
    Mr. Krieg, welcome to the committee this morning, and I 
want to thank you for coming by yesterday and letting us have a 
chance to visit once again, particularly with regard to the C-
130J, as well as the F/A-22 program, which are critically 
important programs for the Air Force. I am pleased the DOD is 
recognizing, relative to the decision to terminate the C-130J 
program back in December, that you didn't have all the facts, 
specifically the facts related to termination costs, and more 
importantly, the facts regarding the current performance of 
that aircraft. I'm glad DOD is looking to come back with an 
amended budget, although, even though it's been promised, I'm 
still waiting to see that budget. I understand that's not your 
job to do that, but we look forward to getting that from the 
right folks.
    Relative to the F/A-22 program, I appreciated your comments 
in my office yesterday regarding the superb job the program 
manager has done over the last few years in turning that 
program around. As we discussed last summer, the program 
executive officer (PEO) for the F/A-22, General Lewis, 
committed to this committee that he would deliver 11 of those 
aircraft between August 2004 and January 2005, when in fact the 
contractor actually delivered 13 aircraft during that time 
frame.
    General Lewis also committed to deliver 12 aircraft between 
February 2005 and July 2005, and the contractor is currently on 
track to deliver 13 of those aircraft during that time frame. 
Every production metric available indicates that this program 
is on the right track. Am I correct in the statements regarding 
that, Mr. Krieg?
    Mr. Krieg. As best I understand them, Senator, the program 
has come a tremendous way from where it was 18 months ago.
    Senator Chambliss. Now just last week, Defense Acquisition 
Board Chairman Mike Wynne approved the F/A-22 for a full rate 
production, based on system design, readiness for full rate 
production, and successful disposition and progress on 
addressing suitability deficiencies identified during Initial 
Operational Test and Evaluation (IOT&E) testing. Let me 
interject, relative to IOT&E testing that Mr. Wynne commented 
in his decision memorandum that the F/A-22 performed 
significantly better than the F-15C in comparison tests, and 
exceeded the relevant criteria for this phase of testing.
    Again, yesterday, Mr. Krieg, you commented that you 
supported Mr. Wynne's decision relative to full rate 
production, and I want to make sure that's correct for the 
record.
    Mr. Krieg. Yes, Senator, we had a very good discussion in 
the Defense Acquisition Board on that.
    Senator Chambliss. You concur with the decision of that 
Board?
    Mr. Krieg. I was comfortable, given the facts presented, 
with what Secretary Wynne came up with.
    Senator Chambliss. Now, Mr. Krieg, even with the superb 
progress this program has made, the excellent performance 
during IOT&E and the recent full rate production decision by 
Mr. Wynne, this committee may consider, once again, for the 
third year in a row, reductions in funding for this program 
based upon, of all things, the schedule. Now, Mr. Krieg, the 25 
aircraft that are funded with fiscal year 2006 funds would 
deliver in 2008, and based on the fact that the contractor is 
currently producing approximately 25 aircraft per year, how 
likely is it, in your opinion, that the contractor will be able 
to produce 25 aircraft 3 years from now, in 2008.
    Mr. Krieg. Sir, Senator, I don't have any specific 
knowledge of the contractor's capability to produce or the 
specific schedule, I have not looked at the program in that 
great a detail.
    Senator Chambliss. But you know and understand that----
    Mr. Krieg. If we have 25 today, they should be able to make 
25 in the next 3 years.
    Senator Chambliss. Thank you.
    Mr. Krieg, do you agree that reducing the number of 
aircraft funded in fiscal year 2006 will do nothing to help the 
schedule or help the program, but will only ensure that the 
warfighters at Langley Air Force Base receive one less aircraft 
in 2008?
    Mr. Krieg. I'm not sure I can add anything to your 
question, except to say that I hear your question, and as your 
question is framed, that would be the answer.
    Senator Chambliss. Reducing the funding for the program, 
really does nothing to help the program, is that a fair 
statement?
    Mr. Krieg. The amount of funding the Nation provides to any 
of these given programs, given choices that people make, 
individual programs either gain or suffer, based upon those 
decisions.
    Senator Chambliss. Based upon funding for those programs.
    Mr. Krieg. Right, yes sir.
    Senator Chambliss. Now, Mr. Krieg, do you agree that 
reducing aircraft at this point in this program, or for that 
matter any other program, will only serve to inject 
instability, and would increase the per plane cost of the 
airplanes that we ultimately might buy?
    Mr. Krieg. I understand your question, I guess I'd have to 
look at the specifics of the layout to determine how much it 
would effect cost, given the nature of the program. I'll be 
glad to take all of these, for the record, to understand them, 
Senator. You're probably more in tune to the details of this 
one than I am, so if you'd like me to go back and look at them 
in particular, I'd be glad to do that. I don't, off the top of 
my head, have a specific answer to most of these questions. But 
we'd be glad to look into it for you.
    [The information referred to follows:]

    The Department reduced funding for the F/A-22 program in the 
President's fiscal year 2006 budget (PB06), in order to address other 
essential priorities. This decision, like any difficult compromise 
undertaken in response to budgetary pressures, will have adverse 
consequences. Due to economies of scale, reducing program funding 
creates production inefficiencies and affects the ability to get better 
pricing from suppliers, resulting in upward cost pressure. However, the 
Department has established the F/A-22 program as a ``buy-to-budget'' 
program. This creates incentives for the Air Force to work with the 
contractor to improve efficiencies, with a goal of producing the 
maximum number of aircraft possible within the budget.
    PB06 reduced the planned F/A-22 buy from 26 to 25 aircraft in 
fiscal year 2006. This includes one replacement test aircraft to be 
produced with Research, Development, Test & Evaluation funds. The 
change has a small impact on procurement efficiency and progress on the 
learning curve. The ultimate impact, as you pointed out, is that the 
Air Force likely will receive at least one fewer aircraft within the 
Department's overall buy-to-budget plan. The reduction in quantity will 
not eliminate delays in deliveries, because the quantity planned in 
fiscal year 2006 (25) is an increase from the 24 aircraft being 
procured in fiscal year 2005. Still, the contractor is making progress 
in reducing those delays. Lockheed Martin and its suppliers developed 
production facilities and processes to support production of 32 
aircraft per year, so I am confident that they will be capable of 
building the 25 aircraft planned, provided that sufficient funding is 
available within the Department's buy-to-budget plan.
    The changes made to the F/A-22 procurement plan in PB06 were 
structured to minimize the impact on procurement efficiency. However, 
as you noted, changes in procurement efficiency and progress on the 
learning curve will tend to increase unit flyaway cost. This is the 
case for most weapon systems, unless the design or manufacturing 
facility is insensitive to quantity (for example, if the production 
line is mature, if the facility produces two or more items with a large 
number of common components, or if the facility produces software or 
other items without using a traditional production line).

    Senator Chambliss. Mr. Krieg, you are here for review of 
whether or not you should be in charge of the acquisition of 
all weapons systems for the Department of Defense. Is it a fair 
statement that irrespective of what the weapons system is, if 
we reduce the buy, or stretch out the buy on any weapons 
systems, that the per copy cost of that weapons system is going 
to increase?
    Mr. Krieg. In general, the cost per unit at any given point 
is related to the efficiency of the capital employed in 
delivering it. So, as your general statement, the answer would 
be yes, but in the specifics of how much, and how much the 
capacity can deal with the change, would be where I'd have to 
look at the specifics of the question. In general, you get your 
maximum efficiency and maximum productivity when you fully 
employ the capital to produce what the capital is laid out to 
manufacture. So, the answer to your general question would be 
yes.
    Senator Chambliss. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Senator Chambliss, if you wish to take 
additional time, that's a very important sequence of questions, 
and certainly it's been the record of the Department that when 
programs have been stretched or curtailed, the unit costs have 
gone up. I don't know of any instance when they've ever gone 
down.
    Senator Chambliss. I mean, that's a fundamental question 
that somebody who is going to be heading up the department of 
acquisition for the Pentagon, I would hope would understand. I 
think you answered it that that is true from a general 
standpoint. I understand you can't talk about the specifics of 
this program, or whether it's ships or tanks, but if we start--
if we continue--to curtail programs, we continue to move money 
around in programs, it's a given fact, Mr. Krieg, that the per 
copy cost is going to continue to rise, and you're going to be 
faced with a very critical decision. You and I talked a little 
bit about this yesterday, and I want to use the tactical 
aircraft issue as the classic example because this is my 11th 
year, and we've seen this train wreck coming between how many 
tactical aircraft we want to buy and how many tactical aircraft 
we can afford. Now, we are fast approaching that crossroads, we 
may even be there, and you're the guy that's going to be 
sitting in that position of really making that fundamental 
decision about what direction we're going in. You're going to 
have the same problem with ships. I don't think we're buying 
enough ships today, I think we're depleting our Navy of some 
assets that I think, one of these days, we're going to regret.
    Now, on the other side of the coin, we're trying to take 
the money that we have and utilize it in the best way, and 
you're the guy that, in effect, is going to be signing the 
checks on which direction we go in, so I think this is a 
fundamental aspect of your job that we need to think seriously 
about, because you're going to be the guy making that decision.
    I think you answered my question very adequately, but Mr. 
Chairman, we all know that we've been arguing over this for a 
number of years, and we've been trying to legislatively make 
decisions within the budget numbers, and trying to make sure 
that we provide our men and women with all of the assets they 
need, but I think the next 2 or 3 years are going to be the 
real critical point that we reach relative to acquisition of 
weapons systems, and we have to make a decision whether we're 
going to increase the top line to give them more money, and 
whether we're going to stay within that top line, and make your 
job even tougher. It is a fundamental thing that I think 
anybody stepping into the acquisition position is just going to 
have to deal with immediately, so I think he answered my 
question, Mr. Chairman. Thank you.
    Chairman Warner. Thank you, Senator.
    In consultation with Senator Levin, the Chair makes the 
following observation, and then the following decision. Seeing 
your young daughter back there, she sent a signal to me that 
this hearing on your nomination should come to an end. It was a 
very perceptible and loud yawn, and therefore, we'll ask that 
you provide answers to the record to a series of questions that 
we might otherwise have asked in a second round.
    We'll let your daughter know, also, that we're very much 
indebted to her for that signal. [Laughter.]
    But before we close, Mr. Krieg, I think the committee 
should acknowledge the work that's been done by the current 
occupant of this position. Although he's been appointed, as 
opposed to confirmed, Mike Wynne has withstood a lot of tough 
storms, and we wish him well in the course of his next 
challenges in life.
    So at this point, if there's no further discussion of the 
membership, we'll excuse you, and we'll invite the 
distinguished General to take his seat.
    Senator Levin. I would like to join you, Mr. Chairman, in 
thanking Mr. Wynne also for his service. If somebody could pass 
that along.
    Mr. Krieg. I will be glad to do that. [Recess.]
    Chairman Warner. The committee will now resume its panel II 
with the distinguished Lt. Gen. Michael V. Hayden. We welcome 
you before the committee as the President's nominee to 
appointment to the grade of general, and the first Principal 
Deputy Director of National Intelligence. We welcome you and 
your lovely wife, and we would ask now if you would introduce 
your family.
    General Hayden. Thank you, Senator. I'm joined here today 
by my wife, Jeanine, a counselor by training, but she has spent 
most of her energies supporting me and being a partner in my 
work for the past 37 years. Most recently at NSA she's taken on 
personal responsibility of supporting agency families, 
particularly with the additional stresses after the 2001 
attacks. We have our daughter, Margaret, here too, who is an 
officer in the Air Force Reserve, and I can't avoid commenting, 
Senator, a resident of Herndon, Virginia. Her two brothers, our 
sons, could not be with us here today.
    Chairman Warner. Thank you. At this time we would now like 
very much to receive the comments of our distinguished 
colleague, the Senator from Maine.
    Senator Collins. Thank you very much, Mr. Chairman. I 
appreciate having the opportunity to join the distinguished 
Chairman of the Intelligence Committee, Senator Roberts, in 
introducing Lt. General Michael Hayden to the committee.
    I worked very closely with General Hayden last year in the 
writing of the Intelligence Reform Bill, and I became so 
impressed with him during that time. I remain very grateful for 
his contributions to that effort, and the advice and insight 
that he candidly shared with me.
    I recommended General Hayden to the White House for this 
appointment, because I know him to be one of the Nation's 
foremost experts on intelligence matters. His 36 years in the 
United States Air Force, and most recently, his leadership as 
Director of the National Security Agency have prepared him very 
well for this position. In fact, I believe the President could 
not have made a finer appointment.
    During his outstanding career in the military, General 
Hayden has been deeply involved in intelligence issues, both as 
a consumer and as a producer of intelligence, and from a 
variety of perspectives. As the Chief of Intelligence for the 
51st Tactical Fighter Wing in South Korea, and subsequently as 
Deputy Chief of Staff for the United Nations Command, and U.S. 
Forces Korea, he was a consumer of intelligence for warfighting 
purposes.
    As the Director for Defense Policy and Arms Control at the 
National Security Council, he was a consumer of intelligence to 
support policymakers. As the air attache of the U.S. Embassy in 
Bulgaria, he was a consumer of intelligence for diplomatic 
activities. It's very unusual to have an individual who has 
seen the need for intelligence from so many different 
perspectives.
    Finally, he has been a producer of intelligence, both at 
the tactical level, as Commander of the Air Intelligence 
Agency, and most recently at the national level as Director of 
NSA. As a result of this wide range of experience, he 
understands the needs of intelligence consumers, and also the 
challenges and opportunities for collecting, analyzing, and 
disseminating intelligence to meet those needs. He has been a 
truly outstanding leader of the NSA during a time of 
unprecedented change in both the communications technology 
available to our adversaries, and the nature of the threat to 
our national security, he has demonstrated strong and decisive 
leadership skills, he developed a bold vision for transforming 
the NSA to enable it to perform effectively even though the 
volume, velocity, and variety of communications have increased 
exponentially.
    General Hayden recognized that the NSA could no longer just 
gather mountains of data and then sort through them later, but 
rather needed to hunt for the right data, amid the torrents of 
available information in order to satisfy its intelligence 
consumers quickly and efficiently. He then set out with 
determination and remarkable leadership to turn that vision 
into reality. By directing the NSA, General Hayden has been at 
the forefront of our Nation's war on terrorism as our 
Intelligence Community has mobilized to protect and defend our 
homeland. Indeed, his work in transforming the NSA to confront 
21st century threats, made clear to him the need for our 
Nation's Intelligence Community to operate as, to use the 
President's term, ``a single, unified enterprise.''
    I believe the General's unique experience as both a 
consumer and producer of intelligence, his leadership skills, 
and his vision for integrating the Intelligence Community, will 
serve him and our Nation well as the first Principal Deputy 
Director of National Intelligence.
    Mr. Chairman, I do want to recognize General Hayden's wife 
for all that she has done. I don't know whether the committee 
is aware that she formed a family action board, after the 
September 11 attacks on our Nation, to support the families of 
NSA's employees as their loved ones worked day and night to 
protect all of us. I think her actions complement the General's 
dedication in serving our country. This is truly a remarkable 
family--dedicated patriots--and I think we're very fortunate, 
and could not do better than to have General Hayden in this 
very important position.
    Thank you, Mr. Chairman, and thank you General Hayden.
    Chairman Warner. Thank you, Senator Collins.
    In the unlikely event that I ever appear before the Senate 
for confirmation, I would like very much for you to introduce 
me. [Laughter.]
    General, our distinguished colleague, Mr. Chambliss, is 
about to say a few words here which I'm happy to receive.
    Senator Chambliss. Thank you very much, Mr. Chairman. I 
apologize for having to go to another matter for which I'm 
late. I had the chance, as did you and Senator Levin, to cross-
examine General Hayden last week before the Senate Intelligence 
Committee, but I just couldn't have him here without echoing 
the sentiments of Senator Collins.
    General Hayden is one of those unusual professionals within 
our military who has stood just head and shoulders above many 
other folks relative to the positions to which he's been 
assigned. All of our men and women in uniform do a terrific 
job, but I'll have to say that General Hayden, and having had a 
chance to work very closely with him over the last several 
years, particularly following September 11, he's one of the 
folks who stepped up and said, ``Listen, we've got problems in 
my agency,'' and I never had to call him to ask him what he was 
doing relative to correcting the deficiencies. He would come to 
us as members of the House Intelligence Committee to say, 
``This is what we're doing,'' and that's a special individual 
that does that.
    The President's made an excellent choice in General Mike 
Hayden to be the Deputy Director for the DNI, and I just 
applaud it and look forward to continuing to work with him. 
We're going to miss him at NSA, but we'll have an even closer 
working relationship at the DNI. General Hayden, thank you, and 
thank your family, too, for the sacrifices they all make 
relative to making America a better place, and a safer place, 
in which to live. Thank you.
    General Hayden. Thank you, Senator, that's very kind. Thank 
you.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General Hayden, let me first congratulate and thank you for 
your past service, for your future service, for your family's 
service and support of you, making your success possible, and 
most importantly, for your willingness to serve in a very 
important new capacity. I would like also to express through 
you, our deep appreciation for the service and the sacrifices 
of the men and women of the National Security Agency. Their 
support of our combat forces, and for the senior leadership 
which they also support, and their recent activities are 
critical and essential. You've led this with some real 
astuteness and some real initiative, and I greatly appreciate 
that.
    Your service as Director of the National Security Agency 
for the past 6 years has been notable. You've led the agency at 
a time of major transformation in the way that the NSA has had 
to think about how it does its job, how NSA supports its 
traditional customers while responding to the needs of an ever-
growing list of new customers. The experience as Director of 
the NSA at that time of major transition will equip you well to 
help lead the Intelligence Community, as we implement the 
intelligence reforms that we adopted last year.
    Congress worked long and hard on that legislation last 
fall. Now it's the turn of the administration and the executive 
branch to turn that legislative guidance into a practice that 
functions well and smoothly. So, we thank you for your 
willingness to undertake that effort. You are a wonderful 
choice for this position, and I look forward to working with 
you.
    General Hayden. Thank you, Senator, thank you very much.
    Chairman Warner. Thank you very much, Senator Levin. I will 
ask that my statement be incorporated in the record, as if 
delivered in full.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    We will now move to our second nominee, Lt. Gen. Michael V. Hayden, 
USAF. We welcome you before the committee as the President's nominee 
for appointment to the grade of General, and the first Principal Deputy 
Director of National Intelligence. We welcome you and your wife of 37 
years, Jeanine, and your daughter, Margaret.
    General Hayden currently serves as the Director of the National 
Security Agency at Fort Meade, Maryland, where he has served since 
March 1999. I believe he is the longest serving director in the history 
of the National Security Agency. The mission of the National Security 
Agency has changed dramatically in the past decade, as information and 
communications technology have proliferated. We are fortunate to have 
had the continuity of General Hayden's leadership during this period of 
rapid change.
    General Hayden has a distinguished 36 year record of service, 
having bridged the gap between intelligence officer and operator. He 
has served as an attache abroad, on the National Security Council, as 
the J-2 of U.S. European Command, as the Commander of the Air 
Intelligence Agency, and as the Deputy Chief of Staff of the U.N. 
Command and U.S. Forces in Korea, before serving as the head of one of 
the most complex elements of our Intelligence Community.
    The position for which general Hayden has been nominated represents 
an important milestone in the efforts of the President and Congress to 
improve the organization and performance of the Intelligence Community. 
We simply must have the best possible intelligence available to our 
national leaders in order for them to protect our homeland, and to make 
decisions on the diplomatic and military actions that may be required 
to protect our national security interests. Similarly, we must ensure 
that our Armed Forces have the best possible intelligence available to 
them to ensure the success of their missions, in defense of our Nation.
    In this time of great demand on our Armed Forces as they are 
conducting the all-out global war on terrorism, we must not allow 
intelligence support to our warfighters to diminish. We all recall that 
tragic chapter of history, in 1991, when General Norman Schwarzkopf 
came before this committee and told us that national intelligence 
support was simply not adequate during the first Persian Gulf War 
(Operation Desert Storm).
    General Hayden, we seek from you your assurance that, working with 
Ambassador Negroponte, intelligence support to the warfighter will 
remain one of your top priorities.

    Chairman Warner. I would want to mention one chapter in the 
history of this committee which is indelibly emblazoned in my 
mind.
    In this time of great demand of our Armed Forces, while 
they are conducting an all-out global war on terrorism, we must 
not allow intelligence support to our warfighters to diminish. 
We all recall the tragic chapter of history in 1991 when 
General Norman Schwarzkopf came before this committee and 
advised us that the national intelligence support was simply 
not adequate during the first Persian Gulf War. You probably 
remember that. Intelligence is, without a doubt, the greatest 
force multiplier available, and I'm certain you're aware of 
that. As you go into these, as we say in the old Navy, 
``uncharted waters,'' we wish you well. I noted from Senator 
Collins' introduction, and then went back and re-read your 
distinguished biography--and I'll put this in the record--
``General Hayden entered active duty in 1969 after earning a 
Bachelor's Degree in History in 1967, and a Master's Degree in 
Modern American History in 1969, both from Duquesne 
University.'' Sir, you are about to make history. You were 
prepared for it at an early time. Thank you.
    At this time, I would like to propound the questions that 
we ask of all nominees on behalf of not only the committee, but 
the entire Senate, and indeed Congress as a whole.
    You answered the advance policy questions, and without 
objection they'll be placed in the record.
    As to the specific questions, have you adhered to the 
applicable laws and regulations governing conflicts of 
interest?
    General Hayden. Yes, Sir.
    Chairman Warner. Have you assumed any duties, or undertaken 
any actions, which would appear to presume the outcome of the 
confirmation process?
    General Hayden. No, sir.
    Chairman Warner. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in congressional hearings?
    General Hayden. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Hayden. Yes, sir, Mr. Chairman.
    Chairman Warner. Will those witnesses be protected from 
reprisals for their testimony or briefings?
    General Hayden. Absolutely.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request by any duly constituted committee of the 
Senate?
    General Hayden. Yes, sir.
    Chairman Warner. Do you agree to give your personal views 
when asked before the committee of the United States Senate?
    General Hayden. Yes, Mr. Chairman.
    Chairman Warner. Even if those views differ from your 
immediate supervisors or the administration in which you are 
privileged to serve?
    General Hayden. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communications in a 
timely manner when requested by a duly constituted committee of 
Congress, or to consult with the committee regarding the basis 
for any good faith delay or denial in providing such documents?
    General Hayden. Yes, Mr. Chairman.
    Chairman Warner. Thank you.
    At this point in time the committee would like to receive 
such opening remarks as you might have.

STATEMENT OF LT. GEN. MICHAEL V. HAYDEN, USAF, TO THE GRADE OF 
    GENERAL AND TO BE PRINCIPAL DEPUTY DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    General Hayden. Thank you, Mr. Chairman, I'll try to be 
very brief.
    First of all, it's a privilege to be here today, to be 
nominated by the President. I would like to just share an 
anecdote I shared with the Senate Intelligence Committee to 
give you some sense of the appreciation I have for this job.
    The day after the President announced Ambassador Negroponte 
and me for these positions, I received an email from a friend 
of mine, a boyhood friend, with whom I was inseparable until 
about the 6th grade when he moved away. I lived on the lower 
north side of Pittsburgh in this section called ``The Ward,'' 
kind of tucked between some hills in the flood plain of the 
Allegheny River where the two ballparks are now. My friend 
wrote to me in the email: ``The Ward, the street parties, the 
picnics, Clark candy bars, and Teaberry gum thrown out the 5th 
floor windows of factories in our neighborhood to kids cheering 
on the streets and the damp train trestle on the way to and 
from school are the things that you are made of. You'll never 
get too far from them. It's those things that you will be 
protecting.''
    So, Senators, with all due respect----
    Chairman Warner. That is a very moving bit of prose.
    General Hayden. It really was, and I don't think the 
committee can put any more pressure on me than Jimmie Heffley 
already has, frankly.
    Sir, Ambassador Negroponte last week in his testimony made 
quite clear the importance of American intelligence. You 
already know full well the challenges being faced by us as a 
community, so we're at a pretty interesting place--never more 
challenged, and never more important to the safety of the 
Republic. We're surrounded by what seems to be a variety of 
dilemmas. We want more cohesion, a better sense of direction 
throughout the community. In fact, the Commission on the 
Intelligence Capabilities of the United States regarding 
Weapons of Mass Destruction (WMD Commission) claimed that we 
were a community in name only, but at the same time, we don't 
want so much centralization that it leads to group think or 
herd mentality when it comes to analysis.
    All of us want us to aggressively be more effective in 
connecting the dots, even when there may not be many dots and 
some of them may be hidden in the noise, but I don't think 
anyone wants us to base our analysis on past context alone, or 
mere inertia, or isolated data points. We all know the enemy 
may be inside the gates, and job one is to defend our homeland. 
We're also required to defend the privacy rights of our 
citizens.
    We want to strengthen our community. The law gives the DNI 
real power, certainly more power than we ever gave the Director 
of Central Intelligence (DCI), but we are here to preserve the 
chain of command as well, something I know that is of 
particular interest to this committee. I could go on, but you 
get the picture. This is going to be very hard work.
    When I testified last summer before the House Intelligence 
Committee, I said our community, the Intelligence Community, 
had been governed by the principle of consensus for almost a 
half a century, and that wasn't bad. Consensus gets you a lot 
of things, like buy-in and balancing competing needs, priority, 
and stability. As an airman, I know the value of stability. 
It's an absolute virtue in a lot of aircraft. When I talk about 
this to larger audiences, I usually ask them what they think 
the opposite of stability is. The immediate answer is 
``instability,'' and I correct them and say, ``That is not 
true.'' In the design of an aircraft, the opposite of stability 
is maneuverability, and that is a virtue, too.
    The legislation you approved last December made it clear to 
me that you want the Intelligence Community to have more 
maneuverability. It's hard to make sharp turns by consensus; 
consensus is rarely bold, and it's frequently wrong.
    So, last summer when the President announced that he 
supported the DNI, and last fall when you enacted legislation, 
it was clear to me that we were dampening the principle of 
consensus as a way to govern our community, far more in favor 
of clear lines of authority and responsibility. I told the 
House of Representatives Committee last August that if we went 
down this path, we needed to take care of a couple of things. 
One was, if we were going to dismantle the DCI and the informal 
authority he had, because he also headed up the Central 
Intelligence Agency (CIA), we would have to aggressively codify 
the authorities we wanted the DNI to have.
    Second, I said the DNI would need robust authorities over 
those big three agencies around town, where a lot of American 
firepower when it comes to intelligence, really resides--
National Security Agency (NSA)/National Geospatial-Intelligence 
Agency (NGA), National Reconnaissance Office (NRO), and the 
Deputy Director of Operations (DDO) at the CIA.
    Third, Mr. Chairman, and I know this part is particularly 
close to the heart of this committee, this new structure would 
have to accommodate the needs of America's combat forces, needs 
that, frankly, every day seem to redefine themselves in terms 
of standards for relevance and timeliness.
    Mr. Chairman, DOD is the largest consumer of intelligence 
in the U.S. Government. In fact, I think it's the largest 
consumer of intelligence in the world. As a military officer 
I'm fully aware that in a doctrinal sense, we have opted for 
precision over the principle of mass. Put another way, we've 
decided we can create the effects we used to create by mass, by 
now relying on precision. We will defeat our enemies not 
because we can mass overwhelming fires on them, but because we 
can apply very discrete fires in very discrete ways. But 
precision weapons are never more precise than the intelligence 
that enables them. We need intelligence that is worthy of the 
precise weaponry that we have, and are creating.
    This shouldn't be surprising. I personally believe that the 
way a nation makes war is as indicative of its culture as the 
way it writes poetry or creates music. We are an information-
based society. America's military is an information-based 
combat force, hence the absolute criticality of precise, 
timely, and relevant intelligence for our combat forces.
    I believe that the legislation signed by the President does 
nothing to hamper this, and in fact, actually gives us the 
opportunity to improve the overall performance of U.S. 
intelligence for all consumers, including the Department of 
Defense.
    I've learned in my 6 years at NSA just how talented a work 
force we have. The work force at NSA is a microcosm of the 
larger Intelligence Community. I've often said the real power 
of the NSA goes down the elevators each night. It's hard for me 
to talk about NSA operational successes in an open forum like 
this, but let me just say that one operational commander 
visited me very recently, and he began his conversation with me 
with the admonition, ``Mike, don't change a thing.''
    Last month, I received a note from the Commander of the 1st 
Marine Expeditionary Force, whom I know you've just talked to, 
thanking NSA for the kind of support we've provided his 
marines, and I received a similar note from the Chief of Staff 
of the Army. That's the kind of support that Ambassador 
Negroponte and I have to ensure continues to occur across the 
entire American Intelligence Community.
    We have to exercise the power that you and the President 
have given us without creating a new layer of bureaucracy. We 
have to be authoritative. We have to be right, and the DNI must 
ensure that we have the kind of information dominance that 
protects America, its people, its values, and its friends.
    I know this committee will stay very involved and very 
interested in our work. I look forward to working with this 
committee in the weeks, months, and years ahead, and Mr. 
Chairman, I now look forward to your questions.
    Chairman Warner. Thank you, General, I must say, I was very 
impressed with your opening statement. It was very carefully 
prepared, extremely well-delivered, and those who listened and 
followed it have to have a heartfelt understanding of how 
sincere you are about taking on this new post.
    General Hayden. Thank you, Mr. Chairman.
    Chairman Warner. At this time, our distinguished colleague, 
the chairman of the Government Affairs Committee is going to go 
to the floor in the context of the pending nomination of 
Ambassador Negroponte so, Senator Levin with your concurrence, 
I will yield my time of questions to her.
    Senator Collins. Thank you so much, Mr. Chairman, for 
accommodating my schedule.
    General Hayden, the new intelligence law gives the Director 
of National Intelligence substantial authority to set policies 
governing the Intelligence Community's personnel, and the 
purpose of giving the DNI that authority was for the new 
Director to institute policies that would foster an 
organizational culture of jointness across the Intelligence 
Community. Ideally, we want individuals to look at themselves 
as working for the Intelligence Community, not for the various 
entities within that Community. The Intelligence Reform Act 
cites the personnel provisions of the Goldwater-Nichols 
Reorganization Act of 1986 as a model that successfully 
fostered that jointness across the Defense Department.
    Could you please give us your thoughts as to how the DNI 
should use the legislation's personnel authority in order to 
create a culture of jointness across the Intelligence 
Community?
    General Hayden. Yes, Senator, and I know a lot of folks 
have talked about a Goldwater-Nichols-like Act for 
intelligence, but frankly, there's a lot of Goldwater-Nichols 
that would be very hard to transfer. The Intelligence Community 
is not organized the way DOD is, but title IV of Goldwater-
Nichols, which is the personnel title, is the one I think is 
wholly transferable, from its experience with DOD, to the 
Intelligence Community. I can tell you, as a military officer, 
one of the most powerful sanctions of legislation I've seen in 
my military career was that one sentence in Goldwater-Nichols 
that says, ``The promotion rates of officers on the joint staff 
shall be equal to or greater than the promotion rates of 
officers on the military headquarter staffs.'' Took 3 to 5 
years, but it made all the difference.
    I've thought about this, and what I would advise the 
Ambassador, if we are confirmed, is to set personnel policies--
and not to overreach here. He doesn't have to reach way down 
into every aspect of how personnel are governed within the 
Intelligence Community, but to wisely select those factors that 
he needs to take control of to set the standards for, to 
develop an ethos of cooperation. To develop within the 
Intelligence Community an ethos of collaboration. I would 
strongly urge to Ambassador Negroponte that that's where he set 
his sights, on those tools, those personnel levers, whatever 
they might be, but if they configure to an ethos of 
collaboration, those are the ones he should claim immediately, 
and set the standard for.
    Senator Collins. Thank you. Another important authority 
granted by the new law confers the Director of National 
Intelligence control over the Intelligence Community's budget 
for the National Intelligence program. This authority includes 
determining the intelligence budget up front, presenting the 
recommendations to the President, executing the intelligence 
funding as appropriated by Congress, and transferring funds in 
order to meet emerging threats. The legislation also makes very 
clear that the DNI, in executing the budget authority, has a 
direct relationship with intelligence agencies, including the 
NSA, the NGA, and the NRO, in determining the budget. Some of 
us have been somewhat concerned by a memo that the Secretary of 
Defense put out that could be interpreted as requiring the DNI 
to go through the Under Secretary for Intelligence, rather than 
having a direct relationship, as the law envisions, with those 
three agencies. They are housed in the Pentagon, provide 
important intelligence to our troops, but also are national in 
their approach and serve all of the Intelligence Community. 
Would you tell me how you interpret that relationship, and do 
you believe, as the law intends, that the DNI should have a 
direct relationship with the heads of those intelligence 
agencies.
    General Hayden. Yes, ma'am. I'm familiar with the memo you 
refer to, and I should point out that almost all the prose in 
that memo was actually very supportive of the objectives of the 
legislation and the DNI.
    Senator Collins. Almost.
    General Hayden. But the one sentence has drawn a lot of 
attention.
    As Ambassador Negroponte said in his testimony in front of 
the Intelligence Committee, he cannot conceive of his 
performing his job without direct communication with those very 
large agencies that are housed inside the Department of 
Defense. They comprise about 80 to 85 percent of what I call 
his ``combat power,'' and the legislation is very clear that 
his guidance, in terms of fiscal guidance, to those 
organizations, goes to them directly, and that those agencies' 
response to that fiscal guidance comes back to him directly, 
and so I'm convinced that he fully intends to follow that 
outline as the law lays out.
    I should add, too, that you have made the DNI's fiscal 
authorities more robust than the DCI's were. The DCI used to 
prepare and present the budget. You put that very powerful verb 
``determine'' in there as well, and you suggest, and I think 
this is very important, you've given the DNI a lot more 
authority in the back end of the fiscal process, in terms of 
the allocation of funds, kind of financial officer sorts of 
functions.
    But even in the previous world when we had a DCI, and his 
budgetary authorities were limited, that minor communication 
between the DCI and the agencies was also direct, so, in that 
sense, you've given the DNI more authority. Your direct 
communications chain is simply a continuation of the world as 
we had it when we had a DCI.
    Senator Collins. Thank you, General, I wish you well in 
your new position, and thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator, and also for the work 
of your committee, together with our distinguished colleague, 
who shepherded this statute through. Now as you look at this 
individual, you say to yourself, ``Good luck.''
    Senator Collins. You noticed I avoided that phrase, and 
wished him well, instead.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
thanking Senator Collins for the leadership that she and 
Senator Lieberman so forcefully put forward. This legislation 
could not have happened without their leadership. I think it's 
on the right track. It's going to work out well. There are a 
lot of questions that have to be answered, but I think the 
spirit of the legislation was right. It was done with great 
care and detail. So General, I think you're given a mandate 
here which you can really run with and make significant 
improvements in the intelligence operations.
    One of the issues which has troubled me is the intelligence 
that was received before Iraq and just how flawed it was. 
Without re-hashing all of that, I guess one of the questions 
that I would want to ask you actually supplements the question 
which the chair asked. He asked whether you'd give us your 
unvarnished, professional opinion on matters. Your answer was 
`yes.' It's also important that you give your unvarnished 
independent, objective analyses to the policymakers, the 
executive branch. So my question is, are you willing to speak 
truth to power?
    General Hayden. Of course, Senator, and in that regard, 
I've kind of got a two sentence rule book. Number one is, I 
would obviously always speak the truth, and number two, those 
people who need to know, will know what my version of the truth 
is.
    Senator Levin. Some of the people who need to know the 
information that you have available to you are in the 
legislative branch. Frankly, many of us have been frustrated by 
the lack of responsiveness on the part of parts of the 
Intelligence Community and other Federal agencies to Congress 
in the request for documents, and the declassification of 
documents. The chairman asked you the question whether you 
would provide documents in a timely manner to Congress. Your 
answer was that you would do so. All too often in the past, 
that has not been the case. We've had problems getting 
documents on subjects ranging from intelligence assessments on 
Iraq to detainee abuse. In one instance, the Armed Services 
Committee waited for more than a year to get questions for the 
record answered from the former DCI. In other instances, the 
CIA promised to provide declassified or classified documents, 
and then failed to do so for a year. This is just totally 
unacceptable. It's a very frustrating process to extract 
documents from agencies who are not cooperative. You probably 
could have guessed that it's the case, but let me assure that 
it's a very frustrating process. It is time-consuming. It leads 
to holds on nominations. It leads to embarrassing questions at 
hearings. It is not healthy. I was pleased to get an answer 
from the current DCI, Porter Goss, to a letter that I wrote 
him, and a question that I asked him at a confirmation hearing 
when he said he would look into these delays. Here's what he 
wrote to me on April 6, when he was delivering some materials 
which we had been waiting for, for a long, long time. He said, 
``There is no excuse for such delays. I have conveyed to my 
staff that this is not how the Agency will treat requests.'' So 
he is making a significant statement when he writes that. I 
hope you would adopt that philosophy with the folks that you 
will be supervising--that there are no excuses for delays to 
requests from Congress. As part of our oversight process, it is 
essential we receive documents. I would hope you would adopt 
the same philosophy which was set forth in that letter to me 
from Porter Goss.
    General Hayden. I know from time to time there may be 
limits placed on me as part of the executive branch, but let me 
assure you, I will do my utmost to cooperate with the 
committee. I take that obligation seriously, and frankly, 
Senator, I think my track record at NSA bears me out on that.
    Senator Levin. Yours was not one of the agencies I was 
referring to when I made reference to the agencies which have 
frustrated the legitimate oversight questions from members and 
from the committee itself. We thank you for that commitment.
    One of the documents that we've been waiting for, and this 
is a document that the Chairman and I have requested of the 
Department of Defense in this case, is a document that you may 
be familiar with. There was a memorandum dated March 14, 2003, 
which was prepared by the Deputy Assistant Attorney General, 
John Yoo, titled ``Military Interrogation of Alien Unlawful 
Combatants Held Outside of the United States.'' This is a memo 
which Admiral Church referred to in his report on interrogation 
techniques and operations. I'm wondering whether you are 
familiar with that memo?
    General Hayden. Senator, as I've discussed informally with 
your staff, I have no recollection of the document and 
certainly have not seen them, and frankly, as the Director of 
NSA, I wouldn't expect to see a document of that type because 
it dealt with activities that are outside the scope of NSA 
authority.
    Senator Levin. I am not surprised by that fact either. We 
would ask you on your confirmation to take a look at the 
records of the new agency, and the agencies that they control, 
see if that document is in the possession of those agencies, 
and if so, tell us whether you will provide this committee with 
that document.
    General Hayden. Yes, sir, Senator, and I know that 
Ambassador Negroponte has promised to look into this matter as 
well, if confirmed, and I of course will strongly support him 
in that effort.
    Senator Levin. Thank you. The Bolton nomination has raised 
a question about protecting U.S. identities--these are U.S. 
people, who are either participants in a conversation, 
communication, which is intercepted and included in a signal 
intelligence (SIGINT) product, where the identity of that 
person is blocked, or sometimes as said, is minimized, and is 
referred to generally as ``A U.S. person.'' There are also many 
cases where that person is not a participant in the 
conversation, but is referred to in a conversation, and the 
identity of that person is also protected as well.
    At the Intelligence Committee hearing with you last week, 
you said that there's a formal written and documented process 
for U.S. Government officials to request the identity of a U.S. 
person referred to in a SIGINT process, is that correct?
    General Hayden. Yes, sir, that's correct.
    Senator Levin. Now, I take it there are a large number of 
requests which come in for the identity of a U.S. person who 
has been minimized. Can you tell us whether the majority of 
those requests, indeed the vast majority of those requests, are 
made in the case where the person identified is not the 
participant in the conversation, but rather is someone who is 
referred to in the conversation?
    General Hayden. Thank you very much for that question, 
Senator. First of all, to frame the issue for me as Director of 
NSA, the issue here is the protection of American privacy, and 
everything then evolves out of that fundamental principle--how 
do we protect U.S. privacy? In the course of accomplishing our 
mission, it's almost inevitable that we would learn information 
about Americans, to or from, in terms of communications. The 
same rules apply, though, in protecting privacy, whether it's 
to, from, or about an American. You're correct. In the vast 
majority of the cases, the information is about an American 
being referred to in communications between individuals that I 
think the committee would be most enthusiastic that we were 
conducting our operations against.
    Senator Levin. That's a very helpful clarification. My time 
is up, but can I just end this line of questioning? Thank you, 
Mr. Chairman, thank you. I think the press has already 
indicated that there were apparently 10 requests from Mr. 
Bolton.
    General Hayden. Yes, sir, I've seen that number.
    Senator Levin. Do you know whether or not the majority of 
his requests were for persons referred to in the conversation, 
or for a participant in the conversation?
    General Hayden. Yes, sir, I would like to respond to that 
for the record in a classified way, it's a classified matter.
    [The information referred to follows:]

    [Deleted.]

    Senator Levin. That's fine. The other questions that 
relate, not just to him, but to anybody. The person who makes 
this written application for the information states 
specifically what that purpose is that they want that 
information for, is that correct?
    General Hayden. Yes, sir, Senator, but in all cases, the 
purpose comes down to the fundamental principle, I need to know 
the identity of that individual to understand or appreciate the 
intelligence value of the report.
    Senator Levin. Is that printed there as a purpose, or does 
that have to be filled in by the applicant?
    General Hayden. Senator, I'm not exactly sure what the form 
looks like, but I can tell you that's the only criteria on 
which we would release the U.S. person's information.
    Senator Levin. All right. But you don't know how that 
purpose is stated in these thousands of applications.
    General Hayden. I'd have to check, sir.
    Senator Levin. Or in Mr. Bolton's applications.
    General Hayden. Correct, sir.
    Senator Levin. Okay, and then, once the information is 
obtained, you do not know the use to which that information is 
put, I gather, is that correct?
    General Hayden. No. We would report the information to an 
authorized consumer in every dimension, in terms of both 
security clearance and need to know, just like we would report 
any other information.
    Senator Levin. But then, you don't know what that person 
does with that information?
    General Hayden. No. The presumption, obviously, is that the 
individual uses that then to appreciate the original report.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Warner. Let's sit back and relax for a minute. I 
want to indulge in something which will give me a lot of 
personal pleasure.
    You majored in History. I majored in Physics and 
Mathematics, and I came up short on history, so I've tried the 
balance of my life to study a lot of history. I read, really 
two categories of books, books on art to relax in the late 
hours of the night before I try to catch a wink of sleep, and 
books on history to constantly learn, because I think history 
is a rear view mirror of life.
    So, I'm currently reading a fascinating book by Ford 
Donovan of the Office of Strategic Services (OSS). I had a very 
short but, nevertheless, auspicious and privileged tour of 
service at the end of World War II, in the Navy, and I grew up 
with that generation. I had the occasion once to meet Donovan, 
and what an impressive man he was. I got to know David Bruce 
very well, who was one of his basic partners and lieutenants in 
this. Anyway, this book details the following of how OSS was 
set up. I'm going to present this so you can just sit back and 
listen.
    It was Roosevelt; it was his idea to set this up. The 
appointment of Colonel Donovan, he was just a Colonel then, as 
Director of the forerunner of the Office of OSS, was formally 
announced by Executive order on July 11, 1941. His duties were 
defined in Roosevelt's own words, ``To collect and analyze all 
information and data which may bear upon national security, to 
collate such information and data and make the same available 
to the President and to such departments and officials of the 
government as the President may determine, and to carry out, 
when requested by the President, such supplementary activities 
as may facilitate the securing of information important for 
national security, not now available to the government.'' Not 
unlike your charge, wouldn't you say?
    Now, wait for what happened. The directive was purposely 
obscure in its wording, and I think those of us who 
participated, and my dear friend and colleague here, Senator 
Levin and I worked with our colleagues on the other side, 
sometimes not all with full harmony. We finally cranked out 
that statute, but, I repeat, ``the directive was purposely 
obscure in its wording due to the secret and potentially 
offensive nature of the agency's functions, and the other 
intelligence organizations, jealous of their prerogatives, took 
advantage of the vague phraseology to set loose a flock of 
rumors that Donovan, one, was to be the Heinrich Himmler of an 
American Gestapo--this is 1941 in this great country of ours--
the Goebbels of a controlled press, a super spy over Hoover's 
G-Men and the Army and Navy, the head of a grand strategy board 
that would dictate even to the General's staff. The 
bureaucratic war was on. It was a war all too familiar to 
Washington, the dog-eat-dog struggle among government 
departments to preserve their own area of power.'' I'll 
autograph it for you.
    General Hayden. Thank you, Senator, and I thank you for the 
words of encouragement. [Laughter.]
    Chairman Warner. I hope that you will not encounter the 
same problems. It really goes on in greater detail, which you 
wouldn't believe, about what Hoover did to assure that this 
department would not have any power. It's a fascinating 
chapter.
    You made reference to Goldwater-Nichols, and Senator Levin 
and I were very privileged in our years here on the committee 
to work with those two fine gentlemen, and a staff member named 
Jim Locher. I have a recollection of the phrase that you put in 
there, and it drew on the vast experience of those two men and 
their service to the country in uniform. I just hope that in 
the future when we re-visit, and the Senator and I have thought 
about it, trying to re-visit Goldwater-Nichols, that we can 
draw on the same quantum of wisdom, and perhaps yours, to even 
make that concept, or those concepts, plural, even stronger.
    Senator Levin asked some very pointed questions, as he 
always does, and it prompted my first question. I would have to 
say, again, from a personal basis, one of the most difficult 
episodes of the history of this committee in the 27 years we've 
been here, were the revelations of the Abu Ghraib prison 
problem, and how that affected the professional military of the 
United States of America, and most particularly the 
intelligence sections to which you've dedicated so much of your 
career.
    The statute, I don't think, is specific, but I would 
presume that the office of the DNI would have some role in 
establishing a level of parallelism, or checks and balances of 
the several agencies which have the specific statutory 
responsibility for interrogating prisoners, and that you 
would--in a supervisory way--overlook what they're doing. Now, 
whether they'll all be identical, I'm not about to predict, but 
I would like the record to reflect that Ambassador Negroponte 
and yourself will become active in that area, in the hope that 
we do not see another chapter, ever, in our history as we 
witnessed in that prison abuse problem.
    General Hayden. Senator, what I will say now is going to be 
obviously preliminary, because the Ambassador and I are still 
getting organized and so on, and obviously, it is prior to 
confirmation. A thought I've had and informally shared with the 
Ambassador is, right now as the Director of NSA, I am--in 
addition to running that Agency--the National SIGINT manager, 
which doesn't suggest that I control where Rivet Joints or EP-
3s are going to fly in the Pacific Command's area of 
responsibility (AOR) or anything like that, but that I am 
broadly responsible for the legal or technical realities under 
which any of those missions are conducted.
    It occurs to me that that's a principle that we might be 
able to transfer to other intelligence disciplines, Human 
Intelligence (HUMINT) and imagery. In terms of HUMINT, the 
interrogation of prisoners would then fall under that broad 
rubric, so I think the Ambassador would certainly understand 
your concern, and want to work to set the broad standards 
within which different elements of the community would operate. 
There's a balance here. I don't think you want him to be 
working a lever that controls the actions of an E-3 in a combat 
situation, but he can create the structure within which that E-
3 understands the standards to which he will be held. I think 
that would be a legitimate responsibility of the DNI.
    Chairman Warner. But the interrogation process of prisoners 
is an essential part of intelligence gathering, and many of us, 
and many Americans, have learned more about that process than 
ever before as a consequence of this tragic situation. In order 
not to ever let that happen again, and I'm not even suggesting 
that you be the supervisory authority of the incarceration of 
these individuals down to how they're handled, the techniques 
to be employed by the several agencies and departments of the 
government, should have, I think, a review authority. I would 
hope that your new department would have a certain amount of 
that review authority. There may be others, the Department of 
Justice (DOJ), individual cabinet officers, I'm not suggesting 
you're going to take the whole thing over, but I think the 
American public would like to know that your new department 
would have a role in examining the practices to ensure that 
this type of situation would never happen again.
    General Hayden. Yes sir, I think the Ambassador is on 
record as saying that, while, clearly, the broad legal review 
would come from the DOJ, that it would be his responsibility to 
ensure that those standards are implemented throughout the 
community, but that if anyone does cross the line, appropriate 
action would be taken.
    Chairman Warner. The other tragic chapter that we have had 
here, and this committee was very much involved, is the 
intelligence failures associated with the weapons of mass 
destruction. We are not here today to begin to go back over how 
that happened, but I am sure that you and Ambassador Negroponte 
will exercise the supervisory authority that you have to 
carefully provide that everything possible be done so that will 
never re-occur.
    I have found in my years of experience that the 
intelligence officers are a very dedicated group of people, 
whether they're in uniform or civilian. I have a high regard 
for the Agency. It's not that the Agency is in my State, but I 
have known, personally, so many individuals who have served in 
the CIA through the years, their families, and they take the 
risks, those civilians, often commensurate with the men and 
women in uniform.
    Consequently, as a career military officer, you clearly 
understand what is required to achieve the professional skills 
and leadership competence necessary to accomplish the missions 
and advance professionally within the respective military 
services. The Intelligence Reform Act gives the DNI significant 
authority in the assignment, the transfer, extension, and 
training of military personnel. How will you ensure the 
military personnel are managed in such a way that enables them 
to contribute to the national intelligence effort, and to 
maintain the ability to advance professionally within their 
respective services? Now that, in some ways, is parallel to 
your observation about the language in Goldwater-Nichols.
    General Hayden. When you look at the broad community, my 
sense is the area, the field, in which the DNI is going to have 
to go first, and through major plowing, is with regard to the 
civilian workforce, because a lot of the things, Senator, that 
you and I take for granted for our G.I. workforce--that initial 
training, that professional military education, that leadership 
training--already happens. That said, there are some things, I 
think, the DNI needs to focus on for the military workforce. 
Here's an area of absolutely total coincidence of interest 
between the DNI and the Under Secretary of Defense for 
Intelligence, and Secretary Cambone has actually talked about 
this quite forcefully.
    We need to ensure, number one, that that military force is 
well-trained. I think we do pretty well at that. I'm not as 
convinced that broad military personnel policies responding to 
the needs of the Department as a whole pay enough attention to 
the personnel policies of the intelligence folks within that 
broad system, specifically, tour lengths. How long do you let a 
kid work a particular problem in NSA, a particular work 
station, because only over time do you build up that kind of 
expertise? There's an area, I think, we might want to work on 
with the Under Secretary of Defense for Intelligence.
    One final issue I would add, and I know Steve is very 
forceful about this--how do we reward folks? How does the 
Department of Defense, how does the military structure reward, 
for example, excellence in language? Secretary Chu is taking 
that one on now. Secretary Wolfowitz, before he left, signed a 
directive that I think is quite bold in terms of setting up a 
structure where language is afforded the kind of respect it 
should have within the Department, in terms of investment and 
reward for effort. Those are some areas, I think we could strap 
on quite quickly.
    Chairman Warner. I listen with great interest with respect 
to your observations about Secretary Cambone. I have gotten to 
know him quite well in the context of the working relationships 
that the two of us have professionally, and I have a high 
personal regard for him. By coincidence, Senator Levin and I 
met earlier this morning with Secretary Rumsfeld and Secretary 
Cambone on matters directly related to some of the functions 
that you are going to be taking up. Let's just go right to this 
question--Rumsfeld and Cambone have initiated efforts to 
improve the intelligence capabilities of the Department of 
Defense, and, particularly with regard to support for combatant 
commanders, they're working on a charter now. Drafts of that 
charter were provided, and I think there's some staff over here 
that are beginning to form up for you and Ambassador 
Negroponte, and I think they have a copy of it. Ambassador 
Negroponte, when I spoke with him, said he knew that that draft 
charter was there, but he had not had the opportunity to go 
over it. Maybe you have or haven't. It's to be done, and I 
think it's important to the re-modeling of the defense 
intelligence initiative within the Department of Defense to be 
worked out in conjunction with yourself and Ambassador 
Negroponte and such others that may have a voice. I think 
they've expressed to us a willingness to take into 
consideration your views, because you've already indicated the 
Department of Defense is probably the largest user, if you 
quantify this thing. It is essential that the Department of 
Defense work in harmony with the DNI. We can't write that into 
law. We can't go into all those details, and that's why I think 
there's a certain--I'll use the word in this book--vagueness 
associated with the statute, and from that has to come the 
dynamics of the personalities who are directly involved. I 
happen to have a great deal of respect for Secretary Rumsfeld. 
We sort of grew up in the same manner in our political systems. 
When I was Secretary of the Navy, he was in the White House, so 
that's 30 some-odd years ago. So we've known each other these 
years, and I detect in him a strong willingness to really try 
and make this system work. So, I wish him well.
    Do you have any concerns that you'd like to share with the 
committee now, or would you just like to await your further 
evaluation for that?
    General Hayden. Well, Senator, I'll share a few thoughts. 
You mentioned the remodeling of defense intelligence that 
Secretary Cambone has underway. I just jotted down three or 
four ideas that came to mind immediately inside that: the 
intelligence campaign plans that he's commissioned to be 
written to support our major war plans; the creation of joint 
operation intelligence centers, which is a recognition that 
intelligence is an inherently operational function; the move in 
unified campaign planning to give General Cartwright and U.S. 
Strategic Command, a quite powerful role when it comes to 
global intelligence surveillance and reconnaissance. Frankly, 
Senator, as far as I'm concerned, all of those are pure virtue, 
and those fit hand-in-glove, I think, with what the legislation 
intends for the DNI, and with what Ambassador Negroponte 
intends to do as Director of National Intelligence. I think I 
can share with you he has confided to me that he intends to 
build a cooperative relationship with the Secretary.
    There is one question that Senator Collins posed earlier 
with regard to how the DNI communicates with the big agencies 
that are, and should remain, within the Department of Defense. 
I think the law does the right thing. It doesn't attempt to 
write the Magna Carta describing the existential dimensions of 
this relationship. It enumerates the powers of the DNI. It says 
the DNI should do this, and they should do this--I think that's 
quite clear, and I think if we follow that game plan, you 
should have every expectation that this should work out very 
well.
    Chairman Warner. Well, those are encouraging observations. 
I'll yield to you, Senator, and then I might come back for a 
close-up question.
    Senator Levin. General, I asked you before about a specific 
document, and you indicated you weren't familiar with it and 
that you would see if it's in the possession of any of the 
agencies that you'll be supervising, or your own agency. We 
appreciate that.
    There's a second memo that is of similar importance that's 
related to detainee interrogation that has been of great 
interest to the committee and Congress. One of the ways in 
which this affects this committee's oversight responsibility is 
that the techniques that were set forth in this second memo may 
have been used, probably were used, at Abu Ghraib, which is a 
facility which the Department of Defense operates. So we don't 
know if it was Defense Department people or not, but 
nonetheless, the second memo which I want you look into for us 
is clearly relevant to our oversight responsibility of defense 
facilities. This is the memo which was signed by Assistant 
Attorney General Jay Bybee, at the Office of Legal Counsel, 
which evaluated the legality of specific interrogation 
techniques. It was produced around August 2002. I wonder if you 
would give us the same assurance that you will, if you're not 
already familiar with that memo, that you would look to see 
whether or not it is in the possession of the new agency, or 
the agencies which it supervises, and if so, whether you will 
either provide that document to this committee, or if not, you 
would promptly tell us why not.
    General Hayden. Yes, Senator, I understand, and I am very 
much aware of the committee's interest. I am not familiar with 
the document, but I know that Ambassador Negroponte has 
promised to look into it, and I, again, will aggressively 
support him in that.
    Senator Levin. All right, and if it's not going to be 
provided to this committee, that we be promptly informed of 
that fact, and why it would not be?
    General Hayden. Yes, sir.
    Senator Levin. Thank you.
    Chairman Warner. Thank you very much, Senator Levin.
    I think we have fully covered in an exhaustive way the 
important issues relating to your new functions. The record for 
this hearing will remain open throughout this week. As such, 
Senators can provide additional questions for your response. I 
think we've had an excellent hearing, General, and I wish the 
best good fortune to you and your family. I don't think the 
family will see much of you for awhile, but I guess you've been 
through that before. Thank you very much, sir.
    General Hayden. Thank you.
    Chairman Warner. The hearing is concluded.
    [Whereupon, at 12:25 p.m., the committee adjourned.]

    [Prepared questions submitted to Kenneth J. Krieg by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost 20 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
legislation establishing the Under Secretary of Defense for 
Acquisition.
    Do you support full implementation of these defense reforms?
    Answer. Yes, the reforms resulting from the implementation of the 
Goldwater-Nichols Act have become entrenched in our daily business and 
will continue to be cornerstones. The effectiveness of joint operations 
has been clearly demonstrated in Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF), and I strongly support continued and 
increased efforts to improve the jointness of our military forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe that the implementation of Goldwater-Nichols 
(over the past 19 years) has been successful and consistent with 
congressional intent.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From an acquisition perspective, the changes resulting from 
implementation of the Goldwater-Nichols Act in 1986--particularly the 
placement of the acquisition function under the control of civilian 
leadership within the military departments--have been important factors 
in enabling the acquisition community to more efficiently and 
effectively deliver the capabilities that the joint warfighters need to 
meet the challenges of the 21st century.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you think it 
might be appropriate to address in these proposals?
    Answer. It is important to continue to look at how well our current 
processes and structures meet the demands of our dynamic environment. 
There are several initiatives and studies addressing these kinds of 
issues; however the results are not yet final. If confirmed, I look 
forward to working with the Committee on these issues.

                                 DUTIES

    Question. Section 133 of Title 10, United States Code, describes 
the duties of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(ATL)).
    If you are confirmed, what duties do you expect that Secretary 
Rumsfeld will prescribe for you?
    Answer. If confirmed, as Under Secretary of Defense for 
Acquisition, Technology, and Logistics, I will perform the statutory 
functions of establishing policies on all acquisition matters including 
supervising the military department's acquisition systems and 
processes. I will serve as the Defense Acquisition Executive with 
associated responsibilities of supervising the performance of the 
Department of Defense Acquisition System; serve as the Defense 
Logistics Executive; serve as the Department of Defense Procurement 
Executive; serve as the National Armaments Director and Secretary of 
Defense representative to the semi-annual NATO Five Power conference 
and Conference of National Armaments Directors; and chair the Nuclear 
Weapons Council. I will oversee developmental testing and evaluation 
and the Joint Test and Evaluation Program with the DOT&E, and manage 
the Foreign Comparative Test Program. I will serve as the Principal 
Staff Assistant for the Defense Advanced Research Projects Agency, the 
Defense Contract Management Agency, the Defense Logistics Agency, the 
Defense Threat Reduction Agency, and the Missile Defense Agency. 
Additionally, I will develop international memoranda of agreement and 
memoranda of understanding relating to acquisition matters; and 
supervise the Defense Science Board.
    Question. Do you recommend any changes to the provisions of section 
133 of title 10, United States Code, with respect to the duties of the 
USD(ATL)?
    Answer. No.
    Question. If confirmed, what duties and responsibilities would you 
plan to assign to the Deputy Under Secretary of Defense for Acquisition 
and Technology and the Deputy Under Secretary of Defense for Logistics 
and Materiel Readiness?
    Answer. If confirmed, I would assign the Deputy Under Secretary of 
Defense for Acquisition and Technology (DUSD(A&T)) as my principal 
advisor on acquisition and technology matters and as the principal 
acquisition official within senior management of the DOD. He/she would 
advise and assist me across the full range of my responsibilities in 
providing staff advice and assistance to the Secretary and Deputy 
Secretary of Defense. In this capacity, the DUSD(A&T) would monitor and 
review the DOD Acquisition System and oversee the development, 
implementation, and management of the Defense Procurement program.
    If confirmed, I would assign the Deputy Under Secretary of Defense 
for Logistics and Materiel Readiness (DUSD (L&MR)) as my principal 
advisor on logistics and materiel readiness matters, and as the 
principal logistics official within the senior management of the DOD. 
He/she would advise and assist me across the full range of my 
responsibilities in providing staff advice and assistance to the 
Secretary and Deputy Secretary of Defense. In this capacity, the DUSD 
(L&MR) would monitor and review all logistics, maintenance, materiel 
readiness, strategic mobility, and sustainment support programs.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the USD(ATL)?
    Answer. There are many challenges facing the Department that fall 
under the purview of the USD(AT&L). Perhaps the most important of these 
is to provide the warfighter the capabilities necessary to achieve 
victory in the global war on terrorism. Additionally, I consider the 
following some of the more pressing challenges I would face, if 
confirmed:

        <bullet> Ensuring the acquisition process is transparent, 
        objective, timely, and accountable.
        <bullet> Developing successful, integrated supply chains to 
        meet the warfighters needs.
        <bullet> Building the strategic human capital of the defense 
        acquisition workforce.
        <bullet> Setting a vision and supporting program for the 
        research and development priorities to meet the needs of the 
        coming generation.
        <bullet> Working to establish joint requirements that balance 
        among performance, schedule, and cost.
        <bullet> Successfully managing the infrastructure transitions 
        of BRAC and Global Basing.
        <bullet> Working through the industrial base challenges of our 
        day.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. In several of these areas good work is already underway; 
building on those efforts to ensure successful implementation will be 
key. The Quadrennial Defense Review report will include recommendations 
to improve the Department's management, organization, and 
decisionmaking.
    In other areas, if confirmed, I will have to develop a leadership 
agenda, which will require consultation within the Department, with 
Congress, and with Industry.

                    MAJOR WEAPON SYSTEM ACQUISITION

    Question. Describe the approach taken by the Department to reducing 
cycle time for major acquisition programs. Do you believe the 
Department's approach has been successful?
    Answer. DOD has made considerable progress in implementing policy 
that should reduce cycle time and allow us to field capability rapidly 
and efficiently. These new policies are streamlined and flexible, and 
based on an evolutionary or phased acquisition approach. That approach 
emphasizes maturing technology before committing to major investment 
decisions, but also allows fielding some capability earlier. As a 
result, we are able to reduce program technical risk substantially.
    Question. What specific steps has the Department of Defense taken 
to adopt incremental or phased acquisition approaches, such as spiral 
development?
    Answer. In May 2003 Deputy Secretary of Defense Paul Wolfowitz 
issued new policies that identify evolutionary acquisition as the 
preferred strategy for satisfying operational needs, and spiral 
development is the preferred process for executing such strategies. 
Their objective is to put capability into the hands of the warfighter 
as quickly as possible, while pursuing an acquisition strategy that 
will permit growth in capabilities over time.
    Question. How will the requirements process, budget process, and 
testing regime change to accommodate spiral development?
    Answer. The new policies governing the Joint Capabilities 
Integration and Development System (the JCIDS process, formerly known 
as the ``requirements'' process), the Acquisition System, and the Test 
and Evaluation process were tailored to facilitate evolutionary 
acquisition.
    Question. How should the Department ensure that incremental or 
phased acquisition programs have appropriate baselines against which to 
measure performance?
    Answer. The policies provide that each program or increment shall 
have an Acquisition Program Baseline establishing program goals--
thresholds and objectives--for the minimum number of cost, schedule, 
and performance parameters that describe the program over its life 
cycle.
    Question. Over the last several years, the Government 
Accountability Office (GAO) has prepared a series of reports for this 
Committee comparing DOD's approach to the acquisition of major systems 
with the approach taken by best performers in the private sector. GAO's 
principal conclusion has been that private sector programs are more 
successful, in large part because they consistently require a high 
level of maturity for new technologies before such technologies are 
incorporated into product development programs. The Department has 
responded to these findings by adopting technological maturity goals in 
its acquisition policies.
    How important is it, in your view, for the Department to mature its 
technologies with research and development funds before these 
technologies are incorporated into product development programs?
    Answer. The continued advancement of technologies is essential to 
maintain the operational superiority of our weapon systems. It is very 
important that the proper match between technology maturity and weapon 
system requirements exists.
    Question. What steps would you take, if confirmed, to ensure that 
the key components and technologies to be incorporated into major 
acquisition programs meet the Department's technological maturity 
goals?
    Answer. The framework for accomplishing this is present in the DOD 
acquisition processes--the challenge lies in the program construct and 
in the decisionmaking that must occur at critical milestone points. The 
DOD Science and Technology community develops technology readiness 
assessments for major programs. The challenge is to ensure that these 
technology readiness assessments are properly considered and that 
immature technologies are not pushed forward with major systems. If 
confirmed, I will work to ensure that these issues are debated and 
understood.

                     WEAPONS SYSTEMS AFFORDABILITY

    Question. The investment budget for weapon systems has grown 
substantially over the past few years to approximately $150 billion per 
year. An increasing share of this investment is being allocated to a 
few very large systems such as the Joint Strike Fighter, Future Combat 
Systems, and Missile Defense Agency.
    Do you believe that the current investment budget for major systems 
is affordable given historic cost growth in major systems, costs of 
current operations, Army modularization, and asset recapitalization?
    Answer. Yes, assuming current topline estimates and continuing 
programmed costs in other areas. The Department has been funding most 
major investment programs at more realistic estimates than in the past. 
This is a practice I intend to continue, if confirmed.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. The Department must ensure that only those technologies and 
capabilities that are technologically mature are included in new 
platforms. If confirmed, I also intend to work to ensure that program 
requirements are well understood at program initiation, and stabilized 
as much as possible over the long term to guard against ``requirement 
creep.''

                         LEAD SYSTEM INTEGRATOR

    Question. On the Future Combat Systems program and several other 
major defense acquisition programs, the Department has hired a lead 
system integrator to set requirements, evaluate proposals, and 
determine which systems will be incorporated into future weapon 
systems.
    What are your views on the lead system integrator approach to 
managing the acquisition of major weapon systems?
    Answer. I do not have a specific view today. If confirmed, I will 
develop a view on this question. Certainly complex systems are a 
challenge, but the government must remain responsible for overall 
performance requirements and oversight of program execution.
    Question. What lines do you believe the Department should draw 
between those acquisition responsibilities that are inherently 
governmental and those that may be performed by contractors?
    Answer. The rules regarding the performance of inherently 
governmental functions do not vary. The Government retains 
responsibility for the execution of the program, makes all 
requirements, budgeting and policy decisions, and does source 
selections at the prime level.
    Question. If confirmed, what steps would you take to ensure that 
lead system integrators do not misuse their access to sensitive and 
proprietary information of the Department of Defense and other defense 
contractors?
    Answer. Again, I do not know the details of this question today, 
but the Department has contract terms, backed up by law and regulation, 
that govern what a prime contractor can do with information gained in 
the performance of a contract. Likewise, the subcontract arrangement 
established between the prime and subcontractor contains provisions 
that protect the subcontractor's information from misuse. If confirmed, 
I will develop a view on this question.
    Question. If confirmed, what steps would you take to ensure that 
lead system integrators do not unnecessarily limit competition in a 
manner that would disadvantage the government or potential competitors 
in the private sector?
    Answer. This is a concern that arises in many programs as the 
defense industrial base becomes more concentrated. It is not an issue 
particular to contracts using lead system integrators. The Department 
is dealing with the issue by expanding the use of authorities, 
inserting a ``Consent to Subcontract'' clause, consenting to 
subcontracts the prime intends to award, and getting significant 
insight into the subcontractor source selection process.

                        MULTI-YEAR PROCUREMENTS

    Question. Providing a stable funding profile for defense programs 
is absolutely essential to effective program management and 
performance, for both DOD and the defense industry. One already-tested 
means of increasing program funding stability is the use of multi-year 
contracts.
    What are your views on multi-year procurements? Under what 
circumstances do you believe they should be used?
    Answer. In general, I favor multi-year procurements that offer 
substantial savings through improved economies in production processes, 
better use of industrial facilities, and a reduction in the 
administrative burden in the placement and administration of contracts. 
A key factor in the successful use of multi-year procurements is the 
intelligent selection of the programs. The following criteria should be 
used for deciding whether a program should be considered for multi-year 
application: substantial savings when compared to the annual 
contracting methods; validity and stability of the mission need; 
stability of the funding; stability of the configuration; tolerable 
associated technical risks; degree of confidence in estimates of both 
contract costs and anticipated savings; and promotion of national 
security.
    Question. Under what circumstances, if any, should DOD break a 
multi-year procurement contract?
    Answer. Given careful screening of programs prior to awarding the 
multi-year contract, there should be limited circumstances that would 
result in the breaking (i.e., cancellation) of a multi-year contract. 
However, changes in the view of the criteria above can happen in a 
rapidly changing world. Those changes will have to be considered.
    Question. How would you treat proposals to renegotiate multi-year 
procurements?
    Answer. If confirmed, I would treat proposals to renegotiate multi-
year procurements very cautiously to ensure that the changing 
circumstances dictate the need for change.

                                LEASING

    Question. Over the last several years, there has been much debate 
concerning the leasing of capital equipment to be used by the military 
services. Advocates of leasing capital equipment have argued that 
leases can enable the Department to obtain new equipment without 
significant upfront funding. Opponents of such leases have argued that 
this approach shifts today's budget problems to future generations, 
limiting the flexibility of future leaders to address emerging national 
security issues.
    What are your views on leasing of capital equipment, and under what 
circumstances, if any, do you believe such leasing is a viable 
mechanism for providing capabilities to the Department?
    Answer. Leasing of capital equipment could be a potential option 
when the equipment is truly commercially available outside of DOD and 
can meet the requirements established by the Office of Management and 
Budget. If confirmed, I would address any leasing proposals in 
objective fashion.
    Question. What do you believe were the major problems with the 
tanker lease proposal?
    Answer. My views on the tanker lease proposal as Director of PA&E 
are now a matter of public record. The proposal has been critiqued by a 
series of independent reviewers--including the Congressional Budget 
Office, the Congressional Research Service, the National Defense 
University, the Government Accountability Office, and the Department of 
Defense Inspector General.
    Question. What lessons do you believe the Department of Defense 
should learn from the failed effort to lease tanker aircraft?
    Answer. Perhaps the most compelling lesson learned from the tanker 
lease process is that the acquisition of major defense systems is the 
people's process. The undertaking of such a momentous program must be 
fully transparent and consider the concerns of all the relevant 
stakeholders. If confirmed, I would continue to work to ensure that the 
lessons learned are incorporated into the training, education, and 
business processes of the Department.

                          SOFTWARE DEVELOPMENT

    Question. Problems with computer software have caused significant 
delays and cost overruns in a number of major defense programs. Section 
804 of the National Defense Authorization Act for Fiscal Year 2003 
required DOD to establish a program to improve software acquisition 
processes.
    What is the status of DOD's efforts to improve software development 
in major weapon systems?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.
    Question. What additional steps would you take, if confirmed, to 
address delays and cost overruns associated with problems in the 
development of software for major weapon systems?
    Answer. I understand the importance and challenge in this area and, 
if confirmed, would develop a better understanding of the Department's 
current effort and my own view of appropriate next steps.

                        ANALYSIS OF ALTERNATIVES

    Question. When a required capability is defined, one method to 
ensure that capability is provided in the most cost-effective manner is 
through the conduct of an analysis of alternatives. This analysis not 
only helps to present alternatives, but also assists in the 
determination of key performance parameters and the threshold and 
objective values of these parameters.
    Under what circumstances, if any, do you believe it is appropriate 
for the Department to proceed with the acquisition of a major system 
without first conducting an analysis of alternatives?
    Answer. The Department's Acquisition Policy requires the completion 
of an analysis of alternatives prior to the initiation of any major 
system acquisition. This is a sound business practice.
    Question. If confirmed, what would be your position on conducting 
analyses of alternatives for the programs for which you would be the 
Milestone Decision Authority?
    Answer. If confirmed, my duties as Under Secretary for Acquisition, 
Technology and Logistics and the Defense Acquisition Executive would 
include management of the Department's formal acquisition process. The 
analysis of alternatives is a requirement under that process, and I 
would support it.

                           RAPID ACQUISITION

    Question. Section 811 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005 gave the Secretary of Defense 
new authority to waive certain statutes and regulations where necessary 
to acquire equipment that is urgently needed to avoid combat 
fatalities.
    What plans do you have, if confirmed, to use the rapid acquisition 
authority provided by section 811?
    Answer. If confirmed, I would use the authority only if and when it 
becomes necessary to acquire equipment that is urgently needed to avoid 
combat fatalities.
    Question. Do you believe that the Department has the authority and 
flexibility it needs to rapidly acquire products needed to avoid combat 
fatalities? If not, what additional authority or flexibility do you 
believe is needed?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.
    Question. When the Department acquires equipment under section 811 
or other authority without first undertaking full operational testing 
and evaluation, what steps do you believe the Department should take to 
ensure the long-term effectiveness and sustainability of the equipment?
    Answer. The QDR business practices team will look to determine how 
to ensure that the sound aspects of the current acquisition approach--
operational testing, ensuring the long-term effectiveness and 
sustainability of the equipment, etc.--are incorporated into follow-on 
efforts to better ensure that equipment obtained under the provision of 
rapid acquisition works and is supported.

                          SERVICES CONTRACTING

    Question. Over the past decade, there has been a dramatic increase 
in the volume of services purchased by the Department of Defense. At 
the request of the committee, the GAO has compared DOD's practices for 
the management of services contracts to the practices of best 
performers in the private sector. GAO concluded that leading companies 
have achieved significant savings by insisting upon greater visibility 
and management over their services contracts and by conducting so-
called ``spend'' analyses to find more efficient ways to manage their 
services contractors. Section 801 of the National Defense Authorization 
Act for Fiscal Year 2002 required DOD to move in this direction. While 
DOD has initiated efforts to establish a management structure and 
leverage its purchasing power, such efforts remain in various stages of 
implementation.
    What is the status of these efforts and do you believe the 
Department is providing appropriate stewardship over services 
contracts?
    Answer. As Director of PA&E, I have not been involved in these 
efforts. I understand that a number of efforts are underway, but have 
not reviewed them personally. If confirmed, I look forward to working 
on this area.
    Question. Do you believe that the Department should conduct a 
comprehensive analysis of its spending on contract services, as 
recommended by GAO?
    Answer. As Director of PA&E, I have not been involved in these 
efforts. I understand that a number of efforts are underway, but have 
not reviewed them personally. If confirmed, I look forward to working 
on this area.
    Question. What steps would you take, if confirmed, to improve the 
Department's management of its contracts for services?
    Answer. If confirmed, I would develop an approach to managing this 
set of issues.
    Question. The Office of Federal Procurement Policy and the 
Department of Defense have long agreed that Federal agencies could 
achieve significant savings and improved performance by moving to 
``performance-based services contracting'' or ``PBSC''. Most recently, 
the Army Environmental Program informed the committee that it has 
achieved average savings of 27 percent over a period of several years 
as a result of moving to fixed-price, performance-based contracts for 
environmental remediation. Section 802 of the National Defense 
Authorization Act for Fiscal Year 2002, as amended, establishes 
performance goals for increasing the use of PBSC in DOD service 
contracts.
    What is the status of the Department's efforts to increase the use 
of PBSC in its services contracts?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.
    Question. What additional steps do you believe the Department needs 
to take to increase the use of PBSC and meet the goals established in 
section 802?
    Answer. As Director of PA&E, I have not been involved in these 
efforts. I understand that a number of efforts are underway, but have 
not reviewed them personally. If confirmed, I look forward to working 
on this area.

                        INTERAGENCY CONTRACTING

    Question. GAO recently placed interagency contracting--the use by 
one agency of contracts awarded by other agencies--on its list of high-
risk programs and operations. While interagency contracts provide a 
much-needed, simplified method for procuring commonly used goods and 
services, GAO has found that the dramatic growth of interagency 
contracts, the failure to clearly allocate responsibility between 
agencies, and the incentives created by fee-for-services arrangements, 
have combined to expose the Department of Defense and other Federal 
agencies to the risk of significant abuse and mismanagement. The DOD 
Inspector General and the GSA Inspector General have identified a long 
series of problems with interagency contracts, including lack of 
acquisition planning, inadequate competition, excessive use of time and 
materials contracts, improper use of expired funds, inappropriate 
expenditures, and failure to monitor contractor performance. We 
understand that DOD, in conjunction with the General Services 
Administration and the Office of Management and Budget, is taking a 
number of actions to improve training and guidance on the use of this 
contract approach.
    If confirmed, what steps would you take to monitor and evaluate the 
effectiveness of the actions currently underway or planned regarding 
DOD's use of other agencies' contracts?
    Answer. If confirmed, I would continue the efforts underway, such 
as the January 1, 2005 policy on the ``Proper Use of Non-DOD 
Contracts.'' Adequate data must be obtained so that DOD and the 
assisting agencies know which DOD activities are utilizing non-DOD 
contracts to meet their needs and to specifically identify what the 
assisting agencies are acquiring on our behalf. I would also continue 
the coordination between OSD and the assisting agencies (i.e., GSA, 
Interior, Treasury, and NASA) to ensure that: (1) acquisitions are 
compliant with all procurement regulations; (2) assisting agencies are 
properly motivated to provide support to DOD; (3) training is available 
to all members of the acquisition workforce (DOD and Assisting 
Agencies); and (4) accurate acquisition data is captured for future 
analysis.
    Question. Do you believe additional authority or measures are 
needed to hold DOD or other agency personnel accountable for their use 
of interagency contracts?
    Answer. Given what I know today, I believe the authority and 
regulations are sufficient in terms of accountability.
    Question. Do you believe contractors have any responsibility for 
assuring that the work requested by personnel is within the scope of 
their contract?
    Answer. The primary responsibility for ensuring work is within the 
scope of a contract rests with the contracting officer, but contractors 
have some responsibility in the process. If a contractor receives an 
order but has concerns about whether the service or item of supply 
ordered is within scope of the contract, the contractor should bring 
its concerns to the contracting officer. This should prompt the 
contracting officer to confirm the validity of the order.
    Question. Do you believe that DOD's continued heavy reliance on 
outside agencies to do award and manage contracts on its behalf is a 
sign that the Department has failed to adequately staff its own 
acquisition system?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.

                            ``BUY AMERICA''

    Question. ``Buy America'' issues have been the source of 
considerable controversy in recent years. As a result, there have been 
a number of legislative efforts to place restrictions on the purchase 
of defense products from foreign sources.
    What benefits do you believe the Department obtains from 
international participation in the defense industrial base?
    Answer. International sales, purchases, and licensed production 
promote international defense cooperation and contribute to operational 
interoperability and promote cost savings. These arrangements 
rationalize the defense equipment supplier base to achieve the greatest 
efficiency in equipping our collective forces.
    Question. Under what conditions, if any, would you support the 
imposition of domestic source restrictions for a particular product?
    Answer. In certain instances involving national security and the 
preservation of a key defense technology or production capability, 
domestic source restrictions may be necessary.

                      THE DEFENSE INDUSTRIAL BASE

    Question. What is your view of the current state of the U.S. 
defense industrial base?
    Answer. Overall, U.S. defense systems lead the world, and the U.S. 
industry that develops and builds them continues to be the most 
technologically innovative, capable, and responsive in the world. 
Nevertheless, there are and will always be challenges the Department 
must address. If confirmed, I would work within the Department and with 
Congress to address them.
    Question. Do you support further consolidation of the U.S. defense 
industry?
    Answer. There should be no blanket policy of encouraging or 
discouraging further consolidation or divestiture. Each proposed 
transaction must be evaluated on a case-by-case basis in the context of 
the individual market, the changing dynamics of that market, and the 
need to preserve competition.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. In general, I favor foreign investment in the United 
States, whether for defense industries or non-defense industries, so 
long as the investment does not pose a threat to national security.
    Question. What steps, if any, do you believe the Department of 
Defense should take to ensure the continued health of the U.S. defense 
industrial base?
    Answer. The Department should continue to take actions and make 
decisions that strengthen that portion of the industrial base that 
supports defense. The Department also should continue to focus its 
acquisition strategies, both for development and production, in a 
manner that encourages true competition that drives innovation, 
specifically drawing non-traditional suppliers into the defense 
enterprise.

             ROLE OF THE UNDER SECRETARY OF DEFENSE (AT&L)

    Question. Concerns have been expressed that over time the purview 
of the office of the Under Secretary of Defense for AT&L has been 
diminished. The Department has established a separate set of 
regulations for the acquisition of space systems. The Missile Defense 
Agency has the primary role for missile defense systems and has 
established its own acquisition approach for these systems. Air Force 
acquisition scandals and the use of Other Transaction Authority on the 
Future Combat Systems program have raised questions as to the 
effectiveness of oversight provided by the USD(AT&L).
    Do you believe that the USD(AT&L) has the authority necessary to 
provide effective oversight over major acquisition programs of the 
military departments and defense agencies?
    Answer. At this point, I believe USD(AT&L) has the necessary 
authority for oversight of major defense acquisition programs.
    Question. Do you believe that the USD(AT&L) should have additional 
authority to reverse acquisition decisions of the military departments, 
where the USD(AT&L) believes it is necessary to do so in the public 
interest?
    Answer. At this point, I believe USD(AT&L) has sufficient 
authority.
    Question. In your view, should the Service Acquisition Executives 
report directly to the USD(AT&L)?
    Answer. The current arrangement facilitates a strong tie between 
the SAEs and their other Service leadership, including those 
developing-capability needs. However, if confirmed, I would review this 
issue as well as the reporting authorities for the technology 
developers and the logistics and sustainment communities.
    Question. What role, if any, should the USD(AT&L) perform in the 
oversight and acquisition of joint programs, the acquisition of space 
systems, and missile defense systems?
    Answer. I am aware of the current arrangement for space systems and 
for missile defense systems. If confirmed, I would review these 
relationships.

      OTHER TRANSACTIONS AND COMMERCIAL ITEM PROCUREMENT STRATEGY

    Question. In recent years, the military departments have attempted 
to acquire several major defense systems--such as the Air Force KC-767 
tankers, the C-130J aircraft, and the Future Combat System--through 
novel techniques and approaches such as Other Transaction Agreements 
(OTAs) and commercial item designations. OTAs and commercial item 
contracts exclude a number of statutory requirements--such as the Truth 
in Negotiations Act and the Cost Accounting Standards--that were 
intended for the protection of the taxpayer in the acquisition of major 
weapon systems.
    What is your view on the use OTAs or commercial item contracts to 
acquire major weapon systems? Under what circumstances, if any, do you 
believe that such acquisitions would be appropriate?
    Answer. Section 845 Prototype OTAs provide a valuable acquisition 
tool under very limited circumstances. It is important to limit use of 
the OTA authority to remain within the parameters of the original 
intent.
    Question. If you believe that it may be appropriate to use OTAs or 
commercial item contracts to acquire major weapon systems, what steps 
should be taken to protect the public interest when using these 
techniques?
    Answer. This is an area I would need to examine in more detail if 
confirmed.
   procurement fraud, integrity, and contractor responsibility issues
    Question. The recent Air Force acquisition scandal has raised 
concerns about the adequacy of mechanisms to uphold procurement 
integrity and prevent contract fraud.
    What is your view of the adequacy of the tools and authorities 
available to DOD to ensure that its contractors are responsible and 
have a satisfactory record of integrity and business ethics?
    Answer. I believe we have adequate tools and authorities to ensure 
the responsibility and ethical behavior of DOD contractors. We must 
constantly reinforce the conviction that such behavior is critically 
important and must be led from the top.
    Question. Are current ``revolving door'' statutes effective?
    Answer. I believe the revolving door statutes are sufficient.
    Question. What tools, other than law enforcement measures, could be 
used to help prevent procurement fraud and ethical misconduct?
    Answer. Some of the tools available include ensuring that decisions 
are made at lower, more appropriate levels; no employee remains without 
supervision for extended periods of time; no employee makes a large 
proportion of source selection and other decisions; and employees, 
especially senior ones, are evaluated on the ethics they display in 
their dealings with industry, within the Department, and with their 
subordinates.
    Question. Are there sufficient enforcement mechanisms in place to 
ensure compliance with laws and regulations?
    Answer. Mechanisms exist, but culture must also be changed. 
Training, emphasizing ethics in all our dealings and empowering 
employees to speak out in the face of apparent unethical behavior are 
key steps to ensure compliance with laws and regulations.

                         ACQUISITION WORKFORCE

    Question. Over the last decade, DOD has reduced the size of its 
acquisition workforce by almost half, without undertaking any 
systematic planning or analysis to ensure that it would have the 
specific skills and competencies needed to meet DOD's current and 
future needs. Additionally, more than half of DOD's current workforce 
will be eligible for early or regular retirement in the next 5 years. 
While DOD has started the process of planning its long-term workforce 
needs, GAO reports that the Department does not yet have a 
comprehensive strategic workforce plan needed to guide its efforts.
    What are the critical skills, capabilities, and tools that you 
believe DOD's workforce needs for the future? If confirmed, what steps 
would you take to ensure that the workforce would, in fact, possess 
them?
    Answer. The Department must aggressively plan for a motivated and 
agile acquisition workforce whose capability is built on the 
foundations of integrity, effective policy execution, mission focus, 
and business excellence. If confirmed, I would aggressively lead and 
promote department-wide strategies and programs to ensure that we have 
the right acquisition, technology, and logistics workforce skills, 
capabilities and tools to support statutory, policy and warfighter 
requirements.
    Question. Do you agree that the Department needs a comprehensive 
human capital plan, including a gap analysis and specific recruiting, 
retention and training goals, to guide the development of its 
acquisition workforce?
    Answer. The Under Secretary of Defense for Personnel and Readiness 
is leading department-wide efforts to ensure comprehensive human 
capital planning and programs are in place at the department and 
component level. If confirmed as the Under Secretary of Defense, 
Acquisition, Technology, and Logistics, I would support those efforts, 
and in particular, ensure that targeted human capital planning and 
programs for the AT&L workforce across the components are effective and 
aligned with AT&L strategy and guidance.
    Question. Do you believe that DOD's workforce is large enough to 
perform the tasks assigned to it? Do you support congressionally-
mandated cuts to the acquisition workforce, and do you think further 
cuts are necessary?
    Answer. This issue deserves further examination. If confirmed, I 
look forward to working with the committee to understand the demand for 
acquisition personnel and to appropriately size the workforce.
    Question. Has the Department had difficulty in attracting and 
retaining new staff to come into the acquisition workforce? If so, what 
steps do you think are necessary to attract talented new hires?
    Answer. The Department has succeeded in attracting and retaining 
new acquisition workforce staff within the current economic environment 
and hiring constraints. However, there is a continued need for improved 
flexibilities and improved targeting of certain areas (e.g., 
engineering) to meet acquisition workforce recruiting and retention 
needs. The Department's ability to attract and retain staff with the 
right skill sets will be newly tested with the eventual onset of the 
retirement of a significant percentage of the workforce.
    Question. What are your views regarding assertions that the 
acquisition workforce is losing its technical and management expertise 
and is beginning to rely too much on support contractors, FFRDCs, and, 
in some cases, prime contractors for this expertise?
    Answer. The general degradation of technical expertise is not 
limited to the government's workforce. We are seeing problems, 
especially in systems engineering, across the board in government, 
industry, and in the number of students in systems engineering 
curricula. If confirmed, I would work on a range of issues to attract, 
develop, and retain technical expertise in this field.
    Question. What is the appropriate tenure for program managers and 
program executive officers to ensure continuity in major programs?
    Answer. The assignment period for program managers and program 
executive officers must facilitate both continuity and individual 
accountability. Assignments must be of such duration as to allow the 
individual insight into and experience with the program in order to 
make long range decisions that ensure success. If confirmed, I would 
monitor implementation of these tenure requirements to ensure 
continuity in major acquisition programs.

                         LOGISTICS AND SUPPORT
 
   Question. The Department is increasingly relying on civilian 
contractors in combat areas for maintenance and support functions.
    How do you view this trend? Do you believe that the Department has 
drawn a clear and appropriate line between functions that should be 
performed by DOD personnel and functions that may be performed by 
contractors in a combat area?
    Answer. The Department is committed to providing the best possible 
support for our warfighters, and industry continues to provide 
exceptional performance-based support to our weapon systems. However, 
the Department must maintain a clear and appropriate line between 
functions that should be performed by DOD personnel and functions that 
may be performed by contractors in a combat area.
    Question. What is the status of DOD's effort to develop new 
guidance for contractors on the battlefield? Do you believe that this 
guidance, when published, will adequately address the issues raised in 
sections 1205 and 1206 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005?
    Answer. The Department is in the final stages of developing this 
guidance. If confirmed, I would monitor its implementation to ensure it 
adequately addresses the issues raised by Congress.
    Question. Transforming supply chain management will require not 
only process improvements but major investments in technology and 
equipment, ranging from the use of passive Radio Frequency 
Identification (RFID) tags, to improved asset visibility, to procuring 
more trucks, to improve theater distribution.
    What steps do you believe are necessary to improve the management 
of DOD's supply chain?
    Answer. A great deal of good work is underway in this area. 
Effective supply chains begin with a collective understanding of the 
customer--the warfighter, in this case.
    Several steps are necessary for success to continue to improve the 
management of the DOD supply chain such as asset identification and 
tracking, use of RFID technology, condition-based maintenance, 
performance based support from our industry providers, lean maintenance 
in all of the Depots, and integrating the Supply and Distribution folks 
to focus fully on factory-to-fighter.

        ROLE IN THE BASE REALIGNMENT AND CLOSURE (BRAC) PROCESS

    Question. If confirmed, you would play a role in the Department's 
preparation of the Secretary's recommended list of base realignments 
and closures, as chairman of the Infrastructure Steering Group to which 
the Joint Cross Service Groups Report, and as a member of the 
Infrastructure Executive Council that also reviews the proposals from 
the military departments.
    If confirmed, what steps would you take to prepare yourself for 
these responsibilities?
    Answer. If confirmed, I would review the deliberative record and 
discuss these actions in great detail with their proponents and with 
the deliberative bodies that reviewed them. As the statutory deadline 
for submission of the Secretary's recommendations is less than 30 days 
away, I expect that my efforts will focus on ensuring the Commission 
has the information it needs to fulfill the responsibilities assigned 
to it by Congress. I would also prepare for the implementation of the 
Commission's recommendations.
    Question. What is your current involvement, if any, in the 
Department's BRAC process?
    Answer. I have not been involved in any part of the development, 
analysis, or approval of recommendations the Secretary may provide to 
the Commission and Congress by the statutory deadline of May 16, 2005.

                         SCIENCE AND TECHNOLOGY

    Question. What, in your view, is the role and value of science and 
technology (S&T) programs in meeting the Department's transformation 
goals and in confronting asymmetric threats?
    Answer. S&T is a cornerstone to both the Department's 
transformation goals and in countering asymmetric threats. The past 
investment of the DOD in science and technology provided the dominant 
capabilities of our conventional forces. Stealth, precision-guided 
munitions, night vision devices, and the global positioning system all 
emerged from DOD laboratories and the S&T program. It is critical to 
continue to develop new capabilities that will enable continued 
dominance of our forces. If confirmed, I believe one of my key 
challenges will be to set a vision and support a program for the 
research and development priorities of the coming generation.
    Question. If confirmed, what direction would you provide regarding 
funding targets and priorities for the Department's long term research 
efforts?
    Answer. A strong S&T program remains central to maintaining our 
dominant operational capability status. Determining the level of 
investment is not a precise science, but a strategic corporate 
decision. I think it is critical to state the level of S&T investment 
needs to be sufficient to allow the Department to continue to develop, 
mature, and affordably field new dominant operational capabilities for 
US and allied forces while maintaining program stability. If confirmed, 
I would place a high priority on achieving adequate funding levels 
aimed at the right priorities.
    Question. The Director of Defense Research and Engineering has been 
designated as the Chief Technology Officer (CTO) of the Department of 
Defense.
    In your view, what is the appropriate role of the CTO of the 
Department of Defense?
    Answer. The Department views the roles of CTO and DDR&E as 
synonymous. The DDR&E is the principal staff advisor to the Under 
Secretary of Defense for Acquisition, Technology, and Logistics and the 
Secretary and Deputy Secretary of Defense on research and engineering 
matters.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain to institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms. The Department's fiscal year 2006 budget request 
proposes increases across a spectrum of technology transition programs.
    What challenges do you see to technology transition within the 
Department?
    Answer. The Department will need to make wise decisions on research 
and development to ensure we maintain technology superiority over 
potential adversaries. Our acquisition processes must be flexible to 
respond to evolving warfighting requirements and joint solutions that 
do not align easily with Service needs.
    Question. If confirmed, what steps would you take to enhance the 
effectiveness of technology transition efforts?
    Answer. Rapid transition of technology from development to 
acquisition does not happen without deliberate effort and adequate 
funding. The research and development process must provide incentives 
to reward rapid delivery of tangible products to the acquisition 
process. If confirmed, I would work to ensure our processes have the 
proper incentives to speed technology transition.

                          TEST AND EVALUATION

    Question. What are your views about the degree of independence 
needed by the Director of Operational Test and Evaluation in ensuring 
the success of the Department's acquisition programs?
    Answer. A strong, independent Director of Operational Test and 
Evaluation is critical to ensuring the Department's acquisition 
programs are realistically and adequately tested in their intended 
operational environment. If confirmed, I expect to seek the advice of 
the DOT&E on testing and evaluation issues.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.
    Question. The National Defense Authorization Act for Fiscal Year 
2003 included several provisions to improve the management of DOD test 
and evaluation facilities.
    What has been done to implement these provisions?
    Answer. This is not an area in which I have had much personal 
involvement. If confirmed, I expect to be actively engaged in the 
strategic management of the Department's test and evaluation 
facilities.
    Question. Do you believe that the Department should take any 
additional steps to improve the management of its test and evaluation 
facilities?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.
    Question. As systems grow more sophisticated, networked, and 
software-intensive, DOD's ability to test and evaluate these systems 
becomes more difficult. Some systems-of-systems cannot be tested as a 
whole until they are already bought and fielded.
    Are you concerned with DOD's ability to test such new weapons?
    Answer. The Department's ``Testing in a Joint Environment Roadmap'' 
defines the changes that will position T&E capabilities to fully 
support adequate T&E of new warfighting capabilities. If confirmed, I 
would oversee implementation of this Roadmap, which outlines an 
approach to link geographically distributed test facilities, 
laboratories, and ranges to create more realistic test environments.

                       BALLISTIC MISSILE DEFENSE

    Question. The fielding of initial elements of the Ground-Based 
Midcourse Defense system has begun as part of the ballistic missile 
defense test bed and for use in an emergency. In accordance with 
section 234 of the Ronald W. Reagan National Defense Authorization Act 
for Fiscal Year 2005, the system has not yet been subject to the 
operational test and evaluation process applicable to other major 
weapon systems.
    What role do you believe independent operational test and 
evaluation should play in ensuring that the Ground-Based Midcourse 
Defense system will work in an operationally effective manner?
    Answer. DOD is committed to conducting operationally realistic 
testing of our missile defense program. Our test program has become 
more robust and realistic over time. I expect that this trend will 
continue. I also understand that in November 2004 the Director of OT&E 
(DOT&E) approved the Missile Defense Agency's (MDA) Integrated Master 
Test Program and that he will continue to work closely with MDA to 
ensure an increasingly operationally realistic test program.
    Question. What steps do you believe should be taken to ensure that 
ground-based interceptors will work in an operationally effective 
manner?
    Answer. The ground-based interceptors are designed to be 
operationally effective and the testing to date has demonstrated the 
basic hit to kill functionality. The recent test failures indicated a 
need for more component qualification testing and a more robust 
approach to quality control. Steps have been taken by the Director of 
the Missile Defense Agency to address these shortfalls. DOD expects a 
return to a robust flight program will occur this year to demonstrate 
the interceptor's effectiveness with operationally realistic tests 
agreed upon by the DOT&E.
    Question. The Ballistic Missile Defense System is being developed 
and fielded by the Missile Defense Agency using Research, Development, 
Test, and Engineering funds.
    Question. At what point do you believe that elements of the system 
should transition to the military departments and procurement funds?
    Answer. I have not addressed this issue specifically in my current 
positions. However, in general, my sense is that systems should 
transition to the military departments and utilize procurement funds 
when the design is stable, tested and ready for production. Until that 
time, systems should remain in RDT&E where greater flexibility is 
available to make necessary and appropriate changes to the design. If 
confirmed, I would address these issues over time.
    Question. Do you believe that the Department should be developing 
specific plans for this transition now?
    Answer. Each of the individual missile defense program elements is 
in a different stage of its development; consequently, some are much 
more mature than others. I support close collaboration between the 
Missile Defense Agency and the military departments so the Department 
can understand the costs, logistics, and other implications of 
transitioning missile defense capabilities to better prepare for 
transition.

                        NUCLEAR WEAPONS COUNCIL

    Question. If confirmed as Under Secretary of Defense for 
Acquisition, Technology and Logistics, you will chair the Nuclear 
Weapons Council (NWC).
    In your view, what are or should be the highest priorities of the 
NWC?
    Answer. The NWC should help develop capabilities appropriate for 
21st century threats; support a range of activities such as studies on 
potential weapon concepts; and revitalize the nuclear weapon R&D and 
production infrastructure.
    Question. What improvements, if any, do you believe should be made 
to the operations of the NWC?
    Answer. I would not suggest any immediate changes to the operations 
of the NWC. If confirmed, I look forward to working with the members of 
the council to identify improvements, if any.

                      CHEMICAL WEAPONS CONVENTION

    Question. There are significant problems with the management and 
implementation of the DOD chemical weapons demilitarization program. 
Congress has become increasingly concerned that the Department does not 
appear to be on track to eliminate its chemical weapons in accordance 
with the Chemical Weapons Convention timelines.
    What steps is the Department taking to ensure that the U.S. remains 
in compliance with its treaty obligations for chemical weapons 
destruction?
    Answer. My understanding is that if the Chemical Demilitarization 
Program continues on its current path, the United States will not meet 
the Convention's extended 100 percent destruction deadline of April 29, 
2012. Accordingly, the Department has requested that alternative 
approaches be developed to evaluate whether the deadline can be met 
using a different approach.
    Question. Do you agree that the United States should make every 
effort to meet its treaty commitments, including its obligations under 
the Chemical Weapons Convention?
    Answer. Yes.
    Question. Can you assure the committee that you will focus your 
personal attention on this matter?
    Answer. Yes. If confirmed, I would ensure appropriate efforts are 
applied to comply with our international treaty obligations in a safe, 
secure, timely, and cost effective manner.

                         SMALL BUSINESS ISSUES

    Question. For the last two decades, the Department of Defense has 
been subject to statutory goals for contracting with small businesses 
and minority small businesses.
    Do you believe that these goals serve a valid and useful purpose in 
the Department of Defense contracting system?
    Answer. Yes, the overall small business goals serve a worthwhile 
purpose by focusing top DOD leadership attention on small business 
matters and serving as a stimulus for continuous improvement to the DOD 
Small Business Program.
    Question. DOD has a number of programs to improve small business 
participation in defense contracts. These include, among others, the 
so-called ``rule of two'' which provides that if two or more small 
businesses are capable of performing a contract, competition will be 
limited to small business, the Section 8(a) program, and the DOD 
mentor-protege program.
    In your judgment, how could the overall DOD small business program 
be improved to ensure that it is providing the right results for the 
Department in meeting its acquisition needs?
    Answer. I do not have a preconceived view. If confirmed, I would 
work to understand would steps should be taken.
    Question. Over the last several years, representatives of the small 
business community have been increasingly critical of the Department of 
Defense for ``bundling'' contracts together into larger contracts, 
which, in their view, tend to preclude small businesses from competing.
    What is your view of contract ``bundling''?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.
    Question. Do you believe that there is a value to having small 
businesses contract directly with the Federal Government, rather than 
being relegated to the role of subcontractors?
    Answer. I believe there is great value in small businesses 
providing the opportunity to contract directly with the Federal 
Government.
    Question. The Small Business Innovative Research (SBIR) program 
accounts for approximately $1 billion in defense research grants 
annually.
    In your view, are modifications needed to the Department's SBIR 
program to ensure that the program is meeting Department of Defense 
research goals?
    Answer. I do not have direct experience in this area. However, I 
would be pleased to work with Congress on this issue, if confirmed.
    Question. If confirmed, what emphasis would you place on 
participation by the acquisition community in setting research 
priorities for SBIR?
    Answer. I do not have a preconceived vision and, if confirmed, 
would look into this issue.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. I will always be prepared to offer my best professional 
judgment.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Acquisition, Technology, and Logistics?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

                       JOINT ACQUISITION PROGRAMS

    1. Senator Warner. Mr. Krieg, many of the Department's future 
requirements will require solutions that involve the participation by 
more than one Service. How can so-called ``joint'' programs be better 
managed?
    Mr. Krieg. I do not have a detailed action agenda for this critical 
question today, but, if confirmed, look forward to working with 
Congress and, in particular, this committee on this important subject. 
I would observe, however, that there has been a shift in the 
understanding of ``demand and supply'' in the years since Goldwater-
Nichols as the Department has more fully appreciated the importance and 
implications of joint warfighting. A critical aspect of managing joint 
programs will be to better define ``joint demand'' upfront. 
Understanding and planning for joint warfighting requirements at the 
start of the acquisition process will prove less costly than trying to 
retrofit ``jointness'' into weapons systems that are close to fielding. 
I also believe the Department should evaluate existing and new 
processes for better managing efforts at the seams or traditional 
Service roles, an examination that is under way in the business 
practices section of the Quadrennial Defense Review.

    2. Senator Warner. Mr. Krieg, should the Services conduct more 
joint development, for example, in the area of helicopters and unmanned 
systems?
    Mr. Krieg. The Department already is considering joint efforts in 
these two areas, and I believe the opportunity to increase focused 
joint development exists. The challenge will be to define the joint 
requirements clearly and comprehensively at program inception and to 
manage the development phase of joint programs to ensure that an 
appropriate balance of performance, schedule, and cost is achieved.

     FUNDING AND REQUIREMENTS INSTABILITY IN MAJOR WEAPON SYSTEMS 
                              ACQUISITION

    3. Senator Warner. Mr. Krieg, the Packard Commission found that 
``weapon systems take too long and cost too much to produce'' and 
blamed ``chronic instability'' in funding and overstated requirements. 
Twenty years later, major weapon systems programs are still plagued by 
funding and requirements instability which drives up the costs and 
delays the eventual fielding of new systems. How should the Department 
of Defense (DOD) maintain funding and requirements stability in its 
weapon systems programs?
    Mr. Krieg. Many of the Packard Commission's insights are relevant 
today. I believe that maintaining funding and requirements stability in 
weapon systems programs requires discipline on numerous fronts--in the 
requirements process, in trade-offs between cost and performance, in 
unambiguous lines of authority, in firm internal agreements on 
baselines, etc. Exercising this discipline requires commitment across 
the Federal Government over time. If confirmed, I look forward to 
working with this committee to develop the discipline and processes 
that will help keep the programs on track.

          ETHICS AND ACCOUNTABILITY IN THE ACQUISITION SYSTEM

    4. Senator Warner. Mr. Krieg, the recent Air Force acquisition 
scandal has raised concerns about the adequacy of safeguards to ensure 
the integrity of the procurement system. There are those who suggest 
that Congress should strengthen ``revolving door'' and ethics statutes. 
What do you think is needed to restore credibility and trust in the 
acquisition system that has been lost from this scandal?
    Mr. Krieg. As a guiding principle, I believe we owe the taxpayers 
who fund the Department, and the warfighters who rely on our efforts, 
the commitment to and continual reinforcement of the highest ethical 
standards. Ultimately, only leadership and accountability will restore 
and sustain credibility and trust. If confirmed, this will be one of my 
highest priorities.

                       FORCE PROTECTION PROGRAMS

    5. Senator Warner. Mr. Krieg, over the past several years, the 
Department, with the assistance of Congress, has spent billions of 
dollars on force protection programs such as Interceptor Body Armor, 
up-armored high mobility multipurpose vehicles and counter-improvised 
explosive device measures. If confirmed, how do you intend to ensure 
that our armed services continue to receive effective force protection 
equipment in a more timely manner?
    Mr. Krieg. Procuring equipment to meet emerging warfighting 
requirements is challenging on four fronts. First, prompt response to 
emerging threats requires the defense community to anticipate future 
needs and have options in development. Second, the Department must 
shorten the identification cycle: needs (demand) must be translated 
into programs as rapidly as possible. Third, the supply system must be 
agile enough to respond to new demands on short notice. Fourth, 
effective feedback mechanisms are needed to evaluate the usefulness of 
these items when they reach the field and measure whether they are 
meeting the threat as designed. As part of the Quadrennial Defense 
Review, the Department is studying how to enable the acquisition system 
to respond quickly to emerging warfighting requirements. If confirmed, 
I intend to work with the committee to ensure the warfighter will 
receive effective force protection equipment in a timely manner.

             JOINT IMPROVISED EXPLOSIVE DEVICES TASK FORCE

    6. Senator Warner. Mr. Krieg, the Department established a Joint 
Improvised Explosive Devices (IED) Task Force as a means to quickly 
develop tactics, techniques, and procedures and to field IED-
countermeasures quickly to provide force protection to our soldiers and 
marines. If confirmed, what recommendations will you make to improve 
the functioning of the Joint IED Task Force to make it responsive to 
the warfighters?
    Mr. Krieg. As Director of Program Analysis and Evaluation, I have 
followed only broadly the work of the IED Task Force and provided staff 
support to the effort. I believe this Task Force is an effective forum 
for bringing emerging warfighting requirements to the attention of 
senior leaders, but success in this endeavor is also dependent on the 
Department's ability to better anticipate future threats, identify 
programs to meet them, and manage supplier relationships to ensure 
items can be quickly produced and delivered. If confirmed, I look 
forward to the challenges of making the Department's business processes 
work more effectively to ensure they are responsive to emerging 
warfighting requirements.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                          ACQUISITION TIMELINE

    7. Senator Inhofe. Mr. Krieg, I am very concerned about the length 
of time it takes our country to deploy a new weapon system. Too often 
it takes so long for a new system to go from the cradle to the 
operational field that the world will have changed so dramatically and 
the challenge for which it was designed is no longer the threat that it 
was originally. Or the enemy's application of current technology makes 
the system less lethal than it would have been had the system rolled 
off the line sooner. We have seen one or both of these instances in 
systems such as the Comanche, Crusader, and Wolverine programs, and 
these are just some examples from the Army. I know that DOD recognizes 
this problem as well and the Pentagon has identified processes to 
streamline acquisitions. To improve the process, Congress has 
authorized such programs as Fast Track, Spiral Development, and special 
dispensation for the purchase of products with commercial applications. 
How do we get fully operational weapons systems into the hands of the 
warfighter in a quicker and still cost effective manner? What do we 
need to do to make this happen?
    Mr. Krieg. With the support of Congress, the Department has 
initiated a number of programs to speed the identification and delivery 
of material to the warfighter.
    The following existing initiatives are reducing acquisition cycle 
time:

        <bullet> The Joint Staff expedites the processes by which 
        Urgent Operational Needs are identified and transitioned into a 
        materiel or logistics solution.
        <bullet> The Army's Rapid Equipping Force (REF) provides much 
        needed force protection equipment to personnel serving in Iraq 
        and Afghanistan.
        <bullet> The Army's Rapid Fielding Initiative (RFI) equips 
        soldiers in CONUS with all the necessary items they will need 
        in the Area of Operations. These items are continually updated 
        as the needs change.
        <bullet> The Joint Rapid Acquisition Cell (JRAC) addresses the 
        bureaucratic impediments that slow the Department's ability to 
        meet urgent materiel and logistics solutions for the combatant 
        commanders.
        <bullet> The Department is accelerating fielding S&T 
        developments to the warfighter via the Combating Terrorism 
        Technology Task Force (CTTTF) process that quickly identifies 
        emerging technologies in response to operator needs and 
        provides funding for rapid prototyping, testing, and 
        evaluation.
        <bullet> The Advanced Concept Technology Demonstrations (ACTD) 
        program rapidly develops, demonstrates, and fields new 
        technological capabilities and complementary concept of 
        operations to the warfighter in response to Joint Requirements 
        Oversight Council (JROC) validated joint requirements.

    In the Quadrennial Defense Review (QDR), the Department is 
reviewing acquisition procedures to develop an integrated process with 
reduced cycle time. If any additional statutory changes prove necessary 
the Department will request those changes in its QDR report to 
Congress. If confirmed, I look forward to working with Congress on this 
important issue.

                      ACQUISITION WORKFORCE SIZING

    8. Senator Inhofe. Mr. Krieg, Michael Wynne, the acting Under 
Secretary of Defense for Acquisition, Technology, and Logistics (AT&L), 
said last week in his prepared statement, ``I believe we are at the 
point where any further reductions beyond the levels of this workforce, 
consistent with the President's 2006 budget request, will adversely 
impact our ability to successfully execute a growing workload.'' I 
agree with Mr. Wynne in that we do have quite a workload ahead for our 
acquisitions workforce. With the upcoming weapons systems needed to 
upgrade the capability of an aging and sometimes technologically dated 
air and naval force, especially, there is a lot needed to give our 
young men and women the best tools to protect America's freedom. During 
the Clinton administration, we reduced the size of our acquisitions 
work force. Here we are today bundling program purchases, often because 
we don't have the manpower capability to manage and oversee the 
management of individual purchases, when that would be in our best 
interest. We now have Lead Systems Integrators with contractors being 
hired to manage other contracts, like we have with Boeing overseeing 
the contract for the Army's Future Combat System. Our military, itself, 
cannot even determine if it is getting what it needs when it's 
scheduled, according to contract. We have a contractor do this for our 
military. In light of this, is our acquisitions workforce already 
adversely impacted and preventing us from being successful with a 
growing workload? Has the pendulum already swung too far? What is your 
personal professional opinion?
    Mr. Krieg. I have not worked on this set of issues in my current 
capacity. In general, I am concerned with the eventual generational 
transition that will take place in the Defense workforce and believe 
that the National Security Personnel System offers an opportunity to 
create the right framework for attracting, developing and retaining the 
kind of work force the Department will need. More specifically I 
believe the Department must not only be mindful of the required skills 
and competencies of the workforce, but also ensure the right business 
practices are in place to enable the DOD workforce to perform 
effectively. If confirmed, sizing and managing the acquisition 
workforce would be of my high priorities and I look forward to working 
with this committee to ensure the Department has the right workforce to 
perform its acquisition mission.

                   PRIVATIZATION OF DEPOT FACILITIES

    9. Senator Inhofe. Mr. Krieg, I met recently with Major General 
Terry Gabreski who is the commander of the Tinker Air Logistics Center. 
We discussed a previous visit of mine to the Center, where I saw an 
exceptional partnership between the private and public sector. A 
contractor, Pratt and Whitney, has built a technology center and 
supplies technical expertise, while the military member and Federal 
worker carry out the engine repairs and rebuild. We spoke with the 
contractor, the military, and the union member and all agreed the 
partnership worked out exceptionally well with increased performance 
metrics to show the results. There has been some discussion about 
privatization of depot facilities. This would put the resources to 
repair and overhaul our military equipment, as well as manage our spare 
parts, in the hands of a contractor. Contracting does have a purpose, 
in those areas that are not a part of the military's core competency. 
Repair of our assets and management of our spare parts are clearly 
within the military's core competency. What are your thoughts about 
privatization of depot facilities?
    Mr. Krieg. I do not have a preconceived view on privatization of 
depot facilities, but I agree that the Department must define and 
understand its current and future core competencies. From this 
baseline, the Department should then fund partners who complement and 
supplement its core competencies to ensure success. I am aware that 
there has been some very good progress in developing depot partnerships 
and look forward to learning more about them, if confirmed.

              SMALL BUSINESSES IN THE ACQUISITION PROCESS

    10. Senator Inhofe. Mr. Krieg, small businesses are complaining 
that they are being cut out of contracts because of bundling of 
contracts to larger vendors, etc. DOD complains the cuts in acquisition 
people are forcing these measures. Because there is a concern about 
small businesses being able to participate in the acquisition process, 
depots have small business offices in an effort to help shepherd small 
business through the process. Yet, there doesn't seem to be much 
improvement in this arena. Do you see this is a concern and what can we 
do to enable small business to participate more fully, while still 
getting the newest equipment into the hands of the warfighter in an 
timely manner and safeguarding the American taxpayer?
    Mr. Krieg. I believe that small businesses can be an engine for 
innovation and that the Department should draw on the best that the 
private sector has to offer. In my current capacity, I have not worked 
small business concerns in detail, but, if confirmed, I look forward to 
working with this committee to figure out the best role that small 
businesses can play in meeting the Department's mission.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

         UNMANNED AERIAL VEHICLES ROADMAP AND EXECUTIVE AGENCY

    11. Senator Sessions. Mr. Krieg, there has been a great deal of 
interest regarding the capabilities and future development of all the 
unmanned aerial vehicles (UAV) being used or under development by DOD. 
These platforms are saving lives in Iraq and the Services have been 
working hard to get as many UAVs with as much capability to the 
warfighter as soon as possible. While this fact is to be commended, I 
am deeply concerned about the long-term direction of UAV development 
and acquisition. There have been discussions within DOD about the need 
for an Executive Agent (EA) for UAVs. While the Air Force has seized 
onto this opportunity, recent cost overruns related to Global Hawk and 
other well-publicized acquisition troubles deeply concern me and give 
me reason to pause and question how this process might unfold. I was 
recently briefed on the UAV Roadmap by Ms. Diane Wright and Mr. Dyke 
Weatherington. We had an excellent discussion on how DOD is attempting 
to reign in development of multiple service UAV systems that duplicate 
effort, lead to increased costs and the development of numerous UAVs 
which are not compatible with one another. As the head of the DOD UAV 
Planning Task Force, I am interested in how DOD and the Task Force will 
get control of UAV development and procurement now and in the years to 
come?
    Mr. Krieg. As Director of PA&E, I have not worked on this set of 
issues but look forward to working with the committee, if confirmed. It 
is my understanding that there has been no decision on an Executive 
Agent (EA) within the Department of Defense (DOD) for UAVs. Given the 
wide use of UAVs, multiple Service interests in them, and lessons 
learned from current use, it is prudent to consider carefully the need 
and scope of a UAV ``EA'' or ``EA-like'' leadership. The Joint Staff 
has already started to review this. For UAV development and 
procurement, the DOD UAV Planning Task Force will continue to work with 
the Services and Joint Staff, through the Joint Capabilities 
Integration and Development System process, to field suitable, 
effective, and affordable UAV systems and to integrate them into the 
force. The Department will promote commonality and interoperability 
between its UAV systems and is working toward achieving these goals.

    12. Senator Sessions. Mr. Krieg, I would welcome the opportunity to 
speak to you about this important issue and perhaps we can brainstorm 
how the EA concept might work. Perhaps as Ms. Wright suggested there 
might be two EAs: one for strategic and one for tactical and 
operational. What are your thoughts on the creation of two EAs? 
Regardless, I think we have some work to do to assist the Department as 
we have no resources to waste.
    Mr. Krieg. If confirmed, I look forward to a discussion with you on 
this important topic. In the business practices section of the 
Quadrennial Defense Review, the Department will be looking at the 
concept of executive agency for managing efforts at the seams of 
traditional Service roles. Several variations on the concept of 
executive agency are already at work inside the Department. The QDR 
analysis will also examine these various models to recommend best 
practices given the variety of tasks executive agents are assigned to 
accomplish.

                          JOINT COMMON MISSILE

    13. Senator Sessions. Mr. Krieg, I am very concerned about the 
decision to cancel the Joint Common Missile (JCM) program that was 
contained in PBD-753. The JCM is a next generation weapon system being 
developed for our advanced aircraft (F/A-22, Joint Strike Fighter, and 
Joint Unmanned Combat Air Systems (J-UCAS)) coming on line in the next 
few years. The Services and the DOD have spoken consistently since the 
global war on terror started about how important joint operations are 
and how all new systems must be joint from their inception. The JCM 
meets this requirement! Unfortunately, the rhetoric of the Department 
in regards to being committed to joint weapon systems, like the JCM, 
does not match the decision to cancel the program. Please explain to me 
why this missile was cut in the PBD and why it should not be restored 
in the budget?
    Mr. Krieg. The Department cancelled JCM after a review by members 
of the Senior Level Review Group (Deputy Secretary, Chairman, Vice 
Chairman, Secretary and Chief of Staff of the Air Force, Secretary and 
Chief of Staff of the Army, Secretary of the Navy, Chief of Naval 
Operations, Commandant of the Marine Corps, and Under Secretaries of 
Defense) of strategic priorities, technical risks, and affordability. 
As demonstrated in OIF and OEF, current joint capabilities against 
vehicles and fixed targets are very good, and several new precision 
munitions to attack moving and fixed ground targets are in development. 
The Hellfire II--a joint Army, Navy, and Marine Corps program--worked 
well in OIF and is still in production. The Air Force is refurbishing 
Mavericks (a joint program) and developing the Small Diameter Bomb 
(SDB) increment II to field the same capabilities as JCM for fixed-wing 
aircraft. Further, the JCM faced technical risks because of the 
difficulty in combining three sensors into a single device, and 
financial risks as its independent estimates of procurement and RDT&E 
costs were higher than the Services' estimates.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                      DEPOTS AND CORE CAPABILITIES

    14. Senator Chambliss. Mr. Krieg, one of my concerns since I've 
been in Congress has been how DOD defines ``core'' relative to the type 
of and amount of work we need to ensure remains in our DOD depots and 
logistics facilities. I've also been extremely concerned as I've seen 
DOD recommend and approve total system support contracts and contractor 
provided logistics operations for entire weapon systems. This was 
initially the way we went with the C-17 program, and part of DOD's now 
defunct tanker lease proposal was to give Boeing a non-competed, 
totally commercial, $5 billion maintenance contract for those 
airplanes. What is your view on DOD's role in maintaining a robust, up-
to-date, maintenance and logistics function within the Department of 
Defense?
    Mr. Krieg. At this time I do not have a detailed answer to your 
question. If confirmed, I will look into this issue in greater detail 
and be ready to discuss it further. I do offer a couple of ingoing 
principles that may shape my views.
    I believe that DOD needs to be precise in what it identifies as 
core competency. DOD must certainly be great at managing its capital 
asset maintenance and logistics supply chain. I have no ingoing reason 
to question the DOD policy that it will maintain depot maintenance core 
capabilities in Government owned and operated facilities. These 
capabilities provide effective and timely response to surge demands and 
sustain institutional expertise.
    My understanding is that the Department has also built some 
successful public-private partnership models and I look forward, if 
confirmed, to understanding how to achieve the best overall balance of 
support to ensure that we provide our warfighters with the best 
supporting infrastructure that we can.

    15. Senator Chambliss. Mr. Krieg, if confirmed in your new 
position, how will you ensure that DOD does not turn over these 
functions to contractors and allow them to maintain the primary 
expertise or decisionmaking authority regarding how and when our 
airplanes and military hardware are maintained?
    Mr. Krieg. It is important that DOD be great at managing its 
capital asset maintenance and logistics supply chain. If confirmed, I 
will work with the Services to ensure that DOD can provide our 
warfighters with the best supporting infrastructure that we can.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman

                                 DARPA

    16. Senator Lieberman. Mr. Krieg, a recent New York Times article 
quotes a spokeswoman from Defense Advanced Research Projects Agency 
(DARPA) as stating that ``DARPA is rightly devoting more attention to 
`quick reaction' projects that draw on the fruits of earlier science 
and technology to produce useful prototypes as soon as possible.'' 
Although the need to address immediate issues may exist, this cannot 
replace the basic research efforts that support the future military 
technological advancement. Some of America's leading scientists and 
technology companies' CEOs are expressing deep concern that DARPA has 
abandoned its historic mission to ensure that the U.S. will never be 
taken by technology surprise by focusing on incremental and not 
breakthrough research. What steps are you taking to reverse the short-
term focus that DARPA by numerous accounts is now embarked on?
    Mr. Krieg. The scope of my current responsibility as Director, PA&E 
does not include this area. I have not formed an opinion at this time 
but look forward to working with the Committee, if confirmed. However, 
it is my understanding that DARPA's spokeswoman was not quoted 
accurately in the New York Times article. The statement she gave to the 
reporter on that point reads:

          During periods of active conflict, DARPA adds an additional 
        type of activity--quick reaction projects that take the fruits 
        of previous science and technology investment and very quickly 
        move the technology into a prototype, fieldable system and into 
        the hands of deployed forces. There have been many published 
        articles on some of these technologies. Quick reaction projects 
        are done in addition to DARPA's usual activities, not instead 
        of.

    A review of DARPA's strategic plan and the individual programs and 
projects that DARPA has underway, reveals how ambitious their programs 
are and how revolutionary the results of these programs will be if 
successful.

                             BASIC RESEARCH

    17. Senator Lieberman. Mr. Krieg, at a time when military 
excellence is essential, the Department of Defense's S&T funding is 
down 15.9 percent from last year's appropriated amount. Additionally, 
in recent reports, both the Defense Science Board and the President's 
IT advisory committee commented on DARPA's reduction of support for 
university research. What efforts are you taking to restore this 
funding and specifically to address the cuts in the long-term 
university-based research in the physical sciences?
    Mr. Krieg. On the broader question, the Department has increased 
its requests for Science and Technology investment by roughly 33 
percent over the past 4 years. The fiscal year 2006 budget request is 
the same level requested in fiscal year 2005. Given the competing 
demands, the requested amount is what the Department needs to achieve a 
balanced investment overall. In my current role, I have not reviewed 
DARPA's funding, but, if confirmed, I plan to look into this important 
matter.

                         SEMICONDUCTOR INDUSTRY

    18. Senator Lieberman. Mr. Krieg, as you are aware, East Asian 
countries are leveraging market forces through their national trade and 
industrial policies to drive the migration of semiconductor 
manufacturing to that region. If this accelerating shift in this 
manufacturing sector overseas continues, the U.S. potentially could 
lose the ability to reliably obtain high-end semiconductor integrated 
circuits. Semiconductors impact every aspect of a warfighter's mission 
including secure communications, smart weapons and precision targeting, 
and navigation and guidance. Specifically, the photomask industry is of 
particular concern especially given that this is the only area in the 
fabrication process where raw data is handled for laying down a complex 
pattern for circuitry. This offshore shift in semiconductor 
manufacturing is occurring at a time when these components are becoming 
an even more crucial defense technology advantage to the United States. 
For example, network centric capability demands ever faster real time 
processing for defense purposes and also because of the increasing need 
for such high-end components in the intelligence communities. Why has 
the research in this area been cut back?
    Mr. Krieg. The scope of my current responsibilities as Director, 
PA&E does not include this area. I have not formed an opinion at this 
time but look forward to working with the committee, if confirmed. 
However, I am told that the Department has partnered with the 
semiconductor industry to support a broad agenda of academic research 
at U.S. universities aimed at sustaining the domestic industry's world 
leadership. The goal is to attract U.S. citizens back into science and 
engineering careers to provide the future workforce for both the 
military and commercial semiconductor needs.

    19. Senator Lieberman. Mr. Krieg, without ongoing research in 
place, how do you plan to mitigate this national security risk and are 
these efforts adequate to fully abate this serious issue?
    Mr. Krieg. I have not reviewed this issue in my current position. 
If confirmed, I will look into the question and develop my view on what 
ought to be the Department's approach.

             DEFENSE SCIENCE BOARD REPORT ON SEMICONDUCTORS

    20. Senator Lieberman. Mr. Krieg, the Defense Science Board 
released a report titled `High Performance Microchip Supply' in 
February 2005 listing its recommendations to maintain U.S. 
semiconductor capabilities for national security needs. Specifically, 
the report calls for an overall long-term vision for the future of the 
chip industry; the current foundry agreements only address the short-
term needs, not the structural issue of funding research that will 
sustain our information superiority. When will you deliver a plan to 
implement the recommendations listed in this report?
    Mr. Krieg. The scope of my current responsibilities as Director, 
PA&E does not include this area, and I do not have a preconceived plan 
to implement. If confirmed, I will look into the recommendations of the 
report and develop my view.

                        MANUFACTURING TECHNOLOGY

    21. Senator Lieberman. Mr. Krieg, the U.S. trade deficit in 
manufactured goods increased $94.5 billion in 2004 from $536 billion 
reported in 2003. Our largest goods deficit is now with China, $162 
billion, an increase of $37.9 billion from 2003. We are running major 
deficits with China in defense critical manufacturing areas, such as 
computer hardware ($25 billion) and electronics machinery and parts 
($23 billion) as U.S. production drifts offshore. We are transferring 
major portions of our circuit board, semiconductor, machine tool, and 
weapon system metal casting manufacturing to China because of low wage 
and production costs. Without productivity breakthroughs, the U.S. 
defense manufacturing base particularly, 2nd and 3rd tier small 
manufacturers will continue to erode. What research efforts are in 
place to address the needed innovation in manufacturing and are these 
efforts adequate to fully abate this serious issue? Specifically, do 
you have a plan to focus DARPA on process innovation?
    Mr. Krieg. At this time I do not have direct experience in this 
area to have a preconceived plan. If confirmed, I will look into the 
question and develop my view on what ought to be the Department's 
approach.
    In the broad sense, the Department of Defense is a relatively small 
player in the overall U.S. economy (about 3.75 percent of the gross 
domestic product), and DOD's leverage within the overall U.S. 
manufacturing sector is limited. Many U.S. industries once dominated by 
DOD demand now are focused on, and dependent on, commercial markets. 
Nevertheless, it is desirable--and absolutely necessary--that the 
Department take the steps necessary to ensure the industrial base on 
which it depends remains sufficiently reliable, innovative, and cost-
effective to meet the Nation's national defense requirements.

    22. Senator Lieberman. Mr. Krieg, additionally, ManTech currently 
is funded at $237 million for fiscal year 2005, all of which is 
directly tied to the near term needs of the Services. The Joint Defense 
Manufacturing Technology Panel (JDMTP) does not have funding 
independent of the Services to initiate new efforts focusing on longer-
term, higher-risk, higher-payoff technologies and processes. ManTech 
needs to balance the current shorter-term portfolio by refocusing on 
longer-term, higher risk manufacturing processes and technology 
development that are industry game-changers and yield big efficiencies 
and cost-savings to DOD. When will you provide funding to JDMTP to 
initiate the needed manufacturing programs?
    Mr. Krieg. It is my understanding that a Defense Science Board 
study is currently underway to review the issue of ManTech strategies 
and priorities including the need for cross-cutting programs. This 
report is planned for completion in the fall of 2005. It would be 
premature to make a decision without first reviewing the study.

    23. Senator Lieberman. Mr. Krieg, are the efforts in your area 
coordinated with the Defense Industrial Base Capability Studies (DIBCS) 
that are currently underway in the DOD Office of Industrial Policy? Is 
there more coordination needed and if so, what are your plans to 
achieve this?
    Mr. Krieg. The Deputy Under Secretary of Defense for Industrial 
Policy prepared the Defense Industrial Base Capability Studies. I have 
been briefed on the methodology, conclusions and recommendations of 
several of the studies.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                ACQUISITION WORKFORCE AND HUMAN CAPITAL

    24. Senator Akaka. Mr. Krieg, at your confirmation hearing you 
answered several questions regarding the Department of Defense 
acquisition workforce and the impact that the downsizing of this 
workforce has had on major program acquisition. Additionally, recent 
guidance was issued by the OMB on acquisition policy which emphasized 
employee training, certification, and the role of chief acquisition 
officers. What do you see as the most critical factors in improving the 
strength of the acquisition workforce within the Department?
    Mr. Krieg. At this time I do not have a specific agenda of action 
on acquisition workforce issues. The issue of how to better structure 
acquisition functions of the DOD is under review as part of the 
Quadrennial Defense Review and this should include the acquisition 
workforce capability to meet future needs. Several key themes seem 
important as we begin this work.
    First, the Department must keep acquisition workforce capabilities 
aligned with the emerging future needs of the DOD. Second, the 
Department must have effective implementation of the National Security 
Personnel System (NSPS). The NSPS provides new mechanisms to hire, 
assign, and reassign employees and to set pay. It enables DOD managers 
to acquire, advance, and shape their workforce in response to changing 
mission needs and to compete for the best talent. Third, the Department 
must use the flexibilities provided by several useful changes that 
Congress made to the Defense Acquisition Workforce Improvement Act in 
fiscal years 2004 and 2005. These changes enable the DOD to have a 
single acquisition corps and to streamline management of the 
acquisition workforce. Finally, the Department must integrate workforce 
programs and human capital strategic planning efforts regarding the 
acquisition workforce so that DOD can achieve the outcomes needed 
component and department-wide.

    25. Senator Akaka. Mr. Krieg, what is being done to ensure that 
strategic management of human capital is focusing on not just hiring 
people but hiring the right people with the acquisition skills 
necessary to reverse the trend where lost corporate knowledge is 
limiting the Department's ability to perform acquisition management 
effectively?
    Mr. Krieg. The Department is emphasizing the need to strategically 
analyze and plan workforce capability through assessing the skills of 
the current workforce, projecting workforce capability needs into the 
future, identifying gaps, and ensuring the filling of those gaps. The 
effective implementation of the National Security Personnel System 
(NSPS) and the outcomes of the next Quadrennial Defense Review (QDR) 
will add to DOD's ability to improve and ensure the right workforce 
capability. Meanwhile, the Department is strengthening its approach 
toward systems engineering by issuing new policy, revamping education 
and training programs and bolstering the learning and performance 
support environment.

                         PLACEMENT OF RESOURCES

    26. Senator Akaka. Mr. Krieg, as Director of Program Analysis and 
Evaluation (PA&E), you have been deeply involved in implementing the 
Department of Defense's Balanced Score Card in support of the 
President's Management Agenda. Through this approach you have used four 
risk areas to ensure that the Department's performance goals cover the 
initiatives of the President's Management Agenda. As you are moving 
from your position of Director of PA&E to Under Secretary of Defense 
for AT&L, do you feel that you are using the proper risk factors in 
determining the placement of resources?
    Mr. Krieg. The approach to managing risk, first outlined in the 
2001 Quadrennial Defense Review, gave the Department an organized 
construct for considering the implications--now and in the future--of 
efforts with respect to operations, managing forces and managing the 
institution. The balanced scorecard approach, used widely in the 
private sector, helps managers think about their initiatives across the 
full range of their enterprise. We have had some substantial success at 
getting management to consider the balance among risks as they consider 
resourcing.
    Fully employed, the approach helps them align activity across the 
enterprise behind key metrics of outcomes that are linked to the 
strategy of the organization. In an enterprise as complex as the 
Department of Defense, the full implementation of the balanced 
scorecard is a challenge as precise metrics relevant from the top to 
the bottom of the organization are difficult to define.

    27. Senator Akaka. Mr. Krieg, how do you best assess the results of 
these resourcing choices?
    Mr. Krieg. Ideally, we would measure all of our results in terms of 
real outcomes. In many cases, we can. However, the outcomes of some of 
our investments are harder to assess in a classic performance 
management sense; the longstanding defense analysis question of ``How 
much is enough?'' is still a challenge. In those cases, we attempt to 
look at a balance between the costs and the benefits of options--both 
in the near and far term.

                        ACCOUNTABILITY MEASURES

    28. Senator Akaka. Mr. Krieg, at your confirmation hearing you were 
asked several questions about the current acquisition process, with 
specific references to contracts such as the Army's Future Combat 
System and the Navy's DD(X). In addition, the Defense Acquisition Board 
recently approved funding for the Global Hawk unmanned spy plane 
program, and some in Congress would like to see the C130J cargo plan 
program go forward. You stated at your confirmation hearing that the 
Department must press for acquisition accountability but all of these 
programs have been the subject of much debate both within Congress and 
within the Department. If confirmed as Under Secretary of Defense for 
AT&L, what accountability measures would you put in place to change the 
current acquisition process for major programs to ``contain costs and 
keep programs from ballooning and becoming unworkable?''
    Mr. Krieg. At this time I do not have a specific plan of action on 
containing costs. If confirmed, I look forward to working with Congress 
on this issue. I do offer two preliminary views, however. The 
Department must carefully construct its statement of requirements, 
balancing among performance, cost, and schedule. Achieving an 
integrated strategic priority across all three of our major defense 
decision processes--requirements generation, acquisition management, 
and the Defense Planning, Programming, Budgeting and Execution 
process--is also important.

                    CORROSION CONTROL AND PREVENTION

    29. Senator Akaka. Mr. Krieg, the impact of corrosion on systems, 
equipment, and infrastructure costs the Department of Defense billions 
of dollars each year. In late 2003, the Office of Corrosion Policy and 
Oversight was created for the Department of Defense within AT&L with a 
Corrosion Executive leading the initiative. Currently this Corrosion 
Executive is several layers down from the Under Secretary in the AT&L 
organization, which limits his effectiveness, in my opinion. I am 
concerned that the way the DOD has set up this office does not comply 
with the spirit and intent of the legislation that Congress enacted 
regarding corrosion control. I believe the office should report 
directly to the Under Secretary of Defense for AT&L and not be buried 
in the bureaucracy. In October 2004, the Defense Science Board (DSB) 
issued its report on Corrosion Control which assessed ongoing corrosion 
control efforts across the Department of Defense. This report made five 
explicit recommendations and specific actions to implement those 
recommendations. The DSB estimated that 30 percent of the billions 
wasted annually could be avoided through proper investment in 
prevention and mitigation of corrosion during sustainment, design, and 
manufacture. One of the recommendations of the DSB review included each 
Service provide $10 million per year beginning in fiscal year 2006 in 
addition to the funds required by the Office of Corrosion Policy and 
Oversight. But PBD753 recommends reducing funds for corrosion 
prevention by $10 million every year over the Future Years Defense 
Plan. What would be your first priority in the office of Under 
Secretary of Defense for AT&L to ensure that the corrosion control and 
prevention initiative be brought back in line with the original intent 
of Congress in order to save the billions of dollars currently spent on 
corrosion each year?
    Mr. Krieg. As Director of Program Analysis and Evaluation, I have 
only a broad understanding of the issue. I would not bring any 
preconceived plan to the position but would look forward to working 
with the committee on this issue, if confirmed.
    It is my understanding that the Department has embarked on a long-
term study, initiated this year, to provide a justifiable and 
defendable basis for: (a) structuring and prioritizing the Department's 
efforts as they relate to balancing investments in corrosion control 
and in corrosion prevention and (b) attendant funding levels. The OSD 
corrosion program is currently budgeted at $15 million per year across 
the Future Year Defense Plan (FYDP). The Department established Program 
Element (PE) 0604016D8Z for RDT&E ($5 million) and manages the 
corrosion O&M ($10 million) funds in a DOD-wide account.
    From an organizational perspective, the Deputy Secretary appointed 
the Principal Deputy Under Secretary of Defense for Acquisition, 
Technology and Logistics (PDUSD(AT&L)) as the DOD Corrosion Executive, 
who reports directly to the Under Secretary (AT&L). This ensures that 
corrosion prevention and mitigation receives appropriate executive-
level attention. The Office of the Special Assistant for Corrosion 
Policy and Oversight reports directly to the DOD Corrosion Executive on 
policies, issues, and actions directly associated with the corrosion 
prevention and mitigation initiative. The office is aligned as a 
component of the Directorate of Systems Engineering within OUSD (AT&L). 
This alignment allows the Department to ensure corrosion prevention and 
mitigation receive appropriate attention during design trades as part 
of the baseline systems engineering effort for equipment and 
infrastructure design and development.
                                 ______
                                 
    [The nomination reference of Kenneth J. Krieg follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 4, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Kenneth J. Krieg, of Virginia, to be Under Secretary of Defense for 
Acquisition, Technology, and Logistics, vice Edward C. Aldridge, 
resigned.
                                 ______
                                 
    [The biographical sketch of Kenneth J. Krieg, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Kenneth J. Krieg

    Ken Krieg currently serves at the Department of Defense as Special 
Assistant to the Secretary and Director for Program Analysis and 
Evaluation. In this capacity, he leads an organization that provides 
independent advice to the Secretary of Defense in a range of areas 
including defense systems, programs and investment alternatives as well 
as providing analytic support to planning and resource allocation.
    He joined the Department of Defense in July 2001 to serve and 
continues as the Executive Secretary of the Senior Executive Council 
(SEC). The SEC, comprised of the Secretary, Deputy Secretary, Service 
Secretaries and Under Secretary of Defense for Acquisition, Technology 
and Logistics, is responsible for leading initiatives to improve the 
management and organization of the Department of Defense. Among other 
areas, the SEC is working on strategy-based measurement approaches, 
transformation strategies for the business infrastructure and 
organizational approach and design. The SEC also serves as a senior 
decisionmaking and advisory body on a broad set of issues, including 
resource allocation.
    Prior to joining the Department of Defense, Ken was the Vice 
President and General Manager of the Office and Consumer Papers 
Division. He had responsibility for International Paper's $1.4 billion 
retail, commercial office, and consumer papers businesses. Prior to 
this position, Ken was the business manager for the office and consumer 
paper business.
    Ken was with International Paper for 11 years and held marketing 
and sales positions in the office papers and bleached board businesses. 
He was actively involved in integrating the Federal Paper Board, Union 
Camp and Champion companies into International Paper. He began his 
service with International Paper as executive assistant to the Chairman 
and Chief Executive Officer.
    Before joining International Paper, Ken worked in a number of 
defense and foreign policy assignments in Washington, DC, including 
positions at the White House, on the National Security Council Staff 
and in Office of the Secretary of Defense.
    Ken received his BA degree in history from Davidson College and his 
Masters in Public Policy from the Kennedy School of Government at 
Harvard University. He and his wife, Anne, have two children (Allen and 
Meredith).
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Kenneth J. 
Krieg in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Kenneth Joseph Krieg, also Kenneth J. Krieg, Ken Krieg.

    2. Position to which nominated:
    Under Secretary of Defense (Acquisition, Technology, and 
Logistics).

    3. Date of nomination:
    April 4, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 29, 1961; Nelsonville, OH.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Anne Hurt Krieg.

    7. Names and ages of children:
    Allen Joseph Krieg, 12; Meredith Aileen Krieg, 10.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    John F. Kennedy School, Harvard, 9/1983-6/1985, M.P.P., 6/1985.
    Davidson College, 9/1979-6/1983, B.A., 6/1983.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director, Program Analysis & Evaluation, Office of the Secretary of 
Defense, Supervisor: Secretary Donald Rumsfeld, Pentagon, 4/2003 to 
present.
    Executive Secretary, Senior Executive Council, OSD, Supervisor: 
Secretary Donald Rumsfeld, Pentagon, 7/2001 to present.
    Vice President and General Manager Office and Consumer Papers, 
International Paper, Supervisor: Charlie Greiner, 6400 Poplar 
Avenue,Memphis, TN, 7/2000-7/2001.
    Business Manager, Office Papers, International Paper, Supervisor: 
L.H. Puckett and Rick Smith, 5/1997-7/2000.
    Sales & Marketing Manager, Bleached Board Division, International 
Paper, Supervisor: Tom Gestrich, 6/1995-5/1997.
    National Sales Manager and Marketing Manager, Bleached Board 
Division, International Paper, Supervisor: Scott Murchison, 5/1993-6/
1995.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    I supported Chairman and CEO of International Paper, John Georges 
when he was a member of President George Bush's Commission on 
Environmental Quality 1991-1992. I was employed by International Paper, 
but worked on Commission business on his behalf.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member of Lewinsville Presbyterian Church, McLean, VA (2002-
present); Stewardship committee member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Bush-Cheney 2000 $1,000.
    Bush-Cheney 2004 $2,000.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Air Force Decoration for Exceptional Civilian Service--January 
2005.
    Army Decoration for Distinguished Civilian Service--May 2003.
    Navy Distinguished Public Service Award--January 2003.
    Davidson College Alumni Service Award--2002.
    DOD Medal for Distinguished Public Service--October 1990.
    Phi Beta Kappa.
    Omicron Delta Kappa.
    Agnes Sentelle Brown Award; Davidson College.
    Richardson Scholar; Davidson College.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Introduced a section of a book, ``The All-Volunteer Force-Thirty 
Years of Service,'' which captured the proceedings of a DOD conference 
on the topic in September 2003. Contributed to one article in The 
Washington Quarterly in 1988 with Rhett Dawson and Paul Stevens titled 
Defense Efficiency in the 1990s.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have delivered numerous talks on defense resources and 
management, as well as defense transformation since returning to 
government. Most of the talks have been to internal audiences, 
conferences or schools. Only two have been from partially prepared 
text; most are delivered off handwritten notes. I have included those 
two.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Kenneth J. Krieg.
    This 13th day of April 2005.

    [The nomination of Kenneth J. Krieg was reported to the 
Senate by Chairman Warner on May 25, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 26, 2005.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. Michael V. 
Hayden, USAF, by Chairman Warner prior to the hearing with 
answers supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes. I support these reforms. I have been personally 
working to implement these reforms in every position I have held since 
they were passed in 1986 because of the efficiency and effectiveness 
they engender.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. My experience has been that defense reforms under 
Goldwater-Nichols have been broadly accepted and institutionalized. 
They have been the underpinning of much of our success in joint war 
fighting over the past decade.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The provisions of Goldwater-Nichols have contributed to the 
success of our armed forces in many areas. My personal view, however, 
is that the personnel provisions of Title IV have done more than any 
other aspects of the law to create a true culture of jointness.
    Moreover, as I said in my testimony to the House Intelligence 
Committee last August, I think that the personnel provisions of the act 
are more transferable to the Intelligence Community (IC) than any other 
aspects of the law.
    The essence of jointness is to consider the whole over the parts 
and to dampen demands for individual control in favor of collaboration 
and cooperation. The underlying principle of Goldwater-Nichols holds 
true for the IC: the rejection of the idea that ``If I don't own it or 
control it, I can't count on it.''
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. In your view, are the goals of the Intelligence Reform 
and Terrorism Prevention Act of 2004 fully consistent with the goals of 
the Goldwater-Nichols Department of Defense Reorganization Act? Please 
explain.
    Answer. The goals of the Intelligence Reform and Terrorism 
Prevention Act of 2004 are consistent with the goals of the Goldwater-
Nichols Act that reorganized the Department of Defense to increase 
cooperation and jointness among the services.
    The authorities given to the Director of National Intelligence will 
allow the DNI to manage the IC in ways that will increase 
interoperability among the elements of the Intelligence Community. A 
more effective Intelligence Community cannot help but better support 
the combined operations of the American armed forces.
    For example, the DNI is to prescribe, in consultation with the 
heads of other agencies or elements of the Intelligence Community, and 
the heads of their respective departments, personnel policies and 
programs applicable to the IC including standards for education, 
training, recruitment, and retention. At the heart of this is building 
a community ethos of cooperation and collaboration--the IC equivalent 
of jointness.
    The Act also directs the DNI to prescribe mechanisms to facilitate 
the rotation of IC personnel through various IC elements during the 
course of their careers to facilitate the widest possible understanding 
of intelligence requirements, methods, users, and capabilities.
    The law authorizes the DNI to give special incentives for personnel 
to get IC-wide perspectives by working in the Office of the DNI or in 
other positions in support of the DNI's IC management functions; I 
strongly support these initiatives.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Principal Deputy Director of National Intelligence (PDDNI)?
    Answer. The formal answer is that the Intelligence Reform and 
Terrorism Prevention Act (IR&TPA) of 2004 specifies certain duties and 
functions of the Principal Deputy Director of National Intelligence. 
These include assisting the Director of National Intelligence in 
carrying out the duties and responsibilities of the Director. Further, 
the law specifies that the PDDNI is to act for, and exercise the powers 
of, the DNI during the absence or disability of the DNI or during a 
vacancy in the position of the DNI.
    If confirmed, the DNI and I would work out the details of my job 
description within the formal framework. No decisions have yet been 
made, but it would be reasonable to assume that the DNI would want me 
to help him ensure that the Intelligence Community runs as smoothly as 
possible.
    I should also point out that the IR&TPA notes the sense of Congress 
that either the DNI or his principal deputy should be a serving 
military officer or someone with an appreciation of military 
intelligence activities and requirements. If confirmed, one of my key 
responsibilities will be to provide the DNI with insight into the needs 
of America's combat forces.
    I also expect that my experience in the production of intelligence 
and my knowledge of intelligence sources, tasking, analysis and 
distribution as well as of budgetary issues, laws and military 
organizations should complement the DNI's experience as an intelligence 
consumer.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Over the course of my career, I have had extensive 
experience in managing and leading the military personnel that have 
been under my command. As the Director of the National Security Agency 
(DIRNSA), I have also had a large number of civilian employees under my 
direction.
    In my current position as DIRNSA, we transformed NSA into a modern 
agency that operates effectively and efficiently in the digital age. I 
am especially proud that we have improved many aspects of NSA's mission 
including transforming the SIGINT process to get pertinent SIGINT 
information out to warfighters and to NSA's other customers in a timely 
fashion.
    With regard to my responsibility to provide the DNI with insight 
into the intelligence needs of DOD, I believe my experience in leading 
the National Security Agency through the campaigns in Afghanistan, 
Iraq, and the war on terrorism has given me a robust appreciation of 
DOD requirements in wartime.
    In my position as DIRNSA I have also had extensive experience 
contending with the IC's dispersion of authority. While responsible for 
the Nation's entire cryptologic architecture, I directly controlled 
just over a third of the Nation's cryptologic spending and was obliged 
to influence the remainder through an often cumbersome system of staff 
coordination. The current legislation takes significant steps in better 
aligning responsibility with authority.
    My experience also includes dealing with issues of some political 
sensitivity. For example, while Deputy Chief of Staff, United Nations 
Command and U.S. Forces Korea, I routinely led the military delegation 
charged with negotiating with North Korean generals.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Principal Deputy 
Director of National Intelligence?
    Answer. If confirmed, there are a variety of actions I would need 
to take to enhance my ability to perform as PDDNI. I would need to 
listen to the advice and counsel of individuals with unique experiences 
to share. I have already made a concerted effort to reach out to such 
people, both inside and outside of government. For example, I have 
listened to insightful advice from the SECDEF, the Under Secretary of 
Defense for Intelligence, other DOD officials, former DCIs, Attorneys 
General, members of the National Security Council, other White House 
officials, leaders of industry, prominent academics, and friends whose 
advice I value. All have been highly supportive.
    I particularly would need to familiarize myself with aspects of the 
IC beyond the immediate confines of DOD and NSA--issues like the 
linkages between law enforcement and intelligence or between foreign 
and domestic intelligence.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Director of National Intelligence will prescribe 
for you?
    Answer. In the months ahead we have to set up an office, build an 
organization, hire the right kind of people from inside and outside the 
government, and establish new ways of doing business for the 
Intelligence Community. As with all Deputies, however, I would assume 
much of my time would be taken up with ``other duties as assigned.'' 
That is right and proper and I will use my best efforts to complete 
whatever tasks the DNI assigns me.
                             relationships
    Question. In carrying out your duties, how will you work with the 
following:

        The Secretary of Defense.
        The Chairman of the Joint Chiefs of Staff.
        The Under Secretary of Defense for Intelligence.
        The Assistant Secretary of Defense for Networks and Information 
        Integration.
        The Director of the Central Intelligence Agency.
        The Director for Intelligence, J-2, the Joint Staff.
        The Service Secretaries and the Service Intelligence Directors.
        The Directors of the Defense intelligence agencies.

    Answer. In the broadest possible terms, I will seek if confirmed to 
work with each individual listed in a cooperative spirit for the good 
of the Nation. Much has been written about potential bureaucratic 
roadblocks to effective cooperation. We have all heard the warnings, 
particularly from the WMD Commission, about how bureaucracies are 
loathe to change and how organizations may want to keep a death grip on 
what they perceive as ``their turf.''
    That said, I personally know the individuals listed and know that 
each has the best interests of the country at heart. I look forward to 
working with each of them in my new capacity, if confirmed, because I 
believe they understand that a successful DNI means a successful IC, 
which means a safer Nation. The Intelligence Reform and Terrorism 
Prevention Act of 2004 gives us an opportunity to improve the overall 
performance of U.S. intelligence for all consumers.
    Many of the Defense officials noted above will be, as they have 
been in the past, at a key intersection of American national security 
policy and combat operations. They support both the Department of 
Defense and national needs. Some of the discussion and press commentary 
over this past year seems to suggest that this is somehow a new or 
troublesome development. This is not new and has not been new since 
1952 when President Truman established NSA as the first ``national'' 
intelligence component housed within DOD. The ``difficulties'' 
associated with this arrangement are not so much circumstances to be 
solved as conditions to be managed in the national interest. At their 
best, agencies such as NSA are at the cornerstone of a ``culture of 
collaboration'' since their placement makes collaboration essential to 
their success.
    More specifically, as the role of the DNI is established and DOD 
continues to develop the role of the USD(I), it is important that we 
explore ways in which the latter can play an important role in helping 
both the Secretary of Defense and the DNI to develop greater 
integration within those IC elements located within DOD.
    In that light, I would like to echo remarks Ambassador Negroponte 
made in his confirmation hearing. He noted that the act gives him the 
authority to deal directly with heads of IC entities in certain areas 
and that he intended to exercise this authority. I share Ambassador 
Negroponte's views because, as I told the Senate Intelligence 
Committee, I believe it is critically important to the success of the 
DNI that he have robust authority over the big, national collection 
entities like the National Security Agency, the National Geospatial 
Intelligence Agency, and CIA's Directorate of Operations.(start)
    As noted above, as a military officer (and if confirmed) I would 
bring to this job a perspective much sought by Congress. I would also 
note, however, that the IR&TPA states that a commissioned officer, 
during his term as DNI or PDDNI, shall not be subject to supervision or 
control by the Secretary of Defense or by any officer or employee of 
the Department of Defense. This is a carry-over from the National 
Security Act of 1947, and it makes good sense to do so in order to 
ensure the independence of the incumbent.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the Principal Deputy Director of National Intelligence (DNI)?
    Answer. If confirmed, I see three major challenges that immediately 
will confront me as Principal Deputy Director of National Intelligence: 
establishing the organization of the Office of the Director of National 
Intelligence, staffing that organization with the best qualified 
people, and beginning to address significant issues for the DNI and the 
Intelligence Community.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. With respect to establishing the organization of Office of 
the DNI (ODNI), a number of options exist. If confirmed, the DNI and I 
will weigh those options and decide which structure will best meet the 
needs of the DNI and the goals of the IR&TPA.
    Today, the Deputy Director of Central Intelligence for Community 
Management and those acting as the Assistant Director of Central 
Intelligence for Collection, and the Assistant Director of Central 
Intelligence for Analysis and Production perform important Community 
functions, which the DNI may want to continue in some form under the 
DNI structure. For instance, it may be desirable to have one person in 
charge of management issues that cut across the IC. This could include 
developing and determining the budget for the National Intelligence 
Program.
    The law also gives the DNI important responsibilities for tasking 
intelligence collection, which the DNI may want reflected in the ODNI 
structure.
    Similarly, the law obligates the DNI to ensure analytic integrity 
and objectivity obligations that should be considered as the DNI 
designs the ODNI.
    With respect to staffing the ODNI, if confirmed, I would recommend 
to the DNI that the overriding consideration when selecting personnel 
should be doing what is best for the country. The law makes the DNI 
responsible for ensuring that this happens, and I support his 
authority. I would recommend to the DNI that he look for people who 
have the qualities needed to carry the Intelligence Community into the 
21st century.

        <bullet> This would include people who are dedicated to 
        protecting the country. Intelligence work is a high calling and 
        often requires sacrifices by individuals and their families. 
        The IC needs people who are willing to put national needs above 
        personal needs and serve the country by being its first line of 
        defense.
        <bullet> It would also include people who are proven leaders. I 
        have often said that the strength of NSA is its people; NSA 
        goes down the elevators when our people go home at night. 
        Finding the right individuals with the skills to lead the 
        workforces of the various IC elements is critical to 
        successfully facing the challenges confronting the IC and the 
        Nation.
        <bullet> I would also advise the DNI to choose people who are 
        committed to working cooperatively across the IC while 
        fulfilling the mission of their host agency or department. This 
        will take a special kind of talent. Individuals chosen to lead 
        the IC must be keenly focused on the IC mission and work 
        together to further the national interests of the United 
        States.
        <bullet> Ambassador Negroponte values diversity as an important 
        goal in managing large organizations, and I support him in 
        that.

    Question. What do you anticipate will be the most serious problems 
in the performance of the functions of the Principal Deputy Director of 
National Intelligence?
    Answer. I see the most serious problem in the performance of the 
functions of the PDDNI as creating within the IC a culture of 
collaboration. One of my goals as PDDNI will be to build a 
collaborative environment where cooperative analysis becomes the norm, 
resulting in one intelligence discipline being made stronger by 
another, and each prompting useful activity by still a third.
    If confirmed, I would propose to the DNI that every member of the 
IC be given an urgent responsibility to understand his or her role 
within the larger community, and to carry it out as assigned. For 
example, while I would want DIA analysts to have access to NGA-
generated imagery in order to inform their finished reporting, I would 
want, even more, DIA analysts to have access to the NGA expert who is 
responsible for having collected the information in the first place, 
has been collecting such information for 30 years, and can provide 
insights concerning the information that would not occur to a non-
expert.
    We have to stress this kind of culture at every opportunity. It 
needs to be apparent in personnel appointments. It needs to be central 
in all of our professional education and training. It needs to be 
reinforced with a passionate commitment that the DNI leads all of the 
community.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I would take management actions as soon as 
possible to ensure that the Intelligence Community operates like a true 
``information enterprise.'' We need to find ways to enable the IC to 
provide relevant information at the appropriate stage of its 
development and in a form usable to those who have the mission, 
capability, and expertise to act on it. There ought to be no artificial 
barriers set up--or maintained--that deny significant information to an 
entity that requires it. Access to meaningful information in a form 
that is useful and responsive to the needs of the user is a key 
component of the information enterprise, and is absolutely vital to our 
success.
    The IC has made progress in building close partnerships between and 
among intelligence agencies. Some of the collaborative relationships 
are relatively new; others have functioned effectively and efficiently 
for years. If confirmed, I would recommend to the DNI that we must act 
even more assertively and comprehensively; we need to build on our 
success to make cooperative relationships more lasting in their 
duration, more inclusive across the IC in their breadth, and more 
profound in their depth.
    We would, of course, have to be specific with regard to timelines 
and metrics. In the absence of these, some of our efforts in the past 
to promote information availability and access have been received as 
guidelines rather than as determinative policy.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Principal Deputy 
Director of National Intelligence?
    Answer. If confirmed, I would recommend to the DNI several broad 
priorities. One priority, as discussed above, would be to establish the 
organization of the Office of the DNI and to staff it with the right 
people.
    Another recommendation would be to issue clear DNI guidance on a 
variety of issues to the IC. I would recommend that the DNI's guidance 
be clear, short, and authoritative, and not the product of endless 
staffing or a lengthy search for absolute consensus. Consensus is 
rarely bold and it is often wrong.
    Yet another priority would be to monitor the activities of the IC--
in short, to improve our performance. The IR&TPA is quite clear in this 
regard. Among other things, the DNI is to: ensure the effective 
execution of the budget; monitor the implementation of that budget by 
the heads of the elements of the IC; establish objectives, priorities, 
and guidance for the IC to ensure timely and effective collection, 
processing, analysis, and dissemination of national intelligence; and 
ensure compliance with the Constitution and laws of the United States.

                          INFORMATION SHARING

    Question. A consistent finding of almost all studies, 
investigations, and commissions evaluating the performance of the 
Intelligence Community with regard to the terrorist attacks of 
September 11, 2001 and pre-war intelligence regarding Iraqi weapons of 
mass destruction programs have concluded that there are impediments to 
the rapid and efficient sharing of information between elements of the 
Intelligence Community.
    In your view, what are the institutional and cultural impediments 
to the effective sharing of information between elements of the 
Intelligence Community?
    Answer. I see at least five broad categories of impediments to 
information sharing today: (1) technology, (2) law, (3) policy, (4) 
culture, and (5) impediments that grow out of enduring urban myths.
    The technological impediments can be overcome. In short, we have 
wired ourselves north-south, i.e. within each of our disciplines. We 
have far less wiring east-west, i.e. between disciplines. But this can 
be overcome and massive efforts to do so are already underway.
    The legal impediments to information sharing have traditionally 
grown out of a concern for the privacy of U.S. persons. Intelligence 
agencies are responsible for ensuring that information to, from, or 
about U.S. persons is ``minimized'' in accordance with procedures 
approved by the Attorney General. Such procedures protect the 
legitimate privacy interests of U.S. persons against unconstitutional 
actions by the U.S. Government. When information about U.S. persons is 
collected as a result of the interception of the communications of a 
foreign entity, the identity of the U.S. person is not included in an 
intelligence report unless that identity is necessary to understand the 
foreign intelligence or to assess its importance. We are working very 
hard (and much progress has already been made) to maximize the sharing 
of information while continuing to protect privacy rights.
    Policy issues also play a role in impeding the flow of information. 
The quintessential issue in this category is concern about the 
protection of sources and methods. Such concerns are legitimate, and at 
NSA we have experienced the loss of some lucrative sources of 
information when the communications methods we were exploiting became 
publicly known. That said, in my personal experience I have never seen 
``sources and methods'' concerns sufficient to prevent the flow of 
intelligence to those who have a genuine need for it and we need to 
accelerate our training efforts to ensure that this is consistently the 
case. Again, we have made great strides in the past 3 years but this is 
an area that demands constant attention.
    In addition, cultural issues can result in impediments to 
information sharing. Turf wars and the desire to overemphasize the 
``ownership'' of data (i.e., knowledge is power) do indeed play a 
role--sometimes--in the erection of barriers to information sharing. 
These are, in my experience, much less common than the press would have 
us believe, and thankfully have become even more rare since the 2001 
attacks on the United States. Nonetheless, our tolerance for this 
attitude must be zero.
    Finally, I am occasionally struck by the number of so-called 
impediments to information sharing that result not from any conscious 
decision by one or more agencies in the IC, but instead from simple 
misunderstandings. We need to continue to educate IC members of the 
actual limitations so that they fully understand the rules.
    Question. If confirmed, what steps would you recommend to ensure 
that critical intelligence information is fully shared within the 
Intelligence Community? How would you ensure that sensitive sources and 
methods of collection are fully protected?
    Answer. If confirmed, I would recommend to Ambassador Negroponte 
that he make clear to all parts of the IC that he has access to all IC 
data and should set the standard by which that data may be accessed by 
those that need it. Information access is no longer a question for 
individual IC members, it is expected throughout the IC.

                COMMUNICATIONS AND INFORMATION NETWORKS

    Question. The Intelligence Community depends, in large part, on 
communications architectures and information networks established and 
managed by the Department of Defense.
    How would you ensure that the ``C3'' functions, including 
information technology management, multi-level security, 
interoperability, and cybersecurity policy are fully coordinated 
between the Department of Defense and the Director of National 
Intelligence?
    Answer. This is a critical issue for DOD and the Intelligence 
Community to resolve. Intelligence agencies need interoperable 
communications with each other and DOD agencies need to be able to get 
relevant information to combatant commanders. These objectives, though 
different, are not mutually exclusive. I expect to work closely with 
the DOD to ensure that the IC and DOD develop information systems 
architectures and information security policies that promote secure and 
timely information access. In addition, the establishment of the 

INFORMATION SHARING ENVIRONMENT MANDATED BY EXECUTIVE ORDER 13356 AND 

the IR&TPA represents a positive step in promoting assured information 
access across different communities of interest.

                    NATIONAL COUNTERTERRORISM CENTER

    Question. The Terrorist Threat Integration Center (TTIC) was 
established 3 years ago to facilitate the fusion of information about 
terrorist threats from various intelligence and law enforcement 
agencies. In accordance with the recommendations of the 9/11 Commission 
and the Intelligence Reform and Terrorism Prevention Act of 2004, the 
TTIC has evolved into the National Counterterrorism Center (NCTC).
    What role do you envision for the Department of Defense in relation 
to the NCTC, including the provision of military and civilian personnel 
from DOD as members of the NCTC staff?
    Answer. Success in the global war on terrorism demands the 
effective use of all national instruments. As the organization charged 
with strategic operational planning and threat warning, the NCTC will 
only succeed if there is a full partnership with the Department of 
Defense that leverages the depth and expertise of elements of DOD, 
including DOD assignees to the NCTC. DOD brings to the NCTC strength in 
planning, experience in the global war on terrorism battlefield and 
analytic engagement with targets of interest.
    Question. In your view, what has changed within defense 
intelligence agencies, and within the other elements of the 
Intelligence Community since September 11 to enable them to better 
share information amongst themselves, within the larger Intelligence 
Community, and with appropriate law enforcement agencies?
    Answer. The intelligence and operations environment necessary to 
confront a distributed networked threat like terrorism has challenged 
the Intelligence Community to reevaluate notions of what constitutes 
effective collaboration and sharing.
    We have greatly enriched the broad understanding that we have 
significant interdependencies upon one another. This learning, and 
realizing the power of leveraging what we have learned, has done much 
to spur action towards establishing relationships, connectivity and 
effecting policy changes that further enable this capability.
    I believe a bridge we still need to cross is closing what gaps 
remain between the flow of information between our IC and State and 
local officials. We need to set and implement appropriate relationships 
that provide first responders the kind of actionable information we 
have been successful in delivering to the fight overseas.
    Question. In your view, what additional changes, if any, are needed 
to improve the function of the NCTC and its coordination with the 
defense intelligence agencies and the broader Intelligence Community?
    Answer. I believe authorities stemming from the Intelligence Reform 
and Terrorism Prevention Act of 2004 will provide opportunities to 
strengthen the strong foundation Interim Director Brennan has 
established.
    Ongoing work to build NCTC's strategic operational planning role is 
a good example of where NCTC is taking on the task of marrying 
operational planning with threat assessments in a fully collaborative 
environment. This is an area where DOD elements, in particular, have a 
considerable amount of experience and I expect they will play a key 
role in that process.

                            HOMELAND DEFENSE

    Question. In recent years, with the establishment of the positions 
of Under Secretary of Defense for Intelligence and Assistant Secretary 
of Defense for Homeland Defense, the Department of Defense has been 
fundamentally reorganized to better address the critical homeland 
defense mission.
    In your view, what challenges lie ahead in integrating the 
intelligence capabilities of the Department of Defense with those of 
the Department of Homeland Security and other associated Federal, state 
and local agencies?
    Answer. The inclusion of ``homeland security'' within the national 
security framework of the United States is the most significant shift 
in American security thinking in decades. We need to ensure that we 
think through what it means to operate in a homeland security 
environment, one that does not lend itself to the facile distinction 
between ``domestic'' security issues and more traditional 
``international'' security issues. My personal view is that this issue 
represents the immediate intellectual ``heavy lifting'' for the DNI.
    The challenge of creating a consistent threat information stream 
from Federal players to state and local counterparts must be addressed. 
I expect that the Office of the DNI will play a significant role in 
fostering these relationships.
    Question. In your view, does the Department of Defense's existing 
requirements process adequately support the establishment of 
intelligence requirements for homeland security and missions?
    Answer. I am very familiar with the requirement's process used by 
NORTHCOM; it is consistent with other parts of the DOD requirements 
system. Although I have spoken to Secretary Chertoff and his staff 
about DHS intelligence needs, I am not yet as familiar as I need to be 
and look forward to learning more about those needs.

                             TRANSFORMATION

    Question. Secretary Rumsfeld has established transformation of the 
Armed Forces to meet 21st century threats as one of his highest 
priorities.
    What is the role of intelligence in the overall defense 
transformation process?
    Answer. One of the key tenets of Secretary Rumsfeld's 
transformation initiatives is information dominance. The protection of 
our information and its networks and the seamless transfer of 
information throughout our military forces enable us to act upon our 
adversaries before they act upon us.
    Question. Specifically for the defense Intelligence Community, what 
does transformation mean?
    Answer. As a military officer I am fully aware that--in a doctrinal 
sense--we have opted for precision over mass. Said differently, we have 
decided that we can operate smarter and better by creating the effects 
of mass through precision targeting. We will defeat our enemies because 
the impact of destroying a critical target in a discrete, or focused, 
way maximizes our effectiveness and maximizes the disruptive effects on 
the enemy.
    But precision weapons are never more precise than the intelligence 
that enables them. We need intelligence worthy of the precise weaponry 
that we have and are creating.
    This shouldn't be surprising. The way a nation makes war is as 
indicative of its culture as the way it writes poetry or creates music. 
We are an information-based society. America's military is an 
information based combat force; hence, the absolute criticality of 
precise, timely and relevant intelligence for our battlefield forces.
    Question. In your view, what transformational capabilities does our 
Intelligence Community require?
    Answer. Transformation in the Intelligence Community requires both 
a technological and a cultural change.
    Culturally, we need to combine like efforts while at the same time 
encouraging analytical differences. To do this, the DNI will need to 
gain visibility into all intelligence related activities but also know 
what management approach to emphasize for each of the IC's individual 
parts: a firmer hand to gain economies of scale when it comes to 
collection but perhaps a lighter hand when it comes to nurturing a 
variety of analytical approaches.
    Technology must be harnessed to deal with what will become even 
more acute information overload in the future. We need to present 
information in the ``language'' of the receiver and in such a way as to 
facilitate decisionmaking.
    Question. If confirmed, how would you ensure that defense 
transformation and the larger Intelligence Community transformation are 
mutually supportive and complementary?
    Answer. Many efforts are already underway within the Intelligence 
Community to transform and improve processes. Step one will be to use 
the enhanced authorities of the DNI to get our arms around all 
disparate efforts. We need to combine like efforts and eliminate 
duplication where appropriate. We need to identify best practices and 
eliminate the inefficient. Most of all, we need to set a direction with 
clear, unambiguous guidance and use the tools that the law gives us to 
ensure our efforts are synchronized.

                          DEFENSE INTELLIGENCE

    Question. The defense intelligence structure has evolved over the 
years, most recently with the creation of the Defense Human 
Intelligence Service in 1996, the establishment of the National Imagery 
and Mapping Agency (NIMA), now the National Geospatial Intelligence 
Agency, in 1997, and the establishment of the Under Secretary of 
Defense for Intelligence in 2002.
    In your view, is the current organizational structure of defense 
intelligence the best structure to support military and national 
intelligence needs?
    Answer. The organizational structure of defense intelligence is 
complex. The USD(I) already has several efforts underway to improve the 
efficiency and the effectiveness of defense intelligence. The creation 
of Joint Intelligence Operations Centers (JIOCs), for example, is a 
clear recognition that intelligence--by its nature--is inherently 
operational. The creation of intelligence campaign plans is another 
effort that will rationalize and clearly articulate DOD intelligence 
needs. Similarly, the increased authorities of Commander STRATCOM in 
global ISR promise to bring greater order and flexibility into this 
important area.
    I would therefore be very reluctant to conclude that any current 
structure is the ``best.'' It will be important, though, to harmonize 
changes planned or underway in DOD's tactical activities with the 
changes the DNI may make at the national level.
    Question. If not, what changes would you recommend to the current 
structure?
    Answer. Although I have no specific recommendations to make, I 
would stress that this structure is clearly something that should not 
be static, but should evolve over time in response to changing 
circumstances and needs. All of our activities are simply elements of 
larger strategies and policies. As the operational environment evolves, 
we need to ensure that our institutional arrangements emerge 
accordingly.
    Question. In your view, what role should the Under Secretary of 
Defense for Intelligence play in order to best serve the needs of the 
Department of Defense, as well as the Director of National 
Intelligence?
    Answer. My personal sense is that to the degree that Defense can 
package up the tactical intelligence activities of the military 
departments and present them in a unified, integrated, coherent way to 
the DNI, that would be a real virtue and something that would be very 
welcome. Under the best of circumstances, the USD(I) should be a key 
agent of the SECDEF and a key ally of the DNI.

                         ACQUISITION AUTHORITY

    Question. The Intelligence Reform and Terrorism Prevention Act of 
2004 establishes significant acquisition authority for the Director of 
National Intelligence, and provides that the Director of National 
Intelligence shall exercise exclusive milestone decision authority over 
Intelligence Community acquisition programs; except that with respect 
to Department of Defense intelligence programs, the Secretary of 
Defense and Director of National Intelligence will jointly exercise 
this authority.
    What challenges, if any, do you see associated with the exercise of 
joint milestone decision authority by the Secretary of Defense and the 
Director of National Intelligence?
    Answer. If confirmed, we will need to work out procedures that will 
allow us to exercise this joint authority in a way that does not create 
undue burdens in paperwork or time.
    Question. What organizational structures will the Director of 
National Intelligence need to establish to ensure comprehensive and 
professional oversight of complex acquisition programs?
    Answer. If confirmed, I will recommend to the DNI that he create a 
robust acquisition office to carry out the responsibilities identified 
in the law. Once the above referenced joint MDA process is defined, the 
DNI will need a staff to ensure proper practices and oversight.
    Question. In your view, should milestone decision authority within 
the Intelligence Community be centralized within the Office of the 
Director of National Intelligence, or delegated to the heads of the 
respective elements of the Intelligence Community?
    Answer. Under the IR&TPA, milestone decision authority rests 
exclusively with the DNI, except with respect to DOD programs. An 
analysis of specific practices, and the possible need or desirability 
to delegate any such authorities, will have to be reviewed after the 
DNI has been confirmed.

    TACTICAL INTELLIGENCE AND RELATED ACTIVITIES AND JOINT MILITARY 
                         INTELLIGENCE PROGRAMS

    Question. The Department of Defense currently funds important 
military intelligence programs through the Tactical Intelligence and 
Related Activities (TIARA) and Joint Military Intelligence Program 
(JMIP) accounts. The Director of National Intelligence will have 
significant budget authority in the formulation of National 
Intelligence Program budget recommendations made by elements of the 
Intelligence Community, as recommended by the 9/11 Commission. The 9/11 
Commission also recommended that the Secretary of Defense retain 
principal authority for the formulation of TIARA and JMIP programs. The 
Intelligence Reform and Terrorism Prevention Act of 2004 provides for 
the Director of National Intelligence to participate in the formulation 
of TIARA and JMIP budget submissions.
    In your view, what role should the Director of National 
Intelligence play in the development of military intelligence budget 
recommendations submitted by the military Services and the Department 
of Defense?
    Answer. If confirmed, I will recommend to the DNI that his office 
play a robust and constructive role in the formulation of the JMIP and 
TIARA programs budgets.
    This will be very important. Much of the discussion in the press 
and elsewhere over the past year has implied that there exists a clear 
distinction between ``tactical'' and ``national'' intelligence. This is 
at best wrong headed and it is potentially dangerous. One can still 
suggest that some users are more ``national'' users of intelligence, 
while others can still be described as ``tactical'' but the 
intelligence itself is likely to be part of a seamless whole, riding on 
a common network and applied simultaneously by various users pursuing a 
range of objectives.
    Question. If confirmed, what steps would you take to ensure that 
the various components of the intelligence budget meet the needs of 
battlefield commanders, as well as the needs of the President and other 
national decision makers?
    Answer. Support to the warfighter is a principal objective of the 
Intelligence Community. If confirmed, I will recommend to the DNI that 
we regularly consult with DOD and combatant commanders to identify both 
their current and future requirements. These needs will then be 
communicated through budgetary guidance to the intelligence components 
for preparation and development of the annual NIP budget submission.

                           HUMAN INTELLIGENCE

    Question. The Secretary of Defense has indicated that he would like 
to have enhanced human intelligence capabilities within the Department 
of Defense.
    Do you support the goals of the Secretary of Defense in enhancing 
the human intelligence capabilities of the Department of Defense?
    Answer. Yes.
    Question. What aspects, if any, of enhancing Defense human 
intelligence that would cause you concern as the Principal Deputy 
Director of National Intelligence?
    Answer. This is largely an issue of coordination and deconfliction. 
HUMINT collection efforts between DOD and CIA must be coordinated and 
deconflicted for efficiency and to prevent unintended consequences. We 
do not want, for example, the HUMINT operations of one organization to 
interrupt or reveal the HUMINT operations of another. We must also 
ensure that all HUMINT operations are conducted in a manner consistent 
with US law and policy.
    Question. What steps do you believe need to be taken to ensure that 
the goals and overall mission of defense human intelligence are 
consistent with the overall human intelligence goals of the 
Intelligence Community?
    Answer. One of the statutory responsibilities of the DNI is to 
ensure effective use of intelligence resources. If confirmed, I would 
recommend to the DNI that he issue consistent guidance across the IC 
about maximizing the use of HUMINT resources.
    Question. In your view, what changes or additional capabilities, if 
any, are needed in the Department's human intelligence organization?
    Answer. As a SIGINTer and head of NSA, I am not fully prepared to 
address detailed changes needed by DOD's HUMINT organizations at this 
time. As a general matter, however, I would stress the need for 
language skills and area expertise as essential building blocks for any 
HUMINT activities.
    Question. At various times, some have suggested that the human 
intelligence efforts of the Department of Defense and the Central 
Intelligence Agency should be consolidated.
    Do you believe the Defense Human Intelligence capabilities should 
be consolidated or integrated into the Central Intelligence Agency?
    Answer. I understand that this is an issue discussed in the WMD 
Report and I look forward to considering it in more detail, if 
confirmed.

               MILITARY PERSONNEL TRAINING AND ASSIGNMENT

    Question. The Intelligence Reform Act and Terrorism Prevention Act 
of 2004 gives the Director of National Intelligence significant 
authority over the assignment, extensions and transfers, and the 
proposed training of uniformed personnel serving within the 
Intelligence Community.
    In your view, what procedures should be established to ensure that 
military personnel assigned to the Intelligence Community are managed 
so as to ensure that they develop the intelligence skills required to 
support both military and national intelligence requirements?
    Answer. If confirmed, I intend to use my experience at NSA to help 
inform the judgment of the ODNI on this issue. Specifically, NSA is 
well practiced in working with a military workforce that is more 
junior, less experienced and more transient than its civilian 
counterpart in the Agency. I viewed this as a condition to be managed, 
rather than a problem to be solved. Accepting that the demands of 
uniformed service made the above conditions almost inevitable, we 
worked on the positive aspects that our military workforce brought to 
the enterprise--youth, energy, new ideas, deployability, recent 
education--rather than these more negative attributes.
    I would also suggest that the greatest return on HR policy 
investment for the DNI would be with the Community's civilian workforce 
that does not yet enjoy the advantages of tech schools, leadership 
training, professional military education, mentoring and a rigorous 
promotion system that are already routine for our military personnel.
    I would also add that many of these military programs should serve 
as models for how we develop our civilian workforce within the IC.
    Question. If confirmed, what steps will you take to ensure that 
assignment, transfer, and extension policies for military personnel 
detailed to the Intelligence Community are consistent with the 
assignment and professional development policies of the parent military 
service?
    Answer. It is to the mutual advantage of DOD and the DNI to 
routinely review how the military services recruit, train, and develop 
intelligence professionals. It would be inefficient and counter-
productive for all concerned if time and efforts were spent giving a 
service member the skills to prosecute an intelligence target, only to 
have that person transferred to a new assignment before any of us could 
reap the value of that development. I believe it especially important 
that we examine ways that service members can be promoted or otherwise 
recognized for their excellence as intelligence professionals.

                   EVALUATION OF INTELLIGENCE SUPPORT

    Question. In your capacity as Director of the National Security 
Agency and as Deputy Commander of U.S. Forces Korea, you gained 
insights into the process by which the Intelligence Community provides 
intelligence support to the combatant commanders and other elements of 
the Department of Defense.
    Based on this experience, how would you rate the job the 
Intelligence Community is doing in supporting the combatant commanders 
and other elements of the Department of Defense and what improvements, 
if any, would you recommend?
    Answer. Let me address this from what I am very familiar with, 
SIGINT. SIGINT has gotten overwhelmingly positive reviews in 
prosecuting the counterterrorism mission over the last 3 years. As the 
target evolves, we have constantly evaluated and adjusted our efforts 
to ensure continued success in protecting the homeland and defeating 
our adversaries. We have created a more expeditionary force, moving 
forward into the warfighters' environment to operationalize 
intelligence to the maximum degree.
    Question. If confirmed as Principal Deputy Director of National 
Intelligence, what steps would you take to ensure that support to the 
warfighter is a priority of the overall Intelligence Community and the 
Director of National Intelligence?
    Answer. I am unable to imagine circumstances in which support to 
American combat forces would not enjoy the same priority it does today. 
That said, if the need were ever to arise, I would rely on my 
experience at NSA to reinforce the priority that American forces should 
enjoy. In short, we are critical to the fight and every bit as much a 
part of the operational team as air, armor, or infantry.

REQUIREMENT FOR SENIOR MILITARY OFFICERS ON THE STAFFS OF THE DIRECTOR 
 OF NATIONAL INTELLIGENCE AND THE DIRECTOR OF THE CENTRAL INTELLIGENCE 
                                 AGENCY

    Question. A position currently exists within the Director of 
Central Intelligence (DCI) staff for an Associate Director for Military 
Support, specifically to coordinate Intelligence Community support to 
the military and military support to the DCI.
    Do you believe that a similar position should be established within 
the staff of the Director of National Intelligence?
    Answer. While there have been no decisions regarding the structure 
of the ODNI, it is clear to me that that the needs of the Department of 
Defense and of American military forces are a priority and that the DNI 
will have to craft an organizational structure to support those needs.
    Question. In your view, is there a continuing requirement for a 
senior military officer on the staff of the Director of the Central 
Intelligence Agency?
    Answer. I would, of course, defer to the DCIA and Secretary of 
Defense on this issue. My personal experience, however, indicates that 
the Associate Director of Central Intelligence for Military Support was 
a very valued member of the CIA team and an important spokesman for the 
needs of the Department of Defense.

                            LESSONS LEARNED

    Question. You have served in a variety of both operational and 
intelligence positions within the Air Force and within the Department 
of Defense during your military career.
    What are the most important lessons you have learned regarding 
tactical, operational, and strategic intelligence during your tenure in 
senior leadership positions within the Department of Defense and within 
the Intelligence Community?
    Answer. One of the most important lessons I have learned through 
observation over the course of my career is the rapid pace at which the 
distinctions between national and tactical intelligence have 
disappeared. In fact, in my 6 years as Director, National Security 
Agency, I have never had to choose between a ``national'' and a 
``tactical'' effort. In today's environment, those two terms have 
eroded to non-recognition. I have had to make many choices based on 
resources, but never were the challenges tactical versus national.
    With the passage of the Goldwater-Nichols Act, NSA was designated a 
Combat Support Agency for those activities it provides in support of 
operational commanders. We take this role very, very seriously and 
provide actionable, near-real-time intelligence and information system 
risk management support to operational commanders.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree to give your personal views, when asked 
before this committee to do so, even if those views differ from the 
administration in power?
    Answer. If confirmed, I will be as forthcoming as possible in 
giving this committee my views, consistent with my responsibilities 
under the Constitution and laws as an executive branch official.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy Director 
of National Intelligence?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this committee and its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

  NATIONAL INTELLIGENCE DIRECTORATE AND DOD INTELLIGENCE IMPROVEMENTS

    1. Senator Inhofe. General Hayden, recently our country and 
Congress have had a debate on intelligence reform and it resulted in 
the consolidation of our intelligence resources under the Director of 
National Intelligence (DNI). As you addressed in your opening 
statement, the Defense Department is the single largest user of 
intelligence in the U.S. Government. An issue of concern when Congress 
created this new organizational structure was how the Defense 
Intelligence Agency (DIA) would operate in this new body--what would be 
its ability to continue to collect and disperse specific and applicable 
information in a time-sensitive environment. You have said in your 
statement that this new framework will give us the opportunity to 
improve overall intelligence for DOD. Given this previous concern and 
your background in the military and the National Security Agency, would 
you please elaborate on how you foresee the realization of this 
opportunity for the DOD?
    General Hayden. The establishment of the position of the Director 
of National Intelligence offers an opportunity to improve the quality 
of intelligence the Department of Defense receives today and will 
receive tomorrow. By separating the authority for managing the 
Intelligence Community from the head of the Central Intelligence 
Agency, Congress, and the President have created the conditions under 
which the head of the Intelligence Community will be able to focus more 
attention across the entire community. This will help ensure that 
resources can be better marshaled and tracked to sharpen the focus of 
intelligence collection and analysis. Production improvements at the 
agency level can be further leveraged through DNI efforts to create and 
formalize a culture of collaboration across the Intelligence Community, 
for example through establishment of a deputy DNI position for Customer 
Outcomes with an associate deputy responsible to focus on military 
support. The objective is to produce more and better information and 
share it more widely. To the degree we succeed this approach will 
benefit DOD and indeed all intelligence consumers.

                           HUMAN INTELLIGENCE

    2. Senator Inhofe. General Hayden, one of the areas in which we may 
find ourselves lacking and has been point of concern is our 
government's ability to gather human intelligence. Understanding that 
the best way to understand what is going on in the world is to analyze 
information from multiple sources, it seems that with our utilizing 
information from other governments and international non-governmental 
sources, as well as from our own technological sources, we may not be 
getting enough information from our own human intelligence sources. Is 
this of concern to you and is this an area the Director of National 
Intelligence will be exploring to ensure we have the best information 
to make critical national security decisions?
    General Hayden. Human intelligence can make a critical difference 
to the policy and military decisions of the United States Government. 
Much good work has been done at CIA in the recent past to beef up its 
human collection capabilities, and it is clear this work needs to 
continue so that our country will have the ability to obtain the best 
human intelligence possible. Other organizations, and in particular 
DOD, have roles to play in this area as well. As recognized in the 
IRPTA, one of the DNI's key responsibilities will be to ensure 
effective coordination and synchronization of all HUMINT activities 
within a collaborative intelligence environment. Enforcing the role of 
a HUMINT manager and ensuring deconfliction of CIA and DOD operations 
are two steps towards achieving this goal.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                   NATIONAL AND TACTICAL INTELLIGENCE

    3. Senator Chambliss. General Hayden, let me quote something from 
an article I wrote for the current edition of Parameters, which is the 
Army War College Quarterly: ``Real intelligence reform must look beyond 
the definitions of `national' and `tactical.' It must address the 
intelligence needs of the President in the White House, but it must 
also address the needs of the U.S. Army private in Baghdad or the U.S. 
Marine lance corporal in Fallujah. We cannot send American military 
forces into battle without the full spectrum of support from the entire 
Intelligence Community.'' What are your views on the definition of 
``national'' versus ``tactical'' intelligence?
    General Hayden. I would agree with your quoted statement, and 
reiterate my testimony to you in April that in my view the idea of a 
separation of national and tactical intelligence is wrong-headed and 
potentially dangerous. In a collaborative intelligence environment the 
availability of timely and relevant intelligence, from White House to 
foxhole, would be based upon the intelligence need, not the 
characterization of the intelligence source. The new intelligence 
structure will provide the DNI the opportunity to look across all 
intelligence operations to ensure that the information that is needed 
to serve all the intelligence needs of our country--tactical as well as 
national--is collected and shared.

    4. Senator Chambliss. General Hayden, do these terms even have 
meaning in today's threat environment?
    General Hayden. From an operational perspective, no. The 
distinction between them lives on at the programmatic level.

    5. Senator Chambliss. General Hayden, if the distinction between 
``national'' and ``tactical'' intelligence is eroding, should we 
address having a closer relationship between our tactical capabilities 
and the DNI?
    General Hayden. I believe a closer relationship would be 
advantageous, and the Intelligence Reform and Terrorism Prevention Act 
provides several tools in this area. The Act makes specific provision 
for the Director of National Intelligence to participate in the 
development by the Secretary of Defense of the annual budgets for the 
Joint Military Intelligence Program and for Tactical Intelligence and 
Related Activities. It also provides for the Director of National 
Intelligence to provide advisory tasking to intelligence elements of 
those agencies and departments not within the National Intelligence 
Program. More broadly, the act states that the Director of National 
Intelligence shall have principal authority to ensure maximum 
availability of and access to intelligence information within the 
Intelligence Community consistent with national security requirements. 
This provision makes no programmatic distinctions regarding either the 
information to be made available or the organizations that are to 
provide and receive it. Summarizing, with regard to our tactical 
capabilities the DNI helps shape their budgets, helps focus their 
collection and analysis, and exercises principal authority for 
integrating them into a collaborative intelligence environment.

                          INTELLIGENCE COMMAND

    6. Senator Chambliss. General Hayden, in your prepared remarks you 
said, ``My personal sense is that to the degree that Defense can 
package up the tactical intelligence activities of the military 
departments and present them in a unified, integrated, coherent way to 
the DNI, that would be a real virtue and something that would be very 
welcome.'' Senator Ben Nelson and I couldn't agree more, which is why 
we introduced our Intelligence Command (INTCOM) bill. In your view, 
could a unified command for intelligence accomplish what you are 
looking for relative to the unification and integration of our tactical 
intelligence activities in the military departments and DIA?
    General Hayden. My personal view is that a unified command for 
intelligence is not necessary in order to improve the unification and 
integration of U.S. tactical intelligence activities. What I meant in 
my prepared remarks was that unifying and integrating the tactical 
intelligence activities of the Services, such as the tactical signals 
intelligence elements of each Service, into some coherent structure for 
reporting up to the Director of National Intelligence on issues of 
common concern would better help the DNI understand their issues. This 
could be accomplished through internal DOD restructuring, perhaps 
involving oversight by the Under Secretary of Defense for Intelligence, 
without the need for a unified command.
                                 ______
                                 
    [The nomination reference of Lt. Gen. Michael V. Hayden, 
USAF, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 14, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade of indicated while assigned to a position of 
importance and responsibility under title 10, United States Code, 
section 601:

                             To be General

    Lt. Gen. Michael V. Hayden
                                 ______
                                 
    [The biographical sketch of Lt. Gen. Michael V. Hayden, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

        Biographical Sketch of Lt. Gen. Michael V. Hayden, USAF

    Lt. Gen. Michael V. Hayden is Director, National Security Agency, 
and Chief, Central Security Service, Fort George G. Meade, MD. The NSA/
CSS is a combat support agency of the Department of Defense with 
military and civilian personnel stationed worldwide. He is the 
department's senior uniformed intelligence officer.
    General Hayden entered Active Duty in 1969 after earning a 
bachelor's degree in history in 1967 and a master's degree in modern 
American history in 1969, both from Duquesne University. He is a 
distinguished graduate of the university's ROTC program. General Hayden 
has served as Commander of the Air Intelligence Agency and as Director 
of the Joint Command and Control Warfare Center. He also has served in 
senior staff positions at the Pentagon, Headquarters U.S. European 
Command in Stuttgart, Germany, National Security Council in Washington, 
DC, and the U.S. Embassy in the People's Republic of Bulgaria. Prior to 
his current assignment, General Hayden served as Deputy Chief of Staff 
for United Nations Command and U.S. Forces Korea at Yongsan Army 
Garrison, South Korea.

Education:
    1967 Bachelor of Arts degree in history, Duquesne University, 
Pittsburgh, Pennsylvania.
    1969 Master's degree in modern American history, Duquesne 
University.
    1975 Academic Instructor School, Maxwell Air Force Base, Alabama.
    1976 Squadron Officer School, Maxwell AFB, Alabama.
    1978 Air Command and Staff College, Maxwell AFB, Alabama.
    1980 Defense Intelligence School, Defense Intelligence Agency, 
Bolling AFB, DC.
    1983 Armed Forces Staff College, Norfolk, Virginia.
    1983 Air War College, Maxwell AFB, Alabama.


------------------------------------------------------------------------
              From                        To              Assignments
------------------------------------------------------------------------
January 1970....................  January 1972......  Analyst and
                                                       briefer,
                                                       Headquarters
                                                       Strategic Air
                                                       Command, Offutt
                                                       AFB, Nebraska.
January 1972....................  May 1975..........  Chief, Current
                                                       Intelligence
                                                       Division,
                                                       Headquarters 8th
                                                       Air Force,
                                                       Andersen AFB,
                                                       Guam.
May 1975........................  July 1975.........  Student, Academic
                                                       Instructor
                                                       School, Maxwell
                                                       AFB, Alabama.
July 1975.......................  August 1979.......  Academic
                                                       instructor and
                                                       commandant of
                                                       cadets, ROTC
                                                       program, St.
                                                       Michael's
                                                       College,
                                                       Winooski,
                                                       Vermont.
August 1979.....................  June 1980.........  Student, Defense
                                                       Intelligence
                                                       School
                                                       (postgraduate
                                                       intelligence
                                                       curriculum),
                                                       Defense
                                                       Intelligence
                                                       Agency, Bolling
                                                       AFB, DC.
June 1980.......................  July 1982.........  Chief of
                                                       Intelligence, 51
                                                       st Tactical
                                                       Fighter Wing,
                                                       Osan Air Base,
                                                       South Korea
July 1982.......................  January 1983......  Student, Armed
                                                       Forces Staff
                                                       College, Norfolk,
                                                       Virginia.
January 1983....................  July 1984.........  Student, air
                                                       attache training,
                                                       Washington, DC.
July 1984.......................  July 1986.........  Air attache, U.S.
                                                       Embassy, Sofia,
                                                       People's Republic
                                                       of Bulgaria.
July 1986.......................  September 1989....  Politico-military
                                                       affairs officer,
                                                       Strategy
                                                       Division,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
September 1989..................  July 1991.........  Director for
                                                       Defense Policy
                                                       and Arms Control,
                                                       National Security
                                                       Council,
                                                       Washington, DC.
July 1991.......................  May 1993..........  Chief, Secretary
                                                       of the Air Force
                                                       Staff Group,
                                                       Office of the
                                                       Secretary of the
                                                       Air Force,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
May 1993........................  October 1995......  Director,
                                                       Intelligence
                                                       Directorate,
                                                       Headquarters U.S.
                                                       European Command,
                                                       Stuttgart,
                                                       Germany.
October 1995....................  December 1995.....  Special assistant
                                                       to the Commander,
                                                       Headquarters Air
                                                       Intelligence
                                                       Agency, KellY
                                                       AFB, Texas.
January 1996....................  September 1997....  Commander, Air
                                                       Intelligence
                                                       Agency, and
                                                       Director, Joint
                                                       Command and
                                                       Control Warfare
                                                       Center, Kelly
                                                       AFB, Texas.
September 1997..................  March 1999........  Deputy Chief of
                                                       Staff, United
                                                       Nations Command
                                                       and U.S. Forces
                                                       Korea, Yongsan
                                                       Army Garrison,
                                                       South Korea.
March 1999......................  Present...........  Director, National
                                                       Security Agency,
                                                       and Chief,
                                                       Central Security
                                                       Service, Fort
                                                       George G. Meade,
                                                       Maryland.
------------------------------------------------------------------------


Major Awards and Decorations:
    Defense Distinguished Service Medal.
    Defense Superior Service Medal with oak leaf cluster.
    Legion of Merit.
    Bronze Star Medal.
    Meritorious Service Medal with two oak leaf clusters.
    Air Force Commendation Medal.
    Air Force Achievement Medal.


------------------------------------------------------------------------
                      Promotion                          Effective Date
------------------------------------------------------------------------
Second Lieutenant....................................       June 2, 1967
First Lieutenant.....................................       June 7, 1970
Captain..............................................       Dec. 7, 1971
Major................................................       June 1, 1980
Lieutenant Colonel...................................       Feb. 1, 1985
Colonel..............................................       Nov. 1, 1990
Brigadier General....................................      Sept. 1, 1993
Major General........................................       Oct. 1, 1996
Lieutenant General...................................        May 1, 1999
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. 
Michael V. Hayden, USAF, in connection with his nomination 
follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael Vincent Hayden, Allan Michael Myers (Amended April 15, 
2005).

    2. Position to which nominated:
    Principal Deputy Director of National Intelligence, Washington, DC.

    3. Date of nomination:
    April 14, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 17, 1945; Pittsburgh, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Jeanine Carrier Hayden (Nee Jeanine Alice Carrier).

    7. Names and ages of children:
    Margaret Graf, 36; Michael Hayden, Jr., 35; Liam Hayden, 30.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.

------------------------------------------------------------------------
          Organization                Office Held            Dates
------------------------------------------------------------------------
Council on Foreign Relations....  Member.............   2003 to present.
American Association of Retired   Member.............   2003 to present.
 People.
Council on Foreign Relations....  Member.............   2003 to present.
------------------------------------------------------------------------


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Michael V. Hayden.
    This 22th day of March 2005.

    [The nomination of Lt. Gen. Michael V. Hayden, USAF, was 
reported to the Senate by Chairman Warner on April 21, 2005, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on April 21, 2005.]


NOMINATIONS OF GEN. PETER PACE, USMC, FOR REAPPOINTMENT TO THE GRADE OF 
   GENERAL AND TO BE CHAIRMAN, JOINT CHIEFS OF STAFF; ADM EDMUND P. 
 GIAMBASTIANI, JR., USN, FOR REAPPOINTMENT TO THE GRADE OF ADMIRAL AND 
 TO BE VICE CHAIRMAN, JOINT CHIEFS OF STAFF; GEN. T. MICHAEL MOSELEY, 
  USAF, FOR REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE CHIEF OF 
    STAFF OF THE AIR FORCE; AMBASSADOR ERIC S. EDELMAN TO BE UNDER 
  SECRETARY OF DEFENSE FOR POLICY; DANIEL R. STANLEY TO BE ASSISTANT 
 SECRETARY OF DEFENSE FOR LEGISLATIVE AFFAIRS; AND JAMES A. RISPOLI TO 
     BE ASSISTANT SECRETARY OF ENERGY FOR ENVIRONMENTAL MANAGEMENT

                              ----------                              


                        WEDNESDAY, JUNE 29, 2005

                                        U.S. Senate
                                Committee on Armed Services
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Sessions, Talent, Chambliss, Graham, Cornyn, Thune, 
Levin, Dayton, and Clinton.
    Other Senators present: Senator Allen and former Senator 
Bob Dole.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Ambrose R. Hock, 
professional staff member; Gregory T. Kiley, professional staff 
member; Sandra E. Luff, professional staff member; Thomas L. 
MacKenzie, professional staff member; David M. Morriss, 
counsel; Stanley R. O'Connor, Jr., professional staff member; 
Lynn F. Rusten, professional staff member; Scott W. Stucky, 
general counsel; Kristine L. Svinicki, professional staff 
member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Madelyn R. Creedon, minority counsel; Gabriella 
Eisen, research assistant; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Gerald J. Leeling, 
minority counsel; and Peter K. Levine, minority counsel.
    Staff assistants present: Andrew W. Florell and Catherine 
E. Sendak.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; Chris Arnold, assistant to Senator 
Roberts; Meredith Moseley, assistant to Senator Graham; Russell 
J. Thomasson, assistant to Senator Cornyn; Bob Taylor, 
assistant to Senator Thune; David S. Lyles, assistant to 
Senator Levin; William K. Sutey, assistant to Senator Bill 
Nelson; Mark Phillip Jones and Kimberly Jackson, assistants to 
Senator Dayton; and Andrew Shapiro, assistant to Senator 
Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning all. The Armed Services 
Committee is very pleased, and indeed honored, to have before 
us such a distinguished panel of nominees from our President.
    This morning we have two very distinguished panels of 
nominees who will come before us.
    For our first panel, we have three military nominees. 
General Peter Pace, U.S. Marine Corps, has been nominated to be 
the next Chairman of the Joint Chiefs of Staff, Admiral Edmund 
P. Giambastiani, Jr., has been nominated to be the Vice 
Chairman of the Joint Chiefs of Staff, and General T. Michael 
Moseley is the nominee to be the next Chief of Staff of the 
U.S. Air Force.
    We also have joining us Ambassador Edelman. Senator Allen, 
we'll recognize you momentarily for the introduction. I 
understand that Senator Nelson, of Florida, will introduce 
General Pace, Senator Clinton will introduce Admiral 
Giambastiani, and Senator Cornyn will introduce General 
Moseley. We'll proceed with those introductions momentarily.
    We will have a second panel, again, with Ambassador 
Edelman, to be Under Secretary of Defense for Policy; Dan 
Stanley, to be Assistant Secretary of Defense for Legislative 
Affairs; and James Rispoli, to be the Assistant Secretary of 
Energy for Environmental Management.
    I would now like to ask Senator Levin to say a few words 
before the introductions. Then we have a special need to hear 
from our distinguished colleague from Oklahoma, who is chairman 
of the Committee on Environment and Public Works, and has a 
conference on the Highway Bill.
    Senator Levin.
    Senator Levin. Mr. Chairman, I'm going to withhold my 
statement until later so that our introducers, including 
Senator Nelson, who have scheduling conflicts can proceed. If 
it's all right with the chair, I would give my opening 
statement a little bit later, after those introductions are 
made.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me thank you for giving me just a moment 
here. I do chair the Highway Bill Conference, and we're in the 
middle of doing that right now, and there's a lot of interest 
in this room, as well as in that room, on that. So, I won't be 
able to stay here.
    However, I've been honored to be able to talk to five of 
the six nominees that are before us today. I fully support all 
six of them. General Pace has always been one of my heroes, and 
I'm hoping that, in some of the advance questions that I sent 
in, that you'd be in a position to elaborate on the quality of 
the training of the Iraqi security forces. That is often 
demeaned. It's been my experience, being over there, that 
they're doing a great job. The spirit is there, the capability 
is there, and I can see them growing in ability, as well as in 
numbers.
    So I just wanted to say, Mr. Chairman, I do support all of 
these nominees, and I am anxious to hear what they have to say 
vicariously through staff.
    Thank you.
    Chairman Warner. Thank you very much, Senator.
    Now, Senator Nelson, if you can grab a chair, at some 
point? Most appropriate--standing tall, as always. Just grab a 
seat there, Senator. That is fine. Please go right ahead.
    Senator Bill Nelson. Mr. Chairman, thank you very much.
    It's my privilege to formally introduce to our committee 
General Pace, who is going to assume the very august 
responsibility as Chairman of the Joint Chiefs.
    I think it's noteworthy that it's almost a family affair. 
General Pace was introduced to his wife, Lynne, by Admiral 
Mullen, the Chief of Naval Operations (CNO). As a matter of 
fact, General Pace had his engagement party with General Jones. 
So, this family has come up together. General Pace has his own 
immediate family here--his son, his daughter, and his wife, 
Lynn.
    I got to know General Pace when he was our commander, in 
Miami, of the United States Southern Command. Of course, that 
is a unique command in which you not only need a military 
warrior as commander, but you need a diplomat. He did such an 
excellent job that he was asked to be the Vice Chairman, a role 
he has performed the last several years. It's very fitting 
that, at the time in which this country is going to have 
challenges that are extraordinary, and at a time in which we 
have to be successful in our efforts in Iraq, because the 
alternatives are rather consequential if we were not 
successful, that this responsibility is falling to a leader who 
has been prepared all of his life, and that is General Pete 
Pace.
    So, it's my pleasure to introduce him to our committee, Mr. 
Chairman.
    Chairman Warner. We thank you, Senator. You clearly spoke 
from the heart.
    Senator Bill Nelson. Thank you, sir.
    Chairman Warner. Now, Senator Allen, I understand you have 
a time constraint, and if you'd like to introduce our 
distinguished nominee?

STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR FROM THE STATE OF 
                            VIRGINIA

    Senator Allen. Thank you, Mr. Chairman and ranking member, 
Senator Levin, and other members of the Armed Services 
Committee.
    It is my pleasure to present to you a gentleman that some 
of you all have voted on over the years, and that is the 
respected gentleman who resides in Stafford County. I'll not go 
through all of his wedding matters. If you want to put that 
part in, that's good to hear. I will note that he does have a 
son who is at Mary Washington University, but the President has 
nominated Ambassador Eric Edelman to be Under Secretary of 
Defense for Policy. I think that many of the members of this 
committee have voted for him at least once--and some, twice.
    He has 25 years of distinguished service as a Foreign 
Service officer in a variety of roles. He has provided, indeed, 
Mr. Chairman and members of the committee, bipartisan service 
to the United States under several presidents. He has been 
confirmed twice by the United States Senate. Most recently, in 
2003, President George W. Bush nominated, and the Senate 
confirmed, Ambassador Edelman to be Ambassador to Turkey, where 
he served with distinction until last week. In 1998, President 
Clinton nominated, and the Senate confirmed, Ambassador Edelman 
to be the Ambassador to Finland, where he served from 1998 
until 2001. He's also served in numerous other diplomatic 
posts, from Prague to Moscow and elsewhere. He has had 
assignments, including several key executive positions in 
various agencies and administrations. He has served as Vice 
President Cheney's Principal Deputy Assistant for National 
Security Affairs, and was actually with the Vice President when 
Washington was attacked on September 11, 2001.
    Ambassador Edelman also served as Deputy Secretary of State 
Strobe Talbott's executive assistant, and Secretary of Defense 
Cheney's Assistant Deputy Under Secretary of Defense for Soviet 
and East European Affairs. He was also Special Assistant to, I 
think, one of the most highly regarded, wise, and respected 
Secretaries of State, George Schultz.
    He graduated from Cornell. He has his Ph.D from Yale. He 
received the State Department's Superior Honor Award, amongst 
many of his honors, which are part of the record.
    If he is again, Mr. Chairman, confirmed by the Senate, I 
believe that Ambassador Edelman's return to the Defense 
Department will carry on the tradition of other distinguished 
diplomats, such as Mort Abramowitz, Frank Wisner, and Michael 
Armacost, who have lent their wisdom and skill to the 
Department in bipartisan service to our country.
    I thank you, Mr. Chairman, members of the committee, for 
allowing me to present this outstanding individual for your 
consideration and, hopefully, prompt action.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Allen, we thank you for taking the 
time to introduce this distinguished nominee. I wish to 
associate myself with your remarks. I share your views about 
this nominee. Thank you.
    Senator Allen. Thank you, Mr. Chairman.
    Chairman Warner. Senator Clinton, for Admiral Giambastiani?
    Senator Clinton. Thank you very much, Mr. Chairman.
    It's a great honor and privilege to formally introduce 
someone who probably doesn't need an introduction, but I can't 
resist doing so anyway, because I have had the great 
opportunity to work with Admiral Giambastiani over the last 
several years. Of course, he was born in Canastota, New York, 
and we claim him, still, to this day.
    After graduating from the Naval Academy in 1970, his 
distinguished career took him back home to New York twice, 
early in his career. He served at the Naval Reserve Training 
Center in Whitestone, New York, and at the Nuclear Power 
Training Unit in Schenectady, New York. Since those early 
assignments in New York, his career has taken him all over the 
globe as a submarine commander and in several assignments in 
which he was responsible for development of new technologies 
and experimental processes. Many of us remember him in the days 
after September 11, when he often accompanied Secretary 
Rumsfeld to Capitol Hill for briefings, as the Secretary's 
senior military assistant.
    Over the past 2 years, I've had the privilege to become 
well acquainted with the admiral. During his current assignment 
as Commander, Joint Forces Command, in Norfolk, and as North 
Atlantic Treaty Organization (NATO) Supreme Allied Commander 
Transformation, last year I was pleased to be invited by 
Admiral Giambastiani to join the Joint Forces Command's 
Transformation Advisory Group (TAG), a group that he formed to 
advise him on transformation issues. Through our work together 
on TAG, I have been impressed by the Admiral's intellectual 
openness to new ideas, as well as his devotion to joint 
transformation.
    I must say, Mr. Chairman, any committee that includes as 
many distinguished former military officers, people who run 
some of the most well-known think tanks and think deeply about 
military ideas and strategies with Newt Gingrich and me has to 
have an open discussion, and we certainly have had that.
    As our military faces new challenges of transformation over 
the next several years, I can think of no one better suited to 
helping us think through these challenges than Admiral G., as 
he is often called. I'm looking forward to working with him, as 
well as with General Pace and General Moseley, to apply some of 
the lessons that we have learned and ideas that have emerged 
out of the Transformation Advisory Group.
    New Yorkers are very proud, but I think Americans are, as 
well, that this appointment is being considered today. I am 
pleased that he has been joined by his family--his wife Cindy, 
his daughter Cathy, and his son Peter, who's also serving in 
the Navy. It is a real privilege to not only introduce him, but 
to look forward to working with him in the years to come.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. I, again, wish to 
associate myself with your remarks. I have the highest regard 
for the Admiral.
    Now we have Senator Cornyn, who will introduce General 
Moseley.
    Senator Cornyn. Thank you, Mr. Chairman, for allowing me to 
say a few words on behalf of General ``Buzz'' Moseley.
    It's always a privilege to introduce such a fine American 
and Texan to the committee. I commend President Bush for 
nominating this fine individual to be Chief of Staff of the 
United States Air Force. There's no doubt in my mind he will do 
an outstanding job.
    We're all very much aware of the problems that the Air 
Force has faced over the past few years. These challenges 
provide even more reason why the Air Force needs a leader of 
the caliber of Buzz Moseley as Chief of Staff. I'm confident 
General Moseley is equal to the challenge. He's a man of 
integrity and honor, and I know he is equally concerned about 
the problems in the Air Force, as we all are.
    Although the committee is certainly aware of General 
Moseley's distinguished career, I would like to point out just 
a few of the highlights.
    He graduated from Texas A&M University in 1971, with a 
Bachelor of Arts degree in political science. He earned a 
Master of Arts degree from Texas A&M in 1972, also in political 
science. Then he went to Big Spring, Texas, where he earned his 
wings. He's a command pilot, and has flown more than 2,800 
hours in a range of aircraft. He commanded the F-15 Division of 
the Fighter Weapons School in the 57th Wing, the Air Force's 
largest, most diverse flying wing. He's also served as the 
Director of Legislative Liaison for the Air Force, something 
this committee knows about and which is no small assignment.
    More recently, he served as Commander of the 9th Air Force 
and the U.S. Central Command Air Forces. I know General Tommy 
Franks is full of praise for Buzz's work in ensuring that 
Operation Enduring Freedom and Operation Iraqi Freedom were 
truly joint and successful operations.
    Mr. Chairman, as the Department of Defense and the Services 
work to transform our military to meet the threats of the 21st 
century, I believe that General Moseley is the right person for 
this job. He has the proven experience, leadership, and 
dedication to see that the Air Force lives up to its proud 
history and tradition.
    Thank you very much.
    Chairman Warner. Senator, we thank you for your strong 
statement on his behalf, and I associate myself with your 
remarks, having known and worked with this distinguished 
officer for some years now.
    I want, at this moment, to say, with a great sense of 
humility, that being a former marine myself, we marines--and 
I'm going to call on Senator Roberts, another fellow marine--to 
take due note of the fact that one of our marines in the 200-
plus-year history of the Marine Corps now has been recognized 
by the President to take over the highest position for a 
professional military officer.
    Senator Roberts, would you like to add your erudite 
comments at this moment?
    Senator Roberts. I don't know about the erudite part, Mr. 
Chairman, but I'm very happy to note, with pride, that General 
Pace will be the first marine to serve as Chairman of the Joint 
Chiefs. As a former member of our Nation's September 11 force 
in readiness, and ready to put cold steel on the enemy anytime, 
anyplace, at the direction of the President or the Chairman of 
the Joint Chiefs, I know I speak for all marines in saying how 
proud we are, General, in regards to this outstanding officer 
and this nomination.
    Mr. Chairman, we are all joined at the hip with the Navy. I 
say ``we''--those of us in the Marine Corps--in our amphibious 
missions and our operations. In doing so, we have always been 
proud--over 200 years--to assist and serve our Navy. I note 
with pride that today we will soon see an outstanding Admiral 
assisting and serving our new chairman.
    I won't say that ``it's about time,'' I just would like to 
say it is very appropriate. [Laughter.]
    I think it will be an outstanding team, on behalf of our 
national security.
    General Pace, on behalf of all of our marines, again, I 
express a great deal of pride in regards to your past service 
and what we know will be outstanding service to our Nation in 
the future.
    General Pace. Thank you, sir.
    Chairman Warner. Thank you very much, Chairman Roberts.
    I think there's another footnote in history that should be 
recognized here this morning. One of the most important 
functions of a Member of Congress, both the House and the 
Senate, is our nominations to the Service academies. I believe 
there is a benchmark in history about to be established, in 
that the Chairman, the Vice Chairman, and the CNO are all 
graduates of Annapolis. Would you set the appropriate order of 
protocol, General Pace, as to the classes and the rankings, 
which I'm sure will be observed in these respective positions 
now?
    General Pace. Sir, I'm Class of 1967. Mike Mullen is Class 
of 1968, and Ed Giambastiani is Class of 1970.
    Chairman Warner. Class of what?
    General Pace. 1970, sir, and Mike Hagee, sir, is Class of 
1968.
    Chairman Warner. That locks it up pretty well.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you.
    I join you in welcoming our nominees and their families 
this morning. All of us here know, and I believe all Americans 
know, of the tremendous sacrifice that you and your families 
have made, and will continue to make, for the good of our 
Nation. We thank you for that dedication. We thank you and your 
families for the long hours that you put in, on behalf of all 
of us.
    The three officers on our first panel have assembled an 
impressive record of service, with more than 100 years of 
collective experience in the military. Each has performed well 
in some of the most senior positions in our military. General 
Pace has served as Vice Chairman of the Joint Chiefs of Staff, 
Commander of the U.S. Southern Command, and Commander of U.S. 
Marine Corps Forces Atlantic. Admiral Giambastiani has served 
as Commander of the U.S. Joint Forces Command, Commander of 
Submarine Force, U.S. Atlantic Fleet, and Deputy Chief of Naval 
Operations. General Moseley has served as Vice Chief of Staff 
of the Air Force and Commander of the 9th Air Force in U.S. 
Central Command Air Forces.
    If confirmed, these highly distinguished officers will take 
the helm of our military at a time of serious challenge. As 
Chairman, Vice Chairman, and Air Force member of the Joint 
Chiefs of Staff, General Pace, Admiral Giambastiani, and 
General Moseley will be asked to play a critical role, 
balancing the heavy demands placed on our forces by current 
operations against the need to train and equip the force to 
meet future threats.
    As Chief of Staff of the Air Force, General Moseley will be 
asked to help strengthen the morale and confidence of an 
organization which has been undermined by a serious 
acquisitions scandal and by recent events at the Air Force 
Academy.
    By the way, Senator Kent Conrad just came by a few minutes 
ago to express his strong support and long friendship with you, 
General. He really looks forward to your confirmation.
    I've referred to this time of serious challenge when our 
nominees are assuming their new duties. Foremost among those 
challenges is the war in Iraq, which has not only taken its 
physical and financial toll, but it has weakened recruitment 
and threatens to weaken retention within our volunteer Army. 
There is a consensus among our military leaders that military 
action without a political settlement will not defeat the 
insurgency in Iraq.
    Iraq has become a terrorist-producing factory whose output 
is increasing. To say that we are there as long as we are 
needed is too open-ended and sends the wrong message to Iraqi 
leaders. The best chance to change the dynamic in Iraq and to 
succeed in Iraq is to make clear to the Iraqis that, unless 
they meet their own timetable for adopting a constitution, that 
the United States will review our position in Iraq with all of 
our options open, including a reevaluation of our military 
commitment. If the Iraqis come together politically, and if 
they can unify against the outside jihadists, who do not want 
an Iraqi nation to be created, then we will have the best 
chance of success in Iraq.
    I look forward to the thoughts of our nominees on Iraq or 
other critical issues that they face. I believe they are 
extremely well qualified to take on these challenges, and I 
look forward to their testimony.
    Chairman Warner. Thank you very much, Senator Levin.
    I would like, at this time, to ask each of the nominees to 
introduce all of their family members who are in attendance 
today. As Chairman, I ask those family members to stand and be 
recognized.
    General Pace?
    General Pace. Sir, I would be delighted, thank you very 
much.
    My wife Lynne, who I met when I was a first-class 
midshipman at the Naval Academy over 38 years ago, who has been 
my wife for 34 years, who has--as many, many spouses in the 
military--been the glue that has held our family together while 
I've been about our country's business. She serves this country 
as well as any uniformed member of the Armed Forces, and I love 
her, as you would expect.
    Because of her, we have two wonderful children. Sitting 
next to my wife is our daughter Tiffany. Tiffany is an 
accountant here in Fairfax, Virginia, with the National Rifle 
Association. She is studying hard at night to add to her 
undergraduate degree so she can get her Certified Public 
Accountant degree.
    Next to her is our son Peter, who just spent 6 years on 
Active-Duty in the Marine Corps. He is now a captain, United 
States Marine Corps Reserve. He is going to graduate school to 
get his MBA at the University of Chicago. His wife Lindsay is 
not here with us today, because she is working in Chicago.
    Next to my son is my sister-in-law, Mary Pace, married to 
my brother, Sim, for over 37 years. They live here in 
Arlington, Virginia. Sim preceded me at the Naval Academy, 
Class of 1965, served in Vietnam, was wounded twice, and has 
been an example for me all my life and someone I truly respect.
    Missing, importantly, my brothers Sim and Tom, my sister, 
Elizabeth, and my mom, who thought she could make it today, 
but, because of illness, could not. But she is in Waretown, New 
Jersey. If she's not in church right now, burning the church 
down, saying prayers that I get through this confirmation 
hearing, she's watching on television, sir. [Laughter.]
    Thank you.
    Chairman Warner. Thank you, General. You did that with 
superb feeling, and it means a lot to the families of the 
military, wherever they are in the world. At no time in our 
recent history have the hearts and the minds of Americans 
poured out more to the families who care and love those who are 
serving in uniform, wherever they are.
    General Pace. Thank you.
    Chairman Warner. Admiral Giambastiani, would you kindly 
introduce your family?
    Admiral Giambastiani. Thank you, Chairman Warner.
    Once again, it's an honor to be here before this committee 
today.
    I am joined by my fire-support team, led by my wife. Cindy 
and I celebrated our 29th anniversary 3 days ago. She is the 
daughter of a career Air Force officer, and had two brothers, 
both of whom served--one served in the Navy as a Naval Academy 
graduate and a test pilot, another brother who was an Air Force 
Academy pilot. She comes from a long family of distinguished 
servicemembers; and she has moved her entire life. She has been 
the rock of our family, as you would imagine, and she has led 
the way, all the way. I can't thank her enough for what she has 
done.
    She also has brought two lovely children into our family. 
My son Peter is a Navy lieutenant. He has just returned from 
two tours of duty on the east and west coast, on a frigate and 
a cruiser. He now serves on the House side of the Navy's 
Legislative Liaison Office. He arrived there in September. We 
are very fortunate to have him.
    She also gave me my daughter Kathy. Kathy is a just-
recently-graduated law-school graduate of American University. 
She is studying to take her bar exam, and will do that at the 
end of July. She is accompanied by a friend, also from American 
University. I guess we would call him her boyfriend. 
[Laughter.]
    As it turns out, he is also a lawyer, and studying for that 
bar exam, also. You can stand up, Jason. [Laughter.]
    Senator Levin. He just sunk right through the floor. 
[Laughter.]
    Admiral Giambastiani. He's a ``significant other,'' as my 
wife has corrected me.
    Finally, I am not joined by my dad, but he's in Cazenovia, 
New York, along with my sister and her family, watching today. 
My dad is almost 87 years young. He was a Navy man for a few 
years, a long time ago. He is the sole remaining one of my 
parents, but I know my mom is looking at us. General Pace said 
that the church is burning down. My mother is saying a few 
novenas, as we like to say. My dad, I know, is very proud, and 
I'm very proud of him.
    Thank you for the opportunity to introduce this family.
    Chairman Warner. Thank you very much, Admiral, beautifully 
done.
    General Moseley.
    General Moseley. Mr. Chairman, thank you for the 
opportunity to introduce my best friend, companion, and wife 
Jenny, who is the daughter of a naval officer, who is now a 
rancher and a farmer in Texas. Jenny has been alongside on this 
journey with me since August 1967. We've been married 34 years, 
and everything good that has happened to me and my family is a 
direct result of her.
    We have two wonderful kids. We have a daughter who is a 
school teacher in public service, and is not with us today 
because she's preparing for her next academic year. We have a 
son, a captain fighter pilot in the Air Force, who, after five 
deployments, is home in the Pacific right now, and, I am told, 
on the flying schedule this morning. So, he would rather be 
there than here.
    Again, Mr. Chairman, everything that is good that has 
happened in my family is a direct result of Jenny and her 
leadership and her advice and her partnership. Sir, thank you 
again, for the opportunity to introduce her.
    Chairman Warner. We thank you, General, and we thank all 
the families. We thank all those in attendance who have joined 
me in the privilege of hearing these magnificent statements and 
seeing the true military family that we are so proud of here in 
America.
    Now, the committee has asked all our nominees, military and 
civilian, to answer a series of advance policy questions. They 
have responded to those questions, and, without objection, I 
will make the questions and the responses part of the record.
    I also have certain standard questions we ask every nominee 
who appears before this Senate committee. Gentlemen, if you 
would please respond to each of the following questions.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Pace. I have, sir.
    Admiral Giambastiani. I have, sir.
    General Moseley. I have, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Pace. No, sir.
    Admiral Giambastiani. No, sir.
    General Moseley. No, sir.
    Chairman Warner. Will you ensure that you and your staff 
comply with deadlines established for communications with the 
Congress of the United States, including responses to questions 
for the record, in the course of our hearings?
    General Pace. I will, sir.
    Admiral Giambastiani. Yes, sir.
    General Moseley. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Pace. Yes, sir.
    Admiral Giambastiani. Yes, sir.
    General Moseley. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
possible reprisal for their testimony or briefings?
    General Pace. Yes, sir.
    Admiral Giambastiani. Yes, sir.
    General Moseley. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee and other 
committees of Congress?
    General Pace. I do, sir.
    Admiral Giambastiani. I do, sir.
    General Moseley. I do, sir.
    Chairman Warner. Do you agree to give your personal views, 
when asked, even if those views might differ from the views of 
the administration in power, or your respective superiors?
    General Pace. I will, sir.
    Admiral Giambastiani. I will, sir.
    General Moseley. I will, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee of 
Congress, or to consult with the committee regarding the basis 
for any good-faith delay or denial in providing such documents?
    General Pace. Yes, sir.
    Admiral Giambastiani. Yes, sir.
    General Moseley. Yes, sir.
    Chairman Warner. General Pace, again, I warmly welcome you 
and your family, and would you kindly proceed with your opening 
statement?

 STATEMENT OF GEN. PETER PACE, USMC, FOR REAPPOINTMENT TO THE 
   GRADE OF GENERAL AND TO BE CHAIRMAN, JOINT CHIEFS OF STAFF

    General Pace. Senator Warner, Senator Levin, members of the 
committee, thank you.
    To be nominated to be Chairman of the Joint Chiefs of Staff 
is both exhilarating and humbling. It's exhilarating because, 
if confirmed, I will have the opportunity to continue to do my 
best to serve this country. It's humbling because I know that 
the road ahead will not be easy. We are a country at war. We 
have a tough road ahead. But I am absolutely confident in our 
soldiers, sailors, airmen, marines, and coastguardsmen that 
they will deliver for this country, as they always have.
    If confirmed, my priorities will be the war on terror, 
improving joint warfighting capacity, transforming our forces 
for the future, and pursuing initiatives for quality of life 
for our families and our troops.
    Sir, I thank you and the committee for this opportunity to 
appear before you, and I look forward to your questions.
    Chairman Warner. Thank you.
    Admiral Giambastiani.

    STATEMENT OF ADM EDMUND P. GIAMBASTIANI, JR., USN, FOR 
REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE VICE CHAIRMAN, 
                     JOINT CHIEFS OF STAFF

    Admiral Giambastiani. Thank you, Mr. Chairman.
    Let me thank the committee and also the United States 
Congress for your tremendous continuing support of our 
soldiers, sailors, airmen, marines, coastguardsmen, and Defense 
civilians.
    I am proud and humbled, as General Pace said, to be 
nominated to serve alongside the superb officers at this table. 
I'm also honored that our Nation's leaders have nominated me, 
and shown trust and confidence in me to help lead our Armed 
Forces, along with General Pace. I assure you that, if I am 
confirmed, I will wake up every day dedicated to serving our 
national defense and those soldiers, sailors, airmen, marines, 
and coastguardsmen who protect our Nation and its interests.
    Thank you, sir.
    Chairman Warner. Thank you very much, Admiral.
    General Moseley.

 STATEMENT OF GEN. T. MICHAEL MOSELEY, USAF, FOR REAPPOINTMENT 
  TO THE GRADE OF GENERAL AND TO BE CHIEF OF STAFF OF THE AIR 
                             FORCE

    General Moseley. Mr. Chairman, Senator Levin, committee 
members, thank you for the opportunity to appear before you 
today.
    I am deeply humbled and honored to be here. I truly 
appreciate the enormity, the importance, and responsibility of 
the Office of Chief of Staff of the United States Air Force.
    For me, it's a humbling experience to look down the path of 
history and see the faces of those who have held this position. 
Since 1947, the Air Force has seen 18 outstanding airmen as 
Chiefs of Staff, including the expert leadership of our current 
Chief, General John Jumper. If confirmed as the next Chief of 
Staff, I will wake up every morning and pledge to do all in my 
power to live up to their legacy and to earn the sacred trust 
that you gave them. I am most grateful for the opportunity to 
continue serving my fellow airmen, along with my wife Jenny, 
who has been my primary advisory, loyal companion, again, best 
friend, and partner through this journey.
    Mr. Chairman, today I am incredibly proud to be a member of 
an Air Force family that has over 28,000 airmen deployed in 
every continent, in every time zone, in a true joint endeavor, 
alongside soldiers, sailors, marines, coastguardsmen, and 
merchant marines. The 684,000 Active, Guard, Reserve, and 
civilians of the United States Air Force also wake up every 
morning knowing that this Nation is at war. It is hard for me 
to express how intensely proud I am of each of them and their 
families. Their professionalism, determination, and expertise 
are second to none.
    Mr. Chairman, as I wake up every morning, the things that I 
worry about are fighting this war in a true joint, 
interdependent way, transforming our military, being a better 
partner on the joint team, taking care of our people, and 
looking at opportunities to modernize this force. Sir, our 
people are our greatest asset, and, in every way, they serve 
every day without asking for much.
    Mr. Chairman, thank you, again, for the opportunity to come 
before this committee, and I look forward to your questions.
    Chairman Warner. Thank you very much, General.
    We will now proceed to a 6-minute round of questions.
    Each of you were selected from amongst your peers because 
of outstanding records of achievement as professional officers. 
But now you're taking on a responsibility that has a new 
dimension, in that you're going to be charged with representing 
the interest of your respective branches of Services. As you 
are referred to now, that is, in case of General Pace, Admiral 
Giambastiani, purple-suiters--in that you will give your 
unbiased opinions, fairly, on behalf of each of the Services, 
no matter how much your continuing loyalty to your respective 
Service. I'm confident, having worked with each of you for some 
many years now, that you can make that transition.
    I remember, most affectionately, when I served as Secretary 
of the Navy with Admiral Moorer, he used to quip that he had 
his purple suit on, but he really had a little book on his desk 
written by Robert E. Lee's aide-de-camp, called ``The Unbiased 
History of the Civil War from the Southern Point of View,'' and 
he never forgot the naval perspective, but he rose above that 
and was a distinguished chairman.
    In addition to equality of opinion among the respective 
Services is your duty to give your best and your most honest 
appraisal of situations to your immediate superior, the 
Secretary of Defense. When you deem it necessary, under 
Goldwater-Nichols and its modifications, the law clearly 
provides that you can go to the President.
    Now, I think, for this record this morning, I would like to 
ask each of you if you agree, or have any hesitation 
whatsoever, when you may have a position which differs from 
that of the Secretary of the Defense, or, indeed, might differ 
from that, as enunciated by the President, that you would 
unhesitatingly go forward and provide, each with your own 
professional judgment and opinion.
    General Pace.
    General Pace. Sir, I absolutely agree with that 
responsibility. My experience from the last 3\1/2\ years tells 
me that not only is it expected of me by you and the members of 
the committee, but it is expected of me by the Secretary of 
Defense and the President of the United States. I've taken that 
opportunity in the last 3\1/2\ years, and, if I need to, and if 
confirmed, I will do so again, sir.
    Chairman Warner. Admiral Giambastiani.
    Admiral Giambastiani. Mr. Chairman, as General Pace has 
stated, I believe it is a duty of each of us--and, of course, I 
take this duty very solemnly--that I, in fact, will continue to 
express my military advice, whether it's contrary or not, to 
the President, the Secretary of Defense, and to the Chairman of 
the Joint Chiefs of Staff and other members of the Joint Chiefs 
at any point, at any time. I think it is important and 
incumbent upon each of us to understand that's part of our role 
and duty as a member of the Joint Chiefs, and also in the 
position for which I've been nominated. If confirmed, you have 
my absolute commitment to carry forward through that.
    Chairman Warner. Thank you.
    You made reference ``out of respect for Congress,'' but 
also those duties go down to the lowest-ranking private or 
sailor, seaman, in respective branches of our Government, and 
the airmen and the Army, all the way down, and to every citizen 
of this country. You owe that obligation. There is no higher 
obligation you will have than to express your best personal 
advice to those who are making the critical decisions along 
with you.
    Further, General Pace, as Chairman, should members of the 
Joint Chiefs and the Vice Chairman, likewise, have views 
differing from those that you have expressed and the Vice have 
expressed, and they so desire to let their superiors--namely, 
the Secretary and the President--know of their views, do you 
assure this Committee you will facilitate that opportunity?
    General Pace. Sir, absolutely. It is their responsibility, 
as well as mine, to ensure that every opinion is spoken, 
especially if it is different.
    Admiral Giambastiani. Sir, I will carry forward that 
commitment.
    Chairman Warner. I stress these questions, because I've had 
the privilege of observing the military contributions of men 
and women in the Armed Forces for some 60 years, and I cannot 
recall a period in contemporary military history where the 
challenges are more diverse, where we face an enemy, which is 
really without precedent, an enemy that follows no 
international conventions or international law, follows nothing 
but their determination to bring death and destruction to 
people all over the globe. Therefore, there are not going to be 
many guideposts out there as you make these decisions as to how 
best to employ the men and women of the Armed Forces of the 
United States in this war on terror. It's going to require 
innovation and initiatives unlike any that we have seen before 
in our contemporary military history.
    In the course of the President's remarks last night, and in 
the national debate that is ensuing, General Pace and Admiral 
Giambastiani, we see a continuation--and I don't say this by 
any means as criticism--of the issue of whether or not there 
are adequate forces of the combined coalition force--and most 
particularly of the U.S. contribution to the coalition forces 
of our troop strengths in Afghanistan and Iraq. Our President, 
with a measure of great courage, states clearly that he listens 
carefully--as he should--to the advice of the military leaders, 
and he is willing to accede to a recommendation, which might be 
forthcoming, suggesting an increase in the level of our forces.
    General Pace, that will be a question that will be raised 
every day between now and whenever we succeed with our goals in 
Iraq, and I would like to have you advise the committee this 
morning as to how you will go about your own formulation of a 
decision as to that level, and how you would then communicate 
it with the Secretary of Defense and, indeed, the President.
    General Pace. Sir, I have struggled with the answer to that 
question for the last couple of years, because it is, in fact, 
a very difficult situation to judge properly. On one hand, you 
want to have the correct number of troops to provide enough 
security in the country to allow the mechanisms of governance, 
the political process, to move forward, and but on the other 
without so heavy a presence that you become an oppressor and 
don't allow the Iraqi people to participate in building their 
own country.
    So, as an example of the way we process this--and, to my 
knowledge, sir, every single request for forces that has come 
from General Abizaid, General Casey, and their predecessors has 
been provided to them. As an example, when General Casey was 
here this past week, on Monday, he came in to the Tank with the 
Joint Chiefs. He briefed us on the current situation, as he saw 
it. He briefed us on how he envisioned using troops in the 
future so that we could analyze his plan for the future and 
determine for ourselves whether or not we agreed or disagreed, 
to ask him questions, to reach a conviction that the numbers of 
troops he was asking for, and the way he planned on employing 
them, were correct. We did that again just this past Monday. 
Collectively, as Joint Chiefs, we were comfortable with his 
plan for the way ahead and the number of troops, but it is 
clearly a balance between enough troops, to get the job done, 
and too many troops so as to appear to be an oppressor. We work 
with that literally weekly, sir.
    Chairman Warner. Admiral.
    Admiral Giambastiani. Mr. Chairman, I had the honor of also 
attending that meeting earlier this week with the Joint Chiefs, 
on invitation. As the Commander, United States Joint Forces 
Command, all of the requests for forces that come in from 
combatant commanders from around the world all get funneled to 
the Commander, U.S. Joint Forces Command. So, my staff and I 
work very hard to fulfill all of these requests for forces. As 
General Pace said, I'm not aware of any requests that we have 
not met, to the full satisfaction of General Abizaid, General 
Casey, our other combatant commanders.
    I might mention one or two things that I think are 
important, in addition to what General Pace has said. Number 
one, it is important for us to come up, if you will, with this 
right number. I never know if any specific number is exactly 
right. There's always a range of numbers that are good. The 
reason I would say that is, without getting into any classified 
details, we always put forces on what we call ``prepare-to-
deploy orders.'' There may be a 24-hour prepare-to-deploy, 48-
hour, 72-hour, or something else.
    The reason why I say this is that, during the January 
elections, we increased the total number of troops there by 
keeping some longer in theater and also sending a couple of 
battalions--in this case, out of the 82nd Airborne Division--
and we put them in, at the request of General Casey and General 
Abizaid--and they were sent out on short notice, because they 
were prepared to do this. In fact, in Iraq and in Afghanistan 
we also have arrangements to provide, if you will, for 
flexibility that the combatant commanders want. So, it is not 
just the number that is in the theater, it is also this 
flexible number that we can add above it on short notice if 
they need additional troops.
    The last thing is that, in order to get my head right, in 
addition to talking with the senior commanders, as Commander, 
U.S. Joint Forces Command, I've made repeated visits into the 
theater to talk with the commanders so that I had a better 
understanding; and also when they came back to the United 
States after being deployed, to get a feel for where they are.
    Thank you, sir.
    Chairman Warner. Thank you very much.
    General Moseley, you take over as Chief of Staff of the Air 
Force in the aftermath of a very troubled period for this very 
distinguished and historic branch of our Armed Forces. I have 
the greatest respect for General Jumper. I think he has done 
his very best. I commend him for the manner in which he has 
steadfastly continued in his leadership in the face of 
challenges, whether they've been procurement allegations, of 
contracts being handled in a manner inconsistent with law and 
regulation, or very severe problems experienced by the U.S. Air 
Force Academy. One of the reasons that you were selected is 
that you are perceived to possess the strength to carry on the 
good work of your predecessor to, as we say in the Navy, 
``right the keel and bring her back.'' I know that you will do 
that. You have my personal commitment to assist in every way 
possible.
    Please outline some of the initial steps, if confirmed, 
that you will take to respond to these problems in the 
Department of the Air Force.
    General Moseley. Mr. Chairman, thank you for that trust and 
confidence.
    Let me first say, because we had a hearing yesterday on the 
Air Force Academy, that one of the first things that I would 
like to tackle, if confirmed, is to meet again with a variety 
of the cadets out there, and with faculty, and to re-emphasize 
the Agenda for Change, and to reinforce the policies that we 
have set in motion, under the leadership of General Jumper, to 
bring more leadership and more visibility onto the Air Force 
Academy. It is unsatisfactory, and it is outrageous, to have 
one of our cadets that is either mistreated, assaulted, or in 
any way fearful of walking across the campus or going anywhere 
on that campus. So, sir, you have my pledge that that is at the 
top of my list.
    Also, we have, over the last few weeks, had a chance to 
look at the religious intolerance allegations at the Academy. I 
think, with General Brady's report that we distributed to the 
committee, we see that we have had some insensitivities at the 
Academy. We have had some things that concern me, personally, 
that relate to superior/subordinate relationship dialogue, 
relative to religious freedom. You can rest assured that is 
also at the top of my list, because one of the pillars of our 
society in this great country is religious freedom and the 
freedom to practice one's faith and one's spirituality. It is 
unsatisfactory to have a cadet feel that she or he cannot 
practice their faith or somehow believe that they are 
disadvantaged because of their faith. That is absolutely 
unsatisfactory.
    Sir, I would also offer to you that there is much to be 
done in the world of acquisition reform. This committee has 
been very helpful. Senator McCain has been very helpful in 
highlighting this. There are processes that we should have 
taken, and acts we should have taken along the way, that we now 
see, with acquisition reform, would make this a lot better.
    Mr. Chairman, I will tell you that, in the world of 
acquisition reform along the way, as we downsized the Air 
Force, we took too many people out of that oversight role--cost 
estimators, engineers, testing evaluators, program managers. My 
pledge to you, the committee, and to my Air Force, is that we 
will right this with the right rudder trim to get the right 
people back into that process, because it is a process--it is a 
legal process, and it is a process that needs to be open and 
visible.
    So, sir, the first two things, other than fighting this war 
and taking care of our people, will be to ensure that the Air 
Force Academy, which is the backbone of our officer corps, 
which produces about a thousand lieutenants a year, is right, 
and that every kid that goes to that academy feels safe and 
comfortable and graduates as a lieutenant to serve this country 
and hold a commission as a lieutenant. The second is to look at 
acquisition reform, because, Mr. Chairman, that's so critical 
to the recapitalization and modernization of our Air Force that 
we have to do this right.
    Sir, thank you for that question.
    Chairman Warner. I thank you, General. This committee 
stands by to help you in every way possible.
    Senator Levin?
    Senator Levin. Thank you, Mr. Chairman.
    General Pace, both Active and Reserve Forces are 
experiencing significant challenges in achieving their 
recruiting targets. The Active Duty Army is more than 8,000 
enlistments behind its goal for fiscal year 2005. The Army and 
Air National Guard, the Army Reserve, the Navy Reserve, and the 
Marine Corps Reserve have all missed monthly recruiting goals. 
Recruiting professionals predict that the recruiting 
marketplace will be even more difficult next year. What, in 
your opinion, will be the effect of an ongoing conflict in Iraq 
and Afghanistan on recruiting for our Armed Forces?
    General Pace. Senator, thank you. You're absolutely correct 
that we face a challenge recruiting right now, especially for 
ground forces, like the Army and the Marine Corps. Congress has 
been very generous in supporting us with incentives for 
recruiting, but this is not about money; it's about message, 
it's about our young folks in this country understanding that 
we truly are at war with an enemy that seeks to eliminate the 
way we live, and to encourage our young people, as young folks 
have done throughout our Nation's history, to come forward to 
help defend this Nation against a very real threat, and to 
encourage the families of those young folks to let them follow 
their instincts in supporting this Constitution and this 
country.
    I believe that there is sufficient love of country and 
desire to serve, that if encouraged properly by the leadership, 
and if sent to do missions that are understood to be good and 
supported, that we will continue to fill the ranks of our 
Services. I point to the fact that, for those who are currently 
in uniform, active and Reserve, our retention rates are higher 
than what we have experienced historically. Those who are in 
uniform serving this country ``get it.'' They understand what 
they're doing; they understand the value; and they understand 
this enemy. Those who are looking to serve this country should 
be encouraged to do so, sir.
    Senator Levin. General Pace, a number of our senior 
military officers have said that military action alone won't 
solve the situation in Iraq. General Myers said that, 
``Progress in the political front's going to be the key to 
progress against the insurgency.'' General Casey has said, 
``The political process will be the decisive element.'' General 
Alston said, ``This insurgency will not be settled through 
military options or military operations. It's going to be 
settled in the political process.'' Do you agree?
    General Pace. I absolutely agree, sir. The military and 
police forces of the coalition can provide a level of stability 
inside the country for the political process to go forward, but 
this clearly now is the responsibility of the Iraqi people and 
the Iraqi government to write their constitution, to vote for 
their new government, to take responsibility for their future, 
with the coalition's help, and to get on about the business of 
governance, because it is governance and economics that will be 
the future success in Iraq, sir.
    Senator Levin. Senator Collins and I wrote a letter to the 
President the other day and I want to quote portions of that 
letter to you, relative to the subject that you just addressed. 
``Some administration officials,'' we wrote, ``have said 
recently that we would stay in Iraq as long as needed. We 
believe that goes too far, because it is too open-ended a 
commitment to the Iraqis that we will continue to provide 
security, even if they fail to agree on a constitution; thereby 
lessening the chances the Iraqis will make the compromises 
necessary to defeat the jihadists and the insurgency, and 
become a nation.''
    We continue, ``There is a consensus that military action, 
without a political settlement, will not defeat the insurgency 
in Iraq. We believe that we should send a clear message to the 
Iraqis that they need to reach a political settlement according 
to the timetable to which they have agreed.''
    We continue that we should ``review our position in Iraq, 
with all of our options open, if the Iraqis fail to meet their 
own timetable for adopting a constitution. Part of that review 
of our position would include a re-evaluation of our military 
commitment.''
    I want to just read the final two paragraphs. ``The failure 
of the Iraqis to adopt a constitution as scheduled would 
represent a lack of will to create a country, and would, 
instead, reflect a continued willingness by them to rely on 
U.S. troops to carry a burden that the Iraqis must accept. We 
should demonstrate to the Iraqis that our willingness to bear 
that burden is not unlimited. We have opened the door for the 
Iraqis, but only they can walk through it; we cannot hold that 
door open indefinitely. Only a constitutional agreement, a 
political agreement among all parties, can change the status 
quo and end the current deadly dynamic in Iraq. The possibility 
of our leaving, unless such a settlement is reached, can help 
bring about that agreement.''
    Now, this is a question for you, and I'd welcome a comment 
on what I've quoted, do you agree it is essential to success in 
Iraq that the Iraqis recognize that it is important to stick to 
the timeline for the drafting and ratification of a new 
constitution?
    General Pace. Sir, first, what you read to me is the first 
time I've heard those words, so, without them in front of me, I 
would not want to comment on the totality of what you said. 
With regard to the absolute requirement for the Iraqis to take 
hold of their own future, to stay on timeline, and to begin the 
process, which they have, of writing their constitution on 
time--and on time is 15 August--having the referendum on that 
constitution, which is 15 October, and having a vote for the 
new government under that constitution, which is 15 December, 
are all things which we should continue to press forward on.
    From the military viewpoint, we need to continue to work 
with their armed forces to make them stronger and better so 
that they can provide the proper environment inside of which 
that process can take. But, whatever you and the other 
political leaders of this Nation do on the political side to 
impress upon the Iraqis the need for assuming more and more 
responsibilities for themselves will certainly help in the 
governance of that country and the way ahead, sir.
    Senator Levin. Does that include meeting their own self-
imposed deadline for adopting a constitution?
    General Pace. We should absolutely encourage them to do 
that, yes, sir.
    Senator Levin. Encourage, or tell them how essential it is?
    General Pace. Sir, that is out of my lane, but I do agree 
with the fact that, as they write their constitution and have 
their elections, just like the last election, it will have 
major impact on the society and on their armed forces. As an 
example, if I may, sir, since the elections in January there 
has not been a single Iraqi armed-force unit that has been 
pushed off the battlefield. Before January 2005, they left 
combat sometimes. Since that time, not a single Iraqi unit has 
left. I believe that a significant reason for that is the 
belief in their own political process, the standup of their own 
government, their own elections, and that another election, 
based on the new constitution, will further reinforce the 
belief in their own country, of their own armed forces.
    Senator Levin. Well, to put it in another way, will there 
be any fallout if they don't meet that deadline? Do you believe 
this--just as it was important, militarily, that they met their 
election date last time, is it also critically important, 
militarily, that they meet their self-imposed timetable this 
time?
    General Pace. I think it is important, sir, that they meet 
timelines. I think it's important to the Iraqi people to 
understand that they're moving forward. So, yes, if they were 
to miss timelines, that would have some negative impact.
    Again, that would be situation dependent on why they missed 
the timeline and how long they missed it by; but the fact of 
the matter is, we should encourage them to stay on their own 
timelines, to take care of their own business.
    Senator Levin. Thank you.
    My time is up.
    Chairman Warner. I just wish to add, here, in the course of 
our hearings last week I asked similar questions of General 
Abizaid, What would happen if they missed the August 15 
deadline? Would it send a message to the terrorist insurgents? 
Unhesitatingly, he said yes, it could well have serious 
implications that would be negative, in terms of our ability, 
militarily, to continue to repress this terrorism. I hope you 
share that view.
    General Pace. Sir, I do share that view. I would align 
myself with General Abizaid's statement.
    Chairman Warner. I would put into this record, at this 
point, the actual question and reply by General Abizaid.
    [The information referred to follows:]

    Chairman Warner. Thank you, Mr. Secretary.
    General Abizaid, you have had a very long and distinguished career 
in our military and much of that career of service has been in this 
region of the world. Your understanding of the people and the culture 
and their capabilities and the history--there is a lot to be said that 
we should have examined with greater care the history of this culture 
as we proceeded with this military mission.
    What are your assessments as to the ability of the Iraqi people to 
succeed in the goals outlined very clearly by Secretary Rumsfeld just 
now and in other testimony?
    General Abizaid. Mr. Chairman, I think both General Casey and I 
would tell you that we spend a lot of time working very closely with 
Iraqis on the political side and on the military side, and we have 
known Iraqis that have been killed by the terrorists, that have 
succumbed to the insurgents. It is interesting how many times when one 
of them is killed another one will stand up and take their place.
    The desire to be free, the desire to develop a society within their 
own cultural norms, that allows them freedom and opportunity for a 
better future for their families, is not only an Iraqi desire; I think 
it is a desire of most human beings everywhere on this planet. That the 
United States Armed Forces help to give them that is absolutely one of 
the most important things I think we have ever been engaged in.
    We often do talk past one another culturally. We do have barriers 
of understanding that get in the way of efficient business sometimes. 
But as we go down this road, both in Afghanistan and Iraq and in other 
places in the region, the cultural gap is closing, and it needs to 
close faster. There is nothing about Islam that says Iraq cannot move 
in the direction it is moving. There is nothing about the Arab culture 
that says that people cannot participate in their future in a free and 
participatory manner.
    The opportunity for a new beginning is clearly there. I believe 
that people throughout the region, not only in Iraq but elsewhere, in 
Lebanon, in Syria, in Saudi Arabia, you name the country in the Middle 
East--but they are all looking for the opportunities for reform and a 
better future and for accountability from their governments, and I 
think that is possible.
    Chairman Warner. Let me ask a second part of this question. Should 
there be a delay in adopting the constitution, or the invoking of the 
6-month extension, creating a perception that the formation of this new 
permanent government is being delayed, for whatever reason, what is 
likely to be the reaction of the insurgents and others who want to stop 
this process in Iraq? Will they redouble their efforts? Will there 
likely be more participants from other nations that are flowing into 
Iraq daily? What would be the consequences from a military standpoint 
should that scenario become a reality?
    General Abizaid. My view is that if there is a delay, it gives the 
insurgents the opportunity to get better organized, it increases the 
number of deaths and the tempo of action. It would be a bad thing, but 
not fatal.
    Chairman Warner. Thank you.

    Senator Levin. Mr. Chairman, I would like to put into the 
record, also, the letter which I and Senator Collins sent to 
the President the other day.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    General Pace, I know there's another hearing tomorrow 
regarding the status of the Army and the Marine Corps, as we 
fight the global war on terrorism. I just came back from Fort 
Riley to welcome home a battalion who are back from their 
second mission. I know you are not a witness at tomorrow's 
hearing, but--I may not be there, but I would like to know, 
basically, any comments you would make in regards to the 
``wearing out''--and I'm using that term in quotes--of the 
equipment that we must have to conduct any mission there in the 
desert. It is a big problem.
    As I look at the armor there at Fort Riley, and talk to our 
marines, I am gravely concerned. I don't know what we're going 
to do, in terms of all of the equipment. There is much of it 
that you're going to try to redo or re-engine or re-something. 
I'm not too sure that, once you do that, that it's worth the 
effort, in terms of cost. In my view, I don't know how we're 
going to fund that. Would you have any comments?
    General Pace. Senator, thank you.
    First, if I may, sir, thank you for your very generous 
comments, before. I deeply appreciate it, sir, especially 
coming from a fellow marine. Thank you.
    Our estimates, sir, are that it will take about 2 years 
after the end of armed conflict to be able to put all of our 
equipment through the depots to be reconstituted to like-new 
status. About 2 years, sir. That means that, currently, if we 
go to war somewhere else, if we had to, that we would certainly 
be able to meet this Nation's obligations to defeat any enemy, 
but we clearly would not have 100 percent of the equipment that 
we would like to have to fight that war. So, it would be less 
precise, for example, than we have been in this conflict.
    Senator Roberts. I thank you for your candor, and I think 
we have a major obligation and responsibility. I think Congress 
has to take a hard look at that. I congratulate the chairman on 
holding the hearing.
    General Moseley, we talked about the issue of tanker 
recapitalization. It reminds me of Zane Grey's ``To the Last 
Man,'' on the sheep and cattle war, out in Arizona, John. After 
we have the analysis of alternatives, when that is finished 
later this year, we talked about the time frame by which the 
Air Force is looking to recapitalize this very aging fleet. 
Some of the planes are as old as I am. From my side of the 
table, I'm concerned about the price tag it's going to bring 
with it, as we discussed. I think the tankers are some of the 
most important things in the inventory, without question. We 
don't go to war without the tankers. I mean, the war stops.
    We've had cost problems with these planes. With the budget 
constraints Congress faces, and will continue to face for the 
foreseeable future, my question is, How can we recapitalize the 
tanker fleet at such a rate that we don't significantly 
sacrifice our strategic capabilities? Would you have any 
comments on that, sir?
    General Moseley. Sir, thank you for the question. The 
analysis of alternatives (AOA) is in work now, within the 
Office of Secretary of Defense (OSD). We anticipate that to 
provide some insight, later this summer, which will then be 
reviewed for sufficiency by OSD Program Analysis and Evaluation 
(PA&E), which will then take us back to a request for proposal 
(RFP) and open competition to drive the best cost, the best 
price for the chosen alternative.
    Senator Roberts, this process is the right way to do that, 
with an analysis of alternatives, and to look at competing this 
to get the costs down on the chosen alternative.
    We also have the mobility capability study that is in work, 
and is working inside the Quadrennial Defense Review (QDR) 
right now, that will help us with mobility requirements and 
lift requirements and tanker requirements. It's working 
parallel to that. We look forward to seeing what the AOA says, 
and we look forward to the PA&E sufficiency review so that we 
can get on with the competition and get the best price for this 
airplane.
    Senator Roberts. My only concern is, by the time we're 
through, to replace the tanker fleet, or to go back in and do 
the re-engineering, that we're going to have planes that are 
not my age; we're going to have planes 80 years old. We've 
never done that before. So, I hope we can find an answer to 
this, and I hope, with my colleagues' attention, we can do it 
in the proper way, in regards to authorizing and appropriating, 
which could have saved us a lot of time, before.
    I have one other comment to make. I'm concerned about the 
Southern Command. General Pace, we have 360 million people in 
31 nations, average age 14, malnourished. We have the tilt of 
government change there that really is not in the best interest 
of America--or, at least in comparison to previous governments, 
are not as stable. We have a situation in Brazil where they are 
challenging the entire U.S. program policy and trade, and a 
situation that is a little different in Argentina; in regards 
to Venezuela and Hugo Chavez, who self-described himself as the 
next Castro, and he may well be; in terms of energy, in terms 
of immigration, in terms of drugs, in terms of trade, in terms 
of money going to terrorists. All of those things are taking 
place in that part of the world. We took an awful lot of 
infrastructure out and provided it to the Balkans, which then 
went to Afghanistan and Iraq, and we haven't put it back. Now 
we have the big issue here, in regards to Central American Free 
Trade Agreement (CAFTA), which also has a lot of very strategic 
ramifications.
    I'm worried about the Southern Command. I'm worried about 
our neighbors to the south, and every one of those issues 
directly affect the daily lives and the pocketbooks of the 
American people. I know that we have obligations. We all know 
that. We must reach a just conclusion in regards to the Mid-
East, but I just wanted to express my concern.
    General Pace. Yes, sir.
    Chairman Warner. Thank you very much, Senator.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Gentlemen, I want to thank each of you and your families 
for your very dedicated and exceptional service to our country.
    General Pace, a book that has just come out, written by 
Larry Diamond, a senior fellow at the Hoover Institution, who, 
in the first months of 2004, at the request of then-National 
Security Advisor, Condoleezza Rice, was recruited to be a 
senior advisor to the Coalition Provisional Authority in 
Baghdad, references a memo that he wrote to Ms. Rice--now 
Secretary Rice--dated April 26, 2004, in which he says, ``We 
need to send significantly more troops and equipment. Perhaps 
it is already too late for this, as well, but, in my weeks in 
Iraq, I did not meet a single military officer who felt, 
privately, that we had enough troops. Many felt we needed, and 
need, tens of thousands more soldiers, and, at this point, 
within the limits of the possible, at least another division or 
two.''
    That question has been raised by members of this committee, 
going back to that time, and even before, including those who 
expressed that strong view. What you said here today is what 
we've been consistently told, that the theater commanders make 
that recommendation or decision, and then that has been 
honored.
    Is this an incorrect or correct statement, that at least 
many military officers then in Iraq felt that we needed more 
troops? If that is a view that is prevalent, is there a 
mechanism by which that view is communicated to you, as 
Chairman of the Joint Chiefs, and, then to corroborate it, if 
those in Congress hold that view? Because it doesn't seem to 
have been.
    General Pace. Sir, I've not had a chance to read the book, 
but I will tell you what I know.
    First of all, we've done more than honor the request of the 
commanders. As Joint Chiefs, we have validated them. We have 
looked at that. We have analyzed it. We have decided for 
ourselves. I, as an individual, have agreed with the size force 
that is there. So, we should take on the responsibility that we 
own, which is having not only received the recommendation, but 
approved and agreed with the recommendation.
    As a rifle platoon leader in Vietnam, if I was in a 
firefight, I didn't have enough men, no matter what the 
situation was. I mean, I clearly understand lieutenants and 
captains, who are fighting for their lives, who would like to 
have more troops on their left or their right in the situation 
that they are in at that moment. As you back up to the 
battalion level, that battalion commander has 4 rifle companies 
of 150 men that he can apply to that situation. If you back up 
to the regiment, then the regimental commander has 3 battalions 
of 700 men or so that he can apply. So, as you back up from the 
instant case of the firefight, what you see is a little bit 
different than the person who is right in the fight.
    I can understand where individuals on the ground fighting 
would want to have more assets at the time they're in that 
fight. But, as I've tried to explain before, there's also a 
balance that must be accommodated, or understood; that is the 
balance between having enough forces to provide sufficient 
security for the political governance to take place and having 
too much force that presents more targets, more of what would 
be viewed as oppression.
    From my standpoint, sir, sitting where I sit, listening to 
what I've heard, doing the analysis I've done, talking to the 
leaders I've talked to, I am personally comfortable with the 
size of the force we have.
    Senator Dayton. Thank you.
    This article in the New York Times last Sunday regarding 
the issue of safer vehicles for soldiers, ``A Tale of Delays 
and Glitches,'' was the headline. The chairman and ranking 
member, and all of the members of this committee on both sides 
of the aisle, have persisted for the last, I think, close to 
about 2 years now, to find out what's causing delays, why our 
forces are not armored at the maximum extent possible, and 
asked repeatedly what, if anything, does anyone need--
resources, authorization, whatever--to get beyond these delays 
and get that there, and received assurances that resources were 
available, and the problems were being overcome.
    In that light, this article was very distressing, to say 
the least, because, it says, ``It took months for requests made 
in Iraq to filter through the Defense Department.'' Asked why 
the Marine Corps is still waiting for the 498 high mobility 
multipurpose wheeled vehicles (HMMWVs) ordered last year, the 
company spokesman acknowledges that it told the Marine Corps it 
was backed up with Army orders, that it had only begun 
fulfilling the Marines' request this month. The company says 
the Marine Corps never asked it to rush. The Marine Corps 
denies this, but acknowledges that it did not get the money to 
actually place the order until this February. Officials now say 
they need to buy 2,600 to replace their HMMWVs in Iraq that 
still have only improvised armor. It goes on to say, ``When the 
Marine Corps returned to Iraq last year, it settled on the 
Cougar as the superior vehicle to perform one of its main jobs, 
searching the roads for improvised explosive devices (IEDs). 
The Cougar can take more than twice the explosive punch as the 
armored HMMWV, and deflect 50-caliber armor-piercing bullets. 
British troops had used the vehicle during the invasion. `The 
Marines used a new ordering method called the Urgent Universal 
Needs Statement, which allowed it to skip competitive bidding 
to speed the process,' officials said. Even at that, the Marine 
Corps took 2 months to complete the product study. Its records 
show the contract took 2 more months to prepare. By then one of 
its units in Iraq, Company E of the 1st Marine Division, was 
suffering the highest casualty rate of the war. More than half 
of the 21 marines killed were riding in HMMWVs with improvised 
armor, or none at all. When the Cougar order was completed, in 
April 2004, the Marine Corps got only enough money from the 
Iraq war fund to buy 15 of the 27 Cougars it wanted. `This 
start-stop game is driving everyone nuts,' an executive of the 
Cougar's maker said, in a recent interview.' ''
    We talk about supporting the troops. Actions speak louder 
than words here and right through the whole system. If these 
men and women over there are being denied the best-possible 
armoring and protection, and we're told, then, subsequently, 
because not enough money is available, and we've been asking 
for 2 years, ``Do you have enough money? What more do you need? 
What do we need to do?'' and they're told, ``We're doing 
everything possible,'' and that those who are responsible are 
doing everything possible, and then you find out they are not--
if this is true, it's just unconscionable and unforgivable.
    I know that you know better than I, the consequences of the 
lack of this protection. On behalf of those mothers and fathers 
or loved ones who are serving over there, and those men and 
women whose lives are on the line, I will ask again today, ``Is 
there anything that you need, the Armed Forces need--money, 
authority, whatever--to get this maximum protection to our 
forces?''
    General Pace. Sir, first, thank you for your sincere 
concern for our troops in battle.
    Senator Dayton. That's shared by everybody here, everybody 
in this body of the Senate.
    General Pace. Yes, sir. The troops know it. We all know it. 
The very specific answer to your question about, ``Is there 
more that we need Congress to do right now?'' The answer is, 
no, sir. You have provided funding, you have provided the 
authorities we need to get this job done, as far as 
acquisition.
    If I could take just a minute. When we had the small-arms 
protective insert (SAPI) armor initiative, the SAPI plates that 
go in the front of the flak jackets when this war began, that 
was an experimental piece of gear that, as soon as it proved 
itself in combat, we began to order, thanks to Congress' 
support, in large numbers. Everyone had, when we went to war, 
the older flak vests, which was state-of-the-art at the time. 
The new experimental one proved itself, and Congress provided 
several hundred million dollars to go out and buy the new 
protective gear, which we did, and which now every soldier, 
sailor, airman, marine, and DOD civilian in Iraq has right now.
    Likewise, when we started this war, we had something like 
200-plus up-armored HMMWVs in the entire inventory of the 
United States, and they were on special missions, protecting 
special types of things that we own in this country. When we 
went from major combat, where we had plenty of tanks and plenty 
of Bradleys, that have a lot of armor, to patrolling cities, 
the tanks and the Bradleys were too heavy, and the unarmored 
HMMWVs were too light. So, we began the process, with Congress' 
support, of building--instead of 25 a month, now they're 
building 500 a month. We've gone from almost no wheeled 
vehicles in Iraq having armor to 40,000 vehicles in Iraq having 
either armor that was put on them at the factory or--that's 
level one--or level-two armor, which is factory-bought and 
installed in theater. Level-three armor is things that are 
fabricated in theater and put on. So that, as of February 2005, 
the commanders on the ground were able to say there will be no 
vehicles traveling outside of compounds in Iraq that did not 
have armor. As we are learning which armor works best, we are 
replacing it as we go.
    The fact of the matter is that thicker armor can be 
defeated by bigger bombs. We have had tanks, which are our best 
armed vehicles, destroyed by explosive devices, as we have had 
vehicles. We have troops who are walking the street without 
armor protection, other than their body armor. This is 
dangerous business, sir, which does not get to your point, but 
it does mean we cannot put a cocoon around every single 
soldier, sailor, airman, and marine. But we should give them 
the best we possibly can, and Congress has been extremely 
forthcoming, not only in meeting our request, but asking us 
what requests we might have.
    So, the straight answer to your question, sir, is, there's 
nothing more we need Congress to do. We need to get on about 
doing what we're doing.
    Senator Dayton. Thank you. My time is expired, but I guess 
this does appear to be ongoing, and I will follow up with a 
written question about these Cougars and whether you're getting 
those sufficiently or not.
    General Moseley, my time is up, I will submit to you a 
written question about the Air Force's intentions regarding the 
Air National Guard, which is very prominent in Minnesota. All 
of our planes are disappearing, and they don't seem to have 
anything coming to replace them. We talk about recruitment and 
retention. We have a lot of dedicated men and women in the 
Minnesota Air National Guard, and also around the country, who 
are suddenly feeling their missions are being take away from 
them, when they want to continue to serve actively. So, I'll 
submit that to you.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Graham.
    Senator Graham. Thank you.
    Senator Sessions, thank you for allowing me to go ahead. I 
appreciate it.
    One, I enthusiastically support each of you. I really do 
believe you're very good choices.
    Let's look at the big picture about force. I understand, if 
you're a lieutenant or a captain in a firefight, you want 
everything you can get your hands on, and then some, but, when 
you back away--one of the things that concerned me is Syria. I 
think Senator McCain brought this up at the last hearing. We're 
having an increase in foreign insurgents, foreign terrorists, 
coming in, being suicide bombers. One of the avenues they seem 
to be coming from is Syria. Would an increased coalition 
presence along the Syrian border help stem that tide? What is 
your opinion, General Pace, about that dynamic with Syria?
    General Pace. Sir, more troops along the border could 
possibly help, but that is a very long border. I can't remember 
the exact number, but it's hundreds of miles. What would stop 
the infiltration would be the Syrian Government stopping the 
infiltration that is coming through their country. The main 
route for foreigners coming into Iraq, who are going to kill 
innocent Iraqis and attack our troops, is through Syria. The 
Syrian Government is the one that needs to stop that, sir.
    Senator Graham. Let's follow that thought process through. 
The likelihood of increased violence seems to me to be great, 
because the closer you get to a political solution in Iraq, the 
bigger the nightmare for the terrorists. The constitution is 
being written. Senator Levin is correct that we should push, 
but I don't want to push to the point that we get it wrong. I 
know how hard it is to write a constitution. Read our history. 
It took us awhile to get there.
    The bottom line is, it seems to me that the level of 
violence is likely to go up to destabilize the political 
processes to come. In that regard, my counsel is, if you think, 
at any moment, you need a bigger military footprint to get this 
right, I think you will find a lot of support on the Hill and 
throughout the country, if that is what it takes to get it 
right.
    Now, let's talk about the military and political strategy, 
right quick, the two-pronged strategy. Is this a correct 
assessment, that in training the Iraqi military, here's what 
lies ahead? One, you're trying to create a military loyal to 
civilian elected leadership, with no history of that. That's 
very difficult. Do you agree with that?
    General Pace. Yes, sir.
    Senator Graham. There is virtually no Noncommissioned 
Officer (NCO) Corps in place that buys into that concept. Is 
that accurate?
    General Pace. There was not. Now we are building it. But 
that is right, sir.
    Senator Graham. But that's the backbone of any military, 
and that's going to take awhile.
    General Pace. It will.
    Senator Graham. You get paid, in the Iraqi military, by 
cash, I believe, is that correct?
    General Pace. Yes, sir
    Senator Graham. That means you get your cash, and, if you 
have a family, and they're in some other part of the country, 
you may have to actually leave the unit to pay the bills. 
That's a problem that we're working on, but a problem, is that 
correct?
    General Pace. It has been, yes, sir.
    Senator Graham. The bottom line is, creating a military 
from scratch is a very difficult task. So, I'd just counsel 
patience. To get a police force loyal to the public to protect 
the public's property and interest, and not the dictator, is 
also a difficult task. To get a judge who is not corrupt and is 
loyal to the rule of law is a difficult task in any country, 
and it's very difficult to do while you're being shot at.
    The only comment I would like to make is please don't 
hesitate to tell us how hard this is. Let's not have 
unreasonable expectations of the Iraqi people, because a 1,400-
year religious dispute is pretty hard to settle between now and 
December. The Confederate flag in my State came down only 3 
years ago. It takes awhile to get over things.
    The bottom line is, please don't hesitate, gentlemen, to 
tell us that the enormity of the task that lies ahead is real, 
but the outcome is very important to our national security 
interests. If you need more troops at any stage of the process, 
I think, to get it right, we will answer your call.
    Now, let's talk about the military aspects of that call. 
Recruiting and retention is a separate issue, with separate 
dynamics. The Guard and Reserve make up 40 percent of the force 
in Afghanistan and Iraq. I'm still a reservist, so I hear 
things, just like you hear things.
    There is a proposal before Congress to increase benefits 
for the Guard and Reserve families and members through better 
healthcare. Are you familiar with that proposal to offer to the 
Guard and Reserve TRICARE eligibility, where they will pay a 
premium to be part of TRICARE?
    General Pace. I know of it, sir. I do not know all the 
specifics.
    Senator Graham. I will take some time to brief you, but I 
would encourage each of you to do what we can to improve the 
life of guardsmen and reservists. Here's the dynamic. Most of 
them get a pay cut when they're called to Active-Duty. You know 
that better than I. Twenty percent to 25 percent are ineligible 
to go to the fight because of healthcare problems, because 25 
to 40 percent are uninsured. So, to me, gentlemen, it's 
important, from a readiness and retention point of view, that 
we address the healthcare problems facing the Guard and Reserve 
and their families.
    I would like to talk with each of you about a proposal that 
70 Senators have voted upon in the past, and we will do that 
another day.
    At the end of the day, could you, very briefly, tell us why 
this is not Vietnam, and why it is more like World War II, if 
you believe that to be correct, each of you?
    General Pace. Sir, I think it's neither like Vietnam nor 
like World War II, when it comes to the war, itself. First of 
all, as I believe General Casey mentioned last week, in the 
worst estimate of the size of the enemy, it is no more than 
one-tenth of 1 percent of the Iraqi people.
    Senator Graham. Can I stop you right there? How could 
Zarqawi survive as long as he has without a bigger support 
network than that?
    General Pace. Sir, he is a very flexible, adaptive 
individual. He would need no more than dozens, or hundreds, of 
individuals supporting him. He operates in 4 of the 18 
provinces where we're having the problems. So, it's very 
possible for a individual, or individuals, in rather large 
population centers, to be hidden if they don't want to be 
found.
    This is not ideology-based; this is hatred-based. This is 
an insurgency where the leadership wants to kill Iraqis at 
random to be able to subordinate them to their will so they can 
control them and the rest of the world through what they are 
saying is a religious basis that is nowhere near any teachings 
of the Muslim faith. They do not have an ideology; they do not 
have any hope or promise, other than subjugation of the people. 
They do not have a following. What they have is a desire to 
rule and to recapture what they wrongly took in the first 
place, and want to take again.
    This is not World War II, because this is not nation versus 
nation, for the most part. This is going to be a war on 
terrorism that is going to pit freedom-loving men and women 
against those small cells supported by thieves and others who 
would want to take away the way we live. As you said, sir, this 
is going to be a long, tough fight for the Nation, globally, to 
defend ourselves and our friends, but there is also absolutely 
no doubt that this country and our friends are very capable of 
doing it. It will not be easy, but, if I am confirmed, sir, I 
look forward to having the opportunity to participate.
    Thank you, sir.
    Admiral Giambastiani. Senator Graham, I would heartily 
agree with everything that General Pace has just said. I would 
add a couple of things to that.
    First of all, motivation. I think our troops are very 
motivated. When he said all of these conflicts aren't the same, 
they aren't. But I will tell you, as you can see by our 
commanders who come back, in my experience these are very 
highly motivated U.S. military-members, throughout. Their 
determination, their ``stick-to-it-iveness'' here to this task 
is remarkable. They are really a remarkable fighting force.
    With regard to ideology, I don't know how they appeal, 
other than by threats, intimidation, and the strength of their 
weapons. There are no rules with these people. There are no 
rules. They will kill anyone, they will destroy anything to get 
their way. There are no Marguis of Queensberry rules. There are 
no Geneva Convention rules with these folks. They are very 
nasty individuals. Anything goes with them.
    Thank you, sir.
    General Moseley. Senator Graham, I would echo what both 
General Pace and Admiral Giambastiani just said. I would also 
reinforce the notion that we have a volunteer force, and they 
are the most capable, the most motivated, the best trained, and 
the most lethal men and women that we've fielded, as far as 
soldiers, sailors, airmen, and marines. With this force there, 
our people will do okay against this very adaptive threat.
    Chairman Warner. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I would like to join in expressing my admiration for each 
of you. I've had the opportunity to get to know you, and to see 
you perform, as I've seen other officers in the United States 
military. As I say privately, and I'll say publicly, the 
officers that I see in the United States military are capable 
of running the best corporations in America, being the best 
lawyers, being the best doctors. They are men and women of 
exceedingly great skill and ability. As you indicated, General 
Moseley, they are motivated. They work incredible hours, as I 
know you do--7 days a week, 12 hours a day, 15 hours a day. 
They believe in what they're doing, as do the soldiers that 
work with them. There is a bond in the modern military that is 
unlike what we've seen before, I think. I salute you for having 
helped create that.
    It is different from the thousands of people that were 
brought in through the draft who didn't want to be there, who 
were trained and thrown into situations that they weren't 
motivated effectively for--or many of them. Many were 
motivated. It was a different environment, and we've reached a 
higher level, and I salute you for that. I, again, express my 
admiration for each of you.
    General Pace, I'm a big supporter of transformation. I 
think it's important that we continue it, as Secretary Rumsfeld 
has determined to do, even in the midst of this conflict. I 
know we have visions and goals for transformation of the entire 
military. The Army has its Future Combat System, but I would 
just say, we learn things in the course of this conflict, and 
we see new technologies. Some work and some don't work.
    I guess my question and urging to you is, let's proceed 
with transformation. If something has proven a little 
differently than we thought a few years ago, let's not hesitate 
to come forward to Congress and say, ``Well, we thought that 
might be the best approach, but now we'd like to do another 
approach,'' if it's the best idea. Would you comment on that?
    General Pace. Sir, thank you, I sure will. I absolutely 
agree with you.
    First of all, and fundamentally, if we changed no equipment 
at all and simply pursued a mindset change, we will have 
enormous transformation in the U.S. Armed Forces. We already 
have, in the way we fight. But we can continue to think about 
joint warfighting, and the things that have been working well 
and the things that haven't. What really pleases me about the 
prospect, if confirmed, of Admiral Giambastiani and I working 
together, is the fact that as we got ready to go into this 
conflict, he stood up a team to write down lessons learned. 
That team has been in place, and continues to be in place. They 
went through the planning process. Everything that has happened 
in this war, his folks have captured the major pieces of. So, 
he has already, though Joint Forces Command, been feeding to us 
and the Joint Requirements Oversight Council the types of 
lessons learned that can either get a quick-turn transformation 
or that need to be put into the process of requirements. I'm 
really looking forward to teaming with Ed Giambastiani, if 
we're confirmed.
    Senator Sessions. Thank you for that. I think that is the 
right approach.
    Another matter that I do believe we have to confront is our 
long-term contracting for major weapons systems. The cost seems 
to me to be continuing to rise beyond what is realistic. 
There's been a good bit of discussion in recent months about 
how to improve it. General Moseley mentioned that he thinks you 
need more staff, DOD personnel, uniformed, maybe civilian, to 
deal with the contractors who are producing these products. I 
think Congress will be asking about that, because, as we move 
forward with the weapons systems that are planned, I'm not sure 
we're going to have the money to fund them all.
    Are you prepared, General Pace--and maybe General Moseley 
would comment briefly--to confront some of the tough choices 
that may need to be made and to evaluate our systems as to how 
we monitor contracting today?
    General Pace. Sir, there are a lot of bright folks on both 
sides of the river working the proper changes that may or may 
not be needed to the acquisition process, that would allow us 
to preclude repeating the problems we've had in the past.
    Where I have been able to plug in, under my current 
responsibilities as Vice Chairman, is as the Chairman of Joint 
Requirements Oversight Council. What we've been able to do 
there, sir, is to change our process so that earlier in the 
requirements definition phase, we've been able to begin to feed 
to the acquisition professionals and the acquisition community 
the types of things that we are looking at as capabilities 
needed in the future. So, the acquisition community and the 
requirements community, sooner in the process, are talking to 
each other about the future. But, correctly so, we have 
maintained a boundary between those of us who stipulate what 
the need is and those who determine how to fill that need. I am 
anxious to continue that process, sir.
    Senator Sessions. I think we're going to need progress 
there.
    General Moseley.
    General Moseley. Senator Sessions, thank you.
    If confirmed, I also look forward to working for 
enhancements in the traditional process within acquisition 
reform. I know in the Air Force we've made some mistakes. I 
know that in the Air Force we could have done, and should have 
done, things different. I know that along the way we've taken 
people out of the acquisition professional corps, and for that 
we've paid dearly; in the oversight of requirements, so the 
requirements don't continue to creep; in the oversight of 
standardization configuration, so that does not creep; and in 
the oversight of the entire process, which allows more 
visibility, not only for the Air Force, but for others along 
the way. The traditional process has worked. Our mistake is, 
we've taken people out as we've shrunk the Air Force.
    I'm committed, if confirmed, to be able to work with the 
Committee and with the Department to put people back in for the 
oversight function.
    Senator Sessions. Thank you.
    General Pace, just briefly with regard to the Guard and 
Reserve, as a former reservist, a person who knows a lot of 
guardsmen and women in Alabama who are serving exceedingly 
well--and I understand at one point guardsmen were at 40 
percent of our force in Iraq--what is the policy with regard to 
multiple call-ups of Guard and Reserve serving in Iraq today?
    General Pace. Sir, thanks for the opportunity to agree with 
you wholeheartedly on the tremendous contribution that our 
Guard and Reserve has been making to this war. They are 
fabulous, and they bring unique skills, especially in 
sustainment and stability operations, where you have folks who 
have been in fire departments, and been policemen, and been 
city managers, who bring that unique experience with them to 
help rebuild a country like Iraq.
    The policy, sir, for recall is, first, that no individual 
will have more than 24 months cumulative on Active-Duty, Guard, 
or Reserve. Right now, we're able to stipulate that anyone who 
has already been called to Active-Duty will not be recalled. 
The way we've been able to get there--because we made mistakes 
early on in the way that we mobilized and trained and 
equipped--the reservists we initially sent to Afghanistan and 
that we initially sent to Iraq. In the process of learning 
those mistakes--and I can get into that in detail, if you 
want----
    Senator Sessions. My time has expired.
    Chairman Warner. Thank you, Senator. I would like to have 
you complete that answer for the record.
    [The information referred to follows:]

    In the process of learning from those earlier mistakes, we are 
using our Guard and Reserve servicemembers more effectively. Today, the 
Guard and Reserve make up about 39 percent of our force in Iraq. We 
expect this percentage to decline based on future requirements. Most of 
the multiple call-ups to Iraq you cite are volunteers. Other examples 
of multiple deployments to Iraq are caused by a specific Service's 
rotation policies. For example, the Air Force has established a 120-day 
rotation policy for the majority of its force, including its Reserve 
components. Therefore, it is possible for an airman to serve in Iraq or 
Afghanistan several times in a 24-month period, given the short-term 
rotations of those members. In some cases, we have also had to 
involuntarily remobilize Guard and Reserve personnel because they 
occupy high-demand specialties within the total force. I want to assure 
you that this is the exception and not the rule. The Department has a 
rigorous process in place to ensure the judicious and prudent use of 
its Guard and Reserve servicemembers.

    Chairman Warner. We have another panel to which this 
committee must turn to, so we have to proceed.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Let me just concur in what my colleagues have said, 
relative to the fact that we appreciate the service of you 
three gentlemen to our country, and the President could not 
have made a better choice for the positions for which you have 
been selected to be nominated. Having worked with all three of 
you in your current positions of leadership, as well as 
previously, we look forward to continuing to do so.
    General Pace, we had a hearing, as you well know, last 
week, where we had General Abizaid and General Casey here. As a 
part of that hearing there was a lot of conversation about the 
fact that the war in Iraq may be losing some of its impetus 
back home in some parts of the country. I'll have to say, in my 
part of the world I don't hear that, and I don't think it's 
because we have any greater patriots in Georgia, but we do 
support our men and women. But I will have to say, you folks 
are trained to fight a war, and you train your people to fight 
a war. They do a great job of that. But somehow we need to get 
the message back to the United States about the good things 
that are happening over there. It's pretty easy to understand 
why there can be some doom and gloom if all you're seeing is 
carnage and blown-up vehicles and you have a loss of life, as 
we had last week, of two young men from my State. Folks do get 
a little bit upset when that's all they hear. I don't know just 
how we do that. I have some regular ongoing e-mail 
conversations with some Georgia troops over there who do tell 
me about what's happening, and they're excited about what 
they're seeing, relative to the conversion of the Iraqi people 
and the building of infrastructure, whether it's schools, 
electric power--in one case, one young captain reported 
drilling a well to provide good drinking water for two 
communities for the first time in 30 years. There's a lot of 
good going on. General, I don't know how you do that, but 
certainly it's not coming across on the media that's being 
transmitted from theater back over here.
    General Moseley, in your responses to the committee's 
advance policy questions, you note, ``Our rapid-strike 
capability is challenged by the aging of our legacy aircraft in 
addition to the need for persistent stealth and precision.'' In 
addition, you stated among the top three priorities is the need 
to recapitalize and modernize the force. It's been stated the 
position of the Air Force is, it needs 381 F/A-22s to modernize 
its forces in order to maintain global air superiority. Is your 
assessment of the tactical fighter aircraft requirements of the 
Air Force different from the previous Air Force Chief's? Do you 
foresee the ongoing QDR arriving at a much different conclusion 
from either your current assessment or the stated position of 
the Air Force?
    General Moseley. Sir, let me answer the second part first. 
We don't know what the QDR is going to tell us, because we're 
in the midst of it now with the various Integrated Process 
Teams (IPT) in the discussions. We still believe that we need 
one squadron per Air Expeditionary Force (AEF). That's 240 
combat airplanes. With the training base and with the attrition 
reserve, that's the 381 number that has been stated.
    Sir, the airplane is performing in a magnificent manner, 
and there's no question that it will dominate. The issue that 
we're working with within the QDR is to come to that number. We 
still believe the one squadron per AEF is a reasonable 
position. Certainly as we work our way through this, we will be 
open to dialogue and discussion within the Department and, 
hopefully, come to that answer soon.
    Senator Chambliss. Finally, let me just say that Senator 
Sessions mentioned that acquisition and procurement process and 
our antiquated way in which we do business. I think there are 
certain scenarios, from an acquisition/procurement process, 
that have evolved over the years within the Department of 
Defense. Unfortunately, if I ran my business back home, in my 
business years, like we run some aspects of the Department of 
Defense, we simply wouldn't last very long. We have to do a 
better job of oversight. Senator McCain and I have talked about 
this. As we move forward, once this appropriation process is 
completed, we really need to review that and work very closely 
with you folks to, hopefully, make some very needed changes in 
that regard. So, I'm pleased to hear the response of you folks, 
relative to that.
    Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you very much, Mr. Chairman.
    I want to echo the words of Senator Chambliss. This is a 
huge issue, this whole issue of procurement reform. We're just 
pricing ourselves out of the business, and I think the entire 
committee, under your and Senator Levin's leadership, 
obviously, we are going to be very involved.
    General Moseley, during your term as Vice Chief of the Air 
Force, in your appearance before the House and Senate Armed 
Services Committee, and in over 300 of your e-mails that I've 
reviewed, you clearly advocated for the Boeing 767 tanker lease 
deal. The tanker lease deal. After exhaustive investigations by 
this Committee, the Senate Committee on Commerce, an alphabet 
soup of groups--the GAO, CBO, CRS, DOD IG, etc.--we now know 
that Air Force leadership--and, to some degree, DOD 
leadership--failed. To quote the DOD IG, it failed ``to follow 
acquisition statutes and regulations and ensure good fiduciary 
stewardship of taxpayers' funds.'' In fact, the requirements of 
the operational requirements document (ORD) were tailored to 
the Boeing 767 instead of to the warfighter, overstated the 
effects of corrosion on the KC-135 tanker fleet, and on and on 
and on. If we hadn't stopped it, it would have cost the 
taxpayers an additional $7 billion.
    You zealously pursued the tanker lease deal. What steps 
will you take to ensure that this doesn't happen again, if 
you're confirmed as Chief of Staff of the Air Force?
    General Moseley. Senator McCain, thank you for that 
question. Sir, I believe the traditional process has served us 
well. I believe, in this case, we should have conducted an AOA. 
Out of an analysis of alternatives would have come a wider 
range of discussions about opportunities on existing airplanes 
and new airplanes. I think, putting the uniformed people back 
into the acquisition process in the right places would have 
provided oversight of the process, as well. So, I believe the 
traditional process serves us well.
    Senator McCain. Thank you.
    General Pace, obviously I support your nomination, but I 
must say, I continue to be disappointed at your continued 
belief that somehow there was never needed any additional 
troops, nor is there today. I know you're familiar with General 
McCaffrey, and literally every other retired military officer 
that I know, many of whom served in Iraq, all say that we 
needed additional troops there after the initial success. One 
of the reasons why we're facing the challenge we are today is 
because we didn't have enough troops on the ground.
    Today, you mentioned the Syrian border. We come in, we 
attack, they leave, we leave, they come back. The obvious 
answer to that--as the President so eloquently stated last 
night--is expansion of the Iraqi military's capability to 
handle these responsibilities. In the meantime, we do not have, 
and have not had, enough troops, and we have paid a very heavy 
price.
    General, that's not just my opinion; that's the opinion of 
every respectable retired military officer that I know--maybe 
there are some that don't believe it--and military expert. I'm 
disappointed in your continued comment that you're relying on 
the ``commanders in the field.'' Commanders in the field never 
say they need help, because of the nature of the commanders in 
the field.
    General McCaffrey, I thought, wrote in a piece in the Wall 
Street Journal the best article that I have ever seen, where he 
talks about the success that we've enjoyed, the progress we're 
making, the fact that we are going to prevail over time, and 
that the success of the Iraqi security forces is now real, and 
appearing in great numbers. They have real equipment. We are 
making significant progress. I think he states the case well. 
This will continue to be hard work in Iraq. Progress will be 
nonlinear, as you very appropriately have stated, but he also 
goes on to say, ``We're also in a race against time. The U.S. 
Army and Marines are too undermanned and under-resourced to 
sustain the security policy beyond next fall. They're starting 
to unravel. Congress is in denial, and must act. In addition, 
the American people are losing faith in the statements of our 
Defense Department leadership. The U.S. Army needs to increase 
by 80,000 personnel; and the Marines, by 25,000. In addition, 
serious targeted recruiting, educational, and economic 
incentives are needed to be provided by Congress.''
    I accept the responsibility of Congress and the fact that 
we need to act, Mr. Chairman. But I--particularly in the area 
of recruiting and retention of qualified men and women--I don't 
know how you continue to ignore the views of people like 
General McCaffrey, and a long laundry list of highly respected 
people, when it's clear that we are in a tough situation and we 
need to act. Part of that is supporting a strong armed 
services, as the President did last night, appealing to our 
patriotism, appealing to young Americans to serve their 
country, and how proud we are of them. But to outright deny 
that we didn't need more troops during this period, and we 
don't need them now, I think, is regrettable, and I would like 
to hear your response.
    General Pace. Sir, thank you.
    First of all, I understand exactly what your point is, and 
I appreciate the opportunity to expand on mine. First of all, 
it would be unfair to the commanders in the field for me to 
leave with you the impression that it is their responsibility, 
and solely their responsibility, to determine what the size of 
the force is. What they have done is come to us with 
recommendations. As I hope I have stated, but I will certainly 
state again, as, a single member of the Joint Chiefs, and as a 
body, we have struggled over the proper size of the U.S. Armed 
Forces to be employed. I have made a conscious decision, 
repeatedly, about what I believe to be the correct size of the 
Armed Forces--not oblivious of great Americans like General 
McCaffrey, who have a differing view, but taking that into 
account.
    I have never said that we don't need more totality of 
forces there. In fact, I think in the past, in front of this 
panel, in previous testimonies, I have said, yes, we need a 
larger coalition force, but the answer to that, in Pete Pace's 
opinion, was to bring the Iraqi armed forces on sooner so that 
we could have the totality of forces that you correctly believe 
we need, to get the job done. That, in my mind, is a balance 
between how many U.S. forces are there and how many Iraqi and 
other coalition forces are there.
    So, I don't think there's a major disagreement among 
professionals about how many troops are needed, in totality. I 
do believe there's an honest professional disagreement about 
what number of those should be U.S. troops and what number of 
those should be Iraqi troops, sir.
    Senator McCain. I thank you. My time is expired, but I 
think the question is, How many American troops are needed 
while the Iraqis make this transition?--which we all know is 
the solution to this war, and on which we are making progress, 
as the President pointed out last night--I think, in an 
outstanding presentation. But I worry, and I hope you will pay 
attention to General McCaffrey, and others who are retired 
military officers, as well as outside experts, on this issue.
    I thank the chairman, and I thank you, and I look forward 
to working with the three of you in the future.
    Thank you.
    Chairman Warner. Thank you, Senator McCain.
    Senator Levin and I, in consultation here, are of the view 
that we complete the round here with Senator Nelson and then 
Senator Thune, and then we will proceed to the second panel.
    I will ask, prior to moving to the second panel, for 
General Pace to give us a situation report on Afghanistan--we 
suffered a tragic loss there--and your professional assessment 
of that overall situation, and such details as you might be 
able to provide about that loss.
    Senator Levin. Mr. Chairman, in addition, we both talked 
about questions for the record being promptly answered, so we 
could move on to the vote on these nominations. There will be 
questions for the record.
    Senator Dayton has already mentioned one very important 
one, but there will be others that need to be promptly 
answered.
    Chairman Warner. That is correct. We urge Senators to 
submit their questions.
    Now, on a separate matter here, Senator McCain, I, and 
other members of the committee have discussed at great length 
that the committee, as well as the American public, deserve 
additional information regarding the status of the training of 
the Iraqi forces. Congress has virtually given the Department 
of Defense unlimited funds to proceed with that very important 
challenge essential to any strategy we have in the future, 
essential to any contemplation of that point at which our force 
level, and the coalition, can be reduced.
    In an earlier hearing of this committee, there was concern 
on behalf of the witnesses as to the classification of the 
data, as to exactly what units are ready, or what percentage of 
the forces are ready to take on independent combat activities, 
what percentage are able to take on parallel activities, 
working alongside U.S. units, and what units will require 
embedded U.S. forces. I would like to ask you, General, to 
review these questions of the previous hearing, and this 
hearing, and to come back and report to this Committee as to 
your assessment of what can be declassified, so that we have a 
better understanding of the status today and in the immediate 
future of the Iraqi forces.
    Do you wish to add anything to that, Senator McCain?
    Senator McCain. No, thank you, Mr. Chairman. You've 
articulated it. I think we need to know, the American people 
need to know, the status of readiness of the Iraqi military, 
which is improving, so that we can not only understand, but 
appreciate better, the roles and missions that they're capable 
of carrying out.
    I thank you, Mr. Chairman.
    Chairman Warner. I think in our discussion we pointed out 
the status of our own forces as a matter of public record.
    General Pace. Mr. Chairman, in the advance questions the 
panel did ask me for the response to that. I did submit a 
classified part of the advance question. I answered that to my 
complete ability, in a classified way. I will go back and see 
what could be declassified for common discussion, but I have 
answered the question, sir.
    Chairman Warner. I was aware of the classified response, 
but I think it is essential--the status of our own Armed Forces 
is not a subject of that high a classification.
    Senator Levin. Excuse me, if I could just ask that your 
unclassified answer be made a part of the record of this 
proceeding--in other words, be answered promptly, along with 
our other questions--because there has been so much interest in 
that issue. There have been leaks to the press that there are 2 
or 3 of their battalions that are capable of operating 
independently, out of a total of 80. We should have an 
unclassified number, to the extent you can give it to us as a 
part of this record.
    General Pace. I understand, sir.
    [The information referred to follows:]

    Only a small number of Iraqi security forces are taking on the 
insurgents and terrorists by themselves. Approximately one-third of 
their army battalions are capable of planning, executing, and 
sustaining counterinsurgency operations with coalition support. 
Approximately two-thirds of their army battalions and one-half of their 
police battalions are partially capable of conducting counterinsurgency 
operations in conjunction with coalition units. Approximately one-half 
of their police battalions are forming and not yet capable of 
conducting operations. The majority of Iraqi security forces are 
engaged in operations against the insurgency with varying degrees of 
cooperation and support from coalition forces. Many of these units have 
performed superbly in conducting operations against the enemy, and 
their operational capability is continuing to improve. I have provided 
a classified graphic of this data in my responses to advance questions.

    Chairman Warner. Thank you very much, Senator Levin.
    Senator Nelson, to be followed by Senator Thune.
    Senator Bill Nelson. Mr. Chairman, would it be your 
pleasure that you would want the General to answer your 
question with regard to the status of Afghanistan?
    Chairman Warner. I think we will do that as a final wrap-up 
question on behalf of the whole committee.
    Senator Bill Nelson. At your pleasure, Mr. Chairman.
    Gentlemen, good morning. It was clearly my privilege to 
introduce General Pace.
    I want to come back to this part of the world and make the 
three of you aware of a battle that I had to engage in, on the 
floor of the Senate over the course of the last 2 weeks to 
protect a national resource which is of considerable interest 
to the three of you, which is restricted airspace over the Gulf 
of Mexico, off of the State of Florida.
    I think, in this round of base realignment and closure 
(BRAC), it is no accident that we see not only the continuation 
of the military training for the new F-22 at Tyndall Air Force 
Base, that in this round of BRAC we see the consolidation of 
the military training for the pilots on the Joint Strike 
Fighter, the F-35, will be at Eglin Air Force Base, because 
they are co-located with all of that restricted airspace. 
Indeed, with the closure of Vieques, Puerto Rico, as the 
Atlantic fleet training site for the United States Navy, a lot 
of that training has moved to the State of Florida, a good part 
of that to the Panhandle of Florida, to utilize this national 
asset of restricted airspace. If you look at a map, you will 
see that the military restricted airspace is basically all of 
the Gulf of Mexico off of the State of Florida.
    [The map referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Now, the battle that I had to wage was that the oil 
interests of this country want to drill. From my standpoint, 
representing the State of Florida, we have other reasons that 
we don't want drilling off of our coast, but, clearly, one of 
the arguments that I used was the argument that we don't want 
to interfere with this national asset, particularly when you 
come in and have all of these joint exercises. Now, it's true, 
the carriers will come on either coast of Florida, and they 
will use Avon Park bombing range, and Pine Castle, but with 
computers you can create virtual land masses out on the surface 
of the Gulf of Mexico, and you have that ability.
    Fortunately, Senator Martinez and I were successful over 
the course of the last 2 weeks, but this battle isn't over. 
It's going to continue. I had to carry this battle in the 
1980s, when I was a pup Congressman representing the east coast 
of Florida, and finally convinced the forces that you can't 
have oil rigs where you're dropping the solid rocket boosters 
from the Space Shuttle, and where you're dropping the first 
stages of expendable booster rockets coming out of the Cape 
Canaveral Air Force Station. But we have a battle now right in 
the middle of your restricted airspace.
    If this has not come to your attention, I want to bring it 
to your attention, and I would like to know what you think 
about protecting this resource for weapons testing and combat 
training and preventing the encroachment by oil exploration and 
drilling.
    General Pace. If I may start, sir, and then perhaps General 
Moseley and Admiral Giambastiani.
    First, sir, if I could take just a second to say thank you 
for the great honor you did me of introducing me today. I very 
much appreciate your words, sir.
    Second, sir, I do not know the specifics of the restricted 
airspace in Florida. If I may, I would pass to my Air Force 
colleague.
    General Moseley. Senator, thank you for the opportunity to 
reinforce the notion of how critical airspace is to train, 
especially now, for the joint team, when you think about the 
airspace from Pensacola to Panama City. Those areas are called 
warning areas and restricted areas--151, 155, and 470 are the 
ones that we're talking about off the Panhandle. Tyndall is 
where we have the F-22 school. That's where we have the F-15 
school. Eglin is where we do our tests. We have the 33rd 
Fighter Wing there, which is an F-15 operational unit. The Navy 
has a large flying operation at Pensacola. In the BRAC 
submission, we have also proposed that we consolidate the Joint 
Strike Fighter training for all of us at Eglin--Air Force, 
Navy, Marine Corps, and coalition, at that one location.
    Sir, the airspace that we require out there is only getting 
bigger, because the aircraft have more capable sensors, they 
see further, and they fly faster. The opportunity to do this in 
a joint and coalition setting is equally critical for us. To be 
able to partner with naval battle groups and with Marine Corps 
amphibious groups as they do what they used to do at the other 
places are even more critical for us when you think about the 
operations that are ongoing now in Afghanistan and Iraq. 
There's nothing that we do as a single Service; we do this in 
complete interdependence with each other. Training ranges, 
whether they are over land or over water, and training 
airspace, is absolutely, fundamentally critical to the 
preparation for combat and the things that we do every day.
    Senator Bill Nelson. Admiral, I wish you would comment with 
regard to the United States Navy, and especially with the 
movement since you've had to pull out of Vieques and all of 
that training that has taken place up there.
    Admiral Giambastiani. If I could, Senator, just add to the 
comments of General Pace and General Moseley.
    First of all, in the record already, in the advance 
questions, I have talked about problems with encroachment on 
training ranges. I received this in a question about base 
realignment and closure. Training ranges, in general, did well 
with regard to the BRAC process, however, encroachment is a 
significant problem, and continued encroachment is even more of 
a problem.
    With regard to Vieques and its closure, much of what we 
could do, airspace-wise, was moved to South Florida for 
compensation, if you will, for the loss of airspace that we had 
in the Vieques area and in the Puerto Rican area. So, this is a 
key area for us.
    Number two, the joint national training capability, where 
we net significant numbers of ranges together, requires places 
to be able to conduct cruise-missile flights, both unmanned and 
manned aircraft are required. So, I would just say to you that 
restricted airspace significantly reduces the realism and the 
capability for our combat forces to practice and exercise prior 
to their deployment for use, such as we have going on worldwide 
right now.
    Senator Bill Nelson. Gentlemen, I tried to fight your 
battle last week. We won it, but this crowd doesn't let up. I 
had a bitter experience in the mid-1980s under one Secretary of 
the Interior, and we finally fought it back. They came back 2 
years later, after another Secretary of the Interior, 
absolutely intent to drill off the east cast of Florida. I 
never could get the Department of Defense and NASA to step up 
and say what was the reasons for not drilling, because it was a 
buddy-buddy club, and they were going to drill out there. I'm 
hoping that you all, in light of what you have just said, are 
going to stick up for your point of view about the lack of 
encroachment upon this valuable national asset called 
restricted airspace.
    Thank you, Mr. Chairman.
    Chairman Warner. I thank you, Senator. I was on the other 
side of that issue with you, not in any way trying to encroach 
on the needs of our U.S. military. We have to strike a balance 
between the energy needs of this country, with oil going above 
$60 a barrel, to make an assessment of what might be available 
offshore the United States, wherever it may be. You can put 
Florida in isolation, if you wish. I won't touch it, but 
there's the rest of the 49 States that are deeply concerned 
about this energy crisis that we're facing. If there were the 
opportunity to put a natural-gas drilling operation off some 
State, I'm certain that the Department of Defense would be able 
to have its voice heard if, in any way, that would jeopardize 
or impair training of our forces. It's a balance of interests, 
and this country, I think, regrettably, in the near future, is 
going to have to make some very difficult decisions about where 
it's going to go for its energy resources.
    Now, Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, General, Admiral, thank you. I will associate 
myself with much of what has been said earlier, and thank you 
for your extraordinary service to our country and for your 
willingness to re-up to an even higher level of service that 
will require you probably to spend more time in front of 
congressional committees. That is going to be a big part of 
your job description, going forward. It may shock you all that 
I'm not going to force you to answer questions about BRAC, 
although I will be following up on that in later forums, but I 
do want to ask a couple of questions.
    There's been a lot of concern expressed by folks in the 
military and at the Department of Defense about the military 
buildup in China. I suppose I would direct this question more 
specifically to General Moseley. With the end of the Cold War, 
the Soviet Union obviously having a dramatic effect on our 
force planning and realignments for the 21st century, and 
acknowledging that DOD is still working on the QDR and the 
mobility capability study, do you think that we may have scaled 
back too much our projected needs and planning for long-range 
strike capabilities, in light of that growing military--or I 
guess I should say, in light of growing military powers like 
China?
    General Moseley. Senator, thank you for that question. That 
is a topic of much discussion and much dialogue within the QDR 
that is ongoing now. As a member of one of the Op ETs, that is 
certainly one of the things that we are struggling with inside 
the QDR. There is nothing that has changed the requirement for 
range, persistence, survivability, and payload in any of the 
equations, regardless of the region. The enhancements that we 
see in the Chinese military does cause concern. In fact, 
General Hester, I believe, last week, in a press conference, 
laid that out very well. He's the Commander of our Pacific Air 
Forces.
    Sir, that question is being discussed at some depth inside 
the QDR. It is a troublesome question of how much strike do you 
need, relative to the other mission areas that we are engaged 
with. Sir, I can tell you, if confirmed as the Chief of Staff 
of the Air Force, that is at the top of my list, relative to 
long-range strike and the ability to provide that capability 
for this country.
    Senator Thune. I appreciate that. I know that one of your 
priorities is recapitalizing our aging fleet. That's something, 
I think, that all of us here are very interested in as well. It 
ties into a discussion that was held earlier with respect to 
acquisition and cost. I look forward to working with you to 
ensure that we are taking those steps that are necessary to get 
that per-unit cost down. I think that's a growing concern, in 
terms of the platforms and the needs that we're going to have, 
going forward. This is particularly so in light of some of 
those emerging threats and the 10- to 20-year window that, 
hopefully, this QDR is going to make some judgments about.
    Let me also follow up on one other point that was raised, 
and that has to do with the National Guard. That has been 
addressed at some length here, but in my home State of South 
Dakota, we have had a lot of deployments. We have a high 
proportion of people per capita involved in the Guard, and we 
have excellent Guard units with excellent reputations, and 
you've all noted, already, the enormous role, the important 
role, that they have played in the war on terror. I've heard 
the Secretary talk about rebalancing the Active-Duty and the 
Guard and Reserve and the various roles they play. Rebalancing 
the skill sets is going to be necessary. In light of what's 
happening--and I don't want to focus this exclusively on the 
Air Force--but how does that process, as it goes forward--and I 
refer to the question that was raised earlier about the effects 
of deployments--and, clearly, there have been a lot of Guard 
units that have been deployed, and there are some which are now 
getting ready for another deployment, tie-in to recruitment, 
tie-in to retention, and people willing to extend their service 
and keeping involved in the Guard. How do you see the role of 
the Guard playing as we go forward? Perhaps you can shed a 
little bit of light on just the stresses and strains that are 
associated with the level of deployments that they're 
experiencing today.
    General Moseley. Senator, the Air Force--and I, 
particularly--look at ourselves as a total force. We don't look 
at ourselves as an Active Force and a Reserve Component. We 
look at ourselves as a Guard, Air Force Reserve, and Active 
mix. Every member, whether a guardsman or a reservist or active 
or civilian, is a treasured member of the Air Force. So, as we 
look at reshaping and rebalancing the force to fight not only a 
global war on terrorism, but also to cover contingencies in the 
future as they emerge, there are some mission areas that we can 
do better at. For instance, the C-130 world has been 
particularly stressed inside the Guard, because the aircraft 
that are in the Guard are the newest, most-capable aircraft. We 
keep those forward.
    Over the last month or so, we have looked at ways to fly 
more of General John Abizaid's and General George Casey's 
materials to get them off of highways so we can get them away 
from IEDs and potential threats, which has increased the 
requirement for C-130s to do intratheater lift. That's the 
right thing to do for the joint team. We have looked at 
positioning the aircraft forward and rotating the crews--both 
Reserve, Guard, and Active--to keep the aircraft forward, but 
not disadvantaging a particularly high-stressed group of 
people--in this case, the Guard.
    So, sir, the new missions out there, of command-and-
control, air operations centers, and space operations, and the 
new aircraft, are extremely critical for us in this Reserve, 
Guard, and Active mix. In fact, today, there are guardsmen 
flying the F-22 who will operate in an associate arrangement at 
Langley with the 1st Wing.
    Senator, we take this very seriously, this partnership and 
this holistic approach to how we do business.
    Senator Thune. Thank you.
    General Pace, anything to add, in terms of the Army Guard?
    General Pace. Sir, thanks. The Army, especially, has been 
paying attention to this very closely for about the last 2 
years, to include General Schoomaker's decision to convert 
about 100,000 billets, that are either Active or Reserve right 
now, into the other components. For example, we needed more 
military police (MPs). One of the reasons we've had as much as 
38-40 percent of the forces on the ground being Guard or 
Reserve is because that's where the bulk of our sustainment, 
our mechanics, our MPs, and the like, have been. So, not 
``looking at,'' but changing the mix of the way that we have 
our Guard, Reserve, and Active Force components right now--and, 
additionally, going out far enough so that if we know we're 
going to need to use reservists a year from now, potentially, 
letting them know right now. That way we can take reservists, 
who perhaps are artilleryman right now in the Reserves, and 
give them the training they need to be MPs. When they're called 
to Active-Duty, instead of going back repeatedly to the Guard 
MPs, we have been able to expand our access to the Guard.
    Primarily, getting a better mix of Active/Reserve, but also 
providing long enough lead times so we can train up our 
reservists in time to take the mission is key.
    Senator Thune. I appreciate that. Anything you can do, I 
would think, to add predictability for these folks would help. 
We have had, I think, extraordinary success in South Dakota, in 
terms of retention, to date, in Army and Air Guard units, but I 
see the stresses and strains on the members, themselves, and 
their families. Part of it is just the uncertainty and not 
knowing when you're going to be called up.
    Admiral Giambastiani. Senator, I might add one piece of 
information for you.
    Back in March 2003, when we would mobilize a reservist, for 
example, who was in what we would call in combat service-
support areas, we probably gave on average, only had about 2 
months' notice. Today, we're out to 8 months of notice. This is 
the lead time that General Pace is talking about. With regard 
to combat forces, we were about 4 months ahead of time; and now 
we're out to 12 months. This is a significant difference that 
affects both Active component and Reserve component, Guard and 
Reserve.
    Senator Thune. Thank you, sir. Thank you, gentlemen, for 
your testimony. I look forward to working with you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Thune. We will see that 
our witnesses respond to your questions on BRAC. I fully 
appreciate the severity of the BRAC situation as it relates to 
your distinguished state, and how hard you've worked on that 
issue. Thank you.
    Now, General Pace, on the subject of Afghanistan, we will 
not proceed with questions on that, which we will be submitting 
for the record, but it is important here this morning that you 
review that area of responsibility (AOR). It has progressed 
exceedingly well. We would like to have your professional 
assessment of the situation today that's facing the forces, and 
the immediate future.
    General Pace. Senator, thank you.
    First of all, as you mentioned, the tragedy of yesterday 
and what appears to be a shoot-down of one of our Special 
Operations helicopters, that included some very special folks 
who were on a mission for this country. That's under 
investigation. We think it was a rocket-propelled grenade, sir, 
but are not 100 percent sure. That will come out in time, as 
we're able to get to the scene and do the investigation 
required. Our hearts go out to their families.
    I'm very optimistic about Afghanistan, but I also know 
there are challenges ahead.
    First, the reasons for optimism. When you go to Kabul, 
there are traffic jams; there's glass in all the windows; there 
are cranes putting up new buildings; they're fixing the 
potholes in the roads; there are kids, boys and girls, going to 
school; and they're proud of having voted. The people are 
voting with their pocketbooks, as well as their real vote. The 
population, in my mind, is extremely proud of what they have 
done, and extremely proud of where they're going.
    In the countryside, the Provisional Reconstruction Teams, 
which were at about 6 or 7 this time last year, are up above 20 
this year. These are teams of 80 to 100 who are around the 
country helping with the reconstruction, helping the governors 
and the local leaders in those regions to rebuild their areas.
    NATO's vote to expand what they are doing from the original 
force that was in Kabul to sector one, which is the northern 
part, and sector two, which they've just taken over, which is 
the western part, with a plan next year, once the United 
Kingdom (U.K.) takes command, and with Canadian help, to take 
over the southern part, and then eventually the center part----
    Chairman Warner. That would be sector three?
    General Pace. Sector three would be the southern part. 
Sector four would be the central part. So that over the next 
year or so--2 years, probably, sir--you will have more and more 
turnover of the day-to-day activities of helping the Afghan 
Government provide security for its citizens, being NATO-led--
which, of course, includes U.S.--rather than a purely U.S.-led 
effort in most of the countryside.
    Chairman Warner. U.S. would principally be in sector four, 
would that be correct?
    General Pace. We would be a part of a NATO force in all 
sectors, sir, but we would still primarily be in sector four, 
which includes the border between Pakistan and Afghanistan, and 
which includes most of the fighting that must continue against 
the insurgents who use that border area as an area for safety.
    The elections are coming up on September 18, an election 
that will see 3,000-plus Afghan individuals standing up for 
elections to include women.
    All of those things are very positive.
    Two things of concern, sir. One is the drug trade. Heroin 
is easily grown. Poppies are easily grown. The opportunity, 
because of the enormous impact of the heroin trade on the 
economy, about 50 percent of the current economy is from the 
drug trade. The opportunity for corruption that that breeds is 
a challenge for the Afghan Government in the future.
    Also a challenge is the Taliban, who suffered a severe blow 
during the last election and know that the next blow to them is 
coming on September 18, when the Afghans vote again. We are 
probably going to see an increased attempt on the part of the 
Taliban to create havoc, cause death and destruction, between 
now and September 18. But they will not be able to dissuade the 
Afghan people from voting and bringing into existence a 
parliament-type organization that will be the first of its kind 
in the 5,000 years of Afghan history, sir.
    Chairman Warner. Isn't there a third concern though, 
General? I've been studying, with other members of the 
committee, the increased use of the IEDs--that is, the road 
bombs--and also the incorporation of what appears to be some 
advanced technology in their methodology of using those very 
destructive weapons, which are primarily targeting vehicle 
traffic.
    General Pace. That is a concern, yes, sir.
    Chairman Warner. I hope that everything can be brought to 
bear by the various task forces in the Department of Defense on 
IEDs and is fully shared in that AOR. Am I assured of that?
    General Pace. Yes, sir. It has been, and will continue to 
be. In fact, not only are we sharing the technology-type 
information, the ground tactics, techniques, and procedures, 
but also the training lessons we've learned with General 
Petreaus, visiting with General Eikenberry, to ensure that the 
lessons we're learning in training both of those armies are 
shared with each other.
    Chairman Warner. Fine, thank you.
    That will conclude the committee's hearing on panel one. We 
will take just a few-minute recess and proceed to panel two. 
[Recess.]
    We welcome the nominees and their families, and I think, 
before we start with the introductions, I would like to ask 
Ambassador Edelman to introduce his family.
    Ambassador Edelman. Thank you very much, Senator. I have 
behind me, my wife Trish, who is both the daughter and mother 
of a Foreign Service family. Also here is my daughter 
Stephanie, my son Terrence, and my son Bob. My son, Alex, was 
not able to make it today, but I hope he is watching, and my 
folks, my mom and dad, I hope are watching in Shelburne, 
Vermont.
    Chairman Warner. Well, thank you very much, and I had the 
privilege of meeting your family, and advising your wife that, 
based on my own experience of over 5 years in the building, 
there's no reason why you can't get home promptly at 7, because 
all decisions made after 7 are usually reversed the following 
morning. [Laughter.]
    Would you kindly bear that in mind as you undertake this 
responsibility.
    Now, Mr. Stanley, if you would introduce your family.
    Mr. Stanley. Thank you, Mr. Chairman, I would like to 
introduce my wife Kay, my partner, defender, friend, and when 
necessary, therapist. My brother Scott, who mentored me as only 
a loving brother can. My daughter Beth, and my three 
grandchildren, Nick, Jack, and Grace, were unable to make it 
today because of an illness in the family. A special salute to 
Second Lieutenant Daniel R. Stanley, Junior, United States 
Army, who is training currently at Fort Leonard Wood, and will 
be graduating in July, will be married, and then will go up on 
deployment. My mother, 86 years, could not be here today, 
because she is celebrating the birthday of her mother, and my 
grandmother, at 106. She is in Sacramento, and so she chose 
that event.
    Chairman Warner. We'd better pause again to take this all 
in--go over that again, she's 86, celebrating the birthday of 
her mother, who's 106?
    Mr. Stanley. Yes, sir. She still requires that I give her 
strokes in golf, and beats me scratch. [Laughter.]
    Senator Levin. Which one, the grandmother, or the great-
grandmother? [Laughter.]
    Mr. Stanley. I would be embarrassed to tell you which one. 
[Laughter.]
    Chairman Warner. Well, that's a wonderful story. When I was 
in the Department, my mother was in her 80s and she lived to be 
96, so I wish you well. Thank you very much. Families are an 
important part of military life, and you're undertaking 
assignments to work alongside the men and women in uniform. 
Your families are no less important than our affairs, and this 
committee in every way tries to accommodate the families and to 
express our profound gratitude for their sacrifices that they 
must make, particularly the long hours you will encounter in 
these troubled times in our Department of Defense.
    Mr. Rispoli, you've been so quiet. Would you kindly 
introduce your family?
    Mr. Rispoli. Thank you, Mr. Chairman, I have with me today 
my wife of 36 years this month, Carol, behind me, and 
together--she's the only family member who could be here 
today--we have two children, our daughter, Christina, is 
married and lives in Raleigh, North Carolina, with an infant. 
She could not be here. She is a University of Virginia 
graduate, I will tell you, in Engineering. Our son Joey, who is 
to be married to his fiance, Mandy, in Austin, Texas, in 2 
weeks, and so obviously they have other things going right now. 
I hope that they, along with my sister and her family in 
Arizona, are also watching the proceedings. Thank you for the 
opportunity to introduce them.
    Chairman Warner. Thank you very much. Delighted to have you 
and your family here today and I so enjoyed our visits 
yesterday in my office. I was very impressed with the 
credentials that you bring to this important post.
    Now the Chair recognizes the distinguished chairman of the 
Intelligence Committee, and longtime member of this committee, 
for the purpose of two introductions.
    Senator Roberts. Mr. Chairman, I do have a statement of 
support for Dan Stanley as a personal friend. I might add it's 
the water, the genes, and the clean living in Kansas that leads 
to longevity, sir, but I would prefer to yield to another 
witness. In Kansas, about a decade or so ago, we declared our 
former President, Dwight David Eisenhower, the Kansan of the 
Century. Well, if we really look at that, and given that, 
that's certainly true. The next witness, Senator Bob Dole, is 
our Kansan of the last half century, at least. His leadership 
and his contributions on behalf of our State and our Nation, we 
certainly know and they're well-known, I think, to every 
American, more especially our veterans, and rightfully 
appreciated. I yield to my friend, my colleague, my mentor, my 
``God--uncle'' to my public service when I used to be somebody, 
Mr. Chairman, in the House of Representatives. That was because 
when I said something, or I was for something, or introduced an 
amendment, or if I opposed something, people automatically 
thought that I was walking in step with Bob Dole, and that gave 
me a big catalyst of support. I never told them that most of 
the time I never talked to Bob about those things, but at any 
rate, we always seemed to think alike. He has been a great 
friend, and I would like to yield to him at this particular 
time. Bob?
    Chairman Warner. Thank you very much, Senator. I would like 
to associate myself with some of the remarks--not necessarily 
the latter part--of Senator Roberts. I say to you, dear friend, 
Senator Levin and I are celebrating our 27th year as members of 
the United States Senate, and I calculated the other day that 
we have served with 241 Senators in that period of time. Not 
one of those in any way surpasses the extraordinary 
contribution that I and others witnessed that you made to this 
Nation through your service to the Senate, and of course, prior 
thereto, to the Armed Forces of the United States. I owe a 
great deal to whatever modest career I've been able to achieve, 
to the guidance you have given me through these many years. I 
particularly cherish the last chapter that we worked together 
on, and that was that World War II Memorial. You certainly 
showed your respect for what is referred to as The Greatest 
Generation, and I congratulate you, Sir.
    Senator Levin. I would like to join in a quick welcome, 
Bob, just to make sure that everyone understands just what a 
love affair both parties have had with you inside the U.S. 
Senate. Members of this body on both sides of the aisle have 
extraordinary respect and fond memories of your being here, and 
still do your work today. We had the pleasure of naming a 
building in Michigan after the late Phil Hart, who represented 
Michigan, Danny Inouye, who still represents Hawaii, and Bob 
Dole. The three of them spent a very memorable part of their 
heroic lives in the hospital in Michigan, and got to know each 
other. We, several years ago, had the pleasure of having Bob 
Dole there, with Danny Inouye when we named that Federal Center 
after the three of them. It's a real honor in Michigan to have 
your name on that building.

  STATEMENT OF HON. ROBERT DOLE, FORMER UNITED STATES SENATOR 
                    FROM THE STATE OF KANSAS

    Senator Dole. I appreciate the comments by my former 
colleagues, and I'm very honored to be here, because I know the 
gentleman on my left, Dan Stanley, very well. I see so many of 
my friends, I note the absence of the Senator from North 
Carolina, by the way. [Laughter.]
    Chairman Warner. She is accounted for, though.
    Senator Dole. I know she's here in spirit. I used to be 
here in spirit myself. [Laughter.]
    Senator Dole. In any event, these are critical times for 
America, and as a Republican leader throughout the Cold War, 
and the first Gulf War, and the defeat of the Soviet Union, I 
had the privilege to work with this committee to stand strong 
for America. As I reflect on those times, I know we did 
everything we could do together to ensure that America's 
fighting men and women had what was necessary, both in 
equipment and unity, to stand up to the threats against our 
country. We stood behind them and in support of them for the 
great sacrifice that America asks of them, even though 
individually, we didn't always agree on how best to achieve 
that important task. We had some pretty heated debates, as I 
remember.
    When the time for persuasion had passed, and the votes were 
cast, we stood as one to defend our mutual decisions and our 
country. I mention this only to sort of introduce Dan Stanley, 
who served on my staff during some of the fiercest and most 
important of those debates. Dan Stanley, who is before this 
committee as the President's nominee for Assistant Secretary of 
Defense for Legislative Affairs. There's always a tension 
between the executive and legislative branch in Congress. It's 
a very tough job, and because they believed our mutual love for 
our country would ensure sufficient civility to overcome 
divergent interests and political dyspepsia, our Founding 
Fathers sort of set it up that way.
    Without getting into Dan Stanley's resume, which I'm 
certain is a part of the record, and which I know Senator 
Roberts will comment on, I just know Dan Stanley as somebody 
who gets things done. When the Governor of Kansas needed 
something, he called Dan Stanley to come out and help him. When 
the people of Topeka wanted something done, they elected him to 
the City Council, even though he was serving in the Governor's 
cabinet, and Secretary Rumsfeld called upon him with the 
important task of transforming the Army. Now he's been called 
upon again by the President to do a very important job, and I 
can't think of a more important job than the job he's going to 
have. I think it is fair to say we're all very proud of our 
States. We all can point to things in Michigan, or Virginia, or 
North Carolina, or Kansas that we're particularly proud of, and 
we're obviously proud of our State--there's not a lot that 
comes very easy in Kansas, as Pat knows, and as Dan has found 
out in his life, but we are good people, solid people, and 
patriotic people, and if the job requires starting at the 
bottom to get it done, that's where we start.
    Dan enlisted in the Navy and served aboard submarines 
during the Cold War because he wanted to do his part. He rose 
from Seaman Recruit to Chief Petty Officer, then through the 
commissioned officer ranks and served with the Joint Chiefs of 
Staff. He has served me in the Senate, and again, during 
perilous times, without showboating, because that is who he is. 
That's how I'll close my statement, and ask that it all be made 
a part of the record.
    [The information referred to follows:]

                 Prepared Statement by Senator Bob Dole

    Mr. Chairman, members of the committee:
    It is good to be here today and see so many friends and former 
colleagues. Two things I note are still true since last I saw you: 1) 
In my eyes none of us looks a day older, and 2) these are critical 
times for America. As the Republican leader and throughout the Cold 
War, the first Gulf War, and the defeat the Soviet Union, I had the 
privilege to work with this committee to stand strong for America. As I 
reflect on those times I know we did every thing we could do together, 
to ensure that America's fighting men and women had what was 
necessary--both in equipment and unity--to stand up to the threats 
against our country. We stood behind them and supported them for the 
great sacrifice that America asked of them. Individually we did not 
always agree on how best to achieve that important task--and we had 
some pretty heated debates. But, when the time for persuasion had 
passed and votes were cast, we stood as one to defend our mutual 
decisions and our country. I mention those days as I introduce a man 
who served on my staff during some of the fiercest and most important 
of those debates, Dan Stanley, who is before this committee as the 
President's nominee for Assistant Secretary of Defense for Legislative 
Affairs.
    There is always a natural tension between the executive branch and 
Congress. This is a very tough job. Because they believed our mutual 
love for our country would assure sufficient civility to overcome 
divergent interests and political dyspepsia, our Founding Fathers set 
it up that way.
    In that context let me say this about Dan. If you know him as I 
have, if you look at his resume, if you talk to people who have worked 
with him and those whom he has mentored and led, you will understand 
what I know. It is this: when there is a tough job to do, Dan Stanley 
is the person they call. I did. The Governor of Kansas did when he 
needed a tough job done. The people of Topeka did when they wanted a 
change and elected him to the city council even as he still served in 
the cabinet. Secretary Rumsfeld called upon him to help with the 
important task of transforming the Army. Now in a time of acrimony and 
danger the President has called upon him once again.
    From the beginning, Kansans have understood the sacrifice of 
service. There isn't much that comes easy in Kansas. We like to think 
we earn whatever we get, and we believe that it takes character to 
outlive drought and dust and the hard times that make our State's 
sunflower a metaphor for gritty optimism. If the job requires starting 
at the bottom to get it done, that's where we start. We just do it. Dan 
enlisted in the Navy and served aboard submarines during the Cold War 
because he wanted to do his part. He rose from seaman recruit to chief 
petty officer, then through the commissioned ranks to serve with the 
Joint Chiefs of Staff. He served me and the Senate, again during 
perilous times and without showboating, because that is who he is.
    Let me say one thing more about Dan. He always has dealt with 
people in the most civil, honest, and respectful manner--Republican or 
Democrat, liberal or conservative. In my view, that is how the American 
people want business conducted in Congress. Dan understands that. The 
American people want that. I worry sometimes that this great body has 
lost its balance--sense of civility and understanding that our greatest 
purpose is far more important than partisanship. One thing I can assure 
you is that if you confirm Dan Stanley to this position, Congress will 
have someone who will work tirelessly to bridge what has seemed a 
growing gap not only between the branches of government, but between 
ourselves as decent and fair-minded men and women who put the country 
first. He is a Kansan, so you might find that like mine his humor is a 
little dry. But he is a good man and he will tell you the truth and 
keep his word. He has ably served the U.S. military and the U.S. Senate 
and understands and respects both. This above all: he comes here 
because, like all the rest of us, he loves America more.

    Senator Dole. This job requires a sense of civility and 
understanding, but a great purpose is far more important than 
partisanship, and one thing I can assure you is if you confirm 
Dan Stanley to this position, Congress will have someone who 
will work tirelessly to bridge what has been the growing gap, 
not only between branches of government, but between ourselves 
as fair-minded men and women. I know Dan. I know how he has 
treated people in the past. I've never had a complaint when Dan 
was in my office from anybody in either party saying that he 
had not kept his word, or not dealt fairly with them, whether 
it came as some amendment or something else, some policy 
discussion. Dan is a good man, and he will tell you the truth 
and keep his word, and that's about all you're going to get out 
of Dan Stanley. He doesn't talk a lot, he's laid back, but he's 
fair, he's objective, he's a good man, and I certainly am proud 
to be here this morning to recommend his confirmation. Thank 
you.
    Chairman Warner. Senator, all of us are moved by the 
sincerity and depth of feeling that you've provided in your 
remarks, and we once again thank you for your service. I have 
to pause a minute, because I knew he was in the Navy and we 
talked about that--electrician was his grade--but I didn't 
realize he achieved, really, the extraordinary status at a 
relatively young age of Chief Petty Officer. That is the Navy's 
backbone. I can't help but think, Senator, of how many times we 
were reminded we had another Chief Petty Officer around here, a 
man who we respected and loved, and that was John Tower.
    He ordered me into his office one time when I was Secretary 
of the Navy to promote him to Senior Chief Petty Office, with 
the Chief of Naval Operations standing by my side at his desk, 
right here in the Russell Building. So, we welcome Mr. Stanley 
and his contributions.
    Senator Roberts. Mr. Chairman, I do have a very short 
statement.
    Chairman Warner. Please, go ahead.
    Senator Roberts. I would like to join Senator Dole and 
associate myself with his remarks. He has introduced Dan to the 
committee. Dan is a personal friend, but more important, his 
qualifications really speak for themselves as the Senator has 
pointed out, serving honorably as a Naval Officer, senior staff 
of the United States Senate, juggling all of those important 
issues that would boil up every day, in State government in our 
State of Kansas--his resume reflects the important 
responsibilities he has assumed and the tough jobs he has 
fulfilled. I don't think any Kansan better reflects his 
commitment to duty than our favorite son, Dwight Eisenhower, 
who I referred to, but I just want to tell a story about Dan 
and his background.
    There's another connection with a former President. Dan's 
office in the Pentagon is located on the E Ring in the hallway 
known as the Eisenhower Corridor. It's appropriate that the 
Pentagon honor the architect of D-Day with such a tribute. We 
Kansans were able to put a statue of Ike in the rotunda. The 
footnote in history is that Ike was not the first choice from 
Kansas to attend West Point. Ike came in second in the 
competition for the appointment for the Academy that year, to 
Dan's grandfather, who received the highest score in the 
competition for that appointment.
    That unique story aside, Mr. Chairman, I truly believe that 
he will, as Bob indicated, excel as the next Assistant 
Secretary for Legislative Affairs. I believe this not only 
because of my experiences with Dan, and as Bob said, watching 
him work hard for his country over the years, but also because 
of what he said when he came to me for his pre-hearing meeting 
on Monday.
    Now, he's been around the Pentagon. He's also been around 
Congress a lot, and the meeting was barely underway before he 
asked me how he could make the Legislative Affairs shop at the 
Pentagon more responsive to lawmakers, and how he could make it 
better for Representatives and Senators, and Committees like 
this one, and staffs. So, he knows who we are, he also knows we 
are the end users of the DOD's Legislative Affairs operation, 
and I think he understands that certainly better than most, and 
will work hard to ensure that our needs and questions are 
answered.
    I would just take the liberty of describing Dan as an ``oil 
can man.'' If you have an itch, he will scratch it; if you have 
a rash, he will treat it. If you throw a monkey wrench in the 
gear box, he will try to recommend to you that you take the 
monkey wrench out, or will fix the gear box. Basically, when he 
sees some kind of an issue that becomes overheated, as Bob has 
indicated--and a tremendous need for unity of purpose in this 
Congress, more especially when we are at war--he will make it 
possible for the dialogue to take place to achieve 
understanding and that special unity of purpose.
    Mr. Chairman, I think what we say up here from this dais 
and the many comments we make from the floor of the Senate, the 
many press conferences we have during these very trying times, 
these challenging times, the message that we send, not only is 
to our constituency, but also to our men and women in uniform 
and also to our adversaries.
    I just came back from Fort Riley where we had a battalion 
coming back from their second tour of Iraq, and I went over to 
the 12 people who received Purple Hearts, and 3 with Bronze 
Stars. I said, ``On behalf of Congress, I want to congratulate 
you, thank you for your service. On behalf of the committee, I 
want to congratulate you.'' I spoke more especially on your 
behalf, Mr. Chairman. I got to the last young man who had 
received his second Purple Heart, and he said, ``Thank you for 
the support in Congress. By the way, what in the hell is going 
on back there?'' in terms of some of the comments, I said, 
``Well, we have strong differences of opinion,'' and he said, 
``Well, that's fine, Sir, but we're doing a lot of good work in 
Iraq, and we're not really hearing about it.'' That really 
concerns me, and I think if there's any appointment right now 
that can do a better job of keeping this committee posted, and 
again, being that oil can person, so that we can achieve that 
unity of purpose, and achieve what the President wants and what 
we all want, it is Dan Stanley.
    [The prepared statement of Senator Roberts follows:]
               Prepared Statement by Senator Pat Roberts
    Mr. Chairman: It is my pleasure to introduce a fellow Kansan who is 
before this committee as the nominee for Assistant Secretary of Defense 
for Legislative Affairs, Dan Stanley. I consider Dan to be a personal 
friend. But more important are his qualifications. He has served our 
Nation honorably as a naval officer, senior staff in the United States 
Senate, and in State government in our State of Kansas. Kansan's don't 
shirk from the tough jobs. And Dan never has.
    Mr. Chairman, Dan's resume reflects the important responsibilities 
he assumed and the tough jobs he has fulfilled. No Kansan better 
reflects this commitment to duty than our favorite son, Dwight D. 
Eisenhower. But Dan shares another connection with the former 
President. Dan's office in the Pentagon is located on the E-Ring, in 
the hallway known as the Eisenhower Corridor. It is appropriate that 
the Pentagon honor the architect of D-Day with such a tribute, just as 
Kansas has presented his statue for display in the Capitol. The 
footnote in history is that Ike was not the first choice from Kansas to 
attend West Point. Ike came in second in the competition for the 
appointment to the Academy that year to Dan's grandfather, who received 
the highest scores in the competition for that appointment. That unique 
story aside, Mr. Chairman, I truly believe Dan will excel as the next 
Assistant Secretary for Legislative Affairs. I not only believe this 
because of my experiences with Dan, watching him work hard for his 
country over the years, but also because of what he said to me when he 
came by for his pre-hearing meeting Monday. The meeting was barely 
underway before Dan asked how he could make the legislative affairs 
shop at the Pentagon more responsive to lawmakers, how he could make it 
better for Representatives, Senators, relevant committees like this 
one, and staff. He knows we are the end users of the Department of 
Defense's legislative affairs operations. Dan understands that better 
than most, and will work hard to ensure that our needs are met and our 
questions are answered. With that, Mr. Chairman, I offer my full 
recommendation that Dan Stanley be approved as the next Assistant 
Secretary of Defense for Legislative Affairs. Thank you.

    Chairman Warner. Senator, I'm very pleased that you 
mentioned that personal conversation you had with that 
distinguished soldier on his return. In the hearing that we had 
last week, General Abizaid, on his own initiative raised his 
concern about the need from time to time to respond to similar 
inquiries addressed to him as the commanding general of U.S. 
Central Command (CENTCOM) from the men and women in his 
command. As to ``What's all that we're hearing back home, 
General? We're fighting as hard as we can. Is there any 
lessening of the resolve?'' I commended General Abizaid for 
that, and as a matter of fact, as recently as last night I had 
the opportunity in several press appearances to express my 
support for the Commander in Chief, the President's resolve. I 
feel that on both sides of the aisle, it is not just on one 
side, Senator, both sides of the aisle here, both Democrat and 
Republican, I think our colleagues should take to heart the 
comments of General Abizaid and those of yourself and possibly 
my own as to the need to be very careful in how we couch our 
important and very necessary views about the conflict against 
terrorism. We must do it in a way that reflects great credit 
upon how the forces are performing their duty and carrying out 
the goals of trying to provide a measure of freedom for the 
people of Iraq and elsewhere, in Afghanistan. I thank you.
    Senator Roberts. I think you put that very well, Mr. 
Chairman, thank you.
    Chairman Warner. This committee will stand in recess. We 
have two votes, and members of the committee will cast a vote 
on the pending one, and then immediately cast a vote on the 
second one, and then we'll resume and complete the hearing. 
[Recess.]
    Senator Levin [presiding]. Senator Warner has suggested 
that I open up this panel, and I'm happy to do that. I welcome 
our panelists. We have had a long morning. I will just really 
briefly say that I know our chairman would welcome you, on 
behalf of the whole committee. I would be joining him if he 
were here, and I welcome each of our nominees.
    Mr. Edelman is a career Foreign Service Officer who has 
served in a long series of senior government positions, 
including Ambassador to Turkey, Deputy Chief of Mission at the 
U.S. Embassy in Prague, and Deputy Under Secretary of Defense 
for Soviet and Eastern European Affairs.
    Mr. Stanley has served in a series of positions in Federal, 
State, and local government, most recently serving as Principal 
Deputy Assistant Secretary of Defense for Legislative Affairs, 
and Principal Deputy Assistant Secretary of the Army for 
Manpower and Reserve Affairs.
    Mr. Rispoli spent a large part of his career in the private 
sector before serving as Director of the Department of Energy's 
Office of Engineering and Construction Management. I 
appreciate, and I know the whole committee does, your 
willingness, all of you, to serve your country. We look forward 
to your testimony. The chairman has suggested that I, on his 
behalf and on the committee's behalf, present the standard 
questions to you. The answers to policy questions have been 
entered into the record, and now the standard questions that we 
ask of each nominee.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Ambassador Edelman. Yes, sir.
    Mr. Stanley. Yes, I have, sir.
    Mr. Rispoli. Yes, I have, sir.
    Senator Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Ambassador Edelman. No, Senator.
    Mr. Stanley. No, sir. I have not.
    Mr. Rispoli. No, Senator.
    Senator Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in congressional hearings?
    Ambassador Edelman. Yes, Senator.
    Mr. Stanley. Yes, Senator, I will.
    Mr. Rispoli. Yes, I will, Senator.
    Senator Levin. Thank you. Will you cooperate in providing 
witnesses and briefers in response to congressional requests?
    Ambassador Edelman. Yes, Senator.
    Mr. Stanley. Yes, sir.
    Mr. Rispoli. Yes, sir.
    Senator Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Ambassador Edelman. Yes, Senator.
    Mr. Stanley. Yes, sir.
    Mr. Rispoli. Yes, sir.
    Senator Levin. Do you agree, if confirmed, to appear and 
testify upon request before any duly constituted committee of 
the Senate?
    Ambassador Edelman. Yes, Senator.
    Mr. Stanley. Yes, Senator, I do.
    Mr. Rispoli. Yes, Senator.
    Senator Levin. Do you agree to give your personal views 
when asked even if those views differ from the views of the 
administration?
    Ambassador Edelman. Yes, Senator.
    Mr. Stanley. Yes, sir.
    Mr. Rispoli. Yes, sir.
    Senator Levin. Do you agree to provide documents, including 
copies of electronic forms of communications in a timely manner 
when requested by duly constituted committee, or to consult 
with the committee regarding the basis for any good faith delay 
or denial in providing such documents?
    Ambassador Edelman. Yes, Senator.
    Mr. Stanley. Yes, Senator.
    Mr. Rispoli. Yes, Senator.
    Senator Levin. Ambassador Edelman, you are first to give us 
your opening comments. Given the hour, I would appreciate it if 
you could make your comments brief.

STATEMENT OF AMBASSADOR ERIC S. EDELMAN, TO BE UNDER SECRETARY 
                     OF DEFENSE FOR POLICY

    Ambassador Edelman. Thank you, Senator Levin, thank you, 
Mr. Chairman.
    I would just make some very brief comments and ask that the 
full statement that I've submitted be included in the record.
    I appreciate very much the opportunity to appear before you 
as the President's nominee to be the Under Secretary of Defense 
for Policy. I'd like to especially thank Senator Allen for 
introducing me earlier this morning. I am grateful to the 
President for the confidence that he's expressed by making this 
nomination, and the support I've received from Secretary 
Rumsfeld. If confirmed, I look forward to working closely with 
you on the various duties and responsibilities that would be 
conferred on me.
    Let me just say, I want to also thank the committee for its 
bipartisan commitment to the welfare of our men and women in 
uniform, their families, and the security of our country. The 
committee obviously has a historic and constitutional role in 
ensuring the defense of the Nation and the readiness of our 
Armed Forces. I want to assure you that if I am confirmed I 
will hold the well-being of our troops uppermost in my mind at 
all times.
    I think we confront today a broad array of security 
challenges, perhaps broader than we've ever faced in the past, 
and I believe as a result, that the Department of Defense must 
be flexible and agile, anticipating change, influencing its 
direction, and adapting our strategy and capabilities as 
appropriate.
    I've been fortunate to have had the opportunity to serve 
our country in a number of diplomatic positions and settings, 
and if confirmed, I'll make every effort to put that experience 
to good use, to achieve the goals of strengthening our Nation's 
alliances and partnerships, assuring our allies and friends 
that the U.S. is, and will remain, a steadfast friend and 
security partner.
    I would hope that my recent experience in Turkey, as well 
as my experience interagency, both in the Department of Defense 
and in other assignments will be helpful in building extensive, 
positive working relationships throughout the Government, which 
I could draw on in working towards the goals that I've 
mentioned, if confirmed.
    I know that many of these issues will be of particular 
interest to the members of the committee. If confirmed, I look 
forward to consulting with you, to working closely with you to 
try to respond to any concerns or questions or issues that you 
have, and I look forward to your questions.
    [The prepared statement of Ambassador Edelman follows:]

            Prepared Statement by Ambassador Eric S. Edelman

    Chairman Warner, Senator Levin, members of the committee:
    Thank you for the opportunity to appear before you today. I would 
like to especially thank Senator Allen for introducing me this morning. 
It is indeed an honor and privilege to come before this distinguished 
committee as you consider my nomination to be the Under Secretary of 
Defense for Policy. I am truly humbled by President Bush's decision to 
nominate me to that office and welcome the opportunity he has offered 
me, if confirmed, to return to the Department of Defense. I also deeply 
appreciate Secretary Rumsfeld's support and am excited by the prospect 
of serving under his leadership. If confirmed, I will look forward to 
working closely with each one of you as I endeavor to discharge the 
duties and responsibilities conferred on me.
    I am profoundly aware that I come before you today during a time of 
war. American forces are engaged in combat in remote parts of the 
world. I honor their service to the Nation, their sacrifices and their 
families, whose support and sacrifices are in every measure as 
important to our national security as those of their loved ones.
    I also wish to thank you for your bipartisan commitment to the 
welfare of our men and women in uniform, their families, and the 
security of our country. This committee plays an historic role to 
ensure the defense of our Nation and the readiness of its Armed Forces. 
I thank each of you for that service. I assure you that, if confirmed, 
I will hold the well-being of our troops uppermost in my mind at all 
times.
    The need to achieve strategic victory in the global war on 
terrorism is currently our country's greatest challenge. We confront a 
broader array of security challenges than we faced in the past. In 
addition to the continued threat of traditional military challenges 
posed by nation states, the United States faces a range of 
nontraditional challenges from nations and nonstate actors. These 
challenges include the threat of attack by terrorists who operate from 
the shadows, outside governments, and outside the rule of law.
    Thus we cannot protect America solely from inside America. As the 
President's commitment to the forward defense of freedom reflects, we 
must--in cooperation with our partners--continue to take the fight to 
the enemies of freedom, where they train and where they organize. We 
must also continue to advance the cause of liberty by helping those who 
do not yet enjoy it. As President Bush stated in his Inaugural speech 
in January 2005, ``We are led by events and common sense to one 
conclusion: the survival of liberty in our land increasingly depends on 
the success of liberty in other lands. The best hope for peace in our 
world is the expansion of freedom in all the world.'' If confirmed, I 
will do all I can to help achieve this goal. We live in an era marked 
by strategic uncertainty. We may face, in time, a security environment 
far different from what we now envision as we pursue our objectives in 
the global war on terror. Accordingly, I believe that the Department of 
Defense must be flexible and agile, anticipating change, influencing 
its direction, and adapting our strategy and capabilities as 
appropriate. Achieving the President's goals of transforming the 
Department of Defense and our military forces to meet tomorrow's 
challenges has never been more important than now.
    The Department of Defense recently published its new National 
Defense Strategy, aligning the Department's efforts with the 
President's commitment to the forward defense of freedom. It 
supplements the National Security Strategy adopted by the President in 
2002 and complements the National Military Strategy. If confirmed, I 
will work under the Secretary's leadership to provide him policy advice 
aimed at achieving the great goals of the new National Defense 
Strategy, in particular to:

        <bullet> Secure the United States from direct attack;
        <bullet> Secure strategic access and retain global freedom of 
        action;
        <bullet> Strengthen alliances and partnerships;
        <bullet> Establish favorable security conditions;
        <bullet> Assure allies and friends;
        <bullet> Dissuade potential adversaries;
        <bullet> Deter aggression and counter coercion; and
        <bullet> Defeat adversaries.

    I have been fortunate to have had the opportunity of serving my 
country in numerous diplomatic positions and settings. If confirmed, I 
will make every effort to put my diplomatic experience to good use in 
working to achieve our goals of strengthening our Nation's alliances 
and partnerships, and assuring our allies and friends that the United 
States is and will remain a steadfast friend and security partner.
    I believe that identifying and pursuing approaches and mechanisms 
that help both international and interagency partners build their 
security capacity should be a primary focus of DOD's Policy 
organization. If confirmed, I would intend to devote a great deal of 
effort to achieving these objectives. I would hope that my recent 
experience as U.S. Ambassador to Turkey will be particularly helpful in 
this regard, especially in connection with NATO matters. Likewise, 
during my 25 years of service in the Department of State, I have had 
the opportunity to build extensive, positive working relationships 
throughout the department on which I would draw in working toward these 
goals, if confirmed.
    Many of these initiatives will be of particular interest to this 
committee and to Congress. I look forward, if confirmed, to consulting 
and working closely with you and the committee's able staff on these 
and other matters.

    Chairman Warner [presiding]. Thank you very much, Mr. 
Edelman.
    Mr. Rispoli.

  STATEMENT OF JAMES A. RISPOLI, TO BE ASSISTANT SECRETARY OF 
              ENERGY FOR ENVIRONMENTAL MANAGEMENT

    Mr. Rispoli. Thank you, Mr. Chairman, Senator Levin, 
members of the committee. In view of the hour, I would like to 
just note that I did turn in a statement for the record.
    Chairman Warner. Yes, I am aware of it and I have examined 
it, it is a very good statement.
    Mr. Rispoli. Thank you. I've also introduced my family, 
thank you for that gracious opportunity earlier. I have a very 
short statement, a couple of sentences.
    I would like to thank the President and Secretary Bodman 
for their support. I'm truly honored to be nominated to serve 
in this position, I pledge to you, Mr. Chairman, Senator Levin, 
members of the committee that if I'm confirmed to this 
position, I will work closely with you and all of Congress in 
addressing the many issues that we face in the Environmental 
Management Program.
    I intend to devote my full energy and my leadership and 
management experience to deliver results for the American 
people, and at the end of the statements, I would be pleased to 
answer any questions you may have. Thank you.
    [The prepared statement of Mr. Rispoli follows:]

                 Prepared Statement by James A. Rispoli

    Good morning, Mr. Chairman, Senator Levin, and members of the 
committee.
    It is a privilege for me to appear before you today as the 
President's nominee to be the Assistant Secretary for Environmental 
Management at the U.S. Department of Energy. I would like to introduce 
my wife, Carol, who is here with me today. Since our marriage some 36 
years ago, she and our two children have supported me in my service to 
our country, as I was for 26 years a career military officer, mostly as 
a Civil Engineer Corps officer in the United States Navy. We moved our 
household 12 times in those 26 years, and Carol held down the homefront 
while I deployed as a Navy Seabee. Without the support of Carol and our 
two children throughout those years, I am convinced I would not be here 
before you today. I thank the President and Secretary Bodman for their 
support, and I am honored to have been asked by them to serve in this 
position. I pledge to you, Mr. Chairman, and to the members of this 
committee, that if confirmed to this position, I will work closely with 
you and all of Congress in addressing the many issues that we face in 
the environmental management program.
    My formal education is as a civil engineer, educated as such to the 
Master's degree level. I also earned an advanced degree in business, 
and from my earliest days of practice I have had a special interest in 
environmental issues as related to engineering and construction. I have 
managed facilities as the public works officer and environmental 
officer at naval installations. Additionally, I have served as the 
Navy's manager of environmental cleanup for all its ashore 
installations, a position similar to the one for which I have been 
nominated at the Department of Energy. I have first hand experience in 
the Federal sector as an engineer in leadership positions, a manager of 
environmental programs, and as a contracting officer. Complementing 
that Governmental experience, I have served as a senior officer in two 
engineering firms that specialize in environmental cleanup.
    I understand that the environmental management challenges of the 
Department of Energy are formidable, as I have been involved over the 
past several years with the capital projects in the Environmental 
Management portfolio. I recognize that the challenges of the nationwide 
cleanup program are great and I welcome the opportunity to begin 
working to address them. With that said, it is my view that with proper 
leadership and management, the professionals who work in this program, 
both Federal and contractor, can deliver success. We can do this with 
the use of industry standard practices for project management such as 
defining projects, with achievable targeted schedules, milestones, and 
costs. In my view, by reinforcing the application of industry standard 
practices in this program, we can manage it with better effectiveness 
and reliability. For example, by using these industry standard 
practices, we will be able to project future resource needs across the 
planning horizon with greater credibility. We will be able to better 
manage toward our targets to improve success in delivering on our 
commitments. I look forward, if confirmed, to leading this organization 
I hope the committee will find that my background qualifies me for this 
position, and has given me the leadership and management tools for the 
task at hand.
    I am committed to safety, and in my view, safety and environmental 
cleanup are inexorably joined. I believe that the cleanup of our sites 
cannot be accomplished without superior safety performance in our daily 
work. Only by operating safely can we achieve the goals and schedules 
we have set. This is paramount, because the whole purpose of the 
cleanup of these sites is for the safety and security of our citizens, 
communities, and Nation. At the same time, I know that I need to learn 
and understand the strengths and weaknesses of this environmental 
cleanup program. I know that we have had successes and we have had 
setbacks, and that the setbacks have resulted in public disappointment 
and disappointment in Congress. If confirmed to the position of 
Assistant Secretary, I will take this mantle of responsibility; I will 
do so with a clear motivation to improve our performance to succeed, to 
deliver, and to be honest with you and all the stakeholders in the 
development of expectations and the execution of plans for this 
program.
    I know a number of people throughout the Environmental Management 
organization I have great respect for them and the challenges they 
face, and overcome, every day. I look forward, if confirmed, to meeting 
the many more Federal and contractor employees who are engaged in these 
efforts, to understand fully how they have set their targets, and how 
they are managing their programs so that they will meet these targets.
    I commit to you, the members of this committee, and the other 
congressional committees, that if I am confirmed, I will communicate 
openly with you, the States, and other stakeholders. My entire career 
has been built on honesty and integrity, and I fully expect to bring an 
open and forthright approach to all my dealings with the constituents 
and stakeholders of this program. I intend to devote my full energies 
and my leadership and management experience to deliver results for the 
American people.
    Mr. Chairman and members of the committee, I will be pleased to 
answer any questions you may have. Thank you.

    Chairman Warner. Mr. Stanley, before you give your opening 
remarks, I'd like to say that I and other members of the 
committee have the highest regard for Powell Moore who served 
in the position to which the President has nominated you, for 
many years. He served through some of the most difficult years 
in which major issues were facing the Department and Congress. 
Through his skill and understanding of both branches of 
government, executive and legislative, having served as he did 
in both with great distinction, I think that we reached the 
right decisions on all of those questions. I know you served as 
his deputy for some period of time, and I just wanted to make 
that observation as you begin your opening remarks.

 STATEMENT OF DANIEL R. STANLEY, TO BE ASSISTANT SECRETARY OF 
                DEFENSE FOR LEGISLATIVE AFFAIRS

    Mr. Stanley. Thank you, Mr. Chairman.
    Powell Moore's been a mentor to me, and I've learned an 
awful lot. I hope to bring some of that, within my abilities, 
to this position if I'm confirmed.
    Chairman Warner. I hope you have no reluctance whatsoever 
to call him and to seek his advice.
    Mr. Stanley. None whatsoever.
    I want to thank the President, the Secretary, and this 
committee for consideration of my nomination. I want to thank 
Senator Dole for taking his time to be here today. It is 
because of him that I have spent 16 years in public service, 
and counting. He was such an inspiration to me as a younger man 
that all I wanted to do was come to Washington and be like Bob 
Dole.
    I thank Senator Roberts, who is a friend, and by example, 
also an inspiration.
    Simply, I am a product of this body. I understand the 
responsibilities of this committee, and of the world's greatest 
deliberative body. I will keep my word, and I will always tell 
you the truth. The balance of my statement I'd like to provide 
for the record. Thank you.
    [The prepared statement of Mr. Stanley follows:]

                Prepared Statement by Daniel R. Stanley

    Mr. Chairman: I want to express deep appreciation to you and to 
Senator Levin for your consideration of my nomination today. I 
especially want to thank the President for his trust and confidence in 
nominating me for this position, and the Secretary of Defense for 
recommending me. It is a time of war with the lives of so many on the 
line, this is a period of enormous importance to all of us who love 
America and defend her. It is at the same time a tremendous honor and 
if confirmed I will work diligently to be worthy of this committee's 
endorsement.
    I am especially honored by the kind words of Senator Dole who came 
here to introduce me today. It is because of him that I have had the 
privilege of nearly 16 years of public service. By his personal example 
Bob Dole taught me and reminded the Senate and the whole of America 
that public service is a noble and honorable pursuit which begins with 
issues of character as simple as keeping your word. Not sometimes, not 
usually, but every time. Thank you Senator Dole. I am here today 
because of you.
    I would also like to thank Senator Pat Roberts, another fellow 
Kansan and a friend for his kind words and for his support and example 
throughout the years. I am very proud to be associated with these men, 
these Kansans, these patriots. I am grateful to them, to the members of 
this committee and to the entire United States Senate, Republicans and 
Democrats alike, for your commitment to great purpose in service to our 
country. Thank you for putting America first.
    I've witnessed confirmation hearings over many years and note that 
it is tradition also to thank the families of those called to service. 
This recognition is appropriate since these families sacrifice so much 
in supporting our answer to that call. So I take this opportunity to 
thank my wife, Kay, my daughter, Beth, and my grandchildren, Nick and 
Jack, who don't get to see their grandfather as much as all of us would 
like. I also salute my son, 2LT Daniel R. Stanley, Jr., United States 
Army, for the important work upon which he is about to embark. Of 
course I want to thank my dear mother, Irene, even though at 86, she 
still beats me at golf. Those who love and support us make us who we 
are.
    Finally, I would like to reflect briefly on my life in military and 
public service which began just about 32 years ago when I enlisted in 
the United States Navy. I've seen the world through the eyes of a young 
enlisted man and personally borne many of the burdens our enlisted 
personnel bear today. The Navy gave me opportunity, not just to serve 
but to grow. I worked my way up through the ranks from Seaman Recruit 
to eventually become commissioned as an officer. I served as a nuclear 
technician on U.S.S. Batfish, as a division officer, weapons and sonar 
officer on U.S.S. Woodrow Wilson, with the Joint Chiefs of Staff as one 
of the managers of the Nation's strategic communications network, and 
numerous assignments in the Navy Reserve. In my brief private sector 
career I was the director of strategic planning for the McDonnell 
Douglas Corporation where I developed a 10 year forecast of defense 
spending and future trends in critical technologies. Not many ever 
correctly predict what Congress might do in any given year, let alone 
over a decade, but in retrospect my forecast was remarkably accurate.
    Then the call to public service came from the man who introduced me 
today. I would not have given up a comfortable corporate career and 
come to Washington for anyone other than Senator Bob Dole. He inspired 
me as he has so many of our fellow Americans, to believe decency and 
fair play are possible in government--for the decent and the fair. 
Seven years on his staff, from 1987-1996, was one of the most 
remarkable, instructive, and demanding periods of my life. Indeed it 
was an important time in the history of our Nation and of this most 
important deliberative body of the world. To watch him first hand, to 
be any small part of his efforts, and to serve the United States Senate 
by serving him, has made me a witness to greatness. For his part, Bob 
Dole only asked that we work as hard as he did. Enough said.
    I have had other opportunities worth noting. Governor Bill Graves 
invited me back home to Kansas to serve in his cabinet. It is 
instructive to note how different the view of Washington and the world 
is from what some call ``fly over country.'' Washington is important, 
it funds things, it even provides some entertainment value to the 
average folks, but the government at the state and local level is 
another matter entirely. While jointly serving as the Secretary of 
Administration, our State's chief administrative officer, being elected 
to the City Council of our capital city of Topeka, I gained an up-close 
appreciation of what ``accountability'' is all about. The people, 
whether they like government or not, simply want things to work. So, it 
is in that spirit of getting things done that I come to you. Please 
know that if confirmed I will do everything in my power, give every 
effort that I have, to make the liaison between the Department of 
Defense and Congress work. To do that, I will tell you the truth and 
keep my word. Not sometimes, not usually, but every time.
    In closing, let me reflect on a day in September nearly 4 years 
ago. I had been invited to return to Washington to serve as Deputy 
Assistant Secretary of the Army for Manpower and Reserve Affairs. One 
week after my arrival and having barely settled into a new challenge of 
service, the high-jacked plane struck the Pentagon just down the hall 
from my new office. This heinous act of terrorism killed co-workers, 
friends, and good people I had not yet had the opportunity to meet. It 
struck America's soul--killing thousands here and in Pennsylvania and 
New York. So, this war is personal for me just as it is for tens of 
thousands of families whose loved ones are deployed in this global war 
on terrorism. They trust us, and believe that how those in authority 
comport themselves in this great undertaking do much to decide the 
future and nature of the world we will leave our children and 
generations to follow. I know what is in their hearts and minds because 
I've been one of them.
    They are sure of themselves. Part of this job is to make sure they 
always have reason to be sure of us.

    Chairman Warner. I thank you very much, that is a clear and 
forthright declaration of your abilities to take on this 
responsibility, and how you will fulfill those 
responsibilities, and I thank you.
    We'll have a brief round of questions at this time, and I'm 
going to yield to my colleague as he has other commitments. 
There's a slight disruption because of the votes and one thing 
or another, but take all the time you want.
    Senator Levin. Mr. Chairman, as always, I appreciate your 
courtesy. You are unequalled in your willingness to accommodate 
your colleagues, and we're all grateful to you.
    I just noticed, I think it was in Bob Dole's introduction, 
Mr. Stanley, you were a local official, were you, at one time?
    Mr. Stanley. Yes, Senator Levin, I was elected to the 
Topeka City Council.
    Senator Levin. As far as I am concerned, that is one of 
your highest qualifications. I came from the City Council in 
Detroit. That experience is very valuable.
    Just a couple of questions for Ambassador Edelman, and then 
I'm going to have to leave. On North Korea, is there any reason 
why we should not be talking to the North Koreans? As much as 
we dislike their policies and dislike their behavior, and I 
don't mean just in the context of the multi-party talks, 
although we ought to talk to them in that context too, but is 
there any reason why we shouldn't just talk to them 
bilaterally, if our allies, the South Koreans, and particularly 
the Japanese, want us to talk to the North Koreans?
    Ambassador Edelman. Senator, thank you for the question. I 
think that, in my own experience as a diplomat, I've had a bias 
towards working with allies and seeking multilateral solutions. 
It seems to me that the issues that are presented by the 
potential North Korean nuclear weapons, and the weapons 
program, are issues of a regional nature, and therefore should 
be resolved in a regional context. I do think that the Six 
Party Talks format does provide an opportunity for bilateral 
discussions. In fact, in earlier sessions of the Six Party 
Talks, I think there were some bilateral discussions. There's 
no reason, if the North Koreans don't come back to the table, 
rather if they do come back to the table, why those kinds of 
bilateral discussions can't go on within the framework of the 
Six Party Talks. I would think we would want to have the other 
concerned parties, who have, I think, the same interest as we 
do, in not seeing a nuclear weapons capability developed in 
North Korea, involved in this process.
    Senator Levin. I agree with that. We want them involved. 
They are involved, but if they want us to talk bilaterally with 
the North Koreans, that's their conclusion and advice, why 
should we not listen to our allies on that? It's not 
inconsistent with talking multilaterally.
    Ambassador Edelman. Well, I think there's a danger of 
allowing the North Koreans to try and divide the various folks 
who have an interest, and I would prefer to have the concerted 
efforts of all brought to bear on them, rather than allowing 
them to divide the various parties.
    Senator Levin. You made reference to the danger of North 
Korean nuclear weapons, and I couldn't agree with you more. We 
have had a new Defense Intelligence Agency (DIA) assessment 
being prepared. Admiral Jacoby has written to Senator Clinton 
and myself with an assessment, but we don't have an interagency 
assessment or estimate of the number of nuclear weapons that 
the North Koreans have. I'm wondering whether or not, if 
confirmed, you would request a new national intelligence 
estimate regarding North Koreas nuclear weapon program?
    Ambassador Edelman. I haven't actually thought about that, 
Senator, but I haven't had a chance to get fully briefed up 
since returning from Turkey on the current Intelligence 
Community (IC) assessment of where the Koreans actually stand 
in their nuclear efforts, so I wouldn't want to say now whether 
an estimate is needed, but certainly we ought to get the best 
judgment the IC has on exactly where they stand.
    Senator Levin. Mr. Edelman, as you and our Chairman know, I 
intend to ask questions of you for the record based on 
documents which we have been unable to obtain, which have been 
withheld from me, relative to the operations of the policy 
office that you have been nominated to. Those documents are 
highly relevant and germane to the operations of that office, 
I've given a list of the requested documents that have not yet 
been provided to our chairman. I would ask that a copy of that 
list be made part of the record, Mr. Chairman.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Levin. There are a number of reasons why we are 
entitled to those documents, including our general oversight 
responsibilities, but one of them has to do with the 
confirmation process. I have been waiting now since November 
2003 for many of these documents. They have been identified. 
The list has been given to the Department of Defense as to what 
those documents are--many of those documents have already been 
identified, and they are in. They are marked so they know 
exactly what they are. They have them in their possession--
other documents would have required some searching relative to 
a specific issue which we have asked that those documents be 
provided relating to. We shouldn't have to wait this long, but 
we have. All I can say is I am going to do everything I can to 
get a hold of those documents, so that I can ask you questions 
that those documents raise about the operations of the office 
to which you have been nominated. I can't ask those questions 
now. I don't have those documents. I have some documents, but 
not all the documents which are relevant. We are going to make 
a determined effort to obtain those documents so we can ask you 
the questions. I have no idea what your answers will be. I 
don't want to pre-judge or in any way assume your answers will 
be other than adequate or assuring or whatever. I don't want 
to, in any way, suggest that there is anything in those 
documents that you are unwilling to comment on, and indeed, 
satisfactorily comment on. There is nothing in those documents 
that relate to your activities. It relates to the activities of 
an office to which you have been nominated, and I have an 
essential obligation, if not a right, to know what your 
thoughts are about the way in which that office has been 
operating relative to a number of issues. Mr. Chairman, you've 
been very much aware of this, and trying to be helpful, and I 
appreciate that. I do use everything, every tool I can possibly 
use to get documents so I can ask relevant questions. I just 
want to put everybody on notice, including you, and I think 
everybody is already on notice, but in case there is anybody 
within the sound of my voice who isn't, I just wanted to make 
that clear, and thank the Chair, and ask that be made part of 
the record.
    Chairman Warner. Without objection, and before we part, 
Senator Levin, again, you've been very up front with the 
Chairman and others on this issue. I think the record should 
reflect that I was present at the meeting, at your request, 
with the acting Deputy Secretary Gordon England, as, I believe, 
he gave you some assurance that he's going to personally look 
into this. So I hope that this matter can be resolved.
    Senator Levin. I hope so, too. It's not my intention to 
hold up the nominations, it's my intention to get documents, 
that's my sole intention. We thank you, Mr. Chairman, for your 
efforts.
    Chairman Warner. Thank you. All right, gentlemen, I'd like 
to resume some expanded questioning here.
    First, Ambassador Edelman, I'd like to have the record 
reflect, really the extraordinary portfolio of responsibilities 
that your office is carrying, and subject to confirmation, that 
would be your responsibility. In other words, people think of 
you as responsible for foreign policy but you have a strong 
voice in missile defense, Special Operation Forces, etc. I 
think some recitation of that for this record would be helpful.
    Ambassador Edelman. Senator, thank you. I agree that the 
responsibilities that are set out not only in chapter 10, but 
also in the DOD directive for the office of the Under Secretary 
of Defense for Policy are really quite daunting in the breadth 
of the responsibilities. It includes by statute, responsibility 
for assisting the Secretary and drafting guidance for 
contingency planning for the combatant commanders. It involves 
export controls and also assuring the ability to combat 
terrorism by directive; it also encompasses providing the 
Secretary advice and guidance on all matters of policy before 
the Department, including budget, forces, and strategy. It 
includes, obviously, the classic interconnection between 
foreign policy and defense policy with regard to regional 
defense relationships. It encompasses the arms control issues 
and nuclear force posture; it includes now, by statute, 
homeland defense, and as you mentioned through the Goldwater-
Nichols legislation the Special Operations and Low Intensity 
Conflict responsibilities. So the range of responsibility is 
enormous, and quite honestly, if confirmed, I think it will be 
a humbling, challenging set of responsibilities to meet every 
day.
    Chairman Warner. As I've come to know you through these 
years, you're up to it. I will express a high degree of 
confidence in the Senate confirmation process, and I think we 
as citizens are fortunate that you and your family are willing 
to take on this extraordinary responsibility in these 
extraordinary times. We're fortunate that your career is now 
bringing you into a somewhat quasi-political environment. I'm 
confident you've been there before, that you'll guide the 
Department through, and make those decisions and 
recommendations to the Secretary which you feel are in the best 
interest of the Nation, despite politics, to the extent it 
might somehow be involved. I have the privilege of having known 
the Secretary since we were--comparatively speaking--young men, 
both working for President Nixon. That goes back a long way. I 
thoroughly enjoy working with him. There are challenges. We've 
had our differences, but by and large, we sit down and we work 
our way through them. He needs a very strong and experienced 
individual such as yourself. I have no doubt that you have the 
backbone and the tenacity to look him in the eye and say, 
``Good Secretary, I think this course of action is not the 
best,'' and suggest an alternative to him. He's receptive to 
that. He's receptive because I would never want him to list all 
of his responsibilities.
    Having served in that Department, having served under three 
Secretaries of Defense, and having worked with each since that 
period of time, it's an extraordinary, awesome, all-
encompassing job. He needs strength in his subordinates, and 
you will provide that.
    I was going to cover your career, but I think Senator Levin 
covered that thoroughly. I would like to have your reaction to 
the status of Iran. That took a turn of events here, their 
ostensibly free election, although we won't get into that, 
that's past. That's going to be a challenge to deal with this 
new individual. I'd like to have your views in particular as it 
relates to the serious question of his early pronouncements to 
go full bore on whatever nuclear options he seems to have. I 
think he's still using rhetoric for power. It's difficult to 
understand, given the enormity of their natural resources for 
energy, but nevertheless, I'd like to have the record reflect 
your views.
    Ambassador Edelman. Thank you very much, Senator, both for 
the question and your expression of confidence, which I really 
appreciate very much. As an aside I have, throughout my foreign 
service career, in a variety of different positions in a 
variety of different parts of the government, always told my 
bosses what I thought, for better or for worse, and I intend to 
continue doing that if confirmed.
    On the question of Iran, I'm not sure that the election 8 
years ago of a reformist president and his re-election made 
much difference in the Iranian drive to develop a nuclear 
weapon. I'm not sure this election was, as you say, a totally 
free and fair election, because if unelected groups can make 
determinations about who's eligible to run, who can run, it's 
not a free and fair election as we would consider it to be.
    I think the election itself was driven not by this issue, 
by some internal domestic Iranian issues. I don't think it 
changes the fundamental facts that we face, which is an Iranian 
program which, as you pointed out, is couched in terms of 
nuclear power, but doesn't make a whole lot of sense for a 
country sitting on as much oil and gas as Iran sits on.
    I think the best approach we can take is to try to find a 
diplomatic solution to this, as the President has said, to 
support the European Union 3 (EU-3). I think the President had 
some discussions with Chancellor Schroeder earlier this week 
which addressed this question about urging the European Union--
French, Germans, and Brits--to continue to pursue in a very 
clear way the objective of getting a complete freeze of Iran's 
uranium enrichment program, and to their weapons program. I 
think we ought to do everything we can to try and support them 
to get that outcome. We also need to bear in mind, at some 
point--I don't think we're there yet--what other steps we take 
if they can't succeed. As I said, I don't think we're at that 
point yet, but at some point, the question obviously presents 
itself of whether to go to the United Nations Security Council 
and seek sanctions.
    Chairman Warner. This election may provide an impetus for 
exploration of other options. I'll leave that to the President. 
I think thus far, the President's approach has been quite 
satisfactory from my perspective on this, but I'd just make an 
observation. You don't have to reply to it, but throughout the 
years, Israel has shown remarkable determination and courage, 
to survive in that region and be an island of democracy, which 
the whole world respects. This issue of the nuclear course of 
action that Iran takes could complicate their own formulation 
of how best to protect themselves, and I think, protect the 
region. We'll watch that issue very closely as we go along.
    I'd like to turn to Turkey. I used to attend and conduct 
our daily briefings throughout the military operations in this 
second conflict that we've had in the Gulf. I remember the 
utter astonishment that we experienced here in the Senate when 
a valued ally, that Turkey has been through these years, put 
certain impediments to our carefully laid out and thought 
through plans for the conflict, particularly with reference to 
the 4th Infantry Division. It has left in this Senator, and I 
think in other Senators, a concern about the role of Turkey as 
a strong partner in trying to bring about the collective goals 
of the coalition of nations for Iraq. I think it's important 
that we receive your views. I commend Secretary Rumsfeld. I had 
mentioned it several times publicly myself--without any 
specific consultation with him, or discussions with him--he 
brought up that the turn of events that we've experienced after 
the fall of Baghdad and the insurgency might have been quite 
different if that 4th Infantry Division had been able to 
disembark as planned in the Mediterranean and come down through 
that region in company with the other military actions of the 
coalition forces. Maybe we would not have experienced the level 
of terrorism that we have in certain regions in the path of 
that planned operation of the 4th Infantry Division which then, 
of course, had to go all the way around through the Suez Canal 
and down and come in through the ports of the Gulf region. A 
regrettable chapter. I'd like to have your views.
    Ambassador Edelman. I certainly agree, Senator. It was 
regrettable that we didn't get the vote on March 1. I think it 
was a huge disappointment, obviously, to all of us in the U.S. 
Government. I was actually not yet Ambassador to Turkey at the 
time of the March 1 vote, but for all of us who had been 
working on the issues and on the U.S.-Turkish relationship, it 
was an enormous disappointment.
    I think in fairness it's worth pointing out that we have 
had very good cooperation with Turkey on a variety of other 
issues since the March 1 vote, and I think the Turks do share 
with us the same objectives of a stable, politically unified 
Iraq, with its territorial integrity intact. I think over time 
they have reoriented their policies a little bit more in the 
direction that is constant with our own, which is to say not 
reflecting purely their concerns about the Kurdish population 
in the North, but looking at the country in a broader frame of 
reference, and the need to work with a lot of other elements. 
The things that they have done, first of all, helped maintain 
the ground line of communication to our forces through the 
Habur Gate, for which a tremendous amount of the sustainment 
material for our forces flows. They've provided overflight 
rights, of course, and have allowed us to use Incirlik Air Base 
both for refueling missions----
    Chairman Warner. Yes, they've made very valuable 
contributions to the pre-invasion of our forces, coalition 
forces, into Iraq, and, for which we have consistently 
expressed here in Congress and elsewhere, our gratitude to 
Turkey for allowing the use of Incirlik, and overflight rights. 
I recognize that there is a problem. The Turkish Prime Minister 
visited the United States. I was privileged to join the 
leadership in meeting with him, and he expressed his concern, 
and I think our President likewise expressed our concern as a 
nation with such threats as they have had from these 
infiltrators. You bring to bear a great deal of knowledge on 
that situation, and I'm sure you'll watch it carefully. I'll 
put another more expanded question into the record on that 
problem.
    I think it's remarkable that at NATO, we have one of the 
finest men we've ever had in General Jones as the commander 
there. He keeps the Senate, and I'm sure the House also, but he 
keeps us informed in a time-sensitive manner of all the 
decisions. He makes every effort to visit with the members of 
this committee and other Senators when he's back here in the 
area to bring us up-to-date, and in his most recent visit, we 
discussed at length, the International Security Assistance 
Force, currently led by NATO. He acknowledged with a sense of 
pride and respect, that, with a French General in charge, 
they've done a good job of enforcing the peace and security in 
the Kabul area. As expanded, with a limited number of 
provincial reconstruction teams in some of the Northern areas, 
at Sector One and Sector Two--we talked about it with General 
Pace--are you comfortable with the pace at which NATO is moving 
towards expanding? In the future, perhaps further into Sector 
Three, and then the extent to which the U.S. and other forces 
work on Sector Four, they will have overall responsibility, and 
the NATO Commander then, becomes the principal military 
commander if all four quadrants come in in that region. Would 
that be correct?
    Ambassador Edelman. I have actually not had a chance to 
look in detail at these developments.
    Chairman Warner. Let's withdraw that as a question. It's 
more of an observation.
    Ambassador Edelman. I was going to say, I am aware that 
General Jones and the NATO Secretary General are concerned that 
we are not getting enough support from the other allies in 
deploying the Provincial Reconstruction Teams (PRTs), and I 
think we do need to work on that.
    Chairman Warner. If the new Secretary General, who is 
indeed an impressive individual, and I--like other members of 
the committee--have known a succession of them. Lord Robertson 
was extraordinary, as his predecessor, but he's a man of strong 
commitments and will. He's working on trying to get a level of 
participation by a range of NATO countries, given they have 
these regrettable governmental options that restrict the manner 
in which those forces can be used in some way. I do hope this 
overall program of eventual participation in all of the sectors 
will come to pass, and I trust that you will have a heavy 
involvement in that.
    Ambassador Edelman. Certainly, because I think extending 
the ability of the government in Kabul to have its reach go 
beyond the city and into the various provinces are important. 
The PRTs are a crucial element in that, and the more we can get 
them out there, the better off we'll all be.
    Chairman Warner. The drug trade problem is a concern here 
in the Senate. At the moment, steps are being taken to try and 
realistically deal with that situation. The quantity of drugs 
emanating from Afghanistan has increased exponentially over the 
past 18 months, and this can't be permitted. It's really 
undermining so much of the good work, and some of it in the 
Balkan area, which you're familiar with, that is how the drugs 
proceed to traverse the geography and work their way primarily 
into Europe.
    Mr. Stanley, you've gotten a marvelous sendoff here by my 
colleague Pat Roberts, and my dearly beloved former colleague, 
Senator Dole. Again, we're fortunate that you and your family 
have stepped up to take on this challenge. You've undoubtedly 
listened to what I observed with regard to the Secretary of 
Defense in discussing with Ambassador Edelman his credentials, 
and I see in you the same set of credentials to be a firm and 
staunch working partner to the Secretary. He's highly dependent 
on you to interface and work with Congress and, as your 
predecessor would tell you, it's a challenge, but it's one that 
we have to meet and make work successfully. You too have the 
courage, do you not--I'd like to have it on the record--to look 
him in the eye and say you feel that some thoughts he might 
have the direction the Department is moving in is not in the 
best interest of the Department and perhaps the country, 
wouldn't you? You can assure me of that?
    Mr. Stanley. Without question, Senator.
    Chairman Warner. All right, I can accept that.
    A former Assistant Secretary of Defense for Legislative 
Affairs testified a few years ago that he had 40 individuals on 
his staff, and that by his estimate there were 300 to 400 
persons throughout DOD performing legislative functions. You've 
indicated that your staff is down to 32, but that the total 
number of personnel throughout DOD engaged in efforts ranges 
from 400 to 600. How are you going to deal with that problem?
    Mr. Stanley. Mr. Chairman, clearly we have a Legislative 
Affairs insurgency ongoing in the Department of Defense, and 
you can appreciate that those battles are protracted. However, 
it is my intent that if confirmed, I will take up a proposal, 
which has been requested by the Secretary and the Deputy 
Secretary, on how to reorganize Legislative Affairs in a manner 
that is more cohesive. It meets the title 10 specifications; it 
says the Assistant Secretary of Defense for Legislative Affairs 
is the point of contact, the central point and coordinating 
function for the Department of Defense. We will organize in 
this, in a rational manner--not to stifle--but to provide this 
committee and Congress with the kind of service that you 
deserve and should expect.
    Chairman Warner. Through the years that I've had the 
opportunity to work with the various post-Active-Duty 
individuals who are given the legislative responsibility by the 
military departments. I think we've experienced very able 
individuals, successively appointed by the military 
secretaries, with the concurrence of the Secretary of Defense.
    You've noted that the post-fellowship utilization of 
military officers who have been assigned as legislative fellows 
has been something that needs to be examined. It's important 
that they look upon this assignment as not--in any way--a 
deterrent for further recognition and more challenging posts in 
the military services when they return from these assignments. 
By legislation and DOD regulations, however, it is required 
that officers be assigned to billets that will make good use of 
their experiences on Capitol Hill. I just hope that you will 
take under your personal cognizance that program. There have 
been some great individuals--I'll cite one who I've had some 
familiarity with, and that's John McCain's father, who was in 
the Legislative Affairs post and survived it during the very 
difficult early days of Vietnam. He went on to be Commander in 
Chief of all U.S. Forces in the Pacific (CINCPAC), and with 
great skill and empathy he managed those responsibilities 
during a very critical time of the Vietnam War.
    I remember on my trips to Vietnam always stopping at his 
home and discussing with him the plans that he was implementing 
during that conflict, and as I exited, I would stop and share 
with him my observation when I was returning back to the 
Pentagon. But that's just one example.
    I'll mention another individual--when I was Secretary of 
the Navy I had the services of a Brigadier General in the 
Marine Corps named Don Hittle. He was a veteran of the Iwo Jima 
campaign, and had a lifelong career in the Marines. I was 
taught a great deal by him of the important role of the 
uniformed officers who are assigned duty working with the 
Congress of the United States and the dangers of doing so. I'd 
like to have your reassurance on that.
    Mr. Stanley. You certainly have my assurances, Mr. 
Chairman, and I'd just briefly reflect that I believe General 
Jones is also a product of that program.
    Chairman Warner. Oh, I remember him well. He came here as a 
major, and actually got promoted, and there he is today. I'm 
glad you brought that up as an example.
    Mr. Stanley. The Legislative Fellowship Program offers our 
officers a tremendously broadening experience, and I also 
believe as fewer and fewer Members of Congress come to these 
positions without military experience themselves, that it is a 
two-way street, and that we should use the experience of our 
men and women in uniform to present first-hand what life in the 
military is all about in order to build a mutual understanding. 
That Fellowship Program, I believe, is extremely important to 
both the executive and the legislative branch, to bridge the 
gaps in understanding.
    Chairman Warner. When I came to the Senate 27 years ago, I 
think close to 80 percent of the Senate had at one time or 
another, served in uniform. Today, that figure, combined for 
House and Senate, is somewhere around 30 percent or below. In 
no way should that represent or impair on members in quickly 
learning about the military, nor on their desire to be an 
integral part of the work of the committees of Congress, 
principally our committee and the appropriators in taking care 
of the men and women of the Armed Forces. I draw on some modest 
experience I had in the military--yes, it has been helpful, and 
it's given me an insight--and I've often said that the military 
did more for me than I ever did for them when I was in uniform. 
We're all trying to do payback now for the magnificent support 
those of us that served have gained by that military service, 
but others on this committee are very strong in their learning 
about the military. They very quickly, I think, gained the 
ability to make decisions equally in every respect to myself 
and others. Do watch that very carefully. I think the fellows 
and the liaison officers play a vital role. We're fortunate 
that when we take our trips to visit the military overseas that 
they accompany us and work with us. Those trips couldn't really 
achieve their measure of importance without their active 
participation. Thank you, sir.
    Now, Mr. Rispoli, I was so impressed when you came through 
the office that I really don't need to put a lot of questions 
to you. You are eminently qualified to take on this 
responsibility and are very anxious to do so.
    I'd ask this. This year the Department of Energy (DOE) will 
spend approximately $7 billion on environmental cleanup of 
former DOE sites. That is a significant amount of money. It's 
needed to return those sites to areas that are compatible with 
the highest of standards that were required to enable our 
population to live in the proximity of those areas, and perhaps 
in most instances to use these sites for other purposes 
unrelated to the military.
    The cleanup effort is a tremendously complex undertaking, 
and many of the toughest challenges remain. In your career, you 
have directed environmental cleanup programs for the Navy and 
developed unique expertise in the management of large civil 
works projects, you have had a distinguished career yourself as 
a naval officer. You're very modest about that, some 20 plus 
years.
    In your view, what approaches and techniques are most 
likely to assure the success in an environmental cleanup 
program?
    Mr. Rispoli. Chairman Warner, thank you for that question, 
it's a very challenging program. Its size is very large; the 
technical complexity is probably unrivaled in this Nation. I'm 
told by experts that we have some of the most technically 
complex projects to clean up in the entire world. Safety is 
always important; it's a very vital issue, both for the workers 
and for the communities that will eventually, as you mentioned, 
retain use of many of these sites. I think that the area of 
focus that I would look at in addition to dealing with those, 
is the management approach. My management style has been proven 
through the years. I believe that you have to have corporate 
processes, if you will, in other words, yes, projects are 
different, challenges are different, but you have to have some 
corporate standard that you use as you go through this process. 
We're fortunate today in that we have wonderful electronic 
tools to help us keep track of things like cost, plans, 
schedules, things of this nature--and then you need the people 
who have the expertise, the desire, the zeal, and the knowledge 
to be able to execute those plans and targets. I don't know 
many of the people yet in the organization, although I've been 
in the Department of Energy for 5 years. I've focused on 
certain areas of the work, but I'm very confident that with the 
high caliber of people, with the application of processes, 
corporate processes, and taking advantage of technology, always 
mindful of safety and commitments to the public, to the 
regulators, to this body and Congress, that we can succeed.
    Chairman Warner. I would hope that early on you might take 
the initiative to reach out to the various environmental 
organizations which have a special interest and a special 
expertise in your complicated areas, and not wait until a 
problem is brought to you by them or others. See if you can't 
begin to establish a rapport and a relationship that will 
enable you to work effectively with them. Certainly, I've had 
my differences in the past, but I've gained, overall, a respect 
for the individuals who take it upon themselves to serve in an 
executive capacity or other capacity in these organizations for 
the betterment of Earth and protection of our health that is so 
important to our society. I hope you'll do a reach-out program 
early on, if only to invite them in and have a cup of coffee, 
and discuss it a little bit.
    Mr. Rispoli. Mr. Chairman, thank you for that observation. 
In my career, especially in environmental work, I've become 
very accustomed to working with senior Environmental Protection 
Agency (EPA) officials, State regulators as well as non-
governmental organizations that are the stakeholders for their 
communities. I must tell you that I believe if you're honest, 
open, and you can convince the people in the stakeholder 
community that you really are making a difference and making 
things happen, that you can keep that good rapport, so yes sir, 
I would intend to proactively learn about those people, learn 
where they are and meet with them. Thank you.
    Chairman Warner. Thank you very much. We've had an 
excellent hearing, gentleman, and I thank your families, again, 
for their participation. I look forward to the early 
confirmation of all three of you. Thank you.
    [Whereupon, at 1:55 p.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Peter Pace, USMC, by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously have answered the committee's policy 
questions on the reforms brought about by the Goldwater-Nichols Act 
(GNA) in connection with your nominations to be Commander, U.S. 
Southern Command, and Vice Chairman of the Joint Chiefs of Staff (JCS).
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
most recent confirmation hearing on July 24, 2003?
    Answer. My fundamental view of Goldwater-Nichols legislation 
remains unchanged. Goldwater-Nichols has institutionalized joint 
warfighting in today's generation of soldiers, sailors, airmen, and 
marines--our force is joint--thinks joint--and fights joint. Your Armed 
Forces continue to prepare for complex future operations that require 
knowledgeable, innovative and decisive leaders, capable of succeeding 
in a fluid and often-chaotic environment. Educating and empowering the 
joint force remains a priority.
    Question. You previously have indicated in response to questions 
about the need for changes to Goldwater-Nichols, that the Joint Staff 
has sought to identify methods that would allow the Chairman of the JCS 
and the Vice Chairman of the JCS to carry out their duties under title 
10, United States Code, more effectively and efficiently. The committee 
has received testimony from Secretary England, General Jones, and 
Admiral Clark that changes relating to the acquisition process under 
Goldwater-Nichols may be necessary.
    What are your current views about the need for additional 
modifications of Goldwater-Nichols in light of recently identified 
problems in the Air Force acquisition process, ongoing transformation, 
and JCS efforts to identify necessary modifications?
    Answer. Goldwater-Nichols continues to effectively shape and 
integrate unified action within the Armed Forces to meet the strategic 
objectives outlined by the President in his National Security Strategy. 
Goldwater-Nichols still provides relevant guidance to all our 
Departmental processes, and provides us the flexibility to continue to 
look at innovative ways to improve our business practices. While a 
review and possible changes to our acquisition processes are warranted, 
I believe what is most worth exploring is application of a ``Goldwater-
Nichols like'' framework across the United States Government (USG), to 
maximize integration and effective use of interagency resources.

                                 DUTIES

    Question. Based on your experience as a combatant commander and as 
Vice Chairman of the JCS, what recommendations, if any, do you have for 
changes in the duties and functions of sections 152 through 155 of 
title 10, United States Code, relating to the Chairman and Vice 
Chairman of the Joint Chiefs of Staff, and the organization and 
operation of the Joint Staff?
    Answer. I have one recommendation. If the Homeland Security Council 
is going to remain separate from the National Security Council, I 
recommend the CJCS be designated as a statutory advisor to the Homeland 
Security Council. The Armed Forces play a vital role in homeland 
defense, and the Chairman should be included formally as principle 
military advisor to the Homeland Security Council.

                             RELATIONSHIPS

    Question. Section 151(b) of title 10, United States Code, provides 
that the Chairman of the JCS is the principal military adviser to the 
President, the National Security Council, and the Secretary of Defense. 
Other sections of law and traditional practice establish important 
relationships between the Chairman and other officials.
    Please identify any changes in the relationships the Chairman and 
JCS have experienced with the following officials since your last 
confirmation hearing:
    The Secretary of Defense.
    Answer. I have not noticed any changes in the relationship of the 
Chairman of the Joint Chiefs of Staff and the Secretary of Defense 
since my last confirmation hearing.
    Question. The Deputy Secretary of Defense.
    Answer. I have not noticed any changes in the relationship of the 
Chairman of the Joint Chiefs of Staff and the Deputy Secretary of 
Defense since my last confirmation hearing.
    Question. The Under Secretaries of Defense.
    Answer. I have not noticed any changes in the relationship of the 
Chairman of the Joint Chiefs of Staff and the Under Secretaries of 
Defense since my last confirmation hearing.
    Question. The Assistant Secretaries of Defense.
    Answer. I have not noticed any changes in the relationship of the 
Chairman of the Joint Chiefs of Staff and the Assistant Secretaries of 
Defense since my last confirmation hearing.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. I have not noticed any changes in the relationship of the 
Chairman of the Joint Chiefs of Staff and my current position since my 
last confirmation hearing.
    Question. The Secretaries of the Military Departments.
    Answer. I have not noticed any changes in the relationship of the 
Chairman of the Joint Chiefs of Staff and the Secretaries of the 
Military Departments since my last confirmation hearing.
    Question. The Chiefs of Staff of the Services.
    Answer. I have not noticed any changes in the relationship of the 
Chairman of the Joint Chiefs of Staff and the Chiefs of Staff of the 
Services since my last confirmation hearing.
    Question. The Combatant Commanders.
    Answer. I have not noticed any changes in the relationship of the 
Chairman of the Joint Chiefs of Staff and the combatant commanders 
since my last confirmation hearing.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would confront if confirmed as Chairman of the Joint Chiefs of Staff?
    Answer. There are several challenges that confront the Armed Forces 
as we fight today's war and prepare for tomorrow's. We will continue 
our efforts to win the war on terror and to provide a stable, secure 
environment in Iraq and Afghanistan inside of which their sovereign 
governments can develop and mature. We will continue to transform the 
Armed Forces, taking advantage of the lessons learned over the past 3 
years, as we develop a military capable of rapid adaptation to meet our 
future challenges. We are in the process of completing a comprehensive 
review of our Armed Forces in the Quadrennial Defense Review with the 
aim of developing the future Joint Force that has the right people with 
the right capabilities to meet the challenges of the 21st century.
    The foundation of our success in the Armed Forces is our people--
and our focus will remain on recruiting, training and developing our 
best and brightest to continue to deliver to the American people the 
finest fighting force in the world. We must ensure we take care of 
these incredible soldiers, sailors, airmen, marines, and their families 
by ensuring we have effective programs to support their professional, 
physical, and financial well-being.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Currently the Department is conducting the Quadrennial 
Defense Review directed in Title 10. The Secretary has organized this 
effort to include both civilian and military leadership analyzing six 
focus areas. Through this review, I will work with the Secretary and 
make recommendations regarding the appropriate capabilities, policies 
and resources needed to continue to transform the Armed Forces to meet 
current and future security challenges.

                               PRIORITIES

    Question. In his responses to the committee's advance policy 
questions in July 2003, General Myers indicated that his priorities 
included continued focus on winning the war on terrorism, improving 
joint warfighting, and transforming our Nation's military to face the 
dangers of the 21st century while taking care of the men and women 
serving in the Armed Forces.
    How would you describe progress to date in attaining these goals?
    Answer. We continue to make steady gains in these three areas. Our 
war on terrorism efforts, both at home and abroad, have been 
successful. While we still face significant challenges, our forces have 
performed superbly in defending the homeland and conducting offensive 
counterterrorism operations to defeat threats closest to their source. 
We have made major strides in transforming the force, from readiness 
forecasting, mobilization procedures, and force management, to adapting 
whole new ways of organizing, equipping, and training our forces like 
the Army's modular combat brigade concept. Likewise, the commitment to 
our people has enhanced their benefits and maintained high morale in an 
otherwise very busy force. These successful efforts, and many others, 
continue to transform our forces and enhance our joint warfighting 
capabilities.
    Question. If confirmed, what would be your priorities as Chairman?
    Answer. Having had the opportunity to serve as Vice Chairman under 
Dick Myers, I believe his focus these past 4 years has been spot on--
appropriate and in the best interests of our Nation and our Armed 
Forces. My priorities will continue to focus on winning the war on 
terrorism, improving joint warfighting, and continuing the 
transformation of our Nation's military. We will focus on five themes: 
(1) execute a comprehensive strategy to undermine and defeat 
extremists, (2) strengthen our capability to prevent conflict, (3) 
increase speed of adaptation of the force and the interagency process, 
(4) shape and size our joint force to meet the challenges of the 
future, and (5) continue to pursue quality of life initiatives.

                             TRANSFORMATION

    Question. You previously have stressed the objective in 
transformation of achieving a new ``mind set'' within DOD and 
developing a generation of warfighters who are accomplished in their 
service culture and strengths and equally comfortable applying that 
knowledge in the joint arena.
    Please describe the progress that the Department, including the JCS 
and the Joint Staff, has made in transforming the Armed Forces.
    Answer. We've made progress in the transformation of many concepts 
and programs, to include: intelligence reform and information sharing 
in global war on terrorism; Network Centric Operations and the Global 
Information Grid that will provide the backbone systems for global end-
to-end communications for DOD; efficient and effective integration of 
various USG agencies in the Joint Interagency Coordination Groups of 
our combatant commands; new tools and ideas for future warfighting as a 
result of joint experimentation, to include the way we plan, 
preposition, and mobilize our current force; and finally, improvements 
in our processes and the interaction of our organizations--cultural 
transformation. General Schoomaker offers a tremendous example of 
transforming our ``mind set.'' By simply reorganizing the same Army 
assets into Brigade size units, he has created greater capacity, in a 
more agile, flexible force.
    Question. If confirmed, what would be your goals regarding 
transformation in the future?
    Answer. We will examine the near-, mid-, and long-term capabilities 
the Department will require to remain the world's greatest fighting 
force. We will use joint concepts and experimentation to help us make 
the best decisions we can to solve today's issues while also continuing 
to transform so we maintain our joint warfighting capabilities into the 
future. We will continue to aggressively work on our cultural 
transformation--looking at our current assets in new ways to solve the 
challenges that will face us in the future.
    Question. Do you believe the Joint Staff should play a larger role 
in transformation? If so, in what ways?
    Answer. The requirement to transform our forces will remain one of 
my top priorities. We are a Nation at war, and one of our greatest 
challenges is to transform while protecting the U.S. from direct 
attack; fighting the global war on terror; and reducing the potential 
for future conflict. If confirmed, I will do my best to ensure we 
continue to invest heavily in transformation, both intellectually and 
materially. It is a difficult undertaking, especially in time of war; 
but it must be done.

                              AFGHANISTAN

    Question. What is your assessment of the long-term prospects for 
Afghan military forces to effectively provide a secure environment for 
a democratically elected government to function?
    Answer. The long-term prospects for Afghan security forces are 
excellent. To date there are approximately 42,000 trained Afghan 
National Police and 24,000 Afghan National Army soldiers. Currently the 
Afghan security forces are conducting patrols side by side with our 
coalition forces and performing well. Starting this fall units will 
undergo Unit Readiness exercises to measure capability to operate 
independently from coalition forces. The process of handing over 
security responsibilities is a deliberate one, involving incremental 
steps of training, small unit operations, and ever-increasing 
responsibilities being transferred to the Afghan National Army and 
Afghan National Police.
    Question. What, if any, types of military assistance would you 
recommend in addition to current efforts?
    Answer. Our commanders on the ground continually assess their 
requirements and we intend to provide the forces that they need. 
Military assistance will come from U.S. and coalition forces, which in 
this case includes NATO.
    The fiscal year 2005 Supplemental Afghan Freedom Support 
Appropriations Act provides appropriate funding to support our current 
military efforts in Afghanistan. The Afghanistan Security Forces Fund 
included in that Act provides funding to help stand up national level 
security forces in Afghanistan. Our current efforts in that regard are 
going extremely well. However, as we consider ways to accelerate 
training efforts of the Afghan National Army and assist the Afghan 
police, we may need additional funds to support that accelerated 
effort.
    Question. What is the current division of labor between U.S., 
coalition partners, and the Government of Afghanistan in overall 
counterdrug efforts, particularly with regard to identifying drug 
traffickers, destroying drug labs, interdicting drugs and drug-related 
imports and exports, and destroying opium fields?
    Answer. Our goal is an Afghanistan properly controlled by the 
Afghan Government, not outside forces. So it is good that the 
counterdrug effort is handled principally as a law enforcement effort 
of the Government of Afghanistan. The United Kingdom is the lead 
coalition nation in assisting the Afghan Government. The role of U.S. 
forces and our coalition partners in this effort has been to provide 
the Afghans the training, intelligence, and logistics support necessary 
to execute their counterdrug missions.
    Specifically, coalition forces have provided Close Air Support/
Medical Evacuation, intelligence, planning and airlift on an as 
available basis. The Afghan government's Central Poppy Eradication 
Force, based in Kabul, is responsible for the destruction of opium 
fields.
    Question. How would you assess the effectiveness of this division 
of labor, and what, if any, changes would you recommend?
    Answer. The division of labor is appropriate and the coalition's 
participation should continue to be in a supporting role as 
counternarcotics is a law enforcement matter. The challenges to the 
counterdrug effort include insufficient numbers of trained Police and 
counterdrug forces, corrupt local officials, insufficient legal and 
judicial infrastructure, and Alternative Livelihood efforts that have 
not yet yielded the desired results.

                       STATUS OF THE ARMED FORCES

    Question. Ongoing operations in Iraq, Afghanistan, and worldwide in 
the global war on terrorism have placed great demands on active and 
Reserve military personnel and their families.
    In your view, how is the overall morale of forces at the present 
time, particularly with regard to those units and individuals who have 
been deployed for extended periods of time and are facing the prospect 
of redeployment to combat zones?
    Answer. The morale of our forces continues to be strong, especially 
in our deployed units. I have observed this first hand. Our marines, 
soldiers, sailors, and airmen, both active and Reserve components, 
recognize that while they are in a demanding fight, their efforts are 
having a profound, positive impact on some very troubled areas of the 
world. They see both the direct effect they are having on protecting 
America and the good they are doing for people abroad. These effects 
upon them are clearly reflected in their willingness to reenlist at 
historically high rates.
    I am also extremely proud of our military families, who bear the 
burden of keeping the household running, balancing the day-to-day 
details with the constant concern of their loved ones serving in harm's 
way. Their courage and sacrifice equal that of our warriors in uniform, 
and they deserve our continued gratitude and support. Reenlistment is 
very much a family decision, and again our reenlistment rates show that 
our families are equally committed.
    Question. If confirmed, what plans would you implement to address 
the stress that high operational tempo under combat conditions places 
on our forces and their families?
    Answer. The operational tempo of U.S. forces during the 3 plus 
years since September 11, 2001, has been significant. My task is to 
assist the Secretary of Defense in making every effort to achieve the 
most efficient use of our forces and to manage those forces within 
acceptable levels of stress. Accordingly, we developed with the 
Secretary 47 critical tasks to reduce the stress of the force that 
apply lessons learned from the global war on terrorism; expand focused 
joint training; coordinate technical interoperability with coalition 
forces; and reorganize force capabilities into a modular structure 
supported by a minimum logistical footprint. The Department will 
monitor, measure, analyze and exploit each of these areas for specific 
opportunities to reduce stress on the force for both the active and 
Reserve components.
    Dr. Chu has the lead for the Department on this very important 
endeavor and each of the Services and the Joint Staff are playing a 
vital role. If confirmed I look forward to working with Dr. Chu and the 
Joint Chiefs to reduce relieve stress on our forces and their families.

                        JOINT OFFICER MANAGEMENT

    Question. Statutory standards for joint officer management and 
joint professional military education have increasingly been the 
subject of proposals for change that would afford greater latitude to 
the Joint Staff and the services in the management of officers. In 
section 531 of the Ronald W. Reagan National Defense Authorization Act 
for Fiscal Year 2005, the Secretary of Defense is required to develop a 
strategic plan for joint officer management and joint professional 
military education that would link future requirements for active and 
Reserve military personnel who are trained and educated in joint 
matters to the resources required to develop those officers in terms of 
manpower, formal education, practical experience, and other 
requirements.
    What do you consider to be the principal problems that should be 
addressed by the strategic plan and, if confirmed, what objectives 
would you hope to achieve?
    Answer. Since the enactment of GNA in 1986, we have made great 
strides in the joint arena. However, the current world environment and 
the enemies we face on today's battlefield are radically different than 
those of 20 years ago. GNA was based on our assessment of the Cold War 
environment and the Department's limited experience in true joint 
operations. Today's military is actively and decisively engaged in 
joint operations to an extent we never imagined. We have embraced joint 
operations and continue to adapt to fighting jointly.
    The Joint Staff is assisting Dr. David Chu, USD (P&R), in 
developing a strategic plan for joint total force development that will 
be directly linked to the overall missions and goals of the department. 
This new strategic plan will fully define the specific capabilities and 
competencies required of our officers, senior civilians, field grade 
Reserve component officers, and senior noncommissioned officers. 
Additionally, the plan will address the resources, education, training, 
assignments and career progression requirements needed to perform and 
succeed in a joint environment.
    Question. What do you consider to be the primary strengths and 
weaknesses of the current requirements for joint professional military 
education with respect to qualification as a joint specialty officer?
    Answer. The primary strength of the current system is that it 
produces outstanding, qualified joint specialists who perform at the 
highest organizational levels in critical joint positions. The major 
drawbacks are ``chokepoints'' within officer career paths that reduce 
the opportunity of gaining joint experience and create a need for 
prerequisite waivers. These chokepoints have constrained opportunities 
for officers and have impacted organizations and missions.
    Broader and more equitable standards for defining what constitutes 
a ``fully qualified'' joint officer are required. The CJCS' new vision 
of Joint Officer Development envisions multiple avenues for officers to 
attain joint qualified officer (JQO) status, such as obtaining both 
JPME and Joint Individual training from both resident and non-resident 
paths, as well as counting experiences gained during service on a Joint 
Task Force or in Service billets that have inherently joint aspects. 
For example, an officer in the G3 of the 18th Airborne Corps, who is in 
combat operations with a Joint or coalition force, could generate joint 
credit from that assignment if it is found that most of his work is in 
joint matters and that he further displays ``joint competence'' in the 
performance of his duties.
    The multiple paths to the JQO designation as well as service 
responsibilities to track, monitor and record Joint experience, will 
provide relief to the currently encumbered manpower systems and reduce 
the ad hoc ``work-arounds'' regarding assignments and tour-lengths. 
This broader definition of a joint qualified officer will provide 
increased flexibility in the system and more effectively produce the 
joint specialists needed.
    Question. What is your assessment of the appropriate balance 
between education and experience in achieving qualification as a joint 
specialty officer?
    Answer. Based on individual strengths and talents, one proscriptive 
approach of x amount of education and y amount of training may not best 
serve our needs to joint officer development. I believe that our system 
must be flexible enough to provide selected officers a tailored mix of 
joint education, training and assignment opportunities they need to 
gain the experience and achieve the competency-level an organization 
requires to effectively fill critical joint positions.

                           REBALANCING FORCES

    Question. In a memorandum of July 9, 2003, the Secretary of Defense 
directed action by the Services, the Joint Staff, and the Office of the 
Secretary of Defense aimed at achieving better balance in the 
capabilities of the active and Reserve components. The Secretary noted 
that the Department ``needs to promote judicious and prudent use of the 
Reserve components with force rebalancing initiatives that reduce 
strain through the efficient application of manpower and technological 
solution based on a disciplined force requirements process.''
    What progress has been made in achieving the Secretary's vision?
    Answer. The Secretary's vision encompassed three principal 
objectives: rebalance the Active and Reserve Forces to reduce the need 
for involuntary mobilization of the Guard and Reserve; establish a more 
rigorous process for reviewing joint requirements, which ensures that 
force structure is designed appropriately and requests for forces are 
validated promptly to provide timely notice of mobilization; and make 
the mobilization and demobilization process more efficient.
    The Department continually assesses its force structure and 
rebalances within and between the Active and Reserve components to move 
forces from low demand to high demand specialties with the desired 
result of improved readiness and deployability. These rebalancing 
efforts will shift forces to critical specialties such as Civil 
Affairs, Military Police, Special Forces, Psychological Operations, and 
Intelligence while divesting Cold War structure to provide a more 
capable and lethal force to fight the global war on terrorism.
    We have instituted a new process for assignment, allocation and 
apportionment of U.S. military forces to the combatant commands. The 
Global Force Management Process provides comprehensive insight into the 
global availability of U.S. military forces and helps us match 
requirements with available forces. Sourcing solutions are developed 
and then approved at a quarterly Global Force Management Board designed 
to ensure the best options are selected to achieve desired effects.
    Additionally, the lessons learned during Operation Iraqi Freedom 
concerning Reserve mobilization and demobilization have been put into 
action. Specific recommendations were made, each with potential follow-
on actions, to enhance the capability of the Department to mobilize and 
deploy Reserve Forces. The Department has rewritten policies that have 
been included in the Global Force Management process. As part of this 
process, every Reserve deployment is reviewed for an effective 
alternative source of manpower--civilian, contractor, or volunteer.
    Question. What do you consider to be the biggest continuing 
obstacles to achieving the goals that the Secretary of Defense has set 
forth in his memorandum?
    Answer. The biggest challenge to achieving the Secretary's goals is 
determining the appropriate balance between the Active and Reserve 
components while maintaining sufficient warfighting capability. To that 
end, rebalancing of the force is an ongoing activity within the 
Department. The Department is continually assessing its force structure 
and rebalancing within, and between, the Active and Reserve components 
with the expressed purpose of improving readiness and deployability.

                            IRAQ INSURGENCY

    Question. We have all been concerned about the recent rise in 
violence in Iraq, particularly with regard to suicide bombers. Our 
current strategy is to continue to train, equip, and assist the Iraqi 
security forces in their efforts to be able to take responsibility for 
internal security in Iraq.
    What progress has been made in training Iraqi security forces?
    Answer. Iraqi security forces (ISF) are making steady progress. In 
May 2003 there were no ISF. In July 2004 there were 6 newly formed 
Regular Army battalions in training and over 32,000 trained police. In 
June of this year, there are over 100 combat battalions in the Iraqi 
Defense and Interior ministries and over 60,600 trained and equipped 
police. Despite horrific terrorist attacks directed at the ISF, 
security force development maintains its forward momentum: large 
numbers of recruits are volunteering and being trained; the supply 
system is equipping them; and the infrastructure is maturing to house 
and support these units.
    Question. How would you assess the current capabilities of the 
Iraqi security forces?
    Answer. Most Iraqi combat battalions are capable of planning, 
executing, and sustaining counterinsurgency operations with coalition 
support or in conjunction with coalition units. All are on track for 
eventual independent operations and, while working toward that end, all 
units are in the fight. Regular police and border forces continue to 
struggle in high threat areas; however, we are working to strengthen 
links to coalition forces to enhance their capabilities.
    Question. What system has been developed for assessing those 
capabilities?
    Answer. The process for measuring MOD Iraqi security forces 
capability looks at six areas of readiness. They are: Personnel, 
Command and Control, Training, Equipping, Sustainment, and Leadership. 
Using these measurements, battalion size units are assessed on a 
readiness rating of Level 1-4. At the top end of readiness, a Level 1 
unit is fully capable of planning, executing, and sustaining 
independent counterinsurgency operations. At the lower end, a Level 4 
unit is just forming and/or incapable of conducting counterinsurgency 
operations. Iraqi commanders and coalition forces will jointly report 
these assessments with parallel reporting up the chain to Multi-
National Corps-Iraq and the Iraqi Joint Headquarters/Iraqi Army 
Headquarters. Minister of Interior (MOI) Special Police Battalions use 
the same assessment system. Measuring the capability of other MOI 
forces is challenging due to the vast number of local police stations 
and border enforcement guard posts throughout Iraq. Multinational 
Forces-Iraq (MNF-I) is finalizing the process for assessing the 
provincial police stations along areas of readiness similar to the 
Ministry of Defense forces. We expect the first iteration of readiness 
reporting using this new process for MOI forces to be completed at the 
end of July 2005.
    Question. With U.S. assistance, the Iraqis are developing combat 
and police units to conduct a variety of missions, including local 
security, external defense, Reserve contingency operations, and 
counterinsurgency.
    What requirement has been established for the number of battalion-
size units of Iraqi security forces to be organized, trained, and 
equipped specifically for counterinsurgency missions?
    Answer. The current authorized number of combat battalions for the 
ISF is 143. These forces include 112 battalions in the Iraqi Army, 3 
battalions of Special Operations Forces within the Ministry of Defense, 
and 28 battalions of Special Police Forces in the Ministry of Interior. 
We anticipate the sovereign government of Iraq to, over time, modify 
the size of their security forces based on internal and external 
threats.
    Question. How many battalions are currently capable of conducting 
counterinsurgency operations with and without coalition assistance, 
respectively?
    Answer. The majority of Iraqi combat battalions are already 
planning, executing, and sustaining counterinsurgency operations with 
coalition support or in conjunction with coalition units. I have 
provided a separate, classified graphic that shows the specific number 
of battalions currently in each category.
    Question. At the current pace of training and equipping, when do 
you anticipate the Iraqis will be ready to assume primary 
responsibility for security in Iraq?
    Answer. CENTCOM and MNF-I regularly assess the capability of the 
ISF and their ability to assume primary responsibility for security in 
Iraq. The pace of transition from U.S. forces to Iraqi security forces 
will be driven by the capability of the Iraqi forces, the level of 
insurgent activity, and the ability of the Iraqi government to provide 
essential services and infrastructure in the areas of security, 
governance, economic development, and communications. Iraqi security 
forces are gaining valuable combat experience and continue to make 
progress toward taking the lead in the counterinsurgency fight. As 
conditions warrant, MNF-I will progressively transition the 
counterinsurgency mission to capable Iraqi security forces at the 
local, regional, and national levels, and assign coalition forces to 
supporting roles with a less visible presence.

                         TREATMENT OF DETAINEES

    Question. The Constitution, laws, and treaty obligations of the 
United States prohibit the torture or cruel, inhuman, or degrading 
treatment or punishment of persons held in U.S. custody.
    What steps, if any, do you believe the Joint Staff should take to 
ensure the humane treatment of detainees in DOD custody and to ensure 
that such detainees are not subjected to torture or cruel, inhuman, or 
degrading treatment?
    Answer. The United States Government will treat all detainees 
humanely and in accordance with applicable international and domestic 
law. Soldiers, sailors, airmen, and marines are trained to treat all 
detainees humanely from the moment they are captured--without 
exception. The Joint Staff, in coordination with and support to the 
combatant commands, constantly evaluates and assesses DOD policies to 
ensure the appropriate treatment of all persons in DOD custody.
    To date, U.S. forces have detained approximately 70,000 individuals 
in the prosecution of the global war on terrorism. These efforts have 
successfully prevented many of the most dangerous people on Earth from 
committing further terrorist acts or criminal activities. Despite 
thorough training and policies that clearly prohibit the maltreatment 
of detainees, a small number of individuals have violated the law. 
Those actions are totally unacceptable, and the United States has 
suffered a direct and severe impact strategically as a result of them.
    Humane treatment is the standard, and deviation from this standard 
will not be tolerated. Credible information regarding detainee abuse 
has been and will continue to be investigated, and individuals will be 
held accountable if abuse is substantiated. The Joint Staff's role in 
this effort, in coordination with OSD and the interagency, is to ensure 
that national level policies and procedures are in place that will 
continue to provide clear guidance to the combatant commanders and the 
component commands on the applicable standards.

                           OPERATIONAL TEMPO

    Question. The U.S. has approximately 138,000 troops deployed in 
Iraq and another 15,000 deployed in Afghanistan, in addition to our 
other overseas commitments in Korea, Japan, Europe, and elsewhere. 
Sustainment of these large-scale deployments has put strains on the 
force, particularly ground forces, and has required the extensive use 
of Reserve component elements.
    For how long is the current level of deployments sustainable?
    Answer. The Armed Forces of our Nation will sustain whatever level 
of operation is required. Thanks to the members of this committee and 
the support of Congress, we have the force structure we need to meet 
the needs of the Nation.
    This is not to say we are accomplishing our many missions, both at 
home and abroad, without challenges. We have a process, the Global 
Force Management System, by which we seek to assign the right forces at 
the right time to meet the requirements of our combatant commanders, 
within acceptable risks.
    One of my most important duties is to convey to the civilian 
leadership of our Nation what the risks are, and provide my best 
military recommendations to mitigate such risks.
    Question. What initiatives are underway or being considered to 
increase the level of coalition military participation in Iraq and 
Afghanistan?
    Answer. The primary vehicle we are using to increase coalition 
participation in Afghanistan is expansion of the NATO and International 
Security Assistance Force initiatives. Over the past several months, 
the Italians assumed control of the formerly U.S.-led Provisional 
Reconstruction Team (PRT) at Herat. As International Security 
Assistance Force expands to the south, the Canadians and U.K. will 
bring in a significant number of troops to assume control of two PRTs 
and conduct security operations. Through frequent mil-to-mil talks with 
our allies, we continually identify areas in which coalition forces can 
provide greater assistance. Through our State Department we make formal 
requests to other governments.
    Question. Under what conditions can U.S. troop levels in Iraq and 
Afghanistan be reduced?
    Answer. U.S. troop levels can be reduced when Afghan security 
forces are capable of operating independently, when NATO/ISAF expansion 
is complete, and when the insurgency is reduced to a level manageable 
by Afghan security forces. The conditions for U.S. troop reductions in 
Iraq will be driven by the capability of the Iraqi forces, the level of 
insurgent activity, and the ability of the Iraqi government to provide 
essential services and infrastructure in the areas of security, 
governance, economic development, and communications. In each case, 
troop reductions in Afghanistan and Iraq will be event-driven, not 
based on timelines.
    Question. The Marine Corps currently conducts 7-month deployments 
to Iraq and Afghanistan, while the Army conducts 12-month deployments.
    What are the operational reasons for this difference?
    Answer. The Service Rotation Policies are based upon the Service 
Chiefs' assessments of how they can best execute their Title 10 
responsibilities to organize, train and equip the force. The Marine 
Corps requested that they be allowed to meet their deployment 
requirements and still maintain as close to their normal 6-month 
deployments as possible. It is the Marine Corps' view that the 7-month 
deployments allow them to meet the CENTCOM requirements, and to 
maintain a high state of readiness in worldwide deploying and deployed 
units.
    Question. What changes, if any, would you recommend to the approach 
taken by either Service?
    Answer. I do not anticipate any changes. The Service Rotation 
Policies are based upon the Service Chiefs' assessments of how they can 
best execute their Title 10 responsibilities to organize, train and 
equip the force. These policies are the product of significant amounts 
of time and effort by the Service Staffs. With these policies each 
Service is bearing its fair share of the requirements based upon their 
core competencies.

                          U.S. FORCES IN KOREA

    Question. In April 2005, the Government of the Republic of Korea 
(ROK) announced it would cut back by 8.9 percent on its financial 
contribution to the U.S. military presence in that nation, citing U.S. 
plans to reduce the number of its deployed troops. As a result, the 
number of locally hired South Korean workers has been reduced by United 
States Forces Korea (USFK).
    In your view, do the planned reductions in the number of U.S. 
troops in South Korea and the funding response by the ROK place in 
jeopardy the goals of the Korea Land Partnership Plan, specifically, 
relocation of Army headquarters from Seoul to Camp Humphrey and other 
locations south of the capital?
    Answer. No. The moves within Korea will continue on schedule. USFK 
is adjusting for the reduction in the Korean financial contribution, 
and it will not affect the Land Partnership Plan. Relocation of the 
Army headquarters from Yongsan is funded separately from the ROK 
financial contribution to the U.S. military presence.
    Question. Increases in pay for U.S. soldiers stationed in the ROK 
as a result of the Army's use of assignment incentive pay and higher 
overseas cost-of-living allowance have made extended tours of duty in 
Korea more attractive.
    Question. Do you support increased numbers of accompanied tours for 
U.S. military personnel assigned duty in the ROK?
    Answer. Yes. We are moving toward the reorganization of 95 
installations across the peninsula into 12 ``enclaves'' that will 
provide for more centralized planning, execution, and coordination of 
our valuable resources. After the construction of these new facilities, 
we anticipate that 25 percent of the U.S. troops serving in South Korea 
will be able to bring their families with them, compared with the 
current level of 10 percent. This new opportunity will not only enhance 
mission capability but will improve the quality of life for troops 
assigned to the Korean peninsula.

                     GLOBAL FORCE MANAGEMENT SYSTEM

    Question. The Department of Defense has instituted a new process 
for allocating U.S. military forces among and between the U.S. 
combatant commands.
    Why has the Global Force Management System been instituted, how 
does it achieve the goal of efficiently allocating forces, and how is 
it different from past practice?
    Answer. The Global Force Management process provides a structured 
means to allocate forces from a global, rather than a regional 
perspective. This process provides the strategic flexibility needed to 
address emerging as well as rotational troop requirements while 
constantly assessing general risks. It provides a more comprehensive 
capability to accurately assess the impact of risks of proposed changes 
in force assignment.

             INTEGRATED GLOBAL PRESENCE AND BASING STRATEGY

    Question. The President announced plans in August 2004 to implement 
an Integrated Global Presence and Basing Strategy (IGPBS) to emphasize 
the expeditionary posture of U.S. forces overseas. This strategy will 
result in the redeployment of tens of thousands of U.S. troops to the 
United States.
    As a result of IGPBS, what adjustments to mobility assets and force 
modernization investments will be required to continue to meet the 
operational requirements of the combatant commanders?
    Answer. The transition from the Cold War's containment strategy to 
a new international security environment has produced formidable 
challenges. The new global posture strategy promotes the expansion of 
allied roles and encourages new partnerships. The strategy relies on a 
tailored force construct to engage in regional security, which 
ultimately prevents war.
    Transformation initiatives utilizing lighter platforms, such as the 
Stryker, U.S. Army modularity, and network-centric operations, 
augmented with prepositioned equipment, should greatly ease the 
stresses placed on our mobility lift requirements. Our ongoing study of 
mobility requirements will give us a better understanding of future 
requirements.
    The new strategy will allow the U.S. to ``transform in stride'' 
while taking better advantage of technology and innovative warfighting 
concepts, improving our ability to meet our alliance commitments and 
global responsibilities.

                    STABILITY AND SUPPORT OPERATIONS

    Question. Operations in Iraq and Afghanistan have underscored the 
importance of planning and training for post-conflict stability 
operations. Increased emphasis has been placed on stability and support 
operations in DOD planning and guidance in order to achieve the goal of 
full integration across all DOD activities.
    What is your assessment of the Department's current emphasis on 
planning for post-conflict scenarios?
    Answer. The Department has placed considerable emphasis on post-
conflict planning. The most critical step in improving our post-
conflict planning is the establishment and integration of a counterpart 
civilian planning capability. Therefore:

        <bullet> We strongly support the establishment of the office of 
        the Coordinator for Reconstruction and Stabilization (S/CRS) 
        within the Department of State.
        <bullet> We have assisted S/CRS in building their own planning 
        processes while integrating them into our own deliberate and 
        crisis planning processes, here in Washington and with the 
        combatant commanders.
        <bullet> We have worked with S/CRS to integrate stabilization 
        and reconstruction operations into our Combatant Commander's 
        Operational Plans and Theater Exercises.

    We are developing a DOD directive concerning stability operations. 
We envision a policy where stability operations are a core capability--
one U.S. military forces should be prepared to undertake. As such, 
stability operations will have the attention and priority comparable to 
other combat operations.
    S/CRS is participating in the ongoing Quadrennial Defense Review, 
which emphasizes the need for post-conflict planning as we reassess our 
force structure requirements, to ensure we have the right mix of forces 
for the right missions, including stabilization and reconstruction 
operations.
    Question. What role should the Joint Staff play in the area of 
post-conflict planning and the conduct of stability and support 
operations?
    Answer. The Joint Staff is a key member of the various interagency 
committees and working groups that develop plans and policies. 
Importantly, the Joint Staff facilitates coordination between the 
governmental agencies, such as S/CRS, and the combatant commanders and 
their staffs.
    Question. In your view, what is the appropriate relationship 
between DOD and other Federal agencies in the planning and conduct of 
stability and support operations in a post-conflict environment?
    Answer. I believe stabilization and reconstruction operations need 
to become core competencies of all departments of our government. Our 
experiences in Afghanistan, Iraq, and elsewhere have made it clear that 
interagency and international ``jointness'' are important, and can be 
crucial, to success.
    It is essential to maintain clear accountability and responsibility 
for any mission. Therefore, the military is accustomed to designating 
lead and supporting responsibilities during contingencies.
    DOD should be the lead agency while combat operations are ongoing. 
However, once combat operations have ceased, and stabilization and 
reconstruction operations are underway, there will be a time when 
another agency such the Department of State takes the policy lead in a 
stabilization and reconstruction operation with DOD in a supporting 
role.
    S/CRS and the other government agencies, including DOD, have put 
considerable thought and effort into how they would exercise command 
and control during stabilization and reconstruction operations. In 
particular, S/CRS has formulated three echelons of deployable teams to 
plug in with our combatant commanders, Joint Task Force Commanders, and 
then down to the division or brigade level. These teams would be key to 
the transition to another agency's control once combat operations are 
complete.
    The military chain of command would remain in place, even under 
another agency's command and control. If a Joint Task Force or 
combatant commander felt he could not comply with direction from his 
civilian counterpart, he could always bring that matter up through the 
chain of command, up to and including the Secretary of Defense. 
Similarly, the civilian in charge could take issues up to the Secretary 
of State. At that point, the Secretaries could resolve the matter.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq and Afghanistan?
    Answer. The experiences of our forces in Iraq, Afghanistan and 
other contingencies have taught us several key lessons. They include:

          (1) A focused, integrated U.S. Government approach to 
        stabilization and reconstruction operations is essential to 
        bring all the Nation's elements of power to bear in a 
        contingency.
          (2) Such an integrated approach requires that our civilian 
        and military planning be fully coordinated, both here in 
        Washington and with the combatant commanders.
          (3) We need a strong, standing civilian management capacity 
        to ensure personnel, programs, and resources for stabilization 
        and reconstruction operations are coordinated.
          (4) That civilian management must have a surge capacity to 
        rapidly mobilize and deploy personnel prior to or during a 
        contingency.
          (5) Building and maintaining the civilian capacity to plan, 
        mobilize, deploy, and execute stabilization and reconstruction 
        operations requires a robust interagency training and exercise 
        effort.

            UNITED NATIONS CONVENTION ON THE LAW OF THE SEA

    Question. At her confirmation hearing in January 2005, Secretary of 
State Rice expressed the administration's strong support for the U.N. 
Convention on the Law of the Sea. Officials of the Department of 
Defense, including the Chief of Naval Operations, have advocated for 
accession to the Convention.
    Do you support U.S. accession to the United Nations Convention on 
the Law of the Sea?
    Answer. Yes. The Convention has useful provisions regarding freedom 
of navigation.
    Question. How would you answer the critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. On balance, the Convention would serve the national 
security interests of the United States.


                            CHINESE MILITARY

    Question. In early June 2005, Secretary Rumsfeld criticized China's 
military buildup, noting that China's investment in missiles and modern 
military technology posed a risk not only to Taiwan and American 
interests, but also to nations across Asia.
    What do you believe are the objectives of the Chinese military 
modernization program?
    Answer. Chinese leaders judge they must modernize to protect their 
vital national interests.
    Question. What do you believe are the Chinese global political-
military objectives and specifically its objectives regarding Taiwan 
and the Asia-Pacific region?
    Answer. The Chinese have developed worldwide economic and 
commercial interests and presence. Thus, they also seek to be 
consequential in all decisions involving international security issues, 
especially in the Asia-Pacific Region.
    Their stated objective for Taiwan is that Taiwan is part of the 
Chinese homeland and, as shown by the law enacted earlier this year, 
they cannot permit an independent Taiwan.
    Question. How do you believe the United States should respond to 
the Chinese military modernization program?
    Answer. U.S.-China relations should be considered within the larger 
context of bilateral and multilateral relations of the region. Much of 
the peace and stability in Asia has been built on U.S. presence and our 
strong and enduring alliances with Japan, Australia, South Korea, 
Thailand and the Philippines. We will continue to work with our allies 
and friends to ensure that the Asia-Pacific region remains a stable 
environment for continued peaceful development.
    China's concentrated deployments of missiles and conventional 
weapons near Taiwan are a cause for concern, and the passage of anti-
secession legislation authorizing the use of non-peaceful means is 
destabilizing. We must continue to communicate U.S. resolve to maintain 
peace and stability in the Asia-Pacific region, and urge PRC restraint 
in cross-Strait relations. At the same time we should continue 
development of a stable and constructive military relationship with 
China that contributes to cooperation in overall bilateral relations.
    Question. U.S. military-to-military relations with the Chinese have 
been described by defense officials as ``modest.''
    What changes, if any, do you believe that DOD should make in the 
quality or quantity of military-to-military relations with China, and 
why?
    Answer. It is important for us to continue to develop constructive 
and stable military relations with China to allow for better 
understanding between our two nations. While generally satisfied with 
continued positive developments in U.S.-China military-to-military 
relations, I would like to see greater transparency, which serves to 
reduce suspicions and lower the risk of miscalculation between our two 
militaries. Additionally, our military-to-military relations would 
benefit from the expansion of our military education exchanges, 
especially cadet and student exchanges between our academies and senior 
service colleges. As we strive to achieve this goal, our interactions 
will continue to be guided by the National Defense Authorization Act 
(NDAA) for Fiscal Year 2000.

                             FUTURE OF NATO

    Question. Over the past several years, NATO has experienced great 
changes. NATO has enlarged with the addition of seven new members from 
Eastern Europe and the Baltics, and has taken on an ambitious 
stabilization mission in Afghanistan, as well as a training mission in 
Iraq.
    In your view, what are the greatest opportunities and challenges 
that you foresee for NATO over the next 5 years?
    Answer. The opportunities available to NATO over the next 5 years 
are significant. I predict that the Alliance will complete their 
expansion plans for Afghanistan, leading to a unified military command; 
transition the Kosovo mission to a smaller, more responsive force; and 
enlarge NATO support of the training mission for the Government of 
Iraq.
    NATO is also advancing democracy and defense reform in Europe, 
Central Asia and the broader Middle East region while developing closer 
cooperation with the Nations in those regions on issues such as 
counterterrorism and counterproliferation.
    The greatest challenge for NATO is to finish the transformation 
process started in 2002 when the work to develop an expeditionary force 
was begun. While NATO has been successful in creating a new military 
command structure and deploying effective forces, we now need to turn 
the Alliance's attention on reforming the budget process, streamlining 
management functions, and developing new modalities for funding 
operations.
    Question. Do you envision further enlargement of NATO within the 
next 5 years?
    Answer. Further enlargement of the Alliance is a decision for the 
President and the other 25 Allied Heads of State and Government.
    Question. What progress are the NATO member nations, particularly 
the new member nations, making with respect to transforming their 
militaries, acquiring advanced capabilities, and enhancing their 
interoperability with the U.S. and other NATO member nations?
    Answer. The progress, especially in regards to the new members, is 
mixed. While all members of the Alliance agree on the need to 
modernize, acquire advanced capabilities, and enhance interoperability, 
most nations face a very austere budgetary climate marked with years of 
underinvestment. We continue to press our allies to make the changes 
needed to bring their nations in line with NATO investment targets.

                  EUROPEAN SECURITY AND DEFENSE POLICY

    Question. A potential challenge facing the U.S. and NATO in the 
months and years ahead is the European Union's (EU) implementation of 
its European Security and Defense Policy (ESDP), that is, an EU 
capability to conduct military operations in response to international 
crises in cases where NATO as a whole is not engaged. Many in Congress 
have expressed concern that ESDP could emerge as a competitor, rather 
than a complement, to the NATO Alliance.
    Do you share these concerns? What steps do you believe that the 
United States and NATO must take to ensure that ESDP is implemented in 
a way that strengthens the Alliance?
    Answer. I support a close cooperative relationship between the EU 
and NATO. The Berlin Plus agreement should be implemented to support 
EU-led operations. Proposals that duplicate existing NATO structures 
are unhelpful. In this time of limited defense resources we should 
recognize and build on the strategic partnership between the EU and 
NATO.


                                COLOMBIA

    Question. U.S. military personnel have been involved in the 
training and equipping of Colombian military forces involved in 
counter-narcoterrorism operations. U.S. military personnel, however, do 
not participate in or accompany Colombian counterdrug or 
counterinsurgency forces on field operations in Colombia.
    What changes, if any, would you recommend for the role of the U.S. 
military in Colombia?
    Answer. The most appropriate role for the U.S. military is to 
continue to address systemic deficiencies in the training and 
employment of the Colombian armed forces. Under the leadership of 
President Uribe, Colombia has made important strides towards defeating 
the narcoterrorists. There is no question that the Government of 
Colombia and the Colombian Armed Forces have primary responsibility for 
bringing security and the rule-of-law to their sovereign nation.
    The Colombian security forces and state intelligence services are 
best suited to sift through the complex maze of local allegiances. They 
are also best equipped to leverage the cooperation of local 
communities.
    Question. What is your assessment of the progress achieved by the 
Colombian armed forces in confronting the threat of narcoterrorism?
    Answer. The Colombian armed forces have progressed well over the 
last few years. U.S. training and equipment have contributed 
significantly to this progress. The Colombian military's (COLMIL) Plan 
Patriota offensive, the largest in the Nation's history, continues to 
pressure FARC in its base areas. The COLMIL has captured key nodes and 
dominates mobility corridors, denying FARC access to support and 
population. A number of FARC, ELN, and AUC high value targets have been 
killed or captured. Colombian police are now present in all 1,098 
municipalities. Colombia's 2005 defense budget is 7 percent higher than 
2004 and 13.3 percent higher than 2003. In 2005, 16,000 more troops 
will be recruited, for a total increase of 95,000 since President Uribe 
took office. Finally, units of the United Self-Defense Groups of 
Colombia (AUC) are currently negotiating demobilization with the GOC, 
with as many as 9,000 personnel to be demobilized by the end of year.
    This is all good cause for tempered optimism. The COLMIL has made 
significant progress fighting narcoterrorists, but it still has a long 
way to go. The GOC needs to restore government services to the 
countryside. While the COLMIL is more ``forward-leaning'' than ever, 
their mettle will be tested in future offensive operations. Despite 
COLMIL successes, the FARC is not close to being defeated. Only 
sustained efforts against them will eventually win the peace.

                         EXCESS INFRASTRUCTURE

    Question. How high a priority do you place on the closure of excess 
Department of Defense installations and why?
    Answer. Closure of excess installations deserves very high 
priority. We must convert excess capacity into warfighting capability 
and enhance our ability to operate as a joint team.
    Question. How do you respond to arguments that initiation of a new 
round of base realignment and closure should be postponed until 
operations in Iraq and Afghanistan have concluded and the requirements 
of the global war on terrorism come into better focus?
    Answer. The department's footprint is in need of change and 
adjustment. The current arrangements, designed for the Cold War, must 
give way to new demands of the war on terrorism and other evolving 
challenges in the world. We face an unconventional enemy that is 
dispersed throughout the world, has no territory to defend, no 
permanent bases to safeguard, and is constantly adapting. We must 
constantly adapt as well. Closure of excess installations frees up 
resources to apply to the war on terror and transformation.

                          HEALTH CARE BENEFITS

    Question. In April 2005, the Under Secretary of Defense for 
Personnel and Readiness and the Assistant Secretary of Defense for 
Health Affairs testified that health benefits are ``out of step'' with 
trends in health care and may not be sustainable for the long term. 
Expansion of TRICARE coverage and rising health care costs nation-wide 
have contributed to the prediction that health care will grow to 10 to 
12 percent of the DOD's outlays in the next 10 years.
    What recommendations, if any, would you offer to address the 
rapidly escalating cost of personnel benefits?
    Answer. I support the Department's efforts to find efficiencies in 
the current system and to pursue cost effective methods for Health Care 
delivery in the future. I believe the Department's performance-based 
budgeting initiative and restructuring of cost-effective pharmacy 
programs will help to gain those efficiencies. However, as we pursue 
these cost-cutting measures, we should proceed with caution and ensure 
that the reductions are not made at the expense of our troops, their 
families, and retirees who deserve the best health care system 
possible.
    Question. If confirmed, what role would you anticipate playing in 
any shaping or rethinking of health care benefits for military 
personnel?
    Answer. We are focusing our current efforts on improvements for our 
Reserve Component members and their families who will continue to be 
instrumental in fighting the global war on terrorism. I thank you for 
the legislation that was passed in NDAAs 2004 and 2005 and believe that 
the 2006 budget initiatives will go a long way in making the health 
care system fair and equitable to both our Active and Reserve component 
servicemembers. If confirmed, I look forward to continuing our efforts 
with Congress and the Department of Defense to ensure military 
personnel can serve their nation with the knowledge that their health 
care benefits are secure.
    Question. How would you assess the impact of such benefits and 
changes on recruitment and retention of military personnel?
    Answer. When we discuss benefits associated with military service, 
it is my view that a reasonable-cost health care system is an important 
cornerstone of the entire compensation package that we offer. The 
current recruiting environment presents us challenges, and although our 
current retention numbers are strong--we can't take that for granted. 
Our health care benefits package favorably impacts our ability to 
attract recruits and retain a quality force.

                     SEXUAL ASSAULT IN THE MILITARY

    Question. In response to a congressional requirement for 
formulation of a comprehensive policy related to sexual assaults in the 
Armed Forces, the Secretary of Defense has promulgated guidance aimed 
at more effectively preventing sexual assaults, investigating incidents 
of sexual assault, and responding to the needs of victims of sexual 
assault.
    What role, if any, has the Joint Staff played in monitoring 
progress within the military services and the combatant command's areas 
of responsibility in order to ensure enforcement of a ``zero 
tolerance'' policy relating to sexual assaults?
    Answer. We continue to work closely with the Joint Task Force 
Sexual Assault Prevention and Response (JTFSAPR) team and the Services 
as DOD develops policy, procedures, and regulatory guidance. This 
ensures that the policy is executable in the joint and multinational 
operational environment.
    The Joint Staff provides a monthly report to the JTFSAPR on Service 
progress in completing investigations of sexual assaults that occur in 
the U.S. Central Command area of operations. We are also providing 
assistance to combatant commanders during the development of their 
internal procedures; serving as a liaison staff to address Service 
policy issues that might impact a commander's ability to conduct 
investigations; and providing support to victims in the joint 
environment.

              PERMANENT FORWARD DEPLOYMENT OF NAVAL FORCES

    Question. For many years, a carrier strike group and an 
expeditionary strike group have been permanently forward deployed in 
Japan.
    How important, in your judgment, is the permanent forward 
deployment of these two naval forces in the United States Pacific 
Command's area of responsibility?
    Answer. I view the continued forward basing of a carrier strike 
group and an expeditionary strike group in Japan as extremely important 
components of our National Security Strategy in the Pacific. Recent 
events in the Pacific, such as the Tsunami, as well as our ability to 
rapidly respond to a range of military and humanitarian contingencies 
emphasize the importance of forward deployed naval forces. Our 
commitment to the peace and security of the Pacific region, especially 
to Japan and the Republic of Korea, underscores the continuing 
relevance of credible and sovereign combat power. The presence of our 
military forces, and in particular naval forces, in this strategic 
location provides significant capability, deters aggression, and 
imparts tangible reassurance to our allies.

                  JOINT REQUIREMENTS OVERSIGHT COUNCIL

    Question. As Vice Chairman, you have served as the Chairman of the 
Joint Requirements Oversight Council (JROC). Over that time, as the 
services' transformation initiatives have matured, some have been 
approved for system development and demonstration even though it 
appears that certain programs lacked the technical maturity required to 
transition into system development and demonstration.
    How would you assess the effectiveness of the JROC in the 
acquisition process?
    Answer. The JROC has increased its effectiveness over the past few 
years. We have been operating under the new Joint Capabilities 
Integration and Development System (JCIDS) process for a relatively 
short 2 years, and already have seen improvements in support to the 
joint warfighter through better identification of capability gaps and 
redundancies. JCIDS is a much more inclusive process. We take advantage 
of the vast expertise and experience in the acquisition community by 
engaging them earlier in the process. This helps ensure we are on the 
right path in providing effective military advice to the acquisition 
process. As programs mature and approach the next acquisition decision, 
they come back to the JROC to validate changes. Capability documents 
are submitted into the JCIDS process and fully vetted by the combatant 
commanders, the Joint Staff, the Services and the Office of the 
Secretary of Defense.
    Question. Do you believe that the role of the JROC in the 
acquisition process should be expanded? If not, why not? If so, what 
areas or roles would you recommend for expansion?
    Answer. I do not believe the role of the JROC in the acquisition 
process should be expanded. The JROC provides appropriate validation 
and approval of the capabilities and the key performance parameters for 
any systems designed to provide those capabilities. The Service 
Acquisition Executives incorporate that joint military advice into 
their decision process.
    Question. In your view, are the requirements of combatant 
commanders adequately addressed by the JROC?
    Answer. The combatant commanders are tightly integrated into the 
capabilities development process that supports the JROC. Combatant 
commanders have an open invitation to attend JROC meetings. They 
participate in writing the Joint Concepts that guide future 
capabilities development, they comment on capability needs documents 
being developed by the Services, and they are members in each of the 
Functional Capabilities Boards that support the JROC. Members of the 
JROC or the Joint Capabilities Board travel to the combatant commands 
semi-annually to discuss their issues and other ongoing challenges and 
initiatives. The combatant commanders have an opportunity to submit 
their most critical capability needs to the Department through the 
annual Integrated Priority List (IPL) process. Beginning with the 
fiscal years 2006-2011 IPL submission, the JROC took ownership of the 
IPL assessment process and endorsed Functional Capabilities Board-
developed courses of action to address IPL needs. IPL inputs have also 
informed discussions on many of the issues brought to the JROC for 
review. Close, continual involvement of the combatant commanders will 
remain a key part of JROC deliberations.

                     CONTRACTORS ON THE BATTLEFIELD

    Question. DOD's maintenance and support functions have been 
increasingly outsourced resulting in a greater deployment and 
employment of civilian contractors in combat areas.
    What issues have emerged for DOD as a result of an increased number 
of contractors on the battlefield?
    Answer. Contractors provide invaluable services in support of 
military and reconstruction operations worldwide. Our challenge is how 
to balance the increased capabilities brought by contractors with the 
added challenges of integrating contractors into operational planning, 
maintaining visibility and accountability, and providing appropriate 
government support to ensure continuation of essential services.
    Question. What steps do you believe the Department should take to 
address these issues?
    Answer. We are helping to develop comprehensive DOD policy on 
contractors that is expected to be released in the coming weeks. The 
policy captures lessons from recent operations and addresses the 
contractor challenges from the planning phase to the actual employment 
across the spectrum of military operations. The policy addresses all 
issues raised by Congress in Section 1205 of the National Defense 
Authorization Act for Fiscal Year 2005: integrating contractors into 
operational planning; maintaining overall visibility of contractor 
personnel and contract capability in a database; deploying and 
redeploying contractors; providing force protection to contractor 
personnel; contractor security services; and other government support 
requirements including protective equipment, medical and mortuary 
coverage. After approval, DOD will implement the policy in doctrine, 
training, and appropriate contracts.
    Question. The Congressional Budget Office has concluded that U.S. 
forces could save money in peacetime and increase operational control 
in wartime by utilizing contractors with sponsored Reserve affiliation. 
Some of our allies have already experimented with this approach.
    What is your view of the feasibility of a sponsored Reserve 
approach to provide logistics support for deployed forces?
    Answer. The Department is examining a variety of force structure 
initiatives including the sponsored Reserve concept being explored by 
some of our coalition partners. We are watching an ongoing Air Force 
initiative to explore the concept and examine the operational 
effectiveness and potential changes required in U.S. law and policy.

                        INDEPENDENT LEGAL ADVICE

    Question. As Vice Chairman of the Joint Chiefs of Staff, you 
witnessed the working relationship between the Chairman's legal 
advisor, the Department of Defense General Counsel, and the Judge 
Advocates General of the Services in providing legal advice to the 
Chairman.
    What is your view about the responsibility of the Chairman's legal 
advisor to provide independent legal advice to you, other members of 
the Joint Chiefs of Staff, and to the Joint Staff?
    Answer. As noted previously, title 10, section 151(b) makes the 
CJCS the principal military adviser to the President, the National 
Security Council, and the SECDEF. If confirmed, I will take very 
seriously my responsibility to provide independent military advice to 
each of those individuals or entities. Title 10 also provides for an 
independently organized Joint Staff, operated under the authority, 
direction and control of the Chairman, to support the Chairman in 
fulfillment of his statutory duties. I believe it is absolutely 
essential that the Joint Staff--and in particular the Chairman's Legal 
Counsel--be exclusively dedicated to support the CJCS in fulfilling his 
responsibility to provide independent, apolitical, military advice.
    Question. What is your view about the responsibility of staff judge 
advocates within the Services and joint commands to provide independent 
legal advice to military commanders?
    Answer. Similarly, Service and joint commanders have a 
responsibility to the civilian leadership to provide their independent 
and candid military advice. Receiving independent legal advice from 
their respective Staff Judge Advocates is an indispensable aspect of 
those commanders' ability to effectively fulfill their 
responsibilities.

                          INTERAGENCY REFORMS

    Question. You have spoken publicly about the need for Goldwater-
Nichols-like legislation for the interagency that would involve, for 
example, requiring service in another department or agency as a 
condition for advancement to senior executive service (SES) rank and 
requiring civilian employees to accept temporary assignments to 
countries, such as Afghanistan and Iraq, in which combat is taking 
place.
    Can you provide more details of your proposal and explain why you 
believe such legislation would be necessary?
    Answer. Goldwater-Nichols was significant legislation that 
continues to shape and integrate unified action within the Armed 
Forces. I believe that Goldwater-Nichols legislation serves as a good 
example for a similar move to jointness in the interagency community. 
Currently the NSC offers a great process for teeing up issues for 
decision by the President. Yet once the President makes a decision, the 
different agencies return to their ``stovepipes'' to plan and operate 
with no individual below the President responsible for ensuring that 
decision/mission is accomplished. While the agencies are collaborative 
in their efforts, the process is not responsive or agile enough to 
support the current warfight. The new National Counter Terrorism Center 
is potentially a large step in the right direction.
    A Goldwater-Nichols like approach to the interagency would allow 
all instruments of national power to be effectively integrated to 
achieve enduring results that exploit the strengths of our government. 
Just as the military did following Goldwater-Nichols, the interagency 
can greatly benefit from cross-pollination of agencies--a requirement 
to do a tour in an agency other than your own would form greater trust 
and understanding between the various agencies. This ``joint'' 
requirement could be a prerequisite to senior level promotions in the 
civil service career paths, properly grandfathered for those who came 
in under different rules.
    Another qualifier for senior promotion could be an agreement to 
accept orders to wherever needed for a set period of time (6 months to 
1 year.) Currently, there is little rapidly deployable capacity outside 
the Armed Forces. Other agencies rely on volunteers to fill critical 
billets overseas. Arguably, sometimes the best qualified are not the 
ones who volunteer. To further complicate the matter, volunteers often 
stay for a short period of time, which offers little continuity and 
overall understanding of the mission in complex environments like Iraq.
    Today dedicated civil servants, foreign service officers and 
military professionals are working together through the strength of 
their own dedication and personal commitment to excellence. We need to 
institutionalize and professionalize a wider range of National Security 
personnel throughout the government similar to the way that Goldwater-
Nichols developed a cadre of professional joint officers in the Armed 
Forces. Initiatives for the interagency could include mechanisms to 
strengthen integration and trust at the strategic, operational and 
tactical levels, create more responsiveness within the supporting 
agencies, and build operational capacity in non-DOD agencies.
    Any proposal to reform our interagency process will involve a 
number of other changes, to include professional level education, and 
the requirement to increase the civilian work force enough to allow the 
``overhead'' for out-of-agency tours, schools, and other requirements. 
It is important to devote intellectual resources to continued dialogue 
on this topic.

                            WOMEN IN COMBAT

    Question. The issue of the appropriate role of women in the Armed 
Forces is a matter of continuing interest to Congress and the American 
public.
    What is your assessment of the performance of women in the armed 
forces, particularly given the combat experiences of our military, 
since the last major review of the assignment policy for women in 1994?
    Answer. Today, more than 333,000 women serve in the U.S. Armed 
Forces around the world and they are performing magnificently and with 
distinction. From crewmembers, technicians and commanders, to pilots, 
and military police, women will continue to play a critical role in the 
defense of our Nation as officer and enlisted functional experts in a 
variety of specialties.
    Question. Given the nature of combat in Iraq and Afghanistan and 
the Army's ongoing effort to reorganize to become a more modular, 
flexible, combat force, is the time right to conduct a comprehensive 
review of the policy, regulations, and law pertaining to the assignment 
of women in the Armed Forces?
    Answer. I support the current DOD assignment policy for women and 
therefore do not believe a comprehensive study of policy, regulations 
and law is necessary.
    Question. Does the Department of Defense have sufficient 
flexibility under current law to make changes to the assignment policy 
for women when needed?
    Answer. Current law provides adequate flexibility to make changes 
to DOD assignment policy for women. The law recognizes that DOD and the 
Services will need to constantly assess the role of women and the 
dynamics of the constantly changing battlefield. The law and DOD policy 
also allows the Services to impose additional restrictions based on 
Service unique mission requirements.
    Question. Do you believe any changes in the current policy are 
needed?
    Answer. The current DOD policy recognizes that women are an 
integral part of our Armed Forces and provides the flexibility needed 
to address changes to the operational environment; no policy changes 
are needed at this time.

                       BALLISTIC MISSILE DEFENSE

    Question. As a result of Program Budget Decision 753, funding for 
the Missile Defense Agency was reduced by $5 billion over years fiscal 
year 2006 to 2011. In restructuring the missile defense program, the 
Director of the Missile Defense Agency sought to strike a balance 
between developing and fielding near-term capabilities and continuing 
the development of more advanced capabilities for the longer term. The 
Committees on Armed Services of the House and Senate, while supportive 
of administration missile defense efforts, have made it clear in their 
respective versions of the National Defense Authorization Act for 
Fiscal Year 2006 that priority should be given to more rigorous testing 
and fielding of near-term operational capabilities over future block 
research and developmental efforts.
    What is your assessment of the Missile Defense Agency's current 
balance between near-term fielding and future development of missile 
defense capabilities?
    Answer. The Missile Defense Agency (MDA) program provides the right 
balance between near-term fielding and future development. As MDA 
proves systems in testing, near-term capabilities are enhanced and 
fielded to the warfighter. This early fielding of elements will address 
the near-term threat while continuing the steady improvements needed to 
keep pace as that threat evolves.
    Question. Is MDA's approach consistent with the nature of the 
ballistic missile threat as you understand it, or should more priority 
be given to fielding near-term operational capabilities?
    Answer. I believe the MDA program has been structured appropriately 
to address the near-term threat while continuing the steady 
improvements needed to keep pace as that threat evolves.
    Question. The Independent Review Team chartered by the Director of 
the Missile Defense Agency to review the Ground-based Midcourse Defense 
testing program found that the BMD program needs to make test and 
mission success the primary objective.
    Do you agree with this recommendation?
    Answer. The Independent Review Team is correct that test and 
mission success must be a primary program objective. I am confident 
that MDA will appropriately implement the recommendations to improve 
flight mission performance and reliability.
    Question. Do you believe the Missile Defense Agency has in place a 
plan for operationally realistic testing--consistent with the 
recommendations of the Independent Review Team--that will provide an 
appropriate level of confidence over time that the ballistic missile 
defense system will work reliably under operational conditions?
    Answer. I am confident that the MDA will appropriately implement 
the recommendations of the Independent Review Team to improve flight 
mission performance and reliability. The Director of Operational Test 
and Evaluation (DOT&E) and MDA are partnering on the test and 
evaluation master plan to add operational realism to developmental 
testing and ensure the tests are as realistic as possible.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chairman of the Joint 
Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

          IED COUNTERMEASURE RESEARCH AND DEVELOPMENT PROCESS

    1. Senator Warner. General Pace, the acting Deputy Secretary of 
Defense recently issued a directive granting full authority and 
responsibility to the Joint Improvised Explosive (IED) Device Defeat 
Task Force to lead the Department's efforts in fighting the IED threat. 
Are you satisfied with the Department's process for addressing the 
combatant commander's requirements for the fielding of IED 
countermeasures?
    General Pace. I am satisfied with the process but we should 
continue to press for speed of delivery inside that process. For 
example, we are awaiting the counter-radio-controlled electronic 
warfare (CREW) system program managers' delivery schedule for increased 
jammer production on 15 July. Once their analysis is complete, we can 
aggressively pursue getting these systems in the field.

    2. Senator Warner. General Pace, if not, what else can be done to 
get this critical capability to the warfighters?
    General Pace. This requires sustained attention by all involved to 
include our quick notification to Congress of any funding support 
requirements.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                                  IRAQ

    3. Senator McCain. General Pace, a fundamental element of 
counterinsurgency strategy is to secure a base and expand from there. I 
am concerned that we are clearing insurgent sanctuaries, only to draw 
down our presence from those areas over time--giving the insurgents the 
opportunity to return to the sanctuaries. I continue to be concerned 
that this strategy requires us to retake ground over and over. Would 
you comment on our strategy?
    General Pace. Your concerns are valid. We should not retake ground. 
We should turn over former sanctuaries to Iraqi security forces (ISF). 
This strategy of turning over to the ISF has been well received by the 
Iraqi Government and the Iraqi people. Iraqi citizens are reporting 
insurgent presence and activity at unprecedented levels, especially to 
their own security forces. We must continue to turn over territory 
previously occupied by Coalition Forces to the ISF.

    4. Senator McCain. General Pace, it seems to me that instead of 
sweep and leave, we should clear and stay. Do we have the resources and 
manpower necessary to do this? If not, shouldn't we get it?
    General Pace. The total U.S., coalition, and Iraqi security forces 
are at present not sufficient to do this everywhere simultaneously. We 
must press forward with training the Iraqi Army to have sufficient 
Iraqi forces to do this across the country. Increasingly, the Iraqi 
security forces remain in control of areas we have helped them clear. 
This is illustrated exceptionally well in the Haifa Street area in 
Baghdad. Once one of the most dangerous places in the city, it is now 
one of the safest and most stable due to the efforts of the Iraqi 
security forces and the support they are receiving from the Iraqi 
people.

    5. Senator McCain. General Pace, according to a news report, during 
a 1-week period this month, 19 service men and women were killed by 
IEDs, this out of 25 total who were killed in Iraq and Afghanistan. 
That is an extremely high percentage lost to IEDs. We have been at this 
war for over 3 years. With all your efforts at combating IEDs, what is 
our hope to eliminate or at least minimize this threat?
    General Pace. We continue to combat the threat with a multi-faceted 
approach. Our tactics, techniques, and procedures have improved 
significantly over the last 3 years, to detect and avoid the threat, or 
prevent its detonation. We also rely on our jammers to disrupt the 
timing of detonation and upon our armor to protect our forces when 
detonation does occur. Our progress in these endeavors is evidenced 
over the last 8 months. During that time the number of attacks has 
increased over 100 percent, while the resultant casualties are down 36 
percent. Thanks to protective equipment, over 70 percent of the wounded 
are returned to duty within 72 hours. Still, this is the most effective 
enemy weapon and we must continue to seek solutions throughout the 
entire IED production chain to include eliminating bomb makers, 
destroying production facilities and materials, identifying and 
neutralizing IEDs on location, modifying tactics/techniques/procedures, 
and improving armor protection.

    6. Senator McCain. General Pace, do we in Congress need to buy more 
jammers or any other equipment? Is technology actually capable of 
effectively combating an IED?
    General Pace. It is critical that we have the funding to minimize 
this threat. As earlier discussed, we anticipate the production and 
delivery analysis to be complete on 15 July, after which we must 
aggressively execute the plan. We will promptly notify Congress of any 
funding requests. I should note however that technology can help us 
minimize, not eliminate, this threat. Even our main battle tanks are 
subject to destruction by a large IED.

                               RECRUITING

    7. Senator McCain. General Pace, as a total force, recruitment 
numbers have been down. The Army has missed their recruitment goals by 
nearly 8,500. The Marine Corps are still struggling. Guard and Reserve 
numbers are off by 15,000. What are your plans as Chairman to try and 
rectify these recruiting difficulties?
    General Pace. I am concerned with the recruiting challenges that 
both the Active and Reserve components face--especially the Army and 
Marine Corps. I believe the efforts each of the components has executed 
in recent months (substantially increasing the number of recruiters in 
the field, enhancing incentive bonuses and refocusing marketing 
strategies not only on potential recruits--but on the influencers 
(parents, teachers, etc.) who play an important role in our overall 
effort) will yield dividends this year. June recruiting successes are 
encouraging. However, as important as incentives are, this is more 
about message than money. If confirmed I will focus my efforts to 
highlight the value of service to country and to ensure we respect that 
service in the way we manage and employ the force.

    8. Senator McCain. General Pace, the National Call to Service Plan 
authorized in the National Defense Authorization Act of 2003 allows men 
and women to enlist for a shorter period of time. The Department 
currently has 2,400 members serving under this plan. Do you believe 
that you and the Joint Chiefs should speak out more publicly on 
national service?
    General Pace. Yes--as a senior military leader, I have an 
obligation to mentor and educate young men and women about the value of 
national service and the benefit it provides to them and to our 
country. Therefore, I believe that anything the Joint Chiefs and I can 
do to enhance interest in programs like the National Call to Service 
and to influence young Americans to become members of our Armed Forces 
is worthy of our collective time and effort.

    9. Senator McCain. General Pace, in what way do you plan to use 
this tool to increase the ranks?
    General Pace. The National Call to Service Plan is another useful 
program that we have in our toolkit to generate recruits and I thank 
you and Congressman Skelton for sponsoring this initiative. As you are 
aware, the Army recently instituted the plan nationwide and it has 
already sparked interest. We are encouraged that the shorter enlistment 
period combined with either the bonus, repayment on qualifying student 
loans, or entitlement to educational assistance will attract young 
Americans to serve our Nation and we are expecting to see good results.

                            OVERSEAS BASING

    10. Senator McCain. General Pace, the Overseas Basing Commission 
yesterday expressed concern that the Department is moving too quickly 
in its plans to move 70,000 troops stationed abroad back to domestic 
military installations. What steps has the Department taken in 
conjunction with the Department of State to ensure that our agreements 
and treaties with our allies overseas will continue to be met?
    General Pace. Our Global Posture initiatives are in line with the 
President's National Security Strategy and emphasize our national 
commitment to foster relationships among U.S. allies, partners and 
friends. The new global posture plan will allow the U.S. to take better 
advantage of technology and innovative warfighting concepts, improving 
our ability to meet our alliance commitments and global 
responsibilities. Global posture emphasizes utilizing continental 
United States (CONUS)-basing which offers predictability of access and 
deployability of those forces anywhere in the world. Blended with our 
improved global capabilities of persistent ISR and strike, we will be 
able to use the right capabilities at the right time and place. This 
advantage will assure our allies as we increase their trust and 
confidence and will dissuade potential enemies. There is no set 
timetable for implementing our global posture changes. The speed at 
which these transformations will occur depends on the bilateral and 
multilateral arrangements we make with affected countries. To that end, 
representatives of the Departments of Defense and State have been 
actively involved in consulting with our friends and allies to 
determine the best way ahead.

    11. Senator McCain. General Pace, when these forces return to the 
United States, what efforts has the Department undertaken to ensure 
minimal quality of life impact on the service men and women and their 
families?
    General Pace. Quality of life for our military forces and their 
families was one of the driving factors behind both our posture review 
and other initiatives being carried out by the Services, such as the 
Army's modularity and unit rotation concepts and the Navy's Fleet 
Response Concept. These initiatives will facilitate personnel 
management, provide flexibility in scheduling, and offer more stability 
at home. Part of the problem stems from our legacy Cold War posture, 
which often featured accompanied tours designed in an era of static 
deployments. Unlike historic patterns, servicemembers now deploy more 
frequently from their forward stations, more like their CONUS-based 
counterparts, which has become more of a hardship for families. 
Accompanying dependents often find themselves separated both from the 
servicemember overseas, and from their loved ones and extended support 
networks back in the United States. Additionally, dependents are often 
unable to work in the local economy due to host-nation restrictions. 
Global posture changes are expected to have a positive effect on our 
military forces and families. Rotations of our military forces and 
capabilities into forward areas will be balanced by more stability at 
home, with fewer overseas moves, the possibility of longer average tour 
lengths and less disruption for families. CONUS-based families will 
also enjoy benefits such as the potential for home-ownership, expanded 
employment, and education opportunities and proximity to extended 
families.

    12. Senator McCain. General Pace, is our planned base 
infrastructure actually ready to receive them?
    General Pace. The Global Posture changes will be implemented over 
several years as determined by our negotiations with friends and allies 
as indicated above. The Integrated Global Posture and Basing Strategy 
planning informed the BRAC process, and the needs of our troops and 
their families have been accounted for in the infrastructure plans. 
Additionally, plans for overseas receiving locations have been under 
discussion with host nations to ensure our forces will have the 
facilities they need upon arrival.

    13. Senator McCain. General Pace, do the Secretary of Defense's 
recommendations account for this influx of troops?
    General Pace. Yes. The Integrated Global Posture and Basing 
Strategy considerations informed the BRAC process throughout planning 
and development of the Secretary's recommendations.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                               INSURGENTS

    14. Senator Levin. General Pace, I was surprised by your statements 
during today's hearing to the effect that the insurgents are not 
ideologically driven. Aren't the jihadists crossing the borders into 
Iraq very much ideologically driven--the ideology being a fanatic 
extreme belief that the Islamic world must be defended from the 
destructive culture of the west through the use of terror tactics 
against civilians?
    General Pace. I should have chosen my words more precisely. I 
should have said the insurgency is, by and large, not ideologically 
driven. There are three main motivators for insurgents in Iraq. First, 
the vast majority of insurgent violence is driven by former regime 
elements who resent losing the power they held in Iraq for 30 years. 
They cynically wish to reassert their grip on power over the people of 
Iraq over the long term. Second, a much smaller portion of the 
insurgency is driven by nationalistic sentiments. This portion is 
motivated largely by the distress caused by a foreign military 
occupation of one's country and the unemployment and disruption of 
services perceived to be caused by that occupation. Finally, the 
ideological portion of the insurgency, the smallest albeit the most 
spectacularly destructive and headline grabbing, is composed mostly of 
foreign religious extremists who have entered Iraq and temporarily 
allied themselves to some degree with other groups in order to further 
the jihad in hopes of reestablishing a global Islamic caliphate.

                          LEVIN/COLLINS LETTER

    15. Senator Levin. General Pace, at this morning's hearing you 
declined to comment on the letter that Senator Collins and I sent to 
the President earlier this week as you didn't have the letter before 
you and hadn't had time to consider it. I am attaching a copy of that 
letter and ask that you provide your comment on it for the record.
    General Pace. Thank you for the opportunity to comment on the 
letter. I agree with you on the inadvisability of setting a timetable 
for troop withdrawals. I also agree with you on the importance of 
staying on schedule for developing the new constitution, referendum, 
and elections of the new government. Our commanders report most Iraqis 
want us to leave Iraq, but that they also qualify when they want that 
to occur. Some want us to leave when the Iraqi security forces are 
capable of assuming responsibility for the security of the country, 
others when the newly elected government is seated, still others when 
the constitution is produced. We must find an appropriate balance 
between assuring the Iraqis that they should support the emerging Iraqi 
government because we will not allow the old regime to re-emerge or 
jihadists to take over, and making it clear that our military will 
leave as soon as we can. Any delay to the political schedule increases 
risk to the security situation.

                          INTERROGATION ISSUES

    16. Senator Levin. General Pace, when you and I met last week, I 
asked you about the failure of the Defense Department to develop an 
interrogation policy for Afghanistan, which Vice Admiral Church in his 
report called a ``missed opportunity.'' Yet, the Church report, citing 
a statement by you [General Pace], describes how in April 2003 the 
Chairman of the Joint Chiefs of Staff, General Myers, determined that 
interrogation techniques in use in Afghanistan were ``inconsistent'' 
with the more narrowly-tailored policy which Secretary Rumsfeld had 
just approved that month for Guantanamo. As a result, Chairman Myers 
sent up a memo to the Secretary of Defense in May 2003 recommending 
that the same interrogation guidelines be issued for Afghanistan as had 
been approved for Guantanamo, but Secretary Rumsfeld never responded to 
the Chairman's recommendation. In a letter you provided me on Monday of 
this week, General Pace, you confirmed these events and said that you 
had ``no personal knowledge'' of how the Chairman's recommendation was 
staffed within the Office of the Secretary of Defense. How were 
interrogation techniques in use in Afghanistan ``inconsistent'' with 
those approved by Secretary Rumsfeld for Guantanamo in April 2003?
    General Pace. The letter you refer to stated that the Joint Staff 
received and staffed a USCENTCOM request for approval of specific 
interrogation techniques for Bagram, Afghanistan; that the CJCS 
determined the request was inconsistent with guidance provided to 
USSOUTHCOM; and that the CJCS forwarded a memorandum to the Secretary 
of Defense recommending that the same guidelines issued to USSOUTHCOM 
be issued to USCENTCOM. The intent of the CJCS memorandum was to 
achieve consistency with respect to strategic interrogations of enemy 
combatants. As you state, I have no personal knowledge regarding the 
staffing of the request once the OSD staff received it, or any further 
information on this matter.

    17. Senator Levin. General Pace, were techniques being used that 
were more aggressive than those approved for Guantanamo?
    General Pace. I understand that a comparison of interrogation 
techniques is contained in the reports that document the findings of 
Department of Defense investigations into detainee abuse, 
interrogations and operations. I do not have personal knowledge upon 
which to base a comparison of the detailed interrogation techniques 
that were employed. As stated during my office call with you on 21 
June, the Chairman, with my agreement, made a conscious decision to 
exclude me from direct involvement in substantive discussions and 
decisionmaking concerning issues pertaining to detainees, including 
interrogations. This was to ensure, that should an issue on detainees 
arise, I would be able to provide an unbiased assessment, having been 
removed from day-to-day discussions.

    18. Senator Levin. General Pace, do you know if any guidance, 
either in writing or oral, was provided to Central Command by the 
Secretary or anyone in the Office of the Secretary of Defense? If so, 
what was that guidance?
    General Pace. I am unaware of any guidance promulgated by either 
the Secretary or the Office of the Secretary of Defense regarding 
interrogation techniques for Afghanistan after receipt of the USCENTCOM 
request.

    19. Senator Levin. General Pace, if no such guidance was provided, 
was the result that interrogation policies that were more aggressive 
than those approved for Guantanamo continued to be used in Afghanistan?
    General Pace. Please see my response to question 17.

    20. Senator Levin. General Pace, as Chairman, how would you handle 
the situation like this in which the Secretary has failed to respond to 
one of your recommendations?
    General Pace. A close relationship between the Chairman of the 
Joint Chiefs of Staff and the Secretary of Defense is critical to the 
proper functioning of the Department as a whole. If confirmed, I will 
maintain frequent and frank communications with the Secretary regarding 
all important issues.

                         IRAQI SECURITY FORCES

    21. Senator Levin. General Pace, can you provide unclassified 
information as to how many of the roughly 160,000 members of the Iraqi 
security forces are capable of taking on the insurgents without 
assistance from coalition forces?
    General Pace. Only a small number of Iraqi security forces are 
taking on the insurgents and terrorists by themselves. Approximately 
one-third of their army battalions are capable of planning, executing 
and sustaining counterinsurgency operations with coalition support. 
Approximately two-thirds of their army battalions and one half of their 
police battalions are partially capable of conducting counterinsurgency 
operations in conjunction with coalition units. Approximately one half 
of their police battalions are forming and not yet capable of 
conducting operations. The majority of Iraqi security forces are 
engaged in operations against the insurgency with varying degrees of 
cooperation and support from coalition forces. Many of these units have 
performed superbly in conducting operations against the enemy, and 
their operational capability is continuing to improve. I have provided 
a classified graphic of this data in my responses to advance questions.

    22. Senator Levin. General Pace, can you provide unclassified 
information with respect to how many Iraqi Army and police battalions 
are capable of taking on the insurgents without assistance from 
coalition forces; how many with support of coalition forces; and how 
many are not capable of taking on the insurgents?
    General Pace. Please see my consolidated response at question #21.
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton

                            COUGAR VEHICLES

    23. Senator Dayton. General Pace, a recent New York Times article 
states that the Marine Corps recently ``settled on the Cougar as a 
superior vehicle'' (to the HMMWV), providing ``more than twice'' the 
protection from an explosive device. The article also reported that in 
2002, then-Assistant Army Secretary Claude M. Bolton, Jr. wrote to 
Congress that the decision by the Army to purchase HMMWVs rather than 
other better armored and more expensive vehicles ``is based on budget 
priorities.'' Why did the Army and, initially the Marine Corps, choose 
to buy new HMMWVs, which reportedly provided inferior protection for 
its occupants, rather than as Congress to fund the purchases of more 
expensive and better protected vehicles?
    General Pace. The Army and Marine Corps have not selected vehicles 
with ``inferior protection'' rather than ask Congress to fund purchases 
of more expensive vehicles. The Army and Marine Corps selected the Up-
Armored High Mobility Multiple Purpose Wheeled Vehicle (UAH) because of 
its mobility, ability to be reconfigured for different uses (cargo/
troop transport, weapons carrier, ambulance, and convoy escort), 
durability, and protection (perimeter, roof and underbody armor). The 
Army began purchasing the UAH in mid-2003 and is operating over 8,000 
in Iraq and Afghanistan. Today we are producing 550 vehicles per month 
and have a total requirement of over 10,000.
    The Cougar, unlike the UAB, is a unique, single-purpose Explosive 
Ordnance Disposal (EOD) response vehicle that is used by engineer units 
for their unique mission. Procurement of the Cougar began in April 
2004.

    24. Senator Dayton. General Pace, is the article correct that when 
the Marine Corps completed its initial order of Cougar vehicles in 
April 2004, it ``got only enough money from the Iraq war fund to buy 15 
of the 27 Cougars it wanted?'' If so, why was the Senate Armed Services 
Committee being assured that sufficient funds had been appropriated for 
all necessary armoring and up-armoring acquisitions?
    General Pace. The article is incorrect. The Marine Corps requested 
and received full funding for 12 Cougars from the fiscal year 2005 
supplemental. An additional 15 Cougars were funded internally by Marine 
Corps procurement funds.

    25. Senator Dayton. General Pace, is there anything presently 
needed by any branch, whether additional funds, acquisition authority, 
approval for expedited contract procedures, or any other, in order to 
purchase and acquire the protective vehicles and equipment of the 
highest quality?
    General Pace. I am not aware of any additional funding, authority 
or expedited contract procedures required to purchase protective 
vehicles or equipment.
    I very much appreciate the funding support of Congress as we 
prosecute the war on terrorism.
                                 ______
                                 
    [The nomination reference of Gen. Peter Pace, USMC, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 25, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Chairman of the 
Joint Chiefs of Staff and appointment in the United States Marine Corps 
to the grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., sections 601 and 152:

                             To be General

    Gen. Peter Pace, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Peter Pace, USMC, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
           resume of career service of gen. peter pace, usmc
Date of rank: November 1, 2000.

Date of birth: November 5, 1945.

Date commissioned: June 7, 1967.

MRD: November 1, 2007.

Education/qualifications:
    U.S. Naval Academy, BS, 1967.
    George Washington University, MS, 1972.
    The Basic School, 1968.
    Infantry Officers' Advanced Course, 1972.
    Marine Corps Command and Staff College, 1980.
    National War College, 1986.
    Capstone, 1992.
    Harvard Program for Senior Executives in National and International 
Security, 1993.
    Harvard Executive Program, 1999.
    Infantry Officer.
    Joint Specialty Officer.

Language(s): None.

Commands:
    Commander, U. S. Marine Corps Forces Atlantic (LtGen: Nov. 97-Aug. 
00).
    President, Marine Corps University (BGen: June 92-June 93).
    Assistant Division Commander, 2d Marine Division (Col/BGen: Feb. 
92-June 92).
    Commanding Officer, Marine Barracks, Washington, DC (LtCol/Col: 
July 88-July 91).
    Commanding Officer, 2d Battalion, 1st Marines, 1st Marine Division 
(LtCol: May 83-June 85).
    Commanding Officer, Marine Corps Recruiting Station Buffalo, NY 
(Maj/LtCol: June 80-May 83).

Joint Assignments;
    Commander in Chief, U.S. Southern Command (Gen: Sep. 00-Sep. 01).
    Director of Operations, J-3, Joint Staff (LtGen: Aug. 96-0ct. 97).
    Deputy Commander, Joint Task Force Somalia (BGen: Oct. 93-Jan. 94).
    Deputy Commander, U.S. Forces Japan (BGen: July 93-June 94).
    Chief, Operations Division; Executive Officer, C/J-3, UNC/CFC/USFK 
(LtCol: June 86-June 88).

Service Staff Assignments:
    Chief of Staff, 2d Marine Division (Col: July 91-Feb. 92).
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Peter 
Pace, USMC, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Peter Pace.

    2. Position to which nominated:
    Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    25 April 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    5 November 1945; Brooklyn, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Lynne Holden.

    7. Names and ages of children:
    Peter, 28; Tiffany, 26.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Marine Corps--Law Enforcement Foundation.
    Marine Corps Association.
    Military Officers Assocation of America.
    Veterans of Foreign Wars.
    American Legion.
    Marine Corps League.
    Honorable Order of Kentucky Colonels.
    Naval Academy Alumni Association.
    National War College Alumni Association.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
thos views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                        Peter Pace.
    This 14th day of June 2005.

    [The nomination of Gen. Peter Pace, USMC, was reported to 
the Senate by Chairman Warner on July 13, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 15, 2005.]
                              ----------                              

    [Prepared questions submitted to ADM Edmund P. 
Giambastiani, Jr., USN, by Chairman Warner prior to the hearing 
with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. You previously have answered the committee's policy 
questions on the reforms brought about by the Goldwater-Nichols Act in 
connection with your nomination to be Commander, U.S. Joint Forces 
Command.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
most recent confirmation hearing on July 26, 2002?
    Answer. No. The Goldwater-Nichols Act was one of the two most 
transformational events in the Department during my military career, 
the other being the creation of the All-Volunteer Force. Overall, the 
Goldwater-Nichols reforms have clearly strengthened the warfighting and 
operational capabilities of our combatant commands and our Nation. The 
importance of these reforms has not diminished with time.
    Question. Do you foresee the need for modifications of Goldwater-
Nichols in light of the changing environment? If so, what areas do you 
believe it might be appropriate to address in these modifications?
    Answer. While we have made great progress in the joint arena since 
the enactment of Goldwater-Nichols, the current world environment and 
the challenges we face today are radically different than those of 20 
years ago. We therefore need to build on the successes of Goldwater-
Nichols. One area I believe has ample room for improvement is Joint 
Command and Control. I feel we may need a single agency/activity 
focused on joint acquisition and programming that answers to the 
combatant commanders' joint requirements and has specific Joint 
authority to resource these developments. I have provided this input to 
the Center for Strategic and International Studies ``Beyond Goldwater-
Nichols Project'' as a basis for building on the Goldwater-Nichols 
legacy.

                                 DUTIES

    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Vice Chairman of the Joint Chiefs of 
Staff as set forth in section 154 of title 10, United States Code, and 
in regulations of the Department of Defense pertaining to functions of 
the Vice Chairman of the Joint Chiefs of Staff?
    Answer. None at this time.
    Question. Based on your experience as Commander, U.S. Joint Forces 
Command, and Supreme Allied Commander Transformation, what 
recommendations, if any, do you have for changes in chapter 6 of title 
10, United States Code, as it pertains to the powers and duties of 
combatant commanders generally, and specifically regarding section 167a 
and the acquisition authority of U.S. Joint Forces Command?
    Answer. The section you mention deals specifically with the 
congressionally-granted Limited Acquisition Authority (LAA). I support 
any legislation that allows us to more quickly provide the combatant 
commanders with needed capabilities--especially in areas as important 
as Joint Command and Control, Communications and Intelligence. This 
statute is due to expire in fiscal year 2006. I urge Congress to extend 
this authority and consider tying appropriate resources to the 
authority in order to make it fully effective.

                             RELATIONSHIPS

    Question. Please describe your understanding of the relationship of 
the Vice Chairman of the Joint Chiefs of Staff to the following 
officials:
    The Secretary of Defense.
    Answer. As a member of the Joint Chiefs of Staff, the Vice Chairman 
performs the duties prescribed for him and other such duties as may be 
prescribed by the Chairman with the approval of the Secretary of 
Defense.
    Additionally, in the absence or disability of the Chairman, the 
Vice Chairman acts as the Chairman and performs the duties of the 
Chairman until a successor is appointed or until the absence or 
disability ceases. These duties include serving as the principal 
military adviser to the Secretary of Defense, the National Security 
Council, and the President.
    As a member of the Joint Chiefs of Staff, the Vice Chairman may 
submit advice or opinions to the Chairman in disagreement with, or in 
addition to, the advice presented by the Chairman to the President, the 
National Security Council or the Secretary of Defense. The Chairman 
submits such opinion or advice at the same time he delivers his own.
    The Vice Chairman, as a member of the Joint Chiefs of Staff, may 
also individually or collectively, in his capacity as a military 
adviser, provide the Secretary of Defense advice upon the Secretary's 
request.
    Question. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters upon which the Secretary is authorized to act. 
As such, the relationship of the Vice Chairman with the Deputy 
Secretary is similar to that with the Secretary.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman performs the duties prescribed for him as 
a member of the Joint Chiefs of Staff and such other duties as 
prescribed by the Chairman with the approval of the Secretary of 
Defense. When there is a vacancy in the office of Chairman, or during 
the absence or disability of the Chairman, the Vice Chairman acts as 
Chairman and performs the duties of the Chairman until a successor is 
appointed or the absence or disability ceases. If confirmed, I look 
forward to building a close and effective working relationship with the 
next Chairman.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, United States Code, and current Department of 
Defense (DOD) directives establish the Under Secretaries of Defense as 
the principal staff assistants and advisers to the Secretary regarding 
matters related to their functional areas. Within their areas, Under 
Secretaries exercise policy and oversight functions. They may issue 
instructions and directive type memoranda that implement policy 
approved by the Secretary. These instructions and directives are 
applicable to all DOD components. In carrying out their 
responsibilities, and when directed by the President and Secretary of 
Defense, communications from the Under Secretaries to commanders of the 
unified and specified commands are transmitted through the Chairman of 
the Joint Chiefs of Staff.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for Public Affairs, Legislative Affairs, Intelligence Oversight, and 
for Networks & Information Integration, all Assistant Secretaries of 
Defense are subordinate to one of the Under Secretaries of Defense. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff. If confirmed, I will 
work closely with the Assistant Secretaries in a manner similar to that 
described above for the Under Secretaries.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, United States Code, Section 165 provides that, 
subject to the authority, direction and control of the Secretary of 
Defense, and subject to the authority of the combatant commanders, the 
Secretaries of Military Departments are responsible for administration 
and support of forces that are assigned to unified and specified 
commands.
    The Chairman, or Vice Chairman when directed or when acting as the 
Chairman, advises the Secretary of Defense on the extent to which 
program recommendations and budget proposals of the military 
departments conform with priorities in strategic plans and with the 
priorities established for requirements of the combatant commands.
    Of particular interest is that since 2003, the Under Secretary of 
the Air Force acts as the Executive Agent for Space Program 
procurement, which is especially important to the Vice Chairman in the 
role as Chairman of the Joint Requirements Oversight Council. Although 
this authority temporarily resides with the Under Secretary of Defense 
for Acquisition while awaiting confirmation of a new Under Secretary of 
the Air Force, if confirmed, I recognize the importance of working 
closely with this senior official on vitally important space programs.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs are no longer involved in the operational chain of command. 
However, this does not diminish their importance with respect to Title 
10 responsibilities, and among other things, they serve two significant 
roles. First and foremost, they are responsible for the organization, 
training, and equipping of their respective Services. Without the full 
support and cooperation of the Service Chiefs, no combatant commander 
can be ensured of the preparedness of his assigned forces for missions 
directed by the Secretary of Defense and the President.
    Second, as members of the Joint Chiefs of Staff, the Chiefs are 
advisers to the Chairman and the Secretary of Defense as the senior 
uniformed leaders of their respective Services. In this function, they 
play a critically important role in shaping military advice and 
transforming our joint capabilities. If confirmed, I will work closely 
with the Service Chiefs and their Vice Chiefs to fulfill warfighting 
and operational requirements.
    Question. The combatant commanders.
    Answer. The combatant commanders fight our wars and conduct 
military operations around the world. By law, and to the extent 
directed by the Secretary of Defense, the Chairman serves as spokesman 
for the combatant commanders and is charged with overseeing their 
activities. He provides a vital link between the combatant commanders 
and other elements of the Department of Defense, and as directed by the 
President, may serve as the means of communication between the 
combatant commanders and the President or Secretary of Defense. When 
the Vice Chairman is performing the Chairman's duties in the latter's 
absence, he relates to the combatant commanders as if he were the 
Chairman.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would face if confirmed as Vice Chairman of the Joint Chiefs of Staff?
    Answer. I see four overarching challenges. First, we must 
successfully fight the global war on terrorism. A concerted effort 
within this first challenge needs to be focused on harnessing our 
Nation's vast capabilities to combat Improvised Explosive Devices 
(IEDs). These ``weapons of mass precision'' are not only claiming the 
lives of our young men and women in current operations, but will likely 
be employed against our forces and our partners in the years to come. 
Second, we must continue transforming our joint force for the future 
while deeply engaged in an ongoing global war on terrorism campaign and 
in Operations Enduring Freedom and Iraqi Freedom. Third, we need to 
work to adapt and further align requirements and acquisition processes 
for the 21st century. Finally, we need to work to institutionalize a 
joint organize, train, and equip role in the Department of Defense.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work to ensure that the global war on 
terror is coherently prosecuted and is appropriately resourced. I will 
also assist the Chairman in working with the Secretary of Defense, the 
Service Chiefs, and the combatant commanders to ensure we use concept 
development, experimentation and lessons learned from ongoing 
operations to transform our joint capabilities. Along these lines, I 
will work to improve the linkage between our requirements process and 
our acquisitions processes. Finally, I will work with the Services, 
Congress, and the Office of the Secretary of Defense to ensure all 
available resources are devoted towards combating IEDs. Our soldiers, 
sailors, airmen, and marines deserve nothing less.

                             TRANSFORMATION

    Question. In your view, what progress have OSD, the Joint Staff, 
and U.S. Joint Forces Command made in transforming the Armed Forces?
    Answer. Working together, the DOD has made significant progress in 
transforming how we fight and operate, how we work with partners and 
how we conduct the business side of national defense. I will speak to 
the progress in military transformation that I have the most experience 
with as Commander, U.S. Joint Forces Command.
    First of all, we have established the right authorities and 
resources to empower the agents of joint transformation within the 
Department of Defense. The President's Unified Command Plans of 2002 
and 2004, the Transformation Planning Guidance and other direction by 
the Secretary and Deputy Secretary of Defense have provided Joint 
Forces Command with the authorities necessary to help lead the U.S. 
military transformation endeavor. In addition, Congress has provided 
significant new resources that have allowed Joint Forces Command to 
execute these authorities rapidly and effectively.
    In several key areas, significant transformation progress has been 
made.

        <bullet> We have significantly expanded the scope of joint 
        concept development and experimentation, working with the 
        Services, combatant commanders, and allies. Every major DOD 
        wargame since May 2003 has been run as a Joint game cosponsored 
        by a Service and Joint Forces Command, working on a common set 
        of issues within a common joint context. This has resulted in 
        the further development of the ``common joint context'' which 
        further informs all Joint and Service concept development work. 
        This is the first key step in producing capabilities that are 
        ``born joint,'' and as resulted in four Joint Operating 
        Concepts: Major Combat Operations, Homeland Defense, Strategic 
        Deterrence, and Stability Operations.
        <bullet> We have created a robust, dynamic, and real-time 
        lessons learned capability which provides immediate support for 
        the combatant commanders and insights into capability gaps 
        which need immediate action. Based on our lessons learned work 
        to date, we have submitted a number of packages of change 
        recommendations to immediately address capability shortfalls.
        <bullet> We have focused joint training on preparing the Joint 
        Task Force Commander and his staff to execute real world joint 
        operations, with a special emphasis on mission rehearsal 
        exercises for commanders preparing for command in Operations 
        Enduring Freedom and Iraqi Freedom. Additionally, we are 
        assisting in the training of the majority of Joint Task Forces 
        around the world and conduct staff assist visits to help 
        current joint commanders accomplish their missions. In this 
        effort, the establishment of the Joint National Training 
        Capability (JNTC) has been a significant milestone in training 
        transformation which will provide increased training fidelity, 
        efficiency and ubiquity with reduced overall training cost. A 
        perfect example of this is the recently completed combined 
        exercise called Joint Red Flag/Roving Sands 2005. This exercise 
        was comparable in size and scope to Millennium Challenge 2002. 
        Yet what took 2 years of planning and approximately $250 
        million for Millennium Challenge 2002 was done in 1 year for 
        about $25 million for Joint Red Flag/Roving Sands 2005. The 
        JNTC program is a great example of leveraging the Services 
        existing investments in training along commercial technology to 
        the benefit of the joint operator.
        <bullet> We have increased the training of new flag and general 
        officers in an expanded Capstone Joint Operations Module (JOM). 
        In addition we have created new Joint Task Force Headquarters 
        training courses for 2- and 3-star officers and senior enlisted 
        leaders.
        <bullet> We have worked to significantly improve our processes 
        to source the capability requirements of the combatant 
        commanders. Working closely with the combatant commanders and 
        the Joint Staff to execute Joint Forces Command's Primary Joint 
        Force Provider Mission, we are developing better tools to track 
        worldwide force availability, gaining better insight into 
        Reserve component readiness, mitigating stress on the force 
        while meeting the needs of Operation Iraqi Freedom and Enduring 
        Freedom and experimenting with new methods of planning and 
        executing Joint Deployments for the future.
        <bullet> We have continued to work on joint interoperability, 
        with a particular focus on Joint Command and Control. Using our 
        Joint Battle Management Command and Control authorities as 
        directed by Deputy Secretary of Defense, we have worked with 
        the Services and combatant commands to improve all aspects of 
        Joint Command and Control, issued a detailed Roadmap, and are 
        executing our first program--the Deployable Joint Command and 
        Control. We also created the Joint Systems Integration Command 
        (JSIC).
        <bullet> We have drastically increased our work with allies, 
        most visibly demonstrated by the growth in Foreign Liaison 
        Officers assigned to Joint Forces Command. Just 2 years ago, we 
        had 11 Foreign Liaison Officers from 5 countries, and now there 
        are 55 officers from 33 countries.

    In all of our efforts at joint transformation, we are motivated by 
the manifest need to define and execute a ``Joint Organize, Train, and 
Equip'' mission. At Joint Forces Command, we have focused this mission 
on organizing, training and equipping the Joint Task Force Headquarters 
to meet the operational needs of the regional combatant commanders. 
This unifying theme to our many efforts has paid significant dividends 
in joint transformation.
    Question. Do you believe the Joint Staff should play a larger role 
in transformation? If so, in what ways?
    Answer. The Joint Staff plays an important role is assisting the 
Chairman in formulating advice on transformation.
    Question. What progress has been made in devising performance 
metrics for joint experimentation and transformation?
    Answer. Transformation is a process--not an end-state. If we had a 
defined and static end-state, performance ``metrics'' would be an 
appropriate term to describe a means to measure our progress toward 
that end-state. Because our vision of how we want to operate in the 
future is constantly evolving as we learn more through experimentation, 
exercises and operations, we can measure only our relative performance 
against previous standards of collaboration and cultural adaptation. 
Therefore we apply what analysts call measures of performance.
    In our quest to move from coordinated operations among Service 
forces to coherently integrated and interdependent operations among 
multinational Service and interagency forces, the measures of 
performance we've derived naturally focus on the ability to achieve 
collaboration and a unified effort in the planning, execution, and 
assessment of operations. We use experimentation to accelerate and 
advance the process of transformation. We create a vision of how we 
want to operate, derive concepts to achieve that vision, refine those 
concepts (and the vision) through experimentation and lessons derived 
from real-world operations and exercises, link the capabilities 
described in the concepts to the research, development, test and 
evaluation process, develop and acquire the capabilities. Fundamental 
to this transformation effort is adapting the culture of all the 
participants to support the vision. In all these measures of increasing 
collaboration and adapting cultures, we have advanced considerably in 
the last 3 years, though we still have much work to do.
    Question. If confirmed, what would be your future goals regarding 
transformation in the future?
    Answer. The first--and overriding--goal is to continue transforming 
our Armed Forces while the Nation is at war. I believe the best time to 
undertake transformation is when you are engaged in challenging 
operations.
    Along these lines, my primary goal will be to ensure that the 
lessons we learn in operations, experiments and concept development 
work are translated into rational resource and requirement decisions. 
Three key joint processes need to be aligned for this to happen:

        <bullet> The Joint Concept Development and Experimentation 
        process
        <bullet> The Joint Capabilities Integration and Development 
        System
        <bullet> The Planning, Programming, Budgeting, and Execution 
        System

    When we align these processes and make them as agile and responsive 
as possible, we will be able to translate lessons learned and operating 
concepts into an acquisition strategy, which is a key priority of the 
Department of Defense.

                        JOINT OFFICER MANAGEMENT

    Question. Statutory standards for joint officer management and 
joint professional military education have increasingly been the 
subject of administration proposals for change that would afford 
greater latitude to the Joint Staff and the Services in the management 
of officers. Pursuant to section 531 of the Ronald W. Reagan National 
Defense Authorization Act for Fiscal Year 2005, the Secretary of 
Defense is required to develop a strategic plan for joint officer 
management and joint professional military education that would link 
future requirements for active and Reserve military personnel who are 
trained and educated in joint matters to the resources required to 
develop those officers in terms of manpower, formal education, 
practical experience, and other requirements.
    What do you consider to be the primary strengths and weaknesses of 
the current requirements for joint professional military education with 
respect to qualification as a joint specialty officer?
    Answer. While the intent of the JOM portion of the Goldwater-
Nichols Act remains valid, the process for certifying Joint Specialty 
Officers (JSOs) should reflect the changes in the way our military 
conducts joint operations. The strength of the current system is that 
it produces officers with a solid level of education, training, and 
joint staff experience to be certified as joint specialty experts. 
However, there are two main areas that we need to improve: providing 
credit for all relevant joint operational experience--especially in 
operational Joint Task Force headquarters--and developing a system to 
track this cumulative experience across the officer corps.
    Question. What is your assessment of the appropriate balance 
between education and experience in achieving qualification as a joint 
specialty officer?
    Answer. In my opinion, there are three components to developing a 
Joint Specialty Officer: education, training, and experience. While the 
education and training components are reasonably well developed, we 
currently do not provide the appropriate joint credit for officers 
serving on operational Joint Task Force Headquarters. This real-world 
joint operational experience--the most valuable kind of joint 
experience in my view--reinforces education and training with practical 
application of learned skills, thus more fully preparing officers to 
lead and manage in the joint environment.
    Question. What is your personal view of the operational value and 
importance, in terms of performance, of officers achieving 
qualification as joint specialty officers?
    Answer. In my view, there are two kinds of joint experience--joint 
staff experience and joint operational experience. Obviously both of 
these types of experience are relevant to qualification as joint 
specialty officers, but I believe nothing can replace joint operational 
experience. I think we need to provide joint credit for operational 
joint experience and develop a system to track officers with this type 
of experience. The value of qualified joint specialty officers has been 
further reinforced for me while serving as Commander, Joint Forces 
Command and Supreme Allied Commander, Transformation.
    Question. What changes, if any, would you recommend in the 
development, education, management, assignment, and qualifying 
processes for officers in a transformed and fully joint U.S. military?
    Answer. We must focus on producing leaders who are fully qualified, 
inherently joint officers, critical thinkers, and most importantly, 
skilled war fighters and operators. We have made significant process in 
this area, especially with our senior leaders. We have expanded the 
Capstone training program for our new flag/general officers and we 
created Pinnacle and Keystone to train our senior flag/general officers 
and enlisted personnel on how to command and operate within an 
operational Joint Task Force. Next step is to create a system to track 
operational joint experience and more easily provide joint duty credit 
for those officers who serve on an operational Joint Task Force.

             TRAINING OF SENIOR LEADERS IN JOINT OPERATIONS

    Question. U.S. Joint Forces Command has taken several initiatives 
to train senior leaders how to operate in joint environments. Capstone 
and Pinnacle are intensive courses that provide general and flag 
officers with an understanding of what is expected of them as joint 
task force commanders and what it takes to make a joint task force work 
effectively. Keystone provides senior enlisted leaders with an 
understanding of their role in joint operations.
    How has Capstone changed since its inception, and what currently 
are its principal strengths and weaknesses?
    Answer. As Commander, U.S. Joint Forces Command, I am only 
responsible for the JOM portion of the Capstone, Pinnacle, and Keystone 
programs. As an integral part of each of these courses, Joint Forces 
Command's Joint Warfighting Center receives extensive feedback from 
each attendee and uses that to improve the content of each course. 
Also, each and every program course is adjusted to reflect 3 items: the 
current best practices in the field, recent joint lessons learned 
(observed), and emerging joint concepts. Overall, I am very satisfied 
with these three programs in training our senior leaders for joint 
operations.
    When I attended Capstone just over a decade ago, the U.S. Joint 
Forces Command portion was primarily an introductory program for new 
flag and general officers to demonstrate service-specific capabilities, 
focusing primarily on weapons systems. It lasted about 4 hours. Today, 
the Joint Warfighting Center hosts a 4-day Joint Operations Module as 
part of the Capstone program. We have completely changed the focus to 
how to operate successfully in a Joint Task Force operating in an 
Allied, coalition and interagency environment. The emphasis is now on 
how to command and control a joint task force headquarters in the 21st 
century.
    I believe the Joint Operations Module portion of Capstone has four 
main strengths. First is the senior mentor program headed by Gary Luck, 
General U.S. Army (retired), whom I consider a ``national treasure.'' 
He maintains a cadre of hand-picked former 3- and 4-star officers and 
Ambassadors who provide exceptional mentorship to the Capstone fellows 
in small group settings. Second, our Joint Warfighting Center brings 
current, practical knowledge of command and control issues at the Joint 
Task Force (JTF) and Functional Component level, and links in Video 
Teleconferences with current JTF commanders serving in operational 
commands. These JTF commanders always lead a frank and open discussion 
with the fellows that is consistently rated as one of the most helpful 
portions of Capstone. Third, the Joint Warfighting Center does an 
excellent job of incorporating the results of the most current `lessons 
learned' process into the Joint Operations Module. Finally, the 
personal relationships developed between the fellows themselves have 
consistently proven their utility during joint operations.
    Capstone has been improved by increasing the attendance from other 
government agencies. Today's joint operations are increasingly 
conducted in an interagency and multinational environment, and 
additional interaction with individuals with these backgrounds is 
required.
    Question. How would you assess the training provided at Pinnacle, 
and what recommendations for improving this course would you offer?
    Answer. As with Capstone, U.S. Joint Forces Command is responsible 
for the Joint Operations Module portion of Pinnacle. So far, we have 
hosted two Joint Operations Modules at Joint Forces Command and in both 
courses, I spent 3\1/2\ of the 4 days of the Joint Operations Module 
with the participants. Based on my personal experience, Pinnacle is 
fulfilling its purpose. We knew we were missing something in preparing 
our flag and general officers to command a joint task force 
headquarters and Pinnacle has filled that gap.
    Finally, and in order to continue to improve Pinnacle, we need to 
establish a comprehensive assessment of the program centered on 
feedback from former graduates approximately 1 year after they 
completed the training--and incorporate this feedback into the 
curriculum.
    Question. In your view, are the Services effectively utilizing the 
senior enlisted personnel who attend the Keystone course, and what 
improvements to this course, if any, are needed?
    Answer. My Command Senior Enlisted Leader, CSM Mark Ripka, U.S. 
Army, has been very involved with the design, implementation and 
conduct of the Keystone program. His initial assessment of the 
placement of Keystone graduates indicates the Services are utilizing 
the graduates effectively. The Keystone program was designed to mirror 
Capstone and we have held true to that goal. The senior enlisted 
personnel that attend Keystone receive almost the identical curriculum 
as their Capstone counterparts. Overall, I am satisfied with the 
progress of Keystone. The only issue outstanding is to ensure that 
National Defense University is fully funded for the entire 10-day 
Keystone program.

                  JOINT REQUIREMENTS OVERSIGHT COUNCIL

    Question. If confirmed as the Vice Chairman of the Joint Chiefs of 
Staff, you would be the chairman of the Joint Requirements Oversight 
Council (JROC). The Joint Requirements Oversight Council has the 
responsibility to validate Service requirements. As the Services 
transformation initiatives have matured, some have been approved for 
system development and demonstration (SDD) even though it appears that 
some programs lacked the technical maturity the programs require to 
transition into SDD.
    How would you assess the effectiveness of the JROC in the DOD 
acquisition process?
    Answer. I believe the JROC's participation in the Defense 
Department acquisition process has improved, particularly as a result 
of the evolving changes in the JROC and acquisition processes over the 
past few years. In my view, however, more can be done to improve the 
alignment and interaction between the requirements generation and 
acquisition process. We can also work to make our acquisition processes 
more agile and responsive to emerging requirements from the combatant 
commanders.
    Question. What is your vision for the role and priorities of the 
JROC?
    Answer. The JROC plays an important role in helping ensure that 
major programs are ``born joint.'' Since its inception, the JROC has 
driven ``jointness'' into military requirements generation, defense 
acquisition programs, and the Chairman's programmatic advice and 
recommendations. In 2000, the Chairman initiated efforts to enhance 
JROC influence in requirements integration through development of joint 
operational concepts, integrating joint experimentation efforts, and 
adding a focus on future joint warfighting requirements--while still 
addressing combatant commander's current priorities. A lot has been 
accomplished; but much more needs to be done. There needs to be a 
better linkage between the requirements generation and the acquisition 
processes. We need to work hard to turn our joint operating concepts 
into an acquisition strategy. We need to be able to respond in an agile 
fashion to emerging requirements from our combatant commanders. If 
confirmed, I look forward to further examination of how this process 
can be improved, and to ensuring all statuary and reporting 
requirements relating to the JROC are met.
    Question. What changes, if any, would you recommend in the 
membership of the JROC?
    Answer. I would like to reserve judgment on specific changes 
pending confirmation and an opportunity to further review the Joint 
Requirements Oversight Council organization, process, and function.
    Question. Do you believe the current JROC process has been able to 
adjust satisfactorily to a capabilities-based, vice threat-based, 
approach in determining requirements?
    Answer. The JROC has taken several steps to make the JROC process 
focused on delivering capabilities that are strategy driven and ``born-
joint.'' On the positive side, I can tell you from personal experience 
that the results of joint experimentation and joint lessons learned are 
beginning to influence our concepts of operations and our acquisitions, 
especially in the joint command and control arena. However, we need to 
improve the link between the Joint Capabilities and Integration 
Development System (JCIDS) and the Joint Concept Development and 
Experimentation process. Aligning and integrated these processes will 
allow our collaboratively derived, capabilities-based joint operating 
concepts to drive our acquisition strategy. I also believe we need to 
do even more work to ensure the interoperability of systems in our 
legacy force is enhanced.
    Question. Do you believe that quantity of items required is 
appropriately addressed in the JROC process, so that the capability 
delivered by the item is present in appropriate numbers?
    Answer. I do not know, but if confirmed, I will study this issue 
and respond.
           joint forces command limited acquisition authority
    Question. The National Defense Authorization Act for Fiscal Year 
2004 provided the Joint Forces Command (JFCOM) commander with the 
authority to develop and acquire equipment for battle management 
command, control, communications, and intelligence and any other 
equipment that JFCOM determines necessary for facilitating the use of 
joint forces in military operations or enhancing the interoperability 
of equipment used by the various components of joint forces. The 
authority limits spending to $10 million for research and development 
and $50 million for procurement, and, unless renewed, will expire on 
September 30, 2006.
    What is your assessment of the efficacy of this limited acquisition 
authority for JFCOM?
    Answer. LAA has proven to be a useful and flexible tool for U.S. 
Joint Forces Command (USJFCOM) in support of other combatant commands. 
Based on warfighting shortfalls validated by combatant commanders, it 
has allowed us to field mature technologies quickly. This equipment, 
available in industry today, directly improves areas such as Joint 
Battle Management Command and Control, Intelligence, Communications, 
operations of joint forces, and the interoperability of joint force 
components. LAA allows us to get the new or improved capability to the 
warfighters in the regional combatant commands more rapidly than the 
normal DOD acquisition process.
    Since 2004 USJFCOM's implementation of LAA in support of combatant 
commands has been used to fund/provide several improvements to the 
joint warfighter:

        <bullet> The Joint Precision Air Drop System 2000 pound 
        capability allows precision delivery of logistic support to 
        forces in remote operating areas or behind enemy lines. 
        Expected delivery--July 2005.
        <bullet> The Change Detection Work Station (CDWS) is a 
        capability to map and detect Improvised Explosive Devices along 
        troop/convoy routes. CDWS deployed to U.S. Central Command in 
        January 2005.
        <bullet> The Joint Task Force Commander Executive Command and 
        Control Capability (JTF CDR EC2) is an information technology 
        solution that provides connectivity to a Commander while 
        remotely located from the headquarters element. Four of these 
        systems were delivered to CENTCOM/EUCOM Combined Joint Task 
        Forces (CJTF) in fiscal year 2004 and a fifth is under 
        development for delivery to CJTF-76 later this year.
        <bullet> Joint Translator/Forwarder/Joint Blue Force Tracker/
        Rapid Attack Info Dissemination Execution Relay--Joint 
        Translator Forward is a universal translator/data forwarder for 
        disparate data sources/data links; Joint Blue Force Situational 
        Awareness provides blue force system integration; Rapid Attack 
        Info Dissemination Execution Relay provides Time Sensitive 
        Target attack data/authorization to multiple aircraft en route 
        targets. This capability is currently in development under 
        Limited Acquisition Authority for fielding in fiscal year 2005 
        and fiscal year 2006.

    USJFCOM is also evaluating five additional capabilities for 
fielding under Limited Acquisition Authority.

        <bullet> Joint Extended Collaborative Environment--would expand 
        the ability of units and commanders to plan and remain 
        connected en route to the mission area
        <bullet> Command and Control On The Move--access to all 
        headquarters Communications, Intelligence & Command and Control 
        systems while on the move.
        <bullet> Simultaneous, two-way voice translation between 
        American English and Arabic dialects.
        <bullet> Data Mining and Digital Translation Technology to 
        improve the mission capability of intelligence collection from 
        open source information.

    Question. Do you believe this authority should be extended beyond 
September 30, 2006? If so, what changes, if any, would you recommend to 
improve the authority?
    Answer. Yes. I believe that extension of LAA beyond fiscal year 
2006 will continue to provide needed capabilities to the regional 
combatant commanders; especially in command and control functions, 
communications, intelligence, operations, and interoperability. I 
strongly urge Congress to extend the authority.
    While Limited Acquisition Authority projects are bringing some 
much-needed improvements to the joint warfighter, the LAA is not 
without significant challenges. Finding adequate resources to support 
LAA projects is often more challenging than defining, developing or 
fielding the capability. While these authorities have provided 
opportunities to partner with Services and Defense Agencies to field 
these tools, developing funding agreements takes time, slowing the 
development and delivery of capabilities to the troops--the very 
problem that LAA was designed to address.
    The ability to sustain/maintain these projects during transition to 
programs of record or replacement also continues to present challenges. 
If the Limited Acquisition Authority were to expire as scheduled on 30 
September 2006, we would lose an excellent--and rapidly improving--
method to provide emerging capabilities to our combatant commanders 
with no replacement program on the horizon.
    Limited Acquisition Authority can be improved by adding 
appropriated funding commensurate to the authority and by allowing the 
use of Operation and Maintenance (O&M) funds for sustainment of LAA-
acquired capabilities until transition to an existing program of 
record, absorption of the sustainment into the recipient's O&M budget, 
or termination of the requirement for each specific capability.
    Question. Do you believe similar acquisition authority should be 
extended to other combatant commands, and, if so, which commands and 
why?
    Answer. I support any process or authority that will accelerate 
getting warfighting capabilities into the hands of the joint 
warfighter. Limited Acquisition Authority was delegated to USJFCOM as a 
test case to determine if DOD could, for specific joint requirements, 
acquire capabilities outside the normal acquisition process. In my 
opinion, this experiment has been a success. Our experience has shown 
that the current LAA statute, while narrowly defined, should be 
extended beyond fiscal year 2006 and should also be resourced to both 
deliver a capability and sustain it once in place.
    I would like to reserve judgment on extension of this authority to 
other combatant commands pending consultation with the combatant 
commanders and pending further experience from Joint Forces Command 
with Limited Acquisition Authority.

                DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS

    Question. The Department's Science and Technology (S&T) programs 
are designed to support defense transformation goals and objectives. 
These programs should ensure that warfighters of today and tomorrow 
have superior and affordable technology to support their missions and 
to give them revolutionary war-winning capabilities.
    Do you believe there is an adequate investment in innovative 
defense science to develop the capabilities the Department will need in 
2020?
    Answer. I believe so. In my capacity as Commander, U.S. Joint 
Forces Command, I have been satisfied with the investment resources at 
my disposal to find innovative solutions to Joint problems. I cannot 
speak to the Department of Defense's investment resources, though I 
expect to be involved in this issue should I be confirmed as Vice 
Chairman of the Joint Chiefs of Staff.
    Question. Do you believe the Department's investment strategy for 
science and technology is correctly balanced between near-term and 
long-term needs?
    Answer. In my capacity as Commander, U.S. Joint Forces Command, I 
have not been involved in the department's overall investment strategy 
for science and technology. I would like to Reserve judgment until I 
have time to study this issue.

                         TECHNOLOGY TRANSITION

    Question. The DOD efforts to quickly transition technologies to the 
warfighter have yielded important results in the last few years. 
Challenges remain to institutionalizing the transition of new 
technologies into existing programs of record and major weapons systems 
and platforms.
    What are your views on the success of the Department's technology 
transition programs in spiraling emerging technologies into use to 
confront evolving threats and to meet warfighter needs?
    Answer. The Technology Transition Initiative, Quick Reaction Fund, 
and Advanced Concept Technology Demonstrations have each had limited 
success. Each has provided new technology to the warfighter but 
generally only those programs with technologies that have Service buy-
in and Service priority have transitioned into programs of record. We 
need to do a better job identifying the importance of technologies that 
contribute to the Joint Warfighter and determining how these can be 
better transitioned into programs of record. However on a limited 
basis, we have used Chairman's Initiative Funds (CIF) to satisfy near-
term technology insertions. We have also used LAA which was delegated 
to Joint Forces Command as an experiment to determine if DOD could, for 
specific, joint requirements, acquire capabilities outside the normal 
acquisition process. In my opinion, this experiment has been a success.
    Question. What more can be done to transition critical technologies 
quickly to warfighters?
    Answer. At the most general level, the acquisition system needs to 
be more responsive to emerging combatant commanders' requirements. Some 
newly established programs are beginning to show promise in alleviating 
this problem--such as the Chairman's Initiative Fund, the Joint Rapid 
Acquisition Cell, and Limited Acquisition Authority--but there is ample 
room for improvement.
    One possibility is to consider increasing the CIF resources. 
Additionally, my experience with LAA has taught me to believe that the 
current LAA statute, while narrowly defined, should be extended beyond 
fiscal year 2006 and should also be expanded to include resources to 
both deliver capability and sustain it once in place.
    Further, the recently created Joint Rapid Acquisition Cell should 
be given the necessary set of waivers and exemptions from regulations 
that impede responsive acquisition. Most importantly, rapid acquisition 
processes need to be endorsed and put on a firm financial basis similar 
to Limited Acquisition Authority. Urgent requirements will be met much 
faster if they can be resourced without taking funds from existing 
programs. Both of these processes would meet the most urgent 
requirements of the joint warfighter while guaranteeing the most 
efficient use of public funds.

                   END STRENGTH OF ACTIVE DUTY FORCES

    Question. In light of the manpower demands of Operations Enduring 
Freedom and Iraqi Freedom, what level of Active-Duty personnel (by 
Service) do you believe is required for current and anticipated 
missions?
    Answer. I have not conducted an analysis of force levels (by 
Service). However, based on the request-for-forces (RFF) from the 
regional combatant commanders sourced through U.S. Joint Forces 
Command, we have sufficient forces to meet current and anticipated 
missions with varying degrees of risk.
    Question. How do you assess the progress made to date by the 
services in finding ways to reduce the numbers of military personnel 
performing support functions that can better be performed by civilian 
employees or contractors?
    Answer. The Services and defense agencies continue to make good 
progress in identifying functions requiring military skills, and those 
jobs that might be performed by civilian defense employees or defense 
contractors. Approximately 45,000 military-to-civilian conversions are 
planned. These conversions will free up military billets and help to 
reduce stress on the force.
    Question. What manpower savings can be achieved through reductions 
in overseas presence, application of technology, and changes in roles 
and missions?
    Answer. I believe the department will realize significant manpower 
and fiscal savings as it continues to reduce overseas troop presence 
and transforms to a Total Force that is focused on refined missions and 
core competencies. These issues will be refined with the results of the 
Quadrennial Defense Review, the Base Realignment and Closure 
Commission, and further progress in Overseas Basing Initiatives. Since 
these reviews are still progressing, I do not have any projections on 
manpower savings at this point in time.

                        RECRUITING AND RETENTION

    Question. The ability of the Armed Forces to recruit highly 
qualified young men and women and to retain experienced, highly 
motivated commissioned and non-commissioned officers is influenced by 
many factors, and is critical to the success of the All Volunteer 
Force. While retention in all the services has remained strong, 
recruiting data in 2005 have shown increasing difficulty for the Army, 
Army Reserve, Army National Guard, Marine Corps, Marine Corps Reserve, 
and Naval Reserve in meeting monthly recruiting goals.
    What do you consider to be the most important elements of 
successful recruiting?
    Answer. As a former Navy recruiter, I think the following elements 
are common to any successful recruiting program: tapping the reservoir 
of patriotism by providing the opportunity to serve the Nation; 
offering the chance to serve in a proud and respected profession; 
possessing a properly resourced cadre of highly motivated and trained 
recruiters; having complete access to the recruiting pool; offering a 
competitive compensation and benefits package; and providing the 
opportunity to achieve skills, education, and experience.
    Question. What recommendations, if any, do you have to improve 
recruiting for the ground forces?
    Answer. Successful recruiting is a result of finding the proper mix 
of successful recruiting elements. The Army and Marine Corps have good 
recruiting programs and dedicated recruiters performing the mission. 
Each of the ground force components is increasing the number of 
recruiters in the field; they have and are further enhancing their 
incentive bonuses for new recruits; they have increased their 
advertising budget; and, they have focused their marketing strategy not 
only on potential recruits but also on the influencers (parents, 
teachers, etc.) who play an important role in any decision to pursue a 
military career. These new initiatives and incentives plus increases in 
the number of recruiters and advertising budget will bring improved 
results.
    Question. What is your assessment of the value of so called ``blue 
to green'' recruiting programs which aim to facilitate transfer of 
sailors and airmen to the ground forces?
    Answer. The ``Blue to Green'' program is a win/win situation. As 
the Navy and Air Force continue their rightsizing programs, ``blue to 
green'' not only offers the Army qualified and experienced 
professionals, it provides those trained and experienced servicemembers 
an opportunity to continue their careers. The real value of programs 
like this is that we retain trained professionals, avoiding the cost of 
recruiting, attrition and training their reliefs. This program, 
although the numbers are small, is a force multiplier.
    Question. What do you consider to be the most important components 
in the success of all the services in retaining experienced junior 
officers, petty officers, and noncommissioned officers?
    Answer. Our military has been successful because of its tradition 
of service, its strong leadership at all levels and its support by the 
Nation. There is also an old saying in the military that ``you recruit 
an individual, but you retain a family.'' I find this to be true. 
Therefore, the most important components of retaining our professional 
force are: (1) Feeling that the Nation values your service and your 
family's sacrifice, (2) Strong leadership and mentorship, (3) Personal/
professional development opportunities, (4) Opportunities to lead and 
grow at every level throughout their careers, and (5) Competitive 
compensation, benefits and incentive packages that rewards their 
service and provides a good quality of life for their families.
    Question. In your opinion, what impact is the current recruiting 
environment likely to have on our ability to sustain an All-Volunteer 
Force?
    Answer. We are committed to the enormous return on investment that 
our Nation receives through an All-Volunteer Force. The All-Volunteer 
Force is an order of magnitude better than the system I lived in as a 
young officer. We simply must continue to make the All-Volunteer Force 
work. Although we are currently facing short-term recruiting 
challenges, I believe we have the knowledge and ability to successfully 
manage this problem. We are aggressively addressing this issue by 
increasing the number of recruiters in the field, enhancing incentive 
programs, increasing advertising budgets, and re-focusing our marketing 
strategy.

                           JOINT REQUIREMENTS

    Question. With the establishment of U.S. Joint Forces Command, it 
was envisioned that the Commander, U.S. Joint Forces Command, would 
represent and advocate for requirements and interests of combatant 
commander in the overall defense requirements and acquisition process.
    Has U.S. Joint Forces Command been able to satisfactorily represent 
the requirements and needs of combatant commanders to the Joint 
Requirements Oversight Council and the military services?
    Answer. As Commander, U.S. Joint Forces Command I, and senior 
members of my staff have had excellent interaction with the Joint 
Requirements Oversight Council and the Joint Chiefs of Staff, when 
required, in the exercise of my responsibilities under Title 10 U.S. 
Code and the President's Unified Command Plan. If confirmed, I look 
forward to continue working with all those involved to make the system 
even more responsive to near-term combatant commander needs.
    Question. Are combatant commanders able to identify critical joint 
warfighting requirements and quickly acquire needed capabilities?
    Answer. The combatant commanders are often able to identify joint 
warfighting requirements and capability gaps. However, their ability to 
quickly acquire needed capabilities is less than optimal. The Joint 
Requirements Oversight Council process is designed to impact mid- to 
far-term capabilities and funding (3 years and beyond). The process has 
less flexibility to respond to emerging requirements within the 
Planning, Programming, Budgeting, and Execution (PPBE) process in the 
near-term budget years (1-2 years). Currently, there are limited pools 
of funding available to address this systemic problem. Therefore, 
combatant commanders still have difficulty rapidly acquiring some 
capabilities. If confirmed, I look forward to exploring ways to improve 
the combatant commanders' ability to quickly acquire needed 
capabilities.
    Question. What suggestions, if any, do you have for improving the 
requirements and acquisition process to ensure that combatant 
commanders are able to quickly acquire needed joint warfighting 
capabilities?
    Answer. In my view, we must ``operationalize'' the JROC and 
acquisition processes to respond with agility when immediate and 
pressing needs are presented and validated. Currently, the JCIDS is 
designed to impact mid- to far-term capabilities and funding (3 years 
and beyond). The process has less flexibility to quickly respond to 
emerging requirements within the PPBE process in the near-term budget 
years (1-2 years).
    A variety of ad hoc measures have been used to address this 
challenge. Congress has helped by providing new authorities such as 
LAA. One near-term solution is to dedicate appropriate resources--tied 
to Limited Acquisition Authority--in order to have funds available to 
ensure combatant commanders are able to quickly acquire joint 
warfighting capabilities. In the long-term, the JCIDS process needs to 
change to fall more in line with the demands and pace of today's 
operations. If confirmed, I look forward to helping to develop a 
systemic way to address these concerns in the future.

                     RELIANCE ON RESERVE COMPONENT

    Question. The men and women of the Reserve component have performed 
superbly in meeting the diverse challenges of the global war on 
terrorism. Such a heavy use of the Reserve components, however could 
have potential adverse effects on recruiting, retention, and morale of 
continuing mobilization of Guard and Reserve personnel.
    What is your assessment of the impact of continuing Guard and 
Reserve deployments on the readiness and attractiveness of service in 
the Guard and Reserve?
    Answer. The men and women of our Active and Reserve Force are 
performing superbly in the global war on terrorism. However, the 
prolonged demand on certain capabilities resident in the Guard and 
Reserve is a serious concern, and we are working hard to deal with this 
issue. Of note, the highest retention percentages in the Reserve 
components come from units that have deployed for Operation Enduring 
Freedom and Operation Iraqi Freedom--clearly, these servicemembers 
understand the importance of their service and are volunteering again 
to continue to serve their country. We must continue to ensure our 
personnel receive strong support from their civilian employers, provide 
support for their families, and we must also continue to closely 
monitor recruiting and retention.
    To decrease demand on the Reserve component, the Department has 
several initiatives underway which help alleviate additional burden on 
the Guard and Reserve including: (1) rebalancing of forces, (2) 
modularization for a better deployment rotation base, (3) new training 
and certification procedures for our Army Guard and Reserves prior to 
mobilization to maximize their utility while minimizing their total 
time away from home, and (4) temporary increases in the Active 
component.
    An important point to re-emphasize is that the impact on the Guard 
and Reserve varies significantly from unit to unit and among the 
different specialties/capabilities in the Guard and Reserve.
    Question. What missions do you consider appropriate for permanent 
assignment to the Reserve component?
    Answer. The Quadrennial Defense Review (QDR) is currently examining 
the roles and missions of the Services and their Reserve components. 
This assessment will produce recommendations regarding which 
capabilities should reside in the Active and Reserve components. These 
recommendations will also address how those capabilities should be 
apportioned and resourced between the components. In addition to the 
QDR, each Service is conducting their own assessment to balance the 
capabilities between respective components. I would like to reserve 
final judgment on this question until after having the opportunity to 
review the results of these assessments.

                          SECURITY COOPERATION

    Question. One of the central pillars of our recent national 
security strategy has been security cooperation as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, combatant commander exercises, 
humanitarian demining operations, and similar activities are used to 
achieve this goal.
    If confirmed, would you support such continued engagement 
activities of the U.S. military?
    Answer. Yes. I strongly support these types of engagements. As 
Commander, U.S. Joint Forces Command, I have aggressively sought to 
expand our interaction with Allies and partners. Foreign Liaison 
Officers (FLO) have grown from 11 officers representing 5 countries in 
2003 to 55 Foreign Liaison Officers representing 33 countries today, 
with more officers and nations on the way. U.S. Joint Forces Command 
has a vigorous multinational concept development and experimentation 
program. My experience as a NATO Strategic Commander further reinforces 
in my mind the value of these programs. Security Cooperation activities 
exchanges, exercises, and operations are essential, and if confirmed, I 
will continue to emphasize the need to foster these international 
relationships to improve regional and global security while developing 
our defense partnerships for the future.
    Question. In your view, how do these activities contribute to U.S. 
national security?
    Answer. U.S. Forces participating in training, exercises and 
education programs with our international partners develop trust and 
confidence within the international community. Engagements such as 
these also improve coalition interoperability and support 
transformation. Cumulatively, these actions reduce the potential for 
conflict and encourage other nations to participate in cooperative 
efforts to ensure peace and stability. My personal experience suggests 
that the personal relationships developed through these engagements 
build a level of trust and confidence between U.S. officers and their 
allied and coalition partners that would not exist otherwise. The 
ability to pick up the phone and talk to your allied or coalition 
partner from a position of respect and trust based on previous shared 
experiences is an invaluable contribution to our national security.

                    STABILITY AND SUPPORT OPERATIONS

    Question. Operations in Iraq and Afghanistan have underscored the 
importance of planning and training for post-conflict stability and 
support operations. Increased emphasis has been placed on stability and 
support operations in DOD planning and guidance in order to achieve the 
goal of full integration across all DOD activities.
    What is your assessment of the Department's current emphasis on 
planning for post-conflict scenarios?
    Answer. The Department has invested considerable emphasis on post-
conflict planning. Of the four Joint Operating Concepts (JOC) approved 
by the Secretary of Defense, one of the two primarily authored by Joint 
Forces Command is dedicated to Stability Operations. I believe the most 
critical step in improving our post-conflict planning is the 
establishment and integration with a counterpart civilian planning 
capability in an interagency forum. I have strongly supported the 
establishment and the strengthening of the Office for the Coordinator 
for Reconstruction and Stabilization (S/CRS) within the Department of 
State. I know the Department of Defense has assisted S/CRS in building 
their own planning processes as well as integrate them into the Defense 
Department's deliberate and crisis planning processes. These efforts, 
in Washington as well as with the combatant commanders, have worked to 
integrate stabilization and reconstruction operations into our 
operational plans and theater exercises. U.S. Joint Forces Command, in 
particular, has provided expertise to S/CRS and has partnered with it 
in concept development and experimentation events to develop their 
planning capacity and help elaborate their operational concepts.
    I know the department is developing a directive concerning 
stability operations which will help integrate stability, security, 
transition, and reconstruction operations into our overall campaign 
planning efforts. The ongoing Quadrennial Defense Review, in which S/
CRS is participating, is just one way we are reassessing our 
requirements to ensure we have the right mix of forces for the right 
missions, including security, stability, reconstruction and transition 
operations.
    Question. What role should the Joint Staff play in implementing any 
new directives in the area of post-conflict planning and the conduct of 
stability and support operations?
    Answer. The Joint Staff plays an important role on various 
interagency committees and working groups that develop plans and 
policies that impact stability and support operations. The Joint Staff 
should help facilitate coordination between governmental agencies, such 
as the Office of the Coordinator for Reconstruction and Stabilization 
(S/CRS), and the combatant commanders and their staffs.
    Question. In your view, what is the appropriate relationship 
between DOD and other Federal agencies in the planning and conduct of 
stability and support operations in a post-conflict environment?
    Answer. Security, stability, transition, and reconstruction 
operations require the coherent application of diplomatic, information, 
military and economic power. Clearly, the military has a role to play 
in conjunction with partners inside the U.S. Government as well as 
allies, international organizations, and nongovernmental organizations. 
The proper relationship between the DOD and other Federal agencies in 
planning and executing these operations vary with conditions on the 
ground. Several principles need to be considered and I have found 
several concepts helpful in thinking through this problem. First, the 
command and control arrangements need to be clear and understood by all 
parties. Second, the pragmatic application of the supported and 
supporting commander concept and the Lead Federal Agency concept can be 
helpful. Finally, any relationship between DOD and other Federal 
agencies will require leaders who understand the capabilities each 
agency can bring to bear. For this reason, U.S. Joint Forces Command 
has incorporated interagency topics and participants--as both fellows 
and presenters--in the Capstone and Pinnacle courses designed to 
prepare flag and general officers to lead Joint Task Forces in the 
execution of security, stability, transition and reconstruction 
operations.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq and Afghanistan?
    Answer. U.S. Joint Forces Command has undertaken a robust and 
dynamic lessons learned mission to actively work on the lessons--at the 
joint operational level--from our ongoing operations. This has resulted 
in an extremely rich set of insights, observations and analyses. We 
have provided many of these products to Congress in previous testimony 
and briefings to congressional staff members. I believe detailed 
briefings such as these would be useful to provide the necessary 
context and detail which these issues require.
    Based on my experience at Joint Forces Command, we have learned 
several key lessons about security, stability, transition and 
reconstruction operations. First, the value of detailed, adaptive and 
collaborative planning is essential. Our successes were enabled by 
detailed planning; our shortcomings usually occurred in areas where 
planning efforts or expertise was lacking. Second, our military 
commanders need money they can immediately spend as much--or more--than 
they need bullets and guns as a key tool to jump start reconstruction 
efforts. Third, we need to ensure the right balance of capabilities 
(such as Civil Affairs units) between Active and Reserve components 
because their immediate engagement and long-term sustainment are 
critical. Fourth, collaborating with allies is essential and requires 
considerable effort. Fifth, our ability to communicate with the 
civilian population--the center of gravity in these operations--needs 
to be enabled with linguists, communications, media, and an effective 
strategic communications capability. These are some of the many lessons 
we have learned, and are acting on, in our execution of stability, 
security, transition, and reconstruction operations. I would offer more 
detailed briefings as requested by Congress.

                       DELIVERY OF LEGAL SERVICES

    Question. The global war on terrorism has placed extraordinary 
demands upon commanders and their legal advisers to rapidly respond to 
complex legal issues at a time when the number of military judge 
advocates on Active Duty has been substantially reduced. Providing 
qualified, fully trained legal advisers to commanders of combatant 
commands and joint task forces presents serious challenges to DOD and 
the Services.
    What steps, if any, has U.S. Joint Forces Command taken to ensure 
legal advisers are available to combatant commanders and commanders of 
joint task forces?
    Answer. As the Primary Joint Force Provider, as designated by the 
Secretary of Defense in his Global Force Management Guidance of 4 May 
2005, U.S. Joint Forces Command is working to ensure that Joint Task 
Force headquarters are designed to include appropriate judge advocate 
support to the Joint Task Force commander; that the staff is properly 
trained for their mission; and that each Joint Task Force, as it is 
stood up, is properly manned. My Staff Judge Advocate is working with 
the combatant commands, my component commanders, the Service Judge 
Advocates General, and the Joint Staff to ensure this important 
capability is appropriately resourced.
    As a matter of general practice to date, legal advisers to 
combatant commanders and to joint task forces have been provided by the 
Services, through each Service's office of the judge advocate general. 
U.S. Joint Forces Command had no direct role in that process. In fact, 
the responsibility is assigned by law under Article 6 of the Uniform 
Code of Military Justice to each service Judge Advocate General, and 
for marines, to the Commandant of the Marine Corps. Under that statute, 
``The assignment for duty of judge advocates of the Army, Navy, Air 
Force, and Coast Guard shall be made upon recommendation of the Judge 
Advocate General of the armed force of which they are members. The 
assignment for duty of judge advocates of the Marine Corps shall be 
made by direction of the Commandant of the Marine Corps.'' Under this 
statutory construct, assignment of judge advocates, even to joint force 
headquarters, remains a service responsibility.
    Question. What is your view of the need for the legal adviser to 
the Chairman to provide independent legal advice to the Chairman and 
Vice Chairman of the Joint Chiefs of Staff?
    Answer. Title 10, section 151(b), makes the Chairman of the Joint 
Chiefs of Staff (CJCS) the principal military adviser to the President, 
the National Security Council, and the Secretary of Defense. I take 
very seriously the responsibility of the Chairman and the Vice 
Chairman, in the Chairman's absence, to provide independent military 
advice to each of those individuals or entities. Title 10 also provides 
for an independently organized Joint Staff, operated under the 
authority, direction and control of the Chairman, to support the 
Chairman in fulfillment of his statutory duties. I believe it is 
essential that the Chairman's Legal Counsel--manned by an experienced 
military judge advocate and staff--be exclusively dedicated to support 
the Chairman and Vice Chairman in fulfilling their statutory 
responsibilities.
    Question. What is your view of the need for the Judge Advocates 
General of the Services to provide independent legal advice to the 
Chiefs of Staff?
    Answer. The duty of the service Judge Advocates General and of the 
Staff Judge Advocate to the Commandant of the Marine Corps to provide 
independent legal advice to the Chiefs of Staff appears to me to be 
established by law (title 10, at sections 3037, 5046, 5148. and 8037) 
and I am in full agreement with this statutory requirement.
    Question. What is your view of the responsibility of staff judge 
advocates within the Services and joint commands to provide independent 
legal advice to military commanders?
    Answer. My view is that staff judge advocates should, as 
established by law, communicate directly with military commanders, and 
provide their best professional, independent judgment and advice.

                          NATO TRANSFORMATION

    Question. In your role as Supreme Allied Commander Transformation, 
you have acted as NATO's ``forcing agent for change.'' In your 
responses to the advance policy questions forwarded by the committee in 
June 2003, you stated your priorities for Allied Command 
Transformation, including, among others, the development of Joint 
Warfighting Center/Joint Training Center functionality and ensuring 
that the Command is properly resourced and manned. You have stated 
elsewhere that additional authorities are needed from NATO for you to 
execute your mission and achieve long term success.
    What success did you achieve in meeting the goals you established 
for Allied Command Transformation 2 years ago?
    Answer. While we continue to build to Full Operational Capability 
(FOC) by 30 June 2006, we have made significant advances in joint 
training, defence planning, concept development and experimentation, 
and strategy. We stood up the Joint Warfare Center (JWC) in Stavanger, 
Norway, inaugurated the Joint Force Training Center in Bydgoszcz, 
Poland and refocused the Joint Analysis and Lessons Learned Centre in 
Lisbon, Portugal on support to NATO operations around the world.
    In the delivery of products to the Alliance, ACT has a solid record 
of achievement:

        <bullet> With 60 percent manning, the JWC and its subordinate 
        Joint Force Training Center provided joint battle staff 
        training to NATO's Joint Forces Commands and conducted mission 
        rehearsal exercises for the three successive International 
        Security Assistance Force (ISAF) headquarters staffs, supported 
        certification of the NATO Response Force (NRF) and provided 
        training to key Iraqi Leaders in support of the NATO Training 
        Mission Iraq. This has improved NATO's mission performance by 
        training Commanders and their Staffs, enabling them to deal 
        with situations they will actually find in today's operational 
        environment.
        <bullet> In Defence Planning, ACT developed Military 
        Assessments for 24 nations, assessing for the first time 
        nations' progress on transformational goals. This month we 
        completed the Defence Requirements Review 2005, the most 
        comprehensive ever.
        <bullet> Together with Allied Command Operations (ACO), ACT 
        delivered the Bi-Strategic Command Strategic Vision in August 
        2004, laying the foundation for NATO's future concepts and 
        capabilities development. Other major conceptual goals were met 
        with the delivery of the `Intelligence Transformation Advice 
        NATO' and the NATO Networked Enabled Capability (NNEC) 
        Foundation document.
        <bullet> In experimentation, ACT's program is in full stride 
        with an array of experiments ranging from political-military 
        level decision making to multinational and interagency 
        engagements.
        <bullet> In development of the NATO Response Force (NRF), ACT 
        has sponsored two exercise-seminars for prospective NRF 
        commanders where the operational challenges the NRF will face 
        have been explored. Additionally, ACT is working with Allied 
        Command Operations to develop training and certification 
        standards for NRF headquarters and assigned units.
        <bullet> ACT is beginning to tackle security, stability, 
        transition, and reconstruction operations. The ACT Seminar 
        2005, for NATO ambassadors and military representatives, was 
        dedicated to this theme, as were symposia co-sponsored with Old 
        Dominion University and the Royal United Services Institute. 
        The insights from these events will inform ACT efforts to 
        deliver improved capabilities in this area to NATO.
        <bullet> ACT also established a growing number of valuable 
        partnerships with Partner Nations, Industry, an expanding 
        Centers-of-Excellence Network, academia, International 
        Organizations and Non-Governmental Organizations. ACT has also 
        been working closely with the U.S. Joint Forces Command to 
        leverage their knowledge and Lessons Learned.

    On the resources side, ACT's manning levels are generally on track 
to Full Operational Capability. While NATO has recurring funding 
challenges, ACT has an adequate level of funding to execute its 
mission, with some risk if support for unplanned contingency operations 
is required.
    In the light of changing requirements and emerging demands over the 
last 2 years, ACT has met its goals and has established a proven track 
record.
    Question. What is your assessment today of the progress of NATO's 
transformation and of Allied Command Transformation's success in 
leading that effort?
    Answer. In light of the military transformation efforts underway in 
almost all NATO nations, Alliance transformation is progressing well. 
Major challenges such as increasing the usability and deployability of 
NATO's forces are being seriously pursued. The Alliance is implementing 
the most significant command structure change in nearly 50 years, 
including two new Strategic Commands, Allied Command Operations and 
Allied Command Transformation. An in-depth review of NATO agencies is 
being led by the Deputy Secretary General. The military committee is 
engaged in an extensive functional review of its organization and its 
supporting International Military Staff. Finally, the Secretary General 
has launched an overarching NATO Review, led by distinguished 
diplomats, to propose reforms in NATO headquarters organizations and 
procedures.
    Over the last 2 years, ACT has played a significant role in the 
Alliance's military transformation. Through concept development, 
Defense Planning and Capability Development efforts, operational level 
battle staff training and a broad array of complementary efforts, ACT 
is establishing itself as the hub of military transformation in the 
Alliance. Additionally, ACT responded to emerging operational demands 
such as NATO Training Mission-Iraq by providing key support to Allied 
Command Operations. A clear demonstration of ACT's leading role has 
been the request of several Nations for ACT to review their national 
Defence Plans and Reform efforts. These ACT reviews were very 
successful and much appreciated.
    ACT is also now leading the effort to longer term NATO and national 
capability development. However, capability development is particularly 
challenging when most allies are not meeting NATO's defense spending 
goal of 2 percent of Gross Domestic Product.
    With full support by NATO's Secretary-General and Allied Command 
Operations, these achievements have laid a solid foundation for ACT's 
future in leading the alliance's military transformation effort.
    Question. What authorities and resources are lacking that you 
consider most necessary for NATO's transformation success?
    Answer. In my Terms of Reference as Supreme Allied Commander 
Transformation (ACT) and in the NATO documents establishing the new 
NATO Command Structure, Allied Command Transformation has the 
authorities it needs to undertake its mission of military 
transformation. To be fully successful, of course, ACT's proposals need 
to be adopted by the Nations in the various decisionmaking bodies of 
the alliance. As a result, ACT is contributing to the Secretary 
General's NATO Review and to the Functional Review of the International 
Military Staff.
    On the resources side, sufficient manning to achieve FOC by 30 June 
2006 remains a principal concern. ACT is broadly on track in this area 
and we are working closely with the Nations to achieve this key 
milestone.
    Additionally, the authority to deploy ACT Staff fully in line with 
the Command's mission and tasks is crucial. National caveats limiting 
the deployability of NATO assigned Staff Officers need to be eliminated 
to ensure ACT mission accomplishment.
    Equally challenging is the establishment of an accurate baseline 
budget, necessary to fund a still developing command with new--and 
often unique--roles and responsibilities. ACT's resource needs have yet 
to solidify in the short to medium term as the organization continues 
to evolve with an ever-growing demand for its transformational 
products. In my view, funding levels to date meet about 90 percent of 
the level of ambition envisioned for ACT.
    Question. What do you view as the critical priorities for NATO 
transformation efforts in the future?
    Answer. The NATO Response Force (NRF) is NATO's principal 
operational organization for military transformation. Many nations 
contribute significantly to this force, based on a concept agreed by 
all NATO nations during the Prague Summit. This new force is on the 
road to Full Operational Capability by October 2006 as a high-
readiness, fully joint expeditionary force, capable of executing 
missions across the military spectrum. A key priority is to actually 
employ this new NATO capability. Only by actually employing the NRF 
will the alliance will be able to develop national and NATO 
capabilities through experimentation, lessons learned, and real world 
deployment and sustainment. This will not only reenergize the NRF, but 
will also enhance the alliance's credibility and capability.
    NATO headquarters reform is the second key enabler for continuing 
NATO transformation. The new NATO command structure, with two new 
Strategic Commands and the subordinate command structures, have 
undergone profound changes. Further NATO transformation requires the 
alliance to streamline its political and military structures, as well 
as its funding, resourcing, and decisionmaking processes. The heads of 
State and Government have recognized this imperative task at the 
Istanbul Summit and have directed the Secretary General to undertake a 
wide-ranging NATO review.

                                TRAINING

    Question. In your current position as the Commander of Joint Forces 
Command (JFCOM), you are responsible for the joint training of our 
military forces.
    Based on your experience, do you believe that the Department of 
Defense has the resources and base structure needed to properly train 
our Armed Forces?
    Answer. From my perspective as Commander, U.S. Joint Forces 
Command, we are in good overall shape with respect to the joint 
training mission. We are working towards Full Operational Capability 
(FOC) for our Joint National Training Capability (JNTC) in 2009, which 
ties all our Service ranges together so that units can train in a 
common joint environment while still accomplishing their Service-
required training. However, building out the JNTC is a significant 
challenge, and we are still at the beginning stages. A major hurdle we 
will face over the coming years is resourcing the training centers 
required for emerging types of joint operations such as information 
operations, urban operations, and security, stability transition and 
reconstruction operations.
    There will always be challenges with keeping training ranges and 
capabilities up to date. The Department has placed significant focus on 
encroachment over the past several years and has challenges in 
maintenance and modernization at many of the major training centers.
    Question. If not, what additional resources and/or base structure 
are needed?
    Answer. Fully funding joint training as submitted in the 
President's budget for the last 2 years will help allow the Department 
of Defense to keep its training resources up to par.
    Question. Do you believe that the Department's 2005 base closure 
recommendations preserve an adequate base structure to support future 
training needs?
    Answer. Yes, however significant encroachment issues remain. While 
new weapons-systems capabilities will require infrastructure investment 
and innovative approaches to training and exercising given their 
performance characteristics. So, although I think training capability 
fared very well in BRAC, there are significant challenges ahead which 
would have existed even in the absence of BRAC.

                        NUCLEAR WEAPONS COUNCIL

    Question. If confirmed as Vice Chairman of the Joint Chiefs of 
Staff, you will serve as a member of the Nuclear Weapons Council.
    What would your priorities be for the Nuclear Weapons Council?
    Answer. I have spent the last 3 years working with our conventional 
forces. However, as a former nuclear submarine commander and as a 
commander of a nuclear Task Force Commander with U.S. Strategic Command 
in the late 1990s, I am familiar with the principles of nuclear weapons 
command and control, safety, and security. If confirmed, I will work 
hard to get smarter on the Nuclear Weapons Council and its 
responsibilities.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Vice Chairman of the Joint 
Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Question Submitted by Senator John McCain

                  JOINT REQUIREMENTS OVERSIGHT COUNCIL

    1. Senator McCain. Admiral Giambastiani, the Vice Chairman of the 
Joint Chiefs of Staff is the Chairman of the Joint Requirements 
Oversight Council (JROC). Reports have described the Boeing 767 tanker 
deal as the most corrupt acquisition deal in more than 35 years. A key 
finding in the Department of Defense (DOD) Inspector General (IG) 
report was that the JROC process failed to recognize that an Air Force 
officer (LTCOL Lepanta) lied to the JROC (a $30 billion 
misrepresentation) on whether the tanker operational requirements 
document (ORD) was tailored to the Boeing 767. This officer's action 
makes a mockery of the Joint requirements process and highlights the 
importance of the JROC process to be above reproach. Is this knowledge 
troubling to you and what steps are you prepared to take to ensure that 
this does not happen again?
    Admiral Giambastiani. The Boeing 767 tanker leasing 
misrepresentation issue, or any misrepresentations of program 
information, is of great concern to me. In this case, more alarming 
than the delay in fielding a suitable tanker replacement platform is 
the erosion of trust and confidence resulting from the manner in which 
this acquisition program was handled.
    Following the Boeing 767 tanker deal, revisions to the Chairman's 
Instructions governing the Joint Capabilities Integration and 
Development System (JCIDS) were made that should help prevent similar 
situations from being repeated. The latest version of the instruction 
specifies the migration of programs from a Joint Capabilities Document 
to an Initial Capabilities Document, Capability Development Document, 
and Capability Production Document. Imbedded in this process are 
Functional Needs Analysis, Functional Solutions Analysis, Joint 
Doctrine, organizational, training, material, leadership, personnel and 
facilities (DOTMLPF) Change Recommendations, and significantly an 
Analysis of Alternatives. This revised process, with multiple analyses 
and reviews, entails much greater oversight and visibility into program 
issues and would have either averted or uncovered the Boeing 767 tanker 
leasing misrepresentations brought to light by the DOD Inspector 
General. My previous experience tells me that in particular, an 
analysis of alternatives in this portion of the process is a must.
    If confirmed as Vice Chairman, I will insist on adherence to 
established procedures to ensure the validity of data being presented 
to decisionmakers. Additionally, ensuring independent cost analyses are 
conducted and available, like the traditional reports from the Cost 
Analysis Improvement Group (CAIG), are absolutely essential to ensure 
the integrity and confidence of the process and prevent malfeasance. 
Finally, I also believe further acquisition reforms may be necessary. 
If confirmed, I look forward to pursuing efforts in this area as well 
as pledging to provide the necessary oversight to ensure the Joint 
Forces are adequately and appropriately equipped to meet the threats 
that face our Nation while protecting the concerns of the taxpayers. 
Trust and confidence in this process, in order to produce the best 
programs for our Nation, is absolutely mandatory.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                               INSURGENTS

    2. Senator Levin. Admiral Giambastiani, I was surprised by your 
statements during today's hearing to the effect that the insurgents are 
not ideologically driven. Aren't the jihadists crossing the borders 
into Iraq very much ideologically driven--the ideology being a fanatic 
extreme belief that the Islamic world must be defended from the 
destructive culture of the west through the use of terror tactics 
against civilians?
    Admiral Giambastiani. The insurgency in Iraq is a complex dynamic. 
It is, by and large, not ideologically driven with a common theme or 
purpose. Today, there are three main motivators for insurgents in Iraq 
in addition to smaller and peripheral activity. First, the vast 
majority of insurgent violence is driven by former regime elements that 
resent losing the power they held in Iraq for 30 years and cynically 
wish to reassert their grip on power. Second, a much smaller portion of 
the insurgency is driven by nationalistic sentiments motivated largely 
by the distress caused by a foreign military presence and the 
unemployment and disruption of services perceived to be caused by that 
presence. Finally, the smallest portion of the three main elements of 
the insurgency, and the most spectacularly destructive and visible, is 
composed mostly of foreign religious extremists, who have entered Iraq 
and temporarily allied themselves to some degree with other groups in 
order to further the jihad against western values in hopes of 
reestablishing a global Islamic caliphate. This third portion, the 
jihadists, is very clearly ideologically driven as you point out.
    Although not part of the insurgent groups listed above, criminal 
activity also adds to the overall level of violence and kidnappings in 
Iraq.

                    ACTIVE DUTY END STRENGTH LEVELS

    3. Senator Levin. Admiral Giambastiani, in your response to the 
advance written question on whether our active end strength is 
sufficient, you responded that ``we have sufficient forces to meet 
current and anticipated missions with varying degrees of risk''. But 
you did not go on to characterize that risk. In your view, if we 
maintain the Army at a permanent level of 482,000, is that risk low, 
moderate, or high? Is that risk acceptable?
    Admiral Giambastiani. With an Army permanent level of 482,400, and 
the temporary authorities we have in place to increase end strength 
over that limit, we have sufficient forces to accomplish our missions 
in Iraq and Afghanistan with acceptable risk. The varying degrees of 
risk I referred to are situationally dependent, principally on other 
contingency operations. We continually assess risk and use various 
measures to mitigate that risk as appropriate--there is no one set risk 
level.
    With regard to assessing those varying levels of risk, we use a 
variety of analytical processes, including a key one I have had 
significant experience with at Joint Forces Command (JFCOM), the Joint 
Quarterly Readiness Review (JQRR). The JQRR provides a macro assessment 
of our ability to operate across the spectrum of war and an assessment 
of projected readiness to execute the National Military Strategy. I can 
also unequivocally tell you the JQRR does not just focus on past or 
even current readiness. The JQRR assesses future readiness for the next 
12 months against a series of specific contingencies. JFCOM and its 
Army, Navy, Air Force, and Marine Corps components actively use this 
report to develop strategies to mitigate future readiness risks, both 
in Iraq and Afghanistan and in regard to other potential contingencies. 
I have personally participated in every JFCOM JQRR since October 2002 
and feel confident that our overall joint warfighting capabilities--
including capability contributions from all of the Services--are able 
to meet the requirements of Operations Iraqi and Enduring Freedom and 
potential future contingencies.
    The Chairman is required to assess risk annually, and General Myers 
recently provided his 2005 classified assessment. There is no one set 
risk level in these assessments; characterizations can run from low to 
moderate to high and extreme. If a risk is characterized as high or 
extreme, the Secretary provides a plan for mitigating that risk.
    If at any time I found our analysis showed the risk levels to be 
too high, even with our temporary end strength and risk mitigation 
measures in place, I would not hesitate to recommend an increase in 
permanent end strength levels for any Service as appropriate.
                                 ______
                                 
    [The nomination reference of ADM Edmund P. Giambastiani, 
Jr., USN, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 25, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Vice Chairman of the 
Joint Chiefs of Staff and appointment in the United States Navy to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., sections 601 and 154:

                             To be Admiral

    ADM Edmund P. Giambastiani, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of ADM Edmund P. Giambastiani, 
Jr., USN, which was transmitted to the committee at the time 
the nomination was referred, follows:]
Transcript of Naval Service for ADM Edmund Peter Giambastiani, Jr., USN


04 MAY 1948                                 Born in Canastota, New York
29 JUN 1966                                 Midshipman, U.S. Naval
                                             Academy
03 JUN 1970                                 Ensign
03 SEP 1971                                 Lieutenant (Junior Grade)
01 JUL 1974                                 Lieutenant
01 SEP 1978                                 Lieutenant Commander
01 OCT 1983                                 Commander
01 SEP 1989                                 Captain
DEC 1994                                    Selected for Promotion to
                                             Rear Admiral (Lower Half)
01 OCT 1995                                 Rear Admiral (Lower Half)
01 AUG 1997                                 Rear Admiral
06 MAY 1998                                 Designated Vice Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 AUG 1998                                 Vice Admiral
02 OCT 2002                                 Admiral, Service continuous
                                             to date



Assignments and duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
Naval Reserve Training Center, Whitestone, NY...    JUL 1970    OCT 1970
  (Executive Officer, Blue and Gold Recruiting
   Officer) (Temporary Duty)
Naval Nuclear Power School, Bainbridge, MD......    OCT 1970    APR 1971
  (Duty Under Instruction)
Nuclear Power Training Unit, Schenectady, NY....    APR 1971    NOV 1971
  (Duty Under Instruction)
Naval Submarine School, Groton, CT..............    NOV 1971    DEC 1971
  (Duty Under Instruction)
U.S.S. Puffer (SSN 652).........................    DEC 1971    JUN 1975
  (Weapons, Assistant Weapons, Main Propulsion
   Assistant)
Headquarters, Navy Recruiting Command...........    JUN 1975    SEP 1977
  (Program Manager for Nuclear Field & 6 Year
   Obligor Enlisted Recruiting)
Submarine Officers Advanced Course, Groton, CT..    SEP 1977    MAR 1978
  (Duty Under Instruction)
U.S.S. Francis Scott Key (SSBN 657) (Blue)......    APR 1978    MAY 1981
  (Engineer Officer)
Naval Reactors, Department of Energy............    JUL 1981    OCT 1981
  (Duty Under Instruction)
Commander, Submarine Force, U.S. Atlantic Fleet.    OCT 1981    DEC 1981
  (Duty Under Instruction--Prospective
   Commanding Officer Course)
Submarine NR-1..................................    JAN 1982    APR 1982
  (Prospective Officer in Charge)
Submarine NR-1..................................    MAY 1982    APR 1985
  (Officer in Charge)
Office of the CNO (OP-213C, OPNAV)..............    APR 1985    SEP 1986
  (Head, Operations Security Section)
Central Intelligence Agency.....................    MAY 1985    SEP 1986
  (Special Assistant to Deputy Director for
   Intelligence)
Commander, Submarine Force, U.S. Pacific Fleet..    SEP 1986    DEC 1986
  (Duty Under Instruction--Prospective
   Commanding Officer Course)
Naval Reactors, Department of Energy............    JAN 1987    JAN 1987
  (Duty Under Instruction)
U.S.S. Richard B. Russell (SSN 687).............    FEB 1987    JUN 1987
  (Prospective Commanding Officer)
U.S.S. Richard B. Russell (SSN 687).............    JUL 1987    MAY 1990
  (Commanding Officer)
Naval War College, Newport--CNO Strategic           JUL 1990    JUN 1991
 Studies Group..................................
  (Fellow)
Submarine Development Squadron Twelve...........    JUN 1991    JUN 1993
  (Commander)
Naval Doctrine Command (N8).....................   JUNE 1993    AUG 1994
  (Director, Strategy and Concepts)
U.S. Pacific Fleet (N8).........................    SEP 1994    FEB 1996
  (Deputy Chief of Staff for Resources, Warfare
   Requirements and Assessments)
Office of the CNO (N87, OPNAV)..................    FEB 1996    MAY 1998
  (Director, Submarine Warfare Division)
Submarine Force, U.S. Atlantic Fleet (CTF-42/82/    JUN 1998    JUL 2000
 144)//Submarine Allied Command, Atlantic//Anti-
 Submarine and Reconnaissance Forces, Atlantic
 (CTF-84).......................................
  (Commander)
Office of the CNO (N8, OPNAV)...................    AUG 2000    MAY 2001
  (Deputy CNO for Resources, Warfare
   Requirements, and Assessments)
Office of the Secretary of Defense..............    MAY 2001    SEP 2002
  (Senior Military Assistant to the Secretary of
   Defense)
U.S. Joint Forces Command.......................    OCT 2002     Present
  (Commander)
Allied Command Transformation...................    JUN 2003     Present
  (Supreme Allied Commander)
------------------------------------------------------------------------

Medals and awards:
    Defense Distinguished Service Medal
    Navy Distinguished Service Medal (w/Four Gold Stars)
    Legion of Merit (w/Three Gold Stars)
    Meritorious Service Medal (w/Two Gold Stars)
    Navy and Marine Corps Commendation Medal (w/One Gold Star)
    Joint Meritorious Unit Award
    Navy Unit Commendation Ribbon (w/Four Bronze Stars)
    Meritorious Unit Commendation Ribbon (w/Four Bronze Stars)
    Marksmanship Pistol Ribbon
    Navy ``E'' Ribbon (w/One Wreathed ``E'' for 8 Awards)
    Navy Expeditionary Medal (w/One Bronze Star)
    National Defense Service Medal (w/Two Bronze Stars)
    Vietnam Service Medal (w/One Bronze Star)
    Global War on Terrorism (Service) Medal
    Sea Service Deployment Ribbon (w/Three Bronze Stars)
    Navy Recruiting Service Ribbon
    Expert Rifleman Medal

Pending awards:
    French Legion D'Honneur (Legion of Honor)--Presented: 28 February 
2005 in Paris, France by General Henri Bentegeat French Chief of 
Defense--Package with Navy Department Board of Decorations and Medals 
for acceptance to wear.

Special qualifications/miscellaneous:
    Naval Academy Athletic Association Cup, June 1970.
    Stewart White Hannah Memorial Trophy, June 1970.
    Forrestal Award, June 1970.
    Bachelor of Science, U.S. Naval Academy, 1970, w/Leadership 
Distinction.
    Qualified in Submarines, April 1973.
    Pacific Fleet Submarine Shiphandling Winner, 1974.
    Strategic Deterrent Patrol Pin, June 1978.
    Qualified for Command of Submarines, February 1981.
    Deep Submergence Insignia, April 1983.
    Designated Joint Specialty Officer, 1988.
    Honorary Master Chief Petty Officer, June 2000.
    Office of the Secretary of Defense Identification Badge, May 2002.
    Honorary Doctor of Engineering Technology, Wentworth Institute of 
Technology, August 2003.
    General Douglas MacArthur Meritorious Service Award, Virginia 
Peninsula Chapter, April 2004.
    David Sarnoff Award, The Armed Forces Communications and 
Electronics Association (AFCEA) International, 31 May 2005.

Personal data:
    Wife: Cynthia Ann Johnson of McLean, Virginia.
    Son: LT Edmund P. Giambastiani III, U.S. Navy.
    Daughter: Ms. Catherine A. Giambastiani, Graduate--School of Law, 
American University--Central Intelligence Agency (Sep 2005).

Summary of joint duty assignments:

------------------------------------------------------------------------
           Assignment                   Dates                Rank
------------------------------------------------------------------------
Deputy Director for                MAY 1985-SEP 1986  CDR
 Intelligence, Central
 Intelligence Agency (Special
 Assistant).
Commander, Task Force 144--U.S.    JUN 1998-JUL 2000  VADM
 Strategic Command/Commander,
 Submarine Force, U.S. Atlantic
 Fleet.
Office of the Secretary of         MAY 2001-SEP 2002  VADM
 Defense (Senior Military
 Assistant to the Secretary of
 Defense).
Commander, U.S. Joint Forces        OCT 2002-Present  ADM
 Command.
Supreme Allied Commander,           JUN 2003-Present  ADM
 Transformation.
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Edmund P. 
Giambastiani, Jr., USN, in connection with his nomination 
follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Admiral Edmund P. Giambastiani, Jr., (Ed).

    2. Position to which nominated:
    Vice Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    25 April 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    4 May 1948; Canastota, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cynthia Ann Giambastiani (maiden name: Johnson).

    7. Names and ages of children:
    LT Edmund Peter Giambastiani III, 27; Catherine Ann Giambastiani, 
24.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life Member - U.S. Naval Academy Alumni Association.
    Life Member - U.S. Naval Institute.
    Life Member - Naval Submarine League.
    Member - The Reserve Officers Association (TROA).
    Member - Military Order of the Caraboa.
    Member - AARP.
    Member - American Radio Relay League (ARRL).
    Member - Train Collectors Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognition's for 
outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 E.P. Giambastiani.
    This 28th day of April 2005.

    [The nomination of ADM Edmund P. Giambastiani, Jr., USN, 
was reported to the Senate by Chairman Warner on July 13, 2005, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 15, 2005.]
                              ----------                              

    [Prepared questions submitted to Gen. T. Michael Moseley, 
USAF, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of these reforms, particularly in your 
assignments in the Directorate for Strategic Plans and Policy on the 
Joint Staff, as Commander, 9th Air Force and U.S. Central Command Air 
Forces, and as Vice Chief of Staff of the U.S. Air Force.
    Do you support full implementation of these defense reforms?
    Answer. Absolutely.
    Question. What is your view of the extent to which these defense 
reforms have been implemented, particularly in the U.S. Air Force?
    Answer. OIF provides an excellent example of how far the reforms 
have come. During major combat operations, I had an excellent 
relationship with Special Operations, ground and sea based forces as 
the air component commander. I witnessed first hand how the Services 
shared information and supported one another to create a whole that was 
greater than the sum of its parts. Almost everything the Air Force does 
is done in a joint manner now, and I believe we have effectively 
changed our culture to thinking in terms of the joint fight.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. Goldwater-Nichols has moved our military from a mindset of 
deconfliction to a mindset of interdependence. This has enabled the 
combatant commanders to strike our enemies faster, harder, and save 
more American lives.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Completely.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I do not have any specific recommendations to amend 
Goldwater-Nichols. We have been on the right path for the last 20 
years. If confirmed, I will work closely with the Secretary of Defense, 
Secretary of the Air Force, and Congress on any changes that might be 
needed.
    Question. Twenty years ago, the Packard Commission recommended the 
establishment of a streamlined acquisition organization, under which 
Program Managers would report to Program Executive Officers, who would 
report to Service Acquisition Executives and an Under Secretary of 
Defense for Acquisition. This change established unambiguous authority 
for acquisition policy and execution and a clear chain of command for 
program managers. It also removed the service chiefs from the chain of 
command for acquisition programs.What is your view of the 
recommendations of the Packard Commission and the manner in which they 
have been implemented?
    Answer. Our Service experience with the Packard Commission 
recommendations such as removing ambiguous lines of authority for 
execution and involving operators in early test activities, has been 
largely favorable. After nearly 20 years of implementation though, it 
is clear that more remains to be done. In fact, a special study is now 
underway on behalf of the Department to improve the acquisition system 
and processes. I look forward to working with the Department and 
members of Congress to facilitate this most critical effort.

                             RELATIONSHIPS

    Question. Section 8033 of title 10, United States Code, discusses 
the responsibilities and authority of the Chief of Staff of the Air 
Force. Section 151 of title 10, United States Code, discusses the 
composition and functions of the Joint Chiefs of Staff, including the 
authority of the Chief of Staff of the Air Force, as a member of the 
Joint Chiefs of Staff, to submit advice and opinions to the President, 
the National Security Council, or the Secretary of Defense. Other 
sections of law and traditional practice, also establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Chief of Staff of the Air 
Force to the following officials:
    The Secretary of Defense.
    Answer. The Secretary of Defense is the principal assistant to the 
President in all Department of Defense matters. As a Service Chief and 
member of the Joint Chiefs of Staff, I will work closely with the other 
members of the Joint Chiefs to provide the best possible military 
advice to the Secretary of Defense, particularly with regard to matters 
of air and space operations, policy, and strategy.
    Question. The Secretary of the Air Force.
    Answer. The Chief of Staff of the Air Force is directly responsible 
to the Secretary of the Air Force (SecAF) and performs duties subject 
to his authority, direction, and control. For the SecAF, the Chief of 
Staff is responsible for providing properly organized, trained, and 
equipped forces to support the combatant commanders in their mission 
accomplishment. He exercises supervision over members and organizations 
of the Air Force advising the Secretary on plans and recommendations, 
and acting as agent of Secretary, implements upon approval. I will work 
very closely with the Secretary toward this end; continuing the Air 
Force transformation into an agile expeditionary force, capable of 
rapidly responding on a global scale, with tailored forces ready to 
deal with any contingency.
    Question. The Under Secretary of the Air Force.
    Answer. The Under Secretary of the Air Force and Assistant 
Secretaries work to ensure implementation of the Secretary's goals for 
the Air Force of a transformed agile expeditionary force. If confirmed, 
I will work closely with each of them to reach the Secretary's vision.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I will work with and through the Chairman in 
formulating military advice as a member of the JCS by advising him on 
the capabilities of the Air Force and its preparations to support 
military operations by combatant commanders. I look forward to 
performing the Chief of Staff's statutorily assigned duties of 
providing properly organized, trained, and equipped forces to the 
combatant commanders to accomplish their mission and providing military 
advice to the President, National Security Council, and Secretary of 
Defense on matters within my expertise, as required.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman has the same statutory rights and 
obligations of other members of the Joint Chiefs of Staff. When 
performing duties as the acting Chairman, the Vice Chairman's 
relationship with the combatant commanders is exactly the same as that 
of the Chairman. If confirmed, I will assist the Vice Chairman to 
execute duties prescribed in statute and otherwise directed by the 
Chairman or Secretary of Defense. I will advise the Vice Chairman on 
the capabilities and future requirements of the Air Force.
    Question. The Chiefs of the other Services.
    Answer. Our Armed Forces can only be truly effective in service to 
this great Nation if we work closely, capitalizing on our individual 
strengths and complementing our capabilities. If confirmed, I am 
committed to cooperating with the Chiefs of our other services to 
enhance mutually beneficial relationships as we carry out our 
responsibilities as members of the Joint Chiefs of Staff. I will seek 
and encourage synchronization of service capabilities to better produce 
joint interoperability and other joint warfighting capabilities in 
support of the effects desired by our combatant commanders.
    Question. The Commander, U.S. Transportation Command (TRANSCOM).
    Answer. As we provide the preponderance of airlift, the Air Force 
supplies critical support to TRANSCOM. If confirmed, I'll work with the 
Commander of TRANSCOM to improve our ability to accomplish these tasks.
    Question. The Commander, U.S. Strategic Command (STRATCOM).
    Answer. Given the critical role space plays in the U.S. nuclear 
deterrent, the Air Force must work seamlessly with STRATCOM. If 
confirmed, I will keep the STRATCOM Commander constantly apprised of 
the readiness of the air and space forces required to support STRATCOM 
operations.
    Question. The other combatant commanders.
    Answer. I will ensure that the Air Force is properly organized and 
providing the combatant commanders with the right equipment and fully 
trained people to execute their missions. I believe a forthright 
dialogue with the combatant commanders is the way to achieve this goal.
    Question. The General Counsel of the Air Force.
    Answer. I respect and value the important role the General Counsel 
plays within Air Force headquarters. Under the direction of the 
Secretary, and along with the Under Secretary and Assistant 
Secretaries, the General Counsel assists the Secretary as he seeks to 
lead our Service. I will look to the General Counsel for guidance and 
counsel, particularly in the realm of policymaking, and in those areas 
where the General Counsel possesses unique competencies, and on matters 
where the Secretary directs the General Counsel's personal involvement 
because those matters are of interest to the Secretary.
    Question. The Judge Advocate General of the Air Force.
    Answer. I respect and value the counsel I have received, and if 
confirmed, would continue to receive from the Judge Advocate General. 
The Judge Advocate General is one of the key advisors' to any Chief of 
Staff, and I would rely on the Judge Advocate General as the senior 
attorney on the Air Staff and as the senior military lawyer advising 
Air Force Headquarters. As both a professional military officer, and as 
an attorney, the Judge Advocate General of the Air Force offers an 
invaluable perspective of the law for senior decision makers. I will 
endeavor to maintain the close working relationship the Chief of Staff 
has historically enjoyed with the Judge Advocate General, particularly 
in the extremely vital military justice and operational law arenas.
    Question. The Superintendent of the U.S. Air Force Academy.
    Answer. The United States Air Force Academy is an invaluable 
institution that continues to attract the brightest young men and women 
from across our Nation and develop them into Air Force leaders. If 
confirmed, I will work closely with the Superintendent to address the 
challenges currently facing the Academy, ensure the successful 
implementation of the Agenda for Change, and promote the Academy's 
continued commitment to excellence and fulfillment of its mission.
    Question. What is your understanding of the duties and functions of 
the Chief of Staff of the Air Force?
    Answer. The Chief of Staff of the Air Force fulfills many duties 
and functions. As a member of the Joint Chiefs of Staff, he is a 
military adviser to the President, the National Security Council, and 
the Secretary of the Defense. The Chief of Staff is also directly 
responsible to the Secretary of the Air Force, providing plans, 
recommendations, and advice to the Secretary, implementing policy, 
overseeing the Air Staff and other members and organizations of the Air 
Force, participating on the Armed Service Policy Council, and 
performing other duties as prescribed by the Secretary. For the 
Secretary, the Chief of Staff is responsible for providing properly 
organized, trained, and equipped forces to support the combatant 
commanders in their mission accomplishment.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the acting Secretary of the Air Force would prescribe 
for you?
    Answer. If confirmed, I expect that the acting Secretary of the Air 
Force will prescribe duties to ensure the continued transformation of 
the Air Force into an agile expeditionary force and an integrated total 
force.
    Question. What changes, if any, would you recommend to section 8034 
of title 10, United States Code, relating to the Air Staff and its 
composition and functions?
    Answer. Based on my experience as the Vice Chief of Staff, I do not 
believe changes are necessary to section 8032 of title 10, United 
States Code. [Note: Section 8034 describes the position and duties of 
the Vice Chief of Staff]
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Chief of Staff of the 
Air Force?
    Answer. No.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the Chief of Staff of the Air Force?
    Answer. The top three tasks facing the next Chief of Staff are: 1) 
further refining and improving our Joint Warfighting skills, 2) to 
continue strengthening our greatest asset--our people, and 3) 
recapitalizing our aging fleet so that we can meet the COCOM's needs.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Each challenge involves its own set of unique requirements, 
needs, and stakeholders. I will need to collaborate with the Office of 
the Secretary of Defense, the Joint Staff, the combatant commanders, 
the Senate and House Armed Services Committees, and the various 
Integrated Process Teams. With their help, we can develop the best and 
most feasible plans to keep the U.S. Air Force ready for tomorrow.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Staff of the Air 
Force?
    Answer. The most serious problem facing our Air Force is 
prosecuting the War on Terrorism today while at the same time preparing 
to fight tomorrow. This is an especially difficult problem in light of 
our three major challenges and fiscal realities. The Air Force remains 
committed to providing the joint warfighter with Global Strike, Global 
Mobility and Global ISR and to do so within fiscal planning guidance.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. The Air Force has already begun to prepare for tomorrow by 
introducing a framework that we call Future Total Force (FTF). FTF is 
the USAF ``road map'' to make the Air Force of tomorrow better than the 
one we have today. It is designed to improve overall combat 
capabilities by retiring the oldest, least capable, most expensive 
equipment while investing in more capable platforms. FTF is not just 
about equipment; it also creates greater operational efficiencies 
through the reorganization and re-shaping of our force structure.

                               PRIORITIES

    Question. If confirmed, what broad priorities will you establish?
    Answer. My priorities are: (1) to maintain our focus on winning the 
global war on terrorism, (2) to continue developing and caring for our 
airmen, and (3) to recapitalize and modernize our force. If we can 
successfully tackle these challenges, the Air Force accomplish its core 
tasks of Rapid Strike, Global Mobility, and Persistent C\4\ISR.

                          HEALTH BENEFIT COSTS

    Question. The cost of the Defense Health Program, like the cost of 
medical care nation-wide, is escalating rapidly. General Jumper 
recently stated that the cost of military health care is ``the single 
most daunting thing that we deal with out there today.''
    If confirmed, how would you approach the issue of rising personnel 
costs, including health care costs, as a component of the annual Air 
Force budget?
    Answer. Over the past 10 years, we have worked hard to streamline 
our medical infrastructure to take advantage of the continual changes 
in the practice of medicine. This has resulted in reductions in the 
size of many of our facilities without compromising the healthcare. We 
have also worked to optimize the use of the remaining assets to make 
sure that we get the greatest returns on our facility investments. 
Throughout these changes, we maintain our ability to support the Air 
Force mission while we continue to ensure that our beneficiaries 
receive the highest quality care, while the Air Force maximizes its 
return on our healthcare investments.

               INDEPENDENCE OF THE JUDGE ADVOCATE GENERAL

    Question. As Vice Chief of Staff of the Air Force, you have had the 
opportunity to observe the working relationship between the General 
Counsel of the Air Force and the Judge Advocate General of the Air 
Force, as well as the working relationship of these individuals and 
their staffs with the Chairman's legal advisor, the General Counsel of 
the Department of Defense, and the legal advisors of the other 
Services.
    What are your views about the responsibility of the Judge Advocate 
General of the Air Force to provide independent legal advice to the 
Chief of Staff and the Air Staff, particularly in the areas of military 
justice and operational law?
    Answer. I believe it is critical that the CSAF receive independent 
legal advice from his senior uniformed judge advocates. Pursuant to 10 
U.S.C. Sec. 8031 and Sec. 803 7, the Judge Advocate General of the Air 
Force (TJAG) performs duties relating to any and all Air Force.1egal 
matters assigned to him by SECAF. Pursuant to AFI 51-1, TJAG, TJAG also 
responds to CSAF direction and directs and supervises the Judge 
Advocate General's Corps in providing legal advice and related services 
to commanders, agencies, and people AF-wide. It is critical that the 
CSAF receive independent legal advice from TJAG. I am comfortable with 
the existing working relationships and interactions.
    Question. What are your views about the responsibility of staff 
judge advocates throughout the Air Force to provide independent legal 
advice to military commanders in the field and throughout the Air Force 
establishment?
    Answer. Staff judge advocates (SJAs) are essential to the proper 
functioning of both operational and support missions. Commanders are 
required by statute (10 U.S.C. Sec. 806) to communicate with their SJAs 
on issues related to military justice matters, which is critical to 
disciplined mission execution. In addition, commanders and other 
leadership rely on their staff judge advocates for advice on all types 
of legal and policy matters, particularly those in the critical 
operational and fiscal law areas. SJAs have a major responsibility to 
promote the interests of a command by providing relevant, timely, and 
independent advice to commanders, and this independence is protected by 
statute (10 U.S.C. Sec. 8037(f)(2)).

                 AIR FORCE FUTURE TOTAL FORCE PLANNING

    Question. In a recent report submitted in response to section 587 
of the Ronald W. Reagan National Defense Authorization Act for Fiscal 
Year 2005, the Air Force outlined the legal, administrative, and 
practical challenges of operating a ``blended'' wing, consisting of 
Active-Duty airmen and airmen of the Air National Guard.
    What do you consider to be the most significant barriers to 
effective integration of Air Force Reserve and Active component 
personnel and units?
    Answer. The Air Force has always operated as a Total Force, 
operating seamlessly in peacetime as well as war. In fact, the highly 
successful associate model has been in use for almost 40 years and will 
be the baseline as we continue to optimize what each component brings 
to the fight. As you pointed out, the report to Congress April 2005 on 
the Blended Wing Concept provided insight to the tremendous operational 
success of the integrated units during war. It also provided us with 
valuable information on how to fine-tune the associate model to best 
perform the missions of the 21st century.
    Question. What do you consider to be the most appropriate and 
achievable goal for integrating units of the Air National Guard into 
the operational missions, including homeland defense missions, of the 
U.S. Air Force? What role and mission do you expect the Air Force 
Reserve to perform now and in the future?
    Answer. The Guard and Reserve will continue to be full partners in 
transformation and will be involved in all new missions as they come on 
line. In fact, Air National Guard will fly the first operational F/A-
22s as part of an associate unit at Langley AFB. They will also be 
performing high tech emerging missions, operating Predators, flying 
satellites, and processing battlefield intelligence that will provide 
direct support to the joint warfighter. We are also exploring ways to 
better integrate the components in our enduring missions, capitalizing 
on the tremendous experience levels resident in the Guard and Reserve. 
We are standing up a number of active associate units in a variety of 
missions, stationing inexperienced Active-Duty members at Guard and 
Reserve locations to be trained by seasoned pilots and maintainers. 
Every AF mission and platform needs the experience and knowledge of our 
citizen airmen and the community connection they bring to the Air 
Force.
    Question. How would you assess the progress being made in further 
integrating the Air Force Reserve into the operational mission of the 
Air Force?
    Answer. The Air Force Reserve and National Guard have always been 
an integral part of Air Force operations for decades. In fact, the 
first associate unit was an AF Reserve unit back in 1968. As I've 
described, we will continue to explore ways to enhance the way in which 
we work, side-by-side, with our Total Force partners in the Guard and 
Reserve.

                         AIR FORCE END STRENGTH

    Question. The Air Force's proposed budget for fiscal year 2006 
includes reductions of 2,300 personnel in the Active-Duty ranks and 
2,100 in the Air Force Reserve.
    What is the justification for these reductions in Active-Duty and 
Air Force Reserve Forces?
    Answer. It is important to note that no capability is lost due to 
the military end strength reduction. The majority of Active-Duty 
reductions are tied to military to civilian conversions. Most 
conversions are one for one; meaning, the military position is deleted 
and a civilian position is added. Other reductions are tied to items 
such as Personnel transformation, other various programmatic actions. 
The majority of the Air Force Reserves end strength reduction was in 
drill positions (elimination of AFR Combat Logistics Support Squadrons 
and Aerial Port drill spaces). These were converted to dollars to fund 
other priorities and buy other end strength. They were chosen in part 
because they could be reduced without impacting readiness capabilities.

                             TRANSFORMATION

    Question. If confirmed, you would play an important role in the 
process of transforming the Air Force to meet new and emerging threats.
    What are your goals for Air Force transformation?
    Answer. The U.S. Air Force Transformation Flight Plan outlines 
several goals regarding transformation that will be used to implement 
the Air Force transformation strategy. Our major goals are to work with 
rest of DOD, non-DOD Agencies, as well as allies and coalition partners 
to enhance joint and coalition warfighting capabilities while 
continuing to aggressively pursue innovation to lay the groundwork for 
Air Force transformation. As we strive to meet our joint goals, we will 
seek to create new Air Force organizational constructs to facilitate 
transformation and institutionalize cultural change. These 
transformational changes will include ``breaking out'' of industrial 
age business processes while embracing information age thinking.

                    MILITARY-TO-CIVILIAN CONVERSIONS

    Question. The Services have been engaged in a multi-year effort to 
eliminate thousands of military billets and replace them with civilian 
or contractor personnel.
    What is your view of the occupational specialties or functions in 
the Air Force that would be most appropriate for military-to-civilian 
conversions?
    Answer. The most appropriate jobs for military-to-civilian 
conversion are ones that that do not require a military member to fill 
them. Our fiscal year 2006 conversions include air traffic control, 
aircraft maintenance (at Edwards AFB), information management, 
communications-computer, and personnel, among others. The Air Force is 
also implementing DOD-wide medical conversions, however, no doctors or 
dentists were impacted.
    Question. If confirmed, what metrics would you establish to measure 
the effectiveness of military-to-civilian conversions, and how would 
you determine if and when Air Force civilians and private contractors 
could perform work in a more efficient or cost effective manner than 
military personnel?
    Answer. Conversions are reviewed and measured as part of holistic 
strategic approach in Total Force Human Capital Management that strives 
to find the best mix of Active, ARC, and civilian forces. Career field 
managers closely review their military and civilian mix; unit 
commanders monitor their units, as well, for the best mix based on 
their taskings. Unit commanders utilize the new civilians hired, just 
as they use the other civilians within the unit. If a conversion from 
military-to-civilian (or contractor) results from a Public-Private 
Competition under the procedures of OMB Circular A-76, such measures 
are established as part of the Quality Assurance Surveillance Plan.
    Question. How would you measure the impact of such conversions on 
readiness?
    Answer. The Air Force carefully evaluates all military to civilian 
conversions to ensure the force is capable of meeting wartime taskings. 
Unit commanders evaluate their readiness status monthly via Status of 
Readiness and Training System (SORTS) reporting. Manpower is one data 
point used to evaluate readiness via SORTS. Career field managers 
closely review the projected conversions for wartime taskings and 
career field sustainability within the framework of our overall Human 
Capital Management strategy.
    Question. Are the proposed reductions in the Air Force Active-Duty 
end strength part of a broader effort to free up military members to 
perform more operational duties?
    Answer. Our goal is to keep the warfighter focused on warfighting. 
To this end we are eliminating Active-Duty positions that do not 
require a military member to fill them. We are replacing the Active-
Duty positions with an appropriate number of civilians, so that we do 
not impact our readiness.

               PREVENTION AND RESPONSE TO SEXUAL ASSAULTS

    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of the Department of Defense for preventing and responding to incidents 
of sexual assault in the Armed Forces at which you testified and 
endorsed a ``zero tolerance'' standard. In late April 2004, the DOD 
Task Force on Care for Victims of Sexual Assault issued its report and 
recommendations, noting ``If the Department of Defense is to provide a 
responsive system to address sexual assault, it must be a top-down 
program with emphasis placed at the highest levels within the 
Department down to the lowest levels of command leadership. It must 
develop performance metrics and establish an evaluative framework for 
regular review and quality improvement.''
    In response to the report and recommendations of the DOD Task Force 
report, what actions has the Air Force taken to prevent and respond to 
incidents of sexual assault?
    Answer. AF implemented plan to strengthen prevention/enhance 
response to sexual assault victims. We engaged civilian subject matter 
experts to understand Sexual Assault behaviors/prevalence. Our Campaign 
Plan addressed five major areas:

          1. Policy and Leadership: Zero tolerance--criminal conduct; 
        violates core values
          2. Prevention through training/education: AETC developing AF-
        wide training at all levels of PME; CSAF produced Outreach 
        Training/Video for all airmen
          3. Enhanced Response: Permanent Sexual Assault Response 
        Coordinator (SARC) positions; Victim Advocates (VA) at each 
        base
          4. Enhanced AEF Response; Ensured trained SARC and VAs in 
        deployed areas
          5. Enhanced Reporting: Implemented confidential reporting 14 
        Jun 05.

    Question. What additional resources and organizational changes, if 
any, has the Air Force devoted to victim advocacy programs?
    Answer. In all, we devoted $12.7 million in fiscal year 2005 and 
projected $17.8 million in fiscal year 2006 to victim advocacy 
personnel and programs. We established 114 permanent full-time Sexual 
Assault Response Coordinator (SARC) positions at installations with 
1,000+ population, along with and additional 95 supporting positions. 
The majority of our new SARCs are GS-101-12 civilian social workers. 
Thirty-five are military (captains/majors) who will serve as a SARC for 
a term and also serve when in the deployed environment (building 
rotation base). In addition, we revamped the PME structure and 
dedicated funds to improve evidence processing at the U.S. Army 
Criminal Investigative Lab (USACIL). Lastly, we created an outreach 
training video for distribution across the entire total force.
    Question. If confirmed, what actions do you plan to take to ensure 
that senior leaders of the Air Force have day-to-day visibility into 
incidents of sexual assault and the effectiveness of policies aimed at 
ensuring zero tolerance?
    Answer. Responsibility for Prevention & Response resides squarely 
with leadership. Accountability begins with our MAJCOM commanders and 
me. In addition, our AFIDP is responsible for policy implementation/
evaluation. At the local level, the WG/CV is accountable for prevention 
& response. To ensure our WG/CVs have a clear line of sight, our SARCs 
report directly to them. As a reflection of how seriously our senior 
leaders take this issue, we have discussed it in depth at the last four 
CORONAs, and will continue to assess the program to make needed 
adjustments. We are establishing metrics and evaluation criteria that 
will be periodically reviewed by senior leaders, and will continue to 
survey the total force, analyze data, take appropriate action.

                           AIR FORCE ACADEMY

    Question. In December 2004, you and Secretary Chu provided a press 
briefing on the DOD Inspector General's report on sexual misconduct at 
the U.S. Air Force Academy. You cited various facts indicating that the 
Agenda for Change is being implemented at the Academy and that it is 
having beneficial effects on the cadet wing. In recent weeks, 
complaints of cadets and former cadets of religious discrimination, 
inappropriate efforts to proselytize cadets, and alleged retaliation 
against a junior chaplain for her actions in attempting to respond to 
complaints have resulted in the formation of a new task force and 
inquiry.
    What is your current assessment of the success of the Agenda for 
Change in responding to the problem of sexual assault and harassment at 
the U.S. Air Force Academy?
    Answer. We're making visible progress on multiple fronts. Cadet 
survey results show an increased faith and confidence in leadership. 
Ninety percent of cadets characterize climate as ``conducive'' to 
reporting, and the survey revealed women feel safe at USAFA. The number 
of total assaults reported is down from academic year 2003 to 2004 
(18.8 percent to 12 percent). The number of reports to the Academy 
Response Team system is up (18 percent to 35 percent). These are 
indications of trust and confidence in reporting and victim care 
processes instituted.
    The number of applications to the Academy for the 2008 class was 
12430, with 3087 of those being women. This is an increase of almost 
800 women applying from the year before. Most importantly, the quality 
of applications remains excellent (Class 2008 average SAT=1310/national 
average=1026).
    Question. What is the status of the most recently formed task 
force's inquiry, and when will its report be issued?
    Answer. SecAF directed a cross-functional team to assess religious 
climate at USAFA and measure progress in integrating principles of 
respect in character development programs--report issued on 22 Jun 05. 
We assessed policy & guidance, appropriateness of relevant training, 
practices that enhance or detract from climate that respects ``free 
exercise of religion'' and ``establishment'' clauses of 1st Amendment, 
effectiveness of internal controls, relevance of religious climate to 
the entire AF. Lt Gen Brady found the overall problem was not one of 
institutional or widespread religious discrimination but of failure to 
fully accommodate all members' needs and a lack of awareness of the 
boundary between permissible and inappropriate expression of religious 
beliefs in a military setting.
    Question. What is the current Air Force policy on tolerance of 
individual religious beliefs? What are your views on this issue? Every 
airman needs to respect every other airman. Respect includes protecting 
the right to hold to any belief system airmen/family members' choose--
this is the responsibility of every Air Force commander and leader. 
This includes respecting an airman's right to align with traditional 
religious views as well as his/her right to not align with any specific 
view. Recently, the Chief of Staff released a memo to the entire force 
outlining these principles, and clearly defining Air Force policy on 
the issue. The framework of that policy is built upon the tolerance for 
individual religious beliefs and practices relating to the sacred when 
such accommodation will not have an adverse impact on the military, 
unit, or individual readiness; unit cohesion, health and safety 
standards; or discipline.
    Question. What is the current Air Force policy on proselytizing and 
on-duty expression of faith? What are your views on this issue?
    Answer. Air Force policy is airmen may not impose their religion on 
others or fail to respect the rights of others to hold differing 
beliefs or have no religious faith. Airmen are sworn to support the 
Constitution of the United States. I believe senior leaders, 
commanders, and supervisors at every level must be particularly 
sensitive to the fact that subordinates can consider public expressions 
of belief systems coercive.
                        unified medical command
    Question. The Department's 2005 BRAC recommendations include 
significant realignments in military medical capability and support the 
goal of achieving greater efficiency through joint organizational 
solutions. The proposed recommendations regarding Walter Reed National 
Military Medical Center, as well as other joint medical centers in 
Landstuhl, Germany, and San Antonio, Texas, are based on the assumption 
that staffing in the future will be joint with personnel from all three 
military departments. While various studies have been done regarding 
the concept and feasibility of establishing a joint military medical 
command, very little progress has been made on implementing such a 
command.
    Do you consider a joint military medical command to be warranted 
and feasible?
    Answer. The Joint Medical Command proposal represents an 
opportunity to gain efficiencies through enhancement of 
interoperability and Service synergies while streamlining the policy 
and oversight of the DOD's medical system. That being said, the Air 
Force medical system is an integral part of our Expeditionary Air 
Force. I consider Air Force medical assets potentially assigned to the 
Joint Medical Command as critically necessary to assure a healthy and 
fit force at home station and to support our deployed forces. I do have 
questions regarding command and control of our Air Force medics, their 
preparation for the deployed mission, and the impact on home station 
healthcare when they are deployed.
    Question. What functions, in your view, are unique to the Air Force 
and should remain within the Air Force management structure?
    Answer. AF medics are integral to how we present forces and execute 
air and space operations. In addition to the aeromedical evacuation and 
squadron medical elements, the AF would desire to retain the remaining 
Aerospace Medical Operations, primary care and dental functions 
necessary to assure the health of the forces. This will ensure the 
primary mission of managing and executing our operational mission is 
properly prioritized and within my authority to manage.
    Question. With or without a unified medical command, what steps 
would you take, if confirmed, to improve joint medical readiness 
requirements in support of contingency operations?
    Answer. I would continue to work with our service counterparts and 
combatant command surgeon staffs to ensure interoperability of 
doctrine, command and control and equipment. Our medics will remain 
supportive of joint medical requirements, planning, and training. They 
continue to work with the joint community to refine health service 
support doctrine and to ensure the right medical capability is 
provided. Our medics will continue to exercise a leadership role within 
the joint community as we have in the past as Joint Staff Surgeon, 
combatant command surgeons, and most recently, as chair of the Medical 
Joint-Cross Service Group for the Base Realignment and Closure 
Committee.

                        OVERSEAS AIR FORCE BASES

    Question. The President announced plans in August 2004 to implement 
an Integrated Global Presence and Basing Strategy (IGPBS) to emphasize 
an expeditionary posture of U.S. forces overseas. This will result in 
the restationing of 60,000 to 70,000 U.S. military personnel from 
overseas bases to the United States.
    In your opinion, what opportunities exist for the United States Air 
Force to realign the basing of combat air forces overseas in order to 
improve Air Force support to U.S. combatant commands and our allies?
    Answer. Opportunities exist in the areas of posturing against 
emerging threats, enhancing strategic alliances, refining theatre 
presence; better C2, infrastructure, manpower and theatre security 
cooperation; insure coalition efforts are prepared to employ air and 
space power in joint operations, Humanitarian Relief Operations 
(HUMRO); Noncombatant Evac Ops (NEO); MEV (SaC), SOF, CSAR, SETAF; and 
enhancing facilities at determined sites to create geographic HUBs for 
JTFs.
    Question. What impact will the restationing of these personnel and 
their equipment have on the requirements for Air Force airlift and the 
installations needed to support the increase in strategic mobility 
requirements?
    Answer. Mobility requirements and capabilities must be 
exceptionally robust to support this new construct and ensure effective 
warfighter support. Specifically, the right number of C17s and a 
modernized C-5 fleet for inter-theater, worldwide deployment and 
redeployment of CONUS-based forces will be imperatives. The KC-X 
replacement tanker will become a more critical enabler for the airlift 
bridge to effect the critical power projection phase and ensure 
effective CAF support. The development of the Contingency Response 
Group and Contingency Response Wing (CRG/CRW) architecture provides 
base opening and mobile, responsive mobility support.

                       AIRCRAFT RECAPITALIZATION

    Question. Approximately one third of the current Air Force aircraft 
inventory is under some type of flight restriction, mainly due to aging 
aircraft problems. The C-17 and F/A22 are among the first of the Air 
Force's recapitalization efforts.
    If confirmed, what steps would you take to further recapitalize the 
Air Force aircraft inventory and how would you prioritize the 
recapitalization effort?
    Answer. We will transform to a smaller, more capable force by 
retiring our oldest, more costly legacy aircraft, and invest in a 
reshaped force designed to be more sustainable in the future. The USAF 
is developing a mission roadmap, which will provide a force that fills 
the Nation's needs and enables capabilities across the full spectrum of 
joint warfighting requirements. The roadmap will ensure we can 
accomplish our core tasks of rapid strike, global mobility, and 
persistent ISR wherever the joint warfighter needs them. We will 
leverage technology to increase capabilities, reduce support costs and 
mitigate major aging aircraft issues. Finally, we must challenge our 
aerospace industry to shift its focus to recapitalization and produce 
more cost effective and supportable aircraft.

                           ACQUISITION ISSUES

    Question. The acting secretary of the Air Force has announced that 
the Air Force will no longer pursue leases of major equipment, but will 
instead rely on the traditional acquisition system.
    Do you support this decision?
    Answer. Yes, I absolutely support the acting SECAF's decisions.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the Air Force to use a lease instead of a 
traditional acquisition approach?
    Answer. As Kenneth Krieg (Under Secretary of Defense for 
Acquisition, Technology, and Logistics) recently testified, leasing of 
capital equipment could be a potential option when the equipment is 
truly commercially available outside DOD and can meet leasing 
requirements as established by the Office of Management and Budget 
(OMB).

                 AIRCRAFT SUSTAINMENT AND MODERNIZATION

    Question. The global war on terrorism has increased demands on the 
tanker fleet, increasing annual KC-135 flying hours over 30 percent 
since September 11. This increased demand is expected to continue for 
the foreseeable future. Reducing the size of the KC-135 tanker fleet 
increases the utilization rate of the remaining tanker aircraft, 
thereby accelerating the need to recapitalize the aircraft. The Air 
Force has grounded 29 KC-135Es because of corrosion problems in the 
engine struts and has expressed a desire to retire these 29 aircraft 
and 20 additional KC-135Es in fiscal year 2006. The problem of 
corrosion in the engine struts is well known, and the repair or 
replacement of KC-135E engine struts has been done on many occasions in 
the past.
    Why does the Air Force choose to retire KC-135E aircraft from its 
aircraft inventory instead of repairing or replacing the engine struts, 
at least until Air Force plans for the modernization of its tanker 
fleet are better defined?
    Answer. Due to safety concerns, the KC-135 SPO recommended 
grounding 29 aircraft by 1 Oct 04. Gen Handy, Air Mobility Command 
Commander, decided to remove these aircraft from the flying schedule 
based solely on flight safety considerations. He consolidated the 
affected aircraft at bases that were best suited for their maintenance 
requirements.
    The OSD-directed Tanker Replacement Analysis of Alternatives (AoA) 
will be complete in August 2005 and will provide the AF with additional 
data to make an informed decision on recapitalizing our tanker fleet. 
Resources will then be applied to ensure that the future of our 
Nation's air refueling fleet is viable and sufficient for our joint 
forces.
    Question. Currently, 30 Air Force C-130E aircraft have been 
grounded for cracks in the aircraft's center wing box, and an 
additional 59 C-130 E and H model aircraft are operating with flight 
restrictions as a result of aircraft structural fatigue associated with 
the center wing box. The development of cracks in the C-130 center wing 
box as a result of structural fatigue is not a new problem. Several C-
130s have had their wing boxes replaced when cracks have developed in 
the past. Additionally, significant investments have been made in non-
recurring engineering to modernize the C-130's avionics, structural, 
and propulsion systems.
    Does the Air Force intend to replace the center wing box for each 
of the 29 grounded C-130Es, as well as repair or replace the center 
wing box for each of the 59 restricted C-130s? If not, why not?
    Answer. We are currently awaiting the Mobility Capability Study, 
several engineering studies, and the Joint Staffs Intratheater Airlift 
Study, in order to determine the best course of action. These studies 
will help us decide what the right mix of C130s is and what is feasible 
for wingbox replacement repairs. We will keep Congress informed as to 
the results of each of the studies.
    future missions in base realignment and closure recommendations
    Question. The 2005 Defense Base Realignment and Closure (BRAC) 
recommendations forwarded by the Secretary of Defense to the BRAC 
Commission on May 13, 2005, include the realignment of 23 Air National 
Guard installations and 1 active installation by removing all aircraft 
currently stationed at these installations with no recommendation for 
other missions to relocate to these installations. These 
recommendations have the effect of changing the force structure of 
these installations while making no recommendation on the status of the 
base itself, which was the intent of BRAC.
    How will these actions affect the size of the Air National Guard?
    Answer. The current BRAC recommendations do not seek to reduce end 
strength in the Air National Guard or the Air Force Reserve. Because 
the emerging missions will provide an exponential increase in 
capability, we will need the additional manpower and capability 
resident in our Citizen Airmen of the Total Force. We are closely 
working with the Air National Guard to match them with relevant 
combatant commander missions.
    Question. How will the Air Force address the need of these units 
for new missions and responsibilities in order to sustain the viability 
of the military installation?
    Answer. We will be working throughout the summer with all the 
MAJCOMs, ANG and AF Reserve to ensure all units potentially losing 
flying missions move into missions that will be relevant and meaningful 
well into the 21st century. For Air National Guard units, we will 
ensure that in addition to their Federal mission, the requirements of 
their State and Homeland Defense roles are also considered and 
adequately addressed.
    Question. In your opinion, what new missions should be considered 
and pursued by units losing aircraft and when should they expect to see 
these new missions?
    Answer. We have a growing list of emerging missions including: 
Unmanned Aerial Vehicles; Command, Control, Communications, Computer 
Intelligence, Surveillance, and Intelligence (C\4\ISR); Space 
operations; and Information operations. These missions will keep the 
gaining units relevant in the 21st century. The transition to these new 
missions will be deliberate and well thought out to ensure our Total 
Force is well-trained and ready for tomorrow's missions.

                    AIR FORCE SCIENCE AND TECHNOLOGY

    Question. During testimony earlier this year on the fiscal year 
2006 budget request, General Jumper noted that, ``The Air Force is 
committed to providing the Nation with the advanced air and space 
technologies required to protect our national security interests and 
ensure we remain on the cutting edge of system performance, 
flexibility, and affordability. Air Force Science and Technology (S&T) 
investments are focused on achieving the warfighting effects and 
capabilities required by the Air Force Concepts of Operations.''
    If confirmed, what direction would you provide regarding the 
importance of innovative defense science in meeting Air Force missions?
    Answer. I support a robust Air Force Science and Technology (S&T) 
Program and believe we are currently funded at a level that provides 
for the innovation needed to support our Air Force missions. If 
confirmed, I will continue to pursue an adequate and stable investment 
in Air Force S&T.
    Question. The Air Force currently plans to dedicate approximately 
$2 billion to science and technology programs, 1.6 percent of the total 
Air Force budget and $346 million to basic defense research, or 0.3 
percent of the total Air Force budget.
    Do you believe the current balance between short- and long-term 
research is appropriate to meet current and future Air Force needs?
    Answer. I believe the current balance between short- and long-term 
research is appropriate. The Science and Technology (S&T) Program spans 
a broad foundation of basic research, applied research, and advanced 
technology development efforts. The output of this S&T investment 
provides Air Force leadership the capabilities needed to respond to a 
rapidly changing world. The Air Force S&T Program provides for the 
discovery, development, demonstration, and timely transition of 
affordable technologies that keep our Air Force the best in the world.
    Question. If confirmed, what role would you play in ensuring 
research priorities that will meet the needs of the Air Force in 2020? 
If confirmed, I plan to continue using the Air Force's Integrated 
Capabilities Review and Risk Assessment (I-CRRA) master planning 
process and the COCOMs' Integrated Priority List to ensure we have a 
high correlation between our Science and Technology (S&T) programs and 
the required warfighting capabilities.
    Question. In the face of rising acquisition costs for programs such 
as the F-22, Joint Strike Fighter, and programs to support space 
operations, if confirmed, how do you plan to ensure the protection of 
funding for long-term science and technology investments?
    Answer. The Air Force closely links technologies in its S&T Plan to 
warfighter capability needs and focuses on those technologies of the 
highest priority to the warfighter. At $1.98 billion in the fiscal year 
2006 President's budget, Air Force S&T is funded at a level to achieve 
the warfighting capabilities needed to support Air Force Core 
Competencies. Overall, ``core'' funding for the Air Force S&T Program 
has increased over $60 million or almost 2.3 percent real growth in the 
fiscal year 2006 President's when compared to similar funding in the 
fiscal year 2005 President's budget. If confirmed, I look forward to 
working with Congress to ensure a strong Air Force S&T Program tailored 
to achieve our vision of a superior Air and Space Force.

                          TECHNICAL WORKFORCE

    Question. The Air Force Research Laboratory relies on a strong 
technical workforce to conduct research for development of new weapons 
systems, platforms, and capabilities to meet its mission of: ``leading 
the discovery, development, and integration of affordable warfighting 
technologies for our air and space force. ``
    Are you concerned about the current or future supply of experts in 
defense critical disciplines, particularly personnel with appropriate 
security clearances, to hold positions in defense laboratories? Yes I 
am concerned. Our scientists and engineers (S&Es) are crucial to 
keeping the U.S. Air Force on the leading edge of emerging technology. 
I will work hard to make sure we have the right mix of talent, 
expertise, and skill to meet our needs.

                   GENERAL OFFICER MANAGEMENT ISSUES

    Question. Incidents of misconduct or substandard performance ad 
findings of inspectors general and other command directed 
investigations are documented in various ways in each of the services. 
Procedures for forwarding adverse and alleged adverse information in 
connection with the promotion selection process are set forth in DOD 
Instruction 1320.4.
    Question. How is the Air Force ensuring compliance with DOD 
Instruction 1320.4?
    Answer. As the single repository for records of adverse information 
on Senior Officials, SAF/IG accomplishes an extensive files check 
whenever an individual meets a promotion board for any of the general 
officer ranks. If adverse information is uncovered, a senior officer 
unfavorable information file (SOUIF) is created and is attached to the 
officer's promotion board folder. If selected for promotion, this file 
stays with the officer's nomination package through its coordination 
with OSD, the White House, and Congress. If new unfavorable information 
is uncovered on an officer already nominated for promotion, that 
information is immediately added to the nomination package. In this 
instance, the Air Force may pull the individual's name from the list.
    Question. What standards and procedures are in place in the Air 
Force to ensure that allegations of adverse information relating to a 
nominee for promotion is brought to the attention of the committee in a 
timely manner?
    Answer. If formal action is pending, the SecAF will sign a 
notification to OSD of the situation and request appropriate action, 
such as formal separation from a pending promotion list, retirement 
request, or place member on hold if there is a nomination pending 
Senate confirmation. Additionally, informal phone contact is made both 
with OSD/MPP and/or the SASC staff (through the SAF/LL). Files checks 
on all individuals are conducted prior to submittal of nomination 
packages, retirement requests, and promotion lists; these files checks 
are updated every 60 days while formal action is pending approval, and 
ensure no adverse or potentially adverse information exists prior to 
the SecAF's signature on these requests.

                            READINESS LEVELS

    Question. What is your assessment of the current readiness of the 
Air Force to execute its assigned missions?
    Answer. I believe our readiness is sufficient and we can meet all 
of the current combatant commander's requirements.
    Question. What do you view as the major readiness challenges that 
will have to be addressed by the Air Force over the next 4 years, and, 
if confirmed, how will you approach these issues?
    Answer. My readiness concerns include: the proper mix of strategic 
airlift aircraft including maintaining an adequate mobility capacity 
and Air Refueling fleet. Our rapid strike capability is challenged by 
the aging of our legacy aircraft, in addition to the need for 
persistence, stealth, and precision. Our ISR assets are in continual 
use and must be adequately resourced. These issues are difficult and 
solving them will require teamwork with Congress, the Department of 
Defense, and industry.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Staff of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Question Submitted by Senator John Warner

                         AEROMEDICAL EVACUATION

    1. Senator Warner. General Moseley, the committee included a 
provision in the National Defense Authorization Act for Fiscal Year 
2006--pending consideration by the full Senate--that would authorize 
$200 million for up to two fully-equipped, dedicated aeromedical 
evacuation aircraft for seriously wounded and ill casualties. I believe 
we must provide such a state-of-the-art capability, especially given 
the grievous complexity of today's wounds. Do you agree that we need a 
dedicated aeromedical evacuation capability for our casualties?
    General Moseley. I agree with the Senate that we need to provide 
the most capable and responsive Aeromedical Evacuation (AE) capability 
we can for our casualties. I also agree with having a ``dedicated 
capability'' but not the purchase of a unique, dedicated platform. With 
the retirement of the C-9, we have intentionally moved away from a 
small, dedicated AE fleet to a concept that uses any available aircraft 
that can be configured to provide AE capability. We now provide state 
of the art enroute medical care regardless of which airframe is 
selected to carry the wounded. The responsiveness is proportional to 
the patient condition; Urgent is ASAP, Priority is within 24 hours, and 
Routine is within 7 days. The average time from battle injury to CONUS 
Medical Center is 4 days.
                                 ______
                                 
               Question Submitted by Senator John McCain

       BOEING 767 TANKER DEAL, ACQUISITION REFORM, AND LEADERSHIP

    2. Senator McCain. General Moseley, during your term as Vice Chief 
Staff of the Air Force, your appearances before the House and Senate 
Armed Services Committees and in over 300 hundred of your e-mails that 
I have reviewed, you clearly advocated for the Boeing 767 tanker lease 
deal. After exhaustive investigations by this Committee, the Senate 
Committee on Commerce, Science and Transportation, and an alphabet soup 
of groups: DOJ, GAO, CBO, CRS, DOD IG, OMB, IDA, NDU, DSB, PA&E, DOT&E, 
etc., we now know that Air Force leadership and to some degree DOD 
leadership failed to follow acquisition statutes and regulations and 
ensure good fiduciary stewardship of taxpayer funds, tailored the 
requirements of the ORD to the Boeing 767 instead of to the warfighter 
and overstated the effects of corrosion on the KC-135 tanker fleet. I 
could go on and on. What steps will your take to ensure that this does 
not happen again if you are confirmed as the Air Force's top General?
    General Moseley. I believe that the traditional acquisition process 
(Federal Acquisition Regulation Part 15) has served the Air Force well 
and if confirmed, I will work to ensure our weapons systems are 
procured in the proper manner. This includes the accomplishment of 
Analyses of Alternatives for major weapons systems which will better 
inform the process. I will also support the on-going departmental 
initiatives that are further studying ways in which the acquisition 
process can be improved. Perhaps equally important, I support putting 
uniformed acquisition professionals back into oversight roles that were 
eliminated during recent downsizing initiatives. I look forward to 
working with Congress, the department, and the acquisition community on 
this important issue and I thank Senator McCain for his leadership 
regarding this matter.
                                 ______
                                 
                Question Submitted by Senator Carl Levin

                           AIR GUARD AND BRAC

    3. Senator Levin. General Moseley, there is strong opposition to 
the Air Force's 2005 base realignment and closure (BRAC) 
recommendations from the Air National Guard. From a policy standpoint, 
they have raised concerns that these recommendations will result in the 
loss of thousands of experienced Reserve component personnel. From a 
process standpoint, the Air Guard said it was not adequately consulted 
when these recommendations were developed by the Air Force. In my state 
of Michigan, for example, if the A-10s leave Battle Creek, and no 
mission comes in, which is what the Air Force recommends, we are left 
with a fully-manned, high-quality, high-retention unit with no mission 
to perform, and it seems likely many of those personnel will leave the 
Guard which would in turn lose many such skilled and experienced 
personnel. How do you respond to these concerns?
    General Moseley. Senator, we understand the BRAC tasking put to us 
was to maximize the Nation's warfighting capability and shed excess 
infrastructure as we reset a smaller force structure to meet future 
strategy needs. To do this, we propose restoring our individual 
squadrons to effective sizes. The active component dealt with force 
reductions over the past 10 years by reducing its number of squadrons; 
in the Guard we tended to keep the same number of squadrons and reduce 
the size of each. Consequently, you'll tend to see more adjustment in 
the Guard squadrons as we adjust to reductions in the force. That said, 
we maintain the manpower balance among the Guard, Reserve, and Active 
in our flying missions. The AF wants to retain the experience and 
talents of its Guard airmen; in many cases we expect to retain our 
airmen. For instance, in addition to the A-10s that are consolidating 
at Selfridge ANGB, there are two other nearby Guard units that are 
plussing up in fighters, at Toledo (80 miles from Battle Creek) and at 
Fort Wayne (80 miles from Battle Creek). The Air Guard, along with the 
AF Reserve, was not only consulted, but played an integral role in all 
the deliberative meetings that led to the Secretary's BRAC 
recommendations. The Director of the Air Guard was kept informed 
throughout the BRAC process and the Chief of the National Guard Bureau 
received an update as our deliberations matured.
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton

                      BRAC PROGRAMMATIC DECISIONS

    4. Senator Dayton. General Moseley, it appears that the Air Force 
leadership made a decision to use the BRAC process for programmatic 
decisions, especially as it relates to the Air National Guard (ANG) and 
aircraft retirements, and therefore bypass Congressional oversight. Do 
you agree with that statement? If not, how do you explain the presence 
of ``non-BRAC programmatic actions'' in the Secretary's 
recommendations?
    General Moseley. The Classified Force Structure Plan submitted to 
Congress by the Joint Staff on 15 Mar 05 included the 20-year force 
structure projection (the 2025 Force) that identified a programmatic 
reduction--apart from BRAC--of approximately 6 percent of traditional 
Air Force force structure, with about 20 percent coming out of the 
fighter force.
    The Air Force used the 2025 Force Structure Plan (which was 
required to stay within prescribed budget limits) and the BRAC 
selection criteria as start points to develop its BRAC recommendations. 
The ``Non-BRAC programmatic actions'' within Air Force recommendations 
define those actions that occur to get down to the force structure plan 
required by the Statute; we claim neither costs nor savings from these 
programmatic moves. For clarity, the Air Force included non-BRAC 
programmatic actions to ensure the total combined impact of BRAC 
recommendations and programmatic actions at a specific installation 
were captured.

                     FUTURE FORCE STRUCTURE POLICY

    5. Senator Dayton. General Moseley, what is the future force 
structure policy of the Air Force for the next 10 years?
    General Moseley. Senator Dayton, the Air Force, along with the 
participation of the leadership of the National Guard Bureau, Air Force 
Reserve Command and selected Adjutant General representatives, has 
carefully crafted a Future Total Force plan that ensures highly 
effective air and space power for the Nation well into the future. The 
plan is comprised of two main parts: a well-analyzed and cost-
constrained force structure and innovative organizational constructs 
that employ that structure in the active, Guard and Reserve as 
partners.
    This fiscally responsive force structure plan divests older weapon 
systems that are increasingly more expensive to operate, as well as 
very limited in their capabilities to meet the future requirements of 
the security environment. We need to shift our investment towards 
newer, more capable systems and platforms that are leveraged by higher 
crew ratios to deliver maximum warfighting and homeland defense 
capabilities. Our plan includes new missions and capabilities for the 
joint warfighter and includes a greater role of the Air National Guard 
and the Air Force Reserve partners--side-by-side with their Active 
component. Therefore the FTF plan directs the divestiture of legacy 
aircraft and sunset missions to fund critical capabilities found 
increasingly in unmanned aerial vehicles, space assets, information 
operations, and intelligence units and the Total Force warriors who 
will serve as the foundation of these capabilities.
    The second aspect of the FTF plan is all about our people, and how 
we can best leverage the unique strengths each brings. The Air Force 
has always operated as a Total Force. Under the FTF plan we will 
expand, in scope and numbers, the Total Force units in day-to-day 
association with one another. In fact, the highly successful associate 
model has been in use for almost 40 years between the Air Force and the 
Air Force Reserve, largely in the strategic airlift mission. For the 
first time, we will associate in larger numbers of units, in both 
directions--Active to Guard and Reserve, and the reciprocal direction 
as well, and expand this associate relationship to other platforms. 
Using this construct, we will leverage the tremendous experience 
resident in the Guard and Reserve as well as provide the ability, using 
Active Duty airmen, to sustain increasing levels of deployment under 
our expeditionary role.

    6. Senator Dayton. General Moseley, what is the role of the ANG in 
support of that policy?
    General Moseley. Senator Dayton, the Air National Guard has been 
and will continue to be a full partner in transformation and will be 
involved in all new missions as they come on line. In fact, Air 
National Guard will fly the first operational F/A-22s as part of an 
associate unit at Langley AFB. They will be integral to increasingly 
relevant emerging missions, flying UAVs, operating space systems and 
processing battlefield intelligence that will provide direct support to 
our joint war fighters, the combatant commanders--including NORTHCOM. 
The Air Force recognizes the critical importance of homeland defense 
and the critical contributions the Air National Guard makes to their 
communities, states and nation. The FTF plan accounts for this 
important role and ensures the Air National Guard remains a central 
part of the Homeland Defense mission.

    7. Senator Dayton. General Moseley, does BRAC support/negate/
supplant this mission/policy?
    General Moseley. The FTF plan is strictly about force structure and 
organizational constructs and was developed independently of the BRAC 
process. Both the force structure and the organizational constructs 
were provided to the BRAC team for use in their deliberations--from 
that perspective, the BRAC, the force structure, and the organizational 
constructs were mutually supportive. Once basing decisions were made 
public, we worked and will continue to work with the Air National Guard 
and Air Force Reserve to facilitate effective assignment of new 
missions. We anticipate the emerging mission and association plan will 
be ready for announcement in the late summer/early fall timeframe.

                            AIR SOVEREIGNTY

    8. Senator Dayton. General Moseley, what is the role of the active 
Air Force in air sovereignty, or does it only defend abroad?
    General Moseley. The active Air Force performs an air sovereignty 
mission within the continental United States as well as its missions 
abroad along with the Air National Guard and Air Force Reserve. Through 
Air Combat Command (ACC) at Langley Air Force Base, Virginia, the USAF 
provides operational aircraft to the Canadian-U.S. North American 
Aerospace Defense Command (NORAD) air sovereignty mission for 
performance of air defense throughout the U.S. Northern Command 
(USNORTHCOM) geographic area of responsibility.

    9. Senator Dayton. General Moseley, if the active Air Force only or 
primarily defends abroad, and the ANG's mission is air sovereignty, 
what equipment does the Guard need to fulfill that mission?
    General Moseley. The USAF performs all assigned air missions, both 
abroad and within the continental United States, using a Total Force 
mix of assets from the Active-Duty Air Force, the Air Force Reserve, 
and the Air National Guard. While the Air National Guard performs a 
great deal of the air sovereignty alert mission, it does not perform 
that mission without air assets from the active and Reserve 
organizations. At the same time, Air National Guard members perform 
numerous overseas missions, serving with Air Force Active-Duty and Air 
Force Reserve members in a variety of theaters and airframes. The USAF 
employs an Air Expeditionary Force concept which draws assets from the 
Total Force for employment around the globe. The assignment of the air 
sovereignty alert mission to air units operating in the U.S. merely 
adds one more requirement to their air operations. Therefore, the 
equipment which the Air National Guard requires must ensure that the 
assets are available to create the correct mix of air defense, air to 
ground and air reconnaissance assets required by the Total Force to 
perform all air missions.
                                 ______
                                 
    [The nomination reference of Gen. T. Michael Moseley, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 16, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Chief of Staff of 
the Air Force, and for appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
U.S.C., sections 8033 and 601:

                             To be General

    Gen. Teed M. Moseley, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. T. Michael Moseley, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Biographical Sketch of Gen. T. Michael Moseley, USAF
    General T. Michael Moseley is Vice Chief of Staff, Headquarters 
U.S. Air Force, Washington, DC. As Vice Chief, he presides over the Air 
Staff and serves as a member of the Joint Chiefs of Staff Requirements 
Oversight Council.
    General Moseley graduated from Texas A&M University in 1971 with a 
Bachelor of Arts degree in political science. He earned a Master of 
Arts degree from Texas A&M University in 1972, also in political 
science. He has commanded the F-15 Division of the USAF Fighter Weapons 
School at Nellis AFB, Nevada, the 33rd Operations Group at Eglin AFB, 
Florida, and the 57th Wing, the Air Force's largest, most diverse 
flying wing, also at Nellis. The general has served as the combat 
Director of Operations for Joint Task Force Southwest Asia. General 
Moseley also commanded 9th Air Force and U.S. Central Command Air 
Forces while serving as Combined Forces Air Component Commander for 
Operations Southern Watch, Enduring Freedom, and Iraqi Freedom. The 
general is a member of the Council on Foreign Relations, and has been 
named an officer of the Order of National Merit by the president of the 
French Republic. He has also been awarded the United Arab Emirates' 
Military Medal, 1st Class, by the president of the U.A.E.
    General Moseley's staff assignments have been a mix of operational, 
joint and personnel duties. These include serving in Washington, DC, as 
Director for Legislative Liaison for the Secretary of the Air Force; 
Deputy Director for Politico-Military Affairs for Asia/Pacific and 
Middle East, the Joint Chiefs of Staff; Chief of the Air Force General 
Officer Matters Office; Chief of Staff of the Air Force Chair and 
Professor of Joint and Combined Warfare at the National War College; 
and Chief of the Tactical Fighter Branch, Tactical Forces Division, 
Directorate of Plans, Headquarters U.S. Air Force.

Education:

1971......................................  Bachelor of Arts degree in
                                             political science, Texas
                                             A&M University, College
                                             Station
1972......................................  Master of Arts degree in
                                             political science, Texas
                                             A&M University, College
                                             Station
1977......................................  Squadron Officer School,
                                             Maxwell AFB, Alabama.
1981......................................  Fighter Weapons Instructor
                                             Course, U.S. Air Force
                                             Fighter Weapons School,
                                             Nellis AFB, Nevada, 1984
                                             Air Command and Staff
                                             College, Maxwell AFB,
                                             Alabama.
1988......................................  U.S. Air Force Joint Senior
                                             Battle Commander's Course,
                                             Hurlburt Field, Florida.
1990......................................  National War College, Fort
                                             Lesley J. McNair,
                                             Washington, DC.
2000......................................  Combined Force Air Component
                                             Commander Course, Maxwell
                                             AFB, Alabama, and Hurlburt
                                             Field, Florida.



Assignments:

------------------------------------------------------------------------
              From                        To
------------------------------------------------------------------------
June 1972.......................  May 1973..........  Student,
                                                       undergraduate
                                                       pilot training,
                                                       Webb AFB, Texas
May 1973........................  July 1977.........  T-37 instructor
                                                       pilot and spin
                                                       flight test
                                                       pilot; flight
                                                       check pilot, and
                                                       standardization
                                                       and evaluation
                                                       flight examiner,
                                                       3389th Flying
                                                       Training
                                                       Squadron, 78th
                                                       Flying Training
                                                       Wing, Webb AFB,
                                                       Texas
July 1977.......................  September 1979....  F-15 instructor
                                                       pilot, flight
                                                       lead and mission
                                                       commander, 7th
                                                       Tactical Fighter
                                                       Squadron,
                                                       Holloman AFB, New
                                                       Mexico
September 1979..................  August 1983.......  F-15 weapons and
                                                       tactics officer,
                                                       instructor pilot,
                                                       and flight lead
                                                       and mission
                                                       commander;
                                                       standardization
                                                       and evaluation/
                                                       flight examiner,
                                                       44th Tactical
                                                       Fighter Squadron
                                                       and 12th Tactical
                                                       Fighter Squadron,
                                                       Kadena Air Base,
                                                       Japan
August 1983.....................  June 1984.........  Course officer,
                                                       Air Command and
                                                       Staff College,
                                                       Maxwell AFB,
                                                       Alabama
June 1984.......................  June 1987.........  Chief, Tactical
                                                       Fighter Branch,
                                                       Tactical Forces
                                                       Division,
                                                       Directorate of
                                                       Plans, Deputy
                                                       Chief of Staff
                                                       for Plans and
                                                       Operations,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC
June 1987.......................  June 1989.........  Commander, F-15
                                                       Division, and
                                                       instructor pilot,
                                                       Fighter Weapons
                                                       Instructor
                                                       Course, U.S. Air
                                                       Force Fighter
                                                       Weapons School,
                                                       Nellis AFB,
                                                       Nevada
June 1989.......................  June 1990.........  Course officer,
                                                       National War
                                                       College, Fort
                                                       Lesley J. McNair,
                                                       Washington, DC
June 1990.......................  August 1992.......  Chief of Staff of
                                                       the Air Force
                                                       Chair and
                                                       Professor of
                                                       Joint and
                                                       Combined Warfare,
                                                       National War
                                                       College, Fort
                                                       Lesley J. McNair,
                                                       Washington, DC
August 1992.....................  January 1994......  Commander, 33rd
                                                       Operations Group,
                                                       Eglin AFB,
                                                       Florida.
January 1994....................  May 1996..........  Chief, Air Force
                                                       General Officer
                                                       Matters Office,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC
May 1996........................  November 1997.....  Commander, 57th
                                                       Wing, Nellis AFB,
                                                       Nevada
November 1997...................  July 1999.........  Deputy Director
                                                       for Politico-
                                                       Military Affairs,
                                                       Asia/Pacific and
                                                       Middle East,
                                                       Directorate for
                                                       Strategic Plans
                                                       and Policy, the
                                                       Joint Chiefs of
                                                       Staff,
                                                       Washington, DC
July 1999.......................  October 2001......  Director,
                                                       Legislative
                                                       Liaison, Office
                                                       of the Secretary
                                                       of the Air Force,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC
November 2001...................  August 2003.......  Commander, 9th Air
                                                       Force and U.S.
                                                       Central Command
                                                       Air Forces, Shaw
                                                       AFB, South
                                                       Carolina
August 2003.....................  present...........  Vice Chief of
                                                       Staff,
                                                       Headquarters,
                                                       U.S. Air Force,
                                                       Washington, DC
------------------------------------------------------------------------

Flight information:
    Rating: Command pilot.
    Flight hours: More than 2,800.
    Aircraft flown: T-37, T-38, AT-38, and F-15A/B/C/D.

Major awards and decorations:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal with oak leaf cluster
    Legion of Merit with oak leaf cluster
    Meritorious Service Medal with three oak leaf clusters
    Air Medal
    Joint Service Commendation Medal
    Air Force Commendation Medal
    Air Force Achievement Medal
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Korea Defense Service Medal
    French National Order of Merit
    United Arab Emirates' Military Medal, 1st Class

Other achievements:
    2003 H.H. Arnold Award, the Air Force Association's highest honor 
to a military member in the field of National Security.

Effective dates of promotion:
    Second Lieutenant - July 9, 1971
    First Lieutenant - July 9, 1974
    Captain - Jan. 9, 1976
    Major - Oct. 1, 1983
    Lieutenant Colonel - March 1, 1986
    Colonel - April 1, 1991
    Brigadier General - Dec. 1, 1996
    Major General - Feb. 1, 2000
    Lieutenant General - Nov. 7, 2001
    General - Oct. 1, 2003
                                 ______
                                 
    [The Committee on Armed Services certain senior military 
officers nominated by the President to posisitons requiring the 
advice and consent of the Senate to complete a form that 
details the biographical, financial, and other information of 
the nominee. The form executed by Gen. T. Michael Moseley, 
USAF, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Teed Michael ``Buzz'' Moseley.

    2. Position to which nominated:
    Chief of Staff, United States Air Force, Washington, DC.

    3. Date of nomination:
    May 13, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 3, 1949; Dallas, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Margaret Virginia Moseley (Maiden name: Margaret 
Virginia Willmann).

    7. Names and ages of children:
    Tricia Kristen Moseley, 31; Gregory Michael Moseley, 29.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of Former Students, Texas A&M University
    Council on Foreign Relations
    National Association of Eagle Scouts
    National War College Alumni Association
    Texas and Southwest Cattle Raisers Association
    Texas State Historical Association
    Texas State Society
    Ninth Air Force Society
    Thunderbirds Alumni Association

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Awarded Air Training Command's Instructor Pilot of the Year Award, 
1975.
    Presented letter of Commendation, Distinguished Service by the 
Minister of Defense, Republic of Korea, 1999.
    Awarded ``Officer's Rank in the French National Order of Merit'' by 
the President of the French Republic, 2001.
    Air Force Association, HH Arnold Award, ``Highest Honor to a 
Military Member in the Field of National Security,'' 2003.
    Awarded the Emirate's Military Medal (1st Class), ``In recognition 
for distinguished service to the United Arab Emirates Armed Forces,'' 
2003.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                 T. Michael Moseley, General, USAF.

    This 29th day of April 2005.

    [The nomination of Gen. T. Michael Moseley, USAF, was 
reported to the Senate by Chairman Warner on June 30, 2005, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on June 30, 2005.]
                              ----------                              

    [Prepared questions submitted to Eric S. Edelman by 
Chairman Warner prior to the hearing with answers supplied 
follow:]


                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the full implementation of these reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I am not aware of any reason to believe that the reforms 
have not been substantially implemented. I believe that they have 
strengthened civilian control of the military, improved the quality of 
military advice given to the President and Secretary of Defense, and 
improved the Department's ability to execute its missions.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I believe that the most important aspects of the Goldwater-
Nichols reforms are the Nation's increased emphasis on military 
``jointness,'' the formulation of top-down defense strategy and plans, 
and the vesting of important responsibility and authority in the 
combatant commanders.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Recently, there have been articles that indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I understand that the Department of Defense is currently 
examining roles and missions issues in the Quadrennial Defense Review, 
including expanding the benefits derived from Goldwater-Nichols to 
interagency applications of ``jointness.'' If confirmed, I will study 
any promising reforms suggested in that effort. The Department will 
need to consult closely with Congress, especially this committee, on 
any potential modifications of the Goldwater-Nichols reforms.

                                 DUTIES

    Question. Section 134 of title 10, United States Code, provides 
that the Under Secretary of Defense for Policy (USD(P)) shall assist 
the Secretary of Defense in preparing written policy guidance for the 
preparation and review of contingency plans, and in reviewing such 
plans. Additionally, subject to the authority, direction, and control 
of the Secretary of Defense, the Under Secretary shall have 
responsibility for supervising and directing activities of the 
Department of Defense relating to export controls.
    Department of Defense Directive 5111.1 reiterates these duties and 
specifically notes that the Under Secretary of Defense for Policy is 
the principal staff assistant and advisor to the Secretary of Defense 
and the Deputy Secretary of Defense for all matters on the formulation 
of national security and defense policy and the integration and 
oversight of DOD policy and plans to achieve national security 
objectives.
    What is your understanding of the duties and functions of the Under 
Secretary of Defense for Policy under current regulations and 
practices?
    Answer. If confirmed, I will perform the duties set forth in Title 
10 and the Department of Defense Directive. The Under Secretary of 
Defense for Policy serves as the principal staff assistant and advisor 
to the Secretary and Deputy Secretary of Defense for all matters 
concerning the formulation of national security and defense policy and 
the integration and oversight of DOD policy and plans to achieve 
national security objectives. In particular, section 134(b) of title 
10, United States Code, prescribes the duties of the Under Secretary of 
Defense for Policy as follows:

        (b)(1) The Under Secretary shall perform such duties and 
        exercise such powers as the Secretary of Defense may prescribe.
        (2) The Under Secretary shall assist the Secretary of Defense--
        --

                (A) in preparing written policy guidance for the 
                preparation and review of contingency plans; and
                (B) in reviewing such plans.

        (3) Subject to the authority, direction, and control of the 
        Secretary of Defense, the Under Secretary shall have 
        responsibility for supervising and directing activities of the 
        Department of Defense relating to export controls.
        (4) Subject to the authority, direction, and control of the 
        Secretary of Defense, the Under Secretary of Defense for Policy 
        shall have overall direction and supervision for policy, 
        program planning and execution, and allocation and use of 
        resources for the activities of the Department of Defense for 
        combating terrorism.

    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Rumsfeld would prescribe for you?
    Answer. I believe that, if I am confirmed, Secretary Rumsfeld would 
look to me to discharge the duties assigned to the Under Secretary of 
Defense for Policy by statute and regulation, especially assistance and 
advice on the development and implementation of national security and 
defense policy. Those duties would include oversight of DOD policy and 
plans, DOD relations with foreign governments and international 
organizations, and DOD participation in intra-governmental processes 
with other agencies.
    Question. How do you see the civilian role, as opposed to the 
military role, in the formulation of strategy and contingency planning?
    Answer. I believe the civilian role is to establish, in broad 
outlines, the overall defense strategy and to set out the objectives 
and major assumptions on which contingency planning is based. From the 
briefings I have received, I understand that the USD(P)'s office 
initiates this process on behalf of the Secretary through the 
Contingency Planning Guidance. Following the guidance in this document, 
which the President approves, combatant commanders develop operation 
plans for prescribed scenarios. As they are being developed, the 
current Secretary himself conducts in-process reviews with the 
responsible combatant commander. If I am confirmed, my role as USD(P) 
would be to follow the development of this body of plans and assist the 
Secretary in a formal review of the plans, which are submitted for his 
approval.

                          CONTINGENCY PLANNING

    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning. The Under Secretary of Defense for Policy is 
specifically directed to assist the Secretary of Defense in preparing 
written policy guidance for the preparation and review of contingency 
plans and in reviewing such plans.
    In your opinion, does the civilian leadership currently have an 
appropriate level of oversight of contingency planning?
    Answer. I am not in a position yet to make such a judgment, but I 
am told and read that Secretary Rumsfeld has done much in the past 4 
years to advance OSD's role in overseeing the Contingency Planning 
process. I understand that the Secretary and USD(P) play central roles 
in directing the development and review of contingency plans, and the 
Secretary retains final approval authority for the plans. My impression 
is that the USD(P) staff enjoys good working relations with the Joint 
Staff and combatant command planning staffs. I believe that these kinds 
of relationships facilitate effective oversight. I have also been 
informed that the Secretary's and the Chairman's staffs have worked 
together to speed up Departmental contingency planning and make it more 
responsive to the needs of the President and the Secretary--especially 
in terms of providing them more options in time of crisis.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of contingency planning?
    Answer. If confirmed, I will have the opportunity to gain a 
detailed understanding of OSD's oversight processes and how they might 
be improved. My current impression, however, is that there is no reason 
to believe that effective civilian control and oversight are lacking.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges confronting 
the Under Secretary of Defense for Policy?
    Answer. Our Nation is at war. Strategic victory in the global war 
on terrorism is our greatest challenge. Moreover, our Nation is 
confronted by a broader array of security challenges than those we 
faced in the past. In addition to the continued threat of traditional 
military challenges posed by nation states, the United States faces a 
range of non-traditional challenges from nations and non-state actors, 
of which the terrorism that we have seen in the past years is the most 
salient example. We live in an era that is marked by strategic 
uncertainty. Accordingly, I believe that the Department of Defense must 
be flexible and agile, anticipating change, influencing its direction, 
and adapting our strategy and capabilities as appropriate.
    The Department's recently published National Defense Strategy:

        <bullet> Positions us better to handle strategic uncertainty;
        <bullet> Recognizes the value of measures aimed at resolving 
        problems before they become crises and crises before they 
        become wars; and
        <bullet> Emphasizes the importance of building partnership 
        capacity to address common threats.

    I believe that identifying and pursuing approaches and mechanisms 
that help both international and interagency partners build their 
security capacity should be a primary focus of the Policy organization, 
and it is something to which, if confirmed, I would intend to devote a 
great deal of effort.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, my immediate emphasis will be to participate 
in the Quadrennial Defense Review (QDR), which specifically addresses 
the Department's capability for managing both traditional as well as 
new challenges to U.S. interests. In addition, I would continue 
implementing the re-alignment of U.S. global defense posture. Given my 
past experience, I would put special emphasis on the need to work with 
allies and partners to develop a common understanding of threats and 
the appropriate approaches to address these challenges in concert.

                             FUTURE OF NATO

    Question. Over the past several years, NATO has experienced a time 
of both great change and stress. NATO has enlarged with the addition of 
seven new members from Eastern Europe and the Baltics, and NATO has 
taken on an ambitious out of area mission in Afghanistan as well as a 
training mission in Iraq.
    What are the greatest opportunities and challenges that you foresee 
for NATO over the next 5 years?
    Answer. At its Prague Summit in November 2002, NATO launched a set 
of initiatives central to ongoing transformation efforts that have 
changed the Alliance's strategic mindset concerning threats, roles, and 
capabilities. NATO leaders:

        <bullet> Established the NATO Response Force (NRF), designed as 
        a brigade-size, rapidly deployable joint/combined force.
        <bullet> Streamlined the NATO Command Structure to operate more 
        efficiently and effectively. Twenty original headquarters were 
        reduced to 11, and the Allied Command Transformation (ACT) was 
        created to drive Allied transformation.
        <bullet> Launched the Prague Capabilities Commitment (PCC) 
        through which Allies pledged to make specific capability 
        improvements in their military forces.

    In 2003, NATO's Secretary General focused the Alliance on 
shortcomings in the ``usability'' of Allied military forces--i.e., the 
lack of sufficient forces that are deployable and sustainable on 
operations outside NATO territory. Since then, NATO has developed 
``Usability Targets'' for Allied land forces. At the Istanbul Summit in 
June 2004, NATO leaders agreed to maintain at least 40 percent of land 
forces prepared and equipped for deployed operations, and at least 8 
percent deployed or on standby on an indefinite basis.

    A key challenge will be to complete the Alliance transition from 
stationary forces to more mobile, deployable, and sustainable forces 
(Allies need to do more, especially in providing the key supporting 
enablers that expeditionary forces require, including airlift and 
combat support). Another challenge is to convince Allies to offer in 
sufficient numbers the forces that they do have to fill the 
requirements of NRF rotations and ongoing Alliance operations in 
Afghanistan and Kosovo. Another major challenge is to develop a 
cooperative relationship with the European Union, as it develops its 
European Security and Defense Policy, which preserves NATO as the 
primary instrument of transatlantic security and does not diminish the 
Alliance's military effectiveness.
    Question. Do you envision further enlargement of NATO within the 
next 5 years?
    Answer. At the June 2004 Istanbul Summit Allied leaders said the 
door to NATO membership remains open, but there is no timetable for 
another round of enlargement. Three NATO aspirants (Albania, Croatia, 
and Macedonia) are now participating in the Membership Action Plan. 
Ukraine and Georgia have also expressed interest in joining the 
Alliance. At the April 2005 Foreign Ministerial in Vilnius, Allies 
invited Ukraine to begin an intensified dialogue on membership issues. 
Each NATO aspirant will be judged on its individual merits and progress 
in implementing political, economic, and military reforms.

                  EUROPEAN SECURITY AND DEFENSE POLICY

    Question. A challenge facing the United States and NATO in the 
months and years ahead is the European Union's (EU) implementation of 
its European Security and Defense Policy (ESDP), that is, an EU 
capability to conduct military operations in response to international 
crises in cases where ``NATO as a whole is not engaged.'' Many in 
Congress have expressed concern that ESDP could emerge as a competitor, 
rather than a complement, to the NATO Alliance.
    Do you share these concerns? What steps do you believe that the 
United States and NATO must take to ensure that ESDP is implemented in 
a way that strengthens the Alliance?
    Answer. I believe the NATO-EU relationship should be cooperative, 
not competitive, and should avoid duplication. There should be no 
weakening of the transatlantic link. The U.S. supports an EU Security 
and Defense Policy that provides more capability--for NATO, as well as 
for EU operations where NATO chooses not to engage. Key to achieving 
these goals is to employ the 2003 NATO-EU ``Berlin-Plus'' agreements, 
which set out cooperation arrangements between the two organizations. 
Those arrangements have been used in the EU operation in Bosnia, and in 
efforts to develop capabilities such as the NATO Response Force and the 
EU Battlegroups. The U.S. has been very active in promoting this 
cooperation, and I believe it should continue to be.

                            EU ARMS EMBARGO

    Question. The prospect of the European Union (EU) lifting its 
embargo on arms sales to China has generated considerable concern in 
Congress. Many believe that it would be detrimental to U.S. national 
security interests were China to have access to more and better 
defense-related systems and technologies.
    What is your view of this matter?
    Answer. I would be opposed to any EU effort to lift its arms 
embargo on China. It would send the wrong signal to China at a time 
when its rhetoric over Taiwan is escalating. It would endorse China's 
poor record on human rights. Finally, lifting the embargo could 
facilitate China's military modernization, increasing the threat to 
U.S. forces in the event of conflict over Taiwan.
    Question. Do you believe the United States should engage in a 
dialogue with the EU regarding how to strengthen, not relax, controls 
on exports of militarily sensitive items to China?
    Answer. I believe that a strategic dialogue between the United 
States and the EU on security matters in East Asia would be a useful 
and important way to develop a common strategic picture of what it 
takes to maintain peace and stability in the region. This dialogue 
would help to reinforce the need for EU restraint on the transfer of 
sensitive military and dual-use technology to China.

                         IRAQI SECURITY FORCES

    Question. The U.S. Government has embarked on a strategy of 
training, equipping, and mentoring Iraqi security forces as the most 
effective way to establish meaningful security in Iraq, end the 
persistent insurgency, and reduce the requirement for significant 
numbers of U.S. and coalition forces.
    How would you assess the current readiness and capabilities of the 
Iraqi security forces?
    Answer. As Ambassador to Turkey, I was not in a position to 
evaluate the Iraqi security forces. From the information I have seen, 
however, I would say that the readiness and capabilities of the Iraqi 
security forces vary from unit to unit but are generally improving. 
Iraqi units are operating alongside U.S. units in greater numbers, and 
some of them are operating independently with sole responsibility for 
their operating area. For example, Iraqi units have assumed primary 
responsibility for their operating areas in some parts of Baghdad and 
Mosul.
    Question. What criteria should be used to provide a realistic 
measure of the readiness and capabilities of these forces?
    Answer. I defer to our military experts in these matters to propose 
the best measures of readiness and capability. Our military uses 
various criteria to measure readiness and capability for our own 
forces, and that experience would seem relevant and useful in assessing 
the Iraqis.
    Question. What period of time do you feel will be required to 
prepare the Iraqi security forces to be able to assume principal 
responsibility for the security of their nation from both internal and 
external threats?
    Answer. The President, the Secretary of Defense, and our commanders 
in the field have all stressed that we are operating in accordance with 
a conditions-based plan to transfer security responsibility to the 
Iraqis. I cannot make any informed estimate concerning when Iraqis 
might assume principal responsibility for security in Iraq, but I can 
say that the U.S. should operate based on conditions on the ground, not 
based on an arbitrary time-line.
    Question. What is the appropriate role for other nations--coalition 
partners, neighboring Muslim nations, NATO, and the larger 
international community--in assisting the training, equipping, and 
progress of the Iraqi security forces?
    Answer. Members of the international community have stepped forward 
and are participating in two multi-national training efforts: the 
Multi-National Security Transition Command--Iraq (MNSTC-I) and the NATO 
Training Mission--Iraq (NTM-I). These organizations are helping train 
Iraqi military and police personnel in Iraq and in Jordan. There are 
also smaller, coordinated, bilateral efforts to provide particular 
specialty training to Iraqi security personnel, for example, police 
forensics.

                                  QDR

    Question. The Secretary has promulgated terms of reference for the 
next Quadrennial Defense Review and work on this review is underway. 
Under Secretary Feith is taking a leading role in this important 
effort.
    If confirmed, would you step directly into the role that Mr. Feith 
is playing in the QDR when you succeed him?
    Answer. Exactly what role I might play would be a decision for the 
Secretary. I have not yet discussed it with him. If confirmed, however, 
I plan to be an active participant in the QDR process.
    Question. What is your view of the terms of reference that have 
been established?
    Answer. I have not yet been briefed on the QDR terms of reference, 
which are an internal, pre-decisional document. If confirmed, I intend 
to familiarize myself quickly with the terms of reference.
    Question. In your view, what assumptions about acceptable risk and 
resource constraints should be included in the QDR process?
    Answer. In my view, the Department's assumptions on acceptable risk 
and resource constraints should be based on the new National Defense 
Strategy and be consistent with legislation establishing the QDR. 
Making realistic judgments about acceptable levels of risk is one of 
the hardest tasks the Secretary faces.

                    STABILITY AND SUPPORT OPERATIONS

    Question. Recent experience in Iraq has underscored the importance 
of planning and training to prepare for the conduct and support of 
stability and support operations in post-conflict situations. We 
understand that Secretary Rumsfeld has decided to elevate the stability 
and support operations mission in Department planning and guidance so 
that it is fully integrated across all DOD activities.
    Do you support this effort?
    Answer. Our experiences since the end of the Cold War in Somalia, 
the Balkans, Haiti, Afghanistan, and Iraq highlight the importance of 
preparing for stability operations. Proper preparation involves 
numerous parts of DOD and, also, other USG Departments and Agencies, 
all of which have potentially important capabilities to bring to bear. 
The Department of State, where I have served for 25 years, has 
undertaken a major initiative in this regard, the Office of the 
Coordinator for Reconstruction and Stabilization, headed by my 
colleague Carlos Pascual. I understand that this new office has enjoyed 
the Department of Defense's full support. If confirmed, I would favor 
continuing that support, and I look forward to supporting Secretary 
Rumsfeld's ongoing efforts to transform the Department and ensure DOD 
is properly linked with larger USG stabilization and reconstruction 
efforts.
    Question. If confirmed, what would be your role in implementing any 
new directives in the area of post-conflict planning and the conduct of 
stability and support operations?
    Answer. If confirmed as Under Secretary for Policy, my role would 
be to help ensure that DOD guidance to the Military Departments, 
Combatant Commands, and Defense Agencies sets forth the broad direction 
they will need to move in to develop the capabilities required to 
conduct successful stability operations in the future. In addition, I 
would play a role in working with other Departments and Agencies to 
develop common objectives and pathways to increase the efficacy of USG 
stabilization efforts, of which DOD is a participant. Ultimately, if 
confirmed, I would be responsible for providing policy advice to the 
Secretary of Defense on stability operations--ensuring he has the 
requisite information and options to make informed decisions and to 
advise the President.
    Question. In your view, what is the appropriate relationship 
between DOD and other departments of government in the planning and 
conduct of stability and support operations in a post conflict 
environment?
    Answer. The U.S. Government as a whole has a responsibility to plan 
and conduct stability operations using the core competencies of various 
departments and agencies in an integrated manner, including working 
with our Allies and friends.
    An integrated approach to post-major combat operations begins with 
training and planning before potential conflicts. The State 
Department's Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS) is working closely with DOD to bring together 
military and civilian planners, develop operational concepts for civil-
military operations in the field, and provide interagency training, 
educational and exercise opportunities that will build relationships 
before future contingencies.
    There will be times when DOD may well be the lead agency in an 
operation due to the large deployment of U.S. forces. At other times, 
the military would properly play a lesser role--supporting civilian 
agencies such as the State Department and USAID. Whether DOD or other 
departments or agencies have the leading role in a stabilization 
mission, a key need often will be to build up the indigenous civilian 
and security capacities, which will facilitate the timely transition to 
self-rule and withdrawal of international military and civilian 
personnel.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq?
    Answer. The USG has learned a great deal over the past 15 years 
about the requirements of post-major combat environments. Fighting may 
shift from major combat operations to irregular warfare. ``Post-
conflict'' calm may sometimes only come with a combination of: 1) 
building indigenous security forces; 2) jump-starting economic 
activity; and 3) facilitating local governance.
    We also face a shortage of international peacekeepers. This is one 
of the reasons that President Bush launched the Global Peace Operations 
Initiative (GPOI), which seeks to increase global peacekeeping capacity 
over the next 5 years through increased training, exercises, and 
deployment assistance to partner countries.
    We also need strategies to encourage and enable other countries to 
fight alongside or instead of us. As a government, we should be 
thinking through how we can best build up the governance capacities of 
countries that are in danger of spreading instability regionally or 
providing a safe haven for terrorist or criminal networks.
    Although I can't speak to specific studies the Department may have 
conducted concerning post-conflict operations in Iraq, I will, if 
confirmed, seek to ensure that we draw maximum insight from our recent 
experience.

                           ENGAGEMENT POLICY

    Question. One of the central pillars of our recent national 
security strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, CINC exercises, humanitarian 
demining operations, and similar activities were used to achieve this 
goal.
    If confirmed, would you support continued engagement activities of 
the U.S. military?
    Answer. Yes.
    Question. Do you believe that these activities contribute to U.S. 
national security?
    Answer. Security cooperation activities have contributed to our 
security in the past, are beneficial today in the global war on 
terrorism, and will most certainly continue to be a cornerstone of U.S. 
national security. This Nation has learned time and again that building 
partnership capacity is essential to address common security challenges 
successfully.
    Question. Would you assure the committee that there would be 
adequate civilian oversight of these activities?
    Answer. Yes.

                   PROLIFERATION SECURITY INITIATIVE

    Question. In May 2003, the President announced the Proliferation 
Security Initiative, a global effort that aims to stop shipments of 
weapons of mass destruction, their delivery systems, and related 
materials worldwide.
    What is the role of the Department of Defense in the Proliferation 
Security Initiative?
    Answer. PSI is a Presidential initiative that is being developed 
and implemented by a number of U.S. Government agencies. The Department 
of Defense is part of the interagency team, coordinated by the National 
Security Council staff. DOD's priority is ensuring that our military 
can support interdiction operations when necessary.
    In addition, the Department of Defense leads U.S. participation in 
the PSI Operational Experts Group--an expanding multinational network 
of military, law enforcement, intelligence, and legal experts that has 
been meeting periodically to develop operational concepts, organize 
interdiction exercises, share information about national legal 
authorities, and pursue cooperation with key industries. More than 
forty countries have participated in one or more of the PSI 
interdiction exercises designed to improve national capabilities and 
participants' ability to operate together.
    Question. Is there dedicated funding in the DOD budget the 
Proliferation Security Initiative? If not, do you believe that the 
Initiative should have a dedicated DOD budget line?
    Answer. I understand that there is no PSI line item in the DOD 
budget. If confirmed, I will consult with the combatant commanders and 
the DOD Comptroller to determine whether creating such a budget line 
would be beneficial.

                COUNTERNARCOTICS PROGRAM FOR AFGHANISTAN

    Question. The cultivation of poppies and trafficking of opium has 
reached alarming proportions in Afghanistan. Some estimate that over 50 
percent of Afghanistan's gross national product is associated with the 
illegal opium trade and that Afghanistan is at risk of failing as a 
nation state. Initial coalition strategies for discouraging and 
disrupting the opium trade have not been effective. In fiscal year 
2005, the U.S. will provide more than $750 million in funding and 
assistance to address opium production and trafficking in Afghanistan, 
including $257 million in Defense spending.
    In your view, what strategy would be most effective in reducing 
opium production and trafficking in Afghanistan?
    Answer. The growing drug production and trafficking problem in 
Afghanistan is a complex issue. Not knowing the details of the current 
plan, I am unable to say how one might improve it. I do believe that we 
should ensure that we apply the necessary resources to build Afghan 
political and economic institutions capable of withstanding the 
narcotics--as well as other--threats.
    Question. What should the role of the U.S. military forces be in 
the counterdrug program in Afghanistan?
    Answer. I believe that, in general, the U.S. military should be in 
a supporting role in counterdrug programs. With respect to Afghanistan, 
it seems to me that we would want the Afghan security forces to be the 
ones to interact directly with the local population. I believe, 
however, that U.S. military forces can provide support to Afghan law 
enforcement activities with respect to specialized types of assistance 
that might be required.
    Question. What is the appropriate role for coalition nations and 
the larger international community in effectively addressing the 
counterdrug challenge in Afghanistan and the surrounding region?
    Answer. Several of our coalition partners have assumed lead nation 
roles related to the counterdrug challenge. For example, the United 
Kingdom has the overall lead for counternarcotics, and Germany assumed 
the lead for police training. With the help of Congress, this 
administration has increased U.S. support to counterdrug efforts in 
Afghanistan and the surrounding region. Our coalition partners and the 
larger international community must also increase their support. 
Additionally, I can see a larger role for NATO supporting the Afghan 
counterdrug policies and initiatives, especially considering that some 
European allies in particular are affected heavily by the narcotics 
traffic involving Afghanistan.

            DOD'S COOPERATIVE THREAT REDUCTION (CTR) PROGRAM

    Question. The CTR program has several key objectives that include: 
(1) eliminating strategic nuclear weapons; (2) improving the security 
and accounting of nuclear weapons and fissile material; (3) eliminating 
and preventing the proliferation of biological and chemical weapons and 
capabilities; and (4) encouraging military reductions and reforms to 
reduce proliferation threats.
    Do you support the CTR program? If so, how, in your view, has the 
CTR program benefited U.S. national security?
    Answer. I support CTR. CTR is one of the programs that addresses 
poorly guarded WMD, related infrastructure, and delivery systems at 
their sources--primarily in the former Soviet states. CTR is part of 
the administration's ``toolbox'' of options for combating the threat of 
WMD proliferation.
    Question. Do you think the CTR program is well coordinated among 
the U.S. Government agencies that engage in threat reduction efforts in 
Russia, e.g., the State Department and the Department of Energy?
    Answer. From what I have been able to observe, I believe the 
program is well coordinated among the Departments of Defense, State, 
and Energy.
    Question. Do you support expansion of the CTR program and, if so, 
in what geographic areas or areas of work? Please explain.
    Answer. I would support initiatives for CTR to conduct activities 
outside the Former Soviet Union (FSU) in special circumstances. The 
threat posed by residual WMD materials and capabilities is not confined 
to one region.
    Question. How much more needs to be done to reduce the 
proliferation threat from the residual Cold War stockpiles of WMD 
weapons and materials in the former Soviet Union?
    Answer. Even though many ``traditional'' CTR projects are well past 
the half-way point, much remains to be done with respect to both threat 
reduction work (such as mobile missiles) and newly emphasized areas of 
work (such as biological weapons proliferation prevention).
    Question. Are Russia and the former Soviet Union countries making a 
significant contribution to efforts to reduce the proliferation threats 
they inherited?
    Answer. I believe that, overall, the best contribution a CTR 
partner can make is to smooth the mechanics of doing dangerous work in 
that partner's territory that benefits the entire world. I am informed 
that there may be room for Russia to increase its contribution by 
improved facilitation of CTR's work. We appreciate the sensitive 
locations of some CTR projects in Russia, as well as the caution needed 
when working with WMD. But Russia can be very secretive when it comes 
to issues related to national security, and I am aware of the 
complexities and difficulties of working with the Russian bureaucracy 
and security services to conduct the day-to-day business of WMD 
elimination and security.
    Question. What needs to be done to enable agreement between Russia 
and the United States on access and liability issues that continue to 
hamper progress on some CTR programs?
    Answer. The current Government-to-Government Agreement (``CTR 
Umbrella Agreement'') expires in June 2006. It provides needed 
liability protections for CTR activities, exemption of CTR assistance 
from import duties and taxes, as well as other important protections. 
The United States is working hard to resolve issues relating to non-
proliferation programs with Russia in ways that would facilitate 
renewal of the CTR Umbrella Agreement before it expires. I believe it 
is in Russia's long-term interest to be more forthcoming regarding the 
agreements covering all non-proliferation programs.

                      CHEMICAL WEAPONS CONVENTION

    Question. There are significant problems with the management and 
implementation of the DOD chemical weapons demilitarization program. 
Congress has become increasingly concerned that the Department does not 
appear to be on track to eliminate its chemical weapons in accordance 
with the Chemical Weapons Convention timelines.
    What steps is the Department taking to ensure that the U.S. remains 
in compliance with its Treaty obligations for chemical weapons 
destruction?
    Answer. Although this is under the purview of the Under Secretary 
of Defense for Acquisition, Technology, and Logistics, I understand 
that the Department of Defense is assessing possible alternatives that 
may contribute to improving the overall pace of U.S. destruction 
efforts and the specific timing of when we meet our chemical weapons 
destruction obligations. The potential impact on meeting the final 
destruction deadline of April 2012 will not be known until the 
assessments are completed.
    Question. Do you agree that the United States should make every 
effort to meet its treaty commitments, including its obligations under 
the Chemical Weapons Convention?
    Answer. Yes. I understand that that the Department of Defense has 
met all the CWC commitments to date.
    Question. Can you assure the committee that, if confirmed, you will 
focus your personal attention on this matter?
    Answer. Yes.

            UNITED NATIONS CONVENTION ON THE LAW OF THE SEA

    Question. At her confirmation hearing, Secretary of State Rice 
expressed the administration's strong support for the U.N. Convention 
on the Law of Sea and stated that she would work with the Senate 
leadership to bring the Convention to a floor vote during this 
Congress. The Department of Defense has been a strong advocate of the 
Convention, and the Chief of Naval Operations, Admiral Clark, testified 
in favor of its ratification at a SASC hearing last year.
    Do you support U.S. accession to the United Nations Convention on 
the Law of the Sea?
    Answer. Yes. The Convention supports navigational rights critical 
to military operations. These rights are essential to the formulation 
and implementation of our national security strategy.
    Question. Do you believe this treaty is in the national security 
interest of the United States?
    Answer. Yes

                       BALLISTIC MISSILE DEFENSE

    Question. Program Budget Decision 763 (December 2004) directed the 
Missile Defense Agency to reduce funding for the missile defense 
program by $5 billion in years fiscal year 2006-2011. The restructured 
program seeks a balance between near-term fielding and long-term 
development.
    Do you believe the ballistic missile defense program places enough 
emphasis on the near-term fielding of ballistic missile defense 
capabilities for the protection of the United States and its deployed 
forces?
    Answer. It is my understanding that by the end of 2004, the 
Department had fielded the key elements of an initial system to shoot 
down a long-range missile headed toward the United States. At the same 
time, I know that systems intended to protect our deployed forces are 
in the field. In fact, the Patriot Advanced Capability-3 was used 
successfully in Operation Iraqi Freedom.
    National Security Presidential Directive-23, which outlines the 
Nation's missile defense policy, makes clear that we must continue a 
robust research and development effort even once our initial 
capabilities are in place. I agree with this approach. I have not had 
the opportunity to examine in detail the Missile Defense Agency's plan 
to balance near-term fielding with long-term development, but if I am 
confirmed, I will work to ensure that MDA's plans are consistent with 
the approach directed by the President and outlined in NSPD-23.
    Question. The objective of the missile defense program is to 
provide ballistic missile defense against all ranges of missiles, in 
all phases of flight, to protect the U.S. homeland, U.S. forces forward 
deployed, allies and friends.
    How do you believe the Department should prioritize its ballistic 
missile defense policies, programs and efforts so that they address the 
most pressing threats first, while remaining affordable?
    Answer. I agree that the Department ought to balance its missile 
defense efforts to meet the most pressing threats first, and that the 
missile defense program should remain affordable. At the same time, I 
think that any discussion of whether this program is affordable should 
take into account the potential cost to the Nation of suffering a 
ballistic missile attack, especially if that missile were armed with a 
nuclear, chemical, or biological weapon. I have not had the opportunity 
to examine in detail either the intelligence community's threat 
assessments or the Missile Defense Agency's development plan and am 
unable at this time to provide a considered answer on how to set 
priorities. It is my understanding that the long-range missile defense 
capabilities we are in the process of fielding are intended to address 
the most urgent threats, specifically the North Korean threat, and I 
agree with that approach. I do not believe it would be prudent, 
however, to focus our missile defense program so narrowly on the near-
term threat that we find ourselves unable to deal with threats in the 
future. If I am confirmed, I will have the opportunity to consider in 
more detail how that balance ought to be maintained.
    Question. Sec. 234 of the National Defense Authorization Act for 
Fiscal Year 2005 directed the Secretary of Defense, in consultation 
with the Director of Operational Test and Evaluation, to develop 
criteria for operationally realistic testing of fieldable prototypes 
developed under the ballistic missile defense system, and to test each 
block capability using those criteria. The Missile Defense Agency has 
submitted an Integrated Master Test Plan, approved by the Director of 
Operational Test and Evaluation that establishes criteria for 
operationally realistic testing and outlines an aggressive ground and 
flight test schedule through the end of fiscal year 2006.
    Do you agree with the need to ensure operationally realistic 
testing of the ballistic missile defense system? Are you confident that 
the testing plan prepared by MDA will demonstrate the operational 
capability of the system, as appropriate to the technological maturity 
of each block capability to be fielded?
    Answer. While I understand that the Under Secretary of Defense for 
Policy does not have direct responsibility for testing programs, I 
believe that, as with any new and complex system, we ought to conduct 
operationally realistic testing of our missile defense program as soon 
as is appropriate. Although I have not had the opportunity to review 
the Missile Defense Agency's testing plan, I understand that the 
Director of MDA works closely with the Director of Operational Test and 
Evaluation to ensure that our test program is as robust and 
operationally realistic as possible. If confirmed, I will do what I can 
to ensure that this continues to be so. But I would not favor 
withholding a totally new capability that could save large numbers of 
American lives, while waiting for a complete testing regime.

  REORGANIZATION OF THE OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR 
                            POLICY (OUSD(P))

    Question. At the beginning of the Bush administration, Secretary of 
Defense Rumsfeld undertook a major reorganization of the OUSD(P).
    If confirmed, what changes, if any, would you propose to the 
current organization of the OUSD(P)?
    Answer. I have not had an opportunity to study any organizational 
changes that may be under consideration or that may be needed within 
the OUSD(P). It would therefore be premature for me to offer an opinion 
at this time. If confirmed, however, I will study with an open mind any 
organizational changes that appear worthy of consideration and will, if 
appropriate, make corresponding recommendations to the Secretary of 
Defense. In that event I would look forward to consulting with this 
committee on any proposed changes.

                         OVERSEAS BASING PLANS

    Question. With the President's release of the Integrated Global 
Posture Strategy in September 2004, a series of military installations 
around the world were identified as having an ``enduring presence.'' 
These bases and sites will support both the permanent presence of U.S. 
military personnel and units rotating for training. The Department of 
Defense is now in the process of negotiating formal agreements with 
host nations to establish the status of forces, basing arrangements, 
and terms for burdensharing. Many of these agreements will result in a 
substantial investment of funds for new construction of facilities and 
infrastructure to support U.S. operations, either to be funded by the 
host nation or by the United States.
    To ensure a wise use of taxpayer dollars, what types of host nation 
agreements should be completed by the Department of Defense before 
authorization for funds are requested for military construction 
projects and infrastructure repairs in the annual President's budget or 
supplemental appropriations?
    Answer. As a general policy, I believe we should seek agreements 
that include, among other things, provisions for status protections and 
access to and use of host country facilities, as well as acquisition 
and cross-servicing agreements before deploying forces on a regular 
basis to a host country. It is important, however, that once these 
agreements are in place, we are in a position to implement our presence 
plans expeditiously. In some cases, this could require DOD to request 
funds prior to the conclusion of negotiations.
    Question. Does the Department of Defense plan to establish 
installation development master plans that will capture all facility 
requirements, total estimated investment, and anticipated funding 
sources before requesting authorization for funding in the annual 
President's budget or supplemental appropriations?
    Answer. I understand that the Department submitted to Congress 
comprehensive overseas master plans in March of this year and intends 
to update them each year. If confirmed, I would work with Under 
Secretary Krieg and Congress to ensure our plans support Department and 
administration strategic objectives.
    Question. What is the DOD goal to establish burdensharing 
arrangements with host nations in order to minimize the impact to DOD 
budgets?
    Answer. I understand that the Department of Defense's policy is 
that, to the extent it is able, a host nation should contribute to the 
cost of stationing a U.S. presence in its country. The Department has 
longstanding arrangements of this sort with many allies, such as Japan, 
Korea, and Germany, which together host the vast majority of our 
overseas infrastructure. The goal of maximizing host countries' 
contributions is one of the key elements in DOD's negotiating approach 
for future access, facilities, and infrastructure.

                 U.S. FORCE STRUCTURE IN SOUTHWEST ASIA

    Question. As part of the Integrated Global Posture Strategy, the 
Department of Defense recently released a master plan for the CENTCOM 
area of responsibility (AOR) that proposes to establish numerous 
forward operating sites with the permanent presence of thousands of 
U.S. military personnel in various countries throughout the Gulf and 
Southwest Asia. However, in subsequent meetings with various 
representatives of CENTCOM and the Office of the Under Secretary of 
Defense for Policy, there seems to be some disagreement on the number 
of U.S. military personnel that will be stationed and rotated out of 
the AOR.
    If confirmed, how would you work to resolve these types of policy 
differences in opinion between a combatant commander and your office?
    Answer. I am not aware of any specific disagreement on these 
matters; if confirmed, however, I will work to ensure close 
coordination between senior civilian and military officials on such 
issues.
    Question. What are the future challenges for the Under Secretary of 
Defense for Policy to implement the administration's Integrated Global 
Posture Strategy?
    Answer. As with any major initiative, I can envision that a notable 
challenge with respect to Global Defense Posture is ensuring that our 
changes--from conception to consultation and negotiation to 
implementation--continue to be synchronized across the U.S. Government. 
In addition, I believe we must retain the flexibility to adapt our 
defense posture to changes in the strategic landscape, including 
seeking new partnership opportunities.

                     U.S. FORCE STRUCTURE IN TURKEY

    Question. A recent newspaper article quoted Turkey's ambassador to 
the United States as saying, ``The Turkish authorities are now 
considering how Incirlik facilities would continue to be made available 
to the USA,'' said O. Faruk Logoglu, ``We think that there will be an 
agreement . . . soon.''
    What, in your view, is the future for Incirlik Air Force Base in 
Turkey, and specifically our ability to station combat aircraft there?
    Answer. See answer next under.
    Question. If the U.S. is not able to conduct a full spectrum of 
training and operations from Incirlik AFB, what should be the decision 
on the future of the air base?
    Answer. First, one must recognize that Incirlik Air Base is a 
Turkish military facility. As such, all decisions regarding its use, 
both now and in the future, will be made by the Turkish government. For 
50 years, the U.S. has been fortunate to have access to this excellent 
facility, and we are grateful that Turkey has continued to authorize 
such access. Ambassador Logoglu's comment was specifically about use of 
Incirlik for logistics missions.
    In late April, the Turkish government responded favorably to our 
request to use the base at Incirlik as a cargo hub for military and 
commercial aircraft operating to and from Iraq and Afghanistan. This 
new arrangement allows up to 6 U.S. C-17s and 150 personnel, on a 
temporary and rotational basis, to use Incirlik as a hub to transport 
non-lethal supplies to these two countries.
    Regarding future stationing of U.S. combat aircraft at Incirlik, 
the U.S. has not made such a request to the Turkish government. This 
point was clearly articulated by Under Secretary Feith during his visit 
to Turkey this past February. Incirlik remains a valuable facility. 
Discussions are now underway for possible training opportunities that 
would benefit both countries.

                            CHINESE MILITARY

    Question. What do you believe are the objectives of the Chinese 
military modernization program?
    Answer. Chinese People's Liberation Army (PLA) modernization 
appears to involve broad transformation across the military 
establishment, including equipment, organization, doctrine, training, 
and personnel. From what I have read, the near-term focus of PLA 
modernization appears to be oriented on building capabilities to 
prevent moves towards permanent separation by Taiwan, or to erode 
Taiwan's will to resist, paving the way for a negotiated settlement of 
the cross-Strait dispute on Beijing's terms. A second set of 
objectives, no less important, is to develop the capabilities to deter, 
delay, or degrade potential third-party intervention in any conflict, 
particularly a conflict over Taiwan.
    Question. What do you believe are the Chinese political-military 
objectives regarding Taiwan, the Asia-Pacific region, and globally?
    Answer. China seeks to accomplish political unification with 
Taiwan. It would prefer to do so peacefully, allowing economic 
integration eventually to absorb Taiwan, but is developing military 
capabilities that would allow China to impose a non-peaceful 
resolution. Within the Asia-Pacific region, China appears to be 
positioning itself to compete with the United States, Japan, and India 
for political and economic access and influence. Globally, China's 
engagement is structured to support its increasing demands for critical 
resources, secure lines of communication, and access to technology to 
sustain economic growth and development. We are witnessing elements of 
this strategy in China's relationships with Sudan, Iran, and Venezuela.
    Question. How do you believe the United States should respond to 
the Chinese military modernization program?
    Answer. We should continue to monitor closely China's military 
modernization, while continuing to push Beijing for greater 
transparency and openness. At the same time, and in accordance with the 
Taiwan Relations Act, the United States should continue its policies of 
maintaining our capabilities to resist Chinese use of force or coercion 
against Taiwan and of providing Taiwan such assistance as required to 
maintain a self-defense capability.
    Overall, our strategy should be designed to preserve peace and 
stability in the Asia-Pacific region and elsewhere. Rather than 
focusing on single countries, whether they be North Korea, China, or 
any other country, our strategy should be flexible and supported by 
continued transformation of the U.S. military.
    Key to this transformation are maintaining a global presence, and 
strengthening our alliances and partnerships in the region and the 
world. In describing U.S. defense transformation, President Bush said, 
``we will ensure that we place the right capabilities in the most 
appropriate locations to best address the new security environment.''
    Question. Our current military-to-military relations with the 
Chinese have been described by defense officials as ``modest.''
    Do you believe that we should make any changes in the quality or 
quantity of our military relations with China? If so, what changes and 
why?
    Answer. I believe our military-to-military relationship with China 
should be based on reciprocity. The success of our military 
relationship with China cannot be measured by the quantity of exchanges 
alone. We should seek interactions that improve the quality of 
exchanges in order to build trust and transparency, and to ensure that 
the Chinese military, at various levels, understands U.S. military 
capabilities and political resolve.
    In addition, uncertainty about China's future should be taken into 
account when planning our defense exchanges. I believe it is important 
that we maintain our interaction, but we should be realistic about what 
to expect from our exchanges with the Chinese military.

                         TREATMENT OF DETAINEES

    Question. The Ronald W. Reagan National Defense Authorization Act 
of Fiscal Year 2005 sets out that it is U.S. policy ``to ensure that no 
detainee shall be subject to torture or cruel, inhuman, or degrading 
treatment or punishment that is prohibited by the Constitution, laws or 
treaties of the United States.''
    What is your understanding of the responsibility of the Department 
of Defense to ensure that the Constitution, laws, and treaty 
obligations of the United States that prohibit the torture or cruel, 
inhuman, or degrading treatment or punishment of persons held in U.S. 
custody are adhered to by those elements of DOD that are involved in 
detention and interrogation operations?
    Answer. If confirmed as the Under Secretary of Defense for Policy, 
I believe that it would be my duty to ensure that DOD policy is 
consistent with legal requirements set forth in the Constitution, laws, 
and treaty obligations of the United States.
    Furthermore, I believe that the Department has an obligation to 
investigate all credible claims of maltreatment or abuse of detainees, 
and, as appropriate, to hold accountable personnel who commit these 
acts.
    Question. What is your understanding of the role and responsibility 
of the Under Secretary of Defense for Policy on this issue?
    Answer. Detainee operations are a critical mission of the 
Department. It is my understanding that the Under Secretary of Defense 
for Policy serves as the Secretary's principal advisor on the 
development of policy for detainee operations. If confirmed:

        <bullet> I would work with the DOD General Counsel to ensure 
        the Department's policies on detainee operations remain 
        consistent with all the obligations set forth in the 
        Constitution, applicable laws, and treaty obligations of the 
        United States.
        <bullet> I would ensure that my staff continued to work closely 
        with all elements of the Department and other departments and 
        agencies to develop policy regarding detainee operations and to 
        assist the Department in planning for future DOD detention 
        operations, including continuing operations in Guantanamo, 
        Afghanistan, and Iraq;
        <bullet> I would closely coordinate with the combatant 
        commanders to ensure commanders in the field and at DOD 
        detention facilities have all necessary guidance for mission 
        success;
        <bullet> I would continue the department's robust dialogue with 
        the ICRC, which serves our mutual interests in improving 
        detention operations.
        <bullet> I would ensure that my staff and I continue to keep 
        members of the committee informed of the status of detainee 
        operations.

                         NUCLEAR POSTURE REVIEW

    Question. The committee understands that the Defense Department 
intends to review nuclear forces as part of the Quadrennial Defense 
Review (QDR) now underway.
    Would such a review of nuclear forces as part of the QDR take the 
form of an update to the Nuclear Posture Review issued in 2001?
    Answer. At this point, I am not familiar with the details of the 
QDR that is currently underway, but I expect that the QDR would deal 
with some issues associated with implementing the Nuclear Posture 
Review (NPR), rather than changing the basic NPR strategy.
    Question. Would you expect such an effort to include a review of 
the size of the nuclear weapons stockpile and a review of the number 
and type of nuclear weapons delivery platforms?
    Answer. Again, I am not familiar with the details of the QDR at 
this point. I understand that the Department of Defense reviews the 
size and composition of the stockpile periodically. The President has 
stated he wants to reduce U.S. nuclear weapons to the lowest level 
consistent with our national security needs, including our obligations 
to our allies. I understand that the Nuclear Posture Review has 
resulted in force posture and stockpile reductions to carry out the 
President's guidance. I also understand that the NPR directed periodic 
reviews to be conducted to assess progress on planned reductions and 
recommend adjustments if necessary.

                      DEFENSE SCIENCE BOARD STUDY

    Question. The Defense Science Board recently established a Task 
Force on Nuclear Capabilities to assess the current plan for sustaining 
the nuclear weapons stockpile and make recommendations for ensuring the 
future reliability, safety, security, and relevance of the nuclear 
weapons stockpile for the 21st century. The study on these issues to be 
issued by the task force is sponsored jointly by the Under Secretary of 
Defense for Acquisition, Technology, and Logistics and by the Assistant 
to the Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs.
    If confirmed, what input would you expect to have into this study?
    Answer. There are both technical and policy issues associated with 
such a review of the future U.S. nuclear stockpile. I would expect that 
the Office of the Under Secretary of Defense for Policy would be 
consulted regarding planning assumptions for, and interim results of, 
this study. If confirmed, I intend to become familiar with these 
important issues and work constructively with the appropriate offices 
to help ensure the continued reliability, safety and security of our 
nuclear stockpile.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Policy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

                     TURKEY'S ROLE IN THE COALITION

    1. Senator Warner. Ambassador Edelman, as you are aware from your 
experience as the U.S. Ambassador to Turkey, Turkey is increasingly 
concerned about the growing strength of Kurdish Guerillas (the PKK) who 
are infiltrating Turkey from northern Iraq. On his recent visit to the 
United States, the Turkish Prime Minister sought U.S. assistance in 
defeating those terrorists. What is the U.S. view of this problem both 
with respect to how it relates to the ongoing Coalition operations in 
Iraq, and how significant a national security challenge this terrorist 
group poses to Turkey?
    Ambassador Edelman. There have been increased PKK attacks in Turkey 
and the PKK terrorist group remains an important concern for Turkey. 
The U.S. continues our staunch support for Turkey in its fight against 
the PKK. We also remain committed to our pledge that Iraq will not be a 
base for terrorist operations against Turkey.

    2. Senator Warner. Ambassador Edelman, more broadly, is Turkey 
playing a constructive role with respect to supporting coalition 
stability and reconstruction efforts in Iraq?
    Ambassador Edelman. Turkey supports a Ground Line of Communication 
through Turkey which re-supplies U.S. forces and allows a substantial 
volume of commercial products and reconstruction materials to flow 
through. The amount of fuel, coalition supplies and humanitarian goods 
which transit Turkey have made an important difference. Turkey also 
pledged $50 million to Iraq reconstruction at the Madrid Donor's 
Conference.

    3. Senator Warner. Ambassador Edelman, we were extremely 
disappointed that Turkey did not permit coalition forces to enter Iraq 
through the north when this operation began. Is Turkey supporting the 
coalition effort in other ways at this time?
    Ambassador Edelman. Turkey has recently approved U.S. use of 
Incirlik Air Force Base for logistical support operations for both OIF 
and OEF. Turkey opened an important dialogue with Iraqi PM Jaafari in 
Ankara during his first trip outside of Iraq. Additionally, Turkey's 
consistent support for Iraq's Transitional Government sent a strong 
message to the world community.
                                 ______
                                 
                Question Submitted by Senator Carl Levin

                      COMMUNICATIONS TO THE PRESS

    4. Senator Levin. Were you aware of any communications with the 
press regarding Ambassador Joseph Wilson's wife and the role that she 
played in his trip to Africa prior to the publication of information on 
this subject in July 2003? Did you participate in any such 
communications or in any discussions regarding such communications 
prior to publication?
    Ambassador Edelman. I departed my position in the Office of the 
Vice President at the White House on June 6, 2003. I was not aware of 
any communications with the press regarding Ambassador Joseph Wilson's 
wife and the role that she played in his trip to Africa prior to the 
publication of information on this subject in July 2003. I did not 
participate in any communications with the press on this subject at any 
time. I did not participate in any discussions regarding such 
communications prior to publication, except as follows: After some 
press stories related to this matter appeared in May-June 2003, I did 
discuss with colleagues the importance of correcting incorrect press 
reports suggesting that Vice President Cheney had requested Ambassador 
Wilson to make his trip to Africa.
                                 ______
                                 
    [The nomination reference of Eric S. Edelman follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 16, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Eric S. Edelman, of Virginia, to be Under Secretary of Defense for 
Policy, vice Douglas Jay Feith.
                                 ______
                                 
    [The biographical sketch of Eric S. Edelman, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of Eric Steven Edelman

    On July 22, 2003, Vice President Richard B. Cheney administered the 
oath of office to Ambassador Eric Edelman as Ambassador to the Republic 
of Turkey. From February 2001 to June 2003, he was Principal Deputy 
Assistant to the Vice President for National Security Affairs. Prior to 
being assigned to the Office of the Vice President, he was Ambassador 
to the Republic of Finland, 1998-2001. From June 1996 to July 1998, he 
served as Executive Assistant to the Deputy Secretary of State. Mr. 
Edelman was Deputy Chief of Mission at the U.S. Embassy, Prague, Czech 
Republic, from June 1994 to June 1996.
    From April 1993 to July 1993, he served as Deputy to the 
Ambassador-at-Large and Special Advisor to the Secretary of State on 
the New Independent States. Mr. Edelman's areas of responsibility were 
defense, security and space issues.
    Mr. Edelman served as Assistant Deputy Under Secretary of Defense 
for Soviet and East European Affairs in the Office of the Secretary of 
Defense (OSD) from April 1990 to April 1993.
    From April 1989 to March 1990, he was Special Assistant (European 
Affairs) to the Under Secretary of State for Political Affairs.
    Mr. Edelman served at the U.S. Embassy in Moscow 1987-1989, where 
he was head of the external political section. He had responsibility 
for Soviet policies in the third world in the Office of Soviet Affairs 
at the Department of State from 1984 to 1986.
    Previously, Mr. Edelman served as Special Assistant to Secretary of 
State George P. Shultz, 1982-1984; a staff officer on the Secretariat 
Staff, 1982; a watch officer in the State Department Operations Center 
1981-1982; and a member of the U.S. Middle East Delegation to the West 
Bank/Gaza Autonomy Talks Delegations, 1980-1981.
    A career Foreign Service Officer, Mr. Edelman entered the Senior 
Foreign Service in 1992. He is a recipient of the Secretary of 
Defense's award for Distinguished Civilian Service (1993) and the State 
Department's Superior Honor Award (1990 and 1996).
    Mr. Edelman received a B.A. in History and Government from Cornell 
University in 1972, and a Ph.D. in U.S. Diplomatic History from Yale 
University in 1981.
    Ambassador Edelman is married to the former Patricia Davis and they 
have four children: Alexander, Stephanie, Terence, and Robert.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Eric S. 
Edelman in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Eric Steven Edelman.

    2. Position to which nominated:
    Under Secretary of Defense for Policy.

    3. Date of nomination:
    16 May 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 27, 1951; Baltimore, Maryland.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Patricia Lee Davis.

    7. Names and ages of children:
    Alexander, 20; Stephanie, 15; Terence, 13; Robert, 11.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Cornell University - BA (1972).
    Yale University - MA (1973); MPil (1975); PhD (1981).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Foreign Service Association (AFSA).
    Society for Historians of American Foreign Relations (SHAFR).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    1972-1973 - Elected Member Monmouth County (New Jersey) Democratic 
Committee.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Eric Edelman - Committee to Elect Marc Edelman - $500 - March 10, 
2005, League City, Texas City Council (Non-partisan election).

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    State Department Superior Honor Awards - 1989 (Group Award), 1990, 
1996 Department of Defense Distingished Civilian Service Award - 
January 1993.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Eric S. Edelman.
    This 18th day of May 2005.

    [The nomination of Eric S. Edelman was reported to the 
Senate by Chairman Warner on July 29, 2005, with the 
recommendation that the nomination be confirmed. He received a 
recess appointment as Under Secretary of Defense for Policy on 
August 9, 2005. The nomination was confirmed by the Senate on 
February 9, 2006.]
                              ----------                              

    [Prepared questions submitted to Daniel R. Stanley by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the full implementation of these reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been fully and successfully 
implemented.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I consider the strengthening of the role of the Combatant 
Command to be the most important aspect of these defense reforms. In my 
view, virtually all of the attributes of ``Jointness'' are a result of 
the enhanced role of the combatant commanders.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations reforms can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense (DOD).
    Do you agree with these goals?
    Answer. Yes.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be necessary to address in these proposals?
    Answer. The results of the Quadrennial Review may conclude that 
certain aspects of Goldwater-Nichols need to be revised or adjusted, 
however, it would be premature for me to speculate. Should this be the 
case, and should I be confirmed, I would work closely with this 
committee and Congress to provide witnesses, briefings, and the 
necessary information so Congress can make an informed judgment 
regarding any proposed changes the Department of Defense may advocate.

                                 DUTIES

    Question. Section 138 of title 10, United States Code, and DOD 
Directive 5142.1, provide that the principal duty of the Assistant 
Secretary of Defense for Legislative Affairs is the overall supervision 
of legislative affairs of the Department of Defense. Additionally, 
among other responsibilities, the Assistant Secretary of Defense for 
Legislative Affairs is required to provide advice and assistance 
concerning congressional aspects of DOD policies, plans, and programs; 
to coordinate actions relating to congressional consideration of the 
DOD legislative program; and to coordinate responses to congressional 
inquiries.
    Should you be confirmed as the Assistant Secretary of Defense for 
Legislative Affairs, what would you view as your principal 
responsibilities to the Secretary of Defense?
    Answer. If confirmed, my primary responsibility to the Secretary 
would be to keep him informed on all major congressional actions, 
requests, concerns, and initiatives on matters of import to the 
Secretary and the Department of Defense.
    Question. Assuming you are confirmed, what other duties do you 
expect that Secretary Rumsfeld will prescribe for you?
    Answer. If confirmed, I expect Secretary Rumsfeld to charge me with 
the responsibility of ensuring that the Department's liaison with 
Congress is effective, responsive, user and customer friendly, and to 
ensure the Department's goals and priorities are properly articulated.

                             RELATIONSHIPS

    Question. If confirmed, what would be your relationship with:
    The Secretary of Defense.
    Answer. If confirmed, I will function as the principal assistant to 
the Secretary on congressional matters. Under the Secretary's 
direction, I will be responsible for coordination of the DOD 
legislative program, liaison with Congress, participation of 
departmental witnesses in congressional hearings, responses to 
congressional inquiries, and DOD support of congressional travel.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would have a similar relationship with the 
Deputy Secretary of Defense.
    Question. The Under Secretaries and Assistant Secretaries of 
Defense.
    Answer. If confirmed, my relationship with the Under Secretaries of 
Defense and the Assistant Secretaries will be to serve as the principal 
advisor regarding liaison and communications with Congress.
    Question. The General Counsel of the Department of Defense.
    Answer. If confirmed, I would work closely with the General Counsel 
to ensure responsiveness in matters of congressional interest and to 
expedite their coordination on legislation proposed by the Department. 
In addition, I would help identify legal issues inherent in legislative 
matters and obtain the views and recommendations of the General 
Counsel.
    Question. The Inspector General of the Department of Defense.
    Answer. I would exercise no authority or control over the DOD 
Inspector General. If confirmed, I would be fully cooperative and 
supportive of the IG's mission.
    Question. The chiefs of legislative affairs of the military 
services.
    Answer. If confirmed, I would routinely meet with the chiefs of 
legislative affairs of the military services to coordinate the 
Department's liaison mission, and ensure responsiveness to this 
committee and Congress. By DOD Directive, ultimate responsibility for 
supervision of legislative liaison activities throughout the Department 
is vested in the Assistant Secretary of Defense for Legislative 
Affairs. I would work closely with the legislative affairs offices of 
the military services to foster a climate of effective cooperation and 
support.
    Question. The legislative assistant to the Chairman of the Joint 
Chiefs of Staff?
    Answer. If confirmed, I would routinely meet with the legislative 
assistant to the Chairman so as to coordinate the Department's liaison 
mission and ensure responsiveness to this committee and Congress.
    Question. The Defense Agencies.
    Answer. If confirmed, I would provide overall guidance to the 
individual Defense Agencies with respect to the Department's 
legislative issues. I would routinely meet with the legislative 
assistants to the various Defense Agencies to ensure the Agencies 
understand the Department's initiatives, the Secretary's position, and 
to ensure they are responsive to congressional inquiries.
    Question. Within the Office of the Secretary of Defense, the 
Defense Agencies and the combatant commands, there are numerous offices 
which have their own congressional liaison personnel.
    What would you do to ensure that your office is the focal point for 
all of the Department of Defense for dealing with Congress and that all 
DOD legislative affairs personnel are responsive to Congress?
    Answer. The Secretary and the acting Deputy Secretary have directed 
me, if I am confirmed, to develop and implement recommendations to 
ensure that the legislative affairs operations of the Department of 
Defense are better coordinated, more responsive, and customer friendly.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Defense for Legislative Affairs?
    Answer. The principle challenge is to ensure that critical 
information is provided to Congress in a timely and useful manner. 
Congress should not be in a position of reading or hearing about 
important issues in the media. The second challenge is providing 
timely, valuable advice to the Secretary, Deputy Secretary, and the key 
principals about congressional issues, concerns, or requests.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would first evaluate the entire legislative 
affairs organization(s) in the Department to ensure that these 
activities are properly organized and coordinated to meet the title 10 
responsibilities extended to this position. I would propose 
organizational or procedural changes to the Secretary and Deputy 
Secretary where or if required.
    Question. What do you consider to be the most serious problems in 
the Office of the Secretary of Defense's relationship with Congress?
    Answer. Timeliness of information and notification.
    Question. What do you consider to be the most serious problems in 
the military services' relationship with Congress?
    Answer. It varies from Service to Service. In some cases there is a 
problem with timeliness of the information, in some instances it is the 
accuracy of the information provided. On balance, I believe that the 
military services' relations with Congress are sound.
    Question. If confirmed, what management actions and timetables 
would you establish to address these problems?
    Answer. If confirmed, I would ``communicate, communicate, and 
communicate.'' It is vital to emphasize the importance of a cooperative 
relationship with this committee and Congress, that the Department 
needs to be as responsive as possible, and that the accuracy of 
information is critical to maintaining a cooperative relationship. I 
would establish routine meetings with each of the legislative affairs 
operations within the Department and stress these principles at every 
meeting. In addition, if confirmed, I will immediately review all 
aspects of the Department's legislative liaison operations to ensure 
that we have the right organizational arrangements, the right processes 
and procedures, and a common understanding of how this Department will 
conduct legislative affairs with this committee and Congress.

              ROLE OF CONGRESS IN NATIONAL SECURITY POLICY

    Question. In your opinion, what is the role of Congress in setting 
national security policy?
    Answer. Article I, Section 8 of the Constitution grants Congress 
the power to raise armies and maintain a Navy. This specific power, 
along with the power to appropriate funds for these purposes, as well 
as the power to ratify treaties establishes that Congress has a shared 
responsibility with the executive branch in setting national security 
policy.

               LIAISON WITH THE APPROPRIATIONS COMMITTEE

    Question. The liaison with the Appropriations Committees is 
primarily carried out through the Office of the Under Secretary of 
Defense, Comptroller, not through the Office of the Assistant Secretary 
of Defense for Legislative Affairs.
    Do you believe that this arrangement allows you to carry out your 
responsibilities under section 138 of title 10, United States Code?
    Answer. If confirmed, I would have a cooperative relationship with 
both the Under Secretary of Defense (Comptroller) and the 
Appropriations Committees. I would coordinate closely with the 
Comptroller's office on all matters and issues of interest to Congress 
and would include Comptroller staff in my daily staff meetings. I 
believe this arrangement would allow me to carry out the 
responsibilities under section 138 of title 10, USC.
    Question. Based on your experience, does the fact that there are 
two separate offices within the Office of the Secretary of Defense 
dealing with Congress create problems?
    Answer. As with any organizational function that is bifurcated in 
such a manner, this arrangement is not optimal. With that said, in my 
experience, the Offices of Legislative Affairs and the Offices of the 
Comptroller are committed to working together to support the 
Department's mission and goals. Frequent coordination has been the 
routine and will continue if I'm confirmed.
    Do you believe that the current practice of a separate liaison 
between the Appropriations Committees, the Office of the Secretary of 
Defense, and the budget offices of the military services should be 
continued or should all legislative affairs activities be consolidated 
under the Assistant Secretary of Defense for Legislative Affairs?
    Answer. If confirmed, and in consultation with the Defense 
Oversight Committees, this is something that I would examine and 
analyze. I believe that Congress does and should have significant input 
on how the Department liaisons with Congress.
    Question. If confirmed, what do you anticipate would be your 
relationship with the Appropriations Committees?
    Answer. If confirmed, I would anticipate my relationship would be 
cooperative, supportive, and responsive. No modification of the current 
organizational relationship would be made without the support of the 
Defense Oversight Committees.

             CONGRESSIONAL LIAISON PERSONNEL THROUGHOUT DOD

    Question. The requirements for information from congressional 
committees and offices has grown, and, as stated above, Defense 
Agencies and directorates and individual commands within the Services 
have personnel performing full-time congressional liaison functions. A 
former Assistant Secretary for Legislative Affairs estimated that there 
were 300 to 400 individuals in DOD that, as part of their official 
capacity, have some dealings with Congress.
    How many individuals currently perform legislative liaison 
functions in your office and throughout DOD today?
    Answer. There are currently 16 individuals whose primary 
responsibility is direct liaison with Congress. There are additional 
administrative and support personnel, interns, and contractors who 
support various internal functions. Our current personnel total is 32. 
As for the entire DOD, there are hundreds of individuals who have some 
dealings with Congress. The last count for which I am aware put the 
number at between 400 and 600.
    Question. What are your views regarding the optimal organization 
and numbers of personnel assigned throughout the Department for the 
Assistant Secretary of Legislative Affairs to carry out his or her 
assigned responsibilities?
    Answer. If confirmed, I intend to specifically address this 
question and act, if necessary, to organize the Office of Legislative 
Affairs in a manner that supports my title 10 responsibilities, meets 
the expectations and needs of Congress, and provides the Secretary and 
Deputy Secretary of Defense with the critical information and advice 
they require.

               PROVIDING CONGRESS WITH TIMELY INFORMATION

    Question. If confirmed, what steps would you take to ensure that 
the appropriate congressional officials and committees are provided 
with timely notification and relevant information concerning 
international crises, the use of United States military forces, and 
incidents involving Department of Defense personnel and equipment?
    Answer. Clearly, the Department needs to do a better job of this. 
If confirmed, this will be my top priority. I will discuss this matter 
with the Secretary and all senior leadership of the Department to 
emphasize the importance of timely notification and providing relevant 
information to this committee and Congress.
    Question. Late submission of legislative proposals by DOD to 
Congress for consideration as part of the annual defense authorization 
act formulation has been a chronic problem. Legislative proposals and 
initiatives which require substantial review and in many cases, 
testimony and discussion at annual posture hearings in February and 
March, all too often have been forwarded to Congress too late for 
appropriate action.
    Based on your experience in the Department, what do you consider to 
be the reasons for the inability of DOD to provide Congress with all of 
its legislative proposals at the same time as submission of the 
President's annual budget?
    Answer. Based upon my experience, this problem is due to lack of 
management emphasis throughout the Department of Defense. The 
submission process occurs too late in the year to meet the timelines of 
the budget submission and lacks discipline with regard to what 
proposals are forwarded for consideration.
    Question. If confirmed, what actions would you take to improve the 
Department's performance in providing timely legislative initiatives to 
Congress?
    Answer. If confirmed, I would immediately address the timeline for 
submission of legislative proposals with appropriate officials within 
the Department. I would also address this matter with the Office of 
Management and Budget. Starting the process earlier in the year to 
provide the system adequate time to evaluate and approve the proposals 
is part of the solution. I would make more timely submissions of 
legislative proposals to Congress a priority.
    Question. Late submission of written statements by high ranking 
officials in the Department of Defense for scheduled hearings has 
become a matter of concern. This practice is in contravention of 
committee rules and adversely affects the ability of Senators to 
properly prepare and exercise oversight.
    What recommendations do you have for addressing this problem?
    Answer. If confirmed, I would ask the Secretary and the Deputy 
Secretary to reiterate guidance as to the expectations of the 
committee, the committee rules, and to reinforce their expectation that 
these rules are to be respected and complied with. I would also 
emphasize this with all witnesses whom I would assist in preparing 
testimony.
    Question. If confirmed, what actions would you take to improve the 
Department's performance in providing timely submission of written 
statements for hearings?
    Answer. If confirmed, I would, as frequently as necessary, remind 
Department leaders of the committee rules and their expectations that 
these rules be respected.
       monitoring legislation affecting the department of defense
    Question. The Committees on Armed Services of the Senate and the 
House of Representatives have principal oversight responsibility in 
Congress for Department of Defense activities. However, there is a 
great deal of legislation considered by other congressional committees 
that specifically affects the Department of Defense or that affects 
government agencies in general and which may have a substantial impact 
on the Department of Defense.
    If confirmed, what steps would you establish to ensure that you and 
the Secretary of Defense are kept informed of all legislation that may 
have an impact on the Department of Defense?
    Answer. Maintaining an understanding of congressional interests, 
the flow of legislation, and topics that may impact the Department is a 
key function of the Office of Legislative Affairs. Sources of this 
information are numerous and varied; the best of which is frequent 
contact with members and staff. If confirmed, I would ensure that my 
staff would be alert to legislative initiatives that may emanate from 
other committees.
    Question. If confirmed, would you ensure that the Committees on 
Armed Services are alerted to all legislative matters of interest to 
the Department in a timely manner?
    Answer. Yes.

                              NOMINATIONS

    Question. If confirmed, what role would you, as Assistant Secretary 
of Defense for Legislative Affairs, expect to play in the military and 
civilian nomination process?
    Answer. If confirmed, I would expect to play a primary role in 
preparing civilian nominations for confirmation, and a primary support 
role to the Chairman of the Joint Chiefs and the Services in preparing 
military nominations for confirmation. In addition, my staff and I will 
track nominations closely and ensure the Committee is made aware of all 
relevant information.

           MANAGEMENT OF THE CONGRESSIONAL FELLOWSHIP PROGRAM

    Question. What are your personal views on the value of the 
legislative fellowship program within the Department of Defense? 
Specifically, in your opinion, is the dedication of military officers 
and civilian employees to legislative fellowships warranted?
    Answer. In those cases where members have little or no personal 
experience with the military, I believe the Fellowship Program provides 
an enormous benefit to the Member. In any case, this program provides 
an extraordinary educational experience for military officers and 
civilian employees. In my view, there is a difficult balance to 
maintain. Secretary Rumsfeld believes very strongly that military 
people should be doing military things--this concept is important to 
maximizing efficiencies. This must be balanced with the advantages of 
providing Congress important insights that can be gained through daily 
interaction with Military Fellows and the educational value of such a 
tour to the broadening and development of our officer corps.
    Question. While the assignment of legislative fellows following 
their fellowships is a service responsibility, what is your assessment 
of the manner in which the experience gained by legislative fellows has 
been used?
    Answer. The post fellowship utilization tour management has been 
spotty at best. In my view, a more defined process should be in place 
that more quickly takes a fellow from the Hill into a legislative 
affairs component in the DOD. A fellowship tour should be considered a 
3-year tour--1 year working in a congressional office or committee and 
2 years follow-on in legislative affairs. I believe that such a program 
would enhance the experience for the officer and provide better value 
to the Department and to the military services.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Legislative Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Question Submitted by Senator John McCain

               RESPONSIVENESS TO CONGRESSIONAL OVERSIGHT

    1. Senator McCain. Mr. Stanley, often over the last 3 years the 
communication from the Department on matters concerning the Boeing 
Tanker Lease plan have been less than satisfactory. The DOD Inspector 
General in the Management Accountability Review of the Tanker Program 
cited that the responses to several letters from Congress were ``not 
timely'' and ``could have been improved by a more comprehensive 
answer.'' The Department's poor responsiveness as well as thoroughness 
only increased the aggravation in Congress with the Department's 
handling of the problem. In your advance questions you stated that ``I 
expect Secretary Rumsfeld to charge me with the responsibility of 
ensuring that the Department's liaison with Congress is effective, 
responsive, user and customer friendly.'' What actions do you intend to 
take to ensure you accomplish the Secretary's charge?
    Mr. Stanley. I agree that the Department's timeliness and the 
thoroughness of its communication to Congress in the case of the Boeing 
Tanker Lease plan over the past 3 years was, in too many instances 
abysmal and far below the standards I would tolerate if confirmed. I 
view timely response to congressional correspondence as a core function 
of legislative affairs. While this organization is not often tasked as 
the respondent to congressional inquiries and letters, we do have a 
responsibility to ensure a timely and proper response by those who are 
tasked. If confirmed, I will personally manage the congressional 
correspondence function, I will insist on timely responses, and I will 
establish a tracking mechanism that provides visibility to me and to 
the Secretary of all congressional correspondence that is sent to the 
Secretary or Deputy Secretary of Defense.
                                 ______
                                 
    [The nomination reference of Daniel R. Stanley follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 16, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Daniel R. Stanley, of Kansas, to be an Assistant Secretary of 
Defense, vice Powell A. Moore.
                                 ______
                                 
    [The biographical sketch of Daniel R. Stanley, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Daniel R. Stanley

    Daniel Stanley serves concurrently as the acting Assistant 
Secretary of Defense for Legislative Affairs and as Principal Deputy 
Assistant Secretary of Defense for Legislative Affairs. He is 
responsible to the Secretary of Defense for all legislative 
coordination between the Department of Defense and the United States 
Congress. He leads the legislative affairs staff and supervises the 
overall operations of the office. Prior to this position, Mr. Stanley 
served as Deputy Assistant Secretary of Defense for Senate Affairs.
    Mr. Stanley previously served concurrently as the Principal Deputy 
Assistant Secretary of the Army (Manpower and Reserve Affairs) and the 
Deputy Assistant Secretary of the Army for Training, Readiness, and 
Mobilization). He was responsible for secretariat oversight for all 
aspects of Army training and readiness and all issues pertaining to the 
National Guard and Army Reserves. He was also responsible for reviewing 
the mobilization and deployment of Reserve Forces in support of 
operational missions.
    Additionally, Mr. Stanley served as Secretary of Administration for 
the State of Kansas, the senior member of the Governor's cabinet and 
chief operating officer for the government. He provided leadership and 
oversight for nine divisions including human resources, 
telecommunications, procurement, accounting and financials, all State 
owned and leased facilities. During his tenure, Kansas achieved 
national recognition for innovation in excellence in human resources, 
facilities management, and information technology management.
    Among the 28 boards and commissions on which Mr. Stanley served, he 
chaired the Capital Area Plaza Authority, the Public Building 
Commission, the Information Technology Executive Council, and the 
Kansas State Employee's Health Care Commission.
    Prior to his appointment as Secretary of Administration, Mr. 
Stanley served as Administrative Assistant, Legislative Director, and 
Defense Policy Advisor to Senator Bob Dole. As a member of the Arms 
Control Observer Group staff, Mr. Stanley was a member of the first 
congressional delegation to Berlin after the fall of The Wall, 
monitored START and, Defense and Space Talks negotiation, as well as 
the Chemical/Biological Treaty negotiations. In addition, Mr. Stanley 
staffed all defense authorization and appropriations bills for the 
Republican Leader and provided coordination with defense, committees of 
oversight as well as with the services and the Department of Defense. 
He staffed Senator Dole during three rounds of Base Closure and 
Realignment, Operations Desert Shield/Desert Storm, and served as 
Senator Dole's advisor for major defense procurement initiatives and 
force structure realignments.
    From 1985 to 1987 Mr. Stanley served in various positions with the 
McDonnell Douglas Corporation including Director of Strategic Planning.
    A veteran of the submarine force, Mr. Stanley enlisted in the Navy 
in 1973, and was commissioned in 1980. He served aboard the U.S.S. 
Batfish and the U.S.S. Woodrow Wilson. Additionally, he served with the 
Joint Chiefs of Staff in the Pentagon and was responsible for strategic 
communications systems linking the National Command Authority to the 
nuclear forces. Mr. Stanley retired from the Naval Reserve in 1996 with 
the rank of commander. He is a recipient of the Meritorious Service 
Medal, the Joint Commendation Medal among other awards.
    A fifth generation Kansan and native of Kansas City, Kansas, Daniel 
Stanley graduated from the State University of New York Empire State 
College with a degree in nuclear technology. He also attended the 
University of Kansas and the Armed Forces Staff College.
    Mr. Stanley is married to Kay Coles and resides in Falls Church, 
Virginia.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Daniel R. 
Stanley in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Daniel R. Stanley (Dan).

    2. Position to which nominated:
    Assistant Secretary of Defense for Legislative Affairs.

    3. Date of nomination:
    May 16, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 29, 1951; Kansas City, Kansas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Kay Ann Coles.

    7. Names and ages of children:
    Elizabeth Lynam, 35; 2LT Daniel Stanley, Jr., USA, 27.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Kansas, 1970-1973.
    Empire State College, 1975-1979; BS; November 1979.
    Armed Forces Staff College, Command and Control Course, 1983.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2/2005-Present - Acting Assistant Secretary of Defense (Legislative 
Affairs), Department of Defense, Washington, DC.
    1/2003-Present - Principal Deputy Assistant Secretary of Defense 
(Legislative Affairs), Department of Defense, Washington, DC.
    4/2002-12/2002 - Deputy Assistant Secretary of Defense (Senate 
Affairs), Department of Defense, Washington, DC.
    9/2001-3/2002 - Deputy Assistant Secretary of the Army (Training, 
Readiness, and Mobilization) and concurrently Principal Deputy 
Assistant Secretary of the Army (Manpower and Reserve Affairs), 
Department of the Army, Washington, DC.
    11/1996-8/2001 - Secretary of Administration, State of Kansas, 
Topeka, Kansas.
    11/1989-10/1996 - Office of Senator Bob Dole, United States Senate, 
Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Chairman, Kansas Health Care Commission.
    Chairman, Information Technology Executive Council.
    Chairman, Capital Area Plaza Authority.
    Chairman, Topeka Public Building Commission.
    Chairman, Governor's Task Force on Work Force Development.
    City Council Member, 5th District, Topeka, Kansas.
    Executive Board, Kansas Military History Magazine.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Partner, Scott Stanley Real Estate and Investment Corporation 
(Family Sub S Corp) See SF-278.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life Member, American Legion, Liberty Post #14, Lawrence, KS.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Alternate Delegate, Shawnee County Republican Party (1998-2001).
    Elected to the Topeka City Council (2001).
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Volunteered at Republican Party Headquarters (2000).
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Bush for President, 2004, $1,000.
    Republican National Committee, 2004, $200.
    Heinaman for Commissioner, 2004, $200.
    Tafanelli for House, 2002, $250.
    Shallenberger for Governor, 2002, $200.
    Kansas Republican Party, 2002, $1,500.
    Tafanelli for House, 2000, $250.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Meritorious Service Medal.
    Joint Commendation Medal.
    Navy Achievement Medal.
    Good Conduct Medal.
    Outstanding Service Award, Topeka City Council.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Article, Conservative Digest, 10/1987, ``Nuclear Command and 
Control.''

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Attached, Keynote Speech, ``50th Anniversary of Veterans Day, 
Emporia, Kansas, November 11, 2003.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Daniel R. Stanley.
    This 19th day of May 2005.

    [The nomination of Daniel R. Stanley was reported to the 
Senate by Chairman Warner on June 30, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 30, 2005.]
                              ----------                              

    [Prepared questions submitted to James A. Rispoli by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Energy for Environmental Management (EM)?
    Answer. If I am confirmed as Assistant Secretary for Environmental 
Management, I see as my overarching duty to provide leadership and 
management to a team of professionals, both Federal employees and 
contractors, in the restoration, cleanup, and closure of the 
Department's nuclear weapons legacy complex of sites throughout the 
Nation. This mission is paramount to the security and safety of the 
nation, and must be performed with full recognition of safety for the 
workers and the communities in which our sites are located.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Bodman would prescribe for you?
    Answer. In my very first meeting with Secretary Bodman, in my 
current capacity as Director of the Office of Engineering and 
Construction Management, he expressed his strong personal interest in 
improving performance of the Department's portfolio of projects, 
especially our highly complex and challenging environmental projects. 
It is clear to me that he is committed to safety in all that we do, and 
to meeting our commitments to the people of this nation in our program 
of restoration, cleanup and closure of our sites. If confirmed as 
Assistant Secretary, I expect that he will reinforce that charge to me 
and provide me with his full support in the execution of the 
Environmental Management program.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Energy for Environmental Management and the 
Environmental Management program?
    Answer. I believe there are a number of challenges inherent in this 
program. I would consider the overarching challenges to be:

        <bullet> Safety. We are cleaning up inherently hazardous sites. 
        Worker safety is paramount, and of course, the whole purpose of 
        the cleanup and closure efforts is to restore the sites to a 
        condition that is safe and appropriate.
        <bullet> Complexity and uncertainty. We are cleaning up waste 
        for which the technologies may still be unproven, or in some 
        cases, whose physical characteristics and behaviors we may not 
        understand.
        <bullet> Project management discipline. The prior Assistant 
        Secretary began the transformation of the cleanup into a 
        projects portfolio. We must complete the task of instilling 
        proper management discipline throughout. There are industry 
        standard practices and tools that industry uses to establish 
        cost, schedule, and funding requirements, and then manage to 
        those targets. The challenge will be to foster complete 
        acceptance and use of those practices and tools.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. The successful management of this program will require 
several areas of focus, all towards the same purpose. The Federal 
leaders, managers, and employees at all levels, and their contractor 
counterparts, must understand their mission, and recognize that the 
industry-standard tools, practices, and management methods available to 
them are proven by the test of time. Consistent reinforcement of 
competent leadership and management at all levels will be my personal 
commitment, if I am confirmed to this position.

                           MANAGEMENT ISSUES

    Question. The Assistant Secretary for Environmental Management is 
responsible for cleanup activities occurring at Department of Energy 
sites across the country.
    What are your views on the roles and responsibilities of field 
managers relative to those of Environmental Management Headquarters 
managers?
    Answer. The Environmental Management program in the Department of 
Energy is complex and technically challenging, and I know we all 
recognize that. I believe that we can succeed only through a team 
effort that includes executives, leaders, and managers at the sites 
(both contractor and Federal) and at the headquarters. I have been 
blessed to experience successful team efforts in my career, both in the 
Naval Facilities Engineering Command where I previously served as 
manager of the Navy's cleanup program for shore installations, and then 
in industry where a significant part of my work was leading contracted 
environmental work for the U.S. Air Force at several of its 
installations. I know that it will take a team effort, and I have been 
a leader for both the Government and the contractor in these efforts. I 
will work to develop a better understanding of roles and 
responsibilities for all of us involved in this effort, if I am 
confirmed.
    Question. What is your view of EM's organizational structure? Is 
there a well-delineated and consistent chain of command and reporting 
structure from the field staff to headquarters staff, from the 
contractors to DOE officials, and from the Office of Environmental 
Management to the Secretary of Energy and other DOE officials?
    Answer. Not having worked within the Environmental Management 
organization, I will need to better understand the EM organizational 
structure and the relationship between the field staff and headquarters 
staff, and then onward to other DOE officials. I would expect to focus 
on a clear chain of command within the EM organization, extending to 
the interface with the contractor officials, with clearly defined roles 
and responsibilities. Certainly this will be an early area of interest 
if I am confirmed.
    Question. Do the field offices have enough autonomy and flexibility 
to work with the contractors at the sites to get the cleanup finished 
in a safe and efficient manner?
    Answer. Not yet having visited the sites and their contractors in 
an ``internal EM'' capacity, I will need to learn about those 
relationships if I am confirmed.
    Question. In your opinion, should the field offices have more 
autonomy than they currently have?
    Answer. Not yet having visited the sites and their contractors in 
an ``internal EM'' capacity, I will need to learn about those 
relationships if I am confirmed.
    Question. The Environmental Management program has used a variety 
of contracting methods, including management and operating cost plus 
award fee contracts, cost plus incentive fee contracts, and 
performance-based, fix-priced contracts.
    What is your view of the role of these, or other contracting 
methods, and what principles do you believe DOE should follow when 
entering into EM contracts in the future?
    Answer. When I managed the Navy's ashore cleanup program, I worked 
with the contracting officials of the Naval Facilities Engineering 
Command to develop an acquisition and contracting approach that became 
a standard for their contract efforts. As leader and manager of 
contracted efforts, I saw that the Air Force had a similar acquisition 
and contracting approach. I believe that there should be a common 
corporate approach, and yet there should be latitude for tailoring that 
approach to suit the challenges and risks in each application. In my 
present capacity, I have not been involved in the specifics of the 
contracts at the various sites, but I do believe that the principles I 
mentioned are proven, and that a reasoned strategy must be in place for 
each and every contract entered into by the Government.

                                MISSION

    Question. The Department of Energy has offered changing views, over 
the lifetime of the EM program, as to whether the program should focus 
on cleaning up the sites now within its purview or whether the program 
should have an ongoing mission of cleaning up all surplus DOE 
facilities, as the facilities become excess, over time.
    Do you believe there is a point at which the EM program should stop 
taking surplus buildings, facilities or waste streams from other 
components of the DOE into the EM program for decommissioning, 
decontamination, and disposal?
    Answer. As I have not yet been involved in discussions on the issue 
noted, I would defer comment but will make it a priority to review this 
issue, if I am confirmed.
    Question. If confirmed, what requirements would you place on the 
other DOE programs before you would take additional buildings, 
facilities or waste into the EM program?
    Answer. I cannot comment at this time on the potential requirements 
referenced as I have not been involved in this issue. Should I be 
confirmed, I would carefully review the issue and consult with the 
other departmental leaders involved with it.
    Question. Do you believe it is an appropriate policy for the EM 
program to ``go out of business'' at some point and leave the remainder 
of newly generated waste as the responsibility of existing DOE 
programs? If not, how should newly generated wastes be managed and 
which program (EM or the program generating the waste) should budget 
for these activities?
    Answer. If I am confirmed, this is an important policy question 
which I would need to personally consider, in consultation with the 
Department's leadership.
    Question. In developing the National Defense Authorization Act for 
Fiscal Year 2006, this committee did not adopt the proposal in the 
President's budget request, of transferring certain Environmental 
Management activities from the Environmental Management program into 
the National Nuclear Security Administration (NNSA). In the committee's 
view, such a transfer would not comply with the legislation which 
established the NNSA.
    What is the Department of Energy's interpretation of these 
provisions of the NNSA Act which relate to the possible transfer of 
cleanup activities into the NNSA? What is your interpretation?
    Answer. I personally am not currently familiar with this particular 
aspect of the NNSA Act, but if confirmed I will study it and consult 
with my colleagues at the Department of Energy, including those in the 
NNSA.
    Question. During her confirmation hearing before this committee, on 
June 7, 2001, Jessie Hill Roberson, your predecessor in this position 
should you be confirmed, testified that it was her goal to ``make 
changes that have lasting and permanent impact on this program. ''
    Question. Do you believe that the Environmental Management program 
is best served, at this point in time, by a continuation of the focus 
on accelerated cleanup begun under Assistant Secretary Roberson?
    Answer. Although I am familiar with certain aspects of the 
accelerated cleanup program by working with EM on selected site issues, 
I would need to spend more time understanding all the aspects of the 
program. If confirmed I will carefully review all aspects of the 
cleanup program and its effectiveness.
    Question. One of the initiatives undertaken by Assistant Secretary 
Roberson was the development of ``end states'' documents for each major 
site in the EM program, depicting the residual contamination levels 
remaining at each site after the completion of cleanup.
     What is the status of the development of ``end states'' for each 
major site?
    Answer. Not having worked within the Environmental Management 
organization, I will need to learn the status, details and rationale 
for the development of the end states for the major sites, if I am 
confirmed.
    Question. Were these documents intended to receive the concurrence 
of state and Federal environmental regulators at each site, and if so, 
which sites received such concurrence? What is the status of these 
documents at sites which did not receive concurrence?
    Answer. I am not familiar with the originally intended status or 
anticipated procedural steps for resolution and documentation of end 
states. Certainly this will be an early area of interest for me if I am 
confirmed.
    Question. Did the EM program intend for the ``end states'' 
documents to be the starting point of a discussion with regulators 
about changes to the existing regulations and compliance agreements 
that guide cleanup? If so, would you pursue such discussions with 
regulators if you are confirmed?
    Answer. I believe that open and honest dialog with the regulatory 
community, both from headquarters and at each site, is vital. Our sites 
are in the communities, and in the final analysis, the cleanup is being 
done for the good of the country and its citizens. If I am confirmed, I 
will encourage open, honest and professional dialog with the regulators 
who represent that constituency.
    Question. One of the promises of accelerated cleanup was that, by 
applying additional funds in the near term to achieve the early 
completion of cleanup at certain sites, more funds would be available 
for the remaining sites where cleanup is expected to take longer. In 
other words, if DOE got a few sites done and out of the way, there 
would be more room in the budget to tackle other sites.
    Do you believe this promise of accelerated cleanup has yet been 
realized, and if not, why not?
    Answer. If confirmed, I will need to better understand the 
integration of the EM budget and the accelerated cleanup program 
timelines. I have not been involved in such issues in my present 
position.

                         TECHNOLOGY DEVELOPMENT

    Question. Do you believe that the EM program has conducted 
sufficient technology development so that a treatment and disposition 
pathway exists for all identified waste streams under the program?
    Answer. Although I am aware that EM's program includes technology 
development, I am not familiar with the status of that aspect, or its 
interrelationship with the individual contracts and projects that deal 
with the waste streams. Because of the oftentimes unique 
characteristics of the wastes in our inventory, I see this as an 
important area for me to understand if I am confirmed.
    Question. If any orphan waste streams--those for which there is no 
identified disposition pathway--exist within the EM program, what 
technology development or other efforts would you undertake, if 
confirmed, to address them?
    Answer. Again, while I am aware that EM's program includes 
technology development, I am not familiar with the status of this 
issue. I see this as yet another important area for me to understand if 
I am confirmed.
    Question. What, in your view, are the continuing requirements for 
developing and fielding new technologies, and what are the highest 
priorities?
    Answer. Again, I see this as an important area for me to understand 
if I am confirmed.

                                PENSIONS

    Question. During fiscal year 2006, the EM program is scheduled to 
complete cleanup at the following closure sites: Rocky Flats, Mound, 
and Fernald. In each case, DOE must decide how to administer or 
transfer the post-closure pension and medical benefits for cleanup 
workers at these sites. DOE has indicated that it intends to keep the 
responsibility for administering these benefits with the cleanup 
contractors, post-closure.
    Has DOE evaluated any cost efficiencies that would be gained by 
pooling the sponsorship and functional management of post-closure 
benefits into a single purpose contract; one that could be competed for 
and awarded to one of a number of companies that specialize in the 
administration of such benefits?
    Answer. With regard to the questions raised on pensions, I am 
currently not familiar with the details of the administration of 
benefits at sites post-closure. I realize that this is an important 
issue and I will familiarize myself with the details should I be 
confirmed.
    Question. Assuming the EM program is funded at the level of the 
fiscal year 2006 budget request, will there be any sites under the EM 
program where sufficient funding will not be available to make payments 
to employee pension plans at the levels mandated under the Employee 
Retirement Income Security Act (ERISA)?
    Answer. Again, I realize this is an important issue and will 
familiarize myself with the details should I be confirmed.
    Question. Are you aware of any sites under the EM program where 
making ERISA-mandated pension plan payments will result in such a drain 
on available funding that the furlough or involuntary separation of 
employees at the site will be necessary?
    Answer. Again, I realize this is an important issue and will 
familiarize myself with the details should I be confirmed.

                        WORKFORCE RESTRUCTURING

    Question. If confirmed, your duties will involve the review and 
approval of workforce restructuring plans at sites under the EM 
program.
    Please describe your general approach and philosophy in reviewing 
workforce restructuring plans.
    Answer. This is a critically important issue, and ensuring fairness 
for the workforce is a priority for me. If confirmed I will be 
personally involved in reviewing any workforce-related issues, and look 
forward to working with the committee on these issues.
    Question. Given the nature of their work, cleanup workers are 
fundamentally in a position of ``working themselves out of a job.''
    How do you believe this particular challenge is best handled from 
both a corporate perspective and as a manager of these workers?
    Answer. Again, if confirmed I will be looking very carefully at the 
workforce-related issues in the Environmental Management program.

                 WASTE INCIDENTAL TO REPROCESSING (WIR)

    Question. One of the biggest challenges of DOE's Environmental 
Management program is emptying the large tanks of highly radioactive 
waste that exist at defense nuclear sites in South Carolina, 
Washington, and Idaho. Last year, Congress granted DOE, in consultation 
with the Nuclear Regulatory Commission, the authority to determine that 
portions of this waste are not high level radioactive waste and thus 
DOE may leave residue that meets the requirements of the provision at 
the bottom of the tanks in South Carolina and Idaho after these tanks 
are otherwise emptied.
    How is DOE using this new authority?
    How will DOE complete the cleanup of the tanks at the Hanford site 
in Washington State in the absence of equivalent authority for those 
tanks?
    What is the timetable for completing cleanup of the Hanford tanks?
    What effect has the passage of Initiative-297 by the State of 
Washington had on the Department's ability to complete the cleanup at 
Hanford?
    Answer. At this time, I cannot comment on the specifics to the use 
of the authority. I recognize the interest in this issue by members of 
the committee and I will seek to both understand the details and commit 
to working with the committee should I be confirmed.

                         WASTE TREATMENT PLANT

    Question. The Department of Energy has notified the congressional 
defense committees that the Waste Treatment Plant (WTP) being 
constructed to treat and immobilize the liquid, high-level radioactive 
waste at Hanford is experiencing ``significant'' escalation in the 
total project cost.
    In your view, should the WTP be considered a high risk project from 
a cost and management perspective?
    Answer. Without doubt, this project to build a waste treatment 
plant at Hanford is complex. I consider any such unique project dealing 
with the complexity of chemical and nuclear waste to be high risk. 
Several experts have told me that it may very well be the most 
difficult and complex nuclear and chemical process facility in the 
world, and in size it equals building three nuclear power plants. I see 
the effective management of risk as integral and essential in 
successful delivery of a project of this size and complexity.
    Question. If confirmed, what remedies or precautionary actions 
would you recommend the Secretary of Energy implement in the near term 
to bring this project under control from the perspectives of cost, 
schedule, and technical risk?
    Answer. If I am confirmed to the position of Assistant Secretary, 
recognizing that this project is likely the most complex of its type in 
the world, and recognizing the significance of the cleanup work at 
Hanford, I will give a high priority to personally understanding the 
risk management approach and its integration into the project 
management for, and the eventual operation of, this facility.
    Question. If confirmed, how would you use your experience in 
leading the DOE Office of Engineering and Construction Management to 
improve the overall execution of project management within the EM 
program, particularly for major projects such as the WTP?
    Answer. My career as a Navy Civil Engineer Corps officer, then as a 
senior officer in two environmental companies, and now as the Director 
of the Office of Engineering and Construction Management, have imbued 
in me a clear sense for leadership and management of both individual 
projects and entire programs. I recognize that the EM program is 
extremely complex and challenging, but I am not daunted by taking on 
this challenge if I am confirmed. There are sound and proven leadership 
and management techniques that have served me well in my career; I also 
recognize that each leadership position, and each set of challenges, 
requires a reasoned application of those techniques. As I have stated 
above, I would focus on the processes and tools, and the utilization 
and understanding of those processes and tools by leaders and managers 
at all levels, both Federal and contractor.
    Question. What, if any, technology uncertainties exist with respect 
to the WTP or with respect to the operational waste treatment and 
immobilization steps planned for use in the WTP?
    Answer. As you may know, during the execution of this project, it 
has been reviewed not only by EM, but also by two independent reviews 
performed by the Logistics Management Institute, and two independent 
reviews by the Corps of Engineers. This is a challenging project, and 
in the opinion of some, the most challenging and complex of its type in 
the world. Certainly during the planning and design stages there were 
technology uncertainties. As I have stated above, if I am confirmed, I 
will give a high priority to personally understanding the risk 
management approach and its integration into the project management for 
this facility at this point and going forward.

                              BURIED WASTE

    Question. The Federal Government and the State of Idaho have been 
in dispute regarding whether and to what extent DOE is obligated to 
remediate substantial quantities of buried waste that underlie the 
Idaho National Laboratory.
    What is the status of any pending litigation involving this dispute 
and what is the DOE position regarding its cleanup obligations for this 
waste?
    Answer. If confirmed I will carefully review the status of this 
disagreement and would then look forward to working with the committee 
on this issue.
    Question. How is DOE addressing any environmental risks associated 
with this waste?
    Answer. Again, if confirmed I would be able to review and 
understand this issue.

                             WASTE DISPOSAL

    Question. Completion of cleanup at a number of EM sites depends on 
the timely shipment of quantities of transuranic waste to the Waste 
Isolation Pilot Plant (WIPP) in New Mexico for disposal. In some cases, 
DOE is under regulatory deadlines for completing shipments to WIPP.
    What regulatory deadlines does the EM program currently face 
related to WIPP shipments and what is the current progress against 
those deadlines?
    Answer. As I do not currently work in the EM program I do not know 
the answer to this question. If confirmed, I must learn about this 
issue, and similar issues related to committed deadlines.
    Question. Are you aware of any issues that jeopardize DOE's ability 
to meet these deadlines? If so, what is DOE doing to address these 
issue? What, if any, additional permits or permit modifications are 
needed for WIPP in order to meet these deadlines?
    Answer. Again, I do not know the answer to this question at this 
time. If confirmed, I must learn about our committed deadlines and 
issues related to them. With an understanding of these issues, I would 
be able to address any questions the committee may have on this 
subject.

                             ENDURING SITES

    Question. Cleanup under the EM program occurs not only at closure 
sites, but at DOE national laboratories and other sites with ongoing 
missions. These locations are sometimes distinguished from the closure 
sites by use of the term ``enduring sites.''
    Does the EM program approach cleanup differently at closure sites 
than at enduring sites?
    Answer. As I have not yet been involved in this aspect of EM's 
operation, I need to become familiar with EM's approach to this issue.
    Question. How should the EM program best manage the interfaces 
between its cleanup operations and other ongoing missions at the 
enduring sites?
    Answer. If confirmed, I would work with other departmental elements 
as appropriate to best insure that we are addressing EM's activities 
responsibly while also minimizing the impact to ongoing missions at 
operating sites.
    Question. Does the EM program prioritize work differently at 
enduring sites, and if so? in what way?
    Answer. Again, as I have not yet been involved with this aspect of 
EM's operation, I am not prepared to answer this question at this time.

                          DESIGN BASIS THREAT

    Question. Secretary Bodman testified before this committee that DOE 
sites will not achieve compliance with the current design basis threat 
until 2008.
    Given the seriousness of the need to secure nuclear materials, both 
abroad and at home, do you believe that this is a sufficiently rapid 
response to the threats currently outlined by the Intelligence 
Community, and against which DOE has agreed it must defend at its 
nuclear sites?
    Answer. If confirmed, the Design Basis Threat would be a very high 
priority for me. I would intend to be personally involved, and 
understand this issue. Since I have no specific knowledge related to 
this question, I can not address it at this time.
    Question. If confirmed, what actions would you undertake to 
consolidate and more rapidly secure any special nuclear material 
existing within the EM program?
    Answer. If confirmed, I will need to understand the nature and 
extent of the special nuclear material and wastes in the inventory, in 
order to he able to evaluate the potential for any improvement in this 
area.
    Question. Do you agree that, even with a primary focus on 
accelerating cleanup, it is still an essential responsibility of the EM 
program to secure these materials against the threats existing now?
    Answer. Cleaning up our sites is an essential role of the EM 
program, and securing these materials is of paramount importance during 
that process. This is another issue that I will have to learn if 
confirmed.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. As a former career naval officer sworn to protect and 
defend the Constitution of the United States, I believe in our system 
of government and its respective legislative and executive functions. 
If confirmed, I would welcome the opportunity to appear before this 
committee and other committees of Congress.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. I believe I am a person of honor and integrity, and if 
confirmed, I would intend to bring those inherent characteristics to 
all my dealings with both administration officials, and with Members of 
Congress and their staffs.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Energy for Environmental Management?
    Answer. I do.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. I believe that open and honest communication is vital to 
success and credibility. If I am confirmed, I would intend to maintain 
a most positive dialog with this committee, its members and staff, and 
other appropriate committees.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Lindsey O. Graham

                            FUTURE MISSIONS

    1. Senator Graham. Mr. Rispoli, the people of South Carolina do not 
see the Savannah River Site (SRS) as a closure site. They are actively 
seeking out new missions to bring to SRS. Since SRS falls under the 
management of Environmental Management (EM), it is important that you 
are aware of the unique atmosphere in South Carolina. Do you agree that 
your stewardship of SRS extends beyond the simple cleanup of the site?
    Mr. Rispoli. From my present position in the Department of Energy, 
I understand that the Department has a significant investment in the 
Savannah River Site, in both infrastructure and other facilities that 
will have a useful life for years to come. I have reviewed the recently 
developed 10-Year Site Plan for the facility, and it indicates that 
while the environmental cleanup mission is to be completed by 2025, the 
site will have an ongoing mission to support National Nuclear Security 
Administration activities. It is the designated center for the tritium 
supply to the enduring nuclear weapons stockpile. Additionally, it has 
a role in the Department's nuclear nonproliferation mission through the 
conversion of weapons grade nuclear material to reactor fuel suitable 
for use in nuclear power reactors.
    The Environmental Management organization, as landlord for the 
site, has a responsibility to plan for the future of this investment, 
and ensure that the enduring facilities and infrastructure are suitably 
managed and maintained. Additionally, as the 10-Year Site Plan 
indicates, there is a very active natural resources program that is 
managed by the U.S. Forest Service for the Department of Energy. If I 
am confirmed to the position of Assistant Secretary, I will be fully 
engaged in the cleanup aspects, as well as other facets of the Savannah 
River Site.

    2. Senator Graham. Mr. Rispoli, what will you do to ensure that the 
Savannah River National Laboratory is funded in the future?
    Mr. Rispoli. In my present position in the Department, I have not 
been involved with the budgetary aspects related to the Savannah River 
National Laboratory. I recognize the importance of this national 
laboratory and the stewardship provided as the only laboratory in the 
Department to be within the Environmental Management organization. If I 
am confirmed, I commit to you that I will visit this laboratory, learn 
more about its mission and functions, and be engaged with you and the 
committee going forward.

    3. Senator Graham. Mr. Rispoli, what new missions do you envision 
coming to SRS in the near term?
    Mr. Rispoli. Because of my present position in the Department, I am 
familiar with the major capital investment that is being made by the 
National Nuclear Security Administration at the Savannah River Site. My 
present office has been engaged with the NNSA, and has played a 
supportive role in the oversight of these projects. If I am confirmed 
to the position of Assistant Secretary, I would expect to be engaged 
with the Secretary, not only on this future mission and function, but 
also with others that may develop.

    4. Senator Graham. Mr. Rispoli, the contract for SRS is scheduled 
to be rebid in the near future. The request for information (RFI) 
recently went out. How will you and the Department ensure that the 
eventual winner of the management contract will make a strong 
commitment to the community?
    Mr. Rispoli. While I am not familiar with specifics, I have been 
informed of the ongoing contract schedule for SRS and can state that 
DOE remains committed to the community, public and worker safety, risk 
reduction to the environment and reduction of the burden on the United 
States taxpayer. If I am confirmed, I will work to ensure that our 
contractor(s) have a strong commitment to the community.

    5. Senator Graham. Mr. Rispoli, the House Energy and Water 
Appropriations bill contains report language that could lead to the 
shipment of commercial spent waste to Department of Energy (DOE) sites 
such as SRS for interim storage. Despite South Carolina's history of 
supporting all things nuclear, this would be a significant test of 
their trust and likely opposed by the residents. Absent a plan to begin 
reprocessing this fuel in South Carolina, I, too, would be reluctant to 
support any efforts to store commercial spent fuel at SRS. Do you 
support shipping commercial spent fuel to DOE sites for interim 
storage?
    Mr. Rispoli. I have not been involved with any discussion related 
to interim storage at the SRS of the type to which you refer. If I am 
confirmed, I would expect to work both within EM, and with other 
appropriate Department officials to review the report language.

    6. Senator Graham. Mr. Rispoli, what will you do to ensure that 
Yucca Mountain opens as quickly as possible?
    Mr. Rispoli. In my present position in the Department, I have not 
had authority or purview over the repository development at Yucca 
Mountain. The administration and the Department strongly support the 
development of the repository at Yucca Mountain, and the related 
supporting aspects for transport and handling of material destined for 
that repository. I also understand the importance of the 
interrelationship between the activities of the Environmental 
Management organization and the intended disposition of material at 
Yucca Mountain. If I am confirmed, I will work closely with the Office 
of Civilian Radioactive Waste Management to ensure that the efforts are 
coordinated and supportive of the schedule and operations intended for 
Yucca Mountain.

                              SITE CLEANUP

    7. Senator Graham. Mr. Rispoli, recently, the DOE Inspector General 
(IG) released a report that was very critical of the deactivation and 
decommissioning mission at SRS. According to the report, ``About 67 
percent of the facilities completed by Westinghouse through August 
2004, at a cost of about $7.8 million, posed little or no potential 
risk to the environment, workers, or public.'' The report also found 
that, ``Twenty-two facilities that posed potential environmental, 
safety, and health risk had not been scheduled for deactivation and 
decommissioning at the time of our review, even though they were 
available for remediation.'' In an attached memorandum to the Office of 
the Inspector General, EM ascertains that the IG recommendations cannot 
be implemented because they do not take into account worker safety in 
sequencing. Have you familiarized yourself with this report?
    Mr. Rispoli. I have reviewed the DOE IG report at your suggestion, 
and understand the issues that the IG has identified. I will need to 
become more familiar with the underlying issues of this report if I am 
confirmed and will review the program's response to the issues raised 
in the report. As you see in my statement for the record related to the 
hearing of the Senate Armed Services Committee yesterday, I am 
committed to safety in each and every aspect of the cleanup program--
for the workers, for the communities in which the sites are located, 
and for all other stakeholders.
    Although I have not been involved with any of the decisions on 
prioritization of work at the Savannah River Site, nor with the 
contract provisions, I have had experience in the past since I directed 
the Navy's comparable cleanup program, and also worked as an 
engineering contractor assisting clients with prioritization of risk in 
similar issues. If I am confirmed, I would expect to bring a similar 
approach to dealing with risk. This approach would be to identify the 
risks, evaluate the probability of occurrence of each risk event, and 
the impact or consequence of that event. If confirmed, I will fully 
explore these issues at the Savannah River Site considering both the IG 
report and the approach to resolution of the issues in it.

    8. Senator Graham. Mr. Rispoli, what are you going to do to ensure 
that site cleanup proceeds in a manner that is most efficient, safe, 
and cost efficient?
    Mr. Rispoli. As I have indicated in my testimony to the Senate 
Armed Services Committee, I have held a number of leadership positions 
in both the Navy and in the private sector, in the management of 
cleanup at individual sites, and in complex wide situations. I believe 
that by using the correct industry standard project management 
practices, and modem management tools for planning and management of 
this cleanup effort, the program can be and will be managed 
efficiently, safely, and cost effectively. If I am confirmed, I will 
bring my commitment to the use of these proven practices to the 
organization. I believe that with knowledgeable professionals who 
understand how to manage projects, and who are committed to the use of 
these methods, we will successfully execute this technically complex 
and wide-ranging cleanup program.

    9. Senator Graham. Mr. Rispoli, the IG made the following three 
recommendations:

          1. Halt deactivation and decommissioning activities on 
        facilities that pose no potential environment, safety and 
        health (ES&H) risk to the environment, workers, and/or public;
          2. Re-prioritize all remaining facilities based on the 
        potential ES&H risk that the facilities may pose to the 
        environment, workers, and/or public; and
          3. Renegotiate the current contract with Westinghouse to 
        accelerate deactivation and decommissioning activities on the 
        facilities that pose the highest potential risk to the 
        environment, workers, and/or public.

    Are you planning to implement any of the suggested reforms 
contained in the report?
    Mr. Rispoli. As I have indicated, I have recently reviewed the IG's 
report at your suggestion and I understand the recommendations offered. 
If I am confirmed, I will learn about the underlying situation at the 
Savannah River Site and will be pleased to discuss this issue with you.

    10. Senator Graham. Mr. Rispoli, recently, Bruce Carnes stated the 
Energy Department suffers from a ``disease'' of making baseless 
promises regarding cleanup activities. One promise made to Congress was 
the added savings from smaller sites that are now closing would be 
reinvested to larger sites to ensure cleanup stays on schedule. Should 
we expect the fiscal year 2007 budget to include the savings incurred 
at the smaller sites for the larger cleanup sites?
    Mr. Rispoli. In my present position, I am not, nor have I been, 
involved in prioritization of work within the EM budget, nor with the 
EM budget in the larger context of the DOE budget. If I am confirmed to 
this position, this will clearly be a keystone element of the program 
for me to learn and engage.

                    WASTE INCIDENTAL TO REPROCESSING

    11. Senator Graham. Mr. Rispoli, as you are aware, in last year's 
defense authorization bill, the authority was granted to accelerate 
tank closure in South Carolina and Idaho. This provision will enable 
tanks to be closed in a safe manner and allow DOE to save billions of 
dollars in the process. As the author of the amendment that authorized 
this cleanup to happen and as the Senator that represents one of the 
sites covered by this statute, I have a vested interest in ensuring it 
is carried out in a timely fashion. I understand from your answers to 
the advance policy questions that you cannot comment on the specifics 
to the use of the authority. I urge you in the strongest possible terms 
to familiarize yourself with this issue and brief me on the progress 
DOE has made in closing the tanks. Do you plan to reassess the law as 
written or can you guarantee that you will work to carry out the law as 
written?
    Mr. Rispoli. I understand both your leading role and interest in 
this issue and can transmit to you both my and the Department's 
assurance that we will carry out our responsibilities under the statute 
as written.

    12. Senator Graham. Mr. Rispoli, the partnership between the 
Governor of South Carolina, the South Carolina Department of Health and 
Environmental Control (DHEC) and the DOE has been excellent and was 
vital to enacting the Waste Incidental to Reprocessing (WIR) provision 
into law. How will you work to maintain this relationship and ensure 
that the Governor and DHEC continue to be advised of the implementation 
of this language?
    Mr. Rispoli. As I have indicated in my testimony before the Senate 
Armed Services Committee, I have had experience and success in my 
career in working with all the stakeholders in my past involvement with 
environmental cleanup. I have worked with both state regulatory 
agencies and nongovernmental organizations that represent stakeholders 
in cleanup. I have previously chaired an advisory committee providing 
counsel to the State of Hawaii's Director of Environmental Health, the 
equivalent of the Director, DHEC and was elected unanimously by the 
members, comprised of officials from industry, professional firms, and 
nongovernmental environmental organizations. I would expect to bring my 
approach of open communication and cooperation to my dealings with the 
Governor, your office, Congress, and the DHEC.

                          SAVANNAH RIVER SITE

    13. Senator Graham. Mr. Rispoli, the Savannah River Site enjoys 
broad support from the community in Aiken, South Carolina. The 
residents of the site's surrounding community have been good stewards 
of site, eagerly accepting new missions--even if doing so meant taking 
a significant risk. Do you plan to spend significant time at the site 
to get to better understand the community?
    Mr. Rispoli. I am pleased to state that during my 5 years with the 
Department of Energy, I have visited the Savannah River Site more than 
any other. If I am confirmed, I would plan to visit the site with an 
even wider point of view, to better understand all the aspects of the 
site and its operations and would look forward to meeting and working 
with the community and its leaders. I believe that any Federal 
installation must be a good neighbor, and involve itself with the 
community, and I would intend to bring this perspective if I am 
confirmed.

    14. Senator Graham. Mr. Rispoli, how will you ensure public support 
for the site remains strong?
    Mr. Rispoli. In my Active-Duty Naval career, I have served as 
Commanding Officer of two naval installations: Camp David, Maryland, 
and Navy Public Works Center, Pearl Harbor. In each instance, I have 
enjoyed personal and active ties with representatives of the community 
and worked closely to address their issues and concerns. I believe that 
Federal installations consider themselves as part of the communities in 
which they are located, and must establish ties to maintain good 
neighbor relations. If I am confirmed, I will personally encourage this 
approach throughout the EM complex, including the site at Savannah 
River.

    15. Senator Graham. Mr. Rispoli, how do you plan to communicate 
what happens at the site with the surrounding community?
    Mr. Rispoli. I believe in open and honest communication. Honesty 
and integrity are, for me, personal attributes that I bring to each and 
every position. As part of EM's responsibility in the area of community 
relations, I will, if I am confirmed, reinforce this philosophy to all 
the site office managers, and personally practice this approach.
                                 ______
                                 
    [The nomination reference of James A. Rispoli follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 17, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services; Energy and Natural Resources pursuant to a Standing 
Order of the Senate on June 28, 1990:
    James A. Rispoli, of Virginia, to be an Assistant Secretary of 
Energy (Environmental Management), vice Jessie Hill Roberson, resigned.
                                 ______
                                 
    [The biographical sketch of James A. Rispoli, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of James A. Rispoli

    Jim Rispoli, a licensed professional engineer in several States, is 
the Director of the U.S. Department of Energy's Office of Engineering 
and Construction Management. His office is responsible for management 
policy, assessment, and oversight of the Department's facilities, 
infrastructure, and capital projects. The value of the Department's 
facilities and infrastructure is over U.S. $80 billion. Additionally 
its portfolio of 125 capital construction projects exceeds U.S. $38 
billion, ranging from one of a kind nuclear facilities and laboratories 
to standard office buildings and utilities. Prior to joining the 
Department of Energy he was Vice President and manager of Dames & 
Moore's Pacific area operations. He also was a Senior Vice President of 
Metcalf and Eddy in charge of their Hawaii offices. In both firms he 
led major engineering and construction projects for private clients, 
state and federal governmental agencies. He served in the United States 
Navy's Civil Engineer Corps holding executive level facilities, 
environmental and construction management positions. A Fellow of the 
American Society of Civil Engineers, he is past Director of its 
Construction Division, and has served in several local section officer 
positions. He is also a Fellow of the Society of American Military 
Engineers for which he has held several officer positions at the local 
post level, and served as the national society's Vice President for 
Environmental Affairs. Mr. Rispoli is an active member of the Project 
Management Institute for whom he has served on a number of panels and 
study efforts. He holds advanced degrees in engineering arid business.
    He was appointed to his present position in June 2002. Since that 
time, the Secretary of Energy has designated him as the Department's 
Senior Real Property Officer, and has appointed him to the Federal 
Energy Management Advisory Committee.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by James A. 
Rispoli in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James Anthony Rispoli.

    2. Position to which nominated:
    Assistant Secretary for Environmental Management, Department of 
Energy.

    3. Date of nomination:
    May 17, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 6, 1947; Staten Island, New York.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Carol Anne Ruginis.

    7. Names and ages of children:
    Christina Marie Thomasson, 29; and Joseph Vincent Rispoli, 24.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    St. Peter's High School For Boys, Staten Island, NY; 9-1960 to 6-
1964, Diploma, 6-1964.
    Manhattan College; 9-1964 to 6-1968, Bachelor of Engineering, 6-
1968.
    University of New Hampshire; 9-1968 to 9-1969, M.S. Civil 
Engineering, 9-1969.
    Central Michigan University, 9-1975 to 5-1977, M.A. Business 
Management, 5-1977.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    8-1994 to 7-1995; Captain, CEC, USN Director of Corporate 
Management; Headquarters Naval Facilities Engineering Command 
Alexandria, VA.
    6-1995 to 12-1997; President, M&E Pacific, and Sr. VP, Metcalf & 
Eddy (HQ in Wakefield, MA); M&E Pacific, Inc., Honolulu, HI.
    1-1998 to 10-1999; Vice President & Managing Principal Pacific 
Operations; Dames & Moore Honolulu, HI.
    10-1999 to 11-2001; Deputy Director Office of Engineering & 
Construction Mgmt.; Headquarters, Dept. of Energy Washington, DC.
    11-2001 to present; Director, Office of Engineering and 
Construction Mgmt.; Headquarters, Dept. of Energy, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Chair, Advisory Committee to the Director for Environmental Health, 
State of Hawaii (and previous to election as chair, member); 1996-1999; 
Unpaid volunteer position.
    Additionally, prior to the time period for the positions listed in 
item 9 above, I was a career military officer. I began active service 
in the U.S. Air Force in 1968, following commissioning as a 2nd 
Lieutenant through the AFROTC. I served as an Air Force civilian 
employee (GS-12) for approximately 1 year in 1973-1974 pending my 
recall to Active Duty as a Lieutenant, Civil Engineer Corps, U.S. Navy. 
I completed an Active Duty career in 1995, with the position shown in 
item 9 above.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Fellow, American Society of Civil Engineers.
    Fellow, Society of American Military Engineers.
    Member, Project Management Institute.
    Member, American legion, Mclean Virginia Post.
    Member, Chi Epsilon National Civil Engineering Honor Fraternity.
    Member, Military Officers Association of America.
    Member, Italian Cultural Society of Washington DC.
    Member, Mclean Photography Club.
    Smithsonian Associate.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Chi Epsilon Civil Engineering National Honor Society while at 
Manhattan College, 1967-1968.
    Air Force ROTC Scholarship while at Manhattan College, 1967-1968.
    Legion of Merit (three awards) for service as Naval Officer: 
Commanding Officer, Camp David; Commanding Officer, Public Works Center 
Pearl Harbor; Director, Corporate Management, Headquarters Naval 
Facilities Engineering Command.
    Meritorious Service Medal (five awards) for service as Naval 
Officer: Operations Officer, Naval Mobile Construction Battalion 62; 
Head, Facilities Planning Department, Northern Division, Naval 
Facilities Engineering Command; Public Works Officer, Naval Air Station 
Oceana; Head, Civil Engineer Corps Management & Assignments Office; 
Assistant Commander, Environment, Safety & Health, Naval Facilities 
Engineering Command.
    Presidential Service Certificate and Badge, Commanding Officer, 
Camp David.
    Fellow, American Society of Civil Engineers.
    Fellow, Society of American Military Engineers.
    Three consecutive outstanding performance evaluations as member of 
the Senior Executive Service.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.

------------------------------------------------------------------------
              Title                    Publisher             Dates
------------------------------------------------------------------------
The Environment During            Navy Civil Engineer          Fall 1977
 Construction.
Protecting the Environment        Journal of the               June 1982
 During Construction.              Construction
                                   Division, American
                                   Society of Civil
                                   Engineers.
NAVFAC's Environmental            The Military          March-April 1991
 Contracting Strategy.             Engineer, Society
                                   of American
                                   Military Engineers.
Build on Success (one of four     PM Network, Project          Nov. 2004
 contributing authors).            Management
                                   Institute.
Leader Profile..................  The Military          March-April 2005
                                   Engineer, Society
                                   of American
                                   Military Engineers.
------------------------------------------------------------------------


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  James A. Rispoli.
    This 2nd day of June 2005.

    [The nomination of James A. Rispoli was reported to the 
Senate by Chairman Warner on June 30, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 29, 2005.]


 NOMINATIONS OF LT. GEN. NORTON A. SCHWARTZ, USAF, FOR APPOINTMENT TO 
THE GRADE OF GENERAL AND TO BE COMMANDER, U.S. TRANSPORTATION COMMAND; 
 RONALD M. SEGA TO BE UNDER SECRETARY OF THE AIR FORCE; PHILIP JACKSON 
BELL TO BE DEPUTY UNDER SECRETARY OF DEFENSE FOR LOGISTICS AND MATERIAL 
  READINESS; JOHN G. GRIMES TO BE ASSISTANT SECRETARY OF DEFENSE FOR 
 NETWORKS AND INFORMATION INTEGRATION; KEITH E. EASTIN TO BE ASSISTANT 
SECRETARY OF THE ARMY FOR INSTALLATIONS AND ENVIRONMENT; AND WILLIAM C. 
ANDERSON TO BE ASSISTANT SECRETARY OF THE AIR FORCE FOR INSTALLATIONS, 
                       ENVIRONMENT AND LOGISTICS

                              ----------                              


                        THURSDAY, JULY 28, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Elizabeth Dole 
presiding.
    Committee members present: Senators Warner (chairman), 
Inhofe, Talent, Dole, Thune, and Levin.
    Other Senators present: Senator Wayne Allard and Senator 
Ted Stevens.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Gregory T. Kiley, professional staff 
member; Sandra E. Luff, professional staff member; Thomas L. 
MacKenzie, professional staff member; Elaine A. McCusker, 
professional staff member; David M. Morriss, counsel; Lucian L. 
Niemeyer, professional staff member; Joseph T. Sixeas, 
professional staff member; Robert M. Soofer, professional staff 
member; Scott W. Stucky, general counsel; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Gabriella Eisen, research assistant; 
Creighton Greene, professional staff member; Peter K. Levine, 
minority counsel; Michael J. McCord, professional staff member; 
and Arun A. Seraphin, professional staff member.
    Staff assistants present: Alison E. Brill and Pendred K. 
Wilson.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Paul C. Hutton IV, assistant to 
Senator McCain; Frederick M. Downey, assisant to Senator 
Lieberman; and William K. Sutey, assistant to Senator Bill 
Nelson.

          OPENING STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. This hearing will come to order.
    I am pleased to have six distinguished nominees before the 
committee this morning. We welcome Lieutenant General Norton 
Schwartz, U.S. Air Force, the current Director of the Joint 
Staff, who has been nominated to be Commander, United States 
Transportation Command (TRANSCOM).
    We also welcome our five distinguished civilian nominees: 
Dr. Ronald M. Sega, presently the Director of Defense Research 
and Engineering, to be Under Secretary of the Air Force; John 
G. Grimes, to be Assistant Secretary of Defense for Networks 
and Information Integration (NII); Philip Jackson Bell, to be 
Deputy Under Secretary of Defense for Logistics and Materiel 
Readiness; Keith E. Eastin, to be Assistant Secretary of the 
Army for Installations and Environment; and William C. 
Anderson, to be Assistant Secretary of the Air Force for 
Installations and Environment.
    I welcome Senator Stevens, who will introduce General 
Schwartz, and Senator Allard, who will introduce Dr. Sega.
    Senator Stevens.

 STATEMENT OF HON. TED STEVENS, U.S. SENATOR FROM THE STATE OF 
                             ALASKA

    Senator Stevens. Madam Chair, thank you very much, and 
Senator Levin. It is my pleasure today to introduce General 
Norton Schwartz to you. He is a personal friend. General 
Schwartz is a 1973 graduate of the Air Force Academy, an 
alumnus of the National War College, and a member of the 
Council on Foreign Relations. As a command pilot he logged more 
than 4,200 flying hours. In his distinguished career he has 
successfully held a wide range of military positions, including 
Commander of the Special Operations Command-Pacific and Chief 
of Staff of the Joint Special Operations Task Force for 
Northern Iraq during Operation Desert Shield and Desert Storm.
    From 2000 through October 2002, General Schwartz served as 
Commander of the Alaska Command, the Alaska North American Air 
Space Defense Command Region, and the 11th Air Force at 
Elmendorf Base at my home in Anchorage. He was serving in this 
capacity when our Nation was attacked on September 11. Under 
his direction, the military took control of the Alaskan air 
space and grounded all traffic, while responding to reports of 
a possible hijacking that was approaching American air space.
    The hijacking report turned out to be a false alarm, but 
our air space is a lifeline for the people of our State, and we 
were very grateful that General Schwartz was at the helm to 
guide us through the events of that day.
    While stationed in Alaska, General Schwartz once said: 
``The relationships we have within the communities of Alaska 
are key to the success of military missions now and in the 
future.'' He and his wife Suzy, who is with us today, lived 
according to that philosophy and became very valuable members 
of our State's community. The Alaska Journal of Commerce 
acknowledged this, and I think this is a very important thing 
for us, when they singled out General Schwartz for special 
recognition in what they called their ``25 Most Powerful 
Alaskans Issue,'' a special issue of our Alaska Journal of 
Commerce.
    In 2002, General Schwartz left our State to begin his new 
assignment as Director of Operations for the Joint Staff. He 
currently serves as director of that staff. He is a skilled 
leader, a true patriot, and, as I said, a true and good friend. 
I am confident he will fulfill his duties as Commander of the 
U.S. Transportation Command with the same commitment and 
dedication he has exhibited during his command throughout his 
life and particularly in our State.
    Again, I thank you very much for the privilege of 
introducing my friend. I urge you to act swiftly on his 
nomination, and I thank you for your courtesy, Madam Chair.
    Senator Dole. Thank you, Senator Stevens.
    Senator Stevens. We will be glad to answer questions. 
[Laughter.]
    Senator Dole. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Madam Chairman. I thank Senator 
Stevens for that introduction. I know he has a terribly heavy 
schedule. So with our gratitude, and I know General Schwartz's 
gratitude, he will be excused.
    Madam Chairman, I join you in welcoming today's witnesses 
and their families. We all know the long, hard hours that our 
senior DOD officials must work and the toll that those hours 
take, not only on them but on their families. So we appreciate 
the sacrifice that they, the families particularly, as well as 
our nominees, are willing to make in the service of our 
country.
    Madam Chairman, because of the number of nominees that we 
have, I would ask unanimous consent that the balance of my 
statement be included in the record. It just sets forth the 
dedication to public service which our nominees have shown.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin

    Mr. Chairman, I join you in welcoming today's witnesses and their 
families. We all know about the long, hard hours that our senior DOD 
officials must work and the toll that those hours can take not only on 
them, but on their families. So we certainly appreciate the sacrifice 
that you are willing to make in service of your country.
    Today's nominees have already shown their dedication to public 
service. General Schwartz has served a 30-year career in the Air Force, 
most recently serving as the Director of the Joint Staff and the 
Director for Operations of the Joint Staff. Dr. Sega joined NASA as an 
astronaut in July 1991 and has served as Director of Defense Research 
and Engineering for the last 4 years. Mr. Bell began his career as an 
officer in the Marine Corps; over the last few years, he has served as 
Deputy Under Secretary of the Army and as Chief of Staff of the State 
Department's Afghanistan Reconstruction Group. Mr. Grimes held senior 
technical and staff positions with the U.S. Army from 1961 to 1981, 
then served as a Deputy Assistant Secretary of Defense from 1990 to 
1994. Mr. Eastin has served as a Principal Deputy Assistant Secretary 
of the Navy and Deputy Under Secretary of Interior. Mr. Anderson has 
not previously held a position in the Federal Government, but has been 
active in community service.
    Once again, I join the chairman in welcoming our witnesses and look 
forward to their testimony.

    Senator Dole. It will be placed in the record without 
objection.
    Senator Allard, we welcome you to introduce Dr. Sega.

STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE STATE OF 
                            COLORADO

    Senator Allard. Madam Chairman, thank you. Sorry to be 
late. I showed up over at Russell 228. Old habits are hard to 
break, having been on the Armed Services Committee. So we are 
here, and thank you for your patience.
    Madam Chairman, I have known Ron Sega for over a decade, 
and I take great pleasure in introducing him to this committee. 
Perhaps more than that, I took pleasure in introducing him at 
his last nomination hearing. I value Ron's advice, his 
experience, and his patriotism.
    He served on my Space Roundtable in Colorado from his 
position as Dean of Engineering at the University of Colorado 
at Colorado Springs. He has a passion for education, especially 
in science, math, and engineering. He is no stranger to many in 
this committee, having appeared before Congress on several 
occasions. You confirmed him in 2001 to be the Director of 
Defense Research and Engineering, and he has testified often 
since then as the Deputy Chief Technology Officer.
    Ron's a distinguished airman, engineer, and space 
professional, and the post of Under Secretary of the Air Force 
seems tailor-made for him. His affiliation with the Air Force 
has been long and fruitful, beginning with his enrollment at 
the United States Air Force Academy and continuing to this day. 
Ron graduated from the Air Force Academy in 1974 and earned a 
Master's Degree in physics at Ohio State University. While 
serving in the Air Force, he was an instructor-pilot and later 
taught at the Air Force Academy, and while there he received 
his doctorate in electrical engineering from the University of 
Colorado.
    Ron separated from the Active Force and joined the Reserve, 
and continued serving in the Air Force Reserve while on the 
faculty at the University of Colorado at Colorado Springs, 
where he would eventually author or co-author over 100 
technical publications.
    Ron's career in academia has been quite unique. The 
University of Colorado recognized his potential and nurtured 
his talent by granting him several leaves of absence for 
special projects. In one, he designed, built, and tested an 
experimental satellite as the program manager of the Wake Field 
Facility. Unlike any other satellite designer or program 
manager, Ron actually flew his satellite to space after he 
became a NASA Space Shuttle astronaut in 1990. In fact, on this 
mission Ron flew on the Space Shuttle Discovery, which just 
returned to space earlier this week. Ron later flew on a Space 
Shuttle mission to the Russian Space Station Mir as the payload 
commander. These are feats that few space professionals can 
match.
    Ron returned to the University of Colorado after leaving 
NASA and became Dean of the College of Engineering and Applied 
Science. As an Air Force Reservist, he expanded his space 
experience to include Air Force satellite command and control 
operations.
    In 2001, Ron took another leave of absence from academia, 
this time to become the Director of the Department of Defense's 
Research and Engineering efforts. As in every other position he 
has held, his work has been outstanding.
    Under Ron's extraordinary leadership, the Department of 
Defense has instituted new programs, streamlined processes, and 
sped technology to the warfighter. He is focused on using the 
best science and technology to ensure that taxpayer dollars are 
spent wisely while we also provide our military forces with the 
best possible weapons and equipment.
    Ron is well aware of the fact that we will need all his 
talent and skill in the position for which he has been 
nominated. Fixing our space acquisition programs will not be an 
easy task. Ron's considerable space expertise will be 
invaluable as he determines how best to improve the Air Force's 
space research, development, engineering, test, and sustainment 
processes.
    Ron has also sound judgment and understands the importance 
of leadership. He is willing to make the tough decisions and to 
make things happen in the Department of Defense. I am confident 
that Ron can accomplish this new mission with the same degree 
of success as he has enjoyed elsewhere in his career, and I 
believe Dr. Sega will make an outstanding Under Secretary of 
the Air Force. I strongly support his nomination.
    Thank you, Mr. Chairman, for the opportunity to introduce 
Dr. Sega.
    Chairman Warner [presiding]. Thank you very much, Senator 
Allard. It is very important that colleagues when they have a 
close association with nominees take the time from their busy 
schedules to introduce them. We thank you very much.
    Senator Allard. It is a pleasure to be back before you, Mr. 
Chairman.
    Chairman Warner. Your seat is still here, to be occupied 
when you wish.
    Senator Allard. You are a wonderful chairman and thank you.
    Chairman Warner. Thank you very much, dear friend.
    Now, I would like to ask each of our nominees to take that 
very special moment that we have in our confirmation process of 
introducing their families. Dr. Sega seems to be occupied at 
the moment. General, would you kindly introduce your family.
    General Schwartz. Mr. Chairman, thank you. If I may 
introduce my wife of 24 years, Suzy. She has been my best 
friend and conscience all these years and no doubt I would not 
be sitting here today were it not for her love and support.
    The second most important woman in my life is also here 
today. She is the administrative assistant to the Director of 
the Joint Staff, Cherylann Anderson, and she is a terrific 
professional talent.
    Thank you, sir.
    Chairman Warner. Thank you very much, General. Now, I think 
it is important that you recognize the individuals who support 
all of us in our respective challenges, whether it is here in 
Congress--behind me sits our distinguished staff director of 
the committee, who is now moving on to a White House position, 
regrettably. But anyway----
    Senator Levin. Where is she?
    Chairman Warner. Well, she was here. I guess she is gone 
now.
    Senator Levin. She has already flown the coop.
    Chairman Warner. Gone to the White House. [Laughter.]
    Thank you very much, and we welcome you, Mrs. Schwartz. I 
do hope that, assuming confirmation, the General has a bit 
better control over his hours since he will be in command now. 
Thank you.
    Dr. Sega, would you introduce your family.
    Dr. Sega. Thank you, Mr. Chairman. With me today is my wife 
Ann and our two sons: Jack, 3\1/2\, here; and Matt, a little 
over 2. This is the first day they have worn a suit and big boy 
shoes, and it is doubtful whether they will make it through the 
entire hearing, sir. [Laughter.]
    Chairman Warner. We thank you. You will be on your own 
then.
    We welcome you, boys. Can you wave up here? Hello. Thank 
you.
    Senator Levin. There he is.
    Senator Talent. Mr. Chairman. Mr. Chairman.
    Chairman Warner. Let us get that boy back up again. We 
finally got a photographer, and this picture is worth its 
weight in gold. There you go.
    Why do you not hold one, the wife the other. There, you got 
your picture. That is good.
    Senator Talent. Mr. Chairman, if we could get a picture of 
you and Senator Levin waving at the same time again, I would 
like to keep that for my scrapbook. [Laughter.]
    I will keep that for my scrapbook and treasure it always. 
[Laughter.]
    Chairman Warner. Thank you very much.
    Now, Mr. Bell, if you would.
    Mr. Bell. Thank you, Mr. Chairman. I would like to take 
this opportunity to introduce my wife, Gin, who is sitting here 
behind me; and would also like to take this opportunity to 
thank her for her support for my deployment and service in 
Afghanistan, as well as my acceptance of this nomination.
    I also have here with me my daughter, Scarlet Talamantas, 
and two of my grandsons, Patrick and Austin.
    Chairman Warner. Hello, Austin. Where are we?
    Mr. Bell. Would you stand up, Austin, so they can see you.
    Chairman Warner. Thank you very much.
    Mr. Bell. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Now, Mr. Grimes, do you have family members here with you 
today?
    Mr. Grimes. I just have a couple friends that are here, 
sir.
    Chairman Warner. Well, that is all right.
    Mr. Grimes. Lowell Thomas and Larry McAmire, very dear 
friends, and Dr. Al Dayton, a former Air Force colonel.
    Chairman Warner. Well, thank you, Mr. Grimes.
    Mr. Eastin, you are on your own, right?
    Mr. Eastin. For some time now. Thank you, Senator.
    Chairman Warner. Thank you.
    And Mr. Anderson.
    Mr. Anderson. Good morning, Mr. Chairman.
    With me this morning is my wife, Debby, my mother Mildred, 
and my daughter Shawna.
    Chairman Warner. Thank you.
    I thank those of you who have had the opportunity to bring 
your families, and even though others may not be present, 
Senator Levin and I have been side by side on this committee, 
now in our 27th year, and whether he is chairman or I am 
chairman--and it does seem to go back and forth; pretty 
permanent at the moment--we have a great opportunity in the 
course of the hearing--these hearings become a part of the 
official records of our committee--to recognize the enormous 
contribution made by the families and those other persons who 
are in the infrastructure that enable these individuals to take 
on these challenging tasks.
    Having spent a number of years myself a long time ago in 
the Pentagon, I know well of the challenges and the family 
support and how important it is to enable you to perform your 
respective tasks. So we thank you.
    I would add that General Schwartz was a frequent and 
welcome briefer to our committee during his recent service as 
the Director of Operations, J-3, of the Joint Staff. As his 
biography demonstrates, he has had a most impressive career, 
with assignments in key Joint and Special Operations commands. 
Prior to his current position as Director of the Joint Staff, 
General Schwartz, as I noted, served as the Director for 
Operations, J-3, of the Joint Staff, and from 1997 to 1998 as 
Commander, Special Operations Command-Pacific.
    General Schwartz has also served as Deputy Commander of the 
U.S. Special Operations Command and Commander of the First 
Special Operations Command, that command having been structured 
by the Congress of the United States some years ago, primarily 
under the direction of our former colleague Senator Cohen. I 
think both you and I joined him in working out that 
legislation.
    Dr. Sega's accomplishments have been duly noted by Senator 
Allard. We thank you for your service as the Director of 
Defense Research and Engineering and your willingness to 
continue to serve in the important position of Under Secretary 
of the Air Force.
    This is a critical time for the Air Force as that proud 
service recovers from a number of problems, largely in the 
acquisition area, the Academy, and other personnel problems. 
But I know that I and Senator Levin and other members of this 
committee want to give you every possible support to once again 
bring the Air Force in direct line with the other two military 
departments and I am confident that in short order it will be 
right there, flying side by side with the other two military 
departments.
    John Grimes is the nominee to be Assistant Secretary of 
Defense for Networks and Information Integration. He presently 
is Vice President for Intelligence and Information Systems at 
the Raytheon Company. Mr. Grimes is an Air Force veteran, 
having served on active-duty as an airman, a ground radio 
station technician, from 1956 through 1960. He subsequently 
compiled a distinguished 20-year career as a civilian employee 
of the Department of the Army, serving as Assistant Deputy 
Chief of Staff for Operations and Plans of the Army 
Communication Command.
    Mr. Grimes then served in the Department of Defense as 
Deputy Assistant Secretary of Defense for Counterintelligence 
and Security Countermeasures and as Deputy Assistant Secretary 
of Defense for Defense-wide Command, Control, and Communication 
(C3) from 1990 to 2004.
    We welcome you, Mr. Grimes, and we thank you for taking on 
once again in your distinguished career another chapter of 
public service.
    Mr. Grimes. Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Mr. Bell is currently serving as the Deputy Under Secretary 
of the Army, having assumed that post in April of this year. 
Previously he served as the first Chief of Staff of the State 
Department's Afghanistan Reconstruction Group in Kabul, 
advising the President's special envoy and ambassador to 
Afghanistan and ministers of the government of Afghanistan on 
efforts to accelerate political stability, reconstruction, and 
economic development.
    Mr. Bell is a former Marine Corps officer who served in 
Vietnam and Okinawa.
    Mr. Bell, we welcome you and thank you once again for 
having quickly transitioned from that area of the world to come 
back here to Washington and undertake these important 
responsibilities.
    Mr. Bell. Thank you, Mr. Chairman.
    Chairman Warner. Mr. Eastin is presently the Senior 
Consultant to the Iraq Ministry of Environment and has served 
in this capacity since June 2004. He is a recognized expert in 
natural resources management and has been engaged in the 
practice of environmental law for over 30 years. He has served 
as the Deputy Under Secretary of the Department of Interior and 
as Chief Environmental Counsel and from 1986 to 1988 as 
Principal Deputy Assistant Secretary of the Navy for 
Shipbuilding and Logistics.
    I believe your Navy service under Secretaries Lehman and 
Ball should prepare you for any challenges that you might have, 
and we thank you for taking on another chapter in a long and 
distinguished career of public service.
    Mr. Eastin. Thank you, Senator.
    Chairman Warner. Mr. Anderson, you have compiled an 
impressive career in business and the law, currently serving as 
the General Manager and Senior Counsel for Environmental Health 
and Safety Matters for GE Consumer and Industrial Unit of the 
GE Company. Your community service with the Big Brothers-Big 
Sisters, the American Red Cross, and the Urban League are 
indeed very commendable.
    I must say this is an extraordinarily distinguished and 
well experienced group of nominees. It shows the care with 
which the President, the Secretary of Defense, and others have 
screened a number of individuals to take on these positions, 
and I commend them both for this distinguished panel.
    The committee has asked all of our nominees, military and 
civilian, to answer a series of advance policy questions. The 
nominees have responded to those questions and without 
objection I will make the questions and their responses a part 
of the record.
    I also have certain standard questions we ask every nominee 
who appears before the committee. Consequently, gentlemen, if 
you will listen carefully and just signify your answers very 
clearly.
    Have you, each of you, adhered to applicable laws and 
regulations governing conflicts of interest?
    The Panel. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    The Panel. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record, in the hearings before the Congress 
of the United States?
    The Panel. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    The Panel. I will, sir.
    Chairman Warner. Will those witnesses be protected from any 
possible reprisal for their testimony or their briefings?
    The Panel. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    The Panel. Yes, sir.
    Chairman Warner. Do you agree to give your personal views 
when asked, even if those views differ from the views of your 
superiors or others in the administration?
    The Panel. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when so requested by a committee of Congress or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such document?
    The Panel. Yes, sir.
    Chairman Warner. Senator Levin, do you have any opening 
comments?
    Senator Levin. Mr. Chairman, I gave a brief opening 
statement before, and I would concur in your comments about the 
importance of family. The only disagreement I would have with 
you on any of your comments would be that oblique reference you 
made to the permanent nature of the majority continuing in the 
majority in the U.S. Senate.
    Chairman Warner. I just wanted to make sure that you were 
listening to what I had to say. [Laughter.]
    Senator Levin. Any reference like that never falls on deaf 
ears, I can assure you of that.
    Chairman Warner. I thank you.
    Now, gentlemen, we will proceed and, General Schwartz, we 
would like to have you lead with such opening statement as you 
may have.

STATEMENT OF LT. GEN. NORTON A. SCHWARTZ, USAF, FOR APPOINTMENT 
       TO THE GRADE OF GENERAL AND TO BE COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General Schwartz. Chairman Warner, Senator Levin, 
distinguished members of the committee: Thank you. I am both 
honored and humbled at the same time to be nominated for the 
position of the Commander of the United States Transportation 
Command. Sir, I fully understand and appreciate the enormous 
responsibility associated with the position for which I have 
been nominated and I will never lose sight of those 
responsibilities.
    I will take very seriously my role as champion of the 
Active-Duty, Reserve, National Guard, and Defense civilian 
employees who serve the defense transportation system around 
the world. It is and they are a national asset.
    One of the cornerstones of the national defense strategy is 
the capability to rapidly deliver combat power to the joint 
force commander and to effectively link those operating forces 
to sustainment processes and systems. If confirmed, sir, I will 
improve and transform those processes, organizations, and 
systems to optimize rapid force projection, to ensure that 
sustainment arrives at the right time and at the right place, 
to support rapid force maneuver of the joint forces commanders 
when necessary, and to return those forces to home stations and 
other locations so that they can regenerate and, most 
importantly, have reunions with family.
    If confirmed, sir, Suzy and I will serve with energy, with 
dignity, and with a profound sense of purpose. I am grateful to 
you, sir, and the committee for having me before you today and 
I will be ready to take any questions that you may have.
    Chairman Warner. Thank you very much for a very fine and 
heartfelt opening statement about the challenges that you face.
    Dr. Sega.

STATEMENT OF RONALD M. SEGA, Ph.D, TO BE UNDER SECRETARY OF THE 
                           AIR FORCE

    Dr. Sega. Mr. Chairman, Senator Levin, and distinguished 
members of the committee: I am honored to appear before you 
today. I am grateful to have the trust and confidence of 
President Bush and Secretary Rumsfeld. I am humbled to be 
considered for the position of Under Secretary of the Air 
Force.
    The Air Force's 680,000 Active-Duty, Air National Guard, 
and Air Force Reserve airmen serve well and proudly alongside 
our country's soldiers, sailors, and marines. They defend this 
country's freedom by providing combat capabilities that our 
combatant commanders can use for decisive joint military 
actions. I would be honored to serve as their Under Secretary.
    For the past 4 years I have served as the Director of 
Defense Research and Engineering in the Office of the Under 
Secretary of Defense for Acquisition, Technology, and 
Logistics. When my wife Ann and I arrived here from Colorado 
Springs in August 2001 to take on that assignment, I thought I 
knew what we were getting into. I was geared up to tackle the 
technical issues of defense transformation.
    Then, like everyone else, I was shocked into the age of 
terror. As I walked home from the Pentagon on September 11, I 
was already thinking about what research and engineering could 
do to add to the combat power in our national arsenal. 
Accelerating technological support to the global war on 
terrorism and enhancing the transition of technology from ideas 
to fielded capabilities became two of my objectives.
    I have been able to shepherd the development of several 
systems from the drawing board to the battlefield, producing 
small but effective weapons in months rather than years. I am 
pleased that they have contributed to Operations Enduring 
Freedom and Iraqi Freedom.
    My other priorities as the Defense Department's Chief 
Technology Officer were to integrate defense science and 
technology efforts and focus on transformation, expand outreach 
to the combatant commands and the Intelligence Community, and 
strengthen the national security science and engineering 
workforce. I am pleased to report that we have made progress in 
each of these areas, although more work needs to be done. I 
believe that our achievements in all these efforts have 
enhanced the Air Force's combat capabilities.
    I believe that an appointment such as this is a sacred 
trust. If confirmed as the next Under Secretary of the Air 
Force, I pledge to do all in my power to warrant that trust. I 
appreciate the scale and significance of the Under Secretary's 
responsibility. The Air Force's most important task is to 
accomplish the military mission, to provide forces to defeat 
our Nation's enemies. With that in mind, I will apply all of my 
operational experience to achieving mission success in current 
operations and all of my technical expertise to ensure that we 
are prepared to succeed in future operations.
    I also believe that the Active, Guard, and Reserve airmen 
are the best in the world. Their professionalism, courage, and 
skill are the reason we are the world's most respected air and 
space force. I will do everything in my power to support their 
efforts, develop their talents, and provide for their needs.
    Mr. Chairman, as I said before, I am both grateful for and 
humbled by this opportunity to serve. I am also thankful that 
my wife Ann, my wisest counselor, strongest supporter, and best 
friend, stands with me in this endeavor.
    Mr. Chairman, if confirmed I look forward to working with 
your committee, and I look forward to answering your questions.
    Chairman Warner. Thank you very much.
    I would like to digress for a moment from the order of 
listening to opening statements to recognize Senator Inhofe, a 
very valued and senior member of our committee who is chairman 
of the Environment and Public Works Committee and at this very 
moment is working to get the final stages of the Transportation 
Equity Conference Report prepared for the Senate. It is my 
understanding--and I happen to serve on his committee, and I am 
quite interested in his response--that you have been up all 
night working on this. As a distinguished aviator, you have the 
stamina to do this, but I thank you for joining us here this 
morning.
    I know you are particularly interested in the 
transportation area, and we have General Schwartz here to 
undertake that. So I thought perhaps you would give us a few of 
your observations here, and then you have to go back and work 
on this thing again.
    Senator Inhofe. Mr. Chairman, I appreciate that.
    Senator Levin, if that is all right with you, I will just 
take a moment.
    Senator Levin. Sure.
    Senator Inhofe. It was an all-night thing, and I think we 
are going to be successful in coming up with a good 
transportation bill. It is a very significant thing.
    First of all, I know all of you, and I am looking forward 
to your confirmation. Four of you I have had a chance to have 
personal conversations with. I have just a couple of things I 
would like to bring up.
    One is in the depot maintenance improvement fund. I was 
very pleased that the Bush administration has recognized that 
we have to do something with our Air Logistics Centers (ALC). 
For 19 years now we have been talking about having a core 
capability so that we would not be held hostage if something 
happened during a wartime. On the other hand, with our three 
major, only three, ALCs that are left, it was necessary to 
start maintaining them.
    So we have been pursuing this program. It has been 
successful. They have performed very well. I am supporting an 
amendment to fund this at $150 million a year over a 6-year 
period.
    Secretary Gibbs fully supported this depot maintenance 
improvement fund. Dr. Sega, Mr. Bell, and Mr. Anderson, I just 
would like to ask if you have any comments to make about this 
fund and your support or lack of support of that.
    Mr. Bell. Thank you, Senator Inhofe. Jack Bell here.
    Certainly the whole depot maintenance concept and the 
maintenance of core capabilities is one that becomes vitally 
important in the course of not only major combat, but the kinds 
of involvement we have in Iraq and Afghanistan. What we need to 
do is we need to find ways to maintain those capabilities and 
also within that framework find surge capabilities, so we can 
expand the volumes necessary to support the kinds of changing 
environment that we are involved in.
    Senator Inhofe. Specifically, though, we have a depot 
maintenance strategy and master plan, and I want to know your 
level of support for such a plan.
    Mr. Bell. Sir, I do not know the details of that plan. I 
will certainly look at it and be happy to get back with you.
    [The information referred to follows:]

    The Air Force Depot Maintenance Strategy and Master Plan for depot 
maintenance infrastructure is critical to ensure maintenance depots can 
be both responsive and cost effective providers of DOD materiel 
readiness. The depot maintenance transformation investments should be 
focused on improving cost-effectiveness, reducing cycle times, and 
creating a safer work environment. I have no concern with funding 
programs which provide such returns on investment.
    I fully support the Department's funding of the modernization and 
transformation of their depot maintenance equipment, facilities, and 
personnel.

    Senator Inhofe. Mr. Anderson.
    Mr. Anderson. Senator, good morning. Bill Anderson.
    First of all, thank you for your time that you spent with 
me several weeks ago explaining your position on this issue. 
You had some very thoughtful insights.
    I too am not thoroughly versed in the status of the 
investments. Based on what I know, the investment procedure 
makes sense. It seems like it is on track, and if confirmed, I 
will work with you and the members of the committee to make 
sure that we remain on track on the maintenance.
    Senator Inhofe. Good, good.
    The other thing is the mobility capability study. General 
Schwartz, we talked about that. It seems like every time we 
have a meeting we ask when that study is going to be complete. 
It is critical that we get that done. The answer from one of 
our witnesses last April was ``shortly.'' Well, ``shortly'' has 
come and gone. I would like to get some idea, as specific as 
you could, as to when you believe we could have the benefit of 
that mobility capability study. Any of you?
    General Schwartz. Senator Inhofe, as the Director of the 
Joint Staff, I am aware that the analysis for that study is 
complete. It is being briefed to principals in the Department, 
and I would expect that the report would be available----
    Senator Inhofe. It is complete, is that correct?
    General Schwartz. The analysis is complete. The results are 
being briefed to principals in the Department, and upon 
conclusion of that effort we will prepare a report, which the 
Department will naturally present to the committee. I would 
anticipate that that would be some time in the fall time frame.
    Senator Inhofe. All right. There is a time when fall ends, 
so we will have a chance to talk about that.
    The last one I will just ask for the record. Mr. Chairman, 
you are very nice to allow me to do this. It has to do with the 
sustainment, restoration, and modernization (SRM) accounts, 
which used to be called real property maintenance accounts 
(RPM). We watched during the 1990s these accounts being robbed, 
and right now we have not really reinstated them and gotten in 
the position where we can depend on them. They seem to be the 
most vulnerable place to steal money out of to put in other 
programs. I have a question for the record that I will be 
submitting to you folks.
    Thank you very much for your service and I look forward to 
working with you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Inhofe, and we 
appreciate your stopping by in your very busy day and night.
    Senator Inhofe. Thank you, sir.
    Chairman Warner. I once had your job, but mine was a lot 
easier than yours when I had it.
    Senator Inhofe. You did a better job.
    Chairman Warner. No, I would not say that. Good luck to 
you.
    Senator Inhofe. Thank you.
    Chairman Warner. Had you finished, Dr. Sega, your opening 
comments?
    Dr. Sega. Yes, I have, sir.
    Chairman Warner. And Mr. Bell?

STATEMENT OF PHILIP JACKSON BELL, TO BE DEPUTY UNDER SECRETARY 
        OF DEFENSE FOR LOGISTICS AND MATERIEL READINESS

    Mr. Bell. Thank you, Mr. Chairman.
    Chairman Warner, Senator Levin, and other members of the 
committee: I am honored to have this opportunity to appear 
before the committee, as I am honored that President Bush has 
nominated me to be the Deputy Under Secretary of Defense for 
Logistics and Materiel Readiness.
    Having served in Vietnam and Afghanistan, I come before you 
with an intense appreciation of the importance of logistics and 
materiel readiness in supporting our men and women who are 
serving in harm's way today and those preparing to go.
    At the same time, it is important that we find more cost 
effective ways for providing that support as the character of 
the war changes from expansion to sustainment. While we are 
doing that, we need to look to the future and prepare our Armed 
Forces to respond to other threats and other crises, present 
and future.
    If confirmed, I pledge to you my dedication to fulfilling 
the responsibilities of this office and the vital role that it 
plays in the defense of our country. My wife Gin and I have 
four children and five grandsons, and we feel the need to leave 
them a better world than the one we live in today.
    I thank you for this opportunity and this honor to be here 
and I would be pleased to answer any questions you have. Thank 
you.
    [The prepared statement of Mr. Bell follows:]
               Prepared Statement by Philip Jackson Bell
    Senator Warner, Senator Levin, and other members of the Senate 
Armed Services Committee, I am honored to appear before you today--as I 
am honored that President Bush and Secretary Rumsfeld nominated me for 
the position of Deputy Under Secretary of Defense for Logistics and 
Materiel Readiness.
    Having served in Vietnam and in Afghanistan, I come before you with 
knowledge of the importance of logistics to the overall success of our 
military operations, be it in training here in the States or deployed 
in military interventions around the world.
    We must be committed to provide the support needed by our 
commanders and their troops, while at the same time finding ways to 
manage the costs in doing so.
    I would like to take a moment to acknowledge the support from my 
wife Gin for my service in Afghanistan, and for the decision we jointly 
made to move to Washington to work on these important issues. Gin and I 
believe we need to leave the world to our grandchildren in better 
condition than it is today.
    Thank you again for this opportunity. I will be happy to answer any 
questions you may have.

    Chairman Warner. I thank you for your statement and I 
certainly agree with your last comment. I too am blessed with 
children and grandchildren, and I try every day in my 
opportunities here in this magnificent institution of Congress 
to do what I can to assure that they will share a future as 
rich and rewarding as the one that my generation has 
experienced. Thank you, sir, for that reference.
    Mr. Grimes.

   STATEMENT OF JOHN G. GRIMES, TO BE ASSISTANT SECRETARY OF 
        DEFENSE FOR NETWORKS AND INFORMATION INTEGRATION

    Mr. Grimes. Thank you. Mr. Chairman, Senator Levin, members 
of this committee: It is a privilege and an honor to appear 
before you today as the President's nominee to serve as 
Assistant Secretary of Defense for Networks and Information 
Integration, and as the Chief Information Officer of the 
Department of Defense.
    First, I would like to thank the President and Secretary 
Rumsfeld for their support and confidence by selecting me for 
this position.
    If confirmed, I look forward to the opportunity to serve my 
country at a time when our national security environment is 
markedly different and more complex than any time in our 
Nation's history. The Department has developed a defense 
strategy to meet the changing and challenging threats of a 
different world. True transformation of the Department can only 
be achieved by transforming the way we communicate and by 
taking full advantage of information age technology to ensure 
our decisionmakers and our warfighters have access to the 
information when needed.
    We must move to an environment where information is shared 
and available to those who need it in a timely manner. The 
development, deployment, and integration of a Department-wide 
information infrastructure and supporting network that is 
global, interoperable, secure, real-time, and user-friendly are 
critical underpinnings for success in the Department's 
transformation. The position for which I have been nominated is 
responsible for leading the implementation of this portion of 
transformation.
    Let me close by stating that if I am confirmed I look 
forward to working with you, Mr. Chairman, and the other 
members of the committee, as well as the dedicated men and 
women of the Department of Defense, to meet the challenges of 
this dangerous and uncertain world in which we live.
    Thank you and I look forward to taking your questions.
    [The prepared statement of Mr. Grimes follows:]

                  Prepared Statement by John G. Grimes

    Mr. Chairman, Senator Levin, members of the committee: It is a 
privilege and an honor to appear before you today as the President's 
nominee to serve as the Assistant to the Secretary of Defense for 
Networks and Information Integration and the Chief Information Officer 
of the Department of Defense.
    First, I would like to thank the President and Secretary Rumsfeld 
for their support and confidence by selecting me for this position. If 
confirmed, I look forward to the opportunity to serve my country at a 
time when our national security environment is markedly different and 
more complex than at any other time in our Nation's history.
    The Department has developed a defense strategy to meet the 
changing and challenging threats of a new and different world. True 
transformation of the Department can only be achieved by transforming 
the way we communicate, and by taking full advantage of information age 
technologies to ensure that our decisionmakers and warfighters have 
access to the information, when needed. We must move to an environment 
where information is shared and available to those who need it in a 
timely manner.
    The development, deployment, and integration of a department-wide 
information infrastructure and supporting network that is global, 
interoperable, secure, real-time and user-friendly are the critical 
underpinnings for the success of the Department's net-centric 
transformation. The position for which I have been nominated is 
responsible for leading the implementation of this portion of the 
transformation.
    Let me close by stating that if I am confirmed, I look forward to 
working with you, Mr. Chairman, and the other members of the committee, 
as well as the dedicated men and women of the Department of Defense to 
meet the challenges of this dangerous and uncertain world in which we 
live.
    Thank you, Mr. Chairman. I look forward to answering the 
committee's questions.

    Chairman Warner. Thank you for a very fine opening 
statement.
    Mr. Eastin.

STATEMENT OF KEITH E. EASTIN, TO BE ASSISTANT SECRETARY OF THE 
             ARMY FOR INSTALLATIONS AND ENVIRONMENT

    Mr. Eastin. Senator Warner, Senator Levin, members of the 
committee: I appreciate the opportunity to appear before you 
this morning. I also appreciate that the President believes I 
am qualified to assume the duties of Assistant Secretary of the 
Army for Installations and Environment. I will briefly outline 
my priorities if confirmed.
    First, our soldiers are our most important asset. They 
deserve to live in conditions that are comparable to those of 
the citizens they protect. This is in housing, installations, 
and other facilities.
    Second, our soldiers must be trained to fight. That means 
realistic training conditions. Our installations must be 
maintained to ensure that our soldiers are ready to fight. Thus 
we must find a way to deal with encroachment, environmental 
encroachment, as well as those of community activities in the 
area.
    Third, attention must be paid to operating as a good 
environmental steward. We must obey the laws, but work within 
them to ensure installations that work. If confirmed, I pledge 
to work with Congress on existing and emerging issues involving 
installations and the environment.
    Thank you for holding the hearing today and I look forward 
to your questions.
    [The prepared statement of Mr. Eastin follows:]

                 Prepared Statement by Keith E. Eastin

    I appreciate the opportunity to appear before you this morning. I 
also appreciate that the President believes that I am qualified to 
assume the duties of the Assistant Secretary.
    I believe that installations are one of the most important features 
of military life. This is especially true of current times when we have 
a volunteer Army. Our soldiers have other opportunities with the 
private sector. To retain these soldiers and their families in the 
Army, we need to treat them as one of our most important assets and 
provide them with housing and facilities that modestly compare to those 
of the people they protect. This applies to family housing as well as 
barracks for the Army's enlisted soldiers. If confirmed, I will place 
one of my highest priorities in achieving high quality housing for the 
soldiers.
    The Army is working its way through another round in the BRAC 
process. I believe that both our soldiers and our neighboring 
communities deserve an organized and speedy execution of the process. 
That requires integration of the new forces into new surroundings. It 
also includes the prompt disposal of properties involved in closings so 
that communities may make their properties productive--jobs for their 
residents--and onto the tax rolls. If confirmed, one of my immediate 
priorities will be to effectuate activities involving BRAC-related 
installations in an efficient manner.
    Encroachment and other challenges to the use of our training 
facilities are many. Environmental factors affect the year round use of 
the facilities. Threatened and endangered species are resident on many 
of our installations. Community pressures to develop raw land inventory 
surrounding the installations are increasingly challenging training 
needs. If confirmed, I plan to continue to emphasize land use planning 
and other available tools both for environmental purposes and in 
dealing with local communities.
    Last, I believe it important to assure the occupational safety of 
our soldiers and the civilian members of our workforce. If confirmed, I 
intend to see that emphasis is placed on achieving a safe working 
environment for our people.
    I pledge to work with Congress on existing and emerging issues 
involving installations and the environment. I thank you for holding 
the hearing this morning and look forward to any questions that you may 
have.

    Chairman Warner. Thank you very much, Mr. Eastin.
    Now Mr. Anderson. You are the wrap-up batter. Please 
proceed.

STATEMENT OF WILLIAM C. ANDERSON, TO BE ASSISTANT SECRETARY OF 
  THE AIR FORCE FOR INSTALLATIONS, ENVIRONMENT, AND LOGISTICS

    Mr. Anderson. Thank you, sir.
    Mr. Chairman, Senator Levin, and members of the committee: 
I sit here today truly humbled by the confidence the President, 
Secretary Rumsfeld, and the Air Force have shown in me. As a 
private sector executive, I am extremely honored at the 
possibility of serving my country.
    No one could assume responsibilities of this magnitude 
without the support of family. Three of the most significant 
people in my life are here with me today. My wife, Debby, has 
led a nomadic life as I have moved through a corporate career, 
sometimes barely getting the furniture in place in time to get 
the house back on the market. She has always embraced every 
opportunity with enthusiasm and a smile and, if confirmed, is 
excited about opening this new chapter in our lives.
    My daughter Shawna will begin her final year at New England 
College next month, on her way to a career helping troubled 
teens find their way, a path that makes us all very proud.
    My mother, in a career that now spans 6 decades, has 
dedicated her life to education, first as a public school 
teacher and most recently training the next generation of 
classroom teachers.
    If confirmed, the organization I will lead as Assistant 
Secretary of the Air Force for Installations and Environment 
will manage issues that span the Air Force mission, from 
ensuring that equipment used by our fighting forces is 
available when needed and works as expected every time to 
establishing the appropriate infrastructure that provides the 
quality of life to our service members and that their families 
deserve, to ensuring that the Air Force is a good neighbor to 
the communities that host our military installations.
    I am confident that my global business experience will 
contribute to building on the success already achieved by the 
Air Force team.
    Mr. Chairman, I would like to thank you and the other 
members of the committee and your staffs who spent time with me 
over the past several weeks. The thoughts shared with me were 
insightful and the dedication this committee has to those who 
stand in harm's way is evident. If confirmed, I look forward to 
working with this committee in support of those who each 
morning put on the uniform in the defense of the United States.
    Thank you, sir.
    Chairman Warner. Thank you very much, Mr. Anderson. I 
remember when you visited with me in my office here a week or 
so ago. I was struck and I reflected on your enormous 
enthusiasm in taking on this post. I reflected back some 30-odd 
years when I walked across the doorstep of the Pentagon for the 
first time in February 1969, when our Nation was in the grip of 
a very severe war in Vietnam.
    I remember an old fellow with a green eyeshade who used to 
walk up and down the halls. He had been there since James 
Forrestal was Secretary of Defense, if you can believe it. One 
day he stopped me and he said: ``I see you run up those stairs 
every day.'' I said: ``Yes,'' mainly because the Navy floor was 
above the Army floor and I wanted to get through Army country 
as fast as I could to get up to the Navy country. He said to 
me: ``You know, you have got a front row seat on the most 
extraordinary stage in the world.''
    We have conflicts going now, fortunately not of the 
severity that we were experiencing at that time in Vietnam, 
when we averaged sometimes 100 casualties a week or more. We 
have in mind today the seriousness of our losses, now 
approaching 1,800 lives lost. I called a family yesterday, as I 
and other members of this committee and Congress do, to express 
our condolences for the losses.
    These are the most serious of times, I say to each of you 
as I reflect back over the opportunities I have had to be 
associated with the men and women of the Armed Forces now some 
60 years for me. It seems to me that the problems that face our 
Nation and other nations in this struggle to preserve freedom 
in the face of terrorism are really far more complex than 
during the era of what we referred to as State-sponsored 
aggression. It is now a diversity of different types of 
aggression.
    While our Nation has spared not a dime in equipping the men 
and women of the Armed Forces, we are faced with crude weapons 
cobbled together by unskilled, untrained people, but the 
weapons work and cause devastating damage. I refer to the 
improvised explosive devices (IED), which I will discuss with 
you, Dr. Sega, in a moment.
    Think about the challenges that face you, and let us do our 
best to help the men and women of the Armed Forces and their 
families, who are experiencing these risks on a daily basis.
    With the completion of these opening statements, we will 
now start our question period, and Senator Levin and I will go 
back and forth here.
    I want to say to you, General Schwartz, having had the 
opportunity and really the privilege of working with you for 
some several years now, in my judgment you are eminently 
qualified to take on this very important command. In a 
subsequent round of questions I will deal with some of your 
specific duties.
    The Nation and the world were greeted this morning by 
statements made by Secretary Rumsfeld and General Casey; 
General Casey being the on-scene commander in that area of 
responsibility (AOR) in Iraq working with General Abizaid, who 
is in charge of the entire AOR. I have met him, as has Senator 
Levin and members of this committee. He has been in the 
position that you have occupied, giving us reports in the times 
that he is back here. But he made a statement yesterday 
projecting into the future that I would like to refer to and 
ask your views, because we respect highly the views of the on-
scene commander. He has the daily real-time information before 
him.
    But the overall conduct of the conflict still rests with 
the Secretary of Defense and the Chairman of the Joint Chiefs, 
a magnificent Chairman under whom you have been serving these 
months. I would like to get the perspectives as best you can 
relate them of the thinking, as we refer to it, in the tank now 
and such reflections it has had on General Casey's comments.
    Let us go back and carefully recite what was said, as 
reported in the press, because I think the President, the 
Secretary of Defense, and others have been very careful to not 
unduly raise the hopes, be it of the families and the men and 
women in these areas of conflict, but indeed of the Nation, 
whose prayers are with these individuals day and night, about 
what the future holds.
    Let us reflect on it. The press reported General Casey as 
saying: ``If the political process continues to go positively 
and if the development of the security forces continues to go 
as it is going,''--and that is the phrase I am going to 
develop--``I do believe we will be able to take some fairly 
substantial reductions after these elections in the spring and 
in the summer''--and I ad lib here, presumably of 2006.
    I want to ask as to whether or not the Chairman and the 
members of the Joint Chiefs in their expressions of views, are 
they consistent with that evaluation? I specifically call your 
attention to a question asked by my distinguished colleague to 
my left, Senator Levin, on June 29. He put this question to 
General Pace: ``Can you provide unclassified information as to 
how many of the roughly 160,000 members of the Iraqi security 
forces are capable of taking on the insurgents without 
assistance from coalition forces?''
    The response, and it was sent to the committee in writing, 
``Only a small number of Iraqi security forces are taking on 
the insurgents and terrorists by themselves. Approximately one-
third of their army battalions are capable of planning, 
executing, and sustaining counterinsurgency operations with 
coalition support. Approximately two-thirds of their army 
battalions and one-half of their police battalions are 
partially capable of conducting counterinsurgency operations in 
conjunction with coalition units. Approximately one-half of 
their police battalions are forming and are not yet capable of 
conducting operations. The majority of Iraqi security forces 
are engaged in operations against the insurgency with varying 
degrees of cooperation and support from coalition forces. Many 
of these units have performed superbly in conducting operations 
against the enemy and their operational capability is 
continuing to improve. I have provided a classified graphic of 
this data in my response to advance questions.''
    The Washington Post in covering the remarks by Secretary 
Rumsfeld and General Casey carried this interpretation of 
presumably this unclassified document which was in response to 
Senator Levin's request. I will read the context in which it 
was given, and this starts out: ``Iraqi leaders have also said 
consistently that U.S. troops should leave as soon as the U.S.-
trained Iraqi army is ready to fight the insurgency and defend 
the country, but have estimated that it could take from 18 
months to 5 years. `The great desire of the Iraqi people is to 
see the coalition forces be on their way out as they take more 
responsibility,' Jafari said at his news conference with 
Rumsfeld after their noon meeting in Baghdad. But Jafari said a 
withdrawal would require `picking up the pace of training Iraqi 
forces, as well as carefully synchronizing the U.S. withdrawal 
as Iraqi forces took charge of different parts of the country.' 
''
    Continuing the quote: `` `The withdrawal should be whenever 
the Iraqi forces are ready to stand up,' Jafari said. ``We do 
not want the multinational force to have a surprise departure.' 
''
    Now here is where it relates to the Joint Staff: ``Earlier 
this month, a report prepared by General Peter Pace, the 
incoming Chairman of the Joint Chiefs of Staff, concluded that 
only a `small number' of the Iraqi forces were capable of 
fighting insurgents without U.S. assistance. `Two-thirds of the 
Iraqi forces are `partially capable' of counterinsurgency 
missions if they have U.S. support,' Pace concluded.''
    I think this comment by General Casey--and I do not say 
this in criticism; I just say it as an observer who follows 
this scene and carefully studies all of the documents that 
Congress has before it together with the press--could well be 
interpreted as a timetable of sorts.
    I would like to ask you first, is there a report by General 
Peter Pace, the incoming Chairman, or does this one answer 
constitute what they refer to as a ``report''?
    General Schwartz. Sir, there is a report which was 
delivered last week to Congress, some of which was classified.
    Chairman Warner. Yes.
    General Schwartz. That provides additional details to the 
question you have asked with regard to Iraqi security forces. 
We can certainly discuss that in another forum.
    Chairman Warner. This is marked unclassified and I presume 
his answer was unclassified, but it basically states that, 
because he said approximately two-thirds of the army battalions 
and one-half of the police force are partially capable.
    General Schwartz. Sir, if I may, I think it is important to 
recognize that there are two pieces here, one on the Iraqi 
security forces. You can be sure that the Iraqi battalion that 
is engaged in Bag Bah or in Ramadi and what have you, while we 
may characterize them as partially capable, in other words not 
being able to operate completely independently of coalition 
assistance, they are engaged in combat. That young lieutenant 
in the Iraqi Armed Forces is up to his eyeballs in the fight.
    My point is, while the Iraqis may not have the complete 
logistics footprint that is necessary at the moment to operate 
without our assistance or the intelligence might require 
augmentation from the coalition, that they are carrying the 
battle. So the word ``partial'' needs to be understood in the 
right context.
    With respect to General Casey's statement, sir, I do not 
know what the complete context was, but I know, having heard 
General Casey report to the Joint Chiefs, as you suggested, 
repeatedly over the last few months, is that he believes that a 
drawdown is desirable. It is appropriate for the Iraqi security 
forces to assume the responsibility of securing their nation. 
At the same time, he knows that that transition which is under 
way as we speak will be condition-based, not event-based. I am 
sure that if he were here today he would say the same.
    Chairman Warner. You are correct, he did carefully use two 
``ifs'' in there, but the second is ``if the development of the 
security forces continues to go as it is going,'' and this is 
what Congress has before it, together with that report, to give 
the analysis of the Chairman and the Joint Chiefs as to how it 
is going. This to me could be construed as somewhat in conflict 
with General Casey.
    I have taken generously of the time here, but what I will 
do in the course of the day is to prepare a letter to the 
Chairman and ask for his views to make certain that the 
statement by General Casey is not inconsistent--hopefully that 
conclusion can be reached--with what is expressed in his 
reports to Congress.
    General Schwartz. Yes, sir.
    Chairman Warner. Thank you very much. I will return to 
questions to others later.
    Senator Levin.
    Senator Levin. Mr. Chairman, you have raised a very vital 
question, which I am glad General Schwartz is here to address. 
We got a letter report from Secretary Rumsfeld, that I gather 
is the report which is required by the supplemental 
appropriations bill?
    General Schwartz. That is correct, sir.
    Senator Levin. That report is less forthcoming in its 
unclassified part than was General Pace's answer to my 
question. The American people and we need to have it in an 
unclassified way so that we can make up our minds, but also in 
order that the American public can make an assessment of just 
how quickly the Iraqi forces are being trained.
    Frankly, General Pace's report gave us some meat on the 
bones. Secretary Rumsfeld's report that was required by law was 
very sketchy, much more so than General Pace. So I would hope 
that that message could get back to Secretary Rumsfeld.
    We have to have enough unclassified information so that we 
can talk in public and the American public can think about what 
the progress is here. We need that. I think we are entitled to 
it. The people are entitled to it and I would hope you would 
pass that along to Secretary Rumsfeld.
    General Schwartz. Yes, sir.
    Senator Levin. Now, there seems to be an inconsistency with 
the quote that the chairman read of the prime minister when he 
said that--and I think it was the prime minister he was 
quoting, although----
    Chairman Warner. That is correct.
    Senator Levin. Prime Minister Jafari?
    Chairman Warner. Yes.
    Senator Levin. The quote about picking up the pace of 
training I believe was attributed to the prime minister.
    Chairman Warner. That is correct.
    Senator Levin. That is somewhat different from saying if 
things continue as they are, as General Casey said.
    Chairman Warner. That was why I brought this up, Senator. 
You are quite correct. It seems to me those things should be 
cleared up, and perhaps you and I could send a joint letter 
today to try and get those statements.
    Senator Levin. The stakes here are really huge. Every one 
of us in this room knows it. So I would like to join with you, 
and I welcome that offer, Mr. Chairman, in such a letter, 
because there do seem to be at least two inconsistencies.
    General Schwartz, let me ask you a couple questions that 
directly relate to your confirmation. The ongoing mobility 
capability study has not been completed, and you and I have 
talked about this. A recent report stated that when it is 
completed it will not make a specific recommendation as to how 
many C-17 aircraft are needed. It would seem to me that the 
study would be a lot more useful if it made some concrete 
recommendations.
    Is it your belief that the study should specify how many, 
approximately at least, C-17s that we need and do you think it 
is likely that there will be at least a fairly specific 
recommendation in that regard?
    General Schwartz. Sir, once again my exposure to this is as 
the Director of the Joint Staff. The study at the moment is, I 
would characterize it as, suggesting a range of potential 
solutions. That is what the analysis has produced. It has again 
not been vetted by the principals in the Department, and so the 
outcome is still not completely certain.
    But it is clear that either the study or its contribution 
to the quadrennial defense review will have to result in a 
position on how many mobility assets, what capability is 
required, and how to proceed on a path of fielding that 
required capability.
    Senator Levin. The more specific the range, the more useful 
it would be. That is the bottom line.
    General Schwartz. Sir, that is clear. There is no question 
about that. If confirmed, sir I would seek to nail that down.
    Senator Levin. Thank you for that.
    Shall I continue?
    Chairman Warner. Yes.
    Senator Levin. General, the Department of Defense is 
proposing to relocate tens of thousands of personnel and much 
of their equipment from forward-deployed bases in Germany and 
Korea back to the U.S. This is going to increase airlift and 
sealift needs. It does not appear that the administration took 
this into consideration when developing the integrated global 
presence and basing strategy, and we still do not have, the 
year after the President formally announced it, an assessment 
from the DOD of the impact of these moves on our mobility 
requirements.
    Has the Joint Staff determined the impact of that 
relocation on mobility requirements?
    General Schwartz. Sir, that is part of the analysis of the 
mobility capability study. The adjustments which were 
anticipated due to global posture initiatives were addressed in 
that analysis, and that is part of the reason, sir, for the 
range of required capability.
    Senator Levin. When are we likely to get that?
    General Schwartz. Sir, again I would anticipate, as in my 
answer to Senator Inhofe, not later than the fall time frame.
    Senator Levin. Just one more question for General Schwartz.
    Chairman Warner. Go right ahead.
    Senator Levin. The Air Force is making substantial changes 
in the future force structure through a program called future 
total force, and this is going to result in substantial 
realignments of force, particularly within the Air Force 
Reserve and the Air National Guard. How is the transition to 
the future total force going to affect the forces working for 
TRANSCOM?
    General Schwartz. Sir, from my prior experience, the 
mobility community has perhaps been the prototype for future 
total force over the years, of having both units, Reserve units 
or National Guard units, which own the airframes they fly and 
having Active-Duty associates with those units. On the other 
hand, we have also had situations where the Active-Duty own the 
platforms and the Reserves provide additional maintainers and 
air crew capability.
    Future total force in my view was born in the mobility 
community, and it will continue to thrive there.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    Dr. Sega, as I mentioned in my comments with respect to 
this morning about the cutting edge that America is on every 
bit of technology, sparing nothing for the equipping of the men 
and women of the Armed Forces. Yet we are encountering in two 
AORs, both Iraq and now somewhat growing in Afghanistan, a 
troubling development--the improvised explosive device (IED)--
which is cobbled together from old artillery shells and other 
things, and using sometimes cell phones for detonation. This 
bit is out in the public domain. These roadside detonations 
take place, causing enormous death and injury, death and injury 
in the greatest proportions to the Iraqi civilian population. 
It is just extraordinary.
    I am very proud of the record that Senator Levin and I and 
other members have compiled in supporting every possible means 
by which to enable the Department of Defense and such other 
departments of our government to pursue the research and the 
development of countermeasures to deal with this weapon system.
    I would like first to ask you to describe within the 
Department of Defense the chain of command of the various 
levels and the various organizations that are working on the 
IED program, and where specifically your current position fits 
in there. Specifically, what involvement do you and your staff 
have in this very difficult challenge?
    Dr. Sega. As you pointed out, Senator Warner, it is a 
complex problem. The approach to address IEDs is one I think is 
best viewed as a layered approach. Part of the effort and a 
significant effort is in the protection in the event that an 
IED explodes near up-armored high mobility multipurpose wheeled 
vehicles and so forth.
    Chairman Warner. My next question will go to the up-
armoring. First, I would like to kind of understand for the 
record the chain of this decisionmaking and work process and 
what you specifically have been doing.
    Dr. Sega. Yes, sir.
    Chairman Warner. Then I will come back to my next question 
concerning the IED, the instrument of destruction itself. Not 
only the technology employed to try and detect them and 
neutralize them before convoys and so forth get to them, and 
where we are on that. Then second, the countermeasure of trying 
to equip the troops, all the way from body armor through the 
armoring of vehicles to hopefully prevent injury, and limit the 
extent of the injuries and damage.
    Dr. Sega. Sir, I would characterize the focus as in a Joint 
IED Task Force.
    Chairman Warner. That is under General Votel?
    Dr. Sega. General Votel to the Deputy Secretary of Defense.
    Where the new technology fits in is supporting that Joint 
IED Task Force. It comes out of the roots of a Combatting 
Terrorism Technology Task Force which we initiated on September 
19, 2001, where we brought the technology community from the 
Services, agencies, and OSD and then partners outside of the 
Department of Defense together to see what we could bring to 
bear in the war on terrorism. The focus was Afghanistan and 
eventually has moved to issues of force protection, and 
counterinsurgency has been the principal focus, to turn things 
rapidly.
    We appreciate Congress' support and the ability to move 
rapidly with some of these technology pieces. We still have a 
weekly forum in which we communicate with the community, some 
forward in theater, some back, in terms of understanding the 
innovative part, the new technology part, the needs, and how 
the solutions are working in theater.
    We set up the Yuma Proving Grounds for testing, 
particularly in the IED area, and that is a joint activity. You 
go down there any given week and you will find members down 
there--to not only look at the technology----
    Chairman Warner. I am familiar with that.
    Dr. Sega.--but also tactics, techniques, and procedures.
    Chairman Warner. That range or test ground is under whose 
direct supervision?
    Dr. Sega. Now it is moving under the Joint IED Task Force. 
As we moved on, in time, some of these activities are being 
combined. It is a joint problem, clearly, when you also enter 
in aspects of this IED problem of intelligence, for example. 
Then there is additional support into the joint IED effort.
    But the focus, particularly in the ground-based activities, 
is in the Joint IED Task Force under General Votel.
    Chairman Warner. I look upon your organization, having had 
some familiarity with it from my own experience in the 
Pentagon, as an enormous reservoir of technical knowledge, 
innovation, and creativity, and not only in your organization, 
but the contacts that your organization has with a vast 
industrial base. That system has been working year after year 
after year in the Department of Defense on all types of 
technology.
    I am not here to criticize. I just want to make certain 
that that extraordinary reservoir of talent, ideas, and 
creativity, both in-house in your organization and with the 
infrastructure of private sector people that you and your 
predecessors have worked years with, is being utilized. Does 
that have a clear path up, I guess through General Votel, and 
on up, to the Deputy Secretary of Defense?
    Dr. Sega. Yes, it does, sir.
    Chairman Warner. Are you actively working the problem?
    Dr. Sega. Yes, we are, sir. Many of the solutions that we 
provide forward are not appropriate for this forum, but this 
week I attended the Joint IED Task Force briefing and update to 
the Deputy Secretary of Defense, so we are part of that 
process.
    Some things are not available in the near term, and we 
still continue to work on them as mid-term and longer-term 
solutions. That is our focus.
    Chairman Warner. So you are a permanent member of the board 
as such. I am just worried about all of these levels of 
bureaucracy and everything. I think the Secretary tried to 
streamline the process, giving General Votel and his task force 
the direct access to the Deputy Secretary. Can you just assure 
the committee that in your judgment professionally, one who 
served in your position, that the structure is working and 
working efficiently, and it is your judgment it needs no 
further refinement or otherwise? Because I see all kinds of 
layers, boards, and everything feeding into this.
    Dr. Sega. Sir, I believe it is working and is becoming more 
efficient, and the direct report from General Votel to the 
Deputy Secretary of Defense is in place. This is a dynamic 
environment, and we cannot let anything be static in terms of 
addressing the problem.
    Chairman Warner. All right. What about the up-armoring 
situation? We started out with the best of intentions, the 
HMMWV. We had the experience of the First Gulf War, in which in 
100 hours mobility and swiftness, with magnificent leadership 
by our military leaders, we concluded that phase of the first 
conflict. The HMMWVs were in that conflict, without presumably 
the heavy armor.
    Now of course, we have had to deal with the real world as 
it is today, and particularly the IEDs, and we are working on 
the up-armoring. Is that another area in which your 
organization and its tangential infrastructure support with the 
private sector has the ability to feed in your ideas?
    Dr. Sega. Sir, the responsibility of Director of Defense 
Research and Engineering is to bring forward a technical 
solution. So for the armor, some of it is different alloys of 
steel; some of it is ceramics; some of it is reactive armor.
    The needs of the theater are brought from the commanders in 
the theater and then the acquisition is another part.
    Chairman Warner. I understand that.
    Dr. Sega. I did not play a role in terms of the purchasing 
and activating the industrial base.
    Chairman Warner. I have some very basic knowledge of 
metallurgy and compositions and so forth. My basic question is 
are you satisfied with the ability of your organization and its 
infrastructure in the private sector to feed directly those 
answers in as quickly as possible?
    Dr. Sega. Sir, we have a good mechanism, and we are focused 
on this every day. But I would not be satisfied until we can 
completely get the job done. It is an evolving one, so I think 
I would never be satisfied.
    Chairman Warner. I was basically addressing procedures as 
opposed to quick solutions. You are satisfied with the ability 
of the integration of that information through the chain of the 
up-armor?
    Dr. Sega. Sir, it has gotten better, and it will continue 
to get better, and we will work on that.
    Chairman Warner. I thank you very much.
    A question both to Mr. Bell and to Mr. Eastin, both of you 
having served in these difficult areas of operation. Mr. Bell, 
your service as the first chief of staff within the U.S. State 
Department's Afghanistan Reconstruction Group in Kabul bears 
discussion. Similarly, Mr. Eastin, your employment as a senior 
consultant to the Iraq Ministry of Environment is commendable 
and an important addition. I think it is extraordinary that the 
judgment was made in this administration to bring each of you 
back in in these important positions.
    First to you, Mr. Bell. Can you describe with specificity 
what your work was as the chief within the reconstruction from 
the perspective of Afghanistan?
    Mr. Bell. Yes, sir, Mr. Chairman. The administration had 
made a decision that there needed to be more focused efforts on 
the reconstruction aspects of the assistance programs in 
Afghanistan. Those programs had been concentrating initially on 
relief and on humanitarian assistance programs, with one major 
program on the construction of the road from Kabul to Kandahar.
    It was obvious that to achieve stability within the 
fledgling government that we had there in Afghanistan that we 
needed to be able to accelerate the efforts in achieving 
political stability, economic development, and some 
infrastructure development. Not reconstruction but some 
infrastructure development, because Afghanistan is a country 
that, of all the countries that certainly I have been familiar 
with, has the least amount of existing infrastructure.
    So I was authorized by the State Department to recruit 
world-class experts in reconstruction who had worked in those 
capacities in whatever countries and whatever environments, and 
was able to find people who had landmark influence over the 
development of different countries in different capacities. We 
actually had no more than 15 to 18 expert advisers over there 
who were working with Ambassador Khalilzad, the President's 
special envoy, working with the embassy and the U.S. Agency for 
International Development (AID) teams, and working with the 
government of Afghanistan on refocusing priorities to bring 
about more of the infrastructure and economic stability efforts 
to support the government's development.
    Chairman Warner. Thank you.
    Now, Mr. Eastin, your views?
    Mr. Eastin. My position in Baghdad was advising the 
Ministry of Environment. I have a uniquely different 
perspective on it than does Jack. The Ministry of Environment 
and environment as an issue in Baghdad and in Iraq is almost 
nonexistent. There has been no environmental program there. So 
in effect, what I had the opportunity to do there was to advise 
the minister on how to set up an environmental program, indeed 
how to convince the people of Iraq that there was an 
environment out there and that perhaps they ought not just 
throw everything out the back door. They ought to treat it with 
some respect.
    One of the major problems in Iraq was the lack of some 
environmental law there. The law is a left-over from Saddam's 
command and control days and effectively was about a page and a 
half long, and the penalties for violating it ranged from $3.48 
per violation all the way up to $68. So if we are trying to 
clean up the environment in Iraq, that did not seem to me to be 
very much of a deterrent to industry in cleaning it up.
    What we tried to do there is to get the people educated and 
to try to move their legal system into the 21st century so that 
incoming investment could be assured of the atmosphere in which 
they were dealing and international investment in terms of the 
World Bank and the United Nations environmental program could 
be helped. In some small way, I think I have nudged them along 
that way. It has been a very rewarding experience to me and 
certainly challenging along those lines.
    Chairman Warner. Thank you very much.
    I must go to the floor. There is a bill on there, and my 
amendment hopefully can be brought up. I am going to ask 
Senator Levin if he would conclude the hearing, and we will ask 
each of you in due course to respond to written questions. We 
have a procedure here so that the confirmation process can go 
forward. Often the necessity to move on these matters is 
important because the Senate is to conclude its work until 
after the August recess.
    It is my hope, and I think it is the hope shared by my 
distinguished ranking member, that the confirmation process on 
each of you can be completed prior to the Senate's August 
recess. Nevertheless, the questions are an important part of 
this record, and I am going to ask each of you to look to that.
    Senator Levin, thank you very much. [Pause.]
    Senator Levin. Thank you.
    Dr. Sega, let me start with you. The Joint Unmanned Combat 
Air System (JUCAS) program has been in development since you 
have been in charge of defense science and technology (S&T) and 
has received more than a billion dollars in S&T funding since 
fiscal year 2002. It is one of the largest S&T programs in the 
Department. It has undergone significant high-level attention 
from the Department and from Congress.
    The program was transferred to the Defense Advanced 
Research Projects Agency (DARPA) because of concern about 
divergent efforts within the Air Force and the Navy. More 
recently, the Department has decided to transfer the program 
back to the Air Force to manage the program on behalf of itself 
and the Navy, due to difficulties in developing transition 
strategies, clarifying roles of various organizations in the 
program, and getting service buy-in for the program.
    Can you tell us what the difficulties have been and what 
efforts you made to address them?
    Dr. Sega. Senator Levin, the underpinning technology in 
JUCAS is the X-45 program, and that has had numerous successful 
flights at Edwards Air Force Base, both single aircraft and 
dual aircraft. The ability to demonstrate the unmanned aerial 
vehicles (UAV) technology and the autonomy required to lead 
into the JUCAS, I believe is a positive story.
    As we move into the JUCAS, we are developing a more capable 
weapon system and we have two contracting teams that are 
approaching it. At this point it is moving to three aircraft 
each and, as you point out, it is transitioning from DARPA to 
the Air Force as the lead, but the Navy and the Air Force 
continue to be principal players in it. A management decision 
was made. It should not affect the development of the vehicles.
    Senator Levin. Why was it necessary to transfer this back 
to one of the two Services? Why did it not work with DARPA in 
control?
    Dr. Sega. Sir, I do not know the details of all the 
decisionmaking considerations that were in this, but the 
program has now moved into more of a mature weapon system. The 
demonstration of many of the component parts of this were led 
by DARPA, and appropriately by DARPA. A decision was made that 
it was moving toward the development of this next phase, but I 
do not have the details.
    Senator Levin. Thank you.
    Dr. Sega, were you involved in the establishment of the 
program called Total Information Awareness?
    Dr. Sega. No, sir, I was not.
    Senator Levin. Was that a DARPA deal?
    Dr. Sega. Yes, it was.
    Senator Levin. But you did not oversee DARPA?
    Dr. Sega. Yes, sir.
    Senator Levin. But you were not familiar with their 
creation of that program?
    Dr. Sega. It is one of many programs in DARPA, but I was 
not intimately familiar with it at its origin, no. I believe it 
may have preceded my tenure.
    Senator Levin. Mr. Grimes, the information technology (IT) 
budget is one of the fastest growing parts of the DOD budget. 
We hear often of cases where investments are being made in 
programs that are behind schedule, running into technical 
difficulties, or not well coordinated between the Services. 
Since the IT systems in the DOD, whether on the business 
support or the warfighting side of the house, need to be 
completely interoperable, would it make sense for the Office of 
the Secretary of Defense, namely the NII, to have more control 
over the development of the IT budgets of the Services?
    Mr. Grimes. Senator Levin, as I understand it today each 
individual service does program for their respective IT 
programs. However, in place are standards and interoperability 
testing that require these systems to interoperate. With 
respect to business systems and warfighting, of course, IT is 
now embedded in everything we do, every weapon system and 
aircraft or what have you as I understand it. I am not familiar 
with the budget process at this time, but will be glad to make 
that one of my priority efforts to look into it.
    Senator Levin. That would be helpful, if you would do that, 
and then after confirmation, assuming that occurs, if you could 
just within say a couple of months, 2, 3 months, get back to us 
on that subject, because we just hear constant references to 
technical difficulties. It may take some more centralized 
guidance to make them interoperable. So if you could, just say 
within 90 days, let us know what your thinking is on that, it 
would be appreciated.
    Mr. Grimes. If I am confirmed I will do that, sir.
    Senator Levin. Thank you.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    This question goes to Mr. Eastin and Mr. Anderson. If you 
are confirmed, one of your tasks is going to be to implement 
the decisions of the ongoing base closure round, assuming it is 
confirmed, in a modified version or otherwise. This is going to 
be a very challenging task, to put it mildly.
    We have been through these rounds before. We know how 
difficult it is. In recent years there has been more of an 
emphasis on getting the property off the Department's hands as 
quickly as possible. Now, speed and efficiency are admirable 
goals, but when it comes to base closure those are not the only 
important goals. It is important that we work with local 
communities to support their efforts to deal with the economic 
and the psychological impact of losing an installation which 
has been part of their community often for decades.
    As you work to turn over property that is closed or 
realigned by the base realignment and closure (BRAC) process, 
will each of you ensure that your offices cooperate fully with 
local communities in supporting their reuse plans, as well as 
in fulfilling the government's obligations to clean up any 
contamination that we are responsible for?
    Mr. Eastin. Senator Levin, if I may, I think one of our 
responsibilities, just as you said, is to ease the impact on 
the communities from which we will be departing. Part of that 
is not only to just turn over the land, but also to turn it 
over in a way that provides for some compatible use with what 
it has been used for by the, in our case, the Army.
    If I am confirmed, it will be one of my priorities to get 
with each of the communities that have been impacted to see 
that their reuse committees are treated fairly and the 
disposition of the property is done efficiently and in an 
environmentally sensitive way to get their jobs back and the 
property on the tax rolls.
    Mr. Anderson. Senator, first of all, I concur entirely with 
what Mr. Eastin said. In my last 10 years or so I have been 
involved in a number of brownfields redevelopment activities 
throughout the world. I think the first step that you have to 
take is an open communication back and forth with the local 
community. You have to understand what their long-term goals 
and objectives are for development. If you have that 
communication and you work with local developers, you can move 
through the process relatively quickly, find redevelopment 
opportunities that meet everybody's needs, and move forward in 
a much more efficient manner.
    I understand your question and concern. It is very 
important and you have my commitment that, if confirmed, that 
will be a very high priority.
    Senator Levin. Mr. Eastin, the Army is undertaking a 
restructuring, commonly referred to as modularity, that will 
increase the number of its combat brigades. Congress has been 
supportive of this effort, but along with that support has come 
some frustration that in order to do this quickly, to produce 
extra combat brigades to rotate into Iraq, the Army is doing it 
inefficiently.
    Here is how and here is why, at least in one instance: that 
in many cases the taxpayers are going to have to pay twice for 
the facilities to accommodate these new or relocated brigades: 
first a set of temporary facilities and then a set of permanent 
facilities.
    I would hope that if you are confirmed you would push 
aggressively inside the Army's budget process to get those 
permanent facilities into the 2007 budget and reduce or 
eliminate where possible the need to purchase temporary 
facilities that would have to be replaced in 5 to 7 years. So 
would you look into that matter and give us your assessment?
    Mr. Eastin. I will, Senator. I come to this with some 
personal experience, having lived in one of these temporary 
facilities for the last year or so. This is not something we 
would like in the long term and, if confirmed, you will have my 
commitment to work towards permanent housing rather than these 
temporary facilities.
    Senator Levin. This is for Mr. Eastin and Mr. Anderson. In 
recent months and years we have seen an increase in 
construction costs due to some broad economic forces, such as 
rising demand for steel and concrete in China, which puts 
pressure on worldwide supplies and prices, and also, of course, 
the rising price of energy.
    There are also specific factors such as increased force 
protection requirements for our facilities compared to a few 
years ago. Some of these things you may not be able to do much 
about. However, one factor that I hope you would both look into 
is whether or not the government is getting reasonable value 
for its money compared to construction in the private sector.
    We have heard anecdotally that some facilities, such as 
administrative ones or even dining facilities, are fairly 
similar to ones constructed for the private sector, but 
nonetheless, cost the government more. You have private sector 
experience, so I would ask you to use that experience, look 
into this in your new positions, and let us know if you think 
there is a problem here or not.
    Mr. Eastin. If confirmed, I will do just that, Senator. 
Thank you.
    Mr. Anderson. I will also.
    Senator Levin. Mr. Bell and Mr. Eastin, you have made 
reference to your reconstruction experience recently in 
Afghanistan and in Iraq. We keep hearing reports of a 
significant amount of waste in those reconstruction efforts. 
Just this morning I heard on National Public Radio (NPR) 
another report of significant waste in Iraq's reconstruction 
efforts.
    We are talking here about serious amounts of money. I know 
there has been some progress, but can you tell us whether or 
not in your judgment there has been a significant amount of 
inappropriate loss of American taxpayers' funds in this 
reconstruction effort, either through lack of auditing or for 
other reasons?
    Mr. Bell, do you want to go first?
    Mr. Bell. Yes, sir. Thank you, Senator Levin. Part of the 
impact when you undertake a reconstruction program in a country 
like Afghanistan is that you are creating demand in a market, 
in an area that is not accustomed to that demand, and there is 
generally not that much supply of materials or qualified labor.
    When we, for example, undertook reconstruction in 
Afghanistan, it created major strains on the regional markets 
for all of South Asia. Prices during the period of time I was 
there basically quadrupled and were well on their way to going 
up to eight times for the materials.
    What needs to happen once you get into a startup phase like 
that is that there have to be serious efforts made to attempt 
to source materials and manage contracts on more of a global 
basis, so that you can avoid those kinds of price pressures. 
Typical supply chain management principles on pooling 
purchases, inspecting the materials you are getting, and 
distributing those materials in an efficient way adds a lot of 
value to the reconstruction process. Those are things as you 
move from a startup to a sustainment phase, whether it is in 
military operations or in reconstruction, add enormous value to 
the process.
    I think there is no question about the fact that the amount 
of materials that have been purchased and used in Afghanistan 
for such things as cement, plywood, which is not a native 
product to that part of the world at all, have created real 
dislocations in the market, and we have paid heavily for that.
    Other parts of the process that could sustain some serious 
improvement would be working with the local officials to 
establish construction standards. On the one hand, you do not 
want to overengineer a product that you are trying to put into 
rural areas that are inaccessible to motor vehicles, but on the 
other hand you want to make sure that the materials you are 
using and the construction techniques you are using in 
Afghanistan, for example, would sustain and allow the people to 
survive a 7 Richter scale earthquake, because they have those 
throughout Afghanistan.
    It is a difficult environment to operate in. Improved 
management techniques over both the projects themselves, as 
well as the application and the use of the materials, are 
significant areas for improvement.
    Senator Levin. Those are sort of market-driven problems?
    Mr. Eastin. Yes.
    Senator Levin. But also, we keep hearing stories, 
particularly in Iraq, not so much Afghanistan but nonetheless, 
stories of dollars disappearing, bribes, payoffs, kickbacks, 
corruption, everything from just unaudited funds, disappearance 
of funds, corruption, bribes. How much of that exists in the 
reconstruction in Afghanistan?
    Mr. Eastin. The U.S.-sponsored reconstruction generally 
circumvents allowing the reconstruction funding and control to 
flow through local hands, because corruption is endemic in that 
culture and in that part of the world, and it takes some 
considerable capacity-building within the local governments and 
the national governments to avoid that.
    I suspect that a lot of the criminal activity or the 
corruption activity has to do with trying to establish monopoly 
positions on the construction materials themselves. There are a 
few cases, which are under investigation by the DOD Inspector 
General over there, where there may have been criminal 
activities in terms of deceit or fraud in the engagement of 
contractors or, more importantly, subcontractors to contractors 
of the government.
    I would say in Afghanistan the situation is not like what I 
have heard indirectly about Iraq. First of all, the amount of 
resources being consumed over there in reconstruction pales by 
comparison. So I suspect the situation you are reflecting on is 
more Iraq than Afghanistan.
    Senator Levin. Mr. Anderson?
    Mr. Anderson. I can only speak to my experience there. We 
had one reconstruction project that involved the Ministry of 
Environment and that was its own building, which I am happy to 
tell the committee is probably on time and under budget, as 
near as I can tell maybe the only thing in Iraq that is on time 
or under budget.
    My ability to talk about a wider construction program and 
what has gone on there in terms of corruption, overruns, 
various other things, would be secondhand, so I am going to 
have to defer on that if you do not mind. Thank you, Senator.
    Senator Levin. Should we leave this mission in the 
military, or should we give the State Department or some other 
public or private entity the lead when it comes to 
reconstruction?
    Mr. Anderson. The Iraq Reconstruction Management Office, 
which is now under State, and formerly was under the Coalition 
Provisional Authority, is now running the reconstruction 
program. It is going to be relying on the Corps of Engineers of 
the Army rather substantially. So the Corps and the State 
Department will be working on this.
    Other decisions that might have gone into who does what 
over there are far above my pay grade, Senator.
    Mr. Bell. Senator Levin, I have been actually quite 
actively involved in efforts since I came back from Afghanistan 
addressing the lessons learned and what the appropriate roles 
are. Without getting into too much detail, it obviously is 
going to require cooperation and coordination between both 
military and civilian government personnel in order to mount an 
effective reconstruction program in many of these countries.
    The trick there is to get the coordination right. It is not 
a question of whether it is one or the other. It is a matter of 
timing. It is a matter of the security conditions, and it is a 
matter of providing emergency versus long-term reconstruction 
assistance.
    Senator Levin. Thank you. Thank you all for your testimony, 
for your service. Thank your families again for their support.
    The committee will stand adjourned.
    [Whereupon, at 11:25 a.m., the committee adjourned.]

    [Prepared questions submitted to Lt. Gen. Norton A. 
Schwartz, USAF, by Chairman Warner prior to the hearing with 
answers supplied follow:

                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms, particularly in your 
assignments as the Deputy Commander of the Special Operations Command, 
Director for Operations of the Joint Staff, and currently as the 
Director of the Joint Staff.
    Do you support full implementation of these defense reforms?
    Answer. Absolutely. The Goldwater-Nichols Act, and the Special 
Operations Command legislation that followed almost immediately 
thereafter, are just as essential to the effective employment of our 
military forces today as when they were enacted. Goldwater-Nichols 
resulted in the more efficient employment of our Armed Forces by 
addressing a number of critical issues, including insufficient military 
advice and oversight of contingency planning, unclear chains of 
command, and inadequate attention to both the quality and training of 
officers assigned to joint duty. Similarly, the Special Operations 
provisions helped bring about, among other things, much greater focus 
on special operations matters and the development of capabilities and 
necessary training to ensure the effective conduct of special 
operations activities.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. Great progress has been made since the passage of the 
Goldwater-Nichols Act in 1986. The Joint Staff, the Combatant Commands, 
and the Services are decidedly different as a result of the intent of 
the Goldwater-Nichols Act. The corporate advice provided by the 
Chairman of the Joint Chiefs of Staff is timely, accurate, meaningful, 
and indispensable to the Secretary of Defense and the President. Our 
civilian leadership expects that our armed forces can and will carry 
out our assigned missions in the most effective and cost efficient 
manner possible. Furthermore, the Services now ensure their best 
officers have joint experience, which benefits the Services, the 
combatant commands, and the Department of Defense as a whole.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The demonstrated improvement in the joint warfighting 
capabilities of the United States Armed Forces is the most important 
aspect of the defense reforms. The Goldwater-Nichols Act enabled us to 
focus on several key areas: joint doctrine, joint professional military 
education, and coordinated military planning. The chains of command, 
from the President and the Secretary of Defense all the way down to the 
individual on-the-scene commander, have been clarified. Combatant 
commanders have a better grasp of their planning, training, and 
execution responsibilities. In addition, combatant commanders 
understand the importance of articulating their resource needs and 
priorities in Department of Defense budget formulation.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Absolutely.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you think it 
might be appropriate to address in these proposals?
    Answer. In the 19 years since passage of the Goldwater-Nichols Act, 
we have made great strides in institutionalizing ``jointness'' and 
integrating unified, interdependent action within the Armed Forces. 
There may be areas that could benefit from legislative changes; 
however, I would like to reserve judgment on this until after I've 
studied any specific proposals. If confirmed, I would welcome the 
opportunity to share my thoughts and ideas with the committee as 
appropriate.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Transportation Command?
    Answer. The mission of the Commander, United States Transportation 
Command is to provide air, land and sea transportation for the 
Department of Defense (DOD), in peace and war. The Commander relies on 
his Component Commands--Air Mobility Command (AMC), Military Sealift 
Command (MSC), and the Military Surface Deployment and Distribution 
Command (SDDC)--to accomplish this mission. The Commander also has the 
Distribution Process Owner (DPO) mission to improve the worldwide DOD 
distribution system. As DPO, the Commander works closely with the 
Defense Logistics Agency and the Services to identify inefficiencies, 
develop solutions and implement improvements. The U.S. Transportation 
Command team blends Active and Reserve Forces, civilian employees and 
commercial industry partners to provide the mobility forces and assets 
necessary to respond to the full range of military operations.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Since my commissioning as an Air Force officer in 1973, I 
have had a variety of opportunities and experiences combined with the 
good fortune to serve with some of the most outstanding soldiers, 
sailors, airmen, and marines our Services have ever produced. I am a 
product of these experiences--learning from great leaders--superiors, 
peers, and subordinates alike.
    In my current assignment as Director of the Joint Staff and in my 
past assignment as the Director for Operations, the Joint Staff, I had 
personal, direct and frequent contact with the Secretary of Defense, 
Chairman of the Joint Chiefs of Staff, combatant commanders, and 
Service Chiefs on major issues facing our military.
    From the perspective that my service has afforded, I well know that 
the number one priority of our National Military Strategy is winning 
the war on terror. My experience--especially within joint and special 
operations--provides a broad leadership perspective for USTRANSCOM 
emphasizing agility, mobility, and teamwork in support of joint 
warfighters.
    If confirmed, I will be honored to lead the men and women of 
USTRANSCOM as they continue--as true joint warfighters--to transform 
Defense distribution.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. Transportation Command?
    Answer. As Commander, I need a complete understanding of current 
Defense Department and national transportation issues, including the 
challenges facing the commercial transportation industry and our 
national partners upon whom we so heavily rely. I will strive every 
hour of every day to ensure I am prepared for this critical duty.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Other sections of law and traditional practice, however, establish 
important relationships outside the chain of command. Please describe 
your understanding of the relationship of the Commander, U.S. 
Transportation Command to the following offices:
    The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense has full power and 
authority to act for the Secretary of Defense when serving as his 
designated representative. As such, the Commander U.S. Transportation 
Command will report to and through the Deputy Secretary when serving in 
that capacity.
    Question. The Under Secretaries of Defense.
    Answer. Under Secretaries of Defense coordinate and exchange 
information with DOD components, including combatant commands, which 
have collateral or related functions. In practice, this coordination 
and exchange is normally routed through the Chairman of the Joint 
Chiefs of Staff. If confirmed as a combatant commander, I will act 
accordingly.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is established by Title 10 as the principal 
military advisor to the President and Secretary of Defense. The 
Chairman serves as an advisor and is not, according to the law, in the 
chain of command, which runs from the President through the Secretary 
to each combatant commander. The President directs communications 
between himself and the Secretary of Defense to the combatant 
commanders via the Chairman of the Joint Chief of Staff. This keeps the 
Chairman fully involved and allows the Chairman to execute his other 
legal responsibilities. A key responsibility of the Chairman is to 
speak for the combatant commanders, especially on operational 
requirements. If confirmed as a Commander, I would keep the Chairman 
and the Secretary of Defense promptly informed on matters for which I 
would be personally accountable.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. Although the Vice Chairman does not fall within the 
combatant commander's chain of command, he is delegated full power and 
authority to act for the Chairman in the Chairman's absence. If 
confirmed as a combatant commander I will keep the Chairman informed, 
but if the Vice Chairman is representing the Chairman I will keep him 
informed as I would the Chairman.
    Question. The Director of the Joint Staff.
    Answer. As the current Director of the Joint Staff, I assist the 
Chairman in managing the Joint Staff. Although the Director of the 
Joint Staff does not fall within the combatant commander's chain of 
command, the Director does enable important decisions to be made as the 
combatant commander's staff interacts with the Joint Staff. The 
Director is also a key interface with OSD principals, and interagency 
leadership, and can assist combatant commanders in working issues below 
the Chairman's level.
    Question. The Secretaries of the Military Departments.
    Answer. Close coordination with each Service Secretary is required 
to ensure that there is no infringement upon the lawful 
responsibilities held by a Service Secretary.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services organize, train, and 
equip their respective forces. No combatant commander can ensure 
preparedness of his assigned forces without the full cooperation and 
support of the Service Chiefs. As members of the Joint Chiefs of Staff, 
the Service Chiefs have a lawful obligation to provide military advice. 
The experience and judgment the Service Chiefs provide is an invaluable 
resource for every combatant commander. If confirmed as Commander U.S. 
Transportation Command, I will pursue an open dialogue with the Service 
Chiefs and the Commandant of the U.S. Coast Guard.
    Question. The other combatant commanders.
    Answer. If confirmed, I will encourage open dialogue with the other 
combatant commanders to foster trust and build mutual support. Today's 
security environment requires us to work together to execute U.S. 
national policy.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Commander, U.S. Transportation Command? If confirmed, what 
plans do you have for addressing these challenges?
    Answer. USTRANSCOM's major challenges are similar to the other 
functional combatant commands: managing the competing imperatives of 
current readiness versus longer term modernization, instituting 
continuous process improvements and caring for people are common 
elements for all leadership.
    The current operations tempo demands very high utilization of the 
Defense Transportation System. Continued operations at high readiness 
to meet near-term needs can compete with longer-term goals of 
modernization, recapitalization, and training. Supporting the 
warfighter is paramount. This places a premium on extracting the most 
efficient application of transportation resources so the investment in 
high readiness is not underutilized. Too often when considering 
readiness it is easy to focus on just the military transportation 
resources and overlook the heavy reliance upon commercial sealift and 
airlift. USTRANSCOM competes in the transportation marketplace with 
other users in obtaining lift resources. Factors such as labor 
availability, fuel cost, corporate restructuring and the available mix 
of aircraft can have significant impact on our ability to obtain 
sufficient lift. These factors often are beyond the control of 
USTRANSCOM, so they must be closely followed to enable mitigation 
strategies. I would closely monitor transportation resources, both 
organic and commercial, for leading readiness indicators. I also would 
forge and maintain close partnerships with industry to ensure continued 
effective use of commercial transportation.
    We will continue to face modernization issues with military 
airlift, air tanker and sealift fleets. Current tempo consumes 
readiness and ages platforms. If confirmed, I would expect to be 
heavily engaged with the Services, COCOMs, and Congress in addressing 
these challenges.
    The current processes for deployment and distribution evolved from 
historical doctrine, statutes, organizational arrangements and legacy 
support systems. Gaps and seams continue to be identified that impede 
warfighter support and hamper attempts to transform deployment and 
distribution processes. The challenge to the Distribution Process Owner 
is to align the end-to-end distribution processes and ensure in transit 
visibility. Solutions to these issues simultaneously include processes 
and procedures, information systems, doctrine, and organizational 
relationships, so solutions will be complex. If confirmed, I would 
continue to work with the Services, National Partners, and the other 
combatant commanders to press forward with distribution transformation.
    The real strength of USTRANSCOM--as with any military 
organization--is evident in the unique talents and skills of its 
people. There is no more important challenge to a commander than proper 
stewardship of this resource. USTRANSCOM's components rely heavily on 
Reserve elements. The USTRANSCOM staff includes the multi-service 
active military and large elements of Reserve personnel, government 
civilians, and contractors. The DPO designation has required the 
addition of new skill sets. In the coming years Reserve availability, 
pending base realignments and the shift to the National Security 
Personnel System will present challenges and opportunities for the work 
force. If confirmed, I would take an active role in preserving and 
protecting USTRANSCOM's personnel resources.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander, U.S. Transportation 
Command?
    Answer. It's probably not fair to characterize these as problems, 
but there are two areas of concern. First is the need to balance 
engagement of our industry partners while maintaining readiness of our 
military assets. It is important to continue to provide incentives to 
industry to provide a robust commercial surge capability. At the same 
time, our military assets need to be sufficiently employed to maintain 
their readiness. The second concern arises due to the nature of the 
global insurgency we now face. Assets that were once in relative 
``sanctuary'' are now at greater risk. That risk must be weighed 
against the operational requirements to ensure warfighter needs are met 
while preserving transportation and distribution assets.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. There are challenges ahead. If confirmed, I will focus on 
these concerns and other pressing issues and develop solutions.

                       DISTRIBUTION PROCESS OWNER

    Question. In September 2003, following a review of logistics 
operations for Operation Iraqi Freedom, the Secretary of Defense 
designated the Commander, U.S. Transportation Command (USTRANSCOM), the 
Distribution Process Owner (DPO). As the DPO, USTRANSCOM was tasked to 
improve the overall efficiency and interoperability of distribution 
related activities--deployment, sustainment, and redeployment support 
during peace and war.
    What is your understanding of USTRANSCOM's responsibilities as the 
DPO?
    Answer. When the SECDEF appointed the Commander, USTRANSCOM as DPO, 
USTRANSCOM became the single entity to direct and supervise execution 
of the strategic distribution system and improve overall efficiency and 
interoperability of distribution related activities.
    Essentially, DOD now has a single, accountable combatant commander 
to lead distribution process improvement within the Department, able to 
provide one ``distribution'' face and peer accountability to other war 
fighting commanders, respond to their issues and challenges, and 
integrate sustainment and distribution processes from an end-to-end 
perspective. Process ownership means bringing synchronization and 
alignment to what historically was a piecemeal process with multiple, 
accountable parties.
    Question. What progress has USTRANSCOM made in improving the 
distribution process?
    Answer. General Handy's vision for a transformed distribution 
process is now proven. USTRANSCOM established a joint deployment and 
distribution operations center (JDDOC) to provide a capability to 
Regional Combatant Commanders to synchronize and integrate distribution 
within their theaters. The JDDOC coordinates the arrival of personnel, 
equipment, and supplies in theater. These regional centers, endorsed by 
the COCOMs, provide a joint organization prioritizing, synchronizing, 
integrating and coordinating theater transportation and distribution 
functions from ``factory to foxhole.''
    Question. Do you foresee any changes you would make, if confirmed, 
to enhance the ability of USTRANSCOM to execute the responsibilities of 
the DPO?
    Answer. If confirmed, my ultimate goal is for DOD to develop a 
world class supply chain and build stronger strategic alliances and 
partnerships with distribution industry leaders, to provide improved 
support to our fielded forces. To continue serving the warfighter, we 
will build upon foundations already set to leverage commercial supply 
chain management concepts and adapt our DPO initiatives accordingly. 
USTRANSCOM will develop outreach programs for the sharing of ideas and 
concepts with combatant commanders and our National Partners. This 
program will likely include modifying the historical alignments for 
planning and executing deployment and distribution operations 
throughout DOD. We will also advocate refined functional roles and 
responsibilities with National Partners to enhance USTRANSCOM's ability 
to execute the DPO mission.
    Question. To improve distribution capabilities available to the 
CENTCOM commander for contingency operations, USTRANSCOM, in concert 
with CENTCOM, established the Deployment and Distribution Operations 
Center (DDOC). The DDOC provides the combatant commander a cadre of 
experts from several organizations, including USTRANSCOM and DLA, and 
provides a range of distribution related services, such as scheduling, 
tracking, tracing, and arranging for redistribution within the theater 
and back to home station. While the DDOC was originally established as 
a temporary solution to a contingency challenge, its successes in the 
field has prompted an assessment of the utility of operating the DDOC 
on a permanent basis, both in CENTCOM and potentially within each of 
the other combatant commander areas of responsibilities.
    If confirmed, would you continue this review of the DDOC concept 
and make recommendations to Congress on the future application of the 
DDOC concept and the resources required to support that recommendation?
    Answer. I would continue to support and evolve the DDOC concept as 
part of our overall strategy to provide the most effective and cost 
efficient support to our military forces. Open and continuous dialogue 
with Congress will be central to evolving the DDOC concept and 
resources required to support it. If confirmed, I will ensure 
USTRANSCOM continues to codify processes and formalize applicable 
doctrine.

                           STRATEGIC AIRLIFT

    Question. The Mobility Requirements Study for Fiscal Year 2005 was 
conducted with the previous National Military Strategy of two Major 
Theater War as an assumption. For strategic airlift, the study 
identified a requirement for 54.5 million ton-miles a day, with 
available airlift at the time falling well short. Although not yet 
released, the Mobility Capabilities Study is intended to update 
strategic lift requirements in light of the new National Military 
Strategy.
    Based on your experience, do you perceive a continuing shortage in 
intertheater airlift?
    Answer. Recent world events and current operational experiences 
have significantly changed the National Military Strategy, increasing 
the demand for airlift, sealift and refueling requirements. OEF/OIF and 
global war on terror operations daily demonstrate this changing 
strategy and the impact on strategic and tactical airlift capability. 
Reliable distribution and sustainment has increased demand for long-
haul airlift with defensive capability. The risk to troops moving cargo 
over dangerous land routes has increased, redefining the way we operate 
in the theater and increasing reliance on in-theater airlift as well. 
While we are addressing today's needs adequately, we must look to the 
future given organic airframe aging and forecast changes in the 
commercial fleet.
    Question. When will the Department complete the Mobility 
Capabilities Study and provide the results to Congress?
    Answer. OSD and JS completed the analysis portion of the Mobility 
Capability Study, are briefing the Department's Senior Leaders and 
finalizing the report. Upon completion, Congress will receive the 
report.

                           STRATEGIC SEALIFT

    Question. USTRANSCOM recently testified that 95 percent of the 
equipment transported for Operation Enduring Freedom and Operation 
Iraqi Freedom was transported using strategic sealift.
    Are there any initiatives that you believe are necessary, if 
confirmed, in the area of strategic sealift?
    Answer. The importance of Strategic Sealift cannot be illustrated 
any better than through the outstanding performance of our partners in 
the U.S. Maritime industry and the ships of the Military Sealift 
Command (MSC). Together, these ships delivered 95 percent of the 
materiel necessary to execute Operations Enduring Freedom and Iraqi 
Freedom. Of particular note is the performance of the Large Medium 
Speed Roll-on/Roll-off ships (LMSRs). The LMSRs, which were delivered 
to the Navy beginning in the late 1990s, have carried 44 percent of the 
cargo delivered by MSC. As other ships operated by MSC, notably the 
Fast Sealift Ships, and by the U.S. Maritime Administration's Ready 
Reserve Force continue to age, we must plan for their recapitalization. 
Considering the results of the Mobility Capabilities Study (MCS), 
USTRANSCOM will work closely with Navy to see that our shipping needs 
for both today's requirements and future challenges are met.

                        CIVIL RESERVE AIR FLEET

    Question. With the expansion of military operations since September 
11, 2001, the Air Force's mobility requirements have increased. The Air 
Force has in the past, and may very well in the future, rely heavily on 
the Civil Reserve Air Fleet (CRAF) to supplement its organic airlift.
    Will the changes in the commercial airline industry, characterized 
by bankruptcies and a move toward smaller and shorter-range aircraft, 
bring into question the future viability of the CRAF system?
    Answer. A recent OSD study performed by the Institute for Defense 
Analysis (IDA) has shown that despite consolidations and bankruptcies, 
the U.S. airline industry will possess more than enough capacity for a 
viable CRAF program past 2010. While it is true that mainline carriers 
are replacing part of their fleets with smaller aircraft, with proper 
incentives, the remaining wide-body aircraft in service with U.S. 
carriers should satisfy our future CRAF requirements.
    The same IDA study also mentioned the challenge of foreign 
competition and possible foreign ownership of U.S. carriers as factors 
in the future health of the American airline industry. I support the 
well-founded position that DOD is best served by a voluntary, U.S.-only 
CRAF. That makes it vitally important that we do what we can to 
maintain a robust U.S.-only CRAF program, while accommodating the 
industry trend toward globalization. If confirmed, I will work closely 
with the U.S. air carrier industry to identify steps that can be taken, 
either through policy or legislative changes, to ensure the viability 
of the CRAF program.

                       JOINT COMMAND AND CONTROL

    Question. Initial reporting from recent military operations 
indicate joint command and control capabilities have greatly improved 
in recent years.
    What is your assessment of the performance of USTRANSCOM's global 
and theater command and control (C2) systems?
    Answer. USTRANSCOM has done a superb job in delivering warfighters 
and material to Iraq, Afghanistan, and a myriad other key locations 
throughout the world to carry the global war on terror (GWOT) to our 
enemies. Additionally, USTRANSCOM continues to provide emergency relief 
and aid on numerous humanitarian missions. USTRANSCOM could not have 
achieved that world-class performance without effective global and 
theater command and control processes.
    However, there are always opportunities to improve C2 capabilities 
in the distribution pipeline. If confirmed, I will continue 
USTRANSCOM's initiatives to improve distribution C2. These initiatives 
include Information Technology enhancements in requirements visibility, 
improving receipt reporting of forces and sustainment, and closer 
integration of end-to-end distribution C2 processes between USTRANSCOM, 
DLA, the warfighter, Services, and coalition and national partners.
    Question. What interoperability challenges remain between service 
to service and service to joint C2 systems?
    Answer. Development and deployment of a standards-based 
Distribution C2 enterprise architecture (EA) is absolutely essential to 
achieving interoperability. The goal must be an EA where all 
participants can ``plug and play.'' I will continue to support current 
USTRANSCOM efforts to build and deploy a distribution EA that will 
ensure all distribution C2 systems are consistently interoperable.
    Question. What role should the USTRANSCOM Commander play in 
ensuring the development of reliable, interoperable, and agile C2 
systems?
    Answer. Support for development of robust distribution C2 
capabilities that employ USTRANSCOM's enterprise architecture (EA) and 
portfolio management (PfM) capabilities is critical. The USTRANSCOM 
Commander should collaborate with fellow combatant commanders, OSD, the 
Chairman of the Joint Chiefs of Staff (CJCS), Service and Agency 
chiefs, coalition and national partners to provide improved 
distribution capabilities to the warfighter.

                         AEROMEDICAL EVACUATION

    Question. Following the cancellation of the C-9A aircraft for 
medical evacuation in 2003, the Air Mobility Command adopted a new 
operational approach to its worldwide mission of aeromedical 
evacuation. The new concept employs other airlift, such as cargo and 
aerial refueling aircraft, for the air evacuation of wounded and ill 
patients. The committee believes that these aircraft are unsuitable for 
the support of severely wounded or severely ill patients, and adopted a 
provision in the National Defense Authorization Act for Fiscal Year 
2006 that would require the procurement of two dedicated aircraft for 
the purpose of aeromedical evacuation of severely injured or ill 
personnel.
    If confirmed, how would you ensure that the highest quality 
standard of aeromedical evacuation is provided for severely wounded and 
ill patients?
    Answer. In principle, I support the transition to designated versus 
dedicated airlift to meet the aeromedical evacuation (AE) mission 
requirement in both peacetime and contingency operations. The AE team 
has performed its mission in an outstanding fashion, giving life-
sustaining care while expeditiously moving our wounded and ill 
patients. Using transportation assets in a flexible manner, USTRANSCOM 
has been able to respond to urgent requests for AE more quickly than 
possible using dedicated AE aircraft. To ensure the highest quality 
standard of AE for severely wounded and ill patients, I will continue 
to support the initiatives that have been introduced to support the 
transition to use of designated organic airlift. These initiatives 
include highly-trained Critical Care Air Transport Teams, which 
provides intensive care unit (ICU) level care in the back of any of our 
transport aircraft. USTRANSCOM recently added Patient Support Pallets 
that offer an even broader capability to provide an improved patient 
care environment in multi-use mobility airframes. Other initiatives 
include more advanced care in the air by AE medical crews and 
improvements in patient movement support items such as intravenous 
pumps and oxygen delivery systems.
    All of this effort has produced a patient handling system that has 
saved lives and fulfills our obligation to our wounded in Iraq, 
Afghanistan, and around the world. Everything we do must contribute 
materially to fulfilling that profound obligation.

                         SCIENCE AND TECHNOLOGY

    Question. The fiscal year 2006 budget request includes a new 
research and development program for technology development directed by 
USTRANSCOM. The new activity is designed to allow for examination and 
improvement of the entire supply chain as part of USTRANSCOM's role as 
Distribution Process Owner.
    What unique processes and technologies does USTRANSCOM need to 
develop through its own program?
    Answer. Transformation of supply chain and distribution processes 
and systems are increasingly dependent on our ability to leverage 
technological innovation. Many of these changes bridge traditional 
Service and Agency roles. As the Distribution Process Owner (DPO), 
USTRANSCOM's modest research and development (R&D) program seeks to 
enable responsive, flexible global power projection and tailored, agile 
sustainment capabilities that together provide the critical deployment 
and distribution support required by the Joint Force Commander. Basic 
aircraft, ship, truck and railcar research should remain a Service 
responsibility.

                         TECHNOLOGY PRIORITIES

    Question. Serving the needs of the combatant commanders both in the 
near term and in the future is one of the key goals of the Department's 
science and technology executives, who list outreach to commanders as 
an activity of continued focus.
    What do you see as the most challenging technological needs or 
capability gaps facing USTRANSCOM in its mission to provide air, land, 
and sea transportation to the Department of Defense?
    Answer. The strategic landscape of the 21st century poses 
unprecedented threats and challenges requiring compressed decision 
timelines. We lack a well-integrated, networked, end-to-end deployment 
and distribution capability required to optimize the performance of our 
Nation's global expeditionary force. This force is highly reliant upon 
high speed, secure and enduring communications capable of operating in 
a transformed, network-centric environment. We must build an agile end-
to-end deployment and distribution system that provides a common 
operating picture in a collaborative environment.
    I see compelling, challenging requirements for bandwidth. We need 
high speed, secure and enduring communications capable of operating in 
the transformed, network-centric environment of the future. Our 
communications system must support full spectrum battlespace awareness, 
and high data rate communications. Now is the time to press forward 
with these transformational initiatives given the status of our current 
legacy communications constellations and the associated decision-making 
opportunities.
    We must also continue to address the protection of our personnel, 
material, and cargo. Our adversary has little chance of defeating our 
fighting forces on the conventional battlefield. They know an anti-
access strategy is their best option. Screening our cargo for 
explosives, protecting our aircraft from small arms and man-portable 
missiles, protecting our ships in the harbor and our convoys on the 
ground are capability gaps we are addressing and must continue to 
address in an aggressive manner.
    Question. What would you do, if confirmed to make your technology 
requirements known to the department's science and technology community 
to ensure the availability of needed equipment and capabilities in the 
long term?
    Answer. USTRANSCOM's technology needs are outlined in the TRANSCOM 
Transformation Technology Plan (T3P). Addressing these requirements 
depends on key partnerships with Services, Defense Agencies and 
national labs, other combatant commanders, (especially Joint Forces 
Command), industry, academia, and select non-DOD government 
organizations (such as the Departments of Homeland Security and 
Energy). If confirmed, I will be actively engaged in existing 
Department processes to capture USTRANSCOM's needs within Joint 
Operational Concept, Focused Logistics, and R&D documents. I will 
ensure USTRANSCOM aggressively participates in applicable technology 
fora and host our own Force Projection and Sustainment Symposium. 
USTRANSCOM will continue to make requirements known through the Joint 
Capabilities Integration and Development System (JCIDS) by identifying 
Future Force Capability Gaps and Technology Shortfalls for the Extended 
Planning Period. USTRANSCOM will continue to vet R&D needs and proposed 
projects with the Services, COCOMs, Defense Logistics Agency, the Joint 
Staff and OSD to ensure the development and pursuit of born-joint 
solutions to critical distribution gaps, while avoiding duplication of 
effort.

                         TECHNOLOGY TRANSITION

    Question. USTRANSCOM has been active in the Advanced Concept 
Technology Development (ACTD) process and currently has several 
projects on the transition list, including Agile Transportation for the 
21st century and Deployable Cargo Screening.
    What are your views on the ACTD process as a means to spiral 
emerging technologies into use to confront changing threats and to meet 
warfighter needs?
    Answer. I support the ACTD process. The process, as I understand 
it, produced the Predator unmanned aerial vehicle (UAV) in 18 months 
(1996 timeframe). More recently the ACTD process produced some 30 
products in support of Operation Enduring Freedom (OEF) and 51 products 
in support of Operation Iraqi Freedom (OIF). Examples of ACTD products 
supporting the current war effort include the Language and Speech 
Exploitation Resources (Laser), Expendable Unmanned Aerial Vehicle 
(XUAV) and Joint Explosive Ordnance Disposal (JEOD) efforts. In total, 
products from more than 70 percent of all ACTDs have either 
transitioned to programs of record or have met warfighter needs as 
residual assets.
    Question. What steps will you take, if confirmed, to enhance the 
effectiveness of technology transition efforts within your command and 
in cooperation with other Services and defense agencies?
    Answer. Technology transition, and the early planning and 
integration it requires, is a challenge equal to developing the 
technology itself. In USTRANSCOM's Research and Development (R&D) 
program the command has emphasized the requirement for a committed 
program of record and transition strategy as criterion for project 
selection.
    To minimize transition risk, I intend to emphasize the importance 
of an early, integrated partnership between scientists, program 
managers, customers and the acquisition community. USTRANSCOM will 
expand its collaboration efforts, emulate or adapt the best technology 
transition practices of our deployment and distribution partners and 
ensure pursuit of joint solutions to identified force projection and 
sustainment shortfalls.

                             FAMILIES FIRST

    Question. For over 10 years, U.S. Transportation Command and its 
subordinate command, Surface Deployment and Distribution Command, have 
worked to improve the process of moving service members' household 
goods. Implementation of the new system--``Families First''--will use a 
``best value'' approach to contracting with movers that will focus on 
quality of performance, web-based scheduling and tracking of shipments, 
encouragement of door-to-door moves, and full replacement value for 
damaged household goods. Commander, U.S. Transportation Command, 
recently announced that implementation of Families First had changed 
from October 1, 2005, to February 1, 2006.
    What is the reason for the delayed implementation of this program?
    Answer. Families First is being implemented in three phases:

        <bullet> Phase I began initial implementation in March 2004.
        <bullet> Phase II is dependent upon the fielding of the web-
        based Defense Personal Property System (DPS).
        <bullet> Phase III is scheduled for implementation in fiscal 
        year 2007.

    Implementation of Phase II was delayed because of complications 
associated with the availability of the DPS secure testing environment. 
Testing is scheduled to begin 18 July 2005 with an implementation date 
of 1 February 2006.
    Although USTRANSCOM sought to avoid schedule slippage, the team 
endeavored to use the additional time productively by:

        <bullet> Training the military staffs during non-peak season 
        (November vice July).
        <bullet> Informing all stakeholders of the changes implemented 
        by Families First.
        <bullet> Collecting additional customer satisfaction survey 
        scores.
        <bullet> Updating industry's internal systems and processes.

    In the end, we need to deliver a capability that works. A slightly 
later implementation date with the right program is much better than 
disappointing our troops with an on time, but less effective program.
    Question. What is your assessment of the progress being made in 
implementing the Families First program, and what challenges remain?
    Answer. USTRANSCOM and its component The Military Surface 
Deployment and Distribution Command (SDDC) are making real progress 
implementing the Families First personal property program. In Phase I 
they implemented electronic billing and payment procedures and the 
collection of customer surveys for performance based awards in Phase 
II. Over the past several years they brought together key stakeholders: 
Office of the Secretary of Defense, Military Services, U.S. Coast 
Guard, Moving Industry, General Services Administration, Government 
Accountability Office, Defense Finance and Accounting Service, and 
other Federal Agencies to create a single source for all information 
related to the management and payment of shipments in the DOD program. 
DPS has been delivered for testing in support of Phase II. Phase III 
business rules and system requirements are being finalized for 
development and implementation in fiscal year 2007.
    As with any endeavor of this magnitude, there are challenges. From 
my perspective, the remaining challenges include Service funding to 
support full implementation of Families First, full participation by 
the military and industry in Families First, and implementation of DPS. 
Each of these challenges will be met head on. USTRANSCOM is committed 
to bringing the benefits of this program to all stakeholders, 
especially the soldiers, sailors, airmen, marines, and their families 
who will benefit the most.
    Question. If confirmed, what role would you play in ensuring that 
Families First is fully funded and implemented and would you make every 
effort to ensure this program is implemented as soon as possible?
    Answer. I will be an advocate for implementation of the Families 
First program. I will ensure a continued open dialogue between all 
stakeholders in the program to support issue resolution and will 
implement a dynamic change management program to educate stakeholders 
on the changes and benefits Families First promises for the moving 
process. I will work with and support the Military Services in 
programming funds for Families First and will seek adequate funding for 
additional development and maintenance of DPS as required. Our military 
families deserve no less.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. 
Transportation Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answers supplied follow:]

             Question Submitted by Senator James M. Inhofe

                       MOBILITY CAPABILITY STUDY

    1. Senator Inhofe. General Schwartz and Dr. Sega, I am concerned 
about the Mobility Capability Study. Actually, when Secretary Teets 
testified before this committee last March at the Air Force's posture 
hearing, we had been informed that the Mobility Capability Study would 
be ready ``shortly,'' but the timing keeps moving to the right. This 
study was commissioned in order to determine exactly just how short we 
are in strategic and tactical airlift resources. Other Members of the 
committee and I have raised concerns about decisions made by the Air 
Force with regard to programming and budgeting without the benefit of 
this study. I am sure you are well aware of termination costs 
associated with DOD's reversed decision to stop production of the C-
130J, with its domino effect on the cost of the Marine Corps' KC-130. I 
am truly concerned that this study has not been completed. DOD and this 
committee need the results to validate our airlift decisions and plan 
for future mobility and refueling needs. Can you give us an idea of 
when we might have the Mobility Capability Study finished and share any 
of it preliminary findings?
    General Schwartz. Your concern ``just how short we are in strategic 
and tactical airlift resources'' is equally important to us and our 
ability to project and sustain the forces. USTRANSCOM continues to work 
with the study leads, OSD and Joint Staff on this complex issue. The 
Department of Defense is working toward approval and release of the 
Mobility Capability Study (MCS), which could influence many 
programmatic decisions, including the C-130 variants you mentioned. MCS 
analysis is complete. The results are being briefed to principals in 
the Department. Associated documentation will be coordinated and 
presented to the committee with an anticipated release date in the 
fall. However, follow-on work will occur as the Quadrennial Defense 
Review moves toward completion. Our goal is to produce actionable 
recommendations that support the regional COCOMs and reflect the 
strategic and operational environment. We share your concerns and will 
continue to work toward an expeditious release of this study.
                                 ______
                                 
    [The nomination reference of Lt. Gen. Norton A. Schwartz, 
USAF, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 14, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General

    Lt. Gen. Norton A. Schwartz, 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. Norton A. Schwartz, 
USAF, which was transmitted to the committee at the time the 
nomination was referred, follows:]

        Biographical Sketch of Lt. Gen. Norton A. Schwartz, USAF

    Lt. Gen. Norton A. Schwartz is Director, the Joint Staff, 
Washington, DC. He assists the Chairman of the Joint Chiefs of Staff by 
supervising, coordinating, providing support for and administering the 
work of the Joint Staff. General Schwartz accomplishes these 
responsibilities by completing actions in the name of the Chairman, and 
by providing guidance and direction to the Joint Staff. He develops and 
coordinates, for the Chairman, all substantive aspects of the agenda 
and briefing schedule for the meetings of the Joint Chiefs of Staff. He 
functions as the Chairman's point of contact for the National Defense 
University and all joint schools. General Schwartz also supervises 
interaction of the directorates and activities of the Joint Staff with 
the Office of the Secretary of Defense and other U.S. Government 
agencies.
    General Schwartz attended the U.S. Air Force Academy and graduated 
in 1973. He is an alumnus of the National War College, a member of the 
Council on Foreign Relations, and a 1994 Fellow of Massachusetts 
Institute of Technology's Seminar XXI. He has served as Commander of 
the Special Operations Command-Pacific, as well as Alaskan Command, 
Alaskan North American Aerospace Defense Command Region, and the 11th 
Air Force. Prior to assuming his current position, General Schwartz was 
Director for Operations, the Joint Staff.
    General Schwartz is a command pilot with more than 4,200 flying 
hours in a variety of aircraft. He participated as a crewmember in the 
1975 airlift evacuation of Saigon, and in 1991 served as Chief of Staff 
of the Joint Special Operations Task Force for Northern Iraq in 
Operations Desert Shield and Desert Storm. In 1997, he led the Joint 
Task Force that prepared for the noncombatant evacuation of U.S. 
citizens in Cambodia.

Education:

------------------------------------------------------------------------
                   Date
------------------------------------------------------------------------
1973......................................  Bachelor's degree in
                                             political science and
                                             international affairs, U.S.
                                             Air Force Academy, Colorado
                                             Springs, CO.
1977......................................  Squadron Officer School,
                                             Maxwell AFB, AL.
1983......................................  Master's degree in business
                                             administration, Central
                                             Michigan University.
1984......................................  Armed Forces Staff College,
                                             Norfolk, VA.
1989......................................  National War College, Fort
                                             Lesley J. McNair,
                                             Washington, DC.
1994......................................  Seminar XXI Fellow,
                                             Massachusetts Institute of
                                             Technology.
------------------------------------------------------------------------


Assignments:

------------------------------------------------------------------------
              From                        To
------------------------------------------------------------------------
August 1973.....................  September 1974....  Student,
                                                       undergraduate
                                                       pilot training,
                                                       Laughlin AFB, TX.
October 1974....................  January 1975......  Student, C-130
                                                       initial
                                                       qualification
                                                       training, Little
                                                       Rock AFB, AR.
February 1975...................  October 1977......  C-130E aircraft
                                                       commander, 776th
                                                       and 21st tactical
                                                       airlift
                                                       squadrons, Clark
                                                       Air Base,
                                                       Philippines.
October 1977....................  December 1977.....  Student, Squadron
                                                       Officer School,
                                                       Maxwell AFB, AL.
December 1977...................  October 1979......  C-130ElH flight
                                                       examiner, 61st
                                                       Tactical Airlift
                                                       Squadron, Little
                                                       Rock AFB, AR.
October 1979....................  November 1980.....  Intern, Air Staff
                                                       Training Program,
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for Plans,
                                                       Operations, and
                                                       Readiness,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
November 1980...................  July 1983.........  MC-130E flight
                                                       examiner, 8th
                                                       Special
                                                       Operations
                                                       Squadron,
                                                       Hurlburt Field,
                                                       FL.
July 1983.......................  January 1984......  Student, Armed
                                                       Forces Staff
                                                       College, Norfolk,
                                                       VA.
January 1984....................  April 1986........  Action officer,
                                                       Directorate of
                                                       Plans, Office of
                                                       the Deputy Chief
                                                       of Staff for
                                                       Plans and
                                                       Operations,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
May 1986........................  June 1988.........  Commander, 36th
                                                       Tactical Airlift
                                                       Squadron, McChord
                                                       AFB, WA.
August 1988.....................  June 1989.........  Student, National
                                                       War College, Fort
                                                       Lesley J. McNair,
                                                       Washington, DC.
July 1989.......................  July 1991.........  Director of Plans
                                                       and Policy,
                                                       Special
                                                       Operations
                                                       Command Europe,
                                                       Patch Barracks,
                                                       Stuttgart-
                                                       Vaihingen,
                                                       Germany.
August 1991.....................  May 1993..........  Deputy Commander
                                                       for Operations
                                                       and Commander,
                                                       1st Special
                                                       Operations Group,
                                                       Hurlburt Field,
                                                       FL.
May 1993........................  May 1995..........  Deputy Director of
                                                       Operations,
                                                       later, Deputy
                                                       Director of
                                                       Forces, Office of
                                                       the Deputy Chief
                                                       of Staff for
                                                       Plans and
                                                       Operations,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
June 1995.......................  May 1997..........  Commander, 16th
                                                       Special
                                                       Operations Wing,
                                                       Hurlburt Field,
                                                       FL.
June 1997.......................  October 1998......  Commander, Special
                                                       Operations
                                                       Command, Pacific,
                                                       Camp H.M. Smith,
                                                       HI.
October 1998....................  January 2000......  Director of
                                                       Strategic
                                                       Planning, Deputy
                                                       Chief of Staff
                                                       for Plans and
                                                       Programs,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
January 2000....................  September 2000....  Deputy Commander
                                                       in Chief, U.S.
                                                       Special
                                                       Operations
                                                       Command, MacDill
                                                       AFB, FL.
September 2000..................  October 2002......  Commander, Alaskan
                                                       Command, Alaskan
                                                       North American
                                                       Aerospace Defense
                                                       Command Region
                                                       and 11th Air
                                                       Force, Elmendorf
                                                       AFB, AK.
October 2002....................  October 2004......  Director for
                                                       Operations, the
                                                       Joint Staff,
                                                       Washington, DC.
October 2004....................  present...........  Director, the
                                                       Joint Staff,
                                                       Washington, DC.
------------------------------------------------------------------------


Flight information:
    Rating: Command pilot.
    Flight hours: More than 4,200.
    Aircraft flown: C-130E/H, MC-130E/H/P, HC-130, AC-130H/U, YMC-130, 
MH-53, and MH-60.

Major awards and decorations:
    Defense Distinguished Service Medal.
    Distinguished Service Medal.
    Defense Superior Service Medal with oak leaf cluster.
    Legion of Merit with two oak leaf clusters.
    Defense Meritorious Service Medal.
    Meritorious Service Medal with two oak leaf clusters.
    Air Force Commendation Medal with oak leaf cluster.
    Army Commendation Medal.

Effective dates of promotion:

------------------------------------------------------------------------
                                                        Date
------------------------------------------------------------------------
Second Lieutenant.........................  June 6, 1973
First Lieutenant..........................  June 6, 1975
Captain...................................  June 6, 1977
Major.....................................  Nov. 1, 1982
Lieutenant Colonel........................  March 1, 1985
Colonel...................................  Feb. 1, 1991
Brigadier General.........................  Jan. 1, 1996
Major General.............................  March 4, 1999
Lieutenant General........................  Jan. 18, 2000
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. 
Norton A. Schwartz, USAF, in connection with his nomination 
follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Norton A. Schwartz.

    2. Position to which nominated:
    Commander, United States Transportation Command, Scott Air Force 
Base, Illinois.

    3. Date of nomination:
    June 14, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 14, 1951; Toms River, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Suzanne E. (Ptak) Schwartz.

    7. Names and ages of children:
    None.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    AF Academy Association of Graduates (member).
    AF Academy Athletic Association (member).
    AF Academy Society of Washington, DC (member).
    AF Association (member).
    Air Commando Association (member).
    Airlift/Tanker Association (member).
    National War College Alumni Association (member).
    Order of Daedalians (member).
    Military Officers Association of America (member).
    Council on Foreign Relations (member).
    Concord Village Homeowners Association (member).

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Massachusetts Institute of Technology Seminar XXI (AF Fellows).
    Air Commando Association Hall of Fame.
    Toms River High School Hall of Fame.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.
    13. Personal views: do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Norton A. Schwartz.
    This 5th day of May 2005.

    [The nomination of Lt. Gen. Norton A. Schwartz, USAF, was 
reported to the Senate by Chairman Warner on July 28, 2005, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 29, 2005.]
                              ----------                              

    [Prepared questions submitted to Ronald M. Sega by Chairman 

Warner prior to the hearing with answers supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously answered the committee's advance policy 
questions on the reforms brought about by the Goldwater-Nichols Act in 
connection with your nomination in 2001 to be the Director of Defense 
Research and Engineering.
    Have your views on the importance, feasibility, and implementation 
of the Goldwater-Nichols Act reforms changed since you testified before 
the committee at your confirmation hearing on July 31, 2001?
    Answer. No.
    Question. Do you see the need for modifications of any Goldwater-
Nichols Act provisions based on your experience as Director of Defense 
Research and Engineering? If so, what areas do you believe might be 
appropriate to address in these modifications?
    Answer. I do not see a need to modify Goldwater-Nichols. However, 
it is appropriate to periodically review organizational and management 
frameworks to ensure continued validity.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Under Secretary of the Air Force?
    Answer. Subject to the Secretary of the Air Force's direction and 
control, the Under Secretary is authorized to act for and with the 
authority of the Secretary of the Air Force on all matters for which 
the Secretary is responsible; that is, to conduct the affairs of the 
Department of the Air Force. The Under Secretary also serves as the 
Department of Defense (DOD) Executive Agent for Space.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed, I expect the Secretary to prescribe for me 
duties pertaining to Under Secretary of the Air Force's 
responsibilities and Department of Defense Space management and 
operations.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Under Secretary of 
the Air Force?
    Answer. If confirmed, I will need to gain a more comprehensive, 
detailed knowledge on current Air Force operational, personnel, and 
fiscal issues. In my present duties as Director of Defense Research and 
Engineering, I have an appreciation of DOD and some Air Force technical 
issues, but will need a greater understanding of current Air Force 
approaches to programs, processes, procedures, metrics, and evaluation 
methods, in this new role.

                             RELATIONSHIPS

    Question. Section 8015 of title 10, United States Code, discusses 
the responsibilities and authority of the Under Secretary of the Air 
Force. Other sections of law and traditional practice also establish 
important relationships outside the chain of command. Please describe 
your understanding of the relationship of the Under Secretary of the 
Air Force to the following officials:
    The Secretary of Defense.
    Answer. The Secretary of Defense is responsible for all matters 
within the Department of Defense. The Secretary of the Air Force is 
subject to the authority, direction and control of the Secretary of 
Defense, and the Under Secretary of the Air Force works for the 
Secretary of the Air Force. Since 2002, the Under Secretary of the Air 
Force has been designated to perform the duties of the Department of 
Defense Executive Agent for Space. In this role, the Under Secretary 
develops, coordinates, and integrates policy, plans and programs for 
space systems and major defense space acquisitions. If confirmed and 
assigned to perform the duties of the Department of Defense Executive 
Agent for Space, I look forward to working closely with the Secretary 
of Defense on space-related matters.
    Question. The Secretary of the Air Force.
    Answer. The Under Secretary of the Air Force is subject to the 
authority, direction and control of the Secretary of the Air Force. If 
confirmed, I expect to be assigned a wide range of duties and 
responsibilities by the Secretary. I look forward to working closely 
with the Secretary as his deputy and principal assistant.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed and assigned the role of Executive Agent for 
Space, I will work closely with the Under Secretary of Defense for 
Acquisition, Technology, and Logistics on matters concerning space 
program milestone decisions and other areas related to acquisition, 
technology and logistics programs impacting the Department of the Air 
Force.
    Question. The Chief of Staff of the Air Force.
    Answer. The Chief of Staff is subject to the authority, direction, 
and control of the Secretary of the Air Force, presides over the Air 
Staff, and is a principal advisor to the Secretary. If confirmed, I 
would foster a close working relationship with the Chief of Staff to 
ensure that policies and resources are appropriate to meet the needs of 
the Air Force.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work closely with the 
Chairman through the Chief of Staff of the Air Force on appropriate 
matters affecting the Air Force.
    Question. The Under Secretaries of the other services.
    Answer. If confirmed, I will work to foster a close working 
relationship with the Under Secretaries of the Army and Navy. I look 
forward to sharing expertise that would assist in the management of the 
Department of the Air Force and coordinating with the other services on 
matters of mutual interest.
    Question. The Commander, U.S. Transportation Command.
    Answer. The Air Force provides the preponderance of military 
airlift capability and if confirmed, I will work with the Commander of 
U.S. Transportation Command to improve our ability to provide Global 
Lift and other transportation needs.
    Question. The Commander, U.S. Strategic Command.
    Answer. Given the critical role the Commander, U.S. Strategic 
Command (USSTRATCOM) plays in several missions, if confirmed, I will 
work with the USSTRATCOM Commander to understand his mission 
requirements and to organize, train and equip the Air Force to support 
USSTRATCOM operations. This support would be built on an established 
relationship with Commander, U.S. Strategic Command, who has several 
areas of responsibility to include: Space, Intelligence, Surveillance, 
and Reconnaissance (ISR), and Strike.
    Question. The General Counsel of the Air Force.
    Answer. The General Counsel (GC) is the senior civilian legal 
advisor to Air Force senior leaders and of all officers and agencies of 
the Department of the Air Force. The GC serves as the chief ethics 
official. If confirmed, I would look forward to developing a good 
working relationship with the General Counsel.
    Question. The Judge Advocate General of the Air Force.
    Answer. The Judge Advocate General (TJAG) is the senior uniformed 
legal advisor to Air Force senior leaders and of all officers and 
agencies of the Department of the Air Force and provides professional 
supervision to The Judge Advocate General's Corps in the performance of 
their duties. If confirmed, I look forward to developing a good working 
relationship with The Judge Advocate General.
    Question. The Director of the National Reconnaissance Office.
    Answer. As the DOD Executive Agent for Space, the Under Secretary 
of the Air Force must continue to have a strong collaborative 
relationship with the National Reconnaissance Office and therefore must 
have a strong relationship with its Director. If confirmed, I will work 
to foster a close working relationship with the Director of the 
National Reconnaissance Office, as well as the Director of National 
Intelligence (DNI). In light of the stand-up of the DNI, the DOD and 
the Intelligence Community (IC) are in the process of re-defining their 
relationship for national security space matters. If confirmed, I will 
work with the DNI, IC, and Executive Office of the President (EOP) to 
ensure the new policies and processes for coordinating space efforts 
will be effective and meet the needs of all users.
    Question. The Assistant Secretary of the Air Force for Acquisition.
    Answer. The Assistant Secretary of the Air Force for Acquisition 
acts as the Senior Acquisition Executive for the Air Force. If 
confirmed, I would work closely with the Assistant Secretary on 
acquisition matters, in particular as they relate to fulfilling the 
Under Secretary's role as Executive Agent for Space.
    Question. The other service acquisition executives regarding 
management of their space-related programs.
    Answer. If confirmed, I will work closely with the Service 
acquisition executives to ensure space acquisition planning, 
programming, and budgeting activities are properly coordinated and 
implemented.

                     MANAGEMENT OF SPACE ACTIVITIES

    Question. The Under Secretary of the Air Force is traditionally 
designated as the Department of Defense Executive Agent for Space. In 
this role, the Under Secretary develops, coordinates, and integrates 
policy, plans and programs for space systems and major defense space 
acquisitions.
    What is your view of the relationship of the Under Secretary of the 
Air Force, as the Executive Agent for Space, to the Under Secretary of 
Defense for Policy, and the Assistant Secretary of Defense for Networks 
and Information Integration with regard to space policy and systems?
    Answer. The DOD Executive Agent (EA) for Space must work closely 
with the other DOD offices tasked with developing space policy and 
acquiring space systems. The DOD EA for Space responsibilities include: 
planning, programming, and acquiring space systems. The EA for Space 
position requires close coordination with the Under Secretary of 
Defense for Policy for the development and coordination of DOD space 
policy and with the Assistant Secretary of Defense for Networks and 
Information Integration to ensure the proper development and 
integration of our space systems and exploitation of their 
capabilities.
    Question. In your view, what are the authorities of the Executive 
Agent for Space regarding: (1) the budgets, programs, and plans of the 
various Service and Defense Agency space programs; and (2) milestone 
decisions for space acquisition programs of the various Services and 
Defense Agencies?
    Answer. DOD Directive 5101.2 (DOD Executive Agent for Space) 
articulates responsibilities for the Executive Agent and the DOD 
Components and establishes the authority necessary for the Executive 
Agent to prepare and recommend to the USD (P) and the Director, Program 
Analysis and Evaluation (PA&E) DOD-wide space planning and programming 
guidance and to conduct an annual review of the `virtual' Major Force 
Program (vMFP) in close coordination with the DOD Components and the 
Intelligence Community. This Directive also establishes the Executive 
Agent's authority to supervise the execution of DOD space Major Defense 
Acquisition Programs.
    Question. As the DOD Executive Agent for Space, how will you ensure 
that each of the military services remains fully engaged in and 
knowledgeable about space programs and the advantages that such 
programs can bring to the warfighter?
    Answer. If confirmed, I plan to meet regularly with key leaders in 
the Services and assess the effectiveness of several senior groups that 
already exist for just this purpose, such as the National Security 
Space Stakeholders, Space Partnership Council, Science and Technology 
Summit, Defense Space Acquisition Board, to ensure that the military 
services remain fully engaged.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the Under Secretary of the Air Force?
    Answer. If confirmed, I will work closely with DOD and Air Force 
leadership, and this committee to identify major challenges for the Air 
Force, which, in my view, include:

        <bullet> Build confidence in the institutional processes while 
        fighting the global war on terrorism
        <bullet> Maintain world-wide operational capability (Global 
        Strike, Global Mobility and Global Intelligence, Surveillance 
        and Reconnaissance)
        <bullet> Address the challenge of aging equipment, and balance 
        transformation with ongoing operations
        <bullet> Regain discipline and reliability in the cost, 
        schedule, and performance of Air Force acquisition programs
        <bullet> Enhance integration and reduce lifecycle costs of 
        operational Air and Space systems
        <bullet> Appreciate and respond to the globalization and 
        increasing rate of change of technology
        <bullet> Reinvigorate the technical workforce within the Air 
        Force and National Security community

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Many steps have already been taken, but there is much work 
to do. If confirmed, I plan to work with senior DOD and Air Force 
leadership and emphasize the Air Force Core Values of Integrity First, 
Service Before Self, and Excellence In All We Do, and apply these 
values to the challenges confronting the Air Force. Specific plans will 
need to be developed, but they should include consideration of the 
following principles:

        <bullet> Providing warfighting capabilities in integrated joint 
        operations
        <bullet> Developing and taking care of people
        <bullet> Acquiring the best technology and equipment
        <bullet> Maintaining effective oversight and review mechanisms
        <bullet> Balancing cost of existing, enhanced, and new 
        operational capabilities

    I will work with Air Force and DOD leadership, and this committee 
to ensure the Air Force acquisition process is held to the highest 
standards and executed with professionalism, integrity, and acts in the 
best interest of the taxpayer.
    With respect to the space programs, I will work closely with the 
National Security Space organizations and the Director of National 
Intelligence to integrate various capabilities and engage those in 
operations, technology, acquisitions and logistics early in the process 
to determine requirements that are consistent with technology maturity, 
emphasizing systems engineering and technology maturity discipline in 
the development process.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Under Secretary of the Air 
Force?
    Answer. If confirmed, this is an area that I would need to examine 
in more detail.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, this is an area that I would need to examine 
in more detail.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish?
    Answer. If confirmed, I plan to work with Air Force leadership to 
emphasize Air Force core values of Integrity, Service, and Excellence 
while bringing the maximum capability to bear in the global war on 
terrorism. I would make it a priority to recruit, train, and retain the 
best and brightest airmen--Active, Reserve, Guard, and civilians. I 
would also work to improve the acquisition process to develop and field 
the capabilities we need to defend against emerging threats.

                             TRANSFORMATION

    Question. General Moseley briefly outlined his vision for Air Force 
transformation in a response to advance policy questions from the 
committee during his recent confirmation process to be Air Force Chief 
of Staff. General Moseley included ``enhancement of joint and coalition 
warfighting capabilities'' and a continued pursuit of ``innovation to 
lay the groundwork for Air Force transformation'' as components of his 
transformation vision. As Director of Defense Research and Engineering 
you were responsible for development of a strategy to promote technical 
innovation in support of transformation for the Department. If 
confirmed as Under Secretary of the Air Force, you would play an 
important role in the process of transforming the Air Force to meet new 
and emerging threats.
    If confirmed, what would your goals be for Air Force 
transformation?
    Answer. As the Director, Defense Research and Engineering, I worked 
with the Military Services and DOD Agencies to advance our technology 
options in knowledge, speed, agility, lethality and survivability. 
These technical capabilities when combined with new concepts, and 
changes to existing processes can lead to transformation. I am aware of 
several studies underway that when integrated into the Quadrennial 
Defense Review (QDR) will help to identify goals for Air Force 
transformation. If confirmed, I will review the Air Force 
transformation goals in this context to meet the needs of our National 
Security Strategy, now and in the future.

                        JOINT WARFIGHTING SPACE

    Question. The Air Force introduced the concept of Joint Warfighting 
Space to provide military commanders the capability to rapidly launch 
rockets with micro-satellites designed to support a specific area of 
operations with communications and other sensors.
    What is the status of current Air Force efforts to develop and 
acquire a Joint Warfighting Space capability?
    Answer. In my capacity as Director of Defense Research and 
Engineering, my knowledge of Air Force efforts to develop and acquire a 
Joint Warfighting Space Capability over the last 4 years has been 
developed from a perspective focused on Air Force technology 
developments. If confirmed, I will work with the Air Force, 
Intelligence Community, and space community to gain a better 
understanding of their programmatics supporting this initiative.
    Question. Which entity within the Department of Defense has the 
lead for these activities?
    Answer. The Air Force as the DOD Executive Agent for Space has the 
lead for these activities.

                              SPACE LAUNCH

    Question. On May 2, 2005, Boeing and Lockheed Martin announced 
plans to merge the production, engineering, test, and launch operations 
associated with providing Evolved Expendable Launch Vehicle (EELV) 
services to the U.S. Government. If approved by U.S. regulatory 
authorities, the companies believe the merger could save $100-150 
million per year for the U.S. Government while continuing to provide 
assured access to space.
    What is your view of the pending joint venture between Lockheed 
Martin and Boeing to form a single provider for military space launch 
capabilities?
    Answer. My understanding is that the pending joint venture has yet 
to formally file with the Federal Trade Commission (FTC). The Air Force 
would support the Office of the Secretary of Defense in developing a 
recommendation to the FTC upon request.
    Question. How will the Department maintain assured access to space 
with only a single provider?
    Answer. Until the Department has been provided the details of any 
change in the status of space capability providers, it would be 
premature to comment. If confirmed, I will work with industry, DOD 
leadership and this committee to ensure the Department has assured 
access to space.
    Question. Do you agree that the merger will result in cost savings 
to the U.S. Government? If your answer is yes, do you agree with the 
contractors' savings estimates?
    Answer. I am not familiar with the details of the proposed merger.

                         UNMANNED AIR VEHICLES

    Question. In the Floyd D. Spence National Defense Authorization Act 
for Fiscal Year 2001, Congress set a goal that within 10 years, one-
third of U.S. military operational deep strike aircraft would be 
unmanned. Funding for the Joint Unmanned Combat Air Systems (JUCAS) has 
recently been reduced and management of the program has changed from 
DARPA to an Air Force-led joint service program.
    Do you support the 10-year goal established by Congress?
    Answer. I agree with increased use of UAVs for a range of military 
applications. Results from JUCAS work will help us understand the 
capabilities, cost and schedule of unmanned aircraft systems. If 
confirmed, I will look into the progress the Air Force has made in this 
area and help provide a direction for the future.
    Question. Are you satisfied with the current JUCAS program 
objectives and schedule?
    Answer. I only have general knowledge of JUCAS program objectives 
and schedules. If confirmed, I will gain a more detailed understanding 
of the JUCAS program.
    Question. Do you feel the current level of investment is sufficient 
to achieve JUCAS program objectives and schedule?
    Answer. If confirmed, I will gain more detailed understanding of 
the JUCAS program.

                 AIRCRAFT SUSTAINMENT AND MODERNIZATION

    Question. The global war on terror has increased demands on the 
tanker fleet, increasing annual KC-135 flying hours over 30 percent 
since September 11. The Air Force has grounded 29 KC-135Es because of 
corrosion problems in the engine struts and has requested authority to 
retire these 29 aircraft, plus an additional 20 KC-135Es, in fiscal 
year 2006.
    Do you believe that any decision to retire KC-135Es should await 
the results of the OSD-directed tanker replacement Analysis of 
Alternatives? If not, why not?
    Answer. I am not familiar with the specifics of the issues 
surrounding the decision to ground and retire KC-135E aircraft. If 
confirmed, I will work with the Air Force and DOD leadership, and this 
committee to better understand the issues and the options to meet DOD 
needs now and in the future.

                       AIRCRAFT RECAPITALIZATION

    Question. Approximately one-third of the current Air Force aircraft 
inventory is under some type of flight restriction, mainly due to aging 
aircraft problems. The C-17 and F/A-22 were among the first of the 
modern Air Force recapitalization efforts.
    If confirmed, what steps would you take to further recapitalize the 
Air Force aircraft inventory and how would you prioritize the 
recapitalization effort?
    Answer. Until such time as I am able to gain a better understanding 
of all the issues, I am unable to recommend specific actions steps. If 
confirmed, I will work with the Air Force and DOD leadership, and this 
committee to balance the competing needs of the Air Force now and into 
the future.

                         FUTURE CARGO AIRCRAFT

    Question. The Army has included funds in the budget request to 
begin a program to previously, fixed wing cargo delivery has been 
included in the roles and missions of the Air Force.
    What is your view of the proper roles and missions for the Army and 
Air Force in supplying front line troops?
    Answer. I am not familiar with all the aspects of the Army's Future 
Cargo Aircraft (FCA). If confirmed, I will work with the Army, others 
in the Air Force and DOD leadership, and this Committee to ensure that 
the Air Force cargo delivery capabilities are complementary and 
coordinated across the Department.

                          JOINT STRIKE FIGHTER

    Question. The House Committee on Armed Services and the House 
Committee on Appropriations have recently proposed eliminating the 
procurement of long lead items to support the low rate initial 
production of five conventional take-off and landing variants of the 
Joint Strike Fighter.
    What are your views on this proposal?
    Answer. I am not familiar with the details and rationale for this 
proposal. If confirmed, I will work with DOD leadership and Congress to 
ensure that the needs of the DOD and international partners are best 
represented through effective acquisition and procurement strategies.
    Question. If the House proposal is sustained, what do you think 
would be the impact on the program's schedule and future Air Force 
procurement decisions?
    Answer. I am not familiar with the details in this area. If 
confirmed, I will work with DOD leadership and Congress to ensure that 
the needs of the DOD and international partners are best represented 
through effective acquisition and procurement strategies.

                           LONG RANGE BOMBERS

    Question. The B-1s, B-2s, and B-52s will begin to be retired in the 
2030 time frame.
    Do you believe that the United States needs to develop a new manned 
bomber?
    Answer. It is my understanding that the Air Force is in the process 
of completing an Analysis of Alternatives (AoA) for the next generation 
long range strike capability. Both manned and unmanned alternatives are 
being considered. If confirmed, once the AoA is completed, I will work 
with DOD leadership, and this committee to ensure that the Air Force 
acts in the best interest of the national defense to support 
operational capabilities described in the National Security Strategy, 
upcoming QDR, and other policy documents.
    Question. What role do you see for unmanned bombers?
    Answer. It is my understanding that the exact mission sets and 
timeframes best suited for manned and unmanned aircraft are being 
studied by the Air Force. If confirmed, and after I have had an 
opportunity to review the relevant data, I would be happy to discuss 
the findings before this committee.
    Question. When, in your view, must a decision on this issue be 
made?
    Answer. If confirmed, after I have had ample opportunity to review 
the relevant data, I would be able to give you an indication of when 
the decision must be made.

                          PROMPT GLOBAL STRIKE

    Question. What, in your view, is the definition of prompt global 
strike?
    Answer. As I understand the concept from Air Force briefings on 
this topic, Prompt Global Strike (PGS) is a concept wherein we have the 
capability to globally strike and precisely apply force against targets 
swiftly to achieve desired weapons effects.
    Question. What steps do you believe are needed to achieve the goal 
of prompt global strike?
    Answer. Several of the technical initiatives started in Defense 
Research and Engineering, in collaboration with the Air Force, 
emphasized speed, agility, lethality, and surveillance and knowledge. 
The resulting technical capabilities could enable various options for 
prompt time sensitive targeting support throughout the global 
battlespace. However, I am unfamiliar with the specifics of the Air 
Force's plans to achieve Prompt Global Strike. If confirmed, I will 
examine this area.

                              SPACE RADAR

    Question. There is currently discussion about whether to conduct a 
Space Radar demonstration, and if so, whether the demonstration should 
be atmospheric or orbital.
    What is your view on the need for a Space Radar demonstration?
    Answer. Until such time as I have a better understanding of the 
total Space Radar program, any comment I would make would be premature. 
If confirmed, I will work closely with DOD leadership and this 
committee to ensure that, if required, we create a demonstration that 
provides the best information with which to make informed Space Radar 
decisions.
    Question. If you believe a demonstration is needed, what type of 
demonstration do you believe would provide the most useful information 
to the program?
    Answer. Until such time as I have a better understanding of the 
total Space Radar program, any comment I would make would be premature. 
If confirmed, I will work closely with DOD leadership and this 
committee to ensure that, if required, we create a demonstration that 
provides the best information with which to make informed Space Radar 
decisions.

                     NATIONAL SECURITY SPACE POLICY

    Question. If confirmed, what role do you expect to play in the 
development of the new National Security Space Policy that is now being 
drafted?
    Answer. If confirmed, I look forward to taking a significant role 
in the interagency collaborative process on this update to our national 
space policy.

                   NATIONAL SECURITY PERSONNEL SYSTEM

    Question. If confirmed as Under Secretary of the Air Force, what 
role would you play in the implementation of the National Security 
Personnel System (NSPS)?
    Answer. If confirmed, I will support the Department of Defense 
position and approach to implement NSPS within the Air Force.
    Question. What are your views on the strengths and weaknesses of 
the implementation steps undertaken within the Department thus far?
    Answer. My views on implementation of NSPS within the Department 
are somewhat influenced by the fact my current organization, AT&L, was 
involved in acquisition workforce demonstration programs that supported 
the development of NSPS. A key implementation step is an effective 
training program that must be in place to educate the organization from 
top to bottom.
    Question. What do you believe will be the benefits of NSPS when 
implemented, and what steps would you take, if confirmed, to ensure a 
smooth and effective transition?
    Answer. NSPS is expected to provide DOD a more agile, dynamic, and 
efficient workforce. If confirmed, I will help foster an environment of 
support for our employees. For an example, to help ensure a smooth and 
effective transition, it is important to provide quality training to 
managers and employees in the program.

                          HEALTH BENEFIT COSTS

    Question. The cost of the Defense Health Program, like the cost of 
medical care nation-wide, is escalating rapidly. General Jumper 
recently stated that the cost of military health care is ``the single 
most daunting thing that we deal with out there today.''
    If confirmed, how would you approach the issue of rising personnel 
costs, including health care costs, as a component of the annual Air 
Force budget?
    Answer. While I am not completely familiar with this issue, I can 
certainly understand the concern with rising costs. If confirmed, my 
goal will be to ensure that our members and their families receive the 
highest quality care, whether deployed or at home station, as the Air 
Force maximizes its return on healthcare investments.

                         AEROMEDICAL EVACUATION

    Question. The committee included a provision in the National 
Defense Authorization Act for 2006--pending consideration by the full 
Senate--that would authorize $200 million for up to two fully equipped, 
dedicated, aeromedical evacuation aircraft for seriously wounded and 
ill patients. In answers to advance policy questions submitted by 
General Moseley prior to his confirmation as Air Force Chief of Staff, 
he disagreed with the purchase of unique, dedicated platforms for 
aeromedical evacuation. ``With the retirement of the C-9,'' he wrote, 
``we have intentionally moved away from a small, dedicated AE fleet to 
a concept that uses any available aircraft that can be configured to 
provide AE capability.'' The committee is concerned that the use of any 
available aircraft, in particular cargo and refueling aircraft, has 
resulted in unnecessary suffering for wounded personnel, especially 
those with severe injuries.
    If confirmed, what steps would you take to implement a requirement 
for dedicated medical aircraft, if such a requirement is approved by 
Congress?
    Answer. I am not familiar with the details of options under 
consideration. If confirmed, I will work with Air Force and DOD 
leadership, and Congress to ensure that the Air Force is positioned to 
meet the needs of the Department of Defense with timely and quality 
aeromedical evacuation, consistent with legislation.

                        QUALITY OF LIFE PROGRAMS

    Question. If confirmed, what priorities would you establish to 
ensure that military quality of life programs are sustained and 
improved for Air Force members and their families?
    Answer. If confirmed, I intend to strongly support for quality of 
life programs and other activities that contribute to improving quality 
of life for Air Force members and their families.

                           BATTLEFIELD AIRMEN

    Question. Operations in Iraq have required Air Force personnel to 
provide direct support to ground forces, including participation in 
convoy duty. The adequacy of the training provided to deployed airmen 
who may be required to defend a convoy and installations against 
insurgents has been questioned.
    What training is being provided to airmen who are assigned to, or 
who volunteer to perform, convoy duty or other duties requiring 
proficiency in small arms or crew served weapons?
    Answer. I am not fully aware of the specific training that is 
provided for this emerging mission. If confirmed, I will, within my 
purview, ensure that our Airmen receive the necessary training and 
resources for them to be successful.
    Question. What is your assessment of the sufficiency of the 
training currently being given to Air and Space Expeditionary Force 
airmen deploying to Iraq and Afghanistan?
    Answer. Training is a key element in any organization; 
particularly, in organizations like the Air Force that must adapt to 
new and emerging missions. The strength of our Armed Forces has been 
the ability to react to ever-changing environments, rapidly develop 
solutions, and implement them rapidly. The foundation of this 
competency is grounded in basic and advanced training. If confirmed, I 
will, within my purview, ensure that our airmen receive an appropriate 
amount of training commensurate with the missions to which they may be 
assigned.

               INDEPENDENCE OF THE JUDGE ADVOCATE GENERAL

    Question. In section 574 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005, the statutory responsibilities 
and authority of the service Judge Advocates General were amended to 
make it clear that interference by any officer or employee of the 
Department of Defense with the ability of the Judge Advocates General 
to give independent legal advice is not permitted. In the statement of 
managers language accompanying this provision (H. Rept. 108-767), the 
Secretary of the Air Force was directed to rescind his order of May 15, 
2003, regarding ``Functions and Duties of the General Counsel and the 
Judge Advocate General.'' Additionally, the General Counsel of the Air 
Force was required to rescind all internal operating instructions and 
memoranda issued in reliance on the Secretary's May 15, 2003, order.
    What is the current status of the Secretary of the Air Force's 
order of May 15, 2003?
    Answer. The Secretary of the Air Force order of May 15, 2003, was 
superseded with a new order as of July 14, 2005.
    Question. What are your views about the responsibility of the Judge 
Advocate General of the Air Force to provide independent legal advice 
to the Secretary of the Air Force, the Chief of Staff, and the Air 
Staff?
    Answer. I believe it is critical that Air Force senior leaders 
receive independent legal advice and counsel from the senior uniformed 
judge advocate.

                           ACQUISITION ISSUES

    Question. The Acting Secretary of the Air Force has announced that 
the Air Force will no longer pursue leases of major equipment, but will 
instead rely on the traditional acquisition system.
    Do you support this decision?
    Answer. Yes.
    Question. At his confirmation hearing earlier this year, the Air 
Force Chief of Staff testified that the Air Force has gone too far in 
reducing its acquisition work force, undermining its ability to provide 
needed oversight in the acquisition process.
    Do you agree with the Chief of Staff's assessment?
    Answer. Yes.
    Question. If so, what steps do you believe the Air Force should 
take to address this problem?
    Answer. I believe that we need to review the acquisition processes 
from the time the concept is developed to the time retirement decisions 
are made on major weapons and weapons systems. It is equally important 
to have the right mix of government civil service, military, and 
contractor support personnel with the appropriate education, 
experience, and training. We must also ensure that the mix we choose is 
appropriately distributed throughout the decision-making process. If 
confirmed, I will work with the acquisition community to determine a 
proper course of action.
    Question. Major defense acquisition programs in the Air Force and 
the other military services continue to be subject to funding and 
requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. Yes.
    Question. What steps, if any, do you believe the Air Force should 
take to address funding and requirements instability?
    Answer. I believe that performing a review of the Air Force 
development and acquisition programs in the context of QDR is required. 
Continuous involvement of the warfighter, technology, acquisition and 
logistics communities is important in a systems development program. If 
confirmed, I would work with Air Force and DOD leadership, Congress, 
and our customer/stakeholder bases to define solid system baselines, 
and develop stable funding plans.
    Question. The Comptroller General testified earlier this year that 
DOD programs often move forward with unrealistic program cost and 
schedule estimates, lack clearly defined and stable requirements, use 
immature technologies in launching product development, and fail to 
solidify design and manufacturing processes at appropriate junctures in 
development.
    Do you agree with the Comptroller General's assessment?
    Answer. I agree that there are challenges in defense acquisition. 
The areas that I have been most familiar with include technology 
maturity, systems engineering, integration, and requirements. The 
desired result is a system that provides operationally safe, suitable, 
and effective best-value products to the warfighter in the least amount 
of time.
    Question. If so, what steps do you believe the Air Force should 
take to address these problems?
    Answer. The Air Force has taken some good steps but there is more 
work to be done. There is an ongoing DOD-wide acquisition review of 
policies, regulations, and procedures, which will provide an assessment 
that considers many aspects of acquisition including: requirements, 
organization, legal foundation, decision methodology, oversight, and 
checks and balances. I look forward to the study's recommendations.

                   MILITARY SPACE ACQUISITION POLICY

    Question. The present generation of military space systems is being 
modernized in virtually every mission area, including: (1) strategic 
missile warning; (2) assured communications; (3) navigation; and (4) 
intelligence and surveillance. At the same time, virtually every one of 
these modernization programs has suffered substantial problems with 
regard to cost, schedule, and technical performance.
    To what do you attribute the execution problems on present space 
development programs?
    Answer. Some good steps have recently been taken, but more work 
remains to be done. We need to return to a more disciplined approach to 
acquisition. The areas that I have been most familiar with include 
technology maturity, systems engineering, integration, and 
requirements. The goal is to provide operationally safe, suitable, and 
effective best-value products to the warfighter in the least amount of 
time.
    Question. If confirmed, what steps would you take to correct 
problems in the space acquisition process?
    Answer. If confirmed, one of my top priorities will be to ensure we 
are taking the proper steps to address the problems we have seen in 
space acquisition programs. To ensure that we have a robust space 
acquisition approach we must continue our focus on mission success, 
consistently apply sound space acquisition policies, reconstitute our 
systems engineering capability, and--perhaps most importantly--develop 
an educated, trained, experienced space acquisition workforce for the 
future.
    Question. Given past difficulties with space acquisition, what is 
your level of confidence that the Space Radar and Transformational 
Satellite (TSAT) programs will meet schedule and cost targets?
    Answer. I have not examined the details on these programs to make 
an informed decision. If confirmed, I will conduct a review of these 
programs, determine the progress to date and challenges that lay ahead, 
and work with Congress, Air Force and DOD leadership, and key partners/
stakeholders, to set a roadmap for the future.

                    AIR FORCE SCIENCE AND TECHNOLOGY

    Question. During testimony earlier this year on the fiscal year 
2006 budget request, General Jumper noted that, ``The Air Force is 
committed to providing the Nation with the advanced air and space 
technologies required to protect our national security interests and 
ensure we remain on the cutting edge of system performance, 
flexibility, and affordability. Air Force Science and Technology (S&T) 
investments are focused on achieving the warfighting effects and 
capabilities required by the Air Force Concepts of Operations.'' In 
your role as Director of Defense Research and Engineering, you focused 
on three main initiatives for department-wide research efforts: 
Knowledge and Surveillance, Energy and Power and the National Aerospace 
Initiative.
    If confirmed, how would you further the goals of these research 
focus areas in meeting capabilities required by Air Force Concepts of 
Operations?
    Answer. The goals for these research focus areas were developed in 
cooperation with the military services and DOD agencies, and are tied 
to the desired Air Force capabilities defined in the Concept of 
Operations master planning process. The knowledge gained in these areas 
provided a foundation for future systems development options. If 
confirmed, I would review, and if appropriate, integrate technology 
into the Concept of Operations planning process.
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science in meeting Air Force 
missions?
    Answer. I support a robust Air Force Science and Technology (S&T) 
Program that provides for the innovation needed to enable Air Force 
capabilities. If confirmed, I would continue to support an adequate and 
stable investment in Air Force S&T that is in balance with an overall 
investment strategy.
    Question. For fiscal year 2006, the Air Force plans to dedicate 
approximately $2.0 billion to science and technology programs, 1.6 
percent of the total Air Force budget and $346 million to basic defense 
research, or 0.3 percent of the total Air Force budget.
    Do you believe that the current balance between short- and long-
term research is appropriate to meet current and future Air Force 
needs?
    Answer. The Air Force S&T Program spans a broad foundation of basic 
research, applied research, and advanced technology development 
efforts. The output of an S&T investment enables the development of 
capabilities needed to respond to a rapidly changing world. If 
confirmed, I will review the Air Force S&T Program with respect to a 
balanced investment in the research, development, demonstration, and 
transition of various technologies, and ensure that the Air Force S&T 
Program supports the needs of the warfighter.
    Question. If confirmed, what role would you play in ensuring 
research priorities that will meet the needs of the Air Force in 2020?
    Answer. If confirmed, I will strive to continue to ensure we have a 
high correlation between S&T programs and warfighting capabilities, now 
and in the future.
    Question. If confirmed, how would you work to ensure that 
appropriate S&T plans are utilized by the Air Force during the budget, 
planning, and programming process?
    Answer. My understanding is that the Air Force closely links 
technologies in its S&T plan to warfighter capability needs and focuses 
on those technologies of the highest priority to the warfighter. If 
confirmed, I look forward to working with Air Force and DOD leadership, 
and Congress to ensure a strong Air Force S&T Program.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain in institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What challenges to transition do you see within the Air Force?
    Answer. While I am unfamiliar with specific transition initiatives 
currently underway in the Air Force, if confirmed, I will bring to the 
Air Force some of the experiences gained in the Office of the Under 
Secretary of Defense for Acquisition, Technology and Logistics. Some 
examples included efforts to rapidly identify, mature, develop, test, 
assess, acquire, and field technologies to satisfy immediate warfighter 
needs. I expect to work closely with Air Force and DOD leadership, and 
Congress to examine streamlining the technology transition and 
acquisition processes.
    Question. If confirmed, how would you ensure that technologies are 
rapidly transitioned from the laboratory into the hands of the 
warfighter?
    Answer. If confirmed, I would support a robust Air Force Science 
and Technology (S&T) Program with the investment and focus needed to 
bring technologies to maturity, and transition these technologies into 
warfighting capabilities.
    Question. What steps would you take to enhance the effectiveness of 
technology transition efforts?
    Answer. If confirmed, I would support close collaboration with the 
technology community and the warfighter to identify current needs and 
to anticipate future operational needs arising from a changing national 
and world security environment.

                          TECHNICAL WORKFORCE

    Question. You have stated that ``the quality of our S&T workforce 
and the management of the laboratory infrastructure in which they work 
are very important factors in the overall research and engineering 
equation. They are critical elements in our transformation. Our S&T 
workforce has been downsized considerably in the last 12 years. This 
has left us with a very knowledgeable workforce, but one that is also 
reaching retirement age. We are at a critical point that requires a 
focused effort to bring stability to the workforce that will attract 
and retain talent.''
    What is your current assessment of the health of the defense S&T 
workforce and the management of the laboratory infrastructure?
    Answer. We anticipate an attrition of an estimated 13,000 science, 
math, engineering, and technology employees at the DOD labs within the 
next 10 years. The Air Force Research Laboratory relies on a strong 
technical workforce to conduct research for development of new weapons 
systems, platforms, and capabilities to meet emerging threats. To 
address the S&T workforce needs, the Department has several education 
programs within the basic research program. Fellowship programs are 
also available, such as the National Defense Science and Engineering 
Graduate Fellowship Program. Additionally, the Department has recently 
put forward to Congress for consideration an expansion of the Science, 
Mathematics, and Research for Transformation, also called the National 
Defense Education Act-Phase One. It is my understanding that the Air 
Force is committed to continuing to shape its S&T workforce with the 
vision to enhance excellence and relevance of Science and Technology 
into the 21st century.
    Question. If confirmed, what plans would you pursue to continue 
work to ensure a future supply of experts in defense critical 
disciplines to hold positions in defense laboratories?
    Answer. If confirmed, I will continue to work hard to make sure we 
have the right mix of talent, expertise, and skill to meet our needs in 
the Department of Defense, and to find innovative measures to attract 
bright individuals from America's youth to science, math, engineering 
and technology career fields. For example, the Science, Mathematics and 
Research for Transformation (SMART)/National Defense Education (NDEA) 
Act-Phase One program could provide an important option to address 
critical shortfalls in the DOD scientific and engineering workforce.

                      SPACE ACQUISITION WORKFORCE

    Question. The previous Under Secretary of the Air Force, Peter B. 
Teets, as the Department's Executive Agent for Space, issued a defense-
wide space human capital strategy in February 2004 in response to a 
mandate in the National Defense Authorization Act for Fiscal Year 2004. 
In December 2004, the Executive Agent issued an implementation plan for 
the space human capital strategy that included defense-wide tasks 
related to space personnel management, education and training, and 
critical space positions. The Department is currently behind schedule 
but has begun to implement the plan's tasks.
    In your view, does the Executive Agent for Space possess sufficient 
authorities to make necessary changes and advances in the management 
and pursuit of space programs?
    Answer. My understanding is that sufficient authorities exist, but 
I would like to check into this area if confirmed.
    Question. If confirmed, how would you promote the development of 
the services' space cadres and ensure that the needs of the 
Department's total force, including joint requirements, are met?
    Answer. As Director, Defense Research and Engineering, we advanced 
ways of increasing the number of professionals in defense-related 
fields of Math, Science, and Engineering that are eligible to obtain a 
security clearance. It is my understanding that as the DOD EA for 
Space, I would chair the Space Professional Oversight Board which is 
responsible for developing the DOD space cadre. This board was 
chartered by my predecessor, with representation from all of the 
stakeholders, and, if confirmed, I will review its effectiveness in 
synchronizing and integrating the efforts of the Services in the 
development of their DOD space cadres.
    Question. If confirmed, how would you advance implementation of the 
Department's space human capital strategy to ensure it is completed in 
a timely manner?
    Answer. Through the Space Professional Oversight Board discussed 
above.
    Question. If confirmed, what steps would you take to improve the 
expertise of the space acquisition workforce in both acquisition 
management skills and space technical knowledge?
    Answer. If confirmed, I would exercise oversight through the Space 
Professional Oversight Board discussed above.

              LABORATORY PERSONNEL DEMONSTRATION PROGRAMS

    Question. A number of Air Force laboratories now operate under 
congressionally-authorized personnel demonstration programs. These 
programs are intended to provide lab commanders with flexibility in 
managing their personnel, and to operate as test beds for innovative 
personnel systems that could help the Air Force recruit and retain 
highly qualified scientists and engineers. Lab demonstration programs 
have not been modified since 2001.
    How will you work to ensure that Air Force laboratory demonstration 
programs and authorities are fully utilized?
    Answer. My understanding is that the Laboratory Personnel 
Demonstration or Lab Demo pilot personnel program authorized by 
Congress has been effective in providing the Air Force with the 
flexibility to help shape its Scientist and Engineer (S&E) workforce. 
If confirmed, I would support having management flexibilities with the 
vision to enhance excellence and relevance of our laboratories into the 
21st century.
    Question. What advantage, if any, do you believe there are in 
laboratory mission performance when laboratory commanders are allowed 
to exercise control over their own personnel systems?
    Answer. I believe the authority granted by Congress under the 
Laboratory Personnel Demonstration Project, or Lab Demo pilot personnel 
program, provides commanders the flexibility needed to hire and retain 
a technical employee with specific talents, expertise, and skills. This 
infusion of talent helps revitalize and bring new ideas into the 
scientific and engineering community--this not only improves mission 
performance, but also provides a larger talent pool to continue 
transformation.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

             INSTALLATION DEFENSE, PROTECTION AND SECURITY

    1. Senator Warner. Dr. Sega, Mr. Eastin, and Mr. Anderson, in 2004, 
the Department of Defense (DOD) initiated the defense-wide Guardian 
Installations Protection Program (IPP). Upon completion, Guardian IPP 
will provide warning and protection for 200 critical DOD installations 
and facilities in the United States and abroad from potential chemical, 
biological, radiological, and nuclear (CBRN) attacks. The committee has 
fully supported this important initiative and, in fact, has authorized 
an additional $10.2 million within the program to provide greater 
protection of our military's mail system. Do you believe that our 
military installations are vulnerable to potential CBRN attacks?
    Dr. Sega. Our military installations worldwide remain subject to 
terrorist attacks with chemical, biological, radiological, nuclear 
(CBRN) weapons in addition to the potential effects of high-yield 
explosive attacks (E). Currently, CBRN defense shortfalls are 
identified as capability gaps in several General Accounting Office 
(GAO) audits, a Joint Functional Needs Analysis for CBRN Defense, and a 
Joint Baseline Capability Assessment for Consequence Management. As 
part of the Air Force's ongoing efforts to institutionalize counter-
CBRNE improvements and integrate them into strategy, planning, and 
operational capabilities, we continue to work with the Chemical and 
Biological Defense Program officials in the Office of the Secretary of 
Defense and the Joint Staff to increase our capabilities to prevent, 
prepare, respond, and recover from potential CBRNE attacks. The Air 
Force supports the Joint Guardian Installation Protection Program, 
providing enhanced CBRN defense capability. Through material and 
nonmaterial solutions, Guardian provides bases with the increased 
capability to protect personnel, continue critical missions, and 
conduct consequence management activities in the event of a CBRN 
attack.

    2. Senator Warner. Dr. Sega, Mr. Eastin, and Mr. Anderson, given 
the significant capital our government has invested at these high-value 
military installations, do you believe it is necessary to protect these 
assets from possible CBRN attacks?
    Dr. Sega. Yes. The President charted the course in the National 
Security Strategy of 2002 when he stressed that the United States will 
prevent our enemies from threatening our allies, our friends, and us 
with weapons of mass destruction. As part of that charge on June 24, 
2005, Acting Deputy Secretary of Defense Gordon England signed out the 
memorandum entitled Implementation of the Strategy for Homeland Defense 
and Civil Support that calls for the ``protection of high priority 
installations and personnel from chemical, biological, radiological, 
nuclear attacks.'' The Wing Commander must be able to execute the 
installation's primary warfighting mission. To the best of my 
abilities, I will help ensure the Air Force supports this strategy with 
the appropriate resources.

    3. Senator Warner. Dr. Sega, Mr. Eastin, and Mr. Anderson, as these 
200 installations and facilities are under the jurisdiction of the DOD, 
how do you intend to ensure the program is fully and effectively 
implemented within your respective Service?
    Dr. Sega. The Air Force has a number of efforts underway that are 
responsive to the possibility of enemy attacks with chemical, 
biological, radiological, and nuclear high-yield explosives (CBRNE), 
both offensive and defensive, and designed to be effective both in the 
homeland and forward regions. We are also closely linked with the 
Chemical and Biological Defense Program. The Air Force is developing a 
Counter-CBRNE Concept of Operations involving operational, logistical, 
security forces, medical, intelligence, inspection, and training 
disciplines. We must continue to assess our capabilities in this area 
and will bring forward shortfalls for consideration of additional 
resource commitments. Finally, we are increasing research in this area 
through university research, defense industry collaboration, and 
partnerships with coalition experts.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                   DEPOT MAINTENANCE IMPROVEMENT FUND

    4. Senator Inhofe. Dr. Sega, Mr. Bell, and Mr. Anderson, since the 
Bush administration came into office, we have seen a renewed interest 
in the Air Force's depots. A key to this overall reinvigoration has 
been the Depot Maintenance Strategy and Master Plan that will ensure 
America's air and space assets are ready to rapidly respond to any 
national security threat. Because of this plan, we have begun a 
restoration of our Air Force's three depot facilities, one of which is 
located at Tinker Air Force Base, Oklahoma. This modernization will 
ensure the United States is able to maintain world-class aircraft 
repair and overhaul facilities. Tinker Air Force Base is the largest 
single employer in the State of Oklahoma. It is important to sustain 
and upgrade Tinker's facilities and equipment along with that of the 
other depot facilities. There is currently an amendment that I support 
which calls for full funding of the Depot Maintenance Strategy and 
Master Plan at a level of $150 million a year, over a 6-year period. 
Secretary Gibbs supported fully funding the Depot Maintenance 
Improvement Fund. Do you have any concerns about sufficiently funding 
the Improvement Fund at the same percentage level as Secretary Gibbs?
    Dr. Sega. The Air Force continues its commitment to managing world 
class organic depot maintenance capability for our warfighters. I will 
make every effort to meet our responsibilities to modernize and 
transform our depot maintenance equipment, facilities, and personnel.

    5. Senator Inhofe. Dr. Sega, Mr. Bell, and Mr. Anderson, will you 
commit to this same level of funding?
    Dr. Sega. The Air Force remains committed to managing world-class 
organic depot maintenance capability for our warfighters. I will work 
to meet our commitment to modernize and transform our depot maintenance 
equipment, facilities, and personnel.

                       MOBILITY CAPABILITY STUDY

    6. Senator Inhofe. General Schwartz and Dr. Sega, I am concerned 
about the Mobility Capability Study. Actually, when Secretary Teets 
testified before this committee last March at the Air Force's posture 
hearing, we had been informed that the Mobility Capability Study would 
be ready ``shortly,'' but the timing keeps moving to the right. This 
study was commissioned in order to determine exactly just how short we 
are in strategic and tactical airlift resources. Other Members of the 
committee and I have raised concerns about decisions made by the Air 
Force with regard to programming and budgeting without the benefit of 
this study. I am sure you are well aware of termination costs 
associated with DOD's reversed decision to stop production of the C-
130J, with its domino effect on the cost of the Marine Corps' KC-130. I 
am truly concerned that this study has not been completed. DOD and this 
committee need the results to validate our airlift decisions and plan 
for future mobility and refueling needs. Can you give us an idea of 
when we might have the Mobility Capability Study finished and share any 
of it preliminary findings?
    Dr. Sega. As I understand it, the primary analysis is complete and 
the initial insights on inter-theater, intra-theater, Continental 
United States (CONUS), Homeland Defense and Air Refueling capabilities 
were briefed on June 6, 2005 to the Mobility Capability Study Executive 
Committee (co-chaired by Office of the Secretary of Defense and the 
Joint Staff), the senior oversight body and final approval authority 
for the study.
    I believe Office of the Secretary of Defense and the Joint Staff 
are now preparing the report for final coordination. We will fully 
support their efforts to finalize this study.
                                 ______
                                 
             Question Submitted by Senator Saxby Chambliss

           THE DIRECTOR OF THE NATIONAL RECONNAISSANCE OFFICE

    7. Senator Chambliss. Dr. Sega, in the past Secretary Teets as the 
Under Secretary of the Air Force also served as the Director of the 
National Reconnaissance Office (NRO). This arrangement, however, is no 
longer the case. With the standing-up of the Director of National 
Intelligence, the DOD seems to be in the process of redefining this 
relationship for national security space matters. As DOD Executive 
Agent for Space, your responsibilities would include planning, 
programming, and acquiring space systems. Likewise the Director of the 
NRO is designated as the DOD agency within the intelligence community 
that designs, builds, launches, and operates the Nation's 
reconnaissance satellites. What challenges do you see in coordinating 
the efforts of the NRO with the rest of DOD space activities?
    Dr. Sega. As the Under Secretary of the Air Force (USECAF) and the 
Department of Defense Executive Agent for Space, my staff and I work 
very closely with Dr. Kerr and his staff at the NRO to ensure space 
activities are coordinated. There has been much progress made over the 
past several years. Our goal is to ensure space programs meet 
warfighter needs while remaining on schedule and within cost. Dr. Kerr 
and I will work together to improve space planning, programming, and 
acquisition to include policy, personnel, and industrial base 
considerations.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                      TOTAL INFORMATION AWARENESS

    8. Senator Levin. Dr. Sega, the Total Information Awareness (TIA) 
program was established in Defense Advanced Research Projects Agency 
(DARPA) as part of the reaction to the events of September 11, 2001. 
Although a few of the technologies included in the system were under 
early-stage development at that point, the first budget request that 
included funding for TIA was in fiscal year 2003, when you had been the 
Director of Defense Research and Engineering (DDR&E) for more than a 
year. TIA was also the subject of a number of congressional inquiries, 
newspaper articles--including the front page of the New York Times--was 
the cause of the establishment of an internal and external review panel 
by then Secretary Aldridge, and suffered a highly publicized 
termination by Congress in fiscal year 2004. Given that history, the 
fact that the Director of DARPA reports to you as DDR&E, and that you 
were the head of all DOD science and technology programs at the time, 
it is important that you clarify your role in the TIA program. How did 
you participate in the establishment of the TIA program as part of 
DOD's response to September 11?
    Dr. Sega. Approval and establishment of the TIA program's major 
elements predate my tenure as the DDR&E. The fundamental information, 
database, prediction, terrorist detection, language translation, and 
bio-metric technology research elements were established at DARPA 
starting in the mid and late 1990s and made use of disparate programs 
like the Small Business Innovative Research Program, University 
Research Initiative, and others.
    In the wake of the September 11, 2001, terrorist attacks, DARPA 
formed the Information Awareness Office and initiated the TIA Program 
to consolidate these established technology projects, increase synergy, 
and improve management.

    9. Senator Levin. Dr. Sega, how did you exercise your oversight 
over DARPA in their development and execution of the program?
    Dr. Sega. As Director of Defense Research & Engineering, I 
exercised broad, top-level oversight for a very large, diversified 
portfolio of science and technology programs sponsored by DARPA, the 
military services, and the other Under Secretary of Defense 
Acquisition, Technology & Logistics organizations.

    10. Senator Levin. Dr. Sega, how did you, as DDR&E, participate in 
shaping DOD's public and internal review activities in response to 
congressional and public interest in the program?
    Dr. Sega. As DDR&E, my office supported the internal and external 
reviews of Total Information Awareness (TIA).
    I directly provided concurrence, with comments, to the Report of 
the DOD Inspector General on TIA (December 2003) for the Under 
Secretary of Defense Acquisition, Technology and Logistics.
    Additionally, my staff and I interacted with Ms. Lisa Davis, the 
Executive Director and Designated Federal Official for the Technology 
and Privacy Advisory Committee, which reported their findings and 
recommendations to the Secretary of Defense in March 2004.

    11. Senator Levin. Dr. Sega, what major lessons did you learn from 
these experiences and activities?
    Dr. Sega. I concur with the recommendations of the Technology and 
Privacy Advisory Committee. Advanced technology, and information 
technology in particular, promises to improve United States (U.S.) and 
allied counterterrorism capabilities; however, development and 
execution of these new technologies must not compromise the privacy of 
U.S. citizens.
    These lessons underscore the need for greater oversight and 
accountability in our technical programs. The Total Information 
Awareness discussion helped address the broader issues on the balance 
between a necessarily large, robust, and diverse technology portfolio 
and the attendant need for oversight and accountability. It also added 
impetus to my efforts to increase the level of detail captured by 
management level metrics and to galvanize the oversight process within 
and throughout the Director, Defense Research and Engineering 
organization, to include more detailed office-by-office reviews within 
Defense Advanced Research Projects Agency.

    12. Senator Levin. Dr. Sega, how will experiences as DDR&E shape 
your approach to performing the functions of Under Secretary of the Air 
Force?
    Dr. Sega. The Air Force, like all the Services, has a large, 
diverse, and challenging set of technology goals. My tenure as DDR&E 
clearly demonstrated to me both the need and value of increased 
oversight and accountability in our management of ambitious technology 
programs. I fully intend to advocate and emphasize the increased use of 
metrics tied to strategic goals, and improved program tracking 
techniques throughout the Air Force. As DDR&E, I focused on the 
technology aspects of acquisition and in this new position I will 
emphasize the broader acquisition issues as well.

                    SPACE COMMISSION RECOMMENDATIONS

    13. Senator Levin. Dr. Sega, the Space Commission, chaired by 
Secretary Donald Rumsfeld, was established by the National Defense 
Authorization Act for Fiscal Year 2000. There were several key 
recommendations of the Commission but I would like to discuss two of 
these, recommendations numbered 5, 8, in the Commission report. 
Recommendation Number 5: ``An Under Secretary of Defense for Space, 
Intelligence, and Information should be established.'' The Commission 
recommended that this individual should be assigned the responsibility 
to oversee the DOD's research and development, acquisition, launch and 
operation of its space, intelligence, and information assets. 
Recommendation Number 8: ``Assign the Under Secretary the Air Force as 
the Director of the National Reconnaissance Office. Designate the Air 
Force Under Secretary as the Air Force Acquisition Executive for 
Space.'' The Commission recommended the appointment of a single 
official within the Air Force with the authority for the acquisition of 
space systems for the Air Force and the NRO based on the `best 
practices' of each organization. The approach that the Secretary took 
was to combine the responsibilities for space that the Commission had 
recommended for the Under Secretary of Defense and all of the 
responsibilities recommended for the Under Secretary for the Air Force, 
and assign them all to the Under Secretary of the Air Force. In 
addition, milestone decision for all space acquisition was assigned to 
the Under Secretary of the Air Force. At the time many in Congress were 
skeptical of this approach but decided to support the decision. Now the 
consensus is that this was a good decision, and that progress has been 
made in coordinating black and white space programs. Some improvements 
have also been made in fixing a space acquisition program that has been 
badly broken for the last 10 years. Now DOD is reversing its course, 
splitting up the position, and again establishing a separate director 
of NRO. What we need to understand is how this will affect the progress 
that has been made in the last few years and will the management of 
space revert to the problems previously identified by the Commission?
    Dr. Sega. Working with both the DOD and NRO staffs over the last 
few years, I recognized the many accomplishments and the substantial 
progress we have made for the Nation, especially the Warfighter and 
Intelligence Community (IC) support to the global war on terrorism, 
Operation Iraqi Freedom and Operation Enduring Freedom. The cooperation 
between the DOD and IC on the National Security Space Strategy, the 
National Security Space Plan, and the National Security Space Program 
Assessment helped to build unity of effort across our various agencies. 
We are on the way to addressing the problems identified by the 
Commission, and, in cooperation with Dr. Kerr, I am confidant that we 
will make steady progress.

    14. Senator Levin. Dr. Sega, with this breakup how will black and 
white space integration be maintained?
    Dr. Sega. I am committed to integration and alignment of National 
Reconnaissance Office and Department of Defense space programs. In 
cooperation with Dr. Kerr, we must support both the Director of 
National Intelligence and the Secretary of Defense on space matters to 
achieve unity of effort. We must strive for consistency in planning, 
programming, and acquisition processes; application of lessons learned 
across the community; coordination of approaches to processing, fusing, 
and disseminating information to customers; and building and 
maintaining a community of space professionals.

    15. Senator Levin. Dr. Sega, who will have milestone decision 
authority for space acquisition programs?
    Dr. Sega. In March of this year, the Under Secretary of Defense 
Acquisition, Technology and Logistics (USD/AT&L) redesignated all Air 
Force Acquisition Category (ACAT) 1C programs as ACAT 1Ds and in so 
doing, assumed Milestone Decision Authority responsibility for space 
acquisitions. This action was taken as a result of vacancies in the Air 
Force due to the departures of the former Secretary and Under Secretary 
of the Air Force.
    With my confirmation, the Air Force requested USD/AT&L redesignate 
all ACAT 1D space systems as ACAT 1C programs and return Milestone 
Decision Authority to the Air Force.

    16. Senator Levin. Dr. Sega, will there be a single individual with 
milestone acquisition decision authority for black and white space?
    Dr. Sega. Not to my knowledge.

    17. Senator Levin. Dr. Sega, will there still be a single approach 
to space acquisition?
    Dr. Sega. I will need to better understand the different oversight 
and policy requirements levied for both the National Reconnaissance 
Office (NRO) and Department of Defense (DOD) and how the DOD's National 
Security Space Acquisition Policy, 03-01, is aligned with the NRO's 
acquisition policy, NRO Directive (NROD) 7. I recognize that it is 
important to continue to work together to ensure common practices.

    18. Senator Levin. Dr. Sega, how will joint programs, such as Space 
Radar, or complementary programs be managed?
    Dr. Sega. Several organizations are involved in current and future 
space acquisition programs including all the military services, Defense 
Advanced Research Projects Agency, the National Reconnaissance Office, 
National Oceanic and Atmospheric Administration, and the National 
Aeronautics and Space Administration. Management of these programs will 
require an assessment on a case-by-case basis. Space radar will be one 
of the first ones I review.

    19. Senator Levin. Dr. Sega, who will assume responsibility for 
ensuring that there is not duplication and that there is full 
coordination between black and white space?
    Dr. Sega. The Nation must avoid duplicative systems. We strive to 
make our national security space capabilities more efficient and 
effective. Although some duplication is desirable for assuring 
capability, I will work closely with Dr. Kerr and the Intelligence 
Community to ensure we are integrating and aligning our efforts and 
resources. Recurring events such as the Space Partnership Council, 
Space Industrial Base Council, and the National Security Space 
Stakeholder's meetings expand cooperation and lead to better 
understanding of plans and activities in areas of mutual interest.

    20. Senator Levin. Dr. Sega, who will coordinate space launch 
policies?
    Dr. Sega. As Under Secretary of the Air Force and Department of 
Defense Executive Agent for Space, I will work closely with the Office 
of the Secretary of Defense, the Air Force, and other Services, the 
National Reconnaissance Office, the National Aeronautics and Space 
Administration, and our commercial and industrial partners to 
coordinate on space launch policies.

    21. Senator Levin. Dr. Sega, will splitting up the position 
provide, as the Space Commission realized was urgently needed, 
``methods for resolving the inevitable issues between the defense and 
intelligence sectors on the priority, funding, and control of space 
programs?''
    Dr. Sega. I will work with the Director, National Reconnaissance 
Office (NRO) to coordinate efforts between Department of Defense (DOD) 
and NRO. Over the last couple of years, a variety of management 
initiatives have been put in place, such as creating a National 
Security Space Vision, a National Security Space Strategy, and a 
National Security Space Plan; and collaboratively developing 
architectures between NRO and DOD space programs. Our future efforts 
should also help ensure that the national security space programs 
become more efficient and more effective.
                                 ______
                                 
    [The nomination reference of Ronald M. Sega follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 28, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Ronald M. Sega, of Colorado, to be Under Secretary of the Air 
Force, vice Peter B. Teets, resigned.
                                 ______
                                 
    [The biographical sketch of Ronald M. Sega, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of Ronald M. Sega

    The Honorable Ronald M. Sega, Director of Defense Research and 
Engineering (DDR&E), is the chief technical advisor to the Secretary of 
Defense and the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (USD-AT&L) for scientific and technical matters, basic 
and applied research, and advanced technology development. Dr. Sega 
also has management oversight for the Defense Advanced Research 
Projects Agency (DARPA).
    Dr. Sega has had an extensive career in academia, research, and 
government service. He began his academic career as a faculty member in 
the Department of Physics at the U.S. Air Force Academy. His research 
activities in electromagnetic fields led to a Ph.D. in Electrical 
Engineering from the University of Colorado. He was appointed as 
Assistant Professor in the Department of Electrical and Computer 
Engineering at the University of Colorado at Colorado Springs in 1982. 
In addition to teaching and research activities, he also served as the 
Technical Director of the Laser and Aerospace Mechanics Directorate at 
the F.J. Seiler Research Laboratory and at the University of Houston as 
the Assistant Director of Flight Programs and Program Manager for the 
Wake Shield Facility. Dr. Sega became the Dean, College of Engineering 
and Applied Science, University of Colorado at Colorado Springs in 
1996. Dr. Sega has authored or co-authored over 100 technical 
publications and was promoted to Professor in 1990. He is a Fellow of 
the American Institute of Aeronautics and Astronautics (AIAA), the 
Institute for the Advancement of Engineering (IAE), and the Institute 
of Electrical and Electronic Engineers (IEEE).
    In 1990, Dr. Sega joined NASA, becoming an astronaut in July 1991. 
He served as a mission specialist on two Space Shuttle Flights, STS-60 
in 1994, the first joint U.S. Russian Space Shuttle Mission and the 
first flight of the Wake Shield Facility, and STS-76 in 1996, the third 
docking mission to the Russian space station Mir where he was the 
Payload Commander. He was also the Co-Principal Investigator for the 
Wake Shield Facility and the Director of Operations for NASA activities 
at the Gagarin Cosmonaut Training Center, Russia, in 1994-1995.
    Dr. Sega has also been active in the Air Force Reserves. A Command 
Pilot in the Air Force with over 4,000 hours, he has served in various 
operational flying assignments, including a tour of duty as an 
Instructor Pilot. From 1984 to 2001, as a reservists assigned to Air 
Force Space Command (AFSPC), he held positions in planning analysis and 
operational activities, including Mission Ready Crew Commander for 
satellite operations--Global Positioning System (GPS) Defense Support 
Program (DSP), and Midcourse Space Experiment (MSX), etc. He was 
promoted to the rank of Major General in the Air Force Reserves in July 
2001.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Ronald M. Sega 
in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Ronald Michael Sega.

    2. Position to which nominated:
    Under Secretary of the Air Force.

    3. Date of nomination:
    July 28, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 4, 1952; Cleveland, OH.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ann E. Flemke.

    7. Names and ages of children:
    Ronald John Sega, age 3.
    Matthew Karl Sega, age 2.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Colorado (08/1979-08/1982) Ph.D. Electrical 
Engineering, 1982.
    Ohio State University (06/1974-03/1975) M.S. Physics, 1975.
    U.S. Air Force Academy (06/1970-06/1974) B.S. Math and Physics, 
1974.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2001-Present: Director. Defense Research and Enqineering, 3030 
Defense Pentagon - RM 3C638, Washington, DC.
    1996-2001: Dean, College of Engineering and Applied Science, 
Professor (1982-present (on leave of absence)), Department of 
Electrical and Computer Engineering, University of Colorado at Colorado 
Springs, CO.
    1990-1996: Astronaut, NASA Johnson Space Center, 2101 NASA Road 1, 
Houston, TX.
    1982-Present: U.S. Air Force Reserve Officer.
    2001-present: Major General, Reserve Assistant (RA) to the Chairman 
of the Joint Chiefs of Staff.
    2000-2001: Major General, Mobilization Assistant (MA) to the 
Commander Air Force Space Command (AFSPC).
    1998-2000: Brigadier General, MA to the Commander, Space Warfare 
Center.
    1996-1998: Colonel, RA to the Director, Operations, AFSPC.
    1993-1996: Colonel, RA to the Director, Plans, AFSPC.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    2000 - International Space Station Operations Architecture Study. 
Conducted for NASA (MOBIS contract through Computer Sciences 
Corporation).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Institute of Aeronautics and Astronautics (AIAA).
    Association of Space Explorers (ASE).
    Eta Kappa Nu.
    Institute of Electrical and Electronics Engineers (IEEE).
    Order of Daedalians.
    Reserve Officer Association (ROA).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Fellow, American Institute of Aeronautics and Astronautics (AIAA), 
2003.
    Elected Member, International Society of Astronautics, 2002.
    Fellow, Institute of Electrical and Electronics Engineers (IEEE), 
2001.
    Aerospace Education Foundation - Elected Trustee, 2000.
    Educator of the Year 1998-1999, INROADS, Colorado.
    Honorary Doctorate, Bridgewater State College, 1998.
    NASA Outstanding Leadership Medal (Payload Commander, STS-76), 
1997.
    American Astronautical Society Flight Achievement Award, 1996.
    NASA Acquisition Improvement Award (X-33), 1996.
    NASA Space Flight Medal (STS-76), 1996.
    Institute of Electrical and Electronics Engineers - Elected Senior 
Member, 1996.
    Group Achievement Award (NASA - Crew Exchange Working Group with 
Russia), 1995.
    Superior Achievement Award (NASA - Director of Operations, Russia), 
1995.
    Group Achievement Award (Microgravity Measurement Device 
Development Team), 1994.
    NASA Space Flight Medal (STS-60), 1994.
    Ohio Veterans Hall of Fame, 1994.
    Honorary Doctorate - Clarkson University, 1993.
    Fellow, Institute for the Advancement of Engineering, 1992.
    Associate Fellow, American Institute of Aeronautics and 
Astronautics (AIAA), 1992.
    Selected as an Astronaut, 1991.
    Reserve Officer (IMA) of the Year - U.S. Air Force, 1988.
    Reserve Officer (IMA) of the Year - Air Force Space Command, 1988.
    Sustained Superior Service Award - Frank J. Seiler Research 
Laboratory, 1988.
    Academic Hall of Fame - Nordonia High School, Macedonia, Ohio, 
1988.
    Outstanding Faculty Award - Department of Electrical Engineering, 
University of Colorado at Colorado Springs, 1985.
    Air Force Research Fellow - Air Force Office of Scientific 
Research, 1985.
    Regional Finalist - White House Fellowship, 1984.
    Officer of the Year in the Physics Department, U.S. Air Force 
Academy, 1980.
    Top Graduate of Pilot Instructor Training Course, 1976.
    Distinguished Graduate, U.S. Air Force Academy, 1974.

Military Decorations:
    Distinguished Service Medal
    Legion of Merit
    Defense Meritorious Service Medal
    Meritorious Service Medal with one oak leaf cluster.
    Air Force Commendation Medal with one oak leaf cluster.
    Air Force Achievement Medal.
    Air Force Outstanding Unit Award.
    Air Force Organizational Excellence Award with one oak leave 
cluster.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    J.R Clifford, R.M. Sega, G.D. Foos and A.A. Throckmorton, ``SEM 
Examination of the Au-Al Intermetallic on IC lead Bonds,'' Scanning 
Electron Microscopy/I 974, ITT Research Institute, Chicago, IL, 1974.
    J.F. Morgan, R.M. Sega, R.J. Schraeder, H.R. Switer and S.L. Blatt, 
``3 He-and 4 He-Induced L-subshell Ionization of Gold: Coulomb 
Deflection Effects,'' Physical Review  cents Volume 16, Number 5, 
November 1977.
    D.J. Redman, R.M. Sega and R Joseph, ``Alpha Particle-Induced Soft 
Errors in Microelectronic Devices, Part One,'' Military Electronics/
Countermeasures, March 1980.
    D.J. Redman, R.M. Sega and R. Joseph, ``Alpha Particle-Induced Soft 
Errors, Part Two,'' Military Electronics/Countermeasures, April 1980.
    R.M. Sega and V.M. Martin, ``Determination of Electromagnetic Wave 
Absorption and Reflection Through Thermography,'' The Infrared 
Observer, Number 2180, June 1980.
    R.W. Burton, R.M. Sega and V.M. Martin, ``Experimental 
Determination of Electromagnetic Pulse (EMP) Absorption on Complex 
Shapes,'' Proceedings of the Nuclear Electromaqnetic Pulse Meeting (NEM 
1980), Anaheim, CA, August 1980.
    V.M. Martin, R.M. Sega, C.V. Stewart and R.W. Burton, ``Application 
of Infrared Thermography in the Analysis of Induced Surface Currents 
due to Incident Electromagnetic (EM) Radiation on Complex Shapes,'' 
Infrared Systems, SPIE Volume 256, September 1980.
    R.M. Sega and R.W. Burton, ``Experimental Determination of 
Electromagnetic Energy Absorption on Complex Shapes,'' Proceedings of 
the National Radio Science Meetinq (URSI), Boulder, CO, January 1981.
    R.M. Sega and V.M. Martin, ``Experimental Determination of 
Electromagnetic Energy Absorption on Complex Shapes; A Progress 
Report,'' Proceedings of the 1981 International Union of Radio Science 
(URSI), Los Angeles, CA, June 1981.
    R.M. Sega, V.M. Martin, D.B. Warmuth and R.W. Burton, ``An Infrared 
Application to the Detection of Induced Surface Currents,'' Modern 
Utilization'' of Infrared Technology VII, SPIE Volume 304, August 1981.
    R.M. Sega and R.W. Burton, ``Correlation of Known Surface Current 
Values With Measurements Utilizing Infrared Techniques,'' Proceedings 
of the National Radio Science Meeting, Boulder, CO, January 1982.
    R.M. Sega, C.V. Stewart and R.W. Burton, ``Induced Surface Currents 
Obtained Through Infrared Techniques Correlated with Known Values for 
Simple Shapes,'' Proceedings of the IEEE Region 5 Conference, Colorado 
Springs, CO, May 1982.
    R.M. Sega, V.M. Martin and R.W. Burton, ``Microwave Induced Surface 
Current Measurement via Infrared Detection,'' 1982 IEEE International 
Symposium Digest Antennas and Propagation, Albuquerque, NM, May 1982.
    R.M. Sega, ``Infrared Detection of Microwave Induced Surface 
Currents on Flat Plates,'' Technical Report RADC-TR-82-308, December 
1982.
    R.M. Sega and R.W. Burton, ``Surface Current Analysis on Flat 
Plates,'' Proceedings of the National Radio Science Meeting, Boulder, 
CO, January 1983.
    V.M. Martin, R.M. Sega and S.K. Angell, ``Fiber Optic Microwave 
Power Probe: A Preliminary Report,'' Fiber Optic and Laser Sensors, 
SPIE Volume 412, April 1983.
    K.W. Harper, R.W. Burton, J.P. Jackson and R.M. Sega, ``Infrared 
Detection of Electromagnetic Field Magnitudes at the Surface of 
Irradiated Dielectrics,'' 1983 IEEE International Symposium Digest - 
Antennas and Propagation, Houston, TX, May 1983.
    J.P. Jackson, D.A. Kelley, R.M. Sega and R.W. Burton, 
``Determination of Microwave Induced Resonant Patterns in Symmetrical 
Targets by Infrared Detection of Joule Heating,'' Proceedings of the 
1983 International Union of Radio Science (URASI) Meeting, Houston, TX, 
May 1983.
    V.M. Martin, S.K. Angell and R.M. Sega, ``A Fiber Optic Microwave 
Power Probe,'' 1983 International IEEE Symposium Digest - Antennas and 
Propagation, Houston, TX, May 1983.
    R.M. Sega, M.H. Hellbusch, J.P. Jackson, R.W. Burton and V.M. 
Martin, ``An Infrared Investigation of Surface Currents on Metal 
Plates,'' Proceedinqs of the 1983 International Union of Radio Science 
(URSI, Houston, TX, May 1983.
    R.M. Sega and G.J. Genello, ``Infrared Thermography Techniques for 
EMI/EMC Measurements,'' Proceedings of Electromagnetic Compatibility 
1983, Arlington, VA, August 1983.
    J.P. Jackson, R.W. Burton and R.M. Sega, ``Thermal Patterns of 
Induced Surface Currents on Flat Plates,'' Proceedings of the National 
Radio Science Meeting, Boulder, CO, January 1984.
    M.T. Avalos and R.M. Sega, ``Optimizing an Electromagnetic Field 
Sensor for Microwave Amplitude and Phase Detection via Fiber Optic 
Transmission Link,'' 1984 IEEE MTT-S International Microwave Svmposium, 
San Francisco, CA, May 1984.
    R.M. Sega, ``Infrared Detection of Microwave Scattering and 
Diffraction,'' Proceedings of the National Radio Science Meeting, 
Boston, MA, June 1984.
    S.K. Rogers, RM. Sega and S.A. Woods, ``Microwave Measurement for 
Wavefront Reconstruction via Infrared Detection,'' Thermosense, SPIE 
Volume 520, November 1984.
    W.C. Diss and R.M. Sega, ``Techniques for Measuring Microwave 
Interference Using Infrared Detection,'' Technical Report, RADC, 1984.
    R.M. Sega and C.A. Benkelman, ``Measurement of Antenna Patterns at 
94GHz Using Infrared Detection,'' Millimeter Wave Technoloqy III, SPIE 
Volume 544, April 1985.
    R.M. Sega, ``Infrared Detection of Metallic Surface Currents,'' 
Final Technical Report, Rome Air Development Center, May 1985.
    R.M. Sega and G.D. Wetlaufer, ``Optimizing Thin Magnetic Material 
for the Thermographic Detection of Microwave Induced Surface 
Currents,'' 1985 North American Radio Science Meeting and International 
IEEE/AP-S Symposium, Vancouver, Canada, June 1985.
    R.M. Sega and J.D. Norgard, ``An Infrared Measurement Technique for 
the Assessment of Electromagnetic Coupling,'' Proceedinqs of the 
Nuclear and Space Radiation Effects Conference, Monterey, CA, July 
1985.
    R.M. Sega, ``Chemical Laser Research on the Iodine Monofluoride 
(IF) System,'' Final Technical Report, Air Force Office of Scientific 
Research, September 1985.
    R.M. Sega and J.D. Norgard, ``An Infrared Measurement Technique for 
the Assessment of Electromagnetic Coupling,'' IEEE Transactions on 
Nuclear Science. Vol. 32, No. 6, December 1985.
    R.M. Sega and J.D. Norgard, ``Infrared Detection of Microwave 
Scattering from Cylindrical Structures,'' Proceedings of the National 
Radio Science Meeting, Boulder, CO, January 1986.
    D.W. Metzger, RM. Sega, J.D. Norgard and P. Bussey, ``Experimental 
and Theoretical Techniques for Determining Coupling Through Apertures 
in Cylinders,'' 1986 Nuclear Electromaonetic Pulse Meeting, 
Albuquerque, NM, May 1986.
    J.D. Norgard and R.M. Sega, ``Infrared Measurement of Scattering 
and Electromagnetic Penetrations Through Apertures,'' Nuclear and Space 
Radiation Effects Conference, Providence, RI, July 1986.
    ``Infrared Diagnostic for High Power Microwave Application,'' 
Technical Report, Defense Nuclear Agency, October 1986.
    C.A. Benkelman, J.D. Norgard and R.M. Sega, ``Infrared Measurements 
of Millimeter Wave Antenna Patterns,'' GACIAC/IIT Research Institute, 
Conference on Millimeter Wave/Microwave Measurements and Standards for 
Miniaturized Systems, Huntsville, AL, November 1986.
    R.M. Sega, D. Fredal and J.D. Norgard, ``An Infrared Diagnostic 
Technique for High Power Microwave Measurements,'' Conference on High 
Power Microwave Technology for Defense Applications, Albuquerque, NM, 
December 1986.
    R.M. Sega and J.D. Norgard, ``Infrared Measurement of Scattering 
and Electromagnetic Penetrations through Apertures,'' IEEE Transactions 
on Nuclear Science, Vol. NS-33, No. 6, December 1986.
    J.D. Norgard and R.M. Sega, ``Three-Dimensional Field Determination 
of Cavity Resonance and Internal Coupling,'' Proceedings of the 
National Radio Science Meetino, Boulder, CO, January 1987.
    V.M. Martin, RM. Sega and R. Durham, ``A Fiber Optic Microwave 
Power Probe,'' Optical Enoineerino, Volume 26, Number 2, February 1987.
    J.D. Norgard and R.M. Sega, ``Closed-Form Series-Expansions for the 
Quasi-Static Capacitance Matrix of an Insulated Shielded-Pair 
Transmission Line,'' Electromaqnetic Compatibility 1987. Proceedings of 
the 7th International Zurich Symposium, Switzerland, March 1987.
    D. Fredal, R.M. Sega, P. Bussey and J.D. Norgard, ``Hardware and 
Software Advancement for Infrared Detection of Microwave Fields,'' 
Infrared Image Processing and Enhancement, Volume 781, May 1987.
    J.D. Norgard and R.M. Sega, ``Microwave Fields Determined from 
Thermal Patterns,'' Thermal Infrared Sensinq for Diagnostic Control: 
Thermosense IX, SPIE Volume 780, May 1987.
    R.M. Sega, D. Fredal, and J.D. Norgard, ``Initial Feasibility Tests 
of and Infrared Diagnostics for High Power Microwave Applications,'' 
Proceedings of the 1987 SPIE Symposium, Orlando, FL, May 1987.
    J.D. Norgard and R.M. Sega, ``Measured Internal Coupled 
Electromagnetic Fields Related to Cavity and Aperture Resonance,'' 
Proceedings of the 1987 NSRE Conference, Snowmass, CO, July 1987.
    R.M. Sega and J.D. Norgard, ``Expansion of an Infrared Detection 
Technique Using Conductive Mesh in Microwave Shielding Applications,'' 
Infrared Technology XIII, SPIE Volume 819, August 1987.
    J.D. Norgard and R.M. Sega, ``Resonant Coupling Through a Slot to a 
Loaded Cylindrical Cavity, Part I: Preliminary Experimental Results,'' 
RADC Technical Report, October 1987.
    R.M. Sega, ``A Transient Electromagnetic Detection and Shielding 
Study,'' Technical Report to Universal Energy Systems (Air Force Office 
of Scientific Research), October 1987.
    R.M. Sega, J.D. Norgard and G.J. Genello, ``Measured Internal 
Coupled Electromagnetic Fields Related to Cavity and Aperture 
Resonance,'' IEEE Transactions on Nuclear Science, Vol. NS-34, No.6, 
December 1987.
    D.W. Metzger, R.M. Sega and J.D. Norgard, ``Numerical Calculation 
and Experimental Verification of Near Fields from Horns,'' Proceedings 
of the National Radio Science Meeting, Boulder, CO, January 1988.
    P.E. Bussey, J.D. Norgard and R.M. Sega, ``Three-Dimensional 
Theoretical and Experimental Analysis of Internal Cylindrical Fields 
Coupled Through a Slot Aperture,'' Proceedings of the National Radio 
Science Meeting, Boulder, CO, January 1988.
    J.P. Jackson, E. Arthurs, L.A Schwalbe, R.M. Sega, D. Windish, W.H. 
Long and E.A Stappaerts, ``Accelerated Aging of Cellulose by Laser 
Irradiation,'' Materials Research Society Symposium, Los Angeles, CA, 
March 1988.
    R.M. Sega, J.D. Norgard and A.L. Sapp, ``Infrared Images of 
Microwave Scattering from a Ferrite Coated Cylinder,'' Thermosense X, 
SPIE Volume 934, April 1988 (invited paper).
    J. Randa, M. Kanda, D. Melquist, R.M. Sega and J.D. Norgard, ``High 
Frequency Electric Field Probe Development,'' IEEE EMC Expo 1988, 
Washington, DC, May 1988 (invited paper).
    R.M. Sega, J.D. Norgard and M.G. Harrison, ``Infrared Comparisons 
of the Electromagnetic Scattering from Conducting and Dielectric 
Cylinders,'' Nuclear Electromagnetic Pulse Meeting, Menlo Park, CA, May 
1988.
    D.C. Fromme, R.M. Sega and J.D. Norgard, ``Experimental 
Determination of Scattering from E-P0l and H-Pol Slotted Cylinders,'' 
IEEE AP-S/URSI Symposium, Syracuse, NY, June 1988.
    J.D. Norgard and R.M. Sega, ``Penetration of Electromagnetic Plane 
Waves through Elliptical Apertures in Finite Cylinders,'' Technical 
Report, Rome Air Development Center, September 1988.
    J.P. Jackson, E. Arthurs, L.A. Schwalbe, R.M. Sega, D.F. Windish, 
W.H. Long and E.A. Stappaerts, ``Infrared Laser Heating for Studies of 
Cellulose Degradation,'' Applied Optics, Volume 27, Number 18, 
September 1988.
    R.M. Sega and J.D. Norgard, ``Communication Systems Preliminary 
Study,'' Technical Report to the District Attorney, EI Paso County, CO, 
October 1988.
    R.M. Sega, R. Lawconnel, R. Motes, J. McNally and T. McNeil, 
``Laser Ablation Analysis of 1-2-3 Material,'' Science and Technology 
of Thin Film Superconductors, Plenum Press, New York, 1988.
    D.C. Fromme, R.M. Sega and J.D. Norgard, ``Coupled Electric Field 
Distributions of Long Axially Slit Cylinders,'' Proceedings of the 
National Radio Science Meeting, Boulder, CO, January 1989.
    J.D. Norgard and R.M. Sega, ``Measured and Predicted Coupling of 
Electromagnetic Radiation into a Cylindrical Cavity through a Small 
Aperture,'' Electromagnetic Compatibility 1989. Proceedings of the 8th 
International Zurich Symposium, Switzerland, March 1989;
    R.M. Sega, J.D. Norgard, D.C. Fromme and K.J. Lanacone, ``Internal 
and External Electric Fields Visualization in the 2-5 and 8-14 micron 
Bands,'' Thermosense XXI, SPIE, Volume 1094, March 1989.
    J.D. Norgard, R.M. Sega, D.C. Fromme, D.W. Metzger and K.J. 
Lanacone, ``Electromagnetic Code Validation by the Infrared Measurement 
Method,'' 5th Annual Review of Progress in Applied Computational 
Electromagnetics, March 1989.
    A.A. Bensaoula, T. Robin, J. Hughes, J.S. Liu, R. Sega, A. Ignatiev 
and A. Bensaoula, ``Deposition of the High Temperature Superconductor 
BiSrCaCuO Thin Films,'' 8th Annual Symposium on Electronic Materials, 
Processing and Characterization, Richardson, TX, June 1989.
    J.D. Norgard, R.M. Sega, K.J. Ianacone, M.G. Harrison, T. Pesta and 
M. Seifert, ``Scattering Effects of Electric and Magnetic Field 
Probes,'' Proceedings of the 1989 NSRE Conference, Marco Island, FL, 
July 1989.
    J.D. Norgard, D. Metzger, R.M. Sega, M. Pararas, T. Pesta and M. 
Seifert, ``Electric and Magnetic Field Probes Measurement Accuracy,'' 
Proceedings of the Narrow Band (HPM) and Wideband RF Propaaation I 
Phenomenology/Methocjology Workshop, Livermore, CA, October 1989.
    J.D. Norgard, R.M. Sega, K.J. Ianacone, M.G. Harrison, T. Pesta, 
and M. Seifert, ``Scattering Effects of Electric and Magnetic Field 
Probes,'' IEEE Transactions on Nuclear Science, Vol. NS-36, No. 6, 
December 1989.
    M. Smith, R.M. Sega, J.D. Norgard, ``Infrared Detection of 
Electromagnetic Penetration through Narrow Slots in a Planar Conducting 
Surface,'' Proceedings of the National Radio Science Meeting, Boulder, 
CO, January 1990.
    J.D. Norgard, J.R Curry and R.M. Sega, ``Three-Dimensional Cavity 
IEMP,'' Hardened Electronics and Radiation Technology Conference, 
Monterey, CA, February 1990.
    J.D. Norgard, R.M. Sega, M.G. Harrison, T. Pesta, and M. Seifert, 
``Scattering Effects of Electric & Magnetic Field Probes,'' Proceedings 
of the HPM Symposium, Lawrence Livermore National Laboratory, CA, 
February 1990.
    A. Ignatiev, R. Sega and H.D. Shih, ``Thin Film Semiconductors and 
their Growth in the Ultra-Vacuum of Space,'' Space 1990 Conference, 
Montreau, Switzerland, March 1990.
    J.L. Wosik, T. Robin, M.F. Davis, J.C. Wolfe, K. Forster, S. 
Deshumukh, A. Bensaoula, R. Sega, D. Economu and A. Ignatiev, 
``Dependence of Millimeter-wave Surface Resistance on Deposition 
Parameters of Laser Ablated 
YBa<INF>2</INF>Cu<INF>3</INF>O<INF>6</INF>+ cents,'' Proceedings of the 
2nd Conference on the Science and Technology of Thin Film 
Superconductors, Denver, CO, April 1990.
    R.M. Sega, J.D. Norgard and M.G. Harrison, ``Determination of 
Electromagnetic Field Distributions using IR Focal Plane Arrays,'' 
Proceedings of the Nuclear Electromagnetics Conference, Albuquerque, 
NM, May 1990.
    J.D. Norgard, D.W. Metzger, R.M. Sega, M. Seifert and T. Pesta, 
``HPM Field Sensors - Probe Measurement Accuracy,'' Proceedings of the 
1990 HPM Technology Conference, West Point, NY, June 1990.
    D.C. Fromme, R.M. Sega and J.D. Norgard, ``Correlation of Infrared 
Measurement Results of Coupled Fields in Long Cylinders with a Dual 
Series Solution,'' Proceedings of the 1990 NSRE Conference, Reno, 
Nevada, July 1990.
    J.D. Norgard and R.M. Sega, ``B-Dot Probe Measurements,'' RADC-TR-
90-289, November 1990.
    J.D. Norgard, D.C. Fromme and R.M. Sega, ``Correlation of Infrared 
Measurement Results of Coupled Fields in Long Cylinders with a Dual 
Series Solution,'' IEEE Transactions on Nuclear Science, Vol. NS-37, 
No. 6, December 1990.
    A. Ignatiev, R. Sega and T. Banner, ``Space Vacuum Processing,'' 
29th Aerospace Sciences Meeting, AIAA 91-0310, Reno, NV, January 1991.
    J.D. Norgard, R.M. Sega, M.G. Harrison and H.H. Pohle, ``Infrared 
Focal Plane Arrays for Microwave/Millimeter Wave Electric Field 
Diagnostics,'' Proceedings of the High Power Electromagnetics 
Technology Symposium, Albuquerque, NM, May 1991.
    R.M. Sega and A. Ignatiev, ``A Space Ultra-Vacuum Experiment--
Application to Material Processing,'' Proceedings of the AIAAIIKI 
Microgravity Science Symposium, Moscow, USSR, May 1991.
    R.M. Sega, A. Ignatiev and T.F. Banner, ``The Wake Shield Facility 
as a Free-Flyer,'' Proceedings of the 16th Annual AIAA Technical 
Symposium, Houston, TX, June 1991.
    R.M. Sega, ``Advanced Data Acquisition, Processing and Transmission 
Center (ADAPT-C),'' Technical Monograph, Air War College, Maxwell AFB, 
AL, June 1991.
    C.R. Justiz and R.M. Sega, ``A Fully Coupled Flow Simulation around 
Spacecraft in near Earth Orbit,'' Proceedings of the 21st Fluid 
Dynamics, Plasma Dynamics, and Lasers Conference, AIAA 91-1 500, 
Honolulu, HI, June 1991.
    J.D. Norgard, D.W. Metzger, R.M. Sega, J. Cleary and M. Seifert, 
``Infrared/Microwave Correlation Measurements,'' Proceedings of the 
1991 SPIE Symposium, San Diego, CA, July 1991.
    D.W. Metzger, J.D. Norgard and R.M. Sega, ``Near Field Patterns 
from Pyramidal Horn Antennas: Numerical Calculation and Experimental 
Verification,'' IEEE Transactions on Electromagnetic Compatibility, 
Volume 33, Number 3, August 1991.
    J.D. Norgard, R.M. Sega, M.G. Harrison and H.H. Pohle, ``Infrared 
Focal Plane Arrays for Electric Field Diagnostics,'' Proceedings of the 
National Radio Science Winter Meeting (URSI), Boulder, CO, January 
1992.
    J.D. Norgard, R.M. Sega, M.G. Harrison and H.H. Pohle, ``Mutual 
Magnetic Coupling Effects in Multi-Transmission Line Codes,'' 
Proceedings of the HEART Conference, Sandia National Laboratories, 
Albuquerque, NM, February 1992.
    R.M. Sega, ``Considerations for Design of Telerobotic Space 
Systems--Application to a Hand Controller Study,'' AIAA Space Programs 
and Technologies Conference, AIAA 92-1448, Huntsville, AL, March 1992.
    J.D. Norgard, R.M. Sega, M.G. Harrison, M. Seifert and J. Cleary, 
``Infrared Detection of Free-Field and Cavity Perturbations of 
Electromagnetic Probe Measurements,'' Thermosense XIV: Thermal Sensing 
and Imaqing Diagnostics Applications, SPIE, Orlando, FL, April 1992.
    J.D. Norgard, R.M. Sega, M.G. Harrison and H.H. Pohle, ``Cross 
Sectional & Longitudinal Energy Distributions of Electromagnetic Fields 
Coupled through Rectangular Apertures in Cylindrical Waveguide 
Cavities,'' Proceedinqs of the International Microwave Symposium, 
Albuquerque, NM, June 1992.
    C.R Justiz, R.M. Sega and C. Dalton, ``A Hybrid Flow Model for 
Charged and Neutral Particles Around Spacecraft in Low Earth Orbit,'' 
AIAA 27th Thermophysics Conference, AIAA 92-2935, Nashville, TN, July 
1992.
    J.D. Norgard, D.W. Metzger, R.M. Sega, M.G. Harrison, R.J. Komar, 
H.H. Pohle, A. Schmelzel, M.D. Smith, J.J. Stupic, M. Seifert and J. 
Cleary, ``Infrared Measurements of Electromagnetic Fields,'' 
Proceedings of the Eurotherm Seminar 27, ChatenayMalabry, France, July 
1992.
    J.D. Norgard, R.M. Sega, M.G. Harrison and H.H. Pohle, ``Infrared 
Mapping of Transient Electromagnetic Fields Radiated by High Power 
Microwave Pulsed Sources,'' Proceedings of the 1992 Nuclear and Space 
Radiation Effects Conference (NSRC), New Orleans, LA, July 1992.
    J.D. Norgard, R.M. Sega, M.G. Harrison and H.H. Pohle, ``Infrared 
Determination of Electromagnetic Fields Coupled through Longitudinal & 
Transverse Slot Apertures in Cylindrical Cavities,'' Proceedings of the 
1992 Joint IEEE-APS, URSI & Nuclear EMP Symposia, Chicago, IL, July 
1992.
    J.D. Norgard, R.M. Sega and R.L. Musselman, ``Frequency Independent 
Interferometry,'' Proceedings of the 1992 Joint IEEE-APS. URSI & 
Nuclear EMP Symposia, Chicago, IL, July 1992.
    J.D. Norgard, R.M. Sega, M.G. Harrison and H.H. Pohle, ``Infrared 
Mapping of Transient Electromagnetic Fields Radiated by High Power 
Microwave Pulsed Sources,'' IEEE Transactions on Nuclear Science, Vol. 
NS-39, No. 6, December 1992.
    J.D. Norgard, D.W. Metzger, R.M. Sega and M.G. Harrison, ``Infrared 
Measurements of Electromagnetic Fields,'' Journal of Societe Francaise 
Thermiciens, Editions Europeennes Thermique et Industrie, Revue 
Generale de Thermique, December 1992.
    J.D. Norgard, R.M. Sega, A. Matini, M.G. Harrison, ``Infrared 
Detection of Magnetic Fields,'' National Radio Science Meeting (URSI), 
Boulder, CO, January 1993.
    C. Justiz, R Sega, C. Dalton, A. Ignatiev, ``Return Flux 
Contamination of an Outgassing Spacecraft in Low Earth Orbit,'' 31st 
Aerospace Sciences Meeting, AIAA 93-0725, Reno, NV, January 1993.
    J.D. Norgard, R.M. Sega and M.G. Harrison, ``Efficient 
Electromagnetic Test Technology using Infrared Imaging Methods,'' 
Proceedings of the Test Technology Symposium VI, Laurel, Maryland, 
March 1993.
    J.D. Norgard, R.M. Sega and M.G. Harrison, ``The Capacitance Matrix 
& Surface Charge Distributions of a Shielded Twisted Pair Cable Using a 
Quasi-Static Perturbational Method,'' Proceedings of the EMC/Zurich 
Symposium, Zurich, Switzerland, March 1993.
    J.D. Norgard, R.M. Sega, A. Matini and M.G. Harrison, ``Absorbing 
Screens for Infrared Detection of Surface Currents,'' Proceedings of 
the Thermosense XV International Conference, Orlando, FL, April 1993.
    J.D. Norgard, R.M. Sega, E. Bacca, J.J. Sadler, W. Prather, 
``Infrared Measurements of Electromagnetic Fields in a Compact, 
Efficient Circular Waveguide Microwave Antenna using a Combined Mode 
Converter/Radiator,'' Proceedings of the APS/URSI Radio Science 
Meeting, Ann Arbor, MI, June 1993.
    J.D. Norgard, R.M. Sega, J.J. Sadler and W. Prather, ``Infrared 
Measurements of Electromagnetic Fields,'' Proceedings of the PIERS 
Symposium, Pasadena, CA, July 1993.
    J.D. Norgard, J.J. Sadler, R.M. Sega, E. Baca and W. Prather, 
``Infrared Measurements of Electromagnetic Fields in Shaped-End 
Circular Waveguide Microwave Antennas,'' National Radio Science Meeting 
(URSI), Boulder, CO, January 1994.
    J.D. Norgard, R.M. Sega, J.J. Sadler, ``Infrared Measurements of 
Waveguide Modes and Radiation Patterns of Beveled-Cut Shaped-End 
Microwave Antennas,'' Proceedings of the Thermosense XVI International 
Conference, Orlando, FL, April 1994.
    J.D. Norgard, J.J. Sadler, R.M. Sega and W. Prather, ``Infrared 
Images of Scattered Electromagnetic Fields from Scale Model Aircraft,'' 
Proceedinhs of the EURO Electromagnetics/NEM/HPEM International 
Symposium, Bordeaux, France, May 1994.
    J.D. Norgard, R.M. Sega, M. Seifert and T. Pesta, ``Infrared Images 
of Electromagnetic Fields,'' Proceedings of the Dual-Use Technology 
Conference, Uthica, NY, May 1994.
    C. Justiz, A. Ignatiev and R. Sega, ``The Wake Shield Flight 
Experiment Preliminary Results of Shuttle Flight One,'' 19th Rarefied 
Gas Dynamics Conference, Oxford, England, June 1994.
    J.D. Norgard and R.M. Sega, ``High Power Microwave (HPM) Antenna 
Design Using Infrared Imaging Techniques,'' Proceedings of the 
Quantitative Infrared Technoloqy Symposium, Sorrento, Italy, June 1994.
    C.R. Justiz, R.M. Sega and C. Dalton, ``A Method for Near Field 
Computation of Coupled Weakly Ionized Plasma Flows in Low Earth 
Orbit,'' Journal of Computational Physics, 118, October 1994.
    C.R. Justiz, R.M. Sega, C. Dalton and A. Ignatiev, ``DSMC- and BGK-
Based Calculations for Return Flux Contamination of an Outgassing 
Spacecraft,'' Journal of Thermophysics and Heat Transfer, Volume 8, 
Number 4, October-December 1994.
    J.D. Norgard, R.M. Sega, M. Seifert and A. Pesta, ``Measurements of 
Absolute Electromagnetic Field Magnitudes Using Infrared Thermograms,'' 
National Radio Science Meetinq (URSI), Boulder, CO, January 1995.
    M. Desai, R. Forrest, C. Horton, A. Ignatiev, M. Sterling, J. 
Strozier, C. Justiz, and R.M. Sega, ``Vacuum and Flow Field Results 
from the Wake Shield Facility Flight Experiment,'' American Institute 
of Physics Conference Proceedings 325, Albuquerque, NM, January 1995.
    R.M. Sega, J.D. Norgard and S.M. Hill, ``Electromagnetic 
Interference in the Attitude Control System of the Wake Shield Facility 
- A Space Shuttle Experiment,''Proceedings of the 11th International 
EMC/Zurich Symposium, Switzerland, March 1995.
    J.D. Norgard, R.M. Sega, M. Seifert, A. Pesta and T. Blocher, 
``Code Validation of Aircraft Scattering Parameters Using IR 
Thermograms,'' ACES Conference, Monterey, CA, March 1995.
    R.M. Sega, ``Comparison of the U.S. and Russian Extravehicular 
Activity Suits as Evaluated in their. Respective Underwater Training 
Facilities,'' Internal NASA Report, April 1995.
    J.D. Norgard, R.M. Sega, M. Seifert and A. Pesta, ``Absolute 
Calibration of IR Thermograms,'' SPIE/Thermosense XVII International 
Conference, Orlando, FL, April 1995.
    R.M. Sega, ``Operations in Star City, Russia--Supporting the Joint 
U.S./Russian Space Program,'' Internal NASA Report, May 1995.
    A. Ignatiev, M. Sterling, T. Bonner, W. Creasy and R. Sega, ``The 
Wake Shield Facility: A Space Platform for the Use of the Ultra-Vacuum 
of Space,'' AIAA 1995 Space Proqrams and Technologies Conference, 
Huntsville, AL, September 1995.
    J.E. Will, J.D. Norgard, R.M. Sega, C.F. Stubenrauch, K. 
MacReynolds, and M. Siefert, ``Complex Antenna Pattern Measurements 
using Infrared Imaging and Microwave Holography,'' National Radio 
Science Meeting (URSI), Boulder, CO, January 1996.
    A. Ignatiev, R. Sega, A. Bensaoula, S. Brock, N. Combs, A. 
Freundlich, C. Horton, S. Pel and M. Sterling, ``III-V Compound 
Semiconductor Film Growth in Low Earth Orbit on the Wake Shield 
Facility,'' American Institute of Physics Conference Proceedings, 
Albuquerque, NM, January 1996.
    J.E. Will, J.D. Norgard, R.M. Sega, C.F. Stubenrauch, K. 
MacReynolds, and M.F. Seifert, ``Complex Antenna Pattern Measurements 
Using Infrared Imaging and Microwave Holography,'' URSI Winter Meeting 
(U of Colorado), Boulder, CO, January 1996.
    J.E. Will, J.D. Norgard, R.M. Sega, C.F. Stubenrauch, K. 
MacReynolds, and M.F. Seifert, ``Phase Measurements of Electromagnetic 
Fields using Infrared Imaging Techniques and Microwave Holography,'' 
SPIE/Thermosense XVII International Conference, Orlando, FL, April 
1996.
    J.E. Will, J.D. Norgard, C.F. Stubenrauch, K. MacReynolds, M.F. 
Seifert, and R.M. Sega, ``Near-Field Phase Reconstruction Using Plane-
to-Plane Iterative Fourier Processing and Infrared Thermograms of 
Electromagnetic Fields,'' AMEREM/HPEM/NEM Conference, Albuquerque, NM, 
May 1996.
    J.E. Will, J.D. Norgard, R.M. Sega, A. Pesta, J. Cleary, C.F. 
Stubenrauch, and Katie MacReynolds, ``Near-Field to Far-Field Antenna 
Pattern Measurements Using Infrared Imaging and Microwave Holography 
Techniques,'' Dual-Use Technologies & Applications Conference, Syracuse 
University, Syracuse, NY, June 1996.
    J.D. Norgard, J.E. Will, R.M. Sega, C.F. Stubenrauch, K. 
MacReynolds, and M. Seifert, ``Complex Electromagnetic Magnitude and 
Phase Measurements using Infrared Imaging and Microwave Holography,'' 
PIERS Conference, Innsbruck, Austria, July 1996.
    J.D. Norgard, J.E. Will, C.F. Stubenrauch, K. MacReynolds, M.F. 
Seifert, and R.M. Sega, ``Complex Near-Field Antenna Measurements Using 
Infrared (IR) Thermograms,'' ANTEM Conference, Montreal, Canada, August 
1996.
    J.D. Norgard, J.E. Will, C.F. Stubenrauch, K. MacReynolds, M.F. 
Seifert, and R.M. Sega, ``Infrared (IR) Imaging Techniques for the 
Measurement of the Magnitude of Complex Near-Field Antenna Patterns,'' 
QIRT Conference, Stuttgart, Germany, September 1996.
    J.D. Norgard, J.E. Will, C.F. Stubenrauch, K. MacReynolds, M.F. 
Seifert, and R.M. Sega, ``Infrared (IR) Imaging Techniques for the 
Measurement of the Magnitude of Complex Near-Field Antenna Patterns,'' 
AMTA Conference, Seattle, WA, October 1996.
    C.L. Enlow, D.L. Cooke, W.A. Pakula, M.D. Violet, D.A. Hardy, C.B. 
Chaplin, RK. Kirkwood, M.F. Tautz, N. Bonito, C. Roth, G. Courtney, 
V.A. Davis, M.J. Mandell, D.E. Hastings, G.B. Shaw, G. Giffin, and R.M. 
Sega, ``High-Voltage Interaction in Plasma Wakes: Results from the 
Charging Hazards and Wake Studies (CHAWS) Flight Experiments,'' Journal 
of Geophysical Research, Vol. 102, No. AI, Pages 425-433, January 1, 
1997.
    J.E. Will, J.D. Norgard, R.M. Sega, C.F. Stubenrauch, K. 
MacReynolds, and M.F. Seifert, ``Phaseless Measurements of Antenna Near 
Fields from Infrared Images Using Holographic Phase Retrieval 
Techniques,'' SPIE/Thermosense XVII International Conference, Orlando, 
FL, April 1997.
    J.D. Norgard, J.E. Will, C.F. Stubenrauch, K. MacReynolds, M.F. 
Seifert, and R.M. Sega, ``Infrared Imaging of the Magnitude of Complex 
Near-Field Antenna Patterns,'' MTT Symposium, Denver, CO, June 1997.
    J.E. Will, J.D. Norgard, C.F. Stubenrauch, K. MacReynolds, M.F. 
Seifert, and R.M. Sega, ``Infrared Imaging of the Phase of Complex 
Near-Field Antenna Patterns,'' MTT Symposium, Denver, CO, June 1997.
    J. Cox, R Sieck, W. Rice, C. Shelly, R Sega, F. Kurtz, W. 
Whittington et ai, ``International Space Station Operations 
Architecture Study,'' Final Report to NASA, August 2000.
    R.M. Sega, ``Research, Development, Test, and Evaluation,'' ITEA 
Journal of Test and Evaluation, June/July 2003.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Many presentations on Defense research and engineering (R&E) 
topics, primarily to technical audiences. Some examples:

        <bullet> NDIA 6th Annual Science and Engineering Tech 
        Conference
        <bullet> Test Week 2005--Test and Evaluation Conference
        <bullet> National Space Symposium
        <bullet> Precision Strike Conference
        <bullet> DARPA TECH Conference

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Ronald M. Sega.
    This 1st day of July 2005.

    [The nomination of Ronald M. Sega was reported to the 
Senate by Chairman Warner on July 29, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 29, 2005.]
                              ----------                              

    [Prepared questions submitted to Phillip Jackson Bell by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support implementation of the Goldwater-
Nichols reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe that implementation of these reforms has been 
successful and consistent with congressional intent.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The definition of joint warfighting commands with joint 
combat support and combat service support organizations is proving to 
be extremely important in our current warfighting environment. In 
addition, the placement of the acquisition and logistics policy 
functions under the control of civilian leadership strengthens the 
acquisition and logistics community's effectiveness in delivering the 
capabilities required by the joint warfighters.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations reforms can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense (DOD).
    Do you agree with these goals?
    Answer. Yes, and I believe the Department is achieving those goals.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be necessary to address in these proposals?
    Answer. I have not considered any prospective legislative changes. 
If confirmed, I look forward to working with the committee to determine 
if legislative proposals may be appropriate.

                                 DUTIES

    Question. Section 133b of title 10, United States Code, and DOD 
Directive 5134.12, provide that the Deputy Under Secretary of Defense 
for Logistics and Materiel Readiness is to serve as the principal 
advisor to the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (USD(AT&L)) and the Secretary and Deputy Secretary of 
Defense on logistics and materiel readiness in the Department of 
Defense. Additionally, among other responsibilities, the Deputy Under 
Secretary of Defense for Logistics and Materiel Readiness is the 
principal logistics official within the senior management of the 
Department of Defense.
    If confirmed as the Deputy Under Secretary of Defense for Logistics 
and Materiel Readiness, what would you view as your principal 
responsibilities to the Secretary of Defense?
    Answer. If confirmed, I would fulfill the statutory 
responsibilities of being the principal advisor on logistics and 
materiel readiness issues to the Secretary and the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, and serving as the 
principal logistics official within the senior management of the DOD. 
In this capacity, I would monitor and review all logistics, 
maintenance, materiel readiness, strategic mobility, and sustainment 
support programs.
    Question. Assuming you are confirmed, what other duties do you 
expect that the Secretary would prescribe for you?
    Answer. I do not know at this time what additional duties the 
Secretary might prescribe.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties and those outlined in the 
law and applicable DOD directives?
    Answer. I believe my experience in both the public and private 
sector qualifies me to perform the duties of this position.
    In my current position, I am engaged in efforts relating to the 
logistics and material readiness programs in Iraq and elsewhere. Some 
of these efforts relate to, LOGCAP contracts and IRRF contract 
management activities. The Army has transitioned from a peace-time 
``Cold War'' logistics and material readiness system through a start-up 
phase of military operations, to a phase of sustained support of our 
military forces on a war-time footing. On a more strategic level, I am 
participating in efforts to integrate logistics and acquisition efforts 
through such programs as life cycle management.
    In my position as Chief of Staff of the State Department's 
Afghanistan Reconstruction Group, I invested a significant amount of 
time working with both U.S. Government agencies and with Government of 
Afghanistan senior officials to address supply chain management 
problems that were creating obstacles and adding significant costs to 
our reconstruction efforts in that country.
    Most of my private sector career over the last 30 years has focused 
on strategic transformations of large, complex organizations that 
depend on effective logistics and material readiness programs for their 
survival and success. Several are significant logistics partners with 
some of the largest companies in the world, as well as supporting the 
important DOD logistics efforts. I was CFO of the largest railroad in 
the U.S. when we began testing bar code and RFID shipment tracking 
technology, and served as the lead official on aircraft acquisitions in 
major airlines and was well versed on the issues of CRAF fleet 
operations.
    Equally important, private sector companies are applying and 
evolving ``Best Management Practices'' (BMP) in the logistics and 
material readiness area that DOD seeks to adopt in its business 
transformation efforts.
    Question. Do you believe that there are any additional steps that 
you need to take to enhance your expertise to perform these duties?
    Answer. I believe I am prepared to commence these duties if 
confirmed.

                             RELATIONSHIPS

    Question. If confirmed, what would your relationship be with:
    The Secretary of Defense.
    Answer. If confirmed, I would serve as the principal advisor to the 
Secretary of Defense on logistics and materiel readiness in the DOD.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, my relationship with the Deputy Secretary of 
Defense will be the same as that described above in relation to the 
Secretary of Defense.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I would serve as the principal advisor to the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
on logistics and materiel readiness in the Department of Defense, and 
would also perform such duties relating to logistics and materiel 
readiness as the Under Secretary assigns. Those duties include 
monitoring and reviewing all logistics, maintenance, materiel 
readiness, and sustainment support programs within the Department of 
Defense, in accordance with applicable DOD policies.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense for Personnel and Readiness so we can both carry out our 
statutory obligations relating to readiness.
    Question. The Director for Logistics (J4), the Joint Staff.
    Answer. If confirmed, my relationship with the Director for 
Logistics (J4), the Joint Staff, would be based on my role as principal 
advisor to the Secretary of Defense and the Under Secretary of Defense 
for Acquisition, Technology, and Logistics on logistics and materiel 
readiness in the Department of Defense, and his role as principal 
advisor to the Chairman of the Joint Chiefs of Staff on logistics and 
materiel readiness. If confirmed, I would need to work with him as well 
as the U.S. Transportation Command Commander to identify and implement 
more cost effective approaches to logistics and materiel readiness.
    Question. The Director for Operational Plans and Joint Force 
Development (J7), the Joint Staff.
    Answer. If confirmed, I would coordinate and exchange information 
with the Director for Operational Plans and Joint Force Development, 
the Joint Staff, to ensure that DOD logistics and materiel readiness 
policies are coordinated with operational planning and joint force 
development requirements.
    Question. The Director for Force Structure, Resources, and 
Assessment (J8), the Joint Staff.
    Answer. If confirmed, I would coordinate and exchange information 
with the Director for Force Structure, Resources, and Assessment (J8), 
to ensure DOD logistics and materiel readiness policies are coordinated 
with force structure and resource requirements.
    Question. Commander, U.S. Transportation Command.
    Answer. If confirmed, I would expect to work closely with the 
Commander, U.S. Transportation Command, to ensure a seamless 
distribution process to meet warfighter requirements.
    Question. The Defense Logistics Agency.
    Answer. If confirmed, I would exercise authority, direction, and 
control over the Defense Logistics Agency through its Director.
    Question. The Army Materiel Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commanding General, Army Materiel Command, to ensure DOD 
logistics and materiel readiness policies are coordinated with Army 
materiel requirements.
    Question. The Naval Sea Systems Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Naval Sea Systems Command, to ensure DOD logistics 
and materiel readiness policies are coordinated with Navy materiel 
requirements.
    Question. The Naval Air Systems Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Naval Air Systems Command, to ensure DOD logistics 
and materiel readiness policies are coordinated with Navy materiel 
requirements.
    Question. The Marine Corps Systems Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Marine Corps Systems Command, to ensure DOD 
logistics and materiel readiness policies are coordinated with Marine 
materiel requirements.
    Question. The Air Force Materiel Command.
    Answer. If confirmed, I would coordinate and exchange information 
with the Commander, Air Force Materiel Command, to ensure DOD logistics 
and materiel readiness policies are coordinated with Air Force materiel 
requirements.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges confronting 
the Deputy Under Secretary of Defense for Logistics and Materiel 
Readiness?
    Answer. If confirmed, I anticipate that the major challenges would 
be:

          (1) providing to our engaged forces the most effective 
        support possible within the resources provided by Congress;
          (2) improving the cost-effectiveness of DOD logistics and 
        material readiness efforts; and
          (3) integrating strategic logistics planning with acquisition 
        strategies and programs.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would plan to:

          (1) accelerate ongoing actions to improve asset and cost 
        visibility across our support structure;
          (2) work closely with other key organizations to identify and 
        implement supply chain improvement; and
          (3) work with DLA, the U.S. Transportation Command, and the 
        Military Departments to implement a logistics performance 
        improvement effort, focused on customer outcomes and cost 
        effectiveness.

              CONTINGENCY OPERATIONS LOGISTICS CHALLENGES

    Question. A number of supply distribution problems occurred during 
the beginning phases of Operation Iraqi Freedom. These problems, which 
included limited asset visibility, a shortage of ground transportation 
vehicles, limited communications, and in-theater distribution 
difficulties, constrained the ability of the DOD to provide effective 
and timely logistics support to the warfighter.
    Based on your experience as a member of the Army leadership, what 
did you observe as the top logistics challenges in support of Operation 
Iraqi Freedom?
    Answer. Army logistics soldiers moved forces farther and faster 
than during any War in history and should be commended for their 
support of OIF. As a result of several factors--this rapid tactical 
progress, operations in a difficult environment and asymmetric tactical 
threats, and the changing nature of tactical operations--the Army has 
faced challenges during OIF. Early on, information flow for 
logisticians was inadequate in locating and identifying critical 
supplies and parts. The lack of a reliable joint service database in 
the tactical supply chain caused major breaks in asset visibility and 
continuity of support. Next, supply and distribution chains were 
segmented, with multiple owners, aged systems and sometimes 
incompatible processes. This contributed to either not having the right 
supplies at the right place or being unable to respond with precision.
    Question. What solutions would you propose, for the near term and 
beyond, to ensure a more seamless flow of equipment and supplies from 
factory to foxhole in support of contingency operations and the global 
war on terrorism?
    Answer. The development of joint logistics capabilities, including 
integrated databases and effective tracking systems is key to providing 
efficient logistics support. Programs to improve procurement and 
distribution surge capabilities are critical in supporting a fast 
changing tactical environment. Finally, we need to develop more 
responsive life cycle management programs geared to support the 
requirements of ongoing tactical operations.

       DEGRADATION OF EQUIPMENT READINESS DUE TO OPERATIONS TEMPO

    Question. The committee has received testimony from senior DOD 
officials and the military services citing the effects of operations 
tempo on the materiel readiness of equipment deployed in support of 
contingency operations.
    What is your understanding of the extent to which current 
operations are impacting the service life of major equipment items?
    Answer. A number of factors involved in current operations are 
impacting the service life of major equipment items. The operations 
tempo is one. Others include the unusually harsh operational 
environment and the need to up-armor vehicles, the additional weight of 
which is accelerating the degradation of equipment performance, and 
deterioration of components.
    Question. If confirmed, what would your approach be to regenerating 
materiel readiness that has been degraded by operations tempo?
    Answer. If confirmed, I would lead efforts to ensure that repair 
and maintenance requirements are adequately forecasted and defined, 
that comprehensive planning and parts provisioning is done, and that 
programs are properly resourced and managed. I would also work to 
ensure that accurate, timely information is flowing regarding materiel 
readiness and maintenance procedures are streamlined to reduce cycle 
time.

        BALANCED SCORECARD AND LOGISTICS PERFORMANCE MANAGEMENT

    Question. The Defense Department's logistics leadership has adopted 
the Balanced Scorecard concept as one of the important components of 
logistics performance management. The process of adapting and 
implementing the Balanced Scorecard in the Department of Defense is 
almost 2 years old.
    In your view, what are the benefits of the Balanced Scorecard for 
logistics performance management?
    Answer. The Balanced Scorecard benefits logistics performance 
management by allowing us to focus on results oriented metrics in 
primary areas. This approach will enable us to better assess how 
effectively and efficiently we are supporting the warfighter.
    Question. Do you believe that implementation of the Balanced 
Scorecard in the Department of Defense can be accelerated?
    Answer. Yes, and if confirmed I will work toward acceleration.

                    CORROSION PREVENTION AND CONTROL

    Question. Congress and the Department of Defense have significantly 
increased emphasis on the prevention and management of corrosion in 
equipment and materiel of the services. Actions to address corrosion 
challenges include establishment of a central corrosion program 
management office and the institutionalization of corrosion prevention 
and mitigation as a key component of the Department's Planning, 
Programming, Budgeting, and Execution (PPBE) process.
    What is your understanding of the challenge to the readiness of the 
military services as a result of corrosion in equipment and materiel 
and the extent to which the services are coordinating their efforts.
    Answer. Corrosion is one of several factors contributing to 
degrading operational readiness. While severe operational environments 
cannot be avoided, efforts to minimize or mitigate corrosion are 
important. The recent formation of the DOD Corrosion Policy and 
Oversight Office (and the associated Corrosion Prevention and Control 
Integrated Product Team (CPCIPT)) is greatly improving the coordination 
of anti-corrosion effort among the services.
    Question. If confirmed, what would be your relationship with the 
director of the Corrosion Policy and Oversight Office?
    Answer. I would continue L&MR's close relationship with the 
director of the Corrosion Policy and Oversight Office. The ADUSD/
Materiel Readiness and Maintenance Policy coordinates with the director 
frequently, has him brief corrosion requirements and status during 
Materiel Readiness Senior Steering Group (MRSSG) meetings, and has a 
senior staff member as an active member of the CPCIPT.
    Question. If confirmed, how would you assess the implementation and 
effectiveness of corrosion prevention and control efforts in programs 
under your purview and, working with other responsible officials, 
address identified areas of concern?
    Answer. If confirmed, I would lead L&MR efforts to identify 
corrosion mitigation improvements such as identifying changes needed in 
parts design, material and manufacture, and preventive maintenance 
procedures to mitigate corrosive effects.

                     RADIO FREQUENCY IDENTIFICATION

    Question. Congress has supported the DOD's Radio Frequency 
Identification (RFID) program in order to improve the visibility and 
identification of, and access to, equipment and supplies.
    What experience and familiarity do you have with RFID technologies 
and their implementation?
    Answer. As indicated earlier, I was the CFO of the largest railroad 
in the U.S. during the time testing was undertaken on both bar coding 
and RFID technologies for shipment tracking. The superiority of RFID 
was demonstrated early for external markings on cars, containers, and 
modular packages on shipments, while bar coding remained more cost 
effective for individual piece parts not exposed to outdoor conditions. 
More recent developments in passive RFID technology offer significant 
improvements in the cost effectiveness of this technology.
    Question. If confirmed, what actions would you take to ensure that 
standardized training on the use of RFID and other tracking 
technologies is being provided to all necessary military and civilian 
logistics personnel?
    Answer. RFID is an evolving technology which holds great promise 
for the Department of Defense. DOD has been using active RFID on an ad 
hoc basis for the last 12 years, and like our commercial counterparts, 
DOD has just begun implementation of passive RFID technology. As with 
any new and/or emerging technology, the true benefit is derived from 
standardizing this enabling technology platform across the services. 
DOD's July 30, 2004 RFID policy sets the parameters for standard 
implementation of both active and passive RFID across the Department, 
and provides the foundation to ensure that DOD will reap the full 
benefits of RFID.
    If confirmed, I would lead efforts to ensure implementation of RFID 
technology across the services and to ensure that adequate training is 
provided to successfully implement RFID technologies.

     DATA VALIDATION FOR DEPOT MAINTENANCE PUBLIC-PRIVATE WORKLOAD 
                          DISTRIBUTION REPORT

    Question. Section 2466 of title 10 U.S. Code directs the Secretary 
of Defense to submit a report to Congress by April 1 of each year 
outlining the percent distribution of depot-level maintenance and 
repair workload between the public and private sectors for the 
preceding fiscal year and the projected distribution for the current 
and ensuing physical years. One of the continuing problems noted in the 
preparation of this report is the validity and accuracy of data 
submitted by the services. As a result, the actual percentage of work 
completed at public depots is less than what is reported by the 
department in some cases.
    If confirmed, what steps will you take to ensure the accuracy of 
DOD public-private workload distribution reporting?
    Answer. If confirmed, I would accelerate efforts to ensure timely 
and accurate reporting in compliance with Section 2466.

                   FLEET READINESS CENTER INITIATIVE

    Question. The Secretary of Dfense's proposed base closure and 
realignment actions include a recommendation which permits the Navy to 
establish aviation Fleet Readiness Centers. These centers would 
integrate intermediate and depot maintenance levels.
    What challenges, if any, does the establishment of Navy aviation 
FRCs present for the Department in the accounting and reporting of 
depot level work under the provisions of 10 USC 2466, and how would you 
address those challenges if confirmed?
    Answer. Section 2466 states that not more than 50 percent of the 
total depot maintenance and repair funding for each Military Department 
or Defense Agency may be used to contract for performance by non-
Federal Government personnel. The implementation of Fleet Readiness 
Centers (FRC) should not directly impact 2466 in the near term. Federal 
Government personnel would still perform at least 50 percent of the 
depot level work regardless of where that work is performed within an 
FRC or one of the FRC sites. It is anticipated that the challenges, if 
any, will involve the budgeting and reporting of depot maintenance 
workload under the FRC construct. If confirmed, I would work closely 
with the Navy to ensure they have a disciplined reporting mechanism in 
place to meet 10 USC 2466 requirements.

                           REFUELING AIRCRAFT

    Question. In September, 2004, the Commander of the U.S. 
Transportation Command grounded 29 KC-135E aerial refueling aircraft 
because these aircraft had not received an extended interim repair of 
the engine struts. The cost of the extended interim repair of the 
struts for these aircraft is estimated to be $8.4 million for all 29 
aircraft.
    What role do you believe the Office of the Secretary of Defense 
should play in monitoring situations, such as this one, that could have 
long-term, negative impacts on needed aerial refueling capabilities?
    Answer. I believe the Deputy Under Secretary of Defense for 
Logistics and Materiel Readiness should monitor, review and assess the 
strategic policy implications of all logistics, maintenance, materiel 
readiness, and sustainment support programs in the Department of 
Defense.
    Question. Do you believe the Office of the Secretary of Defense 
should become more involved in inventory management and depot loading 
for systems critical to national security?
    Answer. If you mean day-to-day management decisions regarding 
inventory management or depot loading, that is the responsibility of 
the military service and in some cases, the Defense Logistics Agency. 
However, the Office of the Secretary of Defense is responsible for 
overall management, integration, and direction of Defense logistics 
systems to include monitoring operational capabilities and performance 
for critical systems and for identifying corrective actions needed.

                OUTSOURCING OF MILITARY MAIL OPERATIONS

    Question. The efficiency of DOD systems for delivery of U.S. mail 
to and from overseas locations has frequently come under criticism. In 
2000, following a 2-year review of military postal operations, the DOD 
Military Postal Service (MPS) concluded that ``much, if not all, of the 
MPS mission could potentially be outsourced.'' Private contractors with 
in depth experience in logistics/supply chain visibility and security 
have asserted that outsourcing of overseas military mail operations 
can, in time, yield enormous savings in manpower and costs, as well as 
improved mail service. Additionally, the vulnerability of military mail 
as a means of potential terrorist attacks on military personnel is a 
matter of importance that the committee has addressed in section 1061 
of S. 1042, the National Defense Authorization Act for Fiscal Year 
2006.
    Question. What is your assessment of the feasibility and potential 
savings associated with ``outsourcing'' of military mail functions to 
private contractors?
    Answer. Important parts of the existing military postal system are 
already outsourced. Important transportation links of the system are 
already outsourced as well. Major mail processing activities in a 
number of facilities are outsourced to perform duties such as mail 
processing, loading/unloading of vehicles and aircraft, and redirection 
of mail for units that moved. However, consideration of outsourcing of 
operations must proceed carefully, because there is a complex array of 
laws and regulations that govern the operation of the military postal 
system.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. I will always be prepared to offer my best professional 
judgment.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Under Secretary of 
Defense for Logistics and Materiel Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                   DEPOT MAINTENANCE IMPROVEMENT FUND

    1. Senator Inhofe. Dr. Sega, Mr. Bell, and Mr. Anderson, since the 
Bush administration came into office, we have seen a renewed interest 
in the Air Force's depots. A key to this overall reinvigoration has 
been the Depot Maintenance Strategy and Master Plan that will ensure 
America's air and space assets are ready to rapidly respond to any 
national security threat. Because of this plan, we have begun a 
restoration of our Air Force's three depot facilities, one of which is 
located at Tinker Air Force Base, Oklahoma. This modernization will 
ensure the United States is able to maintain world-class aircraft 
repair and overhaul facilities. Tinker Air Force Base is the largest 
single employer in the State of Oklahoma. It is important to sustain 
and upgrade Tinker's facilities and equipment along with that of the 
other depot facilities. There is currently an amendment that I support 
which calls for full funding of the Depot Maintenance Strategy and 
Master Plan at a level of $150 million a year, over a 6-year period. 
Secretary Gibbs supported fully funding the Depot Maintenance 
Improvement Fund. Do you have any concerns about sufficiently funding 
the Improvement Fund at the same percentage level as Secretary Gibbs?
    Mr. Bell. Depot maintenance infrastructure is critical to ensure 
maintenance depots can be both responsive and cost effective providers 
of DOD materiel readiness. The depot maintenance transformation 
investments should be focused on improving cost-effectiveness, reducing 
cycle times, and creating a safer work environment. I have no concern 
with funding programs which provide such returns on investment.

    2. Senator Inhofe. Dr. Sega, Mr. Bell, and Mr. Anderson, will you 
commit to this same level of funding?
    Mr. Bell. I fully support the Department's funding the 
modernization and transformation of their depot maintenance equipment, 
facilities, and personnel between fiscal year 2004-2009.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                      INTER-SERVICE WORK AT DEPOTS

    3. Senator Chambliss. Mr. Bell, I was pleased to read in your 
responses to the advance policy questions that you would accelerate 
efforts to ensure timely and accurate reporting in the Depot 
Maintenance Public-Private Workload Distribution Report to ensure that 
the distribution of work at our service depots stays in compliance with 
the law. My concern, though, is how will you ensure that logistics 
management contracts for large-scale weapon systems like the next 
generation tanker or the Future Combat System, for example, will not be 
outsourced in their entirety to the private sector?
    Mr. Bell. I will work to ensure that logistics support plans for 
all weapon systems are carefully reviewed to meet title 10 core 
capability requirements for public sector depots and that these 
essential capabilities are regularly reviewed and adjusted when needed. 
In addition, I will endeavor to expand the use of public-private 
partnerships as a means of leveraging the unique repair and 
manufacturing capabilities of the DOD's organic depots in mutually 
beneficial arrangements with logistics management contractors.

    4. Senator Chambliss. Mr. Bell, I also noted in your responses to 
the advance policy questions that you had thought through to some 
extent how you would lead efforts to regenerate materiel readiness in 
systems that have been degraded by the high level of operations tempo 
in the war on terror. Our service depots will no doubt be a major part 
of your plan to regenerate combat power. I'd like to hear your thoughts 
on the amount of inter-service work that could be performed at the 
depots. For example, would examining how much Army work could be done 
at a Marine Corps depot, or how much Navy work could be done at an Air 
Force depot, be part of your analysis?
    Mr. Bell. Our service depots face the dual challenge of 
recapitalizing aging weapon systems while regenerating combat systems 
affected by the high operations tempos of Operations Iraqi Freedom and 
Enduring Freedom. Accommodating these workloads will require exploiting 
the full range of the DOD's organic capabilities. To that end, I will 
to explore all opportunities for interservice work to qualified sources 
of repair.

    5. Senator Chambliss. Mr. Bell, do you see this as an area where 
further growth is possible?
    Mr. Bell. Yes, especially in addressing the Army and Marine Corp's 
reset (regeneration) requirements for wheeled and tracked vehicles.
                                 ______
                                 
    [The nomination reference of Phillip Jackson Bell follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 28, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Phillip Jackson Bell, of Georgia, to be Deputy Under Secretary of 
Defense for Logistics and Materiel Readiness, vice Diane K. Morales, 
resigned.
                                 ______
                                 
    [The biographical sketch of Phillip Jackson Bell, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

              Biographical Sketch of Phillip Jackson Bell

    Jack Bell was sworn in as Deputy Under Secretary of the Army on 
April 4, 2005. In this role, he assists the Secretary of the Army and 
the Under Secretary of the Army in fulfilling the Army Title X 
responsibilities for recruiting, organizing, supplying equipping, 
training, and mobilizing the Army; managing its $98.5 billion budget; 
and supporting its 1.3 million Active-Duty, National Guard, Army 
Reserve, and civilian personnel.
    Prior to this appointment, Mr. Bell served as the first Chief of 
Staff of the State Department's Afghanistan Reconstruction Group (ARG) 
in Kabul, Afghanistan, advising the President's Special Envoy and 
Ambassador to Afghanistan, and Ministers of the government of 
Afghanistan on efforts to accelerate political stability, 
reconstruction, and economic development, including private sector 
development.
    Before that, Mr. Bell had a successful career in the private 
sector, specializing in change management in large complex 
organizations facing major challenges in their operational, market, 
and/or competitive environments. His work included service as Chief 
Financial Officer and other senior management positions at U.S. 
Airways, American Airlines, Burlington Northern Railroad, Adobe 
Systems, and Conner Peripherals. He also served as a venture advisor to 
and board member of start-up information technology companies in 
Silicon Valley. Earlier, he was a consultant with McKinsey & Company, 
working on similar challenges with such clients as the World Bank, 
Office of Management and Budget, and the Peace Corps.
    Mr. Bell began his career as an officer in the United States Marine 
Corps. He served tours in Vietnam, Okinawa and the Caribbean rising to 
the rank of Captain. He was awarded the Navy Commendation Medal with 
Combat ``V,'' the Presidential Unit Citation, the National Defense 
Service Medal, the Armed Forces Expeditionary Medal, the Vietnam 
Service Medal, and the Republic of Vietnam Campaign Medal.
    Mr. Bell earned a Bachelor's Degree in Business Administration from 
Northwestern University, and a Master of Arts Degree in International 
Relations from the University of South Carolina.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Phillip 
Jackson Bell in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Phillip Jackson (Jack) Bell.

    2. Position to which nominated:
    Deputy Under Secretary of Defense for Logistics and Material 
Readiness.

    3. Date of nomination:
    June 28, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 31, 1941; Portsmouth, VA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Virginia Phillips Inman Bell.

    7. Names and ages of children:
    Scarlett Lee Talamantes, age 40.
    Christopher Jackson Bell, age 39.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of South Carolina, 1963-1964, MA in International 
Relations, 6/1964.
    Northwestern University, 1959-1963, BS in Business Administration, 
6/1963.
    Marietta High School, 1954-1959, diploma in College Prep studies.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Deputy Under Secretary of the Army, Pentagon, April 2005-present.
    DOD consultant (Afghanistan support and lessons learned----
Pentagon, January 2005-April 2005.
    Chief of Staff, Afghanistan Reconstruction Group, U.S. State 
Department, Kabul, Afghanistan, November 2003-June 2004.
    Board member, advisor, and audit committee member, Centurion 
Wireless Technologies, Lincoln, NE, November 1996-September 2004.
    Board member and audit committee member, Asyst Technologies, Inc., 
Milpitas,CA, June 2000-January 2005.
    Executive VP, CFO, and Chief Administrative Officer, Adobe Systems, 
Inc., San Jose, CA, November 1996-August 1998.
    Executive VP & CFO, Conner Peripherals, Inc., San Jose, CA, 
September 1993-February 1996.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    McKinsey & Company, inc. consulting assignments with U.S. 
Government Departmetns and Agencies: Department of the Army; U.S. 
Postal Service; Peace Corps; and Office of Management and Budget.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Tehama Golf Club, Carmel, CA.
    Member, Sharon Heights Golf and Country Club, Menlo Park, CA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2,000--2003 Bush-Cheney 2004.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Navy Commendation Medal w/Combat ``V''.
    Presidential Unit Citation.
    Armed Forces Expeditionary Medal.
    Armed Forces Service Medal.
    Vietnam Service Medal, with three bronze campaign stars.
    Vietnamese Campaign Medal.
    Richardson Foundation Fellowship, University of South Carolina.
    Austin Scholarship, Northwestern University.
    Lockheed Management Club Scholarship.
    Beta Gamma Sigma.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Civil War Heavy Explosive Ordnance, University of North Texas 
Press, 2003.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                         Jack Bell.
    This 6th day of July 2005.

    [The nomination of Phillip Jackson Bell was reported to the 
Senate by Chairman Warner on July 28, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 29, 2005.]
                              ----------                              

    [Prepared questions submitted to John G. Grimes by Chairman 
Warner prior to the hearing with answers supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I whole-heartedly support full implementation of the 
Goldwater-Nichols and Special Operations reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I am not yet fully familiar with the Department's efforts 
to implement these reforms. However, if confirmed, I will review the 
extent to which these reforms have been implemented and assess 
appropriate actions I can take to promote further implementation.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. It is my understanding that these reforms have 
significantly improved the organization of the Department of Defense, 
focused our joint warfighting capabilities, enhanced the military 
advice received by the Secretary of Defense and provided for more 
efficient and effective use of defense resources in responding to 
national security challenges.
    Question. The goals of Congress in enacting these defense reforms 
can be summarized as strengthening civilian control over the military; 
improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; enhancing the effectiveness of military operations; and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I agree with these goals.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in such proposals?
    Answer. My understanding is that the Department is continuing to 
examine ways to better support the goals of the reform in light of our 
ever-changing environment. If confirmed, I will fully support the 
intent of the reforms and advocate legislative proposals and policies 
that will enhance the Department's ability to respond to national 
security challenges of the 21st century.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Networks and Information 
Integration (ASD)(NII)?
    Answer. If confirmed, my understanding is that I will have two 
major duties. The first is to advise the Secretary of Defense on 
information integration, information resource management, networks, 
network-centric operations and command and control (C2) and 
communications matters across the Department. The second is to provide 
leadership, management, policy and governance to the development, 
deployment, support and integration of DOD-wide information 
infrastructure and supporting networks and C2 and communication 
capabilities in support of the Defense Mission. In that capacity, I 
would serve as the information architect for the DOD enterprise 
information environment, and provide oversight and policy guidance to 
ensure compliance with standards for developing, maintaining, and 
implementing sound integrated and interoperable architectures across 
the Department, including intelligence systems and architectures.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have over 45 years of direct government and industry 
involvement in C\4\ISR policy, programs and technology to include 
participation on four Defense Science Board Task Forces. I have a broad 
base of experience that has been multi-dimensional in terms of 
functions, industries and markets and has included both the commercial 
and government sectors. My industrial experience has been centered on 
C3I and also includes specialized technical, engineering and testing 
support to the Defense Agencies. I have had a great deal of experience 
in project management as well as success in streamlining organizational 
structures and improving business processes that have transformed 
organizations into much more efficient and effective operations. If 
confirmed, I believe I would be effective and supportive of Defense 
Transformation, which is one of the key elements of the Secretary's 
Defense Strategy. This approach can be characterized as both results 
and continuous improvement driven.
    In the area of education, I am a graduate of the University of 
Arizona and the U.S. Army War College and have a master's degree in 
Public Administration from the Shippensburg University. In addition I 
was fortunate enough to study at the Harvard University National and 
International Security Policy Program.
    I believe that my education, government and industry experience, 
and successful, executive level defense industry career have prepared 
me to face the exciting challenges and opportunities resident in the 
position of ASD(NII) and the DOD CIO.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the ASD(NII)?
    Answer. I believe that I am fully capable of performing the duties 
of the ASD(NII).
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. The ASD(NII) is principal adviser to the Secretary of 
Defense for non-intelligence space and information superiority. As 
DOD's Chief Information Officer, the ASD(NII) is also responsible for 
oversight of all DOD information systems and information management 
activities. As I mentioned above, I expect the two major duties that 
the Secretary of Defense will prescribe for me will be to first, serve 
as the information architect for the DOD enterprise information 
environment, and provide oversight and policy guidance to ensure 
compliance with standards for developing, maintaining, and implementing 
sound integrated and interoperable architectures across the Department, 
including intelligence systems and architectures. The second is to 
advise the Secretary of Defense on information integration, information 
resource management, networks, network-centric operations, command and 
control (C2) and communications matters across the Department.

                             RELATIONSHIPS

    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense.
    Answer. If confirmed, I will function as DOD Chief Information 
Officer (CIO) and as the principal staff assistant and advisor to the 
Secretary of Defense for all matters pertaining to information 
integration, networks and network-centric operations and DOD-wide 
command and control (C2) and communication matters.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, my relationship with the Deputy Secretary of 
Defense will be the same as that described above in relation to the 
Secretary of Defense.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. If confirmed, I will work very closely with the Under 
Secretary of Defense for Intelligence to ensure that intelligence 
systems are fully integrated with the Department's current and future 
communication and information systems, and information sharing is 
provided across DOD, the Intelligence Community, and other government 
entities.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. With respect to acquisition of IT, if confirmed, I expect 
to work closely with the Under Secretary of Defense for Acquisition, 
Technology and Logistics so that we can both carry out our statutory 
obligations.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. If confirmed, my relationship with the Under Secretary of 
Defense (Comptroller) will be based on my role as principal staff 
assistant in the areas of information integration, networks, and 
network-centric operations, command and control (C2), communications 
matters and as the DOD CIO and her role as the Comptroller of the 
Department of Defense.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict.
    Answer. If confirmed, my relationship with the Assistant Secretary 
of Defense for Special Operations and Low Intensity Conflict will be 
similar to that in relation to the other Assistant Secretaries of 
Defense.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. If confirmed, my relationship with the Assistant Secretary 
of Defense for Homeland Defense will be similar to that in relation to 
the other Assistant Secretaries of Defense, with particular emphasis on 
improving the integration and flow of information to and among 
participating agencies in support of homeland defense and reducing the 
vulnerabilities of our critical information infrastructures.
    Question. The General Counsel of the Department of Defense.
    Answer. If confirmed, my relationship with the General Counsel will 
be based on my role as principal staff assistant in the areas of 
information integration, networks, and network-centric operations, 
command and control (C2), communications matters and as the DOD CIO and 
his role as the chief legal officer of the Department of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I will coordinate and exchange information 
with the Chairman of the Joint Chiefs of Staff on information 
integration, networks, and network-centric operations and command and 
control (C2) and communication matters to ensure all policy and 
guidance issues under my cognizance are supportive of the combatant 
commanders and military services.
    Question. The regional combatant commanders.
    Answer. If confirmed, my relationship with the regional combatant 
commanders will be based on my role as principal staff assistant to the 
Secretary of Defense for networks and information integration, net-
centric operations, and command and control (C2) and communication 
functions and as CIO, and I will coordinate and exchange information 
with them on matters of mutual interest to ensure management policy and 
guidance for network-centric operations are supportive of their 
warfighter roles and missions.
    Question. The Director of the Defense Intelligence Agency.
    Answer. If confirmed, I will work with the USD(I) to ensure that 
DIA's programs follow DOD guidance in the areas of information 
architecture, interoperability, and acquisition.
    Question. The Director of the National Geospatial-Intelligence 
Agency.
    Answer. If confirmed, I will work with the USD(I) to ensure that 
National Geospatial-Intelligence Agency's (NGA) (formerly NIMA) 
programs follow DOD guidance in the areas of information architecture, 
interoperability, and acquisition.
    Question. The Director of the National Security Agency.
    Answer. If confirmed, I will work with the USD(I) to ensure that 
NSA's programs follow DOD guidance in the areas of information 
architecture, interoperability, and acquisition and directly with the 
Director, NSA on matters pertaining to information assurance.
    Question. The Director of the National Reconnaissance Office.
    Answer. If confirmed, I will work with the USD(I) to ensure that 
NRO's programs follow DOD guidance in the areas of information 
architecture, interoperability, and acquisition and directly with the 
Director, NRO on matters pertaining to space information superiority.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the ASD(NII)?
    Answer. I believe there are four major challenges that will 
confront the ASD(NII) and DOD CIO. The first challenge is the 
successful execution of the major communication and information systems 
programs which, as a whole, are intended to build the foundation of 
network-centric operations. Building this foundation is key to the 
Secretary's strategic initiative to fundamentally transform the way our 
forces fight and how the DOD does business.
    The second challenge, which is closely related to the first, is the 
successful integration of the programs that are being developed and 
deployed to produce network-centric capabilities to support network-
centric operations.
    The third challenge is the smooth and seamless transition of legacy 
systems to the future, or ``to be'', network-centric GIG.
    The final challenge is to promote and support dramatic improvements 
in the efficiency and effectiveness of DOD business processes. If 
confirmed, I plan to work very closely with other Principal Staff 
Assistants and DOD Components to ensure that the Department's efforts 
in this area are highly successful.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Assuming that I am confirmed, my approach to addressing the 
first two challenges would be threefold. First, I would conduct 
periodic and in-depth reviews of all key programs to ensure that cost, 
schedule, and technical objectives are met and, if not, that recovery 
plans are developed and implemented. Second, I would continue to 
develop a strong end-to-end systems engineering function in the 
OASD(NII) to ensure that systems and services being developed fully 
meet the objective operational capabilities. Third, I would continue to 
develop robust governance processes to ensure that the evolving 
elements of the information infrastructure are consistent with the 
principles of network-centric warfare operations and that policies are 
enforced.
    To meet the third challenge of transitioning of current to future 
systems, I would direct the development of comprehensive and high 
confidence execution plans for each element of the information 
infrastructure.
    Finally, in regards to business process improvement, my 
understanding is that the Defense Business Systems Management Committee 
has established a broad based initiative to improve the efficiency and 
effectiveness of business process across the Department. If I am 
confirmed, I would be a member of the committee and work to ensure that 
the goals and objectives of this initiative are met, and preferably, 
exceeded.
    Question. What do you assume will be the most serious problems in 
the performance of the functions of the ASD(NII)?
    Answer. At the present time, I do not believe that I am 
sufficiently informed on the relevant details to be knowledgeable of 
specific problems. However, I do know from past experience that 
problems occur in the management of highly technical programs like the 
ones for which the ASD(NII) has oversight responsibility. These are 
related to the timely development of supporting technologies, meeting 
cost and schedule objectives and successfully integrating the elements 
of a system into the operational environment. If I am confirmed, I 
would ensure that I become fully aware of and directly involved in 
solving problems.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will use the comprehensive program review 
process discussed above to discover and solve problems. Early 
recognition of problems through frequent program reviews is a very 
effective way to ensure success.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(NII)?
    Answer. If confirmed, my priorities would be in direct support of 
the Secretary of Defense's transformational objectives and closely 
related to the challenges that I outlined above and enable the 
achievement of network centric operations throughout the Department.

                       TRANSITION OF C\3\I TO NII

    Question. The National Defense Authorization Act for Fiscal Year 
2003 authorized the position of Under Secretary of Defense for 
Intelligence (USD(I)). The establishment of this position in early 2003 
resulted in significant changes to the organization of the Assistant 
Secretary of Defense for Command, Control, Communications and 
Intelligence, that has now been designated as the ASD(NII).
    In your view, how has the establishment of the USD(I) affected the 
mission and organization of the ASD(NII) organization?
    Answer. Prior to the establishment of the USD(I), the mission of 
ASD(C\3\I) was to enable the information age transformation of the 
Department of Defense by building the foundation for network-centric 
operations. In the creation of the USD(I) certain personnel responsible 
for policy, requirements review and acquisition oversight of 
intelligence programs were transferred from the ASD(C\3\I) to the 
USD(I). My vision regarding net-centric operations is that it is 
critical to continue the existing partnership with the USD(I) on these 
matters.
    Question. What do you see as the appropriate relationship between 
ASD(NII) and USD(I) in performing the Chief Information Officer 
responsibilities regarding the Combat Support Agencies which have 
intelligence support missions?
    Answer. At this point I am not sufficiently informed to offer an 
opinion. However, I can assure you that I would continue to foster a 
close and cooperative relationship with the USD(I). If I am confirmed, 
I would be happy to discuss this topic with the committee at a later 
date.

                           SYSTEMS INVENTORY

    Question. For fiscal year 2005, the department will spend over $13 
billion to operate, maintain, and modernize over 4,000 non-integrated 
business systems.
    If confirmed, what involvement do you anticipate that you would 
have in reviewing DOD's business systems inventory to identify and 
eliminate duplicative, non-compliant business systems within the 
various functional areas, such as logistics and financial management?
    Answer. As the ASD(NII)/DOD CIO I will be a member of the Defense 
Business Systems Management Committee that will review DOD's business 
systems inventory to identify and eliminate duplicative, non-compliant 
business systems in addition to establishing strategic direction and 
plans for the Business Mission Area (BMA); approving metrics and 
targets for tracking of business systems transformation progress; 
approving the BMA Strategic Plan; overall Business Enterprise 
Architecture; and the transformation program baseline.
    Question. If confirmed, what do you believe your role would be in 
developing and maintaining a complete and accurate inventory of DOD's 
business systems?
    Answer. As the DOD CIO, it will be my responsibility to ensure that 
the Department has a complete and accurate inventory of DOD's business 
systems.

                  SYSTEM PROJECT MANAGEMENT OVERSIGHT

    Question. Over the years DOD auditors have been critical of the 
Department's lack of oversight and accountability over its business 
systems development projects.
    If confirmed, what actions would you take to improve business 
systems project management oversight and monitoring within the 
department?
    Answer. I am not yet fully familiar with the Department's efforts 
to appropriately oversee and be accountable for its business systems 
development projects. However, if confirmed, I will review the 
procedures currently in use and assess what further actions need to be 
taken. I will give particular emphasis to ensuring that robust 
governance processes are in place, and that oversight and monitoring 
reflects an enterprise-level perspective in preference to a system by 
system-level perspective.

                    CONTROL OVER SYSTEMS INVESTMENT

    Question. The Ronald W. Reagan National Defense Authorization Act 
for Fiscal Year 2005, established the Defense Business Systems 
Management Committee as the approval authority for the management of 
business systems investments. Each of the military services and defense 
agencies, however, continue to receive their own funding for business 
systems.
    In your opinion, as DOD proceeds with its efforts to develop and 
implement a business enterprise architecture, would appropriating funds 
for business systems modernization directly to the designated approval 
authorities responsible for these modernization efforts, as opposed to 
the individual components, enhance the likelihood of successfully 
modernizing DOD's business systems environment?
    Answer. I am not sufficiently informed at this time to render my 
opinion as to whether appropriating funds for business systems 
modernization directly to the designated approval authorities 
responsible for these modernization efforts would enhance the 
likelihood of successfully modernizing DOD's business systems 
environment. However, if confirmed, I will pursue this question in 
conjunction with the Department's ongoing effort to establish a single 
process for investment review of all defense business systems.

                         INFORMATION OPERATIONS

    Question. Joint Vision 2020 describes ``information superiority'' 
as a critical element of success in 21st century conflict. Disrupting 
the information systems of adversaries, while protecting our own 
systems from disruption ( i.e., information operations) will be a major 
element of warfare in the future.
    What is your vision of the role of information operations in the 
conduct of military operations?
    Answer. The Secretary of Defense has directed that Information 
Operations (IO) become a core military competency. The President 
assigned United States Strategic Command as the integrator for IO in 
support of other combatant commanders. The Department has made 
significant progress toward this goal and is committed to transforming 
our military capabilities to keep pace with emerging threats. IO is an 
important part of this transformation. In fact, IO has become a key 
part of current and planned military operations. It enhances the 
warfighting capability by giving combatant commanders non-kinetic 
capabilities to employ, contributing to integrated force options. In 
fact where non-kinetic capabilities are effectively integrated, the 
commander's options increase not only for the fight at hand but for 
ensuing operations in those instances where the Commander will be 
charged with `winning the peace.' It's easier to operate where the 
infrastructure for communications has not been broken by the effects of 
the kinetic option. Ensuring robust defense of our networks is a high-
priority during both peacetime and conflict.
    Question. What is your assessment of the unity of the efforts 
across the Department, the Defense Agencies, and the respective 
military services in this area?
    Answer. It is my understanding that IO efforts across the 
Department are more unified and cohesive than ever. All combatant 
commanders have incorporated IO activities in their operations and 
planning, as appropriate. Services have enhanced their efforts to 
organize, train, and equip to support combatant commander requirements 
to include developing a dedicated career force and improving Joint and 
Service education and training.
    Question. In your view, what lessons have been learned regarding 
information operations in Operation Iraqi Freedom and Operation 
Enduring Freedom?
    Answer. Although this does not fall under the area of 
responsibility now assigned to the ASD(NII), I understand that during 
Operation Iraqi Freedom and Operation Enduring Freedom, IO capabilities 
significantly contributed to achieving the combatant command 
objectives. IO capabilities were very effective when integrated into 
the combatant commanders' theater operations. IO achieves its maximum 
effectiveness when integrated into, and executed as part of, the 
combatant commanders' overall campaign plan under the combatant 
commander's authority.

                 NET-CENTRIC ENTERPRISE SERVICES (NCES)

    Question. The Defense Information Systems Agency (DISA) established 
an architectural framework within the Global Information Grid (GIG) to 
collect and disseminate mission critical data through a series of 
common applications supporting the entire defense enterprise. This 
approach, known as Net Centric Enterprise Services (NCES), is intended 
to eliminate stovepipes, treat data as an enterprise asset and ensure 
that the right information gets to the right people at the right time. 
This approach will require the services and support organizations 
within the defense community to work together to provide data and use a 
number of common enterprise applications.
    Do you support the concepts behind the net-centric enterprise 
services program? If so, how do you think the Department might be able 
to accelerate the services' acceptance and transition to NCES?
    Answer. Yes, I am in full support of NCES. NCES--a key enabler of 
information sharing across the Department and eventually with our 
partners--will provide a suite of core capabilities in support of all 
DOD missions. For example, its information services will enable the 
discovery of data, the ability to collaborate, and the reuse of 
information services by all DOD users. Integrating enterprise services 
with a ubiquitous Internet Protocol network will enable any authorized 
user to have assured, trusted access to shared data, when needed and 
where needed to accelerate decision making. The immediate benefit is 
improved agility of the DOD to field new information capabilities, to 
empower the warfighter and improve decision superiority.
    If confirmed, I will continue the efforts already underway in the 
Office of the ASD(NII)/DOD CIO with the military services to determine 
programs of record that will be able to use the NCES core services as 
opposed to building their own services--as early adopters of these new 
enterprise assets. This will promote net-centricity by sharing 
information.

                         DATA SHARING AND NCES

    Question. Data sharing is critical to maximizing the effectiveness 
of network-centric warfare and serves as the foundation of the NCES 
vision. Historically, services and/or agencies have owned data 
collection platforms and consequently ``own'' the underlying data. Many 
of these data owners have been reluctant to post or otherwise share 
this underlying data except on a need to know basis, often requiring 
time consuming and cumbersome permission processes that are 
inconsistent with and contrary to concepts of net-centricity and 
effective warfare in the information age.
    If confirmed, how would you encourage the data and information 
sharing that is required not only for NCES but also to maximize the 
effectiveness of network-centric warfare?
    Answer. As your question recognizes, data sharing is dependent upon 
a robust technology infrastructure provided by programs like NCES and 
the Department's Information Assurance initiatives to enable assured 
access. However, data sharing is even more dependent on changing the 
cultural attitudes and institutional processes of the Department. DOD 
Directive 8320.2, which codifies the Department's data sharing focus, 
recognizes the need for these changes. If confirmed, I will continue 
the work the Office of the ASD(NII)/DOD CIO has already begun in 
working with the Chairman of the Joint Chiefs of Staff and USD(AT&L) to 
embed data sharing mindset and practices into our training--both 
military and civilian. In addition, I will work with AT&L, Comptroller, 
USD(I) and the other DOD components to modify our institutional 
processes to promote data sharing. Finally, I intend to continue the 
Department's advocacy and awareness campaign--ensuring that all members 
of the Department hear and understand the importance of data sharing.

        TESTING AND EVALUATION OF INFORMATION TECHNOLOGY SYSTEMS

    Question. As information technology systems and infrastructure grow 
more sophisticated, networked, and software-intensive, DOD's ability to 
test and evaluate them becomes more difficult.
    What concerns do you have, if any, with DOD's ability to test new 
information technology systems/infrastructures such as the Navy-Marine 
Corps Intranet (NMCI) and the Global Information Grid-Bandwidth 
Expansion (GIG-BE)?
    Answer. Both developmental and operational testing are important to 
the overall acquisition process, and make important contributions to 
the development and implementation of IT systems. The testing process 
instills a discipline into the developmental cycle similar to that 
produced when the principles of good system engineering are applied.
    It is my understanding that the current process provides excellent 
results, if testing is done against well-formed requirements. Since 
requirements are a key ingredient in a successful test event, my focus 
would be on ensuring that well vetted requirements that consider the 
individual needs of the Services/components/agencies and the collective 
needs of the Department are developed.
    Question. What steps do you believe the Department should take to 
build and maintain a robust test and evaluation capability?
    Answer. I believe that the Department's test and evaluation (T&E) 
processes and procedures are exceptional. The T&E community has 
supported the acquisition processes move to a spiral acquisition 
process where we develop capability and test that capability in small 
increments that are all aimed at the final capability need. Since this 
approach is gaining widespread acceptance within the IT Program 
Management community, I hope to continue to foster the work already 
underway between the testing and acquisition communities to ensure that 
the successful testing of system increments drives us to ultimate 
success with the final system.
    In addition, the Department has already recognized the need to 
continue to strengthen Test & Evaluation not just for information 
technology systems but all its systems that will be operating in a 
networked DOD. This effort lead by the Director, Operational Test & 
Evaluation, has developed and published the initial version of a 
Testing in a Joint Environment Roadmap. Implementation planning is 
underway under the leadership of DOT&E in full partnership with 
USD(AT&L), USD(P&R), the Joint Staff, the military services, Joint 
Forces Command. The implementation plan covers changes in: the Test & 
Evaluation methods and processes; the T&E infrastructure; DOD's 
policies and regulations; and DOD's organization and resource 
considerations. One of the major elements of the implementation plan is 
how to create, maintain and use a distributed test (and training) 
infrastructure. It is seldom practical, and rarely affordable, to 
create a purely live test environment with all of the elements of the 
Department whether the day-to-day activities (e.g. NMCI) to deployed 
joint task forces. This capability will effectively integrate live, 
virtual, and constructive representations of the necessary elements in 
order to generate a realistic environment. This capability will also 
provide a persistent, repeatable, operationally realistic environment 
in a timely and cost-effective manner for any system or combination of 
systems and set of operations (or workflows).
    Question. If confirmed, what would your plans be to ensure adequate 
test and evaluation of components of the Global Information Grid (GIG)?
    Answer. Again, I think that it is critical that the GIG 
requirements be well-defined, and that the requirements support the 
direction my predecessors have laid out in the GIG architecture. When 
we do this, I am confident that the Department's T&E capability will 
reveal the strengths and weaknesses of our implementation of the GIG.
    Question. If confirmed, how would you assess the current and 
potential future threats to military forces dependent on the IT 
systems?
    Answer. It is my understanding that there are significant threats 
to military forces dependent on IT systems. These threats are growing 
in their sophistication and will continue to do so in the future. 
However, DOD's capability to combat and mitigate these threats has also 
increased. The Department is implementing a variety of enterprise-wide 
security solutions and increasing our capabilities to protect, detect 
and monitor potentially malicious activity through the efforts of 
entities such as the Joint Task Force-Global Network Operations.

                          INFORMATION SECURITY

    Question. The Department of Defense has a significant portion of 
its budget devoted to information assurance activities. The National 
Security Agency has a significant portion of its budget devoted to 
administering the Information Systems Security Program.
    What is the relationship between the Department's information 
assurance activities and NSA's Information Systems Security Program?
    Answer. If confirmed, I will continue to working closely with the 
NSA, and as ASD(NII) I will continue to serve as the principal advisor 
to the Secretary of Defense on Information Assurance. Since the 
issuance of National Security Directive 42 in July 1990, the Secretary 
of Defense and the Director NSA respectively have served as the 
Executive Agent and National Manager for National Security 
Telecommunications and Information Systems Security.
    Question. If confirmed, what oversight responsibilities would you 
have with regard to the administration of the Information Systems 
Security Program?
    Answer. In general, I anticipate I will have oversight 
responsibility for information assurance (IA) policy development and 
implementation, resource and program management, acquisition and 
security compliance. Specifically, I will provide IA support to the DOD 
components in order to assess the threats to, and vulnerabilities of, 
information technologies; serve as the focal point for IA research and 
development; develop and maintain a systems security engineering 
process that implements the IA component of the GIG architecture; 
ensure interoperable IA solutions; and ensure IA awareness, training, 
education and certification of systems and personnel.

                            INTEROPERABILITY

    Question. In the aftermath of each significant military operation 
over the past 25 years, the lessons learned process has revealed 
significant problems associated with the interoperability of 
communications, as well as information technology networks. Much of 
this has to do with systems developed by the Services that are not 
interoperable with other Service or joint systems. Blue Force tracking 
is such an example.
    In your view, what role should the ASD(NII) play in formulating and 
enforcing standards for all defense communications and information 
technology systems to reduce or eliminate interoperability problems?
    Answer. If confirmed, my role as the DOD Chief Information Officer 
is to ensure the interoperability of information technology systems 
throughout the Department of Defense and to prescribe standards that 
apply across the Department. I do this by working with the DOD 
Components to formulate the minimum set of IT standards needed to 
achieve interoperability among forces. I will also work with the Joint 
Staff, USD (Acquisition, Technology and Logistics), and the USD 
(Comptroller) to build-in and enforce interoperability requirements 
through the Joint capabilities development process, the Defense 
acquisition process, and the planning programming and execution 
process. Compliance with interoperability standards is independently 
validated and certified prior to program milestone decisions.

                         INFORMATION MANAGEMENT

    Question. The Clinger-Cohen Act of 1996 introduced requirements 
emphasizing the need for the Department of Defense to significantly 
improve management processes, including how it selects and manages IT 
resources. For instance, a key goal of the Clinger-Cohen Act is that 
the Department of Defense should have institutionalized processes and 
information in place to ensure that IT projects are being implemented 
at acceptable costs, within reasonable time frames, and are 
contributing to tangible, observable improvements in mission 
performance.
    What role do you expect to play, if confirmed, in the 
implementation of the Clinger-Cohen Act with regard to IT that is 
embedded in major weapon systems?
    Answer. I am not yet fully familiar with how the Clinger-Cohen Act 
is implemented with regard to IT that is embedded in major weapons 
systems. However, if confirmed, I will assess the status of Clinger-
Cohen Act implementation, and take actions to ensure that the oversight 
adds value to IT projects, and does not result in redundant oversight 
processes.
    Question. What do you see as the appropriate relationship between 
the ASD(NII) and the service acquisition executives in this effort?
    Answer. If confirmed, my relationship with the service acquisition 
executives will be based on my role as Principal Staff Assistant to the 
Secretary of Defense for networks and information integration, net-
centric operations, and command and control (C2) and communication 
functions and as CIO, and I will work with the service acquisition 
executives to ensure that the oversight role of ASD(NII)/DOD CIO is 
both as effective and efficient as possible.

      COMMERCIAL VS. MILITARY REQUIREMENTS FOR FREQUENCY SPECTRUM

    Question. In recent years, growing demands for the use of the 
frequency spectrum for defense and civilian communication needs have 
increased the competition for this finite resource.
    If confirmed, what would your role be in spectrum management issues 
within the Department of Defense?
    Answer. If confirmed, my responsibility in spectrum management is 
to ensure DOD has assured access to the necessary spectrum it needs 
within CONUS and as part of worldwide operations to conduct operations 
and warfighter training to effectively execute those operational 
missions.
    Question. What steps, if any, would you recommend the Department of 
Defense take to improve its spectrum management policies?
    Answer. Clearly, the Department's continued efforts toward 
leveraging information technology toward Network-Centric Warfare 
requires assured and seamless spectrum access. The Department's efforts 
are enabling dynamic spectrum management, optimizing spectrum 
utilization and providing spectrum bandwidth on-demand. The 
Department's efforts to improve spectrum management policies are driven 
by expanded requirements by warfighters for spectrum-dependent 
technologies and the demands of a geographically dispersed, 
technologically advanced military. A key factor for consideration in 
addressing this challenge is the finite nature of spectrum as a 
resource that the Department is addressing through more efficient use 
of its allocated spectrum.
    Question. If confirmed, what actions would you take to review the 
Department's total spectrum requirements and ensure that new systems 
are designed to ensure efficient spectrum utilization by the Department 
of Defense?
    Answer. The ASD(NII) is responsible for ensuring that the 
Department is a responsible steward of the frequency spectrum. To the 
best of my knowledge, the Department has focused more attention on 
critical spectrum management issues in recent years. If confirmed, I 
plan to continue to focus on accurately projecting future requirements 
for spectrum use for warfighter access and to enable efficient and 
effective operation.
    The increased focus on improved spectrum management processes, in 
part, has been driven by real-world lessons learned as part of ongoing 
stabilization and reconstruction efforts in Iraq, in which the 
Department has been able to leverage the capabilities of its Network-
Centric Operations. Spectrum management is critical in a battlespace 
environment that is increasingly dependent on wireless technology.
    The Department's implementation of the President's Spectrum Policy 
Initiative will improve spectrum access for DOD's mission-critical 
requirements. The Department continues to face the ongoing worldwide 
contention for spectrum access. Effective implementation of the 
spectrum policy recommendations of this initiative will improve our 
effective use of the spectrum and enhance DOD's global spectrum use and 
interoperability. The strategic spectrum planning requirements of the 
Initiative also build on ongoing efforts within the Department to find 
efficiencies in spectrum usage that are in line with DOD's mission and 
standards of capability.

                    COORDINATION BETWEEN CIO AND CFO

    Question. Chapter 25 of title 40 of the United States Code (40 
U.S.C. Sec. 1426) establishes accountability within each executive 
agency for accounting, financial, and asset management systems, and for 
ensuring financial and related program performance data are provided on 
a reliable, consistent, and timely manner. The law directs the head of 
each executive agency to consult with both the Chief Information 
Officer and the Chief Financial Officer in establishing appropriate 
policies and procedures.
    If confirmed, how do you see your role as CIO with respect to the 
CFO?
    Answer. I am unfamiliar with the details at this time, but it is my 
understanding that there have been significant improvements in 
collaboration between the CIO and the CFO, resulting in a better and 
more integrated process. To the extent possible, if confirmed, I intend 
to advance that process for even closer cooperation.
    Question. What mechanisms do you believe are needed to ensure 
proper coordination between the CIO and CFO?
    Answer. It is my understanding that as a part of the CFO's 
initiative to improve the efficiency of business processes across the 
Department, she has implemented a portfolio management approach, which 
I believe to be a very sound approach. The idea of domain leaders seems 
to be a good integrating step, and I will support and expand upon that 
approach if I am confirmed.
    Question. If confirmed, what specific plans would you have as the 
CIO to ensure progress is made in providing accurate and timely 
financial and performance data?
    Answer. I believe the validity of financial statements is the CFO's 
job, while the CIO's responsibility is to support the CFO's important 
responsibility in the area by ensuring that efficient and effective 
information systems are developed that will provide accurate and timely 
performance and financial data.
    Question. What role do you expect to play in the implementation of 
such plans?
    Answer. If confirmed, I believe my responsibility will be to 
provide oversight authority for all implementation; however, I will not 
be the implementer.
          defense information systems agency (disa) oversight
    Question. The ASD(NII) has oversight over the Defense Information 
Systems Agency (DISA).
    If confirmed, how do you plan to exercise your oversight authority 
to ensure that DISA provides the most effective support in the most 
efficient manner?
    Answer. If I am confirmed, I would exercise my oversight authority 
by using the same approach I have used in the past to provide 
management oversight of large organizations such as DISA. I would 
ensure that the Agency has established a set of long-term goals and 
annual operating objectives with supported action plans that are both 
measurable and relevant. Relevancy is established by ensuring that 
these goals and objectives are closely aligned with DOD's network-
centric vision, mission, strategies and goals. Quantitative measures 
would be established for each goal and mission. The Agency's top-level 
objectives would be cascaded down to all levels of the organization to 
assure total alignment.
    Question. In your view, what are the major challenges and problems 
that DISA currently faces in meeting its mission?
    Answer. DISA is at the forefront of the Department's net-centric 
operations and warfare. It provides the infrastructure for the GIG and 
the GIG's enterprise services, e.g., the warfighting and business 
domains. DISA is the primary DOD organization for the provisioning and 
management of the Enterprise Information Environment Mission Area 
(EIEMA) in the GIG construct. Success here depends upon the maturation 
of the NetOps concept for operation and defense of the GIG, agile 
acquisition techniques and management to take advantage of the fast-
paced world of information technology, agile and competent E2E systems 
engineering to provide joint interoperable systems, and continued 
movement toward increased capabilities commensurate with the pace of 
change in IT. I believe DISA is organized to successfully handle these 
challenges. My job will be to ensure they can continue to provide the 
Department the support needed.

             SERVICE COMMUNICATIONS AND NETWORKING PROGRAMS

    Question. A number of Service and Joint communications and 
networking programs are encountering significant technical and funding 
problems, leading to developmental delays and cost overruns.
    In your view, what role, if any, should the ASD(NII) play in the 
oversight of Service or Joint communications and networking systems 
acquisition programs?
    Answer. If confirmed, I would exercise oversight authority over 
those programs delegated by USD(AT&L). This includes providing day-to-
day oversight, as the Milestone Decision Authority for Major 
Acquisition Information Systems and those other initiatives that are of 
special interest. I believe communications and networking programs 
supporting a joint mission or operating in a joint environment fall 
into one of these categories.
    Answer. If confirmed, I would also continue to lead or participate 
in the current oversight review processes, ensuring these programs are 
reviewed on a reoccurring basis either through the Defense Acquisition 
Board process, IT Acquisition Board, or ASD(NII's) Net-Centric Program 
Review process. The ASD(NII) should lead the policy development and 
program oversight as the milestone decision authority for all major 
communications and networking programs. The ASD(NII) has the 
responsibility for providing policies, oversight, guidance, 
architecture, and strategic approaches for all communications and 
information network program and initiatives on an enterprise-wide basis 
across the Department, whether terrestrial, space-based or wireless.
    Through the Department's acquisition process, the ASD(NII) can 
enforce these responsibilities through influencing the analysis and 
planning, acquisition strategy, and capability delivery of the 
programs. Additionally, my staff and I will continue regular program 
oversight reviews to look at programs status, program risks and risk 
mitigation actions that should be taken.
    I will continue to implement a collaborative systems engineering 
effort to ensure joint interoperability across all major programs that 
constitute the Global Information Grid (GIG). This effort is generating 
the DOD Net Centric Implementation Document that will provide system 
level guidance on Networking and Information Technology (IT) programs 
across the GIG.
    Question. What role, if any, should the ASD(NII) play in the 
management of the Joint Tactical Radio System program and the Army 
Warfighter Information Network-Tactical and similar programs?
    Answer. If confirmed as the ASD(NII), I will play an active role in 
developing the appropriate management concept and structure for the 
Joint Tactical Radio System (JTRS), Warfighter Information Network-
Tactical (WIN-T) and similar programs to ensure these programs provide 
support to the warfighter. I will continue ASD(NII) oversight 
activities, in partnership with USD(AT&L) acquisition process, to 
ensure the best possible management structure for vital 
transformational programs. My intent is to heavily influence this 
program from a technical, interoperable, and networking standpoint to 
ensure it meets warfighter needs and DOD net-centric objectives.
    Our tactical networks are very important in supporting our 
warfighters in the field. JTRS, WIN-T, and Future Combat System provide 
the Army's next generation battle application and networking, 
increasing the warfighter's effectiveness considerably. The Air Force 
and the Department of Navy are developing their tactical networks as 
well. If confirmed, I will continue in-depth review processes to assure 
that all DOD communications and networking programs meet DOD 
objectives, manage risk, avoid duplication, and ensure support to the 
warfighter.

      JOINT BATTLE MANAGEMENT COMMAND AND CONTROL (JBMC2) ROADMAP

    Question. What role should the ASD(NII) play in the development of 
the JBMC2 roadmap?
    Answer. My understanding is that the Office of the ASD(NII) has 
actively supported USD(AT&L) and the Commander US Joint Forces Command 
in the development of both versions of the JBMC2 Roadmap. If confirmed, 
I would continue the organization's involvement and support if this 
effort, particularly in matters relating to data standards and 
architectures, IT and C4 policies, and specific network-centric systems 
under the purview of the ASD(NII)/DOD CIO.
    Question. In your view, how should the JBMC2 Roadmap be used to 
shape Service and Agency investment decisions?
    Answer. If confirmed, I plan, in my role as the C3 Principal Staff 
Assistant, to ensure the Roadmap becomes a vehicle for describing the 
Department's plans for transitioning C2 functions that currently 
support stovepipe Military Service tasks to one that supports the Joint 
Task Force Commander. I believe the Roadmap should describe how we are 
transitioning from a system-to-system connections environment to the 
net-centric environment and how we are designing our C2 processes 
around the Joint warfighter's needs.

                     INDUSTRIAL BASE AND WORKFORCE

    Question. Do you have any concerns over the continued ability of 
the Department of Defense to procure needed networking and IT systems 
from secure and reliable sources in the near or far term?
    Answer. Yes, I am concerned. Globalization of the information 
technology and telecommunications industries creates security and 
technological leadership challenges for DOD. As we become increasingly 
dependent upon IT products developed overseas and infrastructures owned 
and operated by foreign companies, adversaries are provided with the 
opportunity to destroy our war fighting capability by exploiting our 
supply chain, denying service and undermining the integrity of our 
command and control. To mitigate these risks, DOD has initiated a 
multi-pronged mission assurance strategy that consists of Information 
Assurance/defense-in-depth, hardware assurance and software assurance. 
ASD(NII) has a critical role in ensuring comprehensive and effective 
development and implementation of this strategy.
    Question. Do you have any concerns over the continued ability of 
the Department of Defense to attract and retain the technical talent 
necessary to perform the various IT and networking missions of the 
Department?
    Answer. Within the military services, military IT occupations are 
viewed as attractive career fields by new recruits. A 2004 RAND study 
recently reconfirmed this, finding that IT recruits were of higher 
quality, signed on for longer enlistment terms and generally had lower 
attrition than their non-IT counterparts. Military retention rates are 
being maintained through a combination of tools including retention 
bonuses and opportunities for continued education, training and 
developmental assignments.
    DOD's civilian IT workforce demographics mirror those of the 
overall Federal workforce; both have a large retirement-eligible 
population. We are using a proactive, holistic approach to address the 
various aspects of acquiring and sustaining a pool of skilled IT 
professionals and working with DOD's Chief Human Capital Officer, the 
Office of Personnel and Management, and our counterparts on the Federal 
CIO Council to implement innovative recruitment and retention 
initiatives. We expect these tools, the continued use of IT special 
salary rates, and your continued support for our education, training 
and certification programs, such as the Information Resources 
Management College and the Information Assurance Scholarship Program, 
will ensure that DOD maintains a cadre of highly skilled IT personnel.
    Question. In your view, what is the role, if any, of the ASD(NII) 
in ensuring that the Department of Defense has reliable access to 
needed sources of technology and technical talent?
    Answer. The ASD(NII) has a key role in articulating to vendors and 
private industry the emerging technical tools and capabilities needed 
to implement net-centricity within the Department of Defense. Some of 
these requirements, such as collaboration tools required for data 
management, are still in the infancy stage; however, they are 
continuing to mature.
    The ASD(NII) is also responsible for establishing and implementing 
Department-wide IT workforce initiatives, in coordination with the 
Under Secretary of Defense for Personnel and Readiness and the 
components, to ensure the IT mission requirements of the Department are 
met. ASD(NII) works in partnership with stakeholders from DOD critical 
communities, the Joint Chiefs of Staff, the Services, the Office of 
Personnel Management and the Federal CIO Council to address current and 
emerging skill requirements impacting the IT workforce.
    ASD(NII) also has a critical role in creating a long-term research 
and development strategy that enhances the industrial base and ensures 
that the United States remain a technological leader.

                        CONGRESSIONAL OVERSIGHT

    Answer. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Question. Do you agree, if confirmed for this high position, to 
appear before this committee and other appropriate committees of 
Congress?
    Answer. Yes, I do.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Networks and Information Integration?
    Answer. Yes, I do.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I do.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                DOD AND INTERAGENCY COMPUTER OPERATIONS

    1. Senator Inhofe. Mr. Grimes, in the aftermath of September 11, as 
we investigated and explored methods to prevent another such attack on 
our great Nation, it became apparent that agencies within our 
government had various pieces of information about the terrorists. We 
have since learned that our agencies need better interoperability and 
increased communication between information systems of some agencies. 
While this is only one part of providing better security for our Nation 
it is a critical in today's ever-expanding information environment. 
What potential systems needs do you foresee as we improve this 
interoperability within DOD and between DOD and other government 
agencies, should you be confirmed?
    Mr. Grimes. It is my understanding that the Department is 
implementing a Data Strategy to make information visible, accessible, 
and understandable and that will enhance information sharing between 
authorized users. A companion document, the Information Assurance (IA) 
Component of the Global Information Grid Architecture, was developed by 
the National Security Agency (NSA) under departmental direction. This 
document provides the vision for assuring the security and integrity of 
both the information and information environment. Both documents were 
extensively coordinated with the Intelligence Community.
    If confirmed, I will continue to use these strategies as a basis 
for enabling and facilitating the broadest possible collaboration and 
authorized access to information within the Department. Essential to 
these strategies is our Global Information Grid, which is based on 
commercial standards and practices and provides robust connectivity and 
interoperability across the Department and with other Federal 
departments and agencies.
    Your question though is broader. I strongly support your position 
that we need this same broad authorized access to all government 
information, supported by collaborative services across and among all 
of our government agencies. It is my intent to work closely with the 
Director of National Intelligence (DNI) to complete the implementation 
of these capabilities within our organizations. If confirmed, I intend 
to work with the DNI to provide the basis for implementing these data 
and information assurance strategies across the Federal Government, 
thus enabling authorized access to all government information.

    2. Senator Inhofe. Mr. Grimes, how can we ensure that as the 
agencies upgrade their computer systems, we won't find ourselves again 
with pre-September 11 information firewalls?
    Mr. Grimes. It is my understanding that the Department is 
implementing a Data Strategy focused on making information visible, or 
discoverable, similar to the World Wide Web. The complication occurs 
when you add the requirement to adequately protect our information and 
our information environment. The National Security Agency (NSA) has 
done a superb job in developing an approach to protecting information 
in an environment where the guidance is no longer ``need to know'' as 
in the past, but is built upon the idea of ``need to access.'' This 
approach is documented in the Information Assurance (IA) Component of 
the Global Information Grid Architecture. At this time, the Department 
has the support of the Intelligence Community on Increment 1 of this IA 
vision. I believe these two strategies, data and IA, provide a basis 
for broad, authorized information sharing. If confirmed, I am anxious 
to drive their implementation within DOD and will work with the 
Director of National Intelligence (DNI) and other Federal agencies to 
enable authorized access to all government information.
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton

                   DEFENSE INFORMATION SYSTEMS AGENCY

    3. Senator Dayton. Mr. Grimes, there are reports that a good deal 
of the IBM/Tivoli software sold to Defense Information Systems Agency 
(DISA) has been shelved as being inappropriate and/or ineffective in 
addressing problems with the accurate and timely processing of 
transactions. Could you please explain the situation and discuss what 
DISA proposes to do to address it?
    Mr. Grimes. It is my understanding that DISA uses the IBM/Tivoli 
software extensively for the foundation of enterprise systems 
management (ESM) across our operating sites. ESM functionality 
supported by IBM/Tivoli products includes: distributed monitoring, 
software distribution, console consolidation, and event management and 
notification. System/data base administrators and Operational Support 
Teams (OSTs) currently use the IBM/Tivoli software for system 
management and monitoring. In addition, the IBM Tivoli Monitor for 
Business Integration software successfully monitors message queue (MQ) 
transactions in DISA's distributed server environment.
    The product currently in use for IBM's Tivoli Monitor for Business 
Integration is version 5. Although we are satisfied with the 
performance of this product in the distributed server environment, we 
have experienced deficiencies with the product in the mainframe 
environment only. Consequently, we are working with the vendor to 
validate the functionality of the latest version for this specific 
environment.

    4. Senator Dayton. Mr. Grimes, last year, Congress provided DISA 
with a $1 million appropriation for a Transaction Monitoring 
Improvement Project. Could you please update the committee on the 
status of that project, and explain how the course of action DISA has 
chosen or will choose will address the ongoing problems DISA is having 
with the accurate and timely processing of the many critical 
transactions they execute every day?
    Mr. Grimes. It is my understanding that DISA is pursuing a 
competitive acquisition for an end-to-end transaction monitoring 
solution. This solution will provide end-to-end monitoring of a 
transaction through its entire path in both DISA's distributed and 
mainframe environments. At a very high level, a transaction path 
consists of three primary components:

        <bullet> Client
        <bullet> Network
        <bullet> Host (Server/Mainframe)

    The scope of DISA's end-to-end transaction monitoring project 
requires visibility of a transaction as it crosses anyone of these 
components.
    This will include the ability to locate and troubleshoot 
transaction latency and capture detailed transaction data in a central 
collection server for historical analysis and trending. This will 
enable DISA to pro actively identify and respond to end-user 
transaction delays or potential transaction failures. The Request for 
Proposal was advertised in June 2005. At present, DISA is hosting oral 
presentations with vendors in the competitive acquisition range, to 
give them an opportunity to present their proposed solution. Contract 
award is scheduled for September 2005. Product rollout will occur in 
fiscal year 2006.

    5. Senator Dayton. Mr. Grimes, if a transaction fails to reach its 
destination how do you discover that and what is the average time to 
fix?
    Mr. Grimes. It is my understanding that various mechanisms are used 
to discover failed transactions within DISA's networks. The IBM Tivoli 
Monitor for Business Integration notifies DISA support teams of message 
queue (MQ) transaction failures. Other mechanisms used to identify 
processing problems in ``non MQ'' environments are environment specific 
and can be viewed as specialty or point solutions (i.e., BMC's Mainview 
suite of performance monitors for products such as Customer Information 
Control System (CICS), Information Management System (IMS) and 
DataBase2 (DB2)). In addition, DISA has network-monitoring tools such 
as Mercury Topaz and HP's Openview.
    For those cases in which the automated tool does not detect a 
transaction failure, a manual discovery process is necessary. The time 
to fix varies with the specific type of error and personnel required to 
fix the problem.
    DISA is in the process of acquiring another tool which will become 
the Department's software standard for end-to-end transaction 
monitoring throughout the enterprise. This software product will be a 
broad-spectrum transaction monitor, which is not limited to MQ type 
transactions. IBM's Tivoli Monitor for Business Integration will be 
retained to augment the standard solution and to provide an additional 
layer of granularity for functions specific to MQ type transactions.
                                 ______
                                 
    [The nomination reference of John G. Grimes follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 16, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John G. Grimes, of Virginia, to be an Assistant Secretary of 
Defense, vice John P. Stenbit.
                                 ______
                                 
    [The biographical sketch of John G. Grimes, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of John G. Grimes

    John G. Grimes is Vice President, IIS Washington Operations for 
Raytheon Company. He is a principal point of focus with government and 
industry organizations and senior leaders for C\3\I and 
telecommunications policy, planning, and technology programs in the 
Washington area. He also provides management oversight of the C\3\I 
Directorate, which provides specialized technical, engineering, and 
testing support to the Defense Agencies, to include Joint Chiefs of 
Staff, Office of Secretary of Defense, White House, and other 
proprietary customers. Mr. Grimes has served on three Defense Science 
Board Task Forces and is on the Board of Directors of AFCEA 
International. He is currently a member of the Industry Executive 
Subcommittee, of the President's National Security Telecommunications 
Advisory Committee (NSTAC), the DOD Highland Forum and Federal 
Government Leadership Forum.
    Mr. Grimes was Vice President of Electrospace Systems Incorporated 
(a Chrysler Company) from 1994 to 1996 prior to being acquired by 
Raytheon Company. He was Deputy Assistant Secretary of Defense 
Counterintelligence/Security Countermeasures and was the Deputy 
Assistant Secretary of Defense for Defense-wide C\3\ respectively, from 
1990 to 1994. He was Senior Director of the White House Situation 
Support Staff, National Security Council from 1989 to 1990. Mr. Grimes 
was the Associate Director for Engineering and Technology, Defense 
Communications Agency (now DISA) in 1989. He was a professional staff 
member of the National Security Council (NSC), Executive Office of the 
President, White House, from 1984 to 1989 serving as Director of 
National Security Telecommunications Policy and the Director of Defense 
C\3\ Programs. From 1981 to 1984, Mr. Grimes was the Deputy Manager of 
the National Communications System (NCS). Mr. Grimes held senior 
technical and staff positions with the U.S. Army from 1961 to 1981, as 
Assistant Deputy Chief of Staff for Operations and Plans, U.S. Army 
Communications Command; Deputy Director for Engineering, U.S. Army 
Communications-Electronics Engineering Installation Agency, and Foreman 
of the Electronics Section at the U.S. Army East Coast 
Telecommunications Center, Fort Detrick, Maryland. He served in the 
U.S. Air Force from 1956 to 1960, assigned to the Air Defense SAGE 
Program.
    He is a graduate of the University of Arizona and has a Masters of 
Science Degree from Shippensburg University, PA. He is a graduate of 
the U.S. Army War College, Carlisle Barracks, PA, the Federal Executive 
Institute, Charlottesville, VA and is a graduate of Harvard 
University's National and International Security Policy Program.
    Mr. Grimes' Awards include the U.S. Army Civilian Exceptional 
Meritorious Award, the AFCEA Meritorious Service Award, two U.S. 
Presidential Rank Awards for Meritorious Senior Executives, and two 
Secretary of Defense Civilian Meritorious Service Awards. He is the 
recipient of the American Institute of Aeronautics and Astronautics' 
Command, Control, Communications, and Intelligence (C\3\I) Award.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by John G. Grimes 
in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John G. Grimes.

    2. Position to which nominated:
    Assistant Secretary of Defense (Networks and Information 
Integration).

    3. Date of nomination:
    June 16, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 29, 1935; Frederick, MD.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced.

    7. Names and ages of children:
    Tammy L. Schubel, 47.
    Terree A. Long, 46.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Frederick High School, Frederick, MD; Graduated 1953.
    Cochise Jr. College, Douglas, AZ; AA Degree 1973.
    University of Arizona, Tucson, AZ; BSPA Degree 1974.
    Shippensburg University, PA; MSPA Degree 1975.
    U.S. Army War College, Carlisle Barracks, PA; Graduated 1975.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Raytheon Company, Vice President, Washington Operations, Arlington, 
VA; Feb. 1, 1994 to present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Defense Science Board Task Forces.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Board of Director, National Science Center Foundation/Discovery 
Center.
    Board of Director, Armed Forces Communications-Electronics 
Association.
    Note: Both are profession non-profit associations which I plan to 
resign from.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Armed Forces Communications Electronics Association.
    Association of U.S. Army (AUSA).
    U.S. Air Force C4 Association.
    U.S. Air Force Association (AFA).
    U.S. Naval Institute.
    Federal Government Leadership Forum.
    National Defense Industrial Association (NDIA).
    Security Affairs Support Association--Intel (SASA).
    American Institute Aeronautics and Astronautics (AIAA).
    Kennedy Center.
    Wolf Trap.
    Lewistown United Methodist Church.Q02
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Raytheon PAC, $1,000 in each of 2003 and 2004.

Following are total estimates over the past 5 year period:

    RNC, $600.
    Virgnia Republican Party, $400.
    Bush Victory Campaign, $200.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    U.S. Army Civilian Exceptional Meritorious Award.
    Armed Forces Communications--Electronics Association Meritorious 
Award (2).
    U.S. Presidential Rank Awards for Meritorious Senior Executives 
(2).
    Secretary of Defense Civilian Meritorious Awards (2).
    American Institute for Aeronautics and Astronautics' Command, 
Control, Communications, and Intelligences (C\3\I) Award.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    18. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    John G. Grimes.
    This 28th day of June 2005.

    [The nomination of John G. Grimes was reported to the 
Senate by Chairman Warner on October 27, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 28, 2005.]
                              ----------                              

    [Prepared questions submitted to Keith E. Eastin by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the Department of Defense 
Reorganization Act of 1986 and related Special Operations initiatives 
for defense reform.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. From what I have learned to date, these defense reforms 
have been implemented and have achieved the desired results. Having 
said that, I believe it is important, and consistent with the intent of 
the reform legislation, that the Army continues to assess and modify 
its operations and internal procedures to meet the challenges of a 
dynamic security environment.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. In my judgment, the most important aspects of these reforms 
were strengthening civilian control; streamlining the operational chain 
of command, improving the efficiency in the use of defense resources, 
improving the military advice provided to the National Command 
Authorities, clarifying authority for combatant commanders, and 
enhancing the effectiveness of military operations.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I fully support the congressional goals reflected in 
the Department of Defense Reorganization Act of 1986 and other defense 
reform legislation.
    Question. Do you believe that any changes to this act may be 
appropriate? If so, why?
    Answer. I do not know of any changes to these laws that have been 
proposed at this time. If such a proposal is so made, I would if, 
confirmed, work with others in the Department regarding changes as they 
might affect the operations of the Army under my purview.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army (Installations and Environment)?
    Answer. My understanding is that the principal duties and functions 
of the position of the Assistant Secretary of the Army (Installations 
and Environment) are to assist in the formulation of policy, and 
establish and continue procedures for the effective management of 
Army's installations, real property, housing, and other facilities, 
environmental protection, safety and occupational health for both 
military and civilian personnel. This includes seeing that Soldiers and 
their families are well-housed and that other parts of the Army's 
infrastructure are maintained and brought to an effective platform for 
training and quality of life. The position further requires that 
attention be paid to treaty compliance in the Chemical Demilitarization 
Program, and the efficient and timely implementation on recommendations 
under Base Realignment and Closure (BRAC).
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have spent more than 30 years in the environmental field 
as a private attorney, serving as the director of an environmental 
practice for two large consulting firms and working as a senior 
official in the Federal Government. As Principal Deputy Assistant 
Secretary of the Navy (Shipbuilding and Logistics) from mid-1986 
through 1988, I dealt with many of the installation, housing, 
environmental, and military construction matters that, if confirmed, I 
would expect to be confronted with in the position as Assistant 
Secretary of the Army (Installations and Environment).
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Army (Installations and Environment)?
    Answer. If confirmed, I will familiarize myself with the current 
activities of the staff of the Assistant Secretary, review conditions 
of some of the components of the Army's infrastructure, and consider 
authorities and funding available to deal with the challenges and 
opportunities of the position. One of my initial priorities if 
confirmed will be to meet with commanders of key Army facilities to 
learn of their challenges and with leaders of the communities affected 
by the operations of the Army's installations to understand their 
concerns with Army operations as well as the coming activities 
surrounding the BRAC process.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. If confirmed, I would expect the Secretary to ask that I 
perform those functions delegated to the Assistant Secretary under the 
Army's General Order Number 3. I expect him to look to the Assistant 
Secretary to assist him in formulating policies and programs that will 
enhance the quality of life for soldiers and family members. I expect 
that the Secretary would also want to continue searching for 
efficiencies in and effectively manage the Army's real property, 
housing, and other facilities, environmental protection programs, and 
safety and occupational health programs for military and civilian 
personnel. Further, I expect he would ask that the Assistant Secretary 
to ensure timely completion of closures and realignments of 
installations under BRAC mandates. If confirmed, I will be responsible 
for these duties within the overall priorities of the Secretary of the 
Army and will pursue any other duties the Secretary assigns to me.

                             RELATIONSHIPS

    Question. In carrying out your duties if confirmed, how will you 
work with the following:
    The Secretary of the Army.
    Answer. I will work closely with the Secretary of the Army in 
furthering the goals and priorities of the President. Consistent with 
Army General Orders, I expect the Secretary to rely on me to oversee 
the management of the Army's installations real property, housing and 
other facilities, environmental programs, and safety and occupational 
health for both military and civilian personnel.
    Question. The Under Secretary of the Army.
    Answer. I will work closely with the Under Secretary of the Army in 
furthering the goals and priorities of the President and the Secretary 
of the Army.
    Question. The Chief of Staff of the Army.
    Answer. I will establish and maintain a close, professional 
relationship with the Chief of Staff as he performs his duties as the 
senior military leader of the Army.
    Question. The Deputy Under Secretary of Defense for Installations 
and Environment.
    Answer. I am generally aware of the responsibilities of this 
position and working through the Secretary of the Army, look forward to 
developing and maintaining a constructive relationship, with the Deputy 
Under Secretary of Defense for Installations and Environment, in areas 
of mutual interest.
    Question. The other Assistant Secretaries of the Army.
    Answer. As part of the ``One Army'' team, I would immediately on 
confirmation, establish and maintain a strong professional relationship 
with the other Assistant Secretaries of the Army and commit to working 
collaboratively and cooperatively in meeting the Army's goals and 
objectives.
    Question. The Assistant Secretaries of the Navy and the Air Force 
for Installations and Environment.
    Answer. I am generally aware of the responsibilities of these 
positions and look forward to developing and maintaining a constructive 
and personal relationship with both the Assistant Secretary of the Navy 
and Air Force for Installations and Environment, in areas of mutual 
interest, pursuing opportunities to enhance cooperation among the 
Services.
    Question. The General Counsel of the Army.
    Answer. My relationship with the General Counsel of the Army must 
involve close and regular consultation, given the legal complexities of 
the programs for which I will be responsible, if confirmed. I will work 
diligently to maintain a strong and productive relationship with the 
General Counsel and his or her staff.
    Question. The Judge Advocate General of the Army.
    Answer. If confirmed, I will develop and maintain a strong 
professional relationship with the Judge Advocate General of the Army 
in all areas of mutual interest.
    Question. The Army Chief of Engineers.
    Answer. The relationship between the Assistant Secretary of the 
Army (Installations & Environment) and the Chief of Engineers should be 
based on mutual respect, trust and cooperation. Our respective 
commitments and abilities to be responsive to the President's 
priorities and to the policy directives of Congress depend greatly on 
the success of this relationship.
    Question. The Assistant Chief of Staff of the Army for Installation 
Management.
    Answer. I believe strongly in a team approach to problem solving 
and issue development. If confirmed, I will work with the Assistant 
Chief of Staff of the Army for Installation Management in responding to 
the policies and goals of senior leadership of the Army and the 
Department.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that confront 
the Assistant Secretary of the Army (Installations and Environment)?
    Answer. The major challenges of the office are to provide for a 
decent quality of life for our soldiers and families, high quality and 
efficient installations and facilities, and effective training ranges 
for mission training all in a time when the Army is transforming and at 
war and while working with limited available funding and addressing 
environmental challenges.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will consult with staff of the Assistant 
Secretary as well as those in uniform to analyze possible improvements 
in efficiency of each of the operations under my cognizance and will 
investigate ways to finance base operations and improve family and 
single enlisted housing. Further, I will explore cooperative approaches 
to effectively balance environmental and mission requirements and 
address encroachment issues.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Army 
(Installations and Environment)?
    Answer. With the reality of limited resources, it will continue to 
be a major challenge for the Army to achieve an effective balance 
between the quality of life for Army soldiers and their families, force 
sustainment, and the necessary modernization to build an effective Army 
for the future. Moreover, it will be a continuing challenge for the 
Army to achieve the optimum balance among the competing tools available 
to meet these needs, such as private sector performance of functions, 
use of multiple emerging technologies, and the development of 
innovative government programs.
    Protection of human health and safety and the environment are also 
major challenges that impact the Army's ability to dispose of real 
property and address requirements for munitions and other hazardous 
material cleanups.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will work to obtain adequate funding for 
our installations, including Base Operations Support (BOS) and 
Sustainment, Restoration, and Modernization (SRM). I understand that 
the Secretary of Defense has established a goal of meeting the ``1+1'' 
standard for single soldier barracks by 2008. There is also a goal to 
have funding in place to improve military family housing by fiscal year 
2007. These are important examples of efforts that the Army is 
currently implementing to improve the quality of life for our soldiers 
and their families and will contribute significantly to the quality of 
our force. I will also study the Army transformation, BRAC execution 
actions, and overseas restationing to determine the impact of these 
initiatives on these goals.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Army (Installations and Environment)?
    Answer. I view this position as an advocate for quality 
installations and the working and living environment for our troops and 
their families. My first priority, if confirmed, will be to bring the 
quality of the Army's installations up to a more acceptable level. 
Another critical priority will be to ensure the efficient and speedy 
implementation of the actions mandated under BRAC.

                         MILITARY CONSTRUCTION

    Question. The Department of Defense is using the rate of 
recapitalization of the physical plant to justify the levels of annual 
investment required for facilities and infrastructure. The Department 
had established a goal for the military services to propose levels of 
funding for military construction and facility modernization in the 
fiscal year 2008 President's budget request that would equal a 
recapitalization rate of 67 years. To date, the services have been 
requesting, in the annual budgets, a level of investment that results 
in a recapitalization rate of 110-140 years.
    Do you believe the goal of a 67-year recapitalization rate of 
investment by fiscal year 2008 can be achieved for the Army?
    Answer. If confirmed, I will study the Army's plans and the 
challenges to achieving this goal. I understand that Army 
transformation initiatives, BRAC execution actions, and overseas 
restationing may impact attaining this goal by 2008.
    Question. If confirmed, what other goals and metrics, if any, could 
be established to improve facility recapitalization?
    Answer. The current methods appear to be satisfactory. If 
confirmed, I would continue to look for opportunities to improve this 
important area.

                     ARMY MODULARITY INFRASTRUCTURE

    Question. The Army used emergency authorities in 2004 to spend over 
$100 million to procure and install temporary facilities to support 
modularity units preparing for deployments to Southwest Asia, and will 
receive an additional $261 million in the fiscal year 2005 supplemental 
budget for the same purpose. This will result in hundreds of trailers 
each at 10 locations around the country to house and provide work areas 
for over 30,000 troops for an undetermined amount of time.
    In your opinion, how long should trailers be used to satisfy 
facility requirements?
    Answer. I have been informed that temporary facilities will be used 
for the duration of their design life, approximately 7-8 years. The 
Army plans to use this time to program and construct permanent 
facilities using Military Construction.
    Question. Do you believe the Army should develop a long-term plan 
to address basing requirements resulting from the modularity 
initiatives?
    Answer. I understand that the Army conducted an analysis of 
restationing overseas units as well as validating the final location 
for all modular units within BRAC 2005. I believe that further 
refinements, as needed, should be made as conditions develop.
    Question. If confirmed, what plans would you propose to address the 
Army's requirement to provide adequate living quarters and work 
facilities for personnel affected by Army modularity plans?
    Answer. If confirmed, I would seek resources to construct permanent 
living quarters and work facilities that are built to Army standard and 
fully meet Army modularity requirements.
    Question. In your view, how should the Army support the families of 
military members impacted by modularity moves forced in relation to 
housing, child care, and schools?
    Answer. One of my highest priorities, if confirmed, would be to 
work with the local communities to ensure that adequate resources are 
available off-post as well as on-post to support the needs of our Army 
families.

                   HOUSING AND BARRACKS PRIVATIZATION

    Question. In recent years, the Department of Defense and Congress 
have taken significant steps to improve family housing. However, it 
will take many more years and a significant amount of funding to 
adequately meet the Department's housing needs. The housing 
privatization program was created as an alternative way to speed the 
improvement of military family housing and relieve base commanders of 
the burden of managing their family housing. If confirmed for the 
position of Assistant Secretary of the Army (Installations and 
Environment) you would have a key role in any decisions regarding 
military family housing.
    What are your views regarding the privatization of family housing 
and barracks?
    Answer. I am impressed by the significant improvements to family 
housing that have been accomplished as a result of housing 
privatization. It appears to me that the Army has been able to 
successfully partner with industry to leverage private sector resources 
to improve the quality of life for soldiers and their families. By 
partnering with developers, I believe the Army has been able to 
capitalize on private sector expertise and creativity. If confirmed, I 
look forward to continuing to work with the private sector to obtain 
quality housing as quickly and efficiently as possible.
    Question. What is your view of the structure and general goals of 
the Army's current housing privatization program? Do you believe the 
program should be modified in any way? If so, how?
    Answer. It is important, in my view, for the Army to retain a level 
of oversight necessary to protect its capital investments and allow 
soldiers to reside in housing comparable to that of the citizens off 
post they have sworn to protect. It is my understanding that changes to 
enhance various components of the program are being studied. If 
confirmed, I will work with those exploring potential modifications and 
pursue recommended changes.
    Question. If confirmed, how would you recommend that the Army use 
privatization as a means to address the Army's barracks requirements?
    Answer. To date, I understand that the Army has focused its 
attention on the Family Housing Privatization program. I believe that 
the lessons learned from this initiative can serve as a template for 
the Army in assessing the desirability and feasibility of barracks 
privatization.
    Question. The Army has contracted for a major housing privatization 
effort at Fort Hood, Texas, using a request for qualifications (RFQ) 
process instead of the request for proposals (RFP) process.
    What are your views of the relative merits of these contracting 
approaches?
    Answer. I understand that the Army believes that the RFQ process 
offers several advantages, such as flexibility in selecting partners 
and in developing the scope, funding, and management of the project. If 
confirmed, I will study this matter and assess the relative advantages 
and disadvantages with these procurement processes.
    Question. The Department of Defense has established fiscal year 
2007 as a goal to improve the military family housing in the United 
States.
    Do you believe the Department of the Army will achieve this goal?
    Answer. Yes. I understand the Army is doing exceptionally well in 
the area of family housing improvement and is committed to meeting the 
DOD goal. If confirmed, I expect the Army to include this as a high 
priority area for soldiers and families throughout BRAC execution and 
implementation of transformation initiatives. If confirmed I will work 
to maintain the commitment to achieve the 2007 goal in the U.S. through 
privatization and conventional Military Construction, as well as 
divestiture of uneconomical or excess units. I will also study the Army 
transformation, BRAC execution actions, and overseas restationing to 
determine the impact of these initiatives on the goals.

                         OVERSEAS INSTALLATIONS

    Question. The Army maintains a global basing infrastructure to 
support a substantial number of forward deployed troops. The Department 
of Defense's study of overseas basing will result in substantial 
changes in the Army's current overseas presence.
    If confirmed, what would your role be in the development and 
implementation of facility investment programs for the consolidation of 
army units at Camp Humphreys, Republic of Korea?
    Answer. It is my understanding that Camp Humphreys plays a 
significant role in the movement of forces from the Korean 
Demilitarized Zone. This is reflected in the Land Partnership Plan and 
the Yongsan Relocation Agreement. If confirmed, I will work to see that 
facility investment programs and projects at Camp Humphreys are 
consistent with combatant commanders' requirements, the Department of 
Defense's stationing plan, and with the Land Partnership Plan and the 
Yongsan Relocation Agreement.
    Question. If confirmed, what would your role be in the 
establishment of installation development master plans for forward 
sites in the CENTCOM and EUCOM areas of responsibility?
    Answer. If confirmed, I will fully support the regional combatant 
commanders in their development and updating of master plans for 
changing infrastructure requirements at overseas facilities. Most 
importantly, I will endeavor to resource their requirements where the 
Army has responsibility to do so.
    Question. If confirmed, how would you ensure a prudent investment 
in facilities overseas that will have an enduring presence?
    Answer. If confirmed, I will advocate that our investments overseas 
support the Integrated Global Presence and Basing Strategy and our 
combatant commanders' requirements. I will also focus our resources on 
the enduring locations.

                     BASE CLOSURES AND REALIGNMENTS

    Question. The 2005 Defense Base Realignment and Closure (BRAC) 
process is currently underway.
    What do you see as the roles and responsibilities of the Department 
of the Army in implementing BRAC decisions?
    Answer. I believe the Army will execute the Commission's final BRAC 
decisions within the statutorily mandated 6-year implementation period. 
For those Army installations affected by joint recommendations, the 
Army should closely coordinate its actions with other affected military 
departments. During implementation, the Army should work closely with 
affected communities to smooth the transition from military to civilian 
uses at affected installations.
    Question. What would your role be, if confirmed, in carrying out 
these responsibilities?
    Answer. If confirmed, I would act under the direction of the 
Secretary of the Army, and be responsible for Army BRAC 2005 policy, 
program oversight, direction, and execution.
    Question. If confirmed, what priorities would you set for the 
process of disposal of any property at Army bases affected by BRAC 
decisions?
    Answer. If confirmed, I would work to make property available for 
redevelopment as expeditiously as possible. I would also work closely 
with affected communities through open communication, partnering, 
consultation, and cooperation. I would seek to rapidly implement BRAC 
2005 decisions to enable military units to relocate with minimal 
disruption in warfighting capability and readiness and to maintain the 
quality of life for effected soldiers and families.
    Question. The DOD installation closure process resulting from BRAC 
decisions has historically included close cooperation with the affected 
local community in order to allow these communities an active role in 
the reuse of property.
    In your view, what are the roles and responsibilities of the 
Department of the Army within the 2005 BRAC property disposal process 
to work with local communities?
    Answer. I understand the Army is committed to effectively 
communicating and working cooperatively with local redevelopment 
authorities during BRAC implementation. The BRAC law envisions the 
formation of a local redevelopment authority as the single community 
entity responsible for interfacing with the military departments and 
developing re-use plans for affected BRAC property. If confirmed, I 
would work with these entities during the re-use planning and disposal 
decisionmaking process in order to expedite BRAC property conveyances 
and put property back into productive re-use as quickly as possible.
    Question. If confirmed, what goals would you establish to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. The Office of the Secretary of Defense, Office of Economic 
Adjustment is responsible for working with local communities to provide 
re-use planning and economic adjustment assistance. If confirmed, I 
would work closely with the Office of Economic Adjustment and local 
communities to help mitigate the impacts of base closure and 
realignment decisions and once re-use plans are developed, 
expeditiously transferring property in a manner consistent with the 
BRAC law and DOD guidance.

            INSTALLATION MANAGEMENT AND FACILITY MAINTENANCE

    Question. The military departments have consistently struggled to 
maintain their base infrastructure. The backlog of real property 
maintenance is made worse by the Services diverting facility 
sustainment, restoration, and modernization funds to pay for base 
operating support. Also, the military is far behind industry standards 
for recapitalizing and modernizing its facilities.
    Are there any new approaches to this issue that you believe could 
help the Army move toward a solution of this perennial problem?
    Answer. I do not believe appropriated dollars alone will satisfy 
all Army installation management and facility maintenance requirements. 
If confirmed, I would aggressive pursue efforts to leverage private 
sector funding and host nation support. Some examples include the 
privatization of family housing, utility systems privatization, 
enhanced use leasing, and real property exchanges for the Reserve 
components. In addition, I would look for opportunities in implementing 
BRAC, transformation initiatives, and the Integrated Global Presence 
and Basing Strategy to promote efficiencies and improve the Army's 
installation infrastructure.
    Question. How will the recently established Installation Management 
Agency (IMA) help ensure that the funds provided by Congress for 
facility sustainment are actually applied to the facility requirements 
identified by Army installations?
    Answer. I understand that IMA helps control the expenditure of 
installation resources so that base support funds are spent for their 
intended purpose. This is a focused effort versus the Army's past 
practice of having all major commands allocate funds as they decided.
    Question. How will centralizing the management of installations 
under one agency affect the ability of operational commanders at the 
installation level to direct resources to those requirements that 
impact their mission?
    Answer. Centralized management of installations has standardized 
procedures for operational commanders at installations to ensure 
resources for garrison services are directed to garrison requirements 
impacting their missions. Establishment of common levels of support 
enables the Army to clearly define funding requirements in order to 
support quality of life and readiness. Garrison commanders remain 
responsive to mission requirements of operational commanders.

                           ENERGY EFFICIENCY

    Question. Executive Order 13123 lays out a number of specific steps 
that agencies should take to promote energy conservation. These include 
the use of energy savings performance contracts, utility energy 
efficiency contracts, and other contracts designed to achieve energy 
conservation; conducting energy efficiency audits for approximately 10 
percent of an agency's facilities each year; and exploring 
opportunities for energy efficiency in industrial facilities for steam 
systems, boiler operation, air compressor systems, industrial 
processes, and fuel switching.
    Do you support the use of these energy conservation approaches?
    Answer. Yes. I fully support these approaches.
    Question. Are there other steps that you would take, if confirmed, 
to promote energy conservation by the Department of the Army?
    Answer. If confirmed, I will strongly encourage energy conservation 
within the Army and, where appropriate, adopt industry ``best 
practices'' and innovative ideas from outside the Army.
    Question. Do you believe that the energy conservation goals 
established in the executive order are achievable?
    Answer. Yes, however, I have not had the opportunity to fully 
review all of the Army's efforts toward realizing the goals of the 
executive order. If confirmed, I will closely examine this important 
area.

                 ENCROACHMENT ON MILITARY INSTALLATIONS

    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment'' issues. These include population growth near military 
installations, environmental constraints on military training ranges, 
airspace restrictions to accommodate civilian airlines, and the 
conflicts with civilian users over the use of radio frequency spectrum.
    In your opinion, how serious are these problems for the Department 
of the Army?
    Answer. These problems are serious and have the potential to 
severely impact training requirements for the Army.
    Question. If confirmed, what role do you expect to play in 
addressing these challenges?
    Answer. If confirmed, I would attempt to work to minimize 
restrictions on training ranges while ensuring the Army's environmental 
stewardship. I would work with Congress and various stakeholders in 
adopting measures to ensure the readiness of Army forces and their 
survivability and success on the battlefield. If confirmed, I would see 
that the Army works proactively with local communities as they develop 
land use plans to ensure those plans consider the Army's operational 
requirements and avoid adverse impacts on operational ranges now and in 
the future. I also envision working closely with local, State, and 
Federal environmental regulators and with natural and cultural resource 
agencies to minimize encroachment challenges. Further, I would expect 
the Army to continue its compatible use program authorized by Congress.

                        ENVIRONMENTAL CHALLENGES

    Question. In your view, what are the most critical environmental 
challenges facing the Army, and what is the best way for the Army to 
address these challenges?
    Answer. I believe the most critical environmental challenge for the 
Army is to ensure that natural infrastructure is available in the 
quantity, quality, and configuration to meet current and future 
training, testing, and operational requirements. The Army must sustain 
its installations, and most importantly, its operational ranges so that 
it can provide soldiers the opportunity to conduct live fire operations 
and training in varying climates and diverse environments to ensure 
soldier readiness. To meet this challenge, I believe that the Army must 
manage range activities to maintain the resiliency and buffering needed 
to protect the environment and surrounding communities from impacts of 
testing and training. The Army should in my opinion apply an ecosystem-
based approach to manage natural resources and collaborate with 
stakeholders to protect ecosystems. If confirmed, I would work with 
local communities and foster open relationships to increase their 
understanding of our training requirements.
    Question. If you are confirmed for this position, how would you 
balance the need to maintain military readiness and the goal of 
protecting the environment?
    Answer. The Army should, in my view, sustain its operational 
ranges, now and in the future, in a manner that ensures their 
availability for testing, training, and soldier readiness. I believe 
the Army recognizes that protecting the environment is integral to 
providing tough, realistic, battle-focused training for our soldiers. 
If confirmed, I would seek to fully integrate the concept of 
sustainability, which is the foundation of one of the most innovative 
environmental strategies in the Federal Government.
    Question. The Army proposed an environmental compliance budget for 
fiscal year 2006 that is $36 million, or 6 percent, below the fiscal 
year 2005 appropriated level.
    How is the Army prioritizing funding for environmental compliance 
expenditures necessary to comply with requirements of law and 
regulation?
    Answer. I understand that the Army has programmed sufficient funds 
in fiscal year 2006 for environmental compliance to meet the critical 
requirements and to comply with legal mandates. If confirmed, I would 
closely review the sufficiency of these funding levels.
    Question. The Army has estimated its potential liability for the 
cleanup of unexploded ordnance on closed, transferred, and transferring 
ranges to be in the range of $10 to $77 billion. The Department of 
Defense is now in the process of conducting a comprehensive inventory 
of unexploded ordnance cleanup requirements and costs.
    Question. What steps do you plan to take, if confirmed, to address 
the Army's unexploded ordnance problems?
    Answer. If confirmed, I would see that the Army continues to do 
what is right for the safety of its soldiers and the public and the 
environment. I would work cooperatively with Congress and others to 
identify property to be transferred from Army control for which end 
uses should be restricted to those consistent with the explosives 
hazards present. I would also work closely with environmental 
regulators, safety officials, and with local reuse authorities to 
determine the most appropriate end use of property and to design 
response actions that will allow a property's safe reuse. Finally, I 
would take a proactive role in developing policy and guidance to govern 
cleanup of former ranges and in working with other concerned agencies 
and organizations to address public concerns about unexploded ordnance.

                 REPORTS AND NOTIFICATIONS TO CONGRESS

    Question. A responsibility of the Department of the Army is to 
satisfy statutory report and notification requirements to Congress. 
Many notifications require a wait period of a specific number of days 
after notification is received by Congress before the Department can 
carry out the action. The current Army policy is to answer all 
questions generated by Congress regarding the notification before 
proceeding with the action.
    If confirmed, would you adhere to this policy?
    Answer. Yes.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Installations and Environment?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

             INSTALLATION DEFENSE, PROTECTION AND SECURITY

    1. Senator Warner. Dr. Sega, Mr. Eastin, and Mr. Anderson, in 2004, 
the Department of Defense (DOD) initiated the defense-wide Guardian 
Installations Protection Program (IPP). Upon completion, Guardian IPP 
will provide warning and protection for 200 critical DOD installations 
and facilities in the United States and abroad from potential chemical, 
biological, radiological, and nuclear (CBRN) attacks. The committee has 
fully supported this important initiative and, in fact, has authorized 
an additional $10.2 million within the program to provide greater 
protection of our military's mail system. Do you believe that our 
military installations are vulnerable to potential CBRN attacks?
    Mr. Eastin. The very nature of these types of weapons and the 
difficulty in detecting their manufacture and transport allows the 
terrorist threat great latitude in determining when and where they will 
be employed. The current program initiatives help to significantly 
reduce the vulnerability of critical military installations to a CBRN 
attack but do not eliminate the threat. The capabilities provided by 
the IPP help to ensure the continuation of essential military 
operations and the protection of essential operational personnel in the 
event of such an attack. The program also provides capabilities to 
quickly restore essential operations if they are impacted. The Army 
supports the continuing DOD efforts to refine and improve operational 
capabilities as well as improve joint operational concepts.

    2. Senator Warner. Dr. Sega, Mr. Eastin, and Mr. Anderson, given 
the significant capital our government has invested at these high-value 
military installations, do you believe it is necessary to protect these 
assets from possible CBRN attacks?
    Mr. Eastin. Yes. Our 62 installations represent the most important 
and critical operational assets in the Army inventory. These 
installations are essential for the timely and effective execution and 
support of both Army and Joint military operations on a global scale. 
The effects of a successful CBRN attack would have an immediate 
detrimental impact on current operations and could result in 
significant log term degradation in our ability to pursue future 
military operations.

    3. Senator Warner. Dr. Sega, Mr. Eastin, and Mr. Anderson, as these 
200 installations and facilities are under the jurisdiction of the DOD, 
how do you intend to ensure the program is fully and effectively 
implemented within your respective Service?
    Mr. Eastin. The Army is an active participant in the execution of 
both the IPP Program and the program to protect the military's mail 
system. The Army G-8 and G-3 work closely with the J-8 and the Joint 
Requirements Office to develop and establish operational requirements 
and priorities. We also work closely with the Joint Program Executive 
Office for Chemical and Biological Defense and the Joint Project 
Manager Guardian on the execution of these programs. Representatives 
from the G-8, G-3, and the IMA participate on the JPMG OIPT for 
example. The Army staff helped to develop and vet the actual Family of 
System capabilities that will be provided to each Army installation.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                  MILITARY INFRASTRUCTURE MAINTENANCE

    4. Senator Inhofe. Mr. Eastin, we have neglected the Army's 
infrastructure for many years. Traditionally the Army and other 
Services underfunded the Base Operations pot of money in the budget and 
funded the Sustainment, Restoration and Modernization (SRM) account at 
about 90 percent. However, the Base Operations account includes costs 
like paying emergency responders, the electric bill, the water bill, 
etc. So, over the course of the year, money migrated from SRM to Base 
Operations and all those projects required to maintain the 
infrastructure were postponed. We now have millions and millions of 
dollars worth of postponed SRM projects on our bases. In some cases 
this neglect has forced multi-million dollar military construction 
(MILCON) projects to be erected long before their time. In other cases, 
we simply force our troops to live and work in very substandard 
conditions. I remember I visited Fort Bragg, North Carolina, during the 
Clinton administration and stood inside a building where rain was 
literally pouring through the roof and soldiers were trying to cover 
equipment with tarps to keep it dry. You will be responsible for 
reversing this deplorable trend in the condition of our infrastructure 
and changing the failed budget process that caused it. I thought the 
new Secretary of the Army took a bold step this summer to fix this 
problem. He announced a 90/90 policy where both SRM and Base Operations 
would be funded at 90 percent this year, thus eliminating the need to 
rob SRM funds. But, as of Friday, bases have not seen the additional 
money in SRM as promised and we are running out of time in this fiscal 
year for base engineers to execute much needed SRM projects. What are 
your thoughts on this subject?
    Mr. Eastin. The Secretary's announcement of the Army's 90/90 policy 
is a good news story for our soldiers and their families--they deserve 
nothing less. However, unforeseen expenses of the global war on terror 
are having an impact on our ability to reach the 90/90 goal as quickly 
as we desire. Despite these challenges, we will fund the global war on 
terror, modularity, and our installations through the end of the fiscal 
year and, at the same time, remain fully committed to the 90/90 goal.
    We are working hard to manage available funds and will continue to 
monitor and administer resources weekly until the end of the fiscal 
year. We will give commanders at every level the opportunity to 
actively participate in this process. Our garrison commanders and their 
staffs have accomplished much this year--supporting the global war on 
terror, improving single soldier barracks, stationing the modular 
force, and keeping our installations ready to support any and every 
call. They are making good things happen every day for our soldiers and 
their families.
    I appreciate your understanding while we take these measures to 
continue to provide our ``front line'' soldiers fighting the global war 
on terror in Iraq and Afghanistan the best equipment and resources to 
accomplish their missions as effectively as possible.

    5. Senator Inhofe. Mr. Eastin, can we count on you to fix this 
downward spiral in our military infrastructure?
    Mr. Eastin. I fully support the Army's 90/90 goal, and will make 
every effort to achieve this in fiscal year 2006. The Army intends to 
begin programming for a minimum of 90 percent of requirements in Base 
Operations beginning with the fiscal year 2007 budget request. This new 
policy would eliminate the need to migrate funding from sustainment and 
fix the downward spiral in our military infrastructure.

                        UTILITIES PRIVATIZATION

    6. Senator Inhofe. Mr. Eastin and Mr. Anderson, as part of a very 
important effort to save money on our military installations, the 
Department of Defense initiated two very important programs. One was 
the privatization of military housing under subchapter IV of chapter 
169 of title 10, United States Code. This program is projected to save 
the government millions of dollars and put our fighting men and women 
in modern, well-maintained housing. Thus far the results are amazing. 
The other program under section 2688 of title 10 is the privatization 
of utilities on bases. Likewise this program is projected to save 
millions of dollars over time. However, many bases cannot move forward 
on the utilities privatization because the Federal power marketing 
administrations have an inconsistent approach regarding the effects of 
such privatization on Federal power allocations at military 
installations. For example, Fort Sill, Oklahoma wanted to move to 
privatization, but according to policies at Southwestern Power 
Administration Fort Sill would lose its Federal power allocation. This 
makes the privatization of the utilities infrastructure uneconomical. 
Therefore the taxpayer cannot save money on the military installation 
because of this policy. Last year this committee directed a study that 
was just completed by DOD. It lays out all these issues. What can we do 
about this, short of passing a law?
    Mr. Eastin. Without clarifying legislation, some of the Federal 
power marketing administrations will likely continue their longstanding 
policies and legal interpretations that require preference customers 
retain ownership of their electrical distribution systems. At Fort 
Sill, the Army evaluated the economic benefits offered by two Federal 
programs--receiving a low-cost Federal power allocation from 
Southwestern Power Administration (SWPA) and achieving cost avoidances 
and improved utility services through utility privatization. The Army 
should have been able to obtain the benefits of privatization and 
retain the low cost power from SWPA. Because there is an inconsistent 
approach regarding the effects of utility privatization on Federal 
power allocations at military installations, SWPA determined that Fort 
Sill could not retain its Federal power allocation and privatize its 
electric system. The economic cost of losing the Federal power 
allocation was too great to be overcome by the potential benefits of 
privatization. The Army's determination not to privatize was the best 
economic decision for the Federal Government.

    7. Senator Inhofe. Mr. Eastin and Mr. Anderson, can you assure me 
that you will look into this and help us fix this problem?
    Mr. Eastin. The Army will continue to work with the committee to 
fix this problem.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                            BRAC AND MILCON

    8. Senator Chambliss. Mr. Eastin, under the recommendations to the 
Base Realignment and Closure (BRAC) Commission, both Forts McPherson 
and Gillem would be closed. The rationale for closing these bases is 
that the Army would be saving money, yet when I looked into the details 
of that decision, I saw that the military construction costs for 
building replacement headquarters for U.S. Forces Command and 3rd Army 
at the Pope-Bragg complex were greatly underestimated, a fact that was 
confirmed during a BRAC Commission base visit. My concern is that if 
the BRAC Commission upholds the Department's recommendation, then we 
will be facing a large shortfall in military construction funding. As a 
result, the Army's regular MILCON budget will end up making up the 
difference between the BRAC MILCON estimates and the real costs. This 
diversion of funds could have an impact on the MILCON plans for bases 
like Fort Gordon, which except for its U.S. Army Intelligence and 
Security Command tenant facilities, has seen very little in MILCON 
funding in the past (except for one $4.3 million congressional add in 
fiscal year 2004) and has not been given any priority in the MILCON 
Future Years Defense Plan (no other projects until fiscal year 2009). 
What will you do to balance the requirements of BRAC-related 
construction with already validated requirements for much needed 
military construction projects at Army bases?
    Mr. Eastin. The Army BRAC requirements are submitted as part of the 
DOD BRAC appropriation and as such do not directly compete with 
Military Construction, Army for funding in the budget process. During 
the program years, the Army will review all its military construction 
requirements for all installations and prioritize MILCON funding as 
appropriate. MILCON funding for closing installations will be 
redirected to best meet the Army's construction requirements.

                     PRIVATIZATION OF ARMY LODGING

    9. Senator Chambliss. Mr. Eastin, I understand that the 
Privatization of Army Lodging (PAL) program does for temporary lodging 
what the Residential Community Initiative does for family housing. 
Specifically, this program will help the Army overcome an $875 million 
lodging revitalization backlog while the developer would assume the 
business risks, pay for construction, and run the facility. One part of 
this backlog is at Fort Benning where a lodging study conducted by the 
Army in August 2003 concluded that Fort Benning would need an 844 room 
facility to meet its lodging needs at an estimated cost of $63 million. 
Now with Fort Benning looking at growing to accommodate the Armor 
Center, the transient population will only grow. Can you discuss the 
current status of the program, what actions the Army is taking to 
update its lodging studies, and what is the timeline for construction?
    Mr. Eastin.
      (a) Current status of the PAL program: After several months of 
discussions a memorandum was recently released (2 August 2005) by the 
Office of Management and Budget (OMB) that included guidance on 
implementation of the PAL program. As a result of this guidance the 
Army has revised its implementation strategy. The new strategy has been 
briefed to and is strongly supported by the Army senior leadership. The 
PAL Office is now preparing to brief OSD and OMB, with hopes of 
releasing a Request for Qualifications on the project before the end of 
the calendar year.
      (b) Actions to update lodging studies: The studies referred to in 
the question above were commissioned by the Army based on an internal 
Army plan to revitalize lodging. While these studies provide a good 
baseline of information, they are not representative of the perspective 
that would be used by the hotel industry in evaluating requirements 
under this program. Consequently, the PAL office is in the process of 
conducting due diligence assessments at each of the lodging sites 
throughout the continental United States, Alaska, and Hawaii. These 
assessments are taking into consideration impacts from BRAC as well as 
from the various transformation initiatives that are currently under 
development. The analysis derived from the PAL Office's due diligence 
assessments will provide a current model of installation lodging 
requirements, projections for future requirements, and estimated as to 
how these requirements would most likely be addressed by the hotel 
industry.
      (c) The PAL Office must receive approval to proceed with its new 
strategy from OSD and OMB, and then must wait until the 30-day 
Congressional Notification of Intent to Solicit is satisfied. Once 
those conditions are met, it is estimated that construction at the 
first several installations in the program will begin in approximately 
2 years (fiscal year 2008).
                                 ______
                                 
    [The nomination reference of Keith E. Eastin follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 29, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Keith E. Eastin, of Texas, to be an Assistant Secretary of the 
Army, vice Mario P. Fiori, resigned.
                                 ______
                                 
    [The biographical sketch of Keith E. Eastin, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of Keith E. Eastin

    Mr. Eastin is the Senior Consultant to the Iraq Ministry of 
Environment and has served as such since June 2004. He has been engaged 
in the practice of environmental law and consulting for the past 30 
years and has managed environmental projects and operations as a 
corporate officer and as a high-level Federal Governmental official and 
director of significant environmental practices of two Big-Four 
professional services firms. He was a former Principal Deputy Assistant 
Secretary of the Navy, Deputy Under Secretary of the Interior and more 
recently, a Director of Price Waterhouse Coopers where he led a 
significant environmental practice group. Selected experience follows:
    Mr. Eastin was a Director of the Environmental Dispute Analysis & 
Advisory Services practice for PricewaterhouseCoopers LLP in Washington 
and Houston. For the firm, he has advised clients on organizational 
matters as well as on environmental disputes and controversies 
involving governmental agencies and enforcement bodies. He was Project 
Director for the Moab Mill Reclamation Site in Utah, a Nuclear 
Regulatory Commission-regulated operation and directed the cleanup, 
capping and groundwater studies associated with this $20 million 
construction project.
    A nationally recognized expert in the field of Natural Resource 
Damages and Valuation, he has written and spoken before numerous groups 
on the subject. Mr. Eastin is formerly Deputy Under Secretary of the 
U.S. Department of the Interior and its chief environmental counsel. At 
the Interior he organized and directed the CERCLA 301 team that 
conceived of and drafted the Regulations providing for the Assessment 
of Damages to Natural Resources under Superfund and other acts.
    In a consulting capacity with PricewaterhouseCoopers and earlier as 
a practice director with Deloitte & Touche LLP, his work includes 
activities at significant hazardous waste and Superfund sites 
nationwide with potential natural resource damages of more than 
$100,000,000. He served in a key consulting role in the landmark state/
industry cooperative natural resource damage assessment for the PCB 
contamination of a major Midwest river. He has valued the entire non-
income producing natural resource inventory of a northwest State in 
connection with the development of its Asset Stewardship Plan. He has 
advised with respect to the petroleum contamination of sensitive 
fishing grounds off an eastern State and, on behalf of the State of 
Tennessee, assessed damages from activities associated with the 
Department of Energy's activities at Oak Ridge National Laboratory. He 
has assessed damages for the contamination of a major aquifer by a 2.5 
million-gallon petroleum spill in Nevada, contamination resulting from 
a break in a primary petroleum pipeline in the Midwest and the dioxin 
contamination of Native American natural resources associated with an 
Eastern River. Also, he has worked with a large western State to create 
a GIS-compatible database of its more than 1,000 hazardous waste sites 
for purposes of identifying the State's natural resource damage problem 
areas and structuring a program for their settlement.
    He served as Principal Deputy Assistant Secretary of the Navy 
(Shipbuilding and Logistics) and supervised real property and 
environmental matters and military construction for more than 300 
installations worldwide with a value of more than $120 billion. The 
nature of the Navy's operations places it in constant conflict with 
some of the most sensitive wetlands and marine areas of the country. In 
this context, he negotiated with the Corps of Engineers in its Section 
404 permitting process, advised on other Clean Water Act, RCRA, and 
Superfund problems in connection with the handling of toxics created in 
its industrial processes, and was the deciding official in the cleanup 
of a major nuclear Superfund site. Among his governmental experience, 
he personally negotiated settlements in the cleanup of USG-owned 
Superfund matters and has dealt with hazardous waste sites from time of 
their discovery to representation of the government in negotiation of 
remediation and RI/FS with the EPA and the State agencies.
    Other Experience. As a practicing attorney for more than 35 years, 
Mr. Eastin is a former partner at Hopkins & Sutter, a 300 person, 
general practice national law firm where he was manager of the firm's 
environmental group. He was general counsel to two public companies, 
one a large petroleum retailer, and both with significant 
environmentally related activities. He continues to work with the 
American Arbitration Association, where he has acted as mediator or 
arbitrator in more than 25 environmental and construction disputes.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Keith E. 
Eastin in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Keith E. Eastin.

    2. Position to which nominated:
    Assistant Secretary of the Army (Installations and Environment).

    3. Date of nomination:
    June 29, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 16, 1940; Lorain, Ohio.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    I am not married.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Chicago Law School - JD - 1967.
    University of Cincinnati: Graduate School of Business - MBA - 1964.
    University of Cincinnati: College of Arts and Sciences - AB - 1963.
    Brookside High School, Lorain, OH - Diploma - 1958.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    U.S. Department of State (and prior, U.S. Department of Defense for 
3 days), Baghdad, Iraq. Senior Consultant to Ministry of Environment of 
Iraq. [June 2004 thru July 2005].
    U.S. Department of the Interior, Washington, DC, Special Counsel. 
[2003-June 2004].
    Cigarettes Cheaper! [Inc.] and related entities, Benicia, CA, Vice 
President, General Counsel [2000-June 2004].
    PricewaterhouseCoopers, Houston, TX, Director. [1998-2000].
    Deloitte & Touche LLP, Washington, DC, Director, Environmental 
Practice Group. [1993-1998].

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None other than as set forth in following question.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Board of Directors: Statue of Liberty-Ellis Island Foundation, New 
York, NY.
    Advisory Board: Theatre Under the Stars, Inc. Houston, Texas.
    Member: Sovereign Military Order of the Temple of Jerusalem 
(Knights Templar).
    Member: Metropolitan Club of Washington.
    Member: Capitol Hill Club of Washington.
    Member of the Bar Associations of the States of Texas, California, 
Illinois, and the District of Columbia.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    I was a Republican Party Precinct Chairman, and Member of the 
Harris County (Texas) Republican Party Executive Committee from 
approximately 1978 through 1983.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    To the best of my recollection and estimates:

South Dakota Republican Party..............................       $  100
Republican National Committee..............................        1,500
Republican Party of Texas..................................          450
Republican Party of Houston................................           20
Texas for Kenn George......................................          500
Dole 2000 Committee........................................          100
Whitfield for Congress.....................................        1,200
Parke for Congress.........................................          250
Minge for Congress.........................................          400
Bush Chaney 04.............................................          500
RNC Presidential Trust.....................................          250
Friends of Giuliani........................................          250
Ashcroft 2000..............................................          500
Lazio 2000.................................................          250
Bush Committee.............................................        1,000
Heartland Values PAC.......................................          100
 


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Recipient, United States Marine Corps Commendation for outstanding 
efforts in advocating Marine Corps programs before Congress and outside 
community. [1988]
    Recipient, United States Navy Medal for Distinguished Public 
Service. Highest civilian honor awarded by Navy. [1989]
    Member, Beta Gamma Sigma, highest honorary society for Business 
Schools.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    The following articles have been published. No books or other items 
have been published:

    Eastin, Keith 1997, `Putting System Security First', Legal Times of 
Washington, 30-31, July 21, 1997.
    Wunderlich, R., Eastin, K. and Frishberg, D. 1995, `Natural 
Resource Damage Assessment'', Litigation Services Notes, Trends in 
Financial and Economic Analysis, November 1995, Deloitte & Touche LLP.
    Eastin, Keith, `Natural Resource Damage Assessments: Ten Years in 
the Making', Environmental Management Review, September 1991, pp 106-
113.
    Eastin, Keith, `Foreign Investor Facing Hurdles', Defense News, 
April 2, 1990.
    Eastin, Keith, `Bad Law Kills a Good Deal', The Asian Wall Street 
Journal, March 26, 1990.
    Eastin, Keith E., `Acquisitions of U.S. Defense Contractors by 
Foreign Entities', Foreign Investment in the U.S., News and Analysis, 
Vol. 9, 1990, Bureau of National Affairs, Inc., Washington, DC.
    The Nevada Mining Association, Eastin, Keith and Henderson, 
Michael, `Natural Resource Damages and Nevada Industry', Proceedings of 
1996 Reno Conference, Reno, Nevada, March 30, 1995. Revised to October 
1996.
    Eastin, Keith, `Lost Human Uses of the Environment', Proceedings of 
the Conference on Restoration of Lost Human Uses of the Environment, 
May 8, 1997, American Bar Assn., Section of Natural Resources, Energy & 
Environment, et. al.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    No such speeches made.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Keith E. Eastin.
    This 2nd day of July 2005.

    [The nomination of Keith E. Eastin was reported to the 
Senate by Chairman Warner on July 28, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 29, 2005.]
                              ----------                              

    [Prepared questions submitted to William C. Anderson by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. Almost two decades have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the implementation of these reforms. 
Since its inception, the Goldwater-Nichols Act has clearly improved the 
organization and capabilities within the Department of Defense.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been fully implemented.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The Act has improved both the organization and 
interoperability of the services through greatly improved integration 
of assets.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Do you believe that any changes to this act may be 
appropriate? If so, why?
    Answer. Currently I am not aware of any specific proposals being 
considered. If confirmed, I would work with the Secretary of the Air 
Force on any proposed changes that pertain to installations, 
environmental or safety concerns.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force (Installations and 
Environment)?
    Answer. There are numerous duties and functions in the Assistant 
Secretary of the Air Force for Installations and Environment portfolio. 
They cross a large spectrum of the Air Force mission. Central elements 
include providing quality housing to Air Force members and their 
families, a critical part of which is privatization. Privatization also 
extends to strategic outsourcing and utilities infrastructure. 
Environment, safety, and occupational health, as well as airspace and 
range issues, are also functions I will assume if confirmed. Currently 
base closure and realignment are important matters. These fall within 
the scope of assistant secretary for installations and environment. If 
confirmed, I will also exercise oversight of the Air Force logistics 
system.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Over the last 9 years, I have served as a business general 
manager responsible for environmental affairs, safety, occupational 
health, and facilities for one of the world's largest corporations. 
During that time, I built a team that has developed programs and 
processes that have driven continuous improvement in hundreds of 
operating locations across the world. The team established actionable 
operating performance metrics that have allowed our leaders to 
regularly pulse progress, focus resources and drive performance that 
overall significantly exceeds the average performance in the industry. 
Dozens of those facilities have been awarded recognition by 
governmental or third party bodies for excellence in environmental, 
health and safety performance.
    For more than 20 years, I have been involved in virtually all areas 
of real estate and facilities management issues including transaction 
structuring, due diligence, construction, facility maintenance and 
refurbishment, demolition and brownfields redevelopment. These 
activities have been conducted around the world, including negotiating 
the privatization of previously State-owned enterprises in Eastern 
Europe. These activities have included working with local communities 
in developing reuse options for obsolete real property assets. These 
efforts resulted in maximizing returns for the seller, while at the 
same time ensuring reuse conforms with the overall development plans of 
the local communities.
    Over the last dozen years, I've been a senior staff leader managing 
the supply chain function, utilizing productivity and quality tools 
such as ``Six Sigma'', ``5S'', ``Change Acceleration Process'' and 
``Lean'' to improve team performance and deliver expected results to 
the customer. A component of these activities has included development 
of performance metrics tied to external (customer/stakeholder) 
requirements, rather than internal requirements, to ensure that 
customer expectations are exceeded.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Air Force (Installations and Environment)?
    Answer. I believe that upon the assumption of any new leadership 
assignment, significant work must be done to come up to speed on the 
team that will be managed; including current issues and programs, and 
relationships with other groups that will be necessary to successfully 
lead the function. If confirmed, I would develop a 90-day plan which 
includes, but is not limited to, site visits, briefing sessions (with 
team members, customers, stakeholders and other constituencies) and a 
leadership assimilation process focused on closing any knowledge gaps. 
This effort would take two distinct directions.

          (1) Team, organizational accountability and relationships 
        with other entities: Develop a thorough understanding of the 
        capabilities of the Air Force Installations and Environment 
        team, the current status of programs and the metrics that 
        measure progress against commitments. Obtain a complete 
        understanding of the interactions between this organization, 
        its counterparts at Army and Navy, the balance of the Air Force 
        and DOD team, as well as the Legislative and other executive 
        branch organizations.
          (2) Issue recognition and understanding: Immersion in site 
        issue briefings, budget targets and tracking, benchmarking 
        against Installations and Environment counterparts at Army and 
        Navy and regular meetings with SASC staff in order to establish 
        priorities, develop a list of deliverables and begin tracking 
        progress on key issues.

    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. I would expect the Secretary to prescribe the duties and 
functions commensurate with the position and consistent with those 
specified in law.
    Question. In carrying out your duties if confirmed, how will you 
work with the following?

        The Secretary of the Air Force
        The Under Secretary of the Air Force
        The Air Force Chief of Staff
        The Deputy Under Secretary of Defense for Installations and 
        Environment
        The other Assistant Secretaries of the Air Force
        The Assistant Secretaries of the Army and Navy for 
        Installations and Environment
        The General Counsel of the Air Force
        The Judge Advocate General of the Air Force
        The Deputy Chief of Staff of the Air Force for Installations 
        and Logistics
        The Civil Engineer of the United States Air Force

    Answer. If confirmed, I will assist the Secretary and the Under 
Secretary of the Air Force, the General Counsel, the other Assistant 
Secretaries, along with the Air Force Chief of Staff, in forming a 
close relationship with the Deputy Under Secretary of Defense 
(Installations & Environment) to carry out the goals and priorities of 
the Department. I understand the importance of teamwork and information 
sharing. I will make it a top priority.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that confront 
the Assistant Secretary of the Air Force (Installations and 
Environment)?
    Answer. Enhancing our ability to carry out the Air Force mission in 
the most cost-effective method will always be a priority. I anticipate 
a challenge in finding the right balance between maintaining a high 
status of readiness while conserving our scarce resources. Implementing 
the Base Realignment and Closure recommendations in a timely and 
fiscally responsible manner that benefits the Air Force, while working 
with environmental regulators and local communities, will be a 
challenge. Diligence in the areas of training ranges and airspace, as 
well as improving our family housing and the utility infrastructure and 
overseeing an immense logistics system, will be challenging.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, my game plan would be as follows: (1) 
establish and communicate a clear vision for the organization 
consistent with the overall mission of the Air Force, (2) ensure that 
we have top talent in each position within the organization, then give 
these leaders the support and freedom to do their jobs, (3) engage in 
benchmarking and best practice sharing both inside and outside of the 
government to ensure we have the best tools and programs available to 
guarantee success, and (4) set up regular pulsing sessions within the 
organization to track progress against established goals and 
milestones.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Air 
Force (Installations and Environment)?
    Answer. I am not in a position at present to have sufficient 
knowledge of the position, the team or the challenges of the function 
to know of any serious problems, if any. However, based on my past 
experience, every team and function has room for improvement. If 
confirmed, the process I detailed above in response to the question 
regarding enhancing my abilities to perform this duty will allow me to 
assess gaps and issues, large or small. After that evaluation is 
completed, I would be in a better position to provide a specific 
response to this question.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will work hard to establish an interactive 
and trustworthy relationship with members of Congress and their staffs, 
as well as Air Force and Department of Defense officials, directly 
responsible for matters within the jurisdiction of my office. 
Management actions will be prioritized based on input from each of 
these stakeholder groups. Based on this prioritization, I will lead the 
Installations and Environment team in establishing, communicating and 
tracking to specific initiative timelines.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Air Force (Installations and Environment)?
    Answer. If confirmed, I will establish priorities consistent with 
those of the Secretary of Defense and the Secretary of the Air Force.

                         MILITARY CONSTRUCTION

    Question. The Department of Defense is using the rate of 
recapitalization of the physical plant to justify the levels of annual 
investment required for facilities and infrastructure. The Department 
had established a goal for the military services to propose levels of 
funding for military construction and facility modernization in the 
2008 President's budget request that would equal a recapitalization 
rate of 67 years. To date, the services have been requesting in the 
annual budget a level of investment that results in a recapitalization 
rate of 110-140 years.
    Do you believe the goal of a 67-year recapitalization rate of 
investment by 2008 can be achieved within the Air Force?
    Answer. I understand the Air Force is currently programmed to 
achieve a facility recapitalization rate of 67 years by fiscal year 
2008, in line with established Office of the Secretary of Defense 
goals.
    Question. What other goals and metrics, if any, could be 
established to improve facility recapitalization?
    Answer. If confirmed, I will review all current metrics associated 
with infrastructure replacement from both an installation and cost 
standpoint. In this review, I will examine other goals and consider 
additional metrics that might improve recapitalization.

                         HOUSING PRIVATIZATION

    Question. In recent years, the Department of Defense and Congress 
have taken significant steps to improve family housing. However, it 
will take many more years and a significant amount of funding to 
adequately meet the Department's housing needs. The housing 
privatization program was created as an alternative option to speed the 
improvement of military family housing and relieve base commanders of 
the burden of managing their family housing. If confirmed for the 
position of Assistant Secretary of the Air Force (Installations and 
Environment) you will have a key role in any decisions regarding 
military family housing.
    What are your views regarding the privatization of family housing?
    Answer. Family housing is critical to the men, women, and families 
of the Air Force. If confirmed, I will review this matter in depth to 
ensure our military members and their families are provided quality 
housing so that they may better go about conducting the Air Force 
mission.
    Question. What is your view of the structure and general goals of 
the Air Force's current housing privatization program? Do you believe 
the program should be modified in any way? If so, how?
    Answer. I am generally aware of the Air Force's housing 
privatization program and schedules. If confirmed, I will seek to 
ensure the continued success of this program.
    Question. If confirmed, how would you ensure that funds originally 
appropriated for military construction, which are then used to 
accelerate the pace of Air Force housing privatization, would be 
accounted for, and reported to Congress?
    Answer. If confirmed, I will ensure funds appropriated by Congress 
for issues within the purview of the Assistant Secretary of the Air 
Force for Installations and Environment are assigned to specific 
projects, tracked through an appropriate project tracking mechanism, 
properly accounted for and reported to Congress.
    Question. The Army has contracted for a major housing privatization 
effort at Fort Hood, Texas, using a request for qualifications (RFQ) 
process instead of the more traditional request for proposals (RFP) 
process.
    What are your views of the relative merits of these contracting 
approaches?
    Answer. Both approaches have received broad application in the 
contracting world. If confirmed, I intend to utilize the most 
appropriate contracting tool available for each particular 
circumstance, while driving for continuous improvement in these tools 
and processes.
    Question. The Department of Defense has established 2007 as a goal 
to improve all of its military family housing in the United States.
    Do you believe the Department of the Air Force can achieve this 
goal?
    Answer. If confirmed, I will review the Air Force status of 
military housing. I will do everything in my power to meet goals and 
objectives of the Department of Defense. I understand the current 
budget and Future Years Defense Program (FYDP) is on track to meet the 
goal and I am fully committed to keep this process on track.

                     BASE CLOSURES AND REALIGNMENTS

    Question. The 2005 Defense Base Realignment and Closure (BRAC) 
process is currently underway.
    What do you see as the roles and responsibilities of the Department 
of the Air Force in implementing BRAC decisions?
    Answer. I believe the Air Force's roles and responsibilities are to 
implement the final decisions of the 2005 BRAC expeditiously and 
efficiently in the best interest of the local community, the Federal 
Government, the Air Force, and the American taxpayer.
    Question. What would your role be, if confirmed, in carrying out 
these responsibilities?
    Answer. We need to develop strong relationships with State and 
local governments; those who have zoning authority, State environmental 
regulators, State and local development authorities and the private 
sector. If confirmed, I will seek to develop relations with the proper 
authorities within the government and in the local communities to 
implement the decisions in the best interest of all stakeholders.
    Question. If confirmed, what priorities would you set for the 
process of disposal of any property at Air Force bases affected by BRAC 
decisions?
    Answer. Local communities and the Air Force need to take advantage 
of and benefit from the private marketplace as much as possible. 
Community redevelopment plans and the Air Force disposal plans should 
be integrated to maximum extent possible to take into account the 
anticipated market demand for surplus military property with the goal 
of maximizing value, while being sensitive to community needs and long-
terms plans. This approach will get property into reuse much more 
quickly, help accelerate job creation, and result in cost savings for 
military readiness.
    Question. The DOD installation closure process resulting from BRAC 
decisions has historically included close cooperation with the affected 
local community in order to allow these communities an active and 
decisive role in the reuse of property.
    In your view, what are the roles and responsibilities for the 
Department of the Air Force within the 2005 BRAC property disposal 
process to work with local communities?
    Answer. Collaboration and communication are critical to success. If 
confirmed, I would develop a plan to quickly inventory the real 
property, personal property, and natural infrastructure assets at the 
bases to determine their value. Working with the communities, we can 
develop strategies to quickly market these assets. This approach can 
ensure that the community will quickly recover from the impacts of base 
closure and realignments.
    Question. If confirmed, what goals would you establish to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. The Air Force will take great care to work with communities 
and stand ready to provide support and assistance. If confirmed, I 
would ensure we work closely with the Office of Economic Adjustment 
(OEA) to ensure that effected communities have all the resources 
necessary to accomplish comprehensive planning for the reuse of base 
property. I will continue to foster this proactive approach to ensure 
that communities are treated fairly in the BRAC process.

                      INVESTMENT IN INFRASTRUCTURE

    Question. Witnesses appearing before the committee in recent years 
have testified that the military services under-invest in both the 
maintenance and recapitalization of facilities and infrastructure 
compared to private industry standards. Decades of under-investment in 
our installations have led to substantial backlogs of facility 
maintenance activities, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    If confirmed, what recommendations would you propose to restore and 
preserve the quality of our infrastructure?
    Answer. If confirmed, I will review all issues associated with 
infrastructure investment. I believe I bring experiences in how to 
assess and improve infrastructure so it can best serve our warfighters 
and their families.

                           ENERGY EFFICIENCY

    Question. Executive Order 13123 lays out a number of specific steps 
that agencies should take to promote energy conservation. These include 
the use of energy savings performance contracts, utility energy 
efficiency contracts, and other contracts designed to achieve energy 
conservation; conducting energy efficiency audits for approximately 10 
percent of an agency's facilities each year; and exploring 
opportunities for energy efficiency in industrial facilities for steam 
systems, boiler operation, air compressor systems, industrial 
processes, and fuel switching.
    Do you support the use of these energy conservation approaches?
    Answer. As evidenced by my efforts at General Electric, I support 
energy conservation, and if confirmed, I will review the entire Air 
Force effort in this area to ensure we meet or surpass all of the 
standards and goals. In my experience, focused attention, along with 
leadership accountability as relates to the full range of energy 
conservation options, can result in significant conservation wins.
    Question. Are there other steps that you would take, if confirmed, 
to promote energy conservation by the Department of the Air Force?
    Answer. If confirmed, I will encourage energy conservation using 
both traditional and innovative strategies, as well as continually 
encouraging best practice sharing outside of the Air Force to ensure we 
have the largest pool of ideas to work from to maximize our likelihood 
for success.
    Question. Do you believe that the energy conservation goals 
established in the executive order are achievable?
    Answer. I have not had the opportunity to examine all of the Air 
Force's efforts towards realizing the goals of the executive order, but 
I understand they are making significant strides with several projects 
in a number of areas. If confirmed, I will closely examine this 
important issue.

                 ENCROACHMENT ON MILITARY INSTALLATIONS

    Question. The encroachment of commercial development near military 
installations has negatively impacted Air Force operations at military 
airfields. For example, combat aircraft can no longer safely take off 
with live armaments on one end of the runway at Nellis Air Force Base, 
Nevada and Luke Air Force Base, Arizona due to the construction of 
private residential areas adjacent to the base.
    If confirmed, what policies or steps would you take to curtail the 
negative impact on operations and training resulting from residential 
encroachment?
    Answer. I believe we need to work closely with local communities as 
they develop land use plans. If confirmed, I will ensure encroachment 
issues are treated comprehensively and that the appropriate programs or 
initiatives are implemented to address potential readiness problems. We 
need to understand the community needs and they to know how land use 
planning can affect our ability to meet military training and readiness 
needs.

                 REPORTS AND NOTIFICATIONS TO CONGRESS

    Question. A responsibility of the Department of the Air Force is to 
satisfy statutory report and notification requirements to Congress. 
Many notifications require a wait period of a specific number of days 
after notification is received by Congress before the Department can 
carry out the action. The current Air Force policy is to answer all 
questions generated by Congress regarding the notification before 
proceeding with the action.
    Do you support and will you adhere to this policy?
    Answer. Yes.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. As a political appointee, I consider it my duty to be an 
advocate for the policies of the administration. However, I will always 
be prepared to provide my best professional judgment when asked.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force for Installations and Environment?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

             INSTALLATION DEFENSE, PROTECTION AND SECURITY

    1. Senator Warner. Dr. Sega, Mr. Eastin, and Mr. Anderson, in 2004, 
the Department of Defense (DOD) initiated the defense-wide Guardian 
Installations Protection Program (IPP). Upon completion, Guardian IPP 
will provide warning and protection for 200 critical DOD installations 
and facilities in the United States and abroad from potential chemical, 
biological, radiological, and nuclear (CBRN) attacks. The committee has 
fully supported this important initiative and, in fact, has authorized 
an additional $10.2 million within the program to provide greater 
protection of our military's mail system. Do you believe that our 
military installations are vulnerable to potential CBRN attacks?
    Mr. Anderson. Our military installations worldwide remain targets 
for terrorist attacks from chemical, biological, radiological, and 
nuclear (CBRN) weapons. It is commonly understood that visible and 
comprehensive site protection measures will dissuade potential 
adversaries from targeting protected assets, including those of the Air 
Force (AF). In addition, fully prepared emergency response personnel 
supported by the proper infrastructure play a major role. Vulnerability 
occurs when site hardening initiatives and emergency response 
preparedness are insufficient as compared to the perceived threat for 
any particular installation. I am not privy at present to any analyses 
of site capability shortfalls. However, if confirmed, I intend to 
review (1) the progress on site hardening initiatives to date, (2) 
efforts toward institutionalizing improvements and integrating them 
fully into strategy, planning and operational capabilities, and (3) 
closure actions intended to address capability gaps. In summary, 
Department of Defense installations around the world will remain 
attractive targets due to the strategic and emotional value associated 
to them by a potential attacker. If confirmed, I will lead continuing 
efforts to increase our capabilities to prevent, prepare for, respond 
to and recover from potential attacks.

    2. Senator Warner. Dr. Sega, Mr. Eastin, and Mr. Anderson, given 
the significant capital our government has invested at these high-value 
military installations, do you believe it is necessary to protect these 
assets from possible CBRN attacks?
    Mr. Anderson. Yes. It is critical to protect physical 
infrastructure, the people who serve on these military installations, 
information/data assets and the supply chain in order to ensure that 
each installation can, at all times, execute on its primary warfighting 
mission. If confirmed, I will provide leadership emphasis to ensure the 
Air Force supports this strategy with the appropriate resources.

    3. Senator Warner. Dr. Sega, Mr. Eastin, and Mr. Anderson, as these 
200 installations and facilities are under the jurisdiction of the DOD, 
how do you intend to ensure the program is fully and effectively 
implemented within your respective Service?
    Mr. Anderson. The Air Force has a number of efforts underway that 
are responsive to the possibility of enemy attacks with chemical, 
biological, radiological, and nuclear (CBRN), both offensive and 
defensive, and designed to be effective both in the homeland and 
forward regions. If confirmed, I intend to build on the progress to 
date and via collaboration with other functions within the Air Force to 
(1) review recommendations for site hardening at each installation and 
progress on completing these recommendations, (2) schedule audits to 
ensure continuing compliance to recommendations, (3) conduct crisis 
drills to confirm that hardware and process upgrades perform as 
expected, and (4) provide a feedback loop so that lessons learned from 
audits and drills translate to continuous improvement of security 
processes and systems.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                   DEPOT MAINTENANCE IMPROVEMENT FUND

    4. Senator Inhofe. Dr. Sega, Mr. Bell, and Mr. Anderson, since the 
Bush administration came into office, we have seen a renewed interest 
in the Air Force's depots. A key to this overall reinvigoration has 
been the Depot Maintenance Strategy and Master Plan that will ensure 
America's air and space assets are ready to rapidly respond to any 
national security threat. Because of this plan, we have begun a 
restoration of our Air Force's three depot facilities, one of which is 
located at Tinker Air Force Base, Oklahoma. This modernization will 
ensure the United States is able to maintain world-class aircraft 
repair and overhaul facilities. Tinker Air Force Base is the largest 
single employer in the State of Oklahoma. It is important to sustain 
and upgrade Tinker's facilities and equipment along with that of the 
other depot facilities. There is currently an amendment that I support 
which calls for full funding of the Depot Maintenance Strategy and 
Master Plan at a level of $150 million a year, over a 6-year period. 
Secretary Gibbs supported fully funding the Depot Maintenance 
Improvement Fund. Do you have any concerns about sufficiently funding 
the Improvement Fund at the same percentage level as Secretary Gibbs?
    Mr. Anderson. The Air Force continues to be fully committed to 
managing world-class organic depot maintenance capability for our 
warfighters. Such a commitment comes in the form of making strategic 
investments in support infrastructure that will ensure each 
installation can deliver expected value and results. If confirmed, I 
will continue to build on the successful effort already begun to meet 
our commitment to modernize and transform our depot maintenance 
equipment, facilities and personnel by sufficiently funding the Depot 
Modernization line set aside by the Air Force between fiscal year 2004-
2009.

    5. Senator Inhofe. Dr. Sega, Mr. Bell, and Mr. Anderson, will you 
commit to this same level of funding?
    Mr. Anderson. The Air Force continues to be fully committed to 
managing world-class depot maintenance capability for our warfighters. 
If confirmed, I will work with my staff to make sure we continue to 
meet the milestones in the ongoing process of modernizing and 
transforming our depot maintenance equipment, facilities, and 
personnel, and to efficiently use available finding to meet that end.

                        UTILITIES PRIVATIZATION

    6. Senator Inhofe. Mr. Eastin and Mr. Anderson, as part of a very 
important effort to save money on our military installations, the 
Department of Defense initiated two very important programs. One was 
the privatization of military housing under subchapter IV of chapter 
169 of title 10, United States Code. This program is projected to save 
the government millions of dollars and put our fighting men and women 
in modern, well-maintained housing. Thus far the results are amazing. 
The other program under section 2688 of title 10 is the privatization 
of utilities on bases. Likewise this program is projected to save 
millions of dollars over time. However, many bases cannot move forward 
on the utilities privatization because the Federal power marketing 
administrations have an inconsistent approach regarding the effects of 
such privatization on Federal power allocations at military 
installations. For example, Fort Sill, Oklahoma wanted to move to 
privatization, but according to policies at Southwestern Power 
Administration Fort Sill would lose its Federal power allocation. This 
makes the privatization of the utilities infrastructure uneconomical. 
Therefore the taxpayer cannot save money on the military installation 
because of this policy. Last year this committee directed a study that 
was just completed by DOD. It lays out all these issues. What can we do 
about this, short of passing a law?
    Mr. Anderson. I am not yet privy to the study recently completed by 
the Department of Defense, so I am not in a position to comment 
specifically on whether there are solutions to this problem short of 
legislative action. If confirmed, I will take an in-depth look at the 
study and the privatization policies of the Federal power marketing 
administrations in order to be in a position to advocate a solution 
that will provide cost savings for the taxpayer, while providing 
adequately for the needs of our Air Force personnel and our 
installations.

    7. Senator Inhofe. Mr. Eastin and Mr. Anderson, can you assure me 
that you will look into this and help us fix this problem?
    Mr. Anderson. I believe that deriving maximum value from each 
taxpayer dollar is an obligation of any government agency. If 
confirmed, I will work with my counterparts in the other service 
branches to review the various policies among the Federal power 
marketing administrations, determine the most economical alternatives 
for the Air Force and the Department of Defense, and advocate for any 
changes appropriate to achieve a cost-effective solution.
                                 ______
                                 
             Question Submitted by Senator Saxby Chambliss

  ADDITION OF SOFTWARE AS A CORE REQUIREMENT FOR AIR LOGISTICS CENTERS

    8. Senator Chambliss. Mr. Anderson, in your responses to the 
advance policy questions, you note correctly that you would be 
responsible for exercising oversight of the entire Air Force logistics 
system. You also stated that upon the assumption of any new leadership 
assignment, you would develop a 90-day plan which would include site 
visits as part of a leadership assimilation process focused on closing 
any knowledge gaps. I would like to take this opportunity to encourage 
you to visit the Air Logistics Center at Robins Air Force Base in 
Georgia. The folks there are doing tremendous work regenerating our Air 
Force's combat power. One item you might inquire about while visiting 
there is the process of making software maintenance a core requirement 
for Air Logistics Centers. Can you comment on your understanding of the 
core workload requirement and give your thoughts on the importance of 
maintaining sufficient core workload capacity at our Air Force 
Logistics Centers?
    Mr. Anderson. Each of the Air Logistics Centers will provide me 
with a tremendous opportunity to take in a broad scope of the Air Force 
mission as they are co-located with active air bases. If confirmed, I 
look forward to visiting all three during the leadership assimilation 
process. I am not yet familiar with the Department of Defense 
definition of core workload requirements. However, based on my private 
sector understanding of ``core'' being those essential operational 
processes where in-house capability is critical, if confirmed, I will 
make it a priority to review in general the core workload capacity at 
the depots, and specifically as it relates to your query on software 
maintenance.
                                 ______
                                 
    [The nomination reference of William C. Anderson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 26, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William Anderson, of Connecticut, to be an Assistant Secretary of 
the Air Force, vice Nelson F. Gibbs.
                                 ______
                                 
    [The biographical sketch of William C. Anderson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of William C. Anderson

    William C. (Bill) Anderson is the General Manager and Senior 
Counsel--Environmental, Health and Safety for GE Consumer & Industrial, 
a major business unit of the General Electric Company and a global 
industry leader in the manufacture of appliances, lighting products and 
electrical equipment. In his present position, Bill has responsibility 
for environmental matters, facility safety, occupational medicine, and 
facility management for an organization of 75,000 people in hundreds of 
locations worldwide. He has also served as International Tax Counsel 
for General Electric, Integration Manager for GE AEG (Germany), and as 
General Counsel, Director of Quality and Environmental Affairs to GE's 
electrical businesses in Europe. Previously, Bill was a financial 
consultant with Merrill Lynch, and a tax consultant at Arthur Andersen 
& Company and Ryder Systems, Inc.
    He has served as Managing Director for GE Poland Sp. zoo, GE AEG 
Niederspannungstechnik and Vice President of Caribe GE Products, Inc. 
Previously, Bill served on the Board of Directors of the Puerto Rico--
USA Foundation. He has acted as an Observer to the National Conference 
of Commissioners on Uniform State Laws Drafting Committee on the 
Uniform Environmental Covenants Act and has been a featured speaker at 
the University of Connecticut School of Law's Gallivan Conference on 
Real Property Law. Bill is a member of the Advisory Board for BNA's 
Environmental Due Diligence Guide.
    Bill received his undergraduate degree in history (with honors) 
from Washington College in Chestertown, Maryland. He earned his law 
degree (with honors) from Syracuse University and studied in the 
masters program for international business at the University of Miami. 
Bill is a member of the Maryland and Florida Bar Associations.
    For more than 20 years, Bill has been active in community service. 
His participation has included positions as Legal Counsel and Regional 
Advisor to the Florida Jaycees, Board Member and Treasurer of Big 
Brothers/Big Sisters of Broward, Inc., Chair of the GE Community 
Service Fund, Member of the Board of Directors for the American 
RedCross, Middlesex/Central Connecticut Chapter, Vice Chair of the 
Urban League of Greater Hartford, and Chair of the Urban League of 
Greater Hartford Development Corporation, Inc. Bill served as Business 
Champion/Advisor for GE's Asia Pacific American Forum.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by William C. 
Anderson in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William Carl Anderson (Bill Anderson).

    2. Position to which nominated:
    Assistant Secretary of the Air Force (Installations and 
Environment).

    3. Date of nomination:
    May 26, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 9, 1958; Syracuse, New York.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Deborah Lynn Harding.

    7. Names and ages of children:
    I have no natural or adopted children. However, my wife's daughter, 
Shawna Faloona Anderson, age 23, has lived with us since our marriage 
in 1990 and I have treated and supported her as my own child.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Secondary: Dulaney Senior High, Timonium, Maryland, September 1974-
June 1976. High School Diploma, June 1976.
    Undergraduate: Washington College, Chestertown, Maryland, August 
1976-May 1980, B.A., History, May 1980.
    Law School: Syracuse University, Syracuse, New York, August 1980-
May 1983, Juris Doctor, May 1983.
    Graduate Studies: University of Miami School of Business, Coral 
Gables, Florida, January 1989-December 1990, degree not conferred.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    August 1996-Present: General Manager and Senior Counsel, 
Environmental Health and Safety, General Electric Company, Plainville, 
CT.
    June 1994-August 1996: General Counsel and Director of Quality and 
Environmental Affairs, GE Power Controls, Gent, Belgium.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    N/A

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Generations Resort Properties, Inc., a wholly-owned real estate 
investment company (Subchapter C) doing business in Maryland. Nominee 
is sole shareholder and director and serves as company president.
    Bureau of National Affairs (BNA)--Environmental Due Diligence 
Guide. Nominee is a member of the Advisory Board.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member: Maryland Bar Association.
    Member: Florida Bar Association.
    Vice Chairman: Urban League of Greater Hartford, Inc., Hartford, 
CT.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    N/A.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    1997-2004, Life Member, Republican National Committee
    2004-2005, Republican Eagles.
    No offices held nor services rendered in either case.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    May 12, 2000, GEPAC, $300.
    May 12, 2000, CONNPAC, $100.
    November 8, 2001, GEPAC, $750.
    November 8, 2001, CONNPAC, $300.
    July 12, 2002, GEPAC, $750.
    July 12, 2002, CONNPAC, $200.
    September 16, 2002, Sanford for Assembly, $100.
    November 24, 2002 Republican National Committee, $500.
    February 22, 2003, Republican National Committee, 250.

    See attached sheet for additional contributions. [Nominee responded 
and the information is contained in the committee's executive files.]

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Phi Alpha Theta National History Honorary (Undergraduate).
    American Jurisprudence in Corporations Award (Law School).
    Wall Street Journal Award (Law School).
    Chairman's Award--Urban League of Greater Hartford, Inc., Hartford, 
CT.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    N/A.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Appeared as speaker at 10th Annual Gallivan Conference on Real 
Property at the University of Connecticut School of Law, October 4, 
2002. This was a panel discussion so no prepared text is available. 
Topic was brownfields redevelopment, an activity relevant to nominated 
position.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               William C. Anderson.
    This 2nd day of June 2005.

    [The nomination of William C. Anderson was reported to the 
Senate by Chairman Warner on October 27, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 28, 2005.]


 NOMINATIONS OF HON. MICHAEL W. WYNNE TO BE SECRETARY OF THE AIR FORCE 
          AND DR. DONALD C. WINTER TO BE SECRETARY OF THE NAVY

                              ----------                              


                       THURSDAY, OCTOBER 6, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Sessions, Collins, Talent, Chambliss, Thune, Levin, Lieberman, 
Reed, Bill Nelson, and Clinton.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William C. Greenwalt, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Thomas L. 
MacKenzie, professional staff member; Elaine A. McCusker, 
professional staff member; David M. Morriss, counsel; Lucian L. 
Niemeyer, professional staff member; Stanley R. O'Connor, Jr., 
professional staff member; Scott W. Stucky, general counsel; 
Diana G. Tabler, professional staff member; and Richard F. 
Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Creighton Greene, professional staff member; Gerald J. 
Leeling, minority counsel; and Peter K. Levine, minority 
counsel.
    Staff assistants present: Micah H. Harris, Jessica L. 
Kingston, Jill L. Simodejka, and Pendred K. Wilson.
    Committee members assistants present: Christopher J. Paul, 
assistant to Senator McCain; Arch Galloway II, assistant to 
Senator Sessions; Dirk Maurer and Mackenzie M. Eaglen, 
assistants to Senator Collins; Lindsey R. Neas, assistant to 
Senator Talent; Bob Taylor and Stuart C. Mallory, assistants to 
Senator Thune; Frederick M. Downey, assistant to Senator 
Lieberman; William K. Sutey, assistant to Senator Bill Nelson; 
Kimberly Jackson, assistant to Senator Dayton; and Andrew 
Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee will come to order. We're 
pleased to have before the committee this morning the Honorable 
Michael W. Wynne, the nominee to be Secretary of the Air Force, 
and Dr. Donald C. Winter, the nominee to be Secretary of the 
Navy.
    This is a very important hearing in accordance with the 
advice and consent clause of the U.S. Constitution. Having had 
the privilege of serving in the position of Secretary of the 
Navy some many years, I always take a very special interest in 
the hearings for those who become the Service Secretaries. I 
think they play a vital role in the overall construct of our 
Department of Defense (DOD).
    This morning, I hasten to add to all in attendance and 
those following this hearing that when I first came to the 
Senate some many years ago, one of the old Senators said to me, 
``You'll soon realize that this institution tries to do 
everything at once or little or nothing.'' Today is an 
``everything at once.'' We had a very long session last night.
    I just left the hearing of the Homeland Security Committee, 
where Senator Collins, who hopefully will join us later, 
Senator Levin, and Senator Lieberman are presiding, and I 
stopped by the Environment and Public Works. Senator Inhofe and 
other members of this committee are up there working, so, 
forgive what appears to be a shortage of attendance. I assure 
you, each and every one of these Senators is heavily engaged 
somewhere.
    By unanimous consent, we will keep the record open until 
close of business tomorrow night for Senators to submit 
questions to these two witnesses. Of course, after the recess, 
we hope to return to continuing to process these two very 
important nominations.
    I'm optimistic that the Senate will provide advice and 
consent for these two important positions. Our Nation is at 
war. We definitely need them in place to meet the needs of the 
men and women in the Armed Forces, and I thank each of you and 
your families for offering to perform this public service.
    We welcome Mr. Wynne and Dr. Winter and their families, and 
we now ask our nominees to introduce their families to those in 
attendance. It will be placed in the permanent record of the 
history of the Senate.
    Mr. Wynne. Thank you very much, Mr. Chairman.
    I'm accompanied today by my wife, Barbara, and a long-time 
family friend, Dr. Ron Schillereff. They're very pleased to be 
able to be here today. Thank you for the opportunity.
    Chairman Warner. I also wish to recognize another gentleman 
who's here. I believe he was a classmate, is that correct?
    Mr. Wynne. That is correct. I have a classmate in 
attendance from the class of 1966 from West Point, Jack 
Wheeler, who's another long-time friend and colleague.
    [Additional information follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. The Chair is very knowledgeable of Mr. 
Wheeler. He was instrumental in working with a group, of which 
I was privileged to be a member, to create the Vietnam Veterans 
Memorial here in Washington, DC. So I remember him as a 
captain. I welcome you, Captain.
    Captain Wheeler. Thank you very much.
    Chairman Warner. Thank you, sir.
    Dr. Winter.
    Dr. Winter. Mr. Chairman, I'm pleased that this morning I'm 
joined by my wife, Linda, and my two sons: Benjamin, who 
resides in Arlington with his wife and our granddaughter; and 
Jonathan, who resides in southern California.
    Chairman Warner. The committee members have indulged the 
chairman through the years in making the statement that, having 
had some experience in that building in your positions, the 
hour of 7:30 to 8 o'clock comes in the Department of Defense, 
and so many decisions that are made at that point in time are 
re-reviewed in the morning, in the light of day, and changed. 
So, I do hope you get home to your families and allow your 
staffs to have reasonable hours, when possible. Do you give me 
that assurance?
    Mr. Wynne. A point well taken, Senator, and I assure you we 
will do that.
    Dr. Winter. Yes, Mr. Chairman.
    Chairman Warner. Mr. Wynne served as the Deputy Under 
Secretary of Defense for Acquisition and Technology from July 
2001 through 2003 and, upon the departure of Secretary 
Aldridge, was then named as the acting Under Secretary of 
Defense for Acquisition and Technology, and has served in that 
position for some time.
    In April of this year, following consultation with the 
committee by the Department, the President gave Mr. Wynne a 
recess appointment as the Under Secretary of Defense for 
Acquisition, Technology, and Logistics and, at about the same 
time, forwarded the nomination of Kenneth Kreig for that very 
important position within the DOD. With the Senate confirmation 
and appointment of Mr. Kreig in June 2005 as Under Secretary of 
Defense, Mr. Wynne was asked--and, to his credit, agreed--to 
resume his position as the Deputy Under Secretary with the 
responsibility for overseeing the Department's Base Realignment 
and Closure (BRAC) efforts.
    Mr. Wynne is a proud graduate of the United States Military 
Academy at West Point and served for 7 years on Active-Duty in 
the Air Force. He has an impressive record of achievement in 
private industry. We thank Mr. Wynne for his service to date 
and for his willingness, if confirmed, to serve as the 21st 
Secretary of the Air Force.
    We also welcome Dr. Donald C. Winter, who has been 
nominated to be the 74th Secretary of the Navy. Dr. Winter has 
a wealth of experience and accomplishments in the private 
sector, most recently as corporate vice president of Northrop 
Grumman's mission systems sector. Dr. Winter has been the 
president and CEO of TRW, Inc., and has management experience 
in space systems, engineering, support operations, and 
maintenance, and development of advanced technologies directly 
related to new and evolving systems.
    Dr. Winter has served with the Defense Advanced Research 
Projects Agency (DARPA) as program manager for Space 
Acquisition and Tracking Programs and was awarded the Secretary 
of Defense Medal for Meritorious Civilian Service for his 
contributions.
    Dr. Winter has also found time to serve on the Board of 
Directors of the United Service Organization (USO) of 
Metropolitan Washington and the Wolf Trap Foundation for 
Performing Arts in Virginia.
    I thank you both, and I might add that a number of 
individuals in whom I repose a great deal of respect and 
confidence have come forward to speak to me privately on behalf 
of both of you, urging that you be given this opportunity to, 
once again, serve the Government.
    Gentlemen, thank you for your public service.
    Senator Levin is in another committee hearing. I just left 
him and he will be here shortly. He urged me to start this 
hearing in his absence.
    The committee has asked our witnesses to answer a series of 
advanced policy questions. They have responded to those 
questions. Without objection, I'll make the questions and the 
responses part of the record.
    I also have certain standard questions we ask every nominee 
who appears before the committee. If you'll respond to each 
question, then we can move on to policy questions by the 
committee.
    To both of you:
    Have you adhered to applicable laws and regulations 
governing conflict of interest?
    Mr. Wynne. Yes, Senator.
    Dr. Winter. Yes, Mr. Chairman.
    Chairman Warner. Have you assumed any duties, or undertaken 
any actions, which would appear to presume the outcome of the 
confirmation process?
    Mr. Wynne. No, Mr. Chairman.
    Dr. Winter. No, Mr. Chairman.
    Chairman Warner. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record on hearings before the 
Congress of the United States?
    Mr. Wynne. Yes, Mr. Chairman.
    Dr. Winter. Yes, Mr. Chairman.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Wynne. Yes, Mr. Chairman.
    Dr. Winter. Yes, Mr. Chairman.
    Chairman Warner. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Wynne. Yes, Mr. Chairman.
    Dr. Winter. Yes, Mr. Chairman.
    Chairman Warner. In reply to the inquiries of Congress, we 
have broadened that category, and this is the language that we 
are currently using. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by the committees of Congress, or 
to consult with the committee regarding the basis for any good-
faith delay or denial in providing such documents?
    Mr. Wynne. Yes, Mr. Chairman.
    Dr. Winter. Yes, Mr. Chairman.
    Chairman Warner. I thank you.
    At this point in time, if the nominees have opening 
statements, we'd be happy to hear them.

STATEMENT OF HON. MICHAEL W. WYNNE, TO BE SECRETARY OF THE AIR 
                             FORCE

    Mr. Wynne. Thank you, Mr. Chairman.
    Mr. Chairman, members of this committee, it is a particular 
honor for me to appear before you today as the nominee for 
Secretary of the United States Air Force.
    Not only was it my prior service following my graduation 
from West Point, but my father, also a West Pointer, served his 
career in the United States Air Force. One of my brothers, a 
graduate of the Air Force Academy, died in its service in 
Vietnam. Another retired as an NCO. I fully intend to honor 
each of them, should you see fit to confirm me.
    For this opportunity, I thank the President and the 
Secretary of Defense for having the continued confidence in me 
to conduct the affairs of the United States Air Force. If 
confirmed, I intend to honor that confidence, as well as that 
demonstrated by this committee, which has assisted me onto the 
right course throughout my service.
    I would also like to thank my wife, Barbara, who is my life 
partner and has helped me for 39 years in each of my 
assignments as both confidante and cheerleader while raising 
and marrying off our four beautiful daughters. We, today, count 
our 11 grandchildren and 4 terrific sons-in-law as adding 
wonderfully to our life.
    With your help and support, I was able to accomplish much 
in assisting the Secretary in his effort to transform the 
Department. There remains much for the Departments' talented 
folks to continue, but I am particularly proud of the emphasis 
I was able to bring to end-to-end procurement, logistics 
systems, and interoperability. I believe in transparency of 
effort, such that the goals are clear and supportable. The role 
of the leader is in removing barriers to success for the 
enterprise while holding subordinates accountable for 
performance.
    I would like to thank this committee for both prompting and 
encouraging improvement in acquisition and technology. Yet, 
there remains much to be done, and there are some good ideas 
being brought forth to balance needs, resources, and schedule.
    You have seen some of the results in the efficiency and 
timeliness of the logistics enterprise in support of our 
warfighters. Also, there was good progress on interoperability 
as a basis for coalition and joint warfare. This was reflected 
in the present warfight and in the future planning for 
interoperability. I hope to continue to support these efforts 
should I gain confirmation, and I strongly desire to see the 
Air Force become the first to gain from a transparent business 
process and be restored to the premier position in acquisition 
and management that is its history.
    At first look, the Air Force is striving to be a leader in 
jointness, and I will certainly support their efforts in that 
regard. The mission of the Air Force, to me, is to provide the 
capabilities necessary to preserve and defend the United States 
and its interests by controlling the areas assigned, such as 
air and space. This mission is one that resonates well with me 
and, if confirmed, affords me a clear opportunity to serve with 
magnificent men and women throughout your United States Air 
Force. This is a task I would relish, and thus, I look forward 
to the potential.
    With regard to that potential, I want to thank the chairman 
and members of this committee for instituting the interim 
policy regarding conflicts of interest while the quest for an 
appropriate surety bond continues. This will allow all of us to 
serve, and serve well. I want to assure you, Mr. Chairman and 
the committee members, that I and my colleagues take this 
responsibility to hold ourselves to the highest ethical 
standards to heart and commit to you to adhere to the interim 
policy in every respect.
    The President and the Secretary have emphasized the 
importance of ethics across the Department and Government, and 
I intend to set the standard for the Air Force, if confirmed, 
as integrity first. I look forward to the opportunity to 
continue working with this committee, and intend to consult 
often as the challenges approach.
    Thank you again for your consideration. I look forward to 
your questions.
    Chairman Warner. Thank you very much, Secretary Wynne. I 
must say, I was touched by your reference to your family and 
the extraordinary participation by those members of your family 
in wearing the uniform of the United States, helping to 
preserve the freedom that you and I and others enjoy today. 
There isn't a day that goes by that I don't reflect on my own 
father, who was an Army captain in World War I in the trenches 
as a doctor, and I proudly have his picture on my wall.
    Dr. Winter?

   STATEMENT OF DONALD C. WINTER, TO BE SECRETARY OF THE NAVY

    Dr. Winter. Mr. Chairman and members of the committee, I 
would like to thank the President and the Secretary of Defense 
for nominating me as Secretary of the Navy. I am truly honored 
by the confidence they have expressed in me by way of this 
nomination. I would also like to thank the committee for their 
consideration of my nomination.
    In addition, if you would permit me, I would like to thank 
my wife Linda for the tremendous support and inspiration she 
has provided throughout our 36 years of marriage. I would also 
like to thank my parents, Bert and Ada Winter, my father, a 
pharmacist's mate second class, during World War II, for the 
tremendous support that they have provided me. They wanted to 
be here today, but I was afraid the trip would be a little too 
arduous for them.
    Chairman Warner. Thank you for that acknowledgment.
    Dr. Winter. I've had a great career in the defense industry 
working on some of the most technically challenging programs. I 
have had the honor of working with some of the best teams--
contractors and government officials alike--on some of the most 
important missions facing the United States today.
    But recently I have become a believer in the concept of the 
third act, that after spending the first part of life learning 
and preparing, and the second part of life doing, one should 
spend the third part of life giving back. I also believe, as 
some have suggested, that one should transition between the 
second act and the third while you are still able to contribute 
in a significant way and it seems that this is the right time 
for me.
    I only ask for the opportunity to serve to provide 
stewardship for these great institutions, the United States 
Navy and the United States Marine Corps, and to be able to 
support the sailors and marines who have put their lives on the 
line and are doing us so proud in their service to our Nation 
at this great time of need.
    Mr. Chairman, I look forward to answering the questions of 
the committee.
    Chairman Warner. Thank you very much.
    Given that I will be here throughout this hearing, at this 
time I allow Senator McCain to take my opening period of asking 
questions.
    Senator McCain.
    Senator McCain. Thank you very much, Mr. Chairman.
    I welcome the witnesses, and I congratulate them and their 
families for their appointments. We're pleased to have 
individuals of this caliber who are willing to serve.
    Dr. Winter, Northrop Grumman is one of the largest 
corporations in this country. I understand you've not always 
worked for Northrop Grumman, but for TRW. TRW was acquired by 
Northrop Grumman and you now are employed by a company that has 
many multibillion-dollar contracts with the Navy. The American 
people deserve to know that there will be absolutely no hint of 
any bias by you in making acquisition decisions for the Navy.
    By the way, if this hearing had been held several years 
ago, I probably wouldn't be mentioning it. Unfortunately, there 
have been several cases of conflicts of interest that cause me 
to bring up this issue.
    Dr. Winter, do you intend to recuse yourself from decisions 
that would have to do with Northrop Grumman?
    Dr. Winter. Senator, I intend to recuse myself from 
decisions which would represent a conflict of interest, or a 
potential or perceived conflict of interest, according to the 
procedures identified in my ethics agreement.
    Senator McCain. Who decides if you should recuse yourself?
    Dr. Winter. The decision is made by the designated ethics 
official for the agency.
    Senator McCain. Thank you very much.
    Mr. Wynne and Dr. Winter, we have a huge problem with 
procurement in that costs are escalating to the point where 
many weapons systems are becoming unaffordable. I'm sure you're 
both aware of $2 billion destroyers and $14 billion aircraft 
carriers and $500 million airplanes and $65 million C-130s. The 
list goes on and on, and at some point there's going to be a 
cutback in defense spending. One, we are going to have to make 
some tough decisions as to what we want to acquire, because I 
don't think we can acquire everything. But two, what we do 
acquire, we're going to have to keep the lid on the costs, 
because literally every major program we're acquiring is 
experiencing significant overruns.
    This committee, under the leadership of Senator Warner, has 
held one procurement hearing and we will be holding several in 
the future, and we'll look to you for your advice and counsel.
    I guess I'll begin with you, Secretary Wynne, and then you, 
Dr. Winter. Maybe you can describe to us what you think ought 
to be done.
    Mr. Wynne. Thank you very much, Senator McCain. I will tell 
you, it's the balancing of the infusion of technology, the 
requirements and needs of the warfighter, and the schedules to 
which we all adhere. One thing that I intend to do is to review 
very carefully the requirements that are tabled to determine 
whether or not they are, if you will, at need or above need, to 
determine whether or not we can submit a higher and more mature 
technology model to the procurement folks. I also will tell you 
that the absence of change and the stability of programs from a 
specification requirement, is something that I intend to focus 
on. I think if we were to do tradeoffs instead of just adding 
on the requirements, there would probably be fewer add-ons. In 
other words, if this were a zero-sum practice and the program 
manager was given a lot more authority to say no, we could 
bring these programs in on a little bit tighter schedule and 
probably for a lot better cost.
    Senator McCain. Do you think we should have cost-plus 
contracts?
    Mr. Wynne. Cost-plus contracts are evidence that you do not 
have a real handle on what you want to buy. It's hard for 
people to essentially put a fixed price on a scientific 
experiment. I think as we mature our own requirements and drive 
the technical maturity up, that allows you to reach for fixed-
price-like contracts, like fixed-price incentive contracts, 
which are a little bit more self-evident. Maybe we should trend 
away from the cost-plus aspects.
    Senator McCain. Dr. Winter?
    Dr. Winter. Senator, I believe that there are issues that 
we need to address, in terms of both procedures and personnel. 
From the procedures perspective, I would suggest that we need 
to put increased emphasis on maturing the requirements prior to 
initiating major acquisition activities and, in particular, in 
terms of separating out very carefully true requirements from 
what I might call ``desirements.'' I believe we need to take a 
good hard look at the alternatives that exist, to be able to 
satisfy those requirements and that those evaluations have to 
be supported by credible and realistic cost, schedule, and risk 
assessments. I think we need to ensure that we have concept 
designs and program plans that are realistic and guard against 
the usual trials and tribulations that occur during a 
development process. I believe we need to go and work all of 
that through with proper consideration of the roles of the 
Department and the roles of the contractor.
    To that last point, I would add that I believe we have to 
take a good hard look at the personnel that we have within the 
acquisition community both in terms of their numbers as well as 
in terms of the mix. I'm particularly concerned about what I 
see as the erosion of the technical capability within the 
Department supporting major acquisitions and the need to 
buttress that to ensure that the Department can play its proper 
role in the acquisition procedures.
    Senator McCain. I see my time is expired. Mr. Chairman, I 
thank you. I thank the witnesses.
    What I don't get, Secretary Wynne, is that the fastest-
evolving and emerging technology in the United States, which is 
driving our economy, is information technology. Literally with 
every technological improvement and advance, costs go down. The 
price of a high-definition television used to be many 
thousands; it's now getting down to many hundreds. Chip 
capacity improves and the cost goes down. Yet it seems in the 
defense business that every improvement in technology means the 
cost goes up. Is it that these two kinds of technologies are so 
vastly different that there's no way of comparing them? Or is 
it the fact that there's vigorous and incredibly intense 
competition in the information technology business and, 
basically, in the defense business, most competition, due to 
the consolidation of defense industries, has disappeared?
    Mr. Wynne. Senator, there's probably no doubt that there's 
a combination of factors. I think one of the things that we 
have a tendency to do is push the technical edge and don't 
allow the maturing of our technologies to the point where 
competition is self-evident. I think it's incumbent upon us to 
try to figure out how to get to where we are satisfied, if you 
will, with available technologies, rather than pushing the edge 
on either processing speed or capability. It just seems to be 
that the thing that we really want is just beyond the developed 
envelope and I think that's something we really have to watch 
for.
    Senator McCain. Thank you Mr. Chairman. We'll be discussing 
this a lot.
    Mr. Wynne. Yes, sir.
    Chairman Warner. Thank you. When he says, ``We'll be 
discussing it a lot,'' he is taking a lead on this committee on 
this subject, and I urge you to promptly return the calls of 
inquiry that this distinguished Senator will have forthcoming.
    Senator Levin.
    Senator Levin. I would yield to Senator Reed at this time, 
if that's all right with the chair.
    Chairman Warner. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you gentlemen for being here today and for your service in many 
different capacities.
    I've had the privilege of working with Secretary Wynne, and 
I've always been impressed with his integrity and his 
dedication to the Service, and I think he brings something 
special to his role, as he suggests in his testimony, not only 
of his own personal service in the Air Force, but also that of 
his father and his brother. That makes a difference in terms of 
understanding the way the Air Force works. It also involves, in 
your role, not just management, but leadership.
    Dr. Winter, I look forward to working with you. I know you 
bring great energy to every task.
    Secretary Wynne, the BRAC process left unresolved issues 
about the re-stationing of the Air National Guard (ANG) units 
in the country. There was some controversy. Some of the 
governors felt that these were their units, and the Secretary 
of Defense thought they were his units. Can you comment upon 
your plans to deal with these unresolved issues?
    Mr. Wynne. I understand there may be some decisions that 
are subject to legal review and the judicial process, so I 
won't comment on those, but I will say that Senator McCain put 
it exactly right; the expense of the platforms that we request 
is forcing a reduction overall in the number of platforms that 
we can purchase. I think the whole issue in the ANG had to do 
with the fact that we just did not have enough future airplanes 
to go around. That does not mean that we do not need the 
efforts and the abilities of the ANG and the pilots that are 
resident within the ANG.
    It's my intention to reinvigorate the Air Force 
relationship with the ANG to try to put this behind us and in 
fact approach the redistribution on a very collegial basis 
involving those aspects of the Guard Bureau that are dedicated 
to the Air Force and making sure that it is, as in every other 
process, transparent, so we understand the emotions that are 
behind every decision.
    Senator Reed. Thank you Mr. Secretary.
    Mr. Secretary, the Air Force is committing significant 
airlift to the operations in Iraq and Afghanistan. Are these 
operations interrupting the transformation and modernization of 
the Air Force in your view?
    Mr. Wynne. No, sir. I would tell you that they underscore 
and bring a foundational element--because the operations in 
Iraq, the operations even in support of the disaster areas, 
are, in fact, pointing the way to what needs to be done, where 
we should be putting our emphasis, and, I think, has helped us 
in plotting the--I believe it's called the Air Force flight 
plan. It's an area that I intend to get into and find out: Just 
what was the feedback of our air crews and how did this assist 
us? That's the indication that I'm getting, sir.
    Senator Reed. Thank you.
    Now, Dr. Winter, one of the great challenges that you'll 
face, that we all face, is the shipbuilding numbers for the 
Navy. We're operating at a rather meager annual production rate 
of ships, and it goes to points that have been raised by 
Senator McCain about the expense of the ships and other issues.
    Can you shed some light on your thoughts about 
shipbuilding? How do we improve it? Do we need special accounts 
separate from annual budgets to keep shipbuilding rates up? How 
do we keep building ships?
    Dr. Winter. Senator, I think the first thing we need to do 
is to make sure we have a clear understanding of what the 
force-structure needs are going to be for the future and see 
what we need in terms of a shipbuilding plan that creates a 
viable mechanism of achieving those within the appropriate time 
frame.
    Second, we need to go and take a good hard look at how we 
are acquiring those ships. Again, I would emphasize the need to 
take a good, hard look at the requirements process and ensure 
that we have the right requirements--not too much, not too 
little, but the right ones--consistent with the Quadrennial 
Defense Review (QDR) and the other force-capability 
requirements that are being developed at this point in time, so 
that we are building the right capability. We will have to work 
very hard through that. That is going to have to be a matter in 
which we're going to have to take a good hard look at trades 
between qualitative and quantitative advantage and how capable 
a ship we can build versus how many ships we can afford, given 
the increase in costs with capability.
    I trust that, if confirmed, I'd be able to work with the 
Chief of Naval Operations (CNO) and members of his staff to be 
able to determine what is a viable and credible shipbuilding 
plan that will enable us to proceed within the financial 
constraints that appear to be evident.
    Senator Reed. This June, the Inspector General of the 
Marine Corps criticized a lack of heavy machine guns, the need 
for more armored vehicles and more communications equipment for 
the Marines, and then in June, before the House Armed Services 
Committee, a Marine general officer said there was a 2-month 
delay in acquiring armored kits to protect the underside of 
High-Mobility Multipurpose Wheeled Vehicles (HMMWVs). Is this 
an isolated episode or are there chronic shortages in the 
Marine Corps? Regardless, what are you going to do about them?
    Dr. Winter. Senator, if confirmed, that would be clearly 
one of my top priorities, to make sure that the men and women 
that we're putting in harm's way in the Marine Corps are 
properly equipped. That said, I am not familiar with the 
specifics of the equipment that has been provided to our 
marines that are currently deployed, and I would endeavor to 
make a personal determination of that once I was confirmed.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    For those who have just joined us, I yielded my position to 
Senator McCain, so having arrived here the first, I will now 
ask my series of questions.
    At this very moment, the President of the United States is 
addressing the Nation on what I anticipate will be the most 
important message to, not only our Nation, but the world about 
the imperative to continue this war on terrorism and to 
conclude, as quickly as we can, certain phases of that war, but 
in no way to withdraw or show a lack of courage in continuing 
it. It must be concluded. I also studied a number of worldwide 
intelligence reports early this morning, and our military 
commanders, and indeed the President, made reference to this, 
anticipate increased insurgency here on the eve of this very 
important referendum on October 15. That's to be followed by 
the elections on December 15.
    In that context, there was specific reference to increased 
improvised explosive device (IED) threats. Now, this committee 
at least once a month brings over from the DOD those 
individuals who have been tasked to work on the program so that 
every single bit of technology that this Nation has can be 
brought to bear on that insidious, but relatively simple weapon 
system and to see what we can do to protect the coalition 
forces.
    Earlier this year, Secretary England directed the 
reorganization and streamlining of the Joint IED Task Force, 
and designated the task force as the focal point for all 
efforts of the DOD to defeat these weapon systems.
    I want to urge each of you however, to be very active 
working within that taskforce framework, and to speak out if at 
any time you feel that your department should have a stronger 
or a different voice or that ideas that have worked their way 
up through your departments need to be coordinated with the 
task force. Dr. Winter, the Marine Corps has been extremely 
active in this area, and I try, as a matter of routine, to get 
down there every month or so to hear firsthand about what 
they're doing, independently. All ideas do not necessarily 
originate within structures. Do I have the assurance of both of 
you that you will put a top priority on overseeing the 
participation of your departments in this area?
    Mr. Wynne. Yes sir, you certainly have my commitment. 
Almost 1,950 brave young men and women have perished in the 
pursuit of freedom in Iraq, and we mourn every one of them. The 
IED is the most insidious form of this warfare, and anything 
that we can possibly do within our toolkit and within our 
technologies should be dedicated to that aspect.
    Chairman Warner. You mentioned those that have perished, 
and we're also mindful that there are some 14,000 who bear the 
wounds and the scars and who are being nourished and supported 
by their families all across America today.
    Mr. Wynne. Right.
    Chairman Warner. Dr. Winter.
    Dr. Winter. Yes, Mr. Chairman, I share your concern and 
clear priority for this very critical issue that we need to 
work. I would also add that I think we need to do more to 
engage the broad spectrum of technological capability that's 
available in the United States. As a member of industry right 
now, I'm disappointed to say that I'm not sure that we have 
done all that really could or should be done in this particular 
case. I will take it as a priority to see if I can motivate 
some additional effort behind this critical issue.
    Chairman Warner. If confirmed, you'll get a stump. Get up 
on your soapbox and start talking to your colleagues in 
language that they understand.
    Dr. Winter. Yes, sir.
    Chairman Warner. On the subject of unmanned aerial vehicles 
(UAVs), I'm proud of the record of this committee. We have been 
in the forefront for many years, and I remain convinced that 
we're just on the threshold of more evolution and the 
proliferation of this very important type of weapon system. 
However, I want you both to address early on how your 
respective departments are managing the escalating costs of 
these programs. Is the proper emphasis being placed on them in 
both departments? Do I have that assurance?
    Mr. Wynne. You certainly have my assurance, Senator. I'm 
proud to have joined with this committee in fostering the UAV 
programs. I'm pleased to see the ramp-up, and I think we have 
successfully introduced them throughout the Services. The Air 
Force has taken possession of----
    Chairman Warner. I make this observation somewhat in jest 
but somewhat in seriousness. You being a former Air Force 
officer, I know that every morning you get up and count the 
number of cockpits you have for pilots. Forget that. We have a 
new system out there. Let's make it work.
    Also, the use of these unmanned systems in our homeland 
defense, particularly the security of our borders. Will you 
also look at that situation and determine the extent to which 
your departments can contribute to our homeland defense by your 
own technology--UAV and other technologies?
    Dr. Winter. Yes, Mr. Chairman.
    Mr. Wynne. Yes, Mr. Chairman, we certainly will.
    Chairman Warner. All right.
    People must remember the enormity of the military 
departments in the DOD, and the resources they have, and 
particularly throughout the department, and DARPA, in which you 
proudly served, the vast array of technology at your disposal 
and the networking that you have with the private industry in 
this country. For instance, the Homeland Security Department--
I'm proud to serve on the committee that oversees that 
department--but it's just kind of getting up and getting 
started. Your department's been around for a long time, and the 
roots go deep. So utilize it to help, not only abroad but here 
at home.
    To each of you, one of the most distressing things that I, 
and I think, a number of the members of our committee have 
witnessed through the past years is the problem with the 
Service Academies. The fact is that in 1976, our Service 
Academies were integrated with women. They play a very 
important role in today's force structure. Many of them are in 
front-line situations in the far-flung areas of Afghanistan and 
Iraq. As a matter of fact, the old term ``front line'' really 
no longer exists. It's a 360-degree perimeter of risk, and they 
step forward and accept it.
    But with the academies for some reason, periodically, we 
still find problems that exist. The Air Force, unfortunately, 
has had a disproportionate number of problems recently. I tell 
you, this committee is going to be unrelenting if we continue 
to receive these reports. The Secretary of the Service, which 
you aspire to be in your respective departments, is going to be 
the one that I think I will hold primarily responsible, because 
we operate, in the DOD, under the time-tested doctrine of 
civilian control. It's not that the chiefs of Services aren't 
trying their best, but I'm forewarning you of the zero 
tolerance that we're going to have. We'll take the necessary 
steps in this committee through legislation and otherwise, to 
stop it and make this system work. Do I have that commitment 
from you, Secretary Wynne?
    Mr. Wynne. Senator, if confirmed, it's one of my highest 
priorities, especially as a former instructor at the Air Force 
Academy, to review all of the policies that are there, get to 
know all of the faculty and staff that are presently there, and 
make sure that we do not have a leadership issue. I think of 
this as a leadership issue, much as you have described it.
    Chairman Warner. Thank you.
    Dr. Winter.
    Dr. Winter. Mr. Chairman, should I be confirmed, that too 
would be a very high priority for me, one that I intend to 
execute by way of both personal engagement, visiting with the 
midshipmen, understanding what is really transpiring there, 
reviewing the quality-of-life surveys, other investigations 
that are conducted, drawing upon the Board of Visitors and the 
executive committee, and other resources that may be available 
to me. This is something we cannot fail to fix. We need to 
ensure that we have both the proper climate and set of 
behaviors within the Academy to support the needs of the Navy 
in the future.
    Chairman Warner. I would hope, subject to Senate 
confirmation, as you take your posts, that within the first 30 
days, you'll have the opportunity to visit your respective 
institutions, which are so respected by the American public. 
Each Member of Congress, every year, has literally hundreds of 
individuals that come to him in the hopes that they can get the 
few appointments that are available, and when you make that 
visit, it's ``now hear this'' and give them the message 
straightforwardly.
    Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
welcoming both of our witnesses.
    I want to raise some acquisition issues, which have been 
touched upon. I want to go back to that tanker lease program 
which finally fell apart. Under the leadership of Senator 
McCain, supported by the chairman and myself and a number of 
other members, we were able, with Senator McCain in the lead, 
to rein in that program. But there was something deeper that 
was demonstrated there, in addition to Ms. Druyan's criminal 
conduct. She was not solely or even primarily responsible for 
many of the significant problems that were demonstrated with 
that Air Force tanker lease proposal, and I want to just go 
through a few of them.
    It was not Ms. Druyan who reversed the findings of the Air 
Force's 2001 Tanker Economic Service Life Study without 
obtaining new information or undertaking a new review.
    It was not Ms. Druyan who resisted conducting a formal 
analysis of alternatives, as the Department does with other 
major programs, to determine the best approach to meeting the 
Department's tanker needs.
    It was not Ms. Druyan who failed to develop required 
system-engineering documents and testing plans, and insisted 
that requirements documents be tailored to the aircraft 
available from a specific contractor.
    It was not Ms. Druyan who insisted on pursuing a leasing 
approach, even when multiple independent reviews determined 
that leasing the aircraft would be $2 to $6 billion more 
expensive than purchasing them.
    In other words, there were some real systemic failures here 
which were demonstrated, in addition to her criminal conduct.
    Now, one of the causes of these failures--and I say ``one 
of them''--may be the reduction in the acquisition workforce. 
At a nomination hearing last fall, General Martin, head of the 
Air Force Systems Command, which is one of the Air Force's 
principal field acquisition organizations, was asked several 
questions about the Air Force acquisition organization and the 
oversight that it provides. He said that in the 1990s ``not 
only did we go through a very serious restructuring of our 
forces in drawdown, but we also went through a major 
acquisition reform that took much of the oversight and many of 
the checks and balances, out.'' He continued, ``We may have 
gone too far in the pendulum.''
    Now, Secretary Wynne, I know that you have expressed 
concerns about the extent to which we have cut back on our 
acquisition workforce and that the Air Force, in particular, 
may have created problems for itself by eliminating its system-
engineering capability. I'd like to hear from you about whether 
you will continue to put a focus on the acquisition workforce 
to ensure that the Air Force has a workforce that is adequate 
for the jobs that it must perform in addressing the oversight 
shortfalls and the deficiencies which have been identified both 
during the tanker lease expose and also through some of these 
other failures.
    Mr. Wynne. Thank you, Senator Levin.
    If confirmed, acquisition is going to be one of my areas of 
emphasis. I do think that we have had a significant roll-off in 
the area of systems engineering and frankly, specification and 
test documentation development within the context of a program 
office. I think the absence of that talent pool is one of the 
things that leads people to try to figure out how to get it 
done in the absence of that talent pool. One of my emphases is 
going to be to restore that.
    I think the diffusion and dispersion of authority, holding 
people accountable at areas closer to the actual embarkation on 
a contract action, and allowing the business plans to develop 
in a thorough and transparent manner, is also going to be an 
issue.
    So yes, sir, it is a point of interest for me, a point of 
emphasis. I would like to, for sure, see the Air Force adopt 
transparent business practices so that there's a clear 
understanding of the goods and the bads, and so that we can 
have a robust debate and come to an agreement way before we 
have, if you will, implanted advocates on one side or the 
other.
    Senator Levin. Secretary Wynne you stated in your pre-
hearing policy answers to questions that one of the most 
serious problems you face is to ``restore the Air Force to its 
premier status as the acquisition and management organization 
promoting transparency wherever appropriate.'' We welcome that 
statement. The fact that it has lost its status is significant, 
and we all have to recognize that, because of the failures 
which have been identified. But it's going to be up to you and 
your leadership to restore that status.
    I'm glad you put it that way. I'm glad that you, again 
here, have committed to undertake that heavy responsibility 
because there has been a very significant problem structurally, 
as well as with individual misbehavior in the acquisition 
failures that have been demonstrated relative to the Air Force.
    On the role of the ANG in natural disasters, are you going 
to take a look at the role that the ANG played, didn't play, or 
failed to play during Hurricane Katrina, to see whether or not 
we can improve the Air Guard's planning, communication, and 
readiness to assist civilian authorities in response to natural 
disasters?
    Mr. Wynne. Yes, Senator. If confirmed, I intend to review 
all of the feedback from our responses, not only in the 
disaster areas of Katrina and Rita but also as it applies to 
our current look at Iraq in Operation Enduring Freedom. I think 
this is the way that we can best address the ANG's performance 
and determine what needs to be done.
    I would note that the courageous men and women of the ANG 
showed up in droves when finally energized and when finally 
alerted to the problem. They're performing magnificently in the 
area of disasters to the benefit of the population of the gulf 
coast.
    Senator Levin. I saw firsthand the same thing and the 
problem wasn't the willingness or the courage of the members of 
the Guard. The problems were the communications problems----
    Mr. Wynne. Right.
    Senator Levin.--and the planning problems.
    Thank you. My time is up.
    Chairman Warner. Senator Thune is next, but I would like to 
emphasize that I have watched the Air Guard's performance here. 
Even in the early stages of the Balkan conflict, they ran that 
very successful and somewhat dangerous airlift operation into 
Sarajevo. I happened to have been one of the very first to go 
in with one of their planes one time, and it was not a risk-
free operation for those aircrews by any means.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Wynne, you obviously played a major role in 
developing the DOD recommendations for base closures and 
defending those recommendations during the BRAC hearings 
including the recommendation to close Ellsworth Air Force Base 
in my State. The Department's reasoning was questioned as to 
the reality of savings from personnel relocations, both by the 
BRAC Commission and the General Accounting Office (GAO). In the 
case of the Air Force, GAO estimated that 60 percent of the net 
annual recurring savings resulted in no end-strength reductions 
and were, therefore, illusory.
    In the GAO report on page 124, it states that the Air Force 
had initially only reported end strength reductions but then 
OSD directed it to include all military personnel positions, 
including those just relocated. Did that directive come from 
you?
    Mr. Wynne. What I did in my position was to generally 
rabble-rouse, but I believe that when we manage the closure of 
any installation, you have to include all of the affected 
assets, the most important of which is the individuals 
associated with it.
    I did not write a specific directive regarding that, but I 
will tell you that it was my intent to make sure that every 
individual was essentially accounted for and taken care of in 
the operation. Perhaps that's where it came from.
    Senator Thune. It seems to me that that decision 
dramatically undercut the credibility of the analysis and, I 
think, ultimately was one of the reasons that the BRAC 
Commission, at least in our particular circumstance, reversed 
the recommendation. The Pentagon was trying to claim savings 
that didn't exist to justify what were questionable 
recommendations.
    I wanted to get that question to you on the record, because 
it pertains to another question I have. As we go forward, if 
initiatives are undertaken by Congress, or even from within the 
Air Force, to upgrade or add missions to bases that you had 
recommended for closure, will you objectively consider the 
merit of those initiatives, or will you be predisposed to 
blocking such initiatives? In other words, can we count on you 
to support or hinder efforts that some of us may take to ensure 
our bases will not end up on the chopping block again in the 
future?
    Mr. Wynne. Sir, I'm going to look at each one with a very 
objective view and not be at all impaired by the decisions that 
the BRAC Commission made, which are a part of the past. As far 
as I'm concerned, the BRAC Commission has ruled, the President 
has submitted it to Congress, and Congress has yet to 
disapprove, but my sense is it may get approved. When it does, 
sir, I intend to follow those.
    The past is past, and anything in the future is to be 
reviewed on its own merits as objectively as it can be, as it 
contributes to the success of our mission. That's kind of the 
way I'd approach it.
    Senator Thune. Okay. I don't disagree that the past is the 
past, but I'm more concerned about the future, and I want to 
make sure that we have folks who are going to be willing to 
work with us, not against us, as we try to make sure, going 
forward, that some of these bases are in a position to survive 
a future round of closures.
    Mr. Wynne. Senator, I'm looking forward to working with you 
and being very open with you as we go.
    Senator Thune. Okay. Thank you.
    Mr. Chairman, I have another question I would like to 
submit for the record. I have somewhere I have to be, but if 
that would be okay, I ask consent to insert my question in the 
record.
    Chairman Warner. Without objection, the questions of all 
members can be submitted for the record.
    Senator Thune. All right. I'll yield back my time.
    Chairman Warner. I thank the Senator for participating here 
this morning. We now turn to Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Chairman, with your permission, prior to my questions, 
I want to show a chart here for both of the nominees.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. That does appear to be the State of 
Florida. Is that correct? [Laughter.]
    Senator Bill Nelson. Yes, sir.
    Chairman Warner. I see, and this question will relate to 
that State, is that correct? [Laughter.]
    Senator Bill Nelson. It relates directly to the ability of 
the DOD to prepare our military forces, for this is one of the 
greatest training areas in the entire U.S., the Eglin Gulf Test 
and Training Range. I don't think it's any secret, in the 
course of the BRAC round, why they decided to put the F-22 
pilot training at Tyndall Air Force Base and put the pilot 
training for the F-35 Joint Strike Fighter at Eglin Air Force 
Base. I don't think it's any secret that when the U.S. Navy 
Atlantic Fleet training in Vieques was shut down, most of that 
training has come here to northwest Florida in the form of 
integrated land, sea, and air operations at Eglin.
    What I have already called to the attention of Dr. Winter, 
and I want to call to the attention of Secretary Wynne, is that 
the Air Force owns this range, the Navy uses it, and as of last 
week, you were just about to have the whole thing taken away 
from you because the Navy has proceeded, thinking that they had 
plenty of time, to negotiate with the Minerals Management 
Service of the Department of Interior as to a line called a 
``mission management line''--``military mission line,'' beyond 
which oil drilling could not occur that would mess up all of 
your training. Right now, in this entire area, the only oil 
drilling is that crosshatched area that has been leased. All of 
this red area, including the crosshatch, is an area called 
Lease Sale 181 that is not protected by the moratorium on the 
outer continental shelf. This 6 million acres is what the 
Department of Interior is absolutely intent on drilling. Now 
that's going to come at direct cross-purposes with your 
military training and for the military preparedness that you 
have to have.
    Right now the line that you're negotiating with the 
Minerals Management Service, of which you thought you had 
several years to complete, is a line that approximately comes 
along there, and everything east of that would be no drilling, 
but all of this area, you would give up. So, everything west of 
that line, you're going to have to give up. With the expanded 
airspace that you need, for example, on training on the F-22, 
with the expanded airspace that you need for some of the 
sophisticated weapons, including stealth cruise missions and 
longer-range cruise missions that you all will be targeting at 
targets out here as you test and train. You'd better get 
moving, or else you're going to lose it.
    Now, the two Senators from Florida, Senator Martinez and 
myself, are trying to protect you, but we need some help, or 
else you're going to find that you're going to have oil rigs 
all over this thing because, just yesterday, in all of the 
newspapers in Florida, the Governor of Florida came out and 
said he would be willing to have no drilling within 125 miles 
of Florida. That, right there, is 125 miles. That means that 
that line would go like this, and you would lose--everything, 
from there back, would be drilled.
    I need the DOD, for the sake of the preparedness of our 
military, to get with it and start registering some vocal 
opposition. Otherwise, they're coming at us on the 
reconciliation bill, which I can't filibuster. It's a budget 
bill and, by law, you can't filibuster it. They have all the 
oil interests allied with the Secretary of the Interior, Gale 
Norton, and it's going to be a done deal this fall unless you 
all will start registering your objection. I know you do, 
because all the four-stars I've talked to say, ``My Lord, that 
would be the worst thing in the world. We'd virtually lose this 
as a training area.''
    So, what do you all think about that? [Laughter.]
    Secretary Wynne and Dr. Winter.
    Mr. Wynne. Senator, I'd first state that you are certainly 
more versed in the area than I am, and I know that your heart 
is behind working with the military to ensure that we have the 
best of training. If confirmed, I intend to look right into it, 
and even in my present position will certainly register to the 
Department your alarm in this regard.
    Senator Bill Nelson. I don't want you to register my alarm. 
I want you to register the alarm of the professional uniformed 
military, who will tell you that in private, but it's hard for 
me to get them to step up and say it publicly. We need the 
civilian leadership to step up and say that it's time that we 
not let this be taken away from it. If you don't, what's going 
to happen is, this fall, it's going to be taken away from you, 
up to 125 miles off the shore. That takes a huge part--three-
quarters of your training area--that eliminates it--where you 
will have oil rigs.
    What do you think, Dr. Winter?
    Dr. Winter. Senator, I appreciate your bringing this to my 
attention. This clearly is something that needs to be worked, 
and worked in a very expeditious manner. If confirmed, I commit 
to you that I will go and do whatever is necessary to get this 
resolved within the Department of the Navy, in terms of what 
the requirements are, and to make sure that those are properly 
voiced.
    Senator Bill Nelson. Mr. Chairman, then I think we need to 
confirm these two and let 'em go to work. [Laughter.]
    Chairman Warner. Senator--and I don't mean to be totally 
facetious--our Nation is faced with an extraordinary problem 
with regard to the resources from which we can extract our 
energy. That has been an area which has greatly contributed to 
the degree we have of any energy security today. I have to 
believe that minds that are well trained on this subject and 
have a sense of objectivity are trying to balance the needs of 
our energy requirements against any degradation in training by 
virtue of whatever proposal may be going forward.
    I think it was important that you brought it up, and it's 
been a tutorial. Both Senator Levin and I sat here and listened 
very carefully, and----
    Senator Bill Nelson. I love your leadership, Mr. Chairman, 
and I know you always do the right thing. The fact is that I 
think the DOD--perhaps not purposely, but because of oversight 
with so much other stuff going on--does not realize the 
rapidity with which this freight train is starting to move out 
of the station. I don't want the DOD to suddenly get 
confronted, because I think the Department has been under the 
assumption that the normal negotiation would go on with the 
Department of Interior Minerals Management Service and that 
they felt like that they had 2 or 3 years.
    I have gleaned this from, for example, Secretary Grone, the 
assistant secretary, who has responsibility in the DOD. What I 
am bringing to your and Senator Levin's attention is that, 
because of this sudden rush to drill in the wake of Katrina, 
that every decision is a tradeoff, and so we have to measure 
what we are giving up against what we are going to get.
    The truth is the geology shows that the oil is where the 
4,000 rigs are now, in the central and the western gulf, not in 
the eastern Gulf, which is off the State of Florida. 
Nevertheless, there apparently are some reserves of gas there. 
The question is, what is the tradeoff for the interest of the 
United States?
    Chairman Warner. I thank the Senator. I don't have any 
specific knowledge about this. I will say that I do know that 
you, together with Senator Martinez, are two of the most 
effective of the group here and that you will not let this go. 
You'll sleep with one eye open and watch it, and let's hope 
it's resolved.
    I must say that I introduced a bill this week--reintroduced 
a measure that would allow Governors and State legislatures to 
make a determination of the ability or desirability to drill 
offshore of their respective States. It was introduced in hopes 
that we can begin to broaden our base from which we draw, here 
in the continental limits of the United States, the energy that 
this country, in ever-increasing requirements, needs.
    Thank you Senator.
    Senator Levin. Mr. Chairman, I wonder if you would just 
yield for one additional question. I want to also thank Senator 
Nelson for bringing this to our attention, because we have not 
had this issue presented to us before. We have lots of issues 
about training grounds and impacts on those training grounds 
from certain laws, but this is the first time, I believe, this 
particular training area and its connection to energy, as you 
have so eloquently pointed out, has been brought to our 
attention.
    I think we should ask a question of the Department, if this 
would be helpful, even before these two are confirmed, because 
you never know how long that will take. Sometimes there are 
delays that take place, unexpectedly or otherwise. I'm 
wondering if it would be helpful if we sent a question to the 
DOD asking them whether or not they are aware of the fact that 
there is this possibility afoot, and whether or not they are 
going to take a position which preserves that area for the 
training that you have outlined, but just as a matter of 
inquiry. Would that be helpful to your position?
    Senator Bill Nelson. It certainly would, Senator.
    Senator Levin. I wonder, Mr. Chairman, if we can at least 
make an inquiry of the Department as to whether or not they are 
aware of this issue and what their position is on it. Are they 
aware of the apparent timetable for a resolution? Just pure 
inquiry.
    Chairman Warner. What I would suggest is we take a 
transcript of today's record, and forward it to the Department.
    Senator Bill Nelson. This, Mr. Chairman, will be a follow-
up, because when we had, last week, General Abizaid and General 
Casey and Secretary Rumsfeld, I brought it up to Secretary 
Rumsfeld when it came time for me to question the generals.
    Chairman Warner. I thank you.
    Senator Bill Nelson. Thank you.
    Chairman Warner. Thank you very much.
    Colleagues, we now shift to this side. I think Senator 
Talent is our next questioner. Thank you.
    Senator Talent. Mr. Chairman, I think the Senator from 
Georgia needs to leave, and I'm happy to defer to his place in 
line.
    Chairman Warner. I appreciate that senatorial courtesy.
    The distinguished Senator from the State of Georgia?
    Senator Chambliss. Thank you, Mr. Chairman. I thank my 
friend from Missouri.
    Let me thank you gentlemen, both, Secretary Wynne, to you 
for your willingness to continue to serve your country in such 
a public way, and Dr. Winter, for being willing to come out of 
the private sector to serve your country in this very public 
way. I notice, on Senator Nelson's chart over there, that among 
other training areas, he had the Townsend range noted, and the 
other range off of Georgia. I will commit to you that we will 
allow those folks from Eglin and from Pensacola to fly over and 
train on our base, as long as you stop at Robins or at Moody 
and spend the night occasionally and spend some money over 
there. [Laughter.]
    Secretary Wynne, we have had a conversation about what I 
know Senator McCain talked to you about. Senator Levin 
mentioned, and I too noticed, your comment that you want to 
``restore the Air Force to its premier status as an acquisition 
management organization promoting transparency wherever 
appropriate.'' You and I talked about this and about the fact 
that we have to get this acquisition process under better 
control than we have it now. I would just say to both of you, 
because--Dr. Winter, you and I have talked about this also, 
when you came by my office--that we're at the crossroads of 
where we knew that road wreck was going to occur, relative to 
acquisition and procurement. The funding for the purchase of 
ships and aircraft, particularly tactical air (TACAIR), is 
critical right now. We have to make some major changes that may 
not get us past the short-term problems that we have, but, 
certainly from a long-term standpoint, we have to address this 
issue.
    What I would hope both of you would do would be to come 
forward with some proposals regarding acquisition reform in the 
short term. Secretary Wynne, you have had a lot of experience 
in this area. You know the system, and you know the pitfalls 
that we have. I think between recommendations that you might 
have and work that we're going to do under the leadership of 
Senator McCain on this side, that hopefully we can come up with 
some recommended changes that we move on with.
    Dr. Winter, the one thing that I would like to ask you 
about is shipbuilding. We have about 50 percent fewer ships now 
than we had about 15 to 20 years ago, and the Navy has come to 
us, in the last two budget cycles, and recommended a downsizing 
of the force structure. In preparation for this hearing and in 
your conversations relative to your nomination, have you 
discussed with folks inside the Navy whether or not that trend 
is going to continue? Is there any thought process in the Navy 
that we're going to see any ramping up as we have been seeing 
in the Army and the Marine Corps?
    Dr. Winter. Senator, I've had the opportunity to have some 
preliminary conversations with the CNO and others within the 
Department on this topic. I think that there's a lot of hope 
here that once we get through the QDR process and see what the 
projected requirements are for force structure in the out 
years, we'll have a better understanding of not only the total 
numbers, but also the mix of ships that we'll need to be able 
to support the future needs of the Navy.
    I am hopeful that we will be able to structure a 
shipbuilding program that is responsive to those needs, 
responsive to the fiscal constraints that we're dealing with, 
and responsive to the objectives of maintaining a viable 
infrastructure out there to be able to support the future 
shipbuilding needs of the Navy.
    Senator Chambliss. It's pretty obvious as we look at 
potential adversaries down the road, that there are some of 
those folks who think that naval warfare is going to be 
critically important in the future. It's not just going to be 
the terrorist activity that we're seeing now. So I think if 
we're going to remain the world's strongest and greatest 
military and be prepared for whatever adversary we might see 
down the road, I think we're going to have to take a hard look 
at whether or not we need to start increasing, rather than 
downsizing the number of ships that we have.
    Dr. Winter. Yes, Senator, I share that concern.
    Senator Chambliss. I thank both of you for your willingness 
to serve, and we look forward to your confirmation and to 
working with you.
    Mr. Wynne. Thank you, Senator.
    Dr. Winter. Thank you, Senator.
    Chairman Warner. Thank you very much, Senator.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I thank both of the nominees for their willingness to 
serve, and also, I missed the introduction, but I understand 
that you have family members here who are also part of that 
Service, and also a distinguished history of family commitment 
to the military and our country. I respect that and appreciate 
it.
    I want to thank you, Mr. Wynne, for visiting with me and 
going over a number of issues that I was concerned about. As we 
discussed yesterday, the Air Force Research Laboratory, in 
Rome, New York, is a world leader in the development of 
revolutionary cybersecurity technologies. I think that 
cybersecurity will be one of the most important issues we deal 
with in the years to come. You pick up the newspaper and you 
see where hackers can get in and bring down cell phone 
networks. How we're going to have interoperable communications 
if we can't secure those communications, from first-responders 
to warfighters, is one of the biggest challenges we confront.
    I would like to renew my invitation, as I did with your 
predecessor, to come up to the Air Force lab--Dr. Winter, we'd 
love to have you, as well--to review the work that's being 
done.
    Mr. Wynne, do you have any ideas, at this point, as to the 
investments that the Air Force should be making in science and 
technology to develop new cybersecurity capabilities and the 
coordination that will need to occur between homeland security 
and national defense as we pursue that cybersecurity agenda?
    Mr. Wynne. Senator, I will tell you that it is one of my 
major concerns, as we become more and more of a net-centric 
operation, that we put an emphasis on cybersecurity, because it 
is perhaps a point of vulnerability. I haven't looked into it 
to ascertain that. In fact, one of the things that I intend to 
do, if confirmed, is to go up to Rome, New York, where I 
understand there are some great people who are very concerned 
about this, and invite them to inform me to how we can make it 
better.
    As to the responsiveness between the first-responders and 
the military, and perhaps the ANG, I think there is an issue 
that we need to address. Somehow we have to make sure that, as 
we arrive at the cusp of a disaster, or develop a partnership, 
even on a test, we need to make sure that we can communicate 
with each other. I think it was vital, frankly, to the final 
response, after Hurricane Rita and after Hurricane Katrina, 
that the first-responders could, in fact, talk to the military 
providers as to where to go, where to drop food, where to drop 
a thing, rather than just showing up and starting to ask 
questions.
    Senator Clinton. I will look forward to hosting you at Rome 
Labs and I think that you will be both impressed and provoked 
to look into this further.
    I understand that others before me have discussed some of 
the problems that were expressed by members of the BRAC 
Commission, as well as Members of Congress, about the treatment 
of the ANG and the Air Force Reserves by the DOD in their BRAC 
Commission recommendations. I think the changes that were made 
by the BRAC Commission reflect some very serious analysis about 
how better to balance our Air Guard, Reserve, and Active-Duty 
air assets. I know that there is a limitation on what you can 
address at this point, not having either been confirmed and 
knowing that there is ongoing litigation in some of the States. 
In particular, though one of the recommendations that was made 
by the BRAC Commission was specifically directed at the Niagara 
Falls Air Reserves Station, which survived the recommendation 
of closure because of the extraordinary service that the 914th 
Airlift Wing and the 107th Aerial Refueling Wing have provided 
and, in particular, provided with respect to our actions in 
Iraq.
    I recently invited General Moseley to visit Niagara Falls, 
and I'd like to extend that same invitation to you, as well. In 
fact, when the BRAC Commissioners visited Niagara Falls, I 
think they publicly said, as well as in private conversations--
made clear that actually seeing the strategic location of 
Niagara Falls was instrumental in their determination to 
recommend that it remain open and reverse the closure 
recommendation.
    The Commission recommended the establishment of a 
continuous enclave for the 107th sufficient to support 
operation of that unit, including flight operations, and that 
Guard personnel will be provided the training necessary to 
support the airlift mission.
    If confirmed, Mr. Wynne, will you support the BRAC 
Commission recommendations and ensure that adequate resources 
are provided to create an ANG/Air Force Reserve wing with the 
914th Airlift Wing, and that the training necessary will be 
provided to Guard personnel?
    Mr. Wynne. I note that the DOD recommendations were, in 
fact, carefully considered by the Commission. The Commission, 
in fact, ruled, the President certified and approved that 
money, and it sits here with Congress. It is my intention to 
implement the BRAC Commission's recommendations as they are 
written, and I hope to extract, if you will, the maximum 
mission efficiency from the ANG.
    We have a whole future total force that, I think, 
encompasses the active, the Reserve, and the Guard. They will 
be a part of us for a very long time, and we look forward to 
their bravery and their service.
    Senator Clinton. Thank you very much, Mr. Wynne.
    I'm aware that before I arrived, the chairman and others 
raised the continuing concerns about sexual harassment, sexual 
assaults, and proselytizing by students and faculty at the Air 
Force Academy. I know that the Air Force Academy Board of 
Visitors is in Washington today, and will be discussing these 
issues. Mr. Wynne, we really look to you to finally give us the 
reassurance and a plan that will offer strong support for the 
changes that are necessary at the Academy. It has been a 
painful experience obviously.
    The other academies are not in any way exempt from these 
concerns. I know that Dr. Winter is well aware of that. I've 
discussed this with respect to West Point. As we utilize the 
talents in an All-Volunteer Force of men and women willing and 
eager to serve, we have to, by word and action, by policy and 
practice, make it absolutely clear that sexual discrimination, 
harassment, and assault are unacceptable and will be punished, 
and it will go up the chain of command so that anyone who 
either directly or indirectly condones or turns a blind eye 
will be held accountable. I will look to both of you for that 
reassurance, because we've studied it, we've had reports on it, 
and we clearly have to make it absolutely a policy.
    With respect to the proselytizing issue, I think one of the 
strengths that we have as we promote democracy and freedom 
around the world is our openness, our tolerance, and our 
respect for freedom to believe, or not to believe. That has 
been a cornerstone of American constitutional history and 
interpretation and particularly now, as we deal with countries 
that are riven by religious rivalry and conflict, more than 
ever we have to send a clear message that in our country and in 
our military, which represents us so magnificently around the 
world, there is no room for anyone to inflict or to proselytize 
their particular brand of religion. We can respect and tolerate 
each other's beliefs, but there is no room for imposition of 
those beliefs in any form whatsoever. Again, we will look to 
you and the other Service Secretaries and the civilian 
leadership at the DOD to make that the clear policy of our 
Nation.
    Do I have both of your commitment to work on these two very 
critical and sensitive issues?
    Mr. Wynne.
    Mr. Wynne. You certainly do, Senator. If confirmed, that's 
going to be high on my list.
    Senator Clinton. Thank you.
    Dr. Winter.
    Dr. Winter. Senator, you have my assurances and commitment 
that, if confirmed, I will make that a high priority.
    Senator Clinton. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. I would like to associate myself with the 
remarks of our distinguished colleague from New York. I did 
raise this issue, but she has added a new dimension.
    I would like to ask you, Secretary Wynne, to provide for 
the committee, the record of this proceeding, such actions or 
deliberations as this board of the Air Force Academy may take 
here in its meeting in Washington. We would like to know how 
they're looking at this situation. I presume that the minutes 
of that meeting can be available and, if they are to be treated 
in a manner of confidentiality. The committee will so accord 
that a confidentiality, but let's have a copy of it.
    [The information referred to is retained in committee 
files.]
    Mr. Wynne. Senator, I'll certainly take that back and alert 
them of your desires.
    Senator Levin. Mr. Chairman, if I could take 30 seconds 
from my colleagues, let me add my comment to yours relative to 
the remarks of Senator Clinton. I also want to strongly 
associate myself with them. I would hope that our nominees 
would take that back to the board--in your case, Secretary 
Wynne, I believe--but also that we would expect all of our 
Service Secretaries to understand that what you just heard was, 
I believe, not only the views of those who have spoken out in 
association with those views, but my hunch is every member of 
this committee would concur with what you have just heard. We 
can't speak for everybody, technically, but I think it does 
reflect, very strongly, the sympathies and beliefs of every 
member of this committee. So please take these as seriously as 
you can for all of us.
    Chairman Warner. Thank you very much, Senator Levin.
    Senator Talent, I'm anxious to hear about your thoughts on 
shipbuilding, and I will follow it in my second round.
    Senator Talent. I appreciate that Mr. Chairman, in view of 
what was said.
    Chairman Warner. I commend you for the leadership that 
you've shown on the issue of shipbuilding.
    Senator Talent. Why, Mr. Chairman, thank you so much. I 
appreciate it.
    Chairman Warner. I'm just not certain how we're going to 
get certain dockage rights in your State, given it's 
landlocked. [Laughter.]
    Senator Talent. Yes, I know. [Laughter.]
    Chairman Warner. I don't want any cruisers being stationed 
out there now. [Laughter.]
    Senator Talent. You bring them up the river, once we get 
the river clear, Mr. Chairman.
    Chairman Warner. Yes, I'm not sure about that, thank you.
    Senator Talent. In view of what was just said regarding 
proselytizing, I should add a comment. Of course we have to 
guard against imposition or coercion of views. At the same 
time, we have to have an environment where, in appropriate ways 
and in recreational times, people are free to exercise their 
religion and cadets are free to discuss those kinds of things. 
I know that's the balance. I trust that's the balance that you 
all are aiming at, and I think that's what everybody in the 
committee wants. The balance hasn't always been respected, and 
it needs to be.
    Dr. Winter, let me bring up the subject of shipbuilding 
with you. I'm going to express my concern, as the Senator from 
Georgia did and as the chairman has. I want to be even stronger 
in expressing that concern.
    I'm deeply concerned about the direction we're going 
regarding force structure. I'm wondering whether it is 
imperiling the security of the country. I want you to consider 
that very strongly, because if the Senate confirms you, you're 
going to walk right into the middle of this.
    The last QDR recommended 310 ships--the last official thing 
the CNO, and I'm talking about Admiral Clark, said was 375 
ships. He subsequently talked about 260 to 325. He never showed 
a lot of real confidence in 260, and I can understand why. At 
260, we have 67 cruisers, destroyers, and frigates, when 
officially Congress has set the figure at 116. It isn't just 
numbers. A lot of those numbers are made up of littoral combat 
vessels, and I like that innovation, but not as a general 
substitute for other surface combatants. I think, in addition, 
as a way of fighting the war on terror, yes. Perhaps we can 
find some overlap and some substitution, but not a wholesale 
substitution for surface combatants.
    The trend is going down. We've gone from intending to 
procure 30 to 32 DD(X) to 24; now, only 8 to 9 in the Future 
Years Defense Plan (FYDP). I mean, that is not serious, if 
we're talking about maintaining surface-combatant strength. 
Every submarine analysis I've seen says we need between 55 and 
76. We look intent on reducing the number from 55 to 45. We 
have to keep in mind the Navy's informal rule of three, which 
you're familiar with. We only use one out of three of these 
ships, basically, at any given time.
    China is taking delivery of 11 submarines in 2005. They 
should be able to deploy a fleet of 50 or more by 2010, more 
than we will have. They are ahead of schedule in building their 
naval strength.
    I've heard a lot about fiscal constraint and the need to 
make dollars go further, and I certainly agree we have to make 
dollars go further, but I do not want that, and the belief that 
we can make dollars go further, to be an excuse for not 
appropriating what we have to appropriate to get the ships that 
we need. I'm concerned that we're going from a legitimate 
concern about acquisition and acquisition reform--I completely 
share that--to using that as an excuse for not confronting the 
need for an adequate New Ship Construction budget. We're 
talking about the security of the United States.
    Mr. Chairman, to put it on as cold and as low a level as 
possible, if we're worried about constraints, okay. To the 
extent that we imperil the security of the United States or 
risk a war that we don't need to have, or of losing a war that 
we do need to have, it's going to be very bad for the budget. A 
whole lot worse for the budget than spending the amounts that 
we need now to get the Navy that we need.
    I think the next Secretary of the Navy needs to be an 
advocate for this within the building. I think you're going to 
have an historic responsibility. I know it's tough for anybody 
to have to stand up to that, but that's what I believe, and I 
want to see if that's what you believe. I want to take a 
measure of your passion on this point. I expect you to work 
within the system, and I understand that, and I know you 
haven't studied all of this, but I don't know how much study 
you need to reach the conclusion that we have some cause for 
concern.
    So let me stop my comments and let you offer yours on this 
subject.
    Dr. Winter. Senator, I appreciate your comments, and I will 
tell you that I share your great concern over this issue. I 
think that, of all the issues that I have been faced with as I 
have gone through the last several weeks of preparation for 
this hearing, it has become evident that the shipbuilding 
program and the limitations that you so aptly described are 
clearly the ultimate and most important issue that we have 
confronting the Navy at this point in time.
    I'm similarly very concerned about what I see out there in 
the offing. You alluded to the issues with China's shipbuilding 
program. I'm concerned both about the relative numbers and the 
potential capabilities, as well as the total number of 
submarines that are potentially going to be in evidence in the 
Pacific in the near future.
    I am concerned about the totality of our ability to deal 
with that threat, which relates to the total elements of our 
Antisubmarine Warfare (ASW) program, a significant fraction of 
which is associated with our own submarines. That is clearly 
going to have to be one of my most important priorities.
    I have already started talking to the CNO about how we're 
going to be able to establish a viable shipbuilding program 
which will identify a specific and credible number, a number 
that really does provide for the force structure that we expect 
and need.
    I recognize there are uncertainties, and I recognize that 
we have to be able to guard against some of those 
uncertainties. We may or may not understand the intent of some 
nations, but we have to guard against what that intent might 
devolve to, because, quite frankly, I am not all that confident 
that, these days, we can predict where many of these nations 
are right now, or where they are going, or where they may be 
several years from now.
    I want you to know I am also very concerned that, 
particularly in the shipbuilding industry, our ability to 
respond to surge needs is, unfortunately, very limited. We 
cannot go back to the days of the Liberty ships and just turn 
out ships very rapidly when a threat evolves or a situation 
changes. We are going to have to be proper stewards of the 
shipbuilding program and of the fleet to make sure that we have 
the adequate resources available in a timely manner to deal 
with these uncertainties, and this difficulty, if you will, of 
understanding where we may be 5 years, 10 years, and 20 years 
downstream.
    My concern, sir, is recognizing the balance that we have 
between dealing with the global war on terrorism and providing 
the long-term stewardship. If confirmed, sir, my objective is 
to leave a Navy after my tenure that I will be proud of, and 
that my children will be proud of, that my grandchildren will 
be proud of.
    Senator Talent. There is a point at which we must accept a 
certain number--I'm talking about budgetary, an end number--as 
reflective of the world in which we have to live, and then 
choose among, within that number, priorities that are vital, 
each of them, to the security of the United States. We're going 
to have to confront that. This is not something that 
acquisition reform is going to make go away. I feel it's 
important for me to raise that, in part, because the chairman 
is quite correct. I don't have in Missouri a parochial interest 
in this. We don't build them, we don't dock them there. We have 
interests in defense, which I have been proud to uphold. I have 
an interest, as an American. I don't think China is necessarily 
going to be our enemy, but I think that she and the rest of the 
world are watching what we do and drawing conclusions about our 
commitment.
    Now is the time, Dr. Winter, for all of us, a time that I 
think will be viewed in an historical context. I do appreciate 
your answer. I think it shows a recognition of this, and I'm 
going to continue pursuing this, as the chairman knows.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    I will address the issue in a subsequent question, but I 
have always said, Dr. Winter, that I believe it's so serious, 
that this matter has to be lifted out of the ordinary Program 
Objective Memorandum (POM) budget process. The President of the 
United States has to make a decision under the Constitution 
that the phrase ``maintain the Navy'' requires him, as 
Commander in Chief, to direct the Office of Management and 
Budget (OMB) to allocate a certain amount of funding, separate 
from the other military departments and their budgets, for the 
purpose of shipbuilding. I intend to pursue, relentlessly, that 
course of action.
    I say to colleagues we have a situation on the floor of the 
Senate with an amendment coming up relating to a very important 
defense issue. I must leave to go over and speak against this 
amendment. The vote was to have been at 12 noon. So I ask my 
distinguished colleagues on the right to continue the hearing 
until I can get back. Should the vote occur, as it is now 
scheduled at 12:00, then I would establish a short recess 
period within which members can do their voting and return.
    I thank you.
    Senator Sessions [presiding]. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Secretary Wynne, Dr. Winter, thank you. I've had the 
opportunity to speak to both of you, and I thank you for your 
commitment to our Nation's security. You both bring, I think, 
extraordinary capabilities to these assignments.
    I'm going to be real brief because Senator Chambliss and 
then Senator Talent really got to the nub of what I was 
concerned about. I know there have been questions to you 
already this morning, Secretary Wynne, about the acquisition 
process. We talked about it in private. It's a real priority 
concern for our committee and our country.
    Dr. Winter, I would say simply that I share all the 
concerns you've heard about the shipbuilding program. I heard 
your answer to Senator Chambliss, that these matters would be 
considered in the QDR. That program, that review, was 
established by this committee for a look 4 years back, but most 
of all forward, and I would say to you, as you probably know, 
that the 2001 QDR, the last one, had the Navy at a 310-ship 
requirement. By my estimate, we're already 22 ships below that, 
or about that and, as far as I can tell, for the last 3 years 
there's not really been an officially approved, unambiguous 
plan for the future size and structure of the Navy. It's hard 
to resist the old Yogi Berra quote, this one being, ``If you 
don't know where you're going, you might wind up someplace 
else.'' That is the fear that you're hearing expressed here.
    I would only add to what my colleagues have said that in 
this process there really is a need, internally, inside the 
building, inside the Pentagon, for the Secretary of the Navy, 
and hopefully the CNO, to be advocates for the needs of the 
Navy in terms of national security. Otherwise, this will be a 
process, not for reasons that are evil, but for reasons that 
are organizational and understandable, to crunch the numbers, 
to sort of modify the statement of need to fit what somebody's 
prediction of budget availability is and, in the end, our 
Nation will suffer from that.
    I suppose what I'm really doing is urging you to be an 
advocate in that QDR process. Will you do that?
    Dr. Winter. Senator, if confirmed, to the extent that the 
QDR process is still ongoing--and I think some of it is going 
to be completed here fairly shortly--you have my assurance that 
I will engage in a very direct and forceful manner.
    Senator Lieberman. I appreciate it. This gives us another 
reason--I think it was quite clever of you--to confirm you 
quickly, so you can get into the process.
    A final word. I must contrast myself with Senator Talent 
because Connecticut is on the water, we do homeport submarines, 
and we do build submarines, and, as such, we have a real 
interest in submarines.
    I identify myself with everything he said, and you said, 
about the very active submarine-building programs that are 
going on in other countries and particularly China.
    Look, we're working real hard, the administration is, and a 
lot of us here in Congress, to make sure that our relationship 
with China develops in a peaceful way. But there are points of 
conflict--most obviously, Taiwan and the Taiwan Straits, but 
also in a growing international competition for sources of 
energy. Unfortunately, history teaches us that sometimes such 
competition for natural resources ends in military conflict. 
None of us want it. We're all going to work hard to avoid it, 
but we're falling behind in submarine construction.
    There have been, by my count, 14 studies of the U.S. 
submarine force done in recent years, estimating need. Twelve 
of those showed a need of a force from 55 to 75 attack 
submarines. We have now about 54 or 55 I believe. There was one 
that came out earlier this year, I guess, that has us down to 
37 or 41 subs that was not broadly accepted. I think it was 
influenced by budget numbers. The last one is the ongoing QDR, 
so we don't know what it will conclude.
    In this regard, if we don't--we're now building one attack 
submarine a year--if we keep up at that pace, we're not going 
to hold to the 54 or 55 that most of the experts recommend and 
I believe is right. In the foreseeable future, we'll end up at 
30. In that regard, I was very pleased to see that the new CNO, 
Admiral Mullen, said awhile ago that he believed we should get 
to the current rate of two per year of attack submarines. But 
the current budget doesn't provide for two subs per year until 
2012. I wonder if you have any thoughts on that need and that 
conundrum.
    Dr. Winter. Senator, I understand the conundrum. I think 
that what I am going to have to do, if confirmed, is to work 
with the CNO not only to understand what the long-term 
objective is going to be, in terms of providing an adequate 
number of attack submarines to deal with the possible future 
threats, but also what the interim numbers are going to wind up 
being, and to see what is the maximum level of regret, if you 
will, that we can tolerate within that time period, when it 
will occur, and how we can deal with those types of issues to 
mitigate that aspect. I do not think that that's going to be an 
easy solution, but I am committed to working that in a very 
direct manner, sir.
    Senator Lieberman. Okay. Thank you. I'll be looking forward 
to working with you on that and other matters.
    Thanks, Mr. Chairman.
    Senator Sessions. Thank you, Senator Lieberman.
    Now Senator Collins of Maine.
    Senator Collins. Thank you very much, Mr. Chairman.
    Dr. Winter, I'm encouraged by what I've heard you say here 
today about the need to have an adequate shipbuilding budget, 
as well as by the private discussion that we had in my office. 
I just want to follow up on a few issues, for the record, and 
again, I want to second everything that the chairman of the 
Seapower Subcommittee said to you about the numbers. I remember 
a wise admiral once telling me that quantity has a quality all 
of its own. A lot of times we hear from the Department that 
because the ships that we're building nowadays are more 
capable, that that somehow compensates for having a far smaller 
fleet. Oviously, to some extent, increased capability does help 
offset a declining quantity, but only to an extent. You still 
need to project presence; you still need to be able to handle a 
variety of threats, and I believe that our shipbuilding budget 
is woefully inadequate to the threats that we're facing, 
particularly in light of the Chinese buildup.
    Another issue which I want to discuss with you today, since 
you have really already responded to the concern about numbers, 
is the instability in the shipbuilding budget. That has been a 
major cost-driver, and it is not the fault of the shipbuilders 
that there has been such instability in the shipbuilding 
budget.
    A good example of that instability has been the DD(X) 
program. Initially, the Pentagon planned to build DD(X)s over 7 
years. To meet OMB budget constraints, the Department slashed 
the funding and now proposes to build only five DD(X)s over 7 
years, even though the former CNO says that the requirements 
have not changed and, in fact, that the requirements dictate 
the need for 12 DD(X)s.
    It's not surprising, when you have such peaks and valleys 
in the shipbuilding budget, that you create instability in the 
workforce, you make it extremely difficult for the 
manufacturers to plan, and also jeopardize the retention of a 
skilled workforce that cannot be reestablished overnight.
    What are your thoughts on the need to have more 
predictability and more stability in our shipbuilding budget?
    Dr. Winter. Senator, I think there are two aspects that I 
would want to address relative to the stability requirement, 
one of which has to do with motivating the corporations to make 
the continuing capital investments necessary to maintain those 
facilities. They need to be able to see the future sales 
potential associated with those facilities and the potential 
impact of the investments that they might make, but also they 
need to make sure that we both are able to attract and retain 
the people that really make the difference. One of the things 
that's become very evident to me in my years of working in the 
industry is that, even though many of these functions seem to 
be very capital-intensive, with a very large and expensive 
capital plant, the real difference is made by the employees, 
the people who come in every day, who touch the hardware, who 
actually control the equipment, who make these critical and 
fabulous machines that are critical to our national defense.
    If we do not maintain the workforce in a trained and 
experienced manner, we are likely to have many problems in the 
future, whether that has to do with increased costs or 
decreased quality or just simply increases in accidents. 
Unfortunately, I've seen all of those in my experience on the 
industrial side, and I think, quite frankly, one of the things 
that does the best, in terms of motivating a workforce, is the 
assurance that they will, in fact, see future employment 
possibilities.
    So to the extent that we can, to the extent that it's 
consistent with the overall acquisition process, the better the 
visibility we can give the workforce, in terms of what the 
future has in store for them, I think, the better we will all 
be served.
    Senator Collins. That is such an important point because 
this workforce cannot be reconstituted overnight. The skilled 
shipbuilders, the draftsmen, the planners, the engineers have a 
lot of other options available to them, because they are so 
highly skilled. I really worry that when you combine the 
declining number of ships that we're building, the instability, 
the lack of predictability, that we jeopardize that skilled 
industrial base, and that we do so at great jeopardy to our 
national security.
    I appreciate very much the fact that you've had personal 
experience on the industrial side. You've seen what happens 
when you do jeopardize that workforce. It takes years for 
someone to develop the skills that are needed in shipbuilding. 
It's not easily transferrable, and that is an issue that I 
think we neglect at our peril.
    A similar and related issue has to do with maintaining two 
skilled shipyards to build our surface combatants. During the 
past year, the Navy advanced what I felt was a very ill-advised 
strategy for building the DD(X) that would have resulted, most 
likely, in the loss of one shipyard, had it been pursued. It 
was blocked by Congress, and I think and hope that the Navy, 
having seen the impact of Hurricane Katrina on Ingalls 
Shipyard, has now rethought the wisdom of pursuing a winner-
take-all one-shipyard strategy.
    When I was talking about the downsides of having a winner-
take-all strategy, I always pointed to the possibility of a 
natural disaster or a terrorist attack on one of our shipyards, 
and it's sad that that has come to pass. I know that we all 
wish Ingalls well. We're eager to see the shipyard up and fully 
running again, but we've seen what can happen when a shipyard 
can be disabled, whether it's by a hurricane, as it was in this 
case, or a terrorist attack.
    I hope you will commit to working with me and the many 
other Members of Congress who share this concern, to make sure 
that the Navy does not put all of its eggs in one basket. It is 
dangerous, both in terms of reducing competition in the 
industry, and also our ability to respond to a surge need in 
the future, for us to jeopardize the competition, limited 
though it is, that exists in our industrial base.
    Dr. Winter. Yes, Senator, I think you very aptly 
characterized a number of factors that all have to be 
considered in terms of the long-term industrial strategy for 
the Department and those are elements that I will be looking at 
very carefully, should I be confirmed.
    Senator Collins. Thank you very much. I very much look 
forward to working with you, and I want to thank both you and 
Secretary Wynne for your willingness to take on these very 
important new positions.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you, Senator Collins, and thank you 
for your leadership on shipbuilding and all the issues before 
this committee.
    Mr. Wynne and Dr. Winter, thank you for your appearance. 
Both of you have extensive experience and achievements in both 
government and industry. If confirmed, you will be running two 
of the large departments vital to our Nation's defense. Very 
large departments. In the midst of a global war on terror, you 
will also be overseeing significant issues, such as 
transformation and implementation of BRAC, a global reposture, 
the QDR, and numerous other big issues. In addition, these 
challenges are being undertaken in a time of tightening 
resources and competing priorities.
    If confirmed, I trust you will both work closely with this 
committee to complete the needed reforms. We've had a number of 
those dealing with procurement recently. We think we can do 
better in that. As a matter of fact, we have to do better in 
that. I don't know how we're going to get there, but we have to 
do better and they've been laid out, a lot of that, in BRAC and 
QDR.
    I wish you both the best. I believe you will do an 
excellent job. I think you have the experience and the personal 
skills to be successful in this office. I wish you every 
success.
    We did talk about the danger of any coercion in the 
military with any philosophy or faith. Thomas Jefferson swore 
eternal hostility to any tyranny over the mind of man and it is 
chiseled in the rotunda of the Jefferson Memorial. He swore 
that before the altar of God. Nobody seemed to be too worried 
about that. So I think it is correct that no one should abuse 
positions of authority, but at the same time, there are 
legitimate concerns in the country that any expression of 
personal faith is bad. Then we get into a situation that we 
start enforcing a secular mentality and a secular climate and I 
don't think that's necessary, either. So it's a proper balance. 
I know you will seek to achieve that, and I hope you will.
    Mr. Wynne, there's been a lot of controversy about the Air 
Force refueling tanker. The analysis of alternatives is being 
reviewed and moving forward, I guess, at this time.
    Let me ask you, could you tell us about the status of that, 
what the analysis of alternative is, and if you will give an 
open and fair evaluation of those results as you decide what's 
best for the country as we deal with the problem of air 
refueling?
    Mr. Wynne. Thank you very much, Senator Sessions.
    I think the analysis of alternatives, of course, considers 
every approach to trying to meet the capabilities that you are 
requesting. I think it would stretch all the way from extending 
the life, if you will, of the current product to modifying 
other products to ascertaining the ability of the commercial 
industry or your defense industrial base to supply it.
    As I understand it, the analysis of alternatives is in its 
final stages. The Office of Program Analysis and Evaluation is 
charged to do a sufficiency review, and I believe they've 
entered into that sufficiency review.
    I believe that the end of that review is when we finally 
will get, if you will, the opportunity to review the analysis 
of alternatives and determine a way forward. That way forward 
may well be constrained by the fiscal realities that we are 
faced with, but it's my intention, as you indicated, to be very 
objective in my look at it. I think the folks in acquisition 
have a strong desire to see equipment fielded to the force as 
quickly as they can possibly do it. I think innovative ways 
just have to be explained to people, that if you want to do 
something innovatively, you have to explain the business 
reasons for it, the rationale that supports it, and then be 
transparent in your approach. That's what I intend to do.
    Senator Sessions. Thank you. We've lurched around on this 
issue, and it has been a source of some embarrassment. The 
process, in the long run I hope, will help us get a better 
fleet and secure that important part of our defense 
establishment for the future, at the same time keeping the cost 
as reasonable as possible.
    I would add, to both of you, we've had what I think any 
observer would say have been some glory days for the defense 
budgets. Our defense budget now is over $400 billion. I came 
here nearly 8 years ago, and it was under 300, and now, in 
addition, we have large supplementals for the war effort that 
have helped us carry on some of our activities in a number of 
different ways. I don't know that we're going to be able to see 
these substantial increases that we've fought for in the last 5 
or 6 years continued, and we also have this bow wave of huge 
programs. Both of you have them in your departments.
    It's easy for all of us to say, well, you can't cut 
refueling aircraft, you can't cut ships, you have to have more 
submarines, you have to have more airplanes, you have to have 
all these things, but you sit down with the Secretary of 
Defense and add all those up, and see what the numbers look 
like. I'm afraid it might be calling for more than we'll be 
able to reach. So, you are also going to be challenged to 
understand that our ability to just demand more large increases 
may not be realistic.
    So gosh, I don't know what the solution is. I'm worried 
about that. We've been talking about it ever since I've been in 
the Senate. We'll be looking for your good recommendations on 
those challenges.
    I would just ask you briefly, do you both see that as a 
real challenge for us in the future? What to do with some of 
the large, expensive weapons systems, and whether they will fit 
within the budget?
    Secretary Wynne.
    Mr. Wynne. There is no doubt, Senator Sessions, that one of 
the major challenges is going to be how to get 6 pounds into a 
5-pound sack. When it comes to weapons systems, I think Senator 
Collins said it best, quantity does have a quality all of its 
own. You can get down to where you have one airplane and one 
ship, one tank, and you wonder, is this a sufficient defense? 
On the other hand, I would tell you that the balance of 
warfighting capability is really where it's at. Against the 
fiscal realities of what the American taxpayer will allow us to 
do--but I do know this, and you also do too, that the American 
taxpayer is willing to pay for the defense of America. When 
they're alerted that the defense of America is at reasonable 
peril, they will be willing to support us.
    Senator Sessions. I agree. We just need to be sure that we 
can say that this program or this system is defensible, it's 
critical, and we need it. Sometimes numbers make a difference. 
Sometimes we might want to come up with a product that's about 
half the cost of some other product and have twice as many. But 
you may not be able to have twice as many of the most 
sophisticated products. So, those are things you're just going 
to have to wrestle with.
    Dr. Winter, do you have any thoughts?
    Dr. Winter. Yes Senator, I would just want to add that I 
think that the tradeoff here is what I would describe as one of 
qualitative versus quantitative advantage. It is one that we're 
going to have to pay great attention to over the next several 
years. I think it's become very evident that, between the 
capabilities of the Department and the industrial base that 
serves the Department, we can build incredible systems. We can 
build some of the most incredible weapons systems that man ever 
imagined. The question is whether or not we can afford to do 
all of that and whether or not, as you so aptly put it, having 
more of a lesser capability provides for a greater defense and 
a greater deterrent capability.
    I don't think that there is a one-size-fits-all solution to 
this. I think it's going to have to be a case-by-case 
evaluation, and I think we're going to have to carefully look 
at the true requirements, versus--if you permit me to use the 
phrase--``desirements'' that have often been put forward for 
many of these systems, so that we know exactly what really will 
make a difference, so that we understand how to invest our 
precious resources very carefully, and can still afford a 
reasonable number of these systems to really provide for the 
defense of the U.S.
    Senator Sessions. I think you've stated that well, and 
we're excited about your nomination. I think both of you have 
the maturity and the experience to help make those tough calls. 
Those of us in Congress, sometimes we pick up on it, and we get 
a good sense of things. It sort of amazes me, really, but 
sometimes we get it wrong. So we'll be depending on you.
    I know, with regard to shipbuilding--I used to chair the 
subcommittee that Senator Talent now chairs, and I was 
impressed with Admiral Vern Clark's demonstration that a highly 
technically advanced ship can operate with far less personnel. 
He also made some progress toward forward deployment of ships, 
keeping a greater percentage of our ships in operational areas. 
Do you think those remain valuable potentials for improvement, 
Dr. Winter?
    Dr. Winter. I think there's a significant opportunity 
there, in terms of both the overall crew size, as well as the 
operational tempo (OPTEMPO) aspects of the systems. We, 
unfortunately nowadays, spend too much time, in terms of the 
maintenance and support functions and the more that we can get 
out of the ships, in terms of being forward-deployed and able 
to provide presence and warfighting capability, the better off 
we will be.
    Senator Sessions. I recall Admiral Clark was saying that 
they were leaving ships forward-deployed longer, bringing them 
in for refurbishment and repair less often, and none of them 
were breaking. They were still going along. So it maybe 
demonstrated that we didn't have to have quite as much 
expenditure on repairs.
    Dr. Winter, I believe the President's budget called for the 
cancellation of a joint common missile. It's my impression that 
this is a part of jointness. The joint common missile replaces 
seven legacy missiles, many of which are reaching technological 
obsolescence. During the fiscal year 2006 deliberations on the 
budget, three of the four major defense committees decided that 
the joint common missile should be continued, and the Defense 
Appropriations Committee even added $50 million to keep the 
government team operating, and the contractor team.
    Do you believe that the joint common missile, with its 
increased range, lethality, and tri-mode seeker, is the missile 
of the future for rotary- and fixed-wing aircraft to replace 
the legacy Maverick, Tow, and Hellfire weapons?
    Dr. Winter. Senator, unfortunately I do not have the 
detailed familiarity with that particular program to make a 
determination at this point in time. But if I am confirmed, I 
would commit to you that I will look into that matter.
    Senator Sessions. The Navy requested recently to reprogram 
$21 million for the joint common missile, and Congress denied 
that request. It's a matter of real urgency. It seems to me 
that jointness is a valuable thing, and that if we can design a 
joint common missile, that can be utilized in all our Services, 
and we could reach a higher degree of effectiveness and create 
a production level that would bring costs down. Would you take 
a look at that and evaluate it?
    Dr. Winter. Yes, Senator. I support the objectives. I'd 
just ask for the time to be able to go and take further look 
into the specifics of that program.
    Senator Sessions. It's something that I have been looking 
at for some time, and I believe that is the right direction to 
go and was a little bit taken aback that that has not happened.
    Mr. Wynne, I think I'll submit a written request to you 
concerning the Transformational Satellite (TSAT) program. There 
has been some unease expressed on that and it's a matter I 
think we need to get clear on and move forward in the 
appropriate way, and it will come before my subcommittee.
    I have one important question to ask you before we 
conclude. We have a ball game this weekend. Is it Air Force or 
Navy? [Laughter.]
    What about a prediction? [Laughter.]
    Dr. Winter. No question, sir. [Laughter.]
    Mr. Wynne. I would say it's a very even contest between two 
teams of good quality.
    Senator Sessions. We're proud of them. That's a good 
answer. They represent the very best of our young men, really. 
They play their hearts out every day, and they take on teams 
that have a lot of guys that are going to be playing in the 
NFL. Maybe they always can't recruit those people. They compete 
effectively and we're proud of them.
    Thank you for your commitment to serving your country. I 
know that in many ways it can be a financial hardship for you. 
Sometimes you'll take unnecessary grief. Not sometimes; you'll 
frequently take unnecessary grief. [Laughter.]
    You'll be accused of corruption when all you're trying to 
do is do the right thing. You have a big challenge, a high 
calling. We could not be more pleased to have you there and we 
look forward to the future.
    I believe the request was to recess rather than to adjourn 
and now the chairman has already returned from battling for 
truth and justice on the floor of the Senate--[Laughter.]
    --as he does so effectively.
    Mr. Chairman, I'm pleased that you've returned and my time 
is completed.
    Chairman Warner [presiding]. We had a battle last night. 
But for one vote, we'd be on that floor today. [Laughter.]
    Night and day.
    Senator Sessions. A glorious battle.
    Chairman Warner. Thank you very much.
    Senator Sessions. I was honored to stand with you.
    Chairman Warner. You're thoughtful to do so, as did every 
other member of the committee, both sides of the aisle.
    Now gentlemen, I'd like to continue this important hearing.
    On the shipbuilding issue, I did explain, Dr. Winter, that 
this is going to require some innovative, out-of-the-box 
thinking to bring to the attention of the administration and, 
with the support of the American public, begin to add some 
dollars, other than the normal allocations annually through the 
POM process to the Department of the Navy.
    The question, Secretary Wynne, is back on this issue of the 
tanker leasing program, which--indeed, it was this committee 
that stood as the final entity within Congress to oppose that 
contract. We did not agree to the reprogramming actions which 
would have let it go forward. What is your assessment of the 
efforts that have been undertaken by the DOD to improve the 
management and oversight of service acquisition and procurement 
to preclude a repeat of a regrettable chapter, as we witnessed 
with that tanker problem, and particularly the actions of one 
individual, who eventually was held accountable and imprisoned 
under the Federal legal system.
    Mr. Wynne. Mr. Chairman, I think the Department has 
responded extraordinarily well to my charge for improved 
integrity and improved ethics through the work of three review 
teams and also to gain feedback on the specific issue of the 
lease of tankers in the business plan.
    I'd like to concentrate, for the moment, on integrity and 
ethics, which I see as a command responsibility. I have asked 
all throughout the acquisition community to take this on as a 
command responsibility and to my applause, all of the 
commanders have, in fact, stepped up to this challenge.
    I have also asked the acquisition community to take on a 
review process of both the individuals and the actions that 
take place, to ensure that it's a free, open, and well-reviewed 
acquisition process in order to foster an openness and a 
transparency so that the specifics can be reviewed.
    With regard to innovation, I want to foster innovation in 
acquisition authorities to try to make sure that we don't let 
any stone go unturned in getting equipment to our people with 
more efficiency and more speed.
    I would tell you that I intend to foster a business process 
and a business plan that is open and transparent, because I do 
believe that if we were a little bit more convincing as to, 
``What were our goals?''--maybe even inside the Department, we 
would have challenged it a little bit stronger than we did.
    Chairman Warner. As we go forward on the assumption that 
you'll be confirmed--and I'm optimistic, I would say, that both 
of you will be confirmed--you will have to address the overall 
requirements of the Department of the Air Force; indeed, our 
overall transportation structure in DOD, the airlift, and the 
tanker capabilities. I don't want you, at this time, to predict 
what's going to come out of that, but I just want to re-
emphasize the need to swiftly get back and look at the 
requirements and how we're going to go about to fulfill them 
with new acquisitions of aircraft.
    I do hope--and I'm going to fight for it--that we can do so 
in a manner that will provide competition among such entities 
that are willing to step up and offer their proposals to solve 
the problem, as will be defined more specifically by your 
Department.
    I'm very strong on trying to preserve our industrial base 
here in America, but there are a lot of innovations out there 
now that have been brought forward by companies which have 
affiliated with overseas companies. You know as well as I. I 
think we just have to make certain that competition is brought 
to bear on this contract. Can you give me that assurance?
    Mr. Wynne. Yes sir, I can certainly give the assurance that 
I'll seek competition at every level to try to bring better 
efficiency to the American taxpayer.
    Chairman Warner. To both of you, the hurricane damage 
assessments--the Air Force and the Navy have bases in the 
States hardest hit by the hurricane--Louisiana, Mississippi, 
and Alabama--Keesler Air Force Base, Naval Construction 
Battalion Center, the Armed Forces Retirement Home in Gulfport, 
Naval Support Activity in New Orleans. They're but a few of the 
installations, and that's been such a historic nexus for 
America's defense all through there. It goes way back. I 
remember, when I was Secretary of the Navy, putting a number of 
things in that area. The people of those several States have 
had long associations with the U.S. military. Men like John 
Stennis, who was the most distinguished chairman of this 
committee for many years. Eddie Hebert from Louisiana, he was a 
strong chairman in the House Armed Services Committee, and I 
hope that each of you, if confirmed, will take steps to assure 
that the personnel assigned to these installations and their 
families, particularly those who might be poised to go 
overseas, are being cared for. Can you assure me that it would 
be high on your agenda when you take office?
    Dr. Winter. Yes, Mr. Chairman.
    Mr. Wynne. If confirmed sir, I am particularly concerned 
about both the ANG men and women as well as the Active-Duty 
Forces there.
    Chairman Warner. You have a lot of training facilities that 
go on in the Department of the Navy.
    Dr. Winter. Yes Mr. Chairman, and that is clearly a high 
priority.
    Chairman Warner. All right.
    Dr. Winter, in your written response to the committee's 
questions, you state, ``The Department must consider more 
fundamental changes to the way it does business. If confirmed, 
I will seek new options and approaches to address the rising 
cost of healthcare and other personnel costs.''
    At this time, could you give us some elaboration on what 
you hope to achieve?
    Dr. Winter. Mr. Chairman, one of the things that we've seen 
on the industrial side is that there is, in many cases, a 
difference between the way in which our employees perceive 
various benefits and the costs of those benefits. One of the 
things that we've been trying to do over the last several years 
is to better match the benefits that are provided with the 
expectations and needs of the employees.
    I think that we need to do a better job of that within the 
Department. I think we need to make sure that we're getting the 
results, the value, if you will, out of the investment, and the 
benefits that are provided to the service men and women that 
they really need and expect, and also within the time frame 
that provides true value and support to them while they're 
still serving.
    That is going to be part and parcel of an overall 
assessment. That obviously will have to be done by Secretary 
Chu and others within the DOD, but I look forward to the 
opportunity, if confirmed, to be able to work with him, in 
terms of a new compensation program and plan.
    Chairman Warner. I thank you.
    I want to associate myself with the remarks and the 
colloquy with our witnesses by Senator Collins regarding the 
acquisition strategy for surface combatants and the future 
outyears, particularly as it relates to that single-yard 
concept for the brief period, which was in there until Congress 
stepped in. We must be mindful that that particular area is, 
regrettably, highly vulnerable to situations that we've 
witnessed in the wake of the Katrina and Rita hurricanes. I 
hope that any concept of a single shipyard to solve all 
problems is something that will not come back again any time.
    Furthermore, I do believe we have to try and strengthen 
those yards which have partnered with other yards and shared 
the shipbuilding responsibility. I think it's working out. I'm 
very proud of the manner in which, in my State, the Newport 
News Yard and General Dynamics are working on the submarine 
program for the future. We may be around to see a little more 
submarine acquisition there.
    Dr. Winter.
    Dr. Winter. Yes, Mr. Chairman.
    Chairman Warner. The clerk did not record that he nodded 
his head in full recognition of the chairman's question.
    The flexible funding for shipbuilding, Dr. Winter--and this 
is an issue with a long history. I dealt with it when I was in 
the position that you desire to accept, and it goes all through 
the 27 years I've been here--but in the past several years, 
Congress has approved several funding mechanisms for 
shipbuilding which have departed from the traditional full-
funding policy. Included in these are split funding and 
incremental funding, and in its report to the fiscal year 2006 
appropriations bill, the Senate encourages the Department ``to 
consider whether using advanced appropriations in future 
budgets will improve the shipbuilding program.'' Funding 
mechanisms will only help so far though. A stable, sufficient 
amount of funding is required. Well, we've already addressed 
that. But do you have any views that you'd like to advise the 
committee now, other than I hope that you will support the 
concept of alternative funding mechanisms for shipbuilding?
    Dr. Winter. Mr. Chairman, I recognize the objectives and 
desire to be able to have additional flexibility in that 
regard. Unfortunately, I've had only limited opportunity over 
the last few weeks to understand the multiplicity of issues 
amongst the various approaches. If I am confirmed, though, I 
intend to go and take a good hard look at the implications and 
possibilities associated with advanced appropriations and other 
techniques that you so aptly described.
    Chairman Warner. Dr. Winter, we've made some advances in 
the Department on the research and development efforts of 
unmanned surface vessels. They've yielded an advanced concept 
technology demonstration such as the Spartan Scout, which is 
currently undergoing Navy-directed testing. Will you consider 
pushing the frontiers in this area?
    Dr. Winter. Mr. Chairman, I'm a technologist at heart and 
have enjoyed participating in those types of programs, and I've 
seen the tremendous benefits that can occur with the 
appropriate application of advanced technologies. If confirmed, 
I would expect to continue to do so during the course of my 
tenure.
    Chairman Warner. I would talk to both of you a little bit 
about the civilian workforce. I spent a great deal of time when 
I was in the Department, and I was fortunate to have an 
extraordinary management group of senior civilians to help 
guide me in trying to strike a balance in the civilian versus 
the uniformed members. It really is a joint operation, always 
has been, always will be, and they worked side by side. We have 
to make certain that the systems for compensating them and 
other personnel benefits are balanced. We have to constantly 
work on that. You can't just put something in place and walk 
away from it.
    Do each of you commit to spend a good proportion of your 
time on the balancing of the civilian and uniformed workforce, 
and to preserve it?
    Mr. Wynne. Absolutely, Senator.
    Dr. Winter. Yes, Mr. Chairman. I do believe that ensuring 
that we are a competitive employer, with all the alternatives 
out there, is going to be a continuing challenge, but one which 
must be worked.
    Chairman Warner. Well, all the football questions have been 
asked. [Laughter.]
    But I'm told that we did not give sufficient recognition of 
West Point and the Black Knights, which are reputedly still 
rebuilding. Do you have any comment on that, Secretary Wynne? 
[Laughter.]
    Mr. Wynne. All I can say at this point--especially in my 
position is, ``Beat Navy.'' [Laughter.]
    Chairman Warner. We've had a very good hearing, and I thank 
our two witnesses. I commend the President and the Secretary of 
Defense for finding both of you and bringing you back, and 
particularly you, Secretary Wynne, for your steadfast patience 
to wait for this day. It has come, and I assure you that this 
Senator--and, I'm confident, others--will do everything we can 
to see that the floor receives your nominations and that the 
advice and consent process will give you a prompt up or down 
vote--and I'm anticipating ups in the vote.
    Thank you and your families.
    The committee is adjourned.
    [Whereupon, at 12:25 p.m., the committee adjourned.]

    [Prepared questions submitted to Michael W. Wynne by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the Services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Have your views on the importance, feasibility, and implementation 
of the Goldwater-Nichols Act reforms changed since you testified before 
the committee at your confirmation hearing on November 18, 2003?
    Answer. No.
    Question. Do you see the need for modifications of any Goldwater-
Nichols Act provisions based on your extensive experience in the 
Department of Defense?
    Answer. I do not have any specific recommendations to amend 
Goldwater-Nichols. We have been on the right path for the past 20 
years. However, it is appropriate to periodically review organizational 
and management frameworks to ensure continued validity. If confirmed, 
my leadership and management of the Department of the Air Force will 
include a continuous review of Goldwater-Nichols with an eye toward 
opportunities for improvement. I will work closely with the Secretary 
of Defense and Congress to continually review Goldwater-Nichols and 
implement any changes that might be needed.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
                             relationships
    Question. Section 8013 of title 10, United States Code, discusses 
the responsibilities and authority of the Secretary of the Air Force. 
Other sections of law and traditional practice, also establish 
important relationships outside the chain of command. Please describe 
your understanding of the relationship of the Secretary of the Air 
Force to the following officials:
    The Secretary of Defense.
    Answer. The Secretary of Defense is responsible for all matters 
within the Department of Defense. The Secretary of the Air Force is 
subject to the authority, direction, and control of the Secretary of 
Defense. If confirmed, I look forward to working closely with the 
Secretary of Defense.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense for Acquisition, Technology, and Logistics on all matters 
related to acquisition, technology, and logistics programs impacting 
the Department of the Air Force.
    Question. The Chief of Staff of the Air Force.
    Answer. The Chief of Staff is subject to the authority, direction, 
and control of the Secretary of the Air Force, presides over the Air 
Staff, and is a principal advisor to the Secretary. In addition, he is 
a military adviser to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I would foster a close working 
relationship with the Chief of Staff to ensure that policies and 
resources are appropriate to meet the needs of the Air Force and 
respect his additional responsibilities as a member of the Joint Chiefs 
of Staff.
    Question. The Under Secretary of the Air Force.
    Answer. Subject to the Secretary of the Air Force's direction and 
control, the Under Secretary is authorized to act for and with the 
authority of the Secretary of the Air Force on all matters for which 
the Secretary is responsible; that is, to conduct the affairs of the 
Department of the Air Force. In addition, the Under Secretary of the 
Air Force has been delegated the Secretary of the Air Force's duties 
and authority as the Department of Defense Executive Agent for Space. 
If confirmed, I would foster a close working relationship with the 
Under Secretary.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work closely with the 
Chairman through the Chief of Staff of the Air Force on appropriate 
matters affecting the Air Force.
    Question. The combatant commanders.
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the military department's responsibility includes 
recruiting, organizing, training, equipping, and maintaining 
interoperable forces for assignment to the combatant commands.
    If confirmed, I will work with and through the Chief of Staff to 
carry out the functions and responsibilities of the Air Force so as to 
fulfill to the maximum extent practicable the current and future 
operational requirements of the combatant commands.
    Question. The Assistant Secretary of the Air Force for Acquisition.
    Answer. The Assistant Secretary of the Air Force for Acquisition 
acts as the Senior Acquisition Executive for the Air Force. If 
confirmed, I would work closely with the Assistant Secretary on 
acquisition matters.
    Question. The General Counsel of the Air Force.
    Answer. The General Counsel (GC) is the senior civilian legal 
advisor to Air Force senior leaders and to all officers and agencies of 
the Department of the Air Force. The GC serves as the chief ethics 
official. If confirmed, I would look forward to developing a good 
working relationship with the GC.
    Question. The Judge Advocate General of the Air Force.
    Answer. The Judge Advocate General (TJAG) is the senior uniformed 
legal advisor to Air Force senior leaders and of all officers and 
agencies of the Department of the Air Force and provides professional 
supervision to TJAG's Corps in the performance of their duties. If 
confirmed, I look forward to developing a good working relationship 
with TJAG.
    Question. The Superintendent of the U.S. Air Force Academy.
    Answer. The United States Air Force Academy is an invaluable 
institution that continues to attract the brightest young men and women 
from across our Nation and develops them into Air Force leaders. If 
confirmed, I will work closely with the Superintendent to address the 
challenges currently facing the Academy and promote the Academy's 
continued commitment to excellence and fulfillment of its mission.
    Question. The Director of the National Reconnaissance Office.
    Answer. The Secretary of the Air Force must foster a strong 
collaborative relationship with the National Reconnaissance Office and 
therefore must have a strong relationship with its director. If 
confirmed, I will work to foster a close working relationship with the 
Director of the National Reconnaissance Office, as well as the Director 
of National Intelligence (DNI). In light of the standup of the DNI, the 
Department of Defense and the Intelligence Community (IC) are in the 
process of re-defining their relationship for national security space 
matters. If confirmed, I will work with the DNI, IC, and Executive 
Office of the President to ensure the new policies and processes for 
coordinating space efforts will be effective and meet the needs of all 
users.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Secretary of the Air Force?
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretary of the Air Force, pursuant to 10 
U.S.C. Section 8013, is responsible for and has the authority necessary 
to conduct all affairs of the Department of the Air Force. These 
functions include organizing, supplying, equipping, training, 
maintaining, and administering. If confirmed as Secretary of the Air 
Force, I would expect the Secretary of Defense to assign me duties 
consistent with these responsibilities.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed as Secretary of the Air Force, I would expect 
the Secretary of Defense to assign me duties consistent with the 
responsibilities outlined above.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Secretary of the Air 
Force?
    Answer. If confirmed, the Under Secretary of the Air Force, the 
Assistant Secretaries of the Air Force, the General Counsel, along with 
the Air Force Chief of Staff and Vice Chief of Staff will form the 
nucleus of my leadership team. I will foster a close working 
relationship with them on matters within their areas of responsibility 
in order to more effectively lead and manage the Department of the Air 
Force.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Secretary of the Air Force?
    Answer. The Air Force has been actively engaged in war since 
Operation Desert Shield in the early 1990s. Since then, it has been 
committed to providing joint commanders with a Total Force able to use 
our air, space, and cyberspace capabilities to have effects on and 
counter a vast array of threats in the air, land, sea, space and 
cyberspace, in addition to providing capabilities in other areas such 
as disaster relief. The Air Force's major challenges in continuing to 
provide these capabilities are:

        - Preparing for and participating in the joint fight anywhere 
        and anytime;
        - Providing motivated, ethical, accountable Air Force warriors; 
        and
        - Developing, maintaining, and sustaining our warfighting edge.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I plan to work with the leadership team of the Air Force 
Chief of Staff, General Moseley, the Vice Chief of Staff, General 
Corley, the Under Secretary of the Air Force, Dr. Sega and Chief Master 
Sergeant of the Air Force Murray to ensure that we set the standard of 
performance for the Air Force within the larger defense family. We will 
develop economical and feasible plans, policies, and programs to ensure 
that the Air Force can meet its missions, which range from prosecuting 
the war on terror to aiding victims of natural disasters.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Secretary of the Air Force?
    Answer. The most serious problem would be continuing to fulfill 
commitments today while preparing for an unknown future in a fiscally 
responsible manner. A very close second is to restore the Air Force to 
its premier status as an acquisition and management organization 
promoting transparency wherever appropriate.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. Again, if confirmed, I am confident that the Air Force 
leadership team will address the specific actions and time lines that 
will allow us to continue to meet our mission requirements today and in 
the future. We will ensure the actions taken are in accord with the 
Service's core values of integrity, service before self and excellence 
in all we do.
                               priorities
    Question. If confirmed, what broad priorities will you establish?
    Answer. The mission of the Air Force is to deliver sovereign 
options for the defense of the United States of America and its global 
interests in air, space and cyberspace. To ensure that the Air Force is 
able to meet this mission I would establish the following priorities:

        - Sustaining air and space capabilities across all missions now 
        and in the future;
        - Enhancing knowledge enabled warfighting;
        - Making open and transparent business practices a rule and not 
        an exception;
        - Balancing the Total Force, with an emphasis on innovation;
        - Fostering lean processes supported by quality standards 
        across the Total Force; and
        - Continuing to improve Total Force quality of life for airmen, 
        civilians, and their families.
                            readiness levels
    Question. What is your assessment of the current readiness of the 
Air Force to execute its assigned missions?
    Answer. I have not made an assessment of the current readiness of 
the Air Force. If confirmed, it is one of the highest priorities to 
meet Air Force assigned missions and I will gain immediate insight.
    Question. What do you view as the major readiness challenges that 
will have to be addressed by the Air Force over the next 5 years, and, 
if confirmed, how will you approach these issues?
    Answer. The Air Force is operating the oldest aircraft inventory in 
its history with a requirement to conduct simultaneous operations all 
over the globe. The most serious problem would be continuing to fulfill 
warfighting and strategic commitments today while preparing for an 
unknown future in a fiscally responsible manner. These issues are 
difficult and if confirmed solving them will require analysis and 
teamwork with Congress, the Department of Defense, and industry.
                   personnel and health benefit costs
    Question. The cost of the Defense Health Program, like the cost of 
medical care nation-wide, is escalating rapidly. Similarly, the cost of 
personnel as a key component of the Services' budgets has risen 
significantly in recent years.
    If confirmed, how would you approach the issue of rising health 
care and personnel costs?
    Answer. While I am not completely familiar with this issue, I can 
certainly understand the concern with rising costs and plan on studying 
the costs versus the ultimate goal of recruiting and retention. If 
confirmed, a goal will be to ensure that our members and their families 
receive quality care, whether deployed or at home station, as the Air 
Force maximizes its return on healthcare investments.
                 air force future total force planning
    Question. In a recent report submitted in response to section 587 
of the Ronald W. Reagan National Defense Authorization Act for Fiscal 
Year 2005, the acting Secretary of the Air Force outlined the legal, 
administrative, and practical challenges of operating a ``blended 
wing,'' consisting of Active-Duty airmen and airmen of the Air National 
Guard.
    What legislative changes, if any, are needed to overcome barriers 
to effective integration of Air Force Reserve and active component 
personnel and units?
    Answer. I am not familiar with the specifics of this particular 
matter. If confirmed, I look forward to working closely with the Air 
Force Future Total Force experts and General Council to better 
understand and address these concerns.
                             transformation
    Question. If confirmed as the Secretary of the Air Force, you would 
play an important role in the ongoing process of transforming the Air 
Force to meet new and emerging threats.
    If confirmed, what would your goals be for Air Force 
transformation?
    Answer. If confirmed I look forward to reviewing the existing Air 
Force transformation strategy, which I am told is detailed in the 
Service's Transformation Flight Plan. Such a review would better 
position me to address this question more directly. My goal, of course, 
would be to work on this matter closely with Congress, the rest of 
Department of Defense and non-Department of Defense agencies, as well 
as allies and coalition partners.
    Question. In your opinion, does the Air Force Program Objectives 
Memorandum (POM) have adequate resources identified to implement your 
transformation goals?
    Answer. If confirmed, I look forward to reviewing the Air Force 
transformational strategy in light of those being addressed more 
broadly by the Department of Defense. Such a review should include an 
examination of the Service's resource allocation and the analysis 
brought to light by the ongoing Quadrennial Defense Review.
               prevention and response to sexual assaults
    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of the Department of Defense for preventing and responding to incidents 
of sexual assault in the Armed Forces. In late April 2004, the DOD Task 
Force on Care for Victims of Sexual Assault issued its report and 
recommendations, noting ``If the Department of Defense is to provide a 
responsive system to address sexual assault, it must be a top-down 
program with emphasis placed at the highest levels within the 
Department down to the lowest levels of command leadership. It must 
develop performance metrics and establish an evaluative framework for 
regular review and quality improvement.''
    What is your evaluation of the progress to date made by the Air 
Force in preventing and responding adequately to incidents of sexual 
assault?
    Answer. I have not had an opportunity to become specifically 
familiar with the Air Force efforts in this arena, however, I 
understand that the Air Force has made a great deal of progress in how 
it deals with the issue of sexual assault.

        <bullet> Senior leaders in the Air Force have issued strong 
        statements that sexual assault is criminal behavior that 
        conflicts with our Core Values and will not be tolerated in the 
        Air Force.
        <bullet> The Air Force recently released a highly effective 
        training video, Targeting Sexual Assault, and is in the process 
        of showing it to members of the Air Force worldwide. In 
        addition, the Air Force is creating a multi-tiered training 
        approach on this topic throughout accession training and at all 
        levels of professional military education (PME).
        <bullet> The Air Force hired and placed full time Sexual 
        Assault Response Coordinators (SARCs) to assist senior 
        leadership at all levels with prevention of and response to 
        sexual assault.
        <bullet> On 14 June 2005, the Air Force implemented the two 
        avenues for reporting sexual assault (restricted and 
        unrestricted) as prescribed by the Department of Defense.
        <bullet> The Air Force is providing trained military SARCs and 
        victim advocates within the deployed environment.

    Question. What problems do you foresee, if any, in implementing the 
revised policy with respect to confidential reporting of sexual 
assaults by military personnel in the Air Force?
    Answer. The revised DOD policy with respect to confidential 
reporting of sexual assaults by Active-Duty military personnel 
represents a significant change in military culture. It will take time 
to educate everyone involved about how the policy works. It will also 
take time for victims of sexual assault to trust the new system. In 
addition, there have been, and will continue to be, challenging policy 
issues that arise as we try to implement this new confidential 
reporting option.
    Question. If confirmed, what actions do you plan to take to ensure 
that senior civilian leaders of the Air Force have day-to-day 
visibility into incidents of sexual assault and the effectiveness of 
policies aimed at ensuring zero tolerance?
    Answer. Responsibility and accountability for sexual assault 
prevention and response resides squarely with leadership and, from what 
I've seen, Air Force leadership has assumed that responsibility. Senior 
Air Force leaders have spoken out on the issue and appeared in the Air 
Force training video stating, in no uncertain terms, that sexual 
assault will not be tolerated in the Air Force. If confirmed, I will 
seek to work with Congress to ensure that we continue to monitor and 
respond effectively to this issue. The bottom line is that 
accountability begins with me and our senior leaders. In addition, it 
is my understanding that within the Air Force, the Air Force director 
of personnel is vested with the responsibility for policy 
implementation and evaluation. At the local level, accountability for 
prevention and response is placed with the vice wing commander, and 
Sexual Assault Response Coordinators (SARCs) report directly to them.
                           air force academy
    Question. The Air Force Academy has come under intense criticism as 
a result of the handling of cases of sexual assaults and harassment of 
female cadets and insensitivity to the religious beliefs of many 
cadets.
    If confirmed, what role would you play and what steps would you 
anticipate taking in order to ensure that the Air Force Academy 
fulfills its mission and is provided with necessary resources and 
oversight?
    Answer. The mission of the Air Force Academy is critical to the 
long-term success of the Air Force. If confirmed, I will be personally, 
and actively, engaged in ensuring they have the guidance, leadership, 
and resources necessary to be successful at accomplishing that mission. 
The Air Force Academy of 2005 appears to be a much healthier 
institution than in 2003. The Air Force Academy appears to be on the 
right track, and I will personally assure myself of their status and 
ensure they continue their positive progress.
                       free exercise of religion
    Question. The Air Force recently released interim guidance 
regarding free exercise of religion in the Air Force.
    Do you believe that this interim guidance is sufficiently specific 
to help Air Force leaders reach sound decisions on actions that could 
be perceived as endorsing a religion or pressuring subordinates to 
participate in a religious event?
    Answer. Yes, from my reading, it appears to strike a reasonable 
balance.
    Question. What additional steps, if any, do you believe the Air 
Force should take to ensure that this guidance is implemented 
effectively and to ensure that people of all faiths and all viewpoints 
on religion are accorded respect and fair treatment throughout the Air 
Force?
    Answer. If confirmed, I intend to continue asking for input, both 
from within the military and from outside the military. We need to 
continue to test and, when necessary, adjust the guidelines to ensure 
they continue to strike an acceptable balance, in the military context, 
between the guarantees of free expression and the protections relating 
to establishment of religion.
               independence of the judge advocate general
    Question. In section 574 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005, the statutory responsibilities 
and authority of the service Judge Advocates General were amended to 
make it clear that interference by any officer or employee of the 
Department of Defense with the ability of the Judge Advocates General 
to give independent legal advice is not permitted.
    What are your views about the responsibility of TJAG of the Air 
Force to provide independent legal advice to the Secretary of the Air 
Force, the Chief of Staff, and the Air Staff, particularly in the areas 
of military justice and operational law?
    Answer. I believe it is critical that Air Force senior leaders 
receive independent legal advice and counsel from the senior uniformed 
judge advocate.
                         unmanned air vehicles
    Question. In the Floyd D. Spence National Defense Authorization Act 
for Fiscal Year 2001, Congress set a goal that within 10 years, one-
third of U.S. military operational deep strike aircraft would be 
unmanned. Funding for the Joint Unmanned Combat Air Systems (JUCAS) has 
recently been reduced and management of the program has changed from 
DARPA to an Air Force-led joint service program.
    Do you support the 10-year goal established by Congress?
    Answer. Yes.
    Question. Are you satisfied with the current JUCAS program 
objectives and schedule?
    Answer. The Joint Unmanned Combat Air Systems Operational 
Assessment objectives and program schedule are understood, and 
supported by the Services, given the current level of investment. The 
Air Force, in conjunction with the Navy, the Department, and DARPA, 
have planned for the transfer of the program to an Air Force-led joint 
service program this fall with minimal disruption to the program.
    Question. Do you believe the current level of investment is 
sufficient to achieve JUCAS program objectives and schedule? If not, 
what recommendations would you make to comply with the statute?
    Answer. I am not familiar with budget level funding details of the 
JUCAS program, but if confirmed, will work closely with the Air Force 
and Joint Service acquisition leadership to review the transition 
planning actions taken by the DARPA for the program.
            implementation of base closures and realignments
    Question. The 2005 Defense Base Realignment and Closure (BRAC) 
process has resulted in the recommended closure or realignment of 
numerous major Air Force installations. The DOD installation closure 
process resulting from BRAC decisions has historically included close 
cooperation with the affected local community in order to allow these 
communities an active role in the reuse of property.
    In your view, what are the roles and responsibilities of the 
Department of the Air Force within the 2005 BRAC property disposal 
process to work with local communities?
    Answer. I believe the Air Force's roles and responsibilities are to 
implement the final decisions of the 2005 BRAC process expeditiously 
and efficiently in the best interest of the local community, the 
Federal Government, the Air Force, and the American taxpayer. 
Collaboration and communication are critical to success. If confirmed, 
I would develop a plan to quickly inventory the real property, personal 
property, and natural infrastructure assets at relevant bases to 
determine their value. Working with the communities, we can develop 
strategies to quickly market these assets. This approach can ensure 
that the community will quickly recover from the impacts of BRAC.
    Question. If confirmed, what goals would you establish to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. The Air Force will take great care to work with communities 
and stand ready to provide support and assistance. If confirmed, I 
would ensure we work closely with the Office of Economic Adjustment to 
ensure that affected communities have all the resources necessary to 
accomplish comprehensive planning for the reuse of base property. 
Community redevelopment plans and the Air Force disposal plans should 
be integrated to the maximum extent possible to take into account the 
anticipated market demand for surplus military property with the goal 
of maximizing value, while being sensitive to community needs and long-
terms plans. This approach will get property into reuse much more 
quickly, help accelerate job creation, and result in cost savings for 
military readiness.
    Question. What plans does the Air Force have in place to assist DOD 
personnel who lose their jobs as a result of BRAC actions?
    Answer. It is my understanding that all affected individuals will 
be treated equitably during BRAC reductions and we will strive to 
mitigate adverse effects resulting from BRAC actions. The Air Force is 
to provide comprehensive transition tools, programs, and information 
for civilians including voluntary early retirements and separation 
incentive pay. If confirmed I will work to ensure affected employees 
have access to all Office of Personnel Management and Department of 
Defense placement programs such as career transition, financial 
planning, and relocation information.
                 encroachment on military installations
    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment'' issues. These include population growth near military 
installations, environmental constraints on military training ranges, 
airspace restrictions to accommodate civilian airlines, and the 
conflicts with civilian users over the use of radio frequency spectrum.
    In your opinion, how serious are these problems for the Department 
of the Air Force?
    Answer. These issues are a serious problem and present a unique 
challenge to the Air Force as it continues to train for combat 
operations.
    Question. If confirmed, what policies or steps would you take to 
curtail the negative impact on operations and training resulting from 
residential encroachment?
    Answer. It is my belief that an integrated strategy is critical to 
addressing the negative impacts of competition for scarce air, land, 
and water resources that often results in encroachment onto our 
installations, ranges, and air space--vital national assets for 
developing and testing new weapons, training forces, and conducting 
joint exercises. If confirmed, I will encourage the Air Force to 
actively engage with Federal, State, and local regulatory agencies to 
implement innovative, cooperative approaches to the allocation of 
scarce resources, and to achieve complimentary agency objectives.
    Question. If confirmed, what role do you expect to play in 
addressing these challenges?
    Answer. If confirmed, I plan to work with Air Force leadership to 
address current and potential encroachment issues that affect 
readiness.
                           acquisition issues
    Question. The Acting Secretary of the Air Force has announced that 
the Air Force will no longer pursue leases of major equipment, but will 
instead rely on the traditional acquisition system.
    Do you support this decision?
    Answer. Yes, I support this position.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the Air Force to use a lease instead of a 
traditional acquisition approach?
    Answer. As Kenneth Krieg (Under Secretary of Defense for 
Acquisition, Technology, and Logistics) recently testified, leasing of 
capital equipment could be a potential option when the equipment is 
truly commercially available outside Department of Defense and can meet 
the leasing requirements established by the Office of Management and 
Budget.
    Question. At his confirmation hearing earlier this year, the Air 
Force Chief of Staff testified that the Air Force had gone too far in 
reducing its acquisition workforce, undermining its ability to provide 
needed oversight in the acquisition process.
    Do you agree with the Chief of Staff's assessment?
    Answer. Yes, I agree with the Chief of Staff's assessment.
    Question. If so, what steps do you believe the Air Force should 
take to address this problem?
    Answer. If confirmed, I would continue to work with the Under 
Secretary of Defense for Acquisition, Technology, and Logistics to 
understand the demand for our acquisition personnel and to 
appropriately size the workforce. If confirmed I intend to work with 
the program executive officers and center commanders to assess critical 
needs.
    Question. Major defense acquisition programs in the Air Force and 
the other military services continue to be subject to funding and 
requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. Yes, I believe such instability drives up costs and delays 
fielding of systems.
    Question. What steps, if any, do you believe the Air Force should 
take to address funding and requirements instability?
    Answer. If confirmed, I will work with Air Force and Department of 
Defense leadership, Congress, and our stakeholders to define solid 
system baselines and develop stable funding plans.
    Question. The Comptroller General testified earlier this year that 
DOD programs often move forward with unrealistic program cost and 
schedule estimates, lack clearly defined and stable requirements, use 
immature technologies in launching product development, and fail to 
solidify design and manufacturing processes at appropriate junctures in 
development.
    Do you agree with the Comptroller General's assessment?
    Answer. The problems identified by the Comptroller General have 
always been, and will continue to be, challenges we face in the 
acquisition of the Department of Defense's unique and complex weapon 
and information systems. One of my goals is to restore the Air Force to 
its premier position in Acquisition and Management promoting 
transparency wherever appropriate.
    Question. If so, what steps do you believe the Air Force should 
take to address these problems?
    Answer. The Air Force has taken some good steps but there is more 
work to be done. Too much of the Air Force acquisition workforce and 
oversight capability--cost estimators, engineers, program managers, and 
test evaluators--was cut in the post cold war drawdown. I believe we 
need to reinstate much of this acquisition corps and put the right 
expertise and oversight back into the process. There is an ongoing DOD-
wide acquisition review of policies, regulations, and procedures, which 
will provide an assessment that considers many aspects of acquisition 
including: requirements, organization, legal foundation, decision 
methodology, oversight, and checks and balances. I look forward to the 
study's recommendations.
                             tanker leasing
    Question. Air Force leadership, and to some degree DOD leadership, 
failed to follow acquisition statutes and regulations and ensure good 
fiduciary stewardship of taxpayer funds, tailored the requirements of 
the operational requirements document (ORD) to the Boeing 767 instead 
of to the warfighter and overstated the effects of corrosion on the KC-
135 tanker fleet.
    If confirmed, what steps will you take to ensure that acquisition 
problems of this kind do not happen again?
    Answer. If confirmed, I would continue to work to ensure the 
lessons learned are incorporated into the training, education, and 
processes of the Air Force. I will ensure necessary checks and balances 
in the Air Force acquisition process and that the process is 
transparent and accountable. I am committed to ensuring discipline and 
credibility in the Air Force acquisition process.
                          contract management
    Question. By some estimates, the Department of Defense now spends 
more money every year for the acquisition of services than it does for 
the acquisition of products, including major weapon systems. Yet, the 
Department places far less emphasis on staffing, training, and managing 
the acquisition of services than it does on the acquisition of 
products.
    What steps, if any, do you believe the Air Force should take to 
improve the staffing, training, and management of its acquisition of 
services?
    Answer. If confirmed, I will work to ensure the Air Force puts 
discipline and transparency into services acquisitions. As I understand 
it, as part of the Strategic Plan, the Air Force will be reviewing 
their staffing, training, and management of large services 
acquisitions. If confirmed, I look forward to hearing the results of 
their review and their planned way-ahead.
    Question. Do you agree that the Air Force should develop processes 
and systems to provide managers with access to information needed to 
conduct comprehensive spending analyses of services contracts on an 
ongoing basis?
    Answer. Yes, I believe it is essential. The Air Force is working 
with other Services, the Office of the Secretary of Defense, and other 
Federal agencies to implement and institutionalize comprehensive 
spending analyses on services acquisitions as well as other 
acquisitions.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. The Department of 
Defense is by far the largest ordering agency under these contracts, 
accounting for 85 percent of the dollars awarded under one of the 
largest programs. The DOD Inspector General and others have identified 
a long series of problems with interagency contracts, including lack of 
acquisition planning, inadequate competition, excessive use of time and 
materials contracts, improper use of expired funds, inappropriate 
expenditures, and failure to monitor contractor performance.
    What steps, if any, do you believe the Air Force should take to 
ensure that its use of interagency contracts complies with applicable 
DOD requirements and is in the best interests of the Department?
    Answer. As the acting Under Secretary of Defense for Acquisition, 
Technology, and Logistics, I co-signed the Department of Defense (DOD) 
policy letter on the proper use of non-DOD Contracts. The policy laid 
out the following five procedures for DOD procurement teams to use when 
considering a contract outside of the DOD:

        <bullet> evaluate whether using a non-DOD contract for such 
        actions is in the best interests of the DOD;
        <bullet> determine if the tasks to be accomplished or supplies 
        to be provided are within the scope of the contract to be used;
        <bullet> review funding to ensure it is used in accordance with 
        appropriation limitations;
        <bullet> ensure the contracting agency includes DOD unique 
        terms and conditions when applicable; and
        <bullet> collect data on the use of interagency contracts for 
        analysis.

    I believe the Air Force has taken the necessary steps to ensure 
that its use of interagency contracts complies with applicable DOD 
requirements and is in the best interests of the Department; and if 
confirmed will ensure their effect conforms to DOD policy.
                 aircraft sustainment and modernization
    Question. The global war on terrorism has increased demands on the 
tanker fleet, increasing annual KC-135 flying hours over 30 percent 
since September 11. The Air Force has grounded 29 KC-135Es because of 
corrosion problems in the engine struts and has expressed a desire to 
retire these 29 aircraft and 20 additional KC-135Es in fiscal year 
2006.
    What is the status of the Tanker Replacement Analysis of 
Alternatives?
    Answer. The Analysis of Alternatives (AOA) for KC-135 
Recapitalization was delivered to the Air Force and the Office of the 
Secretary of Defense on 15 August 2005. The AOA is now undergoing two 
independent reviews that are scheduled for completion in November 
2005--the Institute for Defense Analyses' Independent Assessment and 
Program Analysis and Evaluation's (PA&E) Sufficiency Review.
    Question. When will a decision be made regarding the future of the 
air refueling fleet?
    Answer. If confirmed, I intend this to be an event driven process, 
and will await the completion of the sufficiency review. At that time I 
will better be able to assess the remaining schedule.
                         future cargo aircraft
    Question. The Army has included funds in the budget request to 
begin a program to procure intratheater airlift aircraft. Previously, 
fixed wing cargo delivery has been included in the roles and missions 
of the Air Force.
    What is your view of the proper roles and missions for the Army and 
Air Force in supplying front line troops?
    Answer. As defined in the Department of Defense Directive 5100.1, 
signed 1 August 2002 by Deputy Secretary of Defense, Paul Wolfowitz, 
the Air Force has the primary mission to provide air logistic support 
to the Army and other forces, including airlift, air and space support, 
and resupply of airborne operations.
                          joint strike fighter
    Question. The House Committee on Armed Services and the House 
Committee on Appropriations have recently proposed eliminating the 
procurement of long lead items to support the low rate initial 
production of five conventional take-off and landing variants of the 
Joint Strike Fighter.
    What are your views on this proposal?
    Answer. I believe the use of funds in the development of this 
complex, multinational program is being done very judiciously. The 
program is now on a solid track to success. There always abound rumors 
and doubts about the real United States commitment to support its 
allies and partners on such a multi-partner program. This program, if 
its goals and performance are achieved, will be a true cornerstone to 
coalition warfare for half a century to come, as there are undoubtedly 
other international players who are presently on the sidelines awaiting 
a buying opportunity.
    Budget cuts, as proposed, will fuel the worst rumors, as they 
threaten force activation directly, and tend to be interpreted by 
friends and competitors in the worst way.
    Question. If the House proposal is sustained, what do you think 
would be the impact on the program's schedule and future Air Force 
procurement decisions?
    Answer. See above response.
                           long range bombers
    Question. The B-1s, B-2s, and B-52s will begin to be retired in the 
2030 time frame.
    Do you believe that the United States needs to develop a new manned 
bomber?
    Answer. The Air Force is in the process of completing an analysis 
of alternatives for the next generation long range strike capability. 
Both manned and unmanned alternatives are being considered. The results 
of this analysis of alternatives will provide the Air Force with the 
information needed for development of long-range strike capabilities.
    Question. What role do you see for unmanned bombers?
    Answer. See above response.
    Question. When, in your view, must a decision on this issue be 
made?
    Answer. This is a major force structure issue and should be event 
driven. If confirmed, I would await the outcome of the analysis of 
alternatives to judge the remaining decision space and schedule.
                              nro director
    Question. The responsibilities of the Director of the National 
Reconnaissance Office (NRO) were recently separated from those of the 
Under Secretary of the Air Force.
    What was the rationale for this decision, and, if confirmed, what 
steps would you take to ensure that the interests of the Air Force are 
appropriately represented within the NRO?
    Answer. It is my understanding that the division of 
responsibilities was made to allow each official to concentrate 
exclusively on the unique needs of their own organizations.
    The Secretary of Defense recently stated that separating the two 
demanding jobs ``made sense and that the administration is now trying 
to ensure the Air Force and NRO stay linked to ensure coordination.'' 
If confirmed, both the Under Secretary of the Air Force and I will work 
hard to ensure the guidance of the Secretary of Defense and the 
Director of National Intelligence is followed to the best of our 
abilities.
    Question. What steps would you take, if confirmed, to ensure that 
DOD space programs and NRO programs are managed in a coordinated 
fashion?
    Answer. Over the last couple of years, a variety of management 
initiatives have been put in place, such as creating a National 
Security Space Vision, a National Security Space Strategy, and a 
National Security Space Plan. In addition, efforts are underway to 
collaboratively develop architectures between National Reconnaissance 
Office and the Department of Defense space programs.
    If confirmed, I will work with Dr. Sega, the Under Secretary of the 
Air Force and Department of Defense Executive Agent for Space, and Dr. 
Kerr, Director of the NRO, who already work closely, and will continue 
to coordinate efforts with respect to such important issues as space 
planning, acquisition policy, personnel, and the space industrial base; 
and to ensure coordination of efforts and resources in the most 
effective way possible.
                        joint warfighting space
    Question. The Air Force introduced the concept of Joint Warfighting 
Space to provide military commanders the capability to rapidly launch 
rockets with micro-satellites capable of supporting a specific area of 
operations with communications and other sensors.
    What is the status of current Air Force and Department of Defense 
efforts to develop and acquire a Joint Warfighting Space capability?
    Answer. If confirmed, I will work with the Air Force, Intelligence 
Community, and space community to gain a better understanding of their 
programmatics supporting this initiative.
    Question. Which entity within the Department has the lead for these 
activities?
    Answer. The Air Force as the DOD Executive Agent for Space has the 
lead for these activities.
    Question. What is your opinion on creating a Joint Program Office 
to coordinate and integrate all Department efforts in the area of Joint 
Warfighting Space?
    Answer. It is my understanding that as the Department of Defense 
Executive Agent for Space, the Air Force has begun planning for the 
standup of a Joint Warfighting Space Joint Program Office. If 
confirmed, I will support this important effort.
                           space acquisition
    Question. Both the House and Senate Armed Services Committees have 
reduced the President's fiscal year 2006 budget request for the Space 
Radar and Transformational Satellite (TSAT) programs, reflecting 
concern about the technological and programmatic risks associated with 
these programs. Regrettably, virtually all current space acquisition 
programs are suffering from cost overruns and schedule slips, adding 
further concern about the acquisition process now being used to oversee 
the Space Radar and TSAT programs.
    If confirmed, how would you propose to ensure that the acquisition 
process has been successfully overhauled in order to achieve the goal 
of delivering the Space Radar and TSAT within the promised cost and 
schedule?
    Answer. If confirmed, one of my goals is to restore the Air Force 
to its premier position in Acquisition and Management. This requires a 
more disciplined and transparent approach to acquisition. If confirmed, 
one of my top priorities will be to ensure we are taking the proper 
steps to address the problems we have seen in space acquisition 
programs. To ensure that we have a robust space acquisition approach we 
must continue our focus on mission success, consistently apply sound 
space acquisition policies, reconstitute our systems engineering 
capability, and--perhaps most importantly--develop an educated, 
trained, and experienced space acquisition workforce for the future.
    If confirmed, I will work with the Under Secretary of the Air 
Force, Ron Sega, to understand his progress to date and the challenges 
that lay ahead, and with him, work with Congress, Air Force and DOD 
leadership, and key partners and stakeholders to set a roadmap for the 
future.
                       bmd transition and funding
    Question. On April 7 of this year, you testified before the 
committee that an unfunded out year budget wedge of more than $2 
billion for the Missile Defense Agency represented funds that the 
military departments would be providing for future missile defense 
activities.
    What do you believe is the appropriate role for the Air Force in 
planning and budgeting for the costs of procuring, operating, and 
maintaining any ballistic missile defense system elements in the Future 
Years Defense Program?
    Answer. Defense against ballistic missile threats is a high 
priority mission given to the Department of Defense and it's my 
understanding the Air Force has inherent capabilities to contribute to 
that mission. I believe, as a consequence, the Air Force is actively 
engaged in determining how it can best contribute to this vital 
mission. If confirmed, I welcome the opportunity to work with the Air 
Force and Missile Defense Agency leadership to develop and refine lead 
Service transition and transfer plans to address the planning, 
budgeting, procuring, and maintaining of those ballistic missile 
defense system elements the Air Force will assume as the lead Service.
    Question. Do you believe that the Air Force budget should be 
modified to reflect the requirement to fund the Air Force share of $2 
billion for future missile defense activities in the outyears, 
consistent with the plans of the Missile Defense Agency and your own 
testimony?
    Answer. I believe there comes a time when development programs 
transition to operations. This transition transfers funding 
responsibility to operations and maintenance of the using Service, 
whether Army, Navy or Air Force. This is presently being determined 
between the Missile Defense Agency and the Services.
                    air force science and technology
    Question. The Air Force currently plans to dedicate approximately 
$2 billion to science and technology programs, 1.6 percent of the total 
Air Force budget and $346 million to basic defense research, or 0.3 
percent of the total Air Force budget.
    Do you believe the current balance between short- and long-term 
research is appropriate to meet current and future Air Force needs?
    Answer. It is my understanding that the Air Force Science and 
Technology Program spans a broad foundation of basic research, applied 
research, and advanced technology development efforts. The output of a 
Science and Technology investment enables the development of 
capabilities needed to respond to a rapidly changing world. If 
confirmed, I look forward to reviewing the Air Force Science and 
Technology Program with respect to a balanced investment in the 
research, development, demonstration, and transition of various 
technologies, and ensuring that the Air Force Science and Technology 
Program supports the needs of the warfighter.
                         technology transition
    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years, however, challenges remain in institutionalizing the 
transition of new technologies into existing programs of record and 
major weapons systems and platforms.
    What challenges to transition do you see within the Air Force?
    Answer. While I am unfamiliar with specific transition initiatives 
currently underway in the Air Force, if confirmed, I will bring to the 
Air Force some of the experiences gained in the Office of the Under 
Secretary of Defense for Acquisition, Technology and Logistics. Some 
examples include efforts to rapidly identify, mature, develop, test, 
assess, acquire, and field technologies to satisfy immediate warfighter 
needs. I expect to work closely with Air Force and Department of 
Defense leadership, and Congress to examine streamlining the technology 
transition and acquisition processes.
    Question. If confirmed, how would you ensure that technologies are 
rapidly transitioned from the laboratory into the hands of the 
warfighter?
    Answer. If confirmed, I would support a robust Air Force Science 
and Technology Program with the investment and focus needed to bring 
technologies to maturity, and transition these technologies into 
warfighting capabilities.
    Question. What steps would you take to enhance the effectiveness of 
technology transition efforts?
    Answer. If confirmed, I would support close collaboration with the 
technology community and the warfighter to identify current needs and 
to anticipate future operational needs arising from a changing national 
and world security environment.
                          test and evaluation
    Question. In response to advance policy questions to the committee 
for your June 22, 2001, nomination hearing to be Deputy Under Secretary 
of Defense for Acquisition and Technology you stated, ``Testers should 
be involved early to ensure an adequate test and evaluation program is 
defined, addressed, and maintained in both program budget and schedule. 
We need to devote sufficient resources to conduct well-planned test 
programs and execute the program properly. The Department needs to 
increase discipline in the developmental test and evaluation process by 
assuring systems have passed their exit criteria and demonstrated a 
fundamental core capability in developmental test and evaluation before 
entering Initial Operational Test and Evaluation.''
    What progress has the Department made toward the implementation of 
these objectives?
    Answer. The Air Force recently implemented a new strategy called 
``Seamless Verification'' that fully integrates all types of testing 
into a seamless, efficient continuum. Testers are involved much earlier 
in acquisition programs than ever before as they provide valuable 
advice to acquisition managers. The goal is for acquisition and test 
communities to become close partners in supporting our warfighters.
    Question. What are your views on the effectiveness of the 
Department's test and evaluation activity?
    Answer. If confirmed, one of my goals is to restore the Air Force 
to its premier position in acquisition and management. In testing the 
Air Force has always been on the forefront of innovative test and 
evaluation ideas and improvements.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process? For small systems? For large systems?
    Answer. It's my understanding that rapid fielding assumes more risk 
in the testing process and may even require programs to include their 
own test and evaluation capabilities. It's also my understanding that 
rapid acquisition does not replace normal acquisition procedures, but 
rather speeds up the administrative process of identifying, approving, 
and funding systems/capabilities to satisfy urgent warfighter needs. 
Additionally, rapid fielding often foregoes other lesser priorities 
until the rapid acquisition testing is completed by dedicating nearly 
all resources to the task at hand. This applies to all systems in the 
rapid fielding initiative, large and small.
    If confirmed, I look forward to working with the Air Force 
Acquisition and Test communities to make the acquisition process less 
cumbersome and effectively offset any risks introduced through rapid 
fielding with more effective program management and test and evaluation 
activities.
    Question. The Air Force has some unique requirements with regard to 
prompt global reach and affordable, responsive space lift missions.
    In your view, are changes in current test range structure, 
operations, and mission assurance parameters required to accommodate 
Air Force experimentation and small launch needs?
    Answer. If confirmed, I look forward to working with Air Force 
senior leaders and the Air Force Test and Evaluation community to 
better understand the requirements in accommodating Air Force 
experimentation and small launch, as well as how the Service's unique 
operational requirements and core competencies impact the test 
community.
      defense integrated manpower human resources system (dimhrs)
    Question. DIMHRS is a single integrated human resources pay and 
personnel system for all the Armed Services and the Defense Finance and 
Accounting System (DFAS), and is intended to replace many of the 
systems currently used to perform personnel management and pay 
functions. DIMHRS has been under development for several years and has 
come under criticism for cost growth, delays in implementation, and not 
meeting the expectations of each Service. The Acting Deputy Secretary 
of Defense has directed a review of DIMHRS in order to determine its 
future.
    What success has the Department had in developing and implementing 
enterprise-wide information technology systems?
    Answer. It is my understanding that the Air Force has effectively 
used information technology to permit Air Combat Command, Air Mobility 
Command, United States Air Forces in Europe, and Pacific Air Forces to 
consolidate their supply functions into consolidated Regional Supply 
Squadrons. In the past, supply functions had to be done at each base. 
Today, a single web interface is giving us access to worldwide supply 
information 24/7 making this process location independent even though 
we continue to rely on the legacy Standard Base Supply System. 
Centralizing common supply processes has proven to be effective in cost 
and performance providing greatly enhanced analytical tools and 
yielding a savings of 570 people.
    Another example, the Air Force has developed a common technical 
framework for providing warfighters and supporting activities with 
timely, accurate, and trusted combat support and business information. 
The technical framework was developed under the Global Combat Support 
System program. The Air Force Portal is the standard user interface to 
all Air Force support data and functions. The Air Force Portal includes 
personalized, role-based access and single sign-on to information and 
capabilities within combat support and business areas.
    Question. What are your views of the need for completion of 
implementation of DIMHRS and what specific benefits, if any, would the 
Air Force derive from this system?
    Answer. It is my understanding that DIMHRS can bridge the gap 
between the personnel and pay arenas, provide a unified system with far 
lower overhead, and dramatically reduce the number of pay errors 
affecting our troops. The Air Force needs a modern, integrated 
personnel/pay system.
               national security personnel system (nsps)
    Question. What are your views on the strengths and weaknesses of 
the implementation steps undertaken within the Department thus far?
    Answer. The strength of the implementation effort comes from the 
core of dedicated staff members who are working towards a new vision. 
The Air Force should have NSPS teams and champions at installations, 
begun training, and communicated NSPS import to its people.
    Question. What do you believe will be the benefits of NSPS when 
implemented, and what steps would you take, if confirmed, to ensure a 
smooth and effective transition?
    Answer. The bottom line: NSPS is a much-needed retooling of 
civilian personnel rules. It provides the Air Force with the tools we 
need to respond to the challenges we face daily. It gives us the 
flexibilities we need to get the job done the right way with the right 
people and in the right time. If confirmed, I will work within the Air 
Force, the Department of Defense, and Congress to make it a success. 
This means providing training and communication tools to give managers 
and employees a mastery of the new system and lessen their hesitancy 
and fear as they move from the known to the unknown.
                          technical workforce
    Question. In recent public comments at the DARPA Systems and 
Technology Symposium you noted concern about the adequacy of technical 
personnel with expertise in defense critical disciplines who qualify 
for security clearances: ``This is of particular concern to our 
Department because we hire almost half of all Federal scientists and 
engineers outright, as well as being responsible for many of the 
private sector jobs in science and technology.''
    If confirmed, what plans would you pursue to continue work to 
ensure a future supply of experts in defense critical disciplines to 
hold positions in defense laboratories?
    Answer. If confirmed, I will continue to work hard to make sure we 
have the right mix of talent, expertise, and skill to meet our needs in 
the Department of Defense, and to find innovative measures to attract 
bright individuals from America's youth to science, math, engineering, 
and technology career fields. For example, the Science, Mathematics, 
and Research for Transformation (SMART)/National Defense Education Act 
(NDEA)--Phase One program could provide an important option to address 
critical shortfalls in the DOD scientific and engineering workforce.
                        quality of life programs
    Question. Do you believe that Air Force quality of life programs 
are meeting the needs of members of the Air Force and their families?
    Answer. Yes. The Air Force has historically placed a high priority 
on the quality of life for its most important resource--its people. 
This has been reflected in the positions we have taken on issues like 
adequate pay and allowances, the standard of living in base housing and 
dormitories, and high-demand programs like fitness and child care, as 
needed balanced investment components for recruiting and retention.
    Question. If confirmed, what priorities would you establish to 
ensure that military quality of life programs are sustained and 
improved for Air Force members and their families?
    Answer. If confirmed, I would continue strong levels of support in 
areas like adequate compensation, housing for families and single 
members, education, fitness and childcare, as needed balanced 
investment components for recruiting and retention. These quality of 
life programs enhance military readiness and contribute to the sense of 
community, factors that are critical if we are to maintain a force that 
is ready, willing, and able to accomplish the mission.
                           battlefield airmen
    Question. Operations in Iraq have required Air Force personnel to 
provide direct support to ground forces, including participation in 
convoy duty. The adequacy of the training provided to deployed airmen 
who may be required to defend a convoy and installations against 
insurgents has been questioned.
    What non-traditional roles and missions can the Air Force assume to 
assist the ground forces?
    Answer. The Air Force is and has been performing numerous non-
traditional roles in support of operations in Iraq and Afghanistan. 
Based on currently agreed to sourcing for Operation Iraqi Freedom/
Operation Enduring Freedom 05-07 and 06-08, the Air Force will be 
providing personnel for over 3,000 billets traditionally assigned to 
the Army. Some of the roles and missions the Air Force will be 
performing are within its core competencies; others require additional 
training from the Army prior to deployment. The duties fall into the 
following Air Force functional areas: Medical, Chaplain, Engineering, 
Communications, Logistics, Intelligence, and Security Forces. The 
specific missions the Air Force is currently performing that require 
additional training are: Interrogation, Convoy Operations, and Prison 
Guard duty. Additionally, the Air Force will soon be providing 
personnel in support of Civil Affairs operations in Iraq, Afghanistan, 
and the Horn of Africa.
    Finally, the Air Force, in conjunction with the other Services, is 
actively researching other mission areas in which it can provide 
support to ground forces in Iraq and Afghanistan. In order to find 
additional mission areas the Air Force has broadened the spectrum and 
is looking at traditionally Army and, Marine Corps missions around the 
world. This has opened the door to additional missions in all the 
function areas listed above and other areas such as United Nations duty 
and Joint Task Force Headquarters roles.
    Question. What training is being provided to airmen who are 
assigned to, or who volunteer to perform convoy duty or other duties 
requiring proficiency in small arms or crew served weapons?
    Answer. As I understand it, Air Force training given fulfills 
essential requirements for high threat area deployment. For example, 
the Basic Combat Convoy Course (BC3) has proven to be the premier basic 
combat skills course that prepares airmen for combat convoy operations. 
Transportation airmen receive 25 days of training during BC3.
    Question. What is your assessment of the sufficiency of the 
training currently being given to Air and Space Expeditionary Force 
airmen deploying to Iraq and Afghanistan?
    Answer. I am not familiar with the sufficiency of training, but if 
confirmed it would be an area of highest urgency.
                   general officer management issues
    Question. Incidents of misconduct or substandard performance and 
findings of inspectors general and other command-directed 
investigations are documented in various ways in each of the Services. 
Procedures for forwarding adverse and alleged adverse information in 
connection with the promotion selection process are set forth in DOD 
Instruction 1320.4.
    How is the Air Force ensuring compliance with DOD Instruction 
1320.4?
    Answer. I have not had the opportunity to review this area in 
detail, but it is my understanding that the Air Force maintains a 
single repository for records of adverse information on senior 
officials, Secretary of the Air Force/Inspector General (SAF/IG) 
accomplishes an extensive files check whenever an individual meets a 
promotion board for any of the general officer ranks. If adverse 
information is uncovered, a senior officer unfavorable information file 
is created and is attached to the officer's promotion board folder. If 
selected for promotion, this file stays with the officer's nomination 
package through its coordination with the Office of the Secretary of 
Defense, the White House, and Congress. If new unfavorable information 
is uncovered on an officer already nominated for promotion, that 
information is immediately added to the nomination package. In this 
instance, the Air Force may pull the individual's name from the list.
    Question. What standards and procedures are in place in the Air 
Force to ensure that allegations of adverse information relating to 
nominees for promotion are brought to the attention of the Department 
and the committee in a timely manner?
    Answer. It is my understanding that if formal action is pending, 
the Secretary of the Air Force will sign a notification to the Office 
of the Secretary of Defense (OSD) of the situation and request 
appropriate action, such as formal separation from a pending promotion 
list, retirement request, or place a member on hold if there is a 
nomination pending Senate confirmation. Additionally, informal phone 
contact is made both with Office of the Secretary of Defense/Military 
Personnel Policy and/or the Senate Armed Services Committee staff 
through the Secretary of the Air Force for Legislative Affairs. Files 
checks on all individuals are conducted prior to submittal of 
nomination packages, retirement requests, and promotion lists; these 
files checks are updated every 60 days while formal action is pending 
approval, and ensure no adverse or potentially adverse information 
exists prior to the Secretary of the Air Force's signature on these 
requests.
              senior military and civilian accountability
    Question. While representative of a small number of individuals, 
revelations of abuses of rank and authority by senior military and 
civilian leaders and failures to perform up to accepted standards are 
frequently reported. Victims of such abuses often report that they felt 
that no one would pay attention to or believe their complaints. 
Accusations of unduly lenient treatment of senior officers and senior 
officials against whom accusations have been substantiated are also 
frequently heard.
    What are your views regarding the appropriate standard of 
accountability for senior civilian and military leaders of the 
Department?
    Answer. Public service is a matter of public trust. Standards of 
accountability are and will remain high for all personnel in the 
Department. I expect every civilian and military leader to meet Air 
Force professional and personal standards of conduct. I also expect 
commanders and supervisors to enforce those standards and take 
appropriate action when individuals, regardless of rank or position, 
fail to meet them.
    Question. If confirmed, what steps would you take to ensure that 
senior leaders of the Air Force are held accountable for their actions 
and performance?
    Answer. First, I would review existing guidance to ensure it is 
adequate and clearly puts senior leaders on notice of the professional 
standards to which I expect them to conform. Second, I would utilize 
existing systems, to include the Inspector General System, the Office 
of Special Investigations, and the Equal Opportunity program to monitor 
both complaints and the actions taken on substantiated complaints. I 
expect to be briefed on allegations, substantiated allegations and the 
actions taken in response to substantiated allegations.
     airborne intelligence, surveillance, and reconnaissance (isr)
    Question. The airborne ISR assets developed and operated by the Air 
Force form an indispensable part of the Nation's overall intelligence 
architecture. These assets are often referred to as high demand, low 
density systems because of the extensive number of requirements and 
high operational tempo on their systems and crews.
    In your view, does the Air Force have sufficient airborne ISR 
assets to meet current and projected requirements?
    Answer. This is an area of concern to me, though I am not familiar 
with the current state of sufficiency. If confirmed, I will review the 
resourcing of these assets for sufficiency.
    Question. What changes would you recommend, if confirmed, to 
current plans for the development and acquisition of airborne ISR 
platforms? Will these changes remove ISR platforms from the high 
demand, low density category?
    Answer. As demand is a function of the various combatant 
commanders, it is difficult to envision a scenario where one could 
completely eliminate high demand, low density from its lexicon when 
discussing airborne ISR capabilities. If confirmed, I will review all 
of the usage and plans for these platforms to determine the sufficiency 
of resourcing.
                    officer reduction in force (rif)
    Question. The Air Force has reported that it has a surplus of some 
4,000 officers, mostly lieutenants and captains. Information available 
from the Air Force Personnel Center indicates that among others, there 
are 1,600 surplus pilots, 389 intelligence officers, 278 security force 
officers (military police), and 666 medical service corps officers. The 
Air Force is considering a RIF to meet end strength requirements.
    What is your understanding of the scope of the Air Force's surplus 
of junior officers and the Air Force's current plan to address this 
problem?
    Answer. The officer corps in total needs to be reviewed as the 
imbalance is within the total corps. Force rebalance with an emphasis 
on innovation is a goal. I am concerned with any indication that the 
Air Force message on future opportunities gets misinterpreted.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                    competition in service contracts
    1. Senator Warner. Secretary Wynne, in July 2004, you signed an 
acquisition policy memorandum addressed to the Service Secretaries and 
Service Acquisition Executives regarding the selection of contractors 
for subsystems and components. That memo called for better oversight to 
ensure that prime contractors fairly compete work that will be 
performed by subcontractors and not ``insource'' such work to their own 
companies. The committee has been made aware of an increasing number of 
situations in which prime contractors have insourced work that is 
within the scope of teammates on indefinite delivery, indefinite 
quantity (IDIQ) services contracts. Do the policies set forth in your 
July 2004 memorandum apply to services contracts, which may be 
conducted under FAR Part 12 contracts? If not, why not? If so, are DOD 
and the Services exercising adequate supervision over insourcing 
decisions?
    Mr. Wynne. Competition is important in either case, and so I do not 
see that there is a difference in the application, other than the 
circumstance of service may be different than supply. The role of the 
prime is to provide best value to the customer in quality and price, 
therefore insourcing should provide an improvement to the customer for 
best value, or it does not reflect the assigned duty of the prime. The 
policies that were addressed in my memorandum of July 12, 2004, were 
intended to apply to the choices that are made to design systems and 
their component parts. Moreover, the potential remedy of providing a 
capability as Government-furnished equipment, as addressed in the 
memorandum, may not be practical for the acquisition of services. 
However, I have asked in the context of acquisition, technology, and 
logistics (AT&L) for improved supervision and oversight; and now have 
the opportunity, if confirmed, to follow essentially my own direction.

    2. Senator Warner. Secretary Wynne, if confirmed as Secretary of 
the Air Force, will you commit that you will look into this issue and 
establish policy that will ensure appropriate competition, including 
government oversight on services contracts?
    Mr. Wynne. If confirmed I will look into this issue, and determine 
if added policies are relevant, or if current policy needs to be 
emphasized, for services contracts. Services contracts are an 
increasing component of our acquisition dollars and need scrutiny.

    3. Senator Warner. Secretary Wynne, GAO found that DOD could not 
demonstrate that it had achieved cost savings or performance 
improvements through the use of performance-based logistics 
arrangements in the September 2005 GAO Report (GAO-05-966 titled DOD 
Needs to Demonstrate that Performance-Based Logistics Contracts Are 
Achieving Expected Benefits). If confirmed, what steps would you take 
to implement more effective oversight of performance-based services 
contracts in the Air Force and respond to the recommendations of GAO?
    Mr. Wynne. If confirmed, I will carefully review the circumstances 
that the GAO found in its report. I intend, if confirmed, to achieve a 
clean audit within the Air Force, and believe this knowledge will allow 
better management of performance-based logistics contracts. I will 
also, if confirmed, cause a review of each of the GAO recommendations 
with a bias towards implementation.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                              acquisition
    4. Senator McCain. Secretary Wynne, the committee is becoming 
increasingly aware of situations where prime contractors are insourcing 
work that is the scope of teammates on indefinite delivery, indefinite 
quantity (IDIQ) services contracts. As Acting Under Secretary of 
Defense you signed an acquisition policy memorandum last July 2004 on 
the selection of contractors for subsystems and components. It calls 
for the government to provide oversight when a prime considers using 
its own capability to perform work that can be competitively conducted 
elsewhere in the industrial base. As an example, the committee is aware 
that a prime contractor is attempting to insource engine repair work 
that it has never done before, pursuant to contract options that were 
awarded based on the performance of their subcontractors. This action 
would displace the Air Force's only qualified commercial vendor--the 
subcontractor that is currently performing the work. What is your view 
of such a practice being conducted without any direct oversight by the 
Air Force or Congress?
    Mr. Wynne. Competition is important in either case, and so I do not 
see that there is a difference in the application, other than the 
circumstance of service may be different than supply. The role of the 
prime is to provide best value to the customer in quality and price, 
therefore insourcing should provide an improvement to the customer for 
best value, or it does not reflect the assigned duty of the prime. The 
policies that were addressed in my memorandum of July 12, 2004, were 
intended to apply to the choices that are made to design systems and 
their component parts. Moreover, the potential remedy of providing a 
capability as Government furnished equipment, as addressed in the 
memorandum, may not be practical for the acquisition of services. 
However, I have asked in the context of AT&L for improved supervision 
and oversight; and now have the opportunity, if confirmed, to follow 
essentially my own direction. I am not familiar with the specific issue 
cited, and if confirmed, commit to looking into the circumstance 
surrounding this issue.

    5. Senator McCain. Secretary Wynne, as Congress continues to 
examine how to improve the DOD acquisition process, including the 
acquisition of services, do you think that prime contractors should be 
required to flow down options to its subcontractors whose performance 
was the basis for such option awards and if not, why not?
    Mr. Wynne. Acquisition of services continues to consume a greater 
and greater portion of the available acquisition dollars and therefore 
merits scrutiny. The merits of flowdown under service contracts should 
be based on continuing to receive the benefit of acceptable services 
while allowing the prime contractor to gain efficiencies. An incumbent 
subcontractor is likely to be very competitive for option awards where 
its performance is satisfactory. When government rules with a heavy 
hand, it can cause tyranny from subcontractors and a loss of 
accountability at the prime level. The specific cited instance is 
unfamiliar to me and, if confirmed, I will look into this specific 
instance as an example.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                           space acquisition
    6. Senator Sessions. Secretary Wynne, the Department's new approach 
to space acquisition appears to be evident in the Transformational 
Satellite (TSAT) program. Nevertheless, the Senate and House Armed 
Services Committees have expressed some unease about TSAT's ambitious 
acquisition schedule, given the integration challenges one might expect 
from such a complex program. This unease with TSAT derives from the 
sorry history of space acquisition programs. How will Congress know 
when the acquisition program is sufficiently reformed such that we can 
have confidence that TSAT and other satellite programs will be 
delivered on schedule and close to cost?
    Mr. Wynne. The TSAT program, if successful, brings the Global 
Information Grid's (GIG) concept of a massive increase in 
transmissibility closer to reality. Given that it is a noble quest, can 
we bring less risk is the question of the moment. If confirmed, one of 
my goals is to establish a more rigid technology readiness criteria so 
that we have confidence in the technologies we integrate into our 
platforms. Increasing the technical maturity levels decreases 
substantially the risk of integration. Congress will know our efforts 
have made an impact when we can forecast schedules credibly. Schedule 
is a major driver of cost, but without technical maturity, schedules 
cannot be maintained in a credible way. 
    Another area of concern is the inattention to detail that causes 
lapses in engineering and quality discipline. These also cause schedule 
impacts and integration is most vulnerable. If confirmed, I intend to 
address this as well.

    7. Senator Sessions. Secretary Wynne, are there a set of criteria 
we should use to assess the viability of space acquisition programs?
    Mr. Wynne. Yes, the National Security Space Acquisition Policy 03-
01 (NSS 03-01) provides acquisition process guidance for all DOD space 
system major defense acquisition programs (MDAPs). Additionally, 
technical readiness levels are very good indicators of future success, 
and adherence to schedule milestones with decreasing levels of fault in 
engineering and quality. All of these should be measured.

    8. Senator Sessions. Secretary Wynne, should we rely on independent 
assessments?
    Mr. Wynne. Independent assessments can be useful, but the very 
phrase assessment contemplates measure from baseline; and can't replace 
a systems engineering master plan which is the roadmap to success.

    9. Senator Sessions. Secretary Wynne, what incentives or procedural 
changes would encourage more realism in cost estimates? Have you 
studied what could realistically be done to address this cause?
    Mr. Wynne. To encourage cost realism, I would promote more mature 
technologies in development programs, stringent requirements vetting, 
robust organic cost analysis capability, independent cost estimating, 
well defined and realistic technical and schedule baselines, and 
accountability. There are several ongoing reviews of acquisition 
practice within the Department. Many of these initiatives I mention 
here are the product of past and present studies on how to address the 
root cause of weapon system cost growth. If confirmed, I plan on 
reviewing the recommendations they offer. My current view is to assign 
more accountability to the program manager with regard to tradeoffs on 
requirements. I also plan on reviewing profit incentives to assess 
whether they are fairly given, and protect the interests of the 
taxpayer. Some areas of engineering and quality discipline problems 
should incur a penalty.

    10. Senator Sessions. Secretary Wynne, what progress has DOD made 
in setting priorities for its desired space capabilities in the event 
that programs are funded at a higher level of confidence or estimates 
are more realistic (higher)?
    Mr. Wynne. DOD has developed a capabilities-based approach to what 
space assets can bring, and when to trade these for air or ground based 
assets. We work at the Department level and with Congress to allocate 
our resources across the Services and programs to achieve those 
required space capabilities. The lack of confidence in achievement of 
milestones places a risk premium on certain programs, which then are 
more available for trade. With the problems that space programs have 
encountered, prioritization is essential if space dominance is to be 
retained. 

    11. Senator Sessions. Secretary Wynne, does DOD possess the 
analytic tools to make trades across space systems?
    Mr. Wynne. We have appropriate tools to develop architectures and 
analyze trades within specific mission areas. These analytic tools are 
continually refined. As a current assessment, I do believe that DOD can 
adequately conduct trades.

    12. Senator Sessions. Secretary Wynne, given the difficulties that 
space systems have experienced because technologies have not matured as 
promised, would you be in favor of changing NSS-03-01 to conform to the 
DOD 5000 series (acquisition policy document for DOD)?
    Mr. Wynne. DOD 5000 would not necessarily result in more mature 
technologies. However, if confirmed, one of the issues that I want to 
consider is how to bring the emphasis of technology readiness 
assessments that determine whether the technology is mature enough for 
the program to enter into the next acquisition phase, and systems 
engineering discipline back into space; and a review of the NSS-03-01 
appears to be in order, as well  as its conformance to DOD 5000.
                                 ______
                                 
               Questions Submitted by Senator John Ensign
                    competition in service contracts
    13. Senator Ensign. Secretary Wynne, you signed an acquisition 
policy memorandum as Acting Under Secretary of Defense last July 2004 
on the selection of contractors for subsystems and components that 
calls for the government to provide oversight when a prime considers 
insourcing work that can be competitively conducted elsewhere in the 
industrial base. The committee is becoming aware of situations where 
prime contractors are insourcing work that is the scope of teammates on 
IDIQ services contracts. Does this policy also apply to services, which 
may be conducted under FAR Part 12 contracts?
    Mr. Wynne. Competition is important in either case, and so I do not 
see that there is a difference in the application, other than the 
circumstance of service may be different than supply. The role of the 
prime is to provide best value to the customer in quality and price, 
therefore insourcing should provide an improvement to the customer for 
best value, or it does not reflect the assigned duty of the prime. The 
policies that were addressed in my memorandum of July 12, 2004, were 
intended to apply to the choices that are made to design systems and 
their component parts. Moreover, the potential remedy of providing a 
capability as government furnished equipment, as addressed in the 
memorandum, may not be practical for the acquisition of services. 
However, I have asked in the context of AT&L for improved supervision 
and oversight; and now have the opportunity, if confirmed, to follow 
essentially my own direction.

    14. Senator Ensign. Secretary Wynne, if confirmed as Secretary of 
the Air Force, will you commit to the committee that you will look into 
this issue and establish policy that requires government approval of 
insourcing decisions by primes on services contract?
    Mr. Wynne. If confirmed, I will look into this issue and determine 
if added policies are relevant, or if current policy needs to be 
emphasized for services contracts. Services contracts are an increasing 
component of our acquisition dollars and need scrutiny.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                      public-private partnerships
    15. Senator Chambliss. Secretary Wynne, one of the things I have 
followed closely in my 10 years in Congress is the Air Force's policies 
regarding core workload and public-private partnerships. I have one of 
the Air Force's three Air Logistics Centers in my State at Robins Air 
Force Base and I understand you had a chance to visit that installation 
back in July. Over the past few years at Robins, the depot has 
established and grown a public-private partnership for the C-17 program 
which continues to be a huge success and produce great results for the 
taxpayer and the Air Force. As the Air Force fields new aircraft like 
the C-130J and the F/A-22 I expect that the Air Force will develop 
public-private partnerships for those systems as well which bring 
together the expertise of private industry and our DOD industrial 
sites. I know you've thought about this during your tenure at OSD AT&L, 
but I'd like you to provide your thoughts on public-private 
partnerships for sustaining weapon systems, and also have your 
assurances that, if confirmed, you will be an advocate for these 
partnerships and not advocate large, non-competed maintenance contracts 
to the private sector for Air Force weapon systems as has been 
considered in the past.
    Mr. Wynne. I have seen first hand the benefits that the public-
private partnerships bring to both sides and appreciate their effect. 
Each arrangement must bring the biggest benefit to the taxpayer, but 
should be first compared to the model of the public-private 
partnership. Partnering with the private sector to ensure access to 
complimentary depot maintenance capabilities is an integral part of the 
Air Force depot strategy. In this regard, I can advise that I will 
ensure the best capabilities mix from the public and private sectors. 
If this is provided best by the public-private partnership, I would be 
an advocate to bring this benefit to the taxpayer.

                        joint stars re-engining
    16. Senator Chambliss. Secretary Wynne, this committee has shown 
its support for re-engining the Joint STARS fleet by authorizing $44 
million in fiscal year 2006 to initiate this effort. Many of us believe 
that both procuring and leasing new engines should be considered 
because this is a case where an operating lease could make sense. 
Leasing engines avoids disrupting planned procurement budgets since the 
lease costs can be paid from operating and maintenance funds that 
support the current engine fleet. In fact, I understand that the U.S. 
Navy currently leases engines in this manner for some of their aviation 
fleet. If Congress appropriates the funds requested in the Air Force's 
fiscal year 2006 Unfunded Priority List for non-recurring engineering 
activities associated with re-engining the Joint STARS fleet and if, as 
a result of evaluating the quotes the Department receives from industry 
for the re-engining effort, leasing the engines is the recommended 
alternative, will you support the recommendation?
    Mr. Wynne. I continue to be an advocate that innovative 
contracting/leasing has a place in this spectrum. It comes down to the 
business case to achieve the overall cost benefit. The cost benefit is 
not simply to the engine on engine, regarding maintenance, but to the 
second order effect on fuel costs, and the larger third order effect of 
reducing the need for airborne tankers. Increasing the fleet fuel 
economy is not just for Joint STARS, but it likely makes a compelling 
case on its own. If such a compelling case can be made and meets the 
various Office of Management and Budget (OMB) criteria, as you suggest, 
I could support it, if confirmed.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                   alternatives to reduction in force
    17. Senator Thune. Secretary Wynne, the Air Force has reported that 
it has a surplus of 4,000 officers, mostly lieutenants and captains. In 
order to meet end strength, the Air Force is considering a RIF. Do you 
think it is a wise policy for the Air Force to begin releasing 
experienced officers during a time of crisis?
    Mr. Wynne. This is an issue that I want to carefully review, if 
confirmed, and therefore must withhold judgment, as I didn't know the 
options the Air Force is considering. I am aware that Congress 
establishes the authorized end strength for the Air Force and surpluses 
of personnel are always a fiscal and operational concern of senior 
leadership. My view is that there must be a balance between experience 
and innovation. I recognize that the Air Force must be a technically 
savvy force. I also recognize that experience counts in war. The Air 
Force has been in combat since 1990 and on a continuous basis. Changes 
are coming, but the question remains at what rate.

    18. Senator Thune. Secretary Wynne, has the Air Force considered 
other alternatives to a RIF? For example, the Marine Corps is in need 
of pilots in the grade of lieutenant and captain. Has there been any 
communication between the Services that would give experienced officers 
the option of retraining to another specialty or switching to a sister 
Service to fill open slots?
    Mr. Wynne. I am not personally aware of the alternatives the Air 
Force has considered and I don't know the status of other Services' 
pilot retention and recruiting. This is clearly innovative, and matches 
well the `Blue to Green' concept for transfers from the Air Force to 
the Army. My experience has been that the Services all work closely 
together and with OSD on personnel related matters. If confirmed, I 
will follow up on how coordinated the accession strategy is. As the 
Joint Strike Fighter (JSF) matures, this could become even more 
important.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                              space radar
    19. Senator Levin. Secretary Wynne, the current Air Force plan for 
the space radar (SR) program sets 2015 as the target date for the first 
satellite launch. Many in Congress think that this date may be overly 
ambitious because the requirements for the program and the costs of the 
program are not well established. Recently there has been some 
discussion about accelerating the program so that the first launch 
would be as early as 2008. Do you believe that a SR satellite could 
launch in 2008?
    Mr. Wynne. I would be concerned that such an aggressive schedule 
must be supported by very mature technologies. Dr. Ronald Sega is 
reviewing the potential to provide a SR program earlier than current 
projections while taking a low technology risk approach. Such an 
approach would allow a satellite launch sometime earlier than current 
SR plans. If confirmed, I will be emphasizing technical maturity, and 
will be reviewing the SR in this regard.

    20. Senator Levin. Secretary Wynne, what information would such a 
satellite provide and at what cost?
    Mr. Wynne. I understand the SR would contribute significantly to 
both tactical surveillance and strategic surveillance. When used in 
conjunction with other sensors, it contributes to our agility and 
battlefield dominance. Cost continues to be an issue and is the 
attribute considered in trades studies against other available 
capabilities.

    21. Senator Levin. Secretary Wynne, do you support this approach?
    Mr. Wynne. I support achieving the capabilities to meet the next 
generation warfight and I do support the idea that we should evaluate a 
nearer term, lower-risk program implementation. The notion of the 
Automatic Electronic Scanning Array Radio Detection and Ranging (RADAR) 
has been maturing for application to aircraft for the past 2 decades 
represents an attractive application. If confirmed I will be looking 
into the technical maturity of this application and comparing it to 
other capabilities available in the time frame. I would like, if 
confirmed, to hear the arguments prior to making a judgment.

                       executive agent for space
    22. Senator Levin. Secretary Wynne, will you serve as the 
Department of Defense Executive Agent for Space or will this 
responsibility be further delegated to the Under Secretary of the Air 
Force?
    Mr. Wynne. In the position of AT&L, I withdrew the delegation from 
the Air Force that had been in place for the past several years. You 
are correct in presuming, if confirmed, that I will seek its 
reinstatement. I have worked with Dr. Ron Sega for the past almost 4 
years and find him highly qualified to handle this responsibility. He 
has  been accomplishing the task for the past several months and has 
established a remarkable record of achievement with both the DOD and 
the Director of Naval Intelligence (DNI). I see no reason at present 
that I would not, if confirmed, allow him to continue in this regard.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                     need for persian gulf presence
    23. Senator Kennedy. Secretary Wynne, during the Cold War, the 
United States protected its interests in the Persian Gulf by relying on 
local allies and preparing facilities that would permit a rapid 
intervention, but we did not keep large combat forces deployed there on 
a permanent basis. This worked very well, even when we were facing the 
Soviet challenge, and we used this same approach to expel Iraq from 
Kuwait in 1990-1991. Since then, we have kept thousands of combat 
troops in the region, and some argue that their presence has fueled the 
rise of extremist groups like Al Qaeda. Can the United States return to 
an offshore balancing strategy in the Gulf, and rely primarily on local 
actors and our own air and naval forces?
    Mr. Wynne. History shows that the time constant of restoring stable 
governance has been shrinking from the 46 years in the Philippines, and 
some 24 years in Haiti in the early 1900s to now. With the current foe, 
and some compelling evidence of our opponents' desire for our hasty 
exit; the return to `an offshore balancing strategy' does not appear to 
be in our near future. However, as General Abizaid and Secretary 
Rumsfeld have stated on numerous occasions, the U.S. military intends 
to reduce the level of U.S. forces in the region as conditions permit.

                       war cost and modernization
    24. Senator Kennedy. Secretary Wynne, are you worried that the 
costs of the Iraq war are going to prevent the Air Force from 
modernizing its forces in a timely manner?
    Mr. Wynne. There are many budgetary pressures across the DOD and 
the Air Force. If confirmed, I need to better understand all of the 
costs going forward, and can't make a judgment as yet. I do believe the 
American taxpayer will agree to fund what is necessary to preserve 
their freedoms.

                              recruitment
    25. Senator Kennedy. Secretary Wynne, recruitment for the Air 
National Guard (ANG) has been down. In August, the ANG only met 85 
percent of its recruiting goal. What's your strategy to reverse this 
trend?
    Mr. Wynne. I do not understand all of the dynamics at present, and 
if confirmed, will review ongoing accession strategies and work with 
the ANG to determine what changes to make. I do understand the ANG is 
pursuing several initiatives to help them achieve their recruiting 
goal.

    26. Senator Kennedy. Secretary Wynne, what impact have increased 
deployments in Iraq had on recruiting?
    Mr. Wynne. I don't know, and have not been privy to outbriefs or 
surveys to make a judgment in that regard. If confirmed, I will look 
carefully at the impact of global war on terror operations on the total 
personnel force.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                             modernization
    27. Senator Byrd. Secretary Wynne, as part of the DOD's 
transforming our military forces, the U.S. Air Force is developing an 
initiative known as Future Total Force (FTF), which focuses on 
accelerated reductions of legacy weapons systems and the procurement of 
newer weapons systems. How do you anticipate that the Base Realignment 
and Closure (BRAC) Commission Report and the 2005 QDR will impact the 
Air Force FTF planning process?
    Mr. Wynne. The BRAC recommendations are still maturing in Congress, 
and if that concludes without objection, the Department will be 
obligated to close and realign all installations so recommended. Any 
impacts from that will be collectively assessed with the Air Force's 
total Force--Active, ANG, and Reserve. If confirmed, I will review the 
initial assessment that the BRAC recommendations were generally in 
conformance with FTF. The QDR continues and is being accomplished in 
the context of FTF, but likely the results of numerous QDR studies such 
as Joint Air Dominance, tactical air (TACAIR) integration, etc., must 
answer larger questions as to the Air Force's future roles and 
missions.

    28. Senator Byrd. Secretary Wynne, what are your views about the 
Air Force's future role in missions of homeland defense, the war on 
terrorism, and combating weapons of mass destruction?
    Mr. Wynne. I see the mission of the Air Force to preserve sovereign 
options for the United States in the assigned commons of air and space, 
and in the emerging commons of cyberspace. Each of the various missions 
described in the question has a derivative mission for the Air Force, 
in preserving commerce, in preserving order, and in the ability of the 
U.S. to deter aggression. Recently, the utility of the Air Force in 
support of consequence management of a natural disaster illustrated the 
mission for homeland defense over and above deterrence from incursion, 
and air and space defense.

    29. Senator Byrd. Secretary Wynne, please describe your position 
concerning C-5 strategic airlift and the roadmap to modernize the fleet 
with upgraded avionics and engines.
    Mr. Wynne. I believe in the need for strategic lift and the 
retention of the capability to do it quickly. I am unfamiliar with the 
business details of the avionics and engine modernization. I am an 
advocate for increasing fuel economy and increasing reliability but 
would have to compare this business plan against the priorities of the 
Service. If confirmed, I will do that.

    30. Senator Byrd. Secretary Wynne, do you support community basing 
of Active-Duty Forces at ANG bases?
    Mr. Wynne. I support the concept of FTF. If confirmed, I will 
review the merits of community basing and other aspects of the FTF.

                      base realignment and closure
    31. Senator Byrd. Secretary Wynne, the BRAC Commission Report 
forwarded to the President found the DOD recommendations relating the 
130th Airlift Wing located in Charleston, West Virginia, ``deviated 
substantially from selection criteria 1, 2, and 3, as well as from the 
Force Structure Plan.'' The BRAC Commission finding left the airlift 
mission and C-130H aircraft at Charleston; however, the report did not 
address the previous agreement that C-130H3 aircraft from the 167th 
Airlift Wing in Martinsburg, West Virginia, which is to receive C-5s in 
the fiscal year 2007 timeframe, would be transferred to Charleston, 
West Virginia. I am very opposed to any change to the agreement 
regarding transfer of these aircraft to Charleston. This is an issue a 
high priority matter to me that I will be monitoring closely. I hope 
that if you are confirmed, you will work closely with me to ensure that 
the original plan developed by your predecessors will be implemented as 
intended. Can I have your assurances in this regard?
    Mr. Wynne. The BRAC recommendations are presently maturing before 
Congress, and if they clear without objection, the Department will 
close and realign all installations so recommended. If confirmed, I 
will commit to working with you to implement these to the best result. 
I can also assure you that if confirmed, I will ask to be briefed as to 
commitments made by my predecessors and will work with you in that 
regard as well.
                                 ______
                                 
    [The nomination reference of Michael W. Wynne follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 6, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael W. Wynne, of Florida, to be Secretary of the Air Force, 
vice James G. Roche.
                                 ______
                                 
    [The biographical sketch of Michael W. Wynne, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Michael W. Wynne
    Michael W. Wynne is the Principal Deputy Under Secretary of Defense 
for Acquisition, Technology, and Logistics. The Senate confirmed him to 
this position on July 12, 2001.
    Prior to joining Defense, he was involved in venture capital 
nurturing small technology companies through their start-up phase as a 
member of the NextGenFund Executive Committee and serving in executive 
positions within two companies.
    In 1999, Mr. Wynne retired as Senior Vice President from General 
Dynamics (GD), where his role was in International Development and 
Strategy. He spent 23 years with GD in various senior positions with 
the Aircraft (F-16s), Main Battle Tanks (M1A2), and Space Launch 
Vehicles (Atlas and Centaur).
    In between working with GD, he spent 3 years with Lockheed Martin 
(LMT), having sold the Space Systems division to then Martin Marietta. 
He successfully integrated the division into the Astronautics Company 
and became the General Manager of the Space Launch Systems segment, 
combining the Titan with the Atlas Launch vehicles.
    Prior to joining industry, Mr. Wynne served in the Air Force for 7 
years, ending as a Captain and Assistant Professor of Astronautics at 
the U.S. Air Force Academy teaching Control Theory and Fire Control 
Techniques. Mr. Wynne graduated from the United States Military Academy 
and also holds a Masters in Electrical Engineering from the Air Force 
Institute of Technology and a Masters in Business from the University 
of Colorado. He has attended short courses at Northwestern University 
(Business) and Harvard Business School (PMD-42). He is a Fellow in the 
National Contracts Management Association, and has been a Past 
President of the Association of the United States Army, Detroit Chapter 
and the Michigan Chapter of the American Defense Preparedness 
Association. He has published numerous professional journal articles 
relating to engineering, cost estimating, and contracting.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michael W. 
Wynne in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Wynne, Michael Walter.

    2. Position to which nominated:
    Secretary of the Air Force.

    3. Date of nomination:
    September 6, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 4, 1944; Clearwater, Florida.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Barbara H. Wynne (maiden name: Hill).

    7. Names and ages of children:
    Lisa W. Henkhaus, 38; Collene W. Finn, 37; Karen W. Murphy, 34; 
Laura W. Killette, 29.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    7/1962-6/1966--United States Military Academy, West Point, NY, 
BSGE.
    7/1968-6/1970--Air Force Institute of Technology, WPAFB OH, MSEE.
    9/1973-6/1975--University of Colorado, Colorado Springs, CO, MBA.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    6/2001-present--Deputy Under Secretary of Defense (AT&L).
    4/2005-6/2005--Under Secretary of Defense (AT&L), 3015 Defense 
Pentago, Rm 3E1006/3C636, Washington, DC.
    12/2000-6/2001--Chairman/CEO, IXATA Group, 8989 Rio San Diego 
Drive, San Diego, CA.
    7/1997-10/1999--Senior Vice President, General Dynamics, 3190 
Fairview Park Drive, Falls Church, VA.
    5/1994-3/1997--GM Space Launch System, Lockheed martin 
Astronautics, Deer Creek Canyon Drive, Denver, CO.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    6/1966-6/1973--Officer in the USAF--Captain.
    6/1973-9/1975--Reserve Officer--Captain.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Republican National Committee, approximate $4,000.
    Republican Senatorial Inner Circle, less than $1,000.
    Democratic National Committee, less than $500.
    Senator Feinstein, approximate $750.
    Senator Allen, less than $500.
    Congressman Hunter, less than $500.
    Bush Campaign, less than $500.
    Texas Republican Party, less than $200.
    Virginia Republican Party, less than $500.
    Congressman Cunningham, less than $500.
    Senator Snowe, approximately $750.
    Lazio Campaign, less than $300.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    National Contract Management Association Fellow.
    Military Medals: Unit Excellence (AC-130 Gunship Development) and 
Navy Distinguished Public Service.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    1970--Multiple Reentry Vehicle--AIAA/IEE proceedings.
    1972--Optimal Control: Sightline Autopilot--AIAA proceedings.
    1978--Impact of Labor Strike on Learning Curves for Manufacturing 
Society for Parametric Estimating.
    1985--RD&A Magazine, Benefit of the M1A1 Multi-year for the Army.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Michael W. Wynne.
    This 9th day of September 2005.

    [The nomination of Michael W. Wynne was reported to the 
Senate by Chairman Warner on October 27, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 28, 2005.]
                              ----------                              

    [Prepared questions submitted to Donald C. Winter by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the Services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions based on your extensive experience in the Department of 
Defense?
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. Although I fully support the goals associated with the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986, I 
have not served within the Department of Defense since Goldwater-
Nichols was implemented. Because of that, I do not believe that I am 
currently in a position to suggest modifications.
                                 duties
    Question. Section 5013 of title 10, United States Code, establishes 
the responsibilities and authority of the Secretary of the Navy.
    What is your understanding of the duties and functions of the 
Secretary of the Navy?
    Answer. Secretary Rumsfeld is the principal assistant to the 
President in all matters relating to the Department of Defense. If 
confirmed as Secretary of the Navy, my authorities would be derived 
through his office. Subject to his direction, the Secretary of the Navy 
is responsible for all functions assigned to both the U.S. Navy and 
U.S. Marine Corps.
    Question. Assuming you are confirmed, what duties do you expect 
that Secretary Rumsfeld would prescribe for you?
    Answer. If confirmed, I believe that Secretary Rumsfeld would 
expect me to provide Department of the Navy policy consistent with his 
and the President's national security objectives. He would expect me to 
implement those policies throughout the Department of the Navy.
    Question. What duties and responsibilities would you plan to assign 
to the Under Secretary of the Navy?
    Answer. The Under Secretary is designated as deputy and principal 
assistant to the Secretary. If confirmed, I would maintain the 
relationship that Secretary England established with the Under 
Secretary prior to his appointment as Acting Deputy Secretary of 
Defense. I would intend to evaluate this relationship, and may, after 
an appropriate period of time, make any necessary changes, consistent 
with law, that will ensure the most efficient and effective functioning 
of the Department.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Secretary of the 
Navy?
    Answer. It is important for the Secretary to be open to 
constructive inputs and opinions and to be sure that important issues 
are fully vetted prior to decision. My experience with transitions in 
the private sector have highlighted the importance of keeping an open 
mind, and leveraging the experience and expertise of those that have 
remained within the organization for many years. If confirmed, my 
intent would be to act consistent with that experience.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Secretary of the Navy to the following officials:
    The Secretary of Defense.
    Answer. If confirmed as Secretary of the Navy, I will be the 
principal assistant and advisor to the Secretary of Defense on all 
matters relating to the Department of the Navy.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would work with the Deputy, who is 
responsible to implement the Secretary of Defense's priorities, to 
better integrate functional management of DOD, to align authority and 
responsibility and accountability within DOD, and to manage a wide 
range of financial and personnel policies and procedures.
    Question. The Under Secretaries of Defense.
    Answer. If confirmed, I would ensure the Assistant Secretaries of 
the Navy work closely with the Under Secretaries of Defense to ensure 
the Department of the Navy maintains a clear focus on the priorities 
set forth by the Secretary of Defense and carried out by the Deputy 
Secretary of Defense and the Under Secretaries of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. As the principal military advisor to the President, 
National Security Council, and to the Secretary of Defense, the 
Chairman has a unique military role. If confirmed, I would work closely 
with the Chairman and the Vice Chairman to ensure that all appropriate 
matters are fully coordinated with them.
    Question. The Chief of Naval Operations.
    Answer. If confirmed, I would ensure that the Chief of Naval 
Operations is fully cognizant of the policies and initiatives put forth 
by the Secretary of Defense and the Secretary of the Navy.
    Question. The Commandant of the Marine Corps.
    Answer. If confirmed, I would ensure that the Commandant of the 
Marine Corps is fully cognizant of the policies and initiatives put 
forth by the Secretary of Defense and the Secretary of the Navy.
    Question. The combatant commanders.
    Answer. If confirmed, I would support the combatant commanders' 
warfighting requirements. Working with the Chief of Naval Operations 
and Commandant of the Marine Corps I will ensure that they are provided 
the necessary capabilities to address their needs.
    Question. The Under Secretary of the Navy.
    Answer. The Under Secretary is designated as deputy and principal 
assistant to the Secretary of the Navy. He acts with the full authority 
of the Secretary in the general management of the Department. If 
confirmed, I would also delegate to him important aspects of the 
oversight of the Department.
    Question. The Assistant Secretaries of the Navy.
    Answer. If confirmed, I will ensure that my priorities are 
implemented through the assistant secretaries. The assistant 
secretaries are delegated certain civilian oversight roles in the 
Department. I would build open communications with the assistant 
secretaries and use them as my leadership team to address key issues.
    Question. The General Counsel of the Navy.
    Answer. The General Counsel (GC) is the senior civilian legal 
advisor to Secretary of the Navy. The GC serves as the chief ethics 
official. If confirmed, I would look forward to developing a good 
working relationship with the GC.
    Question. The Judge Advocate General of the Navy.
    Answer. The Judge Advocate General of the Navy and the Staff Judge 
Advocate of the Marine Corps are critical components of the Navy and 
Marine Corps legal infrastructure. I expect to seek the advice and 
counsel of the Judge Advocate General of the Navy on all relevant 
matters.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Secretary of the Navy?
    Answer. The primary challenges facing the next Secretary of the 
Navy are providing stewardship to the Department and maintaining a 
culture that is supportive of the legal and ethical keel of the 
institution.
    If confirmed, I would be the 74th Secretary of the Navy and a 
beneficiary of the stewardship of my predecessors. I would have the 
responsibility to the country and to future generations for the 
preservation of this great institution. As the prospective leader of 
the institution, I would need to address both near-term and future 
challenges. Near-term challenges require focusing appropriate resources 
in support of the global war on terror, maintaining readiness, and 
supporting homeland defense. Far-term challenges require development of 
an overarching strategy and investing for an uncertain future. This 
would include establishing and maintaining a long-term shipbuilding 
program that is achievable, affordable, and responsive to the needs of 
the Nation. It would also involve enhancing warfighting programs 
focused on joint, interagency, and expeditionary military operations. 
The result would be an appropriate force structure with the combat 
capability necessary to address evolving threats--to fight and win our 
Nation's future wars. Finally, responsible stewardship involves 
optimizing the value of the personnel and fiscal resources provided by 
our country.
    The second overarching challenge that I see is maintaining a 
culture that is supportive of the legal and ethical keel of this great 
institution, the Department of the Navy. This challenge involves 
reaffirming the ethical basis on which the institution depends so much. 
It includes providing forward-looking leadership to ensure the highest 
standards of conduct that exemplify the Department's core values of 
honor, courage, and commitment. It would require us to lean forward to 
prevent lapses such as sexual harassment or acquisition abuse. A key 
part of this challenge is to provide for the sons and daughters that 
have been entrusted to the Navy and Marine Corps, to value all people, 
to emphasize safety at every opportunity, and to take care of the needs 
of naval personnel (medical, housing, religious, etc.). The challenge 
also includes sustaining a cadre of officers, enlisted personnel, and 
supporting civil service that is technically competent and culturally 
adept. These individuals will be required to effectively employ even 
more complex future weapons systems and to work closely with diverse 
allies and coalition partners to combat future enemies. An integral 
part of this challenge is to effectively compete to establish and 
maintain a culturally and ethnically diverse workforce.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan to work closely with Congress, the 
Secretary of Defense, the Chief of Naval Operations and the Commandant 
of the Marine Corps, as well as other institutions where appropriate. I 
would coordinate with appropriate individuals and organizations to 
ensure that the necessary resources are applied to address these 
challenges.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Secretary of the Navy?
    Answer. I am unaware of any serious problems in the performance of 
the functions of the Secretary of the Navy.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I would work closely with the Secretary of 
Defense to evaluate the present situation and develop a strategic plan 
to address any areas requiring attention.
                               priorities
    Question. If confirmed, what broad priorities will you establish?
    Answer. If confirmed, my first priority would be to articulate the 
challenges the Department must address and to initiate or reinforce 
existing direction aimed at meeting the challenges. At a broad level 
they include:

        --  Focus appropriate resources in support of the global war on 
        terror, readiness, homeland defense, etc.
        --  Establish and maintain a long-term shipbuilding program 
        that is achievable, affordable, and responsive to the needs of 
        the Nation.
        --  Develop a portfolio of capabilities to cover all realistic 
        scenarios to fight and win our Nation's future wars.
        --  Reaffirm the ethical basis of the naval institution; ensure 
        the highest standards of conduct that exemplify the 
        Department's core values of honor, courage, and commitment.
        --  Sustain a cadre of Officers and Enlisted personnel, and 
        supporting civil service that is technically competent and 
        culturally adept.
        --  Maintain a capable and diverse workforce.
                             transformation
    Question. If confirmed as the Secretary of the Navy, you would play 
an important role in the ongoing process of transforming the Navy and 
Marine Corps to meet new and emerging threats.
    If confirmed, what would your goals be for Navy and Marine Corps 
transformation?
    Answer. If confirmed, I would continue the transformation process. 
The Navy and Marine Corps are well on their way towards capitalizing 
new technologies, better business practices, and becoming more 
effective in personnel policies. I believe there is still a lot of work 
to be done, and if confirmed, I intend to continue these efforts.
    Question. In your opinion, does the Department of the Navy's POM 
have adequate resources identified to implement your transformation 
goals?
    Answer. I will have to spend more time becoming familiar with the 
details of the Department's budget request before I can comment upon 
this area.
                           tactical aviation
    Question. Several years ago, the Navy and Marine Corps began to 
integrate their tactical aviation units.
    What is your assessment of this initiative?
    Answer. I have not had an opportunity to be briefed on the overall 
Tactical Aviation Integration initiative. If confirmed, I intend to 
review this initiative and its ability to optimize the use of our 
Nation's naval tactical aviation assets.
      army and marine corps capabilities and acquisition programs
    Question. Although the Army and Marine Corps have different 
missions and capabilities, they are still ground forces. Many believe 
that the Army and Marine Corps equipment should have some degree of 
commonality. Yet, for equipment such as helicopters and heavy wheeled 
vehicles, we see that the Army and the Marine Corps have divergent 
paths for acquiring what should be common equipment. Because of 
Operations Iraqi Freedom and Enduring Freedom, it appears that these 
two Services have made some attempt to work together on acquiring 
equipment for Army and Marine forces.
    What are your views regarding the joint development and acquisition 
of Army and Marine Corps equipment?
    Answer. Although I am certainly supportive of the concept of joint 
development and procurement of systems, I do not have sufficient 
knowledge of this approach as it relates to the Army and Marine Corps. 
Before reaching any conclusions about joint development in this case, 
it would be important to analyze the individual needs and requirements 
of the Services, as well as discuss the programs with senior leaders of 
both the Marine Corps and the Army.
    Question. What role should the Secretary of the Navy play in 
synchronizing Army and Marine Corps requirements and synchronizing 
service programs?
    Answer. If confirmed, I will ensure that the CNO, Commandant and 
Navy's acquisition community work closely with the Army, Air Force, the 
Coast Guard and the Joint Chiefs of Staff to set joint requirements 
where feasible.
    Question. Should the Marine Corps heavy lift replacement program be 
delayed until the Army and Marine Corps can agree on a single joint 
requirement for heavy lift rotorcraft? If not, why not?
    Answer. I have not had the opportunity to be fully briefed, nor 
have I been in a position to review these particular programs. As such, 
I am not in a position to opine on any changes to this program.
    Question. The Army and the Marine Corps both have a need for a 
future heavy lift transport helicopter to replace existing heavy lift 
rotorcraft. The Marine Corps has embarked on a Heavy Lift Replacement 
(HLR) to acquire a new helicopter to replace the aging CH-53 
helicopter. At the same time, the Army is exploring a Joint Heavy Lift 
(JHL) rotorcraft program.
    What is your view about whether the Marine Corps HLR program should 
be merged with the Army's JHL program?
    Answer. I have not been in a position to review these particular 
programs. However, if confirmed, I will review the pros and cons of 
such an action.
                           shipbuilding plan
    Question. The Navy recently submitted an interim 30-year 
shipbuilding plan.
    When does the Navy envision the final 30-year shipbuilding plan 
being delivered to Congress?
    Answer. I understand that the Department intends to submit a more 
definitive plan in the spring of 2006. If confirmed, it would be my 
goal to ensure that this plan is consistent with both force structure 
needs and the objective of maintaining a viable industrial base.
    Question. What level of funding do you think the Navy will need to 
execute this plan, and considering competing priorities, do you believe 
this level of funding is realistic?
    Answer. The results of the QDR must be considered before a plan can 
be finalized and funding levels can be determined. If confirmed, I will 
work with Congress to present a plan with a realistic level of funding.
                           aircraft carriers
    Question. The Navy has proposed to decommission the U.S.S. John F. 
Kennedy in fiscal year 2006. This would decrease the number of aircraft 
carriers to 11. Additionally, in the fiscal year 2006 budget request, 
the Navy has proposed to slip the delivery of CVN-78 to 2015, creating 
a 2-year gap from when U.S.S. Enterprise is scheduled to be 
decommissioned during which, under the proposed plan, only 10 aircraft 
carriers would be operational.
    What operational analysis has been conducted that would support a 
decision which would decrease the number of operational aircraft 
carriers to these lower levels?
    Answer. I understand that there have been a number of studies to 
determine the required number of active carriers for the Navy. I have 
not received briefings on these studies. If confirmed, I will review 
the conclusions of these studies.
    Question. How would the aircraft carrier presence requirements of 
combatant commanders be met with only 10 operational aircraft carriers?
    Answer. As noted in the previous answer, I have not received 
briefings that would enable me to answer this question. If confirmed, 
it will be an early priority to review aircraft carrier presence 
requirements of the combatant commanders.
                           surface combatants
    Question. The Future Years Defense Program has only one surface 
combatant per year being acquired by the Navy, not including the 
Littoral Combat Ship, which will only be capable of performing one 
mission at a time.
    In your judgment, can a credible and capable surface force be 
sustained at such a low level of multi-mission surface combatant 
construction, and if so, how?
    Answer. I understand the Navy has articulated the Family of Ships 
concept for Surface Combatants in the 21st century. These ships are the 
Littoral Combat Ship (LCS), the next generation destroyer (DD(X)), and 
the next generation cruiser (CG(X)). I recognize the need for an 
appropriate force mix of these ships taking into consideration the 
tradeoffs between capability and quantity. If confirmed, I will assure 
myself that a credible and capable surface force can be sustained 
taking all extenuating factors into consideration.
    Question. In your opinion, how many shipyards capable of building 
surface combatants does this Nation need?
    Answer. If confirmed, I will work with the CNO, Congress, and 
industry to understand the Nation's need in this area. Building 
warships is a key aspect of our Nation's strength. Stewardship of this 
capability is a shared responsibility of the Navy, Congress, and 
industry. The answer to this question is complex and must consider 
shipyard capabilities, the need for surge capacity, possible 
disruptions from natural and man-made disasters, and the industrial 
infrastructure that feeds the shipbuilding industry.
                               submarines
    Question. The Future Years Defense Program has only one Virginia-
class submarine per year being acquired by the Navy.
    In your judgment, can a credible attack submarine force be 
sustained at this level of submarine construction, and, if so, how?
    Answer. I understand that the current program of record has the 
Virginia class procurements increasing to two per year in fiscal year 
2012. However, I have not received briefings that would enable me to 
assess the number of attack submarines required for a credible attack 
submarine force or number required to be constructed on an annual basis 
to sustain the force. If confirmed, I will work closely with the CNO to 
determine if a credible attack submarine force can be sustained at 
planned levels of construction.
    Question. When do you believe design work will be necessary to 
begin to start to replace the Ballistic Missile Submarine fleet?
    Answer. It is my understanding that the Navy will need to start 
concept design efforts in 2012 in order to support a follow-on 
Ballistic Missile Submarine fleet.
                           acquisition issues
    Question. In recent months, a number of DOD officials have 
acknowledged that the Department may have gone too far in reducing its 
acquisition workforce, resulting in undermining of its ability to 
provide needed oversight in the acquisition process.
    Do you agree with this assessment?
    Answer. I understand that the Department of the Navy acquisition 
workforce has been reduced by over half since 1989. I am personally 
very concerned about both the size and the composition of the 
workforce. If confirmed, I plan to review the status of the 
Department's acquisition workforce and work to improve it.
    Question. If so, what steps do you believe the Department of the 
Navy should take to address this problem?
    Answer. My experience causes me to conclude that the Navy must 
improve the process used to identify requirements. The Department must 
understand: what it needs, what alternatives could satisfy those needs, 
and what options and trade offs provide best value. Then it must 
acquire systems in a manner that minimizes risk and maximizes value. If 
confirmed, a top priority will be to assure that the Department 
acquisition workforce is properly oriented to efficiently and 
effectively execute acquisition programs.
    Question. Major defense acquisition programs in the Department of 
the Navy and the other military departments continue to be subject to 
funding and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. Yes. It has been my experience that funding and 
requirements changes can cause significant program cost increases and 
schedule delays.
    Question. What steps, if any, do you believe the Navy should take 
to address funding and requirements instability?
    Answer. It is my understanding that the CNO has reinstated the 
Naval Characteristics Board. This, along with effective utilization of 
the change control processes, is an excellent first step toward 
establishing requirement stability. If confirmed, I would work with 
Acting Deputy Secretary of Defense England, the Chief of Naval 
Operations, and the Commandant of the Marine Corps to ensure a high 
degree of synergy between the requirements, acquisition, and 
programming communities.
    Question. The Comptroller General testified earlier this year that 
DOD programs often move forward with unrealistic program cost and 
schedule estimates, lack clearly defined and stable requirements, 
include immature technologies that unnecessarily raise program costs 
and delay development and production, and fail to solidify design and 
manufacturing processes at appropriate junctures in the development 
process.
    Do you agree with the Comptroller General's assessment?
    Answer. Unfortunately, based on recent program performance, this 
appears to be the case.
    Question. If so, what steps do you believe the Department of the 
Navy should take to address these problems?
    Answer. A disciplined acquisition process must be established 
within the Department of the Navy and clear expectations must be 
established for all personnel engaged in the requirements generation 
and acquisition process as well as for contractors. This includes 
expectations for realistic estimates, viable proposed offerings and 
disciplined program execution. Before committing large expenditures the 
Department must ensure that requirements have matured, design 
alternatives fully examined, and realistic cost schedule and risk 
assessments prepared. The selected design approach must incorporate 
adequate margins to mitigate cost, schedule, and performance impacts 
due to challenges and problems that nominally occur during such 
development programs. Furthermore, development programs must 
incorporate risk reduction efforts commensurate with the technology 
maturity levels in evidence.
    If confirmed, I intend to work with all Department of the Navy 
personnel and contractors involved in major development efforts to make 
clear the Department's expectations, and ensure the implementation of a 
disciplined acquisition process.
    Question. By some estimates, the Department of Defense now spends 
more money every year for the acquisition of services than it does for 
the acquisition of products, including major weapon systems. Yet, the 
Department places far less emphasis on staffing, training, and managing 
the acquisition of services than it does on the acquisition of 
products.
    What steps, if any, do you believe the Navy and Marine Corps should 
take to improve the staffing, training, and management of its 
acquisition of services?
    Answer. I understand the Department of the Navy has already taken 
significant steps to improve the management of services. If confirmed, 
I intend to better understand the activities that have been initiated 
and to build upon that effort to ensure that service acquisition 
receives the appropriate level of management attention.
    Question. Do you agree that the Navy and Marine Corps should 
develop processes and systems to provide managers with access to 
information needed to conduct comprehensive spending analyses of 
services contracts on an ongoing basis?
    Answer. Yes, I agree.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. The Department of 
Defense is by far the largest ordering agency under these contracts, 
accounting for 85 percent of the dollars awarded under one of the 
largest programs. The DOD Inspector General and others have identified 
a long series of problems with interagency contracts, including lack of 
acquisition planning, inadequate competition, excessive use of time and 
materials contracts, improper use of expired funds, inappropriate 
expenditures, and failure to monitor contractor performance.
    What steps, if any, do you believe the Navy and Marine Corps should 
take to ensure that its use of interagency contracts complies with 
applicable DOD requirements and is in the best interests of the 
Department of the Navy?
    Answer. A necessary first step is to set, at the highest levels, 
the expectation that all acquisition personnel will comply with the 
intent of the law. If confirmed, I will work to ensure that the 
Department's use of interagency contracts complies with applicable DOD 
requirements and is in the best interest of the Department of the Navy.
                          fleet response plan
    Question. The Navy has implemented the Fleet Response Plan (FRP) to 
provide an enhanced surge capability for naval assets. The plan is 
predicated on increased efficiencies in both maintenance and training, 
with the aim of providing higher levels of readiness within existing 
resource levels.
    In your view, what are the most significant benefits and risks 
associated with the FRP?
    Answer. It is my understanding that the FRP has been developed to 
provide our country with a more agile and flexible naval force capable 
of surging quickly to deal with unexpected threats and contingency 
operations. I have not, however, had an opportunity to perform an in-
depth study of the Plan. I can assure you, however, that if I am 
confirmed, I will review this and related programs aimed at providing a 
higher level of readiness.
    Question. What additional demands for intelligence are incurred by 
implementing the FRP?
    Answer. Without completing a more thorough review of the FRP, it 
would not be possible for me to answer this question. If confirmed, 
however, any additional demands placed upon intelligence will be 
considered within my review of all programs developed to provide a 
higher level of readiness.
                    mine countermeasures capability
    Question. Congress has been particularly interested in the Navy's 
ability to respond to the asymmetric threat posed by mines. The Navy 
has had mixed results in fielding robust mine countermeasures 
capabilities.
    If confirmed, what steps would you take to ensure that the Navy 
maintains its focus on achieving robust mine countermeasures 
capabilities for the fleet?
    Answer. I certainly recognize the importance of having a robust 
mine countermeasure capability. If confirmed, I will support the 
fielding of capabilities necessary to meet this important mission. 
However, I have not had the opportunity to be fully briefed on this 
matter, and thus I am not in a position to opine on the specific steps 
needed to ensure a robust mine countermeasure capability.
                         housing privatization
    Question. The Department of Defense has been engaged in the 
privatization of many of its support functions. Among the most 
significant privatization efforts are military family housing units and 
utility systems.
    What challenges do the Navy and Marine Corps face in implementing 
housing privatization?
    Answer. I recognize the benefits of a public private venture 
program. However, I have not had an opportunity to analyze the specific 
challenges faced by the Navy and Marine Corps in their housing 
privatization program. If confirmed, I will ensure that the Department 
of the Navy is implementing the program in the most effective way 
possible.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military services underinvest in their 
facilities compared to private industry standards. Decades of 
underinvestment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    Based on your private sector experience, do you believe the Navy 
and Marine Corps are investing enough in their infrastructure?
    Answer. My experience in industry is that timely facility 
maintenance must be performed to avoid putting mission at risk and to 
control cost growth. Facility maintenance must be a key consideration 
in budget formulation. If confirmed, I will work closely with the Chief 
of Naval Operations, the Commandant of the Marine Corps, the Secretary 
of Defense, and Congress to assure appropriate investment in Department 
facilities.
            implementation of base closures and realignments
    Question. The 2005 Defense Base Realignment and Closure (BRAC) 
process has resulted in the recommended closure or realignment of 
numerous major naval installations. The DOD installation closure 
process resulting from BRAC decisions has historically included close 
cooperation with the affected local community in order to allow these 
communities an active role in the reuse of property.
    In your view, what are the roles and responsibilities of the 
Department of the Navy within the 2005 BRAC property disposal process 
to work with local communities?
    Answer. The Department of the Navy needs to follow all prescribed 
BRAC statutes, Federal regulations, and Department of Defense policies 
and provide timely communications with the local communities regarding 
closure plans and installation status.
    Question. If confirmed, what goals would you establish to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. If confirmed, and if BRAC 2005 is approved, I intend to 
vigorously support the Department of Defense goals to expeditiously 
dispose of property in order to facilitate economic development within 
the affected community. I will also work with local communities to 
facilitate expeditious conversion of property to civilian use.
    Question. What plans do the Navy and Marine Corps have in place to 
assist DOD personnel who lose their jobs as a result of BRAC actions?
    Answer. If confirmed, I expect the Navy and Marine Corps to use all 
available placement and transition assistance programs established by 
the Department of Defense.
             department of the navy science and technology
    Question. For fiscal year 2006, the Department of the Navy plans to 
dedicate approximately $1.8 billion to science and technology (S&T) 
programs, which comprises 1.4 percent of the total departmental budget, 
and $448 million to basic defense research, or 0.36 percent of the 
total Department of the Navy budget.
    Do you believe that the current balance between short- and long-
term research is appropriate to meet current and future Department of 
the Navy needs?
    Answer. A balanced approach to short-term and long-term research is 
critical to our Nation's future. Although it may appear easier to focus 
upon short-term research needs, long-term research is an essential 
aspect of stewardship. If confirmed, I intend to evaluate the S&T 
program and ensure that the appropriate balance is created.
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science in meeting Navy and Marine 
Corps missions?
    Answer. I have had a long held belief that innovative, high payoff 
research is an integral part of any S&T investment portfolio. If 
confirmed, I will engage the S&T Corporate Board (Vice Chief, Assistant 
Commandant, and ASN RD&A) to ensure the Department of the Navy has 
adequately addressed this critical area. I would also work closely with 
the Director of DARPA to leverage their technology investments.
    Question. If confirmed, what guidance would you give to ensure 
research priorities that will meet the needs of the Navy and Marine 
Corps in 2020?
    Answer. If confirmed, I will support a balanced program of S&T 
investment in basic research, applied research, and advance development 
across the spectrum of naval needs. I will seek an S&T program that 
responds appropriately to the needs of today's Navy, tomorrow's Navy, 
and the Navy after next.
      defense integrated manpower human resources system (dimhrs)
    Question. DIMHRS is a single integrated human resources pay and 
personnel system for all the armed services and the Defense Finance and 
Accounting System (DFAS), and is intended to replace many of the 
systems currently used to perform personnel management and pay 
functions. DIMHRS has been under development for several years and has 
come under criticism for cost growth, delays in implementation, and not 
meeting the expectations of each Service. The Acting Deputy Secretary 
of Defense has directed a review of DIMHRS in order to determine its 
future.
    What are your views of the need for completion of implementation of 
DIMHRS and what specific benefits, if any, would the Department of the 
Navy derive from this system?
    Answer. I understand that DIMHRS is an ambitious initiative that 
was designed to address these issues. As with all major development and 
acquisition processes, it is critical to weigh cost growth, schedule 
delays, and expectation shortfalls associated with the scale and 
complexity of the environment in which they are being developed. 
Additionally, it is important to consider all of these needs as they 
relate to the entire Department of Defense.
    With respect to the Department of the Navy, there is a need for a 
high performing, integrated human resources pay and personnel 
management system, that can keep pace with the increasing demands for 
accurate personnel information arising from Service and Joint 
operations. Deployed marines and sailors need to focus on the mission 
at hand--they, and their families should not have to worry about 
whether or not their pay is being correctly administered.
                       delivery of legal services
    Question. What is your view of the respective roles of the General 
Counsel and Judge Advocate General of the Navy in providing the 
Secretary of the Navy with legal advice?
    Answer. The roles of the General Counsel and Judge Advocate General 
(JAG) are well defined by law, regulation, and Secretarial instruction. 
Each provides direct legal advice to the Secretary of the Navy. The 
General Counsel is the chief legal officer for the Department, the 
Secretary's principal legal adviser, and the Designated Agency Ethics 
Official. The Navy JAG is the senior military lawyer in the Department, 
alternate Designated Agency Ethics Official, and specializes in 
military justice and other related areas. Most important is the close 
professional and personal partnership that exists between the General 
Counsel, the JAG, and the Staff Judge Advocate (SJA) to the Commandant 
of the Marine Corps (CMC). If confirmed, I will strive to continue to 
promote the strong communication, transparency, and mutual support that 
their current relationship engenders.
    Question. What are your views about the responsibility of staff 
judge advocates within the Navy and Marine Corps to provide independent 
legal advice to military commanders in the fleet and throughout the 
naval establishment?
    Answer. Staff judge advocates are essential to the proper 
functioning of fleet and shore-based commands of the Navy and Marine 
Corps. It is important that commanders receive timely, professional 
legal advice from staff judge advocates whom they trust implicitly. 
Likewise, staff judge advocates afloat and ashore must have the 
confidence, integrity, and expertise necessary to provide their 
respective commanders sound counsel and legal advice.
    Question. What are your views about the responsibility of the Judge 
Advocate General of the Navy and the Staff Judge Advocate to the 
Commandant to provide independent legal advice to the Chief of Naval 
Operations and the Commandant of the Marine Corps, respectively?
    Answer. The Chief of Naval Operations and the Commandant of the 
Marine Corps should receive independent legal advice from their senior 
uniformed judge advocates.
               national security personnel system (nsps)
    Question. What are your views on the strengths and weaknesses of 
the NSPS implementation steps undertaken within the Department thus 
far?
    Answer. I am aware that a significant amount of effort has been 
expended by the Navy to implement NSPS. I am not, however, 
knowledgeable of the specific steps that have been undertaken.
    Question. What do you believe will be the benefits of NSPS when 
implemented, and what steps would you take, if confirmed, to ensure a 
smooth and effective transition?
    Answer. As I understand it, NSPS will provide additional 
flexibility as well as the ability to attract, develop, and maintain a 
new generation of civilians in public service. If confirmed, I will 
ensure that we aggressively train all personnel on the procedures of 
the NSPS, as well as encourage all leadership to avail themselves and 
their workforce to NSPS.
        navy and marine corps personnel recruiting and retention
    Question. The retention of quality sailors and marines, officer and 
enlisted, active-duty and Reserve, is vital to the Department of the 
Navy.
    How would you evaluate the status of the Navy and Marine Corps in 
successfully recruiting and retaining high caliber personnel?
    Answer. Overall, the Navy and Marine Corps are doing a great job 
recruiting and retaining high caliber personnel for Active-Duty and 
Reserve service. Both Services have exceeded their goals for Active-
Duty enlisted accessions and new contracts in fiscal year 2005.
    It is my understanding, however, that the Navy is experiencing 
difficulty in the competition for medical professionals in both active 
and Reserve community. Additionally, Reserve recruiting and retention 
has been challenging. If confirmed, I am committed to working with the 
entire Navy team to ensure that we overcome these problems.
    Question. What initiatives would you take, if confirmed, to further 
improve the attractiveness of Navy and Marine Corps, active and Reserve 
service?
    Answer. Recruiting and retaining the right people for the right 
jobs is more challenging than ever before. If confirmed, I will work 
with the Chief of Naval Operations and the Commandant of the Marine 
Corps to find ways to further improve the naval services' 
attractiveness as an employer of choice.
                     active-duty navy end strength
    Question. The Active-Duty end strength for the Navy was reduced by 
7,900 personnel for fiscal year 2005. The administration has proposed 
an additional reduction of 13,200 personnel for fiscal year 2006. This 
total reduction of 21,100 personnel in 2 years would result in an 
authorized end strength of 352,700. Even before these personnel cuts 
were proposed, many were concerned that the personnel tempo was 
adversely affecting the quality of life of Navy personnel and their 
families.
    Do you support these significant reductions in Active-Duty end 
strength?
    Answer. Reductions predicated on adopting new technologies, 
implementing 21st century personnel management strategies and 
processes, and where appropriate, shifting certain functions to Reserve 
component, government civilian or contractor personnel, present valid 
opportunities to reduce strength and capitalize on associated cost 
savings, while maintaining, and even increasing, warfighting 
capability. If confirmed, I am committed to, in close coordination with 
the Chief of Naval Operations, and consistent with the outputs of QDR, 
further evaluate the appropriate size, shape, and skill mix of the 
force.
    Question. If confirmed, what actions will you take to control 
personnel tempo so that active-duty Navy personnel will have reasonable 
periods of time to spend with their families between deployments?
    Answer. Although the global war on terror has created a high demand 
for naval forces, the needs of Navy families as well as operational 
needs must be fully considered when constructing deployment and 
underway schedules.
              senior military and civilian accountability
    Question. While representative of a small number of individuals, 
revelations of abuses of rank and authority by senior military and 
civilian leaders and failures to perform up to accepted standards are 
frequently reported. Victims of such abuses often report that they felt 
that no one would pay attention to or believe their complaints. 
Accusations of unduly lenient treatment of senior officers and senior 
officials against whom accusations have been substantiated are also 
frequently heard.
    What are your views regarding the appropriate standard of 
accountability for senior civilian and military leaders of the 
Department?
    Answer. It is essential to maintain a culture that is supportive of 
a capable, ethical and diverse workforce. This culture must be rooted 
in the Navy's core values of honor, courage, and commitment. A critical 
aspect of such a culture is to hold individuals accountable for abuses 
of their rank or authority. Senior civilian and military leaders must 
uphold the highest standards of principled leadership. Even if 
isolated, any abuse of rank or authority can undermine trust in a 
military organization. As a result, we must ensure prompt and thorough 
investigation of complaints, as well as swift and equitable treatment 
of those few personnel who fail to demonstrate exemplary conduct. At 
the same time, we must not lose sight that the Navy continues to imbue 
its leaders with the tenets of principled leadership through its 
commitment to ethics and leadership training.
    Question. If confirmed, what steps would you take to ensure that 
senior leaders of the Navy and Marine Corps are held accountable for 
their actions and performance?
    Answer. The Navy has a historic and ongoing commitment to inculcate 
its officers and sailors from the outset of their careers with the 
Navy's core values. This commitment is further extended through a high 
level of accountability that is placed upon commanding officers and 
senior leaders. If confirmed, I will continue to foster and enforce the 
Navy's earnest commitment to the highest ethical standards of 
principled leadership and service.
                     navy support to ground forces
    Question. The Navy has been challenged to find new ways of 
supporting the Army and Marine Corps by taking on nontraditional 
support functions.
    In your view, what are the kinds of nontraditional support the Navy 
feasibly can provide, and what additional missions, if any, should the 
Navy be assigned in the global war on terrorism?
    Answer. The Navy needs to lean forward using Navy sailor skill sets 
and core competencies to support nontraditional missions in the global 
war on terror. If confirmed, I will work with the Secretary of Defense, 
all the Services, and Congress to ensure we have Navy forces ready to 
fight where and when we need them, and that we continue to employ Navy 
skills and capabilities in every manner possible in the global war on 
terror.
    Question. Given that these are new roles for Navy personnel, what 
additional training and equipment has been provided, or, in your view, 
needs to be provided?
    Answer. A critical aspect of the Secretary of the Navy's 
stewardship is the responsibility to ensure that those people entrusted 
to him receive the appropriate equipment and training to perform their 
job. I have not had the opportunity to be fully briefed on the types of 
equipment or additional training necessary to address this new, 
evolving threat. However, if confirmed, I plan to work with the entire 
Navy team to ensure that the necessary amount of training and equipment 
is provided to servicemembers.
               prevention and response to sexual assaults
    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of the Department of Defense for preventing and responding to incidents 
of sexual assault in the Armed Forces. In late April 2004, the DOD Task 
Force on Care for Victims of Sexual Assault issued its report and 
recommendations, noting ``If the Department of Defense is to provide a 
responsive system to address sexual assault, it must be a top-down 
program with emphasis placed at the highest levels within the 
Department down to the lowest levels of command leadership. It must 
develop performance metrics and establish an evaluative framework for 
regular review and quality improvement.''
    What is your evaluation of the progress to date made by the Navy 
and Marine Corps in preventing and responding adequately to incidents 
of sexual assault?
    Answer. I am aware that the Navy has undertaken several important 
measures to address the prevention and response to sexual assaults and 
harassment. I have not, however, had an opportunity to fully review 
these programs. This is clearly a high priority for me and is an 
essential aspect of maintaining the appropriate Navy and Marine Corp 
values. If confirmed, I will ensure that the Navy and Marine Corps 
continue to be proactive in the development of adequate means to 
prevent and respond to incidents of sexual assault.
    Question. What problems do you foresee, if any, in implementing the 
revised policy with respect to confidential reporting of sexual 
assaults by sailors and marines?
    Answer. I understand and support the objectives of confidential 
reporting and if confirmed, I will review the policy implementation as 
part of a review of the overall sexual assault prevention and response 
programs.
    Question. If confirmed, what actions do you plan to take to ensure 
that senior civilian leaders of the Department of the Navy have day-to-
day visibility into incidents of sexual assault and the effectiveness 
of policies aimed at preventing and responding appropriately to such 
incidents?
    Answer. If confirmed, I will evaluate the current reporting systems 
accessible to Department senior civilian and military leadership to 
determine whether or not modifications would be appropriate.
   sexual harassment and violence at the united states naval academy
    Question. The Defense Task Force on Sexual Harassment and Violence 
at the Military Service Academies reported that ``Historically, sexual 
harassment and sexual assault have been inadequately addressed at both 
Academies [United States Military Academy and United States Naval 
Academy]. Harassment is the more prevalent and corrosive problem, 
creating an environment in which sexual assault is more likely to 
occur. Although progress has been made, hostile attitudes and 
inappropriate actions toward women, and the toleration of these by some 
cadets and midshipmen, continue to hinder the establishment of a safe 
and professional environment in which to prepare military officers. 
Much of the solution to preventing this behavior rests with cadets and 
midshipmen themselves.''
    If confirmed, what actions would you take to encourage midshipmen 
to step up to their responsibility to create a culture where sexual 
harassment and sexual assault are not tolerated?
    If confirmed, what other actions would you take to address the 
continuing problem of sexual harassment and sexual assault at the U.S. 
Naval Academy?
    Answer. The mission of the U.S. Naval Academy is to develop 
midshipmen morally, mentally, and physically to become combat leaders 
of the highest character to lead sailors and marines. Midshipmen are 
expected to live and uphold the highest standards, just as they will be 
expected to do as officers in the Navy and Marine Corps. The standard 
set is very clear: sexual harassment and assault are not tolerated.
    If confirmed, I will take the findings and recommendations of the 
Defense Task Force to heart. Their comprehensive review and insightful 
recommendations will help in the Department's continuing commitment to 
improve its efforts to prevent and respond to sexual harassment and 
assault.
    I am committed to monitor the progress of these efforts through the 
use of the chain of command, personal visits and observation, and, the 
use of all available oversight mechanisms such as the Board of Visitors 
and the United States Naval Academy's Executive Steering Group.
                military to civilian medical conversions
    Question. The Navy plans to replace thousands of military personnel 
with civilians and has focused on conversions of medical billets deemed 
not to be needed for medical readiness. Yet the committee has been 
informed that in locations at which sailors and marines are assigned, 
such as Camp Lejeune, North Carolina, Twentynine Palms and Camp 
Pendleton, California, and Recruit Training Center, Great Lakes, 
Illinois, access to services could be impeded by planned conversion of 
medical, dental, pharmacy, and mental health positions to civilian 
positions which cannot realistically be filled by civilian substitutes.
    What are your views on the feasibility and cost-effectiveness of 
military to civilian conversions in reducing costs, and, if confirmed, 
would you support a review of the Navy's conversion plan to assess the 
availability of high-quality civilian medical and dental personnel to 
serve military members and their families?
    Answer. My experience with outsourcing has taught me that it is 
often possible to find ways to reduce overall costs without a reduction 
in the quality of service. If confirmed, I am committed to exploring 
opportunities for military to civilian conversions while ensuring that 
such conversions don't create shortfalls in services.
                             human capital
    Question. The Navy has a large civilian workforce that is integral 
to the support of the Navy's worldwide mission.
    What is your vision for an effective human capital strategy for the 
Navy's civilian workforce?
    Answer. My vision for an effective human capital strategy is one 
that results in a highly-motivated, well-educated, highly-trained, and 
multi-skilled mix of people. This requires best practices in human 
resources management that will support attracting, developing, and 
retaining this workforce, such as those being implemented under the 
NSPS.
    Question. The development and implementation of a recruitment 
strategy to attract talented, motivated, and diverse job applicants at 
all levels is critical to the Department's ability to develop and 
maintain the workforce it desires. The flexibilities inherent in the 
NSPS will provide us with the tools needed to compete effectively for 
talented and motivated workers, and to retain the best and the 
brightest. The reforms will provide supervisors and managers greater 
flexibility in managing our civil service employees, facilitate 
competition for high quality talent, offer compensation competitive 
with the private sector, and reward outstanding service. It will build 
greater pride in the civilian workforce and attract a new generation of 
civilians to public service. Properly executed, these changes also will 
assist us in better utilizing the Active-Duty Force by making it easier 
to employ civilians in jobs currently filled by uniformed military 
personnel.
    Do you believe that the Navy has appropriate planning processes in 
place to identify and address gaps in the capabilities of its civilian 
workforce?
    Answer. Gaps in the capabilities of the civilian workforce is a 
critical issue. If confirmed, I intend to engage in an aggressive and 
competitive program to ensure that the Navy has the most effective 
civilian workforce for the 21st century.
    Question. What do you view as the greatest challenges in recruiting 
and retaining a highly skilled civilian workforce?
    Answer. Competition from private industry and their willingness to 
tailor compensation and benefits packages in a highly flexible and 
adaptive way is a significant challenge.
                   personnel and health benefit costs
    Question. The cost of the Defense Health Program, like the cost of 
medical care nationwide, is escalating rapidly. Similarly, the cost of 
personnel as a key component of the Services' budgets has risen 
significantly in recent years.
    If confirmed, how would you approach the issue of rising health 
care and personnel costs?
    Answer. Rising costs associated with health care pose a significant 
threat to the fiscal strength of organizations nationwide--whether 
governmental or private. Streamlining and effective cost accounting 
alone cannot adequately ameliorate the effects of future rising medical 
costs. The Department must consider more fundamental changes to the way 
it does business.
    Costs associated with personnel are by far the largest part of the 
Department's budget. A key priority is to operate as efficiently and 
effectively as possible with respect to utilization of personnel. The 
military and civilian force structure must be right sized for the 
mission but not any larger than necessary. As stewards of the 
taxpayers' money, the Department needs to utilize the fiscal resources 
it dedicates for personnel in the optimum manner. A key part of this 
thought process is to ensure that the Department apportions that part 
of the budget devoted to personnel on those benefits that are the most 
valued to naval personnel. Medical is just one piece of the overall 
benefit package.
    If confirmed, I will seek new options and approaches to address the 
rising cost of health care and other personnel costs and work with 
Congress to address this critical matter.
                        quality of life programs
    Question. If confirmed, what priorities would you establish to 
ensure that military quality of life programs are sustained and 
improved for Navy and Marine Corps members and their families?
    Answer. Quality of life for Navy and Marine Corps personnel of all 
ranks and their families is a key component to ensuring personnel 
readiness, job satisfaction, and competitiveness in the job market. The 
Department's quality of life programs must provide high quality 
services to deliver these desired outcomes. If confirmed, I intend to 
work with the Chief of Naval Operations and the Commandant of the 
Marine Corps to maintain focus and commitment to the quality of life 
needs of all naval personnel.
    Question. What challenges do you foresee in sustaining quality of 
life programs, and are there new initiatives that you would undertake, 
if confirmed, to ensure the availability of high quality services, 
including child care, education, and recreational opportunities, for 
sailors and marines and their families?
    Answer. It is important to understand what makes for a high quality 
of life so that the Department of the Navy can make the wisest 
investment of its resources. Operational commitments--abroad and at 
home--place stresses on naval personnel and their families. The 
Department should continually seek to improve and innovate, identifying 
those benefits that provide the greatest levels of satisfaction and 
find the best and most appropriate means to make them available.
                       ballistic missile defense
    Question. Do you view ballistic missile defense--for both deployed 
forces and the U.S. homeland--as a core mission for the Navy?
    Answer. Yes, defense against ballistic missiles of all ranges 
should be a core mission for the Navy. It has become evident that the 
ability to address the wide range of threats from ballistic missiles 
requires significant flexibility. With oceans covering 70 percent of 
the Earth's surface, the Navy is uniquely able to position its assets 
in appropriate locations to accomplish this mission. This flexibility 
allows the Navy to be responsive to continually changing ballistic 
missile threats to our Nation and to U.S. interests overseas. If 
confirmed, I will work with appropriate organizations to assure that 
the unique capabilities of the Navy are leveraged to best effect in 
support of our Nation's ballistic missile defense programs.
                            readiness levels
    Question. What is your assessment of the current readiness of the 
Department of the Navy to execute its assigned missions?
    Answer. For over 229 years our naval forces have stood ready to 
answer the Nation's call. Today's forces maintain this proud tradition 
and are currently engaged in combat and combat support missions in 
Operations Iraqi Freedom and Enduring Freedom, and stand ready to 
answer the call across the spectrum of missions called for in the 
National Military Strategy. Additionally, sailors and marines have been 
on the front lines conducting humanitarian assistance and disaster 
relief missions in the Gulf Coast as a result of Hurricanes Katrina and 
Rita. This heightened OPTEMPO and Navy support in nontraditional roles 
such as the tsunami relief efforts in Indonesia have added additional 
stress on naval forces. Navy will sustain the operational readiness of 
its forces through the Fleet Response Plan and its associated training 
and maintenance processes, along with the dedication and ingenuity of 
our people. If confirmed, I will continue this proud tradition of 
readiness.
    What do you view as the major readiness challenges that will have 
to be addressed by the Navy and Marine Corps over the next 3 years, 
and, if confirmed, how would you approach these issues?
    Answer. The most significant readiness challenge the Department 
will face in the near term is managing the OPTEMPO with the 
multiplicity of missions the Navy and Marine Corps are supporting.
    Mindful of the results of both BRAC and QDR, if confirmed, I will 
work with the CNO, to review the current issues of the fleet; craft a 
clear, concise vision and execution plan; develop a means to track real 
savings for future use; work closely with my counterparts in the other 
Services, OSD, Congress and defense industry leaders; and deepen the 
relationship within the Navy and Marine Corps team.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Do you agree, if confirmed, to appear before this committee, or 
designated members of this committee, and provide information, subject 
to appropriate and necessary security protection, with respect to your 
responsibilities as the Secretary of the Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Saxby Chambliss
               cleanup of allegheny ballistics laboratory
    1. Senator Chambliss. Dr. Winter, I have been in discussions with 
the Navy recently regarding seeking reimbursement from government 
contractors for cleanup of environmental contamination at government-
owned, contractor-operated facilities. This relates to one of my 
constituents, Hercules, which the Navy is holding liable for costs 
under the Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA) for cleanup activities at the former Allegheny 
Ballistics Laboratory in West Virginia. Hercules maintains that it was 
a responsible partner with the government for five decades and operated 
strictly by the rules of its contract which stated that the Navy would 
assume responsibility for any damage to the property resulting from 
Hercules' operation of this facility. However, the Navy is attempting 
to assign Hercules a $70 million liability. I do not know if you are 
aware of this situation, but if you are, I would appreciate any 
comments you have, and if you are not, I would appreciate your 
assurances that you will look into this situation immediately, if you 
are confirmed.
    Dr. Winter. I am not familiar with the issues relating to the 
cleanup costs associated with the operations of the Allegheny 
Ballistics Laboratory. I do assure you, however, if confirmed, I will 
certainly look into the situation promptly.

                           navy end strength
    2. Senator Chambliss. Dr. Winter, the Department of Defense is in 
the process of transformation and finding ways to conduct operations 
more efficiently and cheaply which I whole-heartedly applaud. While the 
other Services are either remaining stable or growing in size, the Navy 
continues to downsize. In fiscal year 2006 the Navy will reduce 13,000 
Active-Duty billets (3.5 percent), and 10,000 Selected Reserve billets 
(12 percent). Based on your corporate experience, what is your 
perspective on downsizings of this nature as they affect efficiency, 
performance, and morale of the workforce?
    Dr. Winter. Downsizing based upon noted inefficiencies is an 
appropriate transformation tool. If done properly, such a downsizing 
can improve efficiency, productivity, and morale. My approach to 
downsizing is based upon many factors, including the adoption of new 
technologies, the implementation of new personnel management 
strategies, and the ability to shift various functions to alternative 
providers.

    3. Senator Chambliss. Dr. Winter, based on your corporate 
experience, what are signs that an organization may be downsizing too 
much?
    Dr. Winter. Based on my corporate experience, an organization that 
downsizes too much, or too quickly, displays a number of indicators. 
These indications include an increase in accidents, a heightening of 
maintenance problems, or an overall increase in the number of mistakes 
performed during normal day-to-day operations. An increase in 
individual personnel performance issues, such as a greater use of sick 
leave, may also be noted.

    4. Senator Chambliss. Dr. Winter, if you are confirmed, what will 
be your approach to reviewing the manpower requirements of the Navy and 
ensuring that the Navy recruits and retains the appropriate number of 
sailors?
    Dr. Winter. Recruiting and retaining the right people for the right 
jobs is more challenging than ever before. As a result, it is necessary 
to involve all aspects of the Navy team in considering new and creative 
approaches. If confirmed, I intend to work closely with the CNO to 
explore innovative approaches to the manpower recruiting and retention 
challenge.
                                 ______
                                 
                Question Submitted by Senator Carl Levin
                               navy space
    5. Senator Levin. Dr. Winter, in your view should the Navy continue 
to participate in space acquisition programs? If yes, what in your view 
is the best way to ensure participation in the future?
    Dr. Winter. The Navy will continue to remain a critical user of 
space systems. As such, it is crucial that the Navy remains capable of 
influencing decisions regarding the requirements for these systems. One 
of the best ways to accomplish this objective is through continued 
participation in the acquisition process.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                     need for persian gulf presence
    6. Senator Kennedy. Dr. Winter, during the Cold War, the United 
States protected its interests in the Persian Gulf by relying on local 
allies and preparing facilities that would permit a rapid intervention, 
but we did not keep large combat forces deployed there on a permanent 
basis. This worked very well, even when we were facing the Soviet 
challenge, and we used this same approach to expel Iraq from Kuwait in 
1990-1991. Since then, we have kept thousands of combat troops in the 
region, and some argue that their presence has fueled the rise of 
extremist groups like Al Qaeda. Can the United States return to an 
offshore balancing strategy in the Gulf, and rely primarily on local 
actors and our own air and naval forces?
    Dr. Winter. Maintaining security with a small footprint is a proven 
strategic objective that naval forces are ideally suited to provide. If 
confirmed, I will work with Secretary Rumsfeld, the Joint Staff, and 
all of the Services to ensure that the unique capabilities of the Navy 
and Marine Corps are best leveraged to support this objective.

                       war cost and modernization
    7. Senator Kennedy. Dr. Winter, are you worried that the costs of 
the Iraq war are going to prevent the Navy from modernizing its forces 
in a timely manner?
    Dr. Winter. Modernization of naval forces is a key objective for 
the Navy. The cost of war is likely to have an effect upon the finances 
available to perform this modernization. If confirmed, I intend to 
carefully examine the Department's modernization needs and then balance 
those needs with an appropriate level of fiscal restraint.
                                 ______
                                 
           Question Submitted by Senator Joseph I. Lieberman
                       submarine base new london
    8. Senator Lieberman. Dr. Winter, in reaching its decision to keep 
Submarine Base New London open, the BRAC Commission found that broad 
synergy derived from the proximity of the base and operating forces to 
Electric Boat, and to world-class undersea expertise resident at local 
distinguished institutions including (but not limited to) the 
University of Connecticut (Marine Sciences Department) and the 
University of Rhode Island (Graduate School of Oceanography). The 
Commission found that the co-location of these facilities and expertise 
created a unique Center of Excellence that should be maintained.
    The Navy is in the early stages of building and fielding the 
Littoral Combat Ship (LCS). The LCS is intended to be a flexible 
platform designed with different modules to handle multiple missions. 
Two important LCS modules will be for antisubmarine warfare and for 
countermine activities. These are important missions that are 
complementary to other undersea activities and offer us the opportunity 
to build on the synergy at New London that the BRAC Commission 
identified.
    Because of the BRAC Commission decision and the deployment of the 
LCS, the Navy has a unique opportunity to deliberately develop 
Submarine Base New London into a more comprehensive hub to be not just 
a Submarine Center of Excellence, but instead to become a true Undersea 
Center of Excellence. To accomplish this, we should base the new 
antisubmarine and countermine LCS modules at New London with the attack 
submarine force already stationed there. Combining these activities at 
New London would enable the Navy to build a true Undersea Center of 
Excellence and would give this Nation an even greater advantage in 
undersea operations than we enjoy today. Will you commit to exploring 
this idea and seriously address the issue of developing New London into 
a broader Undersea Center of Excellence?
    Dr. Winter. Yes. If confirmed, I will explore this idea.
                                 ______
                                 
    [The nomination reference of Donald C. Winter follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 6, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Donald C. Winter, of Virginia, to be Secretary of the Navy, vice 
Gordon England.
                                 ______
                                 
    [The biographical sketch of Donald C. Winter, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Donald C. Winter
    Donald C. Winter is corporate vice president and president of 
Northrop Grumman's Mission Systems sector. He oversees operations of 
the business and its 18,000 employees, who offer value-added solutions 
through information technology systems and services; systems 
engineering and analysis; systems development and integration; 
scientific, engineering, and technical services; and enterprise 
management services. Dr. Winter was named president and CEO of TRW 
Systems (which was acquired by Northrop Grumman in December 2002) in 
January 2000.
    Dr. Winter began his TRW career when he joined the TRW Systems 
Group Research Staff in 1972. He spent the next 8 years directing 
research and development activities in laser physics and applications.
    From 1980 to 1982, he was with the Defense Advanced Research 
Projects Agency (DARPA) as program manager for space acquisition, 
tracking, and pointing programs. During that period, he was awarded the 
Secretary of Defense Medal for Meritorious Civilian Service.
    Dr. Winter rejoined TRW in 1982 and held senior systems engineering 
and program management responsibilities for a variety of space system 
programs.
    From 1990 through 1997, as vice president and general manager of 
the Defense Systems Division of TRW's Space and Electronics (S&E) 
business, Dr. Winter directed space systems activities that supported 
the national defense effort. These activities included prime contracts 
for development and deployment of space systems, systems engineering 
and support, operations and maintenance, and development of advanced 
technologies directly related to new and evolving systems.
    During 1998 and 1999, he served as vice president and deputy 
general manager for group development, S&E. In that role, he managed 
S&E's business development, including the unit's marketing, planning, 
international, engineering, and technology functions.
    Dr. Winter serves on the board of directors for the USO of 
Metropolitan Washington and the Wolf Trap Foundation and on the board 
of governors for the Electronic Industries Alliance.
    Dr. Winter earned a bachelor of science degree (with highest 
distinction) in physics from the University of Rochester in 1969. He 
received a master of science degree and a doctorate in physics from the 
University of Michigan in 1970 and 1972, respectively. He is a 1979 
graduate of the USC Management Policy Institute, a 1987 graduate of the 
UCLA Executive Program, and a 1991 graduate of the Harvard University 
Program for Senior Executives in National and International Security. 
In 2002, Dr. Winter was elected a member of the National Academy of 
Engineering.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Donald C. 
Winter in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Donald Charles Winter, aka Don Winter.

    2. Position to which nominated:
    Secretary of the Navy.

    3. Date of nomination:
    6 September 05.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 15, 1948; Brooklyn, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Jo Engel on June 15, 1969.

    7. Names and ages of children:
    Benjamin Andrew Winter, 30; Jonathan David Winter, 27.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    9/62-6/65, Oceanside High School, Diploma, 6/65.
    9/65-6/69, University of Rochester, BS Physics Summa Cum Laude, 6/
69.
    9/69-3/72, University of Michigan, MS Physics, 12/70, PhD Physics, 
3/72.
    10/78-3/79, University of Southern California, Certificate 
(management), 3/79.
    9/86-6/87, University of California, LA, Certificate (management), 
6/87.
    8/91, Harvard University, National and International Security 
Program.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    11/99-Present, President, Mission Systems, Northrop Grumman 
Corporation (formerly TRW Systems), Reston, VA.
    7/82-11/99, TRW, Redondo Beach, CA, Various senior executive 
positions including VP and Division General Manager, Defense Satellite 
Division and Deputy General Manager for Group Development.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    8/80-7/82, Program Manager, Defense Advanced Research Projects 
Agency.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Elected Officer (Corporate Vice President) Northrop Grumman Corp.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    USO of Metropolitan Washington; Member, Board of Directors.
    Electronic Industries Alliance; Member, Board of Governors.
    Wolf Trap Foundation for the Performing Arts; Member, Board of 
Directors.
    National Academy of Engineering; Member, Vice Chair Peer Committee 
Section 12.
    American Institute of Aeronautics and Astronautics; Associate 
Fellow.
    Manhattan Beach Badminton Club; Member.
    Republican National Committee President's Club; Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member, President's Club, Republican National Committee.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2000 (payroll deduction) - $500 to TRW Good Government Fund.
    2001 (payroll deduction) - $720 to TRW Good Government Fund.
    2002 (payroll deduction) - $2,600 to TRW Good Government Fund.
    1/10/03 - $1,000 to Republican National Committee.
    2/5/04 - $1,000 to Republican National Committee.
    4/27/04 - $5,000 to National Republican Congressional Committee.
    10/4/04 - $1,000 to National Republican Senatorial Committee.
    10/5/04 - $1,000 to Republican National Committee.
    2/4/05 - $1,000 to Republican National Committee.
    4/5/05 - $1,000 to National Republican Senatorial Committee.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Rackham Fellow, University of Michigan.
    Elected Member, National Academy of Engineering.
    Defense Meritorious Service Award.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Donald C. Winter.
    This 9th day of September 2005.

    [The nomination of Donald C. Winter was reported to the 
Senate by Chairman Warner on October 27, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 10, 2005.]


   NOMINATIONS OF HON. JOHN J. YOUNG, JR., TO BE DIRECTOR OF DEFENSE 
RESEARCH AND ENGINEERING; J. DORRANCE SMITH, TO BE ASSISTANT SECRETARY 
   OF DEFENSE FOR PUBLIC AFFAIRS; DELORES M. ETTER, TO BE ASSISTANT 
 SECRETARY OF THE NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION; GEN 
BURWELL B. BELL III, USA, FOR REAPPOINTMENT TO THE GRADE OF GENERAL AND 
 TO BE COMMANDER, UNITED NATIONS COMMAND/COMBINED FORCES COMMAND, AND 
  COMMANDER, UNITED STATES FORCES KOREA; AND LT. GEN. LANCE L. SMITH, 
  USAF, FOR APPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, 
    UNITED STATES JOINT FORCES COMMAND AND SUPREME ALLIED COMMANDER 
                             TRANSFORMATION

                              ----------                              


                       TUESDAY, OCTOBER 25, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Collins, Talent, Thune, Levin, Dayton, and Clinton.
    Other Senators present: Senators Stevens and Inouye.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Thomas L. 
MacKenzie, professional staff member; Elaine A. McCusker, 
professional staff member; Stanley R. O'Connor, Jr., 
professional staff member; Lynn F. Rusten, professional staff 
member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Creighton Greene, professional staff member; Gerald J. 
Leeling, minority counsel; Peter K. Levine, minority counsel; 
and Arun A. Seraphin, professional staff member.
    Staff assistants present: Micah H. Harris, Jessica L. 
Kingston, Jill L. Simodejka, and Pendred K. Wilson.
    Committee members' assistants present: Mackenzie M. Eaglen, 
assistant to Senator Collins; Lindsey R. Neas, assistant to 
Senator Talent; Stuart C. Mallory, assistant to Senator Thune; 
William K. Sutey, assistant to Senator Bill Nelson; Kimberly 
Jackson, assistant to Senator Dayton; and Andrew Shapiro, 
assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. How pleased we all 
are to have before us this morning such a very distinguished 
group of nominees, both civilian and military, for posts in our 
Government. We welcome the three civilian nominees: Secretary 
John Young, well known to the Senate, Assistant Secretary of 
the Navy for Research, Development, and Acquisition, nominated 
to be the Director of Defense Research and Engineering; 
Dorrance Smith, who has been nominated to be Assistant 
Secretary of Defense for Public Affairs; and Dr. Delores Etter, 
who has been nominated to be the Assistant Secretary of the 
Navy for Research, Development, and Acquisition. I very much 
enjoyed my visits with each of you in the course of the 
proceedings here.
    We also welcome General Burwell Bell, U.S. Army, nominated 
to be the Commander, United Nations Command/Combined Forces 
Command, and U.S. Forces Korea; and Lieutenant General Lance 
Smith, U.S. Air Force, nominated to be the Commander, U.S. 
Joint Forces Command (JFCOM), and Supreme Allied Commander 
Transformation. They will be in our second panel.
    I welcome my two distinguished colleagues from the Senate. 
Gentlemen, we will pause for a moment if each of you would like 
to proceed with your introductions. Senator Stevens.

 STATEMENT OF HON. TED STEVENS, U.S. SENATOR FROM THE STATE OF 
                             ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman. I am 
honored to be here once again to present John Young, Secretary 
Young, to the committee. From 1991 to 2001, John served as a 
staff member on our Defense Appropriations Subcommittee. He is 
truly bipartisan. During that time our committee chairmanship 
moved back and forth between my distinguished colleague and 
myself. John worked for both Senator Inouye and me in the same 
position. He was a valuable member of our staff.
    He came to our committee as a Congressional fellow from the 
Sandia National Labs. He became a professional staff member in 
1993 and served as the staff analyst for a variety of 
Department of Defense (DOD) programs. John reviewed and offered 
funding recommendations for our subcommittee on all DOD 
aircraft procurement programs. He also analyzed Navy aircraft-
related research, development, test, and evaluation (RDT&E) 
programs defense-wide and within the Air Force. He provided 
analysis of the activities of the Ballistic Missile Defense 
Organization and the Defense Advanced Research Projects Agency 
(DARPA).
    President Bush nominated John to serve as Assistant 
Secretary of the Navy, as we all know, for Research, 
Development, and Acquisition in 2001. He has proven in this 
role that he is a skilled leader, dedicated to ensure that our 
men and women in uniform have the resources they need to 
complete their missions.
    He was instrumental in achieving significant improvements 
to the Navy's acquisition programs, making many of those 
programs more efficient. He used innovative methods to achieve 
cost savings in a variety of programs which had a tremendous 
benefit to the Department of the Navy.
    His success in the role of Assistant Secretary led 
President Bush to nominate him to serve as Director of Defense 
Research and Engineering. I am confident that Secretary Young 
will approach this new position with the same commitment and 
dedication he has exhibited during his time with the Defense 
Appropriations Subcommittee. He will fill a role performed by 
very able people we have all known in the past, and I am sure 
he will distinguish himself in this new position.
    I am delighted to be here with the co-chair of our 
subcommittee, the co-chair of the Commerce Committee, my good 
friend, to support the nomination also, and I would yield to 
him.
    Chairman Warner. The Senator from Hawaii, the distinguished 
Senator Inouye.

STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM THE STATE 
                           OF HAWAII

    Senator Inouye. Mr. Chairman and Senator Levin, I am 
pleased to join my friend and colleague Senator Stevens in 
introducing John Young, the President's nominee to be Director 
of Defense Research and Engineering. More than 4 years ago I 
had the pleasure of introducing Mr. Young to this committee as 
the President's nominee for the position of Assistant Secretary 
of the Navy, and I am pleased to once again speak for him in 
this new position for which he has been nominated.
    As Chairman Stevens noted, John Young came to the 
Appropriations Committee in 1991 as a young, 28-year-old 
American Institute of Astronautics fellow from Sandia. He 
already had an engineering degree from Georgia Tech, a master's 
from Stanford, and a lot of experience in the aerospace 
industry. His capabilities were so outstanding that he came to 
the committee for a 12-month assignment and, Mr. Chairman, we 
kept him for 10 years.
    John Young left the committee to serve as Assistant 
Secretary of the Navy. In this position, as Chairman Stevens 
has pointed out, he has earned high marks for instituting 
innovative practices in the Navy acquisition programs. His 
accomplishments are too numerous to list, but his tireless 
efforts to reform our business practices in shipbuilding, 
aircraft manufacturing, and weapons procurement are well known 
to this committee and to the entire defense industry.
    I have never met anyone who has had anything but the 
greatest respect for his talent, his knowledge, and his very 
pleasant demeanor.
    So Mr. Chairman, Senator Levin, I once again recommend him 
to you without equivocation.
    Chairman Warner. Thank you very much, colleagues. We on 
this committee are deeply honored that you would find the time, 
but the cause is good. He is an outstanding individual and will 
continue to serve his Nation with great distinction, I am 
confident.
    Thank you, gentlemen.
    Senator Roberts is due at any time, but we will proceed and 
we will interrupt for Senator Roberts when he arrives. Should 
he not be able to make it, I will insert his statement for the 
record.
    [The prepared statement of Senator Roberts follows:]
               Prepared Statement by Senator Pat Roberts
    Thank you Mr. Chairman. I would like to take this opportunity to 
voice my strong support for Dr. Etter, who is before the committee as 
the nominee for Assistant Secretary of the Navy for Research, 
Development, and Acquisition. Dr. Etter is the Joan of Arc of Science 
and Technology--a proven and steadfast advocate for technological 
investment in our military and an outstanding choice to oversee the 
Navy's research and development efforts.
    I first met Dr. Etter through my work as the chairman of the 
Subcommittee on Emerging Threats and Capabilities. At that time, Dr. 
Etter was the Deputy Under Secretary of Defense for Science and 
Technology. During her tenure there, Dr. Etter displayed a thorough 
command of Department of Defense (DOD) science and technology programs, 
and an understanding that a strong and consistent investment in such 
programs has been and will continue to be the primary means for 
allowing the United States to confront the uncertain and evolving 
threats to national security in the 21st century. During that time, I 
often relied on Dr. Etter's expertise and strong support for creating, 
developing, and implementing an aggressive science and technology 
program within the individual Services, and across the Department.
    When Dr. Etter and I first began working together, I recall I had 
some serious concerns regarding one particular services's science and 
technology program, and the impact it would have on the other Services 
and the defense technology investment overall. After asking Dr. Etter 
to ``ride shotgun'' with me as we worked to get the country's science 
and technology dollars back, I understood then why we would one day see 
her before the committee again, as we do today. I was thoroughly 
impressed with her dedication and commitment to building a true, long 
term base for the development of science and technology programs. She 
is a true advocate.
    Dr. Etter understands that it should be a priority of the DOD, the 
individual Services, and this committee, to maintain a strong, stable 
investment in science and technology programs. Such an investment is 
critical to develop superior technology that permits the U.S. to gain 
military advantage today, provides flexible options to future 
warfighters, and continuously hedges against technological surprise. 
The military scope of our enemies will be forever changing--adapting to 
create asymmetrical conditions of warfare that our current forces may 
not be designed to address. Dr. Etter understands that our ongoing 
efforts to maintain current advantages and military superiority must be 
founded in strong and robust programs that embrace the investment and 
development in science and technological initiatives.
    Mr. Chairman, as I mentioned before, Dr. Etter served with 
distinction as the Deputy Under Secretary of Defense for Science and 
Technology. She is also a member of the National Science Board, the 
National Academy of Engineering, and the Defense Science Board, and 
currently serves on faculty at the United States Naval Academy where 
she was the first recipient of the Office of Naval Research 
Distinguished Chair in Science and Technology. She has received the 
Department of the Navy Distinguished Public Service Award, the 
Secretary of Defense Outstanding Public Service Medal, and the 
Department of Defense Distinguished Public Service Medal.
    One thing is clear--Dr. Etter is well qualified for this position. 
She has the understanding, initiative, and leadership to serve with 
honor as the next Assistant Secretary of the Navy for Research, 
Development, and Acquisition. With that, I strongly endorse the 
confirmation of Dr. Etter, and urge my colleagues in this committee to 
vote favorably upon her nomination.
    Thank you.

    Chairman Warner. I thought at this point in time I would 
ask the first panel to introduce your families. Secretary 
Young, would you kindly introduce your family and those 
attending.
    Mr. Young. Mr. Chairman, thank you very much for the 
opportunity. We made the choice to have my children stay in 
school today. My wife Barbara is with me. I would also like to 
note my extended family team here, who helped me recently to 
work in the Navy on acquisition programs, Captain Jim 
McManamon, Colonel Bill Anderson, and Daniele Wright, are 
critical members of the team in acquisition in the Navy.
    Chairman Warner. I think it is marvelous that you bring 
your senior staff in. I always reflect on my time in the 
building and what extraordinary individuals I had as senior 
staff. I might say to those in attendance that both of my 
executive assistants (EA) eventually became Chief of Naval 
Operations (CNO). So there is hope afterwards.
    Mr. Smith, I believe you have some guests.
    Mr. Smith. My family is in Houston, Texas, sir. They could 
not be here today.
    Chairman Warner. All right. Well, they are here in spirit.
    Mr. Smith. Yes, sir.
    Chairman Warner. Dr. Etter.
    Dr. Etter. Mr. Chairman, I am very pleased to have members 
of my family here. First, my husband Jerry. We have recently 
celebrated our 38th anniversary. He was in the Air Force as an 
officer for 12 years. My brother is here from Tulsa, Oklahoma, 
Ron Van Camp. My daughter is on the west coast and has three 
very young children, so she was not able to join us. But in her 
place, I have brought some midshipmen from the Naval Academy. 
The Naval Academy has a very wonderful program that matches 
members of the local community with plebes or freshmen as they 
come in, and these four midshipmen are some that we are 
sponsoring.
    I would like to introduce them to you. We have Will Snead 
from Ohio.
    Chairman Warner. If you gentlemen would stand, please, and 
lady, stand, please. Thank you very much.
    Dr. Etter. Carleigh Gregory from Virginia, Matt Nunez from 
Ohio, and Matt Warshaw from Louisiana.
    Chairman Warner. We welcome you. We congratulate you on 
your appointments and your service to your Nation in the 
Academy, and good luck.
    I am going to pass over my material on Secretary Young. I 
think I can just put it in the record. There is quite a bit 
there. We are delighted, of course, to have this opportunity to 
have you before us.
    Mr. Smith, I enjoyed our visit, as I said very clearly. You 
have an extraordinary career in journalism. You are very modest 
about it. You have an Emmy Award, a winning television producer 
with over 30 years of media experience. You served as senior 
media adviser to Ambassador Paul Bremmer from 2003 to 2004, and 
you are responsible for a developing state-of-the-art 
communications facility in Baghdad for the Coalition 
Provisional Authority (CPA). Mr. Smith worked to establish the 
fledgling Iraq Media Network and was awarded the Secretary of 
Defense Medal for Exceptional Public Service.
    He has also given public service with the Federal Emergency 
Management Agency (FEMA) in 2001, overseeing media coverage in 
the aftermath of the terrorist attack in New York on September 
11, 2001; and also with the White House staff as Assistant to 
the President of the United States for Media Affairs from 1991 
through 1992.
    We thank you for your past service and your willingness to 
continue that service. I think you are facing some of the most 
challenging times in the contemporary history of our country 
and your background reflects that you are able to accept that 
challenge and meet it.
    Dr. Etter, I so enjoyed our visit. You are no stranger to 
the committee, having served from June 1998 through July 2001 
as the Deputy Under Secretary of Defense for Science and 
Technology. You presently serve on the Electrical Engineering 
Faculty of the United States Naval Academy as the first 
recipient of the Office of Naval Research Distinguished Chair 
in Science and Technology. This, according to my staff, makes 
her a world-class ``wires'' professor, a formidable entity 
indeed.
    We get up here and we start reading these things and we do 
not have the slightest idea of what it is all about. I happen 
to have graduated from the Naval Research Laboratory here in 
Washington, DC, and was awarded a third class petty officer 
stripe in 1946. That is as much as I got out of there. But I 
will look into this. Maybe I can go back and pick up mine. That 
is pretty good. I like that.
    I commend you for pursuing the technical challenge of 
training. In our visit we exchanged our mutual concern for the 
growing shortage of young men and women who are willing to 
undertake the arduous task of pursuing technical studies, 
whether it is mathematics, electrical engineering, computer 
sciences, or the like, and at the same time nations in the 
world, notably India and China, are far ahead of us in the 
technical education of their young people.
    Thank you.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you and let me join you 
in welcoming our witnesses here this morning. I do know our 
first nominee, John Young, from his work here in the Senate in 
the 1990s: a professional staff member on the Defense 
Subcommittee of the Appropriations Committee. He is extremely 
well-qualified, well-liked. I look forward to his being 
promptly confirmed. I think we all know of his background and 
of his competence and of his pleasant demeanor which Senator 
Inouye pointed out. We are always delighted to have Senator 
Inouye in our presence.
    I am not familiar with either of our other two nominees, I 
am afraid. I look forward to asking them some questions and 
welcome not just the three nominees that we have here, but also 
those who have accompanied the nominees--family, plebes, 
friends, supporters, well-wishers all. They are all welcome and 
they play an important part in this confirmation proceeding.
    Chairman Warner. Thank you very much, Senator Levin.
    As is the longstanding tradition of this committee, we ask 
all our nominees, military and civilian, to answer a series of 
advance policy questions. The nominees have responded to those 
questions and, without objection, I will make the questions and 
their responses part of the record.
    I also have certain standard questions we ask of every 
nominee who appears before the committee and would now ask, if 
our two senior military officers would likewise stand so I do 
not have to repeat this twice. If you would be kind enough, 
gentlemen, to just stand in the background.
    The first question: Have you adhered to the applicable laws 
and regulations governing conflicts of interest.
    Mr. Young. Yes.
    Mr. Smith. Yes.
    Dr. Etter. Yes.
    General Bell. Yes.
    General Smith. Yes.
    Chairman Warner. I note all agreed.
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    Mr. Young. No, sir.
    Mr. Smith. No, sir.
    Dr. Etter. No, sir.
    General Bell. No, sir.
    General Smith. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Mr. Young. Yes, Mr. Chairman.
    Mr. Smith. Yes.
    Dr. Etter. Yes.
    General Bell. Yes.
    General Smith. Yes.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to Congressional requests?
    Mr. Young. Yes, sir.
    Mr. Smith. Yes, sir.
    Dr. Etter. Yes, sir.
    General Bell. Yes, sir.
    General Smith. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
possible reprisal for their testimony or briefings before the 
Congress of the United States?
    Mr. Young. Yes, sir.
    Mr. Smith. Yes, sir.
    Dr. Etter. Yes, sir.
    General Bell. Yes, sir.
    General Smith. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Young. Yes, sir.
    Mr. Smith. Yes, sir.
    Dr. Etter. Yes, sir.
    General Bell. Yes, sir.
    General Smith. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly constituted committee of 
the Congress of the United States, or to consult with the 
committee regarding the basis for any good faith delay or 
denial in providing such documents?
    Mr. Young. Yes, sir.
    Mr. Smith. Yes, sir.
    Dr. Etter. Yes, sir.
    General Bell. Yes, sir.
    General Smith. Yes, sir.
    Chairman Warner. I thank all witnesses.
    Secretary Young, if you would like to make an opening 
statement, we are delighted to receive it.
    Mr. Young. Thank you, Mr. Chairman, Senator Levin, members 
of the committee. It is a privilege to have the chance to 
appear before you today as the President's nominee to serve as 
the Director of Defense Research and Engineering. First, I am 
most grateful to Chairman Stevens and Senator Inouye for their 
very kind introductions. These gentlemen have steadfastly 
supported our Nation's defense capability because of lessons 
they learned earlier, knowledge gained through dangerous 
service and personal sacrifice. I was indeed fortunate to 
follow their leadership and to learn from them as a staff 
member on the Defense Appropriations Subcommittee. The Nation 
has been most fortunate to benefit from their dedication of 
their entire adult lives and their personal energy to keeping 
America strong and free.
    Chairman Stevens was the key advocate of my ability to 
serve this administration as the Navy acquisition executive. I 
am most grateful for this committee confirming me to that job. 
Equally important, Chairman Warner, you and members of the 
committee have provided tremendous support for Navy and Marine 
Corps programs, allowing your naval acquisition team to resolve 
many challenges and to make key changes in the acquisition 
process. I have truly enjoyed this rare chance to serve.
    As you warned at the first hearing, Mr. Chairman, the 
Pentagon is inclined to demand long hours of those who work to 
change and shape programs. My wife, Barbara, and my children, 
Nathan, William, and Catherine have made my determined service 
possible. Barbara has made sure that our household continues to 
function and the kids make every game and lesson, even as she 
works full time. I cannot serve without her support.
    Chairman Warner. You might mention the names and the ages 
of that family. This record is printed up, and I still have my 
old, yellowed hearing record from 35 years ago when I sat in 
that chair, and your kids might want to read about themselves 
some day.
    Mr. Young. I am very proud of my oldest son, Nathan Young, 
who is 14, has passed his mom and insists on measuring every 
day to see if he has passed me. My middle son William is 11 and 
has a competitive intensity that is somewhat like mine. He is 
determined to win and is convinced he will be an Atlanta Brave 
in the future. My daughter Catherine is a brave and determined 
soul. She broke her leg earlier this year when she was 7. She 
is now 8 and fully recovered. Kids do get well and keep going, 
and she is ready to go skiing again, I believe.
    Thank you for that chance, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Mr. Young. I am truly honored to be nominated by President 
Bush and Secretary Rumsfeld to serve as the Director of Defense 
Research and Engineering, commonly called DDR&E. The record of 
accomplishment by individuals previously serving as DDR&E makes 
the task of upholding that tradition daunting. However, if 
confirmed I will work with determination to shape and guide our 
investment in the future and our Nation's defense capability.
    The Nation currently faces threats across a broad spectrum, 
from nation states developing peer capabilities to terrorist 
organizations harnessing available technologies and 
unconventional techniques. The task particularly before the DOD 
research and engineering team is to apply the same available 
technologies and, where necessary, harness American know-how to 
devise new concepts in order to defeat the threats the Nation 
faces today and the threats that we may face in the future.
    We must undertake this work with urgency. The men and women 
who are prepared to sacrifice for this country deserve 
absolutely no less. If confirmed, I will seek to meet this 
challenge, relying on the ingenuity of scientists and engineers 
in the government, industry, and academic communities. We will 
seek to accelerate the development and delivery of 
capabilities, working to facilitate action and to avoid the 
friction and inertia of the current process.
    The support of this committee and Congress will be 
essential in any effort to enhance our current processes and 
pursue our strategic goals. I am grateful for your 
consideration of my nomination, and I look forward to your 
questions. Thank you, sir.
    Chairman Warner. Thank you very much, Mr. Secretary. It was 
an excellent opening statement. I am so glad that you 
acknowledge the important contribution of your family. I feel 
that is true both of the civilian structure in the building as 
well as the military structure, and at every turn I welcome 
references to that support, which is absolutely essential.
    I would only say to you and those in attendance, every 
decision made after 8 o'clock in the Pentagon is reversed 
usually the next morning. Get them home.
    Now we have Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I would like to thank President Bush for having the 
confidence to nominate me and Secretary Rumsfeld for the 
opportunity to serve. It is an honor for me to be considered 
for such an important position. The challenges facing public 
affairs at the DOD are great. Events of the last year have 
demonstrated that the role and responsibilities of the U.S. 
military around the world are expanding. Whether fighting the 
global war on terror, responding to natural disasters like 
Hurricane Katrina, or the earthquake in Pakistan, the men and 
women of our Armed Forces are on the front lines.
    I believe they represent the best of America. Effectively 
telling their story has become essential for our National 
security. Communicating their varied missions in an open, 
honest, and transparent way is both a challenge and an 
opportunity. If confirmed, I will strive to use all the 
resources, assets, and expertise of the DOD to further the 
goals of our Armed Forces.
    I thank the committee for its time and consideration of me 
for this unique position.
    Chairman Warner. Thank you very much, Mr. Smith.
    Dr. Etter.
    Dr. Etter. Thank you, Mr. Chairman. It is a special honor 
for me to be here today. I thank President Bush and Secretary 
Rumsfeld for nominating me for this position and for the 
opportunity to serve my country if confirmed.
    Growing up in a small town in Oklahoma, I would never have 
imagined I would be sitting in this room preparing, if 
confirmed, to accept responsibility for the Department of the 
Navy's research, development, and acquisition programs. I am 
here today because of the wonderful university system in this 
country that opens its doors to anyone willing to work hard. I 
am a product of the State university systems that are the envy 
of the world. I attended Oklahoma State University, the 
University of Texas at Arlington, Wright State University in 
Dayton, and the University of New Mexico. I have been on the 
faculties of the University of New Mexico, University of 
Colorado at Boulder, and the United States Naval Academy. I 
also spent a year as a visiting faculty member at Stanford 
University.
    Each of these schools has helped prepare me for the 
opportunities that I have today. I recognize that educational 
opportunities that I have had available are only there because 
of the freedoms we enjoy in this country. To keep our democracy 
strong, we must have a military that can ensure our national 
security.
    I am very proud to have had the opportunity as Deputy Under 
Secretary of Defense for Science and Technology to help make 
sure this country has the technology edge it needs for the 
future. If confirmed in this position, I look forward to 
working to make sure the men and the women of the Navy and the 
Marine Corps have the equipment, systems, and platforms that 
will give them advanced capabilities to complete their missions 
and to ensure our national security.
    Thank you.
    Chairman Warner. Thank you very much, Dr. Etter. I am much 
taken by that record of all your various academic posts. But 
you are right in the front lines now. All of the theories, you 
are going to have to put them to work or cast them aside, 
whatever the case may be.
    We will now proceed with 6-minute rounds of questions for 
each member.
    Mr. Young, I will ask that question which you have been 
asked repeatedly for a very long time, and that is what do you 
forecast for the ability of the Department of the Navy to get 
adequate funds for shipbuilding, and how in your new post will 
you help facilitate that challenge?
    Mr. Young. Mr. Chairman, you know this almost better than I 
do. Admiral Mullen, as the new CNO, has placed a priority and 
that is the choice that will have to be made. A priority set of 
choices will have to be made within the overall Navy enterprise 
budget to ensure that adequate funds are devoted to 
shipbuilding. Admiral Mullen and I have discussed this, and he 
has agreed to take a hard look at some of the requirements 
issues that have driven costs. So, in combination with setting 
aside appropriate budget resources and keeping requirements 
constrained, I think the Navy can indeed increase the 
shipbuilding rate and deliver the fleet that the Nation 
expects. It will take discipline to do that.
    Chairman Warner. Well, I have my own theories, and that 
is--and you can just listen to them; you do not have to comment 
on it--I do believe that the situation is so serious--and I am 
not faulting this administration, or the previous 
administration. I am not into the political arena on this. What 
is the latest count, 233 ships at sea, give or take a ship? Ask 
the captain over there.
    Mr. Young. Please.
    Captain McManamon. 281.
    Chairman Warner. 280?
    Captain McManamon. Right, 96 at sea, 281 available for 
deployment?
    Chairman Warner. Well, all right. I looked at another 
statistic. I think there are a lot of patrol boats you have in 
there.
    My point is I think that--and I intend to do this, take an 
initiative with our distinguished President and suggest that 
this requires a separate allocation of funding, quite apart 
from the annual POM process, the division of funds between the 
three military departments, and to begin a down to earth, long-
term shipbuilding program to try, not just to restore numbers, 
but to bring the elements of the fleet up to where they can 
continue to defend this Nation and our interests abroad.
    Our concept of defense is basically based on forward 
projection, as you well know, and that requires naval power any 
way you look at it. So you will not be in the direct line on 
that, but stand by.
    Mr. Young. I am certainly, after 4 years, sympathetic to 
your concerns and would be happy to talk to you, Mr. Chairman. 
I think there are aspects of our budget process that do make it 
a challenge to protect those resources, and so your initiatives 
will probably be welcomed.
    Chairman Warner. Thank you.
    Turning to another subject which troubles us all, and that 
is the improvised explosive device (IED) problem, which is 
growing, maybe not in numbers of incidents, but the 
consequences of the various ordnance packages being put 
together now are just horrendous. They are defeating in many 
ways all of our efforts to armor and up-armor and side-armor 
and everything else our vehicles.
    This committee, I am proud of its record, periodically, 
about every 30 days, has a group over from the Joint Task Force 
in the DOD, and I think we are scheduled here very shortly to 
have another meeting. I would like to have your perspective on 
this, and particularly in your new position, where you have the 
reins of all of the research and defense capabilities of this 
country in many respects.
    Are we doing everything? Is there more that can be done? 
Because these are just tragic types of injuries, and oftentimes 
they are so serious that they make it difficult for us to 
fulfill the missions that we have over there. Those of us who 
have visited and continue to visit--I just returned here a few 
weeks ago--I do not see any of the young people in uniform 
flinching from going out and confronting this risk every day.
    I just want to make certain that our technology base here 
in America, manufacturing base, is doing everything possible to 
address this situation.
    Mr. Young. Mr. Chairman, we are doing a great deal, but I 
am not prepared to tell you there is not more that can be done, 
and we will seek to uncover all those rocks. In fact, pending 
in my office is an effort to buy additional jammers to deal 
with an evolution of the threat, if you will, to avoid any 
classified issues.
    Under Secretary England's leadership, we created a year and 
a half ago Operation Respond to try to equip the marines as 
they went back into Iraq. We bought jammers in advance of the 
requirement and the need to do that. A year or so ago we signed 
for robots from the sources that were available that could go 
out if we found the IEDs, to disarm them.
    We have used our aircraft in the Navy, Growlers and other 
aircraft, to find and, if possible, jam. I think people are, 
with the help many times of the men and women in the field, 
using every tool available to deal with this threat. It is a 
difficult and agile threat. So we are going to have to keep 
pace with it. We have used some special skills at the Naval 
Surface Warfare Center at Dahlgren, Virginia, their explosives 
expertise, to understand how the enemy is building the devices, 
how they are fusing the devices, so we are always knowledgeable 
about what our challenge is to address the threat. I assure you 
we will continue to push this very hard, because until we can 
stop these losses we will not be ahead of this curve.
    Chairman Warner. I visited Dahlgren here some months ago 
and saw their work. I am curious. Has that, without identifying 
it because it has a certain classification, but has that piece 
of extraordinary equipment been utilized yet in the Iraqi 
theater?
    Mr. Young. Assuming we are talking about the same thing, I 
did not mention that. I am glad you referenced it. My last 
report is we are conducting some of the last rounds of testing 
here in the U.S. to make sure we understand how it will operate 
in theater and then preparing to get it into the theater.
    Chairman Warner. Thank you very much.
    My time is up. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    First, Secretary Young, there has been a suggestion made by 
a number of people that we modify the acquisition process to 
include the service chiefs in the acquisition chain of command 
for major defense acquisition programs. What is your position 
on that?
    Mr. Young. Senator Levin, I thank you for the chance on the 
advance policy questions to comment. I very much thank you for 
the chance to comment now.
    I believe the framers of Goldwater-Nichols were remarkably 
prescient in putting a member of the President's team on the 
buying side to represent the taxpayers and the citizens, and 
they put the requirements function in the hands of the service 
chiefs so they can set requirements, and there is a creative 
tension, like the checks and balances throughout our 
Government. So we have that dialogue to ensure we buy to 
reasonable requirements that can be met by the technology, be 
met within the budget, and represent the best use of the 
taxpayers' dollars.
    I believe pushing that function to the service chiefs poses 
a great risk of increasing requirements, increasing costs, and 
I believe it would be a disservice to the President, and I 
oppose that.
    Senator Levin. Dr. Etter, you would be involved somewhat in 
that, too. Do you have an opinion on that?
    Dr. Etter. I certainly support the answer of Secretary 
Young. I think Goldwater-Nichols is the right way to do this, 
and I look forward to continuing the work that Secretary Young 
has set up in the Navy.
    Senator Levin. Secretary Young, your predecessor does not 
seem to have spent a great deal of time exercising oversight 
over the activities of DARPA. It is officially under the 
direction of the Director of Defense Research and Engineering. 
There have been a number of concerns raised about the lack of 
oversight over some of the DARPA programs, such as the Total 
Information Awareness program, and the failure to ensure that 
DARPA programs are consistent with and coordinated with service 
research efforts.
    What is your relationship going to be with the Director of 
DARPA, if you are confirmed?
    Mr. Young. Senator, in my time here in Congress I reviewed 
the DARPA account and found it to be quite fun, to be honest 
with you, to spend days combing through the technology. So 
maybe to the anxiety of DARPA, I expect to go back to that 
front and learn and grow and guide that program. It is 
important for the director to be able to run the agency, but I 
expect to exercise the DDR&E's role in guiding the priorities 
and objectives of the DARPA program, and also working to ensure 
that investment gets in the hands of the Services and, 
therefore, the hands of the warfighter.
    Senator Levin. Mr. Smith, you wrote a piece in the Wall 
Street Journal a few months ago called ``The Enemy on Our 
Airwaves'' which talked about an American who was taken hostage 
in Iraq, whose name is Jeffrey Ake. A video of him in captivity 
was shown on al Jazeera and then shortly afterwards the 
American TV networks aired the same video. You called that a 
vivid example of the ``ongoing relationship between terrorists, 
al Jazeera, and the networks,'' using his words, the 
``networks'' referring to the U.S. networks.
    You made reference to that relationship in a number of 
places in this article, that there is a relationship between al 
Jazeera, terrorists, and the American television networks. You 
then made the statement that ``Osama bin Laden, al Zarqawi and 
al Qaeda have a partner in al Jazeera and, by extension, most 
networks in the United States.''
    That is a very serious allegation. Did you really mean that 
there is a relationship between al Qaeda and the U.S. 
television networks?
    Mr. Smith. Senator, given the time that I spent in Iraq 
from June 2003 to September--sorry, September 2003 to June 
2004, when I was running the Iraqi Media Network, you learn how 
the enemy operates from a communications standpoint. What I was 
revealing there is a relationship that exists, that the enemy 
is quite aware of and they use it, and they understand that if 
they have a piece of video and they give it to al Jazeera and 
it gets on al Jazeera, by extension it gets on the six major 
networks in the United States. That is part of their 
communications strategy that we saw time and again.
    I was basically just revealing the nature of that 
relationship.
    Senator Levin. Does that make them a partner? Does that 
really make the television networks of the United States a 
partner of Osama bin Laden and Zarqawi and al Qaeda? Those are 
the words you used, that they are a partner. I know they are 
going to be used--if our enemy succeeds in using propaganda 
successfully. Obviously, they are going to try to use whatever 
tools they possibly can, including the fact that we have free 
speech in this country and we have television networks that can 
run whatever they want to run.
    But does that establish a relationship between the U.S. 
television networks?
    Mr. Smith. There is a relationship that exists there.
    Senator Levin. What is the relationship?
    Mr. Smith. The relationship is a cooperative one where they 
trade video. If al Jazeera airs something, they have access to 
whatever it is that al Jazeera airs.
    Senator Levin. Does that create a relationship in your 
judgment?
    Mr. Smith. I think it is a relationship. I think it is a 
semantical debate, sir.
    Senator Levin. You are going to play a very critical role, 
if you are confirmed, in terms of information.
    Mr. Smith. Yes, sir.
    Senator Levin. Our enemy obviously wants to use our freedom 
for their own advantage. There is a difference between that and 
characterizing, and, I think, mischaracterizing and unfairly 
characterizing, that effort on the part of our enemy to use our 
freedoms to their advantage and turning that into a 
relationship between the television networks--and you name 
every one of them--and our enemy. I think it is an unfair 
characterization and it troubles me if it implies anything in 
terms of what your view is of your role as running information 
for the DOD.
    Mr. Smith. Well, if I may, sir, the larger point that I was 
making, is that the United States Government--and I wrote this 
as a private citizen at the time. What disturbed me was the 
manner in which this information would be shown on the networks 
here and in the Middle East, and that our government needed a 
policy that was consistent in dealing with al Jazeera, that as 
we were fighting a war on the ground we needed to also 
recognize that there is a war of the airwaves, and it is one 
that we should engage in.
    Senator Levin. Does our Government run the networks?
    Mr. Smith. No, I was saying that as it relates to dealing 
with al Jazeera--which I was in Iraq, we dealt with this. For 
instance, in Baghdad we had a rapid response team so that when 
al Jazeera would put out information that was incorrect and 
other news organizations who they were involved with would come 
and ask us whether it was correct or not, we had the ability to 
tell them whether it was correct or not. I was basically making 
that point, that the Government needed a policy of dealing with 
all the information coming out of the Middle East and in 
instances where it was incorrect we should have a policy of 
dealing with that.
    Senator Levin. Promptly responding to information and 
propaganda.
    Mr. Smith. That we needed to do that, yes, sir.
    Senator Levin. I could not agree with you more. That is 
very different from labeling our networks as partners with our 
enemy and saying that they aid and abet our enemy because they 
make private decisions, uncontrolled by our government, as to 
what to run on those networks. I think it is a very serious 
mischaracterization. It is troubling to me if it suggests what 
your approach is going to be to information, if you are 
confirmed in this position. I hope it does not reflect that 
approach because, as you pointed out in your opening statement, 
you think that it is important that the missions and our 
activities be reported in an open, honest, transparent way, and 
that does not mean labeling people who run pieces of tape for 
our networks, who are free to run under our Constitution what 
they choose, for you to label them as aiders and abettors or as 
partners with our enemy. It seems to me that is an unfair 
labeling of people who are engaged in providing news to our 
people.
    I will leave it at that. But again, I am troubled very much 
by that article.
    Thank you.
    My time is up, Mr. Chairman.
    Senator Inhofe [presiding]. Thank you very much.
    Let me just give you a different perspective, Mr. Smith, 
since Senator Levin brought it up. I quite frankly do not agree 
with him on that. It shows that in this panel up here you have 
Senators that are not in lockstep with each other. We do not 
agree all the time.
    I can tell you right now, if there is one thing that 
bothers me more than anything else it is the bias that is in 
the media. I think it is very serious and I think we need to 
talk about it. I think most people in my State of Oklahoma have 
heard me talking about it long enough that they understand what 
is going on over there.
    I would have to say that I was very proud. First of all, I 
probably have been in Iraq more than any other member of this 
committee. I suggest that is the case. Just about every month I 
go over there, and I think it is a responsibility of this 
committee to see what is going on over there and to get an 
accurate picture of it, because I find that those individuals 
on this panel that are most critical of the war itself are the 
ones who do not go over there and spend the time with the 
troops.
    Now, the comment was made about aiding and abetting the 
enemy. Let me just read something. One of my favorite people 
that I ran into over there was this Lieutenant Colonel Tim 
Ryan. I have been using this, and I have talked to him about it 
over there as he was leading troops in and out of battles. He 
said:
    ``The inaccurate picture they paint has distorted the world 
view of the daily realities in Iraq. The result is a further 
erosion of international support for the United States' efforts 
there and the strengthening of the insurgents' resolve and 
recruiting efforts''--``the strengthening of the insurgents' 
resolve and recruiting efforts, while weakening our own. 
Through their incomplete, uninformed, and unbalanced reporting, 
many members of the media covering the war in Iraq are aiding 
and abetting the enemy.''
    I would suggest that maybe if you said it or did not say 
it, that is not as important as the fact that those troops who 
are in the field fighting for their lives and the freedoms of 
the people over there, they are using that language. It is very 
strong language.
    I would also say that the insurgents are benefiting from 
that. We have a letter that we intercepted from bin Laden's 
deputy, Zawahiri, which was sent to the leader of the 
insurgency in Iraq, Zarqawi, that says: ``I say to you that we 
are in a battle and that more than half of this battle is 
taking place in the battlefield of the media.'' They are 
winning that battle, and we have to do something about it.
    First of all, let me just ask you a question. I think we 
would all agree, whether or not we agree how bad the media is, 
we would all agree that we need to get the real story out 
there. Do you have any new ideas on how we might be able to 
accomplish that, Mr. Smith?
    Mr. Smith. Senator, if confirmed I would like to return to 
the region.
    Senator Inhofe. You were there for what, 9 months?
    Mr. Smith. I was there for 9 months, from September 11, 
2003, to June 2004, and during that time built the filing 
center for the international press, credentialed all of the 
press, basically connected Baghdad to Washington so that we 
could communicate in an open and transparent and honest way.
    From what I can gather, having not been back there, the 
situation on the ground is certainly different. The 
communications and how we communicate back from Baghdad, Iraq, 
to here is different.
    I do not think that I could make any assessment, without 
going over there and physically seeing. As we saw yesterday 
with the car bombs outside the Palestine and Sheraton Hotels, 
the challenging situation that the journalists are in requires 
us to figure out how to communicate with them in October 2005. 
One of the highest priorities that I would have, would be to go 
there and see exactly how information is getting out, how the 
briefings are going, how the credentialing process is, and the 
danger at the checkpoints in moving journalists.
    All of these issues I think are best understood by going to 
the site and seeing precisely what the issues are and then 
trying to recreate in some way the ability to work with the 
journalists there so that the story that exists there is 
getting out in a real-time basis.
    Senator Inhofe. Well, I would hope so. What I try to do, 
Mr. Smith, when I go is concentrate in certain areas. A few 
trips back, I spent the whole time in the Sunni Triangle 
because that is where supposedly, they hate us the most. I 
would mention a couple little anecdotal things and maybe ask 
you how we can get this out so that people can know what is 
going on.
    One would be in Fallujah, where we had a former brigade 
commander for Saddam Hussein who had hated Americans, until he 
started training his Iraqi security forces with our marines. 
Now, as a result of that he learned to love the marines and 
love the American people and the freedoms that we are bringing 
to that country. Right in the center of Fallujah, he told me 
that when they rotated the marines out, he said, we got 
together. They had been involved in embedded training. He said: 
We actually cried together at the time they left.
    Now, that story, nobody ever hears things like that. Over 
at the same time in Tikrit, when they blew up one of the 
training centers and there were 40 people either killed or 
injured badly, and each family of each person who was killed or 
injured supplied another family member to go in and be trained 
for them.
    Stories like that, that need to get out, how can we get 
those stories out?
    Mr. Smith. Well, I think one way would be to reinvigorate 
the embed program. I think the logistical and physical 
difficulties in a place like Fallujah for a correspondent in 
Iraq is overwhelming. Without military help, without the 
Defense Department assets, it is very difficult for them to get 
in a car and go to Fallujah and cover a story like that without 
risking their lives, because the security situation is what it 
is.
    I think we have to analyze the security situation as it 
relates to the communications environment and see what we can 
do to get these stories out in an open and honest way and in a 
timely fashion.
    Senator Inhofe. Somehow shame the press into repeating some 
of these stories.
    Well, my time is not quite up. I would like to show you 
something to demonstrate the bias of the media. To put these 
numbers in perspective, and I want you to look at this, the 
number of editorials--this is talking the New York Times and 
the Washington Post--since March 2004 about the U.S. detainee 
policies, including Abu Ghraib, were 90, 9-0, 90 editorials. 
The number of editorials since March of 2001 about the 
beheading of hostages by terrorists in Iraq and elsewhere, such 
as Nicholas Berg and Daniel Pearl, only eight. Eight editorials 
concerning that and 90 concerning perhaps what a lot of people 
like to think are abuses that we are responsible for. Now, I 
can assure you that they love that over there, to use that in 
Iraq.
    Lastly, one of the terms that I coined at this table during 
one of these hearings to show you that the troops do listen and 
are alert, I referred to the cut-and-run caucus is alive and 
well, and one of the troops came up to me last week while we 
were watching night operations. They said: Well, I can see in 
Washington the cut-and-run caucus is alive and well, but it is 
nice to see we have someone on our side up there on the Hill.
    Well, these things need to be talked about, and I applaud 
you for what you have done so far and you have a big job to do 
that. Maybe the rapid response can be sophisticated and 
enhanced in some way that it can do a better job.
    Thank you very much.
    Chairman Warner [presiding]. Thank you, Senator.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    We could have a lengthy discussion here about our various 
perceptions of what constitutes bias in the media. I find for 
myself and I believe others that bias is in the eyes of the 
beholder. We tend to believe that the media that presents 
stories differently from how we perceive them is biased and 
that present stories that are consonant with how we perceive 
things are of course accurate.
    I am more than not impressed with the media and the courage 
that it takes for journalists, print, television, you name it, 
to be over in Iraq and often giving eyewitness accounts of 
battles in Fallujah and other very dangerous places. It may be 
that their perspective from that particular vantage point is 
slightly skewed one way or another, because they are reporting 
accurately what is going on. That may not be representative of 
the entire picture, but in a free country that is their 
obligation, to report what they see, what they can find, and to 
do so as objectively and honestly as possible. Our democracy 
depends upon that, whether we agree or disagree with every 
particular story or every particular editorial.
    I will say without being hard-pressed, I think the media 
has done and continues to do a remarkable job of telling us 
what we cannot see, because we cannot be there every day. They 
are risking their lives in the process of doing so along with 
our incredibly courageous men and women in the Armed Forces who 
are doing the same.
    Mr. Smith, I would like to ask you about information coming 
to our particular committee. We have struggled in this 
committee, I think members on both sides of the aisle, because 
I do not think it is a partisan issue, to get accurate 
information. For example, the strength of the Iraq indigenous 
forces, the number of uparmored vehicles that are being 
produced, that are over in Iraq, that are not. We get 
conflicting information or contradictory information.
    How can you help us to get accurate information and assure 
us that, especially when you are representing the Office of the 
Secretary of Defense (OSD), and I am respectful of that, we are 
going to get accurate information?
    Mr. Smith. Senator, I look forward to working with this 
committee in a timely and open manner, and I would like to 
establish the kind of relationship where you think that you are 
getting the information from the DOD; in those situations in 
which you feel like, for whatever reason, that information is 
not forthcoming, I will do my level best to solve that problem.
    Senator Dayton. Do you consider it part of your 
responsibility, sir, to assure us to the best of your ability 
that the information we are being provided is accurate?
    Mr. Smith. Absolutely.
    Senator Dayton. Okay.
    You would not hesitate to either contradict that or to go 
back and get better information if you, even before it came to 
us, believed that that was not fully accurate?
    Mr. Smith. I would do my best.
    Senator Dayton. Thank you.
    Secretary Young, I commend you for keeping your kids in 
school as opposed to being here and for your dedication to your 
family. I commend all three of you for your willingness to 
serve our country and make the sacrifices, and your family 
members who make those sacrifices, in terms of lost time with 
you and the like.
    Along the lines of what Senator Warner was exploring, how 
do we improve defense research and engineering and transforming 
that into equipment that can benefit our fighting soldiers? Is 
there anything we can do in the Senate or in Congress to 
accelerate that process? What can you do administratively to do 
so?
    Mr. Young. I think there are a couple of things that are 
done now and may need to be done with more energy. One is to 
better pair some of the research community with the people 
buying platforms and programs and see if they can make plans to 
insert those technologies where they fit or let the people that 
are on that front line of delivering hardware help shape 
investment areas where they feel they are short. That 
connection is there, but not as robust in some areas.
    Second, the budget process is going to be a challenge. 
Today we are building the 2007 budget. The services finished 
several months ago, so it is really in the hands of the OSD for 
bigger level adjustments. But if you have a new technology that 
could move on a 2-year cycle and you cannot get into the budget 
until 2008 and so you will not have money until October 2007, 
that is not very agile.
    I do not know if we can solve that, but I do think we want 
to talk to Congress about ways to be more agile, especially 
against issues like IEDs, where if we see an idea we need to be 
able to put money on it now, not in 2008.
    Senator Dayton. I think that is an excellent point, and I 
trust that you would bring those to our attention immediately 
if we can expedite any of that.
    Dr. Etter, I would ask you a similar question. What can we 
do to expedite the acquisition of necessary equipment so our 
fighting forces have the very best available at all times?
    Dr. Etter. Senator, I think this is a very important issue. 
It is always frustrating to have technologies that we are aware 
of that we do not get out into fielded systems for our men and 
women. I think this is really critical.
    One of the programs that I have watched over the last few 
years that I think is doing an excellent job is the Advanced 
Concepts Technology Development (ACTD) program. This is the 
ACTD program. That is one that works with prototypes and gets 
them out into operational units and also has service buy-in. I 
think that is a very good program.
    However, it is not sufficient. There is still a lot more 
that needs to be done and that is something that I will look 
forward to trying to find some new ways to help improve the 
technology transition.
    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    The distinguished Senator from Missouri.
    Senator Talent. Thank you, Mr. Chairman.
    I want to add my voice to others thanking you all for being 
willing to do this. These are interesting and difficult times 
that we live in.
    Dr. Etter, let me just approach you with my concern. I will 
not omit the others. Mr. Smith probably would not want to 
comment since it is not really his area, but Secretary Young 
might. I am concerned about the industrial base and concerned 
about whether we are approaching industrial base issues in an 
intelligent and comprehensive way. Just as an example, we have 
had about 400 foundries close in the country in the last 3 
years. There are now only four in the country capable of 
pouring specialty alloys and stainless steel castings to 
precise military specifications. We all have a sense, I think, 
that in other parts of the supply base as well, we are narrowed 
down now to a pretty thin number of suppliers in many cases for 
goods that we would say are pretty vital.
    All this, I think, is sort of a gut feeling that we have 
sitting here, and probably you have had. I bet Secretary Young 
has had this concern in the back of his mind. It is a real 
problem in the area of shipbuilding. You and I discussed this 
privately a little bit, that because of various concerns as we 
buy fewer ships that the industrial base is beginning to 
disappear, which means we are not going to be able to buy more 
ships if we decide to do that down the road or we are going to 
have to depend on overseas suppliers, where there are obviously 
some concerns.
    A lot of our casting works, for example, have gone over to 
the Chinese, and I do not think any of us feel comfortable with 
relying on Chinese foundries for this stuff.
    Are we approaching this systematically enough? Should we 
come up with a list of areas that we really believe for 
security reasons are so vital that in those areas we have to 
sustain the industrial base? What do you think about that? How 
high a priority is this for you?
    If you want to comment too, Secretary Young, just based on 
what you have done in the past, please do so.
    Dr. Etter. Senator, I think this is a very critical issue, 
and I think it is one that will be at the top of my list if 
confirmed into this position. I think there are a number of 
issues that relate to this. Certainly competition is one, that 
as we get to fewer and fewer suppliers things become more 
expensive because we do not have the competition.
    I am also very concerned about single points of failure. I 
think, as we have seen, it can be natural disasters or it could 
be terrorist attacks, but I think we also have to be concerned 
about having multiple sources of important capabilities or 
products. I do not have specific comments at this point that I 
can add, but I can tell you that this will be a very important 
issue for me. I know that it is particularly important in the 
shipbuilding areas.
    Senator Talent. Maybe this is an area where each of the 
acquisition assistant secretaries could come up with their own 
lists and their own sense, and then the services could meet and 
try and come up with some more comprehensive list of areas 
where they have concerns. I believe that if we approach this in 
a more systematic way, first of all we will have some sense of 
security that we are doing something about it, and we will be 
able to do it in the most efficient way also, because I am sure 
a lot of these things are interrelated.
    Maybe in some areas we have to rely on overseas suppliers, 
but after we look at it and we make a judgment that they are 
very secure, that we do not have to worry about that. It is 
something we are getting from Britain for example--but right 
now I do not have any sense that any of us have a good enough 
handle on this.
    Do you want to make a comment, Secretary Young?
    Mr. Young. Senator, I certainly agree with your comments. 
When the Department a couple years ago dealt with Buy-America 
legislation and this committee was particularly leading the 
effort to get that balance right, it forwarded to Secretary 
Wolfowitz and institutions that we should look very hard to the 
things that are critical to our ability to operate and 
understand domestic supply aspects of that.
    We learned some lessons in the early stages of Operation 
Iraqi Freedom, and so I think that work has been started, but 
needs to be brought to greater light. Then we will have to see 
how we make those choices within the system, I and the 
acquisition team feel intense pressure right now on price and 
the perception that prices are too high in the face of 
requirements that are very high. Those are extreme competing 
forces when put together with the budget reality that make it 
very hard to make those industrial decisions.
    Some choices we will make in certain programs right now 
will make those programs more expensive and they will have 
industrial benefits. But it is hard to make those competing 
forces and reconcile them, especially within the building and 
here on Capitol Hill.
    Senator Talent. One of the points that I like to make, Mr. 
Secretary--to the extent that these security concerns or 
prudential concerns really are valid--then at the end of the 
day we should care about them from a budgetary standpoint as 
well. Dr. Etter mentioned the importance of competition. If we 
make a mistake in this area and there are vital supply lines 
where we are hostage to some other competitor, it is going to 
end up costing us a lot more money. I am just convinced of it.
    Or if we have to scramble to rebuild the industrial base at 
a certain point, we will be throwing money at it. I have seen 
this in so many areas. I have been around here long enough now 
to see this, that short-term concerns about the budget can 
drive you to take measures that end up costing you more, as 
well as imperiling your security. If we have some kind of a 
systematic overlay on all of this, it will help protect us 
against giving in to those kind of short-term concerns.
    I hope you feel that way, Dr. Etter, and that you will work 
within the system. It could be a real lasting contribution that 
you make, assuming that you are confirmed, to the security of 
the country, and I am sure that you will make others as well.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, I would like to associate myself 
with your observations. You have been one of the most steadfast 
proponents of shipbuilding on this committee and continue to 
express very forthrightly your views.
    Senator Talent. Well, Mr. Chairman, I do not have a home 
State interest in shipbuilding directly.
    Chairman Warner. No, last I saw there is no dockage in 
Missouri.
    Senator Talent. No, no. I have been very forthright on 
that, because we are always accused here of just trying to 
protect our home State interest, as if that is a bad thing, by 
the way. That is sort of why we are here. I wish people would 
understand that people in the military supply business can get 
to us because we represent them, and they see all this on the 
ground, and a lot of them are real patriots and, apart from 
their own business, they are worried about the long-term 
ability of our industry to supply our needs.
    I think all of us up here share this. We could end up 
getting caught. I do not want to be in a situation where we are 
running short on something, and we cannot get it because the 
Chinese decide they are not going to send it that week. We 
could be there.
    I appreciate your leadership and Senator Levin's on this as 
well.
    Chairman Warner. Well, we thank you very much.
    We will now go into a second round of questions.
    Dr. Etter, have you had the full opportunity to express 
your views, subject to confirmation of course, with regard to 
what you hope to do regarding shipbuilding? It is clearly a 
matter that is very much before this committee, and I just want 
to make sure the record has all your thoughts in it at this 
time.
    Dr. Etter. I do understand that shipbuilding is going to be 
a very important part of my responsibilities. I have talked to 
a few people about this issue, so I understand some of the 
current issues. I know the concern about that really relates to 
the previous discussion of making sure that we have sufficient 
capacity as needed.
    I am looking forward to the results of the Quadrennial 
Defense Review (QDR), because I think that will give some 
guidance in this area. I am also looking forward to meeting 
with Admiral Mullen and understanding his views and 
requirements in this area. With the understanding of that and 
some of the acquisition reforms that I hope I am able to bring 
to the Department, I know there are some studies being done 
now. Retired General Kadish, is leading a study. I am hoping 
that some of the recommendations that will come out of the 
study will be ones that I will be able to take to heart and 
apply to this issue. I know it is an important issue and it is 
one that I am going to look at very closely, if confirmed.
    Chairman Warner. I thank you for that. I notice that in the 
advance questions you suggest, ``challenge industry to maintain 
the efficiency required to compete in the commercial sector by 
transitioning as many shipbuilding contracts as possible to 
fixed-price type contracts.''
    It is well known that the United States shipbuilding 
industry is almost entirely supported by the Navy and the Coast 
Guard. Just the wage scales make it exceedingly difficult for 
these yards, other than the military and the Jones Act, to get 
competition in this area.
    But try hard.
    Dr. Etter. Thank you.
    Chairman Warner. All right.
    Mr. Smith, we discussed in my office the concern that I and 
members of this committee have regarding the protection of 
journalists as they are embedded with our forces in the various 
areas of conflict the world over, as a matter of fact. I 
frankly think that embedding is a good step forward in the 
profession, and I support it, and I think the journalists, 
although we can argue about what they wrote and what they did 
not write, but by and large they are accepting hardships and 
risk commensurate with those in uniform.
    I think this subject requires your immediate and personal 
attention. I provided you with letters that have been forwarded 
to me by very responsible individuals making, I thought, a 
strong case for the review. I brought it to the attention of 
Generals Abizaid and Casey on their recent visit here in the 
United States when they briefed Congress and appeared before 
this committee. They assured me that they, independent of the 
Secretary of Defense, would also initiate reviews on it.
    I think the record should reflect a little bit about your 
concern because you have done some study on this subject.
    Mr. Smith. Yes, sir, thank you for the letter. I read it 
last night, and it would be part of the mission that I would 
undertake if confirmed to go to the area of operation and meet 
with the journalists and find out firsthand what we can do to 
ensure their safety or make their ability to get in and out of 
places in a more secure way.
    I recognize the severity of the lifestyle that they have in 
covering the story and I think I would, as we did when we 
served with the CPA, take the necessary steps to try to 
accommodate them as much as possible.
    Chairman Warner. I thank you for that. I look forward to 
working with you.
    Showing my generation, we talked a little bit about Stars 
and Stripes. I sort of grew up with that editorially 
independent newspaper; it has been published continuously since 
1942 in Europe, 1945 in the Pacific. We used to refer to it as 
the hometown newspaper because that was about all we had a 
chance to get in some of those locations.
    There is some effort afoot to make Stars and Stripes 
available to servicemembers stationed in the United States. 
Now, if this is a subject with which you have no familiarity, I 
suggest you wait until you have had an opportunity to study it.
    Mr. Smith. I would like to look into that in the future, 
Senator.
    Chairman Warner. That is a very good answer.
    I think it is of value to the folks back here at home. I am 
not sure just what the financial situation is that would 
require that to be made available here. The fact that you will 
look into it, I appreciate that very much.
    Mr. Smith. Thank you.
    Chairman Warner. We are due to have a vote, I say to my 
colleagues. But, I see Senator Thune here.
    Senator Thune. Thank you, Mr. Chairman. I know we are going 
to be moving toward a vote here pretty soon, and so I will not 
prolong it.
    Chairman Warner. Take your full time, Senator.
    Senator Thune. I appreciate that. I want to welcome our 
nominees today, and I appreciate your willingness to serve and 
echo what I am sure has already been said about the important 
work that you will be doing and that is ongoing with our 
military in the various theaters of operation.
    I had the opportunity to visit with Mr. Smith in my office 
here recently and one of the many issues and many challenges I 
think that we face in places like Iraq right now is this whole 
ability to be able to communicate the good work that our troops 
are accomplishing there. One of the things I hear more than 
anything else in visiting with our service personnel who have 
been on the ground in that theater is that they do not believe 
that the good work that they are doing is fully appreciated by 
the American people, principally because a lot of that is not 
effectively communicated.
    I know you will undertake to do the analysis of how we can 
best report and inform the American people about the good work 
that is being accomplished there. I appreciate some of your 
comments and observations about that the other day in my 
office, and I want to let you know that we are fully supportive 
of and interested in any efforts that you can make in that 
regard, and I want to thank you and the other nominees for 
their service.
    There are, of course, many of us who day-in and day-out, in 
this committee and throughout the entire Congress, are very 
interested in the progress that is being made in Iraq and 
Afghanistan and are very grateful for the service of our 
troops. We had a couple of South Dakotans just in the last week 
who were killed in different theaters of operation. Those are 
very difficult in any circumstance and the loss of life is 
always tragic. We want to make sure that it is not in vain and 
that the goals that we are striving to accomplish there are 
being achieved.
    I do not have any questions in particular at this time, but 
I want to again extend our support to you as you begin to 
undertake the jobs that you have in front of you. I know that 
you appreciate the enormous responsibility that comes with 
that. We hope that as you begin to undertake those 
responsibilities we will continue to make good headway in the 
objectives that we are trying to achieve in those various 
theaters of operation.
    Thank you again for your willingness to serve your country 
in this capacity, and we look forward to working with you.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Dr. Etter, on the shipbuilding issue, many members of this 
committee and the Senate and the House have expressed concern 
about the relatively small number of ships that we are building 
each year. You have been asked about that. This problem is 
going to get worse because of the cost overruns. The budgets 
are not being lived up to with the Navy in terms of 
shipbuilding any more than they are with other major weapons 
systems, by the way. The ships are not unique in this regard.
    What do you believe that the Navy and the DOD should do to 
try to get the cost of the shipbuilding programs under control? 
Do you have any recommendations for them?
    Dr. Etter. Senator, I have a few general comments in this 
area. I think that as one looks at programs that are going over 
cost and over budget there are often some common things that we 
note. For example, many times we are trying to put technology 
into the programs that is not mature enough yet. I think one of 
the areas that I intend to look at closely is the technical 
maturity of capabilities that we are putting into systems.
    I think another area that I plan to look at closely is the 
software area. As you look at systems today, often the software 
comprises as much of the system as the hardware. I think 
looking at how we might be able to do software in a more 
disciplined way so that we can reduce some of the costs and the 
schedule overruns caused by its development will be another 
area I am going to look at.
    I understand that a key responsibility in my position, if 
confirmed, will be to figure out how we do a better job on 
schedule and cost. There are a number of areas that I plan to 
look into to do that. Thank you.
    Senator Levin. Thank you.
    Secretary Young, there was a reference made to the 
manufacturing and industrial base and how it is so important to 
our security that it be strong. What steps do you think should 
be taken to ensure that the manufacturing and industrial base 
is sufficient to meet our future needs in the Department?
    Mr. Young. I think at least a couple of ideas are on the 
table and there may be more beyond that if I am confirmed in 
the job and have a chance to work the issue. I am aware of a 
recent Defense Science Board study that talks about the need 
for science and technology investment in manufacturing 
technology to help the Nation's competitiveness, to help lower 
the costs of weapons systems, the issue you have raised. I have 
seen an initial brief of that and want to get more details on 
it, but I do believe there is an opportunity to make an 
investment in this area in technologies that can enable us to 
lower the costs of our systems and that technology can be 
adapted in other places in industry for the benefit of the 
country.
    Another area of investment here is understanding what 
technology areas and what elements in the industrial base are 
critical to us. Seeing what is possible within the rules and 
the requirements, because at the end of the day, as Secretary 
England says, we can really only buy to the requirements. But 
if the requirements support it and if we can understand better 
going into it, we can make some strategic choices that will 
help that industrial base stay healthy. We have sought to do 
that in several programs in the Navy.
    Senator Levin. Thank you.
    Mr. Smith, going back to this article which you wrote, one 
of the comments that you made had to do with Qatar and the fact 
that they reportedly provide $100 million a year to al Jazeera. 
Then your questions are: ``Does Qatar's funding of al Jazeera 
constitute state sponsorship of terrorism?'' That is the 
question you asked. What is your answer to that question?
    Mr. Smith. Sir, I just posed the question as to whether or 
not the funding of a network to the tune of I think it is over 
$100 million, that obviously has a collaborative relationship 
to some degree with terrorists, did that not mean there was 
some relationship between that government and the terrorists 
through al Jazeera?
    Senator Levin. Do you have an opinion?
    Mr. Smith. It an interesting, irrefutable fact that if the 
$120 million that was being given to al Jazeera went away, that 
al Jazeera would not exist the way that it does today. That is 
the point.
    Senator Levin. But do you have an answer to your own 
question, whether or not the funding by the government 
constitutes state sponsorship of terrorism? Do you have an 
opinion on that question which you asked?
    Mr. Smith. I do not at this time.
    Senator Levin. All right. You asked another question: ``As 
long as al Jazeera continues to practice in cahoots with the 
terrorists while we are at war, should the U.S. Government 
maintain normal relations with Qatar?'' Do you have an opinion 
on that question which you asked?
    Mr. Smith. Not at this time.
    Senator Levin. Do you have an opinion as to whether we 
ought to maintain our forward headquarters of the Central 
Command (CENTCOM) in Qatar?
    Mr. Smith. Not at this time. I think we should maintain our 
CENTCOM headquarters.
    Senator Levin. In Qatar, even though they provide support 
to al Jazeera? What is the basis for that? If they may be 
sponsoring terrorism by providing funding to al Jazeera, how in 
heaven's name would you think we ought to maintain our forward 
headquarters there?
    Mr. Smith. My position in public affairs would not have any 
relationship to where our troops are deployed.
    Senator Levin. Yes, but you are not in public affairs yet.
    Mr. Smith. Sir, and when I wrote the piece I was a private 
citizen, in April 2005.
    Senator Levin. That is why I am asking your opinion as a 
private citizen.
    Mr. Smith. Pardon?
    Senator Levin. That is why I am asking your opinion as a 
private citizen. Do you believe as a private citizen, which you 
are, that we should maintain our forward headquarters in Qatar?
    Mr. Smith. As a private citizen I do, yes.
    Senator Levin. Even though they provide $100 million plus 
to the people who are in cahoots with terrorists?
    Mr. Smith. I do, yes.
    Senator Levin. Why?
    Mr. Smith. I think that there are other ways to deal with 
the Qatar-al Jazeera relationship other than where CENTCOM is 
based.
    Senator Levin. I am troubled by your answer here today to 
my question about whether or not the U.S. television networks 
have a relationship with terrorists, the named terrorists that 
you mentioned: Osama bin Laden, al Zarqawi, and al Qaeda. Your 
answer to my question whether they are partners is that there 
is a relationship between al Jazeera and the networks. But you 
do not answer my question as to whether or not you believe as a 
private citizen it is a fair characterization to say that our 
television networks are partners with Osama bin Laden.
    Mr. Smith. I said they are partners with al Jazeera.
    Senator Levin. You said that ``Osama bin Laden, Zarqawi, al 
Qaeda have a partner in al Jazeera and, by extension, most 
networks.''
    Mr. Smith. ``And by extension.''
    Senator Levin.--``in the United States.''
    Mr. Smith. That is correct.
    Senator Levin. Do you think that is a fair 
characterization?
    Mr. Smith. I think that is the truth, sir. They have a 
relationship with al Jazeera.
    Senator Levin. By extension, you think it is a fair 
characterization that therefore they have a partner in our 
networks?
    Mr. Smith. I think they have a relationship with al Jazeera 
and al Jazeera, I believe, has a relationship with terrorists.
    Senator Levin. I am just asking you whether or not you 
think that was a fair characterization, your statement?
    Mr. Smith. Yes, sir, I do.
    Senator Levin. Is it also fair to say that the networks aid 
and abet terrorism by showing film that they have shown?
    Mr. Smith. I think it is fair to say that the terrorists 
understand that by having film shown in al Jazeera it will then 
be shown on the networks.
    Senator Levin. Do you think it is a fair characterization 
now to say that the networks aid and abet terrorism by showing 
that film?
    Mr. Smith. I do not.
    Senator Levin. What did you mean, then, when you said 
``What if one of the networks had taken a stand and refused to 
air the hostage video on the grounds that it was aiding and 
abetting the enemy, and that from this point forward it would 
not be a tool of terrorism propaganda?''
    Have you changed your mind since you wrote that?
    Mr. Smith. I was raising the point that you never know 
where this video comes from and that the networks--just simply 
because it plays on al Jazeera does not mean that it should 
necessarily play on any given network.
    Senator Levin. My last question. It has to do with what is 
paid for by the United States and what the government does 
control here, and that has to do with the Armed Forces Radio 
and Television Service (AFRTS). Our regulations require that 
that programming be characterized by fairness and balance in 
terms of political programming.
    Have you looked at the talk shows which are carried by the 
Armed Forces Radio Network?
    Mr. Smith. Not since I have returned from Iraq, Senator.
    Senator Levin. When you were there did you look at them?
    Mr. Smith. Periodically, they were on one of the monitors 
in my office, yes, sir.
    Senator Levin. Do you think it would be a fair balance to 
only run conservative talk show hosts and not progressive talk 
show hosts? Would that represent, if it is true, a fair 
balance?
    Mr. Smith. I did not.
    Senator Levin. I am not asking you what you did then. I am 
just saying now. I am not saying that you had anything to do 
with this. I am saying right now, and you are not in the 
decisionmaking process right now. If right now, the AFRTS only 
runs conservative talk shows, not progressive talk shows, would 
you consider that to be a ``fair and balanced presentation''?
    Mr. Smith. I would have to look at the overall program 
schedule for AFRTS and, if confirmed, I would do that and try 
to make a determination if that was the case.
    Senator Levin. If it were?
    Mr. Smith. I think that I would apply the directive, which 
says AFRTS should be fair and balanced, and I believe in that. 
That is what it should be, and if it was not, I would do what I 
could to make it fair and balanced.
    Senator Levin. I thank you.
    Thank you very much.
    Chairman Warner. Thank you, Senator Levin.
    It is the chair's desire to have this panel remain and, 
upon the return from our vote, I will ascertain if there are 
Senators who are now voting, have not been here this morning, 
and desire to ask questions. We will proceed to the second 
panel as quickly as we can, and thank you very much.
    We stand in recess until the call of the chair.
    [Recess from 10:55 a.m. to 11:12 a.m.]
    The committee will resume its questions with the first 
panel. We recognize two colleagues that have joined us, but I 
see the Senator from Maine, who is a very distinguished member 
of our committee and an authority on shipbuilding. You have 
before you two very valuable sources of information.
    Senator Collins. Thank you very much, Mr. Chairman. These 
witnesses are of particular interest to me, and I appreciate 
the opportunity to join you today.
    Secretary Young, I want to begin by wishing you well in our 
new position. We have had a great deal of contact over the past 
few years in your role as the chief acquisition officer for the 
United States Navy. I have not always agreed with your 
decisions, but I have always appreciated your candid, 
straightforward responses to my questions.
    Dr. Etter, we face a lot of challenges with shipbuilding. 
We have seen a decline in the number of ships that we are 
building. We are seeing costs go up, due in my view in part to 
the instability in the shipbuilding budget. We also face a 
problem within Congress in the way that we fund ships.
    Have you looked at alternative strategies for funding 
shipbuilding that would allow the costs to be spread over a 
number of years, rather than fully funding a ship upfront in 1 
year?
    Dr. Etter. Senator, I have looked at some of the different 
ways that people have suggested we might be able to do 
shipbuilding and in particular, multi-year strategies. I think 
those ideas look very promising. If confirmed in this position, 
this is one of the things that I expect to look at very 
closely, because I understand the importance of shipbuilding, 
not only to the Navy but to the country in terms of national 
security. I will be looking very closely at various ways that 
we can work this issue.
    Senator Collins. I believe that if the shipbuilders could 
be assured of a steady, even flow of funding that would allow 
them to better plan their workforce, that not only would it 
bring much-needed stability to the industrial base, but it 
would also lower costs to the Navy and ultimately to the 
taxpayers. I hope you will work with the distinguished chairman 
of this committee and all of us who have this as a goal. This 
can be a win-win for the Navy, for the taxpayers, and for the 
shipbuilders if we bring stability and predictability in the 
funding streams that support shipbuilding.
    Dr. Etter. Thank you. I look forward to doing that.
    Senator Collins. The second issue that I want to raise with 
you was an ill-conceived strategy by the Navy, from the Navy, 
to move to only having one shipyard build the DD(X). This 
winner-take-all strategy would have jeopardized at least one of 
the two major surface combatant shipyards, possibly Bath Iron 
Works in my State, or Ingalls Shipyard in Mississippi.
    It is my hope that the Navy, having looked at the effects 
of a natural disaster on the Ingalls Shipyard, has thought 
better of pursuing a one shipyard strategy. I believe that the 
impact of Hurricane Katrina on the shipyard in Mississippi 
demonstrates the folly of the Navy relying on only one shipyard 
as a source for the DD(X) or for any other ships that are vital 
to our naval capacity.
    Are you familiar with the controversy over the winner-take-
all, one shipyard strategy advanced for the DD(X) and with 
Congress's great concern and efforts to dissuade the Navy, both 
through conversations and legislatively, from pursuing that 
strategy?
    Dr. Etter. Senator, I have not been briefed on that 
program, and so I would not be able to respond directly to it. 
I do understand the concern about a single shipyard and the 
vulnerabilities that that poses. It is an issue I am going to 
be looking at very closely.
    Senator Collins. Well, I look forward to talking with you 
in more depth about that strategy. Many of us had advocated 
last year and had warned that it would be a mistake for the 
Navy to rely on a sole supplier. I think that the recent tragic 
events of Katrina have demonstrated that our warnings were well 
taken.
    Thank you, Mr. Chairman.
    Chairman Warner. I thank the Senator from Maine, and I am 
glad you brought up that concept of the two-yard industrial 
base. I think we have to keep a watchful eye on that here in 
this committee as we go along.
    Senator Collins. Thank you.
    Chairman Warner. The distinguished Senator from New York. 
The Senator from Minnesota has had the opportunity for one 
round. He may seek other.
    Senator Clinton. Thank you, Mr. Chairman, and I welcome the 
nominees. I want to especially express appreciation to Mr. 
Young, whom I have enjoyed working with in your previous 
position as Assistant Secretary of the Navy for Acquisition, 
and appreciated greatly your objectivity and fairness in 
deciding a number of contentious contracting issues, including 
the Marine One contract.
    Your new position, Mr. Young, will place you in a critical 
role to help define the DOD research agenda. As you may know, 
the Air Force Research Laboratory in Rome, New York, is a world 
leader in the development of revolutionary cybersecurity 
technologies, and I would like you to know you are invited to 
come up and visit Rome Labs for yourself and to see what we are 
doing in cybersecurity.
    My invitation is related to a larger concern I have about 
the direction of funding for science and research within the 
DOD. The Defense Advanced Research Projects Agency, otherwise 
known as DARPA, has seen some significant cutbacks in the last 
several years. The Department's science and technology programs 
are absolutely essential and what they have historically done 
is to make investments in our Nation's universities and 
innovative high tech small businesses in areas such as 
robotics, artificial intelligence, nanotechnology, and the 
like, and we have obviously seen the results of that research 
grow into new capabilities that have been proven effective in 
the global war on terrorism, operations in Iraq, and elsewhere, 
but also in the civilian world with the spinoffs.
    That is why I am concerned that the Department seems to be 
systematically underinvesting in fundamental and long-term 
research programs. The Department's science and technology 
request for 2006 was down $2.8 billion from the 2005 
appropriated levels and even $28 million below the original 
2005 budget request. In fact, the request is so low it has 
triggered a congressionally-mandated Defense Science Board 
review of the effects of these lowered science and technology 
investments on our National security, and I look forward to the 
results of that review.
    But I think it is important that we stop a minute and think 
about the consequences of these cutbacks. Of particular concern 
with respect to how DARPA is being treated is that we used to 
have a division between applied research in DARPA and more 
innovative, almost blue sky research. In fact, much of the blue 
sky research is what it is most famous for, and the spinoffs 
have fueled the economy, not just our National security and 
military capability.
    The National Academy of Sciences in a recent report 
requested by the committee recommended that DOD begin to try to 
redress the imbalance in its current basic research allocation. 
I have been surprised to have members of the information 
technology community come and express their concern. They do 
not have any stake in the DARPA research, but they know how 
essential it is to keep our overall national research and 
science and technology edge.
    So the Defense Science Board has raised concerns over 
DARPA's funding of computer science, and that it is 
particularly concerning because DARPA has further limited 
university participation in its computer science programs, 
including non-fiscal limitations, such as the classification of 
work in areas that were previously unclassified, precluding 
university submissions as prime contractors on certain 
solicitations, reducing the periods of performance to 18 to 24 
months.
    This kind of short-term focus is not conducive to 
university programs to address broad fundamental technological 
and scientific challenges, especially when we know that 
research in computer science will be at the very core of 
networkcentric warfare. So I would hope, Mr. Young, that you 
would look into this and, assuming that you are confirmed, that 
you would take this as a very serious charge, because we just 
had another study by the National Academy of Sciences that 
basically said the United States is losing its technological 
and scientific leadership, and that is going to have long-term 
consequences, certainly for defense, but also for our standard 
of living and our economic prosperity.
    I do not have a question so much as a plea, that we try to 
address this, because we are moving further and further behind.
    The last point that I wanted to make really goes to Mr. 
Smith. I know before I arrived there were some questions by 
some of my colleagues about the diversity of opinions that 
should be part of the free exchange of information and ideas in 
our society. It is, after all, one of the hallmarks of who we 
are as a Nation. It is what we fight for. It is what we stand 
up for.
    I was recently concerned to see that what I thought was 
going to be the addition of diversity to Armed Forces Radio 
with the addition of a different voice than Rush Limbaugh, who 
has been on for years, with the addition of Ed Schultz, who is 
a very funny and quite provocative and effective raconteur, was 
pulled. It seemed a little suspicious to many of us because it 
followed his making fun of the staged press conference with the 
soldiers in Iraq and the President.
    I do not think that our Armed Forces would be surprised by 
making fun of that. We know enough about what they see and how 
they view the world. It was disturbing because it seemed like 
it was an act of censorship, in effect. Certainly, as long as 
Mr. Limbaugh has been on, I do not know anybody who has tried 
to take him off, and he has said outrageous things about many 
people with no foundation in fact over many years.
    I would hope that decision would be revisited and that we 
would, not just in word but in deed, demonstrate our commitment 
to diversity of opinions inside and outside our military, and I 
think at least to better decisionmaking.
    Thank you.
    Chairman Warner. Senator Levin, do you have further 
questions for the panel.
    Senator Levin. One additional question about embedded 
reporters with the military units, Mr. Smith. What are the 
rules relative to access to classified material for the 
embedded reporters?
    Mr. Smith. I am not familiar with them at this time, 
Senator.
    Senator Levin. When you were in Iraq that was not an issue?
    Mr. Smith. No, sir. The embeds had pretty much gone out of 
business, which is one of the problems. By the time I got 
there, the embed program had been dismantled, I believe.
    Senator Levin. Thank you.
    Thank you.
    Chairman Warner. Well then, that raises an interesting 
question in itself. If the embed program, as we learned during 
the early part of this conflict, is abandoned, what has taken 
its place to permit the journalists to pursue their 
responsibilities with equal vigor as they did when they were 
embeds?
    Mr. Smith. Senator, I believe that there are from time to 
time embeds with various----
    Chairman Warner. That is my understanding, yes.
    Mr. Smith. The program that ran through the taking of 
Baghdad by the time that we got there with the CPA--we did some 
individual embeds, but as I recall it was not a robust program 
the way that it was before. It is one of the things that I 
would like to look at if I am confirmed and try to 
reinvigorate.
    Chairman Warner. Today the assignments over there are just 
as tough, if not tougher, than they were when they were 
accompanying the troops on the early initial thrusts up to 
Baghdad. So in my visits I have seen them at all the forward 
areas that I visited here recently. So if they are not 
embedded, they are there under some other statue.
    Mr. Smith. I will look into it.
    Chairman Warner. Now, colleagues, I would like to proceed 
to the second panel. Hearing no desire for further questions, I 
thank each of you. There will be additional questions coming 
from members and the record will remain open for some 48 hours, 
and we ask that you reply to those questions as quickly as 
possible. Thank you very much. We have had an excellent hearing 
and I again commend each of you for undertaking this additional 
chapter of public service.
    We will now proceed to the second panel. [Pause.]
    Thank you very much, gentlemen. At this time I wonder if 
you would introduce to the committee those distinguished guests 
that are accompanying you.
    General Bell.

STATEMENT OF GEN BURWELL B. BELL III, USA, FOR REAPPOINTMENT TO 
   THE GRADE OF GENERAL AND TO BE COMMANDER, UNITED NATIONS 
 COMMAND/COMBINED FORCES COMMAND, AND COMMANDER, UNITED STATES 
                          FORCES KOREA

    General Bell. Thank you very much, Mr. Chairman. If I might 
introduce my wife Katie, my partner of 36 years, since I came 
into the military from college, and she is seated right here 
behind me. We have had a wonderful, wonderful marriage over all 
these years in the military, and I am very proud of her. She is 
probably the greatest patriot in my family, and I look at 
myself as a pretty good patriot. She is a terrific American.
    If I might just introduce quickly two other members of my 
party: Lieutenant Colonel Chuck Sexton, one of my military 
assistants. Chuck commanded an infantry battalion in Baghdad 
recently and has come to work for me in Europe. Lieutenant 
Colonel Dave Toczyk, who served on the North Atlantic Treaty 
Organization (NATO) International Security Assistance Force 
staff in Kabul, Afghanistan, and is also on my staff in Europe. 
I just want to thank them for their service.
    Thank you, Mr. Chairman.
    Chairman Warner. Do you wish to make mention for the record 
of other members of your family who cannot join today?
    General Bell. Mr. Chairman, my son was not able to join me. 
He is dealing with a hurricane in Florida. He and his wife live 
in Tampa, and I believe would have been here could they have 
made it, but they are still in Tampa today, sir.
    Chairman Warner. Well, thank you very much.
    Now, General Smith.

STATEMENT OF LT. GEN. LANCE L. SMITH, USAF, FOR APPOINTMENT TO 
 THE GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES JOINT 
   FORCES COMMAND AND SUPREME ALLIED COMMANDER TRANSFORMATION

    General Smith. Thank you, Mr. Chairman.
    I would like to introduce my wife Linda. She has been with 
me actually for longer than 37 years. We got married in 
college. I married a much younger lady, I will tell you that. I 
have two great sons, both of whom are in Wilmington, North 
Carolina, in the computer business. They are looking at trying 
to deal with Wilma as it comes up the coast after just skirting 
Tampa right now.
    Chairman Warner. Probably making more money than you ever 
will.
    General Smith. Sir, each one of them is doing that.
    My wife is the daughter of an Army officer. I am the son of 
an Army officer. My father and mother were marines in World War 
II.
    Chairman Warner. Extraordinary.
    General Smith. Then he did the Montgomery GI Bill and then 
came back in the Army. I regret that I have no Navy in my 
blood, but I am from Virginia, sir, so I hope that helps.
    Chairman Warner. Yes, you made that very clear. But you 
will be splashing around in a lot of salt water down in the 
Norfolk region.
    It is interesting, for the record, Senator Levin, he is 
going to occupy the Virginia House on that historic row of 
homes there on the naval base in Virginia. That house, I say to 
your wife, I have been a guest in many times over the years, 
and I actually had a little something to do with patching it up 
once. But it is a tiger to deal with. Good luck.
    General Smith. If confirmed, sir, we look forward to that.
    Chairman Warner. I am sure. That is wonderful. Well, I 
thank you very much.
    Both of you came into our United States military during the 
Vietnam era, with General Smith actually serving as a combat 
aviator and General Bell going over to face the Warsaw Pact in 
the Cold War. So both of you are warriors in your own right and 
throughout your careers the extraordinary accomplishments each 
of you have, and I commend the President and all those for 
finding such extraordinary two men who are willing to stay on 
with their families and continue in public service in very 
challenging positions.
    Again back to you, General Bell. You have a distinguished 
history of assignments, including Command of III Corps in Fort 
Hood, Texas, from August 2001 to 2002, Commander of the Army 
Armor Center, Fort Knox, July 1999 to 2001; served as executive 
officer to the Commander of CENTCOM during Operations Desert 
Shield and Desert Storm--is that not interesting--and as an 
assistant division commander of the 1st Infantry Division and 
chief of staff of the U.S. Army Europe forward headquarters in 
Hungary during Operation Joint Endeavor in the Balkans. An 
extraordinary record.
    Likewise, your record is equally extraordinary, General 
Smith. One of the Air Force's most distinguished combat pilots, 
having earned the Silver Star flying over Vietnam in the A-1 
Skyraider. We visited together about that aircraft. I was not 
in a flying status, but they were in our squadron in Korea. It 
was the A-1, the same model that you had.
    General Smith. Yes, sir.
    Chairman Warner. It could carry a lot of ordnance.
    General Smith. It sure could.
    Chairman Warner. Commanded two fighter wings and led two 
air expeditionary deployments in Southeast Asia. During our 
office call, General Smith admitted to being the last Vietnam 
combat pilot still on Active-Duty. What about your colleague in 
Turkey?
    General Smith. Sir, he flew A-37s. I am the last Skyraider 
driver on Active-Duty that I am aware of.
    Chairman Warner. Skyraider. Well, the other plane had its 
difficulties, too.
    General Smith. Yes, sir.
    Chairman Warner. We want to make sure, because I had the 
pleasure of being with Senator Stevens when we visited his new 
headquarters there in Turkey. A very outstanding gentleman.
    Among your previous command assignments, you served as 
Deputy Commander, U.S. Forces Korea, from 2001 to 2003; 
Commander of the Air Force Doctrine Center, and Commandant of 
the Air War College. Extraordinary.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. I just join you in 
welcoming our two very highly-qualified nominees, welcoming 
their families, their spouses and their supporters. Between 
them they have 70 years of service to our Nation. Neither one 
of them look that old, but it is a long time of service, and we 
commend them on it.
    We are fortunate to have officers like our two nominees. 
This Nation is stronger because of your service and because of 
the strength and the support of your spouses and your families 
that made that service possible. So we greet you, we commend 
you, and we look forward to your rapid confirmation.
    Chairman Warner. Thank you very much, Senator Levin.
    The Joint Forces Command, I watched the evolution of that 
very important command over the years. Obviously we are 
privileged to have it in our State of Virginia. As the Deputy 
Commander of the CENTCOM, you have had opportunities to work 
with this Joint Forces Command. You have a very distinguished 
predecessor in Admiral Giambastiani, who is a man of just 
unlimited energy, ideas, and vision.
    How do you propose to meet these force requirements, 
particularly the joint staff and other combatant commands, to 
meet these force requirements that are facing you in this new 
post?
    General Smith. Mr. Chairman, that is certainly a challenge. 
I have had the opportunity to be on the receiving end of those 
forces and what Joint Forces Command has done in concert with 
the Services. It has really worked hard to be able to provide 
the kind of forces that can join in combat and be prepared when 
they get there. A great deal of that has to be given credit to 
Admiral Giambastiani, as well as the service chiefs, as it is 
much better now than it was certainly when I first arrived at 
CENTCOM.
    Several things have happened that, if confirmed, I would 
certainly continue and pursue even further. One is to try and 
make sure that we identify the forces that are going to come 
over to theater and the individual augmentees as early as 
possible in the process, so that we have an opportunity to 
train them, both as a unit and then as individual augmentees, 
through some very innovative programs that have been developed.
    One is the mission rehearsal program, exercise program, 
where the unit that is coming over to take command, for 
instance Multinational Corps-Iraq, goes through a simulation, 
modeling and simulation, with the people that will actually be 
going and taking part in leadership roles in Iraq or 
Afghanistan. That is very effective and it allows them to find 
gaps in their knowledge and to make sure that the people are 
prepared for what it is that they are going to undergo.
    There is also another program for individual augmentees, 
which really assists those people that cannot take part in 
those exercises in going through distributed learning and a 
variety of other methods of distance learning to be able to 
prepare themselves for the positions that they will take.
    So as the joint provider, I think those are the critical 
elements to make sure that we are getting the forces over there 
that are trained and capable of performing the mission.
    Chairman Warner. Also, the command has I think admirably 
met the requirements for natural disasters, particularly 
Hurricane Katrina. In the integration with the National Guard, 
it had a heroic role in that situation, and the Reserve Forces 
and other elements of our National power. I do believe that it 
would be incumbent upon you to review early on what was right 
about that operation and what needs to be corrected for the 
future. Will you undertake that?
    General Smith. Sir, I certainly will.
    Chairman Warner. I will come back to General Bell.
    Senator Levin.
    Senator Levin. Thank you very much, Mr. Chairman.
    General Bell, the issues in North Korea continue to bedevil 
us. Senator Clinton and I wrote an op-ed in the Washington Post 
back in July suggesting that the administration inject some 
greater urgency into the negotiations process, and it appears 
now that there is such urgency that is being reflected. But the 
problem is that time seems to be on North Korea's side in some 
respects at least.
    North Korea has likely continued to manufacture and 
reprocess plutonium over the last 4 years since it walked away 
from the Agreed Framework. The main advantage of that Agreed 
Framework was that it froze plutonium and it put it under 
safeguards. I am just wondering what your assessment is of the 
usefulness of freezing plutonium production in North Korea? Is 
that something we should strive mightily to achieve?
    General Bell. Thank you, Senator. I think we should strive 
mightily to denuclearize North Korea. I think that is 
everyone's objective. It is certainly in the interests of all 
the parties in northeast Asia and for that matter the world 
community to see a North Korea that is at peace with its 
neighbors, denuclearized, and without weapons of mass 
destruction (WMDs). In that context, any effort that should be 
brought forth to ensure that they could not in the future 
prepare or bring forth nuclear weapons would be in all of our 
interests.
    Senator, I cannot specifically address the issue of 
plutonium at this point. I would be happy, if confirmed, to 
come back and give you some more details, but I do know that it 
is in all of our interests to see a denuclearized North Korea 
and a North Korea that is at peace in the world community.
    Senator Levin. Thank you. What military confidence-building 
measures do you believe might be available to be instituted 
between the U.N. Combined Forces Command, us obviously, and the 
North Koreans?
    General Bell. Thank you, Senator. I think those are 
important, that confidence measures be instituted. To a certain 
degree, over the last couple of years we have seen confidence 
measures. For example, since 1990 we have had a repatriation 
program that has thankfully brought many Americans lost in the 
Korean conflict home. Since 1995 we have had 38 teams that have 
been given access to North Korea. Regrettably, those teams are 
on hold right now pending further negotiations.
    The activities between the Republic of Korea (ROK) and 
North Korea to have cross-border engagements, whether it is 
industrial engagement, family reunions, et cetera, I think, all 
begin to build towards discussions, dialogue, and the 
enhancement of confidence-building.
    With all of that, nonetheless, I think the maintenance of a 
strong deterrence with the full realization by all parties that 
if deterrence were to fail that the alliance could defend the 
ROK is vital. I would, if confirmed to this position, certainly 
pursue along all avenues opportunities for confidence-building 
measures, both militarily and, if I could assist and make 
recommendations in other areas as well, while ensuring that we 
maintain a strong deterrence and capability to defend.
    Senator Levin. Relative to the need to maintain a strong 
deterrent, there was the recent Government Accountability 
Office (GAO) report that found that the readiness of our 
prepositioned equipment in Korea was below what it should be. 
In addition to that readiness problem, which represents an 
operational risk and would reduce the ability to deter, the 
report also highlights another problem which is of equal 
concern to me, and that is that they are finding that the 
internal readiness reporting systems were overstating the 
readiness of our equipment and as a result, senior DOD leaders 
and Congress received a misleading readiness picture.
    I am wondering if you could give us your current 
understanding of the status of efforts to improve the readiness 
of our equipment and to address those other issues relative to 
reporting which the GAO raised?
    General Bell. Senator Levin, I have had the opportunity to 
read that report, and it is my understanding from other reports 
I have read that there was a significant value in the report 
done by the GAO. Some of the Army prepositioned equipment--and 
I believe that is what we are speaking about here directly--was 
found to not be as ready as we had either hoped or perhaps even 
reported.
    If confirmed, the agency that is directly responsible for 
the maintenance of that equipment, the Army Materiel Command, 
in partnership with the Commander, U.S. Forces Korea, must 
ensure that our prepositioned stocks are, one, ready, and two, 
that everybody knows that they are ready.
    In my past lives serving in the Army, I have had the 
opportunity for my units to draw that very equipment and employ 
it on exercises in the ROK and then return it to its 
warehouses, and we found when I had the opportunity to use it, 
to be in good working order. So the fact that it was found not 
to be in tip-top shape is disturbing, but I would offer to you 
that every report I have read since then is that the Army 
Materiel Command and U.S. Forces Korea have ensured that the 
equipment has been brought back to its proper configuration.
    With respect, Senator, to reporting, one of the most solemn 
responsibilities of military leadership is to ensure that we 
understand the status of our forces across all the readiness 
functions, whether it is materiel readiness or personnel 
readiness or personnel training, report that fairly and 
accurately to our superiors, and then get something done about 
it.
    Senator, if I am confirmed to this position I will maintain 
that perspective. I will ensure that we report accurately and 
that if we need help I will make sure that is well known. I can 
assure you that I will be honest and forthright in my 
assessments.
    Senator Levin. Thank you.
    My time is up. Thank you.
    Chairman Warner. Thank you very much.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    I want to thank both of you for your extraordinary service 
to our country and your willingness to continue. General Bell, 
given your perspective on the situation in Europe and also now 
in Korea, we have just gone through or are going through a very 
difficult process, Base Realignment and Closure (BRAC), of 
closing bases and consolidating in the United States. It was at 
least my understanding from the outset in meetings with 
Secretary Rumsfeld that the intention was to parallel that with 
an international BRAC.
    Do you think we have done or are doing all that we 
reasonably can to consolidate bases and to reduce to a still 
effective number the number of Active Forces we have in Europe, 
Korea, and elsewhere in the world with which you might be 
familiar?
    General Bell. Senator Dayton, thanks for that question. I 
am not an expert on anything, I suppose, but if there is 
anything I could claim knowledge on it is this subject with 
respect to Europe. We have an aggressive plan in place, and 
properly so, to redeploy to the United States our heavy armor 
forces that are currently stationed in Europe and are in many 
cases deployed to Iraq, but nonetheless redeploy them from 
Europe, to the United States and put them in bases as 
adjudicated by the BRAC process here in the United States.
    With respect to Army bases in Europe, we have had for the 
last 10 years 234 separate Army installations. The plan that we 
put forth for the near-term future will take that number down 
to 88, grouped around, instead of the current 13 major 
community hubs, 4 community hubs. So you can see in terms of 
consolidation, we are going to experience in Europe about a 
two-thirds reduction in consolidation of bases for the Army.
    I would offer to you also, Senator, that in doing that it 
is incumbent on us all to make sure that, first, we retain our 
very best facilities. There has been a significant investment 
strategy in Europe since the end of the Cold War, and we do not 
want to walk away from those really good facilities that we put 
a lot of money into.
    Then we also want to ensure that as we fall in on these 
main operating bases, that we provide our soldiers, our 
families, our civilian work force, and for that matter the 
entire military, with the best possible working, training, and 
living conditions that the American military servicemember 
needs and deserves, whether they are overseas or here in the 
United States.
    So we are aggressively pursuing a consolidation, 
redeployment activity that will reduce significantly the cost 
to the American taxpayer of maintaining this force in Europe.
    Senator Dayton. What is the approximate time frame for 
that?
    General Bell. Senator, we have already begun. In fact, for 
this fiscal year which has just started, by next summer one of 
our infantry divisions, mechanized infantry, really an armor 
division, First Infantry Division, flag will be returning to 
the United States to, as I understand it, Fort Riley, Kansas. 
So we are aggressively returning equipment to stocks, moving it 
into the supply system so it can be refurbished if necessary, 
for that armor division, which is one of the two divisions that 
we are going to send back to the States.
    We anticipate over 11 installations next summer alone being 
shut down and put into the process of returning to the host 
nation. The process has started.
    We were looking at about a 10-year period to get all this 
done in Europe. With the right amount of resourcing, with the 
opportunities, and keeping in mind that we have to ensure that 
the force participates in combat operations as it should, so I 
cannot do some things while parts of the force are in Iraq, but 
nonetheless I believe we can accomplish this in 5 years, not 
10. The planning that we have done reflects a 5-year plan, with 
the opportunity, if we cannot get that done in 5 years, to 
stretch it a little bit. But I hope we can pull it off in 5 
years, Senator.
    Senator Dayton. Well, I thank you for the clarity of your 
response. Thank you very much.
    General Smith, in your response to the questionnaire that 
you provided to the committee you say that the commander serves 
as the chief advocate for jointness and interoperability to 
champion the joint warfighting requirements of the other 
combatant commanders, and then you delineate five major areas. 
Compared to say 10 years ago, 15 years ago, how much progress 
have we made in achieving that kind of interoperability? Where 
are we in achieving progress, and what more immediately lies 
ahead?
    General Smith. Sir, I would say we are probably somewhere 
along the 50 yard line, and when we started we were back on our 
own goal line. There are still legacy systems out there that 
anecdotally we have problems with, telephones that cannot talk 
to one another and the like. We are not at the point yet where 
a program as it is being developed is born joint, which is 
where we are trying to get.
    But clearly, we are much better at establishing standards 
and architectures that as the services build their systems it 
makes it possible to link and talk to other systems. That is 
effective much of the time. It is not effective all of the 
time. Part of my role should I be confirmed, is to try and move 
that closer to the day when all systems are born joint and 
those systems that exist out there can talk to each other and 
operate together.
    Senator Dayton. Recognizing that there is the chain of 
command, are you still willing to bring to this committee's 
attention and to Congress those areas that are deficient or 
with recommendations for how we can act to streamline or 
improve them?
    General Smith. Absolutely, sir. In many cases it is through 
you that we can make many of these things happen. I mean, 
Goldwater-Nichols is a case in point.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman. My time is up.
    Senator Levin [presiding]. Thank you.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I want to welcome both of you and also your wives. I note 
that this is a joint service responsibility, and I appreciate 
their service as well as yours.
    General Smith, I appreciated the opportunity to talk with 
you in my office last week. I have a special interest in Joint 
Forces Command. I have visited Norfolk twice as part of my 
participation in the Joint Forces Command's Transformation 
Advisory Group, and I think that the command that you are about 
to assume has a particularly critical role to play in 
developing processes and technologies that support joint 
operations.
    I appreciated the candor that you displayed in answering 
Senator Dayton's response, because I think the 50 yard line is 
probably about right. I am not sure we can take another 10 or 
15 years to get to the goal line, and I believe that we need to 
hear from you after you have gotten your feet on the ground 
about what more we can do to assist Joint Forces to moving some 
of these critically needed technologies and components like 
interoperability forward.
    I also think our acquisition and procurement system could 
benefit from a joint approach, and hope that you will consider 
that issue once you are confirmed. I do look forward to working 
with you in the future.
    General Bell, I think that you have a particularly 
difficult assignment facing you right now. We all know the 
reasons. Senator Levin spoke in some detail about the nuclear 
challenges we face from the North. But we also face a fraying 
of our relations with the people of South Korea and their 
understanding of the importance of our position there and what 
we have done over so many decades to really provide them the 
freedom that they have enjoyed to develop the economy that is 
now providing so many benefits for the South Koreans.
    In effect you will have a diplomatic role as well as a 
military one. I know you understand how important that is and I 
appreciate your taking it on.
    I want to just follow up on some of Senator Levin's 
concerns. In February, North Korea declared its self-imposed 
moratorium--that its self-imposed moratorium on long-range 
missile testing was over. On April 28, at a hearing of this 
committee I asked Vice Admiral Jacoby, the Director of the 
Defense Intelligence Agency, whether North Korea has the 
ability to arm a missile with a nuclear device.
    In your estimation, what is the best way to deter North 
Korea from conducting long-range missile tests?
    General Bell. Thank you, Senator Clinton. I think the first 
and most important way is to ensure that the North Koreans 
understand that our alliances are not just intact, they are 
strong, and that the community of free nations led by the 
United States is willing to defend our democracies, and that 
for them to pursue WMDs, nuclear weapons, and missile 
technology on which potentially these kinds of weapons could be 
mounted is not in their best interests and certainly not in the 
best interests of a peaceful world.
    I think first we have to be strong in our own readiness and 
our own capabilities. Second, I think we are properly 
positioned to enter into a dialogue with the North Koreans 
through the Six-Party Talks. These talks have been fruitful in 
recent times. They represent all the countries that are most 
engaged in this area of the world with respect to the 
assurances of a peaceful and stable Korean peninsula. I think 
our ambassador to these talks, Ambassador Hill, has achieved 
great success recently. Everything must be verifiable and we 
have to proceed forward, but I would say in the context of the 
Six-Party Talks that the assurances that we both denuclearize 
or that we see a denuclearized North Korea as well as a 
standing down of the technologies, missile and otherwise, to 
deliver these weapons is important, and that we should support 
this process and ensure that it goes forward successfully.
    Senator Clinton. Related to that, General, given North 
Korea's record of proliferation of missiles and illicit trade 
activity, what is the best way to deter North Korea from 
selling nuclear material or technology to rogue states or 
terrorist groups?
    General Bell. Well, the best way to deter them, Senator 
Clinton, would be to make sure that they do not have the stuff 
to sell or to market. I would hope again that the Six-Party 
Talks would lead to a regimen where these kinds of weapons 
would be removed from the North Korean inventory. That is 
first.
    Second, we need to assure that our alliances, friends, and 
partners around the world assist us in ensuring that not only 
do they not participate in proliferation, but that they also 
inform those who they have close contacts with not to do the 
same. I think that the United States and all of our allies 
around the world, friends and partners should draw a very sharp 
line on this issue and ensure that we, first, state clearly 
that we do not want them to participate in anything that could 
proliferate these kinds of weapons. Second, if they do, we 
would like to discuss that with them as to what it means to our 
relationships.
    From a military perspective--and I readily admit to you 
that I have certain diplomatic roles. But from a military 
perspective, my view would be to make sure that our alliance 
with the ROK and the coalition members remains strong, so that 
that piece of deterrence and defense if necessary is never at 
doubt. I can assure you, Senator, that if I am confirmed to 
this position that will be my focus.
    Senator Clinton. I really appreciate that very much, 
General, because I think we are at a critical juncture, 
obviously, in our relations with the north, which is obvious 
from the Six-Party Talks and the threats they pose, but I think 
also with the south. I think that there is a lack of 
understanding and a sense of almost historical amnesia that we 
have to combat and make sure people understand what the stakes 
are.
    Thank you very much.
    Chairman Warner [presiding]. Thank you, Senator.
    Returning to a second round, General Bell, this committee 
over the years has been very careful in its oversight of your 
troop situation, the difficult conditions under which they 
serve, and to the extent that they have accompanied families. 
We have taken the initiative to help in the pay and benefits 
arena.
    I want you to have the opportunity to get over there and 
make your own assessment, but I just want your commitment that 
you would not hesitate to come before this committee if you 
felt that there were situations that needed to be addressed 
legislatively.
    General Bell. Mr. Chairman, I can assure you that I will do 
that, and I appreciate you affording me that opportunity and I 
look forward to having that opportunity in the future if I am 
confirmed.
    Chairman Warner. Now, our President and the Secretary of 
Defense and others, presumably in consultation with the 
Secretary of State, have determined they are going to reduce 
substantially the troop level over a period of time. I hail 
that. But under the current protocol, you are commander in 
chief of United Nations forces, is that correct?
    General Bell. That is correct, Mr. Chairman.
    Chairman Warner. Should there be a tragic misfortune of 
combat breaking out, you then become commander in chief of all 
military, including South Korea; is that correct?
    General Bell. That is correct.
    Chairman Warner. To what extent--and probably you have to 
wait until you get over there, but I want to raise this--are we 
reviewing with South Korea, a very proud, strong, emerging 
country and one that has invested so heavily in its national 
security. I think the stabilization of the Korean peninsula is 
in large measure due to the extraordinary--I think it is the 
eleventh strongest economy in the world now. Is that a subject 
that is under review at this time, that command structure?
    General Bell. Mr. Chairman, the command structure between 
the United States and the ROK, principally are the two parties 
that we are talking about, is under review today and has been 
over the years since we have entered into a treaty, a mutual 
defense treaty, with the ROK.
    If I might just for a second, Mr. Chairman, remind us all 
that when we first entered into a more peaceful environment 
following the armistice agreement back in 1953, at that time 
the United States through various command arrangements 
maintained command and control of not just our military force, 
but also the ROK forces, even in peacetime. As we have moved 
over the years and as their economy has improved and their 
standard of living has improved and their ability to form and 
train their military services has improved and they have in 
fact produced a very top quality military, those command and 
control arrangements have been reviewed and altered.
    In fact, just several years ago the command and control of 
the ROK military forces in peacetime was returned to the ROK, 
leaving the United States' senior military commander, his 
capacity as Combined Forces Commander, in charge or, if you 
will, in the command seat during conflict or during wartime.
    I think the issue for the future is, one, that our alliance 
has to be maintained to ensure defense capability and 
deterrence; and two, that we as good partners should continue 
to look at command arrangements, as we do in our other 
alliances. I would offer that, irrespective of what command 
arrangements that we believe are best suited for the peninsula, 
unity of effort will always be necessary. So whatever 
arrangements are made in the future, if confirmed, I would 
ensure that we were able to absolutely be very confident that 
the unity of effort to bring military capability to bear would 
not be compromised in any way, shape, or form. That would be my 
area of focus, Senator.
    Chairman Warner. I thank you, General.
    I wish to say to both of you distinguished officers and 
your families: Well done in the past, and I wish you the very 
best for your pursuit of the next chapter of your distinguished 
military careers. I have every confidence that you will fulfill 
those missions with the dignity and professionalism that you 
have had ever since you were second lieutenants. So I wish you 
well.
    Senator Levin, I am going to turn over this hearing to you 
and take off.
    Senator Levin [presiding]. Thank you. I just have a few 
additional questions for General Smith and then we can recess. 
Thank you.
    General, this is a question that relates to your present 
position as Deputy Commander of U.S. CENTCOM. I have some 
concerns about the loyalty of the Iraqi army. We all have 
concerns about how well and how speedily they are being 
trained, and those have been well-discussed in depth--how 
quickly, how many units of the Iraqi army and other security 
forces are being trained. But I also have a nagging doubt about 
the loyalty issue, so that we are not just training Iraqis, but 
that we are taking the steps necessary by vetting to try to 
assure that those forces will be responsive to the national 
authority rather than to clerics, for instance.
    Can you just share with us any concerns or thoughts you 
might have on that issue?
    General Smith. Yes, Senator Levin. We share the same 
concerns. We are building a volunteer force over there, and it 
is difficult certainly in the enlisted ranks to vet those 
people that are coming to volunteer to join. Certainly, in our 
anxiousness to get as many people on board as possible, there 
is an opportunity for those that have different loyalties to 
join.
    Now, we use Iraqis to try and vet those people as well as 
possible, but I have little doubt that we will not be 100 
percent successful in that. We will have to rely on the 
commanders, the noncommissioned officers (NCOs) that we are 
building. We are taking special interest in vetting carefully 
and then in training to ensure that their loyalties are to Iraq 
and not to a tribe or an ethnic group or a religious group.
    It is one of the reasons why building the leadership 
structure has taken longer than we would have liked. I have 
confidence that in the senior NCO corps, in the officer corps, 
that, given the patience and the time being consumed on the 
part of the Iraqis as well as the Multinational Force-Iraq, 
that we will build an officer corps that is loyal to Iraq for 
the most part.
    We are going to have to rely on them to recognize those 
folks within their enlisted ranks that are really not 
supporting the cause.
    Senator Levin. Thank you.
    General, I understand that the Secretary of Defense 
proposed to NATO that the chains of command for the 
International Security Assistance Force in Afghanistan be 
merged with the U.S.-led counterterrorism force, but that a 
number of NATO allies rejected that proposal. Does the 
existence of separate chains of command in Afghanistan raise 
concerns?
    General Smith. Sir, it does. Our goal is to have a senior 
U.S. officer, or coalition officer, who would be dual-hatted, 
with a role within the NATO force over there and at the same 
time a role through the CENTCOM chain of command that would 
ultimately report to General Abizaid. I think that will 
ultimately work, and we will work this through the NATO 
structure to ensure that our red lines, CENTCOM's red lines, 
are met.
    Now, those red lines primarily are the freedom to maneuver 
and be able to take on the counterterrorist fight and go after 
al Qaeda, Osama bin Laden, and Zawahiri, those folks that are 
operating primarily along the Afghan-Pakistan border.
    In doing that, we absolutely recognize that we are going to 
have to coordinate closely with the NATO folks. So we will work 
through the various chains of command to ensure that we can do 
that. We understand some of the nations' resistance to merge 
the two because there are nations that do not want to get 
directly involved in the counterterrorist fight, and we 
understand that. We will work through that, Senator, and build 
something that allows us to do the mission that we are required 
to do.
    Senator Levin. Thank you.
    Two years ago Congress gave JFCOM limited acquisition 
authority on a pilot basis. You indicated in response to the 
committee's advance questions that you would like to see 
Congress extend and expand JFCOM's acquisition authority. DOD 
has yet to specifically request any funding for JFCOM to 
exercise this authority. I am just wondering whether you expect 
that the Department will request specifically funding to 
support JFCOM's acquisition authority in the 2007 budget 
request?
    General Smith. Sir, I do, if for no other reason than that 
my predecessor is now the Vice Chairman, and it is on his list 
to do. It is an issue that you have raised, that has the 
interest of this committee, to make sure that we get 
technologies rapidly to the warfighter. We have seen the 
benefit of that from CENTCOM and I would hope that that would 
be extended, yes, sir.
    Senator Levin. Just one last question for you. What do you 
see as the proper role for the JFCOM in training of our forces? 
It is still primarily a title 10 responsibility of the military 
services, but do you think that the JFCOM is doing too little 
or too much to guide joint training at this time?
    General Smith. Sir, I am going to have to spend some time 
on the job to reflect on some of those issues. I clearly 
understand the Service responsibility to train, equip, and 
provide forces. What Joint Forces Command provides is those 
lessons learned and those standards that they can train to, or 
at least they can use in their training programs. Where we 
focus our joint training primarily is in the joint task force 
area, where the Services come together and where they have to 
operate as a joint and combined staff.
    In that area, we have made huge headway. How we interact 
with and impact the Services is something that one of our great 
senior mentors down there, General Gary Luck, and I had a 
serious conversation about yesterday and about how to go about 
performing that. Should I be confirmed, that is one of the 
things that I will have to look at very early on.
    Senator Levin. Fair enough.
    The chairman was speaking for the entire committee when he 
thanked you for your service, for your commitment, for your 
professionalism. All of us look forward to your assuming these 
new duties.
    With that, we will stand adjourned. We thank your wives 
again, too. That can never be said enough.
    [Whereupon, at 12:14 p.m., the committee adjourned.]

    [Prepared questions submitted to Hon. John J. Young, Jr., 
by Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Have your views on the importance, feasibility, and implementation 
of the Goldwater-Nichols Act reforms changed since you testified before 
the committee at your confirmation hearing on June 27, 2001?
    Answer. No, my views have not changed. I remain firmly committed to 
the complete and effective implementation of the reforms brought about 
by the Goldwater-Nichols Act.
    Indeed, with regard to acquisition, I believe that Congress was 
remarkably prescient and thoughtful in allocating responsibility for 
requirements to the Service Chiefs and responsibility for acquisition 
to the Service Secretariat. This allocation creates a creative tension, 
which ensures competition and creativity as well as best value for the 
taxpayer. I believe proposals to change this aspect of Goldwater-
Nichols by shifting acquisition to the Service Chiefs would be a 
disservice to the President and our Nation's taxpayers. The debate over 
requirements, technology, cost and capability should begin at levels 
below the President and the Secretary of Defense. There is great risk 
in such a change of even further overstating of requirements, growing 
unfunded requirements lists, and further escalation in the cost of 
weapon systems.
    Question. Do you see the need for modifications of any Goldwater-
Nichols Act provisions based on your experience as ASN(RDA)? If so, 
what areas do you believe might be appropriate to address in these 
modifications?
    Answer. I do not see a need for modifications of Goldwater-Nichols 
in the areas affecting acquisition. The civilian and military roles 
defined in the act produce a healthy tension that balances warfighting 
needs with taxpayer interests.
    Based on my experience as the Department of the Navy Acquisition 
Executive, I would be strongly opposed to recent studies proposing 
modifications that would shift acquisition program management to the 
Service Chiefs. For the sake of the taxpayer, there needs to be a 
constant debate at all working levels between the acquisition team--led 
by presidential appointees--and the requirements community--led by the 
Service Chiefs and the Joint Staff. The debate should encompass 
available technology, cost, affordability, delivered capability, joint 
options, and alternative solutions.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Director of Defense Research and Engineering (DDR&E)?
    Answer. The DDR&E is the principal staff advisor to the Under 
Secretary of Defense (AT&L) and to the Secretary and Deputy Secretary 
of Defense for research and engineering matters. The DDR&E serves as 
the Chief Technology Officer for the Department of Defense.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe that my responsibilities and service as the 
ASN(RDA) coupled with my experience as a professional staff member on 
the Senate Appropriations Defense Subcommittee as well as experience 
working in a variety of positions in industry provides me with a strong 
and extensive background in research and engineering issues.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the DDR&E?
    Answer. If confirmed, I will review the current duties outlined in 
DOD Directive 5134.3 DDR&E to ensure that the directive provides the 
necessary authorities and flexibilities to develop research and 
engineering opportunities to enhance military capabilities.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense will assign to you?
    Answer. If confirmed, I expect the Secretary to assign me duties 
and functions commensurate with those of a Chief Technology Officer, 
and any others as he may deem appropriate.

                             RELATIONSHIPS

    Question. Section 139a of title 10, United States Code, and DOD 
Directive 5134.3 discuss the responsibilities and functions of the 
DDR&E. Other sections of law and traditional practice also establish 
important relationships outside the chain of command. Please describe 
your understanding of the relationship of the DDR&E with the following:
    The Deputy Under Secretary of Defense.
    Answer. If confirmed, I will work closely with the Deputy Under 
Secretary to provide advice and assistance commensurate with the role 
of a Chief Technology Officer, including development of policies for 
rapid technology transition, science and technology investment 
priorities and funding levels, and current and future military 
capabilities.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)).
    Answer. The DDR&E is subject to the authority, direction, and 
control of the USD(AT&L). If confirmed, I expect to be a key player in 
Office of the USD(AT&L) and provide the leadership for the research and 
engineering community.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. If confirmed, I will work to foster a close working 
relationship with the Under Secretary of Defense for Intelligence to 
ensure our research and engineering needs are synchronized across the 
Department.
    Question. The Under Secretary of Defense (Comptroller/Chief 
Financial Officer).
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Comptroller/Chief Financial Officer) to ensure investment 
in research and engineering is in balance with the overall priorities 
of the Department.
    Question. The Service Secretaries.
    Answer. If confirmed, I will work to foster a close working 
relationship with the military department secretaries to ensure their 
research and engineering priorities, and technology investments are 
supporting the overall Department goals and are in balance.
    Question. The Service Acquisition Executives.
    Answer. Research and engineering is the first step in the overall 
acquisition process, so I view the Service Acquisition Executives as a 
primary customer of research and engineering. If confirmed, I will work 
closely with the Service Acquisition Executives on research and 
engineering matters.
    Question. The Director of the Defense Advanced Research Projects 
Agency (DARPA).
    Answer. If confirmed, I will exercise authority, direction, and 
control over the Director of the DARPA and work with DARPA to ensure 
their efforts are supporting the overall Department research and 
engineering goals.
    Question. The Director of the Defense Technology Security 
Administration.
    Answer. If confirmed, I will work with the Director of Defense 
Technology Security Administration on technological issues pertaining 
to international acquisition and export activities.
    Question. The Joint Staff.
    Answer. Research and engineering provides new operational 
capability options to the warfighter. I view them as another primary 
customer of research and engineering. If confirmed, I will work closely 
with the Joint Staff on issues relating to research and engineering 
with the goal of understanding the requirements process and specific 
capability needs in order to ensure our warfighters are affordably 
equipped with superior warfighting capabilities.
    Question. Director, Defense Test Resource Management Center.
    Answer. If confirmed, I will work with the Director, Defense Test 
Resource Management Center to consider technology options and alternate 
procedures for enhancing the test and evaluation of DOD systems.
    Question. The Director, Operational Test and Evaluation.
    Answer. If confirmed, I will work with the Director, Operational 
Test and Evaluation to consider technology options and alternate 
procedures for enhancing the test and evaluation of DOD systems.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges that will 
confront the DDR&E?
    Answer. Major challenges to the DDR&E come from several different 
factors that shape technology development. The first is to maintain our 
superior warfighting capability in a fiscally constrained environment. 
The second challenge comes from balancing near- and far-term technology 
efforts to provide technology solutions to today's problems and new 
capabilities for tomorrow's force. A third major challenge is the pace 
and globalization of technology development. Finally, providing 
technology to meet the immediate and future warfighter needs for the 
global war on terrorism represents an urgent challenge. Across this set 
of challenges, we must ensure the taxpayer's dollars are invested in 
priority areas and provide a good return on that investment for the 
Nation and our warfighters. If confirmed, I look forward to focusing 
research and engineering efforts to identify and address these and 
other emerging challenges.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would do my best to address the challenges 
identified. As a starting point, I plan to review RDT&E programs and 
processes with emphasis on coordinating investment strategies, 
leveraging technology from all sources (including commercial), and 
pursuing more effective transition of RDT&E results into affordable 
acquisition programs. I will, of course, work closely with the RDT&E 
community. I also expect to be an integral part of the Office of the 
Secretary of Defesne (OSD) team and to work closely with the Joint 
Staff, Services and Agencies, and Congress to get optimum value from 
our RDT&E investments.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the DDR&E?
    Answer. If confirmed and appointed, I will review the initiatives, 
processes and performance of the DDR&E organization and the DOD 
research and engineering enterprise in an effort to ensure that the 
enterprise is best positioned to provide superior oversight and results 
on the Department's research and engineering programs. Based on my 
experiences, I believe that key challenges to performing the functions 
of DDR&E are the budget process and its lack of funding flexibility, 
the current requirements generation processes, the resistance to change 
and greater jointness, and the need to attract, retain and empower 
highly-capable people.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I would do my best to position the 
organization for success as expeditiously as possible.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Director of Defense 
Research and Engineering?
    Answer. If confirmed, I would develop and refine priorities to 
address the major challenges facing the DOD research and engineering 
program.

                  INVESTMENT IN SCIENCE AND TECHNOLOGY

    Question. The fiscal year 2006 budget request for science and 
technology (S&T) is less as a percentage of the total Department budget 
than the fiscal year 2005 budget request for S&T programs. The fiscal 
year 2006 budget request for S&T is also below the previous year's 
requested level and requires a certification to Congress in response to 
fiscal year 2000 defense authorization legislation.
    What role should the DDR&E play in the detailed development and 
coordination of service and agency S&T investment strategies, programs, 
and budgets?
    Answer. The DDR&E must ensure that the Service programs are in 
balance with the overall Department goals, must collaborate with other 
Federal departments and agencies to ensure DOD programs are 
complementary with other S&T programs in the Federal Government, and 
must seek to balance S&T programs between competing near-term and long-
term needs.
    Question. What, in your view, is the role and value of S&T programs 
in meeting the Department's transformation goals and in countering 
irregular, catastrophic, traditional, and disruptive threats?
    Answer. The DOD S&T program has a long history of developing 
superior technologies and capabilities to address the current and 
future security threats. The Department's investment in S&T has 
historically given our forces the technological superiority to prevail 
over predicted threats and the agility to adapt quickly to 
unanticipated threats. I believe this role is still valid in today's 
strategic environment. As the pace of global technology availability 
increases, with a commensurate increase in the pace of threat 
evolution, the role of a well balanced S&T program is more important 
than ever.
    Question. Are there any S&T areas that you view as underfunded by 
the Department?
    Answer. If confirmed, I will review in detail the DOD S&T portfolio 
to assess appropriate levels of investment for specific technology 
areas. I expect to see shifts in S&T investments in response to 
changing needs and opportunities on a continuing basis. Areas where I 
see our needs increasing are in technologies that can help us defeat 
the tools and tactics of terrorists and lower acquisition and life-
cycle costs.
    Question. In your judgment, will the funding levels in these areas 
affect the Department's ability to meet the threats of the future?
    Answer. If confirmed, after the review of the DOD S&T portfolio, I 
will take appropriate action, if necessary, to balance the investment. 
I believe S&T funding is important to our future capabilities, and I 
would be concerned if funding levels ever became seriously out of 
balance with the rest of our Defense program.

                         BASIC DEFENSE SCIENCE

    Question. A recent National Academy of Sciences study entitled 
Assessment of Department of Defense Basic Research noted that ``the 
need for discovery from basic research does not end once a specific use 
is identified, but continues through applied research, development, and 
operations stages. . . . DOD should view basic research, applied 
research, and development as continuing activities occurring in 
parallel, with numerous supporting connections throughout the process. 
. . . Senior DOD management should support long-term exploration and 
discovery and communicate this understanding to its research 
managers.''
    Given the continuing nature of basic research and the broad 
implications and applications of discovery-focused and innovation-
focused sciences, what criteria would you use to measure the success of 
these programs and investments?
    Answer. If confirmed, I would review the National Academy of 
Sciences study to consider their conclusions and assess the benefits of 
new measures and criteria. By its very nature, the output of basic 
research is difficult to track. It may take many years to produce 
results, it may be an apparent dead end that reappears in an unexpected 
application, and it is almost impossible to forecast which of the seeds 
we plant will bear fruit. In general, basic research output can be 
measured in at least three areas: (1) New knowledge--publications in 
reference journals, (2) Intellectual capital--students supported, 
degrees awarded, (3) Tech transitions--new knowledge (scientific 
findings) picked up in technology and development programs by the 
Services and industry. One overarching goal is to ensure organizations 
funded by DOD and the broader research community possess an 
understanding of our broad areas of need. Effectively communicating 
these defense priorities will provide a general direction from which to 
pursue scientific discovery. If confirmed, I expect my additional 
criteria will include measuring the quality of DOD-sponsored research 
through the various peer reviews and external review panels the 
Department uses and ensuring that our investments emphasize technology 
areas where it is essential that DOD be the world leader.
    Question. How would you determine whether there is an adequate 
investment in basic research to develop the capabilities the Department 
will need in 2020?
    Answer. I'm not aware of any accepted formula for determining the 
appropriate level of investment for basic research. I do however 
recognize that past investments in basic research have been vital to 
the warfighting advantage we have today. The appropriate level of basic 
research investment today should be viewed with an eye on historical 
impact, taking into account that stability of funding is paramount in 
the effective execution of the basic research program. If confirmed, I 
look forward to working with this committee to ensure that DOD S&T 
investment is adequate and in balance with the overall DOD investment 
strategy.

            COORDINATION OF DEFENSE S&T WITH OTHER AGENCIES

    Question. The DOD currently executes approximately 8 percent of the 
total Federal basic and applied research portfolio.
    Do you believe the mechanisms of coordination between Federal 
civilian agencies and the Department are adequate to ensure that the 
military can best leverage the advances of agencies such as:
    National Science Foundation on defense needs for basic science?
    Answer. Adequate coordination and collaboration processes appear to 
exist. If confirmed, I will ensure that dialogue between the Department 
and the National Science Foundation is open and transparent to our 
decisionmaking.
    Question. National Aeronautics and Space Administration (NASA) on 
hypersonics and other space research and the viability and availability 
of testing facilities?
    Answer. Adequate coordination and collaboration processes appear to 
exist. If confirmed, I will ensure that dialogue between the Department 
and the NASA is open and transparent to our decisionmaking.
    Question. National Institutes of Health (NIH) on areas in which 
military medical research and vaccine development overlap with civilian 
medical needs?
    Answer. Adequate coordination and collaboration processes appear to 
exist. If confirmed, I will ensure that dialogue between the Department 
and the NIH is open and transparent to our decisionmaking.
    Question. Intelligence Community (IC) in setting defense research 
priorities to prepare for future threat environments?
    Answer. Adequate coordination and collaboration processes appear to 
exist. If confirmed, I will ensure that dialogue between the Department 
and the IC is open and transparent to our decisionmaking.
    Question. Department of Homeland Security (DHS) on homeland defense 
and national security-related science?
    Answer. Adequate coordination and collaboration processes appear to 
exist. If confirmed, I will ensure that dialogue between the Department 
and the DHS is open and transparent to our decisionmaking.
    Question. If confirmed, how would you work with other Federal 
agencies and the Office of Science and Technology Policy to improve 
coordination?
    Answer. If confirmed, I would continue to keep an open dialogue 
with other Federal agencies and the Office of Science and Technology 
Policy.

                DEFENSE LABORATORIES AND TEST FACILITIES

    Question. The DDR&E is responsible for the oversight of matters 
associated with research and engineering and the technical workforce at 
Defense laboratories operated by the military services or other 
Department components.
    If confirmed, how would you work to ensure that the DOD 
laboratories facilitate development of capabilities to meet the needs 
of the acquisition and warfighting communities?
    Answer. If confirmed, I would support close collaboration between 
the acquisition, technology, and operational communities to identify 
current needs and to anticipate future operational needs arising from a 
changing national and world security environment.

                          TECHNOLOGY STRATEGY

    Question. The Nation is confronted with a dispersed enemy which is 
expert at using relatively simple, inexpensive technology to achieve 
destructive and disruptive results. The committee has focused on 
creative prediction of, and adaptation to, continuously changing 
threats. Past investments in long-term research have resulted in the 
Department's ability to rapidly advance technologies and solutions from 
the laboratory to confront emerging threats.
    What are the weaknesses, if any, of the current Defense S&T 
strategic planning process?
    Answer. If confirmed, I will review the Department's S&T strategic 
planning process to ensure continued consistency with broader DOD goals 
and objectives as well as look for opportunities to inject technology 
options into DOD plans as appropriate. As an observer and participant 
in these processes, I can tell you one of the weaknesses in terms of 
advancing technologies, especially in technology areas of rapid change, 
is the lack of funding flexibility and the extended timelines of our 
requirements and budget processes.
    Question. If confirmed, how would you work to ensure that strategic 
plans are utilized during the budget planning and programming process?
    Answer. If confirmed, I will use the strategic guidance to work 
with DOD components to align S&T investments in concert with DOD goals 
and objectives.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. The Department's fiscal year 2006 budget proposes 
increases across a spectrum of technology transition programs. 
Challenges remain, however, in integrating the transition of new 
technologies into existing programs of record and major weapons systems 
and platforms.
    What challenges exist in technology transition within the 
Department?
    Answer. One of the principal challenges to transition is the lack 
of funding flexibility and the extended timelines of our requirements 
and budget processes. Successful transition requires an appropriately 
mature technology, a user need, an insertion window in the program of 
record and budgeted resources for implementation. This alignment is 
hard to achieve and maintain, and the gap between S&T and acquisition 
often needs bridge funding in the execution year. DOD has a limited 
number of technology transition programs and amount of funding to 
bridge these gaps, and we have used those tools effectively in recent 
years.
    The Military Services have made strides in focusing their S&T 
investments on key gaps in their future core military capabilities, and 
in accelerating critical technologies to end users. It remains a 
challenge to preserve and apply resources to long-term technology areas 
that promise substantial return beyond the current fiscal horizon. 
Transition of proven technologies underpinning uniquely 
transformational and joint capabilities also continue to be a challenge 
demanding careful oversight.
    Question. What is the role of the DDR&E in facilitating 
communication between technical communities, acquisition personnel, and 
end-users to speed technology transition?
    Answer. DDR&E brings the overarching perspective to orchestrate 
complementary technology development efforts and foster productive 
interagency projects. With a view of research, development, and 
engineering investments across the Department, DDR&E can bring diverse 
projects into focus on specific evolving needs. DDR&E is a focal point 
for rapid transition of technologies into fielded systems and an 
advocate for innovative technical solutions to Defense-wide goals such 
as energy independence. I would add the resource sponsor community to 
that list, and state that the role of the DDR&E is to work closely with 
all of those communities at the DOD corporate-level and at the Service- 
and Agency-level to make sure our S&T portfolios include transition-
oriented investments and processes that bring the key stakeholders into 
alignment with a transition agreement. In the Navy, we use a process 
called Future Naval Capabilities. An important DDR&E role is to find 
best practices and facilitate their broad implementation in DOD.

                       VENTURE CAPITAL STRATEGIES

    Question. In recent years, several components of the DOD have 
attempted to follow the lead of the IC by using venture capital firms 
to make investments in developing technologies.
    What role do you believe that venture capital firms should play in 
DOD's investments in developing technologies? What advantages and 
disadvantages do you see in the use of venture capital strategies?
    Answer. Venture capital firms can provide DOD with additional 
knowledge of innovative, emerging commercial technology areas relevant 
to DOD needs, particularly in areas of rapid commercial innovation. 
Venture capital firms can also provide early insight into technology 
companies that might not otherwise engage with DOD, potentially 
expanding DOD's sources for products and ideas. Venture capital firms 
are good sources of technical and business judgment in the areas where 
they invest, and are well attuned to where the commercial market will 
be in a few years. It is important to note, however, that the venture 
capital objective is to make money, while DOD's objective is visibility 
of, and access to, emerging technologies. The various ongoing DOD 
programs are all considered experiments, and DOD is investing at a 
level that is very low compared to large venture capital firms. It will 
take a few more years for DOD to understand the advantages and 
disadvantages of the various strategies. I believe, however, that the 
commercial success of U.S. venture capital firms is a strong argument 
for continued DOD learning from the venture capital community. If 
confirmed, I will review our strategies, and the terms and conditions, 
for our venture capital and investments.
    Question. Are there particular categories or types of technology 
for which the use of venture capital strategies are or are not 
appropriate?
    Answer. Venture capital firms and strategies work well in 
technology areas in which there are significant commercial markets. 
Venture capital firms focus on portfolio companies that have high 
commercial potential and on an exit strategy for investors to recoup 
their investment in a few years. Prime technology areas are information 
and communication technologies as well as biotechnology. Many DOD 
technology needs may not present significant commercial opportunities, 
and high profit margins are not consistent with current acquisition law 
and regulations. DOD interaction with venture capital firms is likely 
to be most appropriate in areas where we need COTS or COTS-derivative 
solutions and want to be positioned to be an early adopter.
    Question. When DOD does decide to use venture capital strategies, 
what steps do you believe the Department should take to ensure that DOD 
funds are invested in technologies and companies that properly reflect 
national defense priorities, avoid the potential for conflicts of 
interest by industry partners, and ensure that the Department's 
investments are not diluted?
    Answer. I believe there is significant value in communicating DOD's 
operational challenges and technical interests to non-traditional DOD 
supplier companies affiliated with the venture capital community and in 
identifying and fostering adoption in the near-term of technology 
solutions from non-traditional supplier companies. If confirmed, I will 
explore means to ensure DOD Funds are invested in technologies and 
companies that properly reflect national defense priorities, avoid 
potential conflicts of interest, and ensure DOD's investments are not 
diluted.

                              TANGO BRAVO

    Question. The Tango Bravo program is a collaborative effort managed 
by the Defense Advanced Research Projects Agency (DARPA) and the Navy 
with the goal of incorporating advanced technologies into submarines. 
Some of these technologies, such as shaftless propulsion and weapons 
exterior to the pressure hull, could enable development of smaller and 
less expensive submarines, with equal or greater capabilities.
    What is your understanding of the technical maturity of the 
technologies being developed under the Tango Bravo program?
    Answer. The technical maturity of the component technologies 
varies. However, the integration of these technologies into systems 
that meet the requirements for submarine use is relatively immature. 
For example, much work has been done with electric motor technology to 
make them smaller, lighter and more powerful. However, very little work 
has gone into making them quiet and reliable enough in a harsh seawater 
environment to be suitable for submarine propulsion or control 
applications. Tango Bravo is looking to evaluate this in sufficiently 
large scale to obtain credible results.
    Question. When do you think some of these technologies could be 
ready for design into a new class of submarine, or spiraled into the 
current class of submarines under construction?
    Answer. Tango Bravo is expected to produce measurable results in 36 
months and conclusions in 48 months (i.e. by 2009). The final results 
of the technology demonstrations will be carefully examined by the Navy 
to determine the appropriate follow-on actions. Depending on the 
success of the demonstrations and the follow-on development required, 
2009 is the earliest that the technologies would be available for 
inclusion in a design effort.

                   INTERNATIONAL RESEARCH COOPERATION

    Question. What is your assessment of the value of cooperative 
research and development programs with international partners?
    Answer. As technology advancement becomes increasingly global, 
these cooperative programs become increasingly important to DOD.
    Question. In your view, what are the obstacles to more effective 
international cooperation, and, if confirmed, how would you address 
those obstacles?
    Answer. International industry involvement is essential, and this 
means that intellectual property control, export controls and other 
business issues can become obstacles. If confirmed, I would look to 
pilot programs with our allies to develop best practices.
    Question. How will increased international technology cooperation 
affect our domestic defense industrial base?
    Answer. Our defense industrial base operates in a global economy 
and will be strengthened by well formulated international technology 
cooperation programs.
    Question. How should DOD monitor and assess the research 
capabilities of our global partners and competitors, and of the global 
commercial sector?
    Answer. This is an important issue for the 21st century, when we 
can reasonably expect that many technical advances will originate 
outside the U.S. I believe this is an issue of strategic importance, 
and if confirmed, would look to the Defense Science Board or a similar 
advisory body to take a fresh look at this long standing issue.

                          TEST AND EVALUATION

    Question. Rapid fielding initiatives, spiral development, the 
balance between operational and developmental testing, a reorganization 
of the budgeting process for the major ranges and test facilities, and 
requirements for joint testing strategies are a few of the challenges 
facing the Department's operational, test, and evaluation activities 
and the newly created Defense Test Resource Management Center.
    What are your views on the adequacy and effectiveness of the 
Department's test and evaluation activity?
    Answer. Test and evaluation is a critical component of the 
Department's research, development and acquisition process. It is 
imperative that our test facilities, ranges, and processes provide the 
best possible support to the development and fielding of our weapon 
systems. I believe the Department's current test and evaluation 
processes are adequate and effective. If confirmed, I would like to 
evaluate potential improvements in developmental test and evaluation 
efficiency.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process? For small systems? For large systems?
    Answer. Rapid fielding requirements have and will continue to 
stress the standard testing process for all systems. However, rapid 
fielding is imperative in our efforts to equip our troops with 
unmatched capability and limit the risk posed by agile or asymmetric 
threats.
    If confirmed, I will work closely with the USD (AT&L) and the DOT&E 
to ensure testing requirements are satisfied.
    Question. What role should the Department's test and evaluation 
organization play in setting criteria for listing of equipment, like 
armor, in the General Services Administration (GSA) catalog?
    Answer. Criteria for listing equipment in the GSA catalogue should 
stem from input from all communities involved, including T&E, whenever 
appropriate.

                         SMALL BUSINESS ISSUES

    Question. The Small Business Innovative Research (SBIR) program 
accounts for approximately $1 billion in defense research grants 
annually.
    If confirmed, how would you work to ensure that the program serves 
a useful purpose in meeting the Department's research goals?
    Answer. If confirmed, one of my priorities would be to thoroughly 
review the SBIR program and to evaluate any adjustments which could 
enhance the value of SBIR investments to the DOD, our warfighters, 
taxpayers, and the participating businesses.
    Question. What guidance or direction do you consider necessary 
regarding transition of the research results of these programs to major 
weapons systems and equipment?
    Answer. If confirmed, I would continue to encourage the transition 
of successful SBIR projects through: conferences, such as the recent 
DOD Phase II and Beyond conference which brought together successful 
SBIR companies with major defense contractors and Service Program 
Executives; and increased emphasis on Phase II transition through our 
Phase II Enhancement Program. The DOD Phase II enhancement program 
allows the defense component to provide additional SBIR funding when 
the company attracts non-SBIR mission funds to transition research 
results to specific systems. I believe the best practices that have 
made the Navy effective in SBIR transitions could have benefits. These 
include strong involvement by PEOs and SYSCOMs in defining SBIR topics, 
training and assistance to small businesses to facilitate transition, 
and holding forums to showcase SBIR products to acquisition programs 
and other potential investors. If confirmed, I plan to conduct a 
thorough review of the SBIR program to consider the adequacy of current 
policies and evaluate enhancements to better enable transitioning 
research and linking SBIR projects and participants with major weapon 
system acquisition programs.
    Question. What emphasis would you place, if confirmed, on 
participation by the acquisition community in setting research 
priorities for the SBIR and in accepting new solutions into existing 
programs of record?
    Answer. If confirmed, I will continue to actively involve the 
acquisition community in identifying its research needs and transition 
opportunities for all research including SBIR. I would expect to 
increase the emphasis on SBIR coordination and linkage with the 
acquisition community.
    Question. In your judgment, are modifications needed to the 
Department's SBIR program to ensure it meets the Department's goals and 
is updated to support research costs of the small business community?
    Answer. It is too early for me to make a recommendation. More study 
is needed to formulate an opinion. However, one of my priorities, if 
confirmed, will be to review all aspects of the SBIR program and 
evaluate opportunities to improve the program's effectiveness. 
Specifically, I want to review DOD policies and applicable statutes to 
see if changes could further facilitate transitions and small business 
opportunities. I see transitions and linkage of small businesses to 
larger acquisition programs as a major benefit to both DOD and small 
businesses. If confirmed, I will work with this committee and the Small 
Business Administration (SBA) to address the fiscal factors impacting 
the SBIR program.

        TECHNICAL WORKFORCE AND LABORATORY PERSONNEL MANAGEMENT

    Question. The Department's research and development laboratories 
perform unique functions in serving national security missions and do 
not readily fit into the general operational management structure. 
Congress has enacted legislation granting special authorities to the 
Secretary of Defense for flexible management and personnel 
demonstration experiments at the laboratories and has exempted the 
demonstration laboratories from inclusion in the National Security 
Personnel System until 2008.
    What are your views on the most effective management approach for 
these facilities?
    Answer. If confirmed, I will support continuation of approaches 
that support and enable the operational excellence and relevance of our 
laboratories to better meet warfighter requirements.
    Question. In your view, does the Department have adequate technical 
expertise within the government workforce to execute its designated 
acquisition and technical development missions?
    Answer. I believe the Department has adequate technical expertise 
within the government workforce to execute its technical mission. 
However, the demographics of our technical workforce suggest a large 
number of retirements in the next 10 years. Thus, we must take 
appropriate steps to address this issue and to assure that the 
Department will have access to the scientists and engineers necessary 
to maintain our technical expertise. I believe the current operational 
superiority of DOD is a result of the continued technical expertise of 
scientists and engineers in the U.S. If confirmed, I will work to 
assure we have the right mix of talent, expertise, and skill to 
continue to meet our needs in the DOD.
    Question. What particular workforce challenges does the office of 
the DDR&E have?
    Answer. Replenishing the technical workforce as the current 
scientists and engineers retire will be a challenge. As always, when we 
replace those retiring from our current technical workforce we are in 
competition with America's private sector. However, we now face an 
additional challenge. America's students are not as interested in 
science and engineering as they were almost 50 years ago. The number of 
U.S. citizens choosing to study science and engineering in our 
universities is declining relative to the numbers that we are educating 
from other countries. Since most of our technical employees require 
security clearances, we must assure the Defense Department can attract 
sufficient numbers among those that can qualify for clearances. 
Ensuring we have an adequate supply of technical talent to meet the 
needs at the Department now and in the future remains a continuing 
challenge to DOD. If confirmed, I will place a priority on addressing 
this challenge.

                      DEFENSE SCIENCE BOARD STUDY

    Question. Have you reviewed the ongoing work of the current Defense 
Science Board Task Force on the roles and authorities of the DDR&E? If 
so, what are your views of this work and, if confirmed, how would you 
plan to utilize the findings of the Defense Science Board Task Force?
    Answer. I have not reviewed the ongoing work from the Defense 
Science Board Task Force on the roles and authorities of the DDR&E. If 
confirmed, I will review the findings and work with the leadership of 
the DOD on determining what findings and/or recommendations should be 
implemented.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the DDR&E?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Question Submitted by Senator James M. Inhofe

          RESEARCH AND DEVELOPMENT AND ACQUISITIONS BUDGETING

    1. Senator Inhofe. Secretary Young and Dr. Etter, I am concerned 
about the state of our research and development and procurement and 
acquisitions programs across our United Stated military. After our 
country's victory in the Cold War, the Clinton administration reduced 
our military appropriations excessively in search of a so-called 
``peace dividend'', accounting for cuts of $430 billion from fiscal 
year 1994-fiscal year 2001. In fact, after concentrating to keep the 
former Soviet Union in check in the preceding 45-odd years, we should 
have been steadfast in advancing our weapons systems to combat future 
threats. Instead, in the National Defense Authorization (NDAA) for 
Fiscal Year 1997 we had projected reductions of 25 percent of the 
acquisitions personnel force over a 5-year period. This has put us 
behind in acquiring new weapon systems which has narrowed the advantage 
our military has maintained against that of other nations' armed 
forces. This has resulted in systems that require far more maintenance 
than is prudent in a war-time environment, decreasing the envelope of 
safety for our warfighter.
    Earlier this year witnesses such as General John Jumper and 
Secretary Michael Wynne testified before this committee that one of the 
reasons we are seeing delays and problems in bringing new weapons 
systems online is because we have cut too deeply in the research and 
development and acquisitions career fields. This cut excessively 
reduced personnel whose profession is to shepherd these systems through 
R&D to the acquisitions process, and ensure the systems meet the 
military's specifications, budget requirements, and have a schedule of 
bringing a system online while its technology still meets the threat it 
was designed to combat. I'd like both of you to comment on the adequacy 
of the R&D budget, personnel numbers for DOD, and in your case, Dr. 
Etter, the U.S. Navy, and what Congress may be able to do to assist you 
in your very timely role of recapitalizing our military, should you be 
confirmed.
    Mr. Young. Balancing the Department's competing resource 
requirements within a constrained fiscal environment continues to be a 
challenge. A strong research and development program is important to 
maintain our technological edge. The Department strives to fund 
research and development programs at a level appropriate to maintain 
the technological superiority we currently enjoy.
    Achieving this technological superiority requires innovation from a 
stable workforce with science, math, and engineering skills. Several 
trends show continued erosion of domestic production of scientists and 
engineers to a point where the U.S. may no longer be the primary 
innovator in several areas crucial to national security. To reverse 
this trend, the Department submitted a legislative proposal to make 
permanent and expand the Science, Mathematics, and Research for 
Transformation (SMART) Program that was established by section 1105 of 
the Ronald W. Reagan NDAA for Fiscal Year 2005. The expanded program, 
called the National Defense Education Program (NDEP), should increase 
the pool of U.S. scientists, mathematicians, and engineers eligible for 
security clearances, thereby building our future workforce and 
enhancing our future national security.
                                 ______
                                 

                Question Submitted by Senator John Thune

                  CIVILIAN USE OF MILITARY SATELLITES

    2. Senator Thune. Secretary Young, last year, following the tsunami 
that devastated Indonesia, the National Geospatial Intelligence Agency 
(NGA) provided detailed satellite imagery of the affected areas. The 
images provided by NGA were instrumental to those engaged in recovery 
and rebuilding operations. If confirmed, will you explore further 
civilian use of military satellites, like space base radar, for 
domestic uses?
    Mr. Young. I will promote the development of operating concepts and 
technology to increase the effectiveness of future military satellite 
systems. The use of such assets for specific purposes such as support 
for disaster relief and recovery efforts shall be at the discretion of 
the President and Secretary of Defense consistent with all governing 
national laws and policies. In many cases, military relief efforts 
relied on commercially available satellite imagery, and the Department 
should also constantly look at opportunities to use commercially 
available imagery sources.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                 HIGH PRIORITY TECHNOLOGY THRUST AREAS

    3. Senator Levin. Secretary Young, your predecessor established 
three major research thrust areas for the Department during his tenure: 
1. the National Aerospace Initiative; 2. Surveillance and Knowledge 
Systems; and 3. Energy and Power Technologies. However, he had some 
difficulty in convincing the Services or Defense Agencies to increase 
funding in these areas. If confirmed, what areas of research or 
technology would you make high budget priorities?
    Mr. Young. The National Aerospace Initiative, Surveillance and 
Knowledge Systems, and Energy and Power Technologies are currently 
major areas of emphasis for our research and engineering (R&E) program. 
These technologies have the capability to provide the Department with 
significant technological advantages. However, as the Department 
progresses through the Quadrennial Defense Review (QDR), I intend to 
review the entire span of our R&E program to ensure we are best aligned 
with the QDR goals and those set by the President and the Secretary of 
Defense.

    4. Senator Levin. Secretary Young, how would you ensure that those 
priorities are funded by the Services and Defense Agencies in their 
budgets?
    Mr. Young. Secretary Rumsfeld has made transformation a priority 
for the Department, and our technology vectors are key to achieving 
that transformation, I will work with the Component Science and 
Technology Executives, through the Defense Science and Technology 
Advisory Group (DSTAG), to identify the important technology vectors 
and ensure they receive adequate funding, and if necessary, directly 
with the Service Secretaries and heads of Defense Agencies to ensure 
our research and engineering investment is coordinated, in balance with 
our overall investment strategy, and appropriately prioritized and 
funded to deliver the future technological warfighting advantage 
necessary for the men and women who serve this nation.

                         TECHNOLOGY TRANSITION

    5. Senator Levin. Secretary Young, in your written responses to our 
pre-hearing questions you cited ``the lack of funding flexibility and 
the extended timelines of our requirement and budget processes'' as a 
principal challenge to successfully moving technologies from research 
programs into real battlefield systems. Can you expand on these 
concerns?
    Mr. Young. During the Cold War Era very deliberate, methodical 
acquisition and budgeting processes were established in order to obtain 
a well structured, effective system to arm our Nation against a well-
known enemy who we expected to fight in a traditional war. We became 
very proficient at this deliberative budgeting system known as the 
Planning, Programming, Budgeting, and Execution (PPBE) process. This 2-
year cycle meant that most resource decision processes were made in a 
carefully constructed framework that had well defined programs of 
record established and resourced years before they were actually 
pursued. However, the threat and acceleration of technology in today's 
information age has resulted in a deliberate process that is struggling 
to keep pace with today's rapidly changing world. What was once 
methodical and responsive now seems inflexible and rigid, especially in 
certain advanced technology oriented mission areas.
    Specifically, in the current process, the military services begin 
the process of building an integrated budget in January and submit the 
budget to OSD in the August timeframe. Congress will authorize and 
appropriate this budget in October the next year, roughly a year and 
one-half later. If a new technology or investment idea emerges, it will 
be at least a year and one-half before funds can be spent on this new 
start. If the idea misses the current year budget process, it is more 
likely to be 2-4 years until funds are appropriated to start the 
project. If the project must have a validated requirement as it is 
often demanded by the DOD budget process and Congress then add at least 
2 more years to the process. The nation can not fight agile enemies 
with a process than can require as many as 4 years to establish a 
funded development program.
    With emphasis shifting towards nontraditional, asymmetrical warfare 
against emerging non-state terrorist adversaries, the demand for fast 
responding, and even anticipatory technologies, makes a pressing case 
for additional, more adaptive and agile processes to complement the 
current PPBE structure. While our deliberate processes for mainstream 
military capabilities are still necessary, I believe the time has come 
to integrate an adaptive, agile process for a portion of our portfolio 
that allows for the quick insertion of ``ready'' or ``almost ready'' 
advanced technologies. The resources to fund these technologies need to 
have the flexibility to react inside the standard 2-year PPBE process.

    6. Senator Levin. Secretary Young, do you have specific examples?
    Mr. Young. As a minimum, the Department needs to make changes in 
its requirements development process to allow accelerated development 
of requirements. Further, requirements need to be developed through 
collaboration between the combatant forces, the requirements and 
resource sponsor, and acquisition community. This collaboration will 
allow requirements to be informed by the technology maturity, cost, and 
alternate solutions including joint systems. The Navy and Marine Corps 
were very successful in using such a collaborative process, in many 
cases with the acquisition team working directly with the Chief of 
Naval Operations (CNO) and Commandant of the Marine Corps in Multi-
Mission Maritime Aircraft (MMA), Amphibious Assault Ship Replacement 
LHA(R), Maritime Prepositioning Force (Future) [MPF(F)], and other 
programs.
    The Department needs to work with Congress to seek support for 
enhanced programs which provide the ability to start new projects and 
mature new technologies during the execution year. The Department can 
fully inform Congress on the use of these funds and the specific 
projects. Operation Iraqi Freedom (OIF) and Operation Enduring Freedom 
(OEF) provide examples of this challenge. The Department struggled 
within the execution year using reprogramming authorities to identify 
and apply funds to urgent needs such as vehicle armor, counter 
Improvised Explosive Devices (IED) systems, aircraft survivability 
equipment, soldier protection equipment and base security systems. The 
need exists to constantly leverage technology for our warfighters, even 
when we are not operating under the urgency of combat operations.
    As a more specific example, I would highlight the Navy T-45 
program. The Navy has for some time had a firm requirement for no less 
than 243 T-45 trainer aircraft. The efficient production rate is 12-15 
aircraft per year. When I was asked to sign a justification and 
authorization (J&A) for the fiscal year 2004 purchase of only six 
aircraft, I recognized we were paying roughly $6 million extra per 
aircraft because of the low procurement rate. The Research, 
Development, and Acquisition (RDA) team completed an analysis which 
concluded that we could have saved the U.S. taxpayer over $450 million 
by annually purchasing aircraft at efficient rates. The current 
requirements and budget process do not always succeed in setting 
priorities and buying those priorities efficiently, and the result is 
greater cost to the taxpayer for the same capability.
    On a longer-term basis, we need flexibility within the funding for 
major platforms. Shipbuilding provides the best example. Current 
policies require the Navy to identify and fully fund the computers and 
communications systems to be purchased and installed in a ship as much 
as 7 or more years prior to delivery. Technology changes--the 
Department needs some funding and programmatic flexibility to allow the 
program manager to deliver current technology to the fleet.
    Congress has been very helpful in this area through support of a 
number of programs such as the Quick Reactions Special Projects (QRSP), 
Advanced Concept Technology Demonstrations (ACTDs), Defense Acquisition 
Challenge (DAC), Technology Transition Initiative (included under the 
QRSP program element), Foreign Comparative Testing (FCT) and Service 
specific Rapid Equipping/Fielding funds. Flexibility in using these 
innovative programs is critical for the DOD to continue addressing the 
emerging asymmetrical threats facing our forces today. Technologies 
that are benefiting from these agile processes include: Biometric 
devices, increased intelligence gathering and data sharing 
capabilities, sophisticated persistent surveillance capabilities, 
space-based capabilities, solutions to overcome the threat from IEDs, 
unmanned vehicles and sensors of all sorts, epidemic outbreak 
technology, logistics initiatives, and quick response precision 
targeting. Many of these mission areas have technologies that can be 
applied today if we maintain and further develop these adaptive and 
agile programs.

    7. Senator Levin. Secretary Young, what would you recommend 
Congress or the Pentagon do to address these concerns?
    Mr. Young. The Department needs to enhance the requirements 
development process to enable greater collaboration. The Department 
needs Congress' support for variations which recognize that all 
requirements do not need to go through a single process that can take 
years. It would be helpful to have authorized and appropriated programs 
which allow new starts during the execution year. Further, there is a 
need for programs to be allowed greater flexibility in the use of funds 
so that the most current technology can be installed in platforms 
instead of specifying a year to years in advance the technology to be 
installed and risking obsolescence. Finally, continued congressional 
support of our quick reaction agile programs is very helpful.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman

                   ANALYSIS OF PERSONNEL AUTHORITIES

    8. Senator Lieberman. Secretary Young, the office of the DDR&E is 
currently preparing a ``Gap Analysis'' which is a comparison of the 
personnel flexibilities of the laboratory demonstration programs and 
the National Security Personnel System (NSPS). I understand that the 
objective of the study is to show if there is any performance gap 
between the flexibilities available to the laboratories between these 
two systems. If confirmed, would you provide Congress with a copy of 
that study so as to inform the committees of jurisdiction as to the 
benefits to the labs of each of these approaches, as well as to better 
inform any further actions on these personnel systems?
    Mr. Young. The section 1107 report, due to Congress in December 
2005, will describe the plan for conducting a comparative evaluation of 
personnel management flexibilities between NSPS and the laboratory 
demonstration authority systems. A viable comparative evaluation cannot 
be conducted, however, until the NSPS design is complete and spiral 
implementation has reached a sufficient level of maturity to conduct a 
preliminary evaluation and make initial adjustments. This event-driven 
review, analysis and comparative evaluation process will support the 
Secretary's determination of the human resources system that provides 
the greatest positive impact in promoting mission responsiveness, 
efficiency and effectiveness in the defense laboratories. Once the 
Secretary's determination is made, Congress will be provided a copy of 
the results of the evaluation.

    9. Senator Lieberman. Secretary Young, will you ensure that this 
analysis is considered by the Secretary as he makes the decision on 
whether or not to include the laboratories into NSPS, as is required by 
section 9902(c) of the original authorizing statute?
    Mr. Young. Yes.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                          LAB PERSONNEL ISSUES

    10. Senator Reed. Secretary Young, I and many others in Congress 
are concerned about DOD's handling of its laboratory personnel, 
especially in efforts to curtail their ability to continue to use their 
congressionally authorized personnel demonstration program authorities. 
Of particular concern is an effort to shift the labs out of these 
demonstration programs and into the NSPS--without adequate 
justification or analysis. In an April 26, 2004 letter to Congress, 
Acting Deputy Secretary Gordon England addressed the question of the 
utilization of the laboratory personnel demonstration authority. In 
this letter, he assured Congresswoman Jo Ann Davis that the 
laboratories would be free to extend and evolve their laboratory 
demonstration programs. Do you intend, as DDR&E, to support the 
laboratories in their requests to broaden and fully utilize the 
demonstration authorities as promised by Acting Deputy Secretary 
England?
    Mr. Young. Yes. Prior to any potential determination by the 
Secretary of Defense (as stipulated in subsection 9902(c) of title 5, 
U.S.C.) that the NSPS offers greater flexibilities than the laboratory 
demonstration authorities, the laboratories will continue with their 
demo projects and will be allowed to seek innovative enhancements and 
refinements through the normal Department review and approval process.

    11. Senator Reed. Secretary Young, would you please make a 
comparison of lab personnel demonstration authorities with NSPS?
    Mr. Young. A comparative evaluation of personnel management 
flexibilities provided under the NSPS versus the laboratory personnel 
demonstration project authorities will be conducted when the NSPS 
design is complete and spiral implementation has reached a sufficient 
level of maturity to conduct a preliminary system evaluation and make 
initial adjustments. Until such time as when we have settled on final 
parameters, a comparison would not be valid.

    12. Senator Reed. Secretary Young, when your predecessor appeared 
before the Subcommittee on Emerging Threats and Capabilities earlier 
this year, I specifically asked him for a comparison of the personnel 
flexibilities offered by the laboratory demonstration program as 
compared to the NSPS. I believe that this kind of comparison is 
necessary for the Department to determine whether it is advantageous 
for the labs to be included in NSPS--or to have some other personnel 
system. I have yet to see any such comparison. If confirmed, would you 
initiate such a comparative study before allowing the labs to be 
included into NSPS?
    Mr. Young. A comparative evaluation will be conducted when the NSPS 
design is complete and spiral implementation has reached a sufficient 
level of maturity to achieve a valid comparison. This evaluation will 
be considered in the Secretary's ultimate determination of the best 
human resource system for the labs currently excluded from NSPS.

    13. Senator Reed. Secretary Young, would you please provide to 
Congress a comparison of these two systems and their impact on the 
ability of the laboratories to discharge their mission before any such 
actions are undertaken?
    Mr. Young. A comparative evaluation of personnel management 
flexibilities provided under the NSPS versus the laboratory personnel 
demonstration project authorities will be conducted when the NSPS 
design is complete and spiral implementation has reached a sufficient 
level of maturity to conduct a preliminary system evaluation and make 
initial adjustments. Until such time as when we have settled on final 
parameters, a comparison would not be valid.

                 SCIENCE AND TECHNOLOGY FUNDING LEVELS

    14. Senator Reed. Secretary Young, I note that the Department's 
2006 budget request for science and technology (S&T) is below the 2005 
appropriated levels for these accounts and falls short of the QDR goal 
of investing 3 percent of DOD's budgets in S&T. In fact the 2006 
request for S&T is even below the 2005 request for S&T. Does it make 
sense to you to reduce our investments in science and technology as we 
try to transform the military and transition new technologies to our 
operators in the field?
    Mr. Young. Determining the level of investment in S&T is a 
strategic corporate decision. Each year the Department makes an effort 
to fund the S&T program at a level appropriate to maintain the 
technological superiority we have enjoyed to date. With the fiscal year 
2006 request, this administration has increased the S&T investment 28 
percent higher than fiscal year 2001 request (23 percent higher than 
the fiscal year 2001 request adjusted for inflation). The Department 
continues to place a high priority on ensuring adequate funding levels, 
and I expect to work to maintain our S&T investment levels.

    15. Senator Reed. Secretary Young, how will you work to reverse 
these decreases in funding?
    Mr. Young. The fiscal year 2006 President's budget was developed by 
balancing priorities across all functional areas, and our request for 
S&T represents a stable program, within the priorities of the 
Department in a fiscally constrained environment. I will work with 
Secretary Rumsfeld and the Service Secretaries to ensure the research 
and engineering program best represents the Department's priorities 
based on available funds, technology needs and opportunities that can 
enhance the effectiveness of our warfighters.

                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                     CORROSION COSTS TO THIS NATION

    16. Senator Akaka. Secretary Young, a recent Government 
Accountability Office (GAO) report put the cost of corrosion to the 
Department of Defense as at least $20 billion per year. This was later 
confirmed by a Defense Science Board (DSB) Task Force on Corrosion, who 
pointed out that in addition to cost factors, there are major 
repercussions to defense readiness and the safety of our personnel. 
DOD's own Office of Corrosion indicates on its website that many 
corrosion prevention technologies have a 10 to 1 return on investment 
in only 1 year. Yet DOD has only budgeted $20 million per year, though 
the situation in Iraq is making the corrosion costs to this Nation even 
higher than the GAO and DSB originally estimated. Considering the 
return on investment is so large and immediate, do you believe DOD 
should increase the budget for corrosion treatment and prevention?
    Mr. Young. The Department recognizes the impact of corrosion on our 
weapon systems and facilities and appreciates the interest and focus 
you and other Members of Congress have shown. The congressional mandate 
manifested in the recent law requiring the corrosion prevention and 
mitigation program has drawn the attention of a much wider audience 
throughout DOD. The DOD Corrosion Prevention and Control Strategic 
Plan, our long term strategy, depicts an integrated approach in 
preventing and mitigating corrosion of DOD's weapons systems and 
infrastructures. This approach entails R&D; training; outreach and 
communications; specifications, standards and qualification processes; 
policy and requirements; facilities; and cost-of-corrosion and other 
metrics. Funding specific projects with high and measurable return on 
investment is just one of the several approaches identified in our 
Strategic Plan to combat corrosion. The current level of investment is 
adequate as we continue to validate the projected return on the $27 
million investment from our fiscal year 2005 DOD Corrosion Program. It 
is critical to our continued success to show quantitatively and 
objectively that the projected cost avoidance associated with our 
corrosion projects is real and demonstrable. I also plan to continue 
supporting science and technology investment, such as the work 
currently underway at DARPA, in corrosion understanding and prevention 
technologies.

    17. Senator Akaka. Secretary Young, there is currently very little 
incentive for the acquisition community to consider life cycle 
maintenance cost reduction as a high priority in their weapon system 
and equipment design and purchases. Will you look into ways you could 
create effective incentives for people to address the long-term cost of 
corrosion to the Department?
    Mr. Young. The early stages of acquisition present the best time to 
identify materials and processes that will reduce downstream 
maintenance and logistics costs. The Department emphasizes the need for 
and value of upfront investment for this purpose during Defense 
Acquisition Board (DAB) and other milestone-related reviews. Program 
Managers are now required to brief their corrosion prevention and 
control planning (CPCP) to the Acquisition Executive during the DAB 
review cycle. DOD also recognizes that effective incentives must 
include positive benefits to those organizations willing to make 
investments that result in ultimate cost avoidance or savings. I plan 
to investigate additional incentives that will assist in improving our 
overall approach to affordable life-cycle planning in which life cycle 
maintenance costs will play an important role.

    18. Senator Akaka. Secretary Young, many current military 
specifications and standards do not reflect the benefits to be gained 
from using higher performance corrosion-resistant technologies that 
could have a significant impact on total life-cycle cost in maintaining 
weapon systems and equipment. What steps can you take, for example in 
establishing DOD standards, to help modernize the corrosion resistant 
materials being used to protect DOD weapon systems and equipment?
    Mr. Young. The DOD Corrosion Prevention and Control Integrated 
Product Team established a Specifications and Standards Working 
Integrated Product Team (WIPT) specifically to address the status of 
and requirements for corrosion-related military specifications and 
standards. This WIPT has performed a thorough analysis of existing 
corrosion-related specifications and standards, identified those that 
are not applicable or are out-of-date, and specified which 
specifications and standards should apply to our modern materials and 
corrosion prevention and mitigation processes. Results of the analysis 
are now available at the DOD Corrosion Web site (http://
www.dodcotrosionexchange.org). This information is a part of our 
communications and outreach to DOD suppliers. The WIPT is also 
reviewing industrial and commercial specifications and standards to 
determine their applicability to current corrosion prevention and 
mitigation requirements. One of the goals of this effort, which is 
currently underway, is to improve applicable specifications and 
standards or create new specifications and standards if required. The 
Specifications and Standards WIPT is also in the process of 
implementing a standardized, streamlined, and significantly improved 
method of qualifying components and systems. When completely 
implemented, it should assure that only the highest quality materials 
are accepted and that the acceptance process does not impose a cost or 
time burden on either the material suppliers or the military 
departments. I believe we need to continue the efforts of the 
specifications and standards WIPT and work jointly to implement their 
processes and recommendations.

                                 ______
                                 

               Questions Submitted by Senator Bill Nelson

                    PUBLICATION OF RESEARCH FINDINGS

    19. Senator Bill Nelson. Secretary Young and Dr. Etter, university 
associations have documented recent cases where universities have 
refused to perform research contracts for DOD because of provisions 
restricting their ability to publish research findings. These 
provisions are inconsistent with both existing DOD and overall 
government policy providing that unless classified, information 
generated through contracted fundamental research at universities 
should not be subject to controls. What is your view of the 
appropriateness of DOD seeking to restrict the ability of universities 
to publish their research in this way?
    Mr. Young. As you correctly state, National Security Decision 
Directive 189 establishes national policy for controlling the flow of 
science, technology, and engineering information produced in federally-
funded fundamental research at colleges, universities, and 
laboratories. It is therefore not appropriate for DOD contracts to 
include provisions that restrict the ability to publish the results of 
fundamental research. I believe that there are some contracting 
officers that are either unaware of NSDD-189 or unfamiliar with what 
constitutes `Fundamental Research' and may be including contract 
clauses that require a government review prior to publication. We will 
be taking steps to inform them that, for contracted fundamental 
research, such provisions are contrary to DOD policy.

    20. Senator Bill Nelson. Secretary Young and Dr. Etter, do you feel 
that scientific progress depends on broad sharing of research results 
among scientists, in national defense as well as other areas?
    Mr. Young. Yes. Openness during research plays a crucial role in 
innovation, advances in technology, and economic competitiveness in our 
economy. We should not overly prescribe barriers to such scientific 
exchange, but we must also be mindful of those scientific thrusts which 
arc potential threats or enhancements to our National security which 
would require us to compartmentalize that research. However, action to 
compartmentalize such research should be carefully reviewed and be the 
exception rather than the rule.

    PROPOSED RULES ON EXPORT CONTROLS IMPACT ON UNIVERSITY RESEARCH

    21. Senator Bill Nelson. Secretary Young and Dr. Etter, in response 
to a report issued by the DOD Inspector General in March 2004, DOD 
recently proposed a new export control compliance clause for DOD 
contracts. I understand DOD received over 130 comments in response to 
this proposal, most of which were opposed to the proposed rule. I 
understand that one of the proposal's requirements is for segregated 
facilities and badging of all foreign nationals involved in DOD 
research, even fundamental research conducted at universities. Since 
other agencies have regulatory authority for export controls--namely 
the Department of Commerce and the Department of State--do you feel 
that it is appropriate for the DOD to establish its own separate 
policies in this area?
    Mr. Young. Where regulatory authority resides in other agencies, it 
is inappropriate to establish separate policies for DOD contracts. It 
is appropriate for DOD to facilitate contractor awareness of the 
regulatory authority in other agencies. The DOD is coordinating with 
the Departments of State and Commerce to ensure any proposed rule is 
consistent with the National Policy on the Transfer of Scientific, 
Technical, and Engineering Information (NSDD-189), and existing laws 
and regulations governing export-controlled information and technology.

    22. Senator Bill Nelson. Secretary Young and Dr. Etter, if 
confirmed, will you engage with the university research community to 
try to address their concerns in this area?
    Mr. Young. Yes. My Acting Deputy Under Secretary of Defense for 
Laboratories and Basic Sciences has been engaged with the research 
community in this area through the National Academies of Science and 
the American Association of Universities, and I intend to support and 
expand these efforts where needed and appropriate.
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton

                       HIGH PERFORMANCE COMPUTING

    23. Senator Dayton. Secretary Young, if confirmed, you will have 
oversight over the Department's high performance computing research and 
operational high performance computing centers. What role do you feel 
these activities play in supporting DOD missions?
    Mr. Young. DOD high performance computing centers are a key element 
of DOD's strategy to keep our armed forces equipped with the most 
teclinologically advanced capable weapons and support systems possible. 
High performance computing assets support numerous DOD missions. In 
support of OIF and OEF, our warfighters used DOD-developcd 
supercomputer codes to predict theater weather and sea states with 
great success. This prediction capability is now available to our 
commanders as a routine service and is continually improving. 
Additionally, the Joint Strike Fighter program and other air vehicle 
programs routinely use DOD-developed models on high performance 
computing platforms to predict performance of aircraft undergoing 
configuration changes. These models augment or replace costly flight 
wind tunnel testing. This also saves acquisition dollars by eliminating 
expensive prototype changes. Lastly, the Army's ground combat vehicles 
rely extensively on high performance computing assets for lethality and 
force protection models for armor and anti-armor applications.
    Today's DOD missions and technical problems are more complex than 
ever before. Tomorrow's sophisticated weapons systems must meet new 
operational requirements with increased offensive and defensive 
capability, be within affordable acquisition, operational, and 
maintenance costs; and must operate in adverse chemical, biological, 
and electronic environments. High performance computing is an essential 
part of the acquisition process that allows science-based modeling and 
simulation that can drastically reduce development and test lime while 
exploring design trade-offs that previously could not be performed at 
affordable costs or within developmental time constraints.

    24. Senator Dayton. Secretary Young, what steps should we take to 
ensure that the United States remains the world leader in high 
performance computing both in the development and introduction of 
innovative technologies and the retention of a robust industrial base?
    Mr. Young. I consider this an extremely important topic, not only 
from the standpoint of augmenting our DOD acquisition processes and 
assisting the warfigliter directly, but also from the standpoint of 
maintaining leadership in this critical technology. For the U.S. to 
remain a world leader in high perfomiance computing, it is important 
that the domestic high performance computing industry view the Federal 
Government to be a reliable customer for high-end computing systems. In 
addition, it is vital to foster new generations of young people to 
become scientists and engineers interested in working and advancing 
this industry. The recommendations from the multi-agency High-End 
Computing Revitalization Task Force establish a sound blueprint for 
Federal high performance computing investments that will guide future 
DOD efforts in this area.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                INFORMATION ASSURANCE AND CYBER SECURITY

    25. Senator Clinton. Secretary Young, the February 2005 report of 
the President's Information Technology Advisory Committee (PITAC) 
titled ``Cyber Security: a Crisis of Prioritization'' recommends that 
``the Nation's cyber security research community is too small to 
adequately support the cyber security research and education programs 
necessary to protect the United States.'' As we discussed in the 
hearing, the Air Force Research Laboratory information assurance 
efforts centered at Rome, New York are a key part of those research 
efforts--specifically working on information security threats that 
affect our military operations and deployed forces. What steps do you 
think we should take to grow the size and capabilities of DOD's 
internal cyber security research community so that it can support DOD 
missions?
    Mr. Young. The Air Force Research Laboratory (APRL), the Army 
Research Laboratory, the Army Communications-Electronics Research, 
Development and Engineering Center, the Naval Research Laboratory and 
the National Security Agency are the core of DOD's internal cyber 
security research community. Over the past 18 months, the Office of the 
Director for Defense Research and Engineering has worked to improve 
coordination and integration of the research programs across DOD. In 
the recent DDR&E S&T Comprehensive Review, the need for additional 
unclassified research to enable network robustness was identified and 
we are working on an appropriate network-oriented research strategy to 
increase efforts in [his research area. DOD is also working on the 
education and training of the next generation of DOD cyber security 
professionals. One example is the Air Force Research Laboratory (AFRL) 
educational program at Syracuse University called the Advanced Course 
in Engineering in Cyber Security. In the long term, we must educate and 
train scientists and engineers who can support DOD efforts using the 
SMART program implemented through the NDEP.

    26. Senator Clinton. Secretary Young, what steps do you think DOD 
should take to grow the national cyber security research community in 
industry and academia?
    Mr. Young. DOD is a member of the Cyber Security and Information 
Assurance (CSIA) Interagency Working Group (IWG) under the National 
Science and Technology Council, which, as recommended by the 
President's Information Technology Advisory Committee (PITAC) report, 
is a focal point for Federal research programs. Through the CSIA IWG, 
DOD is contributing to the Federal Plan for Cyber Security and 
Information Assurance Research and Development.
    DOD is currently reviewing our basic research, Small Business 
Innovation Research, and Small Business Technology Transfer programs to 
maximize their impact in cyber security academic research, to 
transition DOD-funded research into cyber security products, and to 
promote innovation. DOD, led by my office, has had a strong academic 
research program in cyber security under the Critical Infrastructure 
Protection and High Confidence Software University Research Initiative. 
The AFRL-funded Information Assurance Institute at Cornell University 
is an example of a collaborative interaction between Cornell and AFRL 
in information assurance research. In addition, we have several efforts 
to increase interactions between innovative commercial cyber security 
technology companies and potential DOD customers with cyber security 
needs. Finally, in the long-term, we must educate and train scientists 
and engineers who can support DOD efforts using the SMART program 
implemented through the NDEP.
    We must continue to effectively use these types of programs to 
strengthen the national cyber security research community.

         DEFENSE SCIENCE BOARD REVIEW OF SCIENCE AND TECHNOLOGY

    27. Senator Clinton. Secretary Young, as we discussed in the 
hearing, the fact that the fiscal year 2006 President's budget request 
for science and technology is lower than the fiscal year 2005 budget 
request has triggered legislation requiring a Defense Science Board 
report assessing the impact of the reduced funding on defense 
technology and the national defense. If confirmed, will you ensure that 
this report is produced by the DSB and that its findings are shared 
with Congress?
    Mr. Young. A strong and stable science and technology program is 
important to maintain our technological edge. Each year the Department 
makes an effort to fund the S&T program at a level appropriate to 
maintain the technological superiority we have enjoyed to date. Since 
fiscal year 2000, removing year-to-year fluctuations, the Department 
has exceeded the 2 percent real growth over time. The fiscal year 2006 
request is 23 percent higher than fiscal year 2000, nearly double what 
it would have been with a strict goal of 2 percent per year growth. I 
expect to work to maintain our S&T investment level.

    28. Senator Clinton. Secretary Young, what are your personal 
observations on the impact of reducing S&T investments on our ability 
to produce and deploy innovative new defense capabilities?
    Mr. Young. S&T plays a key role in enabling the force of the 
future. S&T supports transformation by providing the ability to strike 
with greater speed, agility, lethality, and precision while maintaining 
increased global knowledge, in addition, S&T has been a valuable 
resource for reducing costs and increasing mobility by streamlining 
logistics processes and reducing manpower requirements. S&T is crucial 
in enabling the ``better, faster, cheaper'' requirements of the 21st 
century transformational force. Given the competing demands across the 
Department, I will work to ensure a balance among near- and long-term 
priorities. Further, there is a growing need for S&T investment in 
nontraditional areas relevant to the global war on terrorism as well as 
new demands in areas that support future capabilities for the Nation's 
warfighters.

            DARPA FUNDAMENTAL COMPUTER RESEARCH INVESTMENTS

    29. Senator Clinton. Secretary Young, I am concerned that DARPA has 
reduced its funding of fundamental research in computer science at a 
time when that would be detrimental to our ability to face future 
national security threats. As you are well aware, previous DARPA 
investments in this and related fields have spawned the growth of a 
range of technologies--including the Internet itself--that shape our 
daily lives and the way our military operates. In the future, what role 
should DARPA play in the support of fundamental research in computer 
science and cyber security?
    Mr. Young. During my first week as DDR&E, I began the process of 
getting briefed on the DARPA programs and budget. Once I complete this 
review, I will have a better sense of the balance and priorities within 
the DARPA investment program.
    DARPA continues to make a significant investment in computer 
science research. One new area of DARPA investment is ``cognitive 
computing.'' Put simply, it is an attempt to get computers that can 
adapt to people, rather than forcing people to adapt to computers as we 
do now.
    Now and in the future, DARPA needs to continue focusing on the 
special cyber security challenges unique to the DOD. DOD's future is 
network centric warfare, but that means that the networks themselves 
will become a valuable target. DOD's networks are going to be different 
from the commercial worlds'. For example, DOD networks will need to be 
highly mobile and assemble on-the-fly. No one in the commercial world 
has any reason to solve those problems for their own purposes, so DOD 
organizations like DARPA must solve those problems for DOD.

    30. Senator Clinton. Mr. Young, if confirmed, what steps will you 
take to ensure that DOD adequately supports fundamental research in 
computer science?
    Mr. Young. Sustained DOD support of fundamental research in 
computer science is crucial to the maturation of computer science as a 
scientific discipline, and as a key enabler of the transformational 
Network-Centric warfighting paradigm. DOD investment in fundamental 
computer science research is robust, as evidenced by substantial 
computer science investment in DOD's Multi-disciplinary University 
Research Initiative (MURI), High Productivity Computing Systems (HPCS) 
program, Cognitive Systems program. Software Engineering Institute 
(SEI), Collaborative Technology Alliances (CTA) program, and Software 
Producibility Initiative, to name a few examples. I intend to ensure 
that DOD continues to support fundamental computer science research 
adequately through programs of this nature.
                                 ______
                                 
    [The nomination reference of John J. Young, Jr., follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 28, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John J. Young, Jr., of Virginia, to be Director of Defense Research 
and Engineering, vice Ronald M. Sega.
                                 ______
                                 
    [The biographical sketch of John J. Young, Jr., which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of John J. Young, Jr.

    As the Navy's Senior Acquisition Executive, Mr. Young has 
implemented a wide range of innovative organizational and business 
practices to increase the effectiveness and efficiency of Navy and 
Marine Corps procurement and research programs. He has sought to 
stabilize programs and control cost through emphasis on milestone-based 
incentive fees, control of change orders and requirements, multi-year 
procurement contracts, and creation of competitive and joint programs.
    In support of President Bush's efforts on missile defense, Mr. 
Young worked with Admiral Clark and General Kadish to accomplish the 
transfer of the U.S.S. Lake Erie to the Missile Defense Agency. This 
transfer led to accelerated procurement of the SM-3 missile and 
modification of DDG-51 destroyers in order to provide initial sea-based 
ballistic missile defense capability for the Nation. Our Nation's sea-
based air defense capability will be significantly enhanced through his 
leadership in creating the SM-6 missile, placing the highly capable 
AMRAAM seeker on the Navy's Standard Missile.
    Working to improve the Navy's shipbuilding program, he negotiated 
the unprecedented swap agreement that shifted DDG-51 and LPD-17 ships 
between two shipyards. Further, Mr. Young led the exceptional effort to 
renegotiate the U.S.S. Eisenhower carrier refueling contract, 
successfully shifting to event-based incentives to control growing 
cost. Finally, working with Congress, the Navy gained approval on the 
first Virginia-class submarine multi-year contract--a contract that 
includes specific incentives to reduce cost and meet schedule.
    Under his leadership, the Navy acquisition team has successfully 
changed our acquisition approaches through programs like Operation 
Respond and the Littoral Combat Ship (LCS). In response to the urgent 
needs of the U.S. Marine Corps, he led the department's urgent 
acquisition efforts under Operation Respond--a team established to 
rapidly meet the technological and material requirements generated from 
deployed warfighters serving in Iraq. Operation Respond efforts ensured 
that the Marine Corps had needed items ranging from vehicle armor to 
helicopter survivability equipment to ballistic goggles. LCS was 
defined through collaborative work with the CNO and naval fleet 
leadership, leading to a keel laying in roughly 3 years after program 
initiation. During his tenure, the Department has also successfully 
made major contract awards on the DD(X) destroyer, the Multi-Mission 
Maritime Aircraft, the T-AKE auxiliary ship, the VXX Presidential 
helicopter, and LCS. Mr. Young has also pursued greater jointness on 
many efforts, including his successful merger of the Air Force and Navy 
Joint Tactical Radio System clusters and the Distributed Common Ground 
Station .
    During his tenure with the committee, he served as the staff 
analyst for Department of Defense (DOD) procurement, research, 
development, test, and evaluation programs. Prior to leaving the 
committee, he was responsible for reviewing all DOD aircraft 
procurement programs as well as the activities of the Ballistic Missile 
Defense Organization and the Defense Advanced Research Projects Agency. 
He also evaluated the science and technology program budgets for the 
Navy, Air Force, and OSD.
    Participating in the cooperative engineering education program at 
Georgia Tech, Mr. Young worked with what is now Lockheed Martin 
Tactical Aircraft Systems in Fort Worth, Texas. Under this program, he 
worked in eight different engineering groups primarily supporting the 
F-16 program and advanced fighter technology efforts. Mr. Young next 
worked at the BDM Corporation in Huntsville, Alabama, providing 
engineering support of Army missile defense interceptor programs.
    After receiving a Master's degree in Aeronautics and Astronautics 
from Stanford University, he joined the technical staff at Rockwell 
Missile Systems Division in Duluth, Georgia. He became a member of the 
Technical Staff at Sandia National Laboratories in 1988 where he worked 
on hypersonic weapon designs and maneuvering reentry vehicle 
aerodynamics as well as standoff bomb concepts. While at Sandia, he was 
selected as an American Institute of Aeronautics and Astronautics 
(AIAA) Congressional Fellow. He served his AIAA fellowship with the 
Senate Defense Appropriations Subcommittee and then joined the 
committee's professional staff.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by John J. Young, 
Jr., in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Jacob Young, Jr.

    2. Position to which nominated:
    Director of Defense Research and Engineering.

    3. Date of nomination:
    July 28, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 29, 1962; Newnan, Georgia.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Barbara Joan Schleihauf.

    7. Names and ages of children:
    Nathan Jacob Young, 14; William Joseph Young, 11; and Kathryn 
Elizabeth Young, 8.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Stanford University; 10/85-6/87; Master's in Aeronautics and 
Astronautics; Stanford, CA.
    Georgia Institute of Technology; 6/80-6/85; Bachelor's in Aerospace 
Engineering; Atlanta, GA.
    Newnan High School; 9/78-6/80; High School Diploma; Newnan, GA.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Department of Navy; Washington, DC, Assistant Secretary of the Navy 
(Research, Development, and Acquisition), Department of the Navy, 
Washington, DC; 7/01-Present.
    United States Senate, Committee on Appropriations; Washington, DC, 
Professional Staff Member, Defense Appropriations Subcommittee, 
Washington, DC; 12/93-7/01.
    Sandia National Laboratory; Albuquerque, New Mexico, Member of the 
Technical Staff serving the U.S. Senate as an American Institute of 
Aeronautics and Astronautics (AIAA) Congressional Fellow on the U.S. 
Senate Defense Appropriations Subcommittee, Washington, DC; 1/91-12/93.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    No additional positions.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member--American Institute of Aeronautics and Astronautics.
    Member--Jamestown Parent Teacher Association.
    Member--The Briarean Society, Phi Kappa Phi, Tau Beta Pi, Sigma 
Gamma Tau, and Phi Eta Sigma college honor societies.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    2005--Awarded Distinguished Public Service Award by the Secretary 
of the Navy for invaluable contributions to DoN by leading the 
Operation Respond team and creating innovative approaches to multi-year 
contracts that provided efficient warfare systems to the taxpayer.
    2003--Awarded Distinguished Public Service Award by the Secretary 
of the Navy for implementing innovative business practices, stabilizing 
the Navy's most important programs, and encouraging partnership with 
industry.
    Awarded certificate of service from the Secretary of the Navy for 
10 years of service in the United States Government.
    Selected for the 1996 National Security Leadership Course at 
Syracuse University.
    Selected for the 1996 class of Georgia Institute of Technology 
Council of Outstanding Engineering Alumni.
    Selected for the 1993-1994 Massachusetts Institute of Technology 
Seminar XXI program.
    1993 Who's Who in America in Science and Engineering.
    AIAA 1991 Congressional Fellow.
    AIAA 1991-1994 National Public Policy Committee.
    AIAA 1989-1991 Region IV Deputy Director for Public Policy.
    AIAA 1988-1989 Region II Director-at-Large for Young Member 
Activities.
    AIAA Atlanta Section 1988 Mini-Symposium Outstanding Young Engineer 
Award.
    1985-1987 Stanford University College of Engineering Fellowship.
    1986-1987 General Electric Foundation Fellowship.
    1986 Outstanding Young Men of America.
    1983-1984 Sam Nunn U.S. Senate Intern Program.
    1984-1985 AIAA/General Dynamics Scholarship.
    1980-1985 Georgia Tech Lowry, McLendon, Fitten and Towers 
Scholarships.
    Member of the Phi Kappa Phi, Tau Beta Pi, Sigma Gamma Tau, Phi Eta 
Sigma, and The Briarean Society.
    1984-1985 Briarean of the Year (Cooperative Education Honorary 
Society).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Proper Objectives for the Strategic Defense Initiative''; 
American Institute of Aeronautics and Astronautics Student Journal; 
fall 1985.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have attached for your review two copies of recent speeches that 
I have delivered in the past 5 years.
    [The nominee responded and the information is contained in the 
committee executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 John J. Young, Jr.
    This 3rd day of August, 2005.

    [The nomination of John J. Young, Jr., was reported to the 
Senate by Chairman Warner on October 27, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 28, 2005.]
                              ----------                              

    [Prepared questions submitted to J. Dorrance Smith by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. I agree with the emphasis in the Goldwater-Nichols Act 
on jointness and the establishment of unified and specified combatant 
commanders. The effectiveness of joint operations has been clearly 
demonstrated in OIF and OEF, and I witnessed it myself while working 
with the Coalition Provisional Authority in Iraq. I strongly support 
continued and increased efforts to improve the jointness of our 
military forces.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.

                             RELATIONSHIPS

    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense.
    Answer. I anticipate having daily interaction with the Secretary in 
order to remain abreast of his insights, priorities, and decisions. I 
will offer him my counsel on the full range of issues facing the 
department from a communication perspective. I will assist the 
Secretary in fulfilling the department's communications 
responsibilities to Congress, the general public, and--as importantly--
within the department to civilian and military personnel.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I anticipate my relationship with the Deputy 
Secretary will be much the same as my relationship with the Secretary 
of Defense.
    Question. The Under Secretaries of Defense.
    Answer. My role--and the role of the entire DOD Public Affairs 
team--would be to provide communications counsel to all levels in the 
department. Clearly, the Under Secretaries play a critical role as they 
are developing many of the policies that need to be shared with a 
variety of audiences, to include Congress.
    Question. The Assistant Secretary of Defense for Legislative 
Affairs.
    Answer. I know this department takes its obligation to keep 
Congress fully informed very seriously. If confirmed, I'll work very 
closely with Assistant Secretary Stanley on our communication 
obligations and efforts. It is critical we assist Secretary Rumsfeld in 
keeping Congress informed of important national security and defense-
related matters.
    Question. The DOD General Counsel.
    Answer. If confirmed, I anticipate regular interaction to ensure 
that our communication activities are consistent with regulation and 
statute. Also, the global war on terror imposes a responsibility upon 
us to communicate to Congress and the broader public the many unique 
legal aspects of this conflict.
    Question. The Service Secretaries.
    Answer. The service secretaries have a most important role in the 
department's internal communications responsibilities. They also 
interact regularly with Members of Congress and their staffs. If 
confirmed, I would work closely with them, and in close consultation 
with public affairs chiefs, to help them discharge this responsibility 
and to help ensure consistency and proper frequency of message.
    Question. The Joint Chiefs of Staff.
    Answer. As with the service secretaries, if confirmed, I would 
expect to work with the chiefs to help communicate with our forces. In 
addition, I would look forward to working with the chiefs to assist 
them in communicating the department's message to Congress and the 
public, as appropriate.
    Question. Senior Uniformed Officers Responsible for Public Affairs, 
including the Army's Chief of Public Affairs, Navy's Chief of 
Information; Marine Corps' Director of Public Affairs; and Air Force's 
Director of Public Affairs.
    Answer. If confirmed, I anticipate frequent interaction with the 
senior Public Affairs professionals from the Services. Together, we 
will work to find the best ways to gather facts and communicate 
information about the wide variety of programs and issues affecting the 
department and Services.
    Question. Pentagon Press Corps.
    Answer. I understand the importance of establishing a strong 
working relationship with the Pentagon Press corps. If confirmed I will 
work hard to ensure this relationship is based on mututal trust, 
fairness and respect.

                                 DUTIES

    Question. DOD Directive 5122.5 describes the responsibilities and 
functions of the Assistant Secretary of Defense for Public Affairs 
(ASD(PA)).
    What is your understanding of the duties and functions of the 
ASD(PA)?
    Answer. I understand the responsibilities of the position as 
outlined in the directive. In this position, if confirmed, I would 
serve as the principal staff assistant and advisor to the Secretary and 
Deputy Secretary of Defense for DOD news media relations, public 
information, internal information, community relations, public affairs 
and visual information training, and audiovisual matters.
    Question. Assuming you are confirmed, what changes, if any, in the 
duties and functions of ASD(PA) do you expect that the Secretary of 
Defense would prescribe for you?
    Answer. I do not anticipate changes in the duties and functions of 
the position as described in the directive.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My 22 years as a television network news producer and 
working journalist provides me with a comprehensive understanding of 
just how important it is to communicate fairly, accurately, and 
regularly with the American people, the DOD, and the Armed Forces.
    As a communications professional, I've developed a keen sensitivity 
to the importance of interaction and engagement with the media--
understanding the importance of being transparent, accurate, and 
credible.
    Finally, my service as the Senior Media Adviser with the Coalition 
Provisional Authority (CPA) in Iraq has given me a breadth and depth of 
exposure to the men and women in uniform that should help in my 
responsibilities to communicate the department's priorities both here 
in the United States and abroad.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next ASD(PA)?
    Answer. We must continue to communicate on a global and around-the-
clock basis, internally, to Congress, and to the public, the 
President's priorities in the global war on terror and the lessons of 
September 11. We must meet the challenge of communicating the U.S. 
goals, objectives, and activities in Afghanistan and Iraq, as those 
newly liberated countries continue their transition to sovereignty and 
self-rule.
    The significant U.S. military presence in both countries rightly 
focuses attention on U.S. and coalition activities, and the department 
has the responsibility, together with other departments and agencies of 
government, to properly communicate those activities.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I expect to build upon the work being done to 
communicate across the range of issues described above. The department 
conducts an aggressive program of communications and public outreach, 
and that must continue and evolve to match our changing circumstances. 
To better understand this I would travel to the region to analyze first 
hand the current communications challenges in the same manner as I did 
in 2003.
    I also intend, if confirmed, to place particular emphasis upon 
internal communications. I view our forces, their families, and the 
career civil servants who support them as crucial to the success of the 
department.

                            RESPONSIBILITIES

    Question. DOD Directive 5122.5 provides that the ASD(PA) shall 
``ensure a free flow of news and information to the news media, the 
general public, the internal audiences of the Department of Defense, 
and the other applicable for a, limited only by national security 
constraints . . . and valid statutory mandates or exemptions.''
    What guidelines would you use, if confirmed, to determine what 
information can and cannot be released to the news media and the 
public?
    Answer. The Department publishes Principles of Information, which 
are included as an enclosure to DOD Directive 5122.5. If confirmed, I 
would work to ensure that judgments we make regarding the dissemination 
of information are based upon the principles outlined.
    Question. If confirmed, how would you attempt to ensure that media 
representatives are given maximum access to ongoing military operations 
in Iraq and Afghanistan in order to be able to provide fair and 
accurate reporting?
    Answer. I would encourage news media to take full advantage of the 
embedding opportunities that exist. There is no substitute for that 
type of reporting--from the areas of operations where America's sons 
and daughters are serving freedom's cause . . . and also where our 
friends and allies are working to support security and stability in 
Iraq and Afghanistan. I would develop a comprehensive communications 
strategy designed to facilitate the coverage and maximize access for 
the media who face sever coverage obstacles in a war zone.
    Question. Aside from restrictions related to classified and 
sensitive-source materials, if confirmed, what restrictions, if any, 
would you apply in approving material prepared for release by DOD 
officials?
    Answer. As a general matter, the first principle of information is 
that it is ``DOD policy to make available timely and accurate 
information so that the public, Congress, and the news media may assess 
and understand the facts about national security and defense 
strategy.''
    There will be times when judgment is applied to a particular piece 
or class of information that warrants additional consideration on the 
basis of source, sensitivity of ongoing operations, the need to verify 
facts, and other factors. Judgments of this nature must be applied all 
the time, but the principle remains the same: accurate and fast.

            PRINCIPLES OF INFORMATION AND PRIVACY INTERESTS

    Question. Under the Principles of Information included in DOD 
Directive 5122.5, it is stated that ``information shall be withheld 
when disclosure would adversely affect national, security, threaten the 
safety or privacy of U.S. Government personnel or their families, 
violate the privacy of the citizens of the United States, or be 
contrary to law.'' The Privacy Act is one of the laws that controls 
access to information in government systems of records, however, it is 
unclear about what standards the Department applies in determining what 
information would violate citizens' privacy and should be withheld.
    What other standards, legal or otherwise, should be applied by the 
Department in determining what information relating to individuals who 
are involved in newsworthy incidents shall be made available to the 
public?
    Answer. These types of assessments and decisions often require the 
involvement of the department's Office of General Counsel. There's not 
a simple answer, because facts and circumstances dictate the response. 
A legal assessment is likely required. However, I know the department 
leadership believes in maximum disclosure, minimum delay consistent 
with privacy and security considerations.
    Question. Under what circumstances, if any, do you believe the 
Privacy Act would justify withholding from public disclosure 
information regarding actions taken by senior DOD officials in their 
official capacity?
    Answer. The DOD is interested in protecting the privacy of 
individuals consistent with U.S. law, to include DOD civilians, 
military members, and contractors. However, the Freedom of Information 
Act (FOIA) offers a vehicle by which information can be requested 
relating to official actions of DOD personnel. The department tries to 
strike the right balance between an individual's right to privacy and 
the public's right to know. Again, this often requires a legal 
assessment.
    Question. Under what circumstances, if any, do you believe the 
Privacy Act would justify withholding information from Congress?
    Answer. If confirmed, my focus would be on being responsive to 
Congress and the public. In those instances were I felt Federal statute 
or government directives are limiting my ability to do so, I would 
consult with department legal authorities for an assessment and 
guidance.

                        CURRENT NEWS EARLY BIRD

    Question. The ASD(PA) has responsibility for overseeing the 
operation of the online news clipping service known as the Early Bird. 
DOD officials have reportedly ordered that news magazine stories not be 
reprinted, that certain unclassified reports citing lessons learned 
from combat operations in Iraq be excluded, and have acknowledged that 
the Early Bird has an ``agenda-setting capacity.''
    What guidance or instructions, if any, do you believe should be 
implemented about which new articles should and should not be included 
in the Early Bird?
    Answer. Items should be timely and relevant to the overall policies 
and activities of the DOD. The Early Bird should not attempt to be a 
full compilation of all defense-related newspaper reporting, but rather 
to present a representative sampling.
    Question. Do you think that the Early Bird should purposefully be 
used to focus attention on certain issues and divert attention from 
others?
    Answer. No. It should provide defense leadership with an impartial 
monitor of the day's defense-related newspaper news and opinion.
    Question. What policy would you follow, if confirmed, in providing 
news analysis and in determining which news media reports should be 
included in the Early Bird?
    Answer. These Services are first and foremost management tools to 
assist the senior leadership of the department discharge their 
responsibilities. If confirmed, I expect to emphasize the importance 
that these tools focus on timely, fact-based information. I would also 
look to ensure that such information that is not otherwise widely or 
readily available be included.
    There are broad guidelines established to ensure that these 
products include timely, accurate information, but judgment is applied 
at various levels within the OASD(PA) to ensure the products are useful 
to senior decisionmakers in the department.

                           STARS AND STRIPES

    Question. Stars and Stripes is an independent news organization, 
but it is also authorized and funded in part by DOD. In the past, 
representatives of the Society of Professional Journalists have 
asserted that OSD and the American Forces Information Service (AFIS) 
have attempted to improperly use command influence in shaping the 
editorial content of the Stars and Stripes newspapers and Web site.
    In your opinion, what is the appropriate journalistic role of the 
Stars and Stripes newspapers and internet-based outlets within the DOD?
    Answer. The Stars and Stripes is an important vehicle to help 
provide broad-based news and information to our forces. I believe the 
paper has a particular responsibility to focus on forward-deployed 
forces that do not have good access to other sources of news and 
information. While I was serving in Iraq I aided Stars and Stripes to 
help increase their distribution in Iraq.
    I am unaware of any attempts in the OSD to shape the editorial 
content of the Stars and Stripes nor would I support any attempts to do 
so.
    Question. What is your understanding of the role and 
responsibilities of the ASD(PA) and the Director of AFIS with regard to 
the operation of and reporting in the Stars and Stripes newspapers?
    Answer. The Director of AFIS has certain management oversight 
responsibility for Stars and Stripes, and the ASD(PA) exercises 
authority, direction, and control over the Director of AFIS. If 
confirmed, I would help ensure that the paper operates within its 
budget and provides quality news and information to our forces, with 
principal focus on those forces forward deployed who do not have access 
to a wide variety of other news and information sources.
    Question. What is your understanding of the most significant 
changes in the operations of the Stars and Stripes brought about by the 
findings and recommendations of the Transformation Working Group in 
2003?
    Answer. The shift in Germany from running its own printing 
operation to contracting it out. Greater mobility to match the more 
mobile military, including increased use of technology such as digital 
printers, printing press that can be moved to different locations, and 
shifting resources and assets quickly. Consolidating resources to 
reduce redundancies. Closer attention to efficiencies, such as cutting 
newsprint waste and measuring returns more closely. Primary emphasis on 
serving deployed troops, especially in the Middle East.
    Question. The governing directive for Stars and Stripes newspapers 
and business operations is DOD Directive 5122.11.
    What aspects of DOD Directive 5122.11, if any, require change?
    Answer. If confirmed, I will undertake to review the directive to 
determine if any changes are required. It is my understanding that the 
operations of the Stars and Stripes as envisioned in the directive, to 
be managed as two papers under the European and the Pacific Command 
Commanders, have been combined into a single paper under the Office of 
the ASD(PA). That reorganization is not reflected in the current DOD 
Directive, which pre-dates the reorganization.
    There may be other areas requiring review and possible updating of 
the DOD Directive. For example, we may seek methods to allow Stars and 
Stripes to deliver content worldwide. The current directive limits the 
focus to personnel overseas. Stars and Stripes often contains important 
military information and it is worth considering whether there is a way 
to expand the service to forces stationed within the United States.
    I am mindful of the potential sensitivities of this notion, but 
those sensitivities should be balanced against the objective of 
communicating tour forces and their families as broadly and effectively 
as possible, and also the prospects for increased efficiencies and 
reduced operating costs for the paper. With more and more Stateside 
units deployed overseas, families, friends and those left behind have a 
greater desire than ever for the information Stars and Stripes provides 
about the troops stationed abroad.
    We might also consider how the paper is funded, especially in 
contingency locations. The directive puts the responsibility of 
supplying the paper on the combatant commands. This may or may not be 
the optimal solution but it bears some review to ensure that we have 
chosen the best approach to ensure the broadest distribution of the 
paper to forward deployed forces.

                      STARS AND STRIPES OMBUDSMAN

    Question. The Stars and Stripes Ombudsman serves as an independent 
advocate for the First Amendment rights of the paper's reporters and 
staff, as well as an intermediary between the staff, the Defense 
Department, the military commands and the readers.
    Do you support the assignment of an independent Ombudsman for Stars 
and Stripes?
    Answer. I do.
    Question. What guidance would you provide, if confirmed, with 
regard to the role, responsibilities and functions of the Stars and 
Stripes Ombudsman?
    Answer. If confirmed, I will work with the Stars and Stripes 
Ombudsman. I would expect to depend upon him to provide advice and 
counsel on the proper functioning of the paper as we seek to ensure it 
fulfills its role as a provider of news and information to our forces, 
particularly those forward deployed with less access to other sources 
of news and information.

                       STARS AND STRIPES FUNDING

    Question. Rising costs of producing a newspaper, competition with 
the internet and commercial news sources, and budgetary pressures to 
cut costs have raised questions about the level of support that the 
Department and military commanders throughout the chain of command 
should give to Stars and Stripes.
    In your opinion, what efficiencies, if any, regarding business 
operations, operating expenses, sources of income, and DOD guidance 
regarding command sponsorship of need to be implemented to achieve more 
effective and efficient operations.
    Answer. I have not made a detailed study of the matter. The 
transformation working group made several recommendations in these 
areas that may be helpful. There are a number of areas in which 
efficiencies can be explored, including the use of technology to reduce 
production and distribution costs, potential distribution partnerships 
with other distributors, increased advertising opportunities, reduced 
operating expenses by ceasing unnecessary or marginal operations, 
revenue generation through printing and production services, and other 
possible and appropriate business opportunities.
    In my view, the management of the paper should aggressively seek 
every possible efficiency and revenue source prior to contemplating an 
increase in appropriated funds.

                  PRESS COVERAGE OF COMBAT OPERATIONS

    Question. During Operations Enduring Freedom and Iraqi Freedom, 
representatives of the press were embedded in operational units in 
order to provide front line coverage.
    What is your assessment of the practice of embedding reporters in 
Operation Iraqi Freedom?
    Answer. My impression is embedding is a very successful program. It 
has provided the public an opportunity to receive much better insight 
into the skill, courage, and professionalism of our Armed Forces than 
may otherwise have been possible had the embedding program not existed. 
It also gave a large number of journalists a much better understanding 
of the same thing, and that can only help to ensure more accurate 
defense-related journalism in the future.
    It was also win-win for the media and military--it increased levels 
of understanding between both of these professions and ensured accurate 
and timely information about military operations to the public.

                     SAFETY OF JOURNALISTS IN IRAQ

    Question. The Committee to Protect Journalists (CPJ) asserted in 
September 2005 that U.S. forces in Iraq have routinely detained 
reporters and photojournalists in Iraq for prolonged periods without 
justification. The CPJ has also expressed concern about dangers to 
journalists in Iraq as a result of checkpoint procedures currently in 
use. In response to a request by the Chairman of the Senate Armed 
Services Committee, Secretary Rumsfeld and General George Casey, USA, 
the Commander of the Multinational Force-Iraq, stated they would take 
the concerns of the CPJ under consideration.
    What is your understanding of the status of the review by Secretary 
Rumsfeld and General Casey?
    Answer. I'm told this review is ongoing . . . it has yet to be 
completed. I do know the concerns of the Committee to Protect 
Journalists have been taken seriously. I believe everyone understands 
the danger posed in an environment where insurgents and terrorists have 
been a persistent threat. If confirmed, I will continue the work being 
done to address this issue.
    Question. If confirmed, what role, if any, would you expect to play 
in addressing the concerns of the CPJ and other media sources about 
policies affecting journalists in Iraq and Afghanistan?
    I am very aware and sensitive to the challenges the media face in a 
war zone. I will travel to the area and analyze what current steps can 
be taken to facilitate their ability to cover the story. I did a 
similar analysis in 2003 which led to credentialing both U.S. and 
International media and the creation of the International Filing 
Center. The current situation on the ground has changed and I am 
committed to finding solutions to their current problems.

                       FREEDOM OF INFORMATION ACT

    Question. If confirmed, what would your role and responsibilities 
be with regard to the FOIA?
    Answer. If confirmed, I would do my part to ensure that information 
sought under the act be released--as appropriate based upon 
classification or other factions contemplated in the act--as 
expeditiously and completely as possible.
    Question. If confirmed, what responsibilities would you have under 
the Privacy Act and how would you fulfill those responsibilities?
    Answer. Public officials across government have an obligation to 
respect and protect the privacy of individuals. The need to provide 
information to the public quickly and accurately in accordance with the 
principles of information must always take into account with the 
importance we must attach to not invading the privacy of individuals as 
a result of disclosing that information.
    If confirmed, I will work to ensure that the department's 
communications and public affairs personnel understand their 
obligations and that training is available to ensure that.

              AMERICAN FORCES RADIO AND TELEVISION SERVICE

    Question. DOD Regulation 5120.20-R includes in the mission of the 
American Forces Radio and Television Service (AFRTS) a responsibility 
``(t)o provide U.S. military members, DOD civilians, and their families 
stationed outside the Continental United States (CONUS) and at sea with 
the same type and quality of American radio and television news, 
information, sports, and entertainment that would be available to them 
if they were in the CONUS.'' In describing policy for political 
programming, this regulation states ``All AFRTS political programming 
shall be characterized by its fairness and balance.''
    What is your understanding of the term ``political programming'' as 
used in DOD Regulation 5120.20-R?
    Answer. ``Political Programming'' is programming on radio and 
television that primarily provides a discourse of the political issues 
of the day. I understand that the AFRTS policy is to provide a balance 
and diversity of political programming (e.g. provide all nationally 
broadcast political debates).
    Question. What is your understanding of the process and procedures 
used to select political programming broadcast on the AFRTS network?
    Answer. AFRTS is responsible to select programming, political as 
well as all others, which represents a cross-section of popular 
American radio and television, tailored toward the AFRTS worldwide 
audience. Schedules on AFRTS emulate stateside programming practices, 
and programs are aired in accordance with network broadcast standards 
and national acceptance (e.g. ratings and nationwide carriage).
    Question. If confirmed, how will you ensure that the requirement 
for fairness and balance in political programming is fulfilled?
    Answer. I would review the current program schedule to ensure that 
it complies with DOD regulations for ``fairness and balance'' in 
political programming. I have extensive experience in political 
programming and I have always been committed to providing audiences 
with a broad range of divergent and credible opinion and discourse.

                  AMERICAN FORCES INFORMATION SERVICE

    Question. American Forces Information Service (AFIS) produces news, 
feature articles, and TV reports on all aspects of military life. These 
products focus on what senior defense leaders are saying on all aspects 
of military life. News and feature articles are uploaded throughout the 
day, 7 days a week. TV news reports are available daily on the Web and 
are broadcast on the Pentagon Channel.
    What long term goals should the Department support for AFIS?
    Answer. As noted earlier in my responses, internal communications 
is crucial to the department's success.
    If confirmed, the Secretary of Defense, under the authority in 
title 10, will task me to oversee and manage the AFIS. With this 
organization, I will be better able to support and manage my 
department-wide responsibilities.
    With ever-tightening budgets and increasing missions, this Defense 
Field Activity is authorized by Congress to provide the department with 
economies of scale. This will be accomplished by providing, as a common 
service, support to not only the immediate requirements of the 
Secretary of Defense but also those of the entire department.
    The AFIS has proven in the past to be instrumental in initiating 
new methods, practices and technologies, and as the world grows 
smaller, I will continue to rely on this organization to remain out 
front so that we may be better prepared to serve the needs of the 
department.
    Question. If confirmed, would you support expanding or increasing 
AFIS services under the fiscal year 2005 future years defense plan?
    Answer. If confirmed, I will examine the capabilities we have to 
provide news and information to our military at home and overseas and, 
balancing that against other priorities within my area of 
responsibility, do what I can to ensure we are doing the best we can in 
this important area of internal communications.
    Information is fragile and it must be a priority to ensure we work 
to deliver it accurately and on time to our personnel. I believe there 
is much we can do to expand services to meet this challenge.
    As I have said, my desire is to build upon the present and, if 
confirmed, I will use the AFIS as the architect and engineer to design 
and build the future. If you confirm me, our strategy will be to 
actively incorporate the consolidations and relocations that have been 
started by the BRAC 2005 process. These improvements and this growth 
will take several years of constant nurturing to reach fruition. Until 
we reach that end, I don't foresee further expansion of the DOD Field 
Activity.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Public Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Question Submitted by Senator John Warner

                          ARAB SATELLITE NEWS

    1. Senator Warner. Mr. Smith, on April 26, 2005, you wrote an 
article for the Wall Street Journal (WSJ) titled ``The Enemy on our 
Airways.'' In the article you stated that ``. . .Al--Jazeera continues 
to aid and abet the enemy. . .'' Have you ever stated or written that 
U.S. broadcast networks have aided or abetted terrorists by airing 
video that first appeared on the Arab satellite news channel? Do you 
believe this to be the case?
    Mr. Smith. I have never written or stated that the United States 
networks aid and abet terrorists by airing video that first appeared on 
the satellite news channel Al Jazeera. I did write an Op Ed piece in 
April 2005 for the WSJ which raised a number of questions following the 
airing of hostage video by Al Jazeera and all six U.S. news networks. 
In that piece I wrote, ``the battle for Iraqi hearts and minds is being 
fought over satellite TV. It is a battle we are losing badly. I wrote, 
``As long as Al Jazeera continues to aid and abet the enemy, as long as 
we are fighting a war on the ground and in the airwaves, why are we not 
fighting back against Al Jazeera. . .''
    My past experiences running the Iraq Media Network in Baghdad gave 
me insight into the communications strategy of our enemy. Raising the 
tactics of the enemy in a newspaper piece was an effort lo spur public 
discourse. I believe the public, the networks and policymakers should 
examine the tactics of the enemy including providing video to the Arab 
satellite network with the knowledge that it will be broadcast in the 
United States as well. Understanding the communications strategy of the 
enemy is a prerequisite to developing a communications strategy that is 
effective. In the WSJ, I was not writing as a policymaker or government 
official, nor was I a candidate for the Public Affairs job at the 
Pentagon.
    Newspaper accounts that I believe the U.S. networks aid and abet 
terrorists are incorrect. When asked at the confirmation hearing ``But 
you think it's a fair characterization now to say that the networks in 
the United States aid and abet terrorists by showing that.'' I said, 
``No, I do not.'' That is and always has been my belief.
    I worked in network television for over 22 years and I maintain a 
professional working relationship with the today. During my 9 months 
with the CPA in Iraq, I worked very closely with U.S. networks to meet 
their coverage needs. Most recently I was a media consultant to the 
United Stales Senate for the Joint Congressional Committee for 
Inaugural Ceremonies (JCCIC). For 4 months I represented that 
institution to the U.S. network pool with the aim of producing the best 
event for event for both parties. After the inauguration Tom Shales 
wrote in the Washington Post, ``ABC's Peter Jennings noted that for the 
relatively few viewers able to see them in high-definition TV, the 
images were often ``fabulous.'' Indeed they were.''
    As a network executive I appreciate the difficult decisions facing 
journalists during wartime especially potential conflicts between 
journalistic integrity and national security. If confirmed, I look 
forward to conducting my relationship with U.S. networks in a 
professional and respectful manner as I did when working in Iraq for 9 
months and for JCCIC. I also look forward to working closely with this 
committee on these important issues.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                               MEDIA BIAS

    2. Senator Inhofe. Mr. Smith, during my recent trips to Iraq I have 
met many soldiers and marines who believe the media coverage is 
unbalanced. They want to know why the media is not telling the many 
success stories that are occurring over there. One soldier, Army LTC 
Tim Ryan, said it very well in an article printed in WorldTribune.com: 
``The inaccurate picture they paint has distorted the world view of the 
daily realities in Iraq. The result is a further erosion of 
international support for the United States' efforts there, and a 
strengthening of the insurgents' resolve and recruiting efforts while 
weakening our own. Through their incomplete, uninformed and unbalanced 
reporting, many members of the media covering the war in Iraq are 
aiding and abetting the enemy.'' Our enemy knows this and is 
concentrating on it. It is essential to their strategy that they 
continue to intimidate millions while their capabilities are actually 
very small. The tool they use is the media. Let me quote from a letter 
that we intercepted from Bin Laden's deputy, Zawahiri, which was sent 
to the leader of the insurgency in Iraq, Zarqawi: ``I say to you: that 
we are in a battle, and that more than half of this battle is taking 
place in the battlefield of the media.'' Al Qaeda realizes the 
importance of the media in shaping opinion and winning the people. So 
why are we letting them?
    Mr. Smith. Senator, I believe that al Qaeda has a very 
sophisticated media strategy which, when effective, threatens our 
national security. I believe we must engage the enemy on the airwaves, 
in print and over the internet. We are truly in a flat world from a 
communications standpoint and we need a strategy that recognizes that 
reality. When communicating in the Arab world we must be sensitive to 
their cultures and traditions. One thing I learned during my 9 months 
in Iraq is that the Iraq audience is different from other Arab 
countries. We must communicate in terms that the indigenous audience 
understands. Our best messengers are the men and women of the armed 
forces and the job they are doing. If confirmed I would take on the 
challenge of creating a comprehensive media strategy to tell their 
story in an open and honest way--combating the distortions perpetrated 
by the enemy.

    3. Senator Inhofe. Mr. Smith, the fact is that we are having many 
successes over there. Positive stories are all over the place. When I 
was there I saw children waiving American flags as we passed over head 
in a helicopter. One hardened anti-American Iraqi battalion commander 
trained along side U.S. Marines and was so enamored that he changed the 
name of his unit to the ``Fallujah Marines.'' But we don't hear about 
this sort of thing. Instead, the media continues to speculate about the 
legalities of Saddam's trial or makes groundless allegations that U.S. 
troops staged an interview with President Bush. I hate to admit it, but 
this negative preoccupation is affecting the American people and 
ultimately our warfighter. Soldiers have also told me that they get a 
sense that even here in Congress there is a lack of support; from my 
perspective I know that the cut-and-run caucus is alive and well. A few 
of them said to me that ``it's nice to see we have someone on our side 
up on the Hill,'' and I take that as a very deep compliment. They tell 
me how they are taking the fight to the enemy and making progress every 
day. If it comes to believing what I read in the paper or see on 
television, versus listening to what someone on ground is actually 
seeing, I think it's our young men and women there in Iraq who have it 
right. We need to get the media to start telling the truth about what's 
going on over there. How can the military get the real story out there?
    Mr. Smith. Senator, ``to get the real story out'' we must get the 
journalist to the story or the story to the journalist. The security 
challenges of doing this in a war zone arc great, but it can be done. 
If confirmed I would recommend reinvigorating the embed program which 
worked so well in 2003. We need to ensure we have the technical 
capability to broadcast briefings and transmit video on a 24/7 real 
time basis from the theatre. We need to address the logistical issues 
that journalists have including access in and out of the green zone. I 
would also recommend that DOD public affairs have a full lime presence 
in the region who's sole responsibility would be to manage these issues 
working closely with our embassy and MNF-I. We should also be more 
aggressive in highlighting our successes. Whether on TV, radio, print, 
or the internet we need to tell the success stories as they happen. I 
believe we need to organize more delegations to tour the region. The 
more they see first hand the more credible the story.

    4. Senator Inhofe. Mr. Smith, what can we do to change the negative 
bias of the media, and if you are confirmed, how will you work towards 
that?
    Mr. Smith. Senator, the best antidote to media bias is honesty and 
transparency. I believe that ``in the end the truth will out.'' If 
confirmed I commit to using all the resources here and in theatre to 
this end. After traveling to the region [ would develop a comprehensive 
communications strategy in coordination with our people in the region 
and my counterparts in the United States government. Highlighting the 
metrics of success in an open and honest way is a public affairs 
function. The issues raised in your previous questions would be the 
one's we'd begin with. I look forward to working with this committee on 
these goals.
                                 ______
                                 

             Question Submitted by Senator Daniel K. Akaka

               MEDIA RELEASE ON ENEMY DEATH TOLLS IN IRAQ

    5. Senator Akaka. Mr. Smith, as the Assistant Secretary of Defense 
for Public Affairs, part of your responsibility would be to advise the 
Secretary and Deputy Secretary of Defense for DOD news media relations, 
community relations, and public information. As such, I am curious 
about a question asked by the media regarding the enemy death tallies 
in Iraq in 2003, when Secretary Rumsfeld said that ``We don't do body 
counts on other people,'' but yet we are now hearing that the 
Department is releasing certain enemy death tolls from as recently as 
October 22, 2005. While I understand that you were not involved with 
the Secretary's response in 2003, I am concerned that the Department is 
releasing this information for the wrong reasons because it may benefit 
the Department's effort to show that progress is being made in Iraq. 
Why did the Department change its policy, internal or not, to release 
enemy death tolls in certain U.S. military operations in Iraq?
    Mr. Smith. Senator, it is my understanding that no policy change 
has taken place with respect to releasing enemy death lolls. I've been 
informed that on rare occasions DOD has reported estimated enemy 
casualties to give context and understanding to a specific operation. 
If confirmed, I would travel to the region and would pursue this issue 
and would be happy to report back what I find.
                                 ______
                                 
    [The nomination reference of Dorrance Smith follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 22, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dorrance Smith, of Virginia, to be an Assistant Secretary of 
Defense, vice Victoria Clarke.
                                 ______
                                 
    [The biographical sketch of Dorrance Smith, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of Dorrance Smith

    Dorrance Smith is a four-time Emmy award winning television 
producer, political consultant, and media strategist who has worked 
over 30 years in television and politics.
    Mr. Smith spent 9 months in Iraq in 2003-2004 where he served as 
Senior Media Adviser to Ambassador Paul Bremer. He was responsible for 
developing a state-of-the-art communications facility in Baghdad for 
the Coalition Provisional Authority and a public diplomacy strategy for 
the United States Government. In addition, Mr. Smith was asked to 
overhaul the fledgling Iraqi Media Network. By April 2004, this effort 
was deemed so successful that the terrestrial channel--Al Iraqiya--was 
launched on satellite. For his efforts he was awarded the Secretary of 
Defense Medal for Exceptional Public Service.
    More recently he has been a consultant to the Joint Congressional 
Committee on Inaugural Ceremonies and the 2004 Republican National 
Convention.
    A four-time Emmy Award winning ABC News and Sports producer, he has 
held a number of positions at the network, including serving as the 
first executive producer of ``This Week with David Brinkley.''
    From 1989 until 1991, Smith was the executive producer of ABC News 
``Nightline.'' During his tenure he was responsible for the weeklong 
``Nightline'' series originating from South Africa, which covered the 
release of Nelson Mandela. The broadcasts won an Emmy award. In 
addition he served as executive producer of the prime time special 
``Tragedy at Tiananmen--The Untold Story,'' which was honored with the 
duPont Columbia University Award, the Overseas Press Club Award, and an 
Emmy. ``Nightline'' also won an Emmy in 1991 for outstanding news 
coverage of the Iraqi invasion of Kuwait.
    Prior to his work on ``Nightline,'' Smith was the executive 
producer of the number one rated Sunday public affairs program, ``This 
Week with David Brinkley,'' a post he held from the program's inception 
in 1981 until 1989. During his tenure the broadcast received the first 
Joan Barone Award, the George Foster Peabody Award, and was named the 
Best National TV Interview Discussion Program by the readers of the 
Washington Journalism Review.
    In 1991, Smith left ABC News to become assistant to the President 
for Media Affairs at the White House. In this capacity Smith handled 
all television and radio events involving President Bush, members of 
the White House staff and Cabinet. In addition his office handled all 
regional media; coordinated media strategy for administration officials 
seeking confirmation; and organized the debate preparation during the 
1992 political campaign.
    In 2001, Smith was designated by FEMA Director Joe Allbaugh to 
handle all media following the events of September 11. In this capacity 
Smith was responsible for FEMA's media strategy for print, radio and 
television. Smith organized and distributed the now famous FEMA video 
feeds from Ground Zero. He reorganized the Public Affairs Office to 
meet the post September 11 media demands.
    At ABC News, Smith became executive producer of all weekend news 
programming in 1980. He was responsible for the production and 
programming of ``World News Saturday,'' ``World News Sunday,'' ``The 
Weekend Report,'' and ``The Health Show.''
    Prior to his weekend assignment, Smith was Washington producer of 
ABC News' ``The Iran Crises: America Held Hostage.'' He also served as 
ABC News Senior Producer at the 1980 Winter Olympics, the 1984 Winter 
and Summer Games, and the 1988 Winter Olympics in Calgary.
    From 1978-1979, Smith served as ABC News' White House producer. 
Smith joined ABC News as a Washington producer in 1977. Previously he 
was staff assistant to President Gerald Ford.
    He began his broadcasting career at ABC Sports in 1973 as an 
assistant to the producer. In 1974 he was made Manager of Program 
Planning for ABC's Wide World of Sports.
    Smith is a member of the Advisory Council for the George Bush 
Library in College Station, Texas.
    He graduated from Claremont Men's College in 1973 with a Bachelor 
of Arts degree. He lives in McLean, Virginia.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dorrance Smith 
in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Dorrance Smith.

    2. Position to which nominated:
    Assistant Secretary of Defense for Public Affairs.

    3. Date of nomination:
    September 22, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 25, 1951; Houston, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    St. John's School (1956-1969) Houston, Texas, High School Degree, 
1969.
    Claremont Men's College (1969-1973) Claremont, CA, B.A. Degree.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    [The nominee responded and the information is contained in the 
committee's executive files.]

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1991-1993--Assistant to the President for Media Affairs--The White 
House.
    1975-1977--Staff Assistant to the President--The White House.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Consultant--Office of Secretary of Defense.
    Advisory Counsel--George H.W. Bush Library.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member--Washington Golf & Country Club.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    2004 Consultant--Republican National Committee.
    2000 Consultant--Bush-Cheney 2000 Florida Recount.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    [The nominee responded and the information is contained in the 
committee's executive files.]

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    The Enemy on Our Airwaves--Wall Street Journal, April 25, 2005.
    A Two-Fer Running Mate--Washington Post, July 4, 2000.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 J. Dorrance Smith.
    This 5th day of October, 2005.

    [The nomination of Dorrance Smith was reported to the 
Senate by Chairman Warner on December 19, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 7, 2006.]
                              ----------                              

    [Prepared questions submitted to Delores M. Etter by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions based on your experience in the DOD?
    Answer. I do not. The civilian and military roles defined in the 
Goldwater-Nichols Act produce a healthy tension that balances 
warfighting needs with taxpayer interests. There is, however, always a 
benefit to periodic reviews. This is especially true given the dynamic 
nature of world events.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not believe that modifications are necessary. I would 
however, recommend that any periodic review examine processes within 
the acquisition system to consider any forms of modification within 
that system.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy for Research, Development, and 
Acquisition (ASN(RDA))?
    Answer. It is my understanding that, at the present time, the 
ASN(RDA) serves as the Navy Acquisition Executive and has the 
authority, responsibility, and accountability for all acquisition 
functions and programs within the Department of the Navy.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. The systems and platforms in the acquisition process today 
contain new technologies that will give our warfighters a critical edge 
in accomplishing their missions. I have a strong technical background 
that includes digital signal processing, communications, and software 
engineering; this background will support technical judgments that I 
will need to make, if confirmed. In addition, I was a member of the 
Naval Research Advisory Committee (NRAC) for 7 years, and chaired the 
committee for two of those years. During that time, I had opportunities 
see most of the Navy's platforms first-hand, and to talk to the men and 
women responsible for the weapon systems. I have visited SYSCOMS, 
Warfare Centers, shipyards, and research centers; I have visited 
foreign Navy programs to understand the differences between their 
acquisition processes and our process. I participated in a number of 
NRAC studies that looked at various acquisition components. For 
example, I was a member of a study that made recommendations on how to 
reduce manning on ships, and I chaired a study that evaluated ways in 
which modeling and simulation could help the acquisition process. My 
previous experience as the Deputy Under Secretary of Defense for S&T 
and my work for Dr. Gansler, the Under Secretary of Defense for ATL, 
gave me further insight into the acquisition process. I have also been 
on the Defense Science Board for the past 4 years, and have stayed 
current with the broad range of issues challenging Office of the 
Secretary of Defense (OSD) and the Services.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the ASN(RDA)?
    Answer. I am professionally and technically prepared to assume the 
duties of the ASN(RDA). If confirmed, I expect to have a close working 
relationship with the Secretary of the Navy and the Under Secretary of 
the Navy. I would be aided in my duties with the expertise resident in 
the strong acquisition management team that currently exists within the 
Department. However, where opportunities exist for strengthening the 
team; I would seek to do so with members of the career workforce as 
well as individuals from industry and academia.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense and the Secretary of the Navy 
would prescribe for you?
    Answer. At this time, I am not aware of any other additional duties 
and responsibilities other than those noted in existing DOD and 
Department of the Navy instructions.

                             RELATIONSHIPS

    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of the Navy.
    The Under Secretary of the Navy.
    The Chief of Naval Operations.
    The Commandant of the Marine Corps.
    The Under Secretary of Defense for Acquisition, Technology, and 
Logistics.
    The Assistant Secretaries of the Army and Air Force for 
Acquisition.
    The General Counsel of the Navy.
    Answer. If confirmed as the ASN(RDA), I plan to establish and 
maintain close relationships with each of those identified above to 
execute the best possible acquisition program for the Department.
    Question. The Secretary of the Navy/Under Secretary of the Navy.
    Answer. The Secretary of the Navy has explicit authority to assign 
such of his powers, functions, and duties, as he considers appropriate 
to the Under Secretary of the Navy and to the Assistant Secretaries. It 
is my understanding that the Secretary of the Navy has made the 
ASN(RDA) responsible to establish policy, procedures as well as manage 
all research, development, and acquisition with the Navy. Additionally, 
ASN(RDA) serves as the Navy's Service Acquisition Executive and Senior 
Procurement Executive. If confirmed, I will work closely with the 
Secretary and Under Secretary in furtherance of these assignments and 
duties.
    Question. The Chief of Naval Operations (CNO)/Commandant of the 
Marine Corps.
    Answer. If confirmed, I plan to establish close working 
relationships with the operational side of the Navy and Marine Corps 
Team, the CNO and the Commandant of the Marine Corps, to provide 
sailors and marines with the required systems and platforms that are 
effective, reliable, and affordable.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed as the ASN(RDA), I would represent the 
Department of the Navy to the Under Secretary of Defense on all matters 
relating to Navy acquisition policy and programs. In addition, the 
ASN(RDA), as the Service Acquisition Executive, provides 
recommendations on all Navy ACAT ID programs to the Under Secretary of 
Defense.
    Question. The Assistant Secretaries of the Army and Air Force for 
Acquisition.
    Answer. If confirmed, I plan to establish close working 
relationships with my counterparts in the Army and the Air Force to 
ensure coordination on key acquisition issues.
    Question. The General Counsel of the Navy.
    Answer. If confirmed, I expect to seek advice and counsel from the 
Navy's Chief Legal Officer on all relevant matters.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would confront, if confirmed as ASN(RDA)?
    Answer. I believe the most important challenge facing the 
Department of the Navy today is how to maintain our Nation's naval 
forces in view of the global war on terror, the diverse and evolving 
threats, and today's fiscal realities. If confirmed as the ASN(RDA), my 
challenge will be to integrate the research, development, and 
acquisition functions in the context of this complex equation. These 
critical challenges include maintaining our technical advantage over 
all adversaries, developing affordable systems and platforms, and 
maintaining a viable technological and industrial base.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will be an active participant in the 
acquisition reform and streamlining initiatives being undertaken by the 
Secretary of Defense and the Secretary of the Navy. Only through 
comprehensive actions can the barriers between the defense and 
commercial sectors of the economy be reduced or eliminated. Better 
integration of the defense and commercial sectors will leverage our 
Nation's technology base and reduce overhead costs. Additionally, if 
confirmed, I will work to ensure that the Navy and Marine Corps Team 
establish an appropriate balance between resources and requirements. 
Once this balance is achieved, it will be important to properly fund 
the development and production efforts and avoid the funding 
disruptions that add serious inefficiency to fielding new capabilities. 
In addition, I will work to continue efforts to measure the value 
delivered for each investment and procurement dollar.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the ASN(RDA)?
    Answer. At this time, I am unaware of any serious problems in the 
performance of the functions of the ASN(RDA).
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If problems were to arise, I would do my best to resolve 
problems as expeditiously as possible to maintain the integrity of the 
acquisition process.

                               PRIORITIES

    Question. What broad priorities would you establish, if confirmed, 
in terms of issues, which must be addressed by the ASN(RDA)?
    Answer. If confirmed, I will work hard to address the priorities 
determined by the Secretary of the Navy.

                           ACQUISITION ISSUES

    Question. In recent months, a number of DOD officials have 
acknowledged that the Department may have gone too far in reducing its 
acquisition work force with the result of undermining its ability to 
provide needed oversight in the acquisition process.
    Do you agree with this assessment?
    Answer. I understand that the Department of the Navy acquisition 
workforce has been reduced by over half since 1989. I am personally 
very concerned about both the size and the composition of the 
workforce. If confirmed, I plan to review the size and skill mix of 
those required to effectively manage programs, and work to improve the 
Department's acquisition workforce.
    Question. If so, what steps do you believe the Department of the 
Navy should take to address this problem?
    Answer. I believe the Navy must continue efforts to improve the 
process we use to identify acquisition position requirements, and to 
ensure incumbents are fully prepared and qualified to deliver 
warfighting capability effectively and efficiently. If confirmed, a top 
priority will be to assure that the Department acquisition workforce is 
properly oriented to efficiently and effectively execute acquisition 
programs.
    Question. Major defense acquisition programs in the Department of 
the Navy and the other military departments continue to be subject to 
funding and requirements instability.
    Do you believe that instability in funding and requirements drives 
up program costs and leads to delays in the fielding of major weapon 
systems?
    Answer. Yes, funding and requirement changes are a primary cause of 
most program cost increases and schedule delays.
    Question. What steps, if any, do you believe the Department of the 
Navy should take to address funding and requirements instability?
    Answer. I believe the Department of the Navy needs to plan out-year 
requirements to realistic budget limits and make the hard decisions 
upfront. For example, it is my understanding that the CNO has 
reinstated the Naval Characteristics Board. I believe that this, along 
with effective utilization of the change control processes, is an 
excellent first step toward establishing requirement stability. If 
confirmed, I intend to work closely with the CNO and the Commandant of 
the Marine Corps to insure a high degree of synergy among the 
requirements, acquisition, and programming communities.
    Question. The Comptroller General testified earlier this year that 
DOD programs often move forward with unrealistic program cost and 
schedule estimates, lack clearly defined and stable requirements, 
include immature technologies that unnecessarily raise program costs 
and delay development and production, and fail to solidify design and 
manufacturing processes at appropriate junctures in the development 
process.
    Do you agree with the Comptroller General's assessment?
    Answer. Based on my limited contacted with recent program 
performance, this unfortunately appears to be the case.
    Question. If so, what steps do you believe the Navy should take to 
address these problems?
    Answer. I believe that before committing large expenditures, the 
Department must ensure that requirements have matured, design 
alternatives have been fully examined, and realistic cost schedule and 
risk assessments have been prepared. As such, collaboration between the 
requirements, budgeting, and acquisition communities needs to be 
stressed early in the program formulation stage to ensure there is a 
realistic balance. Furthermore, development programs must incorporate 
risk reduction efforts commensurate with the technology maturity levels 
in evidence. If confirmed, I intend to work closely with the CNO and 
the Commandant of the Marine Corps to insure a high degree of synergy 
among these communities.

                          CONTRACT MANAGEMENT

    Question. By some estimates, the DOD now spends more money every 
year for the acquisition of services than it does for the acquisition 
of products, including major weapon systems. Yet, the Department places 
far less emphasis on staffing, training, and managing the acquisition 
of services than it does on the acquisition of products.
    What steps, if any, do you believe the Navy and Marine Corps should 
take to improve the staffing, training, and management of its 
acquisition of services?
    Answer. I understand the Department of the Navy has already taken 
significant steps to improve the management of services. If confirmed, 
I intend to better understand these activities and to continue to 
ensure that service acquisition receives the appropriate level of 
management attention.
    Question. Do you agree that the Navy and Marine Corps should 
develop processes and systems to provide managers with access to 
information needed to conduct comprehensive spending analyses of 
services contracts on an ongoing basis?
    Answer. Yes.
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. The DOD is by far 
the largest ordering agency under these contracts, accounting for 85 
percent of the dollars awarded under one of the largest programs. The 
DOD Inspector General and others have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance.
    What steps, if any, do you believe the Department of the Navy 
should take to ensure that its use of interagency contracts complies 
with applicable DOD requirements and is in the best interests of the 
Department?
    Answer. Based on recent events, I understand the Department of the 
Navy has issued specific procedures to ensure that the use of 
interagency contracts is in the best interests of the Department. If 
confirmed, I will work to ensure that the Department's use of 
interagency contracts complies with applicable DOD requirements and is 
in the best interest of the Department of the Navy

                DOD INVESTMENT IN SCIENCE AND TECHNOLOGY

    Question. As a former member of the Defense Science Board and 
Deputy Under Secretary of Defense for Science and Technology (S&T), you 
have been a strong proponent for the goal of investing 3 percent of the 
annual DOD budget in S&T. You have noted that falling below three 
percent means not as many new technologies will be available 5, 10, or 
15 years in the future and that investing more than 3 percent in better 
economic times will not pick up the slack because advancements require 
time.
    What are your current views regarding the importance and viability 
of annual 3 percent DOD spending for S&T?
    Answer. I believe that a balanced and robust S&T program within the 
DOD remains critical. The funding of a S&T program as measured as a 
percentage of spending is only one of many factors necessary from which 
to evaluate the efficacy of a Science and Technology program. If 
confirmed, I will endeavor to accomplish the Secretary of the Navy's 
priorities as they relate to the Navy and Marine Corps S&T program, and 
will coordinate closely with the DDR&E on Navy's role in overall DOD 
spending for S&T efforts.

                      NAVY SCIENCE AND TECHNOLOGY

    Question. For fiscal year 2006, the Department of the Navy plans to 
dedicate approximately $1.8 billion to S&T programs, which amounts to 
1.4 percent of the Department's total budget, and $448 million to basic 
defense research, 0.36 percent of the total Department of the Navy 
budget.
    Do you believe that the current balance between short- and long-
term research is appropriate to meet current and future Navy and Marine 
Corps needs?
    Answer. At present, it appears the Department of the Navy has 
adequately balanced its short- and long-term research. However, I 
believe this balance needs to be re-assessed periodically.
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science in meeting Navy and Marine 
Corps missions?
    Answer. Innovative research is a critical element of the 
Department's S&T program. If confirmed, I will work closely with my 
fellow members of the Department's Science and Technology Corporate 
Board (VCNO, ACMC, and ASN(RD&A)) to ensure we challenge our S&T 
enterprise to provide for the best possible solution for our 
warfighters.
    Question. If confirmed, what role would you play in ensuring 
research priorities that would meet the needs of the Department in 
2020?
    Answer. If confirmed, I will take an active role in ensuring the 
Department has a balanced and responsive program in basic research, 
applied research, and advanced development that addresses the needs of 
today's Navy, tomorrow's Navy, and the Navy after next. I will work 
with the Science and Technology Corporate Board to provide appropriate 
guidance to direct and shape its balance.
    Question. If confirmed, how would you work to ensure that 
appropriate S&T plans are utilized by the Navy and Marine Corps during 
the budget, planning, and programming process?
    Answer. If confirmed, I will work with the Science and Technology 
Corporate Board to ensure that approved S&T plans are considered during 
the planning, programming and budgeting process while concurrently 
ensuring that S&T plans adapt to Department priorities.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain in institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What challenges to transition do you see within the Department of 
the Navy?
    Answer. Clearly, successful transition requires an appropriately 
mature technology that addresses a warfighter need, a user demand, an 
insertion window in the program of record and budgeted resources for 
implementation. This alignment is hard to achieve and maintain. The 
Department of the Navy uses the Future Naval Capabilities (FNC) 
program, ACTDs, Rapid Technology Transition, SBIR, and various OSD 
technology transition programs to bridge the gap between S&T and 
acquisition. I believe the Department of the Navy has used those tools 
effectively in recent years.
    Question. If confirmed, how would you ensure that technologies 
rapidly transition from the laboratory into the hands of the 
warfighter?
    Answer. If confirmed, I would ensure the S&T portfolio includes 
transition-oriented investments and processes that bring the key 
stakeholders into alignment with a transition agreement. I believe the 
Navy's FNC program is designed to do this.
    Question. What steps would you take to enhance the effectiveness of 
technology transition efforts?
    Answer. Technology transition depends on many variables, including 
warfighter need that can be met by a technology solution, an 
acquisition program of record that can inject the appropriate 
technology solution into its program and resources to fund the 
technology insertion. The Department's technology transition programs 
appear to take these variables into account. If confirmed, I will 
examine the Department's transition programs and technology transition 
metrics with the goal of continued process improvement.

                          TECHNICAL WORKFORCE

    Question. What is your current assessment of the quality and 
sustainability of the DOD S&T workforce and the management of DOD's 
laboratory infrastructure?
    Answer. I have not had the opportunity to assess the current state 
of the quality and sustainability of the DOD Science and Technology 
workforce and the management of DOD's laboratory infrastructure. 
However, if confirmed, I will review this critical aspect of the 
Department's future warfighting capabilities.
    Question. If confirmed, what plans would you pursue to ensure an 
adequate supply of Navy and Marine Corps experts in critical 
disciplines in the Department's research and development commands?
    Answer. If confirmed, I will examine alternatives for attracting 
and retaining an adequate supply science, technology, engineering, and 
management professionals necessary to the Department of the Navy.

     NATIONAL SHIPBUILDING RESEARCH PROGRAM--ADVANCED SHIPBUILDING 
                               ENTERPRISE

    Question. The Advanced Shipbuilding Enterprise of the National 
Shipbuilding Research Program (NSRP-ASE) is a collaborative effort 
between the Navy and shipbuilding industry to improve processes with 
the objective of reducing the costs to build ships. Modest funding from 
both partners is projected to more than pay for itself. With the 
current criticism of increasing costs for Navy ships, it does not seem 
prudent for the Navy to cease supporting this program, but funding for 
the program was not requested in the fiscal year 2006 budget request.
    If confirmed, what steps would you propose in working with the 
shipyards to reduce the costs of Navy shipbuilding?
    Answer. If confirmed, I would investigate methodologies where 
industry and Navy could collaborate on understanding the issues that 
are driving cost growth on our Navy shipbuilding programs.
    Question. Do you believe that a collaborative, co-funded effort 
such as the NSRP-ASE between the Navy and the industrial base is of 
intrinsic value in lowering the spiraling costs of Navy ships?
    Answer. I understand the major goal of the NSRP-ASE is to reduce 
the cost of shipbuilding and repair. However, I have not received 
briefings on this effort. If confirmed, I intend to review this as one 
of the alternatives to lowering the spiraling costs of Navy ships.

                              SHIPBUILDING

    Question. The fiscal year 2006 budget request included a funding 
request for only four ships, two funded by the Shipbuilding and 
Conversion, Navy account, and two funded by the National Defense 
Sealift Fund. In testimony before the Seapower Subcommittee in support 
of the budget request, Navy and industry leadership testified that 
stability in the shipbuilding program is essential if costs are to be 
controlled. The Navy, however, has changed the acquisition profiles and 
strategies for shipbuilding programs numerous times in recent years.
    Do you agree that stability of acquisition profiles and strategies 
are essential to shipbuilding cost control?
    Answer. Yes, stability in requirements is a key step to a viable 
shipbuilding industrial base.
    Question. If confirmed, how would you attempt to ensure this 
stability?
    Answer. If confirmed, I would work closely with the CNO, the OSD, 
the Office of Management and Budget (OMB), and Congress to maintain a 
long-range shipbuilding plan that industry could use to plan for 
infrastructure investment. Also, I would challenge industry to maintain 
the efficiency required to compete in the commercial sector by 
transitioning as many shipbuilding contracts as possible away from 
cost-reimbursable type contracts to fixed price type contracts.

                  ALTERNATIVE FUNDING FOR SHIPBUILDING

    Question. On numerous occasions, Navy leaders have testified that 
identifying an acceptable alternative to the full funding policy for 
shipbuilding is necessary to avoid increases in the Shipbuilding and 
Conversion, Navy account brought about by the purchase of large ships. 
Methods such as split funding and incremental funding have been used on 
certain ships. Another method that has been discussed is advance 
appropriations.
    In your opinion, what is the best way to fund Navy ships?
    Answer. Procuring Navy ships is very different from other DOD 
acquisition programs in terms of the scope of the design and 
construction effort, the extended timeframe required to design and 
build ships, and the low production rate that ships are generally 
procured. The fundamental process of integrating a 4- to 8-year design 
and build cycle for Navy ships with an annual budget process that must 
respond to significant short term situations, creates many 
opportunities to affect change and cause instability across the Navy 
shipbuilding accounts. If confirmed, I will investigate available 
shipbuilding financing alternatives.
    Question. If confirmed, what alternative methods, if any, for 
shipbuilding funding, that would still allow congressional oversight, 
would you recommend?
    Answer. I will work with OSD, OMB, and Congress to implement the 
statutory authority necessary to provide the Navy with the ability to 
most efficiently and affordably fund complex shipbuilding programs, 
while at the same time ensuring appropriate oversight to monitor ship 
acquisition costs.
    Question. What is your view of the long-term impact of split 
funding or incremental funding on the availability of funds for Navy 
shipbuilding accounts?
    Answer. I have not had the opportunity to assess the long-term 
impact of split funding or incremental funding on the availability of 
funds for Navy shipbuilding accounts. However, if confirmed, I will 
review this issue.

                     SURFACE COMBATANT CONSTRUCTION

    Question. During your previous service as the Deputy Under 
Secretary of Defense for S&T you testified before the Subcommittee on 
Emerging Threats and Capabilities about the Navy's DD-21 program. You 
stated that significant program reform initiatives ``have included an 
acquisition approach that leverages industry competition and 
innovation. Breaking up the so-called `dream team' of Bath Iron Works, 
Ingalls, and Lockheed Martin and, instead, requiring competition in the 
initial concept phase of the program, between teams of shipbuilders and 
system integrators, assures us the best of weapon system ideas at the 
lowest future production and support costs--the award criteria.''
    The Navy has recently proposed different acquisition strategies for 
the new class of surface combatants, the DD(X). One proposal put 
forward included a ``winner take all'' strategy that could very well 
reduce the surface combatant industrial base to just one shipyard.
    What is your opinion on having only one shipyard capable of 
building surface combatants?
    Answer. At a Cold War build rate of 4-5 major surface combatants a 
year, a single shipyard could not provide all the required ships. 
Multiple shipyards capable of building large surface combatants also 
have allowed for some competitive pressure on costs. However, as long 
as the requirement for major surface combatants is at a rate of two or 
fewer ships per year, maintaining excess industrial capacity for 
surface combatants may not be cost effective. Despite this fact, having 
more than one shipyard available, properly protects the Navy from 
potential man-made or natural disasters. If confirmed, I intend to 
review available options in light of the best interest of our Nation's 
security.
    Question. If confirmed, what actions would you take to ensure a 
viable surface combatant industrial base?
    Answer. Stability in requirements is a key first step to ensure a 
viable shipbuilding industrial base. If confirmed, I would work closely 
with the CNO, the Office of the Secretary of Defense, the Office of 
Management and Budget, and Congress to maintain a long-range 
shipbuilding plan that industry could use to plan for infrastructure 
investment. I would challenge industry to maintain the efficiency 
required to compete in the commercial sector by transitioning as many 
shipbuilding contracts as possible away from cost-reimbursable type 
contracts to fixed price type contracts.

                       TACTICAL AVIATION PROGRAMS

    Question. As Navy and the Marine Corps F/A-18 and Marine Corps AV-
8B aircraft continue to age, the need for a timely Joint Strike Fighter 
(JSF) replacement becomes more and more pressing.
    What are your views regarding the current risk to the JSF program 
schedule during its System Development and Demonstration phase?
    Answer. I have not been in a position to review this particular 
program. However, if confirmed, I will review the program in depth.
    Question. If the JSF program were to slip again, what course of 
action would you recommend to maintain sufficient strike assets within 
our Carrier Strike Groups (CSGs)?
    Answer. I have not been in a position to review this particular 
program. However, if confirmed, I will review the program and identify 
appropriate recommendations.
    Question. Naval aviation's EA-6B is a key enabler for traditional 
naval strike missions and performs a critical role in today's global 
war on terror. Efforts are ongoing to improve its Airborne Electronic 
Attack (AEA) capabilities through the Improved Capabilities (ICAP) III 
upgrade. Many of the ICAP III technologies developed for the EA-6B will 
also be incorporated into the follow-on AEA platform, the EA-18G.
    What is your assessment of EA-18G program performance during its 
System Development and Demonstration phase?
    Answer. I have not been in a position to review this particular 
program. However, if confirmed, I will review the program and determine 
the appropriate course of action.
    Question. The E-2 Hawkeye provides CSGs with an over-the-horizon 
airborne radar and tactical data platform capability. The E-2 Advanced 
Hawkeye will replace all earlier E-2 configurations, and incorporate an 
advanced radar and sensor suite to support Theater Air and Missile 
Defense as well as enhance CSG operations and survivability in the 
littorals.
    If confirmed, what changes, if any, would you recommend making to 
the Advanced Hawkeye program?
    Answer. I have not been in a position to review this particular 
program. If confirmed, I will review the program and determine the 
appropriate course of action.
    Question. For many years, Navy and Marine Corps tactical aircraft 
have been limited to single point refueling from KC-135 and KC-10 
aerial refueling aircraft. Only recently have a limited number of these 
aerial refueling aircraft been converted to provide a multi-point air 
refueling capability.
    As part of the Joint Capabilities Integration and Development 
System for recapitalization of the KC-135 tanker fleet, what 
requirements, if any, has the Department inserted into the Capability 
Development Document process to accommodate Navy and Marine Corps 
needs?
    Answer. I have not been in a position to review this particular 
program. If confirmed, I will review the program and determine the 
appropriate course of action.
    Question. United States tactical air forces currently fly with 
several different Forward Looking Infrared (FLIR) targeting systems. 
Price and performance varies greatly between the systems.
    What are your views regarding tactical FLIR systems and which 
system(s) is/are best suited for the Navy and the Marine Corps?
    Answer. I have not been in a position to review this particular 
program. If confirmed, I will review the program and determine the 
appropriate course of action.

                         HEAVY LIFT ROTORCRAFT

    Question. The Army and the Marine Corps both have a need for a 
future heavy lift transport helicopter to replace existing heavy lift 
rotorcraft. The Marine Corps has embarked on a Heavy Lift Replacement 
(HLR) to acquire a new helicopter to replace the aging CH-53 
helicopter. At the same time, the Army is exploring a Joint Heavy Lift 
(JHL) rotorcraft program, however, the ``joint'' aspects of this 
program have not been demonstrated.
    Please describe the Marine Corps' HLR program and explain why this 
program should or should not be merged with the Army's JHL program?
    Answer. I have not been in a position to review these particular 
programs. However, if confirmed, I will review the pros and cons of 
such an action.
      army and marine corps capabilities and acquisition programs
    Question. Although the Army and Marine Corps have different 
missions and capabilities, their equipment, should have some degree of 
commonality. Throughout Operations Iraqi Freedom and Enduring Freedom, 
the Army and Marine Corps have worked together on acquiring equipment 
for Army and Marine Corps forces. However, for equipment such as 
helicopters and heavy wheeled vehicles, the Army and the Marine Corps 
have divergent acquisition paths.
    What are your views regarding the joint development and acquisition 
of Army and Marine Corps equipment?
    Answer. I am supportive of the concept of joint development and 
procurement of systems. However, before reaching any conclusions about 
joint development in this case, it would be important to analyze the 
individual needs and requirements of the Services, as well as discuss 
the programs with senior leaders of both the Marine Corps and the Army.
    Question. What role should the ASN(RDA) and the Secretary of the 
Navy play in synchronizing Army and Marine Corps requirements and 
synchronizing service programs?
    Answer. If confirmed, I will work with the Secretary of the Navy to 
ensure that the CNO, Commandant and Navy's acquisition community work 
closely with the Army, Air Force, the Coast Guard and the Joint Chiefs 
of Staff to set joint requirements wherever feasible.
    Question. Should the Marine Corps heavy lift replacement program be 
delayed until the Army and Marine Corps can agree on a single joint 
requirement for heavy lift rotorcraft?
    If not, why not?
    Answer. I have not had the opportunity to be fully briefed, nor 
have I been in a position to review these particular programs. As such, 
I am not in a position to comment on any changes to this program.

                  ADVANCED SEAL DELIVERY SYSTEM (ASDS)

    Question. The Department of the Navy has provided program 
management of this complex acquisition program on behalf of the U.S. 
Special Operations Command (SOCOM). The program has been plagued by 
technical challenges, cost growth, and schedule slippage.
    What is your understanding of the current status of this program?
    Answer. I understand the ASDS Program is approaching a Milestone C 
decision planned for December 2005.
    Question. What is the appropriate role of the ASN(RDA) in oversight 
of this SOCOM program?
    Answer. I understand the role of ASN(RDA) is to provide guidance to 
the Navy Program Manager who executes all duties and responsibilities 
for the Program such as contracting, cost/schedule/performance 
monitoring, technical issue resolution, configuration control and 
logistics support.

                             JOINT PROGRAMS

    Question. In the last few years, the Navy and the Air Force have 
both withdrawn from joint weapons programs. The Air Force has withdrawn 
from the Joint Standoff Weapon system, and the Navy has withdrawn from 
the Joint Air-to-Surface Standoff Missile system.
    In your opinion, what are the key reasons that joint programs are 
initiated, but one or more of the partners withdraws?
    Answer. I believe joint programs are important to enhancing 
warfighting capability and reducing overall program cost. Jointness 
provides the opportunity for enhanced warfighter capabilities via 
developing systems with common requirements, interoperability, and a 
shared logistics base. Jointness also make sense from a business case 
perspective, as budgetary benefits may include: lower non-recurring 
costs via cost sharing, lower unit costs from economies of scale, and 
lower program life-cycle costs. Withdrawal from a joint program by a 
participant often is the result of competing fiscal priorities coupled 
with the sustainment of a particular capability with legacy systems. 
The opportunity cost of continuing to meet operational commitments with 
existing platforms and weapons is often the withdrawal from pursuing an 
improved capability.
    Question. If confirmed, how would you recommend changing the system 
so that the Navy and Marine Corps would participate in only those 
programs in which it would follow through?
    Answer. Jointness works most effectively when the Services, the 
OSD, and the Joint Staff share the same perspective about warfighting 
requirements and the technical and cost benefits/risks. I believe that 
Service Leadership coordination must begin early in the process and be 
maintained to ensure success. If confirmed, I will examine other 
methods to improve joint program participation.

                 UNITED STATES NAVAL ACADEMY PROFESSORS

    Question. As a member of the U.S. Naval Academy electrical 
engineering faculty you have had a unique opportunity to evaluate the 
Academy's ability to perform its academic mission. Last year, the Naval 
Academy's Academic Dean, William C. Miller, said that a shortage of 
qualified professors, both military and civilian, threatens the 
Academy's ability to provide a first-rate military education. 
Additionally, he indicated that the desired 50-50 ratio of civilian to 
military instructors has lessened with civilian instructors 
outnumbering military officers 292 to 226.
    Answer. I understand the Dean's concerns, having witnessed a number 
of vacant officer-instructors in my home department of electrical 
engineering. The Naval Academy has actually been quite close to a 50-50 
ratio (plus/minus 5 percent) over the past 40 years. Only recently, in 
the past 10-12 years, has the growing number of vacant military billets 
become a challenge, threatening this historical balance and forcing the 
hiring of adjunct civilian faculty in lieu of officer-instructors or 
career civilian educators. As you may know, the Navy and the Naval 
Academy, working together, have developed, a number of initiatives 
including the Permanent Military Professor (PMP) program, the Graduate 
Education plus Teaching program, and the recall of reservists with 
advanced, postgraduate education in the subjects taught at USNA. I am 
confident that those remedies will be increasingly effective in 
reversing the unfortunate trend of vacant officer-instructor billets.
    Question. What is your current assessment of the Naval Academy's 
supply of qualified civilian and military professors?
    Answer. I have been impressed with the quality of both the officer 
and civilian faculty at the Academy. Departments carefully scrutinize 
the officers nominated to teach in their respective departments, and 
the Naval Academy conducts successful national searches for all of its 
career civilian faculty positions. The resulting faculty is first rate, 
and provides an outstanding undergraduate education to our future Navy 
and Marine officers.
    Question. What is your view of the PMP Program initiative and the 
pace of implementation and manning, and what recommendations, if any, 
for this program do you have?
    Answer. There are three PMPs in my home department of Electrical 
Engineering. All have extensive operational Navy experience in addition 
to an earned doctorate in electrical engineering. One of these 
officers, a Navy captain, is our department chair. Another I have had 
the opportunity to collaborate with in my research. I understand plans 
are underway to expand the PMP Program to a total of 50. I heartily 
endorse both the program and the expansion.
    Question. If confirmed as ASN(RDA), what role, if any, would you 
expect to play with respect to oversight of the U.S. Naval Academy?
    Answer. If confirmed, I will supervise the research of the Naval 
Academy and the Office of Naval Research. Both organizations have a 
longstanding relationship dating back through multiple USNA 
superintendents, academic deans, and ONR commanders. I expect that that 
relationship will continue, to the mutual benefit of both institutions.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASN(RDA)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator James M. Inhofe

                     R&D AND ACQUISITIONS BUDGETING

    1. Senator Inhofe. Secretary Young and Dr. Etter, I am concerned 
about the state of our research and development and procurement and 
acquisitions programs across our United Stated military. After our 
country's victory in the Cold War, the Clinton administration reduced 
our military appropriations excessively in search of a so-called 
``peace dividend'', accounting for cuts of $430 billion from fiscal 
year 1994-fiscal year 2001. In fact, after concentrating to keep the 
former Soviet Union in check in the preceding 45-odd years, we should 
have been steadfast in advancing our weapons systems to combat future 
threats. Instead, in the National Defense Authorization Act for Fiscal 
Year 1997 we had projected reductions of 25 percent of the acquisitions 
personnel force over a 5-year period. This has put us behind in 
acquiring new weapon systems which has narrowed the advantage our 
military has maintained against that of other nations' armed forces. 
This has resulted in systems that require far more maintenance than is 
prudent in a war-time environment, decreasing the envelope of safety 
for our warfighter.
    Earlier this year witnesses such as General John Jumper and 
Secretary Michael Wynne testified before this committee that one of the 
reasons we are seeing delays and problems in bringing new weapons 
systems online is because we have cut too deeply in the research and 
development and acquisitions career fields. This cut excessively 
reduced personnel whose profession is to shepherd these systems through 
R&D to the acquisitions process, and ensure the systems meet the 
military's specifications, budget requirements, and have a schedule of 
bringing a system on-line while its technology still meets the threat 
it was designed to combat. I'd like both of you to comment on the 
adequacy of the R&D budget, personnel numbers for DOD, and in your 
case, Dr. Etter, the U.S. Navy, and what Congress may be able to do to 
assist you in your very timely role of recapitalizing our military, 
should you be confirmed.
    Dr. Etter. The Department of the Navy's Research and Development 
budget appears to be adequately balanced between competing near-term 
and long-term needs. I do plan to look closely at this balance, if 
confirmed.
    The Department of the Navy's acquisition, logistics, and technology 
workforce has been reduced by over half since 1989. I am personally 
very concerned about both the size and the composition of the 
workforce. I plan to review the size and skill mix of those required to 
effectively shepherd complex systems through the research, development 
and procurement phases of the acquisition process. I will also examine 
ways to improve the Department's workforce. I believe the Navy must 
continue efforts to improve the process we use to identify acquisition 
position requirements, and to ensure incumbents are fully prepared and 
qualified to efficiently deliver warfighting capability. One of my top 
priorities is to assure that the Department's acquisition workforce is 
properly oriented to effectively execute acquisition programs. Support 
from Congress for current and future personnel management flexibilities 
necessary to address acquisition personnel challenges facing the 
research and engineering workforce will be critical.
    With regard to force recapitalization, much effort has been 
expended within the Department of the Navy examining different methods 
in which major capital expenses, such as aircraft carriers, surface 
ships, and submarines, can be financed. There appear to be a number of 
innovative approaches. For example, allowing the Secretary of Defense 
the flexibility to transfer funds from different appropriation accounts 
to the original SCN account financing a major capital expense is one 
approach. However, financing a particular submarine Engineered 
Refueling Overhaul, submarine conversion project, or aircraft carrier 
Refueling Complex Overhaul project in this manner requires approval of 
legislative proposals submitted by the Department of Defense (DOD). 
Given the legislative authority and other acquisition tools, the 
Department and industry can do the job of recapitalizing the equipment 
needed by our warfighters.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                       DD(X) ACQUISITION STRATEGY

    2. Senator Collins. Dr. Etter, the new Chief of Naval Operations, 
Admiral Mullen, has set an important challenge of bringing stability 
back to Navy shipbuilding budget and the Naval shipbuilding industry. 
He has made clear his goal of reducing the costs of warships. If 
confirmed, you will be an important partner to Admiral Mullen in that 
critical undertaking. I am confident that restoring stability to Navy 
shipbuilding will help reduce the costs of required warships.
    An important focus needs to be on fostering a more conducive 
partnership with the Navy's shipbuilding industry partners in order to 
achieve these goals. The DD(X) program should be a prime candidate for 
restoring stability and looking for ways to work with the shipbuilders 
more constructively to achieve the common objectives we all share. 
Resolving the issue of the DD(X) acquisition strategy, and doing so in 
constructive dialogue with industry and Congress, remains vitally 
important but unfinished business. When Navy Secretary nominee Dr. 
Winter appeared before our committee several weeks ago, he 
characterized the Navy's shipbuilding program as ``the ultimate and 
most important issue confronting the Navy at this time.''
    Months before Navy shipbuilding facilities on the Gulf Coast 
suffered major damage from Hurricane Katrina, Congress ultimately felt 
it had no recourse but to statutorily prohibit the Navy's proposed 
``winner-take-all'' one shipyard DD(X) acquisition strategy. The fiscal 
year 2006 Defense Authorization bill--reported from this committee and 
pending further floor action--contains a continued statutory 
prohibition on the ill-advised one shipyard approach. During his 
confirmation hearing, Dr. Winter acknowledged that if we do not 
maintain our skilled defense--in this case surface combatant 
shipbuilding--workforce, ``we are likely to have problems in the 
future,'' in terms of product quality and in the Nation's ability to 
meet emergent threats and surge requirements.
    If confirmed will you actively engage the DD(X) shipbuilders to 
develop and implement a cost-effective and long-term way ahead for the 
DD(X) program that leverages the strengths and skilled workers of both 
proven surface combatant shipbuilders?
    Dr. Etter. If confirmed, I will work with Congress, the Office of 
the Secretary of Defense, and our industry partners on all the Navy's 
shipbuilding programs. I am committed to providing our warfighters with 
systems that are operationally superior at a price the taxpayers can 
afford.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                            PERSONNEL ISSUES

    3. Senator Reed. Dr. Etter, I understand that in a recent speech 
you pointed out some of the elements which are essential if the United 
States is to have world-class defense laboratories. The ability to hire 
and retain world-class scientists and engineers is an essential 
prerequisite for maintaining and creating world-class research 
institutions. I am sure you are aware that a number of Navy 
organizations, such as the Naval Research Lab and the Naval Undersea 
Warfare Center in Newport, Rhode Island, have been successfully 
utilizing congressionally-mandated personnel authorities to recruit and 
retain high quality scientists and engineers. You may also be aware 
that there are efforts being made to limit and even terminate these 
authorities, as a result of the implementation of the National Security 
Personnel System (NSPS). If confirmed, do you intend to assist the 
laboratories in retaining their personnel demonstration authority, 
which has been so successful to date in hiring and retaining such 
talent?
    Dr. Etter. I believe we must continue our efforts to hire and 
retain the very best scientists and engineers in our in-house RDT&E 
Laboratory and Centers, and I believe the congressionally-authorized 
personnel demonstration projects are an important part of this effort. 
The NSPS legislation exempts the laboratories and centers in question 
from coverage until fiscal year 2008. Many of the practices and 
procedures that are planned for the National Security Personnel System 
originated as ``experiments'' in one or more of the Laboratory 
personnel demonstrations. By fiscal year 2008, NSPS will be up and 
running throughout most of the DOD. We will be able to assess whether 
NSPS provides the tools and flexibility we need to hire and retain 
scientific and engineering talent with as much or more success than we 
have today under the demonstration authority. All indications are that 
NSPS will provide comparable tools and flexibility. The Navy's RDT&E 
Laboratory and Centers face significant personnel challenges as they 
attempt to attract, retain, and adequately reward world-class 
scientists and engineers from a shrinking talent pool of qualified U.S. 
citizens. Addressing this challenge will be an important goal for me, 
if confirmed.

    4. Senator Reed. Dr. Etter, will you look into the issue of which 
personnel system best supports the Navy lab and technical centers' 
efforts to perform their designated missions?
    Dr. Etter. It is my understanding that the Director of Defense 
Research and Engineering (DDR&E) is preparing a gap analysis that will 
compare the personnel flexibilities available to the DOD RDT&E 
activities with those that are expected under the National Security 
Personnel System. I expect that this analysis will be based to a 
significant degree on the experience gained by the Navy's Laboratory 
and Centers with their personnel demos. NSPS should provide the tools 
and flexibility necessary for our labs and technical centers to 
acquire, develop, and reward the workforce needed to perform their 
designed missions. The design of NSPS is based on the best practices 
from the various personnel demonstration projects, including the Naval 
Research Laboratory project, the Acquisition project, and the 
longstanding Alternative Personnel System in place at the NAVAIR 
Weapons Division and SPAWAR on the west coast. NSPS provides the pay 
banding, pay for performance, market sensitive pay, and staffing 
flexibilities found in the existing demonstration projects. At the same 
time, NSPS should provide efficiencies associated with supporting far 
fewer personnel systems from an IT infrastructure, and training 
perspective. I will examine the results of the DDR&E gap analysis as 
part of my effort to ensure we pursue the best practices available to 
recruiting and maintaining world class caliber talent in our Naval lab 
and technology community workforce. It is clearly critical that our 
laboratory directors be able to shape their workforces to meet the 
challenges in performing their missions.

    5. Senator Reed. Dr. Etter, do you see some merit in developing a 
separate personnel system for DOD scientists and engineers?
    Dr. Etter. The personnel problems confronting the Department of the 
Navy RDT&E activities are in some ways unique and much more challenging 
than those facing the Navy as a whole. While I believe it would be 
premature to conclude that a totally separate personnel system is 
required for the DOD labs and centers, I do see considerable merit in 
granting these organizations an array of specialized authorities and 
tools that can be used to make them competitive for world-class talent 
in this difficult environment. The NSPS Compensation Architecture is 
designed around career groups of similar occupations. NSPS has already 
established a separate career group for scientists and engineers. This 
provides the opportunity to focus on compensation issues unique to the 
scientific and engineering community and set pay and manage 
compensation appropriately. With this tailoring, there does not appear 
to be a need for a separate personnel system for DOD scientists and 
engineers. However, I do intend to stay closely involved with this 
issue, if confirmed.

                  NAVY SCIENCE AND TECHNOLOGY PROGRAMS

    6. Senator Reed. Dr. Etter, if confirmed as the Assistant Secretary 
of the Navy, you will have oversight over the Navy's science and 
technology programs. This is an area where you are one of the world's 
experts--given your own academic background and your experience as the 
Deputy Under Secretary of Defense for Science and Technology in the 
previous administration. Are you satisfied with the current funding 
levels for Navy science and technology?
    Dr. Etter. The Department's portfolio invests in discovery and 
invention as well as exploitation and deployment of advanced 
technologies for the Nation's Naval Forces. A balanced and robust S&T 
program within the Department of the Navy remains critical. If 
confirmed, reviewing the funding levels for Navy science and technology 
will be an important task for me.

    7. Senator Reed. Dr. Etter, how will you set priorities between 
large acquisition programs and small research efforts within the 
constrained Navy budgets?
    Dr. Etter. In fiscal year 2005, based on the recommendations of the 
Science and Technology Corporate Board, Navy initiated the Innovative 
Naval Prototypes (INPs) program. INPs bring critical funding levels for 
revolutionary ``game changers'' for future naval warfare. These 
initiatives include an eletromagnetic railgun prototype; new concepts 
for persistent, netted, littoral anti-submarine warfare; technologies 
to enable Seabasing; and the Naval tactical utilization of space. I 
look forward to reviewing the balance between short-term research, and 
long-term research programs as described above, if confirmed.

    8. Senator Reed. Dr. Etter, are there any technology areas that you 
think deserve special emphasis within Navy research?
    Dr. Etter. Under the leadership of the Secretary of the Navy, 
significant focus has been placed on countering Improved Explosive 
Devices (IEDs) in a small scale ``Manhattan Project''. A key S&T goal 
in resolving the IED threat is to understand the basic phenomenologies 
involved in the ability to detect, defeat, and destroy IEDs at range 
and speed. Long term basic and applied research muse be conducted to 
address the foundations of current and future IED problems. We must 
exploit our chemistry, physics, materials, and electronic warfare 
expertise by taking a systems approach to attacking each step in the 
engagement sequence. When we are successful, this ability could 
effectively deter this line of attack against our forces. In addition, 
the move to all-electric ships allows us to consider a number of new 
weapon systems.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                    PUBLICATION OF RESEARCH FINDINGS

    9. Senator Bill Nelson. Secretary Young and Dr. Etter, university 
associations have documented recent cases where universities have 
refused to perform research contracts for DOD because of provisions 
restricting their ability to publish research findings. These 
provisions are inconsistent with both existing DOD and overall 
government policy providing that unless classified, information 
generated through contracted fundamental research at universities 
should not be subject to controls. What is your view of the 
appropriateness of DOD seeking to restrict the ability of universities 
to publish their research in this way?
    Dr. Etter. National Security Decision Directive 189 (NSDD-189) 
establishes national policy for controlling the flow of science, 
technology, and engineering information produced in federally-funded 
fundamental research at colleges, universities, and laboratories. It 
appears that there are some contracting officers that are either 
unaware of NSDD-189 or unfamiliar with what constitutes `fundamental 
research' and may be including contract clauses that require a 
government review prior to publication. I will work to ensure that 
steps are taken to inform them that, for contracted fundamental 
research, such restrictive provisions are against policy.

    10. Senator Bill Nelson. Secretary Young and Dr. Etter, do you feel 
that scientific progress depends on broad sharing of research results 
among scientists, in national defense as well as other areas?
    Dr. Etter. Yes, sharing research information, particularly for 
basic research far in advance of military application is important in 
expanding the knowledge base and furthering capabilities. However, the 
need to protect our National security must also be considered when 
evaluating effective and appropriate ways of sharing scientific 
progress and research knowledge.

    proposed rules on export controls impact on university research
    11. Senator Bill Nelson. Secretary Young and Dr. Etter, in response 
to a report issued by the DOD Inspector General in March 2004, DOD 
recently proposed a new export control compliance clause for DOD 
contracts. I understand DOD received over 130 comments in response to 
this proposal, most of which were opposed to the proposed rule. I 
understand that one of the proposal's requirements is for segregated 
facilities and badging of all foreign nationals involved in DOD 
research, even fundamental research conducted at universities.
    Since other agencies have regulatory authority for export 
controls--namely the Department of Commerce and the Department of 
State--do you feel that it is appropriate for the DOD to establish its 
own separate policies in this area?
    Dr. Etter. I believe the DOD has a role in determining the 
potential military application of technology and the development of 
processes and procedures for limiting the exportation of those 
technologies. I feel that it is inappropriate to establish separate 
policies for DOD contracts where regulatory authority resides in other 
agencies, however, it is appropriate for DOD to facilitate contractor 
awareness of existing regulatory authority that resides in other 
agencies. I understand that DOD is coordinating with the Departments of 
State and Commerce to ensure that any proposed rule is consistent with 
the National Policy on the Transfer of Scientific, Technical and 
Engineering Information (NSDD-189), and existing laws and regulations 
governing export-controlled information and technology.

    12. Senator Bill Nelson. Secretary Young and Dr. Etter, if 
confirmed, will you engage with the university research community to 
try to address their concerns in this area?
    Dr. Etter. Yes, I will engage with the university research 
community to address their concerns in this area. I have been advised 
that the acting Deputy Under Secretary of Defense for Laboratories and 
Basic Sciences is currently engaged with the research community in this 
area through the National Academies of Science and the American 
Association of Universities.
                                 ______
                                 
    [The nomination reference of Delores M. Etter follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 6, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Delores M. Etter, of Maryland, to be an Assistant Secretary of the 
Navy, vice John J. Young.
                                 ______
                                 
    [The biographical sketch of Delores M. Etter, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Delores M. Etter

    Dr. Etter joined the Electrical Engineering faculty at the United 
States Naval Academy on August 1, 2001, as the first recipient of the 
Office of Naval Research Distinguished Chair in Science and Technology. 
Her academic interests are in digital signal processing and 
communications. Her research interests include biometric signal 
processing, with an emphasis on identification using iris recognition. 
She is also the author of a number of textbooks on computer languages 
and software engineering.
    From June 1998 through July 2001, Dr. Etter served as the Deputy 
Under Secretary of Defense for Science and Technology. In that 
position, she was responsible for Defense Science and Technology 
strategic planning, budget allocation, and program execution and 
evaluation for the $9 billion per year DOD Science and Technology 
Program. Dr. Etter was the Principal U.S. representative to the NATO 
Research and Technology Board. She was also responsible for the Defense 
Modeling and Simulation Organization, the High Performance Computing 
Modernization Office, and for technical oversight of the Software 
Engineering Institute. Dr. Etter was also the senior civilian in charge 
of the DOD high-energy laser research program.
    From 1990-1998, Dr. Etter was a Professor of Electrical and 
Computer Engineering at the University of Colorado, Boulder. During 
1979-1989, Dr. Etter was a faculty member in Electrical and Computer 
Engineering at the University of New Mexico. She served as Associate 
Vice President for Academic Affairs in 1989. During the 1983-1984 
academic year she was a National Science Foundation Visiting Professor 
in the Information Systems Laboratory in the Electrical Engineering 
Department at Stanford University.
    Dr. Etter is a member of the National Science Board, the National 
Academy of Engineering, and the Defense Science Board. She is a Fellow 
of the Institute of Electrical and Electronic Engineers (IEEE), the 
American Association for the Advancement of Science (AAAS), and the 
American Society for Engineering Education (ASEE). She served as 
President of the IEEE Acoustics, Speech, and Signal Processing Society 
from 1988-1989, and was Editor-in-Chief of the IEEE Transactions on 
Signal Processing from 1993-1995.
    Dr. Etter was a member of the Naval Research Advisory Committee 
from 1991-1997, and chaired the committee from 1995-1997. She has 
received the Department of the Navy Distinguished Public Service Award, 
the Secretary of Defense Outstanding Public Service Medal, and the 
Department of Defense Distinguished Public Service Medal.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Delores M. 
Etter in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Delores Maria Etter.
    Delores Maria Van Camp (maiden name).

    2. Position to which nominated:
    Assistant Secretary of the Navy (Research, Development, and 
Acquisition).

    3. Date of nomination:
    September 6, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 25, 1947; Denver, CO.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Jerry Richard Etter.

    7. Names and ages of children:
    Amy Marie Gerrish, age 34.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of New Mexico, June 1975-Dec. 1979, Ph.D., Dec. 1979.
    Wright State University, Jan. 1969-May 1972; BS, May 1970; MS, May 
1972.
    Oklahoma State University, Sep. 1965-Jan. 1968.
    Shidler High School, Sep. 1961-May 1965; HS Diploma, May 1965.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Professor, Electrical Engineering Department, United States Naval 
Academy, Aug. 2001-present.
    Deputy Under Secretary of Defense for Science and Technology, 
Office of the Secretary of Defense, June 1998-Aug. 2001.
    Professor, Electrical and Computer Engineering Department, 
University of Colorado, Boulder, Jan. 1990-June 1998.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Defense Science Board, 1995-1998, 2002-present.
    National Science Board, 2002-present.
    National Defense University Board of Trustees, 2002-2005.
    Naval Research Advisory Board, 1991-1997.
    Ballistic Missile Defense Advisory Committee, 1996-1998.
    Federal Aviation Association Research, Development, and Engineering 
Advisory Committee, 1994-1997.
    Nonproliferation, Arms Control, and International Security Advisory 
Committee, Lawrence Livermore Lab, 2001-2005.
    Remote Sensing Strategy Panel, OSD, 2001.
    MIT Lincoln Lab Advisory Board.
    Distinguished Review Board, Center for Directed Energy, Wright-
Patterson Air Force Base.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Charles Draper Laboratory, Board of Directors.
    Argon ST, Board of Directors.
    North American Electric Reliability Council, Board of Trustees.
    Prime Photonics, LC, Technical Advisory Board.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    National Academy of Engineering.
    Southern Methodist University, School of Engineering Executive 
Board.
    Institute for Electrical and Electronic Engineering (IEEE).
    American Association for the Advancement of Science (AAAS).
    American Society for Engineering Education (ASEE).
    Sigma XI.
    Tau Beta Pi.
    Eta Kappa Nu.
    Phi Kappa Phi.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member, Republican Party.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
2000
    Bush/Cheney Campaign - $1,000.
    Heather Wilson Campaign - $2,000.
    George Allen Campaign - $1,000.
    John Warner Campaign - $1,000.
    Frank Wolf Campaign - $1,000.
    Republican National Committee - $1,000.
2001
    Heather Wilson Campaign - $1,000.
    John Warner Campaign - $1,000.
    Jerry Kilgore Campaign - $250.
    Republican National Committee - $2,000.
2002
    Heather Wilson Campaign - $1,500.
    Robert Ehrlich Campaign - $500.
    Republican National Committee - $1,000.
2003
    Heather Wilson Campaign - $1,500.
    Republican National Committee - $1,000.
2004
    Bush/Cheney Campaign - $2,000.
    Heather Wilson Campaign - $2,000.
    Republican National Committee -$2,000.
2005
    Heather Wilson Campaign - $2,100.
    Republican National Committee - $2,000.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    IEEE Education Society Achievement Award, 2003.
    Outstanding Alumnus Award from the College of Math and Science, 
Wright State University, 2002.
    Distinguished Alumnus Award from the College of Engineering, 
University of New Mexico, 2001.
    Aviation Week Laureate for ``initiation of a joint Defense 
Department/NASA/industry National Hypersonic Plan,'' 2001.
    Department of Defense Medal for Distinguished Public Service for 
exceptionally distinguished public service as the Deputy Under 
Secretary of Defense for Science and Technology, 2001.
    National Academy of Engineering, ``For the authorship of textbooks 
on computer applications in engineering, contributions to digital 
signal processing, and service to the profession,'' 2000.
    Secretary of Defense Outstanding Public Service Medal for 
exceptional leadership in the pursuit of the Science and Technology 
program, 2000.
    IEEE Millennium Medal, 2000.
    Federal Women in Science and Engineering (WISE) Lifetime 
Achievement Award, 2000.
    IEEE Harriett B. Rigas Award, 1998.
    Department of the Navy Distinguished Public Service Award for 
leadership of the Naval Research Advisory Committee, 1998.
    Federal Aviation Association (FAA), Civil Aviation Security 
Associate Administrator's Award, ``In recognition of dedicated and 
insightful leadership of the Aviation Security Research and Development 
Advisory Panel,'' 1997.
    Charles Hutchinson Memorial Teaching Award in recognition of 
teaching excellence, College of Engineering, University of Colorado, 
1997.
    Fellow of ASEE, ``For contributions to engineering education,'' 
1996.
    Distinguished Lecturer, IEEE Signal Processing Society, 1996.
    Leonhard Distinguished Lecturer, San Diego State University, 1996.
    Fellow of AAAS, ``For leadership in digital signal processing and 
for important contributions to engineering education through innovative 
undergraduate textbooks,'' 1994.
    Fellow of the IEEE, ``For contributions to education through 
textbooks for engineering computing and for technical leadership in the 
area of digital signal processing,'' 1992.
    IEEE Signal Processing Society Meritorious Service Award, ``For 
exemplary and broad leadership of the Signal Processing Society and its 
publication and conference activities,'' 1990.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    [The nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Delores M. Etter.
    This 16th day of September, 2005.

    [The nomination of Delores M. Etter was reported to the 
Senate by Chairman Warner on October 27, 2005, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 28, 2005.]
                              ----------                              

    [Prepared questions submitted to GEN Burwell B. Bell III, 
USA, by Chairman Warner prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the services and 
the combatant commanders, among other things, In joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. Goldwater-Nichols has provided sufficient guidance to allow 
us to conduct our operations within a joint framework. If confirmed, I 
will continue to evaluate our conduct of joint operations and will 
offer commentary if I believe new proposals are required, but I do not 
have any suggestions at this time.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Commander, United Nations Command/Combined Forces Command/United 
States Forces Korea?
    Answer. The Commander, United Nations Command (COM UNC), is 
responsible for maintaining the Armistice Agreement, as well as 
executing missions and functions in Korea as directed by the Secretary 
of Defense. Additionally, COM UNC is required to maintain the coalition 
embodied by the United Nations Command, enable acceptance of UNC member 
nation forces during contingencies, and enable access to the seven UNC 
bases in Japan.
    The Commander, Combined Forces Command (COM CFC), has two essential 
missions related to the U.S. presence in Korea: deterring hostile acts 
of external aggression against the Republic of Korea, and, should 
deterrence fail, defeating an external armed attack. In this position, 
he is responsible for receiving strategic direction and missions from 
the ROK-U.S. military committee; exercising OPCON over all forces 
provided, both ROK and U.S.; conducting combined exercises; equipping 
and planning for the employment of those forces; providing 
intelligence; recommending requirements; researching, analyzing, and 
developing strategic and tactical concepts; complying with the 
armistice affairs directives of COM UNC; and supporting COM UNC in 
response to armistice violations by North Korea.
    The Commander, United States Forces Korea (COM USFK), as a sub-
unified commander of the U.S. Pacific Command (USPACOM), is responsible 
for ail duties and functions associated with title 10, United States 
Code, and the Unified Command Plan. It Is in this capacity that the 
U.S. supports the ROK-U.S. Mutual Defense Treaty and that the commander 
represents USPACOM, This role provides the U.S. with the means to 
provide forces to COM UNC/CFC, and to support those forces with the 
required logistics, administration, and policy Initiatives necessary to 
maintain readiness.
    Question. What background and experience, including Joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. I have significant experience In both the joint and 
combined environments. Within the Korean AOR, my duties as a tank 
battalion operations officer/who trained and exercised with several 
Republic of Korea and U.S. units, gave me significant leadership 
perspectives that have provided me with insights into the challenges 
associated with combined and Joint operations on the Korean peninsula, 
My experiences at the National Training Center while commanding at the 
battalion and brigade levels have provided me the opportunity to 
exercise Joint and combined tactical warfighting doctrine. As Executive 
Officer to the Commander in Chief of U.S. Central Command, including 
Operations Desert Shield and Desert Storm, I was able to see and 
experience joint and combined coalition warfare planning and execution 
at senior operational and strategic levels. Command of the Army's III 
Corps provided me the opportunity to develop and extensively exercise 
operational plans in support of the Korean AOR which employed joint and 
combined warfighting operations and tactics on terrain unique to the 
Korean theater. In training and exercising those tactics, I was able to 
work side-by-side with senior Republic of Korea counterparts who 
imparted to me their unique and invaluable perspectives on warfighting 
in defense of their homeland. As Commanding General, United States Army 
Europe and Seventh Army, and Commander, NATO Allied Land Component 
Command, Heidelberg, I have gained further insights into the 
requirements placed upon a commander responsible for service component 
command responsibilities, as well as commanding a combined 
international headquarters, with senior leader representation from 21 
different countries. The experiences I have listed here have also 
required me to master joint and combined reconnaissance, intelligence, 
infrastructure, and logistical concepts as well.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
United Nations Command/Combined Forces Command/United States Forces 
Korea?
    Answer. If confirmed, I Intend to conduct in-depth discussions and 
assessments with key personnel and analysts from relevant ROK and U.S. 
Government agencies and nongovernment specialists. Throughout my time 
in command, I will continue this dialogue with ROK and U.S. leaders to 
improve my understanding of all aspects of the current situation within 
the Korean theater. This will enable me to stay abreast of the dynamic 
political-military environment of the Korean peninsula.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the commanders of the 
combatant commands. Other sections of law and traditional practice, 
however, establish important relationships outside the chain of 
command. Please describe your understanding of the relationship of the 
Commander, United Nations Command/Combined Forces Command/United States 
Forces Korea with the following officials:

          The Secretary of Defense,
          The Deputy Secretary of Defense,
          The Under Secretary of Defense for Policy,
          The Under Secretary of Defense for Intelligence,
          The Chairman of the Joint Chiefs of Staff,
          The Secretaries of the Military Departments,
          The Chiefs of Staff of the Services, and
          The other combatant commanders, especially the Commander, 
        USPACOM.

    Answer. The relationship with all of the officials listed above Is 
critical to accomplishing our national and binational goals and 
objectives, We must be able to work closely with all levels of 
leadership, civilian and military, in both joint and combined 
leadership environments to ensure that a teamwork approach accomplishes 
the strategic goals and objectives of our National leadership. COM UNC 
reports directly to the U.S. Secretary of Defense and through him to 
the President, while at the same time keeping COM PACOM informed of any 
communications with U.S. national authorities. A binationally validated 
ROK-U.S. document provides further guidance on COM CFC's unique 
relationship with the ROK National Command Authority and the U.S. 
Secretary of Defense. COM USFK reports directly to COM PACOM on matters 
directly pertaining to USFK areas of responsibility.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the next Commander, United Nations Command/Combined Forces 
Command/United States Forces Korea?
    Answer. The major challenges include readiness, maintaining 
deterrence and stability, transformation, and supporting the Global War 
on Terrorism. Readiness of U.S. and allied forces will be my primary 
near-term focus if confirmed for this position. The ROK-U.S. alliance 
must be ``ready to fight tonight'' due to the proximity and lethality 
of the threat. A highly-trained and ready force provides stability and 
mitigates risk. Sustaining readiness requires tough, realistic 
training; appropriate levels of manning and modern equipment; training 
infrastructure; and a quality of life which supports and sustains our 
people. I am personally committed to ensuring that readiness is at the 
highest level possible.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. As COM UNC/CFC/USFK, I will ensure that our forces remain 
vigilant and well-prepared. Training and readiness will be our 
watchwords, If confirmed I will immediately review these elements to 
ensure that we are as strong and as ready as we can possibly be. I will 
devote myself to strengthening the alliance between the United States 
and the Republic of Korea. A strong healthy alliance can meet the 
challenges I discussed above. Should deterrence fail, alliance forces 
must be, and will be, ready to defeat North Korean aggression.

                              NORTH KOREA

    Question. North Korea represents one of the greatest near-term 
threats to U.S. national security interests in Asia.
    What is your assessment of the current security situation on the 
Korean peninsula and the diplomatic efforts to persuade North Korea to 
verifiably dismantle Its nuclear weapons program?
    Answer. North Korea poses a variety of threats to regional and 
global stability, particularly its nuclear weapons programs. It is in 
the vital interests of the United States and its allies to resolve the 
Issue of a verifiable dismantling of North Korea's nuclear weapons 
program. The fact that six parties are in serious negotiations on this 
issue is an indication of positive intent. Because it is a complicated 
issue, the solution will be equally complicated requiring time and 
serious effort to complete.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and weapons of 
mass destruction (WMD) capabilities and the export of those 
capabilities?
    Answer. North Korean ballistic missile development remains a 
significant threat to U.S. forces and their allies on the peninsula. 
Their ballistic missile inventory includes over 500 SCUD missiles of 
various types that can threaten the entire peninsula, and they continue 
to produce and deploy No Dong missiles capable of striking Japan and 
our American bases there. Pyongyang is also developing multistage 
missiles capable of striking the continental United States. North 
Korea's declaration earlier this year that it would no longer abide by 
its self-imposed moratorium on flight testing missiles, when coupled 
with the actual test of a missile in May, clearly demonstrates that the 
North does not Intend to unilaterally halt Its research and development 
programs. Its continued proliferation of missiles and development of 
WMD capabilities allows North Korea to act as a destabilizing and 
potentially disruptive force in the region and beyond.
    Question. What is your assessment of North Korea's conventional 
capabilities and readiness?
    Answer. The North Korean military remains a credible threat to the 
security of the ROK and the stability of the region because of its size 
and forward deployment. North Korea maintains the world's fourth 
largest army and the world's largest special operations force. With 
almost three-quarters of that army arrayed south of Pyongyang, and 
significant numbers of artillery systems that can currently range 
Seoul, it seems clear that North Korea's capabilities pose an immediate 
and credible threat.
    Question. What, if anything, should be done to strengthen 
deterrence on the Korean peninsula?
    Answer. If confirmed, I would encourage both the U.S. and ROK 
governments to sustain their transformation initiatives and their on-
going combined capabilities enhancement programs. Although both nations 
have invested significant resources toward these initiatives and 
programs already, there is still room to improve qualitative 
capabilities, as these are the key to strengthening deterrence on the 
peninsula.

                     REPUBLIC OF SOUTH KOREA (ROK)

    Question. Since the end of World War II, the U.S.-ROK alliance has 
been a key pillar of security in the Asia Pacific region. This 
relationship has gone through periods of inevitable change.
    What Is your understanding of the current U.S. security 
relationship with the ROK?
    Answer. It is my understanding that the current U.S. security 
relationship with the ROK is governed by the Mutual Defense Treaty as 
entered into force from November 1954. In particular, the treaty's 
requirement that both the U.S. and the ROK maintain and develop 
appropriate means to deter and, if should deterrence fail, to defeat an 
armed external attack continues to serve as the linchpin of this 
relationship. It is also my understanding that both the U.S. and the 
ROK remain fully committed to the treaty's provisions and the mutual 
defense of both nations, as demonstrated by the continued execution of 
combined planning, training, and exercises designed to deter and, if 
should deterrence fail, to defeat any external aggression against the 
ROK.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-ROK security relationship?
    Answer. If confirmed, I will ensure that I maintain the already 
strong U.S.-ROK security relationship that has continued to prove 
itself over the past 50 years through mutual respect and open dialogue 
with our ROK allies.
    Question. What Is your assessment of the current climate in 
military to military professional relationships and interoperability at 
all levels between U.S. and ROK forces?
    Answer. It is my understanding that the military professional 
relationships are ones of mutual respect and regard. I witnessed this 
firsthand as the III Corps commander, and I have no reason to believe 
that this is not still the case. I would also suspect that 
interoperability between American and ROK forces has improved over the 
past several years, but there are still issues that need to be 
resolved, as is the case with all our other allies. If confirmed, I 
will assess our interoperability with our Korean allies and seek to 
reduce, if not eliminate, any interoperability issues.
    Question. What is your assessment of ROK warfighting capability 
trends with regard to the modernization and capability improvements in 
ROK equipment and training of their personnel?
    Answer. I have combined my answers to this question and to the 
question below it.
    Question. What is your assessment of ROK current and projected 
military capabilities and the ability of ROK forces to assume a greater 
role in the defense of their homeland?
    Answer. It is my understanding that the current ROK modernization 
program for its armed forces has significantly increased Korean 
warfighting capabilities, as it will continue to do so in the future. 
The Future of the Alliance initiative, with its successor the Security 
Policy initiative, set the conditions for ROK forces to assume a 
greater rote in the defense of South Korea. The fact that the entire 
DMZ is guarded by ROK forces, as well as the assumption of several 
other CFC missions from U.S. responsibility, is a testament to that 
greater role. The current ROK training program, when coupled with the 
numerous combined and joint training exercises currently conducted by 
the ROK and U.S. forces, ensures the readiness and capabilities of the 
ROK military personnel.

                        DOMESTIC POLITICS IN ROK

    Question. In recent years, domestic opinion in the Republic of 
Korea with regard to the American presence and relations with the DPRK 
has increasingly split along generational lines, with younger Koreans 
being more skeptical of relations with the United States while the 
older generation is much more content with the status quo. The 
Commander, USFK, plays a major political role in U.S.-Korean relations.
    If confirmed, how would you see your role and duties in the light 
of these changes in the ROK body politic?
    Answer. I believe that, if confirmed, my role and duties as COM 
UNC/CFC/USKF will remain as described by the governing U.N., ROK/U.S., 
and U.S. documents. My requirements to maintain the armistice; deter 
or, should deterrence fail, defeat external aggression; and discharge 
all title 10 and Unified Command Plan duties and responsibilities will 
remain the same throughout my tenure, despite any changes to the ROK 
body politic. I believe it will be important to continue any programs 
that General LaPorte has established to enable the sustainment and 
improvement of command-community relations.

                             GLOBAL POSTURE

    Question. In your opinion, how should the U.S. position its forces 
in Asia to best respond to threats in that area, support out-of-area 
contingencies, and maintain readiness?
    Answer. U.S. forces in the Asia-Pacific region should be stationed 
to provide sufficient flexibility to deploy forces to meet global 
contingency requirements. It is my understanding that COM PACOM 
continually assesses and recommends force positioning within his area 
of responsibility to the Secretary of Defense. If confirmed, I will 
ensure that I fully understand the situation on the Korean peninsula 
and of those regional actors that influence the peninsula so that I can 
provide my input to COM PACOM's assessment and recommendations.

                      CONSOLIDATION OF U.S. FORCES

    Question. The Land Partnership Plan (LPP) will consolidate the 2nd 
Infantry in and around Camp Humphreys, Korea. New construction of 
facilities and infrastructure required to support the consolidation 
will be carried out using funds from both the Host Nation and the 
United States military construction accounts. The Yongsan Relocation 
Plan (YRP) proposes to move most of the U.S. forces currently stationed 
at Yongsan compound in Seoul to Camp Humphreys, Korea. The relocation 
is proposed to be funded by the Korean Government.
    What is your assessment of the current status of the two 
consolidation plans and the timeline for completion?
    Answer. It is my understanding that both the LPP and the YRP are 
being executed simultaneously and are progressing well, The LPP 
envisions consolidating 2nd Infantry Division onto four existing camps 
in the near-term while anticipating a relocation of the division to 
Camp Humphreys in 2008. The ROK has procured the majority of land 
required for the YRP and anticipates procuring the remainder by the end 
of the year, The YRP's master plan was initiated in September of this 
year and should be complete by April of next year. Both plans remain on 
schedule.
    Question. What do you anticipate to be the total costs to be 
incurred by the U.S. Government to carry out the two consolidations?
    Answer. I understand the total costs to the U.S. Government to be 
$480 million, about 6 percent of the total relocation cost. Almost 
three-quarters of the relocation costs are borne by the ROK, with the 
remainder funded by private industry through financed build-to-lease 
investments.
    Question. If confirmed, what objectives would you establish to 
manage the burdensharing of the costs related to the two 
consolidations?
    Answer. If confirmed, my objective would be to carry out the 
consolidation plans without any additional costs to the United States 
beyond what is already programmed.

                  HOST NATION BURDEN-SHARING PROGRAMS

    Question. Two programs supported by the ROK, the Combined Defense 
Improvement Program (CDIP) and the Korea Host Nation Funded 
Construction Program (KHNCP), provide cash and in-kind projects to 
satisfy U.S. military facility and infrastructure requirements.
    If confirmed, what priorities would you establish for all U.S. 
forces on the Peninsula to make the best use of these two vital 
programs?
    Answer. If confirmed, I would maintain the current priorities of 
supporting USFK transformation and quality of life initiatives as a 
means to enhance readiness on the peninsula. As these two programs 
present the majority of USFK's total military construction program, it 
is imperative that they contribute to the overall readiness of USFK.

                        FAMILY HOUSING IN KOREA

    Question. Recent Commanders of United States Forces in Korea have 
proposed a goal to increase the number of U.S. military personnel on 
accompanied tours, thereby increasing the number of families in Korea, 
while at the same time decreasing the number of combat forces by a 
third. This goal would require the construction of additional housing 
and community support facilities at all U.S. installations in Korea.
    What are your views on the plans and investment strategy to provide 
additional family housing and community support facilities for military 
personnel and their families in Korea?
    Answer. As I understand it, the current plans to provide additional 
family housing and community support facilities rely primarily upon 
funding provided by the Republic of Korea, with some funds resulting 
from the redirection to the enduring installations of already 
programmed military construction projects from closing installations. I 
am fully supportive of this approach and, if confirmed, will continue 
to seek the highest quality of facilities for our servicemembers and 
their families.

                            QUALITY OF LIFE

    Question. Through recent investment in quality of life amenities, 
to include housing, health care and recreation, the Department has 
worked to achieve the goal of making Korea an ``assignment of choice'' 
for U.S. Forces.
    What do you consider to be the most essential elements supporting 
military life for soldiers and their families stationed in Korea and, 
if confirmed, what would be your goals in this regard?
    Answer. I believe the three most essential elements supporting 
military life in any assignment are quality living and working 
conditions and facilities, quality health care, and quality educational 
opportunities for dependent family members. If confirmed, I would 
strive to ensure the best possible conditions for all three, thus 
clearly making Korea an assignment of choice for U.S. forces.

                     KOREA ASSIGNMENT INCENTIVE PAY

    Question. Assignment incentive pay was approved in 2003 for 
soldiers who agreed to extend their tours of duty in Korea. Since that 
time, payment of an overseas cost of living allowance was also 
approved.
    In your opinion, is eligibility for assignment incentive pay for 
duty in Korea necessary and cost-effective? Please explain.
    Answer. As both General Schwartz, the previous commander, and 
General LaPorte, the current commander, have stated several times, 
making Korea an assignment of choice must be a command priority. Both 
commanders have done much to change the perceptions of those who were 
previously reluctant to serve a tour in Korea. One contributor in this 
process was the authorization of cost-of-living allowance (COLA) 
entitlements; another was assignment incentive pay. Given the current 
incentives for servicemembers stationed in Iraq and Afghanistan, it is 
only fitting that those stationed in Korea are also eligible for many 
similar benefits. Further, the incentive pay a servicemember receives 
for extending his or her tour is less than the costs borne by the 
government to move two servicemembers (one to Korea; one from Korea), a 
cost-effective result that also enables USFK to maintain trained, 
experienced servicemembers on the peninsula longer. It is my 
understanding that the U.S. Government has saved more than $40 million 
as a result of this initiative.

                             SEXUAL ASSAULT

    Question. In your role as Commander, U.S. Army Forces, Europe, you 
have implemented changes in policies and procedures relating to the 
prevention and response to sexual assaults and in the treatment of 
victims of sexual assault.
    What is your assessment of the progress that the Army has made in 
the last 2 years in the promulgation of policy on sexual assault, and 
what do you think will be your biggest challenge in achieving the 
changes in programs, training and implementation if confirmed as 
Commander of the USFK?
    Answer. I believe the Army has made great strides in ensuring the 
promulgation of policy on sexual assault, and it is my understanding 
that General LaPorte has made it a priority to eliminate any occurrence 
of this crime within USFK. If confirmed, I will maintain General 
LaPorte's command focus upon awareness and prevention of sexual 
assault.

                         JOINT MEDICAL COMMAND

    Question. The relocation of U.S. forces and families on the Korean 
peninsula presents challenges in the delivery of high quality health 
care services. The committee has been concerned that as the relocation 
of families occurs, services such as same day access to care for 
Active-Duty members and family health services in remote areas must be 
available. In view of these challenges, the committee directed the 
Chairman, Joint Chiefs of Staff, to conduct a study of the feasibility 
of establishing a joint military medical command in support of USFK. 
Congress has not received the report required in the Senate report 
accompanying S. 2400, the National Defense Authorization Act for Fiscal 
Year 2005.
    If confirmed, how would you assess the availability of quality 
health care services to Active-Duty members and their families?
    Answer. If I am confirmed, I would undertake a careful and thorough 
review of the availability of quality health care for both 
servicemembers and their families, surveys, both electronic and manual; 
visits; and inputs from all stakeholders would enable me to make an 
assessment of the health care services available.
    Question. What lessons did you learn from a policy perspective 
concerning health care delivery in the European theater which might be 
applied to improve joint planning and coordination of health care 
services in Korea, including access to high quality civilian services 
when military resources are limited?
    Answer. As the Commanding General of United States Army Europe and 
Seventh Army, I have the responsibility to ensure quality health care 
for both service members and their families. Although we currently 
leverage high quality civilian services in Europe when military 
resources are limited, the quality of care cannot be negotiated. In 
some circumstances, the surrounding civilian infrastructure cannot 
provide the level of care required by a military community, and it is 
in those instances when additional military resources are required to 
ensure that both our servicemembers and their families receive the 
health services they deserve. I also learned that where families are 
located, we have a responsibility to ensure the best possible infant 
delivery and pre/post natal care.
    Question. What role could a joint medical command play in planning 
for health care across all the Services, both in peacetime and in 
preparation for support of a military contingency?
    Answer. In principle, I would be in favor of any medical command, 
joint or otherwise, that could ensure quality health care for both 
servicemembers and their families in peace and in war. If confirmed, I 
would took forward to continuing a dialogue with this committee about 
how a joint medical command might best support USFK.

                    PREVENTION OF HUMAN TRAFFICKING

    Question. Following media reports connecting prostitution and human 
trafficking in Korea to U.S. military forces, Commander, USFK, in 2004 
instituted a zero tolerance policy regarding the illegal activities of 
prostitution and human trafficking. Under this policy, all USFK 
personnel, military and civilian, as well as contractors and their 
employees, are expected to comply with prohibitions, including 
observance of curfews and laws regarding off-limits areas and 
establishments, aimed at curtailing these practices.
    What effects on the incidence of prostitution and human trafficking 
have changes in U.S. policy, as well as new criminal laws implemented 
by the ROK, had on the incidence of prostitution and human trafficking 
in Korea?
    Answer. It is my understanding that the changes in U.S. policy, 
when coupled with the new laws passed by the ROK, have decreased the 
incidents of prostitution and human trafficking in Korea. Both have 
enabled the authorities, both civilian and military, to target 
activities and conditions that allow prostitution and human trafficking 
to take place. The current USFK strategy of awareness, identification, 
reduction, and continued interaction with the ROK has been a success 
story, and, if confirmed, I would continue to pursue this approach.
    Question. What further changes, if any, to the Uniform Code of 
Military Justice (UCMJ) and military regulations are needed in your 
judgment to ensure maximum effectiveness of the zero tolerance policy?
    Answer. At this time, I believe the UCMJ and extant military 
regulations are sufficient to ensure the efficacy of the zero tolerance 
policy, but I would be willing to offer any recommendations to this 
committee should I see the need to do so.
    If confirmed, what steps would you take to further enhance the 
effectiveness of the zero tolerance policy?
    Question. If confirmed, I will aggressively pursue the policies 
established by General LaPorte in response to the Deputy Secretary of 
Defense's 30 January 2004 memorandum regarding combating trafficking in 
persons. The zero tolerance policy's effectiveness relies entirely upon 
maintaining awareness and enforcing standards. It is through these 
functions of command that I believe I could further enhance the 
policy's effectiveness.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, United Nations 
Command/Combined Forces Command/United States Forces Korea?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe

                           NORTH/SOUTH KOREA

    1. Senator Inhofe. General Bell, I understand that DOD has proposed 
troop level changes that will have an ongoing effect on the United 
States' future impact and influence on the Korean Peninsula. The 
Yongsan Garrison and 2nd Infantry Division have been relocated further 
south, away from the DMZ and Seoul; recently it was announced that the 
U.S. troop level in South Korea dipped below 30,000. Further, DOD has 
determined that approximately 12,000 troops from Korea can be brought 
back to the U.S. between now and 2009. The good side of this is that 
the South Koreans are taking over their defense. A potential bad side 
is that we will have fewer troops forward deployed and ready for 
worldwide rapid response. What do you foresee as some of the possible 
dangers of having a lower number of U.S. troops on the Korean Peninsula 
and how do we best counter those risks?
    General Bell. Senator Inhofe, it is my understanding that the 
transformation of U.S. forces and their resulting enhanced capabilities 
have made it possible to redeploy forces with no negative effect upon 
the U.S. and ROK ability to deter and, should deterrence fail, to 
defeat external aggression. I am currently unaware of any military 
risks that may result from this redeployment.

    2. Senator Inhofe. General Bell, Kim Jong Il's regime has announced 
that it has operational nuclear weapons. Though experts debate the 
accuracy of this statement, we have to be prepared for the worst case 
scenario. At the very least, North Korea is on a path to develop 
nuclear weapons, and probably biological and chemical weapons as well. 
Over the last few months we have witnessed the Six-Party Talks go 
through a frustrating cycle of progress and stalling out. We know that 
in the past North Korea has used this as a negotiating tactic. Can we 
hope for anything new to come about through the current negotiations?
    General Bell. Senator Inhofe, the North Korean nuclear issue is 
complicated and will require time and effort on all sides. Resolution 
can best be achieved through the Six-Party Talks. The denuclearization 
of the peninsula is necessary and will lead to greater security and 
stability in the region. I cannot say whether North Korea will give up 
its nuclear weapons program as a result of the talks, but I can say 
that it is clearly in the best interests of all parties for North Korea 
to do so peacefully.

    3. Senator Inhofe. General Bell, what role can China play in 
bringing real progress to the situation?
    General Bell. Senator Inhofe, Pacific Command (PACOM) has the lead 
in addressing security issues regarding China. Having said that, China 
can exert major influence over North Korea as its sole remaining treaty 
ally. As a result, it is apparent that China plays and will continue to 
play an important role within the construct of the Six-Party Talks.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                         MOBILITY REQUIREMENTS

    4. & 5. Senator Levin. General Bell, last year DOD told us that 
moving forces back from Europe would not harm our ability to surge our 
forces to trouble spots. We have yet to see an analysis that would 
confirm or deny that assertion, or the other assertions made about the 
impacts of the so-called global posture review on our capabilities, our 
troops, or on the budget. As commander of our Army forces in Europe, 
you helped develop plans to implement the European aspect of this plan 
to relocate tens of thousands of personnel back to the United States 
over the next several years. In Korea, a smaller reduction of a brigade 
back to Fort Carson has already begun. In both these cases, the 
movement of forward-deployed forces back to the United States is 
certain to impact our war plans and our mobility requirements. As a 
commander in Europe, and as a prospective commander in Korea, do you 
know how these troop relocations will affect your ability to carry out 
the missions assigned to you in our plans?
    Do you know if DOD currently has the lift that will be needed to 
forward-deploy our forces to support our operational plans once those 
forces are relocated back to the United States?
    General Bell. Senator Levin, I would like to answer both questions 
4 and 5 at the same time, as I believe the two are closely related. 
Speaking as the Commanding General, United States Army Europe and 7th 
Army, I can say that the relocation of troops out of Europe has not 
impacted my ability to support the Commander, European Command. The 
movement of our heavy armor forces back to the United States will, in 
my view, have no negative impact on our mission response time for 
likely contingency areas which may require armor/mechanized forces. It 
is my understanding that United States Forces Korea's (USFK) ability to 
accomplish its mission is similarly unaffected. While I am not in 
possession of a full analysis of all worldwide war and contingency 
plans for the U.S. military, I can say that it is my professional 
assessment that forces postured in the United States can best respond 
to the full range of contingencies east and west from a central 
location in the United States. Our strategic air and sealift can best 
generate sorties from the United States, then use forward bases to 
onward move forces into contingency areas--again, east or west. 
Selected agile, mobile and joint enabled contingency/expeditionary 
forces should remain forward deployed to provide combatant commanders 
with immediate response capability. If, in the future as Commander, 
USFK, I find our forward force positioning does not meet our 
contingency/warfighting requirements, I will report my assessments 
through the appropriate command channels.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                  TROOP RELOCATION IN EUROPE AND KOREA

    6. Senator Akaka. General Bell, last year DOD told us that moving 
forces back from Europe would not harm our ability to surge our forces 
to trouble spots. We have yet to see an analysis that would confirm or 
deny that assertion, or the other assertions made about the impacts of 
the so-called global posture review or Integrated Global Presence and 
Basing Strategy (IGPBS) on our capabilities, our troops, or on the 
budget. As commander of our Army forces in Europe, you helped develop 
plans to implement the European aspect of this plan to relocate tens of 
thousands of personnel back to the United States over the next several 
years. In Korea, a smaller reduction of a brigade back to Fort Carson 
has already begun. In both these cases, the movement of forward-
deployed forces back to the United States is certain to impact our 
warplans and our mobility requirements. As a commander in Europe, and 
as a prospective commander in Korea, do you know how these troop 
relocations will affect your ability to carry out the missions assigned 
to you in our plans?
    General Bell. Senator Akaka, speaking as the Commanding General, 
United States Army Europe and 7th Army, I can say that the relocation 
of troops out of Europe has not impacted my ability to support the 
Commander, European Command. The movement of our heavy armor forces 
back to the United States will, in my view, have no negative impact on 
our mission response time for likely contingency areas which may 
require armor/mechanized forces. In fact, our transformation plans will 
significantly enhance my capability to execute security cooperation 
activities in the 91 country European Command area of responsibility. 
It is my understanding that USFK's ability to accomplish its mission is 
similarly unaffected. While I am not in possession of a full analysis 
of all worldwide war and contingency plans for the U.S. military, I can 
say that it is my professional assessment that forces postured in the 
United states can best respond to the full range of contingencies east 
and west from a central location in the United States. Our strategic 
air and sealift can best generate sorties from the United States, then 
use forward bases to onward move forces into contingency areas--again, 
east or west. Selected agile, mobile and joint enabled contingency/
expeditionary forces should remain forward deployed to provide 
combatant commanders with immediate response capability. If, in the 
future as Commander, USFK, I find our forward force positioning does 
not meet our contingency/warfighting requirements, I will report my 
assessments through the appropriate command channels.

    7. Senator Akaka. General Bell, do you know if DOD currently has 
the lift to get you the forces you need when you need them?
    General Bell. Senator Akaka, I cannot say at this time whether DOD 
has sufficient lift capability to support current operational plans. As 
part of my ongoing assessment of U.S. capabilities to support 
operations on the Korean Peninsula, I will ensure that I evaluate the 
required lift capabilities with as much scrutiny as other operational 
concerns.
                                 ______
                                 
    [The nomination reference of GEN Burwell B. Bell III, USA, 
follows:]
                    Nomination Reference and Report
                               Senate of the United States,
                                                 September 6, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, United States Code, section 601:

                             To be General

    GEN Burwell B. Bell III, 0000.
                                 ______
                                 
    [The resume of service career of GEN Burwell B. Bell III, 
USA, which was transmitted to the committee at the time the 
nomination was referred, follows:]
        Resume of Service Career of GEN Burwell B. Bell III, USA
Source of commissioned service: ROTC.

Military schools attended:
    Armor Officer Basic and Advanced Courses.
    United States Army Command and General Staff College.
    National War College.

Educational degrees:
    University of Tennessee at Chattanooga--BS--Business 
Administration.
    University of Southern California--MS--Systems Management.

Foreign languages: None recorded.

Promotions:

------------------------------------------------------------------------
                                                Dates of Appointment
------------------------------------------------------------------------
2LT.......................................  4 June 1969
1LT.......................................  4 June 1970
CPT.......................................  4 June 1971
MAJ.......................................  3 May 1980
LTC.......................................  1 Aug. 1985
COL.......................................  1 June 1990
BG........................................  1 July 1995
MG........................................  1 Sep. 1998
LTG.......................................  14 Aug. 2001
GEN.......................................  3 Dec. 2002
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
    From          To                        Assignment
------------------------------------------------------------------------
  Dec. 1969    Dec. 1970  Platoon Leader, later Executive Officer, M
                           Troop, 3d Reconnaissance Squadron, 14th
                           Cavalry Regiment. United States Army Europe
                           and Seventh Army, Germany.
  Jan. 1971    Nov. 1971  Motor Officer, 3d Armored Squadron, 14th
                           Armored Cavalry Regiment, United States Army
                           Europe and Seventh Army, Germany
  Nov. 1971    Mar. 1972  Commander, L Troop, 3d Reconnaissance
                           Squadron. 14th Armored Cavalry Regiment,
                           United States Army Europe and Seventh Army,
                           Germany
  Mar. 1972    Jan. 1974  Assistant S-3 (Operations), 2d Advanced
                           Individual Training Brigade, and later
                           Assistant S-3, 1st Advanced Individual
                           Training Brigade, United States Army Armor
                           School, Fort Knox, Kentucky
  Jan. 1974     May 1975  Commander, D Troop, 5th Cavalry Squadron, 1st
                           Advanced Individual Training Brigade, United
                           States Array Armor School, Fort Knox,
                           Kentucky
  June 1975    Jan. 1976  Chief, Individual Training Department, United
                           States Army Armor Center, Fort Knox, Kentucky
  Jan. 1976    July 1976  Student, Armor Officer Advanced Course, United
                           States Army Armor School, Fort Knox, Kentucky
  July 1976     May 1979  Assistant Professor of Military Science, 3d
                           Reserve Officer Training Corps Region, Texas
                           Tech University, Lubbock, Texas
  June 1979    June 1980  S-3 (Operations), 1st Battalion, 72d Armor, 2d
                           Infantry Division, Eighth United States Army,
                           Korea
  Aug. 1980    June 1981  Student, United States Army Command and
                           General Staff College, Fort Leavenworth,
                           Kansas
  June 1981    June 1983  Staff Officer, Army Force Modernization
                           Coordination Office, Office of the Chief of
                           Staff, Army, Washington, DC
  June 1983    Oct. 1984  Force Plans Analyst, Army Force Planning
                           Analysis Office, Office of the Deputy Chief
                           of Staff for Operations and Plans, United
                           States Army, Washington, DC
  Oct. 1984    Feb. 1987  Commander, 2d Squadron, 9th Cavalry, 24th
                           Infantry Division (Mechanized), Fort Stewart,
                           Georgia
  Aug. 1987    June 1988  Student, National War College, Fort McNair,
                           Washington, DC
  June 1988    Nov. 1988  Organizational Policy Planner, Policy
                           Division, J-5 (Plans), Office of the Joint
                           Chiefs of Staff, Washington, DC
  Nov. 1988    Aug. 1991  Executive Officer to the Commander in Chief,
                           United States Central Command, MacDill Air
                           Force Base, Florida and Operations Desert
                           Shield/Storm, Saudi Arabia
  Aug. 1991    July 1993  Commander, 2d Brigade, 24th Infantry Division
                           (Mechanized), Fort Stewart, Georgia
  July 1993    July 1994  Chief of Staff, 3d Infantry Division
                           (Mechanized), United States Army Europe and
                           Seventh Army, Germany
  July 1994    June 1995  Senior Army Fellow, Council on Foreign
                           Relations, New York, New York
  June 1995    Dec. 1995  Assistant Division Commander, 3d Infantry
                           Division (Mechanized), United States Army
                           Europe and Seventh Army, Germany
  Dec. 1995    Mar. 1996  Chief of Staff, United States Army Europe and
                           Seventh Army (Forward), Operation Joint
                           Endeavor, Hungary
  Feb. 1996    Aug. 1996  Assistant Division Commander, 1st Infantry
                           Division, United States Army Europe and
                           Seventh Army, Germany
  Aug. 1996    July 1997  Chief of Staff, V Corps, United States Army
                           Europe and Seventh Army, Germany
  July 1997    Aug. 1998  Deputy Chief of Staff for Operations, United
                           States Army Europe and Seventh Army, Germany
  Aug. 1998    July 1999  Chief of Staff, United States Army Europe and
                           Seventh Army, Germany
  July 1999    Aug. 2001  Commanding General, United States Army Armor
                           Center and Fort Knox,Fort Knox, Kentucky
  Aug. 2001    Nov. 2002  Commanding General, III Corps and Fort Hood,
                           Fort Hood, Texas
  Dec. 2002    Mar. 2004  Commanding General, United States Army Europe
                           and Seventh Army, Germany
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Dates               Grade
------------------------------------------------------------------------
Organization Policy Planner,      June 1988-Nov.      Lieutenant Colonel
 Policy Division J-5 (Plans),      1988.
 Office of the Joint Chiefs of
 Staff, Washington, DC (No joint
 credit).
Executive Officer to the          Nov. 1988-Aug.      Lieutenant Colonel/
 Commander in Chief, United        1991.               Colonel
 States Central Command, MacDill
 Air Force Base, Florida and
 Operations Desert Shield/Storm,
 Saudi Arabia.
Commanding General, United        Mar. 2004-Present.  General
 Slates Army Europe and Seventh
 Army/Commander, Allied Land
 Component Command Heidelberg,
 North Atlantic Treaty
 Organization/Commanding
 General, United States Army,
 North Atlantic Treaty
 Organization, Germany.
------------------------------------------------------------------------


U.S. decorations and badges:
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit (with 4 Oak Leaf Clusters)
    Bronze Star Medal
    Meritorious Service Medal (with Oak Leaf Cluster)
    Army Commendation Medal (with 2 Oak Leaf Clusters)
    Ranger Tab
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by GEN Burwell B. 
Bell III, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Burwell B. Bell III.

    2. Position to which nominated:
    Commander, United Nations Command/Combined Forces Command/United 
States Forces Korea.

    3. Date of nomination:
    September 6, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 4, 1947; Oak Ridge, Tennessee.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Kathleen Fields Bell.

    7. Names and ages of children:
    Burwell B. Bell IV; age 34.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    University of Tennessee--Chattanooga, Alumni Board of Directors--
Volunteer Member.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the United States Army (AUSA)--Member.
    Military Officers Association of America (MOAA)--Member.
    Council on Foreign Relations--Senior Army Fellow.
    VFW--Member.
    American Legion--Member.
    Armor Association--Member.
    Kappa Sigma College Fraternity--Member.
    Military Child Education Coalition--National Advisory Committee 
Member.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    None.

    12. Commitment to appear and testify before Senate committees: Do 
you agree, if confirmed, to appear and testify before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give you personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                            B.B. Bell, General, United States Army.
    This 6th day of September, 2005.

    [The nomination of GEN Burwell B. Bell III, USA, was 
reported to the Senate by Chairman Warner on October 27, 2005, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on October 28, 2005.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. Lance L. Smith, 
USAF, by Chairman Warner prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    You have had an opportunity to observe the implementation and 
impact of these reforms, particularly in your assignments as Deputy 
Commander, U.S. Central Command (CENTCOM), and Deputy Commander, United 
Nations Command/U.S. Forces Korea (USFK).
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Yes, I think that after 19 years, there are areas that 
could be modified.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I think there are three areas that could be improved.

        <bullet> First, we may need to increase the number of jobs that 
        are considered `joint.' I've had several jobs since Goldwater-
        Nichols that involved extensive real-word joint operations, yet 
        they were not considered `joint' by the personnel system. Due 
        to the significant changes in the way our forces deploy and 
        operate, I believe we may need to take a comprehensive look at 
        which jobs deserve joint duty credit, and give credit where 
        due, unconstrained by quotas.
        <bullet> Second, we need to provide joint credit for those 
        individuals serving in joint combat positions for less than the 
        current 22 month minimum requirement.
        <bullet> Finally, in a larger sense, Congress should consider 
        including other U.S. Government (USG) agencies in the joint 
        training and deployment readiness process so that appropriate 
        representatives of USG agencies are trained to better integrate 
        Service, defense agency, and interagency capabilities to more 
        effectively implement an integrated national strategy.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
Commander, U.S. Joint Forces Command (JFCOM)/Supreme Allied Commander 
Transformation?
    Answer. The Unified Command Plan focuses the command on two main 
missions: 1) providing conventional forces trained to operate in a 
joint, interagency, and multinational environment, and 2) transforming 
the U.S. military's forces to meet the security challenges of the 21st 
century. The Commander, JFCOM serves as the chief advocate for 
jointness and interoperability to champion the joint warfighting 
requirements of the other combatant commanders. As such, he is 
responsible for five major areas:

        <bullet> First, he is functionally responsible for leading 
        joint concept development and experimentation (CDE) and 
        coordinating the CDE efforts of the Services, combatant 
        commands, and defense agencies to support joint 
        interoperability and future joint warfighting capabilities. The 
        Commander of JFCOM is also tasked with leading the development, 
        exploration, and integration of new joint warfighting concepts 
        and serving as the DOD Executive Agent for joint warfighting 
        experimentation.
        <bullet> Second, he serves as the lead Joint Force Integrator, 
        responsible for recommending changes in doctrine, organization, 
        training, material, leadership and education, personnel, and 
        facilities to integrate Service, defense agency, interagency, 
        and multinational capabilities.
        <bullet> Third, he serves as the lead agent for Joint Force 
        Training. This effort is focused at the operational level with 
        an emphasis on Joint Task Force Commanders and their staffs and 
        the ability of U.S. forces to operate as part of a joint and 
        multinational force. Additionally, JFCOM is responsible for 
        leading the development of a distributed joint training 
        architecture and developing joint training standards.
        <bullet> Fourth, he leads the collaborative development of 
        joint readiness standards for Joint Task Force Headquarters 
        staffs, functional component headquarters staffs, and 
        headquarters designated as potential joint headquarters or 
        portion thereof, for recommendation to the Chairman.
        <bullet> Fifth, he serves as the Primary Joint Force Provider. 
        In this role, JFCOM has combatant command over a large portion 
        of the conventional forces of the U.S. Armed Forces and 
        provides them as trained and ready joint-capable forces to the 
        other combatant commanders when directed by the Secretary of 
        Defense.

    In addition to these UCP assigned missions, JFCOM has been assigned 
as the executive agent within the DOD for the following mission areas:

        <bullet> Joint Urban Operations
        <bullet> Personnel Recovery
        <bullet> Joint Deployment Process Owner
        <bullet> Training and Education to Support the Code of Conduct
        <bullet> Joint Experimentation

    The Supreme Allied Commander Transformation (SACT) is responsible 
to the military committee for overall recommendations on 
transformation. He leads transformation of NATO military structures, 
capabilities and doctrines, including those for the defense against 
terrorism in order to improve the military effectiveness and 
interoperability of the Alliance. He cooperates with the Supreme Allied 
Commander Europe (SACEUR) on integrating and synchronizing 
transformation efforts with operational activities and elements. He 
also promotes improvements to the capabilities of NATO forces made 
available by nations, especially for Combined Joint Task Forces and 
NATO Response Force Operations. Specifically, SACT:

        <bullet> Leads, at the Strategic Commander level, the NATO 
        Defense Planning Process, including the development of the 
        Defense requirements review.
        <bullet> Develops Strategic Commander Force proposals within 
        the Force Planning Process and conducts Strategic Commander 
        assessment of national contributions to the NATO force 
        structure in coordination with national military authorities.
        <bullet> Leads, at the Strategic Commander level, the 
        development of NATO Joint and Combined concepts, policy and 
        doctrine, as well as Partnership for Peace military concepts in 
        cooperation with SACEUR.
        <bullet> Leads, at the Strategic Commander level, the 
        development of future Communications Information Systems 
        strategy, concepts, capabilities, and architecture.
        <bullet> Leads, for military matters in NATO, partnership for 
        Peace and other non-NATO joint individual education and 
        training, and associated policy.
        <bullet> Assists SACEUR in the education and training of 
        functional commands and staff elements that plan for and 
        conduct operations with multinational and joint forces over the 
        full range of Alliance military missions.

    If confirmed, I will devote my efforts to accomplishing these JFCOM 
and ACT responsibilities.

                       BACKGROUND AND EXPERIENCE

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have benefited from a broad range of assignments during 
my nearly 36 years in uniform, from tactical to operational command. 
From my first assignment flying close air support and search and rescue 
missions in Vietnam, through assignments in NATO and Korea, to my 
current position as Deputy Commander, CENTCOM, I have had considerable 
experience in joint and coalition operations in actual combat or near 
combat situations. I was also privileged to command two fighter wings 
and a numbered Air Force, as well as the NATO School, Air War College, 
and the Air Force Doctrine Center. Throughout all these experiences, I 
was fortunate to work for, and with, incredible people at every level 
and tried to learn everything I could in each assignment. I have also 
had the opportunity to work with senior coalition leaders and coalition 
forces in a variety of missions--all helping to prepare me for this 
assignment.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the commanders of the 
combatant commands. Other sections of law and traditional practice, 
however, establish important relationships outside the chain of 
command. Please describe your understanding of the relationship of the 
Commander, JFCOM/Supreme Allied Commander Transformation, to the 
following:
    The Secretary of Defense.
    Answer. The Commander, JFCOM performs his duties under the 
authority, direction, and control of the Secretary of Defense, and is 
directly responsible to him to carry out its assigned missions.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, U.S.C., and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisers to the Secretary regarding matters related to their functional 
areas. Within their areas, Under Secretaries exercise policy and 
oversight functions. They may issue instructions and directive type 
memoranda that implement policy approved by the Secretary. These 
instructions and directives are applicable to all DOD components. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
the commanders and the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for Public Affairs, Legislative Affairs, Intelligence Oversight, and 
for Networks amd Information Integration, all Assistant Secretaries of 
Defense are subordinate to one of the Under Secretaries of Defense. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff. If confirmed, I will 
work closely with the Assistant Secretaries in a manner similar to that 
described above for the Under Secretaries.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is established by title 10 as the principal 
military advisor to the President and Secretary of Defense. The 
Chairman serves as an advisor and is not, according to law, in the 
operational chain of command, which runs from the President through the 
Secretary to each combatant commander. The President directs 
communications between himself and the Secretary of Defense to the 
combatant commanders via the Chairman of the Joint Chiefs of Staff. 
This keeps the Chairman fully involved and allows the Chairman to 
execute his other legal responsibilities. A key responsibility of the 
Chairman is to speak for the combatant commanders, especially on 
operational requirements. If confirmed as Commander, JFCOM, I will keep 
the Chairman and the Secretary of Defense promptly informed on matters 
for which I am personally accountable.
    Question. Supreme Allied Commander, Europe (SACEUR)
    Answer. SACEUR is one of two co-equal Strategic Commanders within 
NATO's command structure. As NATO's other Strategic Commander, the 
Supreme Allied Commander Transformation supports SACEUR in the 
education and training of functional commands and staff elements that 
plan for and conduct operations, with multinational and joint forces, 
over the full range of Alliance military missions authorized by the 
North Atlantic Council/Defense Planning Committee. Allied Command 
Transformation (ACT) also conducts and evaluates training and exercises 
of forces and headquarters, in coordination with and on behalf of 
SACEUR. Lastly, ACT supports SACEUR in joint analysis, evaluations and 
assessments of NATO-led operations and forces, including NATO Response 
Force certification.
    Question. North Atlantic Council/Defense Planning Committee/The 
NATO Chiefs of Defense and Defense Ministers/The Military Committee of 
NATO.
    Answer. As one of two co-equal Strategic Commanders within NATO's 
command structure, the Supreme Allied Commander Transformation provides 
military advice to the Military Committee, North Atlantic Council and 
Defense Planning Committee on matters pertaining to transformation, as 
required. The Commander may make recommendations directly to the 
Military Committee, the International Military Staff, national Chiefs 
of Defense, Defense Ministers and Heads of State and Government on 
transformational matters affecting the capability improvement, 
interoperability, efficiency, and sustainability of forces designated 
for NATO.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the military departments are responsible 
for the administration and support of the forces assigned to the 
combatant commands. The Commander, JFCOM coordinates closely with the 
secretaries to ensure the requirements to organize, train, and equip 
forces assigned to JFCOM are met. Close coordination with each Service 
Secretary is required to ensure that there is no infringement upon the 
lawful responsibilities held by a Service Secretary.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services organize, train, and 
equip their respective forces. No combatant commander can ensure 
preparedness of his assigned forces without the full cooperation and 
support of the Service Chiefs. As a member of the Joint Chiefs of 
Staff, the Service Chiefs have a lawful obligation to provide military 
advice. The experience and judgment of the Service Chiefs provide an 
invaluable resource for every combatant commander. If confirmed as 
Commander, JFCOM, I will continue the close bond between the command, 
the Service Chiefs and the Commandant of the U.S. Coast Guard in order 
to fully utilize their service capabilities, and to effectively employ 
those capabilities as required to execute the missions of JFCOM.
    Question. The combatant commanders.
    Answer. In general, JFCOM is a supporting command--its job is to 
make the other combatant commands more successful. If confirmed, I will 
continue the close relationships with other combatant commanders to 
increase the effectiveness we've created, and continue to build mutual 
support. The joint capabilities required by combatant commanders to 
perform their missions--today and in the future--forms a large basis of 
JFCOM's mission. Today's security environment dictates that JFCOM work 
very closely with the other combatant commanders to execute our 
national military strategy.
    Question. The commanders of each of the Service's training and 
doctrine commands.
    Answer. Tasked by the UCP as the executive agent for joint 
warfighting experimentation, a strong relationship exists between JFCOM 
and the Services' training and doctrine commands. Admiral Giambastiani 
established close working relationships with these organizations and 
their commanders via a monthly component commanders meeting, and if 
confirmed, I will continue these relationships.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges and problems 
confronting the Commander, JFCOM/Supreme Allied Commander 
Transformation?
    Answer. I see three overarching challenges for the Commander, 
JFCOM.

        <bullet> First, we must provide trained and ready joint forces 
        to the combatant commanders to fight not only the global war on 
        terrorism, but other possible contingencies as well, should and 
        when they arise. Also, we must be capable of generating forces 
        to respond to major disasters if directed to do so. Joint 
        Forces Command plays a major role in providing conventional 
        forces and capabilities to combatant commanders. JFCOM also 
        supports the joint training and readiness needs of those 
        forces. Providing sufficient numbers of mission-ready, joint-
        trained and equipped forces for the missions assigned to the 
        geographic combatant commanders will continue to be a 
        challenge.
        <bullet> Second, we must continue transforming our joint force 
        for the future while prosecuting current campaigns. Although 
        challenging, it is important to balance the needs of the 
        combatant commanders for current operations with the need to 
        modernize and modularize Joint and Service forces to increase 
        their capability to meet the security challenges of the 21st 
        century.
        <bullet> Third, we need to ensure the requirements and 
        acquisition processes can rapidly provide solutions to meet 
        combatant commanders' short term joint needs. We need to 
        improve our ability to quickly implement solutions to joint 
        lessons learned and integrate promising concepts and 
        technologies without significantly disrupting existing programs 
        within the execution years.

    If confirmed as Supreme Allied Commander, Transformation, I 
anticipate that my main challenge will be delivering timely 
transformational products to Allied Command Operations and the Allied 
Nations which improve and transform our military forces while advancing 
a clear understanding throughout the Alliance of military 
transformation and ACT's role in the process.
    Question. Assuming you are confirmed, what plans do you have for 
addressing them?
    Answer. If confirmed, I will work with the Chairman, combatant 
commanders, Service Chiefs, and defense agencies to ensure that we 
continue to develop and implement joint sourcing solutions to allow the 
combatant commanders to coherently prosecute their missions. I will 
also continue to ensure we use concept development, experimentation and 
Operational Analysis/Lessons Learned from experiments, exercises, and 
ongoing operations to guide transformation and improve global sourcing 
and the preparation of joint forces and capabilities for employment. I 
will work in partnership with the Services, COCOMs, agencies, industry, 
academia, and partner nations to leverage intellectual energy and 
collective resources. I will make recommendations and plans regarding 
the appropriate capabilities, policies and resources needed to continue 
to transform the Armed Forces to meet current and future security 
challenges. I will use congressionally-granted Limited Acquisition 
Authority, if continued past fiscal year 2006, and work closely with 
the Chairman and the Joint Requirements Oversight Council to resource 
timely solutions to the combatant commanders' emergent joint needs.
    On the NATO side, if confirmed, I will work with the Military 
Committee, the North Atlantic Council, the Supreme Allied Commander 
Europe and the Allied Nations to continue the transformation of NATO's 
military. Utilizing the considerable capabilities of Allied Command 
Transformation's headquarters, Joint Warfare Center, Joint Force 
Training Center, and Joint Analysis and Lessons Learned Center, as well 
as working with NATO's Agencies, educational establishments and the 
Allied Nations' Centers of Excellence, I will strive to continue the 
development of the capabilities, policies and resources needed to meet 
NATO's current and future security challenges. Additionally, I will 
carry forward, to both the political and military leaders of the 
Alliance and its Nations, the NATO transformation message in an effort 
to facilitate a clear understanding of the need for transformation, the 
responsibilities of those leading the process and the methods by which 
we intend to accomplish the task.

                        JOINT OFFICER MANAGEMENT

    Question. Pursuant to section 531 of the Ronald W. Reagan National 
Defense Authorization Act for Fiscal Year 2005, the Secretary of 
Defense is required to develop a strategic plan for joint officer 
management and joint professional military education that would link 
future requirements for active and Reserve military personnel who are 
trained and educated in joint matters to the resources required to 
develop those officers in terms of manpower, formal education, 
practical experience, and other requirements.
    What do you consider to be the primary strengths and weaknesses of 
the current requirements for joint professional military education with 
respect to qualification as a joint specialty officer?
    Answer. The strength of the current system is that it produces 
officers with a solid level of education, training, and joint staff 
experience to be certified as joint specialty experts. However, there 
are three main areas that we need to improve: providing credit for all 
relevant joint operational experience--especially in operational Joint 
Task Force headquarters, developing a system to track this cumulative 
experience across the officer corps, and finally I think we need to 
ensure the officer corps produces the right kinds of officers who 
achieve their Joint Specialty Officer certification early enough in 
their career so that we have a large enough pool of joint service 
officers to fill the requirements at all levels.
    Question. In assessing the performance of officers in joint 
command, what is your personal view of the operational value and 
importance of officers achieving qualification as joint specialty 
officers?
    Answer. There is significant operational value and importance in 
officers achieving qualification as joint specialty officers prior to 
assuming joint command. The focus should be on producing leaders who 
are fully qualified, inherently joint officers, critical thinkers, and 
most importantly, skilled warfighters and operators. Achieving the 
qualification of joint specialty officers is critical to supporting 
current and anticipated joint mission requirements.
    Question. What changes, if any, would you recommend in the 
development, education, management, assignment, and qualifying 
processes for officers in a transformed and fully joint U.S. military?
    Answer. In my opinion, there are three components to developing a 
Joint Specialty Officer: education, training, and experience. While the 
education and training components are reasonably well developed, the 
services do not always provide their best and brightest to serve on 
operational Joint Task Force Headquarters, and even when we do, we 
don't have a system to track officers with this joint operational 
experience. This problem is further compounded since we currently do 
not always provide joint credit for officers conducting joint combat 
operations for less than 22 months in a combat zone. This real-world 
joint operational experience--the most valuable kind of joint 
experience in my view--reinforces education and training with practical 
application of learned skills, thus more fully preparing officers to 
lead and manage in the joint environment. The joint manpower exchange 
program as currently being implemented has great potential for 
advancing jointness across the force. We are making great headway in 
this area but need to continue the effort.
    Question. The previous Commander, JFCOM, has expressed the view 
that a necessary next step in joint officer management is creating a 
system to track operational joint experience and to more easily provide 
joint duty credit for those officers who serve on an operational Joint 
Task Force.
    Do you agree with this view and, if so, how would you recommend 
achieving it?
    Answer. I wholeheartedly agree with Admiral Giambastiani's position 
in regard to the value of joint operational experience and ensuring we 
track and fold it into the joint officer management process. Real-world 
joint operational experience is the most valuable kind of joint 
experience as it reinforces education and training with practical 
application of learned skills, thus more fully preparing officers to 
command in the joint environment. Joint Specialty Officers with joint 
education, training, and experience are critical to successful joint 
operations today and in the future.
    There are three parts to tracking joint operational credit in the 
real world joint environment. First we need to establish criteria which 
define joint operational credit. Second we need to apply these criteria 
and identify key positions on the Joint Task Force Headquarters and 
other appropriate joint operational assignments and not be 
unnecessarily constrained by ceilings on the number of joint qualified 
officers. Finally, the human resource systems need to document this 
joint operational credit in a consistent manner across the officer 
corps so it is readily available in the joint specialty officer 
management process. I believe tracking both joint operational duty and 
joint credit for the total force to be one of the key steps we need to 
undertake in transforming the officer corps and producing leaders who 
are fully qualified, inherently joint officers.
    We also need to ensure our best officers go to these positions and 
that they are promoted at a rate consistent with the importance of 
their joint responsibilities.

             TRAINING OF SENIOR LEADERS IN JOINT OPERATIONS

    Question. JFCOM has taken several initiatives to train senior 
leaders to operate in joint environments. Capstone and Pinnacle are 
intensive courses that provide general and flag officers with an 
understanding of their role as joint task force commanders. Keystone 
provides senior enlisted leaders with an understanding of their role in 
joint operations.
    Based on your experience as Deputy Commander, CENTCOM, are senior 
leaders receiving the training they need to succeed in the joint 
warfighting environment?
    Answer. Yes. Joint training today, as well as leader development 
programs such as Pinnacle, Capstone, and Keystone, challenge and better 
prepare our leaders to think, act, and operate effectively in today's 
challenging security environment. These programs are continually 
updated based on observed best practices and they link in actual JTF 
commanders in the field for question and answer sessions. The joint 
mission rehearsal program is also providing outstanding operational 
level training for commanders and their staffs prior to deployment. We 
have been very pleased with the training the senior leaders of 
CENTCOM's Joint Task Forces have received.
    Question. What recommendations for change in senior leader 
training, if any, do you have?
    Answer. Overall, I am quite pleased with the senior leader training 
program. It achieves a good balance of academics, exercise, senior 
mentors and in-country right seat rides prior to mission transfer. 
While Interagency and multinational participation is included, it could 
be expanded and the earlier we engage our officers and senior NCOs the 
better.
    Question. In your opinion, is Keystone as robust and professionally 
developing as Capstone and Pinnacle? If not, what recommendations would 
you make to improve the course?
    Answer. Currently, the Keystone Joint Operations Module (JOM) 
hosted by Joint Forces Command is as robust and professionally 
developing as the JOM for Capstone and Pinnacle. Keystone provides 
senior enlisted leaders with training to serve on the staffs of joint 
commands. However, Keystone is just beginning to transition to a full 
program under the direction of National Defense University (NDU) as 
conducted for Capstone and Pinnacle. The Keystone program is valuable 
and as we move forward, I anticipate it will continually be shaped to 
meet the needs of commanders. In that respect, the graduates are being 
used well--nearly every regional combatant command senior enlisted 
leader has been through the course, the new JCS Command Sergeant Major 
is a graduate, and many of the key warfighting commands such as MNF-I, 
CFC-A, and MNC-I all have command senior enlisted leaders who are 
graduates of Keystone. In fact, CFC-A has designated Keystone as a 
prerequisite course for those selected for assignment as the Command 
Senior Enlisted Leader. This speaks quite well for the program and its 
graduates. Keystone has matured over its three iterations. A major 
milestone is formalization of Enlisted Professional Military Education 
Program, of which Keystone will serve as the graduate level course.

                        JOINT TACTICAL TRAINING

    Question. While progress has been made in the ability of the 
Services to plan and operate at the strategic level, there continue to 
be shortfalls in joint training and in the conduct of joint operations 
at the tactical level.
    Based on your service in USFK and CENTCOM, what do you consider to 
be the operational and tactical areas most in need of better joint 
capability, training, and procedures?
    Answer. Because of the different levels of engagement by the 
Services in the global war on terrorism, we are utilizing Air Force and 
naval personnel in many non-traditional areas such as truck drivers and 
prison guards. We need to anticipate and train to these capabilities as 
early as possible in the deployment process. Also, as we deal more and 
more with stability and reconstruction organizations such as Provincial 
Reconstruction Teams and Provincial Support Teams, we must ensure they 
have the right training for their unique jobset as well as in processes 
to protect themselves and to conduct combat operations should they come 
under attack.
    One way to increase our ability to conduct this sort of training is 
through the Joint National Training Capability (JNTC) which achieved 
Initial Operating Capability (IOC) in October of last year. JNTC for 
the first time offers the department the ability to integrate live, 
virtual, and constructive capabilities in a more realistic battle space 
environment at reduced cost and greater effectiveness. JNTC offers 
great opportunity to improve and advance joint intel, joint fires, 
joint command and control, joint ISR, joint logistics, interagency, and 
multinational operations. These areas and human intelligence (HUMINT) 
are key areas to focus on.
    Question. If confirmed, what steps would you take to improve the 
ability of tactical level units from each of the Services to train 
together and to require the Services, in fulfilling their statutory 
obligation to organize and train, to ensure joint tactical training 
takes place?
    Answer. The individual services understand that we must train 
jointly and have been leaning forward not only in joint training but 
also ensuring their training programs reflect the environment of real 
world operations. The Joint National Training Capability (JNTC) 
provides that real-world integrating environment that promotes 
Jointness through integration vice deconfliction. If confirmed, I would 
continue to use JNTC to incentivize the services by enabling them to 
conduct joint training from home station, or in some cases while 
deployed, and allowing them to focus at the tactical level as well as 
the operational level. I would also encourage the Services to include 
this type of joint training as early as possible in young officers and 
noncommissioned officers (NCOs) careers.

                          JOINT TRAINING JFCOM

    Question. Three years ago, this committee directed the DOD to 
develop standards to rationalize the requirements for military 
operations in urban terrain (MOUT) facilities within and across the 
services, and to report on those requirements. This effort has 
progressed very slowly, and the Department has informed us that such 
standards will not be in place in time to apply them to any projects 
requested in the fiscal year 2007 budget that will be presented to 
Congress next year.
    If confirmed, what steps would you plan to take, and what role do 
you envision for JFCOM, to develop standards and priorities for joint 
urban training across DOD, to include the requirements for and location 
of facilities needed to support this training?
    Answer. DOD has made great improvements in our joint urban training 
over the past few years. If confirmed, I would ensure JFCOM continues 
to work with the Joint Staff and the Services to develop standards and 
priorities for joint urban training and facilities as quickly as 
possible.
    Question. Do you believe this program should be part of the Joint 
National Training Capability (JNTC) effort, or that it should be 
separate?
    Answer. At the moment, I believe there is greater utility in 
establishing a Service-based program that JFCOM certifies, monitors, 
and supports, but this is an issue that I would like to examine more if 
confirmed.
    Question. Do you believe any changes in title 10 responsibilities 
are necessary in order to provide the joint training capability needed 
to deal with the complex challenges of current and future missions?
    Answer. It is certainly possible that some changes to title 10 
responsibilities may become necessary; however, through the ongoing 
deployment of a joint national training capability, we have made 
significant and steady progress in many areas. This progress is the 
result of many thousands of conversations everyday within and between 
the myriad of Service organizations, the COCOM staffs, OSD, the Joint 
Staff and all of our various multinational, agency, industry and 
academic partnerships. Eventually some title 10 adjustments may serve 
to make our outcomes more efficient, but I don't believe it can make 
them inherently effective unless the people in the process understand 
and are committed in very personal ways. In essence, the cultural 
change is as important as the policy change. That cultural change is 
happening more and more every day.

                        CLOSE AIR SUPPORT JFCOM

    Question. A GAO report of May 2003 entitled ``Military Readiness: 
Lingering Training and Equipment Issues Hamper Air Support of Ground 
Forces,'' found that the Services have had limited success in 
overcoming the barriers that prevent troops from receiving the 
realistic, standardized close air support (CAS) necessary to prepare 
them for joint operations. GAO found that progress has been slow on 
many of the CAS issues because the Services have been unable to agree 
on joint solutions and that U.S. troops are forced to conduct last-
minute training or to create ad hoc procedures on the battlefield.
    From the perspective of the combatant commander, what progress has 
been made and what problems persist, in ensuring successful CAS mission 
execution?
    Answer. Fortunately we continue to make progress in this important 
area. For example, the Services have recently agreed to standardized 
training procedures for joint terminal air controllers and we created 
the Joint Fires Interoperability and Integration Team out of two other 
commands to focus on the integration of joint fires at tactical level. 
We have also made progress in standardizing more and more equipment. 
For example, one of the major CAS shortfalls identified during 
Operation Enduring Freedom (OEF) was the lack of target location and 
ranging devices for the terminal attack controllers on the ground. 
Based on this shortfall and prior to Operation Iraqi Freedom (OIF), the 
Services purchased and fielded many laser range finders and GPS systems 
for the terminal attack controllers on the ground. This significantly 
increased the target coordinate accuracy and allowed CAS platforms to 
accurately deliver their ordnance where the ground commander needed it.
    Additionally, the accessibility of Unmanned Air System information 
to the terminal attack controller has also brought about significant 
improvement to CAS employment. The ability to get a ``bird's eye'' view 
of the target area similar to what the aircrew is seeing significantly 
reduces the time required to pass the correct target to the aircrew. 
These technological improvements in the hands of trained controllers 
continue to increase the efficiency and effectiveness of CAS assets in 
support of the ground commander.
    While we have made significant progress, more needs to be done for 
both U.S. forces and coalition partners in enhancing equipment 
interoperability, improving the effectiveness of simulations for 
terminal air controller qualification and currency training, and 
alignment of qualified air controllers at the appropriate level in 
tactical ground units
    Question. What steps has the Department and JFCOM taken to respond 
to the recommendations of the GAO with respect to CAS training?
    Answer. JFCOM chairs the Joint CAS Executive Steering Committee 
which has made huge strides toward standardizing the training and 
certification of Joint Terminal Attack Controllers (JTACS) and Forward 
Air Controllers (Airborne) (FAC(A)), both within DOD and with our 
allies. JFCOM created the Joint Fires Interoperability and Integration 
Team out of two other commands to focus on the integration of joint 
fires at tactical level.
    JFCOM is also heavily involved in establishing interoperable 
equipment requirements for Joint Fires. JFCOM is also collaborating 
with the Services and SOCOM to develop a Joint equipment solution for 
the terminal attack controllers--the Joint Effects Targeting System 
(JETS)--a light-weight, manportable target location and designation 
system integrated with a targeting effects coordination system 
(estimate fiscal year 2010-2012 fielding).
    In the near-term, JFCOM has provided CENTCOM with the ability to 
pass airborne imagery to ground units (using Rapid Attack Information 
Dissemination Execution Relay (RAIDER)) as well as to better plan and 
target CAS using a Digital Precision Strike Suite (DPSS) of equipment. 
This DPSS capability has been used by Special Operations Forces in both 
Iraq and Afghanistan. During the last large engagement in Fallujah 
(November/December 2004), DPSS was used to support the majority (90 
percent) of all USMC/Naval Special Warfare CAS missions including both 
JDAM and LGB drops.
    With advances in technology, simulation now offers realistic and 
affordable alternatives for Joint Close Air Support (JCAS) training. 
While simulation will never fully replace live training events, it will 
potentially relieve a portion of the cost associated with initial and 
follow-on training requirements for our units and personnel and 
ultimately allow us to train more efficiently across DOD.
    Question. If confirmed, what steps would you take to solve this 
problem?
    Answer. If confirmed, I would continue to push for JFCOM to be 
designated the DOD lead for JCAS, which would increase JFCOM's ability 
to influence joint solutions and capability improvements for the 
warfighter. Additionally, working with our Coalition partners to gain 
acceptance of our Joint Terminal Attack Controller (JTAC) and Forward 
Air Controller--Airborne (FAC(A)) qualification and certification 
standards will be one of my top priorities. My executive agent for most 
of these initiatives would be the Joint Fires Interoperability and 
Integration Team, which is already working with all the Services and 
many of our multinational partners to raise the bar on JCAS capability 
and performance.

                  JOINT REQUIREMENTS OVERSIGHT COUNCIL

    Question. The Joint Requirements Oversight Council (JROC) has the 
responsibility to assist the Chairman of the Joint Chiefs of Staff in 
identifying and assessing the priority of joint military requirements 
to meet the National military strategy and alternatives to any 
acquisition programs that have been identified.
    How would you assess the effectiveness of the JROC in the 
Department's acquisition process?
    Answer. In my view, we must ``operationalize'' the JROC and 
acquisition processes to respond with agility when immediate and 
pressing needs are presented and validated. Currently, the Joint 
Capability Integration and Development System (JCIDS) is designed to 
impact mid- to far-term capabilities and funding (3 years and beyond). 
The process has less flexibility to quickly respond to emerging 
requirements within the PPBE process in the near-term budget years (1-2 
years).
    A variety of ad hoc measures have been used to address this 
challenge. Congress has helped by providing new authorities such as 
Limited Acquisition Authority (LAA). One near-term solution is to 
dedicate appropriate resources--tied to Limited Acquisition Authority--
in order to have funds available to ensure combatant commanders are 
able to quickly acquire joint warfighting capabilities. In the long-
term, the JCIDS process needs to change to fall more in line with the 
demands and pace of today's operations. Additionally, the JROC issues 
memoranda directing JFCOM and other combatant commands to undertake 
actions on behalf of the joint force, but often provides limited 
funding to initiate the action or sustain it beyond its first year or 
two. As an example, I understand that JFCOM has nearly $100 million 
worth of unfunded requirements in fiscal year 2006, all of which were 
directed by external mandates, some of which came from the JROC. I am 
aware that the Joint Staff is working on a way to link plans and 
requirements to resources. If confirmed, I look forward to seeing how 
that applies to a functional combatant command like JFCOM and to 
helping to develop a systemic way to address these concerns in the 
future.

                           JOINT REQUIREMENTS

    Question. Commander, JFCOM, is responsible for advocating for the 
interests of combatant commanders in the overall defense requirements 
and acquisition process.
    From your perspective as the Deputy Commander, CENTCOM, has JFCOM 
effectively represented the requirements and needs of combatant 
commanders to the JROC and the military services?
    Answer. Yes, in my experience at CENTCOM, JFCOM was very effective 
in representing CENTCOM's needs to the Joint Requirements Oversight 
Council and the military services. For example; JFCOM collected and 
analyzed lessons learned from Afghanistan and Iraq. These lessons were 
compared to the Integrated Priority Lists and Joint Quarterly Readiness 
Reports submitted by the combatant commanders. This comparison was then 
used to develop recommended approaches for resolution which were 
submitted to the Joint Staff and JROC. All of these recommendations 
were endorsed by the JROC. A problem, however, in my opinion is that 
many of these joint solutions are still not adequately funded. If 
confirmed, I look forward to continue working with all those involved 
to make the system even more responsive to combatant commander needs--
to include possible JFCOM representation on the JROC.
    Question. In your view, are combatant commanders capable of 
identifying critical joint warfighting requirements and quickly 
acquiring needed capabilities?
    Answer. Combatant commanders are very effective in identifying 
joint warfighting requirements and capability gaps. However, their 
ability to quickly acquire needed capabilities has proven less than 
optimal. The Joint Requirements Oversight Council process is designed 
to impact mid- to far-term capabilities and funding (3 years and 
beyond). The process has less flexibility to respond to emerging 
requirements within the Planning, Programming, Budgeting, and Execution 
(PPBE) process in the near-term budget years (1-2 years). Currently, 
there are limited pools of funding available to address this systemic 
problem. Therefore, combatant commanders still have difficulty rapidly 
acquiring some capabilities. If confirmed, I look forward to exploring 
ways to improve the ability to quickly acquire capabilities needed by 
the combatant commanders.
    Question. What suggestions, if any, do you have for improving the 
requirements and acquisition process to ensure that combatant 
commanders are able to quickly acquire needed joint warfighting 
capabilities?
    Answer. In my view, we must ``operationalize'' the JROC and 
acquisition processes to respond with agility when immediate and 
pressing needs are presented and validated. As I mentioned above, the 
JCIDS is designed to impact mid- to far-term capabilities and funding 
(3 years and beyond). The process has less flexibility to quickly 
respond to emerging requirements within the PPBE process in the near-
term budget years (1-2 years).
    A variety of ad hoc measures have been used to address this 
challenge. Congress has helped by providing new authorities such as 
Limited Acquisition Authority (LAA) which has proven to be of great 
value. One near-term solution is to extend this authority and dedicate 
appropriate resources in order to have funds available to quickly 
acquire joint warfighting capabilities for the combatant commanders. In 
the long-term, the JCIDS process needs to adapt to more effectively 
meet the demands and pace of today's operations. If confirmed, I look 
forward to helping to develop a systemic way to address these concerns.
    Question. If confirmed, what role do you believe you should play in 
the JROC deliberations?
    Answer. I believe the combatant commanders need to have an 
effective voice in the resource decisions of joint requirements. If 
confirmed, I look forward to investigating the option of including 
JFCOM representation as a voting member on the JROC.

                             TRANSFORMATION

    Question. By serving as the Department's ``transformation 
laboratory,'' JFCOM enhances the combatant commands' capabilities as 
outlined in the Department's Unified Command Plan.
    Do you believe JFCOM should play a larger role in transformation 
and setting transformation policy? If so, how?
    Answer. JFCOM's role and influence in transformation continues to 
grow through constantly expanding interaction with the Services, Joint 
Staff, and OSD in the joint experimentation, joint training, joint 
integration, and joint force providing responsibilities as assigned by 
the UCP. Our transformation role includes both interactions within the 
existing DOD developmental processes and the ability to act as a 
coordinator of Service, COCOM, and agency efforts. Transformation 
policy clearly rests with the Department. However, JFCOM is afforded 
substantial and sufficient opportunity to inform policymakers and to 
shape the mechanisms that execute transformation policy.
    Question. In your view, what effects-based capabilities that have 
been fielded are truly transformational?
    Answer. There are two core aspects of effects-based capabilities 
currently in the field that are truly transformational. The first, and 
more mature of the two, is the systemic analysis capability. Designed 
to view the adversary and overall operational environment as 
interrelated systems, this capability focuses information on them in 
terms of nodal analysis and the impact that action(s) X, Y, or Z may 
have on the adversary's critical nodes. In essence targets are not 
viewed as such, but rather their importance to the adversary's 
behavior. Thus military targets may be bypassed or neutralized (not 
destroyed) if their presence has little to no importance while 
political, social, or economic targets may be deemed more critical. The 
systemic approach provides decision makers with a critical view of the 
operational environment and an unprecedented capability to understand 
how planned actions will impact the situation. The systemic analysis 
process has been fielded to all U.S. regional combatant commands and is 
also in use with coalition forces in Iraq and Afghanistan and with the 
Combined Forces Command in Korea.
    The second truly transformational capability is the effects-based 
assessment (EBA) methodology. EBA is the ``heart'' of the EBO concept, 
and provides commanders with an effects-based understanding of 
operational progress as well as effects-based recommendations for 
future operational decision making. It transforms the traditional 
nature of campaign assessment into one that enables all operational 
echelons to understand the effects-based intent of their actions and to 
report the outcomes of such actions in a way that links directly to the 
command decisionmaking process. As with the systemic analysis 
capability, the EBA methodology is currently being used by a wide range 
of U.S. and multinational organizations around the world.
    Question. What effects-based capabilities currently under 
development do you consider to be truly transformational and deserving 
of support within the Department and Congress?
    Answer. While true that both the systemic analysis and EBA 
methodology are widely fielded, both are still somewhat under 
development. Continued support of these two critical effects-based 
capabilities is directly linked to the future value of EBO.
    Question. Few would argue that the introduction of unmanned aerial 
systems was not an important transformational achievement. Each Service 
is developing a wide range of unmanned aerial system capabilities, and 
the Office of the Secretary of Defense (OSD) is responsible for 
ensuring these capabilities support the Department's overarching goals 
of fielding transformational capabilities, establishing joint 
standards, and controlling costs.
    In your view, what role should JFCOM play in supporting the 
Department, including the Services and Defense agencies, in achieving 
successful systematic migration of mission capabilities to this new 
class of military tools?
    Answer. As lead in the Joint Battle Management Command and Control 
Board of Directors and a partner in the UAV Center of Excellence, 
JFCOM, I believe, is playing a role in ensuring joint interoperability 
requirements are being integrated into the design of the UASs 
themselves and the payloads they carry. This ensures they are fully 
capable of being seamlessly integrated and fully joint capable in the 
joint battlespace. JFCOM certainly has unique capabilities that could 
be further applied to this issue if given appropriate authority.
    Question. JFCOM has a responsibility to improve combatant commander 
unmanned aerial system effectiveness through improved joint service 
collaboration. Currently, the Air Force is fielding the Predator 
unmanned aerial system, and Army has recently signed a contract for the 
system development and demonstration of the Warrior unmanned aerial 
system. Both systems have a hunter-killer mission, are produced by the 
same contractor, and are very similar in design and capability.
    What was JFCOM's role, if any, in effecting joint service 
collaboration for these two systems or in determining whether there 
could be overlap between the Army and Air Force requirements?
    Answer. Based on my understanding at this juncture, I believe 
JFCOM's authorities and responsibilities in the development and 
approval of the joint requirements for both Warrior and Predator must 
be expanded to ensure we do not duplicate capabilities due to the lack 
of clearly understood combatant command requirements and insufficient 
Joint Tactics, Techniques and Procedures for the employment of systems 
we already have on hand. The creation of a Joint Unmanned Aircraft 
System Center of Excellence located at Creech AFB in Nevada is one 
example of how the joint force has taken steps to ensure unwarranted 
duplication of effort does not occur.
    Question. What joint warfighter capabilities, if any, does the 
Warrior system provide?
    Answer. I am not familiar enough with exact capabilities of the 
Warrior system to answer that question. The important issue with any 
new UAV system is to make sure that the acquisition process is properly 
followed so that the system is `born joint.' In CENTCOM, when UAVs were 
acquired outside the normal process, it sometimes led directly to 
problems with spectrum management and incompatible systems. The new UAV 
Joint Center of Excellence will hopefully help ensure these problems 
are worked out before new systems come into theater.

                     COMBAT IDENTIFICATION SYSTEMS

    Question. The committee is concerned that urgent joint warfighting 
requirements, including combat identification systems, are not always 
conceived, developed, and fielded in the most expeditious manner 
possible. Longstanding operational requirements include a joint blue 
force tracking capability; a joint interoperable air, sea, and ground 
combat identification system; and a joint simulations and modeling 
capability for evaluating joint warfighting concepts development.
    What progress has been made, and what challenges exist, to fielding 
effective friendly forces tracking capabilities?
    Answer. Fielding effective capabilities in this area has been 
centered on achieving service and coalition interoperability of these 
various tracking capabilities. We've made significant progress in 
getting all the Services to agree to a strategy for a single blue force 
tracking (BFT) capability with key capabilities from each Service 
merging in fiscal year 2008-2009. Of note, the Army and Marine Corps 
will begin merging their systems this fiscal year. An Advanced Concept 
Technology Demonstration (ACTD) showed it was possible to display data 
from multiple BFT systems on a single common operational picture and a 
further development is being fielded to CENTCOM which sends ground BFT 
data to attack aircraft.
    Of great significance, JFCOM, in partnership with Allied Command 
Transformation (ACT), just completed the last of three demonstrations 
that were part of a nine nation Coalition Combat Identification (CCID) 
Advanced Concept Technology Demonstration (ACTD). This event evaluated 
a number of ground-to-ground and air-to-ground technologies including 
Radio Frequency Tags and interoperable NATO standard Battlefield Target 
Identification Devices. The results will be available in March 2006 in 
the form of a Joint Military Utility Assessment that will inform U.S. 
and coalition acquisition and fielding decisions for Combat 
Identification.
    Challenges remain in ensuring all Services and agencies examine the 
full range of both materiel and non-materiel solutions. Moving BFT 
information across multi-security levels and back and forth to 
coalition partners is also an important issue that requires constant 
attention. Additionally, determining the correct doctrinal relationship 
between Combat Identification and Situational Awareness is a high 
priority. Finally, building effective JFCOM-led organizations that are 
supported across the DOD will pay real dividends, as these CID and BFT 
challenges are long term issues.
    Question. What additional acquisition authority, if any, does JFCOM 
require to rapidly address such joint warfighting challenges?
    Answer. JFCOM requires that Limited Acquisition Authority be 
extended when it expires at the end of fiscal year 2006. This authority 
should be accompanied with adequate resources to accelerate fielding of 
capabilities to the commanders in the field. Additionally, the law 
should allow use of O&M funding to support and sustain the operation of 
the LAA project for that period of time before the Services can revise 
their POMs to incorporate the new, or additions to existing, programs.

           JOINT FORCES COMMAND LIMITED ACQUISITION AUTHORITY

    Question. The National Defense Authorization Act for Fiscal Year 
2004 provided Commander, JFCOM, with the authority to develop and 
acquire equipment for battle management command, control, 
communications, and intelligence and other equipment determined to be 
necessary for facilitating the use of joint forces in military 
operations and enhancing the interoperability of equipment used by the 
various components of joint forces. This authority limits spending to 
$10 million for research and development and $50 million for 
procurement.
    What is your assessment of the benefits of this limited acquisition 
authority?
    Answer. Limited Acquisition Authority (LAA), granted to the 
Secretary of Defense, has proven to be an exceptionally useful and 
flexible tool for JFCOM in support of other combatant commands, 
however, no funds were allocated to JFCOM to support LAA. Based on 
warfighting shortfalls validated by combatant commanders, LAA has 
allowed JFCOM to field mature technologies or improved capability to 
the warfighters in the regional combatant commands more rapidly than 
the normal DOD process for responding to unanticipated urgent needs.
    Since 2004 JFCOM's implementation of LAA in support of combatant 
commands has been used to fund/provide several improvements to the 
Joint Warfighter:

        <bullet> The Joint Precision Air Drop System 2000 pound 
        capability allows precision delivery of logistic support to 
        forces in remote operating areas or behind enemy lines. 
        Expected delivery--accelerated from a planned delivery of 
        fiscal year 2009 to November 2005.
        <bullet> The Change Detection Work Station (CDWS) is a 
        capability to map and detect Improvised Explosive Devices along 
        troop/convoy routes. CDWS deployed to CENTCOM in January 2005 
        and has already detected several IEDs before they were able to 
        cause damage or injury.
        <bullet> The Joint Task Force Commander Executive Command and 
        Control Capability (JTF CDR EC2) is an information technology 
        solution that provides connectivity to a commander while 
        remotely located from the headquarters element. Four of these 
        systems were delivered to CENTCOM/EUCOM Combined Joint Task 
        Forces (CJTF) in fiscal year 2004 and a fifth was delivered to 
        CJTF-76 late last year. It has also been deployed to support 
        Katrina and is currently deployed in support of the 
        humanitarian operation in Pakistan.
        <bullet> Joint Translator/Forwarder/Joint Blue Force 
        Situational Awareness/Rapid Attack Info Dissemination Execution 
        Relay combines several capabilities critical to the data link 
        integration, blue force tracking, and attack of time sensitive 
        targets.

                <bullet> Joint Translator Forward is a universal 
                translator/data forwarder for converting our existing 
                disparate data sources and links.
                <bullet> Joint Blue Force Situational Awareness 
                provides the ability to pull different Blue Force 
                Tracking devices together and display then in one 
                Common Operating Picture. This capability is in Iraq 
                today with Multinational Force West (MNF-W) and is 
                being tested to support XVIII Airborne Corps as we 
                speak.
                <bullet> RAIDER provides Time Sensitive Target attack 
                data/authorization to multiple aircraft en route to 
                targets. Currently, CENTCOM is using the capability in 
                nontraditional ISR missions in direct support of ground 
                operations, passing imagery to ground forces.

        <bullet> Command and Control On The Move--provides very large 
        bandwidth access to Intelligence & Command and Control systems 
        while on the move. The initial capability was delivered to V 
        Corps in July 2005 and is currently deployed to Pakistan to 
        support the humanitarian effort.

    JFCOM is also evaluating additional capabilities for fielding under 
Limited Acquisition Authority.

        <bullet> Simultaneous, two-way voice translation between 
        American English and Arabic dialects.
        <bullet> Public Key Infrastructure/Interoperability Express--a 
        method to provide secure, but unclassified information between 
        U.S. and coalition partners in the combatant commands.
        <bullet> Theater Battle Operations Net Centric Environment 
        (TBONE)--a means to readily develop and disseminate air tasking 
        orders to all participating units.
        <bullet> Multi-level-secure Information Infrastructure (MI2)--
        provides information sharing within and across multi-level 
        security information domains.

    Question. Do you believe this authority should be extended beyond 
September 30, 2006? If so, what changes, if any, would you recommend to 
improve the authority?
    Answer. Yes. I strongly believe that extension of Limited 
Acquisition Authority (LAA) beyond fiscal year 2006 will continue to 
provide needed capabilities to the Regional Combatant Commanders; 
especially in Command and Control functions, Communications, 
Intelligence, Operations, and Interoperability. I strongly urge 
Congress to extend the authority.
    Limited Acquisition Authority can be improved by adding 
appropriated funding commensurate to the authority and by allowing the 
use of Operation and Maintenance (O&M) funds for sustainment of LAA-
acquired capabilities until transition to an existing program of 
record, absorption of the sustainment into the recipient's O&M budget, 
or termination of the requirement for each specific capability.
    While LAA projects are bringing some much-needed improvements to 
the joint warfighter, the LAA is not without significant challenges. 
Finding adequate resources to support LAA projects is often more 
challenging than defining, developing or fielding the capability. While 
these authorities have provided opportunities to partner with Services 
and defense agencies to field these tools, developing funding 
agreements takes time, slowing the development and delivery of 
capabilities to the troops--the very problem that LAA was designed to 
address.
    The ability to sustain/maintain these projects during transition to 
programs of record also continues to present challenges. LAA does not 
allow the use of O&M under the statute. Thus, we can research, develop, 
and acquire a capability but not sustain it through transition to a 
Service program of record or until project termination. If the Limited 
Acquisition Authority were to expire as scheduled on 30 September 2006, 
we would lose an excellent--and rapidly improving--method to accelerate 
delivery of ``urgent need'' capabilities to the operational commanders.
    Question. Do you believe similar acquisition authority should be 
extended to other combatant commands, and, if so, which commands and 
why?
    Answer. I would like to reserve judgment on extension of this 
authority to other combatant commands pending consultation with the 
combatant commanders and pending further experience from Joint Forces 
Command with Limited Acquisition Authority. As a supporting command, 
JFCOM has Department-wide unique organizational structures, functional 
experts and laboratories to represent the combatant commanders' 
requirements and to develop, advance, and deploy technologies. 
Potential considerations of providing LAA authority to multiple 
combatant commanders include the possibility of a requirement for other 
COCOMs to develop internal organizations, functional experts, and 
laboratories to advance LAA initiatives, and multiple COCOMs developing 
similar/redundant capabilities at the same time.

                DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS

    Question. The Department's Science and Technology (S&T) programs 
are designed to support defense transformation goals and objectives. 
These programs should ensure that warfighters--now and in the future--
have superior and affordable technology to support their missions and 
to give them revolutionary war-winning capabilities.
    Do you believe there is an adequate investment in innovative 
defense science to develop the capabilities the Department will need in 
2020?
    Answer. In my current capacity, I do not have enough visibility 
into this issue to provide an informed answer. If you desire I will 
look into this and come back to the committee if confirmed.
    Question. Do you believe the Department's investment strategy for 
S&T programs is correctly balanced between near-term and long-term 
needs?
    Answer. In my capacity as Deputy Commander, CENTCOM, I have not 
been involved in the department's overall investment strategy for S&T. 
I would like to reserve judgment until I have time to study this issue. 
If confirmed, I will be happy to readdress this issue with the 
committee in the future.

                         TECHNOLOGY TRANSITION

    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain to institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What are your views on the success of the Department's technology 
transition programs in spiraling emerging technologies into use to 
confront evolving threats and to meet warfighter needs?
    Answer. In addition to LAA, JFCOM is achieving success in several 
different approaches to spiral development and delivery of emerging 
capabilities.

        <bullet> JFCOM's Joint Futures Lab (JFL) is achieving success 
        through a process that takes prototypes from problem 
        identification to fielding in 3 to 6 months. Much of this work 
        is done by integrating emerging technologies into existing 
        infrastructures and legacy capabilities. This prototyping 
        approach enables detailed testing of capabilities in both real-
        world and laboratory environments such as combatant command 
        exercises, Service war games, and ongoing operations. An 
        example of this process is the recent prototype effort to 
        support Multinational Forces--Iraq (MNF-I) with an open 
        standards, open source portal for cross-domain collaboration 
        and document management. This is allowing the coalition members 
        to rapidly share information from planning through mission 
        execution.
        <bullet> JFCOM was also recently delegated Technology Transfer 
        Authority by the Secretary of Defense. This allows the command 
        to share technology with academia and industry for the purpose 
        of research and development. JFCOM is using this authority to 
        speed the research and development process, which helps to 
        rapidly integrate and field new technologies.
        <bullet> Finally, technologies are also transferred to war 
        fighters through JFCOM's Joint Systems Integration Command and 
        the Joint Advanced Training Technology Laboratory. These 
        activities provide venues for quickly evaluating and 
        integrating new capabilities throughout the joint and component 
        training and acquisition communities.

    In addition to JFCOM success, DOD has also had success with the 
Defense Advanced Research Projects Agency's (DARPA) developmental 
efforts, Service Labs, and Service System Commands. While these 
organizations are making significant progress in rapidly providing 
capabilities to the Joint Warfighter, like LAA, these programs have 
difficulty transitioning their deliverables to Programs of Record.
    Question. What more can be done to transition critical technologies 
quickly to warfighters?
    Answer. There are several actions which can accelerate delivery of 
critical technologies to the warfighter. First is the availability of 
adequate funding to develop, field, and sustain new technologies until 
they become a Program of Record. We also need to accelerate the 
certification and accreditation process, encourage development using 
open source products and open standards, and increase our efforts to 
create partnerships with academia and industry. Additionally, it is 
necessary to update export control policies to rapidly field new 
technologies to our emerging global partners.

                   END STRENGTH OF ACTIVE-DUTY FORCES

    Question. What level of Active-Duty personnel (by Service) do you 
believe is required for current and anticipated missions?
    Answer. I think this question will be more completely answered by 
the Quadrennial Defense Review (QDR) Study. I would like to reserve 
judgment until that study is completed.
    Question. How do you assess the progress made to date by the 
services in reducing the numbers of military personnel performing 
support functions through hiring of contractors or substitution of 
civilian employees?
    Answer. I don't have visibility on this issue across all the 
services and combatant commands at this time. That said, from a 
warfighter's perspective, there are still some issues to wrestle with 
in the use of contractors/civilian employees in lieu of military 
personnel in operational theaters and there is particular concern with 
trying to use contractors/civilian employees for certain billets 
requiring skill sets not possessed or readily available in the civilian 
sector. We need to ensure that we only replace those support functions 
which are appropriate and will not lead to a loss of combat capability.

                     RELIANCE ON RESERVE COMPONENT

    Question. The men and women of the Reserve component have performed 
superbly in meeting the diverse challenges of the global war on 
terrorism and have been greatly relied upon in Operations Noble Eagle, 
Enduring Freedom, and Iraqi Freedom. The roles and missions that should 
be assigned to the Reserve Forces is a matter of ongoing study.
    What missions do you consider appropriate for permanent assignment 
to the Reserve component?
    Answer. The QDR is currently examining the roles and missions of 
the Services and their Reserve components. This assessment will produce 
recommendations regarding which capabilities should reside in the 
active and Reserve components. These recommendations will also address 
how those capabilities should be apportioned and resourced between the 
components. In addition to the QDR, each Service is conducting their 
own assessment to balance the capabilities between respective 
components. I would like to Reserve final judgment on this question 
until after having the opportunity to review the results of these 
assessments. Having said that, putting all or significant portions of 
any critical warfighting capability in the Reserve component is 
problematic for a ``long war'' scenario.
    Question. What should the focus of JFCOM be in ensuring that 
Reserve Forces are trained and ready to participate effectively in 
joint operations?
    Answer. Joint Forces Command and the Services should train Reserve 
Forces in the same manner that they train Active-Duty Forces. As 
experience over the last 4 years clearly demonstrates, our Reserve 
Forces operate with our Active-Duty Forces as an integral part of joint 
operations. Therefore, the training for Reserve Forces should prepare 
them to seamlessly participate effectively in joint operations. 
Currently, JFCOM conducts Mission Rehearsal Exercises for Reserve units 
in exactly the same manner as they do for the Active-Duty--and this 
should continue. This is also true with our senior leader training 
courses (Capstone, Keystone, and Pinnacle) and all aspects of joint 
training that occurs at Joint Forces Command.
    Question. The Department's Training Transformation Implementation 
Plan of June 10, 2003, provides that the Department's training program 
will benefit both the Active and Reserve components.
    If confirmed, how would you ensure that the Reserve and the 
National Guard benefit from the Joint National Training Capability, a 
key component of the Training Transformation Implementation Plan?
    Answer. JFCOM trains the Reserve Forces in exactly the same manner 
that they train our Active-Duty Forces--from senior leader courses such 
as Capstone and Keystone to mission rehearsal exercises. They are also 
actively engaged with the leaders of the Reserve components to ensure 
they have the fidelity and range architecture to integrate fully into 
the Joint National Training Capability.
    The Training Transformation Implementation Plan identifies the 
National Guard Bureau as participating in the development of several 
capability components. These include initiatives to improve training 
simulations and training range infrastructure, create a mission 
rehearsal and joint training capability, and develop a robust joint 
training research and development program. Under an active Memorandum 
of Understanding, JFCOM and the National Guard Bureau have pledged to 
work toward maximizing interoperability and commonality of both 
training infrastructure and capabilities. Near term efforts include an 
fiscal year 2006 plan to connect GuardNet, the National Guard's 
national network for distributed education and training, with the Joint 
Training and Experimentation Network (JTEN). This will enable the Guard 
to access the entire array of joint training tools such as the live, 
virtual, constructive training environment. Additionally, in January 
2006, JFCOM will become the Office of Primary Responsibility for the 
Joint Knowledge Development and Distribution Capability (JKDDC). JKDDC 
and JNTC are two of the three major initiatives that make up DOD's 
Training Transformation effort. As part of that action, JFCOM will ramp 
up the development and distribution of joint training courseware, 
redoubling our efforts to engage the National Guard in developing 
education products that will serve the joint training requirements of 
both the National Guard and Active-Duty Forces.

           SCHLESINGER PANEL FINDINGS ON DETENTION OPERATIONS

    Question. In August 2004, the Independent Panel to Review DOD 
Detention Operations, chaired by former Secretary of Defense James 
Schlesinger, concluded that ``CJTF-7 was never fully resourced to meet 
the size and complexity of its mission.'' The Schlesinger Panel found 
that the Joint Staff, U.S. CENTCOM, and CJTF-7 took ``too long'' to 
formally approve the Joint Manning Document (JMD) specifying the 
personnel requirements for CJTF-7 headquarters. This left CJTF-7 
headquarters at times with only about one-third the personnel 
authorized under the JMD.
    In your view, did CENTCOM and the Joint Staff take too long to 
ensure that CJTF-7 had the staff and resources it needed to carry out 
its mission, including the oversight of detention operations at Abu 
Ghraib?
    Answer. I assumed my duties as Deputy Commander at CENTCOM in late 
October 2003. As such, I had no personal involvement in the original 
sourcing decisions for the stand up of CJTF-7 which I understand 
occurred in May 2003. The Schlesinger Panel reported that the Joint 
Manning Document (JMD) for CJTF-7 was not finally approved until 
December 2003. Assuming those facts are correct, I agree that 6 months 
to validate the CJTF-7 JMD was too long. However, it is also likely 
true that mission and force requirements were adjusted during the 
period, and JMD requirements might therefore have been adjusted as 
well.
    Question. The Schlesinger Panel also found that: ``Once it became 
clear in the summer of 2003 that there was a major insurgency growing 
in Iraq, with the potential for capturing a large number of enemy 
combatants, senior leaders should have moved to meet the need for 
additional military police forces.'' The Schlesinger Panel criticized 
CENTCOM and JCS for failing to consider options for increasing the 
number of forces committed to the detention/interrogation operations in 
Iraq (including reallocating in-theater Army assets, transferring 
operational control other Service military police units in theater, or 
mobilizing and deploying additional forces from the continental United 
States).
    Do you agree with the Schlesinger Panel's opinion that ``more 
robust options should have been considered sooner''?
    Answer. The 800th MP Brigade's purpose was to fulfill the mission 
for which it was assigned. Brigade leadership was expected to fulfill 
its mission by adapting and utilizing soldiers trained to accomplish 
those mission requirements. As MG Taguba reported, the Commander of the 
800th MP Brigade did a poor job of allocating resources. In addition, 
that commander also did not train her soldiers in confinement 
operations after it became clear that her mission changed. Adapting to 
a changing mission is expected of commanders, especially senior 
commanders. In addition, staffing decisions at that time were, in large 
part, dictated by limitations in specific MP resources available, a 
fact the Army has recognized and is taking action to correct (see 
Schlesinger Panel Report, p. 17).
    Question. What is your understanding of the actions taken by senior 
leaders in CENTCOM to address JTF-7's requirements for detainee 
operations?
    Answer. I assume the time period in question is the summer of 2003. 
As I stated earlier, I assumed duties as Deputy Commander in October 
2003 so I have no firsthand knowledge of any actions taken. I 
understand, however, that LTG Sanchez has testified previously before 
this committee that he took corrective action to include an August 2003 
request for a comprehensive assessment of all detention operations in 
Iraq that was conducted by MG Ryder, the then Provost Marshall of the 
Army. I believe that Gen Abizaid also testified before this committee 
that he sent the CENTCOM Inspector General to Iraq in August 2003 to 
assess detention operations in the Iraq Theater of operations.
    Question. Do you believe that these actions were adequate?
    Answer. Given the context in which they occurred, yes, I believe 
these actions were adequate. In hindsight, it is clear that putting 
more resources against the problem could have helped the overall 
detainee situation.

                    STABILITY AND SUPPORT OPERATIONS

    Question. Operations in Iraq and Afghanistan have underscored the 
importance of planning and training for post-conflict stability and 
support operations. Increased emphasis has been placed on stability and 
support operations in planning and guidance in order to achieve the 
goal of full integration across all departmental activities.
    What is your assessment of the Department's current emphasis on 
planning for post-conflict scenarios?
    Answer. The Department has invested considerable emphasis on post-
conflict planning in the past few years. Of the four Joint Operating 
Concepts (JOC) approved by the Secretary of Defense and signed by the 
Chairman of the Joint Chiefs of Staff, one is dedicated exclusively to 
Stability Operations. I believe the most critical step in improving our 
post-conflict planning is the establishment and integration with a 
counterpart civilian planning capability in an interagency forum. Along 
these lines, I strongly support the establishment and the strengthening 
of the Office for the Coordinator for Reconstruction and Stabilization 
(S/CRS) within the Department of State. The DOD has assisted S/CRS in 
building their own planning processes as well as integrating them into 
the DOD's deliberate and crisis planning processes. These efforts, in 
Washington as well as with the combatant commanders, have worked to 
integrate stabilization and reconstruction operations into our 
operational plans and theater exercises. JFCOM, in particular, has 
fostered a personal relationship with Ambassador Pascual and has 
provided expertise to S/CRS, partnering with S/CRS concept development 
and experimentation events to develop their planning capacity and help 
elaborate their operational concepts. Similarly, Ambassador Pascual has 
contributed immensely to the work at JFCOM. This type of relationship 
should serve as a model for the DOD's work with all government agencies 
in an effort to improve its planning for post-conflict scenarios.
    The department is developing a directive concerning stability 
operations which will help integrate stability, security, transition, 
and reconstruction operations into our overall campaign planning 
efforts. The ongoing Quadrennial Defense Review, in which S/CRS is 
participating, is just one way we are reassessing our requirements to 
ensure we have the right mix of forces for the right missions, 
including security, stability, reconstruction, and transition 
operations.
    Question. What role should the Joint Staff play in implementing new 
directives in the areas of post-conflict planning and stability and 
support operations?
    Answer. As with most endeavors, the Joint Staff's primary role is 
to help the Chairman perform his assigned duties. Although it is 
statutorily restricted from directive authority over the Services and 
COCOMs, the Joint Staff is nevertheless uniquely positioned to provide 
to both of those bodies national level guidance in their creation of 
joint doctrine and plans. Planning for stability and reconstruction 
operations demands a particularly high level of U.S. Government 
interagency coordination. By virtue of its habitual interactions in the 
Washington, DC community, the Joint Staff (particularly within J-5) can 
define, open and reinforce staff-level lines of communication between 
COCOM planners and their appropriate U.S. Government interagency 
partners. The Joint Staff should help facilitate coordination between 
governmental agencies, such as the Office of the Coordinator for 
Reconstruction and Stabilization (S/CRS), the Services, and the 
combatant commanders and their staffs.
    Question. In your view, what is the appropriate relationship 
between the Department and other Federal agencies in the planning and 
conduct of stability and support operations in a post-conflict 
environment?
    Answer. Security, stability, transition, and reconstruction 
operations require the coherent application of diplomatic, information, 
military and economic elements of national power. Clearly, the military 
has a role to play in conjunction with partners inside the U.S. 
Government as well as Allies, international organizations, and 
nongovernmental organizations. The proper relationship between the DOD 
and other Federal agencies in planning and executing these operations 
vary with conditions on the ground. Several principles need to be 
considered and should be applied when able. First, the Command and 
Control arrangements need to be clear and understood by all parties. 
Second, the pragmatic application of the supported and supporting 
commander concept and the Lead Federal Agency concept can be very 
helpful and appropriate in this area. Finally, any relationship between 
DOD and other Federal agencies will require leaders who understand the 
capabilities each agency can bring to bear. For this reason, JFCOM has 
incorporated interagency topics and participants--as both fellows and 
presenters--in the vast majority of wargames and exercises as well as 
in Capstone, Pinnacle, and Keystone courses designed to prepare flag 
and general officers to lead Joint Task Forces in the execution of 
security, stability, transition, and reconstruction operations.
    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq and Afghanistan?
    Answer. U.S. Joint Forces Command has undertaken a robust and 
dynamic lessons-learned mission to actively work on the lessons--at the 
joint operational level--from our ongoing operations. This has resulted 
in an extremely rich set of insights, observations and analyses. JFCOM 
has provided many of these products to Congress in previous testimony 
and briefings to congressional staff members. I believe detailed 
briefings such as these would be useful to provide the necessary 
context and detail which these issues require.
    Joint Forces Command has learned several key lessons about 
security, stability, transition, and reconstruction operations. First, 
in these types of environments, the time between acquiring intelligence 
and conducting operations must be as close as possible. Agile 
operations require actionable intelligence--and the best way to achieve 
that is through HUMINT collection. Second, there is enormous value in 
the ability to maintain persistent surveillance over desired areas. Our 
current capabilities only allow us to maintain surveillance for finite 
periods of time over limited areas. Persistent surveillance allows us 
to better track changes in the environment and to track high-value 
targets. Third, the value of detailed, adaptive and collaborative 
planning is essential. Our successes were enabled by detailed planning; 
our shortcomings usually occurred in areas where planning efforts or 
expertise was lacking. Fourth, our military commanders need money they 
can immediately spend--as much as or more than they need bullets and 
guns--as a key tool to jump start reconstruction efforts. Fifth, we 
need to ensure the right balance of capabilities (such as Civil Affairs 
units) between Active and Reserve components because their immediate 
engagement and long-term sustainment are critical. Sixth, collaborating 
with Allies is essential and requires considerable effort. Seventh, our 
ability to communicate with the civilian population--the center of 
gravity in these operations--needs to be enabled with linguists, 
communications, media, and an effective strategic communications 
capability. Eighth, the need for integrated interagency planning and 
execution requires an effective Joint Interagency Coordination Group. 
These are some of the many lessons we have learned, and are acting on, 
in our execution of stability, security, transition, and reconstruction 
operations. I would offer more detailed briefings as requested by 
Congress.

                      JOINT EXPERIMENTATION BUDGET

    Question. The Services cumulatively spend about $500 million per 
year on experimentation. The JFCOM budget for joint experimentation for 
fiscal year 2006 is approximately $109 million.
    Are these amounts for joint experimentation adequate to ensure the 
effective integration and interoperability of our future forces?
    Answer. JFCOM has had multiple successes with their experimentation 
program that are being used by joint warfighters. However, given the 
global, rapidly changing asymmetrical threat and the speed at which we 
are finding ourselves required to identify and provide solutions to the 
field, these resources may need to be increased. If confirmed I would 
like to assess the adequacy of funding and provide that answer back to 
you.
    Question. What is the appropriate role for JFCOM in determining how 
the respective services should invest their experimentation dollars?
    Answer. The UCP assigns JFCOM the responsibility to lead joint 
concept development and experimentation (CDE) and coordinate the CDE 
efforts of the Services, combatant commands, and defense agencies to 
support joint interoperability and future joint warfighting 
capabilities. The Commander of JFCOM is also tasked with leading the 
development, exploration, and integration of new joint warfighting 
concepts and serving as the DOD Executive Agent for joint warfighting 
experimentation. This does not necessarily require strict JFCOM control 
of how Services invest their experimentation dollar, but does require a 
clear communication of the planned activities of Service 
experimentation and the ability to develop a common vision of the 
course of experimentation with the CJCS and Joint Chiefs. Services can 
then exercise their appropriate fiscal authorities under title 10, 
guided by that common vision of the course of experimentation.

                          NATO TRANSFORMATION

    Question. NATO officials have acknowledged that transformation 
means changing NATO thinking, organization, and culture by adopting new 
structures, improving training methods, adopting doctrine and educating 
leaders. The NATO Response Force has been identified as a key element 
in NATO's transformation progress.
    What role is the NATO Rapid Response Force playing in facilitating 
modernization and transformation of NATO forces?
    Answer. The NATO Response Force (NRF) is NATO's primary vehicle for 
transformation, paving the way for transformed NATO forces in all 26 
NATO nations. Besides establishing itself a highly-credible force for 
real-world expeditionary military operations across the full spectrum 
of military operations, it is NATO's operational test-bed for 
transformation. The rotation of NRF forces will facilitate 
modernization and transformation of all NATO forces throughout the 
Alliance. The NRF is the vehicle by which NATO military forces will 
exercise all aspects of joint and multinational interoperability to 
include doctrinal and cultural change. Lastly, the NRF will also 
facilitate experimentation efforts aimed at providing improved 
capabilities to the warfighters.
    Question. When will the NATO Response Force achieve full 
operational capability?
    Answer. The NRF will achieve Full Operational Capability not later 
than 30 Oct 2006.
    Question. What success has Supreme Allied Commander Transformation 
achieved in bringing about transformational change to NATO forces and, 
if confirmed, what would be your most significant challenges in this 
role?
    Answer. The Alliance has achieved remarkable success towards its 
goal of military transformation. Specifically,

        <bullet> Working with the Supreme Allied Commander Europe, 
        Allied Command Transformation (ACT) delivered the Bi-Strategic 
        Commander's Strategic Vision which describes how NATO should 
        conduct operations in the future and the concomitant required 
        Alliance future military capabilities. The first document of 
        its kind in NATO.
        <bullet> Working with United States Joint Forces Command, ACT 
        has greatly expanded NATO's concept, development and 
        experimentation efforts which are critical to furthering the 
        development of transformational capabilities.
        <bullet> ACT has issued the most comprehensive Defense 
        Requirements Review to date and, at their request, ACT has 
        reviewed the National Defense Plans and Reform efforts of 
        several Alliance nations.
        <bullet> ACT's Joint Warfare Centre has improved NATO mission 
        performance through Joint Task Force Headquarters Training for 
        all NATO-led International Security Assistance Force 
        Headquarters and all NATO Response Force Headquarters.
        <bullet> ACT has responded to emerging operational demands such 
        as NATO's Training Mission in Iraq by providing key support to 
        Allied Command Operations.
        <bullet> Through concept development, defense planning, and 
        capability development efforts, operational level battle staff 
        training and a broad array of complementary efforts, ACT is 
        establishing itself as the hub of military transformation in 
        the Alliance.

    If I assume the role as Supreme Allied Commander Transformation, I 
anticipate that my main challenges will be 1) delivering timely 
transformational products to Allied Command Operations and the Allied 
Nations that improve and transform our military forces, 2) advancing a 
clear understanding throughout the Alliance of military transformation 
and ACT's role in the process; and 3) working with the Allied Nations 
to adopt and fund transformation requirements.

  RESPONSES TO WMD THREATS AND NATURAL DISASTERS IN THE UNITED STATES.

    Question. Deficiencies in the responses of Federal, State, and 
local agencies to Hurricane Katrina have generated debate about the 
appropriate role for military forces in responding to national crises.
    What do you see as the appropriate role for Commander, JFCOM; 
Commander, U.S. Northern Command (NORTHCOM); and the Governors and 
Adjutant Generals of each state and territory in responding to weapons 
of mass destruction (WMD) threats within the United States?
    Answer. Even though an event occurs within the United States, JFCOM 
retains its supporting role to NORTHCOM as the Joint Force Provider, 
Joint Force Integrator, and Joint Force Trainer. As such, JFCOM has a 
responsibility to be able to provide properly organized, trained, and 
equipped Joint forces to NORTHCOM to deal with any level of WMD event 
within the United States.
    NORTHCOM, as the geographic combatant commander for North America 
(minus Hawaii), is responsible for the effective employment of forces 
provided by JFCOM. This should include all pre-event exercises, 
planning, and organization of any Joint Task Force Headquarters that 
the provided forces would fall in on.
    In a WMD event, the Governors and the Adjutant Generals exercise 
their responsibilities to provide the logical connection between local 
first responders and outside Federal responders. For a large area, 
complex event, they coordinate the response of the local incident and 
area commanders and coordinate other States involved. Prior to an 
event, they have a responsibility to ensure local plans are nested 
within larger State plans which are in turn compatible with Federal 
plans, and seek opportunities to validate these plans through rigorous 
exercises. After an event occurs, they have the critical responsibility 
of providing the initial assessment of the situation and timely 
recommendations for the employment of Federal support.
    Question. What is the appropriate role and response for active-duty 
military forces in responding to natural and manmade disasters not 
involving WMD threats within the United States?
    Answer. Military forces bring extensive planning and process skills 
as well as robust communications capabilities that can be invaluable in 
helping jump-start a domestic humanitarian assistance/disaster relief 
effort. The active-duty military possesses unique capabilities and the 
ability to surge them quickly on short notice to an affected disaster 
area. Providing these capabilities when directed by appropriate 
civilian authorities within applicable laws and policy is the 
appropriate role for the active-duty military forces. The specific role 
of active-duty military forces and the trigger to employ them should be 
based on the severity of the event and the assessed impact on American 
citizens, not what caused it.
    Question. Hurricane Katrina has demonstrated the importance of 
joint and interagency training in preparation for support disaster 
operations.
    In your view, how could JFCOM influence joint and interagency 
training to enable better coordination for natural disasters 
operations?
    Answer. As the Joint Force Trainer, JFCOM is responsible for 
conducting two exercises per regional Combatant Commander per year, 
plus all Mission Rehearsal Exercises for deploying Joint Task Force 
Headquarters. While these exercises have been primarily Joint in the 
past, there is already a robust Interagency component to most of them.
    In the light of the events of Katrina, if confirmed, I will direct 
JFCOM to seek increased interagency participation in these exercises, 
from the local, State, and Federal levels. Additionally, JFCOM can 
bring to bear the full capabilities of military modeling and simulation 
to provide an unparalleled realistic training environment on a scale 
which normally would not be available to other interagency players in 
Homeland Defense.

            WEAPONS OF MASS DESTRUCTION--CIVIL SUPPORT TEAMS

    Question. What role do you believe JFCOM should play in the 
training, assessment of readiness, and employment of the Weapons of 
Mass Destruction--Civil Support Teams?
    Answer. Weapons of Mass Destruction--Civil Support Teams are a 
National Guard Asset. As such, they are trained as all other National 
Guard units with the assistance of the Training Support Divisions. 
Through this process, 32 of 55 Civil Support Teams have already been 
certified. If the review of the Katrina response dictates a greater 
role for JFCOM in this process, then the components of JFCOM, in 
conjunction with Joint Forces Special Operations Command, should take 
the lead in developing doctrine for and training of WMD-Civil Support 
Teams. This would be consistent with the manner in which JFCOM provides 
similarly trained Civil Affairs Teams for Iraq and Afghanistan.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, JFCOM/Supreme 
Allied Commander Transformation?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Question Submitted by Senator James M. Inhofe

                    FUTURE JOINT WARFIGHTING CONCEPT

    1. Senator Inhofe. General Smith, it my understanding that one of 
the primary roles of Joint Forces Command (JFCOM) is to identify the 
future joint warfighting concepts. It also provides a place for joint 
experimentation and possibly exercises. As you assess JFCOM from the 
outside, what do you see as areas where JFCOM could improve? In other 
words, where could JFCOM help the combatant commanders and the Joint 
Staff more?
    General Smith. Based on my experiences in Korea and CENTCOM, I 
think JFCOM has done a very good job in developing future joint war 
fighting concepts and supporting the Combatant Commanders in their 
experimentation and exercise needs. This is a continuously developing 
requirement with many expanding opportunities. There are two specific 
areas where JFCOM's initial efforts are starting to pay dividends, but 
which will require continued emphasis and resources.
    First, additional strides are being made in broadening and 
deepening coalition and interagency participation into the development 
of current and future stability operations and war fighting concepts 
and capabilities. JFCOM holds a unique position in our Defense 
Department due to its ability to bridge across an exceptionally diverse 
community of U.S. and foreign militaries, government agencies, private 
sector organizations, industry, academia, and a host of powerful 
knowledge centers. This will ensure we most effectively leverage 
coalition and interagency contributions and collaboratively develop 
interoperable capabilities.
    A second area where great progress is being made to provide 
combatant commanders and the Joint Staff additional capabilities is in 
the modeling and simulation area. Technology now allows us to better 
simulate realistic operating conditions for both exercises and 
experiments that will improve the Department's ability to deliver 
capabilities the combatant commanders require in a timely and efficient 
manner.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                    CAPABILITIES GAP IN NATO FORCES

    2. Senator Akaka. General Smith, what are your views on the gap in 
capabilities between U.S. and our NATO allies? Is there a problem, and 
if so, is it getting better or worse?
    General Smith. Most NATO Allies, with smaller militaries with 
substantially less resources and funding, cannot match the U.S. 
military step for step in capabilities. However, this is not the sole 
measure of whether NATO Allies can effectively train, exercise and 
deploy in operations with the U.S. and the Alliance as a whole. A focus 
of Allied Command Transformation is to work with nations so that their 
resources and funding are used in a way that ensures these militaries 
are more capable, usable, interoperable and deployable. This is at the 
heart of the NATO Response Force, a capability currently in development 
within NATO.
    While there is a significant capability gap, there is not a 
significant technology gap. This goes to the heart of interoperability. 
Because many NATO countries are smaller and have fewer resources, the 
development of niche capabilities that can fill shortfalls in the 
Alliance is critical. Because not every member of the Alliance has the 
capability to handle all aspects of every NATO mission, what is 
important is that the Alliance as a whole can produce these 
capabilities--and that they can be integrated and made interoperable. 
ACT will continue to lead the way in bringing coherence to future 
concepts and capabilities for NATO. The co-location of this relatively 
new and increasingly important NATO Transformation Command with JFCOM 
has already proven to be an invaluable resource to the militaries of 
all NATO countries, including the United States. The JFCOM-ACT 
partnership is enormously important and mutually beneficial as we 
develop future concepts and capabilities leveraging our combined 
capabilities.
    As for the gaps themselves, the situation is getting better, not 
worse. As NATO's expeditionary missions continue to mount, most 
recently the training and exercises conducted for the African Union in 
Sudan, our Allies continue to see the value in transformation. More 
importantly, many of them are fundamentally changing the way their 
militaries have done business in the past, so that they can better meet 
future challenges. As quickly as possible, we must continue to 
transform and posture our collective capabilities to counter new 
threats and to leverage new capabilities as we counter global terrorism 
which challenges the security of nations throughout the world.

                         ROLE OF JFCOM TRAINING

    3. Senator Akaka. General Smith, what do you see as the proper role 
for JFCOM in the training of our forces, which is still primarily a the 
title 10 responsibility of the Services?
    General Smith. JFCOM has a very important joint training role as 
outlined in the President's 2004 Unified Command Plan. In this 
capacity, JFCOM is responsible to the CJCS to serve as the lead agent 
for joint force training. These responsibilities include:

        <bullet> Supporting other combatant commanders, Combat Support 
        Agencies (CSAs), and National Guard Bureau (NGB) in their 
        implementation of the Chairman's Joint Training Policy and 
        Guidance and the execution of their joint training programs;
        <bullet> Managing the combatant commanders' portion of the CJCS 
        exercise program;
        <bullet> Conducting and assessing joint and multinational 
        training and exercises for assigned forces;
        <bullet> Assisting the CJCS, other combatant commanders, and 
        Service Chiefs in their preparations for joint and combined 
        operations;
        <bullet> Establishing joint training programs for assigned 
        forces that produce joint staffs and joint force packages 
        capable of accomplishing common mission essential tasks to 
        standards established by the combatant commanders who may 
        employ them;
        <bullet> Providing joint training for and/or assistance with 
        the joint training of combatant commander battle staffs, joint 
        task force (JTF) headquarters (HQ) staffs, and JTF functional 
        component commanders and their staffs;
        <bullet> Designing standardized joint training processes and 
        programs for JTF HQ and functional component joint training 
        events in support of geographic combatant commander 
        requirements;
        <bullet> Conducting joint and supporting component 
        interoperability training of assigned forces;
        <bullet> Annually assessing the effectiveness of Joint training 
        and the JFCOM joint training program for assigned forces, 
        reporting the results of that assessment to the CJCS;
        <bullet> Coordinating and scheduling joint training events for 
        assigned forces, as well as deconflicting the participation of 
        forces in worldwide joint training events in support of 
        combatant commander'srequirements; and
        <bullet> Coordinating and providing consequence management 
        support for combatant command training events and exercises.

    Based on my experience in Korea and at CENTCOM, I think JFCOM's 
role is focused on the proper areas of joint training. JFCOM's joint 
mission rehearsal program, which now also incorporates Joint National 
Training Capabilities, interagency and multinational participation is 
an excellent example of the invaluable joint training service JFCOM 
provided to CENTCOM.

    4. Senator Akaka. General Smith, is JFCOM doing too little or too 
much to guide joint training, or are you satisfied with the current 
system?
    General Smith. I am satisfied with the current system; however, 
there are important initiatives which must be further developed.
    First, continuing to work hard to bring the Joint National Training 
Capability to Full Operating Capability.
    Second, continuing partnership with the Joint Staff, Services, and 
combatant commands to more fully develop and implement the readiness 
and training standards needed to certify Joint Task Force Headquarters.
    Third, establishing a coherent framework for Joint Force Trainer 
capability development requirements (warfighter training, education and 
learning) under an integrated Center of Excellence.
    Finally, establishing a common, transparent, and uniformly 
accountable business model for all of the joint training programs that 
incentivizes Services to conduct their training requirements in a joint 
training venue. This new business model is being considered in the QDR 
discussion as a means to enhance our Joint Capabilities by improving 
Joint Training and Education.
                                 ______
                                 
    [The nomination reference of Lt. Gen. Lance L. Smith, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 19, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General

    Lt. Gen. Lance L. Smith, 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. Lance L. Smith, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Biographical Sketch of Lt. Gen. Lance L. Smith, USAF
    Lt. Gen. Lance L. Smith is Deputy Commander, U.S. Central Command, 
MacDill Air Force Base, FL.
    The general entered the Air Force in 1970 after completing Officer 
Training School. He commanded two fighter wings and led two air 
expeditionary force deployments to Southwest Asia: AEF III and the 4th 
Air Expeditionary Wing. He served as the Commander of 7th Air Force, 
Pacific Air Forces; Air Component Commander, ROK and U.S. Combined 
Forces Command Korea; and Deputy Commander U.S. Forces Korea. The 
general also served two tours at the Pentagon and was Commandant of the 
NATO School at Supreme Headquarters Allied Powers Europe, Commandant of 
Air War College and Commander of the Air Force Doctrine Center.
    General Smith flew more than 165 combat missions in Southeast and 
Southwest Asia in the A-1 Skyraider and the F-15E Strike Eagle. A 
command pilot, he has more than 3,000 hours in the T-33, T-37, T-38, A-
1, A7, A-10, F-111F, F-15E, and F-16.

Education:

1969......................................  Bachelor of Arts degree in
                                             business management,
                                             Virginia Polytechnic
                                             Institute, Blacksburg
1978......................................  Master of Arts degree in
                                             business management,
                                             Central Michigan
                                             University, Mount Pleasant
1982......................................  Air Command and Staff
                                             College, Maxwell Air Force
                                             Base, AL
1990......................................  Army War College, Carlisle
                                             Barracks, PA
1994......................................  Advanced Executive Program,
                                             J.L. Kellogg Graduate
                                             School of Management,
                                             Northwestern University,
                                             Evanston, IL.
 

Assignments:

June 1970-June 1971.......................  Student, undergraduate pilot
                                             training, Columbus AFB, MS.
June 1971-September 1971..................  A-1 combat crew training,
                                             Hurlburt Field, FL.
October 1971-October 1972.................  A-1 pilot, 1st Special
                                             Operations Squadron, Nakhon
                                             Phanom Royal Thai AFB,
                                             Thailand.
October 1972-July 1973....................  Instructor pilot training,
                                             Randolph AFB, TX.
July 1973-September 1977..................  Instructor pilot and chief,
                                             check section, 96th Flying
                                             Training Squadron, Williams
                                             AFB, AZ.
September 1977-January 1979...............  Staff officer, Air Staff
                                             Training Program, Deputy
                                             Chief of Staff for
                                             Personnel, the Pentagon,
                                             Washington, DC.
January 1979-August 1981..................  Student, A-7 Corsair
                                             conversion training, A-7D
                                             aircraft commander, flight
                                             commander and assistant
                                             operations officer, 76th
                                             Tactical Fighter Squadron,
                                             England AFB, LA.
August 1981-June 1982.....................  Student, Air Command and
                                             Staff College, Maxwell AFB,
                                             AL.
June 1982-July 1986.......................  Air Staff Officer, Deputy
                                             Chief of Staff for Plans
                                             and Operations; Project
                                             Checkmate analyst for
                                             interdiction, Europe and
                                             Southwest Asia; Air Force
                                             team chief, Joint
                                             Assessment and Initiative
                                             Office, and executive
                                             officer to the Air Force
                                             Director of Operations, the
                                             Pentagon, Washington, DC.
July 1986-July 1989.......................  Chief of Safety, later,
                                             Assistant Deputy Commander
                                             for Operations, 354th
                                             Tactical Fighter Wing,
                                             Myrtle Beach AFB, SC.
July 1989-June 1990.......................  Student, Army War College,
                                             Carlisle Barracks, PA.
June 1990-August 1992.....................  Commandant, NATO School,
                                             SHAPE, Oberammergau,
                                             Germany.
August 1992-September 1993................  Vice Commander, later,
                                             Commander, 27th Fighter
                                             Wing, Cannon AFB, NM.
September 1993-June 1995..................  Assistant Director of
                                             Operations, Headquarters
                                             Air Combat Command, Langley
                                             AFB, VA.
June 1995-July 1997.......................  Commander, 4th Fighter Wing,
                                             Seymour Johnson AFB, NC.
July 1997-August 1998.....................  Vice Commander, 7th Air
                                             Force and U.S. Air Forces
                                             Korea, and Chief of Staff,
                                             Combined Republic of Korea
                                             and U.S. Air Component
                                             Command, Osan Air Base,
                                             South Korea.
September 1998-December 1999..............  Commandant, Air War College,
                                             and Vice Commander, Air
                                             University, Maxwell AFB,
                                             AL.
December 1999-November 2001...............  Commander, Air Force
                                             Doctrine Center, Maxwell
                                             AFB, AL.
November 2001-October 2003................  Deputy Commander, United
                                             Nations Command; Deputy
                                             Commander, U.S. Forces
                                             Korea; Commander, Air
                                             Component Command, Republic
                                             of Korea and U.S. Combined
                                             Forces Command; and
                                             Commander, 7th Air Force,
                                             Pacific Air Forces, Osan
                                             AB, South Korea.
October 2003-present......................  Deputy Commander, U.S.
                                             Central Command, MacDill
                                             AFB, FL.
 


Flight information:
    Rating: Command pilot.
    Flight hours: More than 3,000.
    Aircraft flown: T-33, T-37, T-38, A-1, A-7, A-10, F-111 F, F-15E, 
and F-16.

Major awards and decorations:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Silver Star with two oak leaf clusters
    Defense Superior Service Medal
    Legion of Merit with oak leaf cluster
    Distinguished Flying Cross with two oak leaf clusters
    Purple Heart
    Meritorious Service Medal with three oak leaf clusters
    Air Medal with one silver and four bronze oak leaf clusters
    Aerial Achievement Medal with oak leaf cluster
    Air Force Commendation Medal
    Army Commendation Medal
    Humanitarian Service Medal
    Honor Cross of the Bundeswehr Medal (Republic of Germany)
    Order of National Security Merit Gukseon Medal (Republic of Korea)
    Order of National Security Merit Cheonsu Medal (Republic of Korea)
    Republic of Vietnam Gallantry Cross with Palm

Effective dates of promotion:

Second Lieutenant....................................       May 18, 1970
First Lieutenant.....................................      Nov. 11, 1971
Captain..............................................      Oct. 18, 1973
Major................................................       Dec. 4, 1978
Lieutenant Colonel...................................       Feb. 1, 1982
Colonel..............................................       July 1, 1989
Brigadier General....................................       July 1, 1995
Major General........................................      April 1, 1998
Lieutenant General...................................       Jan. 1, 2002
 

                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Lt. Gen. Lance 
L. Smith, USAF, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Lance L. Smith.

    2. Position to which nominated:
    Commander, U.S. Joint Forces Command and Supreme Allied Commander 
Transformation.

    3. Date of nomination:
    October 19, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 18, 1946; Akron, Ohio.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Buddenhagen Smith.

    7. Names and ages of children:
    Scott A. Smith; age 36.
    Rustin L. Smith; age 31.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Air Force Association.
    Order of Daedalians.
    A-1 Skyraiders Association.
    Red River Rats Association.
    Armed Forces Benefit Association.
    MOAA.
    Virginia Tech Athletic Association (Hokie Club).

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Lance L. Smith.
    This 22nd day of August, 2005.

    [The nomination of Lt. Gen. Lance L. Smith, USAF, was 
reported to the Senate by Chairman Warner on October 27, 2005, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on October 28, 2005.]


     TO CONSIDER CERTAIN PENDING MILITARY AND CIVILIAN NOMINATIONS

                              ----------                              


                       THURSDAY, OCTOBER 27, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:57 a.m. in room 
SR-222, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Roberts, 
Collins, Talent, Chambliss, Cornyn, Thune, Levin, Lieberman, 
Reed, Akaka, E. Benjamin Nelson, and Dayton.
    Committee staff members present: Charles S. Abell, staff 
director; Marie Fabrizio Dickinson, chief clerk; Cindy Pearson, 
assistant chief clerk and security manager; and Leah C. Brewer, 
nominations and hearings clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Sandra E. Luff, professional staff 
member; Lynn F. Rusten, professional staff member; Robert M. 
Soofer, professional staff member; Scott W. Stucky, general 
counsel; Kristine L. Svinicki, professional staff member; and 
Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Gabriella Eisen, research assistant; 
Evelyn N. Farkas, professional staff member; Richard W. 
Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Bridget W. Higgins, research 
assistant; Gerald J. Leeling, minority counsel; Peter K. 
Levine, minority counsel; and Michael J. McCord, professional 
staff member.
    Staff assistant present: Benjamin L. Rubin.
    Committee members' assistants present: Arch Galloway II, 
assistant to Senator Sessions; Mackenzie M. Eaglen, assistant 
to Senator Collins; D'Arcy Grisier, assistant to Senator 
Ensign; Lindsey R. Neas, assistant to Senator Talent; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Meredith Beck, 
assistant to Senator Graham; Russell J. Thomasson and Stuart C. 
Mallory, assistants to Senator Cornyn; Mieke Y. Eoyang, 
assistant to Senator Kennedy; Erik Raven, assistant to Senator 
Byrd; Frederick M. Downey, assistant to Senator Lieberman; 
Elizabeth King, assistant to Senator Reed; Darcie Tokioka, 
assistant to Senator Akaka; William K. Sutey, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Todd Rosenblum, assistant to Senator Bayh; and Andrew 
Shapiro, assistant to Senator Clinton.
    Chairman Warner. We have a quorum and we very much need to 
get some nominations out. Would you withhold?
    Senator Levin. Of course.
    Chairman Warner. With a quorum now present, I ask the 
committee to consider 7 civilian nominations and 788 pending 
military noms. In the interest of time, I would ask if there is 
any objection to the committee considering en bloc our civilian 
and military nominees whose names are on the list provided to 
each Senator, which I now read. [No response.]
    There being no objection--did everyone get the list over 
here? See the list on the back? Do I need to read it?
    Senator Levin. No.
    Chairman Warner. All right, fine.
    There being no objection, I ask the committee to consider 
the nominations of:

          Michael W. Wynne to be Secretary of the Air Force;
          Dr. Donald C. Winter to be Secretary of the Navy;
          John G. Grimes to be Assistant Secretary of Defense 
        for Networks and Information Integration;
          William C. Anderson to be Assistant Secretary of the 
        Air Force for Installations and Environment;
          John J. Young, Jr., to be Director, Defense Research 
        and Engineering;
          Dr. Delores M. Etter to be Assistant Secretary of the 
        Navy for Research, Development, and Acquisition;
          Dr. A.J. Eggenberger to be a member of the Defense 
        Nuclear Board;
          General Burwell B. Bell III, U.S. Army, for 
        reappointment as a general and assignment as Commander, 
        United Nations Command, Combined Forces Command, and 
        U.S. Forces Korea;
          Lieutenant General Lance L. Smith, U.S. Air Force, 
        for appointment as a general and assignment as 
        Commander, U.S. Forces Command, and Supreme Allied 
        Commander for Transformation; and
          A list of 785 military nominations. All of these 
        nominations have been before the committee the required 
        length of time and no objections have been raised 
        regarding them.

    Is there a motion to favorably report out these civilian 
and military nominations?
    Senator Levin. So moved.
    Chairman Warner. Second?
    Senator Dayton. Second.
    Chairman Warner. All in favor say aye. [A chorus of ayes.]
    Opposed? [No response.]
    I thank you, colleagues.
    [The list of nominations considered and approved by the 
committee follows:]
    Civilian and Military Nominations Pending with the Senate Armed 
Services Committee Which are Proposed for the Committee's Consideration 
                          on October 27, 2005
    1. Michael W. Wynne, of Florida, to be Secretary of the Air Force 
(Reference No. 803).
    2. Donald C. Winter, of Virginia, to be Secretary of the Navy 
(Reference No. 804).
    3. John G. Grimes, of Virginia, to be Assistant Secretary of 
Defense for Networks and Information Integration (Reference No. 640).
    4. William Anderson, of Connecticut, to be Assistant Secretary of 
the Air Force for Installations and Environment (Reference No. 553).
    5. John J. Young, Jr., of Virginia, to be Director of Defense 
Research and Engineering (Reference No. 768).
    6. Delores M. Etter, of Maryland, to be Assistant Secretary of the 
Navy for Research, Development, and Acquisition (Reference No. 805).
    7. A.J. Eggenberger, of Montana, to be a Member of the Defense 
Nuclear Facilities Safety Board for a term expiring October 18, 2008 
(reappointment) (Reference No. 674).
    8. General Burwell B. Bell III, USA, to be general and Commander, 
United Nations Command and Republic of Korea/United States Combined 
Forces Command Commander, United States Forces Korea (Reference No. 
829).
    9. Lieutenant General Lance L. Smith, USAF, to be general and 
Commander, U.S. Joint Forces Command and Supreme Allied Commander for 
Transformation (Reference No. 1001).
    Total: 9.
                                 ______
                                 
 Military Nominations Pending with the Senate Armed Services Committee 
  which are Proposed for the Committee's Consideration on October 27, 
                                  2005
    1. Major General Michael W. Peterson, USAF, to be lieutenant 
general and Chief, Warfighting Integration and Chief Information 
Officer (Reference No. 643).
    2. Lieutenant General William T. Hobbins, USAF, to be general and 
Commander, US Air Forces Europe/Commander, Air Force Component, 
Ramstein/Director, Joint Air Power Competency Center (Reference No. 
798).
    3. In the Army Reserve there are 31 appointments to the grade of 
brigadier general (list begins with Daniel B. Allyn) (Reference No. 
835).
    4. MG Michael D. Maples, USA, to be lieutenant general and 
Director, Defense Intelligence Agency (Reference No. 929).
    5. In the Air Force Reserve there are 19 appointments to the grade 
of major general and below (list begins with Eugene R. Chojnacki) 
(Reference No. 958).
    6. In the Army Reserve there are 4 appointments to the grade of 
major general and below (list begins with Thomas D. Robinson) 
(Reference No. 959).
    7. RADM Patrick M. Walsh, USN, to be vice admiral and Commander, 
U.S. Naval Forces, Central Command and Commander, FIFTH Fleet 
(Reference No. 960).
    8. In the Air Force Reserve there is one appointment to the grade 
of colonel (John S. Baxter) (Reference No. 961).
    9. In the Army Reserve there is one appointment to the grade of 
colonel (Jose R. Rael) (Reference No. 962).
    10. In the Army Reserve there are two appointments to the grade of 
colonel (list begins with Suzanne R. Avery) (Reference No. 963).
    11. In the Army Reserve there are four appointments to the grade of 
colonel (list begins with Donna J. Dolan) (Reference No. 964).
    12. In the Army Reserve there are 21 appointments to the grade of 
colonel (list begins with Paul F. Abbey) (Reference No. 965).
    13. In the Army Reserve there are 35 appointments to the grade of 
colonel (list begins with Paul S. Astphan) (Reference No. 966).
    14. In the Army Reserve there are 39 appointments to the grade of 
colonel (list begins with Lynn S. Alsup) (Reference No. 967).
    15. In the Army Reserve there are 66 appointments to the grade of 
colonel (list begins with James W. Agnew) (Reference No. 968).
    16. In the Marine Corps there is 1 appointment to the grade of 
major (Darren W. Milton) (Reference No. 969).
    17. In the Marine Corps there are 77 appointments to the grade of 
major (list begins with Christopher J. Aaby) (Reference No. 970).
    18. In the Navy there is one appointment to the grade of captain 
(William D. Fuson) (Reference No. 971).
    19. In the Navy there are 429 appointments to the grade of captain 
(list begins with Daniel Albrecht) (Reference No. 972).
    20. In the Navy there is one appointment to the grade of commander 
(James S. Thompson) (Reference No. 973).
    21. In the Navy there are six appointments to the grade of 
lieutenant commander (list begins with James F. Brinkman) (Reference 
No. 974).
    22. BGEN Michael J. Diamond, USAR, to be major general (Reference 
No. 989).
    23. In the Air Force Reserve there is one appointment to the grade 
of colonel (Christopher Sartori) (Reference No. 991).
    24. In the Air Force there are seven appointments to the grade of 
lieutenant colonel and below (list begins with Suzanne M. Cecconi) 
(Reference No. 992).
    25. In the Air Force there is one appointment to the grade of major 
(Melissa A. Saragosa) (Reference No. 993).
    26. In the Army there is one appointment to the grade of lieutenant 
colonel (Deborah Whitmer) (Reference No. 997).
    27. In the Army there are four appointments to the grade of major 
(list begins with Steven C. Henricks) (Reference No. 998).
    28. In the Army there are 29 appointments to the grade of colonel 
and below (list begins with Gary L. Gross) (Reference No. 1002).
    Total: 786.
                                 ______
                                 
    [The nomination reference of Michael W. Wynne follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 6, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael W. Wynne, of Florida, to be Secretary of the Air Force, 
vice James G. Roche.
                                 ______
                                 
    [The nomination reference of Donald C. Winter follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 6, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Donald C. Winter, of Virginia, to be Secretary of the Navy, vice 
Gordon England.
                                 ______
                                 
    [The nomination reference of John G. Grimes follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 16, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John G. Grimes, of Virginia, to be an Assistant Secretary of 
Defense, vice John P. Stenbit.
                                 ______
                                 
    [The nomination reference of William Anderson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 26, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William Anderson, of Connecticut, to be an Assistant Secretary of 
the Air Force, vice Nelson F. Gibbs.
                                 ______
                                 
    [The nomination reference of John J. Young, Jr., follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 28, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John J. Young, Jr., of Virginia, to be Director of Defense Research 
and Engineering, vice Ronald M. Sega.
                                 ______
                                 
    [The nomination reference of Delores M. Etter follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 6, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Delores M. Etter, of Maryland, to be an Assistant Secretary of the 
Navy, vice John J. Young.
                                 ______
                                 
    [The nomination reference of A.J. Eggenberger follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 29, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    A.J. Eggenberger, of Montana, to be a member of the Defense Nuclear 
Facilities Safety Board for a term expiring October 18, 2009. 
(Reappointment)
                                 ______
                                 
    [The nomination reference of GEN Burwell B. Bell III, USA, 
follows:]
                    Nomination Reference and Report
                               Senate of the United States,
                                                 September 6, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General

    GEN Burwell B. Bell III, USA, 0000.
                                 ______
                                 
    [The nomination reference of Lt. Gen. Lance L. Smith, USAF, 
follows:]
                    Nomination Reference and Report
                               Senate of the United States,
                                                  October 19, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General

    Lt. Gen. Lance L. Smith, 0000.

    [Whereupon, at 10 a.m., the committe adjourned and 
proceeded to other business.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts, and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20----.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS

                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20----.

                                 <all>
      

</pre></body></html>
